<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-284]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 109-284

                                                        Senate Hearings

                                 Before the Committee on Appropriations

_______________________________________________________________________


Departments of Labor,

Health and Human Services,

Education, and Related

Agencies Appropriations

                                                      Fiscal Year 2006

                                         109th CONGRESS, FIRST SESSION

                                                             H.R. 3010


        CORPORATION FOR PUBLIC BROADCASTING
        DEPARTMENT OF EDUCATION
        DEPARTMENT OF HEALTH AND HUMAN SERVICES
        DEPARTMENT OF LABOR
        NONDEPARTMENTAL WITNESSES

                                                        S. Hrg. 109-284
 
DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
              AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   on

                               H.R. 3010

 AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENTS OF LABOR, HEALTH AND 
  HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES, FOR THE FISCAL 
         YEAR ENDING SEPTEMBER 30, 2006, AND FOR OTHER PURPOSES

                               __________


                  Corporation for Public Broadcasting
                        Department of Education
                Department of Health and Human Services
                          Department of Labor
                       Nondepartmental witnesses

                               __________

         Printed for the use of the Committee on Appropriations


       Available via the World Wide Web: http://www.gpoaccess.gov/
                          congress/index.html




                    U.S. GOVERNMENT PRINTING OFFICE
99-869                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                               __________
                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                
                                 ------                                

   Subcommittee on Departments of Labor, Health and Human Services, 
                    Education, and Related Agencies

                 ARLEN SPECTER, Pennsylvania, Chairman
THAD COCHRAN, Mississippi            TOM HARKIN, Iowa
JUDD GREGG, New Hampshire            DANIEL K. INOUYE, Hawaii
LARRY CRAIG, Idaho                   HARRY REID, Nevada
KAY BAILEY HUTCHISON, Texas          HERB KOHL, Wisconsin
TED STEVENS, Alaska                  PATTY MURRAY, Washington
MIKE DeWINE, Ohio                    MARY L. LANDRIEU, Louisiana
RICHARD C. SHELBY, Alabama           RICHARD J. DURBIN, Illinois
                                     ROBERT C. BYRD, West Virginia (Ex 
                                         officio)
                           Professional Staff
                            Bettilou Taylor
                              Jim Sourwine
                              Mark Laisch
                         Sudip Shrikant Parikh
                              Candice Ngo
                        Ellen Murray (Minority)
                         Erik Fatemi (Minority)
                      Adrienne Hallett (Minority)

                         Administrative Support
                              Rachel Jones


                            C O N T E N T S

                              ----------                              

                        Wednesday, March 2, 2005

                                                                   Page

Department of Education: Office of the Secretary.................     1

                        Tuesday, March 15, 2005

Department of Labor: Office of the Secretary.....................    73

                       Wednesday, March 16, 2005

Department of Health and Human Services: Office of the Secretary.   145

                        Wednesday, April 6, 2005

Department of Health and Human Services: National Institutes of 
  Health.........................................................   177

                         Monday, July 11, 2005

Corporation for Public Broadcasting..............................   317

    Material Submitted by Agencies not Appearing for Formal Hearings

Social Security Administration...................................   365
Railroad Retirement Board........................................   380

                       Nondepartmental Witnesses

Department of Labor..............................................   385
Department of Health and Human Services..........................   397
National Institutes of Health....................................   497
Department of Education..........................................   622
Related Agencies...........................................672<greek-l>
Miscellaneous..................................................??? deg.
  


DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
              AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                        WEDNESDAY, MARCH 2, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m. in room SD-126, Dirksen 
Senate Office Building, Hon. Arlen Specter (chairman) 
presiding.
    Present: Senators Specter, Cochran, Harkin, and Kohl.

                        DEPARTMENT OF EDUCATION

                        Office of the Secretary

STATEMENT OF HON. MARGARET SPELLINGS, SECRETARY
ACCOMPANIED BY:
        C. TODD JONES, ASSOCIATE DEPUTY SECRETARY FOR BUDGET AND 
            STRATEGIC ACCOUNTABILITY
        THOMAS SKELLY, DIRECTOR, BUDGET SERVICE


               OPENING STATEMENT OF SENATOR ARLEN SPECTER


    Senator Specter. Good morning, ladies and gentlemen, the 
Appropriations Subcommittee on Labor, Health, Human Services, 
and Education will now proceed. We are joined by the 
distinguished Secretary of Education, Margaret Spellings, who 
has had an outstanding academic and professional career, served 
for 6 years with then-Governor George Bush of Texas, came to 
the White House 4 years ago and has recently been appointed and 
confirmed as Secretary of Education.
    As I had talked to the Secretary earlier, our Senate 
schedule is very, very crowded. We have on the floor at the 
moment the Bankruptcy bill, for which I have duties as chairman 
of the Judiciary Committee, and the majority leader has 
scheduled a meeting at 10 o'clock on pending asbestos 
legislation, which is a matter of real importance to the 
administration and to the Congress, so I'm going to have to 
excuse myself a few minutes before 10 to attend that meeting, 
but my distinguished ranking member, Senator Harkin, has agreed 
to take my place. He does that with great distinction. He and I 
have exchanged the gavel seamlessly for longer than either of 
us is prepared to admit. But we have a true partnership, and 
when he's here I know it will be in very good hands.
    I've already talked to Senator Harkin about waiving our 
opening statements so we can go right to your testimony, Madame 
Secretary, and use the time to the maximum advantage to hear 
from you.


              SUMMARY STATEMENT OF HON. MARGARET SPELLINGS


    Secretary Spellings. Thank you very much, Mr. Chairman. 
Thank you; good morning, Mr. Chairman, Senator Harkin, I'm 
thrilled to be here. This is my first appearance before your 
committee and I know you'll be as kind and gentle on me as you 
are with other administration officials.
    I certainly appreciate the hard work that we have to do 
together, a lot of tough choices this year, and I pledge to 
work with you productively to get to a good result.
    First, I'd like to introduce my budget team: Tom Skelly, 
the Budget Service Director, and Todd Jones, Associate Deputy 
Secretary for Budget and Strategic Accountability. And let me 
take this opportunity to say a special thanks to Chairman 
Specter. I, and my entire Department, wish you a full and 
speedy recovery.
    Senator Specter. Thank you.


               REDUCING THE DEFICIT AND IMPROVING RESULTS


    Secretary Spellings. I am here to testify on behalf of 
President Bush's 2006 discretionary budget request for the 
Department of Education. The President's budget accomplishes 
several goals; the first is fiscal discipline. In his February 
2 State of the Union Address, the President underscored the 
need to restrain spending in order to sustain our economic 
growth and prosperity. It is important that total discretionary 
and non-security spending be held to levels proposed in the 
2006 budget. Its savings and reforms will help us achieve the 
President's goal of cutting the budget deficit in half by 2009, 
and we urge Congress to support them.
    The fiscal year 2006 budget includes more than 150 
reductions, reforms, and terminations in non-defense 
discretionary programs, and of those, a third are under the 
Department of Education. We are committed to working with 
Congress to achieve these savings. Given the fiscal realities, 
we must target our resources towards flexibility and results, 
and let me tell you a little about those results.


                           HIGH SCHOOL REFORM


    First, the budget would expand the promise of the No Child 
Left Behind Act to our Nation's high schools. No Child Left 
Behind rests on the common sense principles of accountability 
for results, data-based decisionmaking, high expectations for 
all, and empowering change. These principles have proven good 
for our elementary and middle schools, and they are needed 
today in our high schools.
    Let me share a few facts that I know you probably have 
heard before: our 15-year-olds perform below average 
internationally in mathematics, literacy, and problem solving. 
Just 68 out of every 100 entering ninth-graders will receive 
their high school diploma on time. Just 27 will enter college 
and still be enrolled by their sophomore year, when nearly 80 
percent of the fastest-growing jobs require at least that level 
of preparation. Two-thirds of those who do graduate from high 
school are not adequately prepared for college, and more than 
half of all college students take remedial education courses 
when they go to post-secondary education.
    Last weekend, the bipartisan National Governors Association 
reported that high schools are failing to prepare too many of 
our students for work and higher education, and Bill Gates told 
them, ``Training the workforce of tomorrow with today's high 
schools is like trying to teach kids about today's computers on 
a 50-year-old mainframe.'' Even the New York Times, just 
yesterday, and the Washington Post editorial pages have weighed 
in. The Times said, ``American students are falling farther and 
farther behind their peers in Asia and Europe.'' It called for 
a far more rigorous curriculum across the board, and the Post 
called on States to ``stop blocking testing and standards and 
find ways to raise them.'' Call it what you will--a challenge, 
a problem, a crisis--it's imperative that we give our high 
schools the tools to succeed in the economy in which 80 percent 
of these jobs require more rigorous levels of education.


                  HIGH SCHOOL INTERVENTION INITIATIVE


    The President's $1.24 billion High School Intervention 
Initiative would help give students the academic skills needed 
to succeed in the 21st century. These reforms would be designed 
and directed, not by the Federal Government, but by States and 
school districts themselves. The budget would provide $250 
million to measure student achievement annually, and hold 
schools accountable for student performance. As we have learned 
from No Child Left Behind, what gets measured, gets done.


                       READING FIRST STATE GRANTS


    We've made a serious effort in improving basic literacy in 
the early grades. We spent more than $2.7 billion in Reading 
First grants to States and school districts, training more than 
90,000 teachers, and teaching 1.5 million students. Today, 
reading and math scores are up in all States across the Nation, 
and urban school districts are leading the way.


            RAISING READING AND MATH AND TEACHER INCENTIVES


    Some high school students struggle with reading and math, 
too. They would benefit from our Striving Readers program, $200 
million, a $175 million increase over 2005, and a new secondary 
education mathematics initiative of $120 million. A $500 
million Teacher Incentive Fund would reward our best educators, 
and attract more of them to serve in our most challenging 
schools.


                PROVIDING FOR MORE CHALLENGING CURRICULA


    As you've heard, there is a near-unanimous call for more 
rigorous high school curricula. The President's budget would 
invest $45 million, an increase of $42.5 million, to encourage 
students to take more challenging course work. This includes a 
boost for the public-private State Scholars program, which 
strives for a college-ready curriculum in every high school, 
and new, enhanced Pell Grants for students completing such 
rigorous programs.
    The budget also provides a 73 percent increase to expand 
the availability of advanced placement in international 
baccalaureate programs in high-poverty schools.


                         CONTINUING PRIORITIES


    Second, the President's budget continues the solid progress 
begun under No Child Left Behind. Congress overwhelmingly 
passed this bipartisan law just 3 years ago, and today, across 
the country, test scores are rising, schools are improving, and 
the achievement gap is beginning to close. The budget would 
increase Title I Grants to Local Educational Agencies, the 
engine of No Child Left Behind, by $603 million. This 
represents a 52 percent increase since the law was signed. The 
budget also provides a $508 million increase for the Special 
Education Grants to States program, 75 percent higher than 5 
years ago.


                         COLLEGE AFFORDABILITY


    Finally, the President's budget makes college affordability 
a high priority. It would provide $19 billion over 10 years in 
mandatory funds for Pell Grants, resulting from student loan 
program reforms. This will retire the Pell Grant funding 
shortfall and help more than 5 million recipients attend 
college next year alone. The maximum individual Pell Grant 
would be increased by $100 for each of the next 5 years, to 
$4,550, and grants would be available year-round, so students 
can learn on their own time-table.


                 PRESIDENTIAL MATH AND SCIENCE SCHOLARS


    To encourage more students, especially poor and minority 
students, to enter the critical fields of math and science, our 
budget also includes a new Presidential Math/Science Scholars 
Program, which would award up to $5,000 each to low-income 
college students pursuing degrees in those demanding and in-
demand fields.


                    COMMUNITY COLLEGE ACCESS GRANTS


    Finally, the budget establishes a new $125 million 
Community College Access Grants fund to support dual enrollment 
credit transfers for high school students taking college-level 
course work. With this budget's passage, student financial 
assistance will have risen from $48 billion to $78 billion 
during this administration.
    In conclusion, let me say that I appreciate and respect the 
priorities you make and the promises you keep as the people's 
representatives. What I have just outlined are the President's 
education priorities; the common thread in all of them is 
aligning needs with results.


                           PREPARED STATEMENT


    We will not agree on everything, it will not always be easy 
to find common ground in a Nation on wartime footing, and a 
tight fiscal climate, but I am here to listen to your 
priorities. The President has made tough choices, we know you 
will, too. And we want to work with you to make the very best 
choices for America's students.
    Thank you very much.
    [The statement follows:]

             Prepared Statement of Hon. Margaret Spellings

    Mr. Chairman and Members of the Subcommittee: Thank you for this 
opportunity to testify on behalf of President Bush's 2006 discretionary 
request for the Department of Education. I believe we have a strong, 
focused budget proposal this year, one that reflects the need for both 
fiscal discipline and continuing support for State and local efforts to 
carry out No Child Left Behind. Moreover, our budget would 
significantly strengthen the impact of No Child Left Behind at the high 
school level, helping to ensure that every student not only graduates 
from high school, but graduates with the skills to succeed in either 
the workforce or in postsecondary education.
    President Bush is requesting $56.0 billion in discretionary 
appropriations for the Department of Education in fiscal year 2006, a 
decrease of $529.6 million, or less than 1 percent, from the 2005 
level. This request is consistent with the President's overall 2006 
budget, and reflects his determination to cut the Federal budget 
deficit in half over the next 5 years. Even with the proposed 
reduction, discretionary appropriations for education would be up 
nearly $14 billion, or 33 percent, since fiscal year 2001.

               REDUCING THE DEFICIT AND IMPROVING RESULTS

    In his February 2 State of the Union Address, the President 
underscored the need to restrain spending in order to sustain our 
economic prosperity. As part of this restraint, it is important that 
total discretionary and non-discretionary spending be held to levels 
proposed in his fiscal year 2006 budget request. The savings and 
reforms proposed in this request are critical to achieving the 
President's goal of cutting the budget deficit in half by 2009, and we 
urge the Congress to support this goal.
    Overall, the President's 2006 discretionary request proposes more 
than 150 reductions, reforms, and terminations in non-defense programs. 
The Department of Education's budget proposal includes several major 
reductions and 48 terminations, 33 of which are small, narrow-purpose 
programs funded at less than $40 million in 2005. On behalf of the 
Department, I want the Members of this Subcommittee to know that we are 
determined to work with the Congress to achieve these savings.
    Let me add that our proposed reductions and terminations reflect 
the longstanding practice of this administration to streamline 
government, end unnecessary duplication, and redirect scarce taxpayer 
dollars only to those programs that work. Many of our proposed 
eliminations were requested by previous administrations as well, on the 
grounds that they were a low priority and lacked results. In other 
words, the reductions proposed in our 2006 request reflect not only the 
obvious need for fiscal discipline, but also our determination to spend 
taxpayer dollars as effectively as possible. As President Bush has 
said, ``A taxpayer dollar ought to be spent wisely, or not spent at 
all.''

                           HIGH SCHOOL REFORM

    As most of you know, our request for elementary and secondary 
education focuses on strengthening the impact of No Child Left Behind 
in our high schools through the $1.5 billion High School Initiative. 
Our key proposal in this area is $1.24 billion for High School 
Intervention, which would support a wide range of locally determined 
reforms aimed at ensuring that every student not only graduates from 
high school, but graduates with the skills to succeed in either college 
or the workforce. We also are asking for $250 million for High School 
Assessments to increase accountability for high school achievement and 
give principals and teachers new tools and data to guide instruction 
and meet the specific needs of each student.
    Together, these two components of the President's High School 
Initiative would give States and school district administrators more 
effective tools for improving high schools than they have under the 
existing array of uncoordinated, narrow-purpose programs that this 
initiative would replace.
    The need to direct more attention to our high schools is beyond 
question. Currently just 68 out of every 100 ninth-graders will 
graduate from high school on time. Moreover, a recent study by the 
Manhattan Institute showed that two-thirds of students leave high 
school without the skills to succeed in college. As a result, only 27 
of those original 100 ninth-graders make it to their sophomore year of 
college, and just 18 graduate from college. These figures are even more 
troubling when you consider that 80 percent of the fastest-growing jobs 
require at least some postsecondary education.
    In addition to High School Intervention and Assessments, we are 
seeking a $175 million expansion of the new Striving Readers program, 
which supports the development and implementation of research-based 
methods for improving the skills of teenage students who are reading 
below grade level. Similarly, a new, $120 million Secondary Education 
Mathematics Initiative would help raise mathematics achievement, 
especially for at-risk students, in our high schools. We also want to 
help strengthen high school curricula by providing a $22 million 
increase for the Advanced Placement program, as well as a total 
increase of $45 million for the State Scholars programs to encourage 
more students to complete a rigorous high school curriculum.
    And as you consider our High School Initiative, I hope you will 
keep in mind the startling costs of the alternative: American companies 
and universities currently spend as much as $16 billion annually on 
remedial education to teach employees and students the basic skills 
they should have mastered in high school.

                         CONTINUING PRIORITIES

    The 2006 budget continues to place a strong priority on our three 
largest programs, which together form the foundation of the 
Department's efforts to help ensure that students at all levels have 
the opportunity to obtain a high-quality education. We are asking for a 
$603 million increase for the Title I Grants to Local Educational 
Agencies program, which is the engine driving the President's No Child 
Left Behind reforms. If enacted, this request would result in a $4.6 
billion or 52 percent increase for Title I since the passage of the 
NCLB Act.
    The budget also provides a $508 million increase for the 
reauthorized Special Education Grants to States program, for a total 
increase of $4.8 billion, or 75 percent, over the past 5 years.
    The third major continuing priority for 2006 is the Pell Grant 
program. Our budget includes a comprehensive package of proposals to 
restore Pell Grants to sound financial footing and significantly 
increase the purchasing power of the Pell Grant. These proposals would 
provide a combination of discretionary and mandatory funding that would 
retire the $4.3 billion Pell Grant shortfall, while raising the Pell 
Grant maximum award from $4,050 to $4,550 over the next 5 years. In 
2006 alone, the request would provide a $1.3 billion increase for Pell 
Grants, for a total of $13.7 billion, to raise the maximum award to 
$4,150 and provide grants to an estimated 5.5 million low-income 
postsecondary students.

                          NO CHILD LEFT BEHIND

    Title I remains our key priority for successfully implementing No 
Child Left Behind, but our 2006 request includes a major new proposal 
to help meet the law's requirement that every classroom be led by a 
highly qualified teacher. The new Teacher Incentive Fund would provide 
$500 million to help stimulate closer alignment of teacher compensation 
systems with better teaching, higher student achievement, and stronger 
teaching in high-poverty schools.
    Data on teacher qualifications show that high-poverty schools 
continue to have greater difficulty than low-poverty schools in 
attracting and retaining highly qualified teachers. For example, a 
recent study of California schools by The Education Trust-West showed 
that high-poverty schools tend to have teachers with fewer years of 
experience who, by definition under current, seniority-based 
compensation systems, are paid lower salaries than more veteran 
teachers.
    The Teacher Incentive Fund would give States $450 million in 
formula grants to reward and retain effective teachers and offer 
incentives for highly qualified teachers to teach in high-poverty 
schools. A separate, $50 million competitive grant program would 
encourage the development and implementation of performance-based 
compensation systems to serve as models for districts seeking to more 
closely link teacher compensation to student achievement.
    In addition to Title I and the Teacher Incentive Fund, our 2006 
request maintains strong support for No Child Left Behind programs, 
including almost $3 billion for Improving Teacher Quality State Grants, 
$1.1 billion for Reading First and Early Reading First, and $412 
million for State Assessment Grants.

               EXPANDING OPTIONS FOR STUDENT AND PARENTS

    Finally, our request includes funding to continue the expansion of 
educational options for students and families. No Child Left Behind is 
helping to ensure that students in low-performing schools have the 
opportunity to transfer to a better school, or to obtain tutoring or 
other supplemental educational services from the provider of their 
choice. And Federal dollars are now financing opportunity scholarships 
that permit low-income students here in the District of Columbia to 
attend better-performing private schools.
    The 2006 budget would build on these new options by providing $50 
million for a new Choice Incentive Fund that would support State and 
local efforts to give parents the opportunity to transfer their 
children to a higher-performing public, private, or charter school. The 
request also maintains significant support for the charter school 
movement, with $219 million for Charter Schools grants and $37 million 
for the Credit Enhancement for Charter School Facilities program.

                               CONCLUSION

    I believe these highlights of our 2006 request show that we have a 
strong budget for education, one that makes hard but necessary 
decisions to put significant resources where they can do the most to 
help improve the quality of our education system at all levels. I want 
to conclude with just a few comments on recent charges that our 
Administration is underfunding education, or that our 2006 proposal is 
an ``anti-education'' budget.
    First, the numbers just don't add up for our critics. As I noted 
earlier, under our request, President Bush would increase discretionary 
spending for the Department by $14 billion, or 33 percent, since taking 
office in 2001. Key programs have done even better: Title I would be up 
$4.6 billion, or 52 percent; Special Education Grants to States would 
rise $4.8 billion, 75 percent; and Pell Grants would be up $4.5 
billion, or 51 percent. And by the way, all of these increases have 
come at a time of historically low inflation.
    Second, with total national spending on elementary and secondary 
education more than doubling over the past decade, from roughly $260 
billion to well over $500 billion, it's very hard to make the case that 
money is where we are falling short in education, especially when all 
that new money has produced so little in the way of improved student 
achievement.
    Third, like nearly all Federal education spending, No Child Left 
Behind is intended to leverage ``not replace'' the much larger share of 
education funding coming from State and local sources. Even the 
tremendous increases of the past 4 years have succeeded in lifting the 
Federal share of elementary and secondary spending by just 1 percentage 
point, from roughly 7 percent to about 8 percent. Our goal should be to 
help States and school districts spend smarter on education, not just 
more, and No Child Left Behind is accomplishing this goal.
    Fourth, fully 3 years after the passage of No Child Left Behind, 
and during its third school year of implementation, I have yet to see a 
methodologically sound study providing any documentation of the charge 
that the law is underfunded. Does the law entail additional costs? The 
answer is yes, and our budgets have reflected those costs, but I have 
yet to see any evidence that we have significantly increased financial 
burdens on States or school districts, much less passed on any 
``unfunded mandate.''
    Finally, context matters, and the size of the Federal budget 
deficit matters. To keep our economy strong, and to create new jobs for 
future graduates, we need to reduce the deficit and encourage more 
private sector investment in our economy. The Department of Education 
is doing its part to help achieve this critical goal.
    Thank you, and I will be happy to take any questions you may have.

                   INTRODUCTION OF COMMITTEE CHAIRMAN

    Senator Specter. Thank you very much, Madame Secretary. 
We've been joined by the distinguished chairman of the full 
Committee, Senator Cochran. Would you care to make an opening 
statement?

               OPENING STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, I'm happy to join you this 
morning to welcome the Secretary to our hearings. I'm 
encouraged by the progress that the administration has made in 
targeting funds to areas of special need where school districts 
don't have the resources to do the job they would like to do in 
helping educate our elementary and secondary students. I think 
the traditional programs that have helped in this regard, such 
as Title I, need to be supported and we hope we can build on 
the things we've learned in the past about some teacher 
training programs that have improved morale, like the National 
Writing Project. I hope that we can get the administration's 
support for continuing programs of that kind. But, overall I 
think you have a big task, no more important job in Government 
than helping to see that we do the right thing for education 
programs throughout the country. It's the bulwark of our 
freedom and our economic prospects for the future. Everyone has 
a right to enjoy a good, quality education, and I think that's 
the goal of this administration. Strong leadership has been 
provided in that regard, and I congratulate you for the work 
you've done in the past, and also the President, for his 
leadership.
    Secretary Spellings. Thank you, Senator.
    Senator Cochran. Thank you for being here and cooperating 
with our committee.
    Secretary Spellings. Thank you.

            PROPOSED REDUCTIONS TO FEDERAL EDUCATION BUDGET

    Senator Specter. Thank you very much, Mr. Chairman. Thank 
you for an abbreviated statement, Madame Secretary, which gives 
me time to initiate a round of questioning for which we 
customarily have 5 minutes; although with only a few of our 
members present, that will be elongated into a number of 
rounds.
    As I mentioned to you in our conversation earlier, I'm very 
much concerned about the fact that the budget has a reduction 
of .9--almost 1 percent--and that is in the face of the 
inevitable problem of inflation. And we are telling the 
American people about this budget in the context of tremendous 
expenses which are going in other directions--very necessary 
expenses beyond any doubt--in what's happening around the world 
as we defend freedom with the President's initiative, and he 
deserves a lot of credit for what is happening around the 
world, with his leadership. With elections in surprising 
places, and more elections forthcoming. But, when we return to 
our constituents, we have some very tough questions to answer 
about education.

                   FEDERAL SHARE OF EDUCATION FUNDING

    Education is a capital asset, and a capital investment. 
There's no more important expenditure that the government 
makes, and we all know the Federal share of that is relatively 
limited, somewhere in the 7 to 8 percent range. And, 
appropriately--as you have already noted--the initiatives are 
to come from local school boards, where they are close to the 
problem in the States, that is our system of federalism, and it 
is a good system.

                     PROPOSED PROGRAM ELIMINATIONS

    I would begin on my request to you, Madame Secretary, as we 
work through the process--and you've only been in office since 
January 20--but, this subcommittee is going to need to have the 
specifics on why you have eliminated 48 programs. Those 
programs have come into existence as a result of study by the 
Congress, which has the fundamental appropriations authority 
under the Constitution. The President has to sign the bills, 
but the Congress has the authority under appropriations, and 
these programs have been suggested by a variety of people--one 
of them is mentoring seventh grade students which has come out 
of Philadelphia, and has very, very strong support. And every 
one of these programs has a sponsor. And when we sit down on 
our legislative agenda, people are very concerned. So, a 
beginning point is to give us--with specificity--why those 
programs have been eliminated.
    [The information follows:]

                   Programs Proposed for Elimination

    The 2006 request continues the practice of the Bush 
Administration--also consistent with previous administrations over the 
past 25 years--of proposing to eliminate or consolidate funding for 
programs that have achieved their original purpose, that duplicate 
other programs, that may be carried out with flexible State formula 
grant funds, or that involve activities that are better or more 
appropriately supported through State, local, or private resources. In 
addition, the government-wide Program Assessment Rating Tool, or PART, 
helps focus funding on Department of Education programs that generate 
positive results for students and that meet strong accountability 
standards. For 2006, PART findings were used to redirect funds from 
ineffective programs to more effective activities, as well as to 
identify reforms to help address program weaknesses.
    The following table shows the programs proposed for elimination in 
the President's 2006 budget request. Termination of these 48 programs 
frees up almost $4.3 billion--based on 2005 levels--for reallocation to 
more effective, higher-priority activities. Following the table is a 
brief summary of each program and the rationale for its elimination.

                        [In millions of dollars]
------------------------------------------------------------------------
                     Program terminations                        Amount
------------------------------------------------------------------------
Alcohol Abuse Reduction......................................       32.7
Arts in Education............................................       35.6
B.J. Stupak Olympic Scholarships.............................        1.0
Byrd Honors Scholarships.....................................       40.7
Civic Education..............................................       29.4
Close Up Fellowships.........................................        1.5
Community Technology Centers.................................        5.0
Comprehensive School Reform..................................      205.3
Demonstration Projects for Students with Disabilities........        6.9
Educational Technology State Grants..........................      496.0
Elementary and Secondary School Counseling...................       34.7
Even Start...................................................      225.1
Excellence in Economic Education.............................        1.5
Exchanges with Historic Whaling and Trading Partners.........        8.6
Federal Perkins Loans Cancellations..........................       66.1
Foreign Language Assistance..................................       17.9
Foundations for Learning.....................................        1.0
Gaining Early Awareness and Readiness for Undergraduate            306.5
 Programs....................................................
Interest Subsidy Grants......................................        1.5
Javits Gifted and Talented Education.........................       11.0
Leveraging Educational Assistance Partnerships...............       65.6
Literacy Programs for Prisoners..............................        5.0
Mental Health Integration in Schools.........................        5.0
Migrant and Seasonal Farmworkers.............................        2.3
National Writing Project.....................................       20.3
Occupational and Employment Information......................        9.3
Parental Information and Resource Centers....................       41.9
Projects With Industry.......................................       21.6
Ready to Teach...............................................       14.3
Recreational Programs........................................        2.5
Regional Educational Laboratories............................       66.1
Safe and Drug-Free Schools and Communities State Grants......      437.4
School Dropout Prevention....................................        4.9
School Leadership............................................       14.9
Smaller Learning Communities.................................       94.5
Star Schools.................................................       20.8
State Grants for Incarcerated Youth Offenders................       21.8
Supported Employment State Grants............................       37.4
Teacher Quality Enhancement..................................       68.3
Tech-Prep Demonstration......................................        4.9
Tech-Prep Education State Grants.............................      105.8
Thurgood Marshall Legal Educational Opportunity Program......        3.0
TRIO Talent Search...........................................      144.9
TRIO Upward Bound............................................      312.6
Underground Railroad Program.................................        2.2
Vocational Education National Programs.......................       11.8
Vocational Education State Grants............................    1,194.3
Women's Educational Equity...................................        3.0
                                                              ----------
      Total..................................................    4,264.4
------------------------------------------------------------------------

                  PROGRAM TERMINATIONS (DESCRIPTIONS)
                                                                Millions
Alcohol Abuse Reduction........................................... $32.7

    Supports programs to reduce alcohol abuse in secondary schools. 
These programs may be funded through other Safe and Drug-Free Schools 
and Communities National Programs and State Grants for Innovative 
Programs.

Arts in Education.................................................  35.6

    Makes non-competitive awards to VSA arts and the John F. Kennedy 
Center for the Performing Arts as well as competitive awards for 
national demonstrations and Federal leadership activities to encourage 
the integration of the arts into the school curriculum. Eliminating 
funding for the program is consistent with Administration policy of 
terminating small categorical programs with limited impact in order to 
fund higher priorities. Arts education programs may be funded under 
other authorities.

B.J. Stupak Olympic Scholarships..................................   1.0

    Provides financial assistance to athletes who are training at the 
United States Olympic Education Center or one of the United States 
Olympic Training centers and who are pursuing a postsecondary 
education. Athletes can receive grant, work-study, and loan assistance 
through the Department's postsecondary student aid programs. Rated 
Results Not Demonstrated by the PART due to lack of performance data 
and program design deficiencies, including its duplication of other 
Federal student aid programs.

Byrd Honors Scholarships..........................................  40.7

    Promotes academic excellence and achievement by awarding merit-
based scholarships to high school students, through formula grants to 
State educational agencies, who have demonstrated outstanding academic 
achievement and who show promise of continued academic excellence. This 
program duplicates existing Federal student financial assistance 
programs, as well as State, local and private efforts that provide 
merit-based resources for postsecondary education. Rated Results Not 
Demonstrated by the PART due to lack of performance data and program 
design deficiencies.

Civic Education...................................................  29.4

    Provides a single non-competitive award to the Center for Civic 
Education to conduct We the People, a program to improve the quality of 
civics and government education. Also makes non-competitive and 
competitive awards for the Cooperative Education Exchange, a program to 
improve civic and economic education through exchange programs. Request 
is consistent with the Administration's policy of terminating small 
categorical programs that have limited impact, and for which there is 
little or no evidence of effectiveness, to fund higher priority 
programs.

Close Up Fellowships..............................................   1.5

    Non-competitive award to Close Up Foundation supports fellowships 
to low-income students and teachers participating in Close Up visits to 
Washington, DC and other activities. Peer organizations provide 
scholarships to some of their participants without Federal assistance, 
and the organization's successful private fundraising eliminates the 
need for the program.

                                                                Millions
Community Technology Centers......................................  $5.0

    Supports centers that offer disadvantaged residents of economically 
distressed areas access to computers and training. Program has limited 
impact and funding for similar activities is available through other 
Federal agencies.

Comprehensive School Reform....................................... 205.3

    This program largely duplicates activities that are readily carried 
out under the Title I Grants to LEAs program. In the 2000-01 school 
year, about 30,000 Title I schools (62 percent) were implementing 
research-based reform models and, beginning with 2002, the NCLB Act 
made statutory changes to further encourage schools to carry out the 
types of whole-school reforms supported by the Comprehensive School 
Reform program. For Comprehensive School Reform (continued): example, 
comprehensive reform is encouraged as part of school improvement 
efforts undertaken by Title I schools that do not make adequate yearly 
progress toward State standards for at least 2 consecutive years. Also, 
the Act lowered the poverty threshold for Title I schoolwide projects 
to 40 percent, thus expanding the number of Title I schools that are 
eligible to use Title I funds to carry out comprehensive school reform.

Demonstration Projects to Ensure Quality Higher Education for 
    Students with Disabilities....................................   6.9

    Funds technical assistance and professional development activities 
for faculty and administrators in institutions of higher education in 
order to improve the quality of education for students with 
disabilities. This program has achieved its primary goal of funding 
model demonstration projects. New projects can and do receive funding 
under FIPSE.

Educational Technology State Grants............................... 496.0

    This program provides funding to States and school districts to 
support the integration of educational technology into classroom 
instruction, technology deployment, and a host of other activities 
designed to utilize technology to improve instruction and student 
learning. Schools today offer a greater level of technology 
infrastructure than just a few years ago, and there is no longer a 
significant need for a State formula grant program targeted 
specifically on (and limited to) the effective integration of 
technology into schools and classrooms. Districts seeking funds to 
integrate technology into teaching and learning can use other Federal 
program funds such as Improving Teacher Quality State Grants and Title 
I Grants to Local Educational Agencies.

Elementary and Secondary School Counseling........................  34.7

    Elementary school and secondary school counseling may be funded 
through other larger and more flexible Federal programs, such as ESEA 
Title V--A State Grants for Innovative Programs.

Even Start........................................................ 225.1

    This program aims to improve educational opportunities for children 
and their parents in low-income areas by integrating early childhood 
education, adult education, and parenting education into ``family 
literacy'' programs. However, three separate national evaluations of 
the program reached the same conclusion: children and adults 
participating in Even Start generally made gains in literacy skills, 
but these gains were not significantly greater than those of non-
participants. Also, the Administration rated the program as Ineffective 
in the 2004 PART process. Other high priority programs such as Reading 
First and Early Reading First are better structured to implement proven 
research and to achieve the President's literacy goals.

Excellence in Economic Education..................................   1.5

    Supports a grant to a single national non-profit educational 
organization to promote economic and financial literacy for K-12 
students. Elimination is consistent with Administration policy of 
terminating small categorical programs with limited impact in order to 
fund higher priorities.

                                                                Millions
Exchanges with Historic Whaling and Trading Partners..............  $8.6

    Supports culturally based educational activities, internships, 
apprenticeship programs and exchanges for Alaska Natives, Native 
Hawaiians, and children and families of Massachusetts. Elimination is 
consistent with Administration policy of terminating small categorical 
programs with limited impact in order to fund higher priorities.

Federal Perkins Loans Cancellations...............................  66.1

    Reimburses institutional revolving funds for borrowers whose loan 
repayments are canceled in exchange for undertaking public service 
employment, such as teaching in Head Start programs, full-time law 
enforcement, or nursing. These reimbursements are no longer needed as 
the Administration is proposing to eliminate the Perkins Loan program, 
which duplicates other student loan programs and serves a limited 
number of institutions.

Foreign Language Assistance.......................................  17.9

    Activities to promote improvement and expansion of foreign language 
instruction may be supported by larger, more flexible ESEA programs, 
such as Improving Teacher Quality State Grants and State Grants for 
Innovative Programs.

Foundations for Learning..........................................   1.0

    Competitive grants provide services to children and their families 
to enhance young children's development so that they become ready for 
school. The request is consistent with the Administration's effort to 
increase resources for high-priority programs by eliminating small, 
narrow categorical programs that duplicate other programs, have limited 
impact, or for which there is little or no evidence of effect. The 
budget request includes funding for other, larger programs that support 
early childhood education and development.

Gaining Early Awareness and Readiness for Undergraduate Programs.. 306.5

    Provides grants to States and partnerships to support early college 
preparation and awareness activities at the State and local levels to 
ensure low-income elementary and secondary school students are prepared 
for and pursue postsecondary education. GEAR UP received an Adequate 
PART rating because it employs a number of strategies that other 
studies have found to be effective, but no data are available to 
measure progress toward long-term program goals. The proposed new High 
School Intervention initiative would provide a more comprehensive 
approach to improving high school education and increasing student 
achievement, especially the achievement of those most at-risk of 
educational failure and dropping out.

Interest Subsidy Grants...........................................   1.5

    Program finances interest subsidy costs of a portfolio of higher 
education facilities loans guaranteed under Federal agreements with 
participating institutions of higher education. Balances from prior 
year appropriations are sufficient to cover all remaining obligations.

Javits Gifted and Talented Education..............................  11.0

    Primarily supports research and demonstration grants, but these 
grants are not structured to assess program effectiveness and identify 
successful intervention strategies that could have broad national 
impact. Only research programs that can be held accountable to rigorous 
standards warrant further investment.

Leveraging Educational Assistance Partnerships....................  65.6

    Program has accomplished its objective of stimulating all States to 
establish need-based postsecondary student grant programs, and Federal 
incentives for such aid are no longer required. State grant levels have 
expanded greatly over the years, and most States significantly exceed 
the statutory matching requirements. State matching funds in academic 
year 1999-2000, for example, totaled nearly $1 billion or more than 
$950 million over the level generated by a dollar-for-dollar match.

Literacy Programs for Prisoners...................................   5.0

    Provides competitive grants to State and local correctional 
agencies and correctional education agencies to support programs that 
reduce recidivism through the improvement of ``life skills.'' Request 
is consistent with the Administration's effort to eliminate small 
programs that have only indirect or limited effect.

                                                                Millions
Mental Health Integration in Schools..............................  $5.0

    Makes competitive grants to increase student access to mental 
health care by linking school systems with the mental health system. 
The request is consistent with the Administration's effort to increase 
resources for high-priority programs by eliminating small, narrow 
categorical programs that duplicate other programs, have limited 
impact, or for which there is little or no evidence of effect.

Migrant and Seasonal Farmworkers..................................   2.3

    Supports rehabilitation services to migratory workers with 
disabilities, but such activities may be funded through the VR State 
Grants program.

National Writing Project..........................................  20.3

    Supports a nationwide nonprofit educational organization that 
promotes K-16 teacher training programs in the effective teaching of 
writing. States may support such activities through flexible programs 
like Improving Teacher Quality State Grants. Rated Results Not 
Demonstrated by the PART review due to lack of reliable performance or 
evaluation data on the effectiveness of supported interventions.

Occupational and Employment Information...........................   9.3

    This career guidance and counseling program has a narrow purpose 
and no demonstrated results. The PART review of this program rated it 
Results Not Demonstrated, largely due to a lack of data on program 
outcomes.

Parental Information and Resource Centers.........................  41.9

    Parent education and family involvement activities are required and 
funded under other ESEA programs, such as Title I Grants to Local 
Educational Agencies, and are a specifically authorized use of funds 
under ESEA Title V-A State Grants for Innovative Programs. The PART 
review of this program rated it Results Not Demonstrated, partly 
because of its unclear statutory purposes.

Projects With Industry............................................  21.6

    PWI projects help individuals with disabilities obtain employment 
in the competitive labor market. VR State Grants serves the same target 
populations and may provide the same services. Rated Adequate by the 
PART process but also determined to be duplicative of the much larger 
VR State Grants program. In addition, data reliability problems 
undermine accurate assessment of program performance.

Ready to Teach....................................................  14.3

    This program supports competitive grants to nonprofit 
telecommunications entities to carry out programs to improve teaching 
in core curriculum areas, and to develop, produce, and distribute 
innovative educational and instructional video programming. State 
Grants for Innovative Programs and Improving Teacher Quality State 
grants provide ample resources for the types of activities supported by 
this program.

Recreational Programs.............................................   2.5

    Supports projects that provide recreation and related activities 
for individuals with disabilities to aid in their employment, mobility, 
independence, socialization, and community integration. The program has 
limited impact, and such activities are more appropriately financed by 
State and local agencies and the private sector.

Regional Educational Laboratories.................................  66.1

    Recent reauthorization did not make needed improvement in structure 
and function of the Regional Educational Laboratories, which have not 
consistently provided high quality research and development products or 
evidence-based training and technical assistance.

Safe and Drug-Free Schools and Communities State Grants........... 437.4

    Provides formula grants to States to help create and maintain drug-
free, safe, and orderly environments for learning in and around 
schools. The program has not demonstrated effectiveness and grant funds 
are spread too thinly to support quality interventions. The 
Administration proposes to redirect some of the program's funds to 
provide an increase for Safe and Drug-Free Schools National Programs, 
which is better structured to support quality interventions, and to 
permit grantees and independent evaluators to measure Safe and Drug-
Free Schools and Communities State Grants progress, hold projects 
accountable, and determine which interventions are most effective. The 
Administration's Performance Assessment Rating Tool (PART) rated this 
program as Ineffective in 2004.

                                                                Millions
School Dropout Prevention.........................................  $4.9

    Significantly higher funding for dropout prevention and re-entry 
programs available through Title I Grants to LEAs, Title I Migrant 
State Grants, and State Grants for Innovative Programs makes this 
program unnecessary. Also, at the 2006 request level, States are 
required to reserve approximately $110 million from their Title I 
allocation for purposes of helping students stay in school and make the 
transition to public schools from local corrections facilities and 
community day programs.

School Leadership.................................................  14.9

    Program supports recruiting, training, and retaining principals and 
assistant principals--activities that are specifically authorized under 
other, much larger programs such as Improving Teacher Quality State 
Grants and State Grants for Innovative Programs.

Smaller Learning Communities......................................  94.5

    A separate program is not needed for the purpose of creating 
smaller learning communities. The number of fundable applications for 
grants under the 2004 competitions dropped significantly and the 
Department lapsed more than $26.4 million from the fiscal year 2003 
program appropriation. One likely reason for the low level of interest 
in the program is the lack of compelling evidence on the effectiveness 
of the smaller learning communities strategy in strengthening high 
school education and raising achievement. The creation or expansion of 
smaller learning communities in large high schools may be supported by 
Title I Grants to Local Educational Agencies or State Grants for 
Innovative Programs--the latter of which specifically authorizes the 
creation of smaller learning communities. Also, the President's 
proposed new High School Initiative will give educators greater 
flexibility to design and implement approaches for improving the 
achievement of high-school students.

Star Schools......................................................  20.8

    Supports distance education projects to improve instruction in a 
variety of curricular areas. Programs such as State Grants for 
Innovative Programs and Improving Teacher Quality State grants provide 
ample resources for these activities.

State Grants for Incarcerated Youth Offenders.....................  21.8

    Formula grants to State correctional agencies assist and encourage 
incarcerated youth to acquire functional literacy skills and life and 
job skills. Request is consistent with the Administration's effort to 
eliminate small programs that have only indirect or limited effect on 
improving student outcomes.

Supported Employment State Grants.................................  37.4

    Program has accomplished its goal of developing collaborative 
programs with appropriate public and private nonprofit organizations to 
provide supported employment services for individuals with the most 
significant disabilities. Supported employment services are also 
provided by the VR State Grants program.

Teacher Quality Enhancement.......................................  68.3

    Program provides funds to improve recruitment, preparation, 
licensure, and support for teachers by providing incentives, 
encouraging reforms, and leveraging local and State resources to ensure 
that current and future teachers have the necessary teaching skills and 
academic content knowledge to teach effectively. All of the activities 
allowable under the Teacher Quality Enhancement program can be carried 
out under other existing Federal programs. Rated Results Not 
Demonstrated by the PART process due to lack of performance data and 
program design deficiencies.

Tech-Prep Demonstration...........................................   4.9

    This program to establish secondary technical education programs on 
community college campuses has narrow and limited impact. The 
Administration's proposed $1.2 billion High School Initiative will give 
educators greater flexibility to design and implement programs that 
best meet the needs of their students, including Tech-Prep programs. 
States could use funds to support vocational education, mentoring and 
counseling programs, partnerships between high schools and colleges, or 
other approaches.

                                                                Millions
Tech-Prep Education State Grants..................................$105.8

    A separate State grant program to support State efforts to develop 
structural links between secondary and postsecondary institutions that 
integrate academic and vocational education is unnecessary. The 
Administration's proposed $1.2 billion High School Initiative will give 
educators greater flexibility to design and implement programs that 
best meet the needs to their students. States could use funds to 
support vocational education, mentoring and counseling programs, 
partnerships between high schools and colleges, or other approaches.

Thurgood Marshall Legal Educational Opportunity Program...........   3.0

    Program provides minority, low-income or disadvantaged college 
students with the information, preparation, and financial assistance 
needed to gain access to and complete law school study. Disadvantaged 
individuals can receive assistance through the Department's student 
financial assistance programs.

TRIO Talent Search................................................ 144.9

    Provides grants to colleges to encourage disadvantaged youth to 
graduate from high school and enroll in a postsecondary education 
program. The proposed new High School Intervention initiative would 
provide a more comprehensive approach to improving high school 
education and increasing student achievement, especially the 
achievement of those most at-risk of educational failure and dropping 
out. Talent Search received a Results Not Demonstrated PART rating due 
to a lack of data on key performance measures and no evaluation 
findings.

TRIO Upward Bound................................................. 312.6

    Provides grants to colleges to support intensive academic 
instruction for disadvantaged high school students and veterans to 
generate the skills and motivation needed to pursue and complete a 
postsecondary education. The proposed new High School Intervention 
initiative would provide a more comprehensive approach to improving 
high school education and increasing student achievement, especially 
the achievement of those most at-risk of educational failure and 
dropping out. Upward Bound received an Ineffective PART rating due to a 
lack of data on key performance measures and evaluation results that 
found the program has limited overall impact because services are not 
sufficiently well targeted to higher-risk students.

Underground Railroad Program......................................   2.2

    Provides grants to non-profit educational organizations to 
establish facilities that house, display, and interpret artifacts 
relating to the history of the Underground Railroad, as well as to make 
the interpretive efforts available to institutions of higher education. 
The program has largely achieved its original purpose.

Vocational Education National Programs............................  11.8

    The program's activities, which include research, assessment, 
evaluation, dissemination, and technical assistance, would be addressed 
as part of the Administration's proposed High School Initiative for 
ensuring that secondary students improve their academic achievement and 
graduation rates.

Vocational Education State Grants................................1,194.3

    Funds would be redirected to support a new comprehensive strategy 
for improving the effectiveness of Federal investments at the high 
school level and for a community college access initiative. The High 
School Initiative will give educators greater flexibility (coupled with 
enhanced accountability) to design and implement programs that best 
meet the needs of their students. States could use funds to support 
vocational education, mentoring and counseling programs, partnerships 
between high schools and colleges, or other approaches.

Women's Educational Equity........................................   3.0

    Activities promoting educational equity for girls and women may be 
supported through larger, more flexible programs like ESEA Title V-A 
State Grants for Innovative Programs.

               PROPOSED REDUCTIONS TO EDUCATION PROGRAMS

    Then there's almost $1 billion in program reductions, so we 
need to know the specifics there, again. There are new 
initiatives which we will consider very, very carefully, $2.325 
billion, but those are some of the places where we're going to 
need to start.
    [The information follows:]

          Programs Proposed for Reduction in Fiscal Year 2006

                              EDUCATION DEPARTMENT DISCRETIONARY BUDGET, DECREASES
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                         2006 request over 2005
                                                                 2005          2006           appropriation
                          Program                           appropriation    request   -------------------------
                                                                                           Amount      Percent
----------------------------------------------------------------------------------------------------------------
ESEA:.....................................................
    Indian Education National Activities..................        $5,129        $4,000      -$1,129        -22.0
    Education for Native Hawaiians........................        34,224        32,624       -1,600         -4.7
    Impact Aid Construction...............................        48,544        45,544       -3,000         -6.2
    Alaska Native Education Equity........................        34,224        31,224       -3,000         -8.8
    Advanced Credentialing................................        16,864         8,000       -8,864        -52.6
    Physical Education Program............................        73,408        55,000      -18,408        -25.1
    State Grants for Innovative Programs..................       198,400       100,000      -98,400        -49.6
                                                           -----------------------------------------------------
      Total, ESEA.........................................       410,793       276,392     -134,401        -32.7
                                                           =====================================================
IDEA:
    IDEA Technical Assistance & Dissemination.............        52,396        49,397       -2,999         -5.7
    IDEA Technology and Media Services....................        38,816        31,992       -6,824        -17.6
    IDEA State Personnel Development......................        50,653   ...........      -50,653       -100.0
                                                           -----------------------------------------------------
      Total, IDEA.........................................       141,865        81,389      -60,476        -42.6
                                                           =====================================================
Postsecondary:
    National Technical Institute for the Deaf.............        55,344        54,472         -872         -1.6
    Strengthening Alaska Native & Native Hawaiian Serving         11,904         6,500       -5,404        -45.4
     Institutions.........................................
    TRIO Other............................................        13,335         3,625       -9,710        -72.8
                                                           -----------------------------------------------------
      Total, Postsecondary................................        80,583        64,597      -15,986        -19.8
                                                           =====================================================
All Other ED Programs:
    Helen Keller National Center..........................        10,581         8,597       -1,984        -18.8
    Research & Innovation in Special Education............        83,104        72,566      -10,538        -12.7
    VR Assistive Technology...............................        29,760        15,000      -14,760        -49.6
    VR Demonstration and Training.........................        25,607         6,577      -19,030        -74.3
    Adult Basic & Literacy Education State Grants.........       569,672       200,000     -369,672        -64.9
                                                           -----------------------------------------------------
      Subtotal, Other ED Programs.........................       718,724       302,740     -415,984        -57.9
                                                           =====================================================
S&E: Program Administration...............................       419,280       418,992         -288         -0.1
                                                           -----------------------------------------------------
      Subtotal, S&E.......................................       419,280       418,992         -288         -0.1
                                                           -----------------------------------------------------
      Total, All Other ED.................................     1,138,004       721,732     -416,272        -36.6
                                                           -----------------------------------------------------
      Total, Decreases....................................     1,771,245     1,144,110     -627,135        -35.4
----------------------------------------------------------------------------------------------------------------

                    PROGRAM REDUCTIONS (DESCRIPTION)

No Child Left Behind (NCLB):                                    Millions
    Indian Education National Activities..........................  $4.0

    The request provides $4.0 million for National Activities, which 
funds research, evaluation, and data collection designed to fill gaps 
in our understanding of the educational status and needs of Indians and 
on identifying educational practices that are effective with Indian 
students. The program also provides technical assistance to school 
districts and other entities receiving Indian Education formula and 
discretionary grants.

                                                                Millions
    Education for Native Hawaiians................................ $32.6

    The Education for Native Hawaiians program provides supplemental 
education services and activities for Native Hawaiians, many of whom 
perform below national norms on achievement tests of basic skills in 
reading, science, and math. Grants support a variety of authorized 
activities. Other Department elementary and secondary education 
programs, particularly the State formula grant programs, also support 
improved achievement for Native Hawaiians. The proposed $1.6 million 
reduction in funding reflects the elimination of two one-time grants 
included in the 2005 appropriation.

    Impact Aid Construction.......................................  45.5

    School districts also generally pay for most of their school 
construction costs using their own resources and rely on property taxes 
to finance these costs. Districts affected by Federal operations have 
limited access to those sources of funding. The $45.5 million proposed 
for Construction would provide both formula and competitive grants to 
school districts. Formula grants assist districts with large 
proportions of military dependent students and students residing on 
Indian lands. Competitive grants focus on helping LEAs make emergency 
renovations and modernization upgrades. The request is reduced by $3 
million in funding reflecting a one-time project in fiscal year 2005.

    Alaska Native Education Equity................................  31.2

    The Alaska Native Education Equity program provides educational 
services to meet the special needs of Native Alaskan children. By 
statute, a portion of funds must be awarded annually to specific 
entities. The remaining funds support competitive grants for teacher 
training, student enrichment, and other activities that address the 
special needs of Alaska Native students in order to enhance their 
academic performance. Other Department elementary and secondary 
education programs, particularly the State formula grant programs, also 
support improved achievement for Alaska Native students. The proposed 
$3 million reduction reflects the elimination of two one-time grants 
included in the 2005 appropriation.

    Advanced Credentialing........................................   8.0

    This program supports the development of advanced credentials based 
on the content expertise of master teachers. Funds also support related 
activities to encourage and support teachers seeking advanced 
credentials. The 2006 request would support the American Board for the 
Certification of Teacher Excellence's development of an Initial 
Certification and a Master Certification to give States and districts 
more options for improving teacher quality and, most importantly, 
raising student achievement. The reduced request reflects the 
Department's decision not to extend its 5-year grant to the National 
Board for Professional Teaching Standards beyond the additional year of 
funding directed in the fiscal year 2005 appropriation.

    Physical Education Program....................................  55.0

    This program provides competitive grants to local educational 
agencies and community-based organizations to pay the Federal share of 
the costs of initiating, expanding, and improving physical education 
programs (including after-school programs) for students in kindergarten 
through 12th grade, in order to make progress toward meeting State 
standards for physical education. Funds may be used to provide 
equipment and other support enabling students to participate in 
physical education activities and for training and education for 
teachers and staff. The 2006 request includes funds to pay for 
continuation costs for physical education grants, as the first year of 
a 2-year phase out of the program in order to redirect resources to 
higher-priority activities.

    State Grants for Innovative Programs.......................... 100.0

    This program provides flexible funding to State and local 
educational agencies for a wide range of authorized activities serving 
all students. Examples include reducing class size, professional 
development, funding Title I supplemental educational services, and 
creating smaller learning communities. The reduced request reflects a 
decision to redirect funding to higher-priority activities that are 
better targeted to national needs and have stronger accountability 
mechanisms.

Individuals with Disabilities Education Act (IDEA):

                                                                Millions
    IDEA Technical Assistance and Dissemination................... $49.4

    This program provides technical assistance and disseminates 
materials based on knowledge gained through research and practice. The 
proposed reduction reflects a restructuring of funding for technical 
assistance. This request is in addition to the separate $5 million 
request for a Transition Initiative and $10 million to be set-aside 
under the Grants to States program under a newly authorized technical 
assistance authority to help States meet data collection requirements. 
These other sources of funding for technical assistance will free up 
funds under this program for activities to help States, local 
educational agencies, teachers, parents, and others to implement the 
Individuals with Disabilities Education Improvement Act of 2004.

    IDEA Technology and Media Services............................  32.0

    This program supports research, development, and other activities 
that promote the use of technologies in providing special education and 
early intervention services. Funds are also used for media-related 
activities, such as providing video description and captioning of films 
and television appropriate for use in classrooms for individuals with 
visual and hearing impairments and improving accessibility to textbooks 
for individuals with visual impairments. The proposed reduction 
reflects the elimination of funding for one-time projects funded in 
2005.

    IDEA State Personnel Development..............................     0

    No funds are requested for the State Personnel Grants program, 
newly authorized by the Individuals with Disabilities Education 
Improvement Act of 2004, because the entire fiscal year 2005 
appropriation remains available for obligation through September 30, 
2006. These funds will be used to support 41 continuation awards and 8 
new awards.

Postsecondary:
    National Technical Institute for the Deaf.....................  54.5

    The request represents a decrease of $872,000 below the 2005 
appropriation reflecting completion of construction projects funded in 
2005.

    Strengthening Alaska Native & Native Hawaiian Serving 
      Institutions................................................   6.5

    The request includes $6.5 million for Part A, Section 317, 
Strengthening Alaska Native & Native Hawaiian-serving Institutions to 
cover the continuation of 12 projects. No funds are requested for new 
awards. The Administration does not believe a new round of awards is 
appropriate until we have the opportunity to determine the extent of 
need and the most effective means of helping to strengthen these 
institutions. In fiscal year 2005, we are proposing to increase the 
average new award size to an estimated $500,000 and invite eligible 
applicants to propose projects with a specific focus on renovation and 
improvements to their classrooms, libraries, laboratories, and other 
instructional facilities.

Federal TRIO Programs, Other......................................   3.6
    Staff Training................................................   2.5
    Dissemination Partnership Projects............................     0
    Evaluation....................................................     0
    Administration/Peer Review....................................   1.1

    The reduced request for TRIO activities, overall, for 2006 reflects 
the decision to shift high-school-related TRIO resources to the 
proposed High School Intervention initiative, which would provide a 
more flexible, comprehensive, and accountable approach to addressing 
the college preparation needs of high school students. The new 
initiative would help ensure that the types of services currently 
provided by programs like Upward Bound and Talent Search are part of a 
broader effort to provide students, especially those most at-risk, with 
the full range of services they need in order to succeed.
    The remaining Federal TRIO Programs would receive $369.4 million to 
maintain services for more than 420,000 low-income, first-generation 
(or disabled) individuals. Among these remaining programs, Staff 
Training, Dissemination Partnership Grants, Evaluation, and 
Administrative Expenses would be reduced by a total of $9.7 million due 
to the elimination of the Upward Bound and Talent Search programs, 
which typically comprise more than half of TRIO grants. New Staff 
Training funds, down $2.8 million from 2005, would fund 6 new awards, 
at an average funding level of $417,000, to provide nearly 2,000 TRIO 
professionals with the skills necessary to run effective projects. 
Funding for Dissemination Partnership Grants would be eliminated 
because sufficient best practices at the postsecondary level are 
already available. Evaluation funding would be temporarily reduced by 
$525,000 due to the completion of the current round of program studies. 
Funding for administrative expenses, covering peer review of new award 
applications and other expenses, including performance measurement and 
analysis, would decrease by $2 million.

All Other ED Programs:                                          Millions
    Helen Keller National Center..................................  $8.6

    This program serves individuals who are deaf-blind, their families, 
and service providers through a national headquarters Center with a 
residential training and rehabilitation facility and a network of 10 
regional offices that provide referral, counseling, and technical 
assistance. The reduced request does not include the additional $2.0 
million earmarked for the Center in 2005, which is not expected to be 
fully expended in 2005. At the request level, the Center would provide 
direct services for approximately 95 adult clients, 12 high school 
students, and 10 senior citizens at its residential training and 
rehabilitation program and serve 2,000 individuals, 500 families, and 
1,100 agencies through its regional offices.

    Research & Innovation in Special Education....................  72.6

    This program supports research to address gaps in scientific 
knowledge in order to improve special education and early intervention 
services and results for infants, toddlers, and children with 
disabilities. The request would support investments in special 
education research to advance our understanding of early intervention 
and assessment for young children with disabilities, language and 
vocabulary development, assessment for accountability, secondary and 
postsecondary outcomes, and serious behavior disorders. The decrease is 
equivalent to the amount of funds earmarked by Congress in 2005 for 
one-time projects. This program, which received a Results Not 
Demonstrated rating following a PART analysis completed during the 2005 
budget process, was recently moved to IES as part of IDEA 
reauthorization. The new Center for Special Education Research within 
IES will develop priorities for future research, as well as a plan for 
carrying out research programs with measurable indicators of progress 
and results.

    Vocational Rehabilitation--Assistive Technology...............  15.0

    The request includes $15 million for the Alternative Financing 
Program (AFP), which provides grants to States to establish or expand 
loan programs that help individuals with disabilities purchase 
assistive technology devices and services. To date, the AFP has 
provided or facilitated loans totaling $15.5 million to 1,515 
individuals with disabilities. These loans are enabling individuals to 
acquire technology they might not otherwise be able to obtain that 
improves their quality of life and, in many cases, enables them to work 
or participate in other productive activities. No funding is requested 
for other programs authorized under the Assistive Technology Act, as 
recently revised, including the AT State grant program, the Protection 
and Advocacy (P&A) for Assistive Technology program, and National 
Activities. While States have received more than 10 years of support 
for activities under the antecedent program, the Department has been 
unable to identify and document any significant benefits. The 
Administration has proposed to discontinue funding for the AT State 
grant program and instead, as part of the New Freedom Initiative, 
support the AFP, which holds greater promise of providing tangible 
benefits to individuals with disabilities. Activities carried out under 
the AT P&A program can be carried out under the Protection and Advocacy 
of Individual Rights program.

    Vocational Rehabilitation--Demonstration and Training.........   6.6

    Demonstration and Training programs support projects that expand 
and improve the provision of rehabilitation and other services 
authorized under the Rehabilitation Act, including related research and 
evaluation activities. The request would provide a total of $6.6 
million for new activities, including $2.0 million that would be used 
to jointly fund the Transition Initiative under the Special Education 
account. The request would eliminate $8 million for one-time projects 
in fiscal year 2005.

    Adult Basic and Literacy Education State Grants............... 200.0

    The Administration requests $200 million for Adult Basic and 
Literacy Education State Grants, with the expectation that new 
authorizing legislation will be enacted in 2006. This request is 
consistent with the Administration's goal of decreasing funding for 
programs with limited impact or for which there is little or no 
evidence of effectiveness. A PART analysis of the program carried out 
as part of the fiscal year 2004 budget process produced a Results Not 
Demonstrated rating. The program was found to have a modest impact on 
adult literacy, skill attainment and job placement, but data quality 
problems and the lack of a national evaluation made it difficult to 
assess the program's effectiveness. The request for State Grants 
includes level funding for the English Language and Civics Education 
grants, which enable States experiencing high levels of immigration to 
respond to the specialized educational needs of the immigrant/limited 
English proficient population.

                                                                Millions
Salaries and Expenses: Program Administration.....................$419.0

    The 2006 request includes $419 million, a slight decrease of 
$300,000 from the 2005 level, for the Program Administration account, 
which funds administrative support for most programs and offices in the 
Department. The request includes $254.2 million for the 2,242 FTE, and 
$164.8 million for non-pay costs. The non-pay request includes $4.1 
million to continue implementation of the Performance Based Data 
Management Initiative, which will collect timely data on student 
achievement and educational outcomes. Other non-pay costs include rent, 
travel, data collection, evaluations, computer hardware and software 
support for the staff, and other administrative activities.

                  FOREIGN LANGUAGE ASSISTANCE PROGRAM

    Let me begin as to a question--in the minute and a half 
that I have remaining--with a letter which Senator Cochran and 
I sent to you earlier this month, which you have responded to, 
regarding the new grant competition under the Foreign Language 
Assistance Program. We're concerned that the competition does 
not reflect congressional intent in appropriating these funds; 
we intended that they would help schools offer foreign language 
instruction to their students. Will you comment on that, 
please?
    Secretary Spellings. Senator, I've just recently become 
familiar with that issue, and I am trying to get to the bottom 
of all the various local issues that undergird that, but I 
think one of the things that we at the Department are trying to 
do is to provide maximum latitude to States and local districts 
on funding, and yet hold them accountable for results, and I 
will be glad to look into that issue more--I know that you just 
received the letter, I think, late last night--so, I want to 
work with you on these issues, and I'll look forward to talking 
with the local folks in your communities who have raised their 
concerns.
    Senator Specter. As I had announced earlier, I have other 
commitments, which I'm going to have to leave for, and as I 
said earlier, Senator Harkin will take over on the hearing if 
there is no other Republican present. Let me now turn to 
Senator Harkin for questioning. Senator Harkin, you have the 
floor.

                OPENING STATEMENT OF SENATOR TOM HARKIN

    Senator Harkin [presiding]. Madame Secretary, again, thank 
you very much for appearing before the subcommittee, I thank 
the chairman for being here, too, and in absentia, thank 
Senator Specter for his great leadership of this subcommittee. 
I was just thinking, it has been 15 years, really, that we've 
worked together as chairman and ranking member, back and forth 
on this subcommittee, and it has been a great partnership. I 
think this really is one subcommittee that has worked together 
in a true bipartisan fashion--through Republican and Democratic 
administrations--through all those years. I've really 
appreciated that working relationship that we've had, 
especially on this subcommittee.

             PROPOSED REDUCTION IN TOTAL EDUCATION FUNDING

    I just wanted to make a couple of statements about the 
budget that has come up here. I think we have to take a look at 
where we're headed, and why we're shifting some of the monies 
around. I--first of all--think that we need to put some more 
into the budget for education. The President's budget cuts 
funding for education for the first time in 10 years--now I'd 
be glad to listen to any counters to that--and we look at No 
Child Left Behind, and we discussed this before, you can say, 
``Well, it's funded.'' But I'm talking about what expectations 
were when we passed No Child Left Behind--which I supported at 
that time--and I think the expectation level was that we would 
be at a certain level of funding, and we're not there.
    Title I, if it were fully funded, would cover about 3 
million more children. As for special education, and kudos to 
this administration for moving ahead on funding--but the fact 
is, we still are only around 19 percent of what we had promised 
30 years ago. And, so I will continue to prod whether it's this 
administration or any other one, as I did the one before yours, 
to continue to try to get towards that 40 percent full funding 
level. So, we're still underfunded, I think, in special 
education. In Iowa--we had the Governor in yesterday talking to 
our bipartisan group, Senator Grassley and I and our 
congressional delegation--he said Iowa would stand to lose 
about $14.1 million for career and technical education, $2.4 
million for education technology, $3.4 million for safe and 
drug-free schools, $1 million for family literacy programs, and 
$1.1 million for comprehensive school reform. That's the money 
that Iowa gets now that we wouldn't get under this budget. 
Again, it comes at an especially bad time, some 11,000 schools 
across the country have been designated ``in need of 
improvement,'' meaning they failed to make adequate yearly 
progress for 2 years in a row, and now they face sanction. 
That's about twice as many schools as last year. The number 
will go up sharply next year when AYP requirements even get 
tougher, this thing keeps getting tougher, year after year.
    So with this new budget, it seems like we're again asking 
for more reforms without really getting the resources; we're 
asking local school districts to make dramatic academic gains 
at the same time that we're cutting their funding. So, I don't 
know how we can expect 11,000 schools that are in need of 
improvement to hire better teachers, to close the achievement 
gap at a time when funding is being cut.
    I looked at the $1.5 billion High School Initiative, and 
then I thought, well, you couple that with the $2.2 billion in 
cuts to other education programs--like voc ed and GEAR UP and 
TRIO and smaller learning communities and things like that--so 
it seems like we're eliminating $2.2 billion for high schools, 
and replacing it with $1.5 billion for the new High School 
Initiative, which still represents a cut to our high schools.
    The Perkins/Voc Ed Program is also one that bothers me 
greatly, because you say that this would go to other high 
school initiatives, but in Iowa, 30 percent of our Perkins 
money goes to community colleges--so it's not high school--it 
goes to community colleges. And this has been a great thing in 
Iowa for economic development and for getting skills to our 
high school students going to community colleges.
    So, anyway, these are just some of the questions that I 
have about the budget, and about the thrust of it. Have I seen 
worse? Yes. Have I seen better? Yes. So, this falls someplace 
in the middle, at least as I see it. But I'd like to just ask a 
few questions.

                   NO CHILD LEFT BEHIND REQUIREMENTS

    First of all, about No Child Left Behind, Madame Secretary, 
you've got to be aware--as we all are--that we're hearing from 
our constituents about No Child Left Behind. A lot of concerns 
about it, educators, parents, they believe the law is too 
rigid, it's narrowing the curriculum. I don't know if this is 
just anecdotal or not, but I keep hearing stories about 
schools--in order to meet the rigid requirements of hiring 
better trained teachers, and qualified teachers for curriculums 
to meet No Child Left Behind--the first person that gets fired 
is the art teacher, or the music teacher, or the P.E. teacher. 
They're the ones who are let go. So, curriculums are being 
narrowed.
    The goal of 100 percent proficiency for all sub-groups in 
all subject areas seems to me to be unrealistic for our 
schools. We see States like Virginia, talking about pulling out 
from the law, even if it means giving up hundreds of millions 
of dollars from the Federal Government. So I was kind of 
surprised to see that now we want to extend this into high 
schools. It seems to me we ought to make the system work for 
grade schools first, before we go to high schools.
    Now--I'm going to bring this to a close here--you talked 
about remedial education. We're spending all this money later 
on downstream for remedial. If you're doing this in high 
school, that's kind of remedial. If we get it early on in grade 
schools, we don't have to remediate it in high school. So, it 
would seem to me that this high school initiative--I'm not 
adamantly opposed to it--it just seems to me that this is not 
the right time to do it. It seems to me, we've got to put those 
resources more into No Child Left Behind in elementary schools.

                         HIGH SCHOOL INITIATIVE

    Last, I must say I wear another hat--I'm on the education 
authorizing committee--and you are trying to make this change 
by putting on two sentences on our Appropriations bill. I think 
that's the wrong approach. This is an authorizing measure. I 
would think that both Senator Enzi and Senator Kennedy--Chair 
and ranking member of the HELP Committee, and others of us on 
the authorizing committee--would want to have something to say 
about how we extend the No Child Left Behind Act into high 
school as an authorizing measure, rather than putting it on an 
appropriations bill.
    So, two questions, Madame Secretary. This High School 
Initiative--should we put that money back into the grade 
schools, put it into the elementary schools now, rather than 
trying to extend the law. Second, shouldn't this be done in an 
authorizing measure?
    Secretary Spellings. Thank you, Senator, you've put out 
some great points that I'm thrilled to be able to respond to.
    First, as I said in my opening statement, there is some 
urgency in high school, no doubt about it. We need to be able 
to walk and chew gum--as we would say in Texas--and that is 
attend to, and stay the course, on No Child Left Behind. That's 
why we've sustained these large growths in reading funds; 
that's why we have a $600 million increase in Title I. But we 
also need to make sure that we are getting kids out of high 
school, fully prepared to either be successful in the work 
place or in college. I think we can, and we must, do both.
    Let me speak to the philosophy of this budget, overall, and 
that is--and this was at play, certainly, in the design and 
development of No Child Left Behind--and it is that we need to 
be very clear with States about what our expectations are, and 
then give them a lot of latitude in results, with respect to 
resources. That's why these 45 programs have been proposed for 
elimination, because the President believes that they do not 
represent, necessarily, either a critical mass, or have not, in 
all cases, been an effective use of resources.
    So the vision here is to create a new high school program 
in Title I, be clear with States about what we expect, and if 
they're getting great results with vocational education, or 
TRIO, or GEAR UP, or technology or whatever, there certainly is 
no impediment to doing that. And I'm confident--having 
represented local school boards--that when those programs get 
results for kids, they will. But I think the same people who 
are talking to you about the need for flexibility in No Child 
Left Behind, talk to me about how we prescribed a lot of 
particular, specific programs--with particular grant 
application processes, deadlines and so forth--and we are too 
much in their way with respect to managing their dollars. The 
National Governors Association just this weekend, as I said, 
met. This was one of the things they have called for. That's 
why we believe that the assessment and the measurement and the 
accountability is so critical, but let's give them more 
flexibility with respect to managing resources.

            USE OF AUTHORIZING AND APPROPRIATIONS PROCESSES

    As to the issue of the authorizing versus appropriations 
matter, certainly that is something that I have spoken with 
Senator Enzi and Senator Kennedy about--as you are well aware--
we have the Perkins reauthorization before us, the Higher 
Education Act before us; therefore many opportunities to tackle 
some of those policy matters, rightfully, on the authorizing 
side as well. So, thank you for that.
    Senator Harkin. So, we could do this in the authorizing 
committee, rather than doing it in appropriations?
    Secretary Spellings. Well, I think the whole issue of high 
school is something that people are recognizing--within this 
body and around the country--needs attending to. Certainly 
resources, obviously, are a part of that equation, but I think 
there are some things on the policy side with respect to high 
school, such as what the expectations are, what the timelines 
are, and various other things that are going to be at issue 
here as well. This High School Assessment Initiative--though 
we've called for $250 million immediately to begin to develop 
those--we recognize it is more complicated. States are going to 
use end-of-course exams, some States will use exit exams, some 
States will use Advanced Placement exams, or other standardized 
assessments as a proxy for their assessment qualifications. 
It's going to take time. We don't envision this being fully 
implemented until 2009, 2010 when the first entering class of 
No Child Left Behind kids would have made it through the 
pipeline, if you will. So, there are a lot of things that are 
at play from a policy point of view, in addition to the 
resources that are needed here, from this committee.
    Senator Harkin. I still think we're going to have to 
examine this under authorization, rather than just 
appropriations.
    Let me just ask one question more, and then I'll go over to 
Senator Kohl. When the President says you're going to spend the 
taxpayers' dollars, it ``ought to be spent wisely, or not spent 
at all.'' Of course, that raises the question: Whose wisdom? 
Ours or yours?

                         STUDENT LOAN PROGRAMS

    But, there is one thing I want to bring to your attention, 
and that has to do with the student loan program, about 
spending money. Quite frankly, I think a lot of your proposals 
make a lot of sense on the student loan program. You're 
proposing to use the savings to increase Pell Grants--that's 
good--so I applaud that, I think you're headed in the right 
direction. But, I just want to bring something else to your 
attention. Even if we adopt your recommended changes to the 
student loan programs, your own budget documents, and I refer 
here to page 371, specifically, of the budget appendix, show 
that the cost to taxpayers--of each $100 lent under the Federal 
Family Education Loans, the FFEL program--it costs $8.91 in 
taxpayer subsidies. That's your own budget. On the other hand, 
your documents show that each $100 lent under the Direct Loan 
Program makes a profit of $2.06 to the taxpayers. In other 
words, returning $2.06 to the Treasury. Well, that means a 
student with total subsidized loans of $17,000--which is about 
the average debt of a student finishing a 4-year college right 
now, we're just taking averages--under the FFEL Program, that 
costs the Government, taxpayers, $1,514, to be exact. The same 
loans to a student in the Direct Loan Program makes a profit of 
$360. So, Madame Secretary, given these facts--and the 
continuing need to find the monies for increasing Pell Grants, 
and other student aid for disadvantaged students--shouldn't we 
be doing everything we can to encourage colleges to join the 
Direct Loan Program?
    Secretary Spellings. Well, certainly, Senator, that's 
obviously an option before them. I think our proposal has 
attempted to look at the broad range of financial aid 
services--how we manage it--from Perkins loans at 5 percent 
interest rates, to a 3 point something or other average rate in 
Direct Lending and the FFEL Program, and to look at this in a 
more efficient, effective way--we've had a transformation, if 
you will, of the financial services industry, elimination of 
the middle man in some cases, different relationships between 
universities and students and the Federal department and banks, 
and others--and we believe that there are efficiencies and 
savings to be drawn by looking at those programs broadly. To 
the tune of about $30 billion over 10 years, I believe, 
eliminating that short fall once and for all, and applying 
those efficiencies, those savings toward student aid. I think 
we will, maybe, have discussions about how to turn the various 
dials across the spectrum of financial aid, and how the loan 
program balances with resources towards grants--our neediest 
students--that's why the President has put a high priority on 
Pell. But, there's lots of room to talk about it, as you know, 
we have a laundry list of various proposals which range from, I 
think, $6 billion at the high end, we've called for variable 
interest rates, and a whole laundry list of proposals for your 
consideration.
    Senator Harkin. Madame Secretary, I appreciate that, I 
just, again, I look at the table. I was quite amazed when you 
look at the cost--from the Direct Loans, $2.06 back to the 
Treasury, $8.91 in subsidies out after all of those things you 
just talked about, which is fine, and good, you still have this 
problem. You still have money not being wisely spent by the 
Government. We hear all these stories about these lending 
institutions flying their student, college directors down for 
vacations and cruises and all kinds of different things, and 
they wine them and dine them, but it seems to me with this kind 
of data that we now have, that your Department ought to be 
forthright in just saying to colleges, ``Look, we want to save 
the taxpayers' money. We want to spend the money wisely, get in 
the Direct Loan Program.''
    Secretary Spellings. We certainly, obviously, have 
supported the Direct Loan Program, and will continue to do 
that, and as institutions around the country see the merit of 
that we stand ready to assist them. But again, it's a place 
where we've sort of had a local control attitude about 
financing higher education, as we all have together.
    Senator Harkin. I don't mind local control, this is Federal 
tax dollars. The States, if they want to waste their money that 
way let them, but we have our obligation on the Federal level.
    Secretary Spellings. Right, I appreciate that.
    Senator Harkin. But, I'm glad to hear what you just said, 
that's very important. Thanks, Madame Secretary. Senator Kohl.
    Senator Kohl. Thank you very much, Senator Harkin, 
Secretary Spellings.

           PROPOSED ELIMINATION OF VOCATIONAL EDUCATION FUNDS

    The President's budget eliminates, as you know, funding for 
Perkins on the grounds that it is ineffective, and that the 
money would be better used in the K-12 system. I've talked to 
Brent Smith in Wisconsin who is Chair of the Wisconsin 
Technical College Board, and he raises an important issue that 
you ought to consider.
    The Chair says that he notes today that the average age of 
a Wisconsin technical college student is 29. These students 
have moved beyond the K-12 system, so any diversion of Perkins 
funding to K-12 would be of no help to them, obviously. And 
these older students face other obstacles besides a lack of 
academic preparation. Some are returning to school after years 
in the work force, some are pursuing highly technical degrees, 
while others are economically disadvantaged; either single 
parents, dealing with a disability, or learning English for the 
first time. That's why Wisconsin technical colleges use their 
Perkins money so well to help their students meet these unique 
challenges. They've been successful, as the vast majority 
graduate, and obtain high-skill, high-wage jobs.
    Brent Smith and the Wisconsin Technical College System 
would like to know, without Perkins, how does the Department 
expect that technical colleges will serve the current 
generation of adult Americans--most of whom are well beyond 
their K-12 years--and who need help right now?
    Secretary Spellings. Thank you, Senator, for that question. 
Let me first say that I am a former vocational education 
student myself, so I do have appreciation for what they do.
    Our budget--with respect to the split between the community 
college funding that they received from Perkins, and the high 
school level of funding--we have attempted to accommodate that 
to make them whole within either the Labor Department budget, 
or in this budget. So, by our math, the funding for vocational 
education for high schools, and for community colleges, is 
about the same. We've called for a community college expansion 
initiative of $250 million in the Labor Department budget, $125 
million for a Community College Access Grant to support more 
articulation between high schools and community colleges, and 
so forth. So, while it's a different kind of allocation of 
resources, we do believe those funding levels are approximately 
the same. As I said--I don't know if you were in the room a 
minute ago--we believe, the President's notion of how we fund 
high schools and community colleges is that we ought to be 
clear with folks about what we expect and then allow them to 
direct resources as they see fit, to a particular goal, with 
accountability attached. I'm very confident that--in places 
like Wisconsin where those vocational education programs are 
getting demonstrable results for students--that they will be 
supported by local school boards, and State officials. So long 
as we know what the data shows. But, I think what we've heard 
over and over again, even as recently as this last weekend, 
with the National Governors Association, is that for too many 
kids, high schools are not working. Particularly for those at 
the low end of the system, if you will.
    Senator Kohl. Are you saying that the Perkins money has not 
been cut?
    Secretary Spellings. I'm saying that we've put the Perkins 
money in a high school title----
    Senator Kohl. I know, but as I point out in my question, it 
doesn't help the person enrolled in the community college, the 
vocational college, to get advanced training, it doesn't help 
that person at all, who needs that training, who's out there 
today, to allocate more money to high schools. That person, as 
you know, is obviously way beyond high school.
    Secretary Spellings. Right.
    Senator Kohl. The Perkins money does serve a very 
important, useful purpose. It's used well to train these people 
who are beyond high school, to get back into the work force. 
So, I'm not sure if I understand your answer.

                     FUNDING FOR COMMUNITY COLLEGES

    Secretary Spellings. Let me clarify. And that's why the 
President has called for additional resources for community 
colleges--to serve the type of individual you just mentioned 
through a $250 million plus-up and a partnership grant between 
local employers, community colleges, and the private sector, as 
well as an additional $125 million for community colleges in 
this Community College Access grants program. So, while they 
might not be served through the Perkins program, we do believe 
we've provided resources to community colleges, to allow them 
to continue to serve the type of student that you've just 
spoken about.

                       VOCATIONAL EDUCATION FUNDS

    Senator Kohl. The Perkins program was $1.3 billion. Now, 
you've talked about $100 or $200 million. Now, to my way of 
figuring, that's not a tradeoff.
    Secretary Spellings. Under the current Perkins program, as 
you know, some of the resources are in the K-12 system, and 
some of the resources are in the postsecondary system, and we 
have attempted to take the level of resources, approximately, 
from Perkins, that support high school, and put it in a high 
school initiative. Likewise, those resources that are serving 
postsecondary students have been applied to other community 
college programs to support those type of individuals.
    Senator Kohl. I appreciate what you're saying, I think if 
Brent Smith--who is Chair of the Wisconsin Technical College 
System--were here, he would be looking at you as quizzically as 
I am, trying to figure out what it is you're saying that will 
really help him as the Chair of the Wisconsin Technical College 
Board, what's going to help him in trying to do his job. I 
think there is clearly a net minus of money that we're talking 
about here, of significant proportions. I recognize money is 
scarce, and we can't do everything we want. But, I think what 
you're telling me is they won't get the kind of money that they 
have gotten heretofore. He is saying, as Chair, that they will 
really, really miss that money, because it is being used very 
well to help people that are post-high school, educate 
themselves to get into the work force. That's clearly what he 
would be saying.

                              PELL GRANTS

    Secretary Spellings. I appreciate that point of view. I do 
want to mention a couple of other things that are on point for 
the students you are talking about, and that is the enhancement 
of Pell--more than half of the students that are in community 
colleges are Pell recipients--and we've also called for 
allowing that financial aid to be used year round, and for 
short-term training for individuals like those you've spoken 
of, to get the necessary skills to re-enter the work force.

                 PELL GRANT ELIGIBILITY AND TAX TABLES

    Senator Kohl. All right, well, let me talk about Pell for a 
minute. Last month most of our delegation from Wisconsin wrote 
the President about an issue involving Pell Grants.
    Specifically, the Department of Education is making 
immediate changes to the tax tables that determine eligibility 
for Pell Grants, as you know. As many as 5,500 Wisconsin 
students--who today get Pell Grants--could completely lose 
them, and thousands more will see their Pell Grants reduced. 
While I agree we need to use accurate tax information to 
determine eligibility, we need to remember that this will 
affect students who are in school today, and are counting on 
Pell Grants to remain in school. It would be unfair to change 
the rules, I think, in the middle of the game, and I think at 
the very least, we should all agree not to take money away from 
students who are, today, relying on the Pell Grants that they 
are getting. So, will you be able to work with us to see to it 
that Wisconsin--as well as Pell Grant recipients from other 
States, will not entirely lose their Pell Grant money, in the 
middle of their college education?
    Secretary Spellings. Let me react to that issue, on the tax 
tables. This Congress required the Department of Education to 
update these State tax tables that have not been done since, I 
believe, the late 1980s, or so, so it's been quite a while, and 
that's why the impact was more severe than it normally would 
have been, had we updated them more recently than that.
    My understanding is that the average award for those 
students is about $400 a year, and many of the folks that would 
be affected are first-time recipients, so they haven't received 
the aid yet. So, we do obviously struggle with this issue; we 
need to have the most accurate information available to fund 
these programs. But the way we've chosen to approach it in this 
budget is to increase the Pell award, to align this rigorous 
course of study to the Pell scholars, to allow for short-term 
training, to allow for year-round aid and so forth. But, I 
think we've righted the ship on the updated tax table once and 
for all, and we need to do it more consistently, and keep it 
current as we go forward, so that it will minimize the 
unfortunate effect that it had this time.
    Senator Kohl. I do appreciate that, but we apparently have 
a difference of opinion--and we could probably straighten it 
out if we looked more carefully at the facts--according to my 
information, as many as 5,500 in Wisconsin who are getting Pell 
Grants today could lose them--totally, or in part--as a result 
of this change. Now, you've said that's not so.
    Secretary Spellings. I'm not saying it's not so, I'm saying 
that my understanding is that the average award is quite small, 
and some number--I'm not sure that those people will have lost 
aid--I'll just have to look at Wisconsin's particular 
situation.
    Senator Kohl. Yes.
    Secretary Spellings. I'd be delighted to do that.
    Senator Kohl. Would you do that?
    Secretary Spellings. Sure.
    Senator Kohl. I would greatly appreciate it.
    Secretary Spellings. Sure.
    Senator Kohl. I thank you so much. Thank you, Senator 
Harkin.
    [The information follows:]
    Impact on Wisconsin Pell Grant Recipients of Revised Tax Tables
    Under the revised tax tables, 1,486 students--or 2 percent--of the 
72,252 Wisconsin students projected to receive Pell Grants under the 
previous tables would not receive grants in academic year 2005-2006. 
Projected Pell Grant awards in Wisconsin would be reduced by $4.1 
million under the revised tax tables. Based on national trends, the 
average amount lost per student is $131; awards to the neediest 
students, who qualify for the maximum Pell Grant, would be unaffected 
by the revised tables.

              PROGRAM REDUCTIONS AND DEPARTMENTAL STAFFING

    Senator Harkin. Thanks, Senator Kohl. I just have three or 
four more questions, Madame Secretary.
    The budget proposes to eliminate 48 education programs, and 
create 12 new ones, for a cut of 36 programs. Well, that's a 
lot of programs that your Department will no longer have to 
administer. And yet, the reduction in work is not reflected in 
the number of employees at the Department of Education.
    For example, under the President's budget, the Office of 
Vocational and Adult Education would practically disappear. 
Seven of the 10 existing programs would be eliminated, for a 
funding cut of almost 90 percent. From $2 billion to $216 
million. And yet, the number of full-time employees for this 
office would drop by just 3 percent. From 121 to 117. I guess, 
my question is, why do you need practically the same number of 
employees to do a tiny fraction of the work? Why isn't that 
also reflected in the budget?
    Secretary Spellings. Well, Senator, that's something 
certainly that we would take a look at. I do think that we 
would envision having folks with that kind of capability 
provide technical assistance on the high school side, so while 
it's not a one-to-one correlation, we certainly would look at 
the staffing levels that are appropriate to support the new 
world order.
    I do want to mention one thing, and that is, of the 48 
programs that we've called for elimination of, about 15 of them 
are $5 million or less. And I think we would agree that it's 
hard to have a program with a national scope for a small amount 
of money. The remainder of them are about $40 million or less, 
so they are typically fairly small programs of a few million 
dollars, and 15 of the programs are $5 million or less.

                SUMMARY STATEMENT OF HON. THOMAS SKELLY

    Mr. Skelly. Senator, I would just add, on the vocational 
education programs, many of those get funding that becomes 
available only in July. The 2005 Appropriations bill that you 
already passed this year, would provide funding beginning in 
July, and indeed in October 2005. We still need the staff in 
that office to obligate that money and make sure that it's well 
spent, under the existing law.
    The reason we had such a small reduction in employees in 
the 2006 budget, was that most of the work will still go on 
under the 2005 appropriation. We'll only see the savings from 
elimination of funding for those programs in 2007 and 2008.
    Senator Harkin. You're saying you have to last for 1 full 
year that we have the program, when it's a 90 percent cut and 
we're going to keep on 117 people to administer that, it 
doesn't sound right.
    Mr. Skelly. Again, it's going to take time to phase out all 
of the work. Part of the work of these employees is not just 
obligating the money each year, it's looking at what happens 
with the grants that were awarded in prior years, it's closing 
out those grants; there will be some work involved if Congress 
were to accept the proposal to eliminate the programs and just 
working all of that out. So, eventually there will be a drop in 
the staff, as these programs are eliminated. It just won't 
happen starting October 1, 2005 when this fiscal year begins. 
There will be a lot of work, still, for a good part of fiscal 
year 2006.
    Senator Harkin. Well, that's a pretty good answer. But it 
seems to me that there's going to be a period of time where 
you're going to have a lot of employees, looking back and 
assessing a program that's no longer in existence. If it's no 
longer in existence, why assess it? Why have employees looking 
back, assessing how a program worked, if you no longer have the 
darn thing?
    Secretary Spellings. Senator, that's certainly something 
that we would work with you on about what the right levels of 
staffing that are needed to support----
    Senator Harkin. Again, that's why we look at the budgets 
and we say, ``Well, you can do all this, we've got to see some 
drop in employees, also. Unless this is not a serious 
proposal.'' If it's a serious proposal, it ought to be done 
also with a cut in the employees also.

                     ELIMINATION OF SMALL PROGRAMS

    Now, can I just respond--just a second--to what you said 
about, a lot of these small programs are $5 million, or less. 
I've often said the genius of our American educational system 
is that we have local control, where you have well springs of 
ideas and innovation and that type of thing, you don't have a 
top-down structure where everybody marches to the same tune, 
that's sort of been the genius of our American educational 
system--so that experimentation has gone on. But, there has 
been some experimentation from the Federal side, too. And some 
of these small programs are just that; they are to test things 
out. A Senator, a Congressman, or a group gets together and 
says, ``This may be a good approach, let's try it out and see 
what happens.'' Then you see if it works, TRIO program being 
one, of course that's more than $5 million, obviously, it's a 
big program, but TRIO program is cut by almost a half. Yet, 
Trio program goes back--if I'm not mistaken--maybe 1969, 1968, 
something like that. I first became familiar with that as a 
Congressman in a rural area of Iowa back in the 1970's. I'd 
never heard of the TRIO program before. And, so through all 
these years, I think that it has proven its worth, but it 
started out as a small kind of a program to test some theories. 
That you could take kids from families where neither parent had 
ever gone to college, expose them to college situations, do 
some summer school training with them, and they would be more 
apt to pursue a higher education, and that has been proven, 
we've got data to prove that, going back to 1970. So, when 
you're cutting some of these small programs--a lot of them I 
don't even know myself, I mean, they're in there, but--it gets 
back to this wisdom thing, whose wisdom? Sometimes we put those 
in there to test things out, it's like the Writing Project that 
Senator Cochran has been pushing for years. I think that it is 
a legitimate function for us to try to test these things out 
and see how they work, and see if they do, and so when some of 
these are cut, you cut them and you do away with them before 
we've even seen whether they'll work or not--maybe some will, 
maybe some won't--it is a testing ground.
    Secretary Spellings. A fair point, and I think our question 
is, then, what's the demarcation between--when have you stopped 
testing a program, and when have you had a particular kind of 
model that's set forth for local communities--and I think, as I 
said again, the President's notion here is, let's be clear 
about what we expect, let's support measuring that achievement, 
and using that data to support improvements in the system, but 
then let's give local school districts the opportunity to 
double their TRIO Program, or whatever.

                             TRIO PROGRAMS

    Senator Harkin. Madame Secretary, local communities are not 
going to double TRIO Programs, because--I don't know, how many 
students are in TRIO now, 300,000 or 400,000, something like 
that, nationwide--so you go around the Nation, and there's just 
a few here, and a few there and a few here, and these are the 
poorest kids, usually from the poorest families, and you get 
two or three in a local district and, they have no power, they 
have no say-so. So, the local jurisdiction, the local school 
district--being pressed hard as they are right now for money, 
trying to raise funds for schools, being burdened with higher 
property taxes all the time--this is not going to be a thing 
that they're going to want to do, because it's so few. When we 
look at it from a national view--we say there's 300,000 or 
400,000 students out there that need this kind of assistance, 
that we've had the data to show that these kids are more 
successful in going on to higher education. So, I really don't 
think it's right to say that local jurisdictions will pick this 
up, it would just be so small they won't. That's why we started 
the program, that's why we've kept it up for 35 years.
    Secretary Spellings. But we have, obviously, a lot of kids 
who are in those sorts of positions and giving resources to 
school districts to design programs as they see fit--TRIO, GEAR 
UP, vocational education, technology-based programs, and so 
forth--those that are getting results for them and their kids 
is a better way to run the railroad, in the President's view.

                PUBLICIZING THE NO CHILD LEFT BEHIND ACT

    Senator Harkin. Well, I guess I disagree with him on that.
    Let me ask you on just, a couple, three other things. This 
has to do with this Armstrong Williams case. Department of 
Education funds were used to pay political commentator 
Armstrong Williams to tout the No Child Left Behind Act. Mr. 
Williams did so without disclosing that he was being paid with 
taxpayer's dollars. I was glad to see the President made it 
clear that such an arrangement was unacceptable. So, what have 
you done since becoming Secretary to make sure this does not 
happen again, Madame Secretary? Have you made any attempt to 
recoup the funds paid to Mr. Williams from Ketchum, the PR 
company that hired him as a subcontractor?
    Secretary Spellings. The first part is, we have 
commissioned an Inspector General's investigation, which is 
underway. I expect that report very shortly, he's working hard 
to get to the bottom of all the facts--what we got, what we 
paid for, what we didn't get, what the expectations were, and 
so forth--and so I'm awaiting that information before I 
determine a course of action, obviously. Likewise, the 
Government Accountability Office is conducting two 
investigations, one of which was on an initial analysis that 
apparently the Department did on media outlets and so forth, 
and that's been responded to. Then there's another one that's 
ongoing, and our General Counsel in the Department is 
cooperating fully with that, but, we're still in the fact-
finding mode. The President has been clear about this, and I 
have. I don't think it's acceptable for folks who represent 
themselves as journalists to be paid for punditry and it won't 
happen again.
    Senator Harkin. The President made it very clear, and I 
applaud him for that, I just wondered where you are, and you 
told me you were waiting for the IG's investigation to come in.

             OUTREACH AND COMMUNICATION ON FEDERAL PROGRAMS

    Madame Secretary, I understand that your Department has a 
number of contracts with public relations and other similar 
firms. How much do you plan to spend on these types of 
contracts in fiscal year 2006? I don't find this anywhere in 
the budget.
    I understand you might not have that information with you, 
and if you could submit an answer for the record, I'd 
appreciate that.
    Secretary Spellings. I'd be glad to do that. I will say 
that many of the programs--in fact, some of the ones we've 
talked about today, or this morning--do call for communications 
efforts and outreach to parents, the higher ed community, and 
so on. So, I do think it's important that we not throw the baby 
out with the bath water, particularly with a new law like this 
where there are options for parents, there are needs for 
teachers to be educated, and other educators about what the law 
provides, and so forth. So, the short answer to your question 
is, I don't know how much money we'll spend on communications. 
I certainly will find out what we're looking at.
    Senator Harkin. Someplace buried in there, there's some 
budget allocation in your Department for that, and we just 
don't have it and we'd like to take a look at that.
    Secretary Spellings. We'll look into it.
    [The information follows:]

 Contracts With Public Relations Firms, Advertising Agencies, and the 
                       Media in Fiscal Year 2006

    It is premature to identify at this time what will be the 
Department of Education's acquisition needs several months in the 
future, when fiscal year 2006 appropriations will be available for 
obligation. In considering future contracts, be assured that the 
Department will very carefully take into account the recommendations of 
the Inspector General and other reviews of the Department's past 
contracts to ensure compliance with all applicable laws.

               GRANTS FOR ENHANCED ASSESSMENT INSTRUMENTS

    Senator Harkin. When we spoke some time ago, I told you--
and at a previous hearing, I think on the Authorizing side, 
Madame Secretary--I said I was going to be like a laser beam on 
kids with disabilities, and so I'm back to that now with this 
next question.
    It's about the Grants for Enhanced Assessment Instruments 
program, which is intended to help States improve the quality 
of their tests. About $12 million will be available for this 
program in this fiscal year, 2005. In the Senate report, we 
urged the Department, when awarding grants, to give special 
attention to the needs of students with disabilities, and 
students with limited English proficiency. As you know, Madame 
Secretary, many schools have a difficult time--and we spoke 
about this--assessing the performance of these two groups. 
Often these students may have learned what they are supposed to 
have learned, but they can't demonstrate it because they aren't 
given the appropriate assessment.
    So, our report language asked the Department to put a high 
priority on grant applications that aim to improve the quality 
of the State tests for these two groups of students. 
Unfortunately, the Department seems to be ignoring this 
language. In your budget justification, it says that $12 
million will focus on the use of technology in designing State 
tests. There's nothing about students with disabilities, or 
students with limited English proficiency. So, I would 
appreciate it if you could take our Senate request into account 
when you award these grants. Perhaps there's a way to combine 
the Department's priorities with the Senate's priorities. 
Again, this is money wisely spent, there's wisdom, perhaps, on 
both sides here.
    For example, technology might be a good way to provide a 
special accommodation for students with disability. So, if 
you're going to do the technology, make it applicable to 
students with disabilities, so I hope you take another look at 
our report language, and at least update me on how you're going 
to do that for next year.
    Secretary Spellings. I absolutely will, and let me mention 
a couple of things. You and I did speak about this, and I 
convened--on the policy side--a group of experts to help us 
develop technical assistance, and listen to the educators and 
the advocacy community about where we are with special ed in 
the implementation of this law. I said--and I know you agree--
that without No Child Left Behind I don't think we would be 
having this conversation, and I'm glad we are.
    Senator Harkin. I applaud that, and that's one of the 
reasons I supported that, because I said, ``Finally, we're 
going to get the kids with disabilities, and we're not going to 
leave them behind, either.'' So, that's why I'm focusing on 
this.
    Secretary Spellings. Schools are starting to attend to 
them. But, we've got a long way to go with respect to technical 
assistance on assessment and on curriculum, and I've asked the 
organization that you recommended to me to participate on this 
panel of experts, and this is certainly an area of interest 
that they have identified. I do pledge to take this into 
consideration as we award these grants, I think that's the kind 
of application we're going to see from States. And I do think 
there's a harmony between the technology application and the 
needs of these kids.
    Senator Harkin. But, when you put out those requests, 
again, how they're worded gives the States some idea of what 
they should put in their grant requests, and if there's nothing 
in there about better assessment for kids with disabilities, 
``and please when you put in your grant request, we will look 
favorably upon that kind of thing,'' you know that, of course.
    Secretary Spellings. Right. But as I travel around the 
country, talking to educators, this is a hot issue. This is 
something they're struggling with, and this is the kind of 
application I expect to get, frankly.
    Senator Harkin. I'm glad you said that, I just hope that 
that word goes out there to the community out there, too.
    [The information follows:]

                    Grants for Enhanced Assessments

    The Department will give competitive priority to applications for 
fiscal year 2005 and fiscal year 2006 funds under the Enhanced 
Assessment Instruments Grants program that propose projects addressing 
the use of accommodations or alternate assessments to improve the 
quality of assessments for limited English proficient students and 
students with disabilities. The notice inviting applications for fiscal 
year 2005 funds under the program, tentatively scheduled for 
publication in late spring of 2005, will announce the priority.

                      U.S. CONSTITUTION INITIATIVE

    Senator Harkin. One last question, I'm asking this question 
on behalf of Senator Byrd, who could not be here. The fiscal 
year 2005 Consolidated Appropriations Act last December, 
included language proposed by Senator Byrd that designates 
September 17 of each year as Constitution Day. The language 
also required that Federal employees be provided with training 
and educational materials concerning the U.S. Constitution--
both at the time of their orientation as new employees, and on 
September 17 of each year.
    In addition, the new law requires that all educational 
institutions receiving Federal funds hold an educational 
program on the Constitution on September 17. The law does not 
prescribe the exact content of the program, and it does not 
mandate any particular curriculum. There's no congressional 
intent to dictate to any educational institutions--public or 
private--exactly what must be said or done in the program 
provided by the institutions on this subject. The law simply 
requires that educational institutions hold a program on the 
Constitution, on Constitution Day, September 17.
    I've been told by Senator Byrd that the Office of Personnel 
Management is working with the Department of Education on a 
Constitution initiative, which OPM plans to announce in several 
months to fulfill the requirements of this new law. Madame 
Secretary, can you confirm for Senator Byrd that the Department 
of Education will forward to this subcommittee, by April 1, 
2005, its plan and/or guidelines for implementing the law's 
requirement that certain educational institutions hold a 
program on the Constitution on September 17.
    Secretary Spellings. I certainly will look into that, 
Senator, I'm not completely familiar with all the particulars 
that you mentioned, but I will certainly look into it and get 
back to you and Senator Byrd.
    Senator Harkin. I appreciate that. If you could get back to 
us, and see if you could do that by April 1, we're already into 
March. I didn't know if that date was in the law or not.
    Secretary Spellings. The 17th is a Saturday, I was just 
informed, so this year, September 17, Constitution Day is a 
Saturday, and that particular day kids will not be in school. 
So I think they're trying to work through issues like that, and 
run that to ground.
    Senator Harkin. That's one of the things that's supposed to 
be worked out in the guidelines. Obviously sometimes it will 
fall on a Saturday or Sunday, so you'll do it on a Friday or 
Monday, or something like that, I suppose.
    Secretary Spellings. Right, right.
    Senator Harkin. I think Senator Byrd just wants to know 
what your plans are for this.
    Secretary Spellings. Right, absolutely, and I will get back 
to him on that. We do have a working group working on this 
matter; obviously OPM is on the case also, so I'll report back.

                            CLOSING REMARKS

    Senator Harkin. Madame Secretary, that's all the questions 
I have, I don't have any other questions from any other 
Senators, if there's anything else that you'd like to leave 
with us here, I'd be glad to make sure we have it in the 
record, if there's anything else.
    Secretary Spellings. I've submitted a statement for the 
record, Senator. Thank you very much for your hospitality, and 
I appreciate it.
    Senator Harkin. Thank you, Madame Secretary, for being here 
and being forthright with your answers to the questions, and I 
look forward to this further submission to the record of those 
things that we asked about.
    Secretary Spellings. Will do, absolutely.

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Harkin. We have received the prepared statement of 
Senator Mary L. Landrieu which will be placed in the record.
    [The statement follows:]

             Prepared Statement of Senator Mary L. Landrieu

    Thank you very much, Secretary Spellings for giving us your time 
today. We appreciate your visit to Capitol Hill to help explain some of 
the budget decisions that were made by the Administration. Also, let me 
offer you my congratulations and best wishes as you begin your new 
position as Secretary of the Department of Education.
    There is no greater investment we can make in our future than in 
the education of our children. President John F. Kennedy once said, 
``Our progress as a nation can be no swifter than our progress in 
education. The human mind is our fundamental resource.'' He was right; 
if we are to succeed, we must make education the forefront of our 
agenda. We must work to raise academic achievement in our public 
schools by putting the priority on performance instead of process, 
delivering results instead of developing rules, and on actively 
encouraging bold reform instead of passively tolerating failure.
    The passage of No Child Left Behind (NCLB) Act in 2001 reaffirmed 
Congress' commitment to be a more equal partner, instead of a major 
impediment, to real education reforms. However, the Administration's 
budget for fiscal year 2006 has not lived up to this promise and as a 
result they continue to leave children behind. This year, the Bush 
budget will create a budget shortfall of almost $9 billion for Title I 
funding under NCLB. As you know, Madam Secretary, Title I funding makes 
it possible for all children, regardless of economic background, to 
have access to a high quality education. In Louisiana, this shortfall 
will translate to over $212 million in funding not getting to local 
educational agencies in Louisiana and leaving behind 66,656 Title I 
students in the state.
    Investing in our children is critical to the well-being of our 
country. While investments in education without accountability are a 
waste of tax-payer dollars, accountability without strategic 
investments in education is a waste of time. If the promise of No Child 
Left Behind is to be truly fulfilled, we must not only continue the 
reforms begun under NCLB, we must fully invest in them. Requiring 
states to meet new, higher standards is a move in the right direction, 
but we must provide states with the resources they need to meet these 
new standards. Every year since the passage of NCLB, the budget 
shortfall for education spending offered by this Administration has 
increased. Making sweeping reforms, while robbing states of the 
resources they need to implement the reforms, is the way that states 
become left behind in education. The promise to ``Leave No Child 
Behind'' is an empty one unless we are willing to make the critical 
investments necessary to support our nation's children.
    What is almost more disturbing than the Administration's lack of 
interest in fulfilling the promise it made to American students 4 years 
ago, is the fact that the Administration continues to make new empty 
promises. This year, the President has proposed a new high school 
initiative as part of the education budget. He has proposed that $1.24 
billion be spent on the High School Intervention program. I have no 
objection to the idea behind this program, and wholeheartedly agree 
with the President that we must work to improve the education standards 
in our high schools. I do, however, take issue with fact that this new 
promise is being made when the old promises have yet to be fulfilled.
    Empty promises are not only being made in elementary and secondary 
schools, Madam Secretary. The President's budget includes $33 million 
for Enhanced Pell Grants. This increase in Pell Grant funding is 
exciting, as we should be increasing opportunities for all students to 
attend a college or university. However, as the adage goes, you cannot 
steal from Peter to pay Paul. While there is an increase in Pell Grant 
funding, there have been significant reductions made to college 
preparatory programs, such as TRIO. In Louisiana, there are currently 
fifty-nine TRIO programs, and over 17,700 students are currently 
participating in them. The merits of TRIO have been widely proven. 
Students who participate in the Upward Bound TRIO program are four 
times more likely to earn an undergraduate degree than students from 
similar backgrounds that do not participate in TRIO. In a state like 
Louisiana, where poverty continues to serve as a barrier to higher 
education, it is of the utmost importance that we provide all possible 
services to our students to encourage their pursuit of a college 
degree. Yet again, while the President highlights his commitment to 
higher education by increasing the Pell Grant funding, he fails to 
mention that that increase is coming at the expense of other higher 
education programs.
    There's a story that I remember hearing when I was a little girl 
about a church in the suburbs of New Orleans. The church was small and 
its membership was not particularly high. There was a leaky roof on the 
church, and for anyone who has been to south Louisiana, you know that 
during hurricane season, the last thing you want is a leaky roof. The 
church had started raising money to fix the roof, when the preacher got 
the idea that in order to attract new members, they should buy a new 
organ. The organ they had was old and, according to the preacher, 
didn't do justice to the Sunday hymns. The preacher rallied the 
congregation around the new organ, and everyone forgot about the leaky 
roof. A year later, the congregation had raised enough money, and one 
Sunday afternoon, they all moved the organ in. Now it does not take a 
meteorologist to tell you, it rains almost everyday during the summer 
in Louisiana, and sure enough, it rained in that little town, and the 
church roof leaked, and when the congregation arrived Sunday morning, 
the new organ was wet and broken.
    Madam Secretary, I would suggest that perhaps under your 
leadership, the Department of Education can finish out what it started 
before the rain comes and what improvements we've made get lost. Under 
NCLB we have identified the schools in need of improvements, now let's 
get about the business of improving them. We have identified the 
teachers who are under qualified, let's get about the business of 
getting them qualified. We have promised parents choices, let's get 
about the business of providing them.
    Thank you, Madam Secretary.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Harkin. There will be some additional questions 
which will be submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing.]
              Questions Submitted by Senator Arlen Specter

                          NEW BUDGET RESOURCES

    Question. The Administration's fiscal year 2006 budget proposes to 
extend No Child Left Behind to the high school level, by requiring 
States to test high school students in two additional grades. Studies 
have documented shortcomings in the preparedness of all high school 
graduates for work or college. However, funds proposed in the budget to 
support the high school reform initiative are generated through the 
elimination of GEAR UP, certain TRIO activities, and the vocational and 
technical education program. The Administration's goal of reforming 
high schools is important and laudable. However, eliminating popular 
and effective programs will make it more difficult to generate support 
for the Administration's reform proposal. Isn't the goal of helping 
States and local school districts prepare high school students for the 
21st Century workforce and college worthy of new resources, even within 
a tight budget?
    Answer. As I mentioned in my opening statement, the first goal of 
the President's 2006 request is fiscal discipline in terms of total 
discretionary and non-security spending. Doing our share in achieving 
that goal means we do not have new resources, overall, in our 2006 
budget, and that means we had to make some tough decisions. And we 
tried to make those decisions not on the basis of popularity or 
politics, but based on the results produced by the investment of 
taxpayer dollars.
    When we looked at the challenge of reforming our high schools and 
doing a better job of preparing our students for college and the 
workforce, we saw little evidence of a meaningful contribution by 
several current programs. Since we believe our High School Initiative 
holds greater promise of bringing about real change in the performance 
of our high schools, it made sense to re-direct funding from other, 
less-effective activities to the new program. Also, there is 
considerable flexibility in our High School Intervention proposal, and 
districts and schools that believe that college preparation and 
vocational activities are the most appropriate way to meet the needs of 
their high school students would be free to use funding under the new 
program to pursue such strategies.

                        HIGH SCHOOL ASSESSMENTS

    Question. The budget proposes $250 million to pay for the costs of 
additional assessments proposed in the Administration's High School 
Reform initiative. According to GAO's report, Title I: Characteristics 
of Tests Will Influence Expenses; Information Sharing May Help States 
Realize Efficiencies (GAO-03-361, May 8, 2003) showed that costs for 
developing and administering tests could vary greatly. What is the 
basis for the request of $250 million to pay for these additional 
assessments?
    Answer. While test development and administration costs can vary 
widely, ESEA as reauthorized by NCLB already requires States to assess 
students in reading and mathematics at least once in the high school 
grades. The President's proposal would require testing high school 
students in those subjects in only two additional grades.
    Under ESEA Section 1111(b)(3)(D) Congress authorized a total of 
$2.34 billion over 6 years to assist States in developing the 
additional assessments required under NCLB. The additional requirement 
entailed implementation of assessments in reading and mathematics in 
each grade from 3rd grade to 8th grade (instead of once in each grade 
span of 3rd through 5th grade and 6th through 8th grade) plus 
implementation of science assessments once in each grade span of 3rd 
through 5th grade and 6th through 8th grade and once in high school. 
The NCLB requirements add up to 11 more assessments than were required 
prior to enactment of the Act.
    The High School Assessments proposal, which calls for assessing 
students in reading and mathematics at least three times during high 
school, would require States to implement two new high school 
assessments in two subjects, for a total of four new assessments. The 
proposed funding level of $250 million a year over several years will 
provide ample resources to implement the additional assessments. If, 
for instance, the Congress provides 4 years of funding for the high 
school assessments, that would equate to $250 million per assessment 
(that is, $1 billion divided by four assessments). This is slightly 
higher than the amount States received for the MCLB-required tests 
($2.34 billion divided by 11 assessments).

                          COST OF ASSESSMENTS

    Question. How much of the estimated cost of the new assessment 
requirements would this request meet?
    Answer. While test development and administration costs can vary 
widely, the President anticipates that $250 million a year from fiscal 
year 2006 through fiscal year 2009 will cover a significant portion if 
not all the costs of developing the new assessments.

        ACCOUNTABILITY UNDER HIGH SCHOOL INTERVENTION INITIATIVE

    Question. The America Diploma Project recommended that States 
should not rely exclusively on large-scale assessments, because they 
``cannot measure everything that high school graduates need to know and 
be able to do.'' How was this recommendation for States considered in 
the request for assessments specifically or more generally in the 
Administration's High School Reform initiative?
    Answer. While the American Diploma Project (ADP) did state that 
``graduation exams cannot measure everything that matters'', it 
recommended that States ``measure what matters and make it count.'' 
Consistent with the ADP recommendation, accountability under the High 
School Intervention proposal would be based on a range of student 
outcomes that include assessment scores as only one element of high 
school accountability. Other elements could include graduation rates, 
course completion, and enrollment in postsecondary education. The High 
School Intervention proposal would require States to establish clear, 
measurable goals and show significant improvements in student outcomes. 
The role of the expanded assessments would be to produce uniform, 
objective data for measuring student achievement and holding schools 
accountable for academic improvement of all high school students.

                           ADVANCED PLACEMENT

    Question. The fiscal year 2006 budget includes $51.5 million for 
the Advanced Placement program, an increase of $21.7 million over the 
fiscal year 2005 level. This program helps States and school districts 
expose students, especially low-income and minority students, to more 
challenging coursework. Studies have found that a key predictor of 
success in college is exposure to high school coursework of academic 
intensity and quality, which is why I supported an increase of $6.2 
million or 11.6 percent for this program in fiscal year 2005. What is 
the biggest challenge school districts must overcome to expose all of 
their students to challenging courses that prepare students for work or 
college, in particular those districts that educate large numbers of 
low-income students and how will these funds and others in the fiscal 
year 2006 request help address those challenges?
    Answer. School districts, especially those that educate large 
numbers of low-income students, face several challenges in creating a 
pipeline that prepares students for Advanced Placement (AP) and 
International Baccalaureate (IB) coursework and exams. First, districts 
need to realign their curriculum so that students are taking 
challenging coursework in elementary and middle school that prepares 
them for AP and IB-level courses in high school. Second, districts need 
to identify and recruit under-represented students, such as low-income 
and minority students, to enroll in the challenging courses. Third, 
districts need to provide professional development for teachers, to 
help them gain the content knowledge and pedagogical skills to instruct 
students in AP and IB courses. Finally, districts often need to find 
and implement creative solutions to increase capacity for AP and IB 
coursework in schools with low-income students, such as on-line 
coursework and partnerships with institutions of higher education. The 
funds in the fiscal year 2006 request would allow the Department to 
award grants to State educational agencies (SEA), local educational 
agencies (LEA), and national nonprofit educational entities to deal 
with each of these issues.

                IMPACT OF THE ADVANCED PLACEMENT PROGRAM

    Question. This year, the Department must submit a report on the 
impact of the Advanced Placement program. Do you have anything to share 
at this moment about the impact of the program?
    Answer. The Department will submit a report to Congress on the 
impact of its Advanced Placement program later this spring. The report 
will show that, nationwide, the number of students participating in AP 
and IB is increasing. From 2000 to 2004, the percentage of all high 
school students who took an AP exam rose from 15.9 percent to 20.9 
percent. Also, the percentage of all high school students who scored 3 
or above on an AP exam rose from 10.2 percent to 13.2 percent.
    As overall participation has risen, participation by minority and 
low-income students has increased as well, but the access gap continues 
to persist. For example, students attending smaller schools and higher-
poverty schools have less access to AP and IB. Also, black, Native 
American, and economically disadvantaged students participate in AP 
courses and exams at a lower rate than the national average.

             READING BY THIRD GRADE--READING FIRST PROGRAM

    Question. President Bush committed to providing $5 billion over a 
5-year period for the Reading First program, which helps students read 
at least on grade level by the end of third grade. If Congress approves 
the $1.042 billion included in the fiscal year 2006 budget request, 
this 5-year funding goal will be achieved. Is progress being made 
toward achieving the President's goal of all students reading on grade 
level by the end of third grade?
    Answer. Reading First is the largest and most focused early reading 
initiative this country has ever undertaken. Although it is in its 
early stages of implementation, its impact is being felt across the 
country. Reading First provides an opportunity for every State to 
implement reading programs based on scientifically based reading 
research. Effective early reading instruction can prevent the 
difficulties that too many of our students, especially disadvantaged 
students, now face. Through Reading First, States have an arsenal of 
proven instructional methods, professional development, and proven 
interventions to increase the proportion of students who read on grade 
level by the end of the third grade.
    While State-level performance data will not be available until the 
summer of 2005, there are already very encouraging signs from around 
the country. For example, less than a quarter of students in first 
grade at Lowell Elementary School in Mesa, Arizona met the school's 
benchmark on a national reading assessment in 2003. The students, 
tested again in 2004 while in second grade, fared considerably better, 
with almost half meeting the benchmark. School officials, teachers, and 
parents credit the Reading First program as being an instrumental force 
behind this improvement. Schools around the country report similar 
outcomes as students in some of our Nation's neediest schools receive 
the intensive instruction necessary to help close the achievement gap 
in reading.

                 CORE COMPONENTS OF READING INSTRUCTION

    Question. How have these funds been used to implement 
scientifically-based reading instruction?
    Answer. In order to receive a Reading First subgrant, a local 
educational agency (LEA) must demonstrate that its core reading 
curriculum reflects the five essential components of reading 
instruction, as identified by the April 2000 Report of the National 
Reading Panel. These components are phonemic awareness, phonics, 
vocabulary development, fluency, and comprehension. Reading First also 
provides professional development to more than 90,000 K-3 teachers, 
ensuring that all teachers, including special education teachers, have 
the skills they need to teach reading and monitor student progress 
effectively in Reading First classrooms. In addition, the progress of 
students in Reading First classrooms is closely monitored through valid 
and reliable assessment instruments so that immediate intervention can 
prevent students from falling behind.

                           ARTS IN EDUCATION

    Question. The budget proposes to eliminate the Arts in Education 
program, which was funded at $35.6 million in fiscal year 2005. In a 
recent study by the Council for Basic Education, a nonprofit 
organization that advocates for liberal arts subjects, 25 percent of 
principals reported decreases in the time their schools devote to the 
arts and 33 percent expect decreases in the next 2 years. These changes 
have impacted poor minority students the hardest as 36 percent of 
principals in schools with large percentages of minority students 
reported reduced instructional time for the arts, while 42 percent 
anticipate future decreases. According to the report Champions of 
Change, students who participate in the arts outperform those who don't 
on virtually every measure. In addition, researchers have found that 
``sustained learning'' in music and theater correlate to greater 
success in math and reading, and students from lower socioeconomic 
backgrounds see the greatest benefits. Isn't it important to maintain a 
Federal commitment to fund arts education, given different student 
learning styles and interests and the proven benefits of instruction in 
the arts?
    Answer. The arts play a significant role in education both for 
their intrinsic value and because of the ways that they can enhance 
general academic achievement and improve students' social and emotional 
development. No Child Left Behind includes arts as a core academic 
subject and holds arts teachers to the same high standards as it does 
those who teach English, math, science, and history.
    There are a variety of opportunities for districts and schools to 
include the arts in instruction. Districts seeking to implement arts 
education activities can use the funds they receive through the 
Improving Teacher Quality State Grants program to carry out 
professional development activities that improve the knowledge of 
teacher and principals in core academic subjects, including the arts. 
Additionally, districts may use their funds under the State Grants for 
Innovative programs to support programs in the arts. Lastly, the arts 
can also be an important part of learning and enrichment in programs 
supported by the 21st Century Community Centers program funds by 
involving cultural partners in the community, such as arts centers, 
symphonies, and theaters. The Administration's 2006 budget request 
would continue strong support for all of those programs.

                         EDUCATIONAL TECHNOLOGY

    Question. According to the Education Commission of the States 
Report to the Nation on the Implementation of No Child Left Behind, 
``Many states do not have in place the technology infrastructure needed 
to collect, disaggregate and report data at the school, district and 
state levels. NCLB doesn't require the development of statewide data 
systems but, without them, states will have difficulty meeting a number 
of the law's requirements.'' Further, the Department's National 
Education Technology Plan identified Improving Teacher Training as a 
recommendation and also stated that, ``Teachers have more resources 
available through technology than ever before, but some have not 
received sufficient training in the effective use of technology to 
enhance learning.'' Given these recent findings and recommendations, 
why does the budget propose eliminating the Education Technology State 
Grant program, the only remaining Federal source of funds dedicated to 
addressing these issues?

                         EDUCATIONAL TECHNOLOGY

    Answer. The fiscal year 2006 budget request supports the 
Administration's policy of eliminating categorical programs that have a 
narrow or limited effect in order to increase support for high-priority 
programs. Educational technology needs can be addressed by using other 
sources of Federal funds. For example, districts may use their funds 
under the Improving Teacher Quality State Grants program to implement 
professional development programs that train teachers and principals to 
integrate technology into curricula and instruction in order to improve 
teaching, learning, and technology literacy.
    While developing and operating statewide student data systems are 
allowable activities with Education Technology State Grant funds, there 
is little evidence that States use these funds for that purpose. This 
elimination of the program should not affect States' activities in this 
area. In order to address the States' need to develop effective 
longitudinal data systems, the Department has requested continued 
funding for the Statewide Data Systems program. Continuation of this 
program will allow States and local educational agencies to use 
assessment and other data to identify struggling students and track 
their progress while complying with the requirements of No Child Left 
Behind.
    Question. In Pennsylvania, $22 million of the $23 million spent 
specifically on educational technology is generated by the Education 
Technology State Grant Program and an independent evaluation conducted 
by Metiri Group and Penn State University found that many of 
Pennsylvania LEAs are experiencing significant improvements in teacher 
skill level and student performance because of the funds available 
through this program. How will Pennsylvania continue to make the kind 
of progress identified by the evaluation without these resources, 
especially given the reduction in or elimination of other sources of 
Federal funds that may be transferred for use under this program?
    Answer. The Administration recognizes that Pennsylvania, like many 
States across the country, is facing a difficult budget situation. 
However, the flexibility provisions in No Child Left Behind allow 
districts to make use of their Federal assistance by permitting them to 
more efficiently allocate resources to address their particular needs. 
Pennsylvania districts will thus continue to be able to use Federal 
assistance for technology purposes.

             LEVERAGING EDUCATIONAL ASSISTANCE PARTNERSHIPS

    Question. The Leveraging Educational Assistance Partnerships 
program has generated significant State need-based aid through matching 
funds that totals nearly $1 billion. Why does the fiscal year 2006 
budget propose to eliminate the $65.6 million in funding for the 
Leveraging Educational Assistance Partnerships program despite the fact 
that it is the only Federal program designed to expand the amount of 
need-based student aid provided by States?
    Answer. We believe the best way to foster college access and 
completion is to concentrate resources on Pell Grants, the largest and 
most need-based Federal grant program. There is no reason to continue 
to use scarce resources on LEAP, since Federal assistance is no longer 
needed to encourage States to provide need-based grant and work-study 
assistance.

       STATE PROGRAMS OF UNDER-GRADUATE NEED-BASED STUDENT GRANTS

    Question. While it is true that funds exceed the matching 
requirement, don't you believe there should be a Federal role in 
supporting continued and expanded State need-based aid programs that 
help all students access and complete college?
    Answer. When the program was first authorized as the State Student 
Incentive Grant program in 1972, 28 States had undergraduate need-based 
grant programs. Now all but two States have need-based student grant 
programs. The continued existence of the LEAP program has not 
encouraged the two remaining States to institute State grant programs.

                       STUDENT AID ADMINISTRATION

    Question. What are the specific administrative challenges 
associated with the current funding structure and how would a single 
discretionary appropriation address those challenges?
    Answer. Funding identical student aid administrative activities 
from multiple sources creates substantial additional complexity with no 
additional value for managers or oversight organizations such as 
Congress, GAO, or Department auditors. A single funding source would 
result in a process that is both significantly simpler and 
substantially more transparent.

             ADJUNCT TEACHERS AND HIGHLY QUALIFIED TEACHERS

    Question. The budget proposes $40 million for a new program, the 
Adjunct Teacher Corps. This program would provide grants to place non-
certified teaching professionals in the classroom and allow them to 
teach on a full or part-time basis. How does this new program, which 
proposes allowing unlicensed or uncertified teachers, fit with 
Congress' and the Administration's emphasis on highly qualified 
teachers in every classroom as envisioned under the No Child Left 
Behind Act?
    Answer. The $40 million request in the 2006 budget for a proposed 
Adjunct Teacher Corps initiative would provide competitive grants to 
partnerships of school districts and appropriate public or private 
institutions to create opportunities for professionals to teach 
secondary-school courses in the core academic subjects, particularly in 
mathematics and science.
    Grants would be used to: (1) identify, as adjunct teachers, well-
qualified individuals outside of the K-12 educational system, including 
outstanding individuals at the height of their careers in business, 
government, foundations, and colleges, and (2) facilitate arrangements 
for them to function in this capacity, for example, by teaching one or 
more courses at a school site on a part-time basis, teaching full-time 
in secondary schools while on leave from their jobs, or teaching 
courses that would be available online or through other distance 
learning arrangements. In some cases, this initiative would provide 
opportunities for individuals to substitute teach in hard-to-fill 
positions.
    The intent of the Adjunct Teacher Corps initiative is not to bring 
more highly qualified teachers into the classroom on a permanent basis, 
but rather to integrate their knowledge and experience into classroom 
learning. Although potential participants would typically not be 
certified or licensed to teach in secondary schools, they often have a 
wealth of knowledge, skills, and professional experiences and would be 
able to provide real-world applications for some of the abstract 
concepts taught in classrooms. Adjunct teachers who are not employees 
of a school district would not be covered by the NCLB ``highly 
qualified teacher'' requirement. On a temporary basis, these teachers 
would give school districts opportunities to strengthen instruction in 
secondary schools in the core academic subjects, especially mathematics 
and science.

                     EVEN START AND FAMILY LITERACY

    Question. The budget request proposes to eliminate the $225 million 
Even Start program. This program successfully supports family literacy 
programs, which are comprised of adult education, parent education, 
parent-child activities and early childhood education activities. This 
concept has shown positive results and was strengthened by the 
reauthorization of the program under No Child Left Behind. The 
Administration has pointed to national evaluations conducted of the 
program as it existed prior to the reauthorization as evidence that it 
is ineffective. Madam Secretary, why are you proposing to eliminate 
this program based on evaluations that do not reflect the outcomes 
being achieved currently?
    Answer. Although the No Child Left Behind Act of 2001 strengthened 
some components of Even Start, these changes did not alter the 
structure or design of the program. Although some local projects may be 
successful, the overall effectiveness of Even Start remains very 
questionable. The 2000 Literacy Involves Families Together (LIFT) Act, 
which authorized Even Start prior to the No Child Left Behind Act, 
included language encouraging local projects to hire more qualified 
staff, to use instructional programs that are based on scientifically 
based research, and to increase the focus on evaluation. However, the 
changes made through LIFT and later NCLB did not alter the basic 
elements of the program, and a new evaluation would most likely yield 
the same results as the first three.
    While the premise underlying the Even Start program is attractive, 
the extent to which family literacy programs can enhance parent 
literacy and parenting skills is still unknown. The Administration 
believes that we should redirect the resources now available for Even 
Start to programs such as Reading First and Early Reading First that 
are based on a sound, scientifically based approach and are better 
focused on achieving their goals of improving the literacy skills of 
young learners.

                            ADULT EDUCATION

    Question. Currently, nearly half of the adults in Pennsylvania have 
limited literacy skills. Among individuals who are receiving welfare, 
are incarcerated, or the long term unemployed, 70 percent have limited 
skills. Based on the overall reduction proposed in the fiscal year 2006 
budget, Pennsylvania programs would lose $14 million, or 75 percent, of 
Federal funds for adult education and literacy programs. The fiscal 
year 2006 performance plan for the Department of Education sets 
performance targets for the percentage of adults with a high school 
completion goal who earn a diploma or its equivalent at 46 percent in 
fiscal year 2005 and 47 percent in fiscal year 2006. How does the 
Department intend to help States make progress toward the Department's 
performance goals with 65 percent less funding overall?
    Answer. As with K-12 education, adult education is funded primarily 
through State and local resources, and Federal funds are meant to 
supplement, not supplant, local efforts to provide educational services 
to high school dropouts, immigrants, and low-literacy adults. According 
to data collected by the Department, the Federal Government contributed 
approximately 26 percent of total adult education program funding in 
2003. The budget request also recognizes the importance of addressing 
the English-language needs of our Nation's immigrant population and 
therefore includes level funding for the English Literacy and Civics 
Education (EL/Civics) component of the program, which will support 
States in addressing the educational needs of their limited English 
proficient (LEP) populations. Pennsylvania is expected to receive 
approximately $1.4 million for EL/Civics grants in 2006.
    The Department will continue to provide States and local providers 
with technical assistance, research and implementation support, and 
curricular guidance for adult education programs. Through these 
activities, the Department will enhance the effectiveness of local 
adult education programs and thus help them to successfully attain the 
performance goals set by the Department.

                 MATH AND SCIENCE PARTNERSHIPS PROGRAM

    Question. The fiscal year 2006 budget proposes to reduce funding to 
States for math and science partnerships in order to provide a set-
aside of $120 million for direct grants to school districts for math 
programs for secondary students. States are currently using their funds 
to run competitions that in some cases give a priority to applicants 
that seek to improve math achievement of middle and high school 
students. If States are designing their competitions with a priority to 
address mathematics achievement of secondary students, why should 
Congress reduce funds for States that best know how to address the 
educational needs of their school systems?
    Answer. For fiscal year 2006, the Administration is requesting $269 
million for the Mathematics and Science Partnerships program, a $90.4 
million increase over the 2005 appropriation. Of the total amount, $120 
million would be used for direct grants to LEAs to accelerate the 
mathematics achievement of secondary-school students and $149 million 
would be awarded to States by formula. The amount provided through 
formula grants would be a reduction of $29.6 million from the 2005 
level.
    American students' poor performance on national and international 
mathematics assessments, such as the National Assessment of Educational 
Progress and the 2003 Program for International Student Assessment, 
provides a compelling rationale for an intensive, targeted initiative 
to strengthen the mathematics skills of our middle- and high-school 
students, especially low-achieving students. The direct competitive 
grants requested in the budget would focus on ensuring that States and 
school districts provide professional development that is strongly 
grounded in research and that helps mathematics teachers become highly 
qualified. The Administration believes that it is critical to target 
funds directly to high-quality secondary-school mathematics projects, 
thus justifying the decrease in formula grants, which would not, as the 
program is structured, generate the type of intensive focus in 
secondary-school mathematics achievement that is clearly needed. The 
remaining funds for the formula grants would allow partnerships to 
conduct other important activities to improve student achievement, 
including activities that focus on science and elementary-school 
mathematics.
    Question. Why would a direct grant program out of Washington, D.C. 
be more effective at improving mathematics achievement than a State-
based approach that is consistent with the authorization for this 
program?
    Answer. The competitive grants would support projects that have 
significant potential to accelerate the mathematics learning of all 
secondary students, but especially low-achieving students. This 
initiative would focus on ensuring that States and LEAs implement 
professional development projects for mathematics teachers that are 
strongly grounded in research and that help teachers to improve their 
instruction in mathematics.
    The Administration believes that it is critical to fund efforts 
specifically to accelerate mathematics learning at the secondary level 
by helping secondary students master challenging curricula and by 
increasing the learning of students who have fallen behind in 
mathematics. Research indicates that many students who drop out of 
school lack basic skills in mathematics, and our Nation needs to 
support these students so that they can catch up to their peers and 
stay in school.

                            CIVIC EDUCATION

    Question. Funding for the Education for Democracy Act--supporting 
both domestic and international civic education programs--was 
eliminated in your budget and that program has successfully helped 
American students understand and appreciate our fundamental values and 
principles. This funding also supports a school violence prevention 
program that has had results in rural and urban settings throughout the 
country. The international exchange program has been very successful in 
helping emerging democracies establish an education for democracy 
program in their schools, so students would begin to understand basic 
concepts such as the rule of law, the protection of minority rights, 
and respect for diverse religions and races. The democracy curriculum 
created from the international exchange program is the only curriculum 
used in schools throughout Bosnia by all three ethnic groups, the 
Serbs, the Bosnians, and the Croats. This unique international program 
is having similar success in more than 60 countries including Russia, 
Indonesia, and nine countries in the Middle East. Madam Secretary, can 
you comment on why a program that is consistent with the 
Administration's desire to advance the ideals of democracy was 
eliminated from your budget this year?
    Answer. The request for this program is consistent with the 
Administration's intent to increase resources for higher priority 
programs by eliminating small categorical programs that have limited 
impact, and for which there is little or no reliable evidence of 
effectiveness. Less than 5 percent of funds (approximately $1.5 million 
in fiscal year 2005) available through the Civic Education program 
support activities specifically related to school violence prevention. 
The Administration believes that a more effective approach to 
addressing school violence is to invest in Safe Schools/Healthy 
Students grants--which would receive $88.5 million under the 2006 
request--to create safe, disciplined, and drug-free learning 
environments.
    Likewise, only a tiny fraction of funds designated for the 
Cooperative Education Exchange support summer workshops and other 
activities related to democracy in Bosnia. But, since the Dayton 
Accords of 1995, the U.S. Department of State and U.S. Agency for 
International Development have played a key role in promoting democracy 
in Bosnia and Herzegovina, providing hundreds of millions in support 
and critical expertise in everything from revitalizing the 
infrastructure to promoting democratic reforms of education and the 
media. Further, through the cooperative efforts of American and 
European Union governments, in 2003 a common curriculum was adopted by 
all education ministers in Bosnia and Herzegovina. It may have once 
been true that the Civic Education Project Citizen curriculum was ``the 
only curriculum used in schools throughout Bosnia by all three ethnic 
groups;'' however, it is our understanding that the adoption of a 
common curriculum in 2003 marked the end of rigid ethnic and religious 
separation in schools, and that Serbs, Bosnians, and Croat students now 
routinely pursue shared courses of study in mixed schools and 
classrooms.
    While the Civic Education program supports some worthwhile 
activities, there are no reliable measures of the overall effectiveness 
of interventions supported using program funds. Studies and evaluations 
conducted by the Center for Civic Education provide limited information 
on program performance, but none are sufficiently rigorous to yield 
reliable information on the overall effectiveness or impact(s) of the 
various interventions supported through this program. Additionally, 
because one statutorily designated entity receives approximately 75 
percent of all Civic Education funds during any single fiscal year, the 
program's contribution to the Department's overall mission is marginal.
    The Administration does not believe additional funding is necessary 
for the implementation of activities currently supported through this 
program. The Center for Civic Education is an established non-profit 
organization with a broad network of program participants, alumni, 
volunteers, and financial supporters at the local, State, and national 
levels. The Center also has a long history of success raising 
additional support through such vehicles as selling program-related 
curricular materials, trainings, and workshops, partnering with non-
profit groups on core activities, lobbying, and seeking support from 
foundations.

                   SPECIAL EDUCATION TEACHER SHORTAGE

    Question. The shortage of certified special education teachers is 
reaching very high levels and the issue needs to be addressed in order 
to ensure that all students are challenged in school and receive the 
same high level of education. Several statistics illustrate the point: 
half of new special education teachers leave the classroom within 3 
years; 98 percent of school districts report shortages of special 
education teachers; in 2002 our nation produced only 213 doctorates in 
special education; and one out of three faculty openings in special 
education go unfilled--diminishing the capacity of universities to 
train special education teachers. What does the fiscal year 2006 budget 
propose to address this critical shortage?
    Answer. Recent studies suggest that the on-going special education 
teacher shortage is affected by a number of factors, including special 
education teacher turnover rates, changes in the number of children 
with disabilities served under IDEA and Section 504, teacher training 
program enrollments and graduation rates, and the extent to which 
teacher training programs actually prepare teachers for the challenges 
they will face in the classroom. The fiscal year 2006 budget addresses 
the problem through multiple IDEA programs, including Grants to States, 
for which $11.1 billion is requested, and Personnel Preparation, for 
which $90.6 million is requested. SEAs and LEAs have the authority 
under IDEA to use Grants to States funds for a wide variety of 
personnel-related activities, including supporting personnel training 
and professional development and implementing plans to meet personnel 
shortages. Approximately 90 percent of Personnel Preparation program 
funds support grants to IHEs for the purpose of improving program 
curricula and making training and professional development 
scholarships. Such awards are targeted to improve both the quality and 
quantity of training for special education teachers and related 
services personnel. Individuals receiving scholarship assistance 
through projects funded under program are required to fulfill a 2-year 
service obligation or repay all or part of the costs of such 
assistance. This program also currently funds several projects that 
promote teacher retention through mentoring activities. Repayment 
obligations and mentoring programs are designed to aid in the retention 
of beginning special educators, a group that studies have shown to be 
particularly prone to attrition.
    It is worth mentioning that, for many years, one of the primary 
goals of Federal programs that support special education training has 
been to alleviate shortages by increasing the supply of special 
education teachers. However, except in certain isolated areas such as 
awards to train leadership personnel and personnel serving children 
with low-incidence disabilities, there is little evidence that these 
investments have resulted in measurable increases to the overall supply 
of special education teachers and related services personnel. For this 
reason, the fiscal year 2006 budget addresses the special education 
teacher shortage primarily by concentrating scholarship grant support 
in those areas where States and other investors have limited capacity 
and incentive to invest (e.g., supporting programs that prepare 
teachers of children with low-incidence disabilities and leadership 
personnel).

                   HIGHLY QUALIFIED SPECIAL EDUCATORS

    Question. What is your plan to ensure that all students benefit 
from having a highly qualified teacher in their classroom?
    Answer. The No Child Left Behind Act of 2001 (NCLB) emphasizes 
teacher quality as one of the primary factors contributing to improved 
student achievement. Consistent with this emphasis, and to better equip 
States for the critical task of ensuring that all teachers of core 
academic subjects are highly qualified, the Department has dedicated 
significant resources to such activities as providing on-going 
technical assistance and developing guidance that clearly articulates 
how the highly qualified teacher provisions affect all teachers and 
related personnel, including special educators. As part of an extensive 
outreach effort on the highly qualified teacher provisions, the 
Department recently sent a cadre of experts called the Teacher 
Assistance Corps to each State to clarify the highly qualified 
requirements, provide technical assistance, and capture promising 
implementation strategies. Many of these practices are available now 
through the www.teacherquality.us Web site, and more will be added as 
the Department continues to visit States as part of its highly 
qualified teacher monitoring. Any State that requests additional 
technical assistance on the highly qualified teacher requirements as 
they apply to special education teachers will receive such help. 
Through the Teacher-to-Teacher initiative, the Department also supports 
teacher roundtables, regional workshops, a national Research-to-
Practice Summit, and electronic teacher video training modules. The 
Teacher-to-Teacher Web site, at www.paec.org/teacher2teacher, offers 
on-demand professional development in the latest research-based 
practices.
    Because the recently reauthorized IDEA incorporates the ESEA 
definition and standards relating to highly qualified teachers with 
only slight modifications, the Department plans to continue its current 
focus on working with SEAs and LEAs towards the goal of ensuring that 
all students benefit from having a highly qualified teacher in their 
classroom. In addition to such on-going activities, consistent with 
this focus on highly qualified teachers, in announcing recent 
competitions for new Personnel Preparation competitive awards the 
Secretary emphasizes that the Department is interested in funding 
training programs that prepare highly qualified special educators. By 
emphasizing these requirements in new awards to grantees training 
special education personnel, the Department expects to gain critical 
insights into the most effective and efficient ways of ensuring that 
program curricula and professional development requirements are aligned 
with and support the highly qualified teacher requirements.

                    STATE SCHOLARS CAPACITY BUILDING

    Question. The budget proposes $12 million in fiscal year 2006 for 
State Scholars Capacity building. Congress has not provided funds 
specifically for this purpose previously, but the Department has 
supported State Scholars Partnerships through funding available under 
Vocational Education National Programs. With the additional funds 
requested in fiscal year 2006, subgrants would be made to support State 
Scholars Partnerships in 26 States. Research has demonstrated that 
students who complete a rigorous course of study during high school are 
better prepared to be successful in college and the workforce. 
Specifically, what are the findings from any evaluation that has been 
conducted on State Scholar projects?
    Answer. Since 1992, the Scholars Initiative has been piloted in 
local communities within several U.S. states, including Arkansas, 
Oklahoma, Tennessee, and Texas. We are seeing some good early results 
in the States and communities that have launched Scholars initiatives. 
Enrollment in Algebra I and Geometry at Little Rock high schools, for 
example, rose 6 and 8 percent, respectively, in the district's first 
year of participation in Arkansas Scholars. However, only one State, 
Texas, has implemented the State Scholars Initiative statewide for a 
long enough period for us to begin to examine long-term outcomes. The 
percentage of Texas high school students who completed the Scholars' 
recommended course of study rose from 15 percent in 1999 to 63 percent 
in 2003 (Texas Education Agency, Academic Excellence Indicator System. 
2003). We find this highly encouraging, although we cannot attribute 
these outcomes solely to Texas State Scholars initiative. While 
students and parents found the recommendations of the Texas Business 
and Education Coalition to be compelling, and students then increased 
their enrollment in challenging academic courses, State policy-makers 
also began to recognize the importance of providing all students with a 
rigorous academic education. Accordingly, they phased out lower-level 
graduation requirements in favor of graduation requirements that 
aligned with the Scholars academic core.

    PUBLIC SCHOOL CHOICE REQUIREMENT OF THE NO CHILD LEFT BEHIND ACT

    Question. Reports by The Government Accountability Office, 
Education Commission of the States and others have documented the 
challenges school districts face in meeting the public school choice 
requirement of No Child Left Behind. In response to a December 2004 
report on the implementation of the No Child Left Behind Act, the 
Department identified Parental Information and Resource Centers and 
grants funded under the Fund for the Improvement of Education as 
sources of outreach and information to parents on a national level 
about the school choice option. The response stated further that, ``We 
know that our efforts have led to parents learning about, and taking 
advantage of, their opportunity to transfer students. Much remains to 
be done, however.'' What is the Department doing currently and 
proposing in the fiscal year 2006 budget to help States and school 
districts effectively implement this provision of the law?

               PARENTAL INFORMATION AND RESOURCE CENTERS

    Answer. On the budget side, the need to support local efforts to 
implement the public school choice requirements of No Child Left Behind 
has been a key rationale for the consistently large increases President 
Bush has requested for Title I Grants to Local Educational Agencies. 
With Title I funding up $4 billion, or 45 percent, over the past 5 
years, we believe school districts have sufficient resources to carry 
out public school choice. And of course we are asking for $600 million 
more in 2006.
    The bigger challenge has been providing effective technical 
assistance and guidance to States and school districts. We have 
published detailed guidance on the public school choice provisions and 
distributed that guidance widely to key groups, including through 
presentations and workshops on public school choice at the National 
Title I Directors Conference, as well as conferences of the Black 
Alliance for Educational Options, National Alliance of Black School 
Educators, and National Association of Federal Program Administrators. 
We plan to continue these efforts at many other conferences during the 
coming year.
    In addition, we have published several ``Innovations in Education'' 
guides related to public school choice, including ``Creating Strong 
District School Choice Programs,'' ``Creating Successful Magnet School 
Programs,'' and ``Successful Charter Schools.'' The Department has 
disseminated and presented on these guides widely, and our web site 
contains information on No Child Left Behind choice options in a 
variety of formats.
    We are currently developing an Interactive Toolkit on Choice that 
will include tools, templates, and models used by school districts that 
are successfully implementing public school choice. We also are 
planning a two-day Train-the-Trainers Conference on Public School 
Choice intended to expand the number of experts available nationwide to 
provide technical assistance to districts on public school choice.
    NCLB choice options continue to be a key focus of State and local 
monitoring visits, where we pay special attention to outreach efforts 
by districts to make parents aware of public school choice. Finally, 
determining and disseminating the best practices for informing parents 
about choice options will be a key goal for our new technical 
assistance centers.

               PARENTAL INFORMATION AND RESOURCE CENTERS

    Question. Why does the Department propose to terminate funding for 
the Parental Information and Resource Centers program, just months 
after identifying them as a resource that has helped parents take 
advantage of their right to transfer their child to a higher performing 
public school?
    Answer. While the Parental Information and Resource Centers (PIRCs) 
make a limited contribution to informing parents about choice options 
under the No Child Left Behind Act, the overall structure of the 
centers limits their effectiveness. For example, one problem with the 
PIRCs that has been highlighted by the Administration's Performance 
Assessment Rating Tool is the multiple purposes served by the program, 
which prevent the kind of focused, tailored delivery of services that 
can have a meaningful impact in achieving program goals.
    We believe the parental involvement and outreach goals of No Child 
Left Behind are more effectively met through the existing requirements 
under Part A of Title I for the some 15,000 participating Title I 
districts and schools, which include not only parental involvement 
activities but school improvement-related reporting and outreach 
specifically intended to help parents take advantage of NCLB choice 
options. The Department continues to work with States and districts to 
improve the effectiveness of these Part A-funded activities, through 
both ongoing technical assistance and on-site monitoring visits. The 
PIRCs activities largely duplicate such efforts, as well as those of 
the comprehensive technical assistance centers currently under 
competition, at a time when we must make tough decisions about the best 
way to invest scarce resources in the most effective manner possible.

                              PELL GRANTS

    Question. The Administration proposed to add $5.6 billion to the 
Pell Grants program in fiscal year 2006, $867 million of which is 
discretionary and the remaining $4.7 billion is mandatory spending 
proposed in the reauthorization of the Higher Education Act. The 
Administration has proposed a very important investment. What will be 
the impact of the proposal on the typical students receiving a Pell 
Grant?
    Answer. The maximum Pell Grant would increase by $100 in fiscal 
year 2006 and by $500 over the next 5 years. The Administration's 
budget invests $19 billion in new funding over the next 10 years to 
increase grants to low-income students, helping them finance their 
postsecondary education
    Question. How will you pursue this important investment if the 
Higher Education Act is not reauthorized this year?
    Answer. The Department's comprehensive student aid proposals would 
best be implemented through the reauthorization of the Higher Education 
Act; we will work closely with Congress on these important changes.

                     LOANS FOR SHORT-TERM TRAINING

    Question. The fiscal year 2006 budget includes $10 million for a 
new loan program to help dislocated, unemployed, or older workers 
upgrade their skills. These individuals are not eligible for Federal 
student loans. This program will be jointly administered with the 
Department of Labor and could help more than 350,000 individuals 
acquire the skills they need for work. Madam Secretary, I applaud the 
Department for this important new initiative, since these individuals 
are not eligible for Federal student loans and many need help to 
upgrade their skills. If this new program is approved, how quickly 
could this new program be implemented?
    Answer. If this new program is approved, the Department expects to 
make loans in fiscal year 2006.
    Question. How will your Department coordinate with the Department 
of Labor on this program?
    Answer. The two departments will soon be submitting details on this 
program specifying each agency's roles and responsibilities. The 
proposal envisions the Departments of Labor and Education as operating 
partners, each bringing their particular expertise to the process of 
expanding training opportunities for American workers.

              TEACHER INCENTIVE FUND AND TEACHER TRAINING

    Question. The budget request proposes to create a new $500 million 
Teacher Incentive Fund, which would change the way teachers are paid 
and allow schools to use funds to recruit teachers to high-need 
schools. The existing $2.9 billion Teacher Quality State Grant program 
allows school districts to use funds for both of these activities. The 
Administration should be commended for the proposed increase in funding 
to support our nation's educators. Why have you proposed to create a 
new $500 million program that is the same as an existing program?
    Answer. The Administration is requesting $500 million for the 
Teacher Incentive Fund initiative to allow States and school districts 
to develop and implement innovative ways to provide financial 
incentives for teachers who raise student achievement and close the 
achievement gap in some of our Nation's highest-need schools, to 
attract highly qualified teachers to those schools, and to redesign 
teacher compensation systems in order to align pay with performance. 
This is a different mission from that of the Improving Teacher Quality 
State Grants program, which focuses mostly on enabling teachers to 
become ``highly qualified.''
    Under No Child Left Behind, all States are working to ensure that, 
by the end of the 2005-2006 school year, all classes of the core 
academic subjects are taught by highly qualified teachers. Funds are 
available under several formula grant programs, including Improving 
Teacher Quality State Grants, for professional development and other 
expenses needed to enable States and school districts to achieve that 
objective. But the Teacher Incentive Fund will take the national 
commitment to ensuring a continued high-quality teaching force one 
important step further by providing significant, dedicated Federal 
support for rewarding teachers for strong performance, encouraging 
highly qualified teachers to enter classrooms with concentrations of 
low-income students, and developing and implementing performance-based 
teacher compensation systems.

                         TEACHER INCENTIVE FUND

    Question. Can you explain why States and school districts need 
another source of Federal funds for recruiting teachers and reforming 
teacher pay systems?
    Answer. Although States and school districts are authorized to use 
Title II Improving Teacher Quality State Grants funds to recruit 
teachers to high-need schools and to reform teacher pay systems, the 
Department has found that they seldom use Title II funds for those 
purposes. For example, a Department survey of districts' use of Title 
II funds in the 2002-2003 school year indicates that most of the funds 
were being used for professional development (25 percent) and for 
teacher salaries to reduce class size (58 percent), and the study also 
found that, of the remaining allowable activities, no single activity 
accounted for more than 3 percent of all reported Title II school 
district funds. In addition, recent monitoring visits to States and 
school districts suggest that States and school districts continue to 
spend most of their Title II funds on professional development. Based 
on these findings, it appears that States and school districts are not 
using their Title II funds to recruit teachers to high-need schools and 
to reform teacher pay systems, particularly given other competing needs 
for Title II funds to improve teacher quality.
    Because the Administration believes that it is important for States 
and school districts to continue to conduct their existing Title II 
activities at current levels to improve teacher quality, the 
Administration is proposing additional funds, through the Teacher 
Incentive Fund, for efforts dedicated to rewarding effective teachers, 
offering incentives for highly qualified teachers to teach in high-need 
schools, and designing and implementing performance-based compensation 
systems that change the way school districts pay teachers. The $500 
million requested for the Teacher Incentive Fund will permit many more 
school districts to implement these types of reforms and provide a 
major incentive for needed changes in teacher compensation systems 
nationally.
    Question. Why not add the $500 million to the existing program?
    Answer. The Administration believes that, by dedicating $500 
million specifically for teacher incentive efforts, many more States 
and school districts will develop and implement much-needed reforms in 
the way teachers are compensated in order to further improve teacher 
quality. Under the existing program, States are much less likely to 
implement these reforms.

                  NO CHILD LEFT BEHIND AND FLEXIBILITY

    Question. While I support the No Child Left Behind Act, I believe 
there needs to be more state flexibility in the implementation of the 
Act, because each state has the knowledge of the particular challenges 
facing its education system, including accounting for students with 
learning, emotional and English language difficulties. Madam Secretary, 
you stated in your January 6, 2005 nomination hearing before the Senate 
Health, Education, Labor and Pensions Committee that, ``We must stay 
true to the sound principles of leaving no child behind. But we in the 
administration must engage with those closest to children to embed 
these principles in a sensible and workable way.'' Will you provide 
needed flexibility to Pennsylvania and other States?
    Answer. I remain committed to my January 6 statement, Mr. Chairman. 
We are willing to carefully consider requests from States and school 
districts for additional flexibility in implementing No Child Left 
Behind, and we will work very hard to try and provide that flexibility. 
However, we must remain true to the law's core principles. Just to give 
you a couple of examples, I believe it would be very difficult--
impossible really--to eliminate key requirements like annual testing or 
the use of subgroup accountability to determine adequate yearly 
progress.
    On the other hand, I think you have already seen that we are 
willing to work with States in areas like the assessment of special 
education and limited English proficient students, and in ensuring that 
all teachers are highly qualified. I have met with experts in these 
areas and am working with senior Department officials to clarify our 
policies. So in answer to your question, we will provide flexibility 
wherever we can do so consistent with the law.

       COLLEGE ENROLLMENT GAP--FEDERAL TRIO AND GEAR UP PROGRAMS

     Question. Last year, I asked Secretary Paige what initiatives the 
fiscal year 2005 President's Budget supports to reverse the increasing 
college enrollment gap between low- and high-income students. As part 
of that response, Secretary Paige wrote that, ``The Administration also 
supports strong academic preparation for postsecondary education and 
training through the Federal TRIO and GEAR UP programs. The 
Administration is proposing in fiscal year 2005 to spend $1.13 billion 
for these two programs.'' Why are TRIO's Talent Search and Upward Bound 
programs and GEAR UP now proposed for elimination?
    Answer. The Administration has not requested funding for Upward 
Bound, Talent Search, and GEAR UP in the fiscal year 2006 budget 
because we believe our proposed $1.2 billion High School Intervention 
initiative would do a better job of improving high school education and 
increasing student achievement. Today, just 68 out of 100 9th graders 
will receive their diplomas on time. Moreover, only 51 percent of 
African-American students and 52 percent of Hispanic students will 
graduate from high school, and less than a third of students will leave 
high school ready to attend 4-year colleges. We believe a targeted and 
comprehensive approach is necessary to overcome these challenges.

                  HIGH SCHOOL INTERVENTION INITIATIVE

    The new High School Intervention initiative would require each 
State to develop a plan for improving high school education and 
increasing student achievement, especially the achievement of low-
income students and students who attend schools that fail to make 
adequate yearly progress. States would be held accountable for 
improving the academic performance of at-risk students, narrowing 
achievement gaps, and reducing dropout rates, but States would have 
flexibility to provide the full range of services students need to 
ensure they are academically prepared for the transition to 
postsecondary education and the workforce. The initiative also would 
deepen the national knowledge base on what works in improving high 
schools and high school student achievement by supporting 
scientifically based research on specific interventions that have 
promise for improving outcomes.
    We believe this High School Intervention initiative would be more 
effective than our current, disjointed approach that has not served all 
students well. Replacing Upward Bound, Talent Search, and GEAR UP with 
a more targeted and comprehensive initiative would help us reach our 
strategic goals of improving the performance of all high school 
students and increasing access to postsecondary education. However, in 
the interest of minimizing the disruption of services to students, 
funding for the High School Intervention initiative would support 
existing TRIO and GEAR UP projects that would be eligible for 
continuation funding in fiscal year 2006.

      UPWARD BOUND, TALENT SEARCH AND GEAR UP PROGRAM ASSESSMENTS

    Question. What specific evidence leads you to a different 
conclusion about the importance of these funded activities?
    Answer. While we agree that the activities supported by Upward 
Bound, Talent Search, and GEAR UP are important, the Administration's 
assessments of these programs have not found evidence that the programs 
are effective overall in helping disadvantaged students enroll in 
college. Moreover, we believe the new High School Intervention 
initiative would incorporate the best elements of these programs to 
achieve better results.
    Evaluation findings demonstrate that Upward Bound projects serve 
low-income students who have unusually high educational expectations 
and who would enroll in college regardless of their participation in 
the program. The high college enrollment rate for these Upward Bound 
students (65 percent) hides the reality that only 34 percent of the 
neediest students served by Upward Bound enroll in college. Although 
the program could have a significant impact if it served more students 
who truly need help, we do not have evidence to show that our efforts 
to target more of the neediest students have been successful.
    Similarly, we do not have evidence to demonstrate that GEAR UP and 
Talent Search increase college enrollment rates, even though both 
programs appear to have some positive effects. Data for GEAR UP and 
Talent Search show that both programs are meeting their short-term 
performance goals, evaluation findings for GEAR UP suggest that it has 
positive effects on middle school course-taking behavior and student 
and parent knowledge of postsecondary education.

                  HIGH SCHOOL INTERVENTION INITIATIVE

    The new High School Intervention initiative would provide a more 
coordinated approach at the State level to ensure that the types of 
services currently provided under programs like GEAR UP, Talent Search, 
and Upward Bound are part of a broader effort to provide students with 
the full range of services they need in order to succeed. The 
initiative's emphasis on supporting scientifically based research would 
help ensure that resources are focused on those activities that are 
shown to have the most positive effects.
                                 ______
                                 
               Questions Submitted by Senator Mike DeWine

                   SAFE DRUG-FREE SCHOOL COMMUNITIES

    Question. The recommendation in the President's fiscal year 2006 
budget request to ``zero out'' the State Grants portion of the Safe and 
Drug-Free Schools and Communities program will leave most of America's 
schools and K-12 students with absolutely no substance abuse prevention 
and intervention services. With drug use finally on the decline, isn't 
this the wrong time to get rid of the prevention program that provides 
America's school aged youth with drug prevention programming?
    Answer. The Administration proposes to terminate funding for Safe 
and Drug-Free Schools and Communities (SDFSC) State Grants because of 
the program's inability to demonstrate effectiveness and the fact that 
funds are spread too thinly to support quality interventions. For 
example, SDFSC State Grants provides about 60 percent of local 
educational agencies (LEAs) with allocations of less than $10,000, 
amounts typically too small to mount comprehensive and effective drug 
prevention and school safety programs.
    By comparison, under SDFSC National Programs the Department has 
greater flexibility to provide large enough awards to support quality 
interventions. In addition, the National Programs authority is 
structured to permit grantees and independent evaluators to measure 
progress, hold projects accountable, and determine which outcomes are 
most effective. We are requesting $317. 3 million for SDFSC National 
Programs, an $82.7 million or 35 percent, increase over 2005.

 SAFE DRUG-FREE SCHOOL COMMUNITIES--UNIFORM MANAGEMENT INFORMATION AND 
                            REPORTING SYSTEM

    Question. To date, the Department has failed to implement the 
requirements in H.R. 1 (No Child Left Behind Act) for a Uniform 
Management Information and Reporting System (UMIRS) under the State 
Grants portion of the Safe and Drug Free Schools and Communities 
program. This system was intended to collect uniform data and outcome 
measures for drug use and violence across all States. The poor PART 
score this program received is largely due to the failure of the 
Department to collect this required information and is one of the 
reasons being given for the zeroing out of the program. What do you 
intend to do to comply with the requirements of H.R. 1 as far as 
implementation of the UMIRS?
    Answer. We have issued non-regulatory guidance to States concerning 
implementation of the Uniform Management Information Reporting System 
(UMIRS) requirements contained in Section 4113 of the Elementary and 
Secondary Education Act (ESEA) as reauthorized by the No Child Left 
Behind Act of 2001 (NCLB). Consistent with NCLB's emphasis on 
flexibility and discussions with House and Senate staff during 
reauthorization, the guidance reiterates the data elements that must be 
included in the UMIRS, as well as the kinds of data sources that must 
included as part of the system. It also addresses the issue of which 
entity within a State is responsible for implementation of the UMIRS, 
and covers questions about funding for the system, and periodicity of 
data collection.
    We should also clarify that lack of progress on implementation of 
UMIRS was not a major factor in the ineffective PART rating received by 
the program. Safe and Drug-Free Schools and Communities State Grants 
received this rating because the program is not well designed to 
accomplish its objectives and because it cannot demonstrate results, 
among other factors. UMIRS was not really an issue.

       TITLE IV INFORMATION COLLECTION AND REPORTING REQUIREMENTS

    Question. The Department of Education has neglected to implement 
any of the data collection and reporting requirement reforms that 
Congress specifically included in Title IV of H.R. 1, including the 
Uniform Management Information and Reporting System and a minimum data 
set, to be reported on by all States to the Secretary. States and local 
education agencies (LEA's) across the Nation have exercised due 
diligence and are working to document what they think is required by 
Title IV, but have had to do this without any guidance at all from the 
Department. How and when do you intend to rectify this situation, 
especially given that this failure on the Department's part is one of 
the main reasons this program has not been able to ``demonstrate 
results'' and is slated for elimination?
    Answer. We have requested information from States concerning 
implementation of the Safe and Drug-Free Schools and Communities Act 
State Grants programs as part of the Department's Consolidated Report 
for NCLB Programs. As you know, ESEA Section 9303 authorizes the 
creation of the consolidated report and mandates that the report 
collect information on the performance of the States under ``covered 
programs.'' The consolidated report replaces pre-NCLB individual, 
program-specific reports.
    The first consolidated report covering the SDFSCA State Grants 
program was due to the Department in June 2004. The Department 
requested information from the States about the performance measures 
and targets they established for the SDFSCA State Grants program. In 
this initial report, covering school year 2002-2003, States provided 
baseline information for the performance measures that they established 
for the program. In the next consolidated report, scheduled to be 
submitted to the Department in April 2005, States will report data for 
their targets for the 2003-2004 school year.
    In addition to information about performance measures and progress 
toward achieving targets, the Department also asked States to provide 
information about the number of out-of-school suspensions and 
expulsions by school type (elementary, middle/junior high, or high 
school) for alcohol or drug-related offenses, or for fighting or 
weapons possession.

           INFORMATION COLLECTION AND REPORTING REQUIREMENTS

    We are very sensitive to the issue of creating burden related to 
information collection and reporting, and have worked hard to select 
the smallest possible data set that will permit us to assess the extent 
to which States are meeting their established targets to prevent youth 
drug use and violence. We believe that our focus on progress toward 
identified targets and suspension and expulsion data is consistent with 
that goal. While this information cannot provide scientific evidence 
about the effectiveness of the SDFSCA State Grants Program (only 
research studies that include experimental designs are capable of 
demonstrating the effectiveness of an intervention), it does provide an 
important tool for States to use in assessing their progress in 
addressing youth drug use and violence.
    Our experience in administering the SDFSCA State Grants program and 
other NCLB provisions, including the Unsafe School Choice Option (USCO) 
requirements, indicates that States need to focus additional attention 
and resources on improving the quality and consistency of data they 
collect concerning youth drug use and violence, and to take steps to 
improve the way in which such data are used to manage youth drug and 
violence prevention initiatives. Accordingly, in fiscal year 2004, we 
held a competition for Data Management Improvement Grants to help 
States develop, enhance, or expand the capacity of States and LEAs (and 
other State agencies and community-based entities that receive SDFSC 
State grant funds) to collect, analyze, and use data to improve the 
management, and report the outcomes, of drug and violence prevention 
programs. We awarded 11 such grants in fiscal year 2004 and estimate 
making an additional 7 awards in fiscal year 2005. Among other things, 
these grants will assist recipients of SDFSC State grant funds to use 
data to assess needs, establish performance measures, select 
appropriate interventions, and monitor progress toward established 
performance measures.
    As a complement to these grants, we have awarded a contract to help 
support the development of a model data set that includes, at a 
minimum, the UMIRS elements. This technical assistance effort will 
build on the work done by the Department of Health and Human Services 
Office of Substance Abuse Prevention, as well the activities of other 
Federal agencies that either collect youth drug use and violence data 
or use that data in policymaking, including the Centers for Disease 
Control and Prevention, the National Institute on Drug Abuse, the 
National Institute on Alcohol Abuse and Alcoholism, the Office of 
Juvenile Justice and Delinquency Prevention, and the Office of National 
Drug Control Policy. We will be working with these Federal agencies and 
all of the States to develop a model data set that can be adopted by 
States. The initiative also includes technical assistances services for 
the States, as well as activities designed to identify and disseminate 
best practices in this area. We believe that this approach provides the 
appropriate balance between State flexibility and leadership in this 
area.

      TEACHER INCENTIVE FUND--STATE GRANTS AND COMPETITIVE GRANTS

    Question. In the President's Budget there is a proposal for a $500 
million new Teacher Incentive Fund. It would encourage States to adopt 
and implement performance-based compensation systems for teachers. 
Could you describe your idea for this program a bit more; specifically, 
how do you see States determining who deserves ``merit'' pay?
    Answer. The Teacher Incentive Fund would provide formula grants to 
State educational agencies (SEAs) to reward effective teachers and to 
offer incentives for highly qualified teachers to teach in high-need 
schools. In addition, the Department would make competitive grants to 
SEAs, local educational agencies (LEAs), and non-profit organizations 
to design and implement performance-based compensation systems that 
change the way school districts pay teachers. The Department would use 
$450 million for the formula grants and $50 million for the competitive 
grants.
    Under the formula component of the initiative, the Department would 
provide grants to SEAs by a formula. States would use these funds to 
give monetary awards to: (1) teachers who raise student achievement or 
make significant progress in closing the achievement gap among groups 
of students; and (2) highly qualified teachers who agree to teach in 
high-need schools.
    SEAs would develop their own strategies for identifying the 
teachers who have done the best job at raising achievement or narrowing 
achievement gaps, or both, and, thus, qualify for a monetary award. A 
State might give awards directly to individual teachers, or reward all 
of the teachers in a high-performing school, or both. An SEA could also 
choose not to offer monetary awards directly to teachers and, instead, 
make competitive grants to LEAs to provide monetary awards to teachers 
who are raising student achievement or closing the achievement gap. An 
SEA would specify in its application to the Department the procedures 
and criteria it would employ.
    States would have similar flexibility in designing programs to 
attract highly qualified teachers to schools that face the greatest 
challenges in meeting the objectives of No Child Left Behind and then 
rewarding those who take positions in those schools. A State might use 
funds at the State level to create a statewide system providing 
rewards, or higher salary, to those teachers. The Department's 
expectation, however, is that SEAs would use most of the money for 
competitive grants to LEAs that have the best strategies for using the 
funds to recruit qualified teachers to high-need schools. The States 
would describe in their applications the procedures and criteria they 
would use to implement the program, including the State's definition of 
a ``high-need school'' (generally a school with a high poverty rate and 
poor performance on State assessments). All public school teachers who 
receive a monetary award under this activity would be required to meet 
the ``highly qualified teacher'' requirements under the Elementary and 
Secondary Education Act, and the Department would also encourage States 
to include additional criteria to ensure that salary increments go to 
teachers who have demonstrated a high level of performance.
                                 ______
                                 
               Questions Submitted by Senator Tom Harkin

              ADEQUACY OF NCLB FUNDING--STUDIES SUPPORTING

    Question. The Administration has repeatedly claimed that there is 
more than enough money available to States to fully implement the 
requirements of the No Child Left Behind Act. However, many reports and 
studies--including those done by the National Conference of State 
Legislatures, the Ohio Department of Education, and the New Hampshire 
Association of School Administrators--have found that Federal funding 
is falling significantly short of the costs of implementing NCLB and 
providing the remediation efforts to improve student achievement. Can 
you please provide us with specific studies and analyses you have used 
to justify your confidence that the funding provided is fully 
sufficient for States and school districts to meet all the provisions 
of NCLB?
    Answer. No Child Left Behind was met with charges of underfunding 
almost from the moment it was signed by President Bush, despite the 
fact that it was accompanied by a $4.6 billion increase in funding in 
its first year alone. Many of the early so-called studies of the costs 
of the new law have been little more than summaries of authorized 
funding levels, while others were based on assumptions that applied to 
only one or two States, ignoring that fact that implementation costs 
vary greatly according to how far along a given State was in its own 
standards-based reform efforts. Some studies also ignored the fact that 
many of the requirements of No Child Left Behind--such as annual 
assessment, determining adequate yearly progress, and school 
improvement--were not new at all, but expansions or enhancements of the 
previous law.
    What is most striking to me, however, is that 3 years into No Child 
Left Behind, I have yet to see a comprehensive, convincing study or 
report documenting the real costs of the law, even for a single State 
or school district. For example, the National Conference of State 
Legislatures Task Force on No Child Left Behind recognized that (1) 
``the federal government has dramatically increased funding to K-12 
education since passage of No Child Left Behind;'' (2) that while 
``estimates vary widely,'' Federal funding ``covers the costs'' of 
administrative compliance with NCLB; and (3) a key step to meeting NCLB 
proficiency goals involves reallocating current resources, and not just 
increasing the Federal contribution, which is dwarfed by State and 
local spending on education.
    Interestingly, even after a thorough review of existing cost 
studies, the Task Force did not attempt to provide an authoritative 
estimate of its own. Rather, it concluded that because each State's 
experience with NCLB is unique, ``Cost estimates must be made on a 
state-by-state basis.''
    On the basis of what we know now, I think it is reasonable to 
conclude that cost is not, at least not yet, a major obstacle to 
implementing No Child Left Behind. It may well be that in the future 
States and school districts will be able to provide more reliable and 
persuasive data on the costs of moving their students toward NCLB 
proficiency goals. But we have yet to see such data and, in their 
absence, I believe demands for more money are more of a political than 
an educational or analytical exercise.

                        HIGH SCHOOL ASSESSMENTS

    Question. Your proposal to expand NCLB reading and math tests in 
high schools raises the question of what consequences would be imposed 
on schools based on those test results. Currently, under NCLB, 
federally mandated sanctions for failure to make AYP apply only to 
schools that receive Title I funds. Since less than 10 percent of high 
schools get Title I funds, are you proposing to expand the scope of 
Federal consequences for failure to make AYP to all high schools, 
regardless of whether they get Title I funding?
    Answer. No, we are not proposing to expand the current school 
improvement requirements to non-Title I high schools. As is the case 
under current law, only high schools receiving Title I funds would be 
subject to improvement requirements, including the provision of public 
school choice and supplemental educational services, if they do not 
make adequate yearly progress.
    The expanded assessments would provide a uniform, objective 
mechanism for measuring student achievement and for holding high 
schools accountable under the President's High School Intervention 
initiative. They would also offer information about individual student 
progress and help educators make informed decisions for helping 
students advance through high school.

                ASSISTIVE TECHNOLOGY STATE GRANT PROGRAM

    Question. Last October, President Bush signed Public Law 108-364, 
the Assistive Technology Act. I was the lead co-sponsor in the Senate. 
This legislation supports services that ensure that people with 
disabilities will have access to the assistive technology they need--
technology that makes independent living possible in many cases. This 
legislation was one of few bipartisan successes we had last year, being 
unanimously endorsed by Republicans and Democrats alike in both the 
House and the Senate. Yet less than 5 months after the President signed 
the new law, his budget zeroes it out. The reason given in the budget 
is that ``the Department has been unable to identify and document any 
significant benefits.'' It is my understanding that the Department has 
collected data from every State funded under this law, yet not once in 
15 years issued the statutorily required report to Congress that would 
document the impact of these programs. It seems to me like you are 
punishing people with disabilities who get services from these programs 
because the Department has failed to do its job. How would you respond?
    Answer. The President signed the reauthorization of the AT Act 
because its goal is consistent with the goals of the New Freedom 
Initiative, that is, to promote the full participation of people with 
disabilities in all areas of society by expanding education and 
employment opportunities, promoting increased access into daily 
community life, and increasing access to assistive and universally 
designed technologies. The kinds of activities authorized by the bill, 
particularly the Alternative Financing Program (AFP), have the 
potential of enabling individuals with disabilities to have more 
control over their lives and greater participation in schools, work 
environments, and communities, through increased access to assistive 
technology. State interest in the AFP is very high; during the last 
competition we awarded $35.8 million, but received requests for $42.3 
million. In fiscal year 2005, the Department received just over $4 
million for the AFP and our fiscal year 2006 budget request includes 
$15 million.
    The design of the AT State grant program, however, is not ideal 
because it mandates four specific activities that States must carry 
out. States are unable to focus their efforts on those activities most 
needed to increase consumer access to, and ownership of, assistive 
technology within their State. Further, the new State formula grant 
program permits States to spend up to 40 percent on activities that 
have not been shown to have direct benefits to individuals with 
disabilities. Therefore, we targeted our 2006 request to funding for 
the AFP rather than the new AT State grant program.
    The Department recently sent the required annual report to Congress 
for the AT State grant program. This report, dated February 2005, 
provides a compilation of data for fiscal years 2001, 2002, and 2003 
that States provided to NIDRR using a web-based data collection 
instrument. Among other things, the report contains data required by 
the AT Act on such activities as improving interagency coordination 
relating to assistive technology, streamlining access to funding for 
assistive technology, and producing beneficial outcomes for users of 
assistive technology. In fiscal year 2001, the first year in which 
States reported data using this web-based system, NIDRR received data 
from 51 of the 56 grantees, but all 56 States reported for fiscal years 
2002 and 2003. This report is also available at http://www.ed.gov/
about/offices/list/osers.

           EVIDENCE ON THE EFFECTIVENESS OF THE REGIONAL LABS

    Question. The enactment of two pieces of legislation, the No Child 
Left Behind Act (NCLB) and the Education Sciences Reform Act, have 
brought scientifically based research, development, dissemination, and 
technical assistance to the forefront of K-12 education. Yet for the 
last 3 years, President Bush has eliminated funding for the important 
research conducted by regional education laboratories in his budget 
request. The Administration has indicated in justification documents 
that the labs ``have not consistently provided high quality research 
and development products or evidence-based training and technical 
assistance.'' Can you cite specific evaluations studies that support 
this justification?
    Answer. Our budget request is based on the fact that we do not have 
comprehensive, rigorous evaluations of the products and services 
developed by the regional educational laboratories to warrant further 
investment beyond the more than $1.5 billion in Federal funds the 
program has received since 1966. The most recent Federal evaluation of 
the program was conducted in 1998 by Decision Information Resources, 
Inc. Panels of peer reviewers assessed the performance of each 
laboratory in meeting the duties outlined in their contract, and 
provided information to guide program improvement for the remainder of 
the contract period. Although it provided useful feedback on the 
strengths and weaknesses of each laboratory, the findings could not be 
generalized across laboratories and did not provide an assessment of 
the performance of the program as a whole.
    In June 1993, Maris Vinovskis, an outside analyst brought in by 
Diane Ravitch, then Assistant Secretary for Education Research and 
Improvement, examined the quality of research and development at 5 
regional educational laboratories, 4 of which are part of the 10 
current regional education laboratories. Dr. Vinovskis, currently a 
professor at the Department of History and Institute for Social 
Research at the University of Michigan, focused on many of the issues 
of concern to education research generally. He found that much of the 
applied research conducted by the laboratories was based solely upon 
case studies, limiting the applicability of the findings to school 
settings generally. Although Dr. Vinovskis praised some of the work 
conducted by the laboratories, particularly that of the Far West Lab, 
now WestED, he questioned both the underlying methodology and the 
practical implications of many of the other laboratory products for 
classroom use.
    Since its creation in 2002, the Institute of Education Sciences has 
addressed the issues Dr. Vinovskis raised over a decade ago by 
significantly expanding its support of applied research that uses 
rigorous scientifically based methods to find solutions to the problems 
faced by educators and policymakers. As we stated in our budget 
request, achieving the Department's strategic goal of transforming 
education into an evidence based field will require not only more and 
better research but also new and better ways to use research-based 
knowledge and translate research to practice. To reach this goal, the 
Administration is improving the way we foster knowledge utilization by 
establishing the What Works Clearinghouse, revamping the Education 
Resources Information Center, and significantly expanding the capacity 
of the Comprehensive Centers to provide technical assistance that helps 
schools apply research findings in classrooms. We believe these 
investments are more tailored to the needs of States, districts, and 
schools than the regional educational laboratories.

                         COMPREHENSIVE CENTERS

    Question. I am pleased that the Department has requested funds for 
new comprehensive centers, which will work with States and districts in 
helping schools implement No Child Left Behind. A new Request for 
Proposals for the Comprehensive Centers will be released this summer. 
The statute calls for a center in each of the 10 designated regions and 
at least 10 additional centers to be structured on a variety of 
criteria. Can you tell us what your plans are for structuring the 
second ten centers; will they be based on population or topic, or a 
combination thereof?
    Answer. The statute calls for a total of not less than 20 new 
Comprehensive Centers, while requiring that the Department establish at 
least one center in each of the 10 geographic regions served by the 
regional educational laboratories. The locations of the other centers 
will be determined through the competition, which will take into 
consideration elements identified in the law, including the number of 
school-aged children, the proportion of disadvantaged students in the 
various regions, the increased cost burdens of service delivery in 
sparsely populated areas, and the number of schools identified for 
improvement under Title I.
    The centers other than the required 10 will likely be a combination 
of additional regional centers in high-need jurisdictions and a few 
``content'' centers with responsibilities across States and across 
Centers in major priority areas related to NCLB implementation. The 
Department has not yet made final decisions on this issue.

                REGIONAL ADVISORY COMMITTEE ASSESSMENTS

    Question. Specifically, how will the needs assessments conducted by 
the Regional Advisory Committee process factor into your plans for 
these new Centers?
    Answer. In designing the competition for awards to the new 
Comprehensive Centers, the Department is required to consider the 
findings of 10 Regional Advisory Committees (RACs), convened to assess 
regional needs for technical assistance to support high-quality 
implementation of No Child Left Behind. The Department established the 
RACs in November 2004 and expects to receive written reports from each 
committee by the end of March 2005.
    The Department will consider the RAC assessments in drafting the 
request for proposals establishing priorities for the new centers, 
which the Department expects to publish in May. Also, the written 
reports from the RAC needs assessments will be available on the 
Department's web page so that applicants can use them to as a resource 
in designing their proposals for new Comprehensive Centers.

                      ADULT EDUCATION STATE GRANTS

    Question. The President's proposed budget calls for large cuts in 
the Adult Basic and Literacy Education program because it did not 
demonstrate results under the Program Assessment Rating Tool (PART). 
The Department says the program shows modest impacts on adult literacy 
and skill attainment but data quality problems and the lack of a 
national evaluation made it difficult to assess the program's 
effectiveness. How does that assessment justify a 75 percent cut in 
funding?
    Answer. We have requested a reduction in the Adult Education 
program due to severe budget constraints that the Federal Government 
now faces and in order to direct funds to a new initiative to 
strengthen high schools. In addition, the PART review of the program 
shows that the program does not demonstrate strong program performance 
outcomes. Currently, the program has failed for three consecutive years 
to reach performance targets measuring skill attainment of both Adult 
Basic Education and English as a Second Language students.

                        ADULT EDUCATION RESEARCH

    Question. Wouldn't it instead point first toward gathering better 
data and calling for a national evaluation through WIA reauthorization?
    Answer. Due to the diversity in age, skill level, learning 
disability status, and level of English proficiency of the adult 
education student body, a national evaluation would be extremely cost-
intensive and would not likely produce results that could be 
generalized across States or localities. Adult Education providers also 
vary considerably and include community-based organizations, local 
educational agencies, correctional facilities, community colleges, and 
other entities. However, the Department actively conducts research 
targeting specific areas of instruction, curriculum, data collection, 
and program characteristics. For instance, we use Adult Education 
national leadership funding to address such issues as explicit literacy 
instruction for adult English as a Second Language participants and the 
use of technology to support adult education programs.

                 ENHANCED ASSESSMENT INSTRUMENTS GRANTS

    Question. Madame Secretary, as we discussed at the hearing, the 
Senate included report language urging the Department, when awarding 
enhanced assessments grants, to give special attention to the needs of 
students with disabilities and students with limited English 
proficiency. Do you plan to specify this priority in the request for 
proposals for this grant application?
    Answer. Yes. We have revised the notice inviting applications to 
give competitive priority to projects that will address the use of 
accommodations or alternate assessments in assessing limited English 
proficient students and students with disabilities.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye

                       NATIVE HAWAIIAN EDUCATION

    Question. On the subject of Native Hawaiian Education, there were 
reports that the Native Hawaiian Education Council was not getting 
information from the Department of Education. Is your department now 
working with the Native Hawaiian Education Council and providing them 
with information?
    Answer. The Department has been working to improve communications 
with the Council. Department officials met with a number of Council 
members on February 15, 2005 to discuss ways to improve communication 
between the Council and the Department. The meeting also addressed ways 
to improve the Council's effectiveness and its technical assistance 
activities. We will continue to communicate with the Council and assist 
its members in fulfilling their duties.

                            CHARTER SCHOOLS

    Question. Charter schools are an important addition to Hawaii's 
education system. How do you feel about charter schools, and are there 
additional funding opportunities for charter schools?
    Answer. Charter schools are an important reform, and a key element 
of the Administration's efforts to expand school choice for students 
and parents. This is reflected in the strong support for charter school 
programs contained in the 2006 budget request. This request would 
support planning, development, and initial implementation activities 
for approximately 1,200 charter schools, as well as enhanced 
dissemination activities by schools with a demonstrated history of 
success. Further, a portion of the funds are available to States for 
subgrants to assist charter schools with their facilities financing. 
This program component, the Charter Schools Per-Pupil Facilities Aid 
program, complements an additional source of funding for charter 
schools, the Credit Enhancement for Charter School Facilities, which 
provides assistance to help charter schools meet their facility needs. 
Additionally, many charter schools are eligible for Federal funds under 
both discretionary and formula grant programs, such as the Teaching 
American History and Rural Education Achievement programs.

         PERKINS VOCATIONAL EDUCATION AND PERKINS LOAN PROGRAMS

    Question. In the President's budget he plans to cut Perkins 
vocational education and loan programs. Is there some alternative 
proposal for these programs?
    Answer. The President's fiscal year 2006 budget does not request 
funding for Vocational Education programs because those programs have 
not demonstrated effectiveness and in order to direct funds to a new 
initiative to strengthen high schools. The President believes that a 
targeted initiative will be more effective than current programs in 
meeting the major need for reform and improvement of American high 
school education. The new program would give States and districts more 
flexibility in designing and implementing services and activities to 
improve high school education and raise achievement, particularly the 
achievement of students most at risk of failure. States and school 
districts would be able to use funds for vocational education, tech-
prep programs, and other purposes, depending on State and local needs 
and priorities. The Department would use part of the money to conduct 
carefully designed research in order to identify the most effective 
strategies for raising high school achievement and eliminating 
achievement gaps.
    The President's budget requests $1.24 billion for the new high 
school intervention program and $250 million to ensure that students 
are assessed in reading/language arts and mathematics at least three 
times during high school. The 2006 budget also includes more than $400 
million for related programs to strengthen high school achievement, 
including $200 million to expand the use of research-based 
interventions for secondary school students who read below grade level 
and thus are at greater risk for dropping out of school, $120 million 
to accelerate the mathematics achievement of secondary school students 
through research-based professional development for math teachers, $52 
million to increase the availability of Advanced Placement and 
International Baccalaureate programs in high-poverty schools, $12 
million to encourage students to take more rigorous courses through the 
State Scholars program, and $33 million in enhanced Pell Grants for 
State Scholars as they pursue higher education.
    The budget request also includes a $125 million Community College 
Access grants initiative, which would support expansion of ``dual-
enrollment'' programs under which high school students take 
postsecondary courses and receive both secondary and postsecondary 
credit. It would also help ensure that students completing such courses 
can continue and succeed in 4-year colleges and universities.

                     FUTURE OF VOCATIONAL EDUCATION

    Question. In your opinion what is the future for vocational 
education?
    Answer. Vocational education is predominantly funded with State and 
local dollars and will continue without a Federal categorical aid 
program. Secondary vocational education will thrive if the field 
responds promptly and aggressively to demands from the business 
community and postsecondary education that it provide students with a 
more rigorous academic education, particularly in mathematics and 
science. All of our youth, regardless of their post-graduation plans, 
need a rigorous academic foundation. As the American Diploma Project 
documented in its research, ``[s]uccessful preparation for both 
postsecondary education and employment requires learning the same 
rigorous English and mathematics content and skills. No longer do 
students planning to go to work after high school need a different and 
less rigorous curriculum than those planning to go to college.'' If the 
field fails to respond to this new imperative, policy-makers, business 
leaders, postsecondary educators, and parents and students will 
increasingly question the value and relevance of secondary vocational 
education.
    Question. Will it become part of the President's Higher Education 
Act?
    Answer. Eligible recipients of grants, loans, and college work-
study assistance under HEA student aid programs have long been eligible 
to use that assistance to pursue vocational degrees and certificates. 
The President's proposals for HEA reauthorization would allow that type 
of assistance to continue.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl

                    FUNDING FOR NO CHILD LEFT BEHIND

    Question. I supported No Child Left Behind because it guaranteed 
that flexibility and accountability would come with more Federal 
funding to make it work. Instead, funding levels have fallen billions 
short of what was authorized. These cuts cause real hardship. To make 
ends meet, schools are being forced to cut staff and important programs 
like summer school, class size reduction, arts and foreign languages.
    Last year, Secretary Paige suggested that funding has no connection 
to student achievement. He seemed to believe that schools receive 
plenty of money to meet these requirements--even though 
superintendents, school boards, state legislatures and teachers 
consistently say otherwise. If we want this law to work--a goal which 
most of us share--don't you think it's time that the Administration 
become more responsive to these funding concerns; isn't it time to 
provide the funding that was authorized?
    Answer. As I stated earlier in response to a question from Senator 
Harkin, I believe there is little evidence for the claim that lack of 
funding is the central obstacle to effective implementation of No Child 
Left Behind. With national spending on elementary and secondary 
education roughly doubling over the past decade, from about $260 
billion to more than $500 billion, it's hard to make the case that 
we're not spending enough on education. I realize that circumstances 
vary from State to State and district to district, and that many areas 
are dealing with tight budgets, but from a national perspective, as I 
said, I don't think funding is the primary problem.
    On the issue of authorization levels, the Members of this 
Subcommittee know as well as I do that these are just targets--wish-
lists, really--established by the authorizing committees when they pass 
new legislation. They rarely are accompanied by any careful analysis of 
what it actually costs to make a program work as intended, and the 
situation is the same with No Child Left Behind. And in the absence of 
any reliable data on the actual or prospective costs of No Child Left 
Behind, merely pointing to authorization levels is not a very 
persuasive argument for higher funding levels, particularly at a time 
of fiscal constraint at the Federal level.
    The Administration, just like the Appropriations Committees, has 
had to make hard-nosed judgments about how much we can afford for NCLB 
and other programs in light of tight fiscal constraints. Last year, for 
example, the Administration asked for substantially more funding for 
both Title I and IDEA--the two programs most frequently identified by 
critics as being underfunded--than the appropriators provided in their 
final 2005 appropriations act.

                     SPECIAL EDUCATION FULL FUNDING

    Question. Many of us here have worked hard every year to increase 
funding for Special Education. Year after year, school districts in 
Wisconsin tell me that this is one of their top concerns. They think 
it's wrong that the Federal Government continues to ignore its 
commitment to pay 40 percent of the costs as authorized in the original 
IDEA law. Just last December, the President signed the IDEA 
Reauthorization into law with an authorized funding level of $12.4 
billion for 2005. Just days later, he signed the Omnibus Appropriations 
bill which only provided $10.6 billion. This year, the President's 
budget only proposes $11.1 billion for fiscal year 2006--still $3.5 
billion short of what is authorized for 2006. This trend begs the 
question: does the Administration plan to fully fund IDEA and do you 
have a plan to get there?
    Answer. The Administration is committed to assisting States and 
school districts with meeting the costs of special education. This 
President has requested record-level increases for special education 
since he entered office.
    The 2006 President's budget request for $11.1 billion includes an 
increase of $508 million over the 2005 level. It would maintain the 
Federal contribution at its highest level--19 percent of the national 
average per pupil expenditure. If enacted, the request would result in 
an increase of $4.8 billion or 75 percent since 2001.
    The President has opposed mandatory full funding for special 
education because of the importance of taking into account competing 
budget priorities during the formulation of the budget each year. In 
the current fiscal environment, there are limited resources for Federal 
discretionary programs not related to national defense or homeland 
security. In this environment, the 4.8 percent increase requested for 
the Special Education Grants to States program is significant.

                                 E-RATE

    Question. E-rate is a vital program that provides classrooms with 
the technology they need to enhance teaching and learning. E-rate 
grants give students more opportunities to develop the skills they need 
to compete in the 21st Century. This past year, Wisconsin received over 
$24 million from this program. However, as you know, e-rate grants were 
in jeopardy last year because of new rulings related to the Anti-
deficiency Act. Congress was able to fix the problem last year and e-
rate grants have resumed. But that was just a one-year fix and we need 
to pass legislation to fix it permanently in order to fully cover all 
pending applications for E-rate. I look forward to working with my 
colleagues in the Senate to meet this goal. Can we count on your 
support for the E-rate program?
    Answer. I understand that the Administration has not yet taken a 
policy position on legislative initiatives regarding the E-rate. That 
said, the financial management responsibilities required by the 
Antideficiency Act are designed to protect taxpayers and beneficiaries 
of U.S. Government programs by ensuring that spending agreements do not 
exceed available resources. The PART review by OMB and recent reports 
from GAO have identified fiscal and managerial problems with the 
program. The FCC has taken some steps to address these problems, 
including collaborating with our Department on more accurate 
measurement of E-rate effectiveness.

                          READING FIRST GRANTS

    Question. I supported No Child Left Behind because I believed in 
the combination of more funding, more flexibility, and more 
accountability for results. However, many believe that the flexibility 
piece has not lived up to its promise and that certain No Child Left 
Behind regulations are overly proscriptive. One example that has been 
brought to my attention is the Reading First grant program. Last 
October, the Madison School District decided to pass on an additional 
$2 million in Reading First grants because new Federal guidelines would 
have required a substantial change in a curriculum that had already 
been successful with 80 percent of students. Can you explain why 
schools with successful programs are being forced to change in order to 
qualify for Federal funds?
    Answer. One of the advantages of the Reading First program is that 
local education agencies (LEAs) retain considerable flexibility in the 
selection of a reading program. Schools are permitted to implement the 
core reading curriculum of their choosing, so long as it addresses the 
five critical factors, identified by the 2000 Report of the National 
Reading Panel, upon which the Reading First program is based: phonemic 
awareness, phonics, vocabulary, fluency, and comprehension. Although 
the reading program used by Madison Metropolitan Public Schools (MMPS) 
proved successful with many of its students, the Wisconsin 
Superintendent of Public Instruction awarded a Reading First subgrant 
due to a gap of 2 to 4 years in reading levels between third graders in 
five elementary schools.
    A Federal review of the MMSD curriculum, undertaken as a part of 
Reading First monitoring for the 2004-2005 school year, revealed that 
the MMSD program failed to address all of the required elements of a 
scientifically based reading program. The district worked with 
technical assistance providers to address these gaps through the 
addition of supplementary materials, lesson plans, and exercises but 
ultimately decided to continue its own reading curriculum.
    Question. Why were new Federal guidelines issued?
    Answer. The Department issued non-regulatory guidance for the 
Reading First program in April 2002. States and local educational 
agencies have used this guidance as a resource to guide successful 
implementation of Reading First. We have not issued any additional 
guidance since that time.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray

                          D.C. VOUCHER PROGRAM

    Question. Secretary Spellings you are more than aware of the tight 
budget this country is facing. Education is facing a cut for the first 
time in decade. The President has proposed elimination of 48 programs 
including some very popular programs. I understand that the 
determination for which programs were eliminated comes from the 
evaluations of the Program Assessment Rating Tool (PART) administered 
by OMB. And that evaluation includes which programs are ineffective so 
that funds can be redirected to effective programs. As an appropriator, 
I agree that the government should only be funding programs that are 
effective and serving their intended purpose.
    However the President has continued to fund in his budget a program 
that is not serving its intended purpose--the D.C. voucher program. As 
I understand it, only about 75 students out of roughly 1,350 students 
receiving vouchers come from schools labeled in need of improvement--
the highest priority of students in the original legislation. That is 
less than 6 percent of the participating students. Further, over 200 
students receiving vouchers were already attending private schools. 
According to the Washington Post, this number includes a student who is 
an 8th grader at Sidwell-Friends who had been attending the school 
since 5th grade. Clearly those students are just being subsidized by 
taxpayers, not being provided increased ``choice'' as proponents would 
argue.
    In such tight budget times, how can you justify continuing a 
program that is clearly not serving the intended population?
    Answer. On the contrary, I believe that the program is serving the 
students who Congress intended it to serve and that, as the program 
matures, it will be even more successful in providing educational 
opportunities to low-income students attending schools identified for 
improvement.
    All of the students receiving scholarships this year met the 
statutory eligibility requirements; they are from families with incomes 
of less than 185 percent of the poverty level, or roughly $35,000 for a 
family of four [correct?] Raising a family on that income is certainly 
not an easy task. While some of these families were already paying 
private school tuition, you can imagine the kinds of sacrifices they 
were making to provide their children with that opportunity. While we 
believed it was appropriate to limit the number of scholarships going 
to students already attending private schools, and we did so, we also 
did not feel that it would be fair to penalize families who had been 
making such a sacrifice.
    The Department also faithfully implemented the requirement to give 
priority to students enrolled in D.C. public schools identified for 
improvement under No Child Left Behind. However, only 15 schools were 
in NCLB ``needs improvement'' status last year, and seven of the 
schools, enrolling the great majority of those students, were high 
schools. D.C. private high schools had only a small number of slots 
they could make available to scholarship recipients during the first 
year of the program, in part because Congress was very late in passing 
the fiscal year 2004 appropriations act and, thus, the program was slow 
in getting underway. (Most D.C. private high schools accept 
applications and make enrollment decisions in the fall and early 
winter. Because of the late Congressional appropriations process and 
then the time needed to select an organization to administer the 
program and then select scholarship recipients, the program could not 
link recipients with schools until late spring.
    Further, the great majority of students who applied for 
scholarships were in elementary and middle schools, in part because 
there are just more students in those grades and in part because upper-
grade high school students who are nearing the end of their high school 
careers are typically less interested in changing schools. For these 
reasons, the number of students receiving scholarships who came from 
schools in need of improvement was, I think, understandable given the 
circumstances.
    I am very confident that the number of students from those schools 
who participate in the program will rise very significantly during the 
next school year. For one thing, a total of 68 D.C. schools have now 
been identified for improvement, including many elementary schools. 
Secondly, our grantee, the Washington Scholarship Fund, has more time 
this year to recruit students from those schools and to recruit private 
schools to accept those students.
    Further, of the 15 schools identified for improvement last year, 
seven were high schools. High-school students are less likely than 
elementary- and middle-school students to want to change schools. In 
addition, because of the late passage of the appropriations bills and 
the need to select competitively a grantee to administer the program, 
it was not until March 2004 that the Washington Scholarship Foundation 
(WSF) was selected to operate the program and begin to solicit 
applications from parents on behalf of students. This is well past the 
time when many of the area's private high schools require students to 
apply for the following school year. As a result, few private high 
schools had places remaining for D.C. Choice participants.
    I feel confident that, with more time for the WSF to publicize the 
program and to assist parents in completing applications and more 
schools (particularly elementary schools) identified for improvement, 
the program will be even more successful in providing low-income 
parents of students who attend low-performing schools with expanded 
options for their children's education.

                     D.C. VOUCHER PROGRAM EVALUATON

    Question. What evaluations has OMB done on the D.C. voucher 
programs and can you make that information available?
    Answer. The D.C. Choice initiative has not been reviewed using the 
PART instrument. The program is in its first year of operation so it is 
too early to determine its effectiveness or undergo a PART review. 
However, the Department has moved ahead with the required evaluation of 
the program.
    Question. Part of the law also says that you must do evaluations of 
the students receiving the vouchers as compared to students in D.C. 
public schools and compared to students who applied for and did not 
receive vouchers. What is the status of the evaluations required in the 
original statute?
    Answer. The evaluation of the D.C. Opportunity Scholarship Program 
has been underway since spring 2004, when the Department's Institute of 
Education Sciences awarded a contract to a team of researchers from 
Westat, Georgetown University, and Chesapeake Associates. The 
evaluators collected information on program applicants in spring 2004, 
conducted lotteries to fairly allocate scholarships and placements at 
the grade levels and schools where there were more applicants than 
space available, and drafted a report examining the extent and 
characteristics of student and school participants in the program's 
first year. In the next few months the evaluators will be collecting 
data on academic achievement, on other student outcomes, and on parent 
satisfaction for the first group of applicants. The evaluators will, at 
the same time, be collecting applicant information, conducting 
lotteries, and beginning a descriptive analysis of the spring 2005 
applicants.
    Question. When can Congress expect to see the results of the 
analysis?
    Answer. The evaluators are finalizing their first year report and 
it should be available to Congress this spring. While the focus of the 
evaluation is on examining the effectiveness of the D.C. Opportunity 
Scholarship Program, no impact information is available at this point 
because the initial group of program participants--those who applied in 
spring 2004 to receive scholarships for the 2004-2005 school year--have 
only recently matriculated at their new schools. Instead, this report 
examines the extent of student and school interest in the program and 
the characteristics of those participating. The report provides an 
important foundation for the later examination of program impacts.

                 HIGH SCHOOL INTERVENTION/PREPAREDNESS

    Question. Secretary Spellings, as you and I have discussed before, 
I have always seen the Department of Education as a resource for 
schools, other education agencies, parents, and students. However, in 
the administration of this program, I understand that the Department 
sent an email to the Washington Scholarship Fund asking them to alter 
one of their Frequently Asked Questions on whether or not a school 
affiliated with the voucher program can still apply its own admissions 
standards. The following email was sent to WSF from the Department: 
``the House Ed Committee has been reluctant to put this answer in 
writing. Many members (of Congress) are unaware that the schools can 
pick the students . . . I am not sure how to fix the answer but if this 
document is made public, it may damage their vote count.'' Clearly the 
Department was concerned that the reality that vouchers provide choices 
to schools not students and their families would become better known.
    How does providing incomplete information to families on the 
program increase a parent's ``choice'' about where their child can 
attend school?
    Answer. After Congress enacted the D.C. School Choice Incentive 
program, the Department moved quickly and aggressively to provide 
parents with complete information on the choices that would be 
available to eligible students. We did nothing to prevent parents of 
eligible students from receiving that information.
    The e-mail message included in the recent People for the American 
Way report fails entirely to present a full or balanced picture on the 
actions taken by the Department and its grantee, the Washington 
Scholarship Fund (WSF), during this period. The e-mail concerns the 
language WSF would include in an informational package mailed to 
private schools about participation in the program. Although the 
Department and WSF discussed different options for explaining policies 
regarding schools' admissions criteria, the package that WSF mailed to 
the schools asks the question, ``Can a school apply its own admissions 
criteria?,'' answers ``Yes,'' and then explains how a school may test 
eligible students to determine whether they are admissible and, if so, 
how they should be placed in grades or classes within the school. The 
Department made no attempt to prevent this information from reaching 
both the schools and the parents.

               EFFECTS OF PROPOSED HIGH SCHOOL INITIATIVE

    Question. Secretary Spellings, you and I have previously discussed 
our mutual interest in improving our Nation's high schools and I hope 
we can continue that conversation. As you know, I have my own bill on 
high school reform called the Pathways For All Students to Succeed Act 
that I will be reintroducing this Congress. My bill focuses on reading 
and writing skills, academic counseling including creating graduation 
plans with students and their families, accurate calculations and data 
collection on high school graduation rates, and funding to turn around 
low performing schools using best practices.
    The President's budget eliminates the Perkins program, GEAR UP, and 
part of the TRIO program and effectively creates a block grant and 
would require more testing at the high school level. You and the 
President have said that the idea would be to allow States to determine 
how to spend that block grant--if they determine career and technical 
education to be most needed to fund that, if it's GEAR UP, fund that. 
The problem with that theory is that all of these programs are needed 
along with new ways and investment to improve our high schools.
    Considering that the President is proposing a high school block 
grant to States, how does he think that will improve problems in high 
schools such as high dropout rates amongst poor and minority students 
or a lack of academic preparedness for postsecondary education?
    Answer. It sounds like your bill would support a number of 
potentially useful strategies to improving the performance of our 
secondary schools, and I believe that States and school districts would 
be able to support many of them under the President's High School 
Intervention proposal. Where I would have to disagree is with your 
assertion that ``all of these programs are needed,'' including the grab 
bag of currently authorized programs, to improve our high schools. The 
problem with categorical programs like Perkins, TRIO, and GEAR UP is 
that they only support specific educational strategies, and thus if 
those strategies don't meet the needs of your school or district, those 
programs can't help you. Under the President's more flexible proposal, 
districts and schools choose the best strategy for meeting the 
educational needs of their students, and the High School Intervention 
initiative helps pay for it. This broader flexibility would be 
accompanied by much stronger accountability for results than is found 
in the current programs. We think that's a better way to get the 
results we need in our high schools.

                   DISADVANTAGED HIGH SCHOOL STUDENTS

    Question. One of my constituents, Bill Gates, spoke to the National 
Governor's Association High School Summit. As you know, the Gates 
Foundation is doing critical work with our Nation's high schools. He 
talked about our Nation's high schools as a question of morals and 
values and I couldn't agree more. The Federal role in education has 
traditionally been to ensure that disadvantaged students are receiving 
an equal education but it is exactly those students, poor and minority 
students, who are dropping out at the highest rates. What is the 
Department of Education doing at the high school level to target 
improving education for those students?
    Answer. The President's High School Initiative, including $1.24 
billion for High School Intervention and $250 million for High School 
Assessments, is specifically targeted at the students you describe, 
particularly those students most at risk of dropping out, who tend to 
be poor and minority. In particular, the combination of individual 
education plans based on 8th-grade assessment data and more regular 
assessment throughout high school would help principals and teachers 
focus on the students with the greatest need for assistance.
    In addition, our 2006 budget includes proposals like the expansion 
of the Striving Readers program, which target students who are falling 
behind and at risk of dropping out.

         HIGH SCHOOL INTERVENTION PROGRAM AND STRIVING READERS

    Question. As the public conversation about education focuses on 
high school reform, it's important to recognize that improving the 
literacy skills of our Nation's youth is the key to really improving 
the success of our high schools in preparing students for the 21st 
century. If our Nation's high school students do not have adequate 
literacy skills, they will not be able to graduate prepared for college 
and the workplace no matter what other supports and programs are put in 
place. Such interventions need to take place in 9th grade before 
students drop out or become disengaged in their academic future. The 
President has requested $200 million to expand the Striving Readers 
program to support interventions to improve the skills of struggling 
adolescent readers.
    How does the Administration plan to engage the education policy and 
literacy communities in this initiative to ensure that this money is 
spent efficiently on high-quality interventions that not only help 
struggling adolescent readers, but complement and support real high 
school reform?
    Answer. Department staff have met with several organizations to 
solicit their suggestions on implementing the Striving Readers program. 
For example, staff met with representatives of the National Association 
of School of School Boards of Education and the Alliance for Excellent 
Education, which published the recent Reading Next report on adolescent 
literacy. In addition, the Department has received input from 
developers of adolescent literacy programs. The Department plans future 
outreach efforts in planning and promoting the Striving Readers 
program.

                        HIGH SCHOOL INTERVENTION

    Question. Only one-in-three 18 year olds is even minimally prepared 
for college and the picture is bleaker for poor and minority students. 
High school students--especially those most at risk of dropping out of 
school--need sound advice, strong support and an advocate to ensure 
they are getting all the support and services they need to take 
rigorous courses and have a plan in place for graduation and life after 
high school. Every student must have a clear graduation plan that 
assesses their needs and identifies coursework, additional learning 
opportunities and other supports to make their goals a reality. The 
President's budget includes $1.24 billion for a High School 
Intervention which would require districts to ``ensure that targeted 
high schools develop and implement individual performance plans for 
entering students based on 8th-grade assessment data.'' My bill, the 
PASS Act contains a similar proposal.
    Would this plan be a mandatory activity for recipients, and would 
the money be required to be used not just for identifying needs, but 
providing supports and interventions?
    Answer. Under the Administration's High School Intervention 
proposal, each grantee would be responsible for developing and 
implementing individual performance plans for entering students. 
Schools would use those plans to select interventions and strategies 
with the greatest potential for improving the achievement of their 
students. In addition to developing those plans, districts would use 
the funds to implement specific interventions designed to strengthen 
instruction and improve the academic achievement of students, 
particularly those students at the greatest risk of failing to meet 
challenging State academic standards and dropping out of high school. 
The High School Intervention proposal would provide districts with the 
flexibility to use their funds to meet their specific needs without 
having to apply for several discrete grants.

      SPECIAL ALLOWANCE ON LOANS FUNDED FROM TAX-EXEMPT SECURITIES

    Question. In its fiscal year 2005 budget, the Administration 
proposed eliminating a 9.5 percent guarantee on all new student loans. 
But in this year's budget, the Administration simply says it proposes 
to make the Taxpayer--Teacher Protection Act's provisions permanent. 
But the Taxpayer--Teacher Protection Act still leaves a $100 million a 
year 9.5 percent loan loophole. That remaining loophole allows the 
holders of 9.5 percent loans to ``recycle'' loan payments from students 
and the Government back into new loans that some lenders claim are also 
entitled to a 9.5 percent rate of return.
    Do you support shutting down completely and permanently the 9.5 
percent loan loophole once and for all so that ``no new loans have a 
9.5 percent guaranteed rate of return?''
    Answer. The Taxpayer-Teacher Protection Act prohibits lenders from 
using refunding and transferring to increase student loan volume 
receiving the 9.5 percent guaranteed yield, but allows lenders to 
continue to recycle repayments of existing 9.5 percent loans into new 
9.5 percent loans. Those new restrictions are in effect through 
December 2005; the Administration's proposal would make them permanent.
    In adopting the Taxpayer-Teacher Act, Congress and the 
Administration balanced the needs of current bondholders for a stable 
and predictable revenue stream against the need to minimize unnecessary 
subsidy payments. Existing bonds, used for recycling, are maturing and 
will be retired in the near future.
    Question. Washington State has seen many brave men and women 
deployed to serve in the conflicts in Afghanistan and Iraq over the 
last 3 years. Unfortunately too many have returned as amputees, 
necessitating a difficult and uncertain recovery process. I was very 
disheartened to learn that the Department of Education, through the 
Rehabilitation Services Administration (RSA), has decided not to 
support training grants for students in prosthetics or orthotics. There 
are a very limited number of prosthetics and orthotists across the 
country who can build the artificial limbs and braces that our 
returning war veterans will need to return to a productive lifestyle. 
Less Government support to these students will mean fewer practitioners 
and more difficulty for our newly injured veterans to secure the 
quality devices they so desperately need and deserve.
    Given the significant and growing needs of our returning veterans 
for these prosthetic or orthotic devices, why did the RSA discontinue 
these critically needed training grants?

       REHABILITATION SERVICES ADMINISTRATION'S TRAINING PROGRAM

    Answer. The purpose of the Rehabilitation Services Administration's 
(RSA) Training program is to ensure that skilled personnel are 
available to serve the rehabilitation needs of individuals with 
disabilities assisted through the vocational rehabilitation (VR), 
supported employment, and independent living programs. The Training 
program provides grants for Long-Term Training, In-Service Training, 
Continuing Education, Experimental and Innovative Training, Short-Term 
Training, and Training of Interpreter for individuals who are Deaf and 
Individuals who are Deaf-Blind.
    In fiscal year 2005, the Training program received an appropriation 
of $38.8 million, of which $18.6 million (48 percent) will be directed 
toward the Long-Term Training (LTT) program. Under the LTT program, 
grants (averaging $100,000 annually for 5 years) are competitively 
awarded to institutions of higher education. Seventy-five percent of 
these grant funds must be used for direct scholarship support. RSA may 
support as many as 31 academic fields under the LTT program but, as 
required by the authorizing statute, directs funding toward the 
personnel fields with the greatest training needs and/or personnel 
shortages. As the cost of tuition has increased over time, the impact 
of the support provided has been reduced. Specifically, over the past 
12 years college tuition has more than tripled while level funding (and 
rescissions since 2003) for the Training program have required RSA to 
reduce the number of LTT fields supported.
    Our primary partners for delivery of rehabilitation services to 
people with disabilities are the State VR agencies. They are faced with 
an incredible staffing shortage. A study in progress, being conducted 
by the American Institutes of Research, has reported that it is likely 
that the supply of graduates of rehabilitation counseling programs may 
meet less than half of the number needed to replace retiring counselors 
in State VR agencies.
    To help develop a larger recruiting pool, RSA has focused the LTT 
program on counselor programs. In 1998, RSA funded LTT program grants 
in 17 areas. In 2005, it will fund 11, and may fund fewer in the 
future. RSA is very aware of the need for Prosthetists and Orthotists 
and many other rehabilitation professionals. However, given the 
Training program's level of resources, the reduced buying power of its 
scholarship dollars, and the tremendous demand for counselors in State 
VR agencies, RSA will continue to focus the LTT program on personnel 
fields that directly link to the provision of VR counseling.
    Question. Will the Department of Education reinstitute these 
training grants to support those students studying to be the next 
generation of providers of artificial limbs and braces?
    Answer. As discussed earlier, the tremendous shortage of VR 
counselors that the State agencies face make changes in the number of 
fields supported under the LTT program not feasible. RSA must continue 
to target the grants under the LTT program to the largest professional 
field--VR counselors.

 VOCATIONAL/TECHNICAL EDUCATION--POSTSECONDARY STUDENTS ATTAINMENT AND 
                           COMPLETION TARGETS

    Question. According to Sec. 113(b)(3)(A)(i) of Perkins, the State 
eligible agency, with input from eligible recipients, shall establish 
the level of performance for each of the core indicators, and the State 
eligible agency may express the level in ``a percentage or numerical 
form, so as to be objective, quantifiable, and measurable . . .''
    The Washington State eligible agency, with the support of the State 
community and technical college system, has expressed the State's 
targets for the core indicators for postsecondary student attainment 
and completion as numerical targets (e.g., the number of students 
completing postsecondary career and technical education). The State has 
chosen to express the targets numerically because the State's goal is 
to increase the number of trained workers in order to meet employer 
demand. The Office of Vocational and Adult Education has rejected the 
choice of the State, and refused to accept any target not expressed as 
a percentage.
    Why has the Department of Education ignored the discretion that 
Congress clearly granted State eligible agencies when Washington State 
is fully and demonstrably committed to improving the performance of its 
vocational and technical education programs and to meeting the skill 
needs of State employers?
    Answer. As you indicate, eligible agencies are free under the law 
to express their performance levels in a percentage or numerical form. 
Regardless of how eligible agencies choose to express their performance 
levels, however, the Department has asked each eligible agency, in 
guidance that we issued after providing an opportunity for public 
comment, to define both a numerator (number of individuals achieving an 
outcome) and a denominator (number of individuals seeking to achieve an 
outcome) in submitting their proposed performance levels to us for 
review.
    We cannot fulfill the requirements of the Perkins statute without 
this information. Section 113(b)(3)(A)(i)(II) of Perkins mandates that 
each proposed performance level ``require the State to continually make 
progress toward improving the performance of vocational and technical 
education students.'' We cannot determine whether a State has satisfied 
this requirement if an eligible agency only provides numbers or 
percentages. Though the number of individuals who achieve an outcome 
may increase from year to year, this may not indicate that the 
performance of vocational and technical education students has 
improved. It may instead be the result of an increase in population. 
Similarly, an increase in the percentage of individuals achieving an 
outcome may or may not reflect improvement in the performance of 
vocational and technical education students; changing the definitions 
of the numerator and denominator could also cause it.
    In reaching agreement with eligible agencies on their performance 
levels, the Department also is required by the Perkins Act to consider 
``how the levels of performance involved compare with the State 
adjusted levels of performance established for other States taking into 
account factors including the characteristics of participants when the 
participants entered the program and the services or instruction to be 
provided.'' (See section 113(b)(3)(A)(vi) of the Act). It would be 
inequitable for the Department to consider only the number of 
individuals achieving an outcome in making comparisons across States 
and determining appropriate performance levels. Given the significant 
differences in the sizes of their populations, Rhode Island, Washington 
State, and California, for example, should not be expected to reach 
performance levels that require same numbers of individuals to achieve 
certain outcomes.
    For these reasons, we have given each eligible agency the 
flexibility to express its performance levels however it chooses, but 
asked all agencies to define both a numerator and a denominator in 
their submission of proposed performance levels. We cannot implement 
the law the Congress has enacted without this information.
    Washington is the only State that has expressed periodic misgivings 
about providing all of the information that we have sought from States 
to evaluate their proposed performance levels consistent with the law's 
requirements. However, the Washington State eligible agency, the 
Washington State Workforce Training and Education Coordinating Board, 
has acknowledged recently that it is inappropriate and misleading to 
measure performance, either at the secondary or postsecondary level, 
simply on the basis of the number of students who achieve an outcome. 
In February 2005, the Washington State Workforce Training and Education 
Coordinating Board issued a report on behalf of itself and agencies in 
Florida, Michigan, Montana, Oregon, and Texas that made recommendations 
to States on how best to measure performance in education and training 
programs. Integrated Performance Information for Workforce Development: 
A Blueprint for States recommends that States express performance 
levels as percentages, with clearly defined numerators and 
denominators.

                           IMMIGRANT LITERACY

    Question. According to the Aspen Institute, immigrants supplied 
half of our workforce growth in the 1990s and will account for all of 
our net workforce growth over the next 20 years. More immigrants 
arrived in the 1990s--13 million--than in any other decade in U.S. 
history. Demographers and employers are warning Members of Congress 
about a severe worker shortage in the United States in the next decade. 
They have told me we must increase our investments in these newly 
arriving workers with literacy training and other support services. If 
we do not, we run the very real risk of losing our worldwide economic 
competitiveness.
    The President's proposed budget cuts to Adult Basic and English 
Literacy, coupled with his efforts to reduce funding for workforce 
programs, do just the opposite.
    What steps is the Department of Education taking to provide the 
kinds of resources needed to ensure that the employers and the new 
immigrant workers in Washington State will have ready access to a 
literate and well-trained workforce?
    Answer. The Department agrees that the health and success of our 
workforce require emphasis on English language education, particularly 
in those areas most affected by increased immigration. The Department 
continues to address actively the language and education needs of 
immigrant students, at the elementary and secondary levels as well as 
at the adult level. The request includes level funding at $68.6 million 
for English Literacy and Civics Education (EL/Civics) grants, which 
serve a vital purpose in States with large numbers of non-English-
speaking immigrants. According to the Educational Testing Service 
study, ``A Human Capital Concern: The Literacy Proficiency of U.S. 
Immigrants,'' the average literacy level of immigrants is far below 
that of U.S. adults. The report also found that immigrants with higher 
literacy proficiencies have improved labor market outcomes and were 
less likely to be poor and in need of Government support. This 
population comprises approximately 40 percent of those served by Adult 
Education State grants, including EL/Civics grants. Unlike regular 
Adult Education State grants, which rely upon decennial U.S. Census 
data, EL/Civics grants utilize a formula based on a combination of 10-
year Census averages and recent population data and are, therefore, 
more responsive to fluctuations in immigration patterns.
    According to a 2005 report by the National Clearinghouse for 
English Language Acquisition, 54 percent of LEP students in the United 
States are foreign born. ESEA Title III, Part A authorizes Language 
Acquisition State grants to serve limited English proficient (LEP) and 
immigrant students at the elementary and secondary level. The 
President's fiscal year 2006 budget request for Title III includes $627 
million for that program. In fiscal year 2004, Washington State's 
allocation under Language Acquisition State Grants was $9,607,031, and 
preliminary estimates for 2005 and 2006 indicate that the State will 
receive increases in both years (assuming enactment of the President's 
budget request for 2006). This program is similarly responsive to 
fluctuations in immigrant populations and requires States to reserve at 
least 15 percent of their funding each year to increase grants to 
districts that have experienced a significant increase in the 
percentage or number of recent immigrant students over the preceding 2 
years. Through both the EL/Civics program and the Title III program, 
Washington and other States have numerous options for addressing the 
literacy needs of LEP adults and youth.

                  TEACHER QUALITY ENHANCEMENT PROGRAM

    Question. Funding for Title II of the Higher Education Act--Teacher 
Quality--is the only dedicated source of Federal support to reform and 
strengthen teacher preparation available to higher education 
institutions. Grants awarded under this program enable partnerships 
between Schools of Education, Arts and Sciences Departments at colleges 
and universities and local schools to work together to achieve the 
requirement that all students be taught by highly qualified teachers, 
as mandated by the No Child Left Behind Act.
    Given the well-documented shortages of highly qualified teachers in 
certain disciplines and in rural and hard to serve urban communities, 
why has the Administration eliminated all funding for Title II of HEA 
in their fiscal year 2006 budget proposal to the Congress?
    Answer. The Administration understands that the quality of the 
teacher is one of the most significant determinants of student learning 
and, as such, the Department of Education's budget supports major 
efforts to meet the President's goal of placing a qualified teacher in 
every classroom in America in order to ensure that no child is left 
behind. Spending on programs that are designed to improve teacher 
quality was more than $3 billion in fiscal year 2005 and the 
Administration's budget request increases this amount to more than $3.6 
billion in fiscal year 2006. Included in this request is $500 million 
for a major new initiative designed to improve teacher quality. The 
Teacher Incentive Fund would reward teachers whose students make the 
most achievement gains, provide incentives for teachers to teach in the 
most challenging schools, and encourage States and LEAs to adopt 
performance-based pay plans. These measures will do even more to ensure 
that effective teachers are available to teach our children. Even with 
proposed program eliminations, spending on teacher quality would 
increase substantially in fiscal year 2006 under the Administration's 
budget request.
    In reviewing the portfolio of programs within the Department 
dedicated to achieving the goal of improving teacher quality, the 
Administration concluded that providing additional funds to the Teacher 
Quality Enhancement program would not be the most effective use of 
funds. State and local entities may already use funds they receive 
under a number of other Department programs, including the Improving 
Teacher Quality State Grants program and the Transition to Teaching 
program, to carry out the kinds of activities supported through the 
Teacher Quality Enhancement program.

                 IMPROVING TEACHER QUALITY STATE GRANTS

    For example, the Improving Teacher Quality State Grants program 
focuses on preparing, training, and recruiting high-quality teachers. 
Under that program States may use funds to reform teacher and principal 
certification and licensing requirements, support alternative routes to 
State certification, support teacher and principal recruitment and 
retention initiatives, and initiate innovative strategies to improve 
teacher quality.
    Additionally, under that program States are required to award 
subgrants on a competitive basis to partnerships that are structured 
similarly to the partnerships mandated under the Teacher Quality 
Enhancement program and consisting of at least one institution of 
higher education, one high-need local educational agency, and one other 
entity. Partnerships may receive funds to support new teacher and 
principal recruitment and retention initiatives as well as to support a 
broad range of innovative initiatives to improve teacher quality, 
including signing bonuses and other financial incentives, teacher and 
principal mentoring, reforming tenure systems, merit pay, teacher 
testing, and pay differentiation initiatives.

                     TRANSITION TO TEACHING PROGRAM

    The Transition to Teaching program is also intended to help 
mitigate the shortage of qualified licensed or certified teachers in 
many of our Nation's schools by, among other things, encouraging the 
development and expansion of alternative routes to certification. The 
program provides funds to States, local educational authorities, and 
partnerships to support efforts to recruit, train, and place high-
quality teachers in high need schools and school districts.

                  TEACHER QUALITY ENHANCEMENT PROGRAM

    In light of the serious programmatic deficiencies identified 
through the PART process when the Teacher Quality Enhancement program 
was assessed in 2003, the Administration has concluded that the 
resources previously used to support this program should be shifted to 
higher-priority programs and initiatives that have greater potential to 
be effective in improving teacher quality. The Administration's budget 
request for programs in the Department designed to improve the quality 
of teachers demonstrates its commitment to ensuring that all American 
students have access to the highest quality teachers.

           ELEMENTARY AND SECONDARY SCHOOL COUNSELING PROGRAM

    Question. As part of the No Child Left Behind Act, Congress 
expanded the Elementary and Secondary School Counseling Program (ESSCP) 
to include secondary school activities. However, due to the program's 
statutory funding trigger, secondary schools will not benefit unless 
total funding exceeds $40 million, with the base amount reserved for 
elementary schools. Providing $75 million for the ESSCP will trigger 
the statutory requirement to support secondary school counselors, while 
maintaining funding for elementary school counselors.
    The Elementary and Secondary School Counseling Program is intended 
to provide schools with the necessary resources so that school 
counselors, school psychologists, school social workers, child and 
adolescent psychiatrists, and other qualified psychologists can work 
together to establish a comprehensive counseling program to improve 
academic achievement, provide career/education planning and facilitate 
personal/social development.
    Why did you decide to no longer fund the Elementary and Secondary 
School Counseling Program? It seems contradictory to one of the 
strongest messages from the President's fiscal year 2006 budget 
proposal, i.e., the need for high school reform.
    Answer. The budget request to eliminate funding for the Elementary 
and Secondary School Counseling program is part of an overall budget 
strategy to discontinue programs that duplicate other programs that may 
be carried out with flexible State formula grant funds, or that involve 
activities that are better or more appropriately supported through 
State, local, or private resources. Specifically, the 2006 budget 
proposes termination of 48 programs in order to free up almost $4.3 
billion (based on 2005 levels) for reallocation to higher-priority 
activities within the Department, including high school reform. Under 
the Administration's $1.24 billion High School Intervention initiative, 
school districts will be able to include student counseling services as 
part of comprehensive strategies they adopt to raise high school 
achievement and eliminate gaps in achievement among subgroups of 
students.
    The 2006 President's budget request also reflects the Nation's 
priorities to improve our homeland defenses, strengthen the armed 
forces, and promote economic opportunity. In order to ensure sustained 
economic prosperity, the President believes that it is imperative that 
spending be restrained and that the Nation's budget deficit be cut in 
half by 2009. The 2006 request would put us on track toward achieving 
that goal.

                       SCHOOL COUNSELING SERVICES

    Question. Why would you eliminate the one program that supports the 
school personnel in secondary schools (as well as elementary schools) 
who promote academic achievement, career planning and personal/social 
development which is so desperately needed by high school students?
    Answer. School counseling has, for many decades, been supported 
almost entirely with State and local funds. The very small amount of 
money appropriated for the Elementary and Secondary School Counseling 
program is unlikely to have more than a minimal impact on the 
availability of counseling services nationally. As stated in the answer 
to the previous question, under the Administration's $1.24 billion High 
School Intervention initiative, school districts may include student 
counseling services as part of comprehensive strategies they adopt to 
raise high school achievement and eliminate gaps in achievement among 
subgroups of students.
    In addition, if school districts choose to do so, they may support 
counseling programs with the funds they receive under the State Grants 
for Innovative Programs authority, which allows them to implement 
programs that best meet their needs. Furthermore, the Elementary and 
Secondary Education Act (ESEA) provides school districts with 
additional flexibility to meet their own priorities by consolidating a 
sizable portion of their Federal funds from their allocations under 
certain State formula grant programs and using those funds under any 
other of these authorized programs. A school district that seeks to 
implement a school counseling program in some or all of its schools may 
use funds from those programs to do so.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

              EDUCATION PROGRAMS PROPOSED FOR BUDGET CUTS

    Question. Can you please provide justification beyond that given in 
the Department of Education fiscal year 2006 Budget Summary for the 
cuts made to the following programs:
Educational Technology State Grants
    Answer. Schools and districts have made great gains in educational 
technology in recent years. In 2003, 93 percent of schools reported 
that they had access to the Internet in instructional rooms; just 2 
years prior, only 77 percent of schools offered this access. While many 
schools continue to have technology-related needs, particularly in 
training teachers to integrate technology into instruction, those needs 
can be met with resources available through other Federal programs. For 
example, activities to support technology-based professional 
development as well as school-based reform efforts that include 
technology are allowable under the State Grants for Innovative Programs 
and the Improving Teacher Quality State Grants program. Also, under the 
State and Local Transferability Act, most LEAs may transfer up to 50 
percent of their formula allocation under certain State formula grant 
programs to their allocations under any of the other authorized 
programs or to Part A of Title I. Therefore, an LEA that wants to 
implement technology programs may do so under the authorities granted 
though the individual programs or may transfer funds from, or to, its 
State Grants for Innovative Programs or Improving Teacher Quality State 
Grants allocation, without having to go through a separate grant 
application process.

Arts in Education
    Answer. The request to eliminate funding for the Arts in Education 
program supports the Administration's policy of increasing resources 
for high-priority programs by eliminating categorical programs that 
have narrow or limited effect. These categorical programs siphon off 
Federal resources that could be used by State and local educational 
agencies to improve the academic performance of all students. However, 
activities in the arts are allowable under larger State formula 
programs such as those mentioned above; by exercising the 
transferability authority, districts may choose to continue successful 
arts programs to fit the unique need of their students.

Safe and Drug-Free Schools and Communities State Grants
    Answer. The Administration proposes to terminate funding for Safe 
and Drug-Free Schools and Communities (SDFSC) State Grants because of 
the program's inability to demonstrate effectiveness and the fact that 
funds are spread too thinly to support quality interventions. For 
example, SDFSC State Grants provides about 60 percent of local 
educational agencies (LEAs) with allocations of less than $10,000, 
amounts typically too small to mount comprehensive and effective drug 
prevention and school safety programs.
    By comparison, under SDFSC National Programs the Department has 
greater flexibility to provide large enough awards to support quality 
interventions. In addition, the National Programs authority is 
structured to permit grantees and independent evaluators to measure 
progress, hold projects accountable, and determine which outcomes are 
most effective. We are requesting $317.3 million for SDFSC National 
Programs, an $82.7 million, or 35 percent, increase over 2005.
Alcohol Abuse Reduction program

    Answer. No funding is requested for the Alcohol Abuse Reduction 
program, because it is duplicative of other Elementary and Secondary 
Education Act (ESEA) programs. Local educational agencies (LEAs) that 
receive Safe Schools/Healthy Students grants or the proposed research-
based grant assistance under SDFSC National Programs may use those 
funds to support similar activities. LEAs may also use their ESEA Title 
V (State Grants for Innovative Programs) funds as well as funds they 
may transfer to ESEA Title V from their ESEA Title II Improving Teacher 
Quality State Grants program) allocation, to support alcohol abuse 
prevention.

Elementary and Secondary School Counseling
    Answer. The budget request to eliminate funding for the Elementary 
and Secondary School Counseling program is part of an overall budget 
strategy to discontinue programs that duplicate other programs that may 
be carried out with flexible State formula grant funds, or that involve 
activities that are better or more appropriately supported through 
State, local, or private resources. Specifically, the 2006 budget 
proposes termination of 48 programs in order to free up almost $4.3 
billion (based on 2005 levels) for reallocation to higher-priority 
activities within the Department.
    The 2006 President's budget request also reflects the Nation's 
priorities to improve our homeland defenses, strengthen the armed 
forces, and promote economic opportunity. In order to ensure sustained 
economic prosperity, the President believes that it is imperative that 
spending be restrained and that the Nation's budget deficit be cut in 
half by 2009. The 2006 request would put us on track toward achieving 
that goal.
    School counseling has, for many decades, been supported almost 
entirely with State and local funds. The very small amount of money 
appropriated for the Elementary and Secondary School Counseling program 
is unlikely to have more than a minimal impact on the availability of 
counseling services nationally. Under the Administration's $1.24 
billion High School Intervention initiative, school districts may 
include student counseling services as part of comprehensive strategies 
they adopt to raise high school achievement and eliminate gaps in 
achievement among subgroups of students.
    In addition, if school districts choose to do so, they may support 
counseling programs with the funds they receive under the State Grants 
for Innovative Programs authority, which allows them to implement 
programs that best meet their needs. Furthermore, the Elementary and 
Secondary Education Act (ESEA) provides school districts with 
additional flexibility to meet their own priorities by consolidating a 
sizable portion of their Federal funds from their allocations under 
certain State formula grant programs and using those funds under any 
other of these authorized programs. A school district that seeks to 
implement a school counseling program in some or all of its schools may 
use funds from those programs to do so.

Carl Perkins Vocational and Technical Education
    Answer. The President's fiscal year 2006 budget does not request 
funding for Vocational Education because of severe budget constraints 
that the Federal Government now faces and to eliminate programs that 
have shown little evidence of effectiveness in order to fund a new 
initiative to strengthen high schools. Despite decades of Federal 
investment, the Vocational Education program has produced little 
evidence of improved academic outcomes for students. The most recent 
National Assessment of Vocational Education found no evidence that high 
school vocational courses contribute to academic achievement or 
postsecondary enrollment, and the ``Program Assessment Rating Tool'' 
(PART) review rated the program as ineffective. On the most recent NAEP 
assessments, less than 10 percent of vocational students scored at or 
above proficiency in mathematics (2000) and only 29 percent scored at 
or above proficiency in reading (1998).
    A 2002 Public Agenda survey showed that 73 percent of employers 
rate the writing skills of recent high school graduates as fair or 
poor, while 63 percent express dissatisfaction with graduates' math 
skills. All high school students need a solid academic preparation, 
whether they plan to enter the world of work immediately after 
graduation or pursue postsecondary education. The High School 
Intervention program proposed in the budget to replace Vocational 
Education would give States and districts more flexibility to improve 
high school education and raise achievement, particularly the 
achievement of students most at risk of failure. States and school 
districts would be able to use funds for vocational education, tech-
prep programs, and other purposes, depending on State and local needs 
and priorities. The Administration believes that a targeted initiative 
will be more effective than current programs in meeting the major need 
for reform and improvement of American high school education.
    The budget also includes a Community College Access grants 
initiative to support expansion of ``dual-enrollment'' programs under 
which high school students take postsecondary courses and receive both 
secondary and postsecondary credit. This initiative would also help 
ensure that students completing such courses can continue and succeed 
in 4-year colleges and universities.

Federal TRIO Programs
    Answer. The President's fiscal year 2006 budget does not include 
funding for TRIO's Upward Bound and Talent Search programs because we 
believe our proposed $1.2 billion High School Intervention initiative 
would do a better job of improving high school education and increasing 
student achievement. Today, just 68 out of 100 9th graders will receive 
their diplomas on time. Moreover, only 51 percent of African-American 
students and 52 percent of Hispanic students will graduate from high 
school. Less than a third of students will leave high school ready to 
attend 4-year colleges. We believe a targeted and comprehensive 
approach is necessary to overcome these challenges.
    The new High School Intervention initiative would require each 
State to develop a plan for improving high school education and 
increasing student achievement, especially the achievement of low-
income students and students who attend schools that fail to make 
adequate yearly progress. States would be held accountable for 
improving the academic performance of at-risk students, narrowing 
achievement gaps, and reducing dropout rates, but States would have 
flexibility to provide the full range of services students need to 
ensure they are academically prepared for the transition to 
postsecondary education and the workforce. The initiative also would 
deepen the national knowledge base on what works in improving high 
schools and high school student achievement by supporting 
scientifically based research on specific interventions that have 
promise for improving outcomes.
    We believe this High School Intervention initiative would be more 
effective than our current, disjointed approach that has not served all 
students well. Upward Bound has been found to serve low-income students 
who have unusually high educational expectations and who would enroll 
in college regardless of their participation in the program. The high 
college enrollment rate for these Upward Bound students (65 percent) 
hides the reality that only 34 percent of the neediest students served 
by Upward Bound enroll in college. Although the program could have a 
significant impact if it served more students who truly need help, we 
do not have evidence to show that our efforts to target more of the 
neediest students have been successful. And the Administration's 
assessment of Talent Search did not find evidence that it is effective 
in helping disadvantaged students enroll in college.
    Replacing Upward Bound and Talent Search with the new High School 
Intervention initiative would help us reach our strategic goals of 
improving the performance of all high school students and increasing 
access to postsecondary education. The more comprehensive approach 
would give States the flexibility to incorporate the best elements of 
these programs to achieve better results. However, in the interest of 
minimizing the disruption of services to students, funding for the High 
School Intervention initiative would support existing Upward Bound and 
Talent Search projects that would be eligible for continuation funding 
in fiscal year 2006.

GEAR UP
    Answer. The President's fiscal year 2006 budget proposes to cut 
funding for GEAR UP for the same reasons--the new High School 
Intervention initiative would be a more targeted and comprehensive 
approach to improving high school education and increasing the 
achievement of all students. Although the Administration's assessment 
of GEAR UP found positive early results, there are no data regarding 
the program's effects on high school outcomes and college enrollment. 
The High School Intervention initiative would require States to focus 
on results, and it would provide support for rigorous, scientifically 
based research to determine the best methods for helping all students 
prepare for and succeed in college. In fiscal year 2006, continuing 
GEAR UP projects would be funded under the new initiative. In future 
years, the types of services currently provided under programs like 
TRIO and GEAR UP may be continued by States as part of their 
coordinated plans for improving high school education and increasing 
student achievement.

             PER PUPIL EDUCATION COSTS IN THE UNITED STATES

    Question. Every year when the budget comes out, there seems to 
always be an uproar from some of us on Capitol Hill that not enough 
funding was dedicated to the Department of Education. I appreciate that 
during this period of record high budget deficits, fiscal 
responsibility is a necessity. It also occurs to me, however, that 
regardless of how ``tight'' the budget is, there is a bottom dollar 
amount that it costs to educate a child. In your opinion, what is that 
amount for an elementary school student, a junior high school student, 
and a high school student? In asking this, I am asking for your expert 
opinion as the Secretary of the Department of Education and am 
referring to the total amount it costs to provide a public school 
student with the most basic education, regardless of funding source 
(i.e. Federal, State, or local government). Also, this question does 
not refer to how much is currently being spent per student, but how 
much do you believe is the bottom dollar amount that we should be 
spending per student.
    Answer. It is not possible to develop such a number for several 
reasons. The most fundamental reason is that what constitutes an 
appropriate education differs from State to State. As each State 
develops its own system of standards, it implicitly creates a different 
system of education needed to meet those standards with different 
costs. Additionally, differences in children mean differences in costs. 
The resources necessary to educate a third-grader who is blind are 
different from that necessary to educate a third-grader whose parents 
have just immigrated from a foreign nation.
    Goods and labor market conditions also affect costs. Fuel costs are 
higher in some States, making bus transportation more expensive. In 
some school districts, distances are great, similarly raising 
transportation costs. Economies of scale make education cheaper in some 
locales. A district that can take bids from several speech-language 
pathologists for services likely will have lower costs than a district 
with only one or two from which to choose. For all of these reasons, it 
is simply not possible to develop a meaningful measure of minimum costs 
necessary to educate a child at any age.

                         READING BY THIRD GRADE

    Question. Numerous studies, including those funded by the 
Department of Education, show that parents' low literacy affects their 
children's performance in school. The single most significant predictor 
of children's literacy is their mother's literacy level. Children of 
parents who have less than a high school education tend to do poorest 
on reading tests, while children of high school graduates do much 
better. These differences in test scores have held constant since 1971, 
and the same differences show up in the scores of 3rd, 8th, and 11th 
graders. We also know that the more literate parents are, the more they 
support and participate in their children's education. With the 
President's proposed cuts to Adult Basic and Literacy Education 
funding, how will parents with low literacy levels or limited English 
skills help their children achieve at the levels established by No 
Child Left Behind?
    Answer. The Department agrees that parents play a vital role in 
determining the success of a child's education. The parental 
involvement requirements under Part A of Title I, Title III, and other 
NCLB programs, encourage parents to become full partners in their 
child's education. NCLB provisions not only require schools to reach 
out to parents, through parental involvement activities, but also to 
provide information on school performance, school choice options, 
supplemental educational services, and other key elements of Title I to 
all parents and in a language and form that parents can understand.
    In addition, the Department remains committed to addressing the 
needs of immigrant and limited English proficient (LEP) students and 
their parents. The fiscal year 2006 request includes level funding at 
$68.6 million for English Literacy and Civics Education grants, which 
serve a vital purpose in States with large numbers of non-English-
speaking immigrants.

                          IMMIGRANT EDUCATION

    Question. According to the Aspen Institute, immigrants supplied 
half of our workforce growth in the 1990s and will account for all of 
our net workforce growth over the next 20 years. More immigrants 
arrived in the 1990s--13 million--than in any other decade in U.S. 
history. In light of these statistics, based on the 2000 Census and 
Bureau of Labor Statistics projections, the President's proposed budget 
cuts to Adult Basic and English Literacy programs do not make sense. 
Doesn't it appear that English as a Second Language funding for adults 
is more important than ever before?
    Answer. The Department agrees that there is a considerable need to 
address the needs of the immigrant population, both at the elementary 
and secondary levels as well as at the adult level. This is reflected 
in current budget request, which includes level funding at $68.6 
million for English Literacy and Civics Education grants to support 
States with large numbers of non-English-speaking immigrants. Unlike 
regular Adult Education State grants, which rely upon decennial U.S. 
Census data, English Literacy and Civics Education grants are based on 
a combination of 10-year Census averages and recent population data and 
are, therefore, more responsive to fluctuations in immigration 
patterns. English Literacy and Civics Education grants will enable 
limited-English-proficient (LEP) immigrants to attain the language 
skills that are central both to their integration into society and to 
their success as members of the workforce.
                                 ______
                                 
              Question Submitted by Senator Robert C. Byrd

                      ROBERT C. BYRD SCHOLARSHIPS

    Question. President Bush's fiscal year 2006 budget submission 
proposes to eliminate funding for the National Robert C. Byrd Honors 
Scholarship program. The scholarship program, which was established by 
Congress in 1986, makes awards to students in all 50 States, the 
District of Columbia, and Puerto Rico, and is the only merit-based form 
of Federal financial aid. According to the U.S. Department of 
Education, the program has made available a total of 336,525 1-year 
scholarships. The President's budget justification states that the 
National Robert C. Byrd Honors Scholarship program duplicates State, 
local, and private efforts. Madam Secretary, I recognize that the 
President's budget includes an increase in funding for Pell Grants, and 
that is welcome. But does the Bush Administration believe that we 
should not recognize and reward academic excellence, solely because 
some States, localities, and private institutions also recognize 
academic excellence?
    Answer. While the Administration agrees that it is important to 
reward academic excellence, the Administration believes that it is 
critical to focus such merit-based assistance on students with the 
highest financial need in order to target Federal assistance where it 
can be most effective. As a result, the Administration has requested 
$33 million for the Enhanced Pell Grants for State Scholars program. 
This program would provide up to an additional $1,000 in Pell Grants to 
students who complete a rigorous State Scholars curriculum in high 
school.
    The National Robert C. Byrd Honors Scholarship program was assessed 
using the Program Assessment Rating Tool (PART) for fiscal year 2006 
and received a rating of ``Results Not Demonstrated.'' The PART 
assessment identified several major design deficiencies that limit the 
program's effectiveness or efficiency. The PART assessment found the 
Byrd Honors Scholarship program to be duplicative of programs at the 
State, local and institutional level, noting that numerous non-Federal 
programs provide merit-based aid for outstanding students entering or 
continuing postsecondary education. All other Department scholarship 
programs are need-based, supporting those students who have a 
demonstrated financial need. This approach is central to one of the 
Department's strategic plan goals, which calls for the agency to 
increase access to quality postsecondary education especially to 
students with high financial need. The PART assessment noted that there 
is no evidence to suggest that scholarship recipients would otherwise 
be unable to attend college and that this program may subsidize 
activities that would have occurred without the program.
    In response to these findings, the Administration determined that 
the resources previously used to support this program should be shifted 
to higher priority programs that target funds more effectively. The 
Administration's budget request for other Federal student financial 
assistance programs demonstrates its commitment to ensuring that all 
Americans have access to and financial assistance for lifelong 
learning.

                          SUBCOMMITTEE RECESS

    Senator Harkin. Thank you very much, Madame Secretary.
    The subcommittee will stand in recess to reconvene at 10:30 
a.m on Tuesday, March 15 in room SD-124. At that time we will 
hear testimony from the Honorable Elaine Chao, Secretary, 
Department of Labor.
    [Whereupon, at 10:38 a.m., Wednesday, March 2, the 
subcommittee was recessed, to reconvene at 10:30 a.m., Tuesday, 
March 15.]


  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                        TUESDAY, MARCH 15, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Arlen Specter (chairman) 
presiding.
    Present: Senators Specter, Cochran, Craig, Harkin, and 
Inouye.

                          DEPARTMENT OF LABOR

                        Office of the Secretary

STATEMENT OF HON. ELAINE L. CHAO, SECRETARY

               OPENING STATEMENT OF SENATOR ARLEN SPECTER

    Senator Specter. Ladies and gentlemen, the hour of 10:30 
having arrived, the Senate Appropriations Subcommittee on 
Labor, Health, Human Services, and Education will now proceed. 
We have as our witness Secretary Elaine Chao, first Asian-
American woman appointed to the President's Cabinet in U.S. 
history, a very, very distinguished record prior to coming to 
the position of Secretary of Labor: President and CEO of the 
United Way Foundation; Director of the Peace Corps; Deputy 
Secretary of Transportation for President Bush the first; 
distinguished fellow at the Heritage Foundation; and MBA from 
the Harvard Business School; an undergraduate degree from Mount 
Holyoke College.
    So the Secretary has brought very distinguished credentials 
to the job and now she's in her second term, and has gained a 
lot of experience on how to handle a very tough Department. And 
in the ante room I asked her how she's going to get along on so 
little money, and she said she'd rather answer that question 
only once. So in a few minutes I'm going to ask her that 
question.
    The budget is for $11.6 billion, $425 million below the 
level for fiscal year 2005, which is a 3.5 percent reduction 
and when you figure in the inflation rate, it'll be somewhere 
near 6 percent. There is no doubt that we have to economize, 
but this budget is going to be very, very challenging, Madam 
Secretary, and we will work with you on the priorities.

                           PREPARED STATEMENT

    I see that there is $1.38 billion for worker protection 
programs and $250 million to continue the community college 
initiative. This is most days very busy on Capitol Hill with 
the budget under consideration, and I am due to offer an 
amendment to try to get a little extra funding for this 
subcommittee. So I will ask that my full statement be made a 
part of the record and will yield to the distinguished chairman 
of the full committee, Senator Cochran.
    [The statement follows:]

              Prepared Statement of Senator Arlen Specter

    This morning, the subcommittee on Labor, Health and Human Services 
and Education will discuss the President's $11.6 billion 2006 budget 
request for the Department of Labor, which is a net reduction of $425 
million below the fiscal year 2005 level. We are delighted to have 
before us the distinguished Secretary of Labor, the Honorable Elaine 
Chao, our Nation's 24th Secretary of Labor.
    This subcommittee is pleased to see several shared priorities 
funded in the fiscal year 2006 budget, including worker protection 
programs, and the Community College Initiative.
    However, I am concerned that at the same time, there is $575 
million of program reductions and eliminations. For example, the $49.4 
million program for Responsible Reintegration of Youthful Offenders is 
eliminated; the $76.2 million program for Training Migrant and Seasonal 
Farmworkers is also eliminated; Dislocated Worker State grants are 
reduced by $132.5 million, and the Job Corps is cut by $34.8 million.
    I know, Madam Secretary, that you can appreciate the difficult 
tradeoffs that this subcommittee will need to negotiate in the coming 
months as we balance the competing pressures of education, biomedical 
research, worker protection programs and continued investment in our 
Nation's youth. Madame Secretary, I look forward to working with you to 
craft an appropriations bill that maintains our commitment to fiscal 
restraint while preserving funding for high priority programs.

               OPENING STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much. Madam 
Secretary, welcome to the hearing of our Appropriations 
Committee, specifically the Subcommittee on Labor, Health and 
Human Services. We appreciate your distinguished service as 
Secretary of Labor. It's one of the tough jobs in the 
Government, though we know with your experience you bring a 
great deal of expertise and knowledge that will be very helpful 
to not only the President but our country as you carry out the 
duties of this important office.

                             BUDGET REQUEST

    We know the budget request is lean and difficult to imagine 
being implemented as it's presented because there's some 
tightening of the budget, because we are working hard to 
control the deficit and make sure that there's room in this 
economy for continued growth, expansion, and creation of jobs. 
The Department of Labor, as much as any Department of 
Government, understands the importance of trying to hold the 
line on spending. And so some very difficult choices are 
obvious.
    We are looking forward to working with you and getting the 
benefit of your advice and suggestions as we proceed to review 
the budget request to make sure that we don't make mistakes and 
cut programs that we shouldn't, but we know we are going to 
have to make some tough choices. So we thank you for your being 
here and your distinguished service.
    Senator Specter. Thank you very much, Mr. Chairman, Senator 
Cochran. Secretary Chao, now we look forward to your testimony.

                SUMMARY STATEMENT OF HON. ELAINE L. CHAO

    Secretary Chao. Thank you very much. Mr. Chairman, I know 
that you are pressed for time, so I'm just going to summarize 
my----
    Senator Specter. That would be fine, leaving us the maximum 
amount of time for dialogue, questions and answers.
    Secretary Chao. But I do want to emphasize a couple of 
points.
    Senator Specter. Fine.

                           PRESIDENT'S BUDGET

    Secretary Chao. One is that the President's budget will 
enable the Department to continue to build upon our precedent-
setting record of worker protection, which you have mentioned.
    Senator Specter. Madam Secretary, would you pull the 
microphone a little closer to you? Senator Thurmond always used 
to say, would you pull the machine closer?
    Secretary Chao. I do want to emphasize that the President's 
budget will enable the Department to continue our precedent-
setting record on worker protection, and it will help us 
implement some bold new training initiatives, which I look 
forward to discussing. And we are looking forward to reforming 
the workforce investment system so that it will serve more 
individuals and achieve even better results.

                           PREPARED STATEMENT

    I've got some--again, some other statements, but I think I 
can submit that for the record in light of the fact that your 
time is so tight.
    [The statement follows:]

               Prepared Statement of Hon. Elaine L. Chao

    Good morning Mr. Chairman, Senator Harkin, distinguished Members of 
the Subcommittee, ladies and gentlemen. Thank you for the opportunity 
to appear before you today to present the Department of Labor's fiscal 
year 2006 Budget.
    The total request for the Department in fiscal year 2006 is $54.5 
billion and 16,945 FTE, of which, $14.3 billion is before the 
committee. Of that amount, $11.6 billion is requested for discretionary 
budget authority. Our budget request will allow us to build on the 
accomplishments achieved in recent years while meeting the President's 
call to hold Federal programs to a firm test of accountability and to 
focus our resources on top priorities. In fiscal year 2006, the 
Department will continue its record-setting enforcement of worker 
protections and provide innovative and effective training programs to 
help prepare workers for good jobs in the 21st Century economy.
    In his February 2nd State of the Union Address, the President 
underscored the need to restrain spending in order to sustain our 
economic prosperity. As part of this restraint, it is important that 
total discretionary and non-security spending be held to levels 
proposed in the fiscal year 2006 Budget. The savings and reforms in the 
Budget are important components of achieving the President's goal of 
cutting the budget deficit in half by 2009, and I urge the Congress to 
support these reforms. The fiscal year 2006 Budget includes more than 
150 reductions, reforms, and terminations in non-defense discretionary 
programs, of which 11 affect the Department of Labor's programs. The 
Department wants to work with the Congress to achieve these savings.

                         RECENT ACCOMPLISHMENTS

    To set the stage for our fiscal year 2006 budget, I would like to 
highlight some of the Department's accomplishments over the last year. 
I am happy to report that our programs have been getting results and we 
continue to make steady gains in protecting America's workforce.
    Under the Department's new Overtime Security Rule, we strengthened 
overtime protection for 6.7 million workers. Today, more workers are 
getting overtime pay and the rules are clearer and easier to understand 
and apply.
    We have also set records in enforcing worker protection laws. For 
example, worker fatalities are at an all time-low, and the Occupational 
Safety and Health Administration (OSHA) has consistently exceeded its 
inspection targets. Workplace fatalities among Hispanic workers have 
fallen by 11.6 percent since 2001. And fatalities in the mining 
industry have now dropped to the lowest level since records were first 
kept in 1910.
    In 2004, more than 288,000 workers received nearly $200 million in 
back wages, including overtime, as a result of the Wage and Hour 
Division's enforcement.
    The Employee Benefits Security Administration achieved more than $3 
billion in monetary results in fiscal year 2004, protecting workers' 
health, benefit, and retirement plans--a 121 percent increase from 
fiscal year 2003.
    We have also enhanced the transparency and accountability of labor 
union finances so that union member rights are better protected and 
they know much more about how their dues money is being spent. Under 
our union transparency reforms, meaningful information about union 
financial transactions will be available and easily accessible to union 
members

                      FISCAL YEAR 2006 PRIORITIES

    While we are proud of our accomplishments, we realize that more 
must be done to improve the lives of America's workers. Our fiscal year 
2006 budget focuses on four overall priorities: protecting workers' 
safety and health; protecting workers' pay, benefits and union dues; 
protecting veterans' reemployment rights; and preparing workers for new 
opportunities.

                           PROTECTING WORKERS

    In fiscal year 2006, $1.4 billion is requested for DOL's worker 
protection activities. This increase of $27.6 million will enable the 
Department to continue our record-setting protection of workers' 
health, safety, pay, benefits and union dues.
Occupational Safety and Health Administration
    The fiscal year 2006 budget request for OSHA is $467.0 million and 
2,208 FTE, an increase of $2.8 million over fiscal year 2005.
    OSHA will continue to target inspections on the worst hazards and 
the most dangerous workplaces, while providing compliance assistance to 
workers and employers as they create safe and healthy workplaces. The 
request for OSHA includes an increase of $1.0 million for expanded 
compliance assistance activities in the State plan states. These funds, 
when matched by OSHA's state plan partners, will enable states to 
establish more Voluntary Protection Program sites, develop new 
agreements similar to OSHA Strategic Partnerships and Alliances, and 
provide additional outreach to workers and employers. An additional 
increase of $1.0 million is requested to enhance OSHA's data analysis 
and performance measurement capability.
Mine Safety and Health Administration
    MSHA protects the safety and health of the Nation's miners through 
enforcement of the Federal Mine Safety and Health Act of 1977. The 
fiscal year 2006 budget request is $280.5 million and 2,187 FTE, 
representing a funding increase of $1.4 million over fiscal year 2005.
    The Administration will seek to strengthen existing enforcement by 
asking Congress for higher civil monetary penalties. Legislation will 
be pursued to increase the fine for mine safety violations from $60,000 
to $220,000.

           PROTECTING WORKERS' PAY, BENEFITS, AND UNION DUES

    The Department will also continue its high priority programs to 
protect workers' pay, benefits and union dues.
Employment Standards Administration
    The Department's Employment Standards Administration (ESA) 
administers and enforces a variety of laws designed to enhance the 
welfare and protect the rights of American workers. The fiscal year 
2006 budget request before the Committee for ESA is $610.7 million and 
4,282 FTE. This amounts excludes and additional $31.0 million of H1B 
fees and $45.0 million in FECA Fair Share funding available to the 
agency. This represents an increase of $81.7 million and 162 FTE from 
fiscal year 2005, primarily due to the additional responsibilities 
associated with the Energy Employees Occupational Illness Compensation 
Program (EEOICPA).

            Wage and Hour Division
    The fiscal year 2006 budget request for the Wage and Hour Division 
totals $167.4 million and 1,346 FTE which excludes $31.0 million in 
estimated fee revenue from DOL's portion of an H-1B visa fraud 
prevention fee authorized by the 2004 H-1B Visa Reform Act. The 
resources requested will support the Wage and Hour Division's Overtime 
Security Task Force and its ``Off-the-Clock'' Initiative to promote 
compliance through education and enforcement efforts in low-wage 
industries. It will also support Wage and Hour's YouthRules! Initiative 
to promote compliance with the youth employment provisions of the Fair 
Labor Standards Act; enable expansion of enforcement to protect 
vulnerable workers in low-wage industries; and increase technical 
assistance and education to encourage compliance with labor laws. The 
budget also includes a legislative proposal to increase civil monetary 
penalties for violations causing death or serious injury to youths in 
the workplace from $11,000 to $50,000, and to $100,000 for repeat or 
willful violations.

Office of Federal Contract Compliance
    The fiscal year 2006 budget request for the Office of Federal 
Contract Compliance Programs (OFCCP) totals $82.1 million and 691 FTE. 
OFCCP is responsible for ensuring equal employment opportunity and non-
discrimination in employment for businesses contracting with the 
Federal Government. OFCCP carries out this mandate by conducting 
compliance reviews to discover instances of systemic discrimination, 
taking appropriate enforcement action, and providing relevant and 
effective compliance assistance programs. During fiscal year 2006, the 
implementation of Active Case Management and Functional Affirmative 
Action Programs will improve OFCCP's results, meaning more workers will 
be protected.

Office of Workers' Compensation Programs
    The fiscal year 2006 budget request for the Office of Workers' 
Compensation Programs (OWCP) totals $341.8 million and 1,758 FTE and 
supports the Federal Employees' Compensation Act, the Longshore and 
Harbor Workers' Compensation program, and the Black Lung Benefits 
program. Included in this request is a $5 million increase in Fair 
Share funding to effectively implement the new centralized medical bill 
processing contract.
    The OWCP budget also includes $96.1 million and 275 FTE to 
administer Part B of the Energy Employees Occupational Illness 
Compensation Program, and $59.9 million and 219 FTE for the Part E 
program that was established in fiscal year 2005. The two Energy 
programs provide compensation and medical benefits to employees or 
survivors of employees of the Department of Energy, and certain of its 
contractors and subcontractors who suffer from a radiation-related 
cancer, beryllium-related disease, chronic silicosis or other covered 
illnesses due to exposure to toxic substances as a result of their work 
at Department of Energy facilities or those of certain of its 
contractors.
    The 2006 budget also includes two legislative proposals affecting 
OWCP programs. The first is a proposal to reform FECA to update its 
benefit structure, adopt best practices of State workers' compensation 
systems, and strengthen return-to-work incentives. This proposal is 
expected to generate Government-wide savings of more than $720 million 
over 10 years. The second is a proposal to restructure and eventually 
retire the debt of the Black Lung Disability Trust Fund (BLDTF), a debt 
that is estimated to exceed $9.6 billion by fiscal year 2006, absent 
legislative action.

Office of Labor-Management Standards
    The fiscal year 2006 budget request for the Office of Labor-
Management Standards (OLMS) totals $48.8 million and 384 FTE. OLMS 
enforces provisions of Federal law that establish standards for union 
democracy and financial integrity. OLMS conducts investigative audits 
and criminal investigations for embezzlement and other financial 
mismanagement; conducts civil investigations of union officer elections 
and supervises remedial elections where required; administers statutory 
union financial reporting requirements; and provides for public 
disclosure of filed reports.
    To help restore OLMS after deep cuts during the 1990s, the budget 
request includes program increases of $6.0 million and 48 FTE to 
enhance union financial integrity, union advisory services, and 
compliance assistance activities. The budget also supports legislation 
that would authorize OLMS to impose civil money penalties on unions and 
others that fail to file required financial reports on a timely basis.

Employee Benefits Security Administration
    The Department's Employee Benefits Security Administration protects 
the integrity of pensions, health plans, and other employee benefits 
for more than 150 million workers. The fiscal year 2006 budget includes 
a $5.8 million increase to strengthen the retirement security of 
workers and retirees. These amounts include additional resources for 
the E-FAST system to maintain current operations.
    With regard to pension benefits, this Administration believes that 
pension promises made to workers and retirees must be kept. The current 
system does not ensure that pension plans are adequately funded. 
Underfunded plan terminations threaten workers' retirement security and 
are placing an increasing strain on the pension insurance system. These 
underfunded plans also impose an unfair and increasing burden on 
employers who sponsor healthy pension plans.
    The President's Budget for fiscal year 2006 proposes to reform the 
funding rules, increase disclosures to workers, and protect the pension 
insurance system, on which 44 million Americans rely to protect their 
retirement security. The Administration's plan will promote simplicity, 
accuracy, stability, and flexibility. It will encourage employers to 
fully fund their defined-benefit pension plans and ensure that benefit 
promises are kept. It will also expand, and make more timely, 
disclosures to workers and the public.
    The Administration's plan will reform the outdated premium 
structure to reflect more accurately the cost of the insurance program. 
The plan proposes to update flat rate premiums and index them to wage 
growth. We will also propose to shift the emphasis to risk-based 
premiums for all under funded plans in order to provide greater 
incentives for responsible funding.
    The fiscal year 2006 budget reiterates the Administration's support 
for Association Health Plan legislation that will allow small 
businesses and others to pool together through their trade and 
professional associations to provide health benefits for workers and 
their families. By joining together, small businesses and other 
association members would benefit from similar economies of scale, 
uniform regulation and administrative efficiencies enjoyed by large 
employers and labor unions. Association Health Plan legislation is a 
key component of the President's plan to improve access to quality, 
affordable health coverage for all Americans.

                 PROTECTING VETERANS' EMPLOYMENT RIGHTS

    This Nation's commitment to our veterans must be honored. No 
veteran should return home without the support that is needed to make 
the transition back to private life a smooth and successful one.
Veterans' Employment and Training Service
    For the Department's Veterans' Employment and Training Service 
(VETS), we are requesting $224.3 million and 250 FTE to maximize 
employment opportunities for veterans and protect their employment 
rights.
    The Department recently issued a notice of proposed rulemaking to 
strengthen and clarify veterans' rights and employers' responsibilities 
under the Uniformed Services Employment and Reemployment Rights Act 
(USERRA). The rule is expected to be finalized during fiscal year 2006. 
Our budget request also includes $22 million for the Homeless Veterans 
Reintegration Program, an increase of $1.2 million. This program will 
provide employment and training assistance to homeless veterans, with 
expected job placements and retention of approximately 10,600 veterans.

                PREPARING WORKERS FOR NEW OPPORTUNITIES

Reforming the Workforce Investment System
    Overall, the fiscal year 2006 budget request for the Department's 
Employment and Training Administration is $9.2 billion in discretionary 
funds and 1,216 FTE. Our budget request will allow the Department to 
fulfill the President's call to improve job training and prepare more 
Americans for the growing and changing economy, ensuring that no worker 
is left behind. In 2006, we want to double the number of individuals 
trained under the Workforce Investment Act's major grant programs--
including State formula grants and the new Community College 
Initiative--from 200,000 to 400,000. Just as important, we want to help 
provide workers with training that prepares them for the jobs of the 
21st century.
    Under the President's job training reform proposal, we seek 
legislation to reform the Workforce Investment Act (WIA) that would 
consolidate four compartmentalized programs into a single funding 
stream so that Governors and local officials will be able to utilize 
resources in a way that best meets their communities' specific needs. 
This proposal, called ``WIA Plus,'' would provide Governors the option 
of adding resources from up to five additional federally-funded 
employment and training programs to this consolidated State grant. The 
major goals include providing flexibility to States and localities and 
reducing overhead so that more workers can receive training.
    In return for this increased flexibility, States will be required 
to develop strategies to meet increasingly rigorous performance 
standards each year, leading to a goal in the 10th year of placing in 
employment 100 percent of the workers trained with Federal funds.
    The President's WIA reform proposal would also establish Innovation 
Training Accounts to provide workers ownership over the education and 
training they pursue by:
  --Allowing individuals to access a broad range of public and private 
        training resources through a single, self-managed account;
  --Authorizing longer-term training opportunities, since many skills 
        needed for today's jobs require more than just short-term 
        attention and exposure;
  --Providing access to improved labor market information to help 
        individuals make training decisions based on the jobs available 
        in their local area;
  --Holding training institutions accountable for results;
  --Acknowledging the need for incumbent worker training so workers can 
        update their skills and advance their careers; and,
  --Promoting the attainment of industry-recognized credentials and 
        certifications.

High Growth Job Training Initiative
    The President's High Growth Job Training Initiative is designed to 
develop a demand-driven workforce training system. This initiative, 
which began in 2002, prepares workers to take advantage of new job 
opportunities in growing industries and sectors of the American 
economy. The approach is based on grants to partnerships that include 
the workforce investment system, business and industry, education and 
training providers, and economic development entities working 
collaboratively to develop industry-specific workforce solutions. Under 
this initiative, the Department has awarded $164.8 million in 88 grants 
for innovative training programs in high growth industries, such as 
health-care, biotechnology and advanced manufacturing. By training 
workers with skills that are in demand, more workers will be able to 
obtain quality jobs with higher wages and enhanced career 
opportunities. At the same time, employers will be able to fill 
critical workforce needs.

Community College Initiative
    The budget also provides $250 million to continue the President's 
Community College Initiative, which provides for Community Based Job 
Training Grants. For 2005, the Congress approved and financed this new 
initiative, and the first grants will be awarded beginning in the 
summer of 2005. Eighty percent of the jobs in the fastest growing 
fields require education and training beyond high school. The Community 
College Initiative will help fully utilize the expertise of America's 
community colleges as part of our job training programs and better 
train workers for jobs in high growth sectors. These competitive grants 
will build on the High Growth Job Training Initiative and strengthen 
the role of community and technical colleges as partners of the 
workforce investment system.

Youthbuild
    The President's Budget includes a legislative proposal to transfer 
the Youthbuild program from the Department of Housing and Urban 
Development to DOL. This change was recommended by the White House Task 
Force on Disadvantaged Youth. The Youthbuild program targets 
disadvantaged youth ages 16-24. The program provides grants to local 
organizations that train participants for well-paying construction 
jobs. Their training also results in the building of affordable housing 
units. Transferring Youthbuild to DOL would provide the program with 
better contacts with One Stop Career Centers, stronger ties to DOL's 
Job Corps and apprenticeship programs, new links to the President's 
High Growth Job Training Initiative, improved access to the post 
secondary and community college system, and stronger connections to 
employers and local labor markets. It also promises to offer greater 
placement opportunities for the youths involved.

Prisoner Re-Entry Initiative
    In fiscal year 2006, $75 million is provided for the second year of 
the President's 4 year, multi-departmental Prisoner Re-Entry 
Initiative. Of this total, $35 million is for the Department of Labor, 
$25 million is for the Department of Housing and Urban Development, and 
$15 million is for the Department of Justice. This initiative is 
designed to strengthen urban communities through an employment-centered 
program that incorporates job training, short-term housing, mentoring, 
and other transitional services to help recently released prisoners 
make a successful transition back to society and long-term employment. 
It taps the unique contributions and capacities of America's faith-
based and community organizations.

Strengthening the Integrity of the Unemployment Insurance System
    Building on previous proposals to strengthen the Unemployment 
Insurance (UI) system and reduce erroneous UI payments, the fiscal year 
2006 budget proposes a $10 million increase in beneficiary eligibility 
reviews in One-Stop Career Centers. This is projected to save up to 
$225 million annually. In addition, a $30 million increase is requested 
to prevent and detect fraudulent unemployment benefit claims using 
stolen personal information--otherwise known as identity theft--that 
would result in annual trust fund savings of as much as $105 million. 
These two discretionary proposals are part of the Administration's 
proposal to fund efforts to reduce improper payments across several 
agencies using a new budget enforcement mechanism of spending cap 
adjustments. In addition, the Budget includes a package of legislative 
changes to prevent and recover overpayments of Unemployment Insurance 
benefits, saving an estimated $4.7 billion over 10 years. These budget 
and legislative proposals are not only an important protection for 
American workers, but are also a responsible use of public funds.

                             OTHER PROGRAMS

Bureau of Labor Statistics
    In order to maintain the development of timely and accurate 
statistics on major labor market indicators, the fiscal year 2006 
budget provides the Bureau of Labor Statistics with $542.5 million and 
2,475 FTE, which is an increase of $13.5 million over fiscal year 2005. 
This funding level provides the BLS with the necessary resources to 
continue producing sensitive and important economic data, including the 
Consumer Price Index, the Producer Price Index, and the Quarterly 
Census of Employment and Wages.

Office of Disability Employment Policy
    The 2006 budget request provides the Office of Disability 
Employment Policy (ODEP) with a total of $27.9 million and 59 FTE. In 
past years, the request for ODEP included a large research and grant 
making function. ODEP has invested these funds in testing a variety of 
pilot projects, and we now have several years of results to determine 
which of these pilots work, and which ones don't. ODEP will now focus 
on improving access by disabled Americans to DOL's programs, and on 
developing proven approaches to helping Americans with disabilities 
find meaningful employment opportunities.

Women's Bureau
    To continue its outreach to working women, the fiscal year 2006 
budget includes $9.7 million and 60 FTE for the Women's Bureau, an 
increase of $0.3 million above fiscal year 2005.

International Labor Affairs Bureau
    The request for the International Labor Affairs Bureau (ILAB) in 
fiscal year 2006 is $12.4 million and 95 FTE. The budget returns ILAB 
to its core mission of developing international labor policy, and 
performing research, analysis, and advocacy.
    The requested funding levels would allow ILAB to implement the 
labor supplementary agreement to NAFTA and the labor provisions of 
trade agreements negotiated under the Trade Act of 2002, participate in 
the formulation of U.S. trade policy and negotiation of trade 
agreements, conduct research and report on global working conditions, 
assess the impact on U.S. employment of trade agreements, and represent 
the U.S. Government before international labor organizations, including 
the International Labor Organization.
    ILAB will continue to implement ongoing efforts in more than 70 
countries funded in previous years to eliminate the worst forms of 
child labor and promote the application of core labor standards, and 
reduce employment discrimination against persons living with HIV/AIDS.

President's Management Agenda and Department-wide Management 
        Initiatives
    Before I close today, Mr. Chairman, I also want to highlight the 
Department's ongoing efforts to implement the President's Management 
Agenda. In August 2001, President Bush sent to Congress his President's 
Management Agenda (PMA), a strategy for improving the management and 
performance of the Federal Government. The agenda called for focused 
efforts in the following five government-wide initiatives aimed at 
improving results to citizens: Strategic Management of Human Capital, 
Competitive Sourcing, Improved Financial Performance, Expanded 
Electronic Government, and Budget and Performance Integration. DOL is 
also responsible for three of the PMA initiatives that are found only 
in selected departments. The first of these three is Faith-Based and 
Community Initiatives. In the fourth quarter of 2004, DOL began working 
in earnest on another selected PMA component, Real Property. Also, in 
the first quarter of 2005, DOL began tracking its status and progress 
on a new PMA initiative to Eliminate Improper Payments.
    The Department is one of only three cabinet departments that earned 
``green'' status ratings on four of the five government-wide scorecards 
for the first quarter of 2005, without a single red score. For progress 
during this period, DOL achieved five of five green scores. On the 
basis of its favorable ratings for status and progress in 
implementation of these initiatives, DOL was honored with two 
Presidential Quality Awards and is recognized as one of the best 
managed Cabinet agencies.

                               CONCLUSION

    With the resources we have requested for fiscal year 2006, the 
Department will continue to improve its protection of workers' safety 
and health, protect workers' pay, benefits, and union dues, secure the 
employment rights of America's veterans, and prepare workers for the 
jobs of the 21st Century.
    Mr. Chairman, this is an overview of the programs we have planned 
at the Department of Labor for fiscal year 2006.
    I would be happy to respond to any questions members of the 
subcommittee may have.
    Thank you.

                         MEDICAL LEAVE PROGRAM

    Senator Specter. Okay. Well, thank you, Madam Secretary. 
The medical leave program has been challenged with some 68 
Federal lawsuits raising issues on the interpretation of when 
employees are eligible for leave under the 1993 Family and 
Medical Leave Act. Last December, your Department announced its 
intention to publish a rule to revise the Act's regulations.
    There are many in the labor area who like the way the 
program is being administered and there are some in the 
business area who would like to see their restrictions 
tightened. We have been studying the issue, but we would be 
very interested in your view as to how the regulations are 
being administered, whether you intend to put up new 
regulations, and what your evaluation is as to the equitable 
balance as you see it.
    Secretary Chao. First of all, let me say that the Family 
and Medical Leave Act is an important law that basically 
benefits a lot of workers and their families, and we take our 
responsibilities under this law very seriously. Let me also say 
that in the last 10 years that the regulations have been in 
effect, there have been numerous lawsuits challenging various 
provisions of the regulations. And some of these provisions in 
the regulations that were set out have in fact been struck 
down, including one by the Supreme Court in a decision in 2002, 
Ragsdale v. Wolverine.
    So we are mandated by the Court to revisit certain aspects 
of the Family and Medical Leave Act, and we've, in response to 
the Supreme Court decision and other case law developments, we 
have held a number of stakeholder meetings throughout the last 
2 years with both employees and employers, with the unions, 
with non-profit groups. And we have been considering a number 
of informal comments and the feedback that we have received 
from these shareholder meetings. We've been reviewing the 
development in case law and we are looking at a number of areas 
where we could possibly provide better guidance.
    But let me say that no final decision has been made on this 
issue. We do have outstanding the 2002 Supreme Court decision 
on Ragsdale, and so something needs to be done on that.
    Senator Specter. Well, let us work together and stay in 
touch to see how--what you're thinking about, have an equitable 
balance so that we do our best to strike a balance between what 
the workers have in mind on leave and what the employers are 
concerned with.

                       YOUTHFUL OFFENDER PROGRAM

    You are again proposing to eliminate the responsible 
reintegration of youthful offender program, replacing it with a 
prisoner re-entry initiative. I was with the President and the 
First Lady in Pittsburgh 1 week ago yesterday, and she has a 
program to help troubled youth, and we have these programs 
sprinkled all over the map, Secretary Chao.
    This prisoner re-entry initiative, you really need a score 
card to keep track of what's going on. It's going to be funded 
through three Departments, $35 million from the Department of 
Labor, $25 million from HUD, and $15 million from the 
Department of Justice. Does all this alphabet soup make sense?
    Secretary Chao. I know that the youth offender program is 
very near and dear to your heart and it's one of your----
    Senator Specter. Well, it has been near and dear to my 
heart since I worked with youthful offenders many years ago as 
district attorney, and it continues to be an atrocious problem. 
There were 11 murders in Philadelphia over the weekend. The 
chief of police decried the situation yesterday, noting that 
there were more murder--more people killed in Philadelphia over 
the weekend than in Iraq. So there really needs to--we really 
need to do something. It is a bottomless pit. What do you 
think?
    Secretary Chao. We know that this is a program that you 
place a great deal of emphasis on, and in fact we share your 
concern that there seems to be a great many different venues 
through which focus on this issue was taken, which was why we 
took the impetus--we took the initiative initially to try to 
work the young offenders program into a larger program. And so 
we have tried to integrate the funding. We have tried to work 
this program into the prison re-entry initiative.
    Our concerns are the same as yours. It's too fragmented. 
And so we thought that, again, with the young offenders 
program, if we work together through the prisoners re-entry, 
along with a more coordinated and coherent approach with other 
Departments that are also involved in facing this--addressing 
this challenge, that we would do a better job.
    Senator Specter. My red light is on, and I like to observe 
the time, but it would lose continuity if I didn't ask you one 
more question. We could solve this fragmentation by simply 
moving the Department of HUD and Urban Development and the 
Department of Justice under your Department of Labor, under 
your overall Secretaryship. Would you think that would 
eliminate the confusion and duplication and overlapping?
    Secretary Chao. I never refuse an offer to expand my 
empire.
    I'm only joking, of course.
    Senator Specter. Madam Secretary----
    Secretary Chao. I think there's a larger issue here: This 
is very much geared toward training and getting young people 
together with community and faith-based organizations who 
support, in a holistic way, the full integration of young 
people back into the community. And so we thought that a more 
holistic, coordinated, and comprehensive approach with other 
Departments that are also doing the same thing would yield 
actually a better result for these young people.
    Senator Specter. I want to now yield to the distinguished 
chairman of the full committee who may be able to solve all of 
our problems when he makes the allocations.
    Senator Cochran. Mr. Chairman, thank you very much for your 
confidence in our decision-making capabilities. I hope that we 
are able to reach a decision that enables the Department of 
Labor to carry out its important responsibilities, particularly 
in job training and their programs in my State.

                           JOB CORPS PROGRAM

    I had the pleasure of visiting last year a Job Corps site 
where they're doing very commendable work in preparing students 
for real jobs that exist in our State. I noticed there's a 
decrease in the budget request for the Job Corps program, a 
decrease of $29 million below last year, and also a suggestion 
for recission of funds in the construction area for the 
renovation and repair of buildings. I think my State has a 
backlog of that kind of work as well.
    I hope we will be able to work with the Department to 
identify some changes that we can make in the budget without 
disrupting the overall goal of holding the line on unnecessary 
spending. But I mention that program, and I wonder what your 
impression has been of the Job Corps program, specifically its 
efforts to train those who don't come to the program with a 
high level of education, some of them don't, and so this job-
training activity may be their only hope for having a good-
paying job.
    Secretary Chao. The Job Corps is a very popular program. It 
is liked by Members across--on both sides of the aisle. It's a 
very popular program. The specific line item that you're 
referring to impacts only the construction, the rehabilitation, 
and acquisition account for buildings. So we do not anticipate 
any service reductions at all.
    We will continue to pursue the acquisition of the new sites 
in Pinellas Park, Florida, and Milwaukee, Wisconsin. I think 
what we're talking about here is again, we do not expect that 
current funding requests will impact the current service level 
at all.

                             LOAN GUARANTEE

    Senator Cochran. There is one request I called in the other 
day by telephone to your office. It has to do with an 
application for a Department of Agriculture loan guarantee 
submitted by a company that is planning to build a steel 
manufacturing plant in Columbus, Mississippi. They've applied 
for a loan guarantee from the Department of Agriculture under a 
program that I'm familiar with.
    But before the Department can approve that, they're 
required to submit the application or notice of the application 
to the Department of Labor. And the Labor Department's role is 
limited to making two findings: That the approval of the loan 
guarantee does not involve the relocation of jobs; and there 
will be no adverse impact on competitors in the immediate area.
    In the immediate area of Columbus, there is no other steel 
manufacturing plant. There is no other steel manufacturing 
plant that will provide the material that this company will 
provide in the entire Southeastern United States. To my 
knowledge, and I'm assured that this is the case, there is no 
question about relocating jobs from some other area.
    I had a very difficult time getting information from your 
office as to what the status of the matter was. I asked for 
additional information. I was assured that my call would be 
returned by somebody who could provide me with that 
information. I haven't received a call yet. Somebody on my 
staff may have gotten a call, but I haven't been advised about 
it until now.
    I hope that you will look at this request. The company's 
name is Steelcorr Corporation. It would manufacture steel 
plates for automobile construction. We have several new 
automobile construction facilities that have been located in 
our State, in the State of Alabama, and in that region, but 
this would be the first plant that would be actually making 
steel plates to be used in the construction of these 
automobiles.
    If this company is able to get the loan guarantee, they'll 
build that plant and it will provide a lot of new jobs and a 
lot of new industries that are compatible with it. Suppliers 
and the like would also likely move into our area.
    So we have a great deal of interest in this, and we hope 
that the Department of Labor won't just continue to hold this 
application. It's a matter of some urgency, I'm told, so that 
they can move forward with the construction of this facility. 
I'm sorry to have to spend so much of my time talking about the 
importance of that. It sounds like it's something that the 
Department could handle very quickly.
    Senator Specter. Senator Cochran, if you'd like more time, 
you're welcome to it.
    Senator Cochran. Thank you, Mr. Chairman. I don't think I 
need it.
    Secretary Chao. May I answer that? May I just make a few 
comments about that if I could? First of all, I'm sorry that 
you have the impression that our Department is not responsive 
in answering, because when the chairman calls, both chairmen, 
we answer the calls right away, so again, I don't know what 
happened. I will check into that.
    Second issue, we understand that this is a--we know that 
you are concerned about this issue, and we're very focused on 
it. We play only a very small part as you mentioned in the 
whole process. The Department of Labor is required by law to 
evaluate the impact of this financial assistance. We have about 
30 days. The application was submitted on February 24 with 
USDA, and it was forwarded to the Department of Labor for 
consideration--I'm sorry--on February 24. So the Department has 
about 30 days and we're still in the evaluation process.
    Please be assured that your interest in this is noted, and 
again, we are just responsible for the assessment, and then we 
go back to USDA and then they, of course, make the final 
decision.
    Senator Cochran. I thank you for your response and hope 
that we will see the timely handling of the Department of 
Labor's responsibility for this application. Thank you, Mr. 
Chairman.

                    PERSONAL RE-EMPLOYMENT ACCOUNTS

    Senator Specter. Thank you very much, Senator Cochran. 
Madam Secretary, in fiscal year 2004, Congress did not approve 
your request for $50 million to initiate a new personal re-
employment account program, but you used transfer authority to 
spend $9 million on this program anyway. I think it is very 
important that when there is a refusal by the Congress on the 
appropriations process under the Constitution that the funding 
not be used in any collateral way, and I would be interested in 
your comments on the matter and your assurances that the 
Department does not intend to use the collateral way with 
transfer authority, where there has been an expressed 
declination by the Congress.
    Secretary Chao. As you know, the administration strongly 
supports the personal re-employment accounts, and the House 
passed one version and the Senate did not. Because the original 
larger scale personal re-employment accounts were not funded, 
it was decided to test the approach on a smaller pilot basis, 
through some demonstration projects, and I believe we notified 
the Appropriations Committee that we were intending to do so. 
And I think, as you mentioned, there's about $7.9 million out 
of a huge project that was the original intended amount.
    So we hope that we at least--we will get better information 
and test this approach on a--with some communities have 
voluntarily wanted to participate. And we hope that again that 
will yield better information on whether this works or not.
    Senator Specter. Well, Secretary Chao, even though it's a 
relatively small sum of money, although we might discuss 
whether $7.9 million is a relatively small sum of money, and 
even though it's a pilot project, and even though the 
administration very much wants it, and even though some 
communities would like to do it, it's really, really beyond the 
separation of powers.
    Listen, you've done such a good job that I'm not going to 
dwell on the point. But I just want to drop a big red flag.
    Secretary Chao. Okay.
    Senator Specter. Okay? It doesn't have any stars and 
stripes on it.
    Secretary Chao. I understand.

       APPALACHIAN COUNCIL AND THE WORKING FOR AMERICA INSTITUTE

    Senator Specter. Big red flag. I appreciate the work of the 
Department in working through the statutory deadline of January 
31 to put grants into effect for several projects, including 
the Appalachian Council and the Working for America Institute. 
There have been some differences of opinion as between--these 
occur inevitably between the executive and the legislative 
branches, and that's why we have separation of powers.
    But I would like you to take a look at those programs, a 
personal look, and let me know what you think of them, because 
if there are any problems there, I would like to be personally 
informed.
    Secretary Chao. Okay.
    Senator Specter. An effort made to work them out. Those 
projects have been in effect for a long time, and they provide 
sort of a classic confrontation in the political field. You and 
I are both dedicated to service and doing what is good, so 
that's something that I would like something between Elaine 
Chao and Arlen Specter. If you would take a look at them, we 
can see what they're doing and try to work out any problems.
    Secretary Chao. So it's Working for America and the NCEE?
    Senator Specter. Yes, and the Appalachian Council.
    Secretary Chao. The Appalachian Council, okay.
    Senator Specter. And the Working for America Institute.
    Secretary Chao. These are sole-source contracts. We can 
talk more about them, but the main problems are sole source 
criteria.
    Senator Specter. Well, we do still use them to some extent.
    Secretary Chao. But we did fund--the committee earmarked 
and it went out on time.
    Senator Specter. No, no, I know you've done it, and I 
started off by thanking you for doing that. This initiative for 
the black clergy, which Senator Santorum and I were so 
enthusiastic about, looked like it was all going through until 
late in October, and we had a problem, which could have had 
some very serious repercussions. We were able to work it out. 
And I'd like you to take a look at that one too as to how they 
are doing.

                         FAITH-BASED INITIATIVE

    This goes back to the problem we talked about, juvenile 
delinquency, and this is a faith-based initiative. These are 
churches and they've set up six job training programs. And here 
again is something which reaches the level where I would like 
the Secretary and the chairman to work together.
    Secretary Chao. I'd be pleased to do so.

                          ASBESTOS VIOLATIONS

    Senator Specter. Madam Secretary, the issue has arisen on 
increasing the penalties for a willful violation of the 
Occupational Safety and Health Act on asbestos violations. And 
I would be interested--I'm considering legislation on that 
field. Asbestos is a terrible problem which we all know about, 
and I'd be interested in your views as to whether you think 
enhanced penalties would be a good idea there.
    Secretary Chao. I think the current discussions about the 
asbestos bill, which you have taken quite a leadership position 
on, is evolving, and we want to thank you for your leadership. 
It's a difficult issue. There are obviously a great array of 
different stakeholders. And the administration has not really 
taken a position on a number of these issues pending these 
working groups and outside stakeholder groups to come to some 
kind of an agreement.
    Senator Specter. Well, we are working very hard on the 
asbestos bill. I had a chance to talk to the President about it 
when I traveled with him to Pittsburgh a week ago yesterday, 
and he's looking for a bill which he can sign, and we're trying 
to get bipartisan activity. And your Department has had 
phenomenal success in administering matters.
    The way it works is, if you do a good job, people come back 
to you and say, you've done such a good job and we'd like you 
to do more. We find that with this subcommittee and I find that 
on the Judiciary Committee. And on the legislation which we are 
working on to create a trust fund, there's not going to be any 
Federal money going into the fund.
    The insurance and manufacturing industries have agreed to 
put up $140 billion, which we're projecting will be sufficient. 
And we're working very carefully on directing it only to the 
sick people, so that we're not going to have any expanded 
coverage. It's going to people who really are sick.
    The Supreme Court handed down a decision that--5 to 4--that 
if you were exposed to asbestos you would collect money whether 
you were sick or not. And thousands of people are dying of 
mesothelioma and asbestosis. Companies are going bankrupt, 
can't pay them. Seventy-four companies are going bankrupt. But 
there's not going to be any extended coverage, and the 
Department will not be called upon to be a tax collector or 
banker.
    I'm meeting with the Attorney General later today and we're 
giving him a lot of new jobs too on enforcement. And it is sort 
of axiomatic that everybody is overworked, but this is a 
problem which is overwhelming the economy, and we are searching 
very, very hard for remedies.
    I'm delighted to be joined by my distinguished ranking 
member, also delighted to be joined by Senator Inouye, who beat 
the ranking member here by 30 seconds. Senator Inouye, with his 
customary grace and aplomb, has gestured to take Senator Harkin 
first. Senator Harkin has just acceded.
    As I said at the beginning of the hearing, I'm due on the 
floor to offer an amendment to increase the funding for our 
subcommittee, so I'm going to--well, we were--we've been cut 
everywhere, and I want to bring the funding back up to level 
for education, which would be a little over $500 million and 
NIH $1.5 billion. So I'm going to leave the seamless gavel in 
the hands of Senator Harkin.
    Senator Harkin. Thank you very much, Mr. Chairman.
    Senator Specter. Thank you for the very good work you're 
doing, Madam Secretary.
    Secretary Chao. Thank you.
    Senator Specter. We'll be working with you to tackle the 
tough issues which we talked about, and we will have some more 
questions for the record. Thank you.
    Secretary Chao. Thank you.

                OPENING STATEMENT OF SENATOR TOM HARKIN

    Senator Harkin [presiding]. Madam Secretary, again, welcome 
and I appreciate your work at the Department of Labor and your 
continuing efforts in that regard. I just want to join our 
distinguished chairman in welcome you again to this committee.
    Madam Secretary, I'm just going to make a short opening 
statement and then we'll get to some questions and I'll yield 
to Senator Inouye. Madam Secretary, I know you appreciate frank 
exchanges. We've had many in the past. So I must tell you up 
front that I am very disappointed in the administration's 2006 
budget request for your Department. I appreciate that you're 
being a good soldier and going along with the OMB's marching 
orders, but I must for the record say that the proposed 2006 
budget from the Department of Labor is seriously out of synch 
with the needs of our labor force.

                               UNEMPLOYED

    Right now, 7.7 million workers are officially unemployed. 
Another 1.8 million are too discouraged to look for jobs, so 
they aren't even included in the official unemployment rate. 
Long-term joblessness is at record levels. Yet despite these 
challenges, the administration proposes to cut DOL's budget by 
$400 million.
    Let me mention some specifics. A 2003 General Accounting 
Office report found that the employment services, the principal 
source of employment and training programs for American 
workers. But the White House proposes to eliminate this proven 
agency and replace it with a generic block grant to the States.

                          MIGRANT FARM WORKERS

    Second, the number of migrant farm workers with immigration 
issues has increased from 7 percent to 52 percent in the last 
decade. Yet the White House proposes to eliminate not only the 
migrant and seasonal farm worker program, but also the source 
of the information, the national agricultural workers study, 
where we get the data and the information.

                                VETERANS

    Third, our soldiers are coming back from Iraq wounded in 
record numbers, many with amputations that will affect their 
employment options for the rest of their lives. Yet the White 
House has proposed an insignificant increase in the veterans 
employment and training service, and proposes to cut the Office 
of Disability Employment Policy by almost half.
    Next, the President is promoting both the Central American 
Free Trade Agreement and the Andean Trade Agreement, both of 
which will require technical assistance on core labor 
standards. But this budget proposes to essentially gut the 
International Labor Affairs Bureau, ILAB, which provides that 
technical assistance.

                          WORKFORCE CHALLENGES

    So as I said, Madam Secretary, these budget proposals, I 
believe, are out of synch with the needs of our workforce. In 
some cases, the budget is out of synch with the 
administration's own professed priorities. Our workforce today 
faces more challenges than at any time since the Great 
Depression--globalization, outsourcing, the continuing shift 
from manufacturing to services. I would argue the Department of 
Labor needs more resources, not less. Rather than downsizing, 
the Department should be playing a much more robust role in 
guiding the American workforce through this period of change.
    So I am disappointed with this proposed budget and 
hopefully through the efforts of Senator Specter on the floor 
and as we move ahead with the appropriations, I am hopeful that 
we can provide a more appropriate funding for the priorities in 
the Department's budget, Madam Secretary.

                              HALLIBURTON

    Now, I had some questions, but I would certainly--first, 
Madam Secretary, Dresser-Rand employees from Olean, New York, 
called the Department of Labor 2 years ago with questions about 
the legality of Halliburton confiscating the early retirement 
subsidy to their pension when Halliburton sold the Olean plant. 
To date, these employees have received no response from your 
Department. So I'd like to ask if you could please submit for 
the record a timeline of what your Department has done in the 
past 2 years to respond to these calls and when you anticipate 
being able to respond definitively. I'm particularly interested 
in the activities of DOL investigators located in Texas.
    Now, the reason I mention this, Madam Secretary, is that I, 
along with others, have sponsored legislation since 1999 to 
create an office in your Department to respond to pension 
participants to be an advocate for them within the Government. 
Yet your Department keeps saying it's not necessary, that we 
already respond adequately to pension participants.
    Again, Madam Secretary, if that's your position, can you 
please comment on the experience of the Olean workers in New 
York?
    Secretary Chao. Actually, EBSA, that's the Employee 
Benefits Security Administration----
    Senator Harkin. Is that mike on? Okay, now I hear it.
    Secretary Chao. My opening statement, which I submitted for 
the record, talked about the great--the very strong enforcement 
record we've had ensuring worker safety and health and also 
retirement security. In fact in 2004, EBSA has achieved more 
than $3 billion in monetary results for workers' retirements 
and also pension funds. This is a 121 percent increase over the 
previous year.
    I'm not familiar with the case that you mentioned and I 
will certainly take a look at it. But we have also about 108 of 
these participants' advocates, benefit advisors, within EBSA, 
and that's what these people's jobs should be, and that is 
they're case workers. They're supposed to be helping 
individuals who call in. And so we don't really think that the 
advocacy office is necessary, and I think the results speak for 
themselves. But I'd be very open to showing you what we've been 
doing, and I certainly will get back to you on the information 
concerning the case that you mentioned.
    Senator Harkin. Please do so, because evidently it's been 2 
years, and according to my information--that's all I can go 
on--nothing has been done and they have received no response 
from your Department after 2 years on this issue.
    Secretary Chao. We'll look into it.
    Senator Harkin. So I'd just like to know----
    Secretary Chao. We actually have a good record----
    Senator Harkin. Pardon?
    Secretary Chao. We actually have a good record in 
recoveries and----
    Senator Harkin. But do you have a record on what's happened 
with Olean?
    Secretary Chao. We will look into it.
    Senator Harkin. And you will submit that to us then?
    Secretary Chao. Yes.

                         CHILD LABOR VIOLATIONS

    Senator Harkin. Okay, I appreciate that. Next I'm--Madam 
Secretary, I'm disturbed by reports of an unprecedented 
agreement, really unprecedented, between the Department of 
Labor and Wal-Mart in a settlement on child labor violations.
    On January 11 of this year, the Department of Labor signed 
an agreement with Wal-Mart settling a case against the company 
on violations of child labor laws, in which 85 minors operated 
hazardous equipment. As part of the settlement, Wal-Mart was 
granted an unprecedented concession, 15 days advance notice of 
any future audit or investigation into the company's labor 
practices.
    Well, there's been a lot of stories about this in the 
press. There was a story printed in the American Progress that 
DOL had retracted their initial press release on the settlement 
and re-issued the release with changes that Wal-Mart insisted 
on. Now these are all in the popular press out there. But 
again, I must say I'm disappointed the administration is 
sending the wrong signal on child labor laws, eroding 
protections by providing advance notification of inspections 
domestically, while eliminating support for programs to 
eradicate child labor internationally.
    Madam Secretary, are you aware of this agreement with Wal-
Mart?
    Secretary Chao. Not initially. This is actually done by----
    Senator Harkin. Are you telling me right now you're not 
aware of it?
    Secretary Chao. No, I am aware of it.
    Senator Harkin. Oh, you are--you said not initially.
    Secretary Chao. Not initially. This is a--this is 
consistent with past practices in different regions of Wage and 
Hour division to enter upon these settlement agreements. In 
fact, during the previous administration they were called 
partnership agreements. So claims that this agreement is 
lenient are totally false. This agreement is consistent with 
other settlements of other enforcement actions. It is a good 
settlement. The terms apply company-wide, not just the stores 
where the violations occur.
    Wal-Mart was assessed a higher fine than the average 
penalty. There was no coordination of any press agreements. The 
15 day was actually quite normal and usual. In fact, in the 
previous administration there have been cases where the 
previous administration gave up to 90 days of notice. The 
purpose of the notice is not to allow the company to not 
comply. The purpose of the period is--of this time period is to 
allow the--is to remove whatever is the harmful action to occur 
quickly and then it also benefits the Government to be able to 
go in and have the company or the employer be prepared to 
answer questions.
    So again, this particular agreement, while I admit is not 
well written, is consistent with past practices, and the time 
period, 15 days or whatever given, is quite consistent, in fact 
is on the lower end of some of the other agreements which we 
have seen executed under the previous administration. Labor 
union organizations are also given a period of time in which 
they are required to compile the necessary documentation so 
that they can come speak in a more--they can have the documents 
that they need to be able to speak to the Government. So this 
is not--this is again----
    Senator Harkin. I'm told----
    Secretary Chao [continuing]. Consistent case. This is 
consistent with past cases, and it's how it's handled.
    Senator Harkin. I'm told that advance notification has only 
been given for voluntary enforcements in past agreements, but 
never in mandatory type of settlements, that this is the first 
time that this has been done.
    Secretary Chao. This is different from OSHA. This is Wage 
and Hour. This is not OSHA. This is Wage and Hour and 
particular--these apply to Wage and Hour infractions. They're 
very different from OSHA.
    And second----
    Senator Harkin. Well, I thought these kids were involved in 
operating hazardous equipment.
    Secretary Chao. This is not an OSHA issue. This is a Wage 
and Hour issue, so it's not OSHA.
    Senator Harkin. Well, it was a violation of child labor 
laws. Eighty-five minors were operating hazardous equipment.
    Secretary Chao. No, the equipment itself is not hazardous.
    Senator Harkin. Oh.
    Secretary Chao. People can--people can operate them, but it 
was just that these young people operated the--they were bale 
machines.
    Senator Harkin. Yeah, and kids are not supposed to operate 
them.
    Secretary Chao. Kids are not supposed to operate that.
    Senator Harkin. I've been through this before with grocery 
stores.
    Secretary Chao. But this was a--this is not a consistent 
basis. It was a once--it was an infrequent occurrence which is 
documented. So when the Government goes in, we need 
documentation, because it's not as if the child--the young 
person is standing there at the machine the whole time. It was 
an infraction at a particular time and a particular day. It was 
not a consistent pattern of behavior.
    But nevertheless, the 15-day notice, or the advance notice, 
is not unusual. As I mentioned, there were past settlements, in 
fact----
    Senator Harkin. That involved violations of child labor 
laws?
    Secretary Chao. Yes. And they also gave much longer periods 
of----
    Senator Harkin. So there have been past violations of child 
labor laws in which the Department has agreed to an advance 
notice of 15 days----
    Secretary Chao. More than that. Under Wendy's and there's 
another one called Genesis, those are two that come to mind 
immediately, they were in the previous administration and they 
gave up to 90 days. This is different from an OSHA violation, 
because when you have an OSHA violation, there is consistent 
hazardous behavior. This is--Wage and Hour infractions are 
intermittent and they're documented much more by paperwork, so 
it's different. But again, the advance notice has been terribly 
portrayed in the press. It is not unusual.
    Senator Harkin. So you're saying that Wal-Mart was not 
given preferential treatment?
    Secretary Chao. No, it was not, and there was no press 
coordination.

                   INTERNATIONAL LABOR AFFAIRS BUREAU

    Senator Harkin. Okay. When you came before our subcommittee 
to discuss the 2004 budget, we discussed funding for the 
elimination of the worst forms of child labor, as you and I 
often do. This has been a constant communication between us. At 
that time, you were requesting $54.6 million in funding for 
ILAB, the International Labor Affairs Bureau, because you said 
that more than that amount was then beyond the capacity of one 
office to absorb. You assured me at the time that we had the 
same goal, that you wanted to work towards increasing the 
capacity of the office to administer these programs. I quote, 
you said, ``please be assured that we are not differing at all 
in the terms of the goal.'' Further on the record you said, 
``if you want to build the infrastructure internally, it will 
take some time. The commitment I assure you is absolutely 
there.'' These were your words, Madam Secretary.
    Well, what am I to make of the 2006 budget, which proposes 
a measly $12 million for these activities? This is an 86 
percent reduction from $54.6 million down to $12 million. I 
mean, help me understand this.
    Secretary Chao. We're very concerned obviously with child 
labor, and I went to Africa, as you know, in December 2003 to 
review some of the projects which we are in coordination and 
partnership with the ILO. I have to say, Mr. Chairman, the 
results of those visits were not very positive.
    But nevertheless, the current budget in ILAB does not 
reflect our reduced commitment to child labor, but perhaps the 
increasing awareness that we are not the best place to 
administer these programs, and that the best place for--the 
best thing for ILAB is to return to its core mission of working 
on core labor standards and on advocacy, and that's something 
that this budget reflects.
    Senator Harkin. But I don't see it being picked up anywhere 
else. I don't see any--you know, it would be one thing if it 
was cut here but was added some other place and the 
responsibility was shifted, but I don't see that happening 
anywhere in the budget.
    Secretary Chao. Well, I think the State Department, AID, 
and the Peace Corps also does some of these and there are other 
areas we are told that do have an emphasis on this population 
as well.
    Senator Harkin. Well, I don't know about that. AID has been 
focused a lot on disability issues, that's for sure. Mr. 
Natsios has done a very good job in moving AID towards making 
sure that U.S. tax dollars are not used to build facilities 
that are inaccessible. He's done a great job and also the 
Secretary--I should--also did that, Secretary Powell, and 
implemented procedures for disability issues on AID. But I--
this is one area though in terms of core labor standards, child 
labor, worst forms of child labor, where the Department of 
Labor has had, well, I think some pretty long experience in 
this area for some time. The State Department hasn't. AID, I 
think, yeah, in terms of what they're doing for development 
purposes and responding to issues of disability rights, that's 
fine.
    But in terms of child labor, this is the Department of 
Labor, not the State Department. And so--I mean, I might argue 
with you about where it ought to be located, but if the 
administration wanted to shift it, again, I don't see the money 
anywhere for it. I don't see any line item authority in the 
State Department or anywhere else for this to take place. I do 
see in AID for disability, like I said, but not for these child 
labor issues.
    Secretary Chao. The other issue is a lot of the monies that 
were supplemented in the last few years were grant-making, and 
so I think there was an effort to perhaps bring back ILAB to 
its original mission of international labor policy, our 
research, advocacy, and analysis.
    Senator Harkin. Well, I guess that's just a policy 
difference we have. I mean, I think this Congress, Senate, 
House, in the past few years, and I think pretty 
bipartisanally, has spoken strongly both in the previous 
administration and in this one that we want the Department of 
Labor to be actively involved in the issue of child labor.
    There have been a number of reports from your Department on 
that that have gone back a number of years. I think it's been 
recognized in many places that DOL has really moved 
aggressively on this. Now if you want to say you want to go 
back to the start, gee, we've come a long way and we still see 
instances of gross violations, basic decent child labor 
standards around the globe. And this is leadership. This is the 
United States of America talking about our role, our moral 
leadership, our ethical leadership in talking about child 
labor. And I just hope that it would continue on rather than 
trying to go back to where we were 10 years ago or 12 or 15 
years ago on this.
    Secretary Chao. I think we can still do a great deal. We do 
take the leadership, for example, we hosted the first worldwide 
convention of child labor delegates, and through promoting a 
greater awareness of the problem, through convening the right 
mix of stakeholders, I think we can do a lot. I'm just not sure 
that the grant-making part of the resources is something that 
we can--that we're going to place very much emphasis on as we 
go forward.
    Senator Inouye. Madam Secretary, I'm here to greet you and 
to welcome you to the committee. I'm trying to save my voice. I 
just got out of bed with the flu, so I've been advised to 
maintain a low profile.
    If I may, I'd like to submit my questions to you in writing 
and request some written response.
    Secretary Chao. Of course.
    Senator Inouye. Your assignment is a very difficult one, 
because the policies that you have to work under are oftentimes 
generated by other Departments, Department of Defense, 
Department of State, over which your influence may be at best 
limited. And so, having served on subcommittees that deal with 
these two Departments, I'm well aware that oftentimes decisions 
that you render may have to be determined by our relationship 
with certain countries. I know that it may not be to your 
liking, but such are the facts of life, and for that I thank 
you for your patience and your understanding.
    I will be submitting my questions, but I have to save my 
voice. Thank you very much.
    Secretary Chao. Thank you for coming.
    Senator Harkin. Thank you, Senator. Senator Craig.
    Senator Craig. Thank you very much, Mr. Chairman. I 
apologize to the committee and to the Secretary for trafficking 
late this morning, but there was a bigger billing in a 
different committee, Elaine. Alan Greenspan was here and we're 
talking about retiring and the demographics of a workforce. And 
it's certainly part of your charge and your responsibility, and 
I understand that.
    I think one of the things most significant said, and it 
will be my only question, I'll review your testimony, and I 
must tell you I applaud the work you have been doing and the 
successes you've had in relation to America's workers and the 
enforcement of law in a clear and transparent way that I think 
all of us recognize is tremendously important for the 
credibility of government and for your agency, and you're to be 
recognized and applauded for that.
    I think one of the things the chairman said a few moments 
ago that I found interesting was really no way to fix the 
system, and we were discussing Social Security, and look at 
older Americans' financial security than to keep them a little 
longer in the workforce. The reality is out there no matter 
what we do that the demographics are so overpowering as it 
relates to where we are traveling as a culture. We're going to 
live longer. We're going to be much healthier living longer. 
Americans feel much more productive usually if they're in the 
workforce. And that early retirement is a relatively new 
phenomenon, that the numbers we're seeing and have seen for the 
last good number of decades are really products of a difference 
that 30, 40, 50 years ago was simply not the case.
    I found that quite fascinating. He had, as is quite typical 
of Chairman Greenspan, all the facts, figures, and statistics 
to back that up. But having said that, in the programs that you 
look at today in your charge and responsibility, what areas do 
you believe most effective for those who find the need to stay 
in the workforce, those that might need some additional 
training? We may be looking at some, if you will, bumping up, 
if the skills of 55, 60, 65-year-old people who might choose to 
stay in the workforce another 5 or 6 years or more, that will 
be beneficial to them. Is it possible for you to address those 
programs and what you see in the future?
    Secretary Chao. It's interesting that you mention this 
topic, because I just--because it's very timely and very 
relevant. I just got back from the G-8 labor ministers meeting 
where the theme, interestingly enough, was aging populations. 
Among the industrialized nations of the world, the graying of 
the workforce is a huge concern for policy makers.
    You are right. Workers these days are living longer, 
they're in better health, and they don't view retirement as the 
ending phase of their life, but rather the beginning of a 
fourth of a fifth phase of their life. And so we want to ensure 
that our policies are open and flexible so that individuals who 
want to remain in the workforce can do so, especially since our 
workforce is going to be facing a shortage of workers after 
the--as the baby boom generation retires.
    We do have training programs that will re-skill a person to 
a field in which he or she has not been familiar with. That's 
all part of the workforce development and training that we are 
focused upon.

                    HIGH GROWTH JOB TRAINING PROGRAM

    Then third, I think with the President's high growth job 
training program, we have matched resources and individuals 
with the opportunities that are coming up. We have a need for, 
you know, 3.4 million health care workers in the next 8 years. 
We have a need for 1.5 million nurses in the next 10 years. So 
there are pockets of disequilibrium in our labor market which 
we've got to address, and older Americans are a very valued 
segment of our population.

                           UNEMPLOYMENT RATE

    By the way, I should mention also the unemployment rate is 
5.4 percent nationally this past month. The unemployment rate 
of seniors is about 3.7 percent. So having said all of that, 
and given the tremendous interest that the G-8 labor 
secretaries have on aging workforces, I think it's very timely 
that our Nation is having this discussion as well on Social 
Security and also on pension security as well.
    Senator Craig. Well, I would have loved to have been your 
travel partner and listened to those discussions, because I've 
spent a good deal of time looking at what has happened in 
Japan, and certainly some of the countries of Europe are really 
well advanced in their aging, if you will, and therefore 
finding tremendous impact on their social programs within their 
governments and how they fund them and do all of those kinds of 
things.
    How much of a bias do we still have built in the system to 
force retirement?
    Secretary Chao. If you're an older American and you want to 
work, our country had made great progress. We've abolished--
we've fought against age discrimination, so that is illegal, 
and we've done away with mandatory retirement age, and we've 
raised the Social Security earnings limits.

                               RETIREMENT

    But our workforce is still not as flexible as many older 
Americans would like. Again, retirement is no longer this 
twilight of one's life where one retires to the veranda and 
sits on a rocking chair. It is a very active phase of our 
workforce's life, and people also rebel against--a lot of 
people are also rebelling against the cliff effect, where one 
day they're at work and then the next day they're totally 
disconnected with the only community that they know. So there 
should be greater flexibility and more openness in our 
workforce to be more welcoming of those older Americans who 
still want to--who want to still remain in the workforce.

                            SOCIAL SECURITY

    Senator Craig. Well, I thank you very much for those 
comments. I think they are very real hurdles for us. We're in 
the business of trying to get our hands around, and better 
understand and cause the American people to better understand, 
the problems of Social Security.
    What I think is fascinating about that whole debate that 
we're now engaging in is that it's--it is a piece of a much 
larger issue of workforce and aging and all the dynamics of how 
we keep this country running economically and the security of 
retirement and the reality of so many other things that now 
have to be added to it, and the dynamics of the current and 
future cultures in this country.
    So thank you very much. I appreciate you being here.
    Secretary Chao. Thank you.
    Senator Craig. I guess we're ready to wrap up. Please 
proceed.

                           CHILD LABOR ISSUE

    Senator Harkin. This has been a good discussion listening 
to Senator Craig, but I want to follow up one last time on the 
child labor issue, on the $12 million for all these activities. 
In the Bipartisan Trade Promotion Authority Act of 2002, it is 
the statutory obligation of the U.S. Government to: 
``strengthen the capacity of U.S. trading partner to promote 
respect for core labor standards.'' This is the obligation by 
law of the International Labor Affairs Bureau. So again it's 
not just research, but this is part of the law, it's an 
obligation.
    So again my question comes back, how do we fulfill this 
obligation with $12 million? And do you feel that you can do 
that with $12 million? I guess that's really what I'm getting 
at. I mean, it's not just something we'd like to do. It's now 
an obligation under law.
    Secretary Chao. We're very concerned about child labor and 
we will continue to work on that. Again around 1996 ILAB's 
budget was about $12 million and then in subsequent years it 
rose to about $149 million in 2001. And these were primarily 
grants, and based on an assessment as to what these grants do 
and whether they are as effective as they should be, there was 
some feeling that ILAB should really return to its core mission 
again of promoting core labor standards, going into research, 
analysis, and advocacy and more of that.
    So there will not be any, for example, any FTE----
    Senator Harkin. I'm sorry?
    Secretary Chao. There will not be large FTE reductions. We 
expect to have people who will carry on continuing work. But 
these are----
    Senator Harkin. If there's going to be that big of a cut--
--
    Secretary Chao. But the ones--but the additional monies are 
much more grants.
    Senator Harkin. I would think if there was that much of a 
cut, there ought to be some FTE reductions.
    Secretary Chao. There won't--I don't think there will be.
    Senator Harkin. Again, this is a question I don't know the 
answer to, but were there assessments made either by your 
Department or GAO about these grants and the effectiveness of 
them?
    Secretary Chao. I know that IG has made----
    Senator Harkin. The IG?
    Secretary Chao [continuing]. Has made a study.
    Senator Harkin. Well, maybe I'll get my staff to get a hold 
of that and see what they said on it, because I'm just not 
familiar with that. But I just wanted to point out that there 
is a statutory obligation for ILAB now, and I'm not certain it 
can fulfill it with $12 million. If all you were going to do is 
research, maybe so. But if you have to fulfill this, especially 
with CAFTA coming up and Andean Trade, all that coming down the 
pike, I would still think this would be an area where you're 
going to require more than that.
    Secretary Chao. Well, we want--we want to work with you on 
it. But it was kind of the assessment that we'd be able to 
provide this kind of assistance with our in-house Department of 
Labor employees, that we would be able to offer technical 
assistance and also coordinating with other grant-making 
agencies as well.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Harkin. Madam Secretary, you've been very gracious 
with your time. I have some questions I will submit for the 
record, especially as it deals with the Office of Disability 
Employment Policy and the veterans employment and training 
programs. I'll just submit those in writing.
    Secretary Chao. We'll be pleased to answer them. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing.]
              Questions Submitted by Senator Arlen Specter

                  SUBSTANCE ABUSE TREATMENT WORKFORCE

    Question. I have heard from my constituents that in Pennsylvania 
and throughout the nation, the substance abuse treatment workforce is 
undergoing turnover rates of 50 percent or higher and there is real 
question whether the remaining workforce can get the training needed to 
implement the most effective treatments. This would be a serious 
problem for any industry but given the alarming public health and 
public safety issues associated with addiction it is a particularly 
serious workforce development issue.
    I know that your department has initiated effective workforce 
development programs in several industries such as agriculture, mining 
and nursing. Do you have any plans to implement such programs for the 
substance abuse treatment industry?
    Answer. Health care has been targeted as one of the high growth 
industries in the President's High Growth Job Training Initiative, and 
through that initiative the Department has funded a broad array of 
occupational workforce solutions. This includes such occupations as 
direct support specialists and paraprofessionals, and we would consider 
the substance abuse treatment workforce to be a component of this 
industry. The Department welcomes the contributions of the substance 
abuse treatment industry as part of the High Growth Job Training 
Initiative.
    Additional opportunities are available to address local workforce 
shortages through the Community-Based Job Training Grants, which target 
high growth industries in local communities. Community colleges, as 
grant applicants, in partnership with industry, the workforce 
investment system, and the continuum of education providers, including 
K-12, can submit applications to meet local workforce challenges like 
the shortage of substance abuse workers under the formal Solicitation 
for Grant Applications.

                        JOB CORPS MANAGEMENT FEE

    Question. The Workforce Investment Act provides for a management 
fee of not less that 1 percent for each Job Corps operator and service 
provider. How much is budgeted for such fees for program year (PY) 2006 
compared to 2005? What is the process for determining management fees, 
and what is the range of percentages currently being provided?
    Answer. We estimate that management fees in Job Corps will cost 
about $44.1 million in PY 2006, which is a very slight increase above 
the PY 2005 estimate of $43.9 million. As a percentage of the 
expenditures under contracts in which management fees are included, 
such fees represent roughly 4 percent of the costs. In the framework of 
total Job Corps operating expenditures, fee payments represent only 3 
percent of costs.
    The fee amounts in individual contracts are determined during the 
procurement process. The greatest share of Job Corps contracts, in 
terms of dollar expenditures, contains performance-based fees. The fees 
in these contracts are structured so that the contractors are 
guaranteed a fee payment of 3.6 percent and then can earn as much as 
2.4 percent above that based on objectively determined performance 
excellence. These types of performance-based fees are used in our 
center operating contracts and contracts for post-center career 
transition services.

                         PROGRAM ADMINISTRATION

    Question. Your budget justification material states that 
consolidated job training programs will save $300 million in 
administrative costs, yet you are not proposing any reduction in 
Federal staffing. Please explain.
    Answer. The $300 million in administrative costs savings created by 
consolidating job training programs relates to savings realized at the 
State and local levels, not at the Federal staffing level. Savings 
realized by States and local areas will enable them to increase 
training enrollments and provide improved services to their 
participants.
    The Program Administration account was reduced by $842,000 to 
reflect program efficiencies created by the consolidation. The 
reduction in FTE associated with these efficiencies was offset by the 
anticipated need for FTE to administer the new H-1B job training grant 
program and the YouthBuild program, which is proposed for transfer from 
the Department of Housing and Urban Development, resulting in an equal 
need for FTE staffing in 2006. If the job training grant consolidation 
were enacted, we would expect further long-term Federal administrative 
savings would be possible.

                        COMMUNITY COLLEGE GRANTS

    Question. According to GAO, the Labor Department plans to obligate 
only $13 million of the $250 million requested for the Community 
College Initiative during fiscal year 2006, because unobligated funds 
from fiscal year 2005 can be used for most of its expected needs 
through September 30, 2006. Even though the funds are available for the 
program which extends through June 2007, how do you justify the need 
for the full $250 million during this funding cycle?
    Answer. The Department of Labor has provided GAO with information 
on the allocation of funds for this program pursuant to the 
Congressional appropriation process that is utilized for the 
Department's ``forward funded'' programs. The $248 million appropriated 
in fiscal year 2005 for the Community College Initiative are program 
year funds and accordingly, none of the funds are available for Federal 
obligation until July 1, 2005, with a large portion of the funds only 
becoming available for obligation on October 1, 2005. In preparation to 
utilize fully these resources during the period of obligational 
authority, the Department is publishing two solicitations for grant 
applications--one in April 2005 and the second later during the 2005 
calendar year. Each of these competitive solicitations will be for $124 
million. The purpose of these solicitations is to promote the 
development of strategic partnerships between business and industry and 
community colleges, and to train workers for the industries creating 
the most new jobs.
    Businesses in high-growth, high demand industries face increased 
difficulty in finding workers with the skills they need as a result of 
globalization, the aging of America's workforce, and the fact that 
technology and innovation are continuously changing the nature of work. 
As a result, community colleges will be increasingly critical providers 
for workers needing to develop, retool, refine, and broaden their 
skills. The initial investment of $248 million will be an important 
first investment and allow community colleges to train at least 100,000 
workers. The fiscal year 2006 Budget proposes another $250 million to 
continue this important new initiative and train at least another 
100,000 workers.
    One of the purposes of these resources is to build the capacity of 
community colleges to train workers. The accelerated pace of innovation 
and technology continuously require new sets of skills in the 
workplace, calling for a continued focus on capacity building. We must 
continue to support community colleges in their effort to ensure that 
workers have and maintain the skills they need to be competitive in a 
21st century innovation economy.

                    ONE-STOP SYSTEM ELECTRONIC TOOLS

    Question. Page ETA-12 of your Budget Justification Material lists a 
request of $48,294,000 for ``One-Stop System Electronic Tools.''
    What exactly is being funded with this request, and how does it 
compare to the fiscal year 2005 funding level?
    Answer. Although there appears to be a significant decrease in this 
line item in the fiscal year 2006 request as compared to the fiscal 
year 2005 enacted level ($48,294,000 compared to $97,974,000), the 
actual decrease is approximately $10 million. Funding for this line 
item reflects the movement of the $39,690,000 in funding to States for 
workforce information activities (Core Products & Services and LMI 
Research & Development) formerly housed in this budget line item into 
the WIA Plus State Consolidated Grants.
    This line item has traditionally been utilized to support national 
electronic tools such as America's Job Bank, America's Career 
Information Network, America's Service Locator, and the Occupational 
Information Network (O*NET). These electronic tools help in the 
preparation of a competitive workforce to keep the United States viable 
in the global economy and support the President's Temporary Worker 
Program. In addition, other funds in this line item were targeted to 
system building activities designed to enhance the delivery of services 
through the nation's One-Stop Career Centers and to provide national 
infrastructure for performance accountability. The approximately $10 
million reduction in the 2006 request is in the system building 
activities.
    DOL has been actively evaluating this line item to ensure that it 
provides the critical workforce information products and tools 
necessary to support the workforce investment system and the 
President's Temporary Worker Program. We have also been actively 
identifying mechanisms to control the costs for the current tools. This 
has resulted in strategic changes to the suite of tools that are 
supported. For example, DOL now supports a new Web site--Career Voyages 
(www.careervoyages.gov)--that is designed to provide young adults and 
transitioning workers with a career exploration tool for careers in 
high growth, high demand industries. We have also developed a new Web 
space to promote the transformation to a demand-driven workforce 
investment system called Workforce One (www.workforce3one.org) where we 
feature new and innovative approaches to workforce development. We are 
currently in the process of developing a clearinghouse for industry 
developed competency models and skills standards.
    Below is a brief description of each of the current electronic 
tools supported by this line item:
  --The CareerOneStop (COS) Electronic Tools--a suite of Internet-based 
        tools that consists of:
    --America's Job Bank.--An electronic job board where businesses can 
            search for candidates and post job listings and job seekers 
            can search for jobs and post their resumes;
    --America's CareerInfoNet.--A site that provides access to 
            occupational projections and other workforce information 
            for career exploration;
    --America's Service Locator.--A site that provides location 
            information for One-Stop Career Centers and other workforce 
            services;
    --CareerOneStop Portal.--The home page that provides a central 
            access point to all the content of the COS sites, by topic 
            and customer group;
    --Workforce Tools of the Trade.--A Web site designed to support the 
            professional growth of workforce investment professionals 
            that help business and citizens meet their workforce needs;
    --On-Line Coach.--A tool that is integrated into the COS to help 
            individuals not as familiar with the COS sites to navigate 
            through the numerous resources available based on common 
            issues or problems they may be facing--the tool then walks 
            them step-by-step through the appropriate resources; and
    --Toll Free Help Line.--The TFHL (1-877-US2-JOBS) provides 
            telephone access to job seekers and businesses on a wide-
            range of workforce issues.
  --Occupational Information Network (O*NET).--An occupational 
        classification system that provides detailed information on 
        occupational characteristics and skill requirements and serves 
        as the common occupational language for the COS as well as the 
        workforce investment system as a whole.

                          LEGISLATIVE SAVINGS

    Question. The Administration is proposing legislation to save both 
unemployment compensation and workers' compensation funds. Provide an 
estimate of savings from each component of these proposals for each 
year, from fiscal year 2006 through 2015 (10 years). Provide the 
legislative text for these proposals.

ETA's Response
    Answer. The unemployment insurance (UI) integrity proposal is made 
up of five amendments. Amendment 1 would allow States to use up to 5 
percent of recovered overpayments for benefit payment control. 
Amendment 2 would allow States to permit collection agencies to keep up 
to 25 percent of recovered overpayments and delinquent taxes. Amendment 
3 would require a minimum 15 percent penalty on fraud overpayments, to 
be used for benefit payment control. Amendment 4 would prohibit non-
charging benefits when an overpayment is the employer's fault. 
Amendment 5 would allow intercept of Federal income tax refunds for 
recovery of overpayments. The savings breakdown, in millions of 
dollars, for this proposal is as follows:

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                    2006   2007   2008   2009   2010   2011   2012   2013   2014   2015  2006-15
----------------------------------------------------------------------------------------------------------------
Amendment 1......................  .....     12     23     24     25     26     28     29     30     32      229
Amendment 2......................  .....      4      9      9     10      9     10     11     12     13       87
Amendment 3......................  .....     39     80     84     88     93     97    101    105    111      798
Amendment 4......................  .....     10     22     24     25     26     28     29     31     32      227
Amendment 5......................    281    282    284    288    288    302    317    331    347    362    3,082
                                  ------------------------------------------------------------------------------
      Total Proposal.............    281    347    418    429    436    456    480    501    525    550    4,423
----------------------------------------------------------------------------------------------------------------

    These are our best estimates of the savings and delinquent tax 
collections which would result from this proposal. However, of the 
total 10-year savings, only $3.082 billion is scorable under CBO and 
OMB scoring rules. We also estimate that the proposal would produce tax 
reductions of $2.856 billion over 10 years.
    Draft legislation for these proposals was sent to Congress in June.
ESA's Response
    Answer. The 2006 Budget includes two reform proposals affecting 
Federal workers' compensation programs: Federal Employees' Compensation 
Act (FECA) reform, and Black Lung Disability Trust Fund debt 
restructuring.
    FECA Reform.--The Budget proposes to reform FECA to improve program 
fairness, speed claims processing, adopt best practices of State 
workers' compensation programs, and implement recommendations of DOL's 
Inspector General. Attached is a spreadsheet that shows the FECA Reform 
savings by provision and fiscal year. Legislation is expected to be 
transmitted to Congress this fall.
    Black Lung Trust Fund Debt Restructuring.--The proposed legislation 
seeks to restore solvency to the Black Lung Disability Trust Fund, 
which currently has a $9 billion debt to Treasury. The Administration's 
legislative proposal would: (1) refinance the debt to take advantage of 
current, low interest rates; (2) extend until the debt is repaid the 
Fund's excise tax levels, which are set to revert to lower levels in 
January 2014; and (3) upon enactment of the bill, provide a one-time 
appropriation for a payment to the U.S. Treasury to cover the forgone 
interest payments. Because this is an intragovernmental transfer, there 
is no net government-wide budgetary effect until the 2014 (when the 
current excise tax rates are extended). The following chart provides 
the year-by-year estimates:

------------------------------------------------------------------------
                                                                 Excise
                                           Approp    Advances     tax
                                                                 effect
------------------------------------------------------------------------
2006...................................     $3,808     ($452)  .........
2007...................................  .........      (443)  .........
2008...................................  .........      (433)  .........
2009...................................  .........      (429)  .........
2010...................................  .........      (430)  .........
2011...................................  .........      (433)  .........
2012...................................  .........      (434)  .........
2013...................................  .........      (436)  .........
2014...................................  .........      (700)       $261
2015...................................  .........      (833)        378
------------------------------------------------------------------------

    Legislation is expected to be transmitted to Congress this fall.
    For FECA Reform:
    The following chart provides the year-by-year estimates for each 
provision:

------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                             Concurrent
                                                                                  Three-day                      Survivor     schedule     Subrogation   Increase     Increase      Net savings
                                                                 Conversion        waiting        Eliminate     cap at  70    award and    rights for     burial      maximum       to special
                                                                  benefit          period       augmentation     percent     disability   COP (savings   benefit   disfigurement       fund/
                                                                                                                            compensation    to Gov't)                   award       Government
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
2006........................................................  ...............    ($4,909,020)   ($12,015,616)   ($106,496)  ............  ($1,903,104)   $640,000     $345,000     ($17,949,236)
2007........................................................     ($1,548,747)     (5,026,836)    (31,803,310)    (305,136)   $2,385,956    (1,948,778)    640,000      345,000      (37,261,852)
2008........................................................      (4,546,223)     (5,147,480)    (39,920,647)    (492,847)    4,759,088    (1,995,549)    640,000      345,000      (46,358,659)
2009........................................................      (7,431,599)     (5,271,020)    (48,033,265)    (671,802)    7,255,545    (2,043,442)    640,000      345,000      (55,210,584)
2010........................................................     (10,260,326)     (5,397,524)    (56,146,377)    (841,047)    7,429,678    (2,092,485)    640,000      345,000      (66,323,082)
2011........................................................     (13,085,659)     (5,527,065)    (64,263,845)  (1,003,042)    7,607,990    (2,142,705)    640,000      345,000      (77,429,325)
2012........................................................     (15,908,472)     (5,659,715)    (72,392,698)  (1,156,980)    7,790,582    (2,194,130)    640,000      345,000      (88,536,412)
2013........................................................     (18,731,097)     (5,795,548)    (80,537,429)  (1,304,431)    7,977,556    (2,246,789)    640,000      345,000      (99,652,738)
2014........................................................     (21,553,774)     (5,934,641)    (88,703,356)  (1,447,152)    8,169,017    (2,300,712)    640,000      345,000     (110,785,617)
2015........................................................     (24,380,724)     (6,077,072)    (96,895,409)  (1,583,296)    8,365,073    (2,355,929)    640,000      345,000     (121,942,356)
                                                             -----------------------------------------------------------------------------------------------------------------------------------
      Ten-year Total........................................    (117,446,620)    (54,745,922)   (590,711,951)  (8,912,228)   61,740,483   (21,223,622)  6,400,000    3,450,000     (721,449,860)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

                OSHA RESOURCES TARGET ERGONOMIC HAZARDS

    Question. What level of funding has been targeted for worker 
protection from ergonomic hazards for fiscal year 2006 budget request?
    Answer. The resources utilized to address ergonomics in the fiscal 
year 2006 budget request are contained within all of OSHA's budget 
activities and are not separately identified or earmarked to address 
ergonomics or any other specific issue.
    Question. For what activities has funding been requested?
    Answer. OSHA's approach to ergonomics involves focused activity by 
the entire agency in addressing the four prongs of the ergonomics 
policy: industry specific and task-specific guidelines, strong 
enforcement, outreach and assistance, and research.
    Question. How many FTEs have been assigned to work on ergonomics?
    Answer. The agency has not specifically identified the number of 
staff working on ergonomics. The staff necessary to address ergonomic 
concerns is available as needed within the ongoing enforcement, 
outreach, and regulatory activities of the agency.
    Question. How many ergonomists does OSHA employ and what are their 
responsibilities?
    Answer. Although there is no formal Federal job classification 
titled ``ergonomist,'' OSHA currently employ four Certified 
Professional Ergonomists (CPE), one Certified Industrial Ergonomist, 
and one Industrial Engineer whose education and experience is Human 
Factors Engineering. Of these six, two are employed in two different 
Regional Offices and provide enforcement oversight; one works at our 
Salt Lake Technical Center; one works in the National Office on 
guidelines; one is a training and curriculum developer; and one is a 
Compliance Assistance Specialist whose job is to provide assistance on 
a broad range of safety and health topics. All of these positions 
include providing training and assistance to compliance staff and 
outreach and assistance to the regulated community.
    Question. How many enforcement actions has OSHA taken pertaining to 
ergonomic hazards during fiscal year 2004 and fiscal year 2005 to date?
    Answer. OSHA assessed ergonomic conditions in 707 inspections 
opened in fiscal year 2004. Of these 707 inspections, 108 were 
conducted under Regional or Local Emphasis Programs which focus 
inspection resources on industries in which high rates of 
musculoskeletal disorders are known to occur.
    As of March 31, 2005, OSHA has assessed ergonomic conditions in 151 
inspections conducted in fiscal year 2005. Of these, 41 were conducted 
under a Regional or Local Emphasis Program with a focus on evaluating 
musculoskeletal disorders.
    Question. Specifically, how many hazard warning letters have been 
issued on ergonomic hazards, and how many general duty clause 5(a)(1) 
citations have been issued, and the date of their issuance?
    Answer. Since the beginning of the Secretary's four-pronged 
approach to ergonomics in April 2002 through April 2005, OSHA has 
issued 380 ergonomic hazard alert letters. Many ergonomic inspections 
are still ongoing in fiscal year 2005; however, for those that have 
been concluded we have issued 26 ergonomics-related Hazard Alert 
Letters (EHALs). In fiscal year 2004, we issued 107 ergonomic hazard 
alert letters. Each EHAL recommends ways to reduce ergonomic hazards, 
and indicates that OSHA may conduct a follow-up inspection to assess 
the extent to which the employer has taken such action.
    OSHA issued a total of 11 general duty clause citations between 
February 2003 and August 2003, and five citations were issued between 
November 2003 and August 2004.
    Question. How many inspections on ergonomic hazards does OSHA plan 
in fiscal year 2004 and fiscal year 2005?
    Answer. In general, OSHA does not have a pre-determined number of 
inspections under which we target ergonomics. In fiscal year 2004, OSHA 
assessed ergonomic conditions in 707 inspections. For fiscal year 2005, 
we estimate that our compliance staff will evaluate approximately 850 
worksites for ergonomic issues.
    Question. What ergonomic guidelines have OSHA issued to date, and 
what is planned through fiscal year 2006?
    Answer. OSHA has issued ergonomics guidelines on nursing homes, 
retail grocery stores and poultry processing. A draft of the shipyard 
guidelines will be released for public comment shortly. The agency 
plans to finalize the shipyards document after considering the public 
comments. No decisions have been made regarding additional OSHA 
guidelines.

                   FAITH BASED COMMUNITY INITIATIVES

    Question. You are requesting a $2,100,000 increase for a ``Faith 
Based and Community Initiatives,'' for a total of $37,432,000 (pg. DM-
12). What distinguishes these projects from faith-based initiatives of 
the Employment and Training Administration?
    Answer. The total you refer to is for the entire Program Direction 
and Support budget activity in the Departmental Management 
appropriation. This activity includes funding for the Office of the 
Secretary as well as other Departmental policy organizations such as 
the Center for Faith-Based and Community Initiatives. For fiscal year 
2005, approximately $600,000 of the $26,618,000 appropriated for this 
budget activity is used to fund the Center for Faith-Based and 
Community Initiative. This amount does not even fully cover the 
administrative needs for a staff of seven. Thus the entire amount in 
fiscal year 2005 is used to pay for the staff to implement the 
President's Faith-Based and Community Initiative.
    The Center for Faith-Based and Community Initiatives does not have 
a program budget. The Center works with the Employment and Training 
Administration and other DOL grant-making agencies to improve funding 
opportunities for grassroots faith-based and community organizations. 
This includes implementing new pilot and demonstration programs as well 
as assisting agencies in simplifying grant application and reporting 
procedures.
    DOL's request of $2,100,000 in fiscal year 2006 will be used for 
State and local implementation of the Initiative by providing technical 
assistance to State and local workforce development entities 
undertaking projects that integrate faith-based and community 
organizations in workforce development service delivery.
    Question. How much do you expect will be available for new starts 
and how many new projects in fiscal 2006?
    Answer. Of the amount requested, one third of the funds will be 
used to provide the administrative costs of employing staff. The 
remaining two thirds of the requested increase will be used to provide 
technical assistance to fiscal year 2005 and fiscal year 2006 grantees. 
This funding will be used to ensure the success of ongoing projects.
    New fiscal year 2006 grants will be funded from appropriations 
provided to the Employment and Training Administration for program 
purposes. The Center for Faith-Based and Community Initiatives is 
working with the Employment and Training Administration to determine 
the level of funding to be allocated for this purpose and the number of 
new grantees that these funds will allow.

                        MSHA COST DUST MONITORS

    Question. What is the status of the Personal Dust Monitor being 
tested by the Mine Safety and Health Administration?
    Answer. MSHA is currently participating in a collaborative study 
with the National Institute for Occupational Safety and Health (NIOSH) 
to examine the long-term mechanical, electrical, accuracy, and 
precision performance of the PDM in a variety of underground coal mine 
environments. As of May 26, 2005 MSHA and NIOSH completed all of the 10 
detailed in-mine studies. For the special area sampling portion of the 
study, 47 of the 180 mechanized mining units remain to be sampled. MSHA 
expects the study will be complete by August 2005 and that NIOSH will 
issue a report by October 2005.
    Question. Do you expect to issue new mine safety enforcement 
regulations as the result of this new technology being utilized?
    Answer. On June 24, 2003, MSHA issued a News Release announcing its 
intention to suspend all work in the finalization of the proposed 
Single Sample (SS) and Plan Verification (PV) rules and to pursue 
accelerated research on the PDM. MSHA also declared its commitment to 
``move forward in a new and positive direction with a final rule'' that 
incorporates new requirements for monitoring dust exposures that 
reduces miners' risk of black lung disease'' upon successful completion 
of in-mine performance verification testing of the PDM units. The 
Department will review the various options, including rulemaking, for 
the eventual application of this novel monitoring technology in our 
Nation's coal mines.

                          OVERTIME REGULATIONS

    Question. You are not asking for any increase in staffing for 
enforcement of Wage and Hour Standards, despite the major overhaul in 
overtime regulations that went into effect August 23, 2004. What is the 
Department doing to enforce compliance with the new overtime 
regulations?
    Answer. The final rule went into effect on August 23, 2004. Since 
the final rules were published in April 2004, ESA staff has 
participated in over 630 compliance assistance seminars reaching some 
63,000 employers, employees and others. ESA also launched the new 
FairPay web site, which provides online training seminars, model salary 
basis policy, numerous fact sheets and frequently asked questions. 
Recently, the agency has updated its interactive on-line elaws advisor 
to include the new overtime rule. The advisor averages 35,000 users a 
month.
    ESA's ongoing Overtime Security Task Force initiative involves 162 
targeted investigations of employers with low-salaried employees. The 
initiative was designed to secure overtime protections for the 1.3 
million salaried workers who are now entitled to overtime because of 
the salary increase. Five planned regional employer forums have already 
been conducted in connection with this initiative.
    Question. What has been the experience to date with complaints and 
litigation?
    Answer. Contrary to the dire predictions of some, the new rule has 
proved to be a catalyst for compliance. Media reports from around the 
country confirm that as employers have reviewed how they classify 
employees, many workers who should have been paid overtime under the 
old rules have gained overtime protection for the first time, in 
addition to the many workers who have gained overtime protection as a 
result of the higher salary level test. The new overtime security rules 
have put in place much needed overtime protections for millions of 
workers, especially lower-wage workers.
    For example, a Wall Street Journal article published April 18, 
2005, notes that more workers gained overtime protections than lost 
them under the new rules, citing recent surveys and consultations with 
employers to suggest that few employers reclassified any employees as 
exempt from overtime while many more employers gave overtime protection 
to some workers who did not have it before.
    The few Federal courts that have considered the new rules have 
concluded that the duties tests are essentially the same as under the 
old rules and that the outcome of the cases would be the same as under 
the old rules.

            CIVIL MONETARY PENALTIES FOR VIOLATIONS OF FLSA

    Question. You are proposing legislation to increase penalties for 
violations of child labor and health and safety laws. How many 
additional resources do you estimate would be collected in fiscal year 
2006 from these higher penalties?
    Answer. The proposal, which would increase civil monetary penalties 
for violations of the Fair Labor Standards Act's youth employment 
provisions that result in the death or serious injury of a young 
worker, would provide ESA with stronger deterrents and more effective 
penalties to address the most serious of the youth employment 
violations.
    The Department estimates it would receive no additional resources 
as a result of the increase in child labor civil monetary penalties. 
The proposal specifies that civil monetary penalties collected for 
youth employment violations are to be deposited in the general fund of 
the Treasury, as they are currently. The funds are not now, and will 
not be, returned to the Department as means to augment its enforcement 
efforts.

                  ASSOCIATION HEALTH PLAN LEGISLATION

    Question. Is the Labor Department's fiscal year 2005 budget 
sufficient to effectively administer Association Health Plan (AHP) 
legislation, or would additional resources be necessary?
    Answer. The Department's fiscal year 2005 budget that has already 
been enacted does not include resources specifically allocated for AHP 
administration. This is due to the fact that the legislation has not 
been finalized, and we do not know the extent of the Department's 
jurisdiction, authority, or workload.
    The Department will make determinations about any additional 
funding and staff requirements when the legislation becomes law.

                      H-1B SKILLS TRAINING GRANTS

    Question. Madame Secretary, while the Department of Labor's budget 
request identifies a number of proposed competitive grant programs, 
such as Prisoner Re-Entry and Community College/Community-based 
Training grant programs. The Department's fiscal year 2006 budget 
request does not identify the H-1B skills training program, which is 
financed through employer paid H-1B fees, as one of those competitive 
grant programs.
    With roughly $125 million available in fiscal year 2006 for these 
H-1B skills training grants, can I have your assurance that these 
grants will continue to be awarded on a competitive basis, as they have 
been in previous iterations of the H-1B grant program, and coordinated 
through the workforce investment boards?
    Answer. The implementation plan for the new H-1B job training grant 
program is currently under development. As you know, the new grant 
program and the fees on employers submitting H-1B applications that 
will be the source of funding for the grants were authorized by 
amendments to the Immigration and Nationality Act that were contained 
in the fiscal year 2005 Consolidated Appropriations Act enacted last 
December. ETA anticipates that the vast majority of investments of new 
H-1B job training grants will be awarded on a competitive basis. The 
competitive investments will be strategic partnerships that develop 
solutions-based approaches to workforce challenges identified by 
industry. ETA will look to fund mature partnerships between the 
workforce investment system, education, and employers to implement 
activities, including job training. These services and activities are 
designed to prepare workers, unemployed and employed, to take advantage 
of new and increasing job opportunities in high-growth/high-demand and 
economically vital industries and sectors in the American economy.

                                OVERHEAD

    Question. Madame Secretary, the President's budget request states 
that the President's job training reforms would increase the number of 
workers trained in large part by eliminating unnecessary overhead. The 
fiscal year 2006 budget builds on the President's April 2004 proposal 
for job training reform that sought to ``double the number of workers 
trained.'' Please define precisely what the Department means when it 
uses the term ``overhead''.
    Answer. Part of the problem lies in the lack of an appropriate 
statutory definition in WIA of overhead or administrative costs. As a 
result, too many WIA dollars are spent on overhead and non-training 
services, such as management studies, travel, and other infrastructure 
costs. In Program Year 2003, the largest share, or 30 percent of WIA 
funds, was spent on ``Infrastructure.'' Nineteen percent of funds were 
spent on employment placement activities while 23 percent was spent on 
core and intensive services and 28 percent was spent on training. Many 
of the infrastructure activities are necessary and appropriate, but it 
is difficult to justify spending more WIA funds on infrastructure 
activities than on training.
    Part of the solution is to more accurately define administrative 
costs. Through WIA reauthorization, the Administration proposes to 
specifically define administrative costs, while emphasizing the 
relative importance of training. The new definition would clarify that 
administrative cost limits apply to subrecipients and vendors just as 
they do to primary grant recipients.
    More broadly, the consolidation of four separate programs proposed 
by the Administration will reduce overhead costs by eliminating 
duplication in the provision of services, taking advantage of gains in 
economies of scale, and promoting a more effective and efficient use of 
Federal dollars. Continuation of the four programs--the WIA Adult 
program, the WIA Dislocated Worker program, the WIA Youth program, and 
the Wagner-Peyser Employment Service program--promotes ``silos'' of 
duplicative government systems providing identical services such as job 
search assistance and career counseling. By continuing duplicative 
service delivery systems, taxpayers pay more for administrative costs, 
overhead, and government bureaucracy, and receive fewer services. 
Furthermore, States that opt for WIA Plus State Consolidated Grants 
will be able to eliminate even more duplication.

                    NATIONAL FARMWORKER JOBS PROGRAM

    Question. Madame Secretary, the Department has once again proposed 
to eliminate the Migrant and Seasonal Farmworker Program, rating it 
``ineffective'' in an Office of Management and Budget PART assessment. 
The OMB materials go on to note the program's poor performance 
accountability. However, the Department's own budget materials indicate 
that the Program Year 2003 goal was achieved--84 percent of program 
participants were employed at program exit; 80 percent were still 
employed 6 months after initial entry into unsubsidized employment and 
average earnings gains for those employed was over $4,300. Importantly, 
84 percent of farmworkers who participated in education or training 
under the program received an education or occupational credential or 
certificate, enhancing their ability to compete for better jobs.
    Answer. The performance results for the National Farmworkers Jobs 
Program (NFJP) appear high, but these performance levels only reflect 
how successful the program is for those participants who receive 
employment and training services. The majority of the approximately 
20,000 farmworkers served through the NFJP--about two out of three--
receives related assistance services only (such as emergency 
assistance, transportation or child care) and do not receive any 
employment and training services. Therefore, NFJP is providing 
employment and training services to a very small proportion of the 
estimated 2 to 3 million farmworkers, and it is difficult to justify 
the program's overall impact on improving the economic opportunities of 
farmworkers.
    In addition, the PART review found that the NFJP was duplicative of 
other programs and services available through the WIA Title I programs 
and that farmworkers would be served better by accessing those services 
through the One-Stop system. Many NFJP grantees are already partners in 
the One-Stop delivery system at the State level. Yet, many localities 
rely on NFJP grantees almost exclusively to serve farmworkers outside 
the better-suited One-Stop delivery system.
                                 ______
                                 
               Questions Submitted by Senator Tom Harkin

                           ODEP MOU WITH SBA

    Question. I was very pleased to see that the Department of Labor 
(DOL) recently signed a Memorandum of Understanding (MOU) with the 
Small Business Administration on the development of programs and 
policies to encourage self-employment for people with disabilities. 
Unfortunately, no DOL funds have yet been committed to this MOU, and 
the 2006 budget proposes to drastically reduce funding for the Office 
of the Disability Employment Policy (ODEP). Part of this proposed 
savings is to come from the elimination of $16 million worth of grants 
to enhance employment opportunities for Americans with disabilities. 
Please provide a list of the $16 million worth of grants and a 
justification for why you believe they have outlived their usefulness. 
In addition, I'd like to know how much of the proposed million in the 
budget will be allocated toward programs associated with this MOU.
    Answer. In fiscal year 2006, ODEP will continue, with the Small 
Business Administration (SBA), to implement the Memorandum of 
Understanding through the allocation of staff resources (Full Time 
Equivalents) in order to develop specific activities related to Small 
Business Development. This includes providing information, technical 
assistance, and policy guidance to the workforce development and small 
business development systems, to increase participation of people with 
disabilities in entrepreneurship training, financing, accessing needed 
capital, and increasing capital for individuals with disabilities who 
desire to start their own businesses. ODEP is working with SBA, DOL 
agencies, and business associations to develop the capacity of small 
businesses to recruit, hire, retain, and promote people with 
disabilities by documenting and disseminating effective practices to 
the small business community.
    In addition, the fiscal year 2006 Budget will enable ODEP to 
continue its core mission of policy analysis, technical assistance and 
dissemination of effective practices to increase the employment 
opportunities for people with disabilities. ODEP plans to refocus its 
research emphasis from a reliance on using externally-grant funded 
public and private organizations, to a stronger internal emphasis on 
policy development, analysis, and dissemination.

               NATIONAL AGRICULTURAL WORKERS STUDY (NAWS)

    Question. The President's budget for 2006 proposes a $13 million 
increase in the Bureau of Labor Statistics and yet a stop work order 
went out in January on the $2 million National Agricultural Workers 
Study (NAWS). This study determines the distribution of more than $1.3 
billion in government spending. Departmental statements in the past 
have been that the study was cancelled in an effort to get other 
Federal agencies to fund the contract. Can you provide a record of DOL 
attempts to ask other agencies to fund the contract prior to 
terminating it? What is the status of the contract right now? Have 
other agencies stepped forward and if not, what are DOL plans with 
respect to this study?
    Answer. Let me begin by clarifying that the Department of Labor has 
not cancelled the NAWS. The Department and this Administration 
recognize that, although the wages, income, and working conditions for 
migrant and seasonal farm workers have improved in recent years, these 
important workers face unique challenges as they continue contributing 
to the success of the agricultural industry.
    As part of the Department's ongoing effort to improve programs that 
benefit both workers and employers, we have been consulting with other 
Federal agencies that use the data collected by the NAWS to determine 
the most suitable host agency for this survey. The Department issued a 
partial stop-work order to the NAWS contractor on January 12, 2005, but 
that stop-work order has been lifted and the NAWS contractor is again 
collecting data and will continue to do so periodically in the future. 
During the stop-work order, the contractor was instructed to cease 
survey work but to continue three NAWS-related task orders, one each 
for the Department's Employment and Training Administration (ETA), the 
Environmental Protection Agency (EPA), and the Centers for Disease 
Control and Prevention, National Institute for Occupational Safety and 
Health (CDC NIOSH). Under these task orders, the contractor is 
analyzing data, writing reports, testing new questions, and providing 
special data sets.
    The Department continues to evaluate survey options for the future. 
We recently produced the ninth NAWS Report, which is based on 
information collected in fiscal years 2001-2002. We are in the process 
of analyzing NAWS data from fiscal years 2003-2004, which will be 
presented in a future report.

                SANITARY FACILITIES AND FEMALE EDUCATION

    Question. Madam Secretary, research has repeatedly shown that the 
health and survival of children improve in direct proportion to the 
mother's level of education. The education of girls leads to major 
benefits: higher incomes and smaller families for the girls themselves 
and more productive economies in the countries that support the 
education of girls. Despite these statistics, UNICEF has found that 
girls represent 70 percent of children ages 6-11 who are not attending 
school worldwide. There are many reasons for this but one simple 
intervention is making a big difference--girls are more likely to be 
kept out of school if there are no sanitation facilities. When we put 
girls' bathrooms in schools, parents are more likely to send their 
daughters to school rather than to work.
    This is why grants have been made from the Basic Education program 
in the International Labor Affairs Bureau to organizations that build 
girls bathrooms in schools, primarily in Africa. However, I have 
recently become aware of reports that the Department of Labor is 
warning these organizations that for some administrative reason, they 
cannot leave the toilets in the school after the grants have expired.
    If this is true, it is just ridiculous. The whole purpose of the 
funding was to put the bathrooms in the schools so that generations of 
girls would get educated and improve their families and their 
countries--why would we spend additional dollars to take them out after 
3 years or 5 years, or whatever the length of the grant?
    If the Department is indeed requiring the organizations to remove 
the equipment, can you please provide the rationale behind this 
requirement to the committee along with your plan for how you intend to 
fix this situation?
    Answer. The Department of Labor (DOL) believes that projects which 
expand access to quality educational opportunities are a vital tool in 
combating child labor. Moreover, we strongly agree that the 
construction of latrines and other sanitary facilities as part of such 
projects is an effective means of encouraging parents to send their 
children, especially girls, to school, rather than to work in often 
exploitive forms of labor. To date, DOL has not directed any grantee to 
remove latrines from schools, and it is not our intention or desire to 
do so. However, Federal grant regulations governing the acquisition and 
use of items of property may require the removal of these sanitary 
facilities upon the conclusion of the grant, in such cases we are 
obligated to advise the Bureau of International Labor Affairs (ILAB) 
grantees of their responsibilities regarding property acquired with 
Federal grant funds.
    You can be confident that the Department will work very closely 
with its grantees to assist them in retaining any sanitary facilities 
even after direct grant funding ends, by encouraging them to continue 
to use the property to support the grant's goals of improving 
educational opportunities and decreasing exploitive child labor. We 
believe that such uses of the property will allow indefinite retention 
of the sanitary facilities under the Federal grant regulations, and we 
are committed to ensuring the sustainability of these critical 
projects. Given the nature and value of latrines being funded by ILAB, 
we believe Federal property regulations would require removal of the 
facilities or compensation to the United States for the facilities' 
value only in the rare circumstance that the educational project closes 
down, or the project seeks to sell or dispose of the facilities.

                       NATIONAL EMERGENCY GRANTS

    Question. Secretary Chao, at your last appearance before us, you 
and I spoke about the National Emergency Grant program. I am very 
concerned that this remains a problem. A majority of States in a recent 
GAO report stated that they had to delay or deny services to workers as 
a direct result of the backlog in NEG applications at the Department of 
Labor. Is it as a direct result of the backlog in NEG applications at 
the Department of Labor? Is it true that your Department now plans to 
stop counting the number of days elapsed if there is a problem with an 
application? If so, will that include routine clerical errors or must 
there be a significant lack of information for the application to stop 
being counted?
    Answer. The Department of Labor is committed to reviewing National 
Emergency Grant (NEG) applications as quickly as possible, and we have 
made significant progress in resolving any backlog. When the issue was 
raised initially, we imposed a goal on ourselves of making award 
decisions within 30 working days of receiving a completed application. 
Further, we have taken steps to simplify and automate the application 
process through an electronic application system. The GAO study you 
refer to was based on data from a couple of years ago, prior to these 
actions.
    Phase 1 of the e-application system was operational on July 1, 
2004. We are already enhancing this system for State use with a Phase 2 
system that will be fully implemented on July 1, 2005. Preliminary 
testing of Phase 2 with State users received a uniformly positive 
reception. Additional design enhancements will be developed and 
implemented next year.
    The new NEG e-application system ensures that all necessary 
information is provided and eliminates the possibility that 
applications could be rejected purely for clerical errors.
    Since the introduction of the e-application system, the Department 
has seen a reduction in the amount of time required for review and 
approval of NEG applications, and we expect to improve upon this 
response time in the future. We have been within our self-imposed 
timeframe of 30 working days. Further, we will continue to track the 
application award period. States have not been complaining about NEG 
timeliness in the past year due to our proactive reform of the program.
    Finally, the Department believes that States and localities have 
sufficient funds to initiate services to workers who may subsequently 
be served under a National Emergency Grant. Services should not be 
denied or delayed while awaiting a decision on a NEG award. States 
carried in almost $550 million in unexpended Dislocated Worker formula 
funds--roughly two times the amount available for NEGs.

                   NATIONAL LABOR MARKET INFORMATION

    Question. The National Labor Market Information programs provide 
State-by-State information on employment, unemployment, earnings, 
occupational information, skills trends by industry, worker 
displacement, and job openings. Policy makers, including those of us in 
Congress, utilize this information to make decisions on allocation of 
Federal funds, program planning and evaluation as well as labor market 
dynamics. Why does the President's budget propose to eliminate the 
national labor market information programs? What measures will you put 
in place to ensure that State information is reported in a consistent, 
timely, and accurate manner?
    Answer. It is important to clarify that the funding for workforce 
and labor market information within DOL occurs in two different 
agencies. The Bureau of Labor Statistics (BLS) funds States to collect 
a wide array of information, including the information mentioned in the 
question. That information is available on a State by State basis and 
is also used as the foundation for national labor market statistics.
    The Employment and Training Administration (ETA) provides funding 
to States to develop workforce information as a service to businesses 
and job seekers. The data and statistical information that States 
collect on behalf of BLS is an important foundation for the workforce 
information funded by ETA. However, supplemental workforce information 
may come from many other sources including census data, State economic 
development data, educational data, data collected by industry trade 
associations, and information received from direct contact with the 
business community. The goal of ETA's investments is to transform these 
BLS and supplemental data sources into workforce intelligence through 
analysis and the development of user-friendly tools and products.
    The U.S. Department of Labor fiscal year 2006 budget proposal for 
ETA does not eliminate the national labor market information programs. 
As part of the proposed WIA Plus State Consolidated Grants, 
$39,680,000, which was previously provided to States in a stand alone 
grant, would be moved from the One-Stop Career Center/Labor Market 
Information line item into the consolidated grants to support State 
development and dissemination of workforce information. The 
consolidation of the workforce information funding into the WIA Plus 
Consolidated Grants will serve as an additional catalyst for 
transforming the silo system of the past into a demand-driven workforce 
information system that provides more and better information products 
and services that consumers will need in making strategic and tactical 
workforce investment and critical career decisions.
    The consolidation proposal does not affect funding for BLS or the 
Census Bureau, where much of the information used in the national 
allocation of Federal funds, program planning, and evaluation, as well 
as labor market dynamics information is provided.

                               JOB CORPS

    Question. Madam Secretary, this Subcommittee has demonstrated a 
long-standing support for the Job Corps program. That support has been 
based on proven results working with disadvantaged youth. Despite the 
fact that 74 percent of Job Corps enrollees are high school drop outs 
and 32 percent come from families on public assistance, 90 percent of 
Job Corps graduates are placed in full-time employment. The average 
hourly wage for Job Corps graduates at 6 months after initial placement 
is $8.95 per hour. This is a real opportunity for kids who are headed 
down a tough road.
    In the current economy, however, this figure does not adequately 
reflect the benefit of Job Corps to graduates because it does not 
address the health and pension benefits. Please submit data to the 
Committee on the availability of health and pension benefits to Job 
Corps graduates 6 months after initial placement, the estimated value 
of those benefits, and other significant benefits such as the 
opportunity for continuing education or ongoing training. Madam 
Secretary, these benefits are getting more valuable by the day and I 
strongly urge you to incorporate this question in your 6 and 12 month 
follow-up surveys.
    Answer. Both the 6-month and 12-month follow-up surveys ask 
initially-placed graduates (who indicate that they were employed during 
the week prior to the survey) whether any benefits are available to 
them through their job. Specifically, the survey asks whether the 
employer offers a health insurance plan, paid sick leave, paid 
vacation, childcare assistance, or a retirement or pension plan. The 6-
month and 12-month surveys do not collect information in regard to the 
value of these benefits.
    The table below depicts the percentage of graduates, employed at 6 
months and/or 12 months during PY 2003, who responded to the survey 
that their employer offers one or more of the listed benefits.

------------------------------------------------------------------------
                                                          Percent of
                                                      employed graduates
                                                       offered  benefits
            Benefits offered by employer             -------------------
                                                        at 6      at 12
                                                       Months    Months
------------------------------------------------------------------------
Health Insurance Plan...............................      62.0      61.7
Paid Sick Leave.....................................      49.2      51.2
Paid Vacation.......................................      61.0      61.0
Childcare Assistance................................      15.5      17.2
Retirement or Pension Plan..........................      42.2      45.6
------------------------------------------------------------------------

    Not included in these data are the over 1,581 Job Corps students 
placed in the military during PY 2003, all of whom, as service members, 
receive benefits such as medical, dental, 30 days paid vacation, an 
automatic $32,000 Montgomery GI Bill, and 100 percent tuition 
assistance for college education.
    Question. In addition, while I am a strong supporter of the 
benefits of online learning for rural areas and I am certainly always 
appreciative of budget savings, I am concerned about the suggestion in 
your budget documents that you want to move toward relying more heavily 
on online learning in Job Corps Centers. The kids in these programs are 
difficult to reach and Job Corps does a fantastic job of turning them 
around. At the heart of the program is the personal connection that 
highly qualified instructors make with these kids, cheering them on and 
giving them a real sense of accomplishment. Can you provide a 5 year 
plan for Job Corps curriculum? Please include information on the manner 
in which online learning will be utilized to deliver services to Job 
Corps participants.
    Answer. Since 2002, Job Corps centers have increasingly provided 
online and server-based courses to students to enable them to complete 
their high school programs and receive diplomas. These programs are 
particularly beneficial in situations where the Job Corps centers are 
in rural locations and/or cannot make arrangements with local high 
schools to allow students to attend classes.
    In Job Corps classrooms with online learning opportunities, an 
instructor circulates among the students to answer questions and 
provide one-on-one assistance. Group instruction and written materials 
are often incorporated with the delivery of online courses. Currently 
Job Corps centers do not use a single online curriculum. Operators of 
multiple centers tend to have contracts with online course and software 
providers to enable cost-effective delivery to several centers.
    In PY 2005, however, the Job Corps National Office plans to 
undertake a major effort to establish standards and curriculum for 
foundation courses in reading, math, and writing and to establish core 
standards for high school programs with recommended curricula. These 
efforts will follow the development of strategic education and 
instructional technology plans. Therefore, Job Corps does not currently 
have a 5-year curriculum plan in place. While the specific approaches 
to incorporating online and other curricula will be based on the 
planning process, Job Corps intends to build on best instructional 
practices and courses to create a ``blended learning'' approach 
involving a mix of face-to-face and online instruction. This approach 
has been proven effective in engaging students with diverse learning 
styles and abilities and enabling them to work closely with qualified 
instructors. The use of online learning will also allow students to 
have equal access to Job Corps' newly developed core curricula, based 
on rigorous standards in both academic foundation skills and high 
school programs.

                  HIGH GROWTH JOB TRAINING INITIATIVE

    Question. As a Member of both your Appropriations and Authorizing 
Committees, I was very interested to read in your testimony about a new 
program that is not authorized under the Workforce Investment Act (WIA) 
called the High Growth Job Training Initiative. You cite the fact that 
you have spent $164.8 million for 88 grants since 2002. I have a series 
of questions related to the expenditure of these dollars.
    How many of these grants were awarded on a competitive basis?
    Answer. The High Growth Job Training Initiative was initiated to 
model new and innovative strategies to create a demand-driven workforce 
investment system. In carrying out this mission, the Department awarded 
grants to model programs using discretionary funding for this activity 
as is authorized under title I of the Workforce Investment Act. Through 
unsolicited grants, which are not awarded on a competitive basis, the 
Department has been able to strategically invest in innovative models 
that address the key issues industry identified and to do so in the 
context of different sectors for each industry. Unsolicited grants also 
have allowed the Department to spark transformation of the workforce 
investment system to a system that is more demand-driven--that is, more 
responsive to the skill needs of businesses and industry. This 
innovative approach to workforce investment features partnerships that 
include the workforce investment system, business and industry, 
education and training providers, and economic development working 
collaboratively to develop solutions to workforce challenges. The 88 
grants cited, and a subsequent grant awarded on June 3 to the 
Pennsylvania Workforce Investment Board for a comprehensive statewide 
strategy for addressing the workforce needs of Pennsylvania's plastics 
manufacturing sector, were awarded as non-competitive grants. All of 
these grants were subject to review and approval by the Department's 
Procurement Review Board.
    It has been the Department's intent from the beginning to move to 
competitive opportunities following the first round of strategic 
investments by industry. In June 2005, the Department announced 12 
grants, in the health care and biotechnology industries, which were 
competitively awarded in accordance with a Solicitation for Grant 
Applications. Moving forward, the majority of future investments will 
be made on a competitive basis.
    Question. How many of these grants were awarded directly to private 
sector companies?
    Answer. Of the 88 grants cited, three were awarded to private 
sector companies in partnership with non-profit associations, workforce 
investment boards, and other public sector entities, which was a 
requirement. These grants were awarded to:
  --Catalyst Learning, in partnership with Anne Arundel Community 
        College
  --Hospital Corporation of America (HCA), in partnership with Broward 
        County Community College, Dade County Community College, and 
        Palm Beach County Community College
  --Management & Training Corporation, in partnership with City 
        Colleges of Chicago, Cincinnati State Technical and Community 
        College, Sinclair Community College, Luzerne County Community 
        College, Lehigh/Carbon County Community College, the 
        Metropolitan Chicago Healthcare Council, the Paul Simon Chicago 
        Job Corps Center, the Cincinnati Job Corps Center, the Dayton 
        Job Corps Center, and the Keystone Job Corps Center
    Two subsequent grants were competitively awarded in accordance with 
a Solicitation for Grant Applications to private sector companies. They 
are:
  --CVS Regional Learning Center, in partnership with Detroit Workforce 
        Development Department, ORC Macro, Wayne County Community 
        College District, Goodwill Industries of Greater Detroit, New 
        Galilee Missionary Baptist Church, Perfecting Church, and 
        Little Rock Baptist Church
  --United Regional Health Care System, in partnership with North 
        Central Texas Healthcare Consortium, United Regional Healthcare 
        System, Wilbarger General Hospital, Electra Memorial Hospital, 
        Seymour Hospital, Vernon College, Midwestern State University, 
        Texas Christian University, North Texas Tech Prep Consortium, 
        Partners-in-Education, and Region 9 Education Service Center
    Question. Can you provide the Appropriations Committee with a 
complete list of all of the grants awarded under this program and their 
geographic locations?
    Answer. Yes. Through the High Growth Job Training Initiative, the 
Department has made 101 investments in 12 high growth industries. The 
details on each award follows:
    Grant Recipient and Location: Henderson-Henderson County Chamber of 
Commerce/Kentucky
    Partner(s) and Location(s): Henderson, Union, and Webster County 
WIBS; Henderson Community College; the Kentucky Community and Technical 
College System; Employer representatives from targeted industries; 
County economic development councils; city and county municipal 
governments and county high school technology centers/KY
    Funding Amount: $2,991,840
    Purpose of the Award: This pilot will design and deliver demand-
driven training and placement services in the following industries: 
industrial technology, engineering technology, manufacturing, 
hydraulics, pneumatics and IT. We anticipate that this demonstration 
will train and place 1,265 workers. It is anticipated that at least 63 
percent will be placed within four weeks and 71 percent of dislocated 
workers will be placed.
    Grant Recipient and Location: Automotive Youth Educational Systems/
Michigan
    Partner(s) and Location(s): Automotive manufacturers and dealers' 
associations; local high schools/national
    Funding Amount: $600,000
    Purpose of the Award: The grantee will demonstrate a demand-driven 
automotive technician curriculum and training process that uses a new 
blended training delivery model (including on-line features). This new 
approach to learning, paired with work-based applications in 
dealerships across the country, will offer access to expanded learning 
opportunities in urban and rural communities. This pilot project is 
projected to train 6,250 new participants in year 1, 7,700 in year 2, 
and 8,600 in year 3.
    Grant Recipient and Location: Council for Adult and Experiential 
Learning/Pennsylvania
    Partner(s) and Location(s): WIBs in local sites; Community colleges 
in local sites; hospitals at local sites; Department of Labor Office of 
Apprenticeship/IL, MD, SD, TX, WA, GA, VA, DE, WI
    Funding Amount: $2,174,450
    Purpose of the Award: This pilot is designed to increase the number 
of CNAs, LPNs, and RNs by building upon a pre-existing career ladder 
model and adding an apprenticeship component for CNAs and LPNs. It is 
anticipated that the demonstration will train approximately 300 
students per site at 5 sites for a total of 1,500 students served 
during the pilot.
    Grant Recipient and Location: Computing Technology Industry 
Association (CompTIA)/Illinois
    Partner(s) and Location(s): Northern Virginia Community College; 
NFL Films; Okidata; Hill International, Keyport Division; Naval 
Undersea Warfare Center; Henkels & McCoy; Exodux IT Services; 
Cosmopolitan Chamber of Commerce/national
    Funding Amount: $2,818,795
    Purpose of the Award: This demonstration will support the 
development and implementation of a National Information Technology 
Apprenticeship System (NITAS), a competency-based apprenticeship 
methodology that supports consistent and flexible credentialing for the 
career development and advancement of IT workers. It is anticipated 
that throught this demonstration approximately 384,000 IT workers will 
become registered apprentices and approximately 6,700 employers will 
register as on-the-job learning providers.The seven-track NITAS career 
matrix allows workers to progress through all or part of the 
apprenticeship program using a combination of classroom instruction and 
on-the-job training. Standardized, industry-recognized certifications 
are earned as each apprenticeship tier is completed and the 
certifications are transferable from employer to employer.
    Grant Recipient and Location: The National Retail Federation 
Foundation (NRFF)/Washington, D.C.
    Partner(s) and Location(s): Local WIBs involved in multiple project 
sites; local community colleges involved in multiple locations; Toys 
``R'' Us; Saks, Inc.; CVS/pharmacy; the Home Depot; seven major 
shopping center developers; hundreds of large and small retail 
employers and businesses; NRFF's State and Local Affiliate Network; 
State and Government Agencies; Community-based organizations/DC
    Funding Amount: $2,250,000
    Purpose of the Award: Grantee will demonstrate a model for creating 
a comprehensive cross-industry career ladder from sales associate 
through senior level management. For each level in the career ladder, a 
core competency and training curriculum model will be developed for 
distribution throughout the industry and the public workforce system. 
In addition, the demonstration will train a significant number of 
incumbent and new workers in the retail sector in partnership with 
employers and the public workforce system. The curriculum will be 
disseminated broadly to retail employers across the country through the 
public workforce system.
    Grant Recipient and Location: The National Retail Federation 
Foundation/Washington, D.C.
    Partner(s) and Location(s): Local WIBs involved in multiple project 
sites; seven major shopping center developers and hundreds of large and 
small retail employers and businesses; Montgomery College; NRFF's State 
and Local Affiliate Network; State and Local Government Agencies; and 
community-based organizations/national
    Funding Amount: $2,815,000
    Purpose of the Award: This Project will demonstrate the use of 
retail skills centers' at eight sites that provide retail and customer 
service education and training services for mall employees and area job 
seekers. Located in shopping centers, these ``skills centers'' help 
retail employers recruit, retain, and advance workers through a range 
of training options, from language and employability skills classes to 
customized seminars. This pilot project is projected to train and place 
over 3,000 individuals in the retail sector.
    Grant Recipient and Location: National Restaurant Association 
Educational Foundation/Illinois
    Partner(s) and Location(s): State Restaurant Associations in each 
State; International School Licensing Corporation's America's Schools 
Program/national
    Funding Amount: $1,765,000
    Purpose of the Award: NRAEF will demonstrate the value of creating 
a national system of State hospitality partnerships through the HBA/
ProStart project. These partnerships, in 19 States across the country, 
are dedicated to the establishment of 900 high school hospitality 
School-to-Career programs and industry mentoring programs that lead to 
an industry-recognized national certificate. The goal of the project is 
to offer work-based learning opportunities for 6,700 students at 
approximately 6,000 work sites. By increasing student worksite 
experience and increasing industry involvement in workforce issues 
through this project, NRAEF will have the ability to cultivate new 
sources of talent and thus strengthen the hospitality industry by 
attracting, supporting, guiding, training, and teaching current and 
future workers.
    Grant Recipient and Location: National Institute for Metalworking 
Skills (NIMS)/Virginia
    Partner(s) and Location(s): Employer partners are mentioned but not 
specifically named/national
    Funding Amount: $1,965,700
    Purpose of the Award: This demonstration is designed to create a 
more economical, rational, effective and efficient competency-based 
apprenticeship model that builds on the time-tested NIMS skill 
standards credentialing system. Under this demonstration, NIMS will 
develop a competency web for metalworking occupations consistent with 
NIMS skill standards.
    This includes developing apprenticeship programs and curriculum 
development for the six competency-based apprenticeship programs with 
portable, nationally-recognized credentials for these occupations 
complete with a curriculum guide and implementation guide. It is 
anticipated that this demonstration will train ATELS staff and industry 
partners on the apprenticeship programs to better serve the over 500 
apprenticeships under way at any one time by employers and assocations.
    Grant Recipient and Location: Community Learning Center, Inc. 
(CLC)/Texas (two grants)
    Partner(s) and Location(s): Tarrant County Workforce Development 
Board; Tarrant County College; Lockheed Martin-Aero; Bell Helicopter-
TEXTRON; Interconnect Wiring and Southwest Airlines/TX
    Funding Amount: $4,028,400
    Purpose of the Award: This demonstration project will continue the 
Aerospace Industry Training Project (AITP) for preparing and placing 
dislocated workers in aircraft assembly and will provide incumbent 
workers with advanced training. It is anticipated that 1,024 dislocated 
workers will receive training and wage increases and that 802 workers 
will be placed in unsubsidized employment.
    Grant Recipient and Location: Downriver Community Conference--
AutoAlliance International/Michigan
    Partner(s) and Location(s): Michigan Works Association; Monroe 
County Community College; Henry Ford Community College; Wayne County 
Community College; Davenport University; Baker College; AutoAlliance 
International (joint venture of Ford and Mazda); UAW; Downriver Career 
Technical Consortium; Flat Rock secondary schools/MI
    Funding Amount: $5,000,000
    Purpose of the Award: It is anticipated that the grantee will 
demonstrate methods for training and preparing automotive workers for 
new advanced manufacturing production processes. Grantee will map, 
track, and analyze transferable manufacturing skills sets and 
competencies required for the new positions and provide training, 
assessment and employment for 1,400 worker
    Grant Recipient and Location: Alameda County Workforce Investment 
Board/California
    Partner(s) and Location(s): San Mateo County WIB; Skyline Community 
College; Ohlone Community College; Genetech; Alza; Baxter; Chiron; 
Adecco; Gruber and Pereira Associates; Opportunities Industrialization 
Center West/CA
    Funding Amount: $2,000,000
    Purpose of the Award: Under this pilot, it is anticipated that the 
grantee will develop career pathways in bio-tech manufacturing, 
facilities management, quality control, and product engineering. 
Additionally, the program will work with area community-based 
organizations to create a ``bridge'' program to prepare lower skilled 
individuals for entry-level employment. This pilot project is expected 
to train up to 150 workers and place them in employment at wages of 
$35,000-$40,000 per year. In addition the grantee is expected to train 
40 dislocated engineers and place them in employment at wages of 
$50,000-$80,000 per year.
    Grant Recipient and Location: Forsyth Technical Community College/
North Carolina
    Partner(s) and Location(s): Forsyth Tech has a local JobLink One-
Stop Career Center on campus; grantee is Community College; Syngenta, 
Targacept, Orthofix and Wake Forest University School of Medicine 
(WFUSM); North Carolina Biotechnology Center; Wake Forest University; 
Winston-Salem State University; University of North Carolina-
Greensboro; Winston-Salem Chamber of Commerce; Winston-Salem/Forsyth 
County Schools/NC
    Funding Amount: $754,146
    Purpose of the Award: Forsyth Tech will demonstrate a program 
designed to implement a biotechnology associate degree training program 
for the region's dislocated manufacturing workers. Forsyth Tech will 
retrain workers who have been dislocated from declining industries so 
that they are qualified for employment in the emerging biotechnology 
field. The Forsyth Tech curriculum will focus on training laboratory 
technicians in biotechnology and related pharmaceutical occupations and 
can be broadly replicated in community colleges across the country.
    Grant Recipient and Location: Indian Hills Community College/Iowa
    Partner(s) and Location(s): Iowa Workforce Development; Des Moines 
Area Community College; Biotechnology Association; Iowa Renewable Fuels 
Association; Cargill, Inc.; Genencor; Pioneer Hybrid International; 
Garst Seed; Phytodyne; Kemin Industries; Iowa Biotechnology 
Association; Iowa Renewable Fuels Association/IA
    Funding Amount: $996,250
    Purpose of the Award: Under this demonstration project, the grantee 
will establish a comprehensive State-wide approach to growing the 
biotech industry as a part of the Iowa economic base; Create a skilled 
workforce through community colleges and workforce investment system 
partnerships; Educate middle and high-schoolers about biotech career 
options and skills needed. The grantee anticipates they will train 100 
high school teachers and counselors, 100 unemployed and underemployed 
biotech workers, 600 incumbent biotech workers and provide career 
awareness training activities to over 6,000 students during the life of 
the grant.
    Grant Recipient and Location: Lakeland Community College/Ohio
    Partner(s) and Location(s): STERIS Corp.; Athersys, Inc.; 
Lakeland's BioTech Council and its employer members; school systems in 
Mentor, Ashtabula, and Mayfield, Ohio; Tech Prep Consortium; Ricerca 
Biosciences; BioEnterprise; Association for the Advancement of Medial 
Instrumentation; NeoBio; Lakeland Community Learning; Lakeland Center 
for Quality and Productivity/OH
    Funding Amount: $333,485
    Purpose of the Award: The grantee will develop demonstration 
training programs that are designed to recruit new workers, beginning 
at the high-school level and up through a Master's Degree level in 
northeast Ohio. The grantee will partner with industry to create 
training and curriculum; develop a BioCenter and a national 
biotechnology career coaching model. This curriculum will be 
deseminated broadly expanding the availability of industry-based 
curruculum and articulating career cadders and competency models 
designed to industry standards. It is expected that the grantee, as 
part of their activities, will expand internship and training 
opportunities through the pilot Bio Center.
    Grant Recipient and Location: Pittsburgh Life Sciences Greenhouse/
Pennsylvania
    Partner(s) and Location(s): Three Rivers Workforce Investment 
Board; Community College of Alleghany County; Renal Solutions, Inc. and 
six additional employers in the area; the Pittsburgh Technology 
Council; The Allegheny County Job Link/PA
    Funding Amount: $2,433,160
    Purpose of the Award: In this pilot project, the grantee will match 
trained workers with local area biotechnology companies with the goal 
of rapidly deploying professionals into biotechnology employment 
through customized training programs and biotechnology curriculum. The 
grantee anticipates that they will train and place 200-400 workers in 
biotech business jobs. As a part of its efforts to support the growth 
of greater Pittsburgh life sciences employers, the project will provide 
training for new entrants into biotech as well as retraining for 
workers affected by declining industries.
    Grant Recipient and Location: The Workforce Alliance, Inc./Florida
    Partner(s) and Location(s): the Workforce Alliance; Treasure Coast 
Workforce Development Board; Indian River Community College; Workforce 
Florida, Inc.; Palm Beach County Business Development Board and 
Economic Development Council; Regional Biotechnology Employers; Florida 
Atlantic University; Office of the Governor; Scripps Research 
Institute; Palm Beach County's Government; school boards; the Agency 
for Workforce Innovation; Business Development Board; Economic 
Development Council/FL
    Funding Amount: $2,325,303
    Purpose of the Award: This demonstration project is designed to 
retrain employed and unemployed workers to build careers in biotech in 
the Palm Beach County, Florida area. Through this demonstraion project, 
the grantee anticipates enrolling 110 workers. The grantee estimates 
that 80 percent of employed and 65 percent of unemployed participants 
will complete their training with a certification or degree. FAU's 
Biotech Training Program will establish a biotech career ladder and 
develop curriculum as well as a program for participants to obtain a 
postgraduate level certificate in Biotechnology and Bioinformatics. The 
learning's from this program will be disseminated broadly for 
replication.
    Grant Recipient and Location: American College of the Building 
Arts/South Carolina
    Funding Amount: $2,750,000
    Purpose of the Award: The grantee will demonstrate the development 
and testing of an innovative, industry-driven curriculum that focuses 
on the traditional building arts, such as carpentry, ironwork, masonry, 
timber framing, plasterwork, and stone carving through the first of its 
kind school, the American College of Building Arts (ACBA). ACBA also 
will establish partnerships with industry organizations for future 
internship programs based on this piloted curriculum. The inaugural 
class of 100 students will be recruited from across the nation to 
attend this unique restoration training college and will return to 
local communities for work-based learning opportunities and employment.
    Grant Recipient and Location: SkillsUSA-VICA/Virginia
    Funding Amount: $142,000
    Purpose of the Award: Grantee will demonstrate methods for 
increasing the pipeline of skilled trade workers by building advanced 
competency models and career ladders and provide secondary students 
interested in the skilled trades with more post-secondary training 
alternatives, such as the opportunity to continue their skills 
development in advanced community college programs.
    Grant Recipient and Location: Oklahoma Department of Career and 
Technology Education/High Plains Technology Center/Oklahoma
    Partner(s) and Location(s): Northwest Workforce Development 
Council; Workforce Oklahoma; Marathon Oil Company; Mid-Continental Oil; 
Mid-Continental Oil and Gas Association of Oklahoma; Unit Drilling; 
Patterson-UTI Drilling; BP America Production Company/OK
    Funding Amount: $1,546,463
    Purpose of the Award: In this demonstration project, the grantee 
will develop a bilingual training curriculum in gas and energy based on 
the skills needs of local employers. The grantee estimates they will 
train approximately 500 workers, including 125 workers new and 325 
incumbent workers. As part of the demonstration, the grantee will 
develop and provide training for new and incumbent workers in the oil 
and gas industry and better integrate the industry with existing 
workforce development resources in Northwest OK, Southwest KS and the 
TX Panhandle. This model will be disseminated to the public workforce 
system for replication across the country in areas in need of a skilled 
energy workforce.
    Grant Recipient and Location: San Juan College Regional Training 
Center/New Mexico
    Partner(s) and Location(s): Farmington WIB; local One-Stops in 
other participant recruitment States (CO, NM, UT, WY); Key Energy 
Services; Navajo Nation; Church of Jesus Christ of Latter-Day Saints/NM
    Funding Amount: $2,113,127
    Purpose of the Award: This pilot project is designed to develop a 
regional energy training center with initial recruitment and screening 
conducted at one-stop centers to provide training to three targeted 
groups: minorities, predominately Spanish-speaking and Native 
Americans, underemployed and dislocated worker populations and 
underemployed incumbent workers. The grantee anticipates training 50 
workers to complete applied basic education to attain required literacy 
level and training 400 workers in a certificate-based training program. 
The grantee anticipates that 320 candiated will complete the training, 
with 300 projected placements. In addition, the grantee anticipates 
that 240 will be retained after 30 days and 210 after 180 days of 
employment. In addition, the grantee will design a skills-based, 
competency model curriculum by mapping key occupational skills and 
benchmarking against the skills of current incumbent workers. This 
curriculum will be used as the basis for safety training 
certifications. To support efforts to reach under represented 
popolations, the grantee will also develop video assessment tools, 
training videos with supportive curriculum written in Navajo and 
Spanish language. These recuritment tools will be made available to the 
public workforce system for use in providing career guidance to 
workers.
    Grant Recipient and Location: University of Southern Mississippi 
(USM)--Geospatial Development Center/Mississippi
    Partner(s) and Location(s): Local WIBs and One-Stop Career Centers; 
Mississippi Gulf Coast Community College; Pearl River Community 
College/MS
    Funding Amount: $1,565,227
    Purpose of the Award: In this demonstration project, the grantee 
will develop a registered apprenticeship program in Geospatial 
Technology based on a competency model that will be designed as part of 
the pilot. The grantee anticipates that as part of the project, 30 
apprentices will be trained. In addition, training materials, tests for 
related classroom instruction, and assessments for structured OJT will 
be developed. Some curriculum modules will be made available through 
web-based distance learning tools to allow for easy replication by the 
workforce system in partnership with employers in the Geospatial 
sector.
    Grant Recipient and Location: American Health Care Association 
Foundation/Washington, D.C.
    Partner(s) and Location(s): George Washington University's Center 
for Health Services Research and Policy and Wertlieb Educational 
Institute for Long Term Care Management/DC
    Funding Amount: $113,296
    Purpose of the Award: This research and demonstration project is 
designed to support the workforce challenges faced by the over 16,000 
long-term care facilities across the country. In this project, the 
grantee will develop an infrastructure of ``Best Practice'' models to 
build partnerships for combating the nursing shortage in long-term care 
that can be expanded, evaluated, replicated, and transported to other 
areas of the country. This project is designed to support addressing 
the nursing shortage in long-term care and offer a model designed to be 
replicable by workforce systems across the country, meeting this 
critical workforce shortage.
    Grant Recipient and Location: Berger Health System/Ohio
    Partner(s) and Location(s): Ohio University/OH
    Funding Amount: $200,000
    Purpose of the Award: This demonstraion project is designed to meet 
the needs of the rural community hospital by holding all classes and 
clinical rotations at the Berger Hospital facilities for the 3-year, 
university-based Associate Degree nursing program. The grantee 
anticipates that through this project, 30 incumbent employees and non-
traditional students will enroll in credentialed programs. This project 
will serve as a model for replication in rural communities across the 
country, offering employee and opportunity to grow in their careers 
while remaining in their rural community.
    Grant Recipient and Location: Capital IDEA/Texas
    Partner(s) and Location(s): Worksource-Greater Austin Area 
Workforce Development Board; Austin Community College; in Austin: 
Seaton Healthcare Network; St. David's Healthcare Partnership; Austin 
Heart; in San Marcos: Central Texas Medical Center/TX
    Funding Amount: $224,088
    Purpose of the Award: This demonstration project is designed to 
enable students and lower-skill hospital employees to advance to career 
training courses by providing tutoring in a key pre-requisite anatomy 
and physiology course. Tutoring begins the first week of class in order 
to: (a) increase the success rate of students, thereby reducing the 
extra expense of tuition, counseling, child care, and time associated 
with students repeating the course; (b) accelerate graduations; and (c) 
increase the success rate of disadvantaged students. Rather than take 
remedial action after students fall behind, the tutoring will raise 
their chances of enrolling in training for and successfully completing 
a nursing or allied health occupation.
    Grant Recipient and Location: Catalyst Learning/Kentucky
    Partner(s) and Location(s): Anne Arundel Community College/FL, IL, 
IN, KT, MD, MI, MO, NC, OH, PA, TN, TX, VA
    Funding Amount: $3,176,000
    Purpose of the Award: Make basic skills and work-related education 
more accessible to adults in low-wage jobs and more feasible for 
employers by combining interactive television broadcasts in the 
workplace with additional coursework through printed materials and 
interactive online exercises.
    Grant Recipient and Location: Columbia Gorge Community College/
Oregon
    Partner(s) and Location(s): Region 9 Workforce Investment Board; 
Columbia Gorge Community College; eight area hospitals and health care 
providers; K-12 school districts; Oregon Health and Science University; 
and city and county governments/OR, WA
    Funding Amount: $1,250,000
    Purpose of the Award: This pilot project is designed to create a 
Health Occupations Career Ladder Nursing Program to train 200 new 
workers and expand CGCC's offerings and opportunities for an Associate 
Degree in Nursing and a distance learning option for a Bachelor Degree 
of Nursing Program. The grantee anticipates they will train 200 new 
healthcare workers. It is expected that forty nurses of 200 total 
trainees will have the opportunity to earn a BSN through Columbia 
Gorge's dual admission agreement with Oregon Health and Science 
University. In addition, the grantee will expand Certified Nursing 
Assistant/Certified Medication Aide training to fill vacancies created 
from the pilot project. The grantee anticipates they will offer 7-9 
classes per year to train an additional 60 students and to develop 
opportunities for training including 10-20 CMAs per year.
    Grant Recipient and Location: Excelsior College/New York
    Partner(s) and Location(s): Excelsior College; fourteen hospices in 
New York State, along with one each in Montana, North Carolina, Rhode 
Island, South Carolina, and Texas; WINs demonstration project in 
various local areas/MT, NY, NC, RI, SC, TX
    Funding Amount: $516,154
    Purpose of the Award: In this pilot project the grantee is expected 
to expand the number of registered nurses and create a stable, highly 
skilled RN workforce for hospices by developing a Hospice and 
Palliative Care Online Certificate Program (HPCC) that includes a 
period of practical experience and training supervised by an expert or 
specialist. The grantee is expected to development of a recruitment 
strategy designed to attract nurses to end-of-life care. Emphasis will 
be placed on the recruitment of RNs who are no longer employed in 
nursing but are interested in re-entering the field, nurses planning to 
leave the acute care arena, and new graduates. As part of the career 
awareness, the grantee will establish a website that will give hospices 
across the nation free access to discuss best practices, announce job 
openings, and publicize trainings and conferences. The grantee will 
also develop a 12-month end-of-life nursing training program that will 
be disseminated broadly to employers and community colleges for 
replication. The grantee anticipates serving 60 interns and 
approximately 30 preceptors affecting the quality of care of over 
17,000 patients from its 212 hospice partners.
    Grant Recipient and Location: Florida International University 
School of Nursing/Florida
    Partner(s) and Location(s): Florida International University School 
of Nursing; Hospital Corporation of America/FL, TX
    Funding Amount: $1,421,639
    Purpose of the Award: This innovative demonstration is designed to 
train 100 baccalaureate-prepared nurses from a pool of foreign educated 
physicians who are currently unemployed or underemployed, offering a 
new model for addressing the critical shortage of nurses in this 
country. As part of the demonstration, the grantee will pilot test a 
synchronous distance education component utilizing interactive 
television, offering an opportunity and method of replication for other 
areas of the country.
    Grant Recipient and Location: Hospital Corporation of America 
(HCA)/Tennessee
    Partner(s) and Location(s): Broward County Community College; Dade 
County Community College; Palm Beach County Community College/FL, TX
    Funding Amount: $4,000,000
    Purpose of the Award: Under this demonstration, the grantee will 
address the lack of experienced nurses and set standards that can be 
replicated across the country by creating a distance learning model and 
a fellowship program that will create an intensive, hands-on, 
accelerated learning setting similar to a medical residency. The 
grantee anticipates that 100 students will enroll in the critical care 
core program during the first year of the grant. During the second year 
of the grant, these 100 students will specialize in either critical 
care specialties or emergency department specialty and an additional 
100 students will enroll in the critical care core. In addition to this 
training, the grantee anticipates that at least 30 students annually 
will receive sponsored scholarships. This demonstration will also allow 
for the develop a competency based Basic Arrhythmia challenge 
examination for experienced nurses as well as various forms of blended 
e-learning curriculum modules for additional topics in the critical 
care core curriculum. The project is designed to enhance the basic 
critical care core on-line curriculum with e-learning course content 
and didactic and laboratory activities. The model will develop critical 
care clinic courses for new nursing graduates and experienced med-surg 
and telemetry nurses and includes a teaching manual that provides 
course outlines, course syllabi, and clinical assessment instruments.
    Grant Recipient and Location: States of Georgia, Colorado, Texas, 
and Florida
    Partner(s) and Location(s): WIBs in all local areas, HCA, Inc.; 
community colleges in local sites
    Funding Amount: $4,541,205
    Purpose of the Award: Grantee will demonstrate a program designed 
to assist workers dislocated since 9/11 by providing training 
scholarships for employment in high-growth nursing careers, LPN, 
radiology technologists, surgical technicians and certified nursing 
assistants. Over 875 individuals along the healthcare career ladder 
will receive scholarships.
    Grant Recipient and Location: Johns Hopkins Health System/Maryland
    Partner(s) and Location(s): Baltimore City WIB; Baltimore City 
Community College, Community College of Baltimore County (CCBC)/MD
    Funding Amount: $3,000,000
    Purpose of the Award: In this demonstration, the grantee will 
develop and execute an Incumbent Worker Career Acceleration Program, 
including five components: (1) an initiative for addressing retention 
and growth of at-risk workers; (2) a GED and diploma preparation 
program; (3) an initiative for retraining of employees in declining 
jobs for emerging jobs; (4) a high-potential worker assessment and 
skills training program; and (5) an initiative to upgrade training of 
incumbent workers into critical skills shortage positions. The grantee 
anticipated that they will have an 80 percent retention rate for 100-
150 employees participating in the Retention and Growth of At-Risk 
Workers Initiative as well as a 70 percent retention rate among 50 
incumbent workers receiving a GED or diploma through the initiative; 
they expect that at least 25 of these individuals will go on to further 
skills training and higher-skilled positions. They anticipate that 75 
participants to receive skills assessment, career counseling, and 
skills-based training and that 200 incumbent workers will receive 
assessment and training leading to the staffing of more critical 
skilled positions.
    Grant Recipient and Location: Management & Training Corporation/
Utah
    Partner(s) and Location(s): In Illinois: City Colleges of Chicago; 
the Metropolitan Chicago Healthcare Council; in Ohio: Cincinnati State 
Technical and Community College and Sinclair Community College; In 
Pennsylvania: Luzerne County Community College and Lehigh/Carbon County 
Community College. Also, the Paul Simon Chicago Job Corps Center, the 
Cincinnati Job Corps Center, the Dayton Job Corps Center, and the 
Keystone Job Corps Center in Drums, Pa./IL, OH, PA
    Funding Amount: $1,500,000
    Purpose of the Award: The focus of the grant is to unite the 
efforts of Job Corps Centers with community colleges to address the 
health care workforce challenges in Illinois, Ohio, and Pennsylvania. 
This demonstration is expected to train 210 youth over a 2-year period 
span at three different Job Corps Centers. The grantee is expected to 
measure retention and completion rates, percent of students who 
complete training in the project and become employed in the healthcare 
industry (job-training match), average wage of students employed, long-
term attachment to the workforce, and promotions or lateral moves in 
the healthcare fields. As part of their activities, the grantee will 
develop outreach materials that are designed to attract low income, out 
of school youth between the ages of 16-24 targeting out-of-school youth 
and Hispanic worker populations.
    Grant Recipient and Location: Maryland Department of Labor, 
Licensing, and Regulation and Governor's Workforce Investment Board/
Maryland
    Partner(s) and Location(s): WIB is the grantee; a MOU will be 
developed among the community college system, the university system and 
the health care industry/MD
    Funding Amount: $1,500,000
    Purpose of the Award: This demonstration is designed to address the 
faculty capacity problem by implementing a scholarship program for 
nurses who pursue credentials to teach nursing and allied healthcare 
professions. The grantee anticipates offering forty $10,000 
scholarships to nurses selected to obtain teaching credentials in 
healthcare. In addition, the grantee will offer forty $10,000 
scholarships will be provided to incumbent healthcare workers seeking 
to become Registered Nurses to replace those who have left to teach 
nursing. This model is designed to demonstrate partnerships that help 
backfill RN positions by implementing a scholarship program for 
Licensed Practical Nurses (LPNs) and other incumbent workers that are 
seeking their Registered Nurse (RN) credentials.
    Grant Recipient and Location: North Carolina Department of Commerce 
Commission on Workforce Development/North Carolina
    Partner(s) and Location(s): North Carolina WIBs; North Carolina 
Community College System; NC Hospital Association; University of North 
Carolina System; NC Department of Health and Human Services; NC Area 
Health Education Centers/NC
    Funding Amount: $1,500,000
    Purpose of the Award: This demonstration is designed to address 
North Carolina's critical nursing and direct care worker shortages by 
targeting the State's pool of dislocated workers. The grantee 
anticipated training up to 450 displaced workers to enroll in Human 
Resource Development Plus pilot sites, 300 workers are expected to 
enroll in additional training with 200 placed in jobs including 120 as 
direct care workers. In this model, H.E.A.L.T.H. will work to enhance 
health career development and employability of dislocated workers and 
provide the needed support for an education and training institution 
for nursing. In addition, the grantee is building capacity to meet 
future training needs by training teachers and mentors, including 
adding MSN faculty with Master's Degrees in the Community College 
System, to meet on-going demand for healthcare workers.
    Grant Recipient and Location: Paraprofessional Healthcare 
Institute/New York
    Partner(s) and Location(s): Workforce Investment Board of Lancaster 
County, Pennsylvania; community colleges; Lehman College of New York; 
North Carolina Foundation for Advanced Health Programs/NY, PA, NC
    Funding Amount: $999,902
    Purpose of the Award: The grantee will provide a range of technical 
assistance, training initiatives, and materials for the long-term care 
workforce. Emphasis will be placed on assisting Hispanic caregivers and 
supporting the nation's Workforce Investment Boards and community 
colleges in recruiting and training. As part of their activities, the 
grantee will create a coaching approach to supervision model for front-
line supervisor with a curriculum designed specifically for employer-
based community colleges and demonstrate the ``Four Ps'' problem 
solving training curriculum in partnership with Workforce Investment 
Board of Lancaster, PA. As part of this demonstration, the grantee will 
develop an apprenticeship career-lattice model based on work with home 
care agencies employing Hispanic and African-American workers as home 
health aides. To allow for replication of the model, the grantee will 
author a full series of guidebooks, curricula and teaching manuals-
written in both Spanish and English-on a range of effective 
paraprofessional workforce development practices targeted to the home 
care workforce.
    Grant Recipient and Location: Pueblo Community College/Colorado
    Partner(s) and Location(s): Pueblo Work Link (One-Stop Career 
Center); Pueblo Community College; Trinidad State Junior College; 
Colorado Community College System; Parkview Episcopal Medical Center/CO
    Funding Amount: $715,402
    Purpose of the Award: This demonstration is designed to bring 
healthcare training opportunities to outlying areas, and help volunteer 
medical personnel secure paid employment. As part of the grantee's 
activities they will create a multi-disciplinary curriculum based on 
competency models that is facilitated by Distance Learning modalities. 
As a result of their activities, the grantee expects to increase by 50 
percent the efficiency of preparing under-represented minorities to 
take advantage of health career opportunities by developing a 
partnership between Pueblo Community College and Pueblo Work Link. The 
grantee expects that by the end of the grant, the project will increase 
the number of minority/disadvantaged EMT-I/Respiratory Care training 
enrollees by 35 percent at Trinidad State Jr. College and 20 percent at 
Pueblo Community College.
    Grant Recipient and Location: Rio Grande Valley Allied Health 
Training Alliance/Texas
    Partner(s) and Location(s): Cameron County Workforce Development 
Board; Lower Rio Grande Valley Workforce Development Board; South Texas 
Community College; Texas State Technical College; Tech Prep of the Rio 
Grande Valley; Mission Hospital Harlingen Medical Center; Starr County 
Hospital; Brownsville Medical Center; Dolly V infant Memorial Hospital; 
Knapp Medical Center; Rio Grande Regional Hospital; South Texas Health 
System; Valley Interfaith; Valley Initiative for Development and 
Advancement/TX
    Funding Amount: $4,000,000
    Purpose of the Award: It is expected as part of this demonstration 
that the grantee will assist area businesses and community leaders to 
develop, attract, and retain local talent by enrolling candidates, 
retaining them through tuition assistance, and developing a High School 
Concurrent Enrollment program and comprehensive Faculty Sharing Program 
while drawing from Alliance hospitals' supply of Masters of Science in 
Nursing. The grantee estimates that 135 participants enrolled in Post 
Licensure Specialties with a completion rate of 95 percent; 70 students 
annually prepared in academies; 90 high school juniors and seniors have 
the annual opportunity to take college classes; 360 participants 
receive comprehensive case management with 90 percent student retention 
rates. In this model demonstration, online coursework will be used as 
part of the Faculty Sharing Program for one allied health specialty and 
400 students' clinical rotations coordinated via on-line, regional 
scheduling.
    Grant Recipient and Location: State of Oregon/Oregon
    Funding Amount: $300,000
    Purpose of the Award: This demonstration model will support the use 
of innovative technology to increase the capacity to train students for 
the health care industry by helping to purchase seven SimMan, real-
time interactive human patient simulators. The simulation technology 
will be integrated into health care curricula for use by well-prepared 
and networked faculty, available over the State's broadband Internet 
network, and affordable for all education and service groups in the 
State, increasing the capacity of the State to meet training needs for 
the industry. At least 90 instructors will receive training in using 
the patient simulators and will provide simulator-based training to at 
least 225 students.
    Grant Recipient and Location: Tacoma/Pierce County Workforce 
Development Council/Washington
    Partner(s) and Location(s): Bates Technical College; Clover Park 
Technical College; Tacoma Community College/WA
    Funding Amount: $762,659
    Purpose of the Award: This demonstration is designed to improve and 
expand the pool of qualified professionals in high-demand health care 
jobs by training invasive cardiovascular technologists, creating a 
Comprehensive Career Coaching Program, establishing connections through 
a Healthcare Educator Network, and reaching out to minorities and 
youth. The grantee anticipates that 10 participants will complete the 
Health Unit Coordinator Pre-Apprenticeship Program and 50 healthcare 
workers will have access to the Comprehensive Career Coaching Program 
to access and complete high demand healthcare training programs. As 
part of the demonstration, the grantee will enroll 8 students in the 
Medical Rotation Program, implement a Health Summer Camp for 15 youths, 
and enter 15 students per year into a 2-year distance learning program. 
This grant will increase minority youth participation in job shadow and 
volunteer programs by 10 percent.
    Grant Recipient and Location: Healthcare Workforce Network/
Wisconsin
    Partner(s) and Location(s): Northwest Wisconsin Workforce 
Investment Board, Ashland; Burnett Medical Center, Grantsburg; Flambeau 
Hospital, Park Falls; Memorial Health Center, Medford; Memorial Medical 
Center, Ashland/WI
    Funding Amount: $215,600
    Purpose of the Award: This project will demonstrate the use of 
disance learning to train healthcare workers in rural areas and 
establish ongoing, collaborative relationships among rural health care 
providers and the One-Stop Career Center system. The grantee will pool 
financial, material, and human resources of small, remote hospitals and 
clinics for the purposes of increasing the supply and retention of 
health care professionals, and develop distance learning materials, 
including web-absed trainnig modules and satellite broadcasts. At least 
300 incumbent workers will successfully complete at least one skills-
upgrade module. The project will also increase the local pool of 
interested healthcare workers by 25 percent.
    Grant Recipient and Location: The 1199 SEIU League Grant 
Corporation on behalf of the League 1199 SEIU Training and Upgrading 
Fund/New York
    Partner(s) and Location(s): NYC Department of Education; the 
Consortium for Worker Education/NY
    Funding Amount: $192,500
    Purpose of the Award: As part of this demonstration the grantee 
expects to expand the Contextualized Literacy Pre-LPN Program, which 
combines literacy and job training in preparation for LPN programs. 
This pre-LPN program has been designed for low-level health-care 
workers who have been out of school for a long period of time and have 
had difficulty passing entrance exams. The grantee expects to implement 
10 pre-LPN classes of 25 students each (250 students) who will enroll 
in a 35-week contextualized course of study that will prepare them to 
pass the C-NET exam and lead to enrollment in an accredited LPN 
program. It is expected that 90 percent of the 250 workers pass the C-
NET test and enroll in an LPN program, supporting meeting this critical 
workforce shortate. As part of the demonstration, the grantee will 
develop an easily replicable demonstration model of contextualized 
literacy for similar programs within the adult education and health 
care industries, allowing for replicaiton throught the workforce system 
in partnership with health care employers across the nation.
    Grant Recipient and Location: The Evangelical Lutheran Good 
Samaritan Society/South Dakota
    Partner(s) and Location(s): In South Dakota: Lake Area Technical 
Institute, Watertown; Sioux Valley Hospitals and Health System; 
University of South Dakota; South Dakota State University, Brookings; 
in Nebraska: Bellevue University, Bellevue; pullUin software/South 
Dakota Health Technology Innovations Inc./MN, SD, ND
    Funding Amount: $1,877,517
    Purpose of the Award: In an effort to increase the pool of 
qualified workers, this demonstration is designed to raise public 
awareness of health care career opportunities by recruiting from high 
schools and non-traditional labor pools such as displaced workers. As 
part of the project, the grantee will produce a video/CD entitled 
``It's Happening in Healthcare!'' that will be distributed to schools, 
the workforce investment system and other entities to promote 
healthcare careers with a specialized target of nontraditional workers. 
The grantee will also develop an online ``virtual caregiver'' that will 
provide a realistic view of career options in this field. The 
demonstration also is designed to increase healthcare worker retention 
by starting a mentor project to support entry-level workers and 
providing various support services. Finally, the grant will develop and 
pilot methods for providing supervisory and management training by 
delivering nursing programs through the Master's degree level, both 
online and through local community colleges. At least 110 participants 
will receive training under this grant.
    Grant Recipient and Location: Delaware Valley Industrial Resource 
Center/Pennsylvania
    Partner(s) and Location(s): Local WIBS; Delaware County Community 
College; Drexel University; Local Manufacturing Companies: AGF 
Manufacturing Co.; Kingsbury, Inc.; Philadelphia Coca Cola Bottling; 
PA's Industrial Resource Network/PA
    Funding Amount: $3,000,000
    Purpose of the Award: This pilot project is designed as a model for 
helping the advanced manufacturing sector develop and recruit students 
for new technical education programs that will produce a steady and 
predictable supply of skilled and educated individuals for key 
technology-intensive industries. This project will train over 500 
workers, serve over 300 companies and will establish a Regional 
Industrial Leadership Coalition to provide public policy leadership and 
outreach to better serve the manufacturing community. The goal of the 
grantee is to produce an annual pipeline that contains 1,000 skilled 
and educated individuals to support the region's advanced technology 
and manufacturing businesses over 3-5 years and to train 95 incumbent 
workers and 455 entry-level workers (100 percent placement) over the 2-
year course of the grant.
    Grant Recipient and Location: Greater Peninsula Workforce 
Investment Board/Virginia
    Partner(s) and Location(s): Greater PA WIB; Thomas Nelson Community 
College; Northrop Grumman Newport News (NGNN); PA's regional Advanced 
Manufacturing Consortium; Consortium of Seven Cities and Counties; the 
PA Alliance for Economic Development; Pennsylvania Worklink; Virginia 
Employment Commission/VA
    Funding Amount: $1,965,000
    Purpose of the Award: This demonstration will will implement a 10-
part program that will deliver a highly skilled workforce for a 
growing, high-performance manufacturing sector. The grantee estimates 
they will train over 5,000 workers for advanced manufacturing jobs 
covering a variety of industries in Southeast Virginia. The services 
are targeted to youth, incumbent workers, and career-transitioning 
individuals. As part of their activities, the grantee will develop or 
adapt education and training curricula to produce required skill sets 
for new, transitional, and incumbent workers. The grantee will offer 
opportunities for work-based experience will be developed as well. 
Instructors will have the option of expanding their skills through 
externships and a regional Advanced Manufacturing Instructor Training 
Institute. As part of the demonstration, the grantee will create 
detailed task analyses and training curriculum for more than 30 
advanced manufacturing jobs and train 30 community college personnel to 
replicate the program and deliver curriculum content statewide. To 
support the recruitment of prospective employees, the grantee will 
develop realistic job action videos on locally-available jobs for 
posting on One-Stop Career Center computers and available.
    Grant Recipient and Location: Illinois State University/NCIST/
Illinois
    Partner(s) and Location(s): Local WIBS; local community colleges; 
local/regional manufacturers and representatives from NAM/CWS local 
affiliate groups/IL, OH, PA, TX, WY, NC
    Funding Amount: $5,774,420
    Purpose of the Award: The grantee will pilot a program curriculum 
to create an associate's degree in integrated systems technology, 
enhance the highly successful apprenticeship model, develop career 
awareness materials, and create a comprehensive career ladder and 
lattice standardizing the career competencies. This pilot will then be 
replicated in four additional States through the creation of regional 
centers of excellence to train more workers, new and incumbent, for 
careers in the advanced manufacturing sector. Approximately 420 workers 
will receive training under this demonstration grant.
    Grant Recipient and Location: Lancaster County Workforce Investment 
Board/Pennsylvania
    Partner(s) and Location(s): Lancaster County WIB; Stevens College 
of Technology; Viking Cabinetry Group; Lancaster County Career and 
Technology Center/PA
    Funding Amount: $1,354,585
    Purpose of the Award: This demonstration is designed to addresses 
the issue of narrowing skill gaps in manufacturing through incumbent 
training. The Lumber & Wood Consortium, the Food Manufacturing 
Consortium, the Plastics Consortium, and the Powdered Metals Consortium 
want to develop curriculum and provide incumbent training. The grantee 
anticipates conducting 70 train-the-trainer sessions and placing 105-
170 incumbent workers into training.
    Grant Recipient and Location: Lower Rio Grande Workforce 
Development Board/Texas
    Partner(s) and Location(s): Local WIBS; Texas State Technical 
College; Texas Southmost College; South Texas Community College; Texas 
Manufacturing Association (STMA); Brownsville Area Manufactures 
Association; Harlingen Manufacturers Association; McAllen Economic 
Development Corporation; McAllen Independent School District; Valley 
Initiative for Development and Advancement/TX
    Funding Amount: $2,000,000
    Purpose of the Award: This demonstration project will develop a 
curriculum and a 5-year Apprenticeship Strategic Plan with multiple 
programs for tool and die, industrial maintenance, and plastic process 
technicians. As part of their activities, the grantee expects to train 
225 youth in advanced manufacturing trade skills; train 200 adults 
through the Skill Enhancement, Pre-Apprenticeship and Post Secondary 
Dual Credit Programs; train 213 adult apprentices over 2 years; and 
attain Journeyman Certification for 20 adult apprentices. The 
partnership will attain credentialing from NIMS for apprenticeship 
trainers. It will also develop program study guides and curriculum for 
Industrial Maintenance, Tool and Die and the Youth Apprenticeship 
Career Pathway.
    Grant Recipient and Location: National Association of 
Manufacturers/Washington, D.C.
    Partner(s) and Location(s): Undetermined/MO, TX and four other 
States
    Funding Amount: $498,520
    Purpose of the Award: The grantee will pilot launch the national 
``Dream It, Do It'' Career Campaign in Kansas City, Missouri, to 
increase career awareness for young people exposing them to high wage 
job opportunities in the manufacturing industry. The program will then 
be replicated throughout the county.
    Grant Recipient and Location: National Center for Integrated 
Systems Technology (IL)/Illinois
    Partner(s) and Location(s): Local WIBs in each of the 8 OH and IL 
sites; IL: Elgin, Moraine Valley, Richard J. Daley, Rock Valley; OH: 
Cuyahoga, North Central State, Owens, Sinclair; Caterpillar, Amatol, 
local manufacturers/IL
    Funding Amount: $9,142,496
    Purpose of the Award: In this demonstration, the grantee will 
provide advanced manufacturing training in integrated systems 
technology for dislocated workers in 8 community colleges in Ohio & 
Illinois. The grantee anticipates training 288 dislocated workers in 
each State and placing 80 percent in full-time employment within six 
weeks of completion of training.
    Grant Recipient and Location: National Institute for Metalworking 
Skills (NIMS)--2/Virginia
    Partner(s) and Location(s): 25 pilot companies/national
    Funding Amount: $939,815
    Purpose of the Award: As part of this pilot project the grantee 
will develop flexible yet structured training delivered ``just-in-
time'' on the shop floor. Separate training models will be developed 
for, and piloted with, five targeted sub-sectors, including: machine 
tool builders, tool shops, contract stamping and mold making companies, 
Computer Numerical Control (CNC) job shops, and CNC high volume 
machining companies. The grantee anticipates piloting the project by 
training new and incumbent workers at 25 companies.
    Grant Recipient and Location: Nebraska Central Community College/
Nebraska
    Partner(s) and Location(s): Six State community colleges; three 
Colleges/Universities; 10 core businesses and industry affiliates; 10 
High Schools; Nebraska DOL; NE Department of Economic Development; 
Bureau of Apprenticeship and the NE Department of Education/NE
    Funding Amount: $1,639,403
    Purpose of the Award: The demonstration will train 834 individuals 
with industrial training for high skill, high wage manufacturing jobs. 
The pilot will develop curriculum and competencies for mechatronics 
technicians and will include manufacturing seminars for 145 high school 
and college instructors annually. This curriculum will also be made 
available to community and technical colleges across the country to 
increase the number of workers trained as mechatronics technicians.
    Grant Recipient and Location: Oregon Manufacturing Extension 
Partnership (MEP)/Oregon
    Partner(s) and Location(s): The Northwest Food Processors 
Association; Oregon, Idaho, and Washington MEPs, not-for-profit teams 
of manufacturing professionals who help small-to-medium-sized 
manufacturers transform the way they do business/OR, WA, NV, ID
    Funding Amount: $3,199,709
    Purpose of the Award: This pilot is designed to implement lean 
manufacturing training comprised of classroom and workplace-based 
activities during work hours, with a strong ``English as a Second 
Language'' (ESL) component. The grantee expects to train at least 2,026 
workers at 48 companies in Oregon, Washington, Idaho, and Nevada. This 
model for implementing training for ESL students in a Lean environment 
will be promoted to the public workforce system as an effective model 
to pair ESL with high-growth jobs in the manufacturing sector.
    Grant Recipient and Location: San Bernardino Community College 
District/California
    Partner(s) and Location(s): WIBs; Business Alliance Partnerships; 
Regional Occupational Centers and Programs (ROOP, NACFAM, SMI, SMAC, 
OCBC, RCMIC, and IVMA); Manufacturing Skills Standards Council; and 
Centers for Applied Competitive Technologies (CACTs)/California
    Funding Amount: $1,618,334
    Purpose of the Award: This demonstration will assess and train new 
and incumbent workers to MSSC skill standards, a nationwide industry-
based skill standard, with assessment and certification system for all 
sectors of manufacturing. Workers' skills will be documented and 
individuals certified for hire and promotion, allowing for new job 
opportunities and/or further training and education. Revised education 
and training for advanced manufacturing will also be incorporated into 
technical programs at high schools, WIBs, and community colleges 
throughout Southern California. The grantee expects to train 180 
currently employed lower skill workers wishing to advance to a 
competency level of manufacturing certified by MSSC assessment. In 
addition, the grantee expects 80 job requisitions will be created and 
100 clients identified who wish to pursue manufacturing careers at a 
certified skill level. To support efforts to reach under-served 
populations, the grantee will develop brochures, literature and CDs 
describing, in English and Spanish, the new jobs and career ladders in 
manufacturing. The grantee will also develop brochures, literature and 
CDs describing the value of manufacturing careers and the process and 
qualifications needed to obtain certification.
    Grant Recipient and Location: St. Louis WIB/Missouri
    Partner(s) and Location(s): St. Louis City WIB; St. Louis Community 
College; Ford Motor Company; Daimler Chrysler Corporation; General 
Motors Corporation; UAW International--Region 5/MO
    Funding Amount: $1,499,998
    Purpose of the Award: As part of this demonstration, automotive 
manufacturing workers will receive state-of-the-art training in: (1) 
integration of automated systems; (2) predictive maintenance for 
advanced manufacturing systems; (3) enhanced mechanical technology; and 
(4) enhanced electrical technology. This training will allow St. Louis 
area auto manufacturers to remain globally competitive while giving 
employees portable skills and job advancement opportunities. The 
grantee expects to train 430 workers.
    Grant Recipient and Location: The Workplace, Inc./Connecticut
    Partner(s) and Location(s): Connecticut WIB; Hurosatonic and 
Norwalk Community Colleges; ASML; Westport Precision; Jurman Metricas; 
Nerjan Development Co.; Nordex, Raym-Co.; Hurosatonic; State of CT 
Department of Education; State of CT Dept. of Economic and Community 
Development (DECD); The CT Employment and Training Commission (CETC)/CT
    Funding Amount: $2,000,000
    Purpose of the Award: This demonstration is designed to addresses 
the training needs of small and medium-sized manufacturers of new and 
incumbent workers (mainly engineers and technicians) in the areas of 
innovation, soft skills and ESL. At a minimum, the grantee anticipates 
assessing and enrolling over 500 workers over the 3 year life of the 
grant. At least 75 percent of those enrolled will complete one or more 
training courses that will result in technical certification and a 
minimum of 90 percent of course completers will acquire technical 
skills that can advance them on a career ladder.
    Grant Recipient and Location: Brevard Community College in 
partnership with American Technical Education Association/Florida
    Partner(s) and Location(s): The Brevard Workforce Development 
Board; National Science Foundation's SpaceTEC, a national center for 
aerospace technical education; the Florida Space Authority; Florida 
Space Institute; and the U.S. Air Force 45th Space Wing/FL
    Funding Amount: $98,560
    Purpose of the Award: The grantee will provide students the 
opportunity to assist in the operation of launch facilities and conduct 
six sub-orbital launches at Cape Canaveral Air Force Station, to 
demonstrate the usefulness of hands-on learning opportunities for 
students in developing technical aerospace skills and improving 
awareness of the skills required for aerospace careers.
    Grant Recipient and Location: Edmonds Community College/Washington
    Partner(s) and Location(s): Snohomish Workforce Development 
Council; Everett Community College; Manufacturing Industries; Boeing; 
Boeing Aerospace Suppliers; the Snohomish County Workforce Development 
Council; the Snohomish County Economic Development Council/WA
    Funding Amount: $1,475,045
    Purpose of the Award: The grantee will train new and incumbent 
workers in a pilot implementation of advanced aerospace technician 
curriculum, develop career ladders, and demonstrate distance learning 
approaches to train workers for aerospace industry. The curriculum 
developed will be broadly disseminated for use by community and 
technical colleges resulting in an increased number of training 
workers, meeting the workforce demands of the aerospace industry.
    Grant Recipient and Location: Florida Space Research Institute/
Florida
    Partner(s) and Location(s): Workforce Florida; NASA; the Civil Air 
Patrol; Florida School Districts/FL
    Funding Amount: $355,628
    Purpose of the Award: The grantee will demonstrate the benefits to 
providing aerospace-industry training to school teachers as a means of 
improving aerospace career knowledge and awareness among youth. 
Specifically, aerospace mentors will work with 25 teachers in seven 
counties and provide externships for technology teachers to increase 
their industry knowledge and their ability to apply the learning's in 
the classroom. Approximately 5,000 students will be exposed to the 
Aerospace industry as a viable career path.
    Grant Recipient and Location: The Houston-Galveston Area Council 
for the Gulf Coast Workforce Board/Texas
    Partner(s) and Location(s): Gulf Coast Workforce Board and area 
One-Stop Career Centers; San Jacinto College; Aerospace Academy; 23 
area aerospace employers including NASA Johnson Space Center/TX
    Funding Amount: $1,000,000
    Purpose of the Award: This demonstration is designed to address the 
issue of narrowing skill gaps in high-tech manufacturing. This project 
includes piloting a training program in which people will be trained in 
high-tech automotive manufacturing and/or construction and building 
trades in addition to other training/curriculum that will be developed. 
The grantee expects to train an estimated 625 individuals in either 
aerospace (advanced IT) areas or advanced manufacturing. Nearly all 
will be incumbent workers. It is extimated that 90 percent of the 
enrollees will complete training and 90 percent of completers will 
receive a 3-5 percent wage increase. In addition, 90 percent of 
unemployed workers will receive job placements and 5 percent will 
receive a promotion.
    Grant Recipient and Location: Automotive Retailing Today (ART)/
Virginia
    Partner(s) and Location(s): The National Automobile Dealership 
Association; National Automotive Technicians Education Foundation; 
other industry and business stakeholders; Automotive Youth Educational 
Systems/national
    Funding Amount: $150,000
    Purpose of the Award: As part of this research project, ART and its 
partners will gather, validate, and deliver information and data about 
career opportunities in the automotive industry to career-related 
websites and portals and to workforce development professionals. This 
information will help promote the industry by describing viable and 
exciting career opportunities, connecting job seekers to training 
opportunities and job openings in the field, and dispelling negative 
presumptions that the general public may have about the industry. This 
information will be made available to the public workforce system to 
support their efforts of meeting the needs of local dealers across the 
country by educating job seekers on career opportunities in the 
automotive service sector.
    Grant Recipient and Location: Automotive Youth Education Services/
Michigan
    Partner(s) and Location(s): Members of AYES' Board, including 
General Motors, DaimlerChrysler, Toyota, Volkswagen, Mercedes, Honda, 
BMW, Audi, Subaru, Nissan, Mitsubishi, Hundai, and Kia Motors; Snap-On 
Tools; SkillsUSA; the National Automotive Technicians Education 
Foundation (NATEF); the National Institute for Automotive Service 
Excellence (ASE); Hudson Institute's Center for Economic 
Competitiveness/national
    Funding Amount: $600,000
    Purpose of the Award: The grantee will demonstrate the expansion of 
a national automotive technician certification program through the use 
of on-line testing, which is linked to professional ASE certifications, 
in high schools. The grantee will also pilot the development of 
registered apprenticeship standards that can be applied across the 
nation in programs targeting high school students entering employment 
in the automotive service sector. The pilot project is expected to test 
5,000 students for the credential, offering an industry-based 
credential to enter employment in the automotive service sector.
    Grant Recipient and Location: Eastfield College/Texas
    Partner(s) and Location(s): Workforce Investment Boards in Dallas, 
Fort Worth & East Texas; Tarrant County College of Fort Worth, TX; 
Toyota Motor Sales USA; Gulf States Toyota; 20 area Toyota and Lexus 
Dealers; Automotive Technology Advisory Committee/TX
    Funding Amount: $837,424
    Purpose of the Award: The grantee will demonstrate methods for 
providing automotive services training to untapped labor pools by 
offering training to individuals, including support services, 
internship experiences, and an English as a Second Language component. 
The demonstration project is expected to train 100 workers to enter 
employment in the automotive service sector.
    Grant Recipient and Location: Gateway Technical College/Wisconsin
    Partner(s) and Location(s): Gateway (a community college); Snap-On 
Tools, Inc.; WI Automobile and Truck Dealers Association (WATDA); 
Melior Institute; National Coalition of Advanced Technology Centers 
(NCATC); Community-based organizations; Automotive Youth Educational 
Systems; the Workforce System/WI
    Funding Amount: $900,000
    Purpose of the Award: The grantee will demonstrate the use of 
blended training delivery systems, including the use of on-line 
features, to provide training toward industry-driven certifications, as 
awarded by the National Automotive Technicians Education Foundation 
(NATEF). The grantee expects to train over 1,500 instructors for ASE 
certification, increasing the capacity of community colleges and career 
and technical education institutions to train more students to industry 
standards for employment in the automotive service sector.
    Grant Recipient and Location: Girl Scouts of the USA/New York
    Partner(s) and Location(s): Automotive Insurance Companies; 
Dealerships; Associations including the Greater NY Automotive 
Dealership Association; Private Auto Repair Operations; Driving 
Schools; Girl Scout Local Councils; AAA Offices; High School Drivers' 
Education Departments/national
    Funding Amount: $200,000
    Purpose of the Award: The grantee will demonstrate methods for 
reaching out to untapped labor pools (such as young women) to consider 
careers in non-traditional occupations, such as automotive services, by 
developing and distributing information geared toward young girls, 
educating them about automotive services as a career option and 
building their skills in car repair and maintenance. Girls will be 
placed in experiential learning programs such as an internship at a 
dealership or a tour of a training facility. This project is designed 
to expand the number of youth overall considering careers in automotive 
services, and particularly young women.
    Grant Recipient and Location: National Institute for Automotive 
Service Excellence/Virginia
    Partner(s) and Location(s): One-Stops; ACT, Inc.; The National 
Automobile Dealership Association; other industry and business 
stakeholders; National Automotive Technicians Education Foundation 
(NATEF); National Automobile Dealers Association/DC
    Funding Amount: $300,000
    Purpose of the Award: The grantee will demonstrate new methods for 
training Spanish-speaking automotive service technicians by translating 
some of the most in-demand certification exams into Spanish and by 
having these exams administered throughout the country. Translation of 
these exams will allow for limited-English technicians to be industry 
certified and to enter in and move up the career ladder offering 
opportunity for greater wage gains in the automotive service sector. 
The grantee expects approximately 2,000 more Spanish-speaking 
technicians will take the test than took it in previous years.
    Grant Recipient and Location: Pennsylvania Automotive Association/
Pennsylvania
    Partner(s) and Location(s): Harrisburg Area Community College; 
Harrisburg Career and Technology Academy; Snap-On Tools, Inc.;the PA 
Workforce System; Automotive Youth Educational Systems (AYES)/PA
    Funding Amount: $95,000
    Purpose of the Award: This small grant will demonstrate a model for 
improving the capacity of local training institutions to provide 
industry-certified training in automotive services, as a means of 
increasing the industries ability to train a diverse workforce. To test 
this model, the grantee will develop a work-training opportunity, or 
on-the-job mentor/intern program, that strengthens business connections 
and provides career opportunities to five students facing social and 
economic barriers. This model will be made available to the public 
workforce system to partner with State dealer associations across the 
country to replicate, offering new career opportunities to underserved 
urban students.
    Grant Recipient and Location: Shoreline Community College/
Washington
    Partner(s) and Location(s): Workforce Development Council of 
Seattle, and WorkSource-North Seattle; Toyota Motor Sales USA; General 
Motors Corporation; Daimler/Chrysler; American Honda; Puget Sound Auto 
Dealers Association; Hunter Engineering; Chevron Oil Company; 
Wagonmaster Corporation; Overall Laundry/WA
    Funding Amount: $1,496,680
    Purpose of the Award: The grantee will demonstrate the use of 
curriculum based on a new set of industry-driven competency 
requirements by training hard to serve individuals for careers in the 
automotive service sector. The grant is targeted to train 50 out of 
school youth and dislocated workers. The curriculum developed will be 
broadly disseminated for use by community and technical colleges and 
high schools across the country to train more workers in the automotive 
service industry.
    Grant Recipient and Location: U.S. Hispanic Chamber of Commerce 
Foundation/Washington, D.C.
    Partner(s) and Location(s): BMW of North America; LLC; Snap-On 
Tools, Inc./CA, FL
    Funding Amount: $136,000
    Purpose of the Award: This project will demonstrate successful 
methods for training Spanish-speaking individuals to become skilled 
automotive technicians while increasing employment opportunities for 
this untapped labor pool. This will be accomplished through the 
recruitment, training, and fostering of career paths for 20 Hispanic-
Latino automotive technicians within Miami, Florida, and Los Angeles, 
California, leading to employment opportunities with dealerships in 
each city.
    Grant Recipient and Location: Delaware Workforce Investment Board/
Delaware
    Partner(s) and Location(s): Delaware WIB (State WIB); Delaware 
Technical and Community College; Agilent Technologies; Delaware 
Department of Education; Delaware Economic Development Office/DE
    Funding Amount: $250,000
    Purpose of the Award: The grantee will demonstrate methods for 
engaging the workforce investment system and biotechnology business 
community in an effort to facilitate collaboration among teachers, 
school districts, the Department of Education, higher education, and 
the business community to improve student achievement in science. One 
key aspect being piloted is the development of mobile science vans that 
experienced instructors and mentors use to visit local schools. The 
objective of the mobile van it to transport science equipment for 
providing laboratory experiences to youth increasing their interest and 
exposure to Science, Technology, Engineering and Mathematics (STEM) 
careers in high growth, high demand industries. The project will train 
30 mentors and is expected to offer 1,500 students hands-on experiences 
with the van.
    Grant Recipient and Location: Forsyth Technical Community College/
North Carolina (Partners: New Hampshire, Washington, Iowa, California)
    Partner(s) and Location(s): Forsyth Tech has a local Job Link One-
Stop Career Center on campus; Forsyth Technical Community College; New 
Hampshire Technical College; Indian Hills Community College; Bellevue 
Community College; Miracosta Community College; Caldwell Community 
College and Technical Institute; Catawba Valley Community College; 
Davidson C; Regional Employers/NH, IA, WA, CA, NC
    Funding Amount: $5,000,000
    Purpose of the Award: The grantees, a group of five community 
colleges, will form Centers of Excellence in five different 
biotechnology sectors. They all come together as a National Center for 
the Biotechnology Workforce, which will: (a) allow workers to learn 
about the competencies and training availability for biotechnology 
careers, and (b) allow community colleges and the workforce investment 
system to access industry skill standards as well as training curricula 
and methods to implement in their location. Under this pilot, each 
college will implement various methods for providing biotechnology 
industry training to workers in this high growth industry. The training 
methods, skills standards, and curriculum developed from this 
demonstration project will be broadly disseminated for use by community 
and technical colleges resulting in an increased number of trained 
workers, meeting the workforce demands of the biotechnology industry.
    Grant Recipient and Location: Massachusetts Biotechnology Education 
Foundation/Massachusetts
    Partner(s) and Location(s): Massachusetts Workforce Board 
Association; Commonwealth Corporation; the Boston Private Industry 
Council (Boston PIC); the Metro Northwest Regional Employment Board; 
the Metro Southwest Regional Employment Board; Massachusetts 
Biotechnology Council; Boston University's School of Medicine; Henzyme; 
other local companies; the University of Massachusetts and the 5-campus 
Statewide system; local school systems in the urban and high-need 
areas/MA
    Funding Amount: $1,372,250
    Purpose of the Award: The grantee will research the early-stage 
(high school) pipeline for biotechnology and health care industries by 
developing and launching a demonstration model of the BioCareer Lab in 
25 urban and high-needs public schools to train and expose students to 
the emerging biotechnology industry. This pilot model is expected to 
train 100 science teachers and 2,000 students. The model will include 
new equipment, ongoing teacher training, a mobile biotech laboratory, 
access to curricula developed with National Science Foundation funds, 
and school to career pathways in partnership with workforce investment 
boards and colleges. This demonstration project will expose more young 
people to careers in the biotechnology sector.
    Grant Recipient and Location: San Diego Workforce Partnership/
California
    Partner(s) and Location(s): San Diego Workforce Partnership is the 
local WIB; Miracosta Community College; BIOCOM/CA
    Funding Amount: $2,510,117
    Purpose of the Award: This demonstration is designed to support the 
workforce system in meeting its growing needs for skilled workers in 
the biotechnology industry. The grantee will create a clearinghouse for 
local and national biotechnology labor market information and to 
coordinate student internships (from high-school to post-doctoral 
levels) and teacher externships for the regional biotechnology 
community. The center will ultimately serve as a national clearinghouse 
for biotechnology industry labor market and occupational information; 
competency and skills requirement information; and training, 
internship, and research opportunities at all levels. As part of the 
grantee's activities, national and local labor market analyses will be 
performed; credit and non-credit classes that are flexible, short-term, 
and that will be recognized by multiple institutions will be developed; 
and local student internships and teacher externships at biotechnology 
companies will be provided.
    Grant Recipient and Location: Associated General Contractors of 
America/Virginia
    Partner(s) and Location(s): Chattanooga State Community College; 
San Antonio (TX) Chapter of AGC, AGC of East Tennessee; International 
Brotherhood of Electrical Workers Local 175; Laborers Local 846 
(Chattanooga, TN); East Ridge High School; East Tennessee State 
University/national
    Funding Amount: $235,500
    Purpose of the Award: The grantee will demonstrate the 
effectiveness of construction career academies by working with its 
partners to sustain existing construction career academies in 
Chattanooga and San Antonio, and to develop additional career academies 
in eight local communities. It is anticipated that the partnership will 
train 400-500 students to enter employment in the construction 
industry. Through the Construction Career Academy initiative, AGC will 
provide local academies with technical assistance in a number of areas, 
such as developing curriculum and forming partnerships between 
businesses and educational institutions. AGC also will provide students 
with materials and equipment and prepare instructors to teach in the 
academies.
    Grant Recipient and Location: Chicago Women in Trades/Illinois
    Partner(s) and Location(s): The Workforce Boards of Metropolitan 
Chicago; Illinois Community College Board; City Colleges of Chicago; 
The Builders Association; Construction Industry Service Corporation; 
Hispanic American Construction Industry Association; Mechanical 
Contractors Association of Chicago; Federation of Women Contractors; IL 
Departments of Labor, Employment Security, Transportation, and Commerce 
and Economic Opportunity; Mayor's Office of Workforce Development; 
Chicago Building Trades Council; Illinois Center for Professional 
Support Services/IL
    Funding Amount: $2,092,343
    Purpose of the Award: The grantee expects that nine thousand two 
hundred women (9,200) will gain awareness of career opportunities in 
construction through orientations and career fairs. In addition, the 
grantee expects that seven hundred fifty (750) women will gain 
acceptance into apprenticeship programs offering an average wage of $13 
per hour during the grant period. Of those entering into an 
appricitceship, 80 percent will be retained for a minimum of 90 days.
    As part of this demonstration, CWIT will launch an outreach 
campaign to attract women into the construction industry. This campaign 
will include professional outreach and marketing materials that focus 
on women, as well as orientation sessions and job fairs that focus on 
construction industry careers. CWIT and its partners will help women 
address their barriers to employment through an array of education, 
training, and support services, such as career planning, placement, and 
mentoring by women currently working in the industry. Finally, CWIT and 
its partners will work with One-Stop Career Centers, apprenticeship 
information centers, and community colleges to enhance their capacity 
to serve women.
    Grant Recipient and Location: Honolulu Community College/Hawaii
    Partner(s) and Location(s): Oahu Workforce Investment Board; Kauai 
Community College; Hawaii Department of Education; Eight local high 
schools; Hawaii Carpenters Union Local No. 745; Sheet Metal Workers' 
International Association Local Union No. 293/HI
    Funding Amount: $1,400,000
    Purpose of the Award: In this demonstration, HCC partners will 
creation a Construction Academy for providing 500 high school students 
with an array of construction-specific courses and career opportunities 
in the construction industry. In addition, 300 students will enter 
apprenticeship programs, construction associate degree programs, or 
construction baccalaureate programs. HCC and its partners will also 
develop and demonstrate a standards-based curriculum that articulates 
with construction certificate and degree programs that will be utilized 
by Hawaii's community colleges, increasing the applicant pool for the 
construction trades in the State. The curriculum developed will be 
shared broadly with community and technical colleges across the 
country.
    Grant Recipient and Location: St. Louis Carpenters Joint 
Apprenticeship Training Program (CJAP)/Missouri
    Partner(s) and Location(s): Workforce Investment Board of Southeast 
Missouri; Workforce Investment Board of St. Louis City; Workforce 
Investment Board of St. Louis County; Mineral Area College; St. Louis 
Community College; Jefferson Community College; Southeast Missouri 
Regional Industrial Training Group; Hazelwood and Affton School 
Districts/MO
    Funding Amount: $2,187,107
    Purpose of the Award: As part of this demonstration, CJAP and its 
partners will train and license high school instructors in skill 
standard certifications so that they can teach and certify students in 
advanced manufacturing and construction skills. The grantee expects to 
train 130 entry-level and dislocated workers and 120 incumbent through 
the initiative. As a result of this training, the grantee expects that 
750 youth will be trained to industry standards during the life of the 
grant. In addition, CJAP also will work with employers, community and 
faith-based organizations, and One-Stop Career Centers to identify 
incumbent workers with a strong interest in advancing their 
construction or advanced manufacturing careers and help them enhance 
their academic skills, access support services, and enroll in a 
maintenance mechanic program or other types of training. CJAP and its 
partners will also create an eight-week maintenance technician training 
program for dislocated workers and this curriculum, as well as the 
training model will be made available to community colleges across the 
country for possible replicaiton.
    Grant Recipient and Location: The Home Builders Institute (HBI)/
Washington, D.C.
    Partner(s) and Location(s): York Technical College (SC); community 
and technical colleges in (FL, KY); American Association of Community 
Colleges; Home Builders Association of Kentucky; Florida Home Builders 
Association; Home Builders Association of Charlotte (NC); Building 
Contractors Association of Wood River Valley (ID); Home Builders 
Association of South Carolina; Tidewater Builders Association/national
    Funding Amount: $4,268,454
    Purpose of the Award: The grantee will demonstrate the creation of 
a systemic approach to construction industry workforce development that 
provides a continuum of recruitment, career exploration, education and 
training. The demonstration will increase the available applicant pool 
for the construction industry meeting their workforce shortages by 
training 2,500 individuals for the construction trade in construction 
academies in four States.
    Grant Recipient and Location: Youthbuild USA/Massachusetts
    Partner(s) and Location(s): local home builders associations; 
National Council of Churches; juvenile justice system; Home Depot/
national
    Funding Amount: $12,202,600
    Purpose of the Award: This demonstration is designed to build on 
the success of the Youthbuild USA, model, supporting the transition of 
adjudicated youth into high growth industries. The grantee will 
participate in an established training program that combines academic 
instruction with construction skill development and, ultimately, builds 
affordable housing in their communities. The grantee will develop a 
national demonstration project in which 325 adjudicated youth will 
participate full-time for 9-12 months in a YouthBuild education, job 
training, and service program. Skills training will occur primarily in 
the construction industry through the building of affordable housing or 
community facilities. Graduates will be helped in finding placements in 
post-secondary education or in jobs. The grantee expects that 60 
percent of the 325 enrollees will complete the YouthBuild program; 85 
percent will be placed in employment or post-secondary education; 
Program completers will have a recidivism rate of 15 percent or less; 
34 percent will attain a GED or high school diploma; and 75 percent 
will be self sufficient over a 5-year period. Youthbuild USA includes 
significant support systems, such as mentoring that will continue for 
at least a year after the program; follow-up education, employment, and 
personal counseling services; and participation in community service 
and civic engagement. Youthbuild USA will work with local One-Stop 
Career Centers to place youth in employment upon completion of the 
program.
    Grant Recipient and Location: Institute for GIS Studies (IGISS)/
Tennessee
    Partner(s) and Location(s): Charlotte-Mecklenburg Workforce 
Development Board; Central Piedmont Community College; Nashville State 
Community College; Motlow State Community College; Bank of America; 
Duke Energy; Smart Data Strategies; University of Southern Mississippi/
TN, NC
    Funding Amount: $2,000,000
    Purpose of the Award: IGISS will pilot the development of an 
industry-led, apprenticeship-based career advancement ladder for 
specialty certificates and degrees in land records management and 
utilities-based geospatial technical applications. The pilot is 
expected to train over 500 unemployed and underemployed workers in a 
variety of learning environments such as apprenticeship and associate 
degree programs in 13 different community colleges across Tennessee and 
North Carolina with the goal of increasing the number of workers in the 
emerging geospatial technology sector.
    Grant Recipient and Location: Kidz Online/Virginia
    Partner(s) and Location(s): NAWB; Los Angeles Trade and Technical 
College, North Caronlina State University; ESRI; American Institute of 
Aeronautics and Astronautics; Institute of Electrical and Electronic 
Engineers; Society of Women Engineers; National Council of Teachers of 
Mathematics; National Science Teach Association; Virginia Space Grant 
Consortium; Digital Quest; Environmental and Spatial Technology 
Initiative; National Institute of Technology and Policy Research; North 
Carolina 4-H; Hampton City Public Schools; Council of Great City 
Schools; NEC Found of America/VA, CA
    Funding Amount: $1,000,000
    Purpose of the Award: Kidz Online will pilot the creation of a 
comprehensive youth and adult learner focused image building and career 
awareness effort by utilizing new distance learning methodologies. 
Specifically, grantee will deliver learning resources including video 
programming and live web casts, provide professional development 
services, and integrate geospatial concepts into existing programming 
and ETA's Career Voyages web site. Spanish language translation will be 
done for some content.
    Grant Recipient and Location: Rancho Santiago Community College 
District/California
    Partner(s) and Location(s): Rancho Santiago Community College; St. 
Louis Community College/CA
    Funding Amount: $187,939
    Purpose of the Award: The pilot project will assess local 
geospatial workforce needs and use the findings to develop new and 
innovative curriculum and career ladder workforce development systems 
for a cross-section of industries. The grantee expects to train 20 
community college faculty to teach the newly-developed geospatial 
curriculum as well as to host a training conference to train 75 
teachers from across the country (from schools not directly associated 
with the grant) in using the new curriculum. As a result of these 
activites, the grantee expects to train 200 students using the newly-
developed geospatial curriculum.
    Grant Recipient and Location: W.F. Goodling Advanced Skills Center/
Pennsylvania
    Partner(s) and Location(s): South Central Workforce Investment 
Board; Penn State York; Harrisburg University; Harrisburg Area 
Community College; Manufacturers Association of South Central 
Pennsylvania; York County Board of Commissioners; Pennsylvania 
Department of Conservation and Natural Resources; Pennsylvania Office 
of Admin; Pennsylvania Department of Community and Economic 
Development; Pennsylvania Department of Labor and Industry; York County 
Community Foundation; Oork Counts Commission; York County/PA
    Funding Amount: $990,125
    Purpose of the Award: The project will demonstrate the use of 2+2+2 
articulation agreements with high schools, community colleges, and 
universities to produce imagery analysis technicians through a 
certificate program in imagery analysis in private and municipal 
applications. These 2+2+2 articulation agreements will provide over 100 
students and/or workers with career and education advancement tracks, 
enabled by linked curriculum and levels of education, training and 
certifications at the high school, community college and university 
levels. The demonstration will also train 100 individuals in specific 
geospatial applications in homeland security, economic development, and 
land-use management.
    Grant Recipient and Location: Geospatial Information and Technology 
Association (GITA)/Aurora, CO.
    Partner(s) and Location(s): American Association of Geographers, 
National Association of Workforce Boards; National Association of State 
Workforce Agencies; Northrop Grumman, Lockheed Martin, Oracle, 
Intergraph, TeleAtlas/GDT, BAESystems, ObjectFX, ESRI, NavTeq, Smart 
Data Strategies; The University of Southern Mississippi; Jefferson 
Community College; Lake Land College; City College of San Francisco; 
Jackson State Community College; Moraine Valley Community College; 
American Association of Community Colleges; the Philadelphia Community 
College System; Central Piedmont Community College; Fulton Montgomery 
Community College; Colorado Community College; Mississippi Community 
College; and the University of Pennsylvania's Wharton School of 
Business/national
    Funding Amount: $695,362
    Purpose of the Award: GITA will (1) develop standard definitions 
for the geospatial industry, vet the definitions through industry 
leaders, and disseminate the results throughout the industry; (2) 
develop content for an on-line workforce information clearinghouse on 
industry jobs, education facilities, and program information; (3) 
create a geospatial career awareness campaign; and (4) work with 
community colleges, employers, and workforce development organizations 
in a selected region to test the use of the Geospatial Industry 
Workforce Information System (an industry-developed and funded 
information network that houses industry jobs, educational facilities 
and programs) and career awareness materials to help local One-Stops 
and educators meet local geospatial industry needs.
    Grant Recipient and Location: Lorain County Community College/Ohio
    Partner(s) and Location(s): Lorain County Chamber of Commerce and 
its Small Business Development Center; The Workforce Institute of 
Lorain County Lorain County Commissioners and the Lorain County 
Development Office/OH
    Funding Amount: $2,599,979
    Purpose of the Award: Grantee will demonstrate new methods for 
training workers in high growth careers, with a special emphasis on 
entrepreneurship, and for promoting the growth of existing businesses, 
especially small and medium business sector, as well as new business 
development--all within identified targeted industries. The first 
project objective is to develop a comprehensive education continuum and 
support system that provides a K-12 to master's degree pathway to 
prepare workers, at all levels, for high demand jobs. The second 
primary objective is to create a support system that combines economic 
and workforce development to collectively focus on providing easy 
access to resources that address the unique needs of existing 
businesses attempting to transition to the knowledge economy. The third 
primary objective is to grow and attract new high-growth businesses in 
the area to create jobs, and enhance objectives 1 and 2 through 
immersing entrepreneur education and support resources for both workers 
and businesses to create a pipeline of creative and innovative ideas. 
This pilot project is projected to train over 5,000 individuals in 
through a variety of learning opportunites including internships, 
certificate, and degree programs supporting small business growth in 
the community.
    Grant Recipient and Location: City of Los Angeles, Community 
Development Department/California
    Partner(s) and Location(s): City of Los Angeles Workforce 
Investment Board; Cedars-Sinai Medical Center/Kaiser Permanente 
Southern California Region/White Memorial Medical Center/East Los 
Angeles Doctors Hospital/Managed Career Solutions, Inc.; Valley 
Community College; City of Los Angeles Community Development 
Department; City of Los Angeles Health Care Career Ladder Training 
Program; Learn2excel/CA
    Funding Amount: $1,196,000
    Purpose of the Award: This pilot project will fund six strategic 
interventions to provide education and training to out-of-school 
disadvantaged youth: (1) an Out-of-School to Career Program that 
creates an articulated pathway through the training process and 
provides supports to participants during the program; (2) a Health Care 
Career Mentoring Program in which mentors will assist youth throughout 
their education and training and into careers; (3) a Hosted Web-Based 
Portal that will function as an on-line learning community meeting 
place to facilitate networking, collaboration, and information sharing 
throughout the Los Angeles healthcare system; (4) a Healthcare 
Vocational Assessment Tool used to determine vocational interest and 
aptitudes for specific health occupations; (5) a Bilingual English/
Spanish Fast Track Health Care Basics Curriculum that includes basic 
skills, medical terminology, and introductory health science courses; 
and (6) a Bilingual English/Spanish Marketing Outreach Program to 
attract minority, disadvantaged youth to healthcare occupations. As a 
result of this pilot project the grantee anticipates that 500 youth 
will go through pre-work and orientation for work experience; 200 youth 
will go through work experience at partner hospitals; 133 youth will 
attend medical fast track pre-requisite training; 117 youth will enter 
training; 80 placements leading up to healthcare tracks will be 
received; 112 will receive job placements or entry into higher level 
education at graduation of healthcare tracks; and approximately 4,635 
individuals will enter the health care workforce pipeline annually.
    Grant Recipient and Location: Miami-Dade College/Florida
    Partner(s) and Location(s): South Florida Workforce; IVAX 
Corporation; MediVector; Onco-Venctor; BioFlorida; South Florida 
Biotechnology Consortium; Miami-Dade County Public Schools; Florida 
Atlantic University; South Florida Manufacturing Association; Greater 
Miami Chamber of Commerce/FL
    Funding Amount: $1,000,000
    Purpose of the Award: As part of this demonstration, Miami-Dade 
College and its partners will pursue a number of strategies to build 
the region's skilled biotechnology workforce. The college will partner 
with industrial pharmaceutical manufacturing (IPM) experts to develop 
IPM curricula, train college faculty on the new curricula, and recruit 
industry experts to serve as adjunct faculty. These three strategies 
will address challenges related to educational capacity. All curricula 
developed will address specialized skills sets in IPM and related 
specialty areas. Competency models, based on evolving industry 
standards, will support the mapping of biotechnology career ladders and 
cross-industry career lattices. Miami-Dade College will expand 
available labor pools through the recruitment of minority youth, low-
income adult minorities, Limited English Proficient individuals, 
veterans, and individuals with disabilities. The grantee expects to 
train 800 incumbent and future IPM technicians and related workers.
    Grant Recipient and Location: United Regional Health Care System/
Texas
    Partner(s) and Location(s): North Central Texas Healthcare 
Consortium (includes representatives from the workforce investment 
system, education and training providers, and hospital industry 
employers); United Regional Healthcare System; Wilbarger General 
Hospital; Electra Memorial Hospital; Seymour Hospital; Vernon College; 
Midwestern State University; Texas Christian University; North Texas 
Tech Prep Consortium; Partners-in-Education; Region 9 Education Service 
Center/TX
    Funding Amount: $846,325
    Purpose of the Award: In this demonstration, the grantee will focus 
on recruiting, training, and capacity building in post-secondary 
institution nursing programs: (1) Recruiting--develop a pipeline of 
young workers for employment in the healthcare industry by recruiting 
from new and untapped, diverse labor pools; (2) Training--train 35 new 
and 85 incumbent workers for hospital positions such as patient care 
associates/medical assistants, nurses, health information technicians, 
Spanish language hospital interpreters, and surgical technicians; and 
(3) Capacity Building--increase the pipeline of available workers by 
training faculty from partner organizations as advanced practice nurses 
and nurse educators to gain qualification needed to teach in 
professional nursing programs.
    Grant Recipient and Location: Claflin University/South Carolina
    Partner(s) and Location(s): Lower Savannah Workforce Development 
Board; Zeus Corporation, Albemarle Corporation; SuperSod; Regional 
Medical Center of Orangeburg and Calhoun Counties; Orangeburg-Calhoun 
Technical College; South Carolina Department of Education; Orangeburg-
Calhoun Tech Prep Consortium; Orangeburg County Economic Development 
Board/SC
    Funding Amount: $750,000
    Purpose of the Award: As part of this demonstration, Claflin, a 
historically black college in rural Orangeburg, SC, and its partners 
will develop a pipeline of skilled biotechnology workers for all rungs 
of the biotechnology career ladder (high school diploma to Master's 
degree level). The grantee extimates that they will train 100 students 
in biotechnology certificates and degrees. In addition, the university 
will also develop curricula for each ladder of the biotechnology career 
ladder. As part of its efforts to stimulate youth enrollment in 
biotechnology training programs, Claflin will implement a comprehensive 
career development process for high school students, incumbent workers, 
and dislocated workers, and will also train local K-12 and secondary 
faculty to co-teach biotechnology modules with industry partners. This 
model of increasing the pool of minorities into high grow careers in 
biotechnology will be offered for broad dessemination to community 
colleges across the country for replication with partner 4-year 
institutions.
    Grant Recipient and Location: Orange County Workforce Investment 
Board/California
    Partner(s) and Location(s): Life Science Industry Council; Beckman-
Coulter Inc.; Edwards Lifesciences Inc.; Allergan Inc.; Saint Joseph 
Health System; Coast Community College District; University of 
California-Irvine; Orange County Department of Education; Orange County 
Business Council; local One-Stop Career Centers; Central Labor 
Council--Local 441/CA
    Funding Amount: $1,000,000
    Purpose of the Award: The project will implement a regional skills 
development collaborative that will leverage workforce invesetment 
system resources to meet the demands of the biotechnology industry and 
its related occupations in healthcare sectors. This project will train 
and advance 75 incumbent workers in allied health occupations such as 
hospital technicians and technologists in radiology, surgical, 
ultrasound, and x-ray. Additionally, 75 workers dislocated from 
declining industries and 75 entry-level workers will receive training 
for high-growth occupations such as medical equipment repairers, 
inspectors and testers; pharmacy technicians; medical assistance; 
biological technicians; and others. The Orange County Workforce 
Investment Board will target services to minority trainees and 
economically-disadvantaged residents. The partnership will also work to 
standardize skill requirements, define biotechnology career ladders, 
and develop effective strategies for engaging and developing youth 
interested in biotechnology careers.
    Grant Recipient and Location: The University of Utah/Utah
    Partner(s) and Location(s): Utah Department of Workforce Services; 
Intermountain Health Care; University of Utah Hospitals and Clinics; 
Veterans Affairs Medical Center/UT
    Funding Amount: $871,707
    Purpose of the Award: In this demonstration project, The 
University's Clinical Faculty Associate model seeks to address the 
severe nursing faculty shortage through a number of connected 
methodologies. The purpose of the project is to promote career 
advancement for Registered Nurses (RNs) working in clinical settings 
through a collaborative clinical teaching model and education program 
that enhances retention and acquisition of the skills needed to teach 
nursing. Practicing RNs will augment their existing clinical skills and 
knowledge by acquiring formal education resulting in a Master's degree, 
post-Master's certificate, or specific coursework related to teaching 
nursing, clinical instruction, and nursing education. These RNs will 
then function as Clinical Faculty Associates under the mentorship of 
university master teachers. By upgrading RNs to Clinical Faculty 
Associate positions increased numbers of baccalaureate nursing students 
will be admitted into the program. The grantee expects to enroll 13 
Clinical Faculty Associates in the University of Utah's Teaching 
Nursing Program and enroll 32 students in the Baccalaureate Nursing 
program. Projected number of students supervised by CFAs is 336 at the 
end of the second project year.
    Grant Recipient and Location: Orange County Workforce Investment 
Board/New York
    Partner(s) and Location(s): 7 local workforce investment boards in 
middle Hudson Valley; Orange County Health Care Cluster; Hudson Valley 
Health Care Consortium; Healthcare Workforce Training Consortium, 
including NorMet (Northern Metropolitan Hospital Association); Pace 
University School of Nursing; Dyson College of Arts and Sciences/NY
    Funding Amount: $1,048,300
    Purpose of the Award: This demonstration project will fund a 
market-driven system trading educational credits for instructor hours. 
It will provide incentives for health care providers in the region to 
provide staff holding master's degrees to serve on the faculties of 
educational institutions in exchange for credits to meet providers' 
future training needs. As a result of this demonstration, the grantee 
project is to have 1,000 additional students admitted to healthcare 
education and training programs in 2 years as a result of the increased 
capacity of providers. Fifty clinical nurses will be trained as 
instructors in 2 years and 100 clinical nurses will be trained as 
preceptors in 2 years. The capacity of educational institutions to 
provide nurse training will increase with the addition of 70 adjunct 
instructors and 70 preceptors, offering a unique model for replicaiton 
by the health care industry.
    Grant Recipient and Location: CVS Regional Learning Center/Michigan
    Partner(s) and Location(s): Detroit Workforce Development 
Department; ORC Macro; Wayne County Community College District; 
Goodwill Industries of Greater Detroit; New Galilee Missionary Baptist 
Church; Perfecting Church; Little Rock Baptist Church/MI
    Funding Amount: $1,757,981
    Purpose of the Award: The major components of this pilot project 
include: a community education and outreach campaign designed to build 
awareness and interest in pharmaceutical careers; recruitment, 
screening, and training of 80 candidates to receive training in an 
apprenticeship program to first become a Pharmacy Service Associate and 
then a Pharmacy Technician; a peer support group; provision of ``wrap-
around'' services, such as child support and transportation; 
identification and support of 130 incumbent CVS Pharmacy Service 
Associates faced with career advancement barriers to become Pharmacy 
Technicians through occupational English as a Second Language and 
customer service skill development instruction; and opportunities for 
both apprentices and incumbent workers to advance their pharmaceutical 
careers through 2-year or 4-year academic programs.
    Grant Recipient and Location: State of Wisconsin/Wisconsin
    Partner(s) and Location(s): Wisconsin workforce investment boards; 
Wisconsin Department of Workforce Development; private sector health 
care associations, including the Wisconsin Nursing Redesign Consortium; 
Wisconsin Technical College System/WI
    Funding Amount: $1,365,101
    Purpose of the Award: In this demonstration, the grantee proposes a 
two-part strategy to fast-track nurse educators to prepare the next 
generation of Registered Nurses (RNs) for the State of Wisconsin, 
including accelerated graduate study programs and a partner-based model 
for identification, recruitment and preparation of health professionals 
for nurse educator careers. The grantee will create an accelerated 
curriculum option and career ladder to facilitate movement of 
Associate's Degree nurses to the Master's degree level. This training 
model will decrease the time-to-degree by 18-24 months without diluting 
the quality of the graduate education programs. These efforts will 
result in fast-track preparation of 70 new and diverse nurse educators 
in Wisconsin by 2007 as replacement and expansion nurse faculty for all 
Wisconsin nursing programs, with an additional 50 Associate's degree 
nurses (ADNs) prepared to enroll in Master's programs Statewide by 
2007. Contracts between partnering employers and program participants 
will result in their contractual commitment as nurse faculty in a 
Wisconsin nursing school and as clinical care providers in sponsoring 
health facilities upon their graduation (2-3 years depending on course 
of study). Recruitment will focus on identifying underrepresented 
populations in nursing, including racial and ethnic minorities, men, 
and people with disabilities. The project will produce two major 
replicable innovations: a streamlined curriculum for rapid progression 
to the Master's degree along various career ladders and from various 
start points, and a Statewide partnership model for developing health 
care solutions.
    Grant Recipient and Location: Temple College/Texas
    Partner(s) and Location(s): Central Texas Workforce Investment 
Board and affiliated Workforce Centers; Scott & White Clinical 
Laboratory Science Program; Scott & White Hospital Clinics; Central 
Texas Veterans Health Care System; Cancer Research Institute; 
Cardiovascular Research Institute; Temple Health and Bioscience 
District; Temple Independent School District; Central Texas Tech Prep 
Consortium; Tarleton State University of Central Texas; Texas A&M 
University College of Medicine; Temple Economic Development 
Corporation/TX
    Funding Amount: $920,495
    Purpose of the Award: In this demonstration, the grantee will 
develop a pipeline of skilled biotechnology technician and research 
workers for all rungs of the biotechnology career ladder (high school 
diploma to Bachelor's degree level). Working with area tech prep 
schools, the project will establish an Advanced Technical Middle 
College for high school students to assist them in preparing for 
biotechnology careers, and will develop community college curriculum to 
advance the area's available biotechnology career lattice. This program 
will be piloted with at least 20 students receiving job placements. The 
grantee will also work with its industry partners to launch innovative, 
mentored, on-the-job and apprenticeship opportunities for students. 
Specific occupations to be targeted include medical laboratory 
technician, research technician, and genomic technician.
    Grant Recipient and Location: Indianapolis Private Industry 
Council, Inc./Indiana
    Partner(s) and Location(s): Indiana Department of Workforce 
Development; Wishard; St. Vincent's and St. Francis hospitals; Indiana 
Health Industry Forum; Roche Diagnostics; Dow Agro-Sciences; Eli Lilly 
and Company; Baxter Pharmaceutical; Ivy Tech State College; Indiana 
University School of Medicine; City of Indianapolis/IN
    Funding Amount: $1,000,000
    Purpose of the Award: Under this pilot project the grantee will 
execute four primary strategies First, work with Ivy Tech, the State 
community college, to expand the number of seats in the school's 
programs that prepare persons to become radiological technicians, 
registered nurses and respiratory therapists. The goal is to graduate 
and certify 80 people for the three positions. Second, work with 
Indiana University to develop an accelerated Master's of Science 
program for registered nurses. Third, expand or create on-site training 
opportunities for entry level workers at all hospitals, including basic 
skills training, job readiness and GED prep and testing. At least 120 
workers will access these services. Fourth, create state-of-the-art 
outreach and recruitment material to reach 14,000 area residents over a 
2-year period. These materials will provide information about career 
opportunities in medical manufacturing and biotechnology.
    Grant Recipient and Location: JobPath, Inc./Arizona
    Partner(s) and Location(s): BIO5; TGEN; BIOSA; Pima County College; 
Pima County Superintendent of Schools; University of Arizona; Pima 
County One-Stop; La Paloma Family Services; Arizona Biosciences 
Association/AZ
    Funding Amount: $276,393
    Purpose of the Award: This demonstration program will build a 
pipeline of youth interested in pursuing careers in biotechnology 
through the development of an Introduction to Biotechnology course 
taught by community college faculty to high school students in a 
biotechnology summer institute. The grantee expects to train 50 
graduates of Biotechnology Summer Institute; 40 community college 
students will complete introductory classes and advance to 
biotechnology prerequisites; 60 graduates of the biotechnology college 
program will move on to employment or higher education; and 30 
graduates from paid internships with bioscience employers. Paid 
internships with local bioscience employers will be offered to students 
upon completion of the program. The program will also recruit and 
support participants from untapped labor pools enrolled in 
biotechnology courses and certificate programs at the local community 
college.
    Grant Recipient and Location: The Pennsylvania Workforce Investment 
Board/Pennsylvania
    Partner(s) and Location(s): Pennsylvania's local workforce 
investment boards; Ben Franklin Technology Partners; Industrial 
Resource Centers; Penn State University; Pennsylvania College of 
Technology/PA
    Funding Amount: $3,750,000
    Purpose of the Award: This demonstration project will develop a 
Statewide network that supports multiple facets of the plastics 
industry's development. Specifically, ETA will fund: Incumbent Worker 
Training, Curriculum Transfer, Occupational Forecasting; Supply Chain 
Analysis; a Plastics Occupations Toolkit; Internships/Co-ops; 
Scholarships; and Research & Development Symposiums. The grantee 
anticipates training over 1,200 incumbent workers in the plastics 
industry, including machine operators, machine set-up technicians, 
process engineers and production supervisors. The Pennsylvania 
Workforce Investment Board will play an oversight role and serve as the 
clearinghouse for documenting the overall impact of the initiative. 
Penn State will be involved in technology transfer and Research & 
Development. Local workforce investment boards will be able to meet 
employers' needs and provide key support for developing Centers of 
Excellence. This model will be promoted for replication to the public 
workforce system.
    Grant Recipient and Location: RISE Business/Virginia
    Partner(s) and Location(s): Center for Women's Business Research; 
Council of Growing Companies, Inc. Business Resources; Kauffman Center 
for Entrepreneurial Leadership; Edward Lowe Foundation; National 
Foundation for Teaching Entrepreneurship; National Minority Business 
Council; National Small Business United/national
    Funding Amount: $150,000
    Purpose of the Award: In this research project conducted by 
RISEbusiness, RISEbusiness will act as an intermediary between the 
public workforce system and small business by researching and 
publicizing the key issues affecting small and emerging businesses. 
RISEbusiness aims to research the following topics in order to increase 
small business' support for, access to, and utility of the workforce 
system: review existing literature; define and refine research 
questions; launch a research effort; refine the research methodology; 
collect and analyze qualitative and quantitative data; and disseminate 
the findings and implications. A final report will be distributed to 
the State and local workforce system to further support their access to 
services provided by the public workforce system.
    Grant Recipient and Location: Jobs for the Future--Workforce 
Innovations Networks (WINs)/Massachusetts
    Partner(s) and Location(s): Great Lakes Innovation and Development 
Enterprise (GLIDE); the Enterprise Ohio Skills MAX Center; Mid-Ohio 
Securities; KS Associates; Ross Environmental Services; Beckett 
LogiSync; the Braye Group; JD Munch Integrated Solutions; Cash 
Strategies; CyStorm; Banyan Technology; Accurate Processing; Catalyst 
Strategies; Hot Dog Heaven; National Association of Manufacturers- 
Center for Workforce Success; U.S. Chamber of Commerce, Center for 
Workforce Preparation/national
    Funding Amount: $5,121,777
    Purpose of the Award: The Workforce Innovations Network--WINS--is a 
collaboration of the Center for Workforce Preparation of the U.S. 
Chamber of Commerce, the Center for Workforce Success/Manufacturing 
Institute of the National Association of Manufacturerers, and Jobs for 
the Future to accelerate, expand, and broaden employer engagement 
strategies. The first module provided a comprehensive analysis of 
employer engagement strategies, and identified approaches and models 
for the system to replicate for better engagement and involvement of 
employers. The WINs Module II Project demonstrated three primary 
strategy objectives: (1) that locally business-based organizations 
(e.g., Chambers of Commerce, employer's organizations) could 
effectively serve as ``intermediary'' agents to establish and 
strengthen relationships between local businesses and local Workforce 
Investment Boards and service offices; (2) that these intermediary 
organizations could work with local businesses and WIBs to develop 
``talent'' supply chains to bring skilled workers to businesses; and 
(3) that intermediaries could contribute to improved governance of 
public workforce investment systems. WINs II established 12 local 
demonstration sites and three State-level sites where the objectives 
were validated. Among the sites hundreds of businesses have been 
connected to WIB services and in a few sites the WIB depends upon the 
intermediary for the majority of business connections. Local 
demonstration sites have received additional WIB grants to continue 
and/or extend the projects thereby leveraging the WINs II grant funds. 
Beyond the additional WIB funding, the sites have acquired more than $5 
million from State and private funding sources.
    Grant Recipient and Location: U.S. Chamber of Commerce, Center for 
Workforce Preparation/Washington, D.C.
    Partner(s) and Location(s): Lehigh Carbon Community College in 
Schnecksville, Pennsylvania; National Association of Workforce Boards; 
American Association of Community Colleges; Chicagoland Chamber of 
Commerce; Greater Seattle Chamber of Commerce; Greater New Orleans/
national
    Funding Amount: $1,502,700
    Purpose of the Award: The Business Coalition for Workforce 
Development Project will demonstrate the employer benefits of accessing 
the public workforce system by improving services and relationships 
between employers and the public workforce system. This will include 
research identifying areas of successful business engagement with the 
workforce system, identifying specific issues to retaining and engaging 
business partnerships, and documenting insight and advice on how 
systems and services can be improved to support improved outcomes for 
workers.
    Question. Since the program has been up and running for 3 years, 
what performance data from these grants can you share with this 
Committee?
    Answer. In an effort to model innovative strategies for investment, 
the projects funded under the High Growth Job Training Initiative have 
included both training and curricula development activities. A 
significant number of these investments are in their first year of 
performance. As such, we have limited performance outcome data at this 
time. However, performance data is available for grants that have 
concluded their activities. The outcomes from these grants are detailed 
below. Active grantees are in the process of submitting quarterly 
reports. These reports are presently being analyzed by the Department. 
In addition, the Department is working to complete an analysis and 
conduct an evaluation of the grants awarded to date, as well as to 
refine performance standards for future investments.

     OUTCOMES OF GRANTS IN THE PRESIDENT'S HIGH GROWTH JOB TRAINING
                               INITIATIVE
                       [Expiring by June 1, 2005]
------------------------------------------------------------------------
            Grantee                Expected outcome      Actual outcome
------------------------------------------------------------------------
National Center for Integrated   Illinois--Train 288   Illinois--Grant
 Systems Technology (Illinois     dislocated workers.   completed. 302
 and Ohio)--Dislocated Worker     Place 80 percent      workers were
 Integrated Systems Technology    (230) of all          enrolled with
 Training Project.                participants in       262 completers
                                  jobs with 75          and 74 percent
                                  percent (216)         placed in jobs.
                                  placed in small or   Ohio--Grant
                                  mid-sized companies.  ongoing. To
                                 Ohio--Train 288        date, 249
                                  dislocated workers.   participants
                                  Place 80 percent      have enrolled,
                                  (230) of all          121 completed
                                  participants in       training, and 95
                                  jobs with 75          have received
                                  percent (216)         job placements.
                                  placed in small or
                                  mid-sized companies.
National Restaurant Association  (1) Increase student  (1) 9,444
 Educational Foundation.          worksite experience   students
                                  to 6,000.             received
                                 (2) Add states to      experience.
                                  the program.         (2) 43 States
                                 (3) Increase number    added to
                                  of ProStart school    program.
                                  to 900.              (3) Increased to
                                 (4) Increase           1,075 schools
                                  industry              with enrollment
                                  involvement in        of nearly 44,000
                                  project.              students.
                                                       (4) No increase
                                                        reported.
Community Learning Center, Inc.  (1) 1,024 dislocated  (1) 1,028 workers
                                  workers will          served
                                  receive training.    (2) 914 workers
                                 (2) Place 802          placed in
                                  workers in            unsubsidized
                                  unsubsidized          jobs.
                                  employment.
U.S. Chamber of Commerce--       (1) Develop a         Report and
 Center for Workforce             research report       promotional
 Preparation.                     documenting           materials
                                  business needs,       developed and
                                  providing training    delivered to
                                  services in One-      ETA.
                                  Stop Centers, and
                                  developing
                                  successful
                                  promising practices
                                  in these areas.
                                 (2) Disseminate
                                  grant information
                                  through business
                                  conferences and
                                  development of
                                  grant-related
                                  promotional
                                  materials.
RISEBusiness...................  Develop a research    Research report
                                  report to increase    developed and
                                  understanding of      delivered to ETA
                                  the workforce needs
                                  of small and
                                  emerging
                                  businesses..
Workforce Innovation Networks--  Research report
 Jobs for the Future              developed and
 Partnership (1)Develop a         delivered to ETA..
 research report that:
  (1) Identifies obstacles to
 employer use of the workforce
 investment system and proposes
 solutions.
  (2) Documents the WINs
 demonstration projects at nine
 sites.
------------------------------------------------------------------------

    Question. Do these grantees perform better or worse than grantees 
who received awards through a competitive process?
    Answer. A significant number of these investments are in their 
first year of performance. As such, we have limited performance outcome 
data at this time. However, both solicited and unsolicited grants are 
integral to the goals of the Department in providing services to 
individuals and to employers, as well as in transforming the workforce 
investment system. The initial sole source investments under the High 
Growth Job Training Initiative were made in order to demonstrate and 
model new approaches to workforce education and investment and are 
providing learning opportunities that are informing investments as we 
move forward on a primarily competitive basis. Models and 
demonstrations, by their nature, are intended to try new approaches, 
not all of which will be successful. The Department is currently in the 
process of evaluating the initial High Growth grants and to develop an 
ongoing strategy for evaluating performance and outcomes for 
competitive grants as we move forward.
    The learning from these initial grants has already provided 
critical information for the development of criteria for future 
investments, which will improve the outcomes of these investments.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye

                    NURSING SHORTAGE IN RURAL AREAS

    Question. Please provide a report on the Department's progress in 
addressing the nursing shortage, specifically within rural communities 
and ethnic minority populations, such as Native Hawaiians.
    What initiatives, such as summer employment opportunities for 
students, have the Department utilized to foster continued growth of 
the nursing profession?
    Answer. We share your interest regarding the training of nurses. 
The Department of Labor has invested over $4.3 million through the 
President's High Growth Job Training Initiative to support projects in 
rural areas that develop and implement innovative solutions to address 
shortages in nursing and other health professions. Each of these 
projects will increase the number of nurses and other health 
professionals trained, hired, and retained in rural communities 
throughout the nation, including in Hawaii. Further, it is the 
Department's vision that rural communities across the country will 
benefit from these investments for many years to come through 
replication of the models.
    We are aware that Maui Community College is interested in such 
initiatives, and there have been a number of Congressional earmarks for 
Maui in the areas of rural development and rural job training, as well 
as pending proposals. With respect to fiscal year 2004 earmarks, we are 
near completion of our review of a proposal from the University of Maui 
for training and employment of Hawaiians living in rural areas. That 
award should be made shortly. In addition, the Department of Labor's 
fiscal year 2005 Appropriation includes $1,500,000 for Maui Community 
College for the Remote Rural Hawaii Job Training Program. We are 
working closely with Maui Community College to ensure that they will be 
able to implement an exemplary project.
    It also is worth noting that the Department of Health and Human 
Services, through the Health Resources and Services Administration, 
currently invests $150 million in nursing workforce development 
activities, including $31 million for the Nursing Education Loan 
Repayment and Scholarship Program.
    Question. Education and job training services programs have 
provided employment opportunities for Native Hawaiians. How does the 
Department plan to continue supporting these programs and further 
develop programs already in existence?
    Answer. The Department of Labor's fiscal year 2005 Appropriation 
includes $1,500,000 for Maui Community College for the Remote Rural 
Hawaii Job Training Program. We are working closely with Maui Community 
College to ensure that they will be able to implement an exemplary 
project.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray

                            H-2A ENFORCEMENT

    Question. I am concerned about the lack of enforcement of H-2A 
program requirements by the Wage and Hour division of DOL for migrant 
and seasonal farm workers. A large farm labor contracting company, 
Global Horizons recruited and employed Thai nationals in central 
Washington fruit production under the H-2A guest worker program in 2004 
and is planning on doing so again this year.
    A number of my constituents have raised serious concerns with 
respect to Global's compliance with H-2A laws and regulations. I know 
you agree it is imperative that the DOL fully enforce these 
requirements to protect both U.S. workers and guest workers who enter 
our country under the H-2A program. In fact, while the H-2A program has 
not been used extensively in Washington State, there have been problems 
with enforcement of program requirements for many years.
    It appears that Global routinely violated State and Federal 
employment laws by:
  --Refusing employment to qualified U.S. workers under the Federal H-
        2A guest worker program,
  --Failing to provide the work promised in the employment contract,
  --Failing to pay the wage rate required by the H-2A program and 
        contract; and
  --Providing substandard, unlicensed housing, with workers sleeping on 
        the floor or two to a bed, with no cooking or washing 
        facilities and no drinking water.
    Washington State's Department of Labor and Industry has denied 
Global's application for renewal of its State farm labor contractor's 
license. I also understand that there are outstanding complaints to the 
DOL from my State alleging various H-2A program violations by Global.
    Can you please provide a status report on DOL's investigation of 
these complaints?
    Answer. On February 10, 2005, the Wage and Hour Division of the 
Employment Standards Administration issued a notice of determination to 
Global Horizons under the H-2A program assessing civil money penalties 
totaling $154,700, and back wages totaling $131,267 for alleged 
violations occurring in Hawaii from September, 2002 through March 2003. 
These determinations have been appealed to the Department of Labor 
Office of Administrative Law Judges for a de novo hearing. Additional 
investigations involving other locations and periods of time are 
ongoing. However, because of their continuing nature we can not comment 
about those investigations at this time.
    In addition, on February 25, 2005, ETA issued a letter debarring 
Global Horizons from the H-2A program for a 3-year period based on 
Global Horizon's failure to fulfill requirements of its H-2A 
certifications and the Wage and Hour Division's prior findings of 
violations. Global Horizons requested a de novo hearing on debarment 
before an ALJ, and that has been consolidated with a Wage and Hour 
Division case against Global Horizon. The notice of determination for 
back wages and civil money penalties and the debarment proceeding have 
been consolidated and the hearing is presently scheduled for next year.
    While debarment is pending, ETA continues to process individual 
Global Horizon H-2A applications and to reach determinations on the 
merits of each. ETA continues to examine all applications for 
compliance with H-2A requirements and has rejected some of Global 
Horizons applications while certifying others. As one example, in 
January 2005, ETA denied Global Horizon's application for a new H-2A 
certificate for Eastern Washington based on the fact that Global 
Horizon at that time did not have a State-issued farm labor contract 
certificate, which is required by the State of Washington. Global 
Horizon appealed, and an ALJ upheld the denial on February 25, 2005.
    Washington State is taking its own actions involving Global 
Horizons. While the State had denied Global Horizon's application for 
renewal of its State farm labor contractor's license, we understand 
that the State has now extended that license until September 30, 2005. 
However, the State is also taking action to discontinue State provision 
of services to Global Horizons under the Wagner-Peyser Act, which 
includes such services as recruitment of local workers and placement of 
job orders in interstate clearance.
    Question. Please also inform me as to whether DOL is taking any 
action with respect to Global's Farm Labor Contractor registration 
under Federal law.
    Answer. Global is registered as a farm labor contractor under the 
Migrant and Seasonal Agricultural Worker Protection Act (MSPA). DOL has 
not initiated action to revoke this registration, but has pursued 
debarment action under H-2A. The Wage and Hour Division has an open 
investigation of Global. As with all such investigations, the Division 
will consider appropriate action at the conclusion of the 
investigation.
    Question. Are you willing to work with me to closely examine 
whether increased enforcement efforts are needed, including the 
imposition of penalties real deterrence?
    I know you agree with me that those who benefit from the H-2A 
program should do their part to make sure that the program operates 
lawfully. I also hope you will commit to work with me to educate 
growers who hire farm labor contractors for recruitment under the H-2A 
program to ensure that those growers monitor the contractor's 
compliance with the law.
    Answer. The Department of Labor is charged with two essential 
duties with respect to the enforcement of the H-2A program. First, the 
Department of Labor ensures that employers follow established rules and 
regulations for bringing foreign workers into the United States. 
Second, the Department of Labor vigorously enforces applicable labor 
standards. Guest worker programs cannot succeed without strict 
adherence to these responsibilities, and the Department takes them very 
seriously. In addition, the Department has an active H-2A compliance 
assistance program, which is designed to educate employers and 
employees of their responsibilities and rights under the law. The 
Department works with all interested parties to ensure that 
participants of the H-2A program are in full compliance with the law.

                                  PBGC

    Question. I commend you for tackling in the budget proposal the 
difficult issue of shoring up the Pension Benefit Guarantee 
Corporation. The PBGC insures the pensions of about 44 million American 
workers and is in danger of defaulting on those promises. Reforming 
this grossly under-funded insurance plan is long overdue. I am 
concerned, however, about the feasibility of some of your suggestions. 
For example:
  --You propose to increase fees on the corporations at the very time 
        they are less likely to be able to pay them--once they are 
        preparing to file for bankruptcy.
  --Your proposal would impose restrictions on pension benefits for 
        rank-and-file workers, without restricting the pensions of 
        executives.
  --The American Benefits Council (a group representing some of the 
        country's largest corporations on their employee benefits 
        program) predicts the Administration's plan could have the 
        effect of encouraging companies to dump their defined benefit 
        plans.
    Could you please explain why the plan discriminates against 
companies already in trouble and against rank-and-file workers?
    Answer. We appreciate your support for restoring the solvency of 
the PGBC. The Administration is committed to strengthening the pension 
insurance program and keeping defined benefit plans as a viable option 
for employers and employees. This requires a careful balancing of 
interests and inevitably will require trade-offs among various 
stakeholder interests. The Administration proposal strikes a necessary 
balance that will best protect the pension benefits earned by workers 
and retirees and alleviate the possibility that taxpayers will be 
called upon to rescue the insurance program.
    As you stated, the insurance program is grossly underfunded. Reform 
of the plan funding rules, by itself, will not eliminate PBGC's $23 
billion deficit. Premiums must be increased. The Administration's 
proposal is reasonable. It would increase the flat-rate premium for 
wage inflation since the last increase in 1991, and require a risk-
based premium for all pension underfunding. We believe that the 
Administration's proposal equitably distributes the cost among 
employers and does not put too great a burden on financially weak 
companies.
    With respect to your question about benefit restrictions, the 
proposal is based on the principle that employers should pay for what 
they promise and not make promises to their workers and retirees that 
cannot be funded. Employers with severely underfunded plans would not 
be allowed to divert funds from rank-and-file pensions to deferred 
compensation plans for executives. If a financially weak employer has a 
severely underfunded plan, the employer would be prohibited from 
funding any nonqualified deferred compensation for executives. In 
addition, funding would be prohibited for executive compensation at any 
time within 6 months before or 6 months after the termination of an 
underfunded plan.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin

                       WORKER OVERTIME PROTECTION

    Question. An amendment to the bankruptcy bill that was on the 
Senate floor last week that would have marginally increased the minimum 
wage, but would have also eliminated the 40 hour work week and the 
overtime benefits of thousands of workers.
    This scheme would create an 80 hour, two week work period that 
would allow employees to work up to 50 hours one week and 30 hours the 
next week without receiving one dime of overtime pay.
    The amendment's sponsors said the plan is voluntary, but how 
voluntary is it when your boss threatens to hire someone else who will 
agree to his 50 hour/30 hour week schedule? This is an assault on 
workers, and it comes on top of the administration's elimination of 6 
million workers from overtime pay eligibility last year.
    Can you provide the Administration's perspective on such proposals 
to weaken overtime protection?
    Answer. The Administration has not taken a formal position on this 
specific legislation. However, the President has called on Congress to 
pass legislation to help working families juggle the demands of work 
and home through comp-time and flex-time and give private-sector 
workers the same flexible scheduling options that Federal employees now 
enjoy. Providing choices like whether to receive overtime pay as cash 
or as paid time off would allow workers to balance the demands of the 
workplace and the needs of their families.
    The minimum wage amendment to the bankruptcy bill would have 
doubled the scope of so-called small businesses that would be exempt 
from paying the minimum wage, but by doing this, he would also be 
stripping workers in those companies from other Federal protections, 
like equal pay, overtime pay and child labor safeguards under the Fair 
Labor Standards Act.
    The amendment would end individual worker protections under the 
FLSA, and expand the size of businesses that need not apply the Act 
from those grossing $500,000 annually to those grossing $1 million 
annually. This would exempt about 700,000 businesses from providing 
worker protections, and cover a total of about 10 million fewer workers 
than we do today.
    Question. In light of the work that has been done in this country 
to ensure that children are not working and that women are paid the 
same as men for the same work, why would we want to rollback these 
protections?
    Answer. The Administration has not taken a formal position on this 
specific legislation. However, the President has indicated that he is 
willing to work with Congress on a sensible proposal to increase the 
minimum wage in a way that does not price people out of jobs or hurt 
small businesses. In addition, the President has called on Congress to 
pass legislation to help working families juggle the demands of work 
and home through comp-time and flex-time and give private-sector 
workers the same flexible scheduling options that Federal employees now 
enjoy. Providing choices like whether to receive overtime pay as cash 
or as paid time off would allow workers to balance the demands of the 
workplace and the needs of their families.

                     PERSONAL REEMPLOYMENT ACCOUNTS

    Question. You talked about the Administration's proposal to 
consolidate four programs authorized by the Workforce Investment Act 
(WIA) into a single $4 billion block grant. You suggest this is done 
for flexibility, but even with the community colleges funding, the 
Department's job training funding is more than $300 million short of 
current year funding.
    The House Committee approved a WIA reauthorization bill that 
creates a nationwide pilot program to give unemployed workers 
considered at risk for long-term unemployment a $3,000 voucher they can 
spend on training. There is no specific budget request for this, but 
the Labor Department has already diverted funds from other 
discretionary programs to initiate a seven-State pilot. I understand we 
have no results yet from the Department's pilot program.
    How do you reconcile the House plan for expanding these untested 
personal accounts nationwide before your Department has completed its 
pilot study?
    Answer. The current seven-State Personal Reemployment Account (PRA) 
demonstration project builds upon the positive findings of earlier 
demonstrations by offering reemployment bonuses, targeting them using 
the Worker Profiling Reemployment System (WPRS), and increasing 
consumer choice through flexible worker accounts. PRAs are similar to 
current practice under the Workforce Investment Act, where workers can 
choose their training through Individual Training Accounts. PRAs give 
workers more opportunities and choices.
    Mathematica Policy Research Inc., a firm with wide experience in 
employment and training program evaluation, including the evaluation of 
the reemployment bonuses and individual training account experiments, 
is the evaluation contractor for the PRA demonstration. Although 
results from the demonstration are not yet available (accounts were 
first made available in March 2005), States are reporting some initial 
successes in implementing PRAs. For example, Minnesota has offered 
accounts to 301 individuals, and so far 188 individuals have accepted.
    Question. The Economic Policy Institute has said that the accounts 
are ``too small to purchase meaningful training but just large enough 
to discourage workers from pursuing cost-effective short-term services 
that could help them get back to work more quickly.'' To get the $3,000 
accounts workers would have to forfeit about $10,000 in other worker 
training programs. What kind of training and education does the 
Department anticipate an unemployed worker ``purchasing'' with a $3,000 
training voucher.
    Answer. First, this question assumes that all workers can access 
$10,000 in training when, in fact, most cannot. The estimated WIA unit 
cost for all types of services an individual would receive (in Program 
Year 2005) is $3,200 for dislocated workers and $2,064 for adults; no 
where near $10,000. Further, information in a recent GAO report, based 
on a survey of local workforce investment boards across the country, 
indicates that the average amount spent on training for adults and 
dislocated workers was slightly less than $2,300.
    Second, as you know, the community college system has and continues 
to be an important provider of training to our system, and the $3,000 
account level is based upon the average cost of 2 years of instruction 
at a community college. We believe that Personal Reemployment Accounts 
will provide individuals with opportunities to connect more directly 
with meaningful training at a community college or from another 
training provider.
    Question. With less money available, no data yet on a seven-State 
pilot, and a $7,000 reduction in investment per worker, it's hard for 
me to see how we are helping move people back into the workplace. Can 
you explain how we will gain $7,000 in ``administrative efficiencies'' 
per worker? Or how $330 million in funding cuts will not lead to less 
opportunity for unemployed workers?
    Answer. As described earlier, the worker's forfeiture of $7,000 is 
not correct, as the average cost of 2 years at a community college is 
$3,000 and the unit costs for the WIA Adult and Dislocated Worker 
programs are $2,064 and $3,200, respectively. (Additionally, ITAs under 
WIA offer more limited choices in training, with no opportunity for a 
reemployment bonus). The Department of Labor anticipates that 
evaluation data will show that:
  --PRAs are significantly less staff-intensive than traditional forms 
        of service delivery (reducing program overhead costs by 
        directing resources directly into the hands of workers);
  --The time spent collecting Unemployment Insurance will likely 
        decrease; and
  --The nature of placement into and retention of good jobs will remain 
        constant or even increase as a result of more consumer choice 
        and the ability to manage and customize one's plan for 
        employment.

                     PROPOSED CHANGE TO CES SURVEY

    Question. The Bureau of Labor Statistics recently announced a 
decision to stop collecting data on women who work from its Current 
Employment Statistics program, claiming it is trying to reduce the 
paperwork burden on employers. By the agency's own admission, this 
survey takes only seven minutes to fill out.
    This data on women in the workforce is invaluable to researchers 
and policymakers in their efforts to understand gender inequality. At a 
time when women's employment may be changing in fundamental ways due to 
the economy, we should be expanding our ability to understand the 
evolving role of women in the labor force, not reducing it.
    I sent a letter, along with Senator Kennedy, to the Department 
about this issue on February 9. In your response, which I just 
received, you acknowledged that the Current Employment Statistics 
program is superior to the Department's other data collections programs 
for analyzing month-to-month trends. Help me understand why the 
Department would agree to eliminate a program that serves a valuable 
policy purpose and that experts agree is working?
    Answer. The BLS believes that its proposal to discontinue the 
Current Employment Statistics (CES) series on women workers is in the 
best interest of public policy. The discontinuation of the women 
workers series is part of a larger set of changes that the BLS has 
proposed for the CES survey. The BLS' decision to discontinue the women 
workers series is based on three factors: (1) the availability of 
extensive information on women's employment from the CPS, (2) the 
public's lack of use of the CES data, and (3) a desire to reduce 
respondent burden for a voluntary survey.
    Data on women's employment, occupations, earnings, and other labor 
force statistics will continue to be available from the Current 
Population Survey (CPS), a monthly survey of about 60,000 households. 
From the CPS, users have access to a rich source of data on women's 
employment, unemployment, and earnings by industry, occupation, 
education, age, marital status, and other characteristics. These data 
are used extensively in the study of women in the labor force.
    The BLS recognizes that one of the main concerns expressed about 
the proposed discontinuation of the women worker series is that the CES 
is superior to the CPS for analyzing month-to-month trends. However, 
the agency believes that such short-term measures are not appropriate 
for most assessments of the changing status of women (or any 
demographic group) in the labor market. When examining longer term 
trends, the advantage the CES has in sample size declines in 
importance. The two surveys have displayed similar trends for women's 
employment growth over the past several years.
    CPS data are used extensively in the study of women in the labor 
force. By contrast, CES women workers series are little used. In an 
effort to gauge the impact of the proposal to terminate the women 
workers series, the BLS undertook an analysis of the extent to which 
this data series is used by researchers and the general public. The BLS 
found that, while there was an average of 130,000 requests per month 
for CES national estimates through the BLS public use website, only 
about one-half of one percent of those requests were for the women 
worker employment series. Additionally, an informal literature search 
by BLS found almost no usage of CES women worker series. Articles that 
addressed women's employment and earnings issues nearly all used data 
from the CPS as their source.
    In addition, although the data it produces are used but rarely, the 
series imposes a significant reporting burden on some survey 
respondents because payroll records do not typically include gender 
identification. It is important to consider the context in which the 
women worker data is collected. The BLS relies upon the voluntary 
cooperation of approximately 155,000 businesses each month 
(representing about 400,000 individual worksites) in providing 
information from their payroll records on the employment, hours, and 
earnings of their workers. In an increasingly difficult data-collection 
environment, survey response burden is a crucial factor in survey 
design. We must minimize this burden to ensure the continued accuracy 
and integrity of the payroll data on which we rely to produce the 
Employment Situation, which is a principal Federal economic indicator 
and represents some of the nations most closely watched economic data. 
The individuals who complete the CES report often have indicated that 
gender information is not present on their standard payroll records and 
that they do not have ready access to the data. As an example of this 
burden, although 100 percent of employers who respond provide their 
total employment count, approximately one out of every six declines to 
provide data on female employment. In addition, the BLS proposal stems 
from a view that it is poor public policy to continue burdening several 
hundred thousand respondents each month to produce a data series with 
only a small handful of users.
    The BLS' proposed elimination of the women worker series in the CES 
survey is a part of a larger agency effort to improve the survey's 
relevance to the needs of data users and its value as input to other 
key economic statistics. For example, in mid-2005, the CES is changing 
its current policy of collecting data only for production and non-
supervisory employees and will begin collecting data for two new 
series: hours and regular earnings of all employees, and a total 
earning series (including both regular and irregular pay) for all 
employees. These changes are designed to make the survey more 
responsive to the needs of data users and increase its value in 
relation to other key economic statistics. For example, the Bureau of 
Economic Analysis has long sought more timely data on all-employee 
earnings in its construction of national income statistics. The new all 
employee hours and earnings series will provide more comprehensive 
information than the present series for analyzing economic trends. They 
also will provide improved input for other major economic indicators, 
including series on non-farm productivity, as well as eliminate a 
potential source of bias in BLS estimates of the productivity growth 
rate.
    The Department believes that accurate data on women's employment 
are crucial to understanding the economic opportunities that are 
available to women today. As we have indicated, the BLS will continue 
to collect timely and accurate data on women workers through the CPS, 
which is an overall richer source of data for women workers than the 
CES.

                         FEWER WORKERS TRAINED

    Question. Page 41 of your Budget Justification Material states 
that, with the Fiscal 2005 appropriation, you expect to serve 870,000 
participants in the Dislocated Worker Programs; 475,200 participants in 
the Adult Block Grant program; and 329,000 participants in the Youth 
Block Grant program. Yet you estimate that only 400,000 persons will be 
trained when these programs are consolidated as you are requesting for 
2006. Why is it that the current level of more than 1.6 million 
participants will only lead to 400,000 trainees next year?
    Answer. The estimated participant levels for fiscal year 2005 for 
the Adult and Dislocated Worker programs reflect the number of 
individuals receiving all types of employment assistance--not just 
those receiving job training. Also, the figure of 870,000 for the 
Dislocated Worker program was included in error--the correct 
participant level is 368,700.
    The Employment and Training Administration's fiscal year 2006 
Budget request emphasizes the Administration's commitment to increasing 
employment and training opportunities by funding new Consolidated State 
Grants that merge the WIA Adult, Dislocated Worker, and Youth programs 
and the Wagner-Peyser Employment Service program into a single base 
grant. The fiscal year 2006 Budget estimates that between 18,535,700 
and 18,960,000 participants will be served through the consolidated 
grants.
    The President's proposal for job training reform would double the 
number of workers receiving job training through major WIA grant 
programs, from approximately 200,000 to 400,000 annually. By 
eliminating unnecessary overhead costs and simplifying administration 
through the consolidation of duplicative employment and training 
bureaucratic structures, we project an overall savings of at least $300 
million, which can be used by States for training an additional 100,000 
workers annually. In addition, the President has requested $250 million 
for Community Based-Job Training Grants for fiscal year 2006. This new 
initiative, which will begin July 1, 2005, will utilize our nation's 
successful community colleges to train 100,000 more workers annually.

                          SUBCOMMITTEE RECESS

    Senator Harkin. Thank you very much, Madam Secretary.
    The subcommittee will stand in recess to reconvene at 10:30 
a.m. on Wednesday, March 16, in room SD-138. At that time we 
will hear testimony from the Honorable Michael O. Leavitt, 
Secretary, Department of Health and Human Services.
    [Whereupon, at 11:37 a.m., Tuesday, March 15, the 
subcommittee was recessed to reconvene at 10:30 a.m., 
Wednesday, March 16.]


DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
              AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                       WEDNESDAY, MARCH 16, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:42 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Arlen Specter (chairman) 
presiding.
    Present: Senators Specter, Craig, DeWine, Harkin, Kohl, 
Murray, and Durbin.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                        Office of the Secretary

STATEMENT OF HON. MICHAEL O. LEAVITT, SECRETARY
ACCOMPANIED BY:
        KERRY WEEMS, ACTING ASSISTANT SECRETARY FOR BUDGET, TECHNOLOGY, 
            AND FINANCE
        JENNIFER YOUNG, ASSISTANT SECRETARY FOR LEGISLATION

               OPENING STATEMENT OF SENATOR ARLEN SPECTER

    Senator Specter. Good morning. The Subcommittee on Labor, 
Health and Human Services, Education, and Related Agencies will 
now proceed. We have established a record for starting these 
hearings on time so that we do not keep busy people waiting or 
people who are not busy waiting. But as I had said a moment or 
two ago, the floor manager had scheduled my amendment for 
increasing the budget of the subcommittee by $2 billion, $1.5 
billion for the National Institutes of Health, and $500 million 
for Education. We just concluded the argument and came right 
over here and have had a very brief discussion with the 
distinguished Secretary.
    We do welcome you here, Mr. Secretary. You come to this 
office with a very, very distinguished record with the 
governorship of Utah and Administrator of the Environmental 
Protection Agency, and a very distinguished record before 
public service. We look forward to working with you.
    My full statement will be made a part of the record and in 
view of our late arrival I will make only a very few 
introductory remarks. As I had commented to the Secretary when 
we moved the hearing from 9:30 to 10:30, that has compressed my 
schedule, and I've asked Senator DeWine to be here to take over 
the chairmanship here at 11.
    But the only introductory comments that I will make are the 
daunting tasks which we all have. We have a budget for the 
subcommittee which is several billion dollars under what it was 
last year. We have a 3.5 percent cut for the Department of 
Labor. We have a $500 million cut for Education. There is a 
proposed budget for your Department, Mr. Secretary, for $62.4 
billion, which is a reduction of almost $1.3 billion, and 
that's not calculating the inflation rate. So that means it's 
another $2 billion on top of a billion, probably $3.5 billion.

                           PREPARED STATEMENT

    But you come to this job with a great reputation for being 
a wonder worker, so we will watch your work and we will work 
with you. Now I yield to my distinguished colleague, the 
seamless Senator Harkin.
    [The statement follows:]
              Prepared Statement of Senator Arlen Specter
    This morning, the subcommittee on Labor, Health and Human Services, 
Education, and Related Agencies will discuss the President'S $62.4 
billion 2006 budget request for the Department of Health and Human 
Services, which is $1.3 billion below the fiscal year 2005 level. We 
are Delighted to have before us the distinguished Secretary of Health 
and Human Services, the honorable Michael O. Leavitt.
    This subcommittee is pleased to see several shared priorities 
funded in the fiscal year 2006 budget, including $303 million over the 
fiscal year 2005 level for Community Health Centers and $203 million 
over the fiscal year 2005 level for the Strategic National Stockpile to 
protect our Nation against bioterrorism.
    However, this subcommittee is concerned by the small 0.5 percent 
increase in Biomedical Research Funding at the National Institutes of 
Health--which is a cut in real terms. Also of concern are the large 
cuts in funding of many HHS programs, including the complete 
elimination of 35 programs.
    Mr. Secretary, I know that you can appreciate the difficult 
tradeoffs that this subcommittee will need to negotiate in the coming 
months as we balance the competing pressures of biomedical research, 
worker protection programs and continued investment in our Nation's 
youth. Mr. Secretary, I look forward to working with you as we craft an 
appropriations bill that maintains our commitment to fiscal restraint 
while preserving funding for high priority programs.

                OPENING STATEMENT OF SENATOR TOM HARKIN

    Senator Harkin. Thank you very much, Mr. Chairman. I will 
follow your lead and not make a full opening statement. Again, 
thank you, Mr. Chairman, for your leadership on the floor, on 
NIH, to get that funding back up. It just--at a time when we're 
making so many great breakthroughs, when we've finished mapping 
the human gene, when we've gotten a lot of young people now 
more interested in basic research because of the doubling of 
NIH, now it seems like, well, we did that and now we don't have 
to do anything more.
    But that was just catch-up ball. We were just playing 
catch-up ball. Now we've caught up, now all of a sudden we're 
moving back again. So I just want to compliment my friend and 
my chairman for taking the lead on the floor on this.
    Just a couple--three things, Mr. Secretary. Again, welcome 
you to your first appearance before our subcommittee. 
Congratulations on your new position. Like the chairman, we 
have met personally and I've just heard a lot of good things 
about you, and your reputation is sterling, I can say that.
    I just--a couple of comments on the budget, eliminating 
services for some 25,000 kids on Head Start. That's very 
bothersome. The community services block grant program. Now, 
you might say, well, we're continuing some of the things like 
LIHEAP and Head Start, things like that, but if you don't have 
the people that do it, how does it get done? Community services 
block grants being zeroed out is just--I don't know what we--
what could be behind that.
    There's one other thing, the systems change grant. Your 
predecessor was very strong and the President was, the 
President spoke about this in the past, better check the record 
on the system change grants. This has to do with the court 
case--what am I thinking about--Olmstead case. The Supreme 
Court decision said that people with disabilities must live in 
the least restricted environment.
    Well, we've built up a system of nursing homes in this 
country that are still needed for some obviously. But for a lot 
of people with disabilities who can get to the community, they 
need these system change grants. Your predecessor and the 
President has spoken strongly about this and something called 
money follows the person, but there's nothing in this budget 
for it.
    So, again, just a few of those things I wanted to point to, 
but lest you think I think everything's bad in this budget, I 
compliment you for the increase in the community health 
centers. This is one thing that serves--the $300 million 
proposed increase is welcome, it's needed. They do a great job 
I'm sure in your State, mine, all over the country. So that is 
one right spot in this budget that will have our full support, 
you can be assured.
    Thank you, Mr. Secretary. Thank you, Mr. Chairman.
    Senator Specter. Thank you, Senator Harkin. We welcome you 
again, Mr. Secretary, and the floor is yours. We look forward 
to your testimony. Your full statement will be made a part of 
the record and our practice is to ask you to summarize to the 
extent you can, leaving the maximum amount of time for 
questions and answers. We have a very good attendance for the 
subcommittee today.

              SUMMARY STATEMENT OF HON. MICHAEL O. LEAVITT

    Secretary Leavitt. Thank you, Mr. Chairman, and Senator 
Harkin. I will in the spirit of efficiency summarize quickly. 
As you indicated, the budget--the overall budget is $642 
billion. That's a 10 percent increase over last year. Much of 
that will be in the Medicare Modernization Act and its 
implementation.

                                MEDICAID

    This subcommittee, as you pointed out, is $62.4 billion, 
and it's a lot of money, and we're here to do our best to 
defend how in fact we will do it efficiently. I hope we have a 
chance today to talk about Medicaid. Forty six million 
Americans are served by it. It's rigidly inflexible. The 
Governors are desperate to have some change so they can 
maintain coverage for people who have it and hopefully provide 
coverage for some who don't.
    I hope we have a chance to talk some about the 
implementation of the Medicare Modernization Act. That's the 
main event for 2005 in my opinion for HHS, and we're working 
hard to make certain that it's done well. We all have a 
substantial stake in its implementation.
    Community health centers is a favorite of mine to talk 
about too, Senator Harkin, and I'm hopeful that we'll get a 
chance to talk more about that.
    Homeland defense has been very much on my mind, as I 
suspect it is everyone else's, $4.3 billion to continue our 
work there, $600 million of it into strategic stockpiles. Our 
goal is to have needed medications within 12 hours of every 
man, woman, and child in the United States.
    NIH, a subject I know that's very important to you, 
Senator, and to others, $28.8 billion, $1.8 billion of that 
again in biodefense. The flu has become an area of major 
concern to me, particularly the--as we begin to see the avian 
flu become more prominent in Asia. I hope we have a chance to 
talk about our preparation there.
    The President has emphasized faith-based initiatives also, 
his hope that reauthorization of the Welfare Act of 1996 could 
be accomplished this year. This budget will support the 
administration's belief in both faith-based and also in 
abstinence education. The budget does support Head Start with 
$6.9 billion.

                           PREPARED STATEMENT

    A subject I hope we get a chance to talk about is Health 
IT. That's an issue that I intend to take on personally.
    It's what I believe to be a lean but strong and fiscally 
responsible budget, and I'm looking forward to more 
conversation.
    [The statement follows:]

             Prepared Statement of Hon. Michael O. Leavitt

    Good morning Mr. Chairman, Ranking Member Harkin, and members of 
the Subcommittee. I am honored to be here today to present to you the 
President's fiscal year 2006 Budget for the Department of Health and 
Human Services (HHS). The President and I share an aggressive agenda 
for the upcoming fiscal year, in which HHS advances a healthier, 
stronger America while upholding fiscal responsibility and good 
stewardship of the People's money.
    In his February 2nd State of the Union Address, the President 
underscored the need to restrain spending in order to sustain our 
economic prosperity. As part of this restraint, it is important that 
total discretionary and non-security spending be held to levels 
proposed in the President's fiscal year 2006 Budget. The budget savings 
and reforms in the President's Budget are important components of 
achieving the President's goal of cutting the budget deficit in half by 
2009 and we urge the Congress to support these reforms. The President's 
fiscal year 2006 Budget includes more than 150 reductions, reforms, and 
terminations in non-defense discretionary programs, 19 of which affect 
HHS programs. The Department wants to work with the Congress to achieve 
these savings.
    The President's health agenda leads us towards a Nation of 
healthier Americans, where health insurance is within the reach of 
every American, where American workers have a comparative advantage in 
the global economy because they are healthy and productive, and where 
health technology allows for a better health care system that produces 
fewer mistakes and better outcomes at lower costs. The fiscal year 2006 
HHS budget advances this agenda.
    The fiscal year 2006 HHS budget funds the transition towards a 
health care system where informed consumers will own their personal 
health records, health savings accounts, and health insurance. It 
enables seniors and people with disabilities to choose where they 
receive long-term care and from whom they receive it. Equally 
important, it builds on the Department's Strategic Plan and enables HHS 
to foster strong, sustained advances in the sciences underlying 
medicine, in public health, and in social services.
    To support our goals, President Bush proposes outlays of $642 
billion for HHS, a 10 percent increase over fiscal year 2005 spending, 
and more than a 50 percent increase over fiscal year 2001 spending. The 
proposed fiscal year 2006 HHS budget increase accounts for almost two-
thirds of the entire proposed federal budget increase in fiscal year 
2006. The overall discretionary portion of the President's HHS budget 
totals $67 billion in budget authority and $71 billion in program level 
funding. The discretionary portion of programs covered by this 
subcommittee totals $62.4 billion in budget authority and $65.3 billion 
in program level funding.
    The Department will direct its resources and efforts in fiscal year 
2006 towards:
  --Providing access to quality health care;
  --Enhancing public health and protecting America;
  --Supporting a compassionate society; and
  --Improving HHS management.
    The President and the Department considered a number of factors in 
constructing the fiscal year 2006 budget, including the need for 
spending discipline and program effectiveness to help cut the deficit 
in half over four years. Specifically, the budget decreases funding for 
lower-priority programs and one-time projects, consolidates or 
eliminates programs with duplicative missions, reduces administrative 
costs, and makes government more efficient. For example, the budget 
requests no funding for the Community Services Block Grant that was 
unable to demonstrate results in Program Assessment Rating Tool 
evaluation. Instead, the Administration proposes to focus economic and 
community development activities through a more targeted and unified 
program to be administered by the Department of Commerce. It is due to 
this scrutiny that I am certain the proposed increases in spending will 
enable the Department to continue to provide for the health, safety, 
and well-being of our People.
    Americans enjoy the finest health care in the world. This year's 
budget provides opportunities to make quality health care more 
affordable and accessible to millions more Americans. Our challenge is 
to ensure that everyone has access to health insurance.

                PROVIDING ACCESS TO QUALITY HEALTH CARE

MMA Implementation
    The next important step toward meeting this challenge is the 
implementation of the Medicare Modernization Act (MMA), including the 
Medicare Prescription Drug Benefit and the new Medicare Advantage 
regional health plans. The Centers for Medicare and Medicaid Services 
(CMS) administrative budget request of $3.2 billion includes $560 
million for implementing the new voluntary drug benefit that begins 
January 1, 2006, enhanced health plan choices in Medicare Advantage, as 
well as numerous other MMA provisions. The new prescription drug 
benefit will cost $58.9 billion in 2006 and will be financed through 
beneficiary premiums and general revenue. The President's Budget also 
proposes $75 million for program integrity efforts to combat fraud and 
abuse in the new Part D and Medicare Advantage programs.
    February 15, 2004 was the final date for plans to submit Medicare 
Advantage 2005 applications to provide coordinated care plans, 
including local preferred provider organizations (PPOs). The deadline 
for stand-alone prescription drug plans, new Medicare Advantage 
contractors, and regional PPOs to submit their ``Notice of Intent to 
Apply'' was February 18, 2005. CMS has received significant initial 
interest from potential prescription drug plan sponsors to offer the 
Medicare drug benefit throughout the Nation. In addition, insurance 
plans have expressed interest in significantly expanding Medicare 
Advantage service areas providing more options to Medicare 
beneficiaries.

Medicaid
    The President and I are also committed to improving Medicaid. 
Medicaid provides health insurance for more than 46 million Americans, 
but as you are all aware, States still complain about overly burdensome 
rules and regulations, and the state-federal financing system remains 
prone to abuse.
    This year, for the first time ever, States spent more on Medicaid 
than they spent on education. Over the next ten years, American 
taxpayers will spend nearly $5 trillion on Medicaid in combined state 
and federal spending. The Department plans to make sure tax dollars are 
used more efficiently by building on the success of the State 
Children's Health Insurance Program (SCHIP) and waiver programs that 
allow states the flexibility to construct targeted benefit packages, 
coordinate with private insurance, and extend coverage to higher income 
and non-traditional Medicaid populations. Additionally, we estimate 
that proposals included in the President's Budget to strengthen program 
integrity and ensure that Medicaid doesn't overpay for drugs will 
create $60 billion in new savings over a ten-year period.
    The President plans to expand coverage for the key populations 
served in Medicaid and SCHIP by spending $15.5 billion on targeted 
activities over ten years. The President's Budget includes several 
proposals to provide coverage, including the Cover the Kids campaign to 
enroll more eligible uninsured children in Medicaid and SCHIP. In 
addition, the extension of the Qualified Individual and transitional 
medical assistance programs will ensure coverage is available to 
continue full payment (subject to a spending limit) of Medicare Part B 
premiums for qualified individuals, and provide coverage for families 
that lose eligibility for Medicaid due to earnings from employment. The 
Department projects that over 50 million individuals will be covered by 
Medicaid and SCHIP in fiscal year 2006, at a federal cost of $198 
billion.

Community Health Centers
    In addition to expanding access through Medicaid and SCHIP, the 
President's Budget builds on the Department's aggressive efforts to 
help those who are uninsured or underinsured by expanding the good work 
of community health centers. These centers provide quality, 
compassionate care to the patients who need our help the most, 
regardless of their ability to pay.
    The President's Budget requests $2 billion, a $304 million increase 
from fiscal year 2005, to fund community health centers. This request 
completes the President's commitment to create 1,200 new or expanded 
sites to serve an additional 6.1 million people by 2006. By the end of 
fiscal year 2006, the Health Centers program will deliver high quality, 
affordable health care to over 16 million patients at more than 4,000 
sites across the country. Health centers are effectively targeted to 
eliminate health disparities and provide a range of essential services. 
In 2006, health centers will serve an estimated 16 percent of the 
Nation's population who are at or below 200 percent of the federal 
poverty level. Almost forty percent of Health Center patients have no 
health insurance and 64 percent are racial or ethnic minorities. In 
addition, the President has set a new goal to help every poor county in 
America that lacks a community health center by establishing a 
community health center in counties that can support one, or a rural 
health center. The President's Budget includes $26 million to fund 40 
new health centers in high poverty counties.

Ryan White/HIV
    Our request also includes approximately $18 billion for domestic 
AIDS care, treatment, research, and prevention. We are committed to the 
reauthorization of the Ryan White CARE Act treatment programs, 
consistent with the President's reauthorization principles of 
prioritizing lifesaving services including HIV/AIDS medications and 
care; providing more flexibility to target resources; and ensuring 
accountability by measuring progress. The President's Budget requests a 
total of $2.1 billion for Ryan White activities, including $798 million 
for lifesaving medications through the AIDS Drug Assistance Program.

Providing Access to Quality Health Care: The Administration's 
        Comprehensive Plan
    These projects and reforms, as well as those at other Departments, 
cooperate to extend health care and insurance to millions of people. 
For instance, the President proposes to spend more than $125.7 billion 
over ten years to expand insurance coverage to millions of Americans 
through tax credits, purchasing pools, and Health Savings Accounts. The 
proposed Traditional Health Insurance Tax Credit would pay for 90 
percent of the cost of the premium of standard coverage, up to a 
maximum of $1,000 for an individual, and $3,000 for a family of four. 
The proposed Health Insurance Tax Credit for those with Health Savings 
Accounts (HSAs) would allow individuals to use a portion of the credit 
to purchase a high-deductible health plan while putting the remaining 
portion of the credit in an HSA. The Administration also proposes 
legislation that would that would allow small employers, civic groups, 
and community organizations to band together and leverage purchasing 
power to negotiate lower-priced coverage for their employees, members, 
and their families through Association Health Plans (AHPs). As opposed 
to previous proposals that limited AHPs to small businesses, this 
proposal also applies to private, non-profit, and multi-state entities 
outside the workplace.
    Thanks to the comprehensive nature of this vision, workers are 
already investing money tax-free for medical expenses through Health 
Savings Accounts, Americans have increasing flexibility to accumulate 
savings and to change jobs when they wish, and more Americans are 
accessing high-quality health care. We estimate that 12 to 14 million 
additional people will gain health insurance over the next ten years.

             ENHANCING PUBLIC HEALTH AND PROTECTING AMERICA

Bioterrorism Preparedness
    Since 2001, your support for HHS's bioterrorism efforts has been 
unwavering. As a result we have made tremendous strides in protecting 
our Nation from various threats. The HHS fiscal year 2006 budget builds 
upon these achievements to strengthen our ability to minimize the 
number of casualties that would occur as a result of a bioterrorist 
attack, or other attack with weapons of mass destruction. From 2001 to 
2005, HHS invested nearly $15 billion to prepare our Nation's health 
systems. The fiscal year 2006 budget requests $4.3 billion to continue 
this work, a 1,500 percent increase from the 2001, pre-9/11 level.
    The fiscal year 2006 request places the highest priority on those 
programs that address readiness issues for which there is a unique 
federal role. These include the new mass casualty initiative, the 
Strategic National Stockpile (SNS), and National Institutes of Health 
(NIH) research on next-generation countermeasures.
    HHS has a responsibility to lead public health and medical services 
during major disasters and emergencies. Toward this end, the 
President's Budget would invest $70 million in a new effort to develop 
federal mass casualty treatment capacity that can be rapidly deployed 
and staffed to supplement the surge capacity being developed at the 
state and local level. Of this amount, $50 million, financed through 
the SNS, will be used to procure and manage the mass casualty treatment 
units. The Medical Reserve Corps will be expanded by $12.5 million to 
support the enrollment, training, and credentialing of volunteers that 
could be deployed in the event of a national emergency. A new $7.5 
million effort will fund the development of a secure database that can 
consolidate healthcare provider credentialing information from federal, 
state, and non-government sources for quick retrieval in a major 
emergency. This activity will be fully coordinated with the state-based 
Emergency System for Advance Registration of Volunteer Healthcare 
Personnel that the Health Services and Resources Administration (HRSA) 
sponsors.
    The Strategic National Stockpile's goal is to provide state and 
local governments the pharmaceuticals and supplies they would need to 
minimize casualties from a bioterrorist attack or other major public 
health emergency within 12 hours. The budget requests a total of $600 
million for the SNS, an increase of $203 million above the fiscal year 
2005 enacted level (including the $50 million for mass casualty 
treatment units discussed earlier). The Administration has continued to 
reassess the stocks that are needed to best protect the American 
population. As a result, by the end of fiscal year 2006, the SNS will 
have sufficient antibiotics to provide prophylaxis to up to 60 million 
Americans exposed to the anthrax organism. The SNS will set up the 
highly specialized cold storage capacity needed for the IND vaccines 
procured through BioShield. Substantial funds will also be used to 
replace medications that are losing potency, and to maintain the 
capacity needed to deploy assets to any part of the Nation within hours 
of the detection of an event.
    Our Nation's ability to detect and counter bioterrorism ultimately 
depends on the state of biomedical science, and NIH will continue to 
ensure full coordination of research activities with other federal 
agencies in this battle. The President's Budget includes $1.8 billion 
for NIH biodefense research efforts, a net increase of $56 million. 
When this is adjusted for non-recurring extramural construction in 
fiscal year 2005, NIH biodefense research activities grow by $175 
million, or 11 percent, over fiscal year 2005. Included in this total 
is a $50 million initiative budgeted in the Public Health and Social 
Services Emergency Fund to develop new medical countermeasures against 
chemicals that could be used as weapons of mass destruction.
    HHS continues to have a strong commitment to preparing States and 
local public health departments and hospitals to prepare against public 
health emergencies and acts of bioterrorism. From fiscal year 2002 to 
fiscal year 2005, $5.4 billion has been invested in this work through 
the Centers for Disease Control (CDC) and HRSA's ongoing state and 
local preparedness programs. The fiscal year 2006 budget includes $1.3 
billion more for this work, increasing the cumulative total to $6.7 
billion.

Influenza
    Since the H5N1 strain of avian influenza first appeared in 1997, 
public health officials have grown increasingly concerned about the 
possibility that a pandemic strain will emerge that could cause an 
additional 90,000 to 300,000+ deaths in the United States. Avian 
influenza has reappeared in Southeast Asia again this year, indicating 
that the virus has become endemic. The fiscal year 2006 budget 
continues to expand HHS's efforts to be prepared in the event this or 
another deadly influenza strain changes in a way that makes it easily 
communicable from person to person.
    Since fiscal year 2001, HHS has increased its direct expenditures 
related to influenza vaccine from $42 million to $439 million in fiscal 
year 2006, in addition to insurance reimbursement payments through 
Medicare. The fiscal year 2006 budget includes targeted efforts to 
ensure a stable supply of annual influenza vaccine, to improve access 
to influenza vaccine for children and Medicare beneficiaries, to 
develop the surge capacity that would be needed in a pandemic, and to 
improve the response to emerging infectious diseases before they reach 
the United States.
    Increasing the use of annual influenza vaccinations will both 
reduce annual morbidity/mortality, and make the Nation better prepared 
in the event of a pandemic. CDC estimates that 185 million people 
should receive annual immunizations but fewer than half of that number 
have ever been immunized in a given year. The President's Budget seeks 
to increase annual immunization rates by both making sure an ample 
supply is manufactured each year and working to ensure it is used. The 
President's Budget includes several initiatives within CDC's two 
immunization programs to expand the production of bulk monovalent and 
finished influenza vaccine for the 2006/7 influenza season. CDC will 
invest $70 million in new resources to build vaccine stockpiles. First, 
CDC will set aside $40 million in new mandatory Vaccines for Children 
(VFC) budget authority for a stockpile of finished pediatric influenza 
vaccine that can be used in the event of a late-season surge in demand; 
the first ever stockpile was purchased for the winter of 2004/5. 
Second, CDC's discretionary Section 317 program will invest $30 million 
in contracts to get manufacturers to make additional bulk monovalent 
vaccine over and above the amounts the companies expect to use for the 
2006/7 season. This added bulk vaccine will be available to be turned 
into finished vaccine if other producers experience problems, or if an 
unusually high demand for vaccine is anticipated. Bulk vaccine not used 
for the 2006/7 season will be kept for potential use the following 
year. Commonly, one or two of the strains in the trivalent influenza 
vaccine remain the same from one year to the next.
    HHS is also continuing its efforts to expand annual influenza 
immunizations. The Section 317 program will also use increased funding 
of $20 million over fiscal year 2005 to purchase an estimated two 
million doses of influenza vaccine for the 2006/7 influenza season to 
help states expand vaccination for children. Centers for Medicare and 
Medicaid Services has taken steps to ensure that physicians have 
appropriate incentives to improve vaccination rates. Since 2002, the 
Medicare reimbursement rate for the administration of influenza vaccine 
has increased more than four times, from an average of $3.98 in 2002 to 
$18.57 in 2005. The reimbursement rate for the vaccine product also 
increased, from $8.02 to $10.10.
    To ensure sufficient vaccine can be made quickly in a pandemic, the 
Nation needs to develop the ability to surge domestic vaccine 
production as soon as scientists determine that a pandemic strain has 
emerged. The President's Budget increases the Department's investment 
in pandemic preparedness efforts by $21 million, for a total of $120 
million in fiscal year 2006. This increase will be used to develop the 
year-round domestic surge vaccine production capacity that would be 
needed in a pandemic; this added surge capacity could also be used to 
respond to unexpected problems in the production of annual vaccines. It 
will finance contracts with vaccine manufacturers to develop and 
license influenza vaccines using new production techniques and 
establishing a domestic manufacturing capability. HHS will continue to 
ensure a year-round supply of specialized eggs needed for domestic 
production of currently licensed vaccines. Manufacturers will be 
encouraged to license and implement new processing and other 
technologies to improve vaccine yields from both new cell culture 
vaccines and existing egg-based vaccines. In addition, HHS will sponsor 
the development and licensing of antigen-sparing strategies that would 
increase the number of individuals who could be vaccinated from a given 
amount of bulk vaccine product. Finally, the President's Budget 
maintains the flexibility to redirect these funds to initiate pandemic 
vaccine production at any time a pandemic appears imminent.
    To improve our Nation's long-term preparedness and enhance the 
annual vaccine supply, NIH will invest approximately $120 million in 
influenza-related research nearly six times the fiscal year 2001 level. 
Research areas include new cell culture techniques for flu vaccine 
production, which complements the advanced development; vaccines for 
potential pandemic strains, including H5N1; next-generation antiviral 
drugs; rapid, ultra-sensitive diagnostic devices to detect influenza 
virus infection; and ways to make flu vaccine more effective among the 
elderly.
    These research and advanced development efforts will be 
complemented by expanding funding for CDC's Global Disease Detection 
initiatives by $12 million, from $22 million to $34 million in fiscal 
year 2006, to improve our ability to prevent and control outbreaks 
before they reach the United States.

Childhood Immunization
    The President's Budget includes proposed legislation in the 
mandatory VFC program to improve low-income children's access to 
routine immunizations that I believe members of this committee should 
strongly support. This proposed legislation would ensure that all 
children have access to all routinely recommended vaccines regardless 
of cost such as the newly-approved meningococcal conjugate vaccine. 
This legislation would enable any child who is currently entitled to 
receive VFC vaccines to receive them at state and local public health 
clinics. There are hundreds of thousands of underinsured children who 
are entitled to VFC vaccines, but can receive them only at HRSA-funded 
health centers and other Federally Qualified Health Centers. When these 
children go to a state or local public health clinic, they are unable 
to receive vaccines through the VFC program and the State may decide 
not to use scarce discretionary dollars to provide newer, more 
expensive vaccines. This legislation will expand access to routine 
immunizations by eliminating this barrier to coverage and will help 
States meet the rising costs of new and better vaccines. As modern 
technology and research has generated new and better vaccines, that 
cost has risen dramatically. For example, when the pneumococcal 
conjugate vaccine became available, it increased the cost of vaccines 
to fully-immunize a child by approximately 80 percent. A new 
meningococcal vaccine has recently been approved that will further 
raise the cost to fully immunize a child making this legislation even 
more important.

Focus on the Future--Health Information Technology and NIH
    Our fiscal year 2006 budget was also constructed with the knowledge 
that health information technology will improve the practice of 
medicine and make it more efficient. For example, the rapid 
implementation of secure and interoperable electronic health records 
will significantly improve the safety, quality, and cost-effectiveness 
of health care. To implement this vision, we are requesting an 
investment of $125 million. The Office of the National Coordinator for 
Health Information Technology would spend $75 million to provide 
strategic direction for development of a national interoperable health 
care system, and to address barriers to the widespread adoption of 
electronic health records. The Agency for Health Care Quality and 
Research continues to direct $50 million to accelerate the development, 
adoption, and diffusion of interoperable information technology in a 
range of health care settings.
    Equally important, major advances in knowledge about life sciences, 
especially the sequencing of the human genome, are opening dramatic new 
opportunities for biomedical research. Heretofore un-imagined prospects 
for more precisely predicting individual susceptibility to disease and 
responses to medication are now close at hand, as are new approaches to 
diagnosing, preventing, and treating disease and disability. These 
advances have been driven by the investments in research made by the 
National Institutes of Health (NIH), the world's largest and most 
distinguished organization dedicated to medical science.
    The fiscal year 2006 budget request for NIH of $28.8 billion seeks 
to capitalize on the opportunities these investments have created to 
further improve the health of the Nation. The NIH budget is built upon 
and reflects the tremendous growth in biomedical research spending in 
recent years. In fiscal year 2006, over $24 billion of the $28.8 
billion requested for NIH will flow out to the extramural community, 
which supports work by more than 200,000 research personnel affiliated 
with approximately 3,000 university, hospital, and other research 
facilities across our great Nation. These funds will support nearly 
39,000 investigator-initiated research project grants in fiscal year 
2006, including an estimated 9,463 new and competing awards. NIH will 
also fund close to 1,400 research centers, over 17,400 research 
trainees, and much more.
    In fiscal year 2006, NIH will also continue to implement the 
Roadmap for Medical Research by spending a total of $333 million, an 
increase of $98 million over fiscal year 2005, on initiatives to target 
research gaps and opportunities that no single NIH institute could 
solve alone. The budget request also emphasizes efforts to enhance 
collaborations for multidisciplinary neuroscience research and 
accelerate efforts to develop and evaluate vaccines against HIV/AIDS. 
Within this total, NIH will also increase funding to address critical 
requirements in biodefense, including a targeted $50 million research 
effort to develop new medical countermeasures for chemicals that can be 
used as weapons of mass destruction.

                   SUPPORTING A COMPASSIONATE SOCIETY

Faith-Based and Community Organizations
    As part of the Administration's Faith-Based and Community 
Initiative, the HHS fiscal year 2006 budget maintains a commitment to 
strengthen the capacity of faith-based and community organizations, 
including the Access to Recovery program, the Compassion Capital Fund, 
the Mentoring Children of Prisoners program, and Maternity Group Homes.
    The toll of drug abuse on the individual, family, and community is 
both significant and cumulative. Abuse may lead to lost productivity 
and educational opportunity, lost lives, and to costly social and 
public health problems, including HIV/AIDS, domestic violence, child 
abuse, and crime. Through the Access to Recovery program, HHS will 
assist States in expanding access to clinical treatment and recovery 
support services and allow individuals to exercise choice among 
qualified community provider organizations, including those that are 
faith-based. This program recognizes that there are many pathways of 
recovery from addiction. Through Access to Recovery individuals are 
assessed, given a voucher for appropriate services, and provided with a 
list of providers from which they can choose. Fourteen States and one 
tribal organization were awarded Access to Recovery funding in fiscal 
year 2004, the first year of funding for the initiative. The funded 
entities have identified target populations that include youth, 
individuals involved with the criminal justice system, women, 
individuals with co-occurring disorders, and homeless individuals. The 
President's Budget increases support for the Access to Recovery 
initiative by 50 percent, for a total of $150 million, and will support 
a total of 22 States participating.
    The Compassion Capital Fund advances the efforts of community and 
charitable organizations, including faith-based organizations, to 
increase their effectiveness and enhance their ability to provide 
social services where they are needed. The President's Budget includes 
$100 million, an increase of $45 million in support of the Compassion 
Capital Fund.
    Within this program, the President has proposed a new focus on 
young Americans that will include support for programs that help youth 
overcome the specific risk of gang influence and involvement. This 
three-year, $150-million initiative will provide grants to faith-based 
and community organizations targeting youth ages 8-17, and will help 
some of America's communities that are most in need. These 
organizations will provide a positive model for youth one that respects 
women and rejects violence.

Abstinence
    Expanding abstinence education programs are also part of a 
comprehensive and continuing effort of the Administration, because they 
help adolescents avoid behaviors that could jeopardize their futures. 
Last year, HHS integrated abstinence education activities with positive 
youth development efforts at the Administration for Children and 
Families (ACF), by transferring the Community-Based Abstinence 
Education program and the Abstinence Education Grants to States to ACF. 
The HHS fiscal year 2006 budget expands activities to educate 
adolescents and parents about the health risks associated with early 
sexual activity and provide them with the tools needed to help 
adolescents make healthy choices. The programs focus on educating 
adolescents ages 12 through 18, and create a positive environment 
within communities to support adolescents' decisions to postpone sexual 
activity. Where appropriate, the programs also offer mentoring, 
counseling, and adult supervision to promote abstinence with a focus on 
those groups which are most likely to bear children out of wedlock. A 
total of $206 million, an increase of $39 million, is requested for 
these activities.

Head Start
    The Head Start program helps ensure that children, primarily in 
low-income families, are ready to succeed in school by supporting their 
social and cognitive development. Head Start programs also engage 
parents in their child's preschool experience by helping them achieve 
their own educational, literacy, and employment goals. The HHS fiscal 
year 2006 budget of $6.9 billion will provide comprehensive child 
development services to 919,000 children. This level includes an 
increase of $45 million to support the President's initiative to 
improve Head Start by funding nine state pilot projects to coordinate 
state preschool, child care, and Head Start in a comprehensive system 
of early childhood programs for low-income children.

Temporary Assistance for Needy Families
    It has been three years since President Bush first proposed his 
strategy for reauthorizing TANF and the other critical programs 
included in welfare reform. During this time, the issues have been 
debated thoroughly but the work has not been completed and States have 
been left to wonder how they should proceed. We believe it is important 
to finish this work as soon as possible and set a strong, positive 
course for helping America's families. The proposal is guided by four 
critical goals that will transform the lives of low-income families: 
strengthen work, promote healthy families, give States greater 
flexibility, and demonstrate compassion to those in need.

Administration on Aging
    The President's Budget requests a total of $1.4 billion in the 
Administration on Aging for programs that serve the most vulnerable 
elderly Americans, who otherwise lack access to healthy meals, 
preventive care, and other supports that enable them to remain in their 
home communities and out of nursing facilities. It also continues 
investments in program innovations to test new models of home and 
community-based care.

                        IMPROVING HHS MANAGEMENT

    The President's Management Agenda (PMA) provides a framework to 
improve the management and performance of HHS. HHS has taken 
significant steps to institutionalize its focus on results and achieve 
improved program performance that is important to the HHS mission and 
the American taxpayer.
    Budget and Performance Integration (BPI) aims to improve program 
performance and results by ensuring that performance information is 
used to inform funding and management decisions. For fiscal year 2006, 
HHS operating divisions produced their first ``performance budgets'' 
which combine budget and performance information in a single document. 
With this new format the Department moved from the traditional approach 
of presenting separate budget justifications and performance plans to 
the use of one integrated document to present both budget and 
performance information. This move also enhanced the availability and 
use of program and performance information to inform the budget 
process.
    HHS has made significant steps in its implementation of the 
President's five government-wide management initiatives. The Program 
Assessment Rating Tool (PART) is an important component of the Budget 
and Performance Integration initiative and is used to assess program 
performance and improve the quality of performance information. Sixty-
five HHS programs were reviewed in the PART process between fiscal year 
2004 and fiscal year 2006. HHS consolidated 40 personnel offices into 
four Human Resources Centers, which became operational in January 2004, 
and is planning several upcoming projects to support Human Capital 
strategic management. Since the start of the competitive sourcing 
initiative, HHS has competed almost 25 percent of its commercial 
activities, resulting in increased efficiencies and savings for the 
American taxpayer. For example, HHS anticipates gross savings of $55 
million from studies completed in fiscal year 2004, which will be 
redirected to mission critical activities at HHS. This year, HHS will 
focus on structuring competitions to maximize efficiencies and savings, 
as well as implement a savings validation plan. HHS also implemented 
several processes to improve the financial performance of the 
Department, such as streamlining and accelerating the annual financial 
reporting process and combining annual audited financial statements 
with program performance information in the Department's Performance 
and Accountability Report. HHS is also continues to implement the 
Unified Financial Management System throughout the Department. More 
than 95 percent of HHS' information systems have certified and 
accredited security plans. Finally, HHS has been working to achieve a 
more mature Enterprise Architecture that links performance to 
strategic, capital planning, and budget processes.
    Over the past four years, the Administration has worked diligently 
with the Department to make America and the world healthier. I am proud 
to build on the HHS record of achievements. For the upcoming fiscal 
year, the President and I share an aggressive agenda for HHS that 
advances a healthier, stronger America while upholding fiscal 
responsibility and good stewardship of the People's money. I look 
forward to working with Congress as we move forward in this direction. 
I am happy to answer any questions you may have.

                          MEDICAID PROTECTION

    Senator Specter. Well, thank you very much, Mr. Secretary, 
for many things, most recently brevity.
    Mr. Secretary, I begin with a question on the Medicaid. It 
has been a topic among Senators. It serves people who are 
desperately in need of medical attention. There is a projected 
reduction which is represented at 1 percent, but in the out-
years it grows exponentially. You come with three terms as 
Governor of Utah, so you've been in the Governor's role. The 
Governors are very concerned about Medicaid.
    Senator Smith of Oregon has offered an alternative proposal 
to take a closer look at it on a commission, not satisfied with 
the review which has been made so far, which has--could have 
more depth. We can always study more. Of course it involves 
some delay. But how will the recipients of Medicaid at the 
present time be protected with the proposal which you have 
backed?
    Secretary Leavitt. Senator, that's the right question in my 
mind. How do we protect the coverage of people who are 
currently being served, and how in fact can we expand the reach 
of Medicaid? It's currently serving some 46 million Americans. 
But some of them are in jeopardy because the program has such 
rigid inflexibility that States are by the nature of that 
inflexibility being forced to look at diminishing the coverage 
substantially or eliminating the coverage of many optional 
groups.
    A couple of points. One is, if there is any perception that 
Medicaid is being cut, I would like to suggest that is not 
correct. The Medicaid budget will grow by in excess of 7 
percent over the next 10 years. We'll see almost $5 trillion 
spent at the end of that 10 years. We'll see $900 billion more 
from the Federal side be put into Medicaid. It is a rapidly 
growing program.
    What the budget does reflect is a desire to see it increase 
at a slightly slower rate. The Governors I believe are, as I've 
spoken with them, some--I think I've had conversations now with 
38 of them about this subject in direct and personal ways. 
There are a series of reforms that they're anxious to see that 
provide flexibilities that will allow them to continue the 
coverage of many who they believe are imperiled.
    The reforms are quite common sense in my mind. One is to 
reduce the amount that's paid for prescription drugs, not to 
reduce the number of people served by them or to reduce the 
number of drugs they can receive, but to change the way in 
which they are paid for. Medicaid would be widely known as the 
best payer in the business. They pay higher costs for 
prescription drugs than Medicare or for that matter most 
private plans. This would propose a statute change that would 
allow them to essentially pay the same rate as Medicare Part B 
will pay.
    The second reform is caring for what's known as an asset 
spend-down where people have learned to give their assets to 
their children so that the State can pay for their Medicaid, 
and Governors would like to see that changed.
    The third is in being able to provide a series of co-pays 
among those who are in higher income brackets served by 
Medicaid. Governors are interested to see Medicaid recipients 
become cost-conscious consumers in the same way that others are 
required.
    The fourth would be really a celebration of SCHIP, to use 
SCHIP more broadly to provide more flexibility in constructing 
benefit plans of again mostly mothers and children in higher 
income brackets that would provide the ability to serve more.
    The last is an important reform, and that is as the number 
of elderly served by Medicaid increases and will clearly 
increase in the future, there's a desire to in essence liberate 
Medicaid from exclusive use of nursing homes. We'd like to be 
able to have people served in their homes and in communities. 
It's more efficient, and frankly that's where they want to be 
served.
    So, Senator, those are the reforms that are on the table. 
They are reflected in the budget as a budget reduction, but 
only because they provide flexibility that in my judgement 
almost all the States will be using in health care in different 
ways to preserve the coverage of those who might lose it 
otherwise.
    Senator Specter. Mr. Secretary, let me compliment you on 
finishing your answer within 2 seconds of the allotted time 
which I have. That plus your opening statement on brevity gets 
you off to a very, very good start with this subcommittee.
    Secretary Leavitt. Thank you.
    Senator Specter. I'm now going to turn the gavel over to my 
distinguished colleague, Senator DeWine, to relieve me on the 
chairmanship. Thank you very much.
    Secretary Leavitt. Thank you, Senator.
    Senator DeWine [presiding]. Senator Harkin.

                       IOWA ARMY AMMUNITION PLANT

    Senator Harkin. Thank you very much, Mr. Chairman. Mr. 
Secretary, we visited earlier. We talked about briefly, a month 
or so ago, I forget when it was, about the situation at the 
Iowa Army ammunition plant that had to do with workers who had 
worked there for years in a nuclear weapons facility there.
    A little background. Several years ago a worker had 
contacted me there because of all the cancers that had been 
happening to people, asked me to look into this. I contacted 
the Department of the Army who informed me that they had never 
assembled nuclear weapons there, and so I went out on a limb 
and told this guy that he must be mistaken, and he never gave 
up, Mr. Anderson never gave up. He came back and we finally 
found out that in fact they had been assembling nuclear weapons 
there for many, many years, and many of the workers there were 
exposed to high levels of radiation, had no knowledge of this. 
They were sworn to secrecy. Many of them never talked to 
doctors, never talked to anyone, because of this oath of 
secrecy they had taken.
    Well, this has all gone through a lot of hearings and 
processes and stuff. Senator Bond and I have managed to win 
four votes on this. But basically the NIOSH Advisory Board on 
Radiation and Worker Health voted seven-zip, seven to nothing, 
to provide automatic compensation for former nuclear weapons 
workers at the Iowa Army ammunition plant.
    Now, under the law they are then to notify you by letter of 
their decision. Under the law you then have 30 days whether to 
approve or disapprove of this, and then of course Congress then 
can step in depending upon what the decision is. Have you 
received any--that notification yet?
    Secretary Leavitt. No.
    Senator Harkin. Well, this may be an unfair question, but 
I'll ask it. Do you have any explanation as to why you have not 
received an official notification?
    Secretary Leavitt. I don't. I've read accounts that the 
vote took place as you have indicated. I'm aware that--but I 
can't reconcile why they haven't. When I do receive it, we'll 
obviously act in a way that's timely.
    Senator Harkin. Well, Mr. Secretary, I--well, I wrote them 
a letter yesterday along with others to Mr. Howard, director of 
NIOSH, and Mr. Paul Ziemer, chairman of the Advisory Board on 
Radiation and Worker Health, because I didn't know, I really 
didn't know if they had transmitted or not. So I wrote them a 
letter saying, if you haven't, please do it. So I hope that we 
can find out why it is that they have not forwarded this, 
because these workers have been waiting a long time. It was a--
wasn't even a--as I said, wasn't even a close vote, seven to 
nothing. So I'm hopeful we can move ahead on that.
    The other thing I wanted to talk about just for the record, 
Mr. Secretary, it was reported yesterday that the White House 
disagrees with the GAO opinion that prepackaged video news 
releases prepared and distributed by Federal agencies or their 
public relations firms that do not disclose, that this would 
not constitute illegal covert propaganda.
    One of the videos reviewed by GAO was funded by one of your 
agencies, CMS. Now, again, I don't expect you to have these 
numbers at your fingertips, but if your staff could take note 
of this, as the appropriations subcommittee here, could you 
provide this subcommittee with your anticipated budget for 
fiscal year 2006 for public relations activities, including any 
contracts with public relations firms, media buys, et cetera, 
if you could provide that for the committee.
    Secretary Leavitt. Indeed we will.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Harkin. I appreciate that.

                     MEDICARE MODERNIZATION--PART D

    Secretary Leavitt. Senator, I might just comment----
    Senator Harkin. Sure.
    Secretary Leavitt [continuing]. Make one statement that we 
will obviously follow the guidance of our legal counsel on this 
matter and make certain that we are acting within the scope of 
the rules. We have a very demanding challenge in front of us 
collectively as a government during the next 15 months, and 
it's the rollout of Medicare Modernization, the Part D for 
prescription drugs.
    One of the--at the base of this conflict was the question 
of what tools we should deploy and use to provide people with 
information about their options under Part D. I mention that 
simply to put some perspective on the dilemma we're facing, 
reaching people, educating them. We enlist the help of the 
Senate, and at the risk of eliminating the good reputation I 
formed with Senator Specter on stopping when that red light 
goes on, I'll quit there.
    Senator Harkin. Well, Mr. Secretary, just summing up, we 
send out letters and information to our constituents all the 
time, but we sign our names to it, you know, and I'm certain 
those who in my State who disagree with me dismiss it because 
I've said it, and you know how that goes. But at least they 
know where it comes from.
    Secretary Leavitt. Right.
    Senator Harkin. Do you think that any information provided 
by HHS should be attributed to HHS? I mean, I realize you're 
going to get information out, but at least it ought to say 
where it comes from.
    Secretary Leavitt. That seems like a logical statement to 
me. I don't know the nature of this dispute. I know that there 
has been discussion between GAO and differences of opinion 
about it. At this point, our role is to first of all do the 
best job we can in being able to educate people on the 
opportunity that's there and at the same time make certain 
we're within the rules. I can assure you we'll do our best to 
stay within them.
    Senator Harkin. I thank you. We will, as I said, when you 
send those anticipated figures up, any contracts you have with 
media firms and stuff like that, we would like to analyze that 
closely.
    Secretary Leavitt. Thank you.
    Senator Harkin. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    Senator DeWine. Senator Craig.

                    STATEMENT OF SENATOR LARRY CRAIG

                          PANDEMIC FLU VACCINE

    Senator Craig. Thank you very much, Mr. Chairman. I would 
hope that any activity or publicity that has been garnered as a 
result of certain advertising and information flows does not 
put a chilling effect on what I believe is a fundamental 
responsibility of the agency to communicate with the public, 
and to do so in a forthright and direct way. Clearly as we 
struggled to bring folks on line with the prescription drug 
card and to get them into the system so that as we roll out the 
plan as you're talking about, there clearly needed to be an 
informational flow. There was a partnership at AARP at that 
time that was a cooperative effort, Mr. Secretary, that I think 
worked extremely well.
    So while I do believe there ought to be full disclosure, I 
don't think you or I would dispute that, I would hope that 
anyone who might charge that you're doing something beyond 
without good grounds, this Senate spends a lot of time and 
money getting out our point of view, and more importantly, once 
a policy is developed and ready for the public, I think it's 
important that we communicate it effectively.

                              FLU VACCINE

    One question of you: Last year I wore a different hat than 
I wear today, and that was chairman of the Select Committee on 
Aging--Special Committee on Aging. We spent a lot of time prior 
to and after the announcement by Chiron that they had been 
forced to close their Liverpool plant and could not supply to 
the marketplace and to Americans the necessary flu vaccine that 
we had anticipated. We worked very closely with your 
predecessor in making sure that somehow we made it through, and 
we are making it through this year it appears. At least thank 
goodness we have not had a major outbreak, but the flu is out 
there and it's taking lives as it does.
    But I think you are right to be concerned of a pandemic, 
and therefore, clearly the need in this country to build a 
reliable supply of flu vaccine. We, by a--for a variety of 
reasons including liability, while our class action efforts of 
the past month may help some, we've run a lot of folks offshore 
or out of business. The business of making vaccines is not 100 
percent perfect in all instances. There is liability without 
question.
    Senator Bayh and I have introduced legislation, you're 
right. There are others who have looked at shaping the market 
or assisting the market. When we deal with the flu virus, and 
it is constantly in mutation, you cannot inventory this on the 
shelf and keep it there. It must be new with the season. You 
have to have the capability to produce it. I do believe there 
will come a day when you are right to be concerned about what's 
going on elsewhere in the world as it relates to flu vaccines. 
It is a killer of our elderly, there is no question about it.
    Could you for a moment spend some time on that issue with 
us as to what you anticipate you'll be doing? I see the 
Liverpool plant is back up in operation. It looks like Chiron 
is back in the market. That's wonderful. But we're still--we 
still have a very fragile system. We're looking at new 
techniques beyond the egg to cell for production purposes. 
Enlighten us if you would as to where you see it at this 
moment, and what we might do to assist you in ensuring a 
constant and reliable supply.
    Secretary Leavitt. Judgements on how much and when and what 
to buy are complex and often times required to be made with 
incomplete information, or at least imperfect information.
    Senator Craig. That's right.
    Secretary Leavitt. It's in some respects like many other 
commodity-type business or business decisions where there are 
peaks of use and the question as to whether you buy to the peak 
always or whether you buy what you think will be normal. The 
truth is they will not be manufactured unless there's a market, 
and often times government has to be that market. We've 
proposed in this budget for back-up guarantees some $20 million 
in 2005 and $30 million in 2006, and also $120 million for 
pandemic work for alternative production.
    I would like to just update you some, Senator, on efforts 
we are making to follow the avian flu in Asia. We have people 
on the ground who are now working with various governments in 
their clinics, in their--working with their governments, with 
their practitioners. We're trying to deploy more and more 
resources at the source. Pandemics have occurred on three 
different occasions during this century. There's no reason for 
us to believe they won't happen again. They strike quickly. We 
don't know when they will strike, we don't know where they will 
strike, and as you've suggested, we don't always know the 
strain of the flu, and we have to be in a position to respond 
quickly.
    It is a matter of grave concern to me. I am following this 
literally on a daily basis. I receive a daily briefing now from 
CDC and others involved. Currently I believe that we are 
following the right path, but we'll keep you and other members 
of the committee informed as things develop.
    Senator Craig. Well, I thank you very much. There are many 
of us following this. We're glad to see you fully engaged. 
You've made, in my opinion, the right statement. To ask 
companies to supply to an indeterminate market means that we 
have to stabilize the market, and the only way to do that is 
for government to be the stability. Therefore to, at the end of 
the cycle, to be able to buy out, if you will, excess, as long 
as the companies have met the level of projection, is something 
I think we ought to build a level of expectation for in the 
marketplace. It's in part why we don't have companies operating 
today. We bankrupt them by basically suggesting they supply to 
a market it didn't develop and then we weren't there to sustain 
them in the end.
    So I thank you for that. I'm glad to see there's increased 
money in the budget for those purposes and that we're moving as 
well as we can in relation to pandemic knowledge. Thank you.

                   STATEMENT OF SENATOR MIKE DE WINE

    Senator DeWine. Mr. Secretary, welcome.
    Secretary Leavitt. Thank you, Senator.

                 COMMUNITY ALTERNATIVE FUNDING SYSTEMS

    Senator DeWine. Ohio's Community Alternative Funding 
Systems, the CAFS program, serves individuals with mental 
retardation and developmental disability. However, the CAFS 
program apparently does not comply with Federal mandates, and 
as a result, Ohio will not be providing Medicaid services to 
this fragile population. You and I have talked about this, our 
staffs have talked about this, and I just want to again mention 
it to you that as we, Ohio, works its way through this problem, 
I hope that you will continue to work with Ohio to try to work 
this out. We understand Ohio has to comply with Federal law, 
but we need to make this transition as smooth as we can as we 
find other ways to serve this population. These are kids, these 
are kids in school, these are kids who really are a most 
fragile population. So I just look forward to working with you 
on that.
    Secretary Leavitt. Thank you. May I say that there is no 
disagreement on the nobility of the purpose and a commitment to 
find a solution.

                            MEDICAID FUNDING

    Senator DeWine. Good. We appreciate it. We'll work with 
you. We appreciate you working with us. Thank you very much.
    Last year, one of our Ohio children's hospitals in 
Cincinnati was pursuing a Federal grant trying to find money to 
continue a major project in improving the quality, the safety, 
and the efficiency of its care using technology, best 
practices, and sound management. But they looked around and 
they found that really there was no way to pursue Federal 
funding in regard to kids. It's rather ironic, I think, that 
that is true, because if they had been doing it, if it was an 
adult hospital, they had been doing it, there's Medicare money 
available. There's not Medicaid money available.
    So again we have a situation really where kids are 
discriminated against. I wonder what you can do to change that 
in your Department and what you see is the future to try to 
deal with this.

                        FLEXIBILITY IN MEDICAID

    Secretary Leavitt. I spoke briefly earlier about what I 
believe is a wide and broadly held view that Medicaid is 
rigidly inflexible and that it creates the kind of 
circumstances--we've talked a couple of times already today 
about where there are noble causes, noble pursuits that ought 
to be done, and there's no disagreement on the cause, but 
people are left without the capacity to respond to it.
    That's one of the reasons that we hope very much that the 
Congress will act to provide more flexibility in Medicaid. I 
believe one of those areas would be the ability to construct 
benefit packages that would be tailored particularly in the 
instances of mothers and children. We believe more flexibility 
will not result in anything other than more people being 
covered as opposed to fewer.
    Senator DeWine. Well, this is the type of thing that, you 
know, our children's hospitals really need the ability to deal 
with, and I would hope you would take a look at that as we may 
possibly design something to deal with that.

                  TREATMENT OF CHILDREN WITH HIV/AIDS

    Senator DeWine. Let me move to another area. Currently few 
programs specifically target the treatment of children with 
HIV/AIDS in developing countries. A primary reason is the lack 
of appropriate pharmaceuticals for use in children. We all of 
course know that children are not small adults and treating 
them that way jeopardizes their lives. With 2.5 million 
children infected with HIV around the world, it's essential 
that we have appropriate medications to treat them.
    How does your budget plan and your Department--how do you 
plan to ensure that HIV/AIDS drugs, both generic and brand name 
approved by the FDA expedited process, also include pediatric 
formulations as well as important dosing information needed for 
treating different age groups?
    Secretary Leavitt. Senator, NIH has provided $25 million in 
2004 and 2005, and they're proposing another $25 million in the 
2006 for pediatric drug research. I believe that information on 
the effects of those drugs in children is critically important 
as well, and I'm looking forward to working with you to ensure 
that we have success in this effort.
    [The information follows:]

                             HIV/AIDS Drugs

    On May 17, 2004 FDA published guidance for the pharmaceutical 
industry encouraging manufacturers to submit marketing applications for 
fixed dose combination (FDC) and co-packaged versions of previously 
approved single entity anti-retroviral therapies. The guidance 
encourages the development of pediatric formulations for these 
products. Also, subsequent to the publication of the draft guidance, 
FDA expanded the expedited review program to include single product 
generic applications. Most of the first line antiretroviral agents are 
currently available in pediatric dosage forms, so these pediatric 
formulations can be made available through the generic drug approval 
process.
    Regarding fixed dose and co-packaged combination products, only one 
company thus far has expressed interest to FDA in developing a 
pediatric combination product. This could be explained in part by the 
challenges associated with establishing appropriate doses for pediatric 
patients for a fixed dose combination product. Such combination 
products generally do not provide the dosing flexibility needed for 
pediatric HIV therapy. Also, many of the pediatric formulations are in 
the form of oral solutions that are not amenable to combination product 
development. Combination therapy in younger pediatric patients might 
best be accomplished through the use of individually formulated 
antiretroviral products that can be made available through the generic 
approval process. The adult combination products can be used in the 
older pediatric population.
    Regarding the application of the Pediatric Research Equity Act 
(PREA) to PEPFAR (President's Emergency Plan for Aids Relief) 
applications, the Agency is enforcing PREA for these applications as it 
would with any other application. However, PREA does not apply to most 
generic products or co-packaged products. When PREA does apply to a 
drug (including HIV drugs) we do not hold up approval but grant 
deferrals as appropriate for these life-saving treatments.
    In addition, the pediatric exclusivity provision of the 1997 FDA 
Modernization Act and the subsequent 2002 Best Pharmaceuticals for 
Children Act have generated many clinical studies and useful 
prescribing information for many products, including several for the 
treatment of HIV infection. FDA has an HIV Written Request Template to 
facilitate the development of products. Following are a few examples of 
products that have been approved for treatment of HIV infection in 
children. These approvals resulted from studies submitted in response 
to a Written Request from FDA.
    Ziagen (abacavir), Zerit (stavidine), Videx (didanosine), and 
Viracept (nelfinavir mesylate), in combination with other 
antiretroviral agents, are indicated for the treatment of HIV-1 
infection in children. Use of Ziagen in pediatric patients aged 3 
months to 13 years is supported by pharmacokinetic studies and evidence 
from adequate and well-controlled studies of Ziagen in adults and 
pediatric patients. Use of Zerit in pediatric patients from birth 
though adolescence is supported by evidence from adequate and well-
controlled studies of Zerit in adults with additional pharmacokinetic 
and safety data in pediatric patients. Use of Videx in pediatric 
patients two weeks of age through adolescence is supported by evidence 
from adequate and well-controlled studies of Videx in adults and 
pediatric patients. Use of Viracept in pediatric patients from age 2 to 
age 13 is supported by evidence from adequate and well-controlled 
studies of Viracept in adults with additional pharmacokinetic and 
safety data in pediatric patients.
    In addition, in March 2003, the Pediatric Subcommittee of the 
AntiInfective Drugs Advisory Committee of the Food and Drug 
Administration, Center for Drug Evaluation and Research discussed the 
development of antiretroviral drugs in HIV-infected and HIV-exposed 
neonates younger than four weeks of age. The Advisory Committee 
supported the continued need for development of products for neonates.
    These are just a few examples that demonstrate FDA's commitment to 
the principle that product development should include pediatric studies 
when pediatric use of the product is intended. In addition, through 
efforts to make safe and effective antiretrovirals available for 
treatment of HIV across much of the developing world, we expect to 
reduce the number of children born with HIV infection and thus 
significantly impact global health.

    Senator DeWine. Good. Well, my time is up, but we hope to 
continue to work with you on this. Thank you very much. Senator 
Kohl is gone. Senator Murray.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you very much, Mr. Chairman. Mr. 
Secretary, thank you for being here today. I can't think of an 
agency that doesn't have more direct impact on lives of every 
single one of the constituents we represent here, and it's a 
tremendous job and we appreciate you taking it on.

                               HEAD START

    I do want to make one comment on Head Start. We had a 
conversation about this before and in a written response you 
sent to me you said that you are committed to ensuring the 
implementation of the President's proposals on Head Start that 
provide an opportunity for more children to be served by local 
Head Start programs at the highest level of quality.
    I liked the statement, but unfortunately the President's 
proposal does not provide for more kids to be in Head Start, 
and I just really urge you to go slow on this proposal. If we 
break the compact that these local communities have in 
providing Head Start, I think we're going to take away the 
basic tenet that Head Start was put together on. It's not just 
an education program. It's making sure that kids are ready to 
learn when they get to school.
    So I just--I ask you again, I will tell you I'm going to be 
working hard to make sure that we do this right and you'll be 
hearing more from me on that, because I'm very concerned the 
President's proposal will eliminate an important compact and 
just essentially put in another bureaucratic layer of 
government that won't help any child get to school ready to 
learn.

                         MIGRANT HEALTH CENTERS

    What I did want to ask you about today, however, is the 
budget request which we are here to discuss today, and I am 
very concerned about the mixed messages that we're sending 
communities. I really appreciate the President's leadership on 
funding for the community in migrant health centers. I couldn't 
agree more with the administration's support for these centers, 
because they do provide prevention-based affordable health 
care. They're not just a safety net. They really do a good job 
in providing health care for low income, often uninsured 
patients that often fall through the cracks in our health care 
system. So I applaud the administration's request for another 
$304 million. I think that's great.
    But what I am concerned about is a number of the other 
budget policies that are coming at us will make it impossible 
for these community health centers to meet their mission and to 
provide the health care that we're asking them to. The other 
proposals on New Starts and Medicaid and the elimination of 
coordination services like the Healthy Community Access Program 
are going to have a huge impact.
    We know that our community health centers are already 
seeing double digit increases in the number of patients that 
need care, and as the number of patients uninsured continue to 
increase, their load is going to continue to increase. We need 
to make sure that we're not just funding new health centers, 
but we're making sure that the existing ones get the support 
they need.
    Medicaid on average accounts for more than 30 percent of 
the revenue for these community health centers, so any policy 
cuts in Medicaid is going to have a direct impact on that. I'm 
already hearing from all of my community health centers that 
they are deeply concerned about the proposed cuts in Medicaid. 
We're already dealing with a mental health crisis under 
Medicaid. I think you know CMS just notified Washington State 
that they can no longer depend on the $82 million annually to 
provide community-based mental health care for low income 
patients.
    Another policy I'm very concerned about is you talked about 
providing flexibility, but you're taking away, but that's a 
point for another day. The community health centers are the 
ones who are going to absorb the impact of that on them.
    Then the elimination of the Healthy Community Access 
Program that works out in our communities. I know the 
administration in the past has said it's not effective. I 
really invite you out to Washington State or to talk to some of 
our HCAP grantees, because they really are making a difference. 
Elimination of that is going to be very hard for our community 
health centers to be able to succeed.
    So my question to you is, thank you for providing 
additional funds, but budget policies that impact these 
community health centers in very negative ways are going to 
make it impossible. How do you reconcile increasing the money 
but passing the policies that make it very difficult for them 
to be successful?
    Secretary Leavitt. Senator, let me respond on Head Start. 
I'll go through all of the three areas you talked about. The 
President's proposal would actually allow for 9,729 additional 
students to be served by Head Start. The President and the 
Secretary of HHS are enthusiastic about Head Start and want to 
make sure it continues not just to serve those, but to expand. 
I've had a number of meetings now with Secretary Spelling to 
talk about how we could coordinate activities between the 
Department of Education and HHS. We think that that will 
leverage those funds even further.
    With respect to health center funds and the whole subject 
of community health centers, that's another area where we share 
enthusiasm. We think that the President's proposal puts us 
again on a path to complete his objective of 1,200 new and 
expanding centers. This one will add 40 in the areas with the 
lowest incomes.
    We have made a policy decision to emphasize actual service 
delivery, and there are places in this budget, with health 
center funds being one of them, where the actual--where by 
statute only 15 percent of those funds could go for service 
delivery and went for other matters ancillary to it. So there 
was a priority put on our part for the actual delivery of 
funds.
    With respect to Medicaid, clearly community health centers 
are dependent upon continued participation by Medicaid. I 
think, as you pointed out and others have, that it's nearly 35 
percent of their overall budget. We want them to succeed. A cut 
in the number of dollars in Medicaid would in fact be alarming. 
However, this budget will reflect more than 7 percent more 
dollars going into Medicaid than did before. This is not a 
matter of cutting. We want Medicaid to increase. We want it to 
increase .2 of 1 percent than what had been proposed before, 
but there are very few large numbers in the President's budget 
that will reflect a 7 percent-plus increase, and Medicaid is 
one of them.

                               HEAD START

    Senator Murray. Well, I appreciate your response. I know 
I'm out of time. I just would ask you again to go cautiously 
with Head Start, because it is more than just an education 
program, and it is a success story, and I want to make sure we 
don't undo that.
    I just am concerned that if we just focus on new community 
health centers we are going to leave the ones that are out 
there not doing a good job and then we'll be back here saying, 
well, they don't do a good job, let's not fund any of them, and 
I don't want to go there. I think it's really important to 
understand the health care impact, the crisis, the budget 
numbers that are hitting these, the number of uninsured that 
are increasing, and we need to be able to do our part here. I 
will continue to work on that. I know you care as well, so 
thank you very much.
    Secretary Leavitt. Thank you.
    Senator DeWine. Senator Durbin.

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Thank you very much, Mr. Chairman. George 
Carlin is a great observer of life and has a routine relative 
to riding on airplanes, most of which cannot be repeated at 
this hearing.
    But there is one thing he observes: When starting to land 
in an airplane, the flight attendant says, let me be the first 
to welcome you to Washington DC. Carlin asked, if you're on the 
same plane I'm on, how can you be welcoming me anywhere? I 
would like to welcome you to this committee, but since this is 
the first time I've ever been on this committee, I can't. I'm 
just happy to be here with you today.
    Secretary Leavitt. Thank you.

                         MEDICAID AND MEDICARE

    Senator Durbin. I can't officially welcome you, but I've 
wanted to be on this subcommittee for a long time and I'm glad 
that it finally happened. It's very critical and important.

                            SOCIAL SECURITY

    The President is on a 60-day tour around America to cities 
to talk about the crisis or challenge or problem, or whatever 
is the word du jour of Social Security. There are many of us 
who believe that Social Security does present a challenge that 
we should address and address now with sensible, common sense 
approaches that over the long term will help us meet our needs.
    I'd like to show you a chart though that compares the 
challenge of Social Security to other challenges. I'll make 
sure the Secretary can see it there. You'll note on this chart 
that over the period of time of our debate about the costs of 
Federal programs, we anticipate by 2075 a 48 percent increase 
in the cost of Social Security as a percentage of our gross 
domestic product. Look at the numbers for Medicare and 
Medicaid, dramatically larger, 318 percent for Medicare, 342 
percent for Medicaid.
    So if the President is looking down the track and seeing 40 
or 50 years from now this light of a train coming toward us and 
warning us about this, certainly we should be sensitive to the 
fact that looming directly behind us is a locomotive that says 
health care in America that is about to run us over.
    You are addressing through this budget some of the cost of 
programs like Medicaid and Medicare. Neither this 
administration nor this Congress apparently has the political 
will to address the much larger issue we face in this country. 
If there were another line in this chart, the cost of health 
insurance by the year 2075, it might even be larger in terms of 
increase. So how can we address these things so tentatively in 
such a piecemeal fashion and expect to really resolve the 
difficulty?

                      AFFORDABLE HEALTH INSURANCE

    I just left a meeting with the President of one of the 
largest unions in America. He says we're about to lose 
manufacturing through his union because of the cost of health 
care. I hear that from small and large businesses alike. Yet 
we're not talking about it. If the President were making a 60-
day, 60-city tour about what to do to make sure that every 
American had affordable health insurance that provided basic 
protection for their family, he would have turnouts, 
unimaginable turnouts of people interested in this issue.

                                MEDICAID

    So I ask you this. What is--what do you think we should do 
in this next year? Is the answer to cut coverage on Medicaid? 
Every time someone in Washington says flexibility, I grab my 
wallet, because flexibility means less money, I know that, I've 
been around here long enough. I understand we need to change 
some rules, but I'm afraid flexibility is just a cover for a 
reduction in cost.
    Shouldn't we be asking for some advantage for consumers and 
taxpayers in this process? We're still in a position where 
Medicare cannot bargain under the new prescription drug plan to 
bring pharmaceutical costs down. Medicaid in most States is 
really limited as to how it can bargain with drug companies to 
bring the cost of drugs down for recipients in those States. 
Yet we know over the border in Canada drugs are a fraction of 
the cost.
    How can we be honest and sincere about dealing with health 
care if all we're going to do is cut benefits for poor people 
and not address cost issues such as the ones that I just 
mentioned?
    Secretary Leavitt. Senator, I've become fond of observing 
that there is a point in the life of every problem when it's 
big enough you can see it but small enough you can still solve 
it. Your chart reflects three of them. The President has 
clearly taken two of them on this year. That's--two out of 
three is a very significant undertaking.
    But the matter that you've reflected on, health care costs, 
clearly is one that we will all have to deal with. Now I, 
recognizing the limit of time, may I just say--point out four 
things that I believe can and should be done in this budget 
year to get us started?

                            MEDICAID REFORM

    One is in fact Medicaid reform. These are reforms that will 
not result in anyone losing health insurance, but in fact will 
allow us to preserve health insurance for many who have it and 
who are at risk of losing it, and I believe would have the 
capacity of expanding health care to others for reasons that 
I've already enumerated and won't repeat.

                               HEALTH IT

    The second is health IT. I believe health IT is the new 
frontier in health care productivity. Many things in this 
budget would point us toward being able to harness the powers 
of technology.
    But it leads us to, I think, a third, and that is we're 
measuring the wrong thing. We measure quantity of care, not the 
quality of care. We are not measuring outcomes. And I believe 
until we begin to measure performance outcomes and compensate 
providers and others on the basis of those outcomes, we will 
continue to see an unsatisfying result.

                       ACCESS TO HEALTH INSURANCE

    The fourth would be expanding health care to--or access to 
health insurance. The President's proposal would allocate $125 
billion over the next 10 years and would result in 12 to 14 
million people who currently do not have coverage to receive 
it. So Medicaid reforms, IT, pay for performance, and expanding 
access to health insurance through health savings accounts and 
other mechanisms I believe would be at least steps in the 
direction that you've pointed.
    Senator Durbin. I think they are steps in that direction. 
There may be some different--I don't know if association health 
plans is part of what you're suggesting here. They raise a lot 
of questions about standards and actual coverage and the like 
and the financial stability of the company's offering.

                        HEALTH SAVINGS ACCOUNTS

    Health savings accounts again have been a wildly popular 
theory here since Golden Rule Insurance Company became the 
favorite of then-Speaker Gingrich. We keep hearing about it 
every year. I'd like to see some demonstrated proof that it 
really does offer the kind of health insurance coverage that we 
want to see in the long term.
    I don't know, Mr. Chairman, if my time is expired here.
    Senator DeWine. Why don't you just continue.
    Senator Durbin. Thank you.
    Senator DeWine. Because I'm going to have some questions 
too, so why don't you just go ahead.
    Senator Durbin. Well, thank you very much.
    Senator DeWine. As long as the Secretary has a couple more 
minutes.

                                TITLE X

    Senator Durbin. I will just try to make it as direct as I 
can and as brief as I can. Let me talk to you about Title X. 
Title X, of course, is the family planning program, 
particularly for low-income people. If there's one thing that 
divides this Congress and this Nation, it is the question of 
abortion, and we have spent more time and anguish over this 
issue, what is the right thing to do. Most people would 
conclude that the right thing to do is to give to that 
prospective mother and father the option of planning their 
family so that they don't find themselves in a position where 
there are unintended or unplanned pregnancies forcing decisions 
which may lead to abortion.
    I take a look at where we are today. Your fiscal budget for 
2006 flat funds Title X family planning programs at $286 
million. This level of funding does not keep up with inflation 
and meets the needs of fewer than half of the low-income women 
who qualify. If we are truly trying to reduce the number of 
unintended pregnancies and abortions, how can we do it with a 
budget that does not meet the obvious need for family planning 
information, counseling, medications for the lowest income 
people in America?
    Secretary Leavitt. Senator, you're correct in that the 
budget between 2005 and 2006 is the same. That follows, 
however, a year where we did increase our proposal by $10 
million. I'd also point out the fact that the Federal share of 
Medicaid during that period of time who served that same group 
went up $65 million, and the Indian Health Service went up $19 
million.
    So while that one category may have been level, the broader 
view was up $84 million on----
    Senator Durbin. On Medicaid as opposed to Title X.
    Secretary Leavitt. On Medicaid and Indian Health Services, 
and they serve basically the same population.
    Senator Durbin. I would not disagree, but certainly that 
money is being spent on many, many other things, not focused as 
Title X is on family planning.
    Let me ask you in the same vein, most parents that I know, 
certainly my family, raising children preached abstinence, 
saying to these children, my children and many other children, 
wait, don't make a mistake, make the right decision and have 
enough respect for yourself to make that right decision. That 
has become such a major part of our effort now in trying to 
reduce teen pregnancy and unintended pregnancy.

                               ABSTINENCE

    The proposed budget includes a $38 million increase for 
abstinence only until marriage programs. The groups that have 
taken a look at this, like the National Academy of Sciences' 
Institute of Medicine, have criticized this investment in these 
abstinence-only programs. Some investigations by the House 
Committee on Government Reform have found that the abstinence-
only programs contain errors and distortions in the messages 
that they are giving to people and young people. One federally 
funded curriculum, for example, was found to be teaching 
students that sweat and tears are risk factors for HIV 
transmission, which I don't believe any reputable medical 
doctor would agree with.
    So I ask you, when it comes to these abstinence-only 
programs and the amount of money that we're putting into them, 
do you believe that this is our best investment in terms of 
good public health policy to reach the goal of educating young 
people so that they make the right decisions about their own 
bodies?
    Secretary Leavitt. Senator, we serve many populations in 
many different ways. This is a commitment on the part of the 
administration to teach one principle that we know is true, and 
that is abstinence is 100 percent effective. I also recognize 
that there are times when one program or another will have the 
validity of one fact or another or approach on all sides of the 
ideologic spectrum, and we ought not to be defending things 
that aren't true in any of those.
    We need to have a commitment to the truth, and the 
President's commitment to include abstinence-only programs is 
real, because he believes, as do I, that it is in fact what we 
ought to be teaching our children.
    Senator Durbin. I don't quarrel with that premise, and as I 
said, most parents start there. Some parents and teachers and 
counselors and ministers come to the conclusion that more has 
to be said beyond ``say no.'' So I won't go any further than to 
say I hope that we will test each of these programs to make 
sure that the information given is accurate and then be honest 
about the outcomes.

                          DIETARY SUPPLEMENTS

    My last question if I might ask relates to dietary 
supplements. I've had a passion over this industry and the laws 
regulating it. I got up this morning and I took my vitamins, 
for the record, so I am not opposed to taking vitamins. I think 
it's good, it's healthy. I don't think it's going to hurt me. 
Maybe it'll help.
    But some of these dietary supplement companies are selling 
products that have never been tested. They are making claims 
about their products' efficacy which they cannot substantiate. 
They are marketing their dietary supplements to children. The 
ephedra scandal of just a year or so ago is an indication of 
that element of the dietary supplement industry that was 
clearly doing all the things that I just mentioned to the 
detriment of the health of America.
    Senator Hatch and I have debated this back and forth. We 
don't see it all the time eye to eye, but we have come to a 
conclusion, and I hope that you will consider supporting it, 
and that is that the dietary supplement industry should at a 
minimum make adverse event reports to the Food and Drug 
Administration. If some company is making a dietary supplement 
that results in a bad health outcome, a seriously bad health 
outcome or death, that should be reported to the Food and Drug 
Administration. That is not the law today.
    What is your opinion? Do you believe that those who are 
marketing dietary supplements should be required to report 
adverse events to the Food and Drug Administration as those 
making over-the-counter drugs and pharmaceuticals are required?
    [The information follows:]

                          Dietary Supplements

    With enactment of the DSHEA, Congress made the decision to create a 
new regulatory regime for dietary supplements modeled more on the 
Agency's regulation of food safety and less on the drug regulatory 
model. With the exception for new dietary ingredients, FDA's regulation 
of dietary supplements is essentially post-market program similar to 
food regulation.
    Under the Dietary Supplement Health and Education Act (DSHEA), FDA 
relies on voluntary adverse event reports as a major component of our 
post-market regulatory surveillance efforts. Voluntary reporting 
systems are estimated to capture only a small percentage of adverse 
events, but they provide valuable signals of potential problems. When 
such a signal identifies a possible safety hazard, the burden is on FDA 
has the ability to gather and evaluate any scientific literature or 
information regarding whether the substance produces a safety hazard 
FDA has used this information to open investigations that led to 
removal of ephedra from the market and is currently investigating the 
marketing of steroids as dietary supplements. FDA's enforcement actions 
are enhanced by a close working relationship with DEA, the FTC and 
other State and Federal agencies.
    Another important aspect of FDA's regulatory and surveillance 
programs are current good manufacturing practice (cGMP) requirements 
for dietary supplements authorized in the Act. These regulations will 
establish industry-wide standards to ensure that dietary supplements 
are not adulterated. This final rule is in the last stage of review and 
is expected to be published in the near future.
    In addition, FDA has a post-market surveillance program to support 
enforcement of labeling requirements for dietary supplements. This 
compliance program, Dietary Supplements--Import and Domestic, contains 
guidance to FDA field offices regarding field exams and sample 
collections to determine compliance with the labeling requirements for 
dietary supplements. Significant violations of the labeling 
requirements for dietary supplements may lead to an advisory action, 
such as a Warning Letter, or to a court action for seizure or 
injunction. Imported products that do not comply with FDA labeling 
requirements are subject to detention and refusal when offered for 
entry into the United States.
    FDA will continue in its efforts to take action against dietary 
supplement products that threaten the public health and will continue 
to provide guidance to the industry and outreach to consumers in this 
regard. We further believe that the promulgation of the GMP rule with 
provide another measure of safety for dietary supplements, and we look 
forward to working with the Committee to further examine these issues 
and ensure that appropriate steps are being taken.

    Secretary Leavitt. Senator, I have not had the benefit of 
being able to hear you and Senator Hatch debate these issues. 
It sounds like a colorful and rather interesting thing to hear. 
I'll look forward to hearing more--to find that the two of you 
have agreed on this. Sounds like something I ought to learn 
about.
    Senator Durbin. Let me share it with you. I won't put you 
on the spot any more on this, but I hope you'll take a look at 
it. It could be a reasonable way to bring some regulation to an 
industry which by and large is doing a wonderful job, but there 
are some players in this industry who are not.
    Mr. Chairman, thank you for your forbearance and patience, 
and Mr. Secretary, thank you for being here.

                              OLMSTEAD ACT

    Senator DeWine. Mr. Secretary, just a few more questions. 
President Bush signed an executive order in response to the 
1999 Supreme Court decision in regard to the Olmstead Act. This 
Court said that the disabled have a right to live in a group 
home or other supportive system rather than being pushed into 
an institution, and the Court directed the government to 
develop opportunities for the disabled to better live in their 
communities. The Court also said forcing them into institutions 
is discriminatory.
    The executive order told the agencies to put together plans 
to make this happen. How are you proceeding in reaching this 
goal?
    Secretary Leavitt. Senator, it would be better if I could 
provide you with specifics. The actual plan and the execution 
of that plan inside either our agencies our broader would be 
unknown to me. But I would like to point out that the 
President's money follows the person it is designed 
specifically to----
    Senator DeWine. That was my next question anyway.
    Secretary Leavitt. Good. Well----
    Senator DeWine. We can--you can proceed.
    Secretary Leavitt. One of the----
    Senator DeWine. But you will give us, Mr. Secretary, you 
can follow up then in regard to this question about----
    Secretary Leavitt. Yes.
    Senator DeWine [continuing]. What the plan is and what the 
timing would be on that.
    Secretary Leavitt. We will be responsive on that query, and 
I'll also point out as one of the specific Medicaid, for 
example, proposals that we would like to see adopted this year 
would be a capacity, a flexibility, again stepping away from 
the rigid inflexibility that is currently there to serve those 
who are disabled and particularly those who are elderly.
    Medicaid is a good example of a policy that just needs to 
be changed, needs to be modernized. Medicaid was established in 
the 1960s. The state of practice at that point was to 
institutionalize basically those who were either disabled or 
elderly and disabled, and consequently Medicaid, without some 
waiver or without a change in the law, simply doesn't allow us 
to pay for any circumstances outside an institution, and that 
just needs to change. It's making the point that you have and 
we hope very much that Congress will act with some dispatch to 
give States that capacity.

                                DISABLED

    Senator DeWine. Your President's proposal and your budget, 
the money following the person, I wonder if you could elaborate 
on that in regard to how that will affect the disabled, and 
specifically how that will work in the 50 States. Are we 
talking about 50 State programs, or how will that blend with 
national uniformity and how these programs will be 
administered?
    Secretary Leavitt. Well, specifically it would create----
    Senator DeWine. This is--my understanding of this--excuse 
me--this is a--these are pile-up programs.
    Secretary Leavitt. That's right. It would create a 5-year 
demonstration that finances services for individuals who are in 
transition from institutions to the community. The Federal 
Government would fund 100 percent of the community-based 
services for the first year and then funding would revert back 
to the States at the current Federal match, which means the 
Federal Government on average would pay about 65 percent.
    The demonstration would test whether the increased use of 
home and community-based services would reduce spending on 
institutional care as the advocates and as this Secretary 
believes that it will.
    Senator DeWine. How will that work in regard to the 
disabled community? I mean, this is designed in my 
understanding for the disabled community but also for older 
Americans. Is that correct?
    Secretary Leavitt. Well, the rationale of the program is 
that the proposal would encourage States to move from 
institutionalizing long-term care patients who are served by 
Medicaid into home and community services, which in turn may 
reduce the spending on institutional care. The proposal is an 
attempt to rebalance the system, as I've indicated, where long-
term care has been essentially institutionalized under the 
Olmstead decision by increasing the care-setting choices and 
assisting individuals with disabilities. They will be able to 
live in the home and community-based settings.
    This is where they want to be served. Frankly, it's where 
their families want to serve them. It leverages the great 
American asset of people loving their families and choosing to 
care for them and it helps in the right spot. Disability groups 
have been very supportive of this and we'll continue to work 
closely with them and with you on various proposals as we learn 
more.
    Senator DeWine. Mr. Secretary, I'd like to commend FDA's 
actions in quickly enacting Best Pharmaceuticals for Children 
Act, as well as a pediatric rule. How those two programs 
interact can sometimes though be very tricky, but they interact 
nevertheless, and that's what they were designed to do.
    [The information follows:]

                 Best Pharmaceuticals for Children Act

    The BPCA is a critical tool in NIH's effort to ensure that adequate 
information is available concerning the effects and efficacy of 
pharmaceuticals in children. The NICHD is working with the FNIH and the 
Secretary to implement the provisions of the law, and to facilitate the 
testing of drugs.

                               BACKGROUND

    The Best Pharmaceuticals for Children Act (BPCA) established 
procedures to identify health risks and effectiveness of drugs in 
children. The Secretary delegated the functions of developing the 
priority listing of drugs to be tested to NIH and FDA, and the program 
for testing those drugs to NIH. Dr. Zerhouni delegated the NIH duties 
to NICHD. Over the last few years we have had several communications 
with Sen. DeWine's staff about implementation issues. Most recently, 
they have raised questions about the testing of a particular on patent 
drug, Baclofen, which is proposed for treatment of spasticity in 
children with cerebral palsy.

                                  BPCA

    Under the BPCA program, different procedures are followed for 
testing on- and off-patent drugs for pediatric use and labeling. 
Following the BPCA's enumerated procedure for on patent drugs, NICHD 
tests a drug only after the manufacturer and current patent holder 
decline a request from the FDA to conduct the testing and after private 
donor decline to provide support through the Foundation for the 
National Institutes of Health (FNIH). (NICHD and FNIH have a Memorandum 
of Understanding in place to conduct the testing.) If the FNIH is 
unable to raise sufficient private funds to support the requested 
testing, and so-certifies to the Secretary, the Secretary refers the 
drug to NICHD for inclusion on the BPCA program priority list of drugs 
for testing in children.

                            ON-PATENT DRUGS

    Senator DeWine. I'd like to bring an issue to your 
attention. My staff has already raised this with NIH. And that 
is the on-patent drugs that are currently awaiting study in the 
NIH Foundation. The pediatric rule provides for the rule to be 
invoked when a Secretary makes a certification regarding 
insufficient funds. Preliminary discussions have suggested this 
would be an appropriate action for HHS, FDA, and NIH to take.
    I'd ask that you have your staff take a look at this issue, 
you take a look at it, and get in touch with the appropriate 
staff at NIH and FDA and begin the process of invoking the 
pediatric rule so clinical trials can begin. I would ask you do 
this and get back in touch with me in regard to this so we can 
get some resolution and move forward.
    Secretary Leavitt. I will do so, Senator. Thank you.

                           GLOBAL AIDS FIGHT

    Senator DeWine. I appreciate it. Let me turn if I could to 
the CDC's work in the global AIDS fight, and you and I have 
talked about this before. Specifically in the countries, the 
non-focus countries, countries such as India and China, let me 
ask you, does the CDC's global AIDS program do you believe have 
the infrastructure necessary to expand its programs in these 
non-focus countries? If not, what's needed to expand their 
response?
    Second, let me ask you, will you support providing 
increased program support and resources to the global AIDS 
program and other HHS programs that are part of the emergency 
plan?
    Secretary Leavitt. The President has made a commitment to 
expand appropriations to $15 billion to undertake that 
challenge. Obviously that will need to include the deployment 
of proper infrastructure in those countries as well as others. 
We're working hard now to target our efforts to provide for the 
greatest possible need. We've laid out a series of principles 
and we're working to follow those principles.
    Senator DeWine. I look forward to having further discussion 
with you in regard to this. It is a very difficult question, as 
I think your answer would indicate. Taking the finite resources 
that we have, even though this administration has made a major 
commitment, which I commend the administration for, and the 
Congress has done the same, when you look at the need, it's 
still finite resources, and trying to make a determination of 
how aggressively we move into countries like India and China is 
a very, very tough call.
    But, you know, if we don't--if the world does not stem the 
emerging AIDS problem in India or China or Russia, the 
ramifications are going to be absolutely unbelievable. When it 
moves, AIDS moves in India, for example, into the general 
population, the results are going to be absolutely devastating, 
and it's getting very close to that.
    So it's, you know, these are just tough questions, they're 
tough calls. I just look forward to working with you and 
sharing ideas.
    Secretary Leavitt. Thank you. I look forward to the same 
interaction.
    Senator DeWine. I appreciate it. Well, Mr. Secretary, we 
thank you very much for your time and attention and look 
forward to working with you on many issues.
    Secretary Leavitt. Thank you.

                          SUBCOMMITTEE RECESS

    Senator DeWine. Thank you very much Mr. Secretary.
    The subcommittee will stand in recess to reconvene at 9:30 
a.m., Wednesday, April 6, in room SD-124. At that time we will 
hear testimony from the Honorable Elias Zerhouni, Director, 
National Institutes of Health.
    [Whereupon, at 11:45 a.m., Wednesday, March 16, the 
subcommittee was recessed, to reconvene at 9:30 a.m., 
Wednesday, April 6.]


DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
              AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                        WEDNESDAY, APRIL 6, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Arlen Specter (chairman) 
presiding.
    Present: Senators Specter, Cochran, and Harkin.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                     National Institutes of Health

STATEMENT OF ELIAS ZERHOUNI, M.D., DIRECTOR
ACCOMPANIED BY:
        DR. JAMES F. BATTEY, JR., M.D., Ph.D., DIRECTOR, NATIONAL 
            INSTITUTE ON DEAFNESS AND OTHER COMMUNICATION DISORDERS
        DR. ANTHONY S. FAUCI, M.D., DIRECTOR, NATIONAL INSTITUTE OF 
            ALLERGY AND INFECTIOUS DISEASES
        DR. ANDREW VON ESCHENBACH, M.D., DIRECTOR, NATIONAL CANCER 
            INSTITUTE

               OPENING STATEMENT OF SENATOR ARLEN SPECTER

    Senator Specter. Good morning, ladies and gentlemen. The 
hour of 9:30 has--having arrived, we will proceed with the 
hearing of the Appropriations Subcommittee on Labor, Health and 
Human Services, Education. Today our hearing will focus on the 
work of the National Institutes of Health, which I have 
characterized as the crown jewel of the Federal Government, and 
perhaps the only jewel of the Federal Government.
    We have the distinguished director, Elias Zerhouni, Dr. 
Elias Zerhouni, with us today, and other members. We have in 
the past had all of the directors of the Institutes, and it is 
not realistic to hear from that number of witnesses, and 
knowing of the important work, we have decided this year to 
limit the witnesses to those who have presidential 
appointments. We have also included Dr. Battey because of some 
recent issues as to the new policy on ethics, which will be a 
subject of some of our discussion here today.
    Before proceeding further, just a word or two about my 
health. I have a lot of questions about my health. I had my 
fourth treatment last Friday and I am on the job. During the 2-
week recess when I could not travel abroad, I was in Washington 
most of the time, and aside from an involuntary new hair style, 
I'm accommodating to all of the rigors of the situation. I find 
that among all of the alternatives, the best alternative is to 
come to work and fight tigers, and we've got a lot of tigers 
around here, and fighting tigers is a great distraction and a 
great cure. So just that little bit of recommendation to the 
foremost scientists in the world, just how to handle one 
person's temporary medical problem.
    The work of the National Institutes of Health is a vital 
matter for America and for the world. Senator Harkin, who will 
be along in a few moments, and I, as is well known, have taken 
the lead on the increase in funding where we have moved from 
some $12 billion to $28 billion. This year the funding was 
almost flat, really not accommodating even inflation. Senator 
Harkin and I offered an amendment to add $1.5 billion to the 
budget resolution, which passed.
    It's been a long struggle. The first time we tried to add 
money to the budget resolution we lost 63 to 37, and we went 
back with a sharp pencil and established the priorities. That's 
become a virtual impossibility now with the very heavy demands 
on our subcommittee on education and health and community 
development block grants and many other items, and worker 
safety. It will be a battle to keep that extra $1.5 billion in 
terms of real dollars that we will have.
    We will want to discuss the issues of the new standards of 
ethics. When the issue came up before the House of 
Representatives, there was I think a, diplomatically stated, a 
pretty stern tone taken. When the matter came before this 
subcommittee, we reviewed the matter with Dr. Zerhouni and said 
we'd look forward to his response.
    But we also gave the people who were being charged an 
opportunity to come in and speak for themselves and to defend 
themselves on an extemporaneous basis. They were in the 
audience. They were welcome to come up and to do--and to talk. 
We had that hearing back on January 22, 2004.
    It's always a difficult matter to prescribe a cure, 
medically or politically or ethically. It may well be that 
there are some revisions which are necessary, and we're going 
to make some suggestions and engage in some dialogue. But the 
ultimate decisions have to rest with the professionals who are 
in the field.
    One word about stem cells, which we will take up in the 
course of the hearing. There is great concern about the Federal 
policy on stem cells contrasted with what is happening in the 
States with the $3 billion budget in California and the lure of 
top scientists to California. Now Massachusetts is coming in 
with a program. We have discussed in this subcommittee the 
concerns about a brain drain going to Europe. This is something 
that we have to deal with.
    There was very strong sentiment in the Congress about 
broadening the use of stem cells, moving away not necessarily 
from nuclear transplantation. We're not talking about creating 
another Dolly or about those sort of tactics, but just to use 
the stem cells which otherwise will be thrown away. There are 
hundreds of thousands which were created for in vitro 
fertilization and they're not being used, and they could be 
used to cure diseases.
    We understand the situation with the administration, Dr. 
Zerhouni, and the White House point of view, and I have 
suggested to you before that you might look for some greater 
latitude for advocacy within the administration. You're very 
respectful and you're very diplomatic and your voice might be 
heard and be influential.
    I've had an opportunity to talk to the President about the 
matter. He was in Pennsylvania 44 times during the campaign, 
and I was with him on most of the occasions. We had a lot of 
time to talk on the plane and in the car. His views are pretty 
firm, but so are mine, and so are, I think, a majority of the 
Congress, as you see with what's happening in the House. 
Senator Harkin, Senator Feinstein, Senator Hatch, Senator 
Kennedy, and I have re-introduced legislation. So that's a big 
matter for the research future of America and the world.
    That's longer than I usually talk, but since there are no 
other members present, I felt a little more latitude. Dr. 
Zerhouni, we welcome you here. We thank you for taking on this 
tough job and we look forward to your testimony.

               SUMMARY STATEMENT OF DR. ELIAS A. ZERHOUNI

    Dr. Zerhouni. Thank you, Mr. Chairman, and first and 
foremost, let me tell you about our admiration for your 
continuing service while you're fighting cancer, and we're 
looking forward to seeing you support NIH, support medical 
research as you have in the past for many years to come.
    I would like to also----
    Senator Specter. Is there any shortcut to--Dr. Zerhouni--to 
returning Arlen Specter the kind of head of hair that Elias 
Zerhouni has?
    Dr. Zerhouni. I would be very happy to share.
    Senator Specter. I hope the camera will focus on Dr. 
Zerhouni's hair, so we don't just get this verbally.
    Dr. Zerhouni. I will do everything to share that with you, 
sir.
    Senator Specter. I don't want share, I want my own, Dr. 
Zerhouni.
    Dr. Zerhouni. I have submitted for the record written 
testimony.
    Senator Specter. Your full statement will be made a part of 
the record, Dr. Zerhouni, and in accordance with our standard 
practice, to the extent you can summarize, that would be 
helpful to leave the maximum amount of time for questions and 
answers. We have a vote scheduled at 10:00 and we have the new 
Prime Minister of the Ukraine speaking. But this is a very 
important hearing and I will return after the vote so we do 
full justice to the issues which we have here today.

             THE PAST, THE PRESENT, AND THE FUTURE FOR NIH

    Dr. Zerhouni. Thank you. I will do so. First and foremost, 
let me summarize for us with a few slides where NIH is and 
where the budget is heading. Clearly, NIH has, as you said, 
been the crown jewel of medical research and of the Federal 
Government in promoting and advancing, through research, better 
health.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    I'll show you some results that I think all of us know. In 
heart disease, we've had a 60 percent reduction in mortality 
over the past 30 years, primarily due to discoveries in terms 
of metabolism, of cholesterol, in terms of inflammation, in 
terms of the management of hypertension. You can see over the 
slides there that we've seen for the first time a marked 
decrease in both mortality and morbidity, with 815,000 lives 
saved this year--in 2000.
    For the first time, over the past 10 years we're seeing a 
very real decrease in cancer mortality. The National Cancer 
Institute should really be commended for these results. We've 
seen, for example, mortality reduced in 11 of the 15 most 
common cancers in men and in 8 of the 15 most common cancers in 
women. We're continuing to see increased survivorship for 
cancer with a markedly increased number of Americans living 
with cancer today, from 3 to 9 million and rising.
    I think you can see the survival rates between 1974, 1976, 
1992, and 1999, and you can see improvements in all cancers. 
But you can see also in very specific cancers, survival rates 
right now in breast cancer are 87 percent, colon cancer 62 
percent, Hodgkin's disease 84 percent, and prostate cancer 98 
percent.
    We're continuing to do research on infectious agents and 
the new threats of biodefense agents. And you can see that in 
2003 for the first time we've developed an effective vaccine 
against ebola virus. Anthrax, we've crystallized the anthrax 
toxin and have identified new drug targets.
    In SARS, I'd like to remind you that because of the 
doubling of the budget that you have spearheaded and the 
research and the new tools that were made available to human 
genome research, we were able to identify the SARS virus in 
less than a month. Today there is the first vaccine in trial 
already in the works, and two more have been developed as well.
    So I think that the investment that you have really helped 
us with has paid off and is paying off. We're continuing to 
strengthen the NIH vision by doing systematic coordination 
across all the Institutes. In 2004 we presented the NIH Roadmap 
for Medical Research that involves all the Institutes and 
really engages in areas where no single Institute can do the 
job. In 2005, we announced the trans-NIH plan for obesity 
research, and in 2006, this year, the NIH neuroscience 
blueprint.
    The scope of the challenge is enormous, as you well know. 
We have hundreds of common diseases and 6,000 rare diseases to 
take care of. Clearly, the budget that we have is large, $28 
billion. But from our standpoint of scientists and physicians, 
we look at it on a per-American basis. When you look at that, 
what you realize is that we have to manage $96 per American per 
year. The NCI manages $16 per American per year to combat all 
cancer, NIAID $15, NHLBI $10. It is in this context that we 
have to invest our dollars to make the most impact on our 
health care costs, which are fast rising and come to $5,500 per 
American per year.
    Clearly, the budget this year is going to have to lead to 
difficult choices, and we've established priorities, such as 
the support of new and established scientists with new grants. 
We've increased the number of grants available for competition, 
obviously at the expense of inflation factors and other choices 
we had to make. We are accelerating research for treatments and 
prevention strategies through the NIH Roadmap for Medical 
Research. We're continuing to develop countermeasures for 
biological and chemical threats. This year we're announcing the 
neuroscience blueprint. We think that even though we have 
difficult budgets, it's important to do the right thing even if 
it's not the right budgetary time.
    Again, this year we have many new candidate vaccines----
    Senator Specter. What do you mean, Dr. Zerhouni, by doing 
the right thing even though if it's not the right budgetary 
time?

                        MAKING THE RIGHT CHOICES

    Dr. Zerhouni. What I mean is despite the fact that there is 
a flat budget there are scientific opportunities in 
neurosciences, behavioral sciences. And we believe, with the 15 
Institute directors that are primarily responsible for this 
area of science, that it was important to have a coordinated 
plan to advance our knowledge of the brain and the nervous 
system and the impact of behavioral--and behavioral factors on 
health.
    This year we have several new vaccines available for HIV/
AIDS that will need to be tested, and that is very costly. We 
have moved $100 million within our tight budget to the 
priorities that we believe in 2006 will allow us to test for 
the first time very promising vaccines for HIV/AIDS.
    Senator Specter. Where do you take that money from?
    Dr. Zerhouni. Basically we've moved it from all categories 
of the total AIDS budget over the past 2 years, as we predicted 
with Dr. Fauci, that in 2006 we will need to engage in larger-
scale clinical trials of HIV vaccines.
    Last, I think that it is clear that as the organization 
known as NIH has grown more complex, it is also important to 
coordinate and understand better the portfolio of investments 
we're making, especially when you consider that we are managing 
$96 per American per year. You want to make sure that all of 
that investment is maximally utilized. We are announcing the 
creation of a new Office of Portfolio Analysis and Strategic 
Initiatives in 2006 and requesting budgetary support for that 
office to do both strategic analysis of what is it we've done--
--

   PROPOSAL TO CREATE THE OFFICE OF PORTFOLIO ANALYSIS AND STRATEGIC 
                              INITIATIVES

    Senator Specter. What do you mean or need by budgetary 
support?
    Dr. Zerhouni. We've requested a budget line for the Office 
of the Director to create this office and support it.
    Senator Specter. How much is that line?
    Dr. Zerhouni. We've started with a $2 million request.
    Senator Specter. $2 million?

                          PREPARED STATEMENTS

    Dr. Zerhouni. Yes. This office is going to allow us to 
develop better coding, better understanding of our databases, 
and coordinate them across Institutes so that we can have a 
standard way of looking at the entire activities of the Agency. 
We will work through the Institutes and centers to coordinate, 
as we've shown in the past with the trans-NIH obesity plan, 
that we could in fact find areas of synergy and improve on 
them, and obviously evaluate whether or not we are. As you 
often ask us: ``What have we accomplished?'' I think we need to 
evaluate it systematically to show you and the American people 
supporting us the results of this research.
    [The statements follows:]

                Prepared Statement of Dr. Elias Zerhouni

    Mr. Chairman, Members of the Committee: I am pleased to present the 
fiscal year 2006 President's budget request for the Office of the 
Director (OD). The fiscal year 2006 budget includes, $385,195,000, an 
increase of $27,149,000 over the fiscal year 2005 enacted level of 
$358,046,000 comparable for transfers proposed in the President's 
request. The OD provides leadership, coordination, and guidance in the 
formulation of policy and procedures related to biomedical research and 
research training programs. The OD also is responsible for a number of 
special programs and for management of centralized support services to 
the operations of the entire NIH.
    The OD guides and supports research by setting priorities; 
allocating funding among these priorities; developing policies based on 
scientific opportunities and ethical and legal considerations; 
maintaining peer review processes; providing oversight of grant and 
contract award functions and of intramural research; communicating 
health information to the public; facilitating the transfer of 
technology to the private sector; and providing fundamental management 
and administrative services such as budget and financial accounting, 
and personnel, property, and procurement management, administration of 
equal employment practices, and plant management services, including 
environmental and public safety regulations of facilities. The 
principal OD offices providing these activities include the Office of 
Extramural Research (OER), the Office of Intramural Research (OIR), and 
the Offices of: Science Policy; Communications and Public Liaison; 
Legislative Policy and Analysis; Equal Opportunity; Budget; and 
Management. This request contains funds to support the functions of 
these offices.
    In addition, the OD also maintains several trans-NIH offices and 
programs to foster and encourage research on specific, important health 
needs. I will now discuss the budget request for the OD in greater 
detail.

                    NIH ROADMAP FOR MEDICAL RESEARCH

    The NIH Roadmap for Medical Research supports trans-agency research 
and training programs aimed at accelerating the pace of discovery and 
improving the translation of research findings into health 
interventions. The development of new tools and technologies will help 
scientists understand intricate cellular processes and will make large 
volumes of biologic data publicly available for analysis and use in 
other model systems. Nanomedicine concept development awards are 
defining the scope of future centers to explore molecular inventions 
and interventions for curing disease or repairing tissues. Innovative 
team approaches will facilitate the creation of new biomedical and 
behavioral interdisciplinary fields and contribute to our understanding 
of complex diseases and conditions. Studies examining outcomes such as 
pain, fatigue and obesity will be enhanced by NIH Roadmap projects 
supporting the integration of behavioral and social sciences with 
biomedical and physical sciences. The clinical research initiatives are 
exploring ways to promote the integration and extension of clinical 
research networks, support translational research, and facilitate the 
coordination and harmonization of clinical research policies across 
federal agencies. Critical to these new efforts will be an infusion of 
trained scientists and clinical researchers at all stages of their 
careers, able to apply interdisciplinary and multidisciplinary 
approaches to complex biomedical problems. And for the first time, 
physicians, nurses and dentists are being trained together to become 
leaders in this clinical research community. These and other projects 
will enhance the capacity of scientists to harness the knowledge base 
for specific applications in all areas of investigation. The fiscal 
year 2006 budget request for NIH Roadmap for Medical Research is 
$83,000,000, an increase of $23,280,000 over the fiscal year 2005 
level.

                      THE OFFICE OF AIDS RESEARCH

    The Office of AIDS Research (OAR) plays a unique role at NIH, 
establishing a roadmap for the AIDS research program. OAR coordinates 
the scientific, budgetary, legislative, and policy elements of the NIH 
AIDS research program. Our response to the AIDS epidemic requires a 
unique and complex multi-institute, multi-disciplinary, global research 
program. Perhaps no other disease so thoroughly transcends every area 
of clinical medicine and basic scientific investigation, crossing the 
boundaries of the NIH Institutes and Centers. This diverse research 
portfolio demands an unprecedented level of scientific coordination and 
management of research funds to identify the highest priority areas of 
scientific opportunity, enhance collaboration, minimize duplication, 
and ensure that precious research dollars are invested effectively and 
efficiently, allowing NIH to pursue a united research front against the 
global AIDS epidemic. OAR oversees the development of the annual 
comprehensive NIH AIDS-related research plan and budget, based on 
scientific consensus about the most compelling scientific priorities 
and opportunities that will lead to better therapies and prevention 
strategies for HIV disease. The Plan serves as the framework for 
developing the annual AIDS research budget for each Institute and 
Center; for determining the use of AIDS-designated dollars; and for 
tracking and monitoring those expenditures. OAR also identifies and 
facilitates multi-institute participation in priority areas of research 
and facilitates NIH involvement in international AIDS research 
activities. The fiscal year 2006 budget request for OAR is $60,899,000, 
which is the same as the fiscal year 2005 level.

                THE OFFICE OF RESEARCH ON WOMEN'S HEALTH

    The Office of Research on Women's Health (ORWH), the focal point 
for women's health research for the Office of the Director, 
strengthens, enhances and supports research related to diseases, 
disorders, and conditions that affect women, and sex/gender studies on 
differences/similarities between men and women; ensures that women are 
appropriately represented in biomedical and biobehavioral research 
studies supported by the NIH to facilitate analyses by sex/gender; and 
develops opportunities for the advancement of women in biomedical 
careers and investigators in women's health research. These ORWH 
efforts are in full partnership with the NIH Institutes and Centers. 
New research has been expanded in the ORWH-funded Specialized Centers 
of Research through interdisciplinary research in women's health and 
sex and gender factors and through the unique ORWH interdisciplinary 
career development program that fosters the mentored development of 
junior faculty and assists them in bridging advanced training towards a 
goal of research independence. The fiscal year 2006 budget request is 
$41,363,000, an increase of $148,000 over the fiscal year 2005 level.

         THE OFFICE OF BEHAVIORAL AND SOCIAL SCIENCES RESEARCH

    The NIH has a long history of funding health-related behavioral and 
social sciences research, and the results of this work have contributed 
significantly to our understanding, treatment, and prevention of 
disease. The Office of Behavioral and Social Sciences Research (OBSSR) 
furthers NIH's ability to capitalize on the scientific opportunities 
that exist in behavioral and social sciences research by providing 
leadership in identifying and implementing research programs that are 
likely to improve our understanding of the processes underlying health 
and disease and provide directions for intervention. OBSSR works to 
integrate a behavioral and social science approach across the programs 
of the NIH.
    In response to a 2004 Institute of Medicine study entitled, 
``Improving Medical Education: Enhancing the Behavioral and Social 
Science Content of Medical School Curricula'', OBSSR developed a 
program to promote the design and implementation of medical school 
curricula with coverage of behavioral and social sciences. This program 
will provide a mechanism whereby medical school students will receive 
training about issues such as the influence of psychological, 
biological, and social factors on health and disease; the role of 
physicians' beliefs, behaviors, and values in patient care; managing 
difficult physician-patient interactions; and the impact of policy on 
health behaviors and patient care. In addition to the benefits realized 
by individual physicians in training, funded medical schools may 
develop the infrastructures to permanently integrate behavioral and 
social sciences into their curricula. To continue such groundbreaking 
work in the behavioral and social sciences, the fiscal year 2006 budget 
request for OBSSR is $26,185,000, an increase of $94,000 over the 
fiscal year 2005 level.

                    THE OFFICE OF DISEASE PREVENTION

    The primary mission of the Office of Disease Prevention (ODP) is to 
stimulate disease prevention research across the NIH and to coordinate 
and collaborate on related activities with other federal agencies as 
well as the private sector. There are several other offices within the 
ODP organizational structure.
    The Office of Medical Applications of Research (OMAR) has as its 
mission to work with NIH Institutes, Centers, and Offices to assess, 
translate and disseminate the results of biomedical research that can 
be used in the delivery of important health interventions to the 
public. The ODP has two additional specific programs/offices that place 
emphasis on particular aspects of the prevention and treatment of 
disease the Office of Dietary Supplements (ODS) and the Office of Rare 
Diseases (ORD).
    In fiscal year 2006, the ODS within ODP requests a budget of 
$27,078,000, an increase of $97,000 over the fiscal year 2005 level. 
ODS promotes the scientific study of the use of dietary supplements by 
supporting investigator-initiated research, and stimulating research 
through the conduct of conferences and presentations at national and 
international meetings. Other current ODS efforts include:
  --Sponsorship of systematic review of the relationship between omega-
        3 fatty acids and a number of clinical indications, 
        particularly coronary heart disease.
  --Collaborations for the development, validation, and dissemination 
        of analytical methods and reference materials for dietary 
        supplements.
  --Support and development of databases of dietary supplement 
        information including:
    --National Health and Nutrition Examination Survey (NHANES);
    --Collaboration with USDA to develop an analytically-based database 
            of dietary supplement ingredients;
    --Plan to contract for development of a dietary supplement label 
            database;
    --International Bibliographic Information on Dietary Supplements 
            (IBIDS);
    --CARDS, a database of federally funded research on dietary 
            supplements.
  --Collaboration with other federal agencies to develop a coordinated 
        approach to assessment of the health effects of bioactive 
        factors in food and dietary supplements. Publishes Fact Sheets 
        on dietary supplements for consumers.
    Another component of ODP, the ORD, was formally established through 
the Rare Diseases Act of 2002, Public Law 107-280. The budget request 
for fiscal year 2006 for ORD is $15,649,000, an increase of $56,000 
over the fiscal year 2005 level. The following are four highlights of 
ORD activities: (1) An Extramural Rare Diseases Clinical Research 
Network that involves 10 consortia, more than 70 sites, and 30 patient 
support organizations for almost 50 rare diseases. Thirty-three 
clinical protocols are under development. (2) The Rare Diseases 
Intramural Research Program is a collaborative effort between the ORD 
and the National Human Genome Research Institute at the NIH Clinical 
Center. Recently, the program initiated annual contracts for 25 
molecular diagnostic tests for specific rare diseases that will be made 
available by the contractor to the public at reasonable cost. (3) ORD 
also co-funds annually approximately 100 scientific conferences for 
scientific opportunities or where research is lagging or lacking. (4) 
The newly established Trans-NIH Rare Diseases Research Working Group is 
developing an assessment of rare diseases biospecimen collection, 
storage, and delivery issues, of genetic tests in extramural research 
programs, and plans for a conference on amyloidosis.

                    THE OFFICE OF SCIENCE EDUCATION

    The Office of Science Education (OSE) develops science education 
programs to enhance efforts to attract young people to biomedical and 
behavioral science careers and to improve science literacy in both 
adults and children. The OSE creates programs to improve science 
education in schools (the NIH Curriculum Supplement Series); creates 
programs that stimulate interest in health and medical science careers 
(LifeWorks Web site); creates programs to advance public understanding 
of medical science, research, and careers; and advises NIH leadership 
about science education issues. Programs target diverse populations 
including under-served communities, women, and minorities, with a 
special emphasis on the teachers of students from Kindergarten through 
grade 12. The OSE Web site is a central source of information about 
available education resources and programs. http://
science.education.nih.gov. The fiscal year 2006 budget request for OSE 
is $3,878,000, the same as the fiscal year 2005 level.

                 LOAN REPAYMENT AND SCHOLARSHIP PROGRAM

    The NIH, through the Office of Loan Repayment and Scholarship 
(OLRS), administers the Loan Repayment and Undergraduate Scholarship 
Programs. The NIH Loan Repayment Programs (LRPs) seek to recruit and 
retain highly qualified physicians, dentists, and other health 
professionals with doctoral-level degrees to biomedical and behavioral 
research careers by countering the growing economic disincentives to 
embark on such careers, using as an incentive the repayment of 
educational loans. There are loan repayment programs designed to 
attract individuals to clinical research, pediatric research, health 
disparities research, and contraception and infertility research, and 
to attract individuals from disadvantaged backgrounds into clinical 
research. The AIDS, intramural Clinical, and General Research Loan 
Repayment Programs are designed to attract investigators and physicians 
to the NIH's intramural research and research training programs. The 
NIH Undergraduate Scholarship Program (UGSP) is a scholarship program 
designed to support and enhance the training of undergraduate students 
from disadvantaged backgrounds in biomedical research careers and 
employment at the NIH.
    The fiscal year 2006 budget request for OLRS is $7,213,000, the 
same as the fiscal year 2005 level.

         OFFICE OF PORTFOLIO ANALYSIS AND STRATEGIC INITIATIVES

    In fiscal year 2006, the NIH plans to create a new office within 
the Office of the Director--the Office of Portfolio Analysis and 
Strategic Initiatives (OPASI)--which will provide tools to facilitate 
planning for trans-NIH initiatives, including an improved process for 
collecting IC data on expenditures on various diseases, conditions, and 
research fields, and improvements in data about burden of disease. The 
office will also develop, with input from the ICs, common processes and 
formats, where necessary, for the conduct of NIH-wide planning and 
evaluation. For trans-NIH planning efforts, the office will seek broad 
public input--from the public, health care providers, policymakers, and 
scientists--in addition to soliciting advice from within NIH. The 
office will also coordinate and make more effective use of the NIH-wide 
evaluation process. The budget request for OPASI is $2,000,000.
    Thank you, Mr. Chairman for giving me the opportunity to present 
this statement; I will be pleased to answer questions that the 
Committee may have.
     national institutes of health buildings and facilities program
    Mr. Chairman and Members of the Committee: I am pleased to present 
the President's budget request for the Buildings and Facilities (B&F) 
Program for fiscal year 2006, a sum of $81,900,000.

                      ROLE IN THE RESEARCH MISSION

    State-of-the-science research and support facilities are a vital 
part of the research enterprise. The National Institutes of Health's 
(NIH) Buildings and Facilities (B&F) program designs, constructs, 
repairs and improves the agency's portfolio of laboratory, clinical, 
animal, administrative and support facilities at its six installations 
in four states. These facilities house researchers from the NIH 
Institutes' and Centers'(ICs) intramural basic, translational, and 
clinical research programs; science administrators who oversee NIH's 
grants; the NIH leadership, and various programs that support agency 
operations. The fiscal year 2006 B&F budget request focuses on the need 
for responsible utilization and stewardship of NIH's past and recent 
investments in the ``bricks and mortar'' of the research enterprise. In 
order to stay abreast of the changing needs of the NIH programs, it is 
imperative that we provide reliable, safe and secure research support 
facilities that are appropriately equipped, operated and maintained.
    The B&F budget request is the product of a comprehensive, corporate 
capital facilities planning process. This process begins with extensive 
consultation across the research community and the NIH's professional 
facilities staff. It works through the Facilities Working Group, an 
advisory committee to the NIH Steering Committee, and the HHS Capital 
Investment Review Board. Through this process, the program demand for 
more effective and efficient facilities designed to support current and 
emerging investigative techniques, technologies, and tools is 
integrated with, and balanced against, the need to repair, renovate, 
and improve the existing building stock to keep it in service and to 
optimize its utility.
    The fiscal year 2006 request provides the necessary funding support 
for the ongoing safety, renovation and repair, and related projects 
that are vital to proper stewardship of the entire portfolio.
    The fiscal year 2006 B&F budget request is organized among three 
broad Program Activities: Essential Safety and Regulatory Compliance, 
Repairs and Improvements and Construction. The fiscal year 2006 request 
provides funds for specific projects in each of the program areas. The 
projects and programs enumerated are the end result of the 
aforementioned NIH facilities planning process and are the NIH's 
capital facility priorities for fiscal year 2006.

                    FISCAL YEAR 2006 BUDGET SUMMARY

    The fiscal year 2006 budget request for Buildings and Facilities is 
$81.9 million. The B&F request contains a total of $14 million for 
Essential Safety and Regulatory Compliance programs composed of $2 
million for the phased removal of asbestos from NIH buildings; $5 
million for the continuing upgrade of fire and life safety deficiencies 
of NIH buildings; $1.5 million to systematically remove existing 
barriers to persons with disabilities from the interior of NIH 
buildings; $0.5 million to address indoor air quality concerns and 
requirements at NIH facilities; and $5 million for the continued 
support of the rehabilitation of animal research facilities. In 
addition, the fiscal year 2006 request includes $66.9 million in 
Repairs and Improvements for the continuing program of repairs, 
improvements, and maintenance that is the vital means of maintaining 
the complex research facilities infrastructure of the NIH; and $1 
million in Construction for pre-project planning including concept 
development studies and analyses of NIH-wide facility projects proposed 
in the facilities plan.
    My colleagues and I will be happy to respond to any questions you 
may have.
                        Office of AIDS Research

       FISCAL YEAR 2006 NIH AIDS RESEARCH BY-PASS BUDGET ESTIMATE

                              INTRODUCTION

    In its report on the fiscal year 2005 budget for the Department of 
Health and Human Services, the Senate Committee on Appropriations 
stated:

    ``The NIH Office of AIDS Research [OAR] coordinates the scientific, 
budgetary, legislative, and policy elements of the NIH AIDS research 
program. Congress provided new authorities to the OAR to fulfill these 
responsibilities in the NIH Revitalization Action Amendments of 1993. 
The law mandates the OAR to develop an annual comprehensive plan and 
budget for all NIH AIDS research and to prepare a Presidential bypass 
budget.'' (Senate Report 108-345, page 175)

    Public Law 103-43, the National Institutes of Health Revitalization 
Act of 1993, requires that ``the Director of the Office of AIDS 
Research establish a comprehensive plan for the conduct and support of 
all AIDS activities of the agencies of the National Institutes of 
Health.'' It also requires that the Director ``shall prepare and submit 
directly to the President, for review and transmittal to the Congress, 
a budget estimate for carrying out the Plan for the fiscal year . . .'' 
That budget ``shall estimate the amounts necessary for the agencies of 
the National Institutes of Health to carry out all AIDS activities 
determined by the Director of the Office to be appropriate, without 
regard to the probability that such amounts will be appropriated.''
    In accordance with the law, the Office of AIDS Research (OAR) has 
developed the fiscal year 2006 Professional Judgment (By-Pass) Budget 
Estimate for NIH AIDS Research to carry out the scientific priorities 
of the fiscal year 2006 NIH Plan for HIV-Related Research. This By-Pass 
budget estimate is based on the following criteria: the commitment to 
support only the highest quality research; and the urgent need to 
pursue priority scientific opportunities.

                                OMB PART

    The NIH AIDS program received an overall score of 83 in the 2005 
PART. This score included a 100 percent in the Program Purpose and 
Design section. The human and economic toll of the AIDS pandemic 
requires a unique response that is complex, comprehensive, multi-
disciplinary, and global. The NIH role in this response is 
unprecedented, comprising a comprehensive program of basic, clinical, 
and behavioral research on HIV disease to better understand the basic 
biology of HIV and develop effective therapies and prevention 
strategies. PART demonstrated that NIH provides effective scientific 
coordination and management of this diverse AIDS research portfolio 
through a comprehensive planning and budget development process, which 
was utilized to develop the fiscal year 2006 By-Pass Budget Request.

                         OAR COMPREHENSIVE PLAN

    The OAR has established a unique and effective model to develop a 
consensus on the scientific priorities of the annual comprehensive AIDS 
research plan, called the NIH Plan for HIV-Related Research, that is 
based on the most compelling scientific priorities that will lead to 
better therapies and prevention strategies for HIV infection and AIDS. 
The planning process involves the NIH Institute and Center Directors; 
NIH intramural and extramural scientists and program managers; 
scientists and researchers from other government agencies, academia, 
foundations, and industry; HIV-infected individuals; and other 
community representatives. The plan also is reviewed by the OAR 
Advisory Council.
    The NIH fiscal year 2006 Plan for HIV-Related Research is divided 
into five Scientific Areas including: Natural History and Epidemiology; 
Etiology and Pathogenesis; Therapeutics; Vaccines; and Behavioral and 
Social Science. The plan further addresses critical issues that cut 
across all of the scientific areas: Microbicides; HIV Prevention 
Research; Racial and Ethnic Minorities; Women and Girls; International 
Research; Training, Infrastructure, and Capacity Building; and 
Information Dissemination.
    The fiscal year 2006 NIH AIDS research agenda continues the 
following overarching themes: a strong foundation of basic science; HIV 
prevention research, including development of vaccines, microbicides, 
behavioral interventions, and strategies to prevent perinatal 
transmissions; therapeutics research to develop simpler, less toxic, 
and cheaper drugs and drug regimens to treat HIV infection and its 
associated illnesses, malignancies, and other complications; 
international research, particularly to address the crucial research 
and training needs in developing countries; and research targeting the 
disproportionate impact of the AIDS epidemic on racial and ethnic 
minority populations in the United States.
    The Plan shapes NIH investments in biomedical and behavioral AIDS 
research and provides the framework to translate critical research 
findings to benefit populations desperately in need both in our country 
and abroad. The Plan serves as the framework for developing the annual 
NIH AIDS research budget; for determining the use of NIH AIDS-
designated funds; for tracking and monitoring AIDS-related 
expenditures; and for informing the scientific community, the public, 
and the AIDS-affected community about NIH AIDS research priorities. The 
entire plan can be found on the OAR web site: http://www.nih.gov/od/
oar/public/pubs/fy2006/00_Overview_fiscal year 2006.pdf

                     OAR BUDGET DEVELOPMENT PROCESS

    The Plan initiates the budget development process. Based on the 
objectives and priorities established in the Plan, the NIH Institutes 
and Centers (ICs) prepare their AIDS research budget requests, 
detailing new or expanded program initiatives for each scientific area. 
The OAR reviews the IC initiatives in relation to the Plan, to OAR 
priorities, and to other IC submissions to eliminate redundancy and/or 
to assure cross-institute collaboration. The OAR allocates the AIDS 
research budget levels to each IC based on the scientific priority of 
the proposed initiatives.
    This process allows the OAR to ensure that AIDS research funds will 
be provided to the most compelling scientific opportunities, rather 
than distribution based solely on a formula.

                     OAR BY-PASS BUDGET PRIORITIES

    The fiscal year 2006 NIH By-Pass Budget for HIV/AIDS Research 
responds to several crucial scientific opportunities and needs. In 
fiscal year 2005, OAR initiated a comprehensive trans-NIH review of all 
grants and contracts supported with AIDS-designated funds to ensure 
that these projects represent the highest scientific priorities and 
opportunities. This process also included: (1) a review of the 
appropriateness of definitions of HIV/AIDS research in the institutes 
(i.e., coding of research as AIDS or AIDS-related) and the mix of 
investments in key priority areas in view of the current epidemic; and 
(2) a series of meetings with IC representatives to assess their AIDS 
portfolios relative to AIDS and AIDS-related priorities. This process 
will result in the redirecting of AIDS funds to higher priority 
projects and new scientific opportunities in fiscal year 2006.
    NIH-sponsored HIV/AIDS research continues to provide the important 
scientific foundation necessary to design, develop, and evaluate new 
and better vaccine candidates, therapeutic agents and regimens, and 
prevention interventions. In particular, this By-Pass budget places a 
renewed priority on the discovery, development, and pre-clinical 
testing of additional HIV vaccine candidates. The NIH priority in AIDS 
vaccine research to date has resulted in approximately 70 clinical 
trials of nearly 40 vaccine candidates. The evaluation of an AIDS 
vaccine will require extensive testing in the United States and in 
international settings where there is a high incidence of HIV. High 
priority is placed in this budget on funding to move promising vaccine 
candidates into large-scale clinical trials to evaluate the potential 
for efficacy.
    In the area of AIDS therapeutics research, current therapeutic 
regimens have resulted in extended survival and improved quality of 
life for many HIV-infected individuals in the United States and Western 
Europe. However, a growing proportion of patients receiving therapy are 
demonstrating treatment failure, experiencing serious drug toxicities 
and side effects, and developing drug resistance. This By-Pass budget 
provides critical support for the development of new and better drugs 
using sophisticated structural biology, combinatorial chemistry, and 
macromolecular techniques. The goal of this research is to develop new, 
safe, less toxic, less expensive, and more effective therapeutic agents 
and regimens.
    The increasing incidence of metabolic disorders, cardiovascular 
complications, major organ dysfunction, and physical changes associated 
with current antiretroviral drugs underscores the critical need for new 
and better treatment regimens. Improved regimens also are needed to 
treat HIV co-infections such as hepatitis B and C, as well as other 
opportunistic infections to reduce drug interactions and problems with 
adherence to complicated treatment regimens.
    In fiscal year 2005, the Office of AIDS Research spearheaded a 
critical and unique multi-IC inter-disciplinary collaboration to 
formalize plans for the innovative restructuring of the NIH clinical 
trials networks for HIV therapeutics, vaccines and prevention 
interventions in fiscal year 2006. OAR convened meetings of relevant IC 
high-level staff, established an OAR Working Group of United States and 
international clinical trialists, and convened a public meeting of over 
145 participants from universities, medical schools, the pharmaceutical 
and biotechnology industries, professional scientific societies, 
community advisory boards, constituency groups, and NIH IC program 
staff to develop a set of principles to guide the development of 
Request For Application (RFAs) for these multi-IC supported clinical 
programs. This effort made a significant contribution to the process of 
the recompetition of these networks in fiscal year 2006 and to ensuring 
that they will operate effectively and cooperatively, making the best 
use of research funds.
    The alarming continued spread of the pandemic in Southeast and 
Central Asia, Eastern Europe, Latin America, and the Caribbean 
underscores the urgent need for more affordable and sustainable 
prevention and treatment approaches that can be implemented in 
resource-limited nations. The high incidence of Hepatitis B and 
Hepatitis C, malaria, and TB in many of these nations further 
complicates the treatment and clinical management of HIV-infected 
individuals. This budget provides increased funds for the development 
and evaluation of new regimens for these HIV co-infections that will 
allow the treatment of these diseases without serious drug interactions 
and toxicities.
    The By-Pass budget provides funds for NIH international AIDS 
research including: HIV vaccine candidates and chemical and physical 
barrier methods, such as microbicides, to prevent sexual transmission; 
behavioral strategies targeted to the individual, family, and community 
to alter risk behaviors associated with sexual activity and drug and 
alcohol use; drug and non-drug strategies to prevent mother-to-child 
transmission (MTCT); therapeutics for HIV-related co-infections and 
other conditions; and approaches to using Antiretroviral Therapy (ART) 
in resource-poor settings. Specific international infrastructure needs 
include: (1) developing research sites through establishment of stable, 
targeted cohorts, development of recruitment strategies, and 
enhancement of laboratory, clinical, and data management capabilities; 
(2) increasing the number of scientists, clinicians, and health care 
workers trained in basic, clinical, and behavioral research, data 
management, and ethical considerations; (3) developing research 
collaborations; and (4) transferring appropriate clinical and 
laboratory technologies.

                      OAR BY-PASS BUDGET ESTIMATE

    NIH is enhancing collaboration, minimizing duplication, and 
ensuring that research dollars are invested in the highest priority 
areas of scientific opportunity that will allow NIH to meet its 
scientific goals.
    The total fiscal year 2006 By-Pass budget estimate for all NIH AIDS 
research is $3.387 billion. This represents an increase of $442 million 
or 15 percent over the fiscal year 2005 current estimate of $2.945 
billion.
    The NIH Office of AIDS Research is providing the following 
materials: NIH fiscal year 2006 Plan for HIV-Related Research; NIH 
Research Mechanism Table; and Table of Funding by the NIH fiscal year 
2006 Plan for HIV-Related Research.

                ATTACHMENT 1.--OFFICE OF AIDS RESEARCH FISCAL YEAR 2006 BY-PASS SUMMARY MECHANISM
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                       Fiscal years
                                        ------------------------------------------------------------------------
                                          2004  estimate    2005  estimate     2006  by-pass     2006 over 2005
                                        ------------------------------------------------------   dollar change
                                                                                              ------------------
                                           No.     Amount    No.     Amount    No.     Amount  Percent   Amount
----------------------------------------------------------------------------------------------------------------
Research Projects:
    Noncompeting.......................   2,245   $1,173    2,407   $1,268    2,370   $1,087     -14.3    -$181
    Administrative supplements.........     (14)      18      (16)      19      (20)      17     -10.5       -2
    Competing..........................   1,035      376      804      307    1,178      712     131.9      405
                                        ------------------------------------------------------------------------
      Subtotal, RPGs...................   3,266    1,567    3,195    1,594    3,528    1,816      13.9      222
SBIR/STTR..............................      91       31      103       35      105       41      17.1        6
                                        ------------------------------------------------------------------------
      Total, RPGs......................   3,357    1,598    3,298    1,629    3,633    1,857      14.0      228
                                        ========================================================================
Research Centers:
    Specialized/comprehensive..........      61      104       61      111       63      120       8.1        9
    Clinical research..................  .......      43   .......      45   .......      49       8.9        4
    Biotechnology......................  .......       6        1        7   .......       7   .......  ........
    Comparative medicine...............      17       48       17       52       17       65      25.0       13
    Research centers in minority         .......      10   .......      10   .......      11      10.0        1
     institutions......................
                                        ------------------------------------------------------------------------
        Subtotal, Centers..............      78      211       79      225       80      252   .......       27
Other Research:
    Research careers...................     235       30      240       31      235       34       9.7        3
    Cancer education...................  .......  .......  .......  .......  .......  .......  .......  ........
    Cooperative clinical research......      25       44       25       44       25       44   .......  ........
    Biomedical research support........       1        2        1        2        1        3      50.0        1
    Minority biomedical research              2        1        2        1        3        1   .......  ........
     support...........................
    Other..............................     115       62      114       64      115       72      12.5        8
                                        ------------------------------------------------------------------------
      Subtotal, Other Research.........     378      139      382      142      379      154   .......       12
                                        ------------------------------------------------------------------------
      Total, Research Grants...........   3,813    1,948    3,759    1,996    4,092    2,263   .......  ........
                                        ========================================================================
                 FTTPs
Training:
    Individual.........................      62        3       62        3       62        3   .......  ........
    Institutional......................     703       31      723       32      737       33       3.1        1
                                        ------------------------------------------------------------------------
      Total, Training..................     765       34      785       35      799       36       2.9        1
                                        ========================================================================
Research & development contracts.......     181      364      190      415      225      553      33.3      138
    (SBIR/STTR)........................     (10)      (2)     (10)      (2)     (10)      (1)    -50.0       (1)
Intramural research....................  .......     325   .......     331   .......     356       7.6       25
Research management and support........  .......      96   .......      99   .......     106       7.1        7
Construction...........................  .......       5   .......  .......  .......  .......  .......  ........
Library of Medicine....................  .......       7   .......       8   .......      10      25.0        2
Office of the Director.................  .......      61   .......      61   .......      63       3.3        2
Buildings and Facilities...............  .......  .......  .......  .......  .......  .......  .......  ........
                                        ------------------------------------------------------------------------
      Total, Budget Authority..........  .......   2,840   .......   2,945   .......   3,387      15.0      442
----------------------------------------------------------------------------------------------------------------


    ATTACHMENT 2.--OFFICE OF AIDS RESEARCH, FISCAL YEAR 2006 BY-PASS, FUNDING BY THE NIH PLAN FOR HIV-RELATED
                                                    RESEARCH
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                        Fiscal year
                                         -----------------------------------------------------------------------
                                                                                            2006 over 2005
                                                                               2006  ---------------------------
                                           2002    2003     2004      2005      by-            Percent
                                          actual  actual  estimate  estimate   pass   Dollar      of     Percent
                                                                                      change  increment   change
----------------------------------------------------------------------------------------------------------------
Natural History and Epidemiology........    $276    $295     $293      $296     $315     $19       4.3       6.4
Etiology and Pathogenesis...............     685     727      716       728      812      84      19.0      11.5
Therapeutics............................     689     726      754       771      848      77      17.4      10.0
Vaccines................................     329     407      467       529      714     185      41.9      35.0
Behavioral and Social Science...........     346     370      402       408      457      49      11.1      12.0
Training and Infrastructure.............     121     137      165       169      191      22       5.0      13.0
Information Dissemination...............      53      55       43        44       50       6       1.4      13.6
                                         -----------------------------------------------------------------------
      Total.............................   2,499   2,717    2,840     2,945    3,387     442       100      15.0
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
               Prepared Statement of Dr. Anthony S. Fauci

    Mr. Chairman and Members of the Committee: I am pleased to present 
the fiscal year 2006 President's budget request for the National 
Institute of Allergy and Infectious Diseases (NIAID) of the National 
Institutes of Health (NIH). The fiscal year 2006 budget of 
$4,459,395,000 includes an increase of $56,554,000 over the fiscal year 
2005 enacted level of $4,402,841,000, comparable for transfers proposed 
in the President's request.
    NIAID conducts research to understand, treat, and prevent 
infectious and immune-related diseases. Infectious diseases include 
well-known killers such as tuberculosis and malaria, emerging or re-
emerging threats such as HIV/AIDS, SARS, West Nile Virus and influenza, 
and ``deliberately emerging'' threats from potential agents of 
bioterrorism such as those that cause anthrax and smallpox. Examples of 
immune-related diseases include autoimmune disorders such as type 1 
diabetes, systemic lupus erythematosus, rheumatoid arthritis, 
transplantation-related illnesses, asthma, and allergies.
    Historically, NIAID has accomplished its mission with a strong 
commitment to basic and targeted research in immunology, microbiology, 
and infectious disease. In the 57 years since NIAID was founded, this 
approach has led directly to new therapies, vaccines, diagnostic tests, 
and other technologies that have improved the health of millions of 
people worldwide. In recent years, however, the growing realization 
that the nation needs a stronger defense against both naturally and 
deliberately emerging infectious diseases has led NIAID to adopt a new 
research paradigm that accelerates the development of safe and 
effective medical countermeasures. To accomplish this, we have sought 
creative ways to modify our traditional process of research and 
development to move potential products ahead more rapidly while 
continuing to preserve the excellence in basic research that is a 
hallmark of NIAID, and all of NIH. The result is that we now take a 
much more proactive role in collaborating with academia, industry and 
other partners to move promising concepts into advanced product 
development and clinical testing.

                          BIODEFENSE RESEARCH

    In the wake of the 2001 terrorist attacks, NIAID substantially 
expanded and accelerated its biodefense research program. The fiscal 
year 2006 President's budget request for NIAID includes $1,664,505,000 
for these biodefense research and development activities. The NIAID 
Strategic Plan for Biodefense Research provides a blueprint for the 
construction of three essential pillars of the NIAID biodefense 
research program: infrastructure needed to safely conduct research on 
dangerous pathogens ($30,000,000 in fiscal year 2006); basic research 
on microbes and host immune defenses that serves as the foundation for 
applied research ($612,190,000 in fiscal year 2006); and targeted, 
milestone-driven research and development of medical countermeasures to 
create the vaccines, therapeutics and diagnostics that we would need in 
the event of a bioterror attack ($1,022,315,000 in fiscal year 2006).
    The investment Congress has made in the NIAID biodefense research 
program has already begun to return substantial dividends in all three 
of these aspects of biodefense research. Dramatic advances have been 
achieved in the development of medical countermeasures against an 
attack with biological agents, and, although there is much more to be 
accomplished, we are in a far stronger position today than we were only 
a few years ago. In September 2001, we had 15.4 million doses of 
smallpox vaccine available; today, we have more than 300 million doses. 
A next-generation smallpox vaccine called modified vaccinia Ankara 
(MVA) is in clinical testing and other vaccine candidates are in pre-
clinical development stages. A new oral form of the antiviral drug 
cidofovir is in advanced product development for use in the event of a 
smallpox attack, as well as to treat the rare but serious complications 
of the classic smallpox vaccine. For anthrax, NIAID has aggressively 
pursued development of a new vaccine called rPA; the Department of 
Health and Human Services (DHHS) has contracted with VaxGen, Inc. to 
purchase 75 million doses of rPA under the BioShield legislation passed 
last year. This vaccine is derived using molecular biological 
methodologies and is produced using modern vaccine manufacturing 
techniques and may require fewer doses than the currently licensed 
vaccine. New anthrax therapies that can neutralize the anthrax toxin, 
such as monoclonal and polyclonal antibodies, are being developed. 
Candidate antibody treatments for the toxin that causes botulism are in 
development, as is a new vaccine to prevent the disease. Finally, an 
Ebola recombinant DNA vaccine is in initial human clinical trials at 
the NIAID Vaccine Research Center.
    With regard to research infrastructure, many integrated research 
facilities are under construction to safely contain and study 
pathogens, including several new biodefense laboratories that will be 
owned and operated by NIAID. In addition, sites have been selected for 
the construction of two National Biocontainment Laboratories (NBLs) and 
nine Regional Biocontainment Laboratories (RBLs) at major universities 
around the United States. All of these research laboratories will 
provide the secure facilities needed to carry out the nation's expanded 
biodefense research program in settings that protect workers and the 
surrounding communities. NIAID also has funded eight Regional Centers 
of Excellence for Biodefense and Emerging Infectious Diseases Research 
(RCEs). This nationwide network of multidisciplinary academic centers 
will conduct wide-ranging research to better understand infectious 
agents that could be used in bioterrorism, and will develop 
diagnostics, therapeutics and vaccines needed for biodefense against 
these agents. In 2005, NIAID will fund two additional RCEs and three to 
four additional RBLs. NIAID also has developed and expanded contracts 
to screen new drugs against bioterrorism threat agents, developed new 
animal models for bioterrorism threat agents, and established a 
biodefense reagent and specimen repository.
    Advances in Medicine rest on a foundation of basic research into 
the fundamental properties and mechanisms of life. In biodefense, these 
basic studies include sequencing and understanding of microbial genomes 
(genomics) and their products (proteomics), deciphering how microbes 
cause disease (pathogenesis), and examining how the human immune system 
and pathogens interact (immunology). NIAID-funded basic researchers 
have made significant progress since 2001 in each of these areas. For 
example, researchers have now determined the genetic sequence of at 
least one strain of every pathogen identified as a potential bioterror 
threat, and NIAID has established the Pathogen Functional Genomics 
Resource Center to help researchers apply and analyze these new genome 
sequence data. In pathogenesis, NIH researchers recently determined the 
three-dimensional structure of the anthrax toxin bound tightly to a 
target cell surface receptor. This finding has provided new leads for 
the development of novel antitoxins that could save lives late in the 
course of anthrax disease when large amounts of toxin are present and 
antibiotics alone are no longer sufficient to save the patient. 
Finally, basic molecular and cellular studies of the human innate 
immune system, which is comprised of broadly active ``first responder'' 
cells and other mechanisms that are the first line of defense against 
infection, have been moving forward rapidly. These advances suggest it 
may be possible to develop fast-acting countermeasures that boost 
innate immune responses to mitigate the effects of a broad spectrum of 
bioterror pathogens or toxins. Manipulation of the innate immune system 
also could lead to the development of powerful adjuvants that can be 
used to increase the effectiveness of vaccines.
    The knowledge and products that will flow from the NIAID biodefense 
research program, including research results, intellectual capital, 
laboratory resources, and countermeasures in the form of diagnostics, 
therapeutics, and vaccines, will help us cope with naturally emerging, 
re-emerging, and deliberately released microbes alike. Recent 
experience tells us that knowledge developed to understand one pathogen 
invariably applies to others. For example, when HIV first emerged, 
antiviral drug development was in its infancy. Now, new technologies 
have led to the development of more than 20 antiretroviral drugs that 
can effectively suppress HIV replication and dramatically reduce AIDS 
morbidity and mortality. These same technologies, and the lessons 
learned about antiviral drug development, are being applied to the 
development of new generations of drugs against many viruses, including 
influenza, SARS, smallpox, and Ebola. Even if we are never confronted 
with another bioterror attack, the biodefense research and preparations 
being carried out now will without question prove to be very valuable.

                           HIV/AIDS RESEARCH

    Only a few statistics are needed to present a profoundly disturbing 
picture of the still-emerging HIV/AIDS pandemic. Approximately 40 
million people worldwide are living with HIV/AIDS, according to the 
Joint United Nations Programme on HIV/AIDS (UNAIDS). Every year, more 
than 5 million people worldwide are newly infected with the virus--
about 14,000 each day; more than 95 percent of these people live in low 
and middle income countries. In the United States, nearly one million 
people are living with HIV/AIDS, and approximately 40,000 new 
infections occur annually, according to the Centers for Disease Control 
and Prevention. The death toll continues to climb steadily; worldwide, 
more than 20 million people with HIV have died since the pandemic 
began, including more than 520,000 in the United States. In 2004, there 
were 3 million deaths due to HIV/AIDS. As shocking as these numbers 
are, they do not adequately communicate the physical and emotional 
devastation to individuals, families, and communities coping with HIV/
AIDS, nor do they capture the terrible impact of HIV/AIDS on the 
economies and security of nations, and indeed on entire regions.
    Even as the burden of HIV/AIDS continues to grow, recent progress 
in research is providing reasons for optimism. For example, several new 
antiretroviral drugs recently have entered the market, all of which 
were built on NIAID-sponsored research and/or were tested in NIAID 
clinical trials networks; many other new anti-HIV drugs are in clinical 
trials. Other novel approaches to anti-HIV drugs are in the research 
``pipeline.'' For example, NIAID scientists, in collaboration with 
extramural colleagues and with industry, recently conducted a clinical 
trial to test a product, anti-CCR5, that binds to a new therapeutic 
target, the HIV co-receptor, thus preventing HIV infection of host 
cells.
    The development of a safe and effective HIV vaccine is one of 
NIAID's highest priorities. The scientific barriers to the creation of 
such a vaccine are extraordinarily high, and better coordination, 
collaboration and transparency of research worldwide would help to 
overcome them. To facilitate such an approach, NIAID participated 
heavily in the creation of a new initiative called the Global HIV/AIDS 
Vaccine Enterprise, which was endorsed by President Bush and the other 
G8 countries at their June, 2004 Summit meeting in Sea Island, GA. The 
project creates a worldwide consortium of people and organizations with 
a stake in HIV vaccine research who agree to harmonize their individual 
HIV vaccine efforts by following a unified Strategic Plan for HIV 
vaccine development. This plan was published on a publicly-accessible 
website in February 2005.
    Other measures to prevent HIV transmission also are being 
vigorously pursued. For example, when I testified here last year I 
discussed our efforts to develop topically applied microbicides that 
women could use to protect themselves from HIV and other sexually 
transmitted pathogens. More than 50 candidate agents have shown 
activity against HIV and other sexually transmitted diseases in the 
laboratory, and several of these have been shown to be safe and 
effective in animal models. In February 2005, a large international 
study, sponsored by NIAID and involving more than 3,000 women at high 
risk of acquiring HIV in the United States and five African countries, 
opened for enrollment. If these microbicides are proven to be safe and 
effective, they likely will become a very important means of slowing 
the pace of the HIV/AIDS epidemic.

     RESEARCH ON OTHER EMERGING AND RE-EMERGING INFECTIOUS DISEASES

    Infectious diseases do not remain static, but continually and 
dramatically change over time. New pathogens, such as the Severe Acute 
Respiratory Syndrome (SARS) coronavirus, can emerge suddenly and 
familiar ones, such as influenza virus and West Nile virus, can re-
emerge with new properties or in unfamiliar settings. We must always be 
on guard for such changes and be prepared to react to them as quickly 
as possible. SARS is a prototypical example of a newly-emerging 
infectious disease. When SARS first came to the world's attention in 
early 2003 as an unknown, highly lethal and transmissible disease, 
researchers and public health authorities the world over immediately 
began to collaborate to understand it. In short order, NIAID-supported 
researchers and others in Hong Kong showed that SARS was caused by a 
previously unrecognized coronavirus, epidemiologists unraveled its 
modes of transmission, and public health authorities were able to 
contain the initial outbreak.
    Since then, NIAID has continued to pursue several approaches to the 
development of SARS antiviral therapies. For example, NIAID screening 
contracts have supported the evaluation of more than 20,000 chemicals 
for anti-SARS coronavirus activity. More than 1,400 compounds with 
activity against SARS coronavirus have been identified, including alpha 
interferon, a drug already approved by the FDA for the treatment of 
hepatitis B and C infections.
    NIAID scientists and grantees also are working on several 
approaches to a SARS vaccine, including one that entered human clinical 
testing in December 2004. It is truly remarkable that two years ago we 
were facing an unknown global health threat, and now we are already 
testing a promising vaccine that may help us to counter that threat 
should it re-emerge.
    When West Nile virus (WNV) first appeared in the Western hemisphere 
in 1999, NIAID immediately increased its basic research on the virus 
and undertook the development of new vaccines and treatments for the 
disease. NIAID currently supports the development of three types of WNV 
vaccine--one of which has entered initial clinical testing--and is 
developing candidate WNV therapies. For example, in 2004, NIAID 
expanded an ongoing clinical study in human volunteers that is 
evaluating the safety and efficacy of the administration of antibodies 
against the virus as a means of treating or preventing West Nile virus 
encephalitis.
    Influenza is a classic example of a re-emerging disease. Because 
the influenza virus continually changes, the U.S. influenza vaccine 
supply must be renewed each year. Although the egg-based technology 
currently in use has served us reasonably well for more than 40 years, 
it has limitations in flexibility in that surges in the need for 
additional or new vaccines cannot be readily accommodated due to the 
advance time that is required to provide for the annual requirement for 
hundreds of millions of fertilized chicken eggs to manufacture the 
vaccine. In addition, there is the ever present risk of contamination 
and the vicissitudes of yield of virus from this technique. The serious 
vaccine shortage that occurred this flu season underscores the 
difficulties we face in annually renewing the influenza vaccine supply, 
and highlights the pressing need to move toward adoption of newer 
vaccine manufacturing techniques to improve the flexibility and speed 
with which vaccines can be made.
    NIAID supports several research projects and other initiatives 
intended to foster the development of new influenza vaccines and 
manufacturing methods that are simpler and more reliable, yield 
products that work against multiple influenza strains, and provide 
greater protection. DHHS has requested $120 million in fiscal year 2006 
to help shift vaccine manufacture toward new cell-culture technologies, 
new production technologies, as well as to provide for year-round 
availability of eggs to provide for a secure supply and surge capacity. 
In addition, a technique developed by NIAID-supported scientists called 
reverse genetics allows scientists to manipulate the genomes of 
influenza viruses to make the process of development of seed viruses 
for vaccines faster and more predictable.
    Although the impact of influenza in a normal epidemic year is 
substantial, influenza viruses from animals occasionally cross into 
humans and, if the virus then acquires the ability to be easily 
transmitted between people, can cause a much more serious influenza 
pandemic. NIAID conducts a great deal of research to understand the 
viral biology and epidemiology that underpinned past pandemics and 
funds surveillance activities in Asia to detect the emergence of 
influenza viruses with pandemic potential. In addition, the DHHS draft 
Pandemic Influenza Response and Preparedness Plan directs NIAID to help 
develop and produce an effective vaccine as rapidly as possible that 
could be used should a pandemic alert be declared.
    In recent years, avian influenza virus strains that can infect 
humans have emerged; the most worrisome are known as H9N2 and H5N1. In 
1999 and 2003, an H9N2 influenza strain caused illness in people in 
Hong Kong. The H5N1 ``bird flu'' influenza strain was first detected in 
1997 and has spread widely among wild and domestic birds. This latter 
virus has infected at least 55 people and killed 42 since January 2004, 
and there has been at least one documented case of human-to-human 
transmission.
    NIAID has taken several steps to develop vaccines against both of 
these potential pandemic strains. NIAID contracted with Chiron 
Corporation to produce investigational batches of an inactivated H9N2 
vaccine, which will be evaluated clinically by NIAID this year. For 
H5N1, Aventis-Pasteur, Inc. and Chiron are both producing 
investigational lots of inactivated H5N1 vaccine preparations; 
additionally, DHHS has contracted with Aventis to produce up to 2 
million doses to be stockpiled for emergency use, if needed, to 
vaccinate health workers, researchers, and, if indicated, the public in 
affected areas. Development and evaluation of a combination antiviral 
regimen against these potential pandemic influenza strains are also now 
under way.

                  RESEARCH ON IMMUNE-MEDIATED DISEASES

    Immune-mediated diseases, including autoimmune diseases, allergic 
diseases, and asthma are important health challenges in the United 
States and abroad. One of the most promising strategies for developing 
treatments for a wide variety of these disorders is known as immune 
tolerance, in which researchers hope to selectively turn off injurious 
immune responses while leaving intact the protective responses needed 
to fight infection. To foster this research, NIAID sponsors the Immune 
Tolerance Network (ITN), a consortium of more than 80 investigators in 
the United States, Canada, Western Europe, and Australia dedicated to 
the clinical evaluation of promising therapies that can induce immune 
tolerance. The ITN will be recompeted in fiscal year 2006.
    Reducing the growing burden of asthma among inner-city minority 
children is another NIAID priority. NIAID-supported investigators 
recently reported the largest study of its kind, showing that an 
intervention to reduce exposure to indoor allergens and tobacco smoke 
substantially reduced asthma severity and healthcare utilization among 
inner-city children. In 2004, NIAID's Inner-City Asthma Consortium 
launched a large study to define and analyze immunological and 
environmental influences upon the development of childhood asthma in a 
cohort of urban children followed from birth.
    In closing, Mr. Chairman, I would like to take a moment to remember 
John R. La Montagne, Ph.D., the former deputy director of NIAID, who 
died suddenly on November 2 while traveling to a meeting of the Pan 
American Health Organization in Mexico City. Human infrastructure, in 
the form of a highly trained and deeply committed work force, is a 
critical component of any kind of medical research. Throughout John's 
almost 30 years at NIAID, his leadership and dedication to improving 
global health, as well as his generosity, wit, even-handedness and 
kindness, made him a cornerstone of the human infrastructure at NIAID. 
Personally, he was a dear friend and one of the finest people I have 
ever known. He is sorely missed.
    Thank you, Mr. Chairman. I would be pleased to answer any questions 
that the Committee might have.
                                 ______
                                 
           Prepared Statement of Dr. Andrew C. von Eschenbach

    Mr. Chairman and Members of the Committee: I am pleased to present 
the President's budget request for the National Cancer Institute (NCI) 
for fiscal year 2006. The fiscal year 2006 budget includes 
$4,841,774,000, an increase of $16,516,000 over the fiscal year 2005 
enacted level of $4,825,258,000 comparable for transfers proposed in 
the President's request.

                             LONG-TERM GOAL

    The accelerating progress that the National Cancer Institute (NCI) 
and its partners in the cancer community have made over the past three 
decades in understanding the molecular mysteries of cancer is now 
extending the years and enhancing the quality of patients' lives. Now 
we are closer to the reality of eliminating the suffering and death due 
to cancer--the goal that NCI set to be achieved by 2015. The fiscal 
year 2006 budget continues to accelerate the discovery, development, 
and delivery of the interventions that will transform our traditional 
view of cancer as a death sentence into a disease that we can prevent, 
eliminate, or control. Accomplishing this goal is the legacy we strive 
to leave our children.
    Our increased knowledge in several clinical approaches has led to 
new treatments approved for use. For example, our understanding of the 
molecular mechanisms required for tumors to develop the blood supply 
necessary for their growth led to the Food and Drug Administration's 
(FDA) approval of the monoclonal antibody Avastin as a first-line 
treatment for patients with metastatic colorectal cancer. Similarly, 
knowledge of the growth factors necessary to stimulate cancer cell 
proliferation led to development and approval of another targeted 
monoclonal antibody Erbitux for the treatment of metastatic colorectal 
carcinoma and to the accelerated approval of Alimta for locally 
advanced or metastatic non-small cell lung cancer. These are just a few 
of the new drugs offering fresh hope for patients with advanced cancer.
    We have made progress in preventing cancer from ever developing in 
the first place, especially in people at high risk. An example is the 
creation of a vaccine that has prevented women from becoming 
persistently infected with human papilloma viruses (HPV), an infection 
that is responsible for half of all cervical cancers.
    Now we must quicken the pace of progress because the trajectory is 
clear: discovery of cancer's genetic and molecular mechanisms leads to 
development of innovative interventions that--when delivered to 
patients--save lives. Building on this knowledge, the promise of 
tomorrow's advances is just over the horizon. This hopeful prospect 
will be realized by investing in strategic research areas, including: 
cancer genomics, biomarkers, molecular imaging, nanotechnology, and 
bioinformatics.

                    ADVANCED TECHNOLOGY INITIATIVES

    The technology revolution is speeding up and enabling the discovery 
process. Recent advances in molecularly-targeted imaging will allow us 
to locate very small tumors and interrogate their features. 
Nanotechnology has emerged as a key strategy for imaging molecular 
features of cancer that are notoriously difficult to detect. In one 
case, a team of NCI-supported scientists has crafted a nano-sized 
device--less than 1/80,000 the width of a human hair--to identify areas 
of new blood vessel growth, which is characteristic of growing tumors. 
Further, drugs attached to agents that seek out the proteins on cancer 
cells will target therapy to exactly where it is needed without damage 
to healthy cells.
    The development, integration, and coordination of advanced 
technologies are pivotal to enabling the biomedical and cancer research 
advances that are necessary to achieve NCI's 2015 goal. The Institute 
has played a crucial role in charting the path and collaborating in 
efforts to support bold new programs in this crucial arena.
    For instance, the National Advanced Technologies Initiative for 
cancer (NATIc) is a plan to create a nationwide ``virtual'' laboratory 
for cancer. The NATIc plan envisions a network of state and regional 
technology ``hubs'' focused on several strategic areas, including 
advanced computing, nanotechnology, and biorepositories.
    NCI has already begun development of the cancer Biomedical 
Informatics Grid (caBIG) to create a ``world-wide web'' for cancer 
research. The goal is to create a network of interconnected data, 
applications, individuals, and institutions that will redefine how 
cancer research is conducted and care is provided. During its initial 
year, the caBIG enterprise began bearing its first fruits with the 
release of NCI's caArray, a prototype software application that is made 
freely available to facilitate the sharing and analysis of microarray 
data by the medical research community. NCI and its partners in 
academia and industry are also developing an online information 
infrastructure to support clinical trials management and electronic 
drug approval submissions to the FDA. The first system module--the 
Federal Investigator Registry (Firebird)--starts pilot testing this 
spring.
    In addition, NCI has for the first time adopted a modern business 
model approach to our research and development program for cancer-
imaging technologies. This entailed creation of an Imaging Integration/
Implementation (I\2\) Team that recently submitted a proposed business 
plan for a new entity to be called I\2\ Imaging, Inc. The goal is to 
create distinct product lines to organize NCI's imaging program and 
clearly define measurable goals for each of the product lines. The plan 
includes four R&D programs encompassing imaging technologies for: (a) 
understanding of cancer biology and microenvironments; (b) cancer 
prevention and preemption; (c) development and preclinical validation 
of therapies; and (d) tools for clinical trial support.

                     STRATEGIC RESEARCH INITIATIVES

    Exponential advances in cancer research are defining, with ever 
increasing specificity, the many genetic, molecular, and cellular 
events that influence the cancer process. We now understand cancer as 
an ongoing process that can be interrupted at many stages--from 
susceptibility to initiation to disease progression. We are translating 
this new knowledge into innovative strategies to prevent cancer from 
developing, eliminate it early when it does occur, and modulate its 
devastating effects. This involves NCI making strategic investments in 
several research areas.
    Cancer prevention, early detection, and prediction.--New evidence-
based interventions encourage lifestyle improvements in diet and 
physical activity, discourage tobacco use, and promote safe and fully-
tested chemoprevention approaches for people at risk. Pioneering 
proteomic and biomarker advances, and the promise of nanotechnology, 
give us new hope for the early detection of cancer and prediction of 
patient responses to treatment.
    Development of strategic cancer interventions.--One of NCI's key 
strategies is to optimize the development and speed delivery of 
targeted cancer diagnostics, therapies, and preventives to patients. 
This is evidenced by NCI's investments into the Cancer Genome Anatomy 
Project, Academic Public-Private Partnership programs, and Rapid Access 
to Intervention Development (RAID).
    An integrated clinical trials system.--NCI provides leadership, 
resources, and expertise for clinical trials programs that span the 
discovery of novel molecules to the evaluation of new agents and 
interventions. To make clinical trials more efficient and to accelerate 
and improve the regulatory approval process, NCI is enhancing its 
working relationship with the FDA and the Department of Health and 
Human Services' (DHHS) Office of Human Research Protections to develop 
more streamlined policies and procedures for the conduct of clinical 
trials.
    Integrative cancer biology.--Integrative cancer biology is the 
study of cancer as a complex biological system. NCI's initiatives in 
this cutting-edge area include creating computational models of the 
complex networks within and among cancer cells, building our 
understanding of the tumor microenvironment, and studying the role of 
the tumor macroenvironment in cancer development.
    Molecular epidemiology.--NCI is developing novel ways to unravel 
the complexities of inherited and environmental contributions to cancer 
causation. Future investments will help scientists uncover risk 
factors, identify genetically susceptible individuals, and generate 
individual and public health strategies to avoid or mitigate adverse 
genetic exposures.

                       INTERAGENCY COLLABORATIONS

    Cancer is a large and complex problem with scientific, medical, 
social, cultural, and economic dimensions. Addressing this problem 
requires that NCI work across institutional and sector boundaries, 
share knowledge, and bring together the diverse members of the DHHS 
family of agencies, as well as other Federal offices, that can help 
develop systems-based solutions to the cancer problem. Just within the 
National Institutes of Health (NIH), NCI collaborates with virtually 
all of the 27 Institutes and Centers. Likewise, NCI also has many 
ongoing collaborations with several DHHS agencies. The ultimate 
beneficiaries of this continued cooperative effort will be cancer 
patients and their families.
    NCI and FDA created an Interagency Oncology Task Force (IOTF) to 
remove bottlenecks in the process of developing and approving safe, 
more effective cancer interventions. IOTF, which is comprised of senior 
representatives from both agencies, has been meeting regularly to 
define key areas of mutual interest and concern. As a result, the NCI-
FDA Cancer Training Fellowship Program was launched in 2005. The 
program will train a cadre of scientists in research and research-
related regulatory review so that they can develop skill sets that 
bridge the two distinct processes.
    NCI is also an active participant in the Medical Innovation Task 
Force established last year by DHHS. The group--which also includes the 
FDA, the Centers for Disease Control and Prevention, the Centers for 
Medicare & Medicaid Services, and the NIH--is weighing new ideas and 
solutions to encourage innovation in health care. The interagency panel 
seeks to speed the delivery to market of effective new medical 
technologies, such as drugs, biological products, and medical devices.

                              NIH ROADMAP

    NCI's contributions to NIH Roadmap initiatives will increase NCI's 
ability to support the collaborative research critical to cancer 
studies. Cooperation across the cancer continuum is vital for continued 
progress. The NIH Roadmap mechanisms support research in cancer biology 
that will also enhance continued interdisciplinary research to address 
vital questions related to cancer and the immune system, the interface 
of aging and cancer, and the role of microbial agents in the etiology 
of human cancers. By encouraging interdisciplinary teams to evolve in 
both directed and serendipitous ways, these new funding mechanisms 
complement and enlarge NCI's efforts toward the integration and cross-
fertilization of research efforts that span the cancer spectrum.

                      CHALLENGES AND OPPORTUNITIES

    In the coming years, we will face a number of critical challenges 
and opportunities. We stand on the brink of a new age of ``personalized 
oncology''--delivering the right treatment to the right patient at the 
right time to halt cancer-causing processes in the body before they 
cascade into advanced disease states. NCI is driven to meet the 2015 
challenge goal. Cancer is a public health and financial challenge for 
the United States. NIH estimates that in 2003, the total cost of cancer 
was over $189 billion: $64 billion in direct medical costs (much of it 
paid by Medicare) and $125 billion from lost productivity due to 
illness and premature death. More telling, 570,000 Americans lost their 
lives to the disease last year, according to the American Cancer 
Society. Furthermore, the fact that cancer occurs primarily in 
individuals over the age of 50 means that more of our citizens will 
suffer the terrible burden of this disease in the future due to the 
aging and changing demographics of our population. NCI and its partners 
are committed to making progress toward the goal of eliminating 
suffering and death due to cancer in the next 10 years.
    Thank you, Mr. Chairman. I would be pleased to answer any question 
that the Committee may have.
                                 ______
                                 
  Prepared Statement of Dr. Barbara Alving, Acting Director, National 
                     Center for Research Resources

    Mr. Chairman and Members of the Committee: I am pleased to present 
the President's budget request for the National Center for Research 
Resources (NCRR) for fiscal year 2006, a sum of $1,100,203,000, which 
reflects a net decrease of $14,887,000 over the comparable fiscal year 
2005 appropriation. Within the total is $162,618,000 for AIDS research.
    I am delighted to have this opportunity to share with you the 
scientific advances achieved by NCRR-supported investigators and the 
future directions for NCRR programs. As the ``research resources'' 
component of the National Institutes of Health, NCRR's mission is to 
ensure that scientists have the necessary tools and access to research 
environments to conduct their progressively more complex research on 
human disease. With ready access to essential tools, our nation's top 
scientists may creatively explore promising new research avenues that 
will ultimately enhance human health.
    Because of its cross-disciplinary programs, NCRR supports research 
tools and infrastructure that enable all lines of biomedical inquiry, 
from studies of molecular structures to clinical trials that evaluate 
potential therapies. Most NCRR-supported research resources are shared 
and accessible to scientists nationwide. These shared resources include 
advanced instrumentation and novel technologies, animal models of human 
disease, and electronic networks for collaborations among investigators 
in less populated areas. In addition, through the Institutional 
Development Award program, NCRR provides support to institutions in 23 
states and Puerto Rico to develop new research facilities, equipped 
with state-of-the art research tools.
    NCRR encourages resource sharing because it broadens access to 
essential tools, is cost effective, and leverages precious federal 
research support. Each year, NCRR-funded research resources are used by 
more than 35,000 investigators who receive their primary research 
support from other NIH components, other federal agencies, and the 
private sector. Let me briefly describe just a few of the science 
advances that these researchers achieved over the past year.

         OBESITY STUDIES AIDED BY ANIMAL AND CLINICAL RESOURCES

    Scientists who seek to determine the genetic defects of many human 
diseases are often stymied by the fact that common conditions--from 
obesity to psychiatric disorders--are influenced by multiple genes. 
Therefore, researchers have turned to inbred mice as a model system for 
detecting genetic regions that contribute to complex disease. Using 
unique mouse strains available through an NCRR resource, scientists 
examined genetic factors that affect many complex traits, including 
obesity and anxiety. With this approach about 150 previously 
undiscovered genetic regions were discovered. This effort may narrow 
the search for specific genes that contribute to obesity and also pave 
the way for finding similar genes in humans.
    NCRR's General Clinical Research Centers (GCRCs) provide an ideal 
research environment for studies of obesity, an increasing public 
health concern. Particularly valuable are the GCRCs' highly trained 
staff and state-of-the-art equipment that can analyze a patient's 
metabolism and track consumption of all foods, down to the level of 
micronutrients. At the University of California, Los Angeles, 
researchers depend on the GCRC for their carefully controlled studies 
of the hormones that affect appetite and metabolism. One study found 
that injections of the hormone leptin can reduce body weight by more 
than 50 percent in obese individuals born with leptin deficiency. At 
Yale University's GCRC, scientists evaluated hundreds of overweight 
children and adolescents and found that about half of the severely 
obese have a condition that raises their risk of heart disease and type 
2 diabetes. Ultimately, better understanding of the risk factors and 
potential therapies for obesity could lead to a leaner, healthier 
population.

                  ADVANCES IN TRANSPLANTATION RESEARCH

    As mentioned earlier, the GCRCs continue to have a significant role 
for advancing human health. For instance, the GCRCs enabled pioneering 
clinical studies related to transplantation, from the earliest 
successes with organ transplants in the 1960s to the current 
microtransplants of genes into cells. One recent success, reported in 
the Journal of the American Medical Association this past February, 
showed that islet cells from a single human pancreas can be 
transplanted into up to eight patients with type 1 diabetes, a 
condition in which the pancreatic islet cells do not make insulin. All 
eight transplant recipients achieved normal glucose levels without the 
need for insulin injections. Ongoing advances in transplantation 
illustrate how federally funded efforts--among molecular biologists, 
geneticists, animal researchers, and clinical investigators--lay a 
solid foundation for improving human health through the effort of a 
team of investigators.

                  BIODEFENSE AND TECHNOLOGY RESOURCES

    Besides clinical and comparative medicine resources, NCRR also 
supports biomedical technology centers that develop and provide 
scientists with access to innovative instruments, technologies, and 
computational tools. These technology centers have enabled recent 
advances to help scientists determine how infectious agents, like 
anthrax, induce their deleterious clinical effects. The anthrax 
bacterium is unusual because it produces large amounts of a toxin that 
can kill a patient even after the bacterium itself has been destroyed 
by antibiotics. A research team used x-ray data collected at an NCRR-
supported synchrotron resource to examine the structures of molecules 
that might disarm the deadly toxin. Synchrotrons are large machines 
(about the size of a football field) that accelerate electrons to 
almost the speed of light to produce intense x-rays with adjustable 
wavelengths that can be exploited to reveal the 3 dimensional 
structures of molecules. Further structural studies may lead to the 
development of effective toxin-blocking therapies for inhalational 
anthrax infections.
    In another study, scientists developed improved techniques for 
identifying microbes by their DNA ``fingerprints''--a critical advance 
in this age of bioterrorism and emerging diseases--and shorten the 
timeframe needed to identify the toxic agent. Using laser technology at 
an NCRR-supported flow cytometry resource, scientists analyzed and 
measured tiny samples of DNA from a Staphylococcus aureus bacterium. 
The analysis can be completed in just 30 minutes, compared to the 24 
hours normally required to analyze DNA. Advanced computational methods 
linked to the new technology may boost efforts to detect and track 
microbial threats and provide sufficient time to alert individuals at 
risk.

               INFORMATICS AND INTERDISCIPLINARY SCIENCE

    NCRR's shared resources provide a fertile environment for 
interdisciplinary collaboration. Such studies are essential for 
addressing important but complex research problems that scientists 
grapple with today. For instance, NCRR supports a large-scale 
interdisciplinary effort known as the Biomedical Informatics Research 
Network (BIRN). That effort draws on multiple resources to examine 
increasingly complex problems in neuroscience. BIRN is the nation's 
first test bed for online sharing of research resources and expertise, 
and for effective data mining for both basic and clinical research. The 
initial effort focuses on neuroscience, since that discipline holds the 
largest data sets and requires the capacity to transmit large, 
information-rich images of the brain. BIRN will be extended to other 
research areas. Ultimately, the network will enhance the translation of 
basic research to the patient.

                              NIH ROADMAP

    The NIH Roadmap complements many NCRR programs, and as a result 
NCRR staff members are involved in virtually every Roadmap Working 
Group. NCRR is leading the Exploratory Centers for Interdisciplinary 
Research program. These Centers are developing approaches that will 
allow researchers from very different scientific disciplines to work 
together to solve difficult biomedical or behavioral problems. NCRR is 
also leading the National Technology Centers for Networks and Pathways 
program that aims to develop new technologies to study molecular 
interactions within intact cells. NCRR has a significant role in 
another Roadmap initiative, the National Centers for Biomedical 
Computing, that will provide the infrastructure needed to promote 
productive interactions between computational scientists and biomedical 
researchers.

               STRATEGIC PLANNING AND FUTURE INITIATIVES

    This past year, NCRR published a new strategic plan for 2004-2008. 
Titled Challenges and Critical Choices, the plan was developed based on 
input from thousands of researchers and administrators for research-
intensive organizations nationwide. This strategic plan now guides 
NCRR's priorities for programmatic investments. I would like to briefly 
describe just a few of the initiatives that NCRR has launched, or plans 
to launch, to address the plan's recommendations.

Informatics for Clinical Research
    The scientists who participated in NCRR's strategic planning 
process highlighted cyberspace infrastructure that would significantly 
enhance information sharing, access to and management of vast datasets, 
and transmission of large data objects like brain images as a priority. 
NCRR has initiated an assessment to determine current capabilities and 
future requirements for electronic communication and information 
management across research centers, including the GCRCs, Research 
Centers in Minority Institutions, and biomedical technology research 
centers. One long-term goal is to support collaborations among 
investigators located in less densely populated states.

Enhance Protection of Clinical Research Subjects
    Another important trend identified during NCRR's strategic planning 
process involves the public's growing concern for the safety of 
participants in clinical research studies. NCRR created a Research 
Subject Advocate (RSA) program to assure appropriate safety monitoring 
of research subjects for GCRC-based studies and to ensure that 
investigators are aware of their responsibilities under State and 
Federal law. Because the RSA program has had such a positive impact, 
NCRR remains committed to strengthening the program.

Expand Availability of Nonhuman Primate Stem Cells
    Another NCRR initiative will focus on stem cells, which hold the 
potential for treating a variety of disorders. But extensive animal 
studies are needed to identify the molecules, cytokines or other agents 
that modulate stem cell differentiation. NCRR proposes to support 
research to identify these factors and to isolate several different 
embryonic stem cell lines from the rhesus macaque, baboon, and a few 
other nonhuman primate species. Isolated cell lines will be distributed 
to qualified scientists via a national resource, and a companion 
database will track relevant data for each cell line. Information 
gleaned from these studies may be applicable to the study of human stem 
cells.

                               CONCLUSION

    In closing, as biomedical research becomes more complex, 
specialized research resources are required to address emerging trends 
and build bridges across disciplines. NCRR plays a cross-cutting, 
trans-NIH role in biomedical research, supporting state-of-the-art 
resources that enable collaboration and stimulate scientific discovery. 
These research resources play an essential role in advancing human 
health.
    Thank you, Mr. Chairman. I would be pleased to answer any questions 
that the Committee may have.
                                 ______
                                 
Prepared Statement of Dr. Duane Alexander, Director, National Institute 
                 of Child Health and Human Development

    Mr. Chairman and Members of the Committee: I am pleased to present 
the fiscal year 2006 President's budget request for the National 
Institute of Child Health and Human Development (NICHD). The fiscal 
year 2006 budget includes $1,277,544,000, an increase of $7,223,000 
over the fiscal year 2005 enacted level of $1,270,321, comparable for 
transfers proposed in the President's request.
    With the continued support of this Committee, the National 
Institutes of Health has the unique ability to invest in complex 
medical studies that continue for many years. It is particularly 
satisfying to all of us when an investment in research cures a disease 
or eradicates a condition. With deep satisfaction, we report a major 
medical and public health achievement that the New York Times heralded 
a few weeks ago in a front page headline: U.S. is Close to Eliminating 
AIDS in Infants.
    This progress came in small incremental steps that arose from a 
large ambitious vision: to eliminate mother-to-child HIV transmission. 
Just a decade ago, a pregnant woman with HIV who lived in the United 
States had more than a 25 percent chance of passing the virus on to her 
child. In the early 1990s, the NICHD and the NIAID formed the Pediatric 
AIDS Clinical Trials Group to test promising new anti-HIV treatments. 
One of the first studies showed that the drug AZT administered to the 
mother and newborn infant at specific times could reduce HIV 
transmission from 25 percent to 8 percent. Subsequent research tested a 
drug combination known as highly active anti-retroviral therapy (HAART) 
and showed that the rate of transmission could be reduced even further. 
Today, with an expanded array of anti-HIV drug treatments, the chance 
of a pregnant woman in the United States passing the virus on to her 
child has plummeted to about 1.2 percent.

          COMPOUNDS IN MOTHERS' MILK PROTECT AGAINST DIARRHEA

    Human breast milk is known to protect infants from diarrhea, but 
the responsible components had not been known. Results of a routine 
investigation to understand the purpose of some complex sugar molecules 
found in human breast milk may lead to a way to prevent diarrheal 
diseases from occurring, not just in infants, but in older children and 
adults as well. The molecules, called oligosaccharides, are abundant in 
human breast milk. During the last decade, NIH-funded researchers have 
discovered that oligosaccharides can stop bacteria and viruses from 
binding to the cells in the intestinal wall, preventing diarrheal 
diseases from gaining a foothold.
    Oligosaccharides have been found to combat E. coli 0157, the deadly 
bacterium that can infect ground beef and other common foods. They also 
block the Norwalk virus, which incapacitates thousands of cruise ship 
voyagers every year, as well as rotavirus, one of the most common 
causes of diarrheal diseases in children. Oligosaccharides may also 
provide a means to overcome the problem of bacterial resistance. They 
function differently than do antibiotics, and bacteria do not appear 
able to develop resistance to the oligosaccharides.

               RESEARCH LEADS TO BETTER HEALTH FOR WOMEN

    Fibroids, or leiomyomas, are painful noncancerous growths that 
develop in the smooth muscle of the uterus. Women with fibroids may 
have painful menstrual periods, pain during intercourse, infertility, 
incontinence, and bowel obstruction. Women with fibroids are also more 
likely to go into labor prematurely and to experience a miscarriage. 
The exact number of women with fibroids is not known, but between 25 
and 40 percent of all U.S. women experience fibroid symptoms. Fibroids 
disproportionately affect African Americans. One study estimated that 
80 percent of African American women have fibroids by age 60. There are 
few effective ways other than hysterectomy to treat these tumors. 
Recently, however, NICHD researchers made some basic discoveries about 
fibroids that may lead to effective non-surgical treatments. In one 
study, researchers used sophisticated gene analysis technology to learn 
that fibroids contained abnormally high levels of a protein known as 
dermatopontin. That study led to another discovery that fibroids are 
largely made up of abnormal strands of collagen; thus, researchers are 
now searching for new drug treatments directed toward the abnormal 
collagen.
    Pregnancy and childbirth place women at higher risk for a disorder 
known as pelvic organ prolapse, which can be painful and disabling, and 
require surgical treatment. Although surgical procedures may correct 
the condition, many women may experience urinary incontinence as a 
result of such treatment, which may require a second surgery to 
correct. From early results of a clinical trial, NICHD-funded 
researchers have learned that performing an incontinence surgical 
procedure during the same operating room session as the prolapse repair 
markedly decreases the chances for incontinence, without adverse 
effects. Such findings not only have implications for improving the 
quality of life for women, but may have implications for helping to 
reduce the cost of care.

                       RESEARCH ENHANCES LEARNING

    After more than 30 years of careful research--using the same 
scientific rigor we use to test a new drug or medical procedure--the 
NICHD has identified the instructional methods that best help children 
learn to read. A recent brain imaging study has shown that these 
scientifically proven methods actually change the brain functioning of 
formerly poor readers so that it resembles the brain functioning of 
good readers.
    Unfortunately, however, many school districts still rely on 
instructional practices that are not based on scientific research. 
According to the National Center for Education Statistics, roughly 37 
percent of the nation's 4th graders read below grade level. In 
collaboration with the Department of Education, NICHD staff is working 
to communicate evidence-based research findings to provide school 
districts around the country with new approaches to teach reading. To 
be competitive in the years ahead, U.S. students will also need a 
thorough grounding in science. A recent study has challenged current 
thinking on the best way to teach science. The traditional belief was 
that students would better remember what they learn if they discovered 
on their own how to conduct an experiment rather than having someone 
teach it to them. In fact, the researchers found just the opposite: 
that students learned faster and retained more information if they were 
given explicit instructions about experimental procedures. The finding 
provides teachers with important information on how best to convey 
scientific concepts to their students.
    Our basic science laboratories continue to produce discoveries of 
potential clinical relevance to learning and mental retardation. NICHD 
scientists discovered that a single protein appears central to the 
formation of the long-term memories underlying all advanced learning. 
Two teams of NICHD scientists have discovered how the protein known by 
the acronym BDNF is produced in the brain and are studying whether 
defects in the BDNF protein system may lead to disorders of learning 
and memory. Other scientists have studied an animal model of the 
defective Rett syndrome gene that causes deterioration of cognitive and 
motor function in girls to learn how the gene causes anatomic and 
functional abnormalities. Studies also continue on the genetic and 
neurobiologic bases of autism.

               KIDS MAY SAY OTHERWISE, BUT PARENTS MATTER

    Several NICHD studies of child development provide strong evidence 
that parents can exert a direct and positive influence on the decisions 
that children and young adults make. For example, researchers had 
suspected for some time that extensive television viewing at an early 
age might be associated with decreased attention span in children. 
However, they had no data from long-term studies to support this 
observation. So NICHD-funded researchers designed a study to answer an 
important question: do children who watch increasing amounts of TV at 1 
and 3 years of age have increase attention problems at age seven? The 
researchers analyzed data from an ongoing study involving more than 
2,600 children and found that the more television very young children 
watched, the more likely they were at age seven to have attention 
problems. These findings do not mean that early television viewing is 
associated with clinically diagnosed attention-deficit/hyperactivity 
disorder (ADHD). However, the findings support the idea that parents 
could reduce the risk for attention problems by limiting children's 
television viewing in their early years.
    NICHD scientists have also developed a research-based tool that 
parents can use to significantly reduce the risks that young, 
inexperienced drivers face. Insurance companies have known for some 
time that motor vehicle crash rates are higher for teenagers than for 
older drivers and are the highest during the first 1,000 miles and the 
first 6 months of driving. The researchers developed and tested a 
program in which the central feature is a contract between the parent 
and new driver. As part of this contract, the newly licensed driver 
agrees to limit driving at night, driving with other teens in the car, 
driving on high-speed roads, and driving in bad weather. NICHD research 
showed that parents can greatly reduce the risks that new drivers face.

        REHABILITATION NETWORKS SEEK TO IMPROVE QUALITY OF LIFE

    Serious illness and injury may result in life-long impairment. The 
Traumatic Brain Injury Clinical Trials Network will evaluate new 
treatments and rehabilitation techniques for children and adults with 
brain injury. The Pediatric Critical Care Network will evaluate new 
treatments for children who have suffered a serious injury or illness. 
The Network will study the effectiveness of short-term treatment and 
its relationship to the rehabilitation that patients receive and to the 
long-term outcomes.

               THE BEST PHARMACEUTICALS FOR CHILDREN ACT

    The NICHD, as directed by law, in consultation with the FDA and 
experts in pediatric drug development, has identified and prioritized 
the most important drugs for further study in children. Currently, 
children are being recruited to study lorazepam for use as a sedative 
and anticonvulsant, and nitroprusside for controlling blood pressure of 
children undergoing surgery. In cooperation with the National Cancer 
Institute, data pertaining to the drugs vincristine and dactinomycin 
are being reviewed to provide the first evidence-based look at the 
efficacy, toxicity, and dosing of these two drugs. The evidence from 
this review will provide the basis for subsequent studies that will 
provide specific guidance on the use of these drugs in children. Drugs 
on the current priority list will form the basis of solicitations in 
2006.

                     THE NATIONAL CHILDREN'S STUDY

    NICHD scientists working collaboratively with the NIEHS, the CDC, 
and the EPA continue to make progress in planning the implementation of 
the National Children's Study as directed by Congress in the Children's 
Health Act of 2000. The Study, as currently planned, will involve about 
100,000 children and their families, and can form the basis of child 
health guidance, interventions, and policy for generations to come. 
Funds in the fiscal year 2005 budget are being used to establish four 
Vanguard Centers that will pilot recruitment strategies and the Study 
protocol. A data coordinating center will be established to provide the 
statistical analysis and reporting of the Study results. The protocol 
for this Study has been drafted and 101 sites across the United States 
have been identified to provide a population-based representative 
sample. These steps bring us closer to the point at which the full 
study could be implemented.

                              NIH ROADMAP

    The NIH Roadmap initiative is providing an important guide to help 
the NICHD achieve its research and programmatic goals. The initiative 
directed to Re-engineering the Clinical Research Enterprise is 
currently helping to develop future leaders in clinical research. The 
NICHD is leading several targeted efforts to enhance the training, 
development, and support of the clinical research teams of the future.
    Mr. Chairman and members of this Committee, I would like to thank 
you for your continued support of our research to improve the health 
and well being of women, children and families, as well as for your 
support in the critical task of developing tomorrow's research leaders. 
I will be pleased to answer any questions.
                                 ______
                                 
Prepared Statement of Dr. Jeremy M. Berg, Director, National Institute 
                      of General Medical Sciences

    Mr. Chairman and Members of the Committee: I am pleased to present 
the fiscal year 2006 President's budget request for the National 
Institute of General Medical Sciences (NIGMS). The fiscal year 2006 
budget includes $1,955,170,000, an increase of $11,103,000 over the 
fiscal year 2005 enacted level of $1,944,067,000 comparable for 
transfers proposed in the President's request.

      UNDERSTANDING DISEASE REQUIRES UNDERSTANDING NORMAL FUNCTION

    As we go about our daily lives, most of us probably forget about 
the biological processes that make our bodies work. Our cells are 
constantly making new components, dividing, moving, and even dying. 
Complex mechanisms underlie each of these processes and elaborate 
networks integrate them to promote normal, healthy function. If any of 
these processes break down, the result can be cancer, diabetes, 
Alzheimer's, or a host of other diseases.
    To improve our understanding of basic biological processes, we need 
to employ a wide range of approaches. These include conducting basic 
research, developing new technologies, and training tomorrow's 
scientists. In essence, this is the core mission of NIGMS. For more 
than 40 years, the Institute has focused on deepening understanding of 
critical life processes and the molecular underpinnings of disease. In 
this way, NIGMS lays the foundation for advances in the diagnosis, 
treatment, and prevention of many different illnesses.

             PARADIGM-SHIFTING IDEAS AND THEIR APPLICATION

    NIGMS has an impressive track record of investing in research with 
big payoffs. One indication of this success comes from the many 
prestigious awards our grantees receive for their research. In each of 
the last 8 years, at least one Nobel Prize has been given to an NIGMS 
grantee. This year continues the trend: The 2004 Nobel Prize in 
chemistry went to Irwin Rose, Ph.D., a biochemist at the University of 
California, Irvine, whose work has been supported by the Institute for 
several decades. He brings the number of NIGMS-supported Nobel 
laureates to 57.
    Rose shared the prize for his studies on how cells control the 
breakdown of unneeded proteins. The mechanism for this controlled 
breakdown underlies many processes in health and disease and is now the 
focus of literally thousands of research studies. The discoveries 
flowing from this basic research are increasingly being translated into 
new therapies. For example, Alfred Goldberg, Ph.D., an NIGMS grantee at 
Harvard Medical School in Boston, initiated research that led to a new 
drug called Velcade. This drug is used to treat multiple myeloma, a 
deadly type of bone marrow cancer. Velcade works by targeting the 
proteasome--the molecular machine that breaks down unneeded proteins 
that Rose and his coworkers discovered. Velcade is likely to be the 
first of a number of drugs based on the discovery of this process that 
is so fundamental to much of cell biology.
    The path to new approaches for promoting health and preventing and 
treating diseases has several key elements. These include creatively 
exploring a range of biological systems, developing tools for expanding 
knowledge, finding appropriate ways to integrate this knowledge into 
practical applications, and, of course, having a workforce of 
scientists who have the motivation and the knowledge to drive these 
advances.

           FROM CARNIVOROUS SNAILS TO A NOVEL PAIN TREATMENT

    It is tough to make a living as a carnivorous snail. A large family 
of such creatures, called cone snails, relies on extremely potent venom 
to paralyze prey almost instantly. Baldomero Olivera, Ph.D., a 
biologist at the University of Utah in Salt Lake City, has been 
studying cone snails for more than 25 years with NIGMS support, 
carefully separating the venom into its components and studying each 
one.
    Remarkably, the venom components are small proteins that target 
structures within the neuromuscular system with exquisite specificity. 
Because of the roles of their targets and this great specificity, these 
proteins are powerful research tools and show great promise as drugs. 
The first drug to result from this work, Prialt, was approved by the 
FDA in December 2004 to treat the chronic, intractable pain often 
endured by people with cancer, AIDS, or certain neurological disorders. 
One thousand times more powerful than morphine, this new pain 
medication is thought to be non-addictive.
    Other recently discovered pathways are leading to new drugs as 
well. The process of RNA interference, first characterized in 
roundworms by NIGMS grantees, can specifically silence individual 
targeted genes. Harnessing this process has allowed scientists to 
precisely control genes, leading to exciting new research tools and 
promising new ways to treat diseases including HIV, hepatitis, and 
cardiovascular disease. An RNA interference-based drug to treat the 
blinding eye disease of macular degeneration is currently in clinical 
trials.

                      THE SHAPES OF THINGS TO COME

    The human genome is expressed primarily through proteins, the 
molecules that perform virtually all of the body's activities. Based on 
their amino acid sequences, proteins fold into complex shapes that 
determine their functions, including which other molecules they bind to 
form complex assemblies. Powerful techniques have been developed for 
determining protein structures in great detail. Thousands of such 
structures have been determined, providing deep insights into how 
biological systems function in health and disease and driving the 
development of new drugs and other therapies. Much of this work has 
been performed by individual investigators working on individual 
proteins chosen based on their biological context. A productive 
laboratory might determine two to four structures per year. This 
approach continues to be effective, but it is too slow to keep up with 
the vast number of potential protein targets now accessible through 
genomic studies.
    To complement the contributions of individual investigators, NIGMS 
launched the Protein Structure Initiative (PSI) in 2000 with the goal 
of developing technologies and processes to enable researchers to 
quickly, cheaply, and reliably determine the three-dimensional 
structures of proteins. After 4 years, the nine PSI pilot centers can 
produce several structures each week, and the total number of 
structures solved by the PSI centers has now passed the milestone of 
1,000!
    With the second phase of the initiative beginning this summer, the 
PSI will use the tools and methods developed in the pilot phase to 
continue technology development and to determine more protein 
structures, including some that were too complex to tackle during the 
pilot phase. Researchers will use these structures to determine and 
understand protein function, predict the structures of other proteins, 
identify targets for drug development, design molecules to fit those 
targets, and compare proteins from normal and diseased tissues.
    An important activity related to the PSI is the structural biology 
component of the NIH Roadmap for Medical Research, which funded two 
Centers for Innovation in Membrane Protein Production to aid structural 
studies of this major class of proteins. Difficulties inherent in 
studying membrane proteins mean that we know relatively little about 
them, despite the fact that they represent up to a third of all 
proteins and are the targets for a large number of therepeutic drugs. 
NIGMS is actively involved in other Roadmap initiatives, as well, 
including those in the areas of high-risk research (specifically, the 
NIH Director's Pioneer Award), bioinformatics and computational 
biology, molecular libraries and imaging, and interdisciplinary 
research.

                    COMPUTERS MODEL COMPLEX SYSTEMS

    Today's biomedical research has moved beyond describing the parts 
of living systems to focusing on the complex, dynamic interactions of 
those parts. One of the best ways to approach this formidable challenge 
is to use computers to model and manipulate the systems.
    Among the places this is happening are the five NIGMS Systems 
Biology Centers. Multidisciplinary teams of researchers at these 
centers are addressing such fundamental questions as how cells divide, 
differentiate, and communicate and how different kinds of environmental 
stress affect cell and tissue function.
    At the other end of the spectrum, NIGMS-supported researchers are 
investigating how human systems contribute to the spread of infectious 
diseases. The researchers, part of the Institute's Models of Infectious 
Disease Agent Study (MIDAS) initiative, use computational approaches to 
simulate disease outbreaks, whether they occur naturally or result from 
bioterrorism. In much the same way as weather forecasters use computer 
models to predict the landfall of hurricanes, scientists can use the 
MIDAS models to make predictions about potential epidemics. These 
models will assist policymakers, public health workers, and other 
researchers in understanding and responding to new infectious disease 
outbreaks.
    Responding to the medical community's growing concern that avian 
influenza could cause the next flu pandemic, the MIDAS network 
currently is simulating the outbreak of a deadly bird flu strain in a 
hypothetical human community. The computer models incorporate data on 
population density and age structure, distribution of schools, 
locations of hospitals and clinics, travel, and the infectiousness of 
the virus. The models will predict the effects of different strategies 
to contain the spread of infection, such as vaccinating specific groups 
of people or restricting travel. Preliminary results from the avian flu 
modeling project should be available by mid-2005.

                       DIVERSITY DRIVES DISCOVERY

    To continue making rapid progress in biomedical research and 
improving human health, we need to ensure that the pool of biomedical 
scientists reflects the great diversity of our nation. This diversity 
can spark new research questions and offer different approaches to 
answering them. NIGMS promotes this diversity in a number of ways.
    Through our Division of Minority Opportunities in Research, we 
offer programs that encourage and prepare underrepresented minority 
students for research careers. Other programs enhance science curricula 
and faculty research capabilities at institutions with substantial 
minority enrollments.
    We require our institutional training programs to recruit and 
retain underrepresented minority students, as well. And we promote 
diversity of ideas through interdisciplinary training programs and 
through efforts to bring the expertise of researchers in a variety of 
fields, from the physical to the behavioral sciences, to bear on 
biomedical questions. One example is our partnership with the National 
Science Foundation that supports more than 30 research grants at the 
interface of biology and mathematics.

                         EXPANDING THE HORIZON

    Our increasing knowledge of the biological processes that underpin 
health and disease holds great promise for new drugs and better 
diagnostic techniques in the future. A more complete picture of how 
these processes work--and don't work--may lead to new methods for 
preventing illness altogether.
    At the same time, it is important to remember that breakthroughs 
are often based on years of scientific research, with each new result 
building on many previous ones. Each discovery pushes back the frontier 
and reveals intriguing new questions and avenues for future study. 
While we can't always predict what we'll find, we can guarantee that 
the journey will bring us closer to our goal of understanding human 
health and disease.
    Thank you, Mr. Chairman. I would be pleased to answer any questions 
that the Committee may have.
                                 ______
                                 
Prepared Statement of Dr. Francis S. Collins, Director, National Human 
                       Genome Research Institute

    Mr. Chairman and Members of the Committee: I am pleased to present 
the fiscal year 2006 President's budget request for the National Human 
Genome Research Institute (NHGRI). The fiscal year 2006 budget includes 
$490,959,000, an increase of $2,351,000 over the fiscal year 2005 
enacted level of $488,608,000 comparable for transfers proposed in the 
President's request.
    Cable News Network (CNN) recently named the completion of the Human 
Genome Project (HGP) the number one health news story of the past 25 
years. CNN reported, ``Much of the marvel of medicine has to do with 
discovery. Mapping the human genome, the complete sequence of DNA, gave 
scientists a blueprint for building a person, making it the No. 1 
medical story, according to a distinguished panel CNN gathered to rank 
the top 25 medical stories of the past quarter-century.'' As the leader 
of the HGP, the National Human Genome Research Institute (NHGRI) is 
very proud of this recognition, but as CNN also pointed out there is 
still a great deal more to learn.

                       ONGOING NHGRI INITIATIVES

Analysis of the Completed Human Genome Sequence
    In October 2004, the International Human Genome Sequencing 
Consortium, led in the United States by the NHGRI and the Department of 
Energy, published a description of the finished human genome sequence 
in the journal Nature. An international team worked to convert the 
draft genome, published in 2001, into a highly accurate form. The new 
analysis reduces the estimate of the number of human protein-coding 
genes from 35,000 to only 20,000-25,000--a surprisingly low number for 
our species, considering that only a decade ago most scientists thought 
there would be over 100,000 genes. We now focus on the more difficult 
task of understanding the function of each of these genes.

Use of Comparative Genomics to Understand the Human Genome
    The availability of the genome sequences of the human, the mouse, 
the rat and a wide variety of other organisms is driving the 
development of an exciting new field of biological research, 
comparative genomics. The NHGRI is funding research comparing the 
finished reference human genome sequence with that of other organisms, 
to identify regions of similarity and difference, thus dramatically 
increasing understanding of the structure and function of human genes 
to enable development of new strategies to combat human disease.

ENCyclopedia Of DNA Elements (ENCODE) project
    With the goal of identifying the precise location and function of 
all sequence-based functional elements in the human genome, the NHGRI 
launched the ENCyclopedia Of DNA Elements (ENCODE) project in the fall 
of 2003. The project is an international consortium of computational 
and laboratory-based scientists open to all investigators who agree to 
abide by the project's criteria and guidelines for participation. A 
manuscript describing the ENCODE project appeared in the October 22, 
2004 issue of Science, detailing the rationale and strategy behind the 
quest to produce a comprehensive catalog of all parts of the human 
genome crucial to biological function, including all protein-coding 
genes, non-protein-coding genes, regulatory elements involved in the 
control of gene transcription, and DNA sequences that mediate 
chromosomal structure and dynamics. All data generated for the ENCODE 
project are being deposited in free, public databases as soon as they 
are experimentally verified.

Progress with the HapMap
    All diseases have a hereditary component, but for most common 
diseases like diabetes, heart disease, and mental illness, the gene 
variants responsible for the increased risk have been difficult to 
identify. To solve this problem, an approach to scan large regions of 
chromosomes to find the genetic variants (called SNPs, or single 
nucleotide polymorphisms) that increase or decrease the risk of disease 
is needed. NHGRI has taken a leadership role in the International 
HapMap Consortium and the development of the HapMap (haplotype map), a 
catalog of human genetic variations and how that is organized into 
haplotype ``neighborhoods'' across the gene. Researchers are already 
starting to use the HapMap to find genes and variants that contribute 
to many diseases; it will also be a powerful resource for studying the 
genetic factors contributing to variation in individual response to 
disease, drugs, and vaccines.
    In February 2005, the International HapMap Consortium completed 
phase I of the project, ahead of schedule. Boosted by an additional 
$3.3 million in public-private support, the NHGRI announced plans to 
create an even more powerful map of human genetic variation than 
originally envisioned. The consortium's new goal is an improved version 
of the HapMap about five times denser than the original plan. This 
``Phase II'' HapMap will test another 4.6 million SNPs from publicly 
available databases and add that information to the map. The HapMap 
will be completed in the fall of 2005.

Gene Variants May Increase Susceptibility to Type 2 Diabetes
    Understanding the genetic basis of the more common, polygenic 
diseases has traditionally been very difficult. But the tools of 
genomics, especially HapMap, are beginning to reveal many details about 
the risk of common diseases that had previously been unapproachable. 
One disease for which excellent progress has been made towards 
understanding its genetic cause is Type 2 diabetes. Affecting about 17 
million people nationwide, it accounts for 90 to 95 percent of all 
diabetes cases in the United States. This past year, two international 
research teams, including one at NHGRI, each found variants in a gene 
that appears to predispose people to type 2 diabetes, the most common 
form of the disease. Homing in on a wide stretch of chromosome 20, the 
teams identified four genetic variants (SNPs) that are strongly 
associated with type 2 diabetes in Finnish and Ashkenazi Jewish 
populations and that appear to raise the risk of type 2 diabetes by 
about 20 to 30 percent. Translating this discovery into a treatment 
that benefits people with diabetes or those at risk is still years 
away, but this is a major step in that direction.

                            NEW INITIATIVES

Roadmap--Chemical Genomics
    The Molecular Libraries Roadmap initiative will offer public sector 
researchers access to libraries of novel small organic molecules that 
can be used as chemical probes to study the functions of genes, cells, 
and biochemical pathways. This marriage of chemistry and biology will 
provide new ways to explore the functions of major components of cells 
in health and disease. In June 2004, NHGRI announced the establishment 
of the NIH Chemical Genomics Center, and up to eight pilot extramural 
centers will be funded at academic institutions and other locations 
across the country in the spring of 2005. These will function as an 
integrated network, including a common publicly available database 
(PubChem, already activated in September 2004) which will display the 
results of all screens of chemical compounds.

Human Cancer Genome Project
    The dramatic drop in costs of DNA sequencing, catalyzed by the 
Human Genome Project, now makes it possible to use sequencing as a 
major tool for medical research. Doctors and research scientists have 
long known that cancer is, essentially, a genetic disease. Inherited 
mutations or acquired genetic alterations can set a normal cell on a 
path of uncontrolled growth and malignancy. It is now conceivable to 
identify the complete universe of genes involved in every type of 
cancer. That is the intent of a bold new NCI/NHGRI proposal for a Human 
Cancer Genome Project. Such a complete inventory of cancer genes will 
provide powerful new ways to prevent, diagnose, and treat every major 
form of the disease.

The $1,000 Genome Project
    The ability to determine the complete genome sequence of an 
individual could revolutionize medical care. In October 2004, NHGRI 
awarded more than $38 million in grants to spur the development of 
innovative technologies designed to reduce the cost of DNA sequencing 
dramatically. NHGRI's near-term goal is to lower the cost of sequencing 
a mammalian-sized genome to $100,000, which would enable researchers to 
sequence the genomes of hundreds or even thousands of people as part of 
studies to identify genes that contribute to cancer, diabetes, and 
other common diseases. Ultimately, NHGRI's vision is to cut the cost of 
whole-genome sequencing to $1,000 or less, which would enable the 
sequencing of individual genomes as part of medical care. The ability 
to sequence each person's genome cost-effectively could give rise to 
more individualized strategies for diagnosing, treating, and preventing 
disease. Such information could enable doctors to tailor therapies to 
each person's unique genetic profile.

The U.S. Surgeon General's Family History Initiative
    The U.S. Surgeon General's Family History Initiative was launched 
on November 8, 2004, with the NHGRI as the lead collaborating federal 
agency. The purpose of this national public health campaign is to: 
increase the awareness of the American public and their health 
professionals about the importance of family history in health; provide 
tools to gather, understand, evaluate, and use family history to 
improve health; give health professionals tools to communicate with 
patients about family history; and increase genomic and health 
literacy. A web based and print tool entitled ``My Family Health 
Portrait'' was developed in both English and Spanish to facilitate 
collection of family history data. To date, the initiative has been 
highlighted in more than 1,000 media stories and over 170,000 copies of 
the tool have been distributed via the World Wide Web and in paper 
form. This public health campaign is intended to be an annual event.

ELSI Centers for Excellence Program
    On August 31, 2004, the NHGRI's Ethical Legal and Social 
Implications (ELSI) research program announced the funding, with 
contributions from the Department of Energy and the National Institute 
of Child Health and Human Development, of four interdisciplinary 
centers as part of its Centers for Excellence in ELSI Research (CEER) 
program, a new initiative to address some of the most pressing ethical, 
legal, and social questions facing individuals, families, and 
communities in the genome era. Each of the centers, based at Duke 
University, Case Western Reserve University, Stanford University, and 
the University of Washington, will assemble a team of experts in 
several disciplines, such as bioethics, law, behavioral and social 
sciences, clinical research, theology, public policy, and genomic 
research.

                        OTHER AREAS OF INTEREST

Genetic Education for Health Care Professionals
    The NHGRI has developed numerous educational programs to prepare 
health care professionals for the integration of genomics into primary 
health care. A new effort by the NHGRI in this area in 2004 was its 
work with the American Academy of Family Physicians (AAFP) to develop 
the AAFP's 2005 Annual Clinical Focus program, which has Genomic 
Medicine as its theme.

Genetic Nondiscrimination
    Possibly the greatest impediment to the advancement of genomic 
science and its application to human health is the fear of genetic 
discrimination. The NHGRI has worked for ten years to realize a federal 
solution to this problem. The Secretary's Advisory Committee on 
Genetics Health and Society has also strongly supported the need for 
federal legislation. On February 17, 2005 the Senate passed the Genetic 
Information Nondiscrimination Act of 2005 (S. 306), which would address 
these fears, and the Bill has now been referred to the House. The Bush 
Administration has also issued a Statement of Administrative Policy in 
support of the legislation. This issue remains a high priority for the 
Institute.
    Thank you, Mr. Chairman. I would be pleased to answer any questions 
that the Committee might have.
                                 ______
                                 
    Prepared Statement of Dr. Patricia A. Grady, Director, National 
                     Institute of Nursing Research

    Mr. Chairman and Members of the Committee: I am pleased to present 
the fiscal year 2006 President's budget request for the National 
Institute of Nursing Research (NINR). The fiscal year 2006 budget 
includes $138,729,000, an increase of $657,000 over the fiscal year 
2005 enacted level of $138,072,000 comparable for transfers proposed in 
the President's request.
    I appreciate the opportunity to appear before you today to discuss 
the exciting work of the National Institute of Nursing Research (NINR) 
that provides important science to provide necessary improvements in 
the quality of patient care across the continuum of life. Unique within 
the NIH, our mission is structured around the science that connects 
health care providers to patients, their families, and caregivers.
    There are many components to our society's healthcare mosaic. Care 
is delivered through a variety of settings: conventional healthcare 
sites, community-based clinics, and homes. Patients with exceptional 
needs--from newborns, the disabled, individuals at the end-of-life--and 
the underserved, from urban to rural settings, rely on quality care. 
Through our studies, we seek to understand and manage the symptoms of 
acute and chronic illness, and thus, to find effective approaches to 
achieving and sustaining good health.
    Let me now share with you some examples of how our research is 
changing patient care and improving lives.

              MOTHERS AND THEIR YOUNG CHILDREN WITH ASTHMA

    Asthma, a chronic and sometimes life threatening condition, is 
associated with high health costs related to medications, outpatient 
management, and emergency room visits. Especially for younger children, 
good asthma management requires close vigilance by the parent or 
caregiver. Researchers in one study interviewed working mothers of 
young, inner-city asthmatic children, more than a quarter of whom 
reported that there was a smoker in the house. While most of the 
children were under the care of a doctor and were prescribed 
appropriate asthma medications, many still experienced frequent 
coughing, wheezing, or shortness of breath. The mothers often did not 
give medications for coughing, which can be an early sign of an asthma 
attack. While most were vigilant and strove to provide good asthma 
management, the study demonstrated that many mothers lack sufficient 
information on early asthma symptoms and need additional education 
about asthma in order to provide the best care for their children.

                HEALTH DISPARITIES IN RURAL COMMUNITIES

    The health care of rural populations is a concern because of 
poverty, lack of services and/or health vulnerability of the 
population. NINR's recently funded Rural Nursing and Health Care 
Research Center provides an interdisciplinary research infrastructure 
to conduct and disseminate nursing research to address the needs of 
rural populations. NINR has funded researchers who are making advances 
with technological interventions for the chronically ill rural 
populations. The Women to Women project is a computer-based 
communication intervention that is testing a program of health 
information and social support for women. The program provides 
educational tools for self-management skills and studies the risks of 
isolation and chronic illness. This project has influenced health 
outcomes by creating a more informed and self-managing patient 
population. The program may ultimately serve as a model to deliver 
support and education to remote or vulnerable populations.

                       CARING FOR THE CAREGIVERS

    Dementia-related conditions cause a progressive decline in memory, 
cognition, and physical function, and affect nearly 10 percent of 
persons over 65 years of age. The behavior of the patient with dementia 
can range from forgetfulness to dangerous and aggressive activities. 
Family caregivers often identify the management of this behavior as a 
major source of distress and burden.
    The Savvy Caregiver Program, an educational program for caregivers, 
increased the skill, knowledge, and confidence of caregivers. In 
addition, most caregivers reported a decreased sense of burden and 
improved ability to deal with dementia-related behavior of the patient. 
The caregivers underscored their belief in the benefits of caregiving, 
and stated they would recommend the program to others.
    When family caregivers cannot manage the patient with dementia at 
home, they often must place the person in a long term care facility. 
The Family Involvement in Care program was developed to help family 
members contribute to the care of the institutionalized patient. This 
project tested a program for the nurses and staff on the impact of 
dementia for the family, and on ways to support a continued family 
presence. Family members reported more positive feedback to the 
facility, while the staff participants reported positive outcomes 
regarding the family caregiving role.

                  RESEARCH ON CARE AT THE END OF LIFE

    The end-of-life process includes numerous challenges: physical, 
emotional, spiritual, and financial. There also are challenges in 
health care systems exacerbated by the lack of continuity among 
caregivers, disruption of social support networks, unshared clinical 
information, and multiple physical locations for care. Family members 
experience role changes, stress, and ultimately, bereavement as their 
loved one traverses life's continuum.
    The NINR is charged with leading the Institutes and Centers for 
advancing a trans-NIH research agenda on end-of-life care. In this 
role, we support a broad range of studies designed to improve the 
management of symptoms associated with the end of life; elucidate the 
broad issues that affect many families across the nation such as 
communication among patient, family, and care providers; enhance coping 
with terminal illness; and examine cultural and ethnic influences on 
end-of-life care.
    In one NINR study, researchers interviewed patients with terminal 
cancer and found that spiritual well-being helped reduce depression, 
hopelessness, thoughts of suicide, and the desire to hasten death. The 
investigators concluded that palliative care clinicians should assess 
the spiritual beliefs and needs of their terminal patients to help them 
cope with despair and achieve a sense of peace and meaning in their 
life.
    In December 2004, NINR cosponsored an NIH state-of-the-science 
conference on end-of-life. Nearly one thousand people from around the 
world came to NIH to review the existing knowledge base on end-of-life 
and to recommend opportunities for future research. These 
recommendations will feature prominently in NINR's forthcoming research 
plans in this area.

      PALLIATIVE AND END-OF-LIFE CARE IN RURAL AND FRONTIER AREAS

    Residents living in rural or frontier areas typically have limited 
access to health care services, particularly at end-of-life. In fiscal 
year 2006, NINR will initiate studies focused on understanding the 
scope of the problems associated with limited access to care in rural 
areas. These studies will examine ways to improve end-of-life care 
through the use of technology; develop new methods to use existing 
networks and services; design culturally appropriate interventions for 
palliative care; and identify possible alternative settings and methods 
for providing care and supporting family caregivers.

                   BUILDING NURSING RESEARCH CAPACITY

    As our nation is experiencing a shortage of nurses, we are also 
experiencing a shortfall in the number of nurse scientists. NINR is 
building research capacity with several innovative initiatives, 
collaborating with universities nationwide to rapidly develop 
baccalaureate-to-doctoral fast-track programs. The Graduate Partnership 
Program (GPP) in Biobehavioral Research, a new pilot training program, 
partners schools of nursing with the NIH intramural program to provide 
cutting-edge, mentored research training for outstanding doctoral 
students.
    NINR is also supporting Centers to stimulate research and research 
training opportunities. One example, the Nursing Partnership Centers to 
Reduce Health Disparities, together with the National Center on 
Minority Health and Health Disparities, partners research-intensive 
universities with minority-serving institutions.

                        NINR AND THE NIH ROADMAP

    NINR has identified two key areas of science within the NIH 
Roadmap, Interdisciplinary Research Teams of the Future and Re-
engineering the Clinical Research Enterprise, and integrated them 
within the nursing research agenda. NINR and its investigators have 
extensive experience in conducting interdisciplinary research projects. 
Currently, more than one-half of NINR-funded studies appear in non-
nursing journals. This shows the promise of future interdisciplinary 
collaborations and the value of nursing research findings by other 
disciplines. In the area of improving the clinical research enterprise, 
most of NINR's research is clinical in nature and research questions 
are evaluated from the clinical researcher's perspective. Investigators 
translate research findings into the clinical practice of healthcare 
providers and develop partnerships to speed new scientific knowledge 
into mainstream health care.

                               CONCLUSION

    In conclusion, NINR strives to improve the quality of life and 
quality of health through every stage of life, especially for the most 
vulnerable in our society. We are committed to training the next 
generation of nurse researchers, and to continuing to fund rigorous and 
innovative programs of research to enhance the health of our nation.
    Thank you, Mr. Chairman. I will be pleased to answer any questions 
that the Committee might have.
                                 ______
                                 
    Prepared Statement of Dr. Richard J. Hodes, Director, National 
                           Institute on Aging

    Mr. Chairman and Members of the Committee: I am pleased to present 
the fiscal year 2006 President's budget request for the National 
Institute on Aging (NIA). The fiscal year 2006 budget includes 
$1,057,203,000, an increase of $5,213,000, or 0.5 percent over fiscal 
year 2005 enacted level of $1,051,990,000 comparable for transfers 
proposed in the President's request.
    Thank you for the opportunity to participate in today's hearing. I 
am Dr. Richard Hodes, Director of the National Institute on Aging, and 
I am pleased to be here today to tell you about our progress making and 
communicating scientific discoveries that will improve the health and 
well-being of older Americans.
    There are today approximately 35 million Americans ages 65 and 
over, according to the U.S. Bureau of the Census, and this number is 
expected to rise dramatically in the coming decades. The mission of the 
National Institute on Aging (NIA) is to improve the health and well-
being of these older Americans through research. In support of its 
mission, the Institute conducts and supports an extensive program of 
research on all aspects of aging, from the basic cellular and molecular 
changes that occur as we age, to the prevention and treatment of common 
age-related conditions, to the behavioral and social aspects of growing 
older, including the demographic and economic implications of an aging 
society. In addition, the NIA is the lead federal agency for research 
related to the all-important effort to prevent and treat Alzheimer's 
disease (AD). Finally, our education and outreach programs provide 
vital information to older people across the Nation on a wide variety 
of topics, including living with chronic conditions, maintaining 
optimal health, and caregiving.

           ALZHEIMER'S DISEASE AND THE NEUROSCIENCE OF AGING

    AD is a devastating condition with a profound impact on 
individuals, families, the health care system, and society as a whole. 
Approximately 4.5 million Americans are currently battling AD, with 
annual costs for the disease estimated to exceed $100 billion.\1\ 
Moreover, the rapid aging of the American population threatens to 
increase this burden significantly in the coming decades: By the year 
2050, the number of Americans with AD could rise to some 13.2 million, 
an almost three-fold increase.\2\
---------------------------------------------------------------------------
    \1\ Data from the Alzheimer's Association. See also Ernst, RL; Hay, 
JW. ``The U.S. Economic and Social Costs of Alzheimer's Disease 
Revisited.'' American Journal of Public Health 1994; 84(8): 1261-1264. 
This study cites figures based on 1991 data, which were updated in the 
journal's press release to 1994 figures.
    \2\ Hebert, LE et al. ``Alzheimer Disease in the U.S. Population: 
Prevalence Estimates Using the 2000 Census.'' Archives of Neurology 
August 2003; 60 (8): 1119-1122.
---------------------------------------------------------------------------
    These statistics lend an urgency to the NIA's efforts to better 
understand, prevent, and treat AD, and in the past year, we have made 
several important steps forward. For example, a priority for the NIA is 
to identify risk factors for AD, as interventions that impact the 
effect of a risk or preventative factor could potentially delay the 
onset of the disease or prevent it altogether. Results from several 
recent studies have associated diabetes, which affects about one in 
five persons over age 60 years,\3\ with increased risk of cognitive 
impairment, including AD, raising the possibility that prevention 
strategies for diabetes may also have major consequences for preventing 
or delaying AD.
---------------------------------------------------------------------------
    \3\ See http://diabetes.niddk.nih.gov/dm/pubs/statistics/index.htm. 
Statistics are taken from the 1999-2001 National Health Interview 
Survey and 1999-2000 National Health and Nutrition Examination Survey 
(estimates projected to year 2002).
---------------------------------------------------------------------------
    Evidence is also mounting that lifestyle choices may affect risk of 
AD. In one recent study, older dogs on a regimen of regular physical 
exercise and mental stimulation and a diet fortified with plenty of 
fruits, vegetables, and vitamins performed better on cognitive tests 
and were better able to learn new tasks than dogs in a ``control 
group.'' Although the results of this study need to be replicated in 
humans, they do provide evidence that diet and mental exercise may 
protect against late-life cognitive decline, and that they may work 
more effectively in combination than by themselves.
    An area of some controversy has been the effects of hormonal 
influences on cognitive aging in women, with some studies demonstrating 
a decreased risk for AD among users of hormone therapy and others, 
notably the Women's Health Initiative Memory Study (WHIMS), showing 
that post-menopausal women on certain regimens were actually at higher 
risk for cognitive decline. The risks and benefits of hormone therapy 
remain under study. One new avenue of inquiry is the use of selective 
estrogen receptor modulators (SERMs) to prevent cognitive decline. 
SERMs mimic estrogen's actions in some tissues but block the action of 
the body's naturally occurring estrogen in others, offering the 
benefits of traditional hormone therapy with fewer potential health 
risks. In a recent study, the SERM raloxifene (Evista), frequently 
prescribed for the prevention and treatment of osteoporosis, appeared 
to reduce the risk of cognitive impairment in postmenopausal women. 
More research is needed, but this is a promising area of research.
    The first NIH AD prevention trial, comparing the effects of vitamin 
E and donepezil (Aricept) in preventing AD in people diagnosed with 
mild cognitive impairment (MCI), often a precursor condition to AD, 
recently concluded. Preliminary data indicate that people with MCI 
taking donepezil were at reduced risk of progressing to AD for the 
first 18 months of the 3-year study when compared with their 
counterparts on placebo. The reduced risk of progressing from MCI to a 
diagnosis of AD disappeared after 18 months, and by the end of the 
study, the probability of progressing to AD was the same in the two 
groups.
    NIA is currently supporting over 20 additional AD clinical trials, 
including large-scale prevention trials, which are testing agents such 
as anti-inflammatory drugs, statins, homocysteine-lowering vitamins, 
and anti-oxidants for their effects on slowing progress of the disease, 
delaying AD's onset, or preventing the disease altogether. Trials are 
also assessing interventions for the behavioral symptoms (agitation, 
aggression, and sleep disorders) of people with AD. The Institute also 
supports the development of new agents for AD prevention and treatment, 
including chemical compounds to validate new drug targets, an activity 
with relevance to the ``Molecular Libraries'' area of the NIH Roadmap.
    This year, we have moved forward with two major AD initiatives. The 
Alzheimer's Disease Neuroimaging Initiative, a longitudinal, 
prospective, natural history study of normal aging, mild cognitive 
impairment, and early AD to evaluate neuroimaging techniques such as 
magnetic resonance imaging (MRI) and positron emission tomography 
(PET), was funded, with funding also identified for several ancillary 
studies. This ambitious initiative is being implemented jointly with 
several other NIH Institutes, academic institutions, and industry 
partners, and exemplifies the potential for scientific discovery that 
is the goal of the NIH Roadmap component on Public-Private 
Partnerships.
    The NIA is accelerating the pace of Alzheimer(s disease genetics 
research with its AD Genetics Initiative, a major new program to speed 
the creation of a large repository of DNA and cell lines from families 
with multiple AD cases. The goal of this initiative is to develop the 
resources necessary for identifying the remaining late-onset AD (LOAD) 
risk factor genes, associated environmental factors, and the 
interactions of genes and the environment. To aid recruiting efforts, 
the NIA Alzheimer's Disease Education and Referral Center worked 
closely with the Alzheimer's Association as well as several academic 
partners to publicize the initiative.
    In addition to AD, the NIA supports research on other neurological 
diseases, including Parkinson's disease, frontotemporal dementia, and 
prion diseases. For example, NIA investigators, along with researchers 
from the National Institute of Neurological Disorders and Stroke, were 
part of an international research team that identified a mutation that 
is believed to be the most common genetic cause of Parkinson's disease 
identified to date. This discovery could lead to the development of a 
test to detect the mutation in individuals at risk.

                      OTHER AGING-RELATED RESEARCH

    Diseases of aging continue to affect many older men and women, 
seriously compromising their quality of life. Diseases and conditions 
currently under study at the NIA include:
    Anemia.--Recently, NIA investigators found an overall prevalence of 
anemia of 11 percent in men and 10.2 percent in women ages 65 years and 
older, with prevalence increasing dramatically over age 85. The 
American Society of Hematology (ASH) has worked closely with several 
NIH institutes to establish a research agenda on anemia in the elderly. 
An ASH workshop, ``Clinical Implications of Anemia in the Elderly,'' 
was held in March 2004 to establish a research agenda on anemia in the 
elderly; a report of this workshop will be published in the journal 
Blood in spring 2005. Program staff from NIA and several other NIH 
Institutes participated in the ASH workshop and will work 
collaboratively to identify research priorities. In addition, the NIA 
is developing an initiative to stimulate a broad range of research on 
anemia in the elderly that will inform efforts to decrease the 
associated functional impairment, morbidity and decreased survival.
    Obesity.--According to the National Health and Nutrition 
Examination Survey, some 64 percent of U.S. adults are either 
overweight or obese. Excess weight and obesity are linked with an array 
of conditions, including diabetes, osteoarthritis, and cardiovascular 
disease. As we age, we tend to gain fat, which may interfere with the 
work of tissues in which it accumulates. For example, marrow in most 
bones becomes partially or wholly replaced by adipose (fat) cells, and 
fat accumulates around and infiltrates the bundles of muscle fibers in 
muscles of the limbs and trunk. The accumulation of fat in the muscle 
appears to be doubly dangerous, interfering with both mechanical 
function of the muscles and insulin sensitivity. The NIA is planning an 
initiative to stimulate research exploring adipogenesis in aging--i.e., 
the origin of the increased propensity to form fat cells, and its 
impact on tissues and systems. This area of research has the potential 
to broadly impact our understanding of both the decline in function of 
individual tissues in the musculoskeletal system, and the frequently 
seen changes in glucose metabolism and insulin sensitivity with age.
    Elder Abuse and Mistreatment.--Many older Americans are vulnerable 
to mistreatment, including physical and psychological abuse, neglect, 
and financial exploitation. However, the scope of the problem remains 
unknown. The National Research Council (NRC), at the request of the 
NIA, established a Panel to review risk and prevalence of elder abuse 
and neglect. The Panel's 2003 report, Elder Mistreatment. Abuse, 
Neglect, and Exploitation in an Aging America, outlines a number of key 
priorities, including the development of operational definitions of 
elder mistreatment and the development of reliable and valid measures 
of prevalence. To that end, the NIA is planning a pilot program to 
develop the tools to accurately assess the prevalence of elder abuse, a 
necessary first step in developing interventions.
    A number of the NIH Roadmap initiatives are particularly relevant 
to aging research. For example, small molecule development, by 
providing chemical compounds to validate new drug targets, is crucial 
to the development of drugs for a variety of age-related diseases, 
degenerative conditions, and disabilities. Another Roadmap initiative 
has established a network of investigators to improve the measurement 
of patient-reported outcomes, and ongoing projects of particular 
relevance to the aged population are addressing pain, fatigue, 
arthritis, psychiatric symptoms, including depression, and social 
functioning.

                  HEALTH COMMUNICATIONS AND PROMOTION

    Last year, the NIH launched NIHSeniorHealth.gov, a unique web site 
developed by NIA and the National Library of Medicine and geared toward 
the health needs of older adults. In its first year, the site was 
extremely successful, attracting some 380,000 unique visitors and 
garnering over three million page views. It was the only web site to 
receive an ``Industry Innovators Award'' from the International Council 
on Active Aging. A Spanish-language version of the site is currently 
under development.
    Meals on Wheels Initiative.--During a 2002 Congressional hearing, 
it was recommended that NIA and the Administration on Aging (AoA) work 
together to disseminate research-based consumer education materials to 
the thousands of seniors who participate in the Meals-on-Wheels (MOW) 
program. In participation with AoA, NIA conducted focus groups with the 
MOW Association of America to identify the types of information of 
greatest interest to MOW's clients and the best ways to deliver such 
information. Now, a new booklet entitled ``Take Your Medicines the 
Right Way--Everyday!''is being made available to MOW providers for 
their clients free of charge. The booklet is in easy-to-read language 
and covers important steps to help ensure safe and effective medication 
use.

                               DEMOGRAPHY

    As the percentage of Americans over age 65 increases, profound 
societal changes will likely occur. NIA-supported researchers are 
exploring the changing demographic, social, and economic 
characteristics of the older population. The results of this research 
often have important implications for public policy. A major source of 
demographic data on aging is the Health and Retirement Study, a 
biennial survey of more than 22,000 Americans over age 50, which 
provides data for researchers, policy analysts, and program planners 
who are making major policy decisions that affect retirement, health 
insurance, saving and economic well-being. In 2004, the NIA added a 
cohort of ``Early Baby Boomers'' to this study; this will provide 
crucial information on the savings, retirement, and health behaviors of 
tens of millions of Americans now approaching retirement age.
    Thank you for the opportunity to testify before this Subcommittee. 
I would be happy to answer any questions you may have.
                                 ______
                                 
 Prepared Statement of Dr. Sharon H. Hrynkow, Acting Director, Fogarty 
                          International Center

    Mr. Chairman and Members of the Committee: I am pleased to present 
the fiscal year 2006 President's Budget for the Fogarty International 
Center (FIC). The fiscal year 2006 budget includes $67,048,000, which 
reflects an increase of $416,000 over the fiscal year 2005 enacted 
level of $66,632,000 comparable for transfers proposed in the 
President's request.
    Many years ago, President John F. Kennedy noted that ``A rising 
tide lifts all the boats. And a partnership, by definition, serves both 
partners, without domination or unfair advantage.'' These words serve 
to remind us of the importance of working in partnership with those 
around the world, on equal footing, and for the common good. 
Congressman John E. Fogarty, for whom our Center is named, also shared 
this belief and worked tirelessly to champion improved health of 
Americans in a healthier world--through international health research 
and training programs.
    Today, the vision of Congressman Fogarty continues to inspire the 
Center in building international partnerships on behalf of the National 
Institutes of Health (NIH) and in supporting research and training 
programs to advance the objectives of global health. FIC's unique 
mission and initiatives add value, complement NIH international 
programs and build scientific capacity around the world for the benefit 
of Americans and the global community.
    I welcome this opportunity to discuss briefly FIC's progress over 
the past year as well as our proposed plans for fiscal year 2006. 
Developed with the support and guidance of the Administration and this 
Committee, the Fogarty programs reflect our nation's enduring 
commitment to global health as well as vibrant, and equal, 
international collaborations.

                      GLOBAL BURDENS OF ILL HEALTH

    The health challenges we face as Americans and as members of a 
global community are many. HIV/AIDS and tuberculosis continue to rise 
at alarming rates. SARS, West Nile Virus, and avian flu are constant 
threats to global health and economies. At the same time, as chronic 
diseases such as cancer, cardiovascular disease, and mental health 
disorders increase year after year, taking enormous tolls in human 
suffering and economic costs, the development and deployment of more 
effective preventive and treatment measures is urgent.
    The Fogarty response to these challenges is to support a range of 
critical research and training programs, each designed to tackle 
specific health problems shared by United States and foreign 
populations. We work in partnership with universities in the United 
States, low- and middle-income nations, and our fellow Institutes at 
the NIH, the Centers for Disease Control and Prevention, the World 
Health Organization, and others to effect change. Fogarty supports over 
20 research and training programs in more than 100 countries, involving 
more than 5,000 scientists in the United States and abroad. HIV/AIDS, 
TB, maternal and child health, environmental health and bioethics are 
just a few of the priority program areas in which Fogarty and its 
partners are making an impact.

                       IMPACT OF FOGARTY PROGRAMS

    I want to share with you two examples to highlight the impact of 
Fogarty programs worldwide. The first is a genealogy of sorts of one 
scientist's career path and support by Fogarty. Dr. Lee Riley of the 
University of California at Berkeley traces his professional roots to 
Dr. Warren D. Johnson, Jr. of the Weill Medical College of Cornell 
University. Both have dedicated decades of their professional careers 
to understanding, preventing, and treating infectious diseases in the 
slums of Brazil. It all started in 1988 when Dr. Johnson received FIC 
support to train AIDS scientists in Brazil. When Dr. Riley joined the 
Cornell faculty in 1990, Dr. Johnson brought him into the AIDS training 
effort and allowed Dr. Riley to initiate additional training activities 
on tuberculosis diagnostics and pathogenesis. When Dr. Riley moved to 
the University of California at Berkeley in 1996, he competed 
successfully for his own training program in Brazil through Fogarty's 
International Training and Research in Emerging Infectious Diseases 
Program (ITREID). Dr. Johnson received a similar ITREID program grant 
at Cornell, enabling the two to coordinate and synergize their training 
activities. Dr. Riley's group ultimately expanded the ITREID program to 
other countries in Latin America as well as to Eastern Europe, and Dr. 
Riley competed successfully for a new FIC-supported grant on Global 
Infectious Disease Training and Research in Brazil.
    The results and impact of these 17 yearlong partnerships have been 
enormous. In terms of people and publications, thirty Brazilian 
investigators have been trained in the United States, 29 of whom are 
still active researchers in Brazil; 28 articles have been published in 
top scientific journals; 12 Ph.D. and 3 Masters degrees in public 
health have been conferred; and, a large number of allied health 
professionals, many of whom are or were residents of slums, have 
received project-related training. Just one of the trainees who has 
returned to Brazil, Dr. Albert Ko, has trained over 50 local staff--
both laboratory and field--over the last eight years, and he has now 
received his own FIC training award. Other trainees are applying for 
and are receiving funds from NIH and other research agencies.
    Critically, the wealth of knowledge generated has been enormous. 
New understandings have emerged of the causes and treatments of 
leptospirosis, a disease that impacts primarily young people. Patterns 
of the spread of tuberculosis in crowded situations have been 
uncovered, and prevention strategies deployed. Training of health 
scientists from Brazil through the FIC AIDS training programs led to a 
major research grant from the National Institute of Allergy and 
Infectious Diseases for the study of the pathogenesis of leishmaniasis 
in Brazil and for a subsequent Fogarty award in infectious disease 
training. Training through the FIC AIDS training programs has helped 
Brazil evaluate the effectiveness of antiretroviral therapy programs 
that have served as a model and inspiration to other developing 
countries. The partnerships have generated millions of dollars of 
additional support from Brazil, Spain, Mexico, and other nations to 
sustain the research and training activities. And, the relationships 
and partnerships that have been built over time are the ones that will 
allow future studies to move ahead expeditiously.
    The second example is from a research project involving a 1996 
pilot program in Orizaba, Mexico working to evaluate the impact of 
Directly Observed Therapy (Short-Course) (DOTS) in populations with 
drug-resistant tuberculosis. DOTS is the WHO recommended TB treatment 
regimen whereby TB patients are monitored daily to ensure that 
medications are taken properly. In this region, 21 percent of the new 
cases were resistant to at least one anti-tuberculosis drug and 3 
percent were multi-drug resistant (MDR) over a five-year period. The 
data collected demonstrated that DOTS could rapidly reduce transmission 
and the incidence of both drug-susceptible and drug-resistant 
tuberculosis. The case rates of multi-drug resistant tuberculosis were 
also reduced; however, the fatality rate was highest (12 percent) for 
patients infected with resistant strains. In a developing country with 
a moderate rate of drug-resistant tuberculosis, DOTS can rapidly reduce 
the transmission of both susceptible and resistant organisms. 
Additional studies are now under way to expand on these initial 
findings.

                      FISCAL YEAR 2006 INITIATIVES

    FIC will continue to support the NIH Roadmap for Medical Research 
in the 21st Century. Working with partners across NIH and universities 
around the world, FIC will foster interdisciplinary programs in 
clinical research training, identify novel technologies to combat 
global health threats, and expand efforts to bring experts from 
multiple disciplines together to advance NIH Roadmap goals. In keeping 
with the Roadmap, FIC will work in fiscal year 2006 to bring new 
partners into the global health enterprise. FIC will support the 
Framework Programs for Global Health to link multiple schools within 
the same university (or coupled universities) around the topic of 
global health, bringing business, journalism, social science, 
engineering, medicine, law, public health and other disciplines into 
the global health arena in the university setting. A second goal will 
be to energize the next generation of global health leaders through 
development of undergraduate and graduate curricula on global health. 
This effort will propel global health efforts forward in new ways in 
the United States and abroad.
    FIC will enhance its two main programs to address HIV/AIDS and 
related TB challenges. Fogarty's AIDS International Research and 
Training Program builds capacity in resource poor nations to tackle the 
AIDS problem through science and evidence-based policies. Working 
through 25 U.S. universities, educational programs support post-
doctoral, doctoral, Masters level work, and training for allied health 
professionals, including nurses, to advance research on vaccine 
development and microbicide development, to identify groups at high-
risk for exposure and to help support the development of interventions 
that make sense at the local and community levels. Nearly 2,000 
developing country researchers from over 100 countries have been 
trained in the United States, many at senior levels, and more than 
50,000 through in-country workshops and courses. More than 80 percent 
of those trained in the United States through this program returned 
home to pursue research and health efforts locally. And, recognizing 
the need for clinical and health systems researchers for AIDS and TB, 
FIC launched a unique International Clinical, Operational and Health 
Services Research Training Award program to meet these needs. Today, 
under this program, experts in Uganda, Haiti, Russia, and China are 
working with U.S. partners to advance AIDS prevention and treatment 
strategies through targeted training efforts and to monitor the 
effectiveness of AIDS drug delivery paradigms. These programs support 
the goals of the President's Emergency Plan for AIDS Relief and the 
Global Fund and will lead to useful insights about effective drug 
delivery approaches in resource poor nations.
    As a third emphasis area, FIC will expand in fiscal year 2006 its 
pilot program to support NIH Alumni Associations abroad. These 
Associations will serve an important role to junior scientists as they 
return home through support of networking activities in which to share 
information and expertise, and other activities. At the same time, they 
will allow U.S. scientists to maintain collaborative ties. Building on 
efforts in Brazil, Mexico, South Africa, India and China, FIC will 
expand this effort to include Central and Eastern Europe, Russia and 
Thailand.
    As a fourth emphasis area in 2006, FIC will expand efforts in the 
neurosciences. With the exception of sub-Saharan Africa, brain 
disorders are the leading contributor to the years lived with 
disability in all regions of the world. More than 150 million people 
suffer from depression at any point in time and nearly one million 
commit suicide each year. Worldwide, about 25 million people suffer 
from schizophrenia and 38 million from epilepsy. FIC, in partnership 
with the National Institute of Neurological Disorders and Stroke and 
other NIH Institutes, will continue its efforts to develop new 
knowledge and technologies to enhance the understanding of brain 
disorders in resource poor settings around the world. Much of the 
research funded by this program could have implications for how certain 
brain disorders are studied, diagnosed, and treated in the United 
States.

                               CONCLUSION

    The global health challenges we face are many, but the 
international partnerships supported by Fogarty and its partners are a 
bedrock upon which scientific progress will be made to the benefit of 
the American people and the global community.
    Thank you, Mr. Chairman. I would be pleased to answer any questions 
that the Committee may have.
                                 ______
                                 
Prepared Statement of Dr. Thomas R. Insel, Director, National Institute 
                            of Mental Health

    Mr. Chairman, and members of the Committee, I am pleased to present 
the fiscal year 2006 President's budget request for the National 
Institute of Mental Health (NIMH). The fiscal year 2006 budget includes 
$1,417,692,000, which reflects an increase of $5,759,000 over the 2005 
enacted level of $1,411,933,000 comparable for transfers proposed in 
the President's request. In my statement, I will call to your attention 
our Nation's immense burden of mental and behavioral disorders and 
include a brief review of our research activities and accomplishments.

                        BURDEN OF MENTAL ILLNESS

    The mission of the National Institute of Mental Health (NIMH) is to 
reduce the public health burden of mental and behavioral disorders. New 
scientific discoveries and powerful new tools are revealing the 
mechanisms involved in the pathophysiology of mental disorders. This is 
a vital step in the development of more effective strategies to manage, 
treat, and even prevent these debilitating disorders.
    The report of the President's New Freedom Commission: Achieving the 
Promise--Transforming Mental Health Care in America defined the 
challenge. The burden of these disorders is staggering, in terms of 
both morbidity and mortality. Mental illness represents 4 of the top 6 
sources of disability from medical causes for Americans ages 15-44 
according to the World Health Organization; suicide accounts for more 
deaths each year than either homicide or AIDS. Recent estimates in the 
President's report put the economic costs of treating mental disorders 
at $150 billion, with elements of these costs increasing beyond 20 
percent per year. The report called for a transformation of mental 
health care, with recovery as a goal. NIMH is working closely with the 
Substance Abuse and Mental Health Services Administration (SAMHSA) as 
it seeks to carry out this mandate.

                            PRIORITY SETTING

    This past year NIMH searched for creative ways in which to optimize 
its impact on public health; the Institute and its stakeholders 
endeavored to reevaluate priorities for funding research. To help with 
this process, two workgroups of the National Advisory Mental Health 
Council were formed: one to review the NIMH extramural clinical 
treatment portfolio and one to review the basic sciences research 
portfolio.
    The goal of the clinical treatment workgroup was to help NIMH focus 
strategically in its support of therapeutics and interventions 
research. The workgroup's report describes clinical areas where more 
study is essential, and urges increased innovation and a sharpened 
focus on amplifying the impact of clinical trials on clinical practice. 
The report also cites the need to expand core resources and clinical 
trials infrastructure for NIMH to enhance its treatment development 
capacity.
    The workgroup reviewing the basic sciences research portfolio 
outlined specific tools and areas of research particularly ripe for 
increased investment, such as the pathophysiology of mental disorders 
and the translation of basic science discoveries into biomarkers, 
diagnostic tests, and new treatments.
    Translation of basic science to clinical issues and practice is now 
a major focus of the Institute. This past year, NIMH reorganized its 
extramural programs into five research divisions (from three) to focus 
on: basic science, translational research for adults, translational 
research for children and adolescents, behavioral effects on health 
(including HIV/AIDS spread and prevention), and psychiatric services 
and treatments. A key aim of the reorganization is accelerating 
translation of the best ideas in neuroscience and behavioral research 
into the clinics and out into the community.
    Rapid advances in mental health research are revealing the 
biological and environmental components of major mental illness. We now 
recognize that mental disorders are brain disorders, and we now have 
the tools to identify the brain circuits involved. Of note is recent 
research on improved detection of disease with biomarkers and 
development of personalized treatments.

           REVEALING THE BIOLOGICAL BASIS OF MENTAL DISORDERS

    A major goal for NIMH is to identify the biological basis of mental 
disorders to more precisely pinpoint targets for prevention and 
treatment. This means understanding the neural basis of the illness at 
all levels, from molecular to behavioral. For instance, imaging studies 
suggest that ischemia (restriction of blood flow in the brain due to a 
narrowed or blocked artery) may significantly contribute to the 
development of a form of depression. In a recent clinical trial, more 
than half of elderly depressed participants met the criteria for this 
newly recognized form of depression called ``ischemic depression.'' 
This realization should help improve diagnosis, and more effectively 
guide treatment for those with late-life depression.
    A recent NIMH study shows that in people with panic disorder, a 
type of receptor for serotonin (a mood-regulating neurotransmitter) is 
reduced by nearly a third in several structures of the brain that 
mediate anxiety. The finding is the first in living humans to show that 
this specific receptor, which is pivotal to the action of anti-anxiety 
medications, may be abnormal in the disorder and may help explain how 
genes might influence vulnerability for panic and anxiety disorders.
    A recent translational study on post-traumatic stress disorder 
(PTSD) was the first to demonstrate in humans the importance of a 
particular brain region in ``fear extinction''--the process by which a 
previously learned fear is extinguished by a new form of learning, 
rather than the forgetting of the original fear. The brain region is 
associated not with emotion, but with the regulation of higher 
cognitive functions. This will provide important contributions to the 
understanding and treatment of PTSD and other anxiety disorders.
    Several studies on depression have suggested that the formation of 
new neurons (neurogenesis) might be hindered in those with the 
disorder. In addition, animal studies have demonstrated that 
antidepressant medications are likely effective because they help 
increase neurogenesis. Several genes have been implicated in the 
susceptibility to schizophrenia and depression. In the past year, we 
have learned that common genetic variations bias the way the brain 
works, even in people who have not developed a major mental disorder. 
For instance, a gene variant that is especially common in people with 
depression is associated with a higher level of brain activation in 
response to threat or stress. A variant associated with schizophrenia 
appears to increase the amount of activity in the frontal lobe needed 
to perform complex attentional tasks. These kinds of studies reveal how 
subtle genetic variations may increase vulnerability to mental illness. 
Ultimately, this may provide a strategy for early detection and 
prevention of a psychotic or depressive episode based on identifying 
individuals at genetic highest risk, just as we routinely intervene in 
those with high blood pressure and high cholesterol to prevent a heart 
attack.
    Autism continues to be an increasing priority for NIH. We are just 
beginning to see the pay-offs of cross-Institute investments in several 
new centers and projects. Previous studies show that on average, autism 
is not diagnosed in children until after the age of 6, a relatively 
late age considering that early intervention is critical for the best 
treatment response. Thus, NIMH research will help develop new tools for 
detecting autism early, before age two. In addition, NIMH is part of a 
public/private research consortium focusing on the study of infant 
siblings of children with autism, to help identify early features and 
distinguishing characteristics of autism. NIMH and other NIH institutes 
are collaborating with voluntary and private funding organizations and 
government agencies internationally to develop a new research 
initiative ($21.5 million over 5 years) to identify specific gene 
variants that produce susceptibility to autism.

                        TREATMENTS FOR RECOVERY

    The first of several large, NIMH-funded clinical studies testing 
various treatment options for those with serious mental illnesses was 
completed last summer: a 13-site trial aimed at defining the most 
effective and safe treatment for children and adolescents with major 
depressive disorder. Depression is an important risk factor for 
suicide, the third leading cause of death among adolescents; it is also 
a major risk factor for long-term psychosocial impairment in adulthood. 
There has been much debate about whether a class of antidepressant 
medications, selective serotonin re-uptake inhibitors (SSRIs) can 
actually increase suicidal thinking. At present, fluoxetine (Prozac) is 
the only FDA-approved medication for depression in children and 
adolescents, and there have been conflicting results regarding its 
benefits and risks. The goal of the NIMH trial was to clarify the 
usefulness of treating adolescent depression with a type of 
psychotherapy called cognitive behavior therapy (CBT), or fluoxetine, 
or both. Results of the first 12 weeks found that a combination of 
fluoxetine and CBT was the most effective treatment (71 percent 
response rate). Of the other three treatment groups, fluoxetine alone, 
(60.6 percent response), but not CBT alone (43.2 percent response) was 
significantly better than placebo (34.8 percent response). Suicidal 
thinking, which was present in 29 percent of the participants at the 
beginning of the study, improved significantly in all four treatment 
groups, with those receiving medication and therapy showing the 
greatest reduction (below 8 percent). Soon we will know the 
effectiveness of these treatments over a six-month period from 
treatment initiation. It is critical for physicians and 
psychotherapists to closely monitor their young patients on 
antidepressant medications for signs of hurtful or suicidal behavior, 
particularly during the early phases of treatment.
     A central focus of NIMH treatment research has been finding a more 
tailored, individual approach to therapy. To personalize treatments, we 
need to know predictors of treatment response. Recent studies have 
begun to reveal some predictors that will help clinicians optimize 
care. For instance, studies of people with major depressive disorder 
reveal that standard antidepressant medication may be less helpful in 
those with a history of trauma, or specific genetic variations, or 
specific patterns of brain activation as seen on imaging scans. These 
same patients may respond well to cognitive behavior therapy. 
Similarly, patients with schizophrenia who have poor attentional 
processing and other cognitive deficits may report less satisfaction 
with anti-psychotic medications, which were not designed to treat these 
features of the illness. Ongoing research seeks to find markers that 
will guide individual treatment to optimize recovery.
    Other large trials to be completed within the next year will answer 
urgent questions about the choice of treatments in people with bipolar 
disorder, schizophrenia and Alzheimer's, and treatment-resistant major 
depression. NIMH continues its strong commitment to public 
dissemination of findings from these clinical trials by fostering 
partnerships with national and state organizations via the Outreach 
Partnership Program. Through this program, NIMH works with the National 
Institute on Drug Abuse and SAMHSA to bridge the gap between research 
and clinical practice.

                  BLUEPRINT FOR NEUROSCIENCE RESEARCH

    The NIH Blueprint for Neuroscience is a framework to enhance 
cooperation among the 15 NIH Institutes and Centers that have common 
interests in the nervous system. By pooling resources and expertise, 
the Institutes and Centers can take advantage of economies of scale, 
confront challenges too large for any single Institute, and develop 
research tools and infrastructure that will serve the entire 
neuroscience community. The Blueprint is developing a primary set of 
initiatives including a gateway to existing databases that permits more 
effective searches; training enhancement for basic neuroscientists; and 
expansion of ongoing pediatric imaging, gene microarray, and gene 
expression database efforts.

                              NIH ROADMAP

    NIMH has assumed a lead role on the Molecular Libraries and Imaging 
initiative of the NIH Roadmap, whose goal is to provide organic 
compounds called ``small molecules'' to scientists to use as tools to 
improve our understanding of biological pathways in health and disease. 
The potential of scientific discoveries of clinical relevance is 
enormous. The NIMH mission can be advanced by the identification of 
even one novel small molecule with biological activity in the brain, as 
it could provide invaluable information about brain circuits involved 
in mental illness and those that are altered by treatment.
                                 ______
                                 
Prepared Statement of Dr. Stephen I. Katz, Director, National Institute 
           of Arthritis and Musculoskeletal and Skin Diseases

    Mr. Chairman and Members of the Committee: I am pleased to present 
the fiscal year 2006 President's budget request for the National 
Institute of Arthritis and Musculoskeletal and Skin Diseases (NIAMS). 
The fiscal year 2006 budget includes $513,063,000, an increase of 
$1,906,000 over the comparable fiscal year 2005 enacted level of 
$511,157,000 comparable for transfers proposed in the President's 
request.
    Improving daily life is the driving force for the research that we 
support and conduct at the NIAMS. Virtually every home in America is 
touched by diseases affecting bones, joints, muscles, and skin. We are 
committed to improving our understanding, diagnosis, treatment, and 
prevention of these diseases and disorders that are typically costly, 
chronic, and disabling, many of which disproportionately affect women 
and minority populations. I am delighted to share highlights of our 
research progress as well as our plans.

                  THE NIH ROADMAP FOR MEDICAL RESEARCH

    The NIAMS is pleased to partner with other NIH components in the 
many dimensions of the NIH Roadmap, and the Institute has 
responsibility for the management of an initiative for a patient-
reported outcomes measurement information system--or PROMIS--network. 
The goal of this initiative is to develop ways to measure patient-
reported symptoms such as pain and fatigue and aspects of health-
related quality of life across a wide variety of chronic diseases and 
conditions. The PROMIS initiative will develop a publicly available 
computerized adaptive test for the clinical research community. Many 
diseases that compromise daily life involve pain, fatigue, and other 
difficult-to-measure quality of life outcomes, and the development of a 
test to measure changes in these symptoms will be of benefit to 
patients and their health care providers.

                          RESEARCH IN CHILDREN

    When arthritis and other rheumatic diseases affect children, they 
can significantly compromise a child's ability to enjoy an active life. 
NIAMS-supported researchers have launched a state-of-the-art genomics 
project, and the goal of this project is to take full advantage of the 
tremendous progress that has been realized in genetics and genomics, 
and to uncover gene expression patterns (groups of genes that are 
``turned on'' or ``turned off'') that contribute to the development of 
pediatric arthritis. The NIAMS and a chapter of the Arthritis 
Foundation and the Schmidlapp Trust are supporting this study of 
children newly diagnosed with a variety of pediatric diseases such as 
juvenile rheumatoid arthritis, juvenile ankylosing spondylitis (or 
spinal arthritis) and other related immune disorders. Identifying the 
gene expression patterns for different types of arthritis in children 
will help to improve diagnosis as well as to predict the severity of 
disease for affected children.
    In other studies supported by the NIAMS, the promise of genetic 
studies was underscored by the identification of a gene variant that 
increases susceptibility to juvenile arthritis. The NIAMS and the 
Arthritis Research Campaign funded researchers from around the world 
who worked collaboratively in collecting DNA samples from children with 
juvenile rheumatoid arthritis and their parents. Research findings 
suggest that there may be distinct genetic profiles for the disease 
that result in differences in age of onset as well as disease severity.

                         BIOMARKERS OF DISEASE

    Progress in identifying the onset and progression of disease is a 
challenge in many chronic diseases, and the NIAMS has taken the lead in 
three initiatives to address this challenge: the first is the 
Osteoarthritis Initiative--a public-private partnership that the NIAMS, 
the National Institute on Aging, several other NIH components, and 
three pharmaceutical companies support that is working to develop 
clinical research resources for the discovery and evaluation of 
biomarkers and surrogate endpoints for clinical trials on 
osteoarthritis (the most common form of arthritis). Data and images 
collected will be available to researchers around the world to speed 
the pace of research in biomarker identification, and this consortium 
is expected to serve as a model for initiatives in the future that 
involve public and private partnerships. We have already enrolled 1,900 
individuals to participate in this Initiative. The second initiative is 
the creation of the Osteoarthritis Biomarkers Network involving 
institutions in the United States and Sweden. This Network facilitates 
the sharing of clinical, biological, and human resources to more 
rapidly and more effectively identify biomarkers for osteoarthritis. In 
the third biomarker initiative, the NIAMS supports the Autoimmune 
Biomarkers Collaborative Network which includes efforts to identify and 
validate biomarkers for lupus--a serious and potentially fatal 
autoimmune disease that occurs with greater frequency and intensity in 
African American women, and that affects many organ systems of the 
body.

                 ARTHRITIS AND OTHER RHEUMATIC DISEASES

    Rheumatoid arthritis is an autoimmune disease, and affected 
individuals often must be treated with powerful drugs that may help to 
keep the disease better controlled, but also suppress the immune 
system--leaving patients particularly vulnerable to infection. NIAMS-
supported researchers have identified a potential treatment that will 
suppress the abnormal, autoimmune response that causes the rheumatoid 
arthritis, but does not diminish the patient's ability to fight 
bacteria and viruses. The treatment is a synthetic peptide (a chain of 
amino acids) called dnaJP1--a particular section of a protein that has 
the same characteristic amino acid sequence as that found in patients 
with rheumatoid arthritis. In initial studies a synthetic version of 
the dnaJP1 peptide was given to patients with rheumatoid arthritis with 
the goal of blocking the immune response, and the immune system 
responses were normal in these treated patients. The NIAMS partnered 
with the National Institute of Allergy and Infectious Diseases, the 
Royal Netherlands Academy of Arts and Sciences, and the Dutch 
Organization for Scientific Research in funding this study. A new 
larger study will be undertaken to pursue studies of this promising 
synthetic peptide for people with rheumatoid arthritis.
    Fibromyalgia is a disease that affects many systems of the body, 
affects women far more commonly than men, and is characterized by low 
pain thresholds at specific tender points in the body. NIAMS-supported 
researchers have furthered our understanding of fibromyalgia in recent 
studies that determined that fibromyalgia was strongly aggregated in 
families, and that the number of tender points as well as total muscle 
pain scores were strongly associated with fibromyalgia in families. In 
addition, there was an increase in the presence of mood disorders in 
relatives of fibromyalgia patients. This aggregation of fibromyalgia in 
families suggests that genetic factors may play an important role in 
this disease. The NIAMS supported a workshop in November 2004 that 
reviewed the state of the science and a view to future studies in 
fibromyalgia.

                   BONE AND MUSCULOSKELETAL DISEASES

    Osteoporosis is characterized by bone thinning that results in 
increased susceptibility to fracture. A particular clinical challenge 
has been that often the first indication of osteoporosis is when a 
person (most often a woman) has a bone fracture, and by then the bone 
has already thinned. Better methods are needed to screen for 
osteoporosis and for those who are at high risk for fractures. 
Researchers have recently learned that bony regions of conventional 
dental x-rays may be useful in evaluating both the current micro-
architecture of bone as well as following changes in bone over time. 
Bone quality plays a critical role in osteoporosis and other bone 
diseases, and the NIAMS has partnered with the American Society for 
Bone and Mineral Research in sponsoring a meeting in May 2005 to 
evaluate the current status of assessment methods to serve as 
surrogates for fracture and bone fragility, as well as to determine the 
next steps that must be taken to validate these methods and incorporate 
them into clinical trials. In other studies with relevance for 
osteoporosis, basic scientists have identified a particular gene 
(Alox15) that is strongly associated with changes in bone mineral 
density--a measure of vulnerability for osteoporosis. Researchers had 
previously identified the involvement of Alox15 in fat metabolism, so 
the identification of its role in bone links metabolic pathways and 
bone changes, and also provides a new drug target for osteoporosis.

                            MUSCLE DISEASES

    One of the most active and productive areas within the Institute's 
research portfolio is in the muscular dystrophies--a group of genetic 
diseases characterized by progressive weakness and degeneration of the 
skeletal or voluntary muscles which control movement. NIAMS research 
has made progress in defining the genetic mutations and in overcoming 
the current barriers to effective gene therapy of Duchenne muscular 
dystrophy, Facioscapulohumeral dystrophy, and other muscle diseases. 
For example, scientists supported by the NIAMS and the Muscular 
Dystrophy Association recently reported that a particular method of 
gene therapy was able to reach all damaged muscles in a muscular 
dystrophy (MD) mouse, with implications for delivering genetic therapy 
for MD and perhaps other diseases of the muscle or heart. Previous work 
showed that MD could be prevented from occurring in a mouse model of 
the disease by replacing the gene for dystrophin, which is defective in 
people with the Duchenne form of the disease with a corrected copy of 
the gene. However, until now, no one had found a way to deliver a new 
gene to all muscles of an adult animal, including muscles that had 
already developed MD.
    The NIAMS has teamed with the National Institute of Neurological 
Disorders and Stroke (NINDS) and the National Institute of Child Health 
and Human Development (NICHD) to bring a strong focus to basic and 
clinical studies of MD. Activities include the efforts related to the 
new Muscular Dystrophy Coordinating Committee (MDCC), and the Muscular 
Dystrophy Research and Education Plan for the NIH that was developed by 
the MDCC and released in September 2004. In addition, in fiscal year 
2003, the NIAMS, along with NINDS and NICHD, each funded a Muscular 
Dystrophy Cooperative Research Center for which additional funding was 
provided by the Muscular Dystrophy Association. In fiscal year 2004, 
the three institutes re-issued the solicitation for centers--now known 
as Senator Paul D. Wellstone Muscular Dystrophy Cooperative Research 
Centers, and expect to fund two to three additional meritorious centers 
in fiscal year 2005.
    The NIAMS, NINDS, NICHD and the Centers for Disease Control and 
Prevention sponsored a workshop on the burden of muscle diseases in 
January 2005. The participants in this workshop identified existing 
data on the costs and scope of muscle diseases, with a focus on the 
muscular dystrophies, and recommended strategies for developing new 
information sources.

                             SKIN DISEASES

    Skin diseases significantly compromise daily life for millions of 
Americans, both physically and psychologically. Researchers supported 
by the NIAMS have made great progress in our understanding of basic 
skin biology as well as understanding the bases for skin diseases.
    A particular area of focus in the NIAMS portfolio is on the roles 
of genes in skin diseases, and scientists have advanced our 
understanding in a number of areas, including identifying two genes on 
chromosome 17 which are associated with psoriasis. Other studies have 
identified susceptibility genes for keloids, which are an abnormal form 
of scarring that disproportionately affects people of color. 
Investigators studying the physiologic basis for keloid formation were 
able to determine that a blood vessel growth factor was likely to be 
associated with keloid formation. This suggests that it may be possible 
to suppress keloid formation by topical application of an inhibitor of 
this molecule. In a third area of genetics research, investigators have 
identified a new mouse model of alopecia areata that has allowed 
genetic susceptibility studies to be undertaken, and two new regions on 
chromosomes 8 and 15 were identified. The availability of this new 
animal model will allow better identification of the genetic basis of 
alopecia areata as well as provide a basis for testing potential 
interventions.

                               CONCLUSION

    Significant progress has been made in our understanding of 
fundamental life processes and how they go awry in diseases of bone, 
joints, muscles, and skin. We are proud of the advances that scientists 
supported by the NIAMS have achieved, and we are excited about 
initiatives that we have launched. Our goal remains, as always, to 
improve the health of the American public--to reduce the burden of 
disease and to enrich the quality of life for all Americans.
    I will be happy to answer any questions that you may have.
                                 ______
                                 
Prepared Statement of Dr. Ting-Kai Li, Director, National Institute on 
                      Alcohol Abuse and Alcoholism

    Mr. Chairman and Members of the Committee: I am pleased to present 
the fiscal year 2006 President's budget request for the National 
Institute on Alcohol Abuse and Alcoholism (NIAAA). The fiscal year 2006 
budget includes $440,333,000, which reflects an increase of $2,056,000 
over the fiscal year 2005 enacted level of $438,277,000 comparable for 
transfers proposed in the President's request. The Centers for Disease 
Control and Prevention last year ranked alcohol the number-three 
preventable cause of death in the country. This finding echoed a report 
issued by the World Health Organization, which listed alcohol as the 
third leading preventable cause of healthy years lost to death and 
disability in developed nations during 2002. The high rate of death and 
disability associated with alcohol is the result not only of injury, 
but also of organ damage, including brain damage. Alcohol's biological 
actions are widespread in the body, and, when used in excess, it has 
the potential to contribute to conditions such as cancer and liver 
disease. Every age group is at risk of alcohol-related problems, from 
fetuses exposed to alcohol in the womb to the elderly. In the United 
States, the estimated annual cost of alcohol-use disorders (alcohol 
abuse and alcohol dependence), including indirect costs, such as lost 
productivity, is $185 billion.\1\
---------------------------------------------------------------------------
    \1\ Harwood, H.; Fountain, D.; and Livermore, G. (2000). The 
Economic Costs of Alcohol and Drug Abuse in the United States 1992 
(updated for 1998). Report prepared for the National Institute on Drug 
Abuse and the National Institute on Alcohol Abuse and Alcoholism, 
National Institutes of Health, Department of Health and Human Services. 
NIH Publication No. 98-4327. Rockville, MD: National Institutes of 
Health. NIAAA's mission is to develop prevention and treatment 
interventions that reduce alcohol-use disorders and their consequences. 
To achieve this goal, we must understand the underlying biological, 
behavioral, and environmental factors and identify populations at risk. 
NIAAA research initiatives in four areas, in particular, are essential 
to this effort: medication development, neuroscience, metabolism, and 
youth.
---------------------------------------------------------------------------
                         MEDICATION DEVELOPMENT

    Development of more widely effective medications for alcohol-use 
disorders and organ damage is among NIAAA's highest priorities; it is 
among the 28 research outcome goals listed in the NIH Government 
Performance and Results Act report. Medications help prevent or reduce 
drinking by acting on one or more of the many brain systems through 
which alcohol exerts its actions. For example, some medications reduce 
craving for alcohol. We are testing promising compounds for treatment 
of alcohol-use disorders, by themselves and in combination with 
behavioral therapies, and for treatment of liver damage.
    Recent advances in science and technology have enabled remarkable 
progress in our understanding of neurobiological mechanisms that 
underlie behavior, and are revealing new molecular targets for 
medications for alcohol-use disorders. Likewise, advances in our 
understanding of organ injury are providing new opportunities for 
developing medications. These advances are reflected in unprecedented 
progress in NIAAA's medication development initiative.
    A special challenge for our initiative is to develop strategies 
that will increase translation of promising medications identified by 
NIAAA research into clinical applications. The pharmaceutical industry 
has been reluctant to develop medications for alcoholism, and the 
medical community has been reticent to use new pharmacotherapeutic 
modalities as an adjunct to traditional behavioral therapies for the 
treatment of this disease. For example, only 3 to 13 percent of 
patients treated for alcoholism receive a prescription for the 
medication naltrexone, although it has yielded positive results in 
NIAAA-funded studies published in medical journals. We need to increase 
the likelihood that compounds we identify as effective and safe will 
reach the market and that they will reach patients who can benefit from 
them. Research is underway to identify barriers and strategies to 
remove them.
    Our recently established collaboration with the Food and Drug 
Administration (FDA) will help to expedite progress. Together, NIAAA 
and FDA are developing standards for clinical trials of medications to 
be tested as alcoholism treatments. This will help ensure that NIAAA-
supported trials are in line with regulatory requirements, enabling 
them to proceed.
    Our two highest priorities for accelerating our medication program 
are (1) to develop animal models and human research paradigms that can 
predict the clinical success of potential medications. Having these 
predictive models in place will prevent spending time and money on more 
elaborate testing of compounds that would ultimately fail to be 
effective. (2) Another priority is to establish a network of sites for 
early stages of human testing of medications, to reveal whether or not 
a drug should be pursued in larger, more expensive trials. Medications 
in this system will be on a fast track, in which scientific elements of 
safety testing, etc., remain, but elimination of unnecessary 
administrative roadblocks will expedite the process.

                            IN THE PIPELINE

    Human trials of two particularly promising medications are 
underway. Among the studies being conducted is a collaboration with the 
National Institute on Drug Abuse (NIDA), to test the antiseizure drug 
topiramate's effectiveness in treating people addicted to both alcohol 
and cocaine. Antiseizure drugs act on neurotransmitter systems that 
modulate brain-cell activity, to restore their natural balance. Alcohol 
causes an imbalance in the glutamate and GABA neurotransmitter systems 
(among others) and topiramate's actions on these receptors are thought 
to ease some of the symptoms of alcohol withdrawal. The drug rimonabant 
is directed at a different neurotransmitter system (the cannabinoid 
system) and has shown considerable promise in animal studies. Several 
other kinds of medications that have shown promise in research settings 
are in various phases of clinical studies, including several 
collaborations with other NIH Institutes.
    Some populations are at particular risk, and we also are conducting 
studies specific to them. We are testing medications in youth, who have 
high rates of alcohol abuse. This group poses special challenges, since 
the biological changes that occur in the brain during adolescence might 
compromise the pharmacologic actions of medications used for adults.
    People with co-occurring alcoholism and psychiatric conditions are 
another high-risk group. Our studies of this population include 
collaborations with the National Institute of Mental Health. In a 
recent trial, a drug already used as an anticonvulsant and to treat 
bipolar disorder showed promise in treating alcoholism in bipolar 
people, who are generally resistant to current medications for 
alcoholism.
    A collaboration with the National Cancer Institute and NIDA is 
helping researchers to understand the biological interactions that 
occur between alcohol and nicotine, and to develop treatments for 
alcoholic smokers. Studies suggest that addiction to alcohol and 
nicotine involves some common underlying mechanisms.
    In addition to developing medications to treat alcohol-use 
disorders themselves, we are developing treatments for alcoholic liver 
disease. Alcohol is among the leading causes of death from liver 
disease in the United States.
    Pharmaceutical companies put aside many of the medications they 
develop. Even though they may be safe, they may not be optimally 
effective for treating the diseases or conditions for which they were 
developed. These medications are potentially useful for treatment of 
other diseases, and some act on neurotransmitters that we have 
identified as promising targets for treatment of alcoholism. We are 
encouraging pharmaceutical companies to collaborate with us in 
developing these compounds as potential alcoholism treatments.

                      NEUROSCIENCE AND METABOLISM

    The biology of the brain contributes to how we make decisions--to 
the choices we make in life and the behaviors in which they result. 
Neuroscience research is essential for understanding the biological 
basis of alcohol-related behaviors and for identifying molecular 
targets for therapeutic compounds that can alter alcohol's actions in 
the brain. Many different biological systems in the brain influence how 
people respond to alcohol, and chronic, heavy exposure results in brain 
adaptations that form the underpinnings of alcoholism.
    NIAAA-funded scientists are making important discoveries about 
genes and proteins active in these brain systems, whose variant forms 
increase or decrease the risk of alcohol-use disorders. For example, 
recent studies suggest that a gene that produces an appetite-regulating 
protein fragment, neuropeptide Y, also affects tolerance to alcohol, a 
predictor of alcoholism and a factor in its development.
    In 2006, NIAAA will take part in the NIH Blueprint for 
Neuroscience, a collaboration of 15 Institutes. We are particularly 
interested in the Blueprint's cross-training programs for the next 
generation of researchers and clinicians in neuroscience. One component 
trains physicians and scientists to work together toward translating 
neuroscience findings into clinical practice; others provide training 
in computer and neuroimaging technologies that offer unprecedented 
research capabilities. The Blueprint's project to target all of the 
genes in the mouse genome, to discover which of them are critical 
players in health or diseases of the nervous system, will benefit NIAAA 
research.
    Metabolism also has a profound effect on people's responses to 
alcohol. Variations in the genes and proteins involved in alcohol 
metabolism can, like those involved in brain function, increase or 
decrease risk of alcoholism. NIAAA's metabolism initiative is making 
progress in identifying these gene/protein variations and their impact 
on alcohol-related behaviors, particularly in regard to enzymes in 
alcohol-metabolism pathways. The NIH Roadmap Initiative on National 
Technology Centers for Networks and Pathways is contributing valuable 
information to the effort. Like our neuroscience research, our 
metabolism research is helping us to identify potential targets for 
therapeutic compounds.

                             YOUTH AT RISK

    Last year, we reported that new epidemiology data called for a 
major scaling up of efforts to prevent underage drinking. The data 
revealed that youth is the age of greatest risk of alcoholism; people 
18-to-25 years old have much higher rates of alcoholism than any other 
age group in the Nation. Previous studies had shown the extent to which 
youth engage in risky patterns of drinking, such as occasionally or 
frequently drinking too much, too fast. Alcohol is the largest 
contributor to unintentional injury, the leading cause of death of 
Americans under age 21. People who begin drinking earlier in 
adolescence have a much higher risk of alcoholism as adults, as 
compared with late starters. Children are beginning to drink at earlier 
ages, and youth from secondary-school age to college age have 
substantial rates of risky drinking. In the military, more than 26 
percent of underage personnel engage in ``binge drinking'' (five or 
more drinks in a row), according to a recent Department of Defense 
report. These and other epidemiology data indicated to us that (1) the 
problem of underage drinking required renewed emphasis and coordination 
in the research and service communities, and (2) we should approach 
alcoholism as having a developmental trajectory that begins in 
childhood and adolescence. In a recent report, Reducing Underage 
Drinking: A Collective Responsibility, the Institute of Medicine called 
for strategies to ameliorate these problems. Last year, NIAAA announced 
the addition of a major new initiative to its ongoing research on 
youth.

                            YOUTH INITIATIVE

    Research shows that brain development and maturation occur over a 
longer period than previously thought. A key question we are asking is: 
What brain systems differ in adolescents and adults such that youth 
tend to binge drink? The brain receives and sends chemical messages 
that influence when an individual has ``had enough'' and stops 
drinking. Are the brain systems that regulate these ``stop mechanisms'' 
not yet mature in the adolescent brain? Does alcohol alter their 
development? A collaboration with NIDA is stimulating studies on 
consequences of alcohol exposure and drug abuse on development of the 
brain and behavior.
    NIAAA has formed a steering committee that includes both scientists 
and policy and communication experts. The former chairman of the IOM 
committee on underage drinking is a member, as are two of the 60 
current and former governors' spouses leading a national NIAAA-
sponsored prevention campaign. In addition, the NIAAA sits on the newly 
established Interagency Committee on Prevention of Underage Drinking. 
This Committee cuts across agencies, from research to service, 
including the Substance Abuse and Mental Health Services 
Administration, in a major coordination of effort.
    Our initiative also is reaching out to health-care systems and 
communities. An area in critical need of attention is the response of 
health care systems to underage drinking. NIAAA's youth initiative is 
beginning to address this need, in part, with a project called Underage 
Drinking: Building Health Care System Responses. Rural academic health 
centers will use existing services and clienteles to conduct the 
studies.
    The youth initiative is responding to crisis levels of risky 
drinking on college campuses, as well. It includes fast-track approval 
of grant applications in response to campuses that request help, a 
recommendation issued in the NIAAA Task Force on College Drinking--a 
collaboration between scientists and college presidents. Seven approved 
and funded projects are underway; another application is nearing 
approval, and others are under review. The Task Force is about to 
release an updated report, which will reflect the latest research 
findings. Another new program under the youth initiative, the 
Mississippi River Delta Project, is examining whether a prevention 
strategy recommended for college students by the Task Force is 
effective for rural adolescents.
    One major question that must be addressed regarding underage 
drinking and its consequences is whether enforcement of existing laws 
can reduce these problems by reducing youths' access to alcohol. We 
recently began collaborating with the Office of Juvenile Justice and 
Delinquency Prevention to address this question in rural communities. 
NIAAA's role in this joint effort is to provide the research required 
for evaluation of the effectiveness of the 3-year program. Four 
projects are underway; three more are nearing approval.
    The leadership of the youth initiative is discussing collaborations 
with other potential partners. In Spring 2005, we will meet with 
leaders in the radio and television media about the effects of alcohol 
portrayal on youth behaviors. Navy leaders have requested a meeting 
with NIAAA, also to be held in Spring 2005, to discuss prevention and 
treatment strategies. We have begun discussions with the Department of 
Agriculture about the possibility of conducting research and outreach 
through the 4-H Club organization.

                           AT THE CROSSROADS

    The results of our research will be useful to the public to the 
extent that clinicians and communities apply them. We are at a 
crossroads, in which we are able to identify new medications, for 
example, while the pharmaceutical and medical communities are 
relatively unresponsive to new findings in alcohol research, and 
prevention and treatment are not reimbursed adequately by private 
insurers.
    At this juncture, a high priority for our Institute is to develop 
strategies that will increase the likelihood that clinicians, 
communities, and health-care systems will adopt findings from our 
investigations. Efforts are underway. Thank you Mr. Chairman. I would 
be pleased to answer any questions that the Committee may have.
                                 ______
                                 
Prepared Statement of Dr. Story C. Landis, Director, National Institute 
                  of Neurological Disorders and Stroke

    Mr. Chairman and Members of the Committee I am Story Landis, 
Director of the National Institute of Neurological Disorders and Stroke 
(NINDS). I am pleased to present the fiscal year 2006 President's 
budget request for NINDS. The fiscal year 2006 budget includes 
$1,550,260,000, an increase of $10,812,000 over the fiscal year 2005 
enacted level of $1,539,448,000 comparable for transfers proposed in 
the President's request.
    The mission of the NINDS is to reduce the burden of neurological 
disorders by finding ways to prevent or to treat these diseases. This 
mission is extraordinarily important and extraordinarily difficult. It 
is important because the burden of neurological disorders is immense, 
affecting all segments of society. Diseases of the nervous system kill 
people of all ages, disrupt essential bodily functions, cause pain and 
discomfort, and disturb all aspects of human ability, from perception 
and movement through emotions, memory, language, and thinking. It is 
difficult because hundreds of diseases affect the brain, spinal cord, 
and nerves of the body, each presenting unique challenges. Compounding 
the challenge, the brain and spinal cord are difficult to access, 
sensitive to intervention, reluctant to regenerate following damage, 
intricate in structure, and elusive in their normal workings.
    Despite these challenges, we are making progress. Prevention of 
stroke and of nervous system birth defects is having a major impact on 
public health. Better drugs and surgical treatments help relieve 
symptoms for people with Alzheimer's disease, Parkinson disease, 
epilepsy, chronic pain, multiple sclerosis, and other diseases. 
Improvements in genetic testing and brain imaging also enhance 
physicians' ability to diagnose disease and guide therapy for nervous 
system disorders.
    To continue this progress, the NINDS supports basic studies to 
understand the nervous system in health and disease, translational 
research to move from the laboratory toward the clinic, and clinical 
research, including clinical trials to test the safety and efficacy of 
treatments and preventive interventions. The Institute supports most 
research through extramural grants and contracts to physicians and 
scientists throughout the country. NINDS intramural investigators also 
conduct research on the NIH campus in Bethesda, Maryland.
    To complement investigator-initiated research, the Institute 
directs initiatives to public health needs, unusual scientific 
opportunities, or issues that Congress highlights as critical. NINDS 
initiatives for fiscal year 2006 focus on tuberous sclerosis, Rett 
syndrome, muscular dystrophy, neuro-AIDS, transmissible spongiform 
encephalopathies (TSEs), stroke, and Parkinson disease, as well as on 
cross-cutting issues including counterterrorism, neurological 
emergencies, and stem cells. Increasingly, NINDS initiatives and other 
programs are in cooperation with other components of the NIH.

                           CLINICAL RESEARCH

    The NINDS currently supports more than 1,000 research projects that 
involve human subjects, with more than 300,000 people expected to 
participate. For example, epidemiological studies are examining risk 
factors for stroke with special attention to Blacks and Hispanics; 
genetic studies have recently helped identify genes related to 
Parkinson disease, ALS, dystonia, Joubert syndrome, and cerebrovascular 
disease; and brain imaging research is revealing how the brain develops 
throughout childhood and adapts after damage. Among the findings this 
year are brain imaging data that will identify which stroke patients 
might benefit from emergency treatments to unblock blood vessels and 
preliminary indications that vitamin D might help prevent multiple 
sclerosis in women, a finding which researchers are following up.
    Of the NINDS clinical research studies, approximately 125, with 
more than 25,000 expected participants, are clinical trials of 
interventions to prevent or treat neurological disorders. Projects 
range from planning and pilot trials to large multi-center trials. In 
notable results this year, a small intramural clinical trial of 
multiple sclerosis patients who did not respond to interferon, the 
standard therapy, found that administering the genetically engineered 
antibody daclizumab improved outcome substantially. An extramural 
clinical trial found that ultrasound may improve the effectiveness of 
t-PA (tissue plasminogen activator) in breaking up clots and restoring 
blood flow to the brain. T-PA has been the only FDA-approved therapy 
for acute ischemic stroke since NINDS clinical trials demonstrated its 
effectiveness in the 1990's.
    In other clinical trials activities this year, the innovative 
Neuroprotection Exploratory Trials in Parkinson Disease (NET-PD) 
program is selecting drugs that show promise for slowing the course of 
Parkinson disease and testing them through a clinical trials network. 
From 59 drug candidates proposed by 42 scientists from 13 countries, 4 
drugs were selected for testing in phase II clinical trials, with 
results expected in the next few months. If results warrant, larger 
trials will follow quickly. To enhance drug selection in the future, 
the NINDS is establishing a contract animal testing facility. The NINDS 
Pilot Studies Network (NPTUNE) is also underway to expedite pilot 
trials of new treatments for rare neurological disorders, for which the 
lack of clinical trials infrastructure often blocks moving therapies 
forward. NPTUNE chose testing of phenylbutyrate for spinal muscular 
atrophy (SMA) as the first trial. Development of the Clinical Research 
Collaboration (CRC) has also begun, which will extend the reach of the 
NIH into more communities across the United States. The CRC will engage 
hundreds of community practice and academic neurologists to speed 
trials; minimize costs; make trials more accessible to patients; 
recruit a diverse spectrum of participants; facilitate trials of rare 
diseases; and improve transfer of research results to clinical practice 
in community settings. Complementing the CRC, the NINDS is building a 
network to develop emergency treatments for neurological disorders. 
Stroke, seizures, and traumatic injury are just a few of the 
neurological disorders that often require emergency treatment. This 
program brings together specialists in emergency medicine with experts 
in neurological disease and in clinical trials. Finally, the NINDS is 
fully engaged in Roadmap initiatives to address clinical research and 
trials issues that cut across all of medical science.

                         TRANSLATIONAL RESEARCH

    Translational research encompasses the many steps that move basic 
research findings to a therapy that is ready for testing in clinical 
trials. In 2002, the NINDS began a comprehensive translational research 
program that can apply to all diseases within its mission. The program 
solicits investigator-initiated proposals, evaluates them according to 
peer review criteria tailored to the needs of translational research, 
and monitors progress with milestone-driven funding, as is common in 
industry. The first major project in this program, the Parkinson's Gene 
Therapy Study Group, met critical milestones this year with the 
creation of a stable colony of parkinsonian non-human primates for 
testing therapies and the development of modified viral vectors that 
can deliver therapeutic genes under tight control.
    Complementing the broad translational research program and relevant 
Roadmap initiatives in areas such as molecular libraries are several 
specific NINDS efforts. In one such program, the Institute, working 
with academia and voluntary disease organizations, formed a consortium 
of 26 laboratories to screen a set of 1,040 known drugs with laboratory 
tests for potential use against neurodegenerative diseases. Most of the 
drugs in this set have been approved by the U.S. Food and Drug 
Administration (FDA) for other uses, and so might move more quickly 
toward clinical trials. Several drugs from this program have shown 
promise against neurodegeneration and moved forward to testing in more 
definitive mouse models of human diseases. One drug, ceftriaxone, has 
already proceeded to testing in a clinical trial for ALS early this 
fall.
    Because of the state of the science and the impact of SMA on 
children and families, the NINDS chose this disease as the focus of an 
innovative approach to expedite therapy development. The SMA Project 
uses a performance-based contract mechanism to accelerate all steps 
from recognition of a research need, through solicitation, review, and 
funding of targeted research subprojects. In its first year, the 
Project quickly developed detailed plans for SMA drug development and 
solicited targeted research subprojects. A September 2004 workshop 
engaged SMA researchers, clinicians, and voluntary health organizations 
on clinical trials. As the Project proceeds, the NINDS is evaluating 
whether the approach might be applied to other disorders. The NINDS 
continues to support teams of researchers focused on developing 
therapies for neurological diseases through several other programs. 
These programs emphasize basic, translational, or clinical research, as 
appropriate to the state of science for each disorder. Examples include 
the Senator Paul D. Wellstone Muscular Dystrophy Cooperative Research 
Centers, the Morris K. Udall Centers of Parkinson's Disease Research, 
the Facilities of Research Excellence in Spinal Cord Injury, and the 
Specialized Programs of Translational Research in Acute Stroke.

                             BASIC RESEARCH

    Preventing and treating neurological disorders relies on 
understanding the normal workings of the nervous system and what goes 
wrong in disease. The emerging new modalities for combating disease 
highlight this: Stem cells and growth factors arose from fundamental 
studies of nervous system development. Deep brain stimulation, which 
shows promise for Parkinson, dystonia, Tourette syndrome, and other 
diseases, relies upon research techniques developed to monitor the 
activity of single nerve cells in the brain, and on basic knowledge of 
anatomical circuits that control movement. Studies of how the brain 
learns are leading to behavioral therapies that may enhance ``brain 
plasticity'' to repair damage and giving new insights into what causes 
chronic pain, epilepsy, and dystonias. Most current drugs for nervous 
system diseases target molecules identified for their role in normal 
brain function. Gene therapy, new understanding of the molecular basis 
of diseases, diagnostic tests, and animal models for testing therapies 
are among the many fruits of fundamental studies in neurogenetics.
    Basic neuroscience research is continuing to advance rapidly, and 
Roadmap initiatives in areas such as protein structure, computational 
biology, and nanomedicine will help to accelerate that pace. Among the 
many basic neuroscience findings this year are studies that give 
insights into what controls stem cells in the brain and how they might 
be used therapeutically, the role of estrogen in autoimmune disease, 
strategies to transfer therapeutic genes into muscles to treat 
dystrophies, insights into the molecular targets of nicotine, better 
understanding of how genes and experience interact in brain 
development, and a new approach to silencing harmful genes in diseases 
such as Huntington's and spinocerebellar ataxias.

              THE NIH BLUEPRINT FOR NEUROSCIENCE RESEARCH

    Over the last several years, the NIH Institutes and Centers that 
have an interest in the nervous system have increasingly joined forces, 
driven by advances in neuroscience that have revealed common issues 
that intersect their unique missions. The NIH Blueprint for 
Neuroscience is a framework to enhance that cooperation. Just as the 
NIH Roadmap addresses the roadblocks that hamper progress across all of 
medical science, the NIH Blueprint for Neuroscience takes on challenges 
in neuroscience that are best met collectively. By pooling resources 
and expertise, the 15 NIH Institutes and Centers that make up the 
Blueprint can take advantage of economies of scale, confront challenges 
too large for any single Institute, and develop research tools and 
infrastructure that will serve the entire neuroscience community. The 
Blueprint is developing an initial set of initiatives focused on tools, 
resources, and training that can have a quick and substantial impact 
because each builds on existing programs. These initiatives include an 
inventory of neuroscience tools funded by the NIH and other government 
agencies, enhancement of training in the neurobiology of disease for 
basic neuroscientists, and expansion of ongoing pediatric imaging, gene 
microarray, and gene expression database efforts. For fiscal year 2006, 
Blueprint initiatives focus on genetically engineered mouse strains to 
study the nervous system, neuroscience training programs, and 
specialized ``core'' resources that can be shared across many 
laboratories.
    Thank you, Mr. Chairman. I would be pleased answer questions from 
the Committee.
                                 ______
                                 
  Prepared Statement of Dr. Donald A.B. Lindberg, Director, National 
                          Library of Medicine

    Mr. Chairman and Members of the Committee: I am pleased to present 
the fiscal year 2006 President's budget request for the National 
Library of Medicine (NLM). The fiscal year 2006 includes $318,091,000, 
an increase of $2,945,000 over the fiscal year 2005 enacted level of 
$315,146,000 comparable for transfers proposed in the President's 
request.
    In a world that is increasingly digital, the National Library of 
Medicine plays a pivotal role in facilitating research, supporting safe 
and effective health care, and promoting healthy behavior. In addition 
to maintaining the largest physical collection of health science 
literature in the world, the Library builds and makes freely available 
immense databases of scientific information, identifies and organizes 
free Web-based consumer health information produced by the NIH 
institutes and other authoritative sources, and connects all of these 
resources in novel ways that increase their value to scientists, health 
care practitioners, and the general public. Each day, almost a million 
people access the National Library of Medicine's digital resources. By 
making the results of research--from DNA sequences to published 
scientific articles to patient and consumer health information--readily 
available, the Library magnifies the positive impact of NIH's 
investment in the creation of new knowledge.
    The Library is a key player in a number of important NIH and HHS 
initiatives that have current implications for the scientific 
community, health care providers, and the general public. These are 
described later, but briefly they are: the new policy to encourage the 
depositing of peer-reviewed articles supported by NIH grant in an 
archive maintained by the Library; the creation of PubChem, a new 
resource for scientists that is part of the NIH Roadmap Initiative; the 
movement to widen the registration of clinical trials in 
ClinicalTrials.gov, an NIH/NLM database; and the dissemination of 
standard vocabulary for electronic health records and research data 
within NLM's Unified Medical Language System (UMLS).

          INFORMATION FOR SCIENTISTS AND HEALTH PROFESSIONALS

    The Library's services have never been more central to the 
scientific enterprise. No scientist would think of embarking on an 
experiment without a careful review of the literature. Researchers rely 
on NLM databases for this. They search the Medline/PubMed collection of 
15 million journal article records, or perhaps utilize the GenBank 
collection of 40 million DNA sequences and associated molecular data. 
Research articles and biological databases are interlinked through 
NLM's Entrez retrieval system that provides seamless searching of a 
vast information space all from a user's desktop computer.
    The original role of the Library, to provide access to the 
published literature of the health sciences, remains the foundation of 
NLM's services, and the physical collection continues to expand 
steadily. Medline/PubMed is a Web-accessible database that now contains 
more than 15 million references and abstracts to articles in biomedical 
journals from the 1950s to the present. For most of the records now 
being entered, it is possible to link from the reference to the full 
text of the article. More than half a million records, from journals in 
many languages, are added each year. Medline/PubMed is free on the Web 
and in fiscal year 2004 there were 678 million searches done on the 
system.
    PubMedCentral, which was created by NLM's National Center for 
Biotechnology Information (NCBI), is a database that is a key in one of 
the special NIH initiatives mentioned earlier--archiving the full text 
of articles that represent work supported by the NIH. Today's 
technology has led to research that frequently generates an enormous 
amount of data that is associated with the publication of an article. 
To maximize the usefulness of such articles, the full text needs to be 
stored, with ancillary data, and with links to associated resources, in 
a data repository such as PubMedCentral. Under a new NIH policy, peer-
reviewed research articles are submitted electronically to 
PubMedCentral. There are now more than 350,000 current and 
retrospective articles available free of charge in this archive.
    NLM's NCBI also hosts over 40 databases providing researchers and 
students with easy access to molecular biology information--sequences, 
genome maps, 3-D protein structures, and gene functions. The 
integration of all these data coupled with Web-based analysis tools 
offers a virtual desktop laboratory to the 50,000 researchers and 
students who visit daily over the Internet.
    With the completion of the NIH genome project, an important new 
opportunity to explore the interactions of chemical substances with 
biological systems has opened. The Molecular Libraries component of the 
NIH Roadmap aims to exploit this opportunity by developing chemical 
probes that modulate biological processes. A new database created by 
the NCBI, called PubChem (the second major initiative noted earlier), 
integrates data from a variety of sources to enable researchers to link 
diverse information about chemicals and biological processes. For 
example, PubChem links chemicals to PubMed, so that users may 
investigate the relationship of screening-center results and biological 
activities reported in the biomedical literature. As such, PubChem is a 
research tool for expediting discovery of the biological basis of 
disease and the development of new therapeutic approaches.
    A new information system was introduced by NLM in 2004: the 
Wireless Information System for Emergency Responders (WISER). Available 
for downloading over the Internet, the system uses a hand-held PDA 
device to provide on-the-spot information for emergency personnel who 
first respond to situations where hazardous materials have been 
released into the environment. WISER extracts data from NLM's extensive 
electronic file of peer-reviewed hazardous substances information and 
makes it instantly and conveniently available.

                  INFORMATION SERVICES FOR THE PUBLIC

    The Library was first prompted to create information services for 
the general public in 1997, when it became apparent that consumers were 
in fact using the Medline/PubMed database of the scientific medical 
literature heavily. The following year the NLM Board of Regents 
formally recommended that the Library expand its mandate to include 
serving the public. Since that time, NLM has created a series of highly 
successful Web-based information services aimed at consumers.
    Foremost among these is MedlinePlus.gov. This service, begun in 
1998, has become a much-consulted information resource for the public, 
patients, and their families. Some 6 million people use MedlinePlus 
each month, viewing more than 60 million pages of health information 
written especially for consumers. Much of the data comes from the NIH 
institutes, a reliable source of authoritative health information for 
the public. Other HHS health agencies, professional societies, 
voluntary health agencies, and academic organizations are also sources 
of the information carried on MedlinePlus. Many users come to the site 
for access to extensive information on prescription and over-the-
counter medications, a medical encyclopedia, directories of physicians 
and hospitals, and ``health tutorials'' on common medical topics and 
procedures.
    With help from the medical library community and from the National 
Institutes of Health, MedlinePlus continues to expand its coverage. A 
``Go Local'' function has been introduced so that users of MedlinePlus 
can link directly to organizations and agencies in their locality to 
request needed health services. North Carolina and Missouri are now 
connected locally, and more states will soon be joining Go Local. 
Another popular service is MedlinePlus en espanol. This was introduced 
in 2002 and has grown rapidly to reach virtual parity with the English 
version. Both English and Spanish language MedlinePlus scored the 
highest marks of any Federal Web site in a recent evaluation by the 
American Customer Satisfaction Index.
    One popular feature of MedlinePlus is the ability to link from any 
of the health topics to the database, ClinicalTrials.gov. In the past, 
information about clinical research was not readily available to the 
public. Patients typically learned about studies only from their 
doctors. ClinicalTrials.gov, which now contains extensive information 
on more than 12,000 studies, is a one-stop Web site for patients, 
families, and members of the public. Each record includes the locations 
of a study, its design and purpose, criteria for participation, contact 
information, and further information about the disease and intervention 
under study. One of the special NIH initiatives mentioned at the 
beginning of this statement is about the need for a broad registry to 
track all trials and their results. Because ClinicalTrials.gov provides 
an established system for collecting, organizing, and displaying study 
information, expansion of its role is being considered.
    In addition to MedlinePlus and ClinicalTrials.gov, the Library in 
recent years has introduced a number of specialized information 
resources for different segments of the public. NIHSeniorHealth.gov, 
for example, created with the National Institute on Aging, has 
information in a format that is especially usable by seniors on topics 
they are concerned with, such as Alzheimer's, arthritis, hearing loss, 
exercise for older adults, and so forth. There are other information 
resources created by NLM especially for people living with AIDS, 
American Indians, those living in the Arctic, and Asian Americans.
    The public will also find useful NLM databases that contain health 
and safety information about the content of everyday household 
products, consumer information about genetic conditions and the genes 
or chromosomes responsible for those conditions, and the potential 
environmental hazards in ordinary communities (``Tox Town''). The 
newest database of interest to the public is TOXMAP, a system that 
allows the user to specify a chemical, or a location, and to create a 
map that shows the distribution of that chemical in a geographic area.
    The usage of the Library's databases, both those for scientists and 
for the public, continues to climb. NLM pursues a number of outreach 
projects to spread the word that these resources are available to 
everyone, free and without registration. The more than 5,000 member 
institutions of the National Network of Libraries of Medicine are 
valued partners in this endeavor. They hold workshops at public 
libraries and other community organizations, demonstrate NLM databases 
to the public, and exhibit at meetings and conventions on behalf of 
NLM, thus providing the personal element that can be so important to 
reaching populations affected by health disparities. Another special 
outreach project is the ``Information Rx'' program, a collaboration 
with the American College of Physicians (ACP) Foundation. This is a 
project to encourage physicians to make information referrals to 
MedlinePlus. Since patients trust their physicians to recommend good 
health information, the idea is to promote MedlinePlus as the ``Web 
site your doctor prescribes.'' NLM is also now working with the 
American Medical Association Foundation in a similar project for its 
members.

      RESEARCH TO IMPROVE INFORMATION PRODUCTS AND INFRASTRUCTURE

    In addition to the work of the National Center for Biotechnology 
Information, described earlier, NLM also sponsors research and 
development through the Lister Hill National Center for Biomedical 
Communications. This organization conducts advanced communications 
research projects in such areas as high-quality imagery, medical 
language processing, high-speed access to biomedical information, 
developing intelligent database systems, multimedia visualization, data 
mining, and machine-assisted indexing. One prominent area of research 
has been the Visible Human Project. The project consists of two 
enormous (50 gigabytes) data sets, one male and one female, of 
anatomical MRI, CT, and photographic cryosection images. These data 
sets are available through a free license agreement. More than 2,000 
individuals and institutions in 47 countries have licensed the data and 
are using them in a wide range of educational, diagnostic, treatment 
planning, virtual reality, artistic, and industrial applications. An 
``Insight Toolkit'' makes available a variety of open source image 
processing algorithms for computing segmentation and registration of 
medical data. The Visible Human Web site is one of the most popular of 
NLM's Web offerings.
    Another initiative of the Lister Hill Center is the Scalable 
Information Infrastructure program. Its purpose is to encourage, 
through 3-year research contract awards, the development of health-
related applications of scalable, network aware, wireless, geographic 
information systems, and identification technologies in a networked 
environment. The initiative focuses on situations that require, or will 
greatly benefit from the application of these technologies in health 
care, medical decision-making, public health, large-scale health 
emergencies, health education, etc.
    The Library has a program of grant assistance for research, 
training and fellowships, medical library assistance, improving access 
to information, and publications. For more than 30 years NLM has 
supported medical informatics research and the training of medical 
informaticians at universities across the nation. NLM funding has been 
instrumental in the development of pioneering electronic health record 
systems now considered models for the nation and for the training of 
generations of leaders in the field of informatics. Today the training 
programs also emphasize opportunities for training in bioinformatics, 
the field of biomedical computing for the large datasets characteristic 
of modern research. At present, NLM provides 18 grants to biomedical 
informatics training at 26 universities, supporting 250 trainees. A new 
initiative to expand the scope of these training programs is a 
collaboration between the NLM and the Robert Wood Johnson Foundation 
that is establishing public health training tracks at several of these 
sites. In this post 9/11 era the sophisticated use of public health 
information--whether for timely detection of disease outbreaks or rapid 
dissemination of information to clinicians and the public in an 
emergency--is a subject of great importance.
    An important contribution of NLM to the infrastructure of medicine 
is the Unified Medical Language System. This project develops and 
distributes multi-purpose electronic ``Knowledge Sources'' and 
associated lexical programs for system developers. The purpose of these 
UMLS databases and programs is to help computer systems behave as if 
they ``understand'' the meaning of the language of biomedicine and 
health. The UMLS Metathesaurus, the heart of the UMLS Knowledge 
Sources, contains more than 1 million concepts and 4.5 million unique 
concept names from more than 100 different biomedical vocabularies and 
classifications, including the three principal clinical vocabulary 
standards: SNOMED CT (Systematized Nomenclature of Medicine-Clinical 
Terms), LOINC (Logical Observation Identifiers, Names, Codes), and the 
RxNorm clinical drug vocabulary. NLM has been instrumental in making 
these standards freely available through U.S.-wide licensing contract 
support, or direct development.
    These resources are especially important to the Federal 
government's plans to achieve always-current, always-available 
electronic health records (EHRs) for most Americans within a decade. 
The lack of common, readily available electronic medical terminology 
standards has been a major obstacle to the widespread deployment and 
effective use of EHRs. NLM is playing an important role in remedying 
this situation with the national licensing of SNOMED CT and its uniform 
distribution with other clinical and administrative standards within 
the UMLS. It is now possible for software vendors, health care 
providers, hospitals, insurance companies, public health departments, 
medical research facilities, and others to incorporate uniform 
terminology into their information systems much more readily. This is 
an important step toward establishing interoperable electronic health 
records that can be made available wherever and whenever patients need 
treatment. In addition to improving the safety and quality of health 
care, standard electronic health data will assist in detecting and 
responding to public health emergencies and provide one of the key 
building blocks for a cost-effective national research infrastructure.
    In summary, the National Library of Medicine has a central part to 
play on today's health care scene. It continues to be a freely 
accessible archive of the world's published biomedical literature and 
collection of genomic data, relied on by scientists and health 
professionals around the world. Millions of people view the Library as 
a source of trusted consumer health information and access the 
MedlinePlus and other NLM resources for the public. And the U.S. health 
care system, as it evolves to take advantage of new information 
technologies, will rely on infrastructure advances made by the NLM in 
the area of standard and widely shared terminology.
    Thank you, Mr. Chairman. I would be pleased to answer any questions 
that the Committee may have.
                                 ______
                                 
  Prepared Statement of Elizabeth G. Nabel, M.D., Director, National 
                    Heart, Lung, and Blood Institute

    Mr. Chairman and Members of the Committee: I am pleased to present 
the fiscal year 2006 President's Budget request for the National Heart, 
Lung, and Blood Institute (NHLBI). The fiscal year 2006 budget includes 
$2,951,270,000, an increase of $10,069,000 over the fiscal year 2005 
enacted level of $2,941,201,000 comparable for transfers proposed in 
the President's request. I come to you with pride on behalf of the NIH 
component that is responsible for much of the gain in life expectancy 
that we have enjoyed over the past three decades in the United States, 
as shown in this chart. At the same time, however, I come with deep 
concern because the diseases under NHLBI responsibility still comprise 
three of the four leading causes of death in this country--heart 
disease, stroke, and chronic obstructive pulmonary disease (COPD). 
Clearly, we have come a long way, but we have far to go.

                  A VISION FOR THE FUTURE OF THE NHLBI

    As the NHLBI's first new director in 22 years, I would like to take 
this opportunity to share with the Committee my vision for the 
Institute. This vision is based upon a fundamental set of values--
excellence, integrity, innovation, respect, and compassion--that will 
permeate all activities in the NHLBI. I believe that scientific 
discovery provides the basis for progress and that the NHLBI is 
uniquely positioned to catalyze changes that must be made to transform 
our new scientific knowledge into tangible benefits for the people of 
this country. Within this framework, let me articulate four themes that 
will guide priority setting of our research agenda.

                          THEME ONE: DISCOVERY

    The first theme--stimulating basic discoveries of the causes of 
diseases--is vital to developing new, critically needed treatments. 
Basic research provides the foundation of the NHLBI portfolio and has 
been one of its great strengths. The typical model of investigation--
research conducted by single investigators or small groups of 
investigators on projects of their own inspiration--accounts for most 
of the unanticipated and major scientific discoveries in this country. 
I believe strongly that we must protect and nurture investigator-
initiated research. The NHLBI will continue to invest in the most 
talented scientists conducting the highest caliber research. Innovation 
and creativity using the most advanced biomedical technologies will be 
our goal.
    We have an exciting opportunity to support emerging new scientific 
fields. Major strides are being made in computer sciences, 
bioengineering, material sciences, chemistry, and other areas of study 
that vastly benefit medical research, and the pace of discovery in 
these disciplines should be accelerated. One approach is to develop 
funding mechanisms (e.g., for support of high-risk research) that 
encourage innovative thinkers to turn their attention to the major 
current challenges in heart, lung, and blood diseases.
    Another objective is to generate large, publicly available sets of 
reagents and data that could function as a ``tool kit'' for NHLBI 
investigators. Gene sequences and maps, cell lines, knockouts and 
knockdowns of genes in selected animals, reference sets of proteins, 
protein affinity reagents, and libraries of small molecules are 
examples of resources that will provide our investigators with the 
technologies required for innovative discoveries.

                         THEME TWO: TRANSLATION

    Our second task is to speed translation to clinical applications so 
that people can benefit as quickly as possible from the basic research 
enterprise. Clinical research, and more specifically, translational 
research (``bench to bedside'') are vital to our mission, so that we 
can translate basic discoveries into the reality of better health for 
our country.
    The NHLBI must further develop the infrastructure for clinical 
research so that it serves the evolving field of scientific discovery 
and provides a foundation for evidence-based clinical decision-making. 
Clinical research is critical to ensuring that new products and 
techniques are safe and effective before they are widely applied. 
However, clinical research is often time-consuming and inefficient, and 
is increasingly burdened by regulatory hurdles. Our challenge is to 
expand clinical research to complement the exciting basic science 
discoveries, while making it more efficient and cost-effective.
    We intend to develop a translational research agenda supported by 
clinical trials, clinical networks, and clinical workforce training. 
Key components will focus on increasing interactions between basic and 
clinical investigators and easing the movement of new tools from 
laboratories to clinics. We will build upon our rich experience with 
clinical trials and networks to develop new partnerships among 
organized patient communities, community-based physicians, and academic 
researchers. We will work on improving bioinformatics and clinical 
databases, standards for clinical research protocols, measures of 
clinical outcomes, and quality assessment. Translational research 
requires the expertise of many fields and should include analysis of 
health education, outcomes, health-care delivery, and health-care 
economics. This focus fits well with the Re-engineering the Clinical 
Research Enterprise of the Roadmap.
    The NHLBI must cultivate a cadre of clinical researchers who have 
skills commensurate with the complexity and needs of our research 
enterprise. Clinicians must be trained to work in the 
interdisciplinary, team-oriented environments that characterize today's 
research efforts. We further anticipate that specific training will be 
required in an array of disciplines important to clinical research, 
including genetics, epidemiology, biostatistics, and behavioral 
medicine.
    At the core of this vision is the need to develop new partnerships 
of research with organized patient communities, community-based health 
care providers, and academic researchers. We will rely on our 
partnerships to facilitate the conduct of this clinical research, to 
train our clinical investigators, and most important, to achieve our 
common goals of improved health for the public.

                       THEME THREE: INTERACTIONS

    The third theme is facilitating communication between scientists 
and physicians so that new ideas can be generated, shared, and 
advanced.
    Today's science is far more complex than that of yesteryear. 
Research, whether basic or clinical, is now commonly done by teams of 
scientists wherein each individual brings specific talents and 
expertise to the overall effort. We will stimulate and facilitate the 
conduct of interdisciplinary research, so that advances can be made 
more quickly. Principal-investigator status will be granted not to just 
one investigator, as is the norm, but to all key members of the 
research team. Integrated reviews of grants will take into account the 
melding of various disciplines to address the problem at hand, and 
interdisciplinary teams will be encouraged to evolve in both directed 
and unexpected ways.
    An essential component of our efforts in research collaboration 
will be community-based clinical trials, which enhance the conduct of 
clinical research at academic medical centers. An outstanding example 
is our ALLHAT (Antihypertensive and Lipid-Lowering to Prevent Heart 
Attack Trial), in which physicians from many types of medical 
settings--a total of 623 sites in 47 states, Puerto Rico, the United 
States Virgin Islands, and Canada--successfully enrolled over 42,000 
patients and followed them for 6 years. The physicians participated 
because they believed in the importance of the scientific questions 
being addressed with regard to patient care and because of the direct 
benefits of participation to their patients, including free 
medications. These community-based physicians conducted the trial at 
very high standards--follow up was over 97 percent. As part of our plan 
to disseminate the ALLHAT results, participating community physicians 
are now working with other doctors in their local communities to treat 
patients with high blood pressure.

                       THEME FOUR: COMMUNICATION

    Our fourth task is to effectively communicate our research advances 
to the public to improve understanding of new, promising science.
    The NHLBI has an outstanding history of outreach in the areas of 
high blood pressure, cholesterol, asthma, heart attack, obesity, sleep 
disorders, and women's cardiovascular health, and new efforts are under 
way with respect to COPD and peripheral arterial disease. I 
wholeheartedly support these programs that serve the mission of our 
Institute and the Nation. Education of our patients and the public 
regarding prevention and treatment of heart, lung, blood, and sleep 
disorders is one of my highest priorities.
    We will continue to work collaboratively with our colleagues in the 
DHHS, including the CDC and the FDA, to support prevention and control 
programs. We also have an unprecedented opportunity to build upon our 
partnerships with professional organizations, who have a large stake in 
developing and implementing practice guidelines and monitoring their 
effectiveness, and with patient advocacy groups. One of our most 
gratifying partnership programs has been The Heart Truth, which is 
successfully raising awareness nationwide that heart disease is the 
leading cause of death among American women. The ``reach'' of this 
campaign continues to expand as we forge additional fruitful 
partnerships with entities in the public and private sectors.
    Disparities in health status constitute a significant global issue. 
Research is essential to understand the diverse contributions of 
genetics, health behavior, diet, socioeconomic status, culture, and 
environmental exposures in the genesis of health disparities in heart, 
lung, and blood diseases and to formulate, evaluate, and disseminate 
well-conceived, focused intervention programs. This work will 
necessarily entail a vigorous effort to increase the representation of 
minorities in the ranks of NHLBI researchers. We are also cognizant of 
the need to improve and expand programs to prevent, manage, and treat 
diseases and conditions that disproportionately affect U.S. minority 
and underserved populations, such as cardiovascular disease and asthma, 
and to evaluate the effectiveness of our research, treatment, and 
education programs. A full resolution of the health disparities problem 
will occur only through committed and sustained efforts by many in our 
government, health centers, and society.

                                SUMMMARY

    The realization of this vision will require the efforts of many. We 
are engaged in a special form of public service, that is, the promotion 
of patient and public health. I will work diligently to preserve public 
trust in the Institute, the NIH, and the biomedical research 
enterprise, and to ensure that the NHLBI serves the public with the 
highest level of integrity. This trust is essential for meeting our 
common goals of making important new scientific discoveries and 
translating them to improve health in this country.
    Thank you, Mr. Chairman. I would be pleased to answer any questions 
that the Committee may have.
                                 ______
                                 
 Prepared Statement of Dr. Kenneth Olden, Director, National Institute 
                    of Environmental Health Sciences

    Mr. Chairman and Members of the Committee: I am pleased to present 
the fiscal year 2006 President's budget request for the National 
Institute of Environmental Health Sciences (NIEHS). The fiscal year 
2006 budget includes $647,608,000, an increase of $3,103,000 over the 
fiscal year 2005 enacted level of $644,505,000 comparable for transfers 
proposed in the President's request.

                              INTRODUCTION

    ``Genetics loads the gun, but environment pulls the trigger.''----
Judith Stern, University of California, Davis
    The Nation needs better information to promulgate evidence-based 
environmental health regulatory policies and to prevent or cure most 
chronic diseases. This paucity of information has an enormous impact on 
the world's economy, both in terms of costs associated with health care 
and with regulatory compliance. In large measure, this situation exists 
because we still do not understand what role the environment plays in 
human health and disease. The application of knowledge and technologies 
developed through the pursuit of the Human Genome Project offers great 
promise for elucidating mechanisms of gene-environment interactions in 
the development of complex diseases.
    For years, the environment was considered to have a minor role in 
the etiology of human illness. But, in recent years, the thinking has 
shifted in favor of gene-environment interactions. For example, recent 
studies show that no more than one-third of the cancer burden can be 
attributed to the action of genes alone (Verkasala, et al., 1999, Int. 
J. Cancer 83:743-749; Lichlenstein, et al., 2000, NEJM 343:78-85), only 
15 percent of Parkinson's Disease (Tanner et al., 1999, JAMA, 281:341-
346), and about a third of autoimmune diseases (Powell, et al., 1999, 
Env. Health Pers. 107 (Suppl. 5), 667-672). A more recent study 
reported that 90 percent of individuals with severe heart disease have 
at least one or more of four classic risk factors captured in the 
current definition of the environment (Khat et al., 2003, JAMA 290:899-
904). Because of these and other findings, it is now generally accepted 
that more informative, cost-effective, high-throughput methods for 
assessing and predicting risk resulting from environmental exposures 
will need to be developed. Otherwise, we will not be able to prevent or 
cure most chronic diseases, and the costs associated with health care 
and environmental regulatory compliancy will continue to escalate.
    Starting in 1997, NIEHS developed several new research initiatives 
to respond to this urgent need. Such programs include: the 
Environmental Genome-Project (Kaiser, 1997, Science 278:569-570; Brown 
and Hartwell, 1998, Nat. Genet. 18:91-93), the National Center for 
Toxicogenomics (Kaiser, 2003, Science 300:563), and the Mouse 
Sequencing Project (Nature 432: 5, 2004). While the results from these 
three initiatives will provide information relevant to most chronic 
diseases, other research programs have been developed to address 
specific diseases such as breast cancer, Parkinson Disease, and autism. 
Today, I will briefly describe several of these initiatives and their 
implications for human health and disease.

     GENETIC DIFFERENCES IN SUSCEPTIBILITY TO DRUGS AND ENVIRONMENT

    Individuals vary, often significantly, in their response to 
environmental agents. This variability provides a high ``background 
noise'' when scientists examine human populations to identify 
environmental links to disease, often masking important environmental 
contributors to disease risk. Fortunately, the Human Genome Project 
created tools that can help identify the genetic variations in 
environmental response genes that can lead to such wide differences in 
disease susceptibility. NIEHS developed the Environmental Genome 
Project (EGP) to catalogue these genetic variants (polymorphisms) and 
to identify the ones that play a role in human susceptibility to 
environmental agents. This information is already being used in 
epidemiological studies to better pinpoint environmental contributors 
to disease. Also, several important variants have been discovered that 
are associated with risk for chronic illnesses such as leukemia, 
cardiovascular disease, and neuronal dysfunction.

            ANIMAL MODELS PREDISPOSED TO ENVIRONMENTAL RISK

    The usefulness of the susceptibility data generated in the EGP is 
enhanced by the availability of animal models with the exact sequence 
variations discovered by resequencing of the human environmental 
response genes. Therefore, NIEHS developed a university-based Mouse 
Genomics Centers Consortium to create mice with such variations and 
provide them to the scientific community. To date, approximately 20 
well-characterized mouse models have been developed. These models 
represent a variety of disease endpoints, including: Werner's syndrome 
(aging disorder), diabetes, mammary cancer, gastrointestinal and 
bladder cancer, prostate cancer, and skin cancer.

              EFFORT TO IMPROVE RELEVANCE OF ANIMAL MODELS

    Environmental health scientists often use mice to predict how 
environmental agents might affect people. Although mouse studies can 
indicate the potential of an exposure to cause cancer and other 
diseases, there is no way to precisely extrapolate these study results 
to the risk in humans. Information on the similarities and differences 
in homologous genes between human and mouse is important to improve 
accuracy in predicting human risk. While laboratory mice might look 
alike, the 100 different strains used in medical research differ 
significantly in their behavior, physiology and susceptibility to drugs 
and environmental agents (e.g., carcinogens), and scientists are eager 
to discover the differences in the genetic sequences that underlie 
these traits, with the goal of finding counterparts in humans. NIEHS 
initiated a mouse sequencing project to decipher the genomes of the 15 
mouse strains used most frequently in research to predict human risk. 
Such data will improve environmental risk assessment decisions and will 
help researchers in choosing the most appropriate strain for studying 
toxicity.

                     SISTER STUDY OF BREAST CANCER

    A unique study exploring gene-environment interactions in breast 
cancer development has begun nationwide recruitment. It will look at 
how genes, activities of daily life, and environmental exposures affect 
breast cancer risk. To get the information quickly, this study is 
recruiting 50,000 symptom-free women who have a sister that had breast 
cancer. These women are at increased risk of breast cancer, share many 
genes with their affected sibling, and would have experienced many of 
the same exposures. For these reasons, it is expected that a sufficient 
number of women will develop breast cancer within 10 years and their 
genes and exposures can be compared with those of women in the study 
who did not develop the cancer. A broad range of exposures will be 
examined, including personal care and household products, workplace 
exposures, and dietary factors, along with genetic analysis. The 
principal investigator has the active support of the American Cancer 
Society, Sisters Network, Inc., the Susan G. Komen Breast Cancer 
Foundation, and the Y-ME Breast Cancer Organization.

                          PARKINSON'S DISEASE

    A major impediment in Parkinson's Disease (PD) research has been 
the lack of rapid communication between epidemiologists, laboratory 
researchers, and clinicians which prevents the type of 
multidisciplinary approach this field needs. To encourage advances in 
this important area of study, NIEHS developed a multidisciplinary 
Collaborative Centers Program for Parkinson's Disease Environmental 
Research. This multi-institutional approach is designed to accelerate 
the identification of genetic and environmental factors leading to PD. 
Collectively, the three centers have expertise in basic neurosciences, 
human genetics, clinical research, and epidemiology, as well as long-
standing interactions with patient groups. Accomplishments to date 
include: efforts to discover new PD susceptibility genes; development 
of a registry in California to track the disease; development of mouse 
models with specific alterations in genes suspected of playing a role 
in PD, and efforts to develop a primate model of PD that exhibits the 
most prominent clinical features of the disease.

                                 AUTISM

    Autism is a devastating behavioral disorder that most likely arises 
from underlying genetic susceptibilities interacting with specific 
environmental exposures during pre- or post-natal development. A number 
of people have suspected that the mercury-containing compound 
thimerosal, used to preserve childhood vaccines, could be an 
environmental trigger for autism development, based on the established 
neurotoxicity of higher doses of mercury. Extensive epidemiological 
studies, however, have failed to provide any association between 
vaccines and autism. It is possible, however, that only a subset of 
children are susceptible to mercury effects, perhaps when coupled with 
an immunological challenge. Preliminary animal studies have provided an 
intriguing clue to possible susceptibilities that NIEHS is now 
pursuing. In these studies, different mouse strains were exposed to 
thimerosal at ages and doses that corresponded to the standard protocol 
for childhood vaccinations. Only the immunologically deficient strain 
of mouse exhibited a response. In these mice, behavioral effects were 
reported and morphological changes were observed in the brain. However, 
this study did not have sufficient power to be definitive. Fortunately, 
the NIEHS already had two Children's Environmental Health and Disease 
Prevention Research Centers devoted to autism. Thus, the Institute 
provided a supplement to one of these Centers to do more extensive 
testing of thimerosal in autoimmune-prone (SJL) mice. This Center has 
expertise in evaluating critical social behaviors, as well as the 
ability to conduct state-of-the-art stereology to measure brain effects 
such as volume changes and changes in cell number occur. This more 
extensive look at thimerosal-immune co-contributors to brain damage may 
provide better insight into this disorder than previous studies have. 
In addition, the same Center is recruiting a cohort of 700 autistic 
children, and appropriate control subjects, to further examine the role 
of gene-environment interactions in the etiology of autism.

                   OBESITY AND THE BUILT ENVIRONMENT

    Obesity is a major contributor to human disease and rising health 
care costs. NIEHS is collaborating with the Robert Wood Johnson 
Foundation to examine how community design influences physical 
activity. This so-called Active Living Design Program is working with 
local governments to influence city planning and land use decisions. 
The program's impact on physical activity, obesity, and other health 
indicators will be assessed. The Institute is also encouraging research 
to evaluate the role of ``in utero,'' neonatal, and pre-puberty 
exposures to environmental estrogens and other compounds in the onset 
and development of obesity, as well as examining gene-environment 
interactions that favor weight gain.

                             NANOTECHNOLOGY

    Nanotechnology is an exciting area of research with broad 
implications for multiple industries, including medicine and 
communication. For example, nanoscale devices have the potential to 
deliver therapeutic and imaging agents to specific cells and tissues in 
ways not presently possible. However, when bulk material is converted 
to ultrafine nanoparticles, its physical, chemical, and biological 
properties can be altered in ways that might adversely affect health. 
So, while many laboratories are focused on exploiting the rich 
potential of these agents, there is little activity to assess their 
toxicological properties. NIEHS, under the auspices of the National 
Toxicology Program (NTP), has initiated a program to evaluate the 
toxicological properties of the major classes of nanoscale materials 
and will investigate fundamental questions such as: How are nanoscale 
materials absorbed, distributed in the body, and taken up by cells? Are 
there novel toxicological interactions? What are the appropriate 
detection and quantification methods for nanoscale particles?

             NIH ROADMAP AND ENVIRONMENTAL HEALTH RESEARCH

    The ability to investigate and understand issues in environmental 
health requires collaboration between many scientific disciplines: 
epidemiology, toxicology, molecular biology, clinical sciences, and 
many others. Thus, Roadmap initiatives such as the Interdisciplinary 
Research Planning Centers will greatly enhance NIEHS' work. Examples 
include: the use of geographic/spatial methodologies to address 
combined genetic, social, and environmental factors on child health and 
development, and an effort to redefine computational genomics with 
emphasis on gene-environment interactions in alcoholism, 
atherosclerosis and breast cancer. Both projects have strong ties to 
other significant NIEHS-funded programs at the same institutions.
    Thank you for the opportunity to comment on the important work 
supported by the NIEHS. I will be happy to answer any questions you 
might have.
                                 ______
                                 
  Prepared Statement of Dr. John Ruffin, Director, National Center on 
                 Minority Health and Health Disparities

    Mr. Chairman and Members of the Committee: I am pleased to present 
the fiscal year 2006 President's budget request for the National Center 
on Minority Health and Health Disparities (NCMHD). The fiscal year 2006 
budget includes $197,379,000, an increase of $1,220,000 over the fiscal 
year 2005 enacted level of $196,159,000 comparable for transfers 
proposed in the President's request.
    The NCMHD has just entered its fourth year of operation. Much has 
been accomplished during this time. However, much remains to be done. 
Racial and ethnic minorities and other health disparity populations 
continue to suffer a disproportionate burden of illness, disability and 
premature death. Health disparities cover a broad spectrum of health 
conditions and diseases that include cancer, mental illness, infectious 
diseases, autoimmune diseases, endocrine diseases, vascular diseases, 
infant mortality, diabetes, HIV/AIDS, obesity and nutritional 
deficiencies. There are many factors that contribute to health 
disparities such as genes, biology, culture, race, environment, 
socioeconomics, and health behavior. Due to the interaction of these 
complex factors, the elimination of health disparities requires a 
multifaceted approach.

                 NIH HEALTH DISPARITIES STRATEGIC PLAN

    The Congress has charged the NCMHD to lead the Federal effort in 
health disparities research, research capacity building, and outreach. 
The NCMHD guides the NIH efforts in collaboration with NIH Director, 
the other NIH Institutes and Centers, and the NCMHD's Advisory Council 
in revising the NIH Health Disparities Strategic Plan annually. The 
plan represents the trans-NIH health disparities vision and strategy to 
eliminate health disparities through research, research infrastructure, 
capacity building, and community outreach.
    The NIH Institutes and Centers (ICs) are committed to educating 
minority patient populations on disease management and quality care. 
Several of the ICs plan to increase the number of culturally relevant 
health educational materials and to develop and expand linkages with 
minority organizations and professional societies to increase 
dissemination of research advances to minority-serving institutions, 
and racial and ethnic minority and health disparity communities. For 
example, the National Institute of Allergy and Infectious Diseases 
(NIAID) will produce a series of low-literacy fact sheets on sexually 
transmitted infections, HIV/AIDS, and tuberculosis. The NINDS expanded 
its health education program, Know Stroke. Know the Signs. Act in 
Time., to populations at high risk for stroke--African Americans, 
Hispanics, and seniors--in communities that have the health care 
systems in place to treat them. The National Center for Complementary 
and Alternative Medicine (NCCAM) will employ multimedia technology, 
such as web chats, teleconferences, and minority-focused media to 
disseminate information about complementary and alternative medicine.
    The National Cancer Institute (NCI) is achieving significant 
progress toward understanding and addressing the needs of the Hawaiian 
and Pacific Basin populations through a five-year cooperative agreement 
with Papa Ola Lokahi, a Native Hawaiian owned-and-operated community-
based health organization. Through this agreement, the NCI funds a 
variety of culturally competent cancer awareness, research, and 
training activities.
    The National Heart, Lung and Blood Institute (NHLBI) is initiating 
a new program to address the substantial and growing burden of 
Cardiovascular Disease (CVD) in American Indians and Alaska natives. 
This initiative will develop and test culturally appropriate 
interventions to promote the adoption of lifestyles and behaviors that 
are known to reduce biological and CVD risk factors, such as high blood 
pressure and cholesterol levels, obesity, glucose intolerance, and 
diabetes.

                    NCMHD HEALTH DISPARITIES IMPACT

    In addition to developing the NIH Strategic Plan, the NCMHD has 
focused attention on the pressing need to establish its programs. The 
national reach of the NCMHD extends to more than 100 institutions and 
more than 500 individuals that have received awards to train for health 
professions careers, conduct health disparities research, build 
research capacity and advance outreach efforts.
    The NCMHD Health Disparities Centers of Excellence (Project EXPORT) 
program currently funds seventy-one institutions in 29 states engaged 
in multidisciplinary research. Priority research focus areas include 
cancer, cardiovascular disease, stroke, diabetes and the health of 
mothers and their infants.
    Communities nationwide in states such as Alabama, New York, 
Pittsburgh, Montana and Hawaii are being encouraged and equipped for 
participation in clinical studies and for partnering in the conduct of 
evidence-based disease prevention and intervention activities. The 
Clemson University-Voorhees College Project EXPORT partnership has 
three studies focused on obesity. Using a network of community-based 
partners, each study examines diet and/or physical activity levels of 
rural residents or students. The objectives of the studies are to 
identify the socio-cultural factors influencing choices and determine 
how environmental effects and knowledge of nutrition and physical 
activity impact choices about diet and exercise.
    Culturally competent health care is an essential component in 
defeating health disparities and requires a distinct sense of urgency. 
In a recent study on cultural competence among physicians treating 
Mexican Americans who have diabetes, supported by a NCMHD-Center of 
Excellence, scientists determined that physicians can increase cultural 
competence and effective care by becoming self-aware of their 
knowledge, views, and attitudes about cultures and ethnic groups, and 
by engaging in culture-focused educational activities. Recognizing that 
culturally appropriate actions can be predicted, based on a provider's 
awareness that culture is relevant to medical care and that negative 
preconceptions can hinder the effectiveness of health care delivery, is 
an important finding for improving cultural competence and reducing 
health disparities.
    The NCMHD Research Endowment Program, unique within the NIH, is 
best described as inclusive and diverse. Fourteen institutions receive 
NCMHD endowment funds to enhance research capacity and infrastructure 
for research and training. The activities of the institutions involve 
strengthening teaching programs in the biomedical and behavioral 
sciences; establishing endowed chairs and programs; obtaining state-of-
the-art equipment for instruction and research; and enhancing the 
recruitment and retention of student and faculty from health disparity 
populations. A NCMHD Endowment Program award to the University of 
Kansas has enabled the university to develop a K-12 pipeline to recruit 
students through summer programs; retain and graduate 95 percent of 
underrepresented minority medical students; increase underrepresented 
minority faculty members from 24 to 39; and provide opportunities for 
48 underrepresented minority students to participate in health 
disparity research over the summer.
    The NCMHD supports two loan repayment programs--the Health 
Disparities Research Loan Repayment Program (HDR) and the Extramural 
Clinical Research Loan Repayment Program for Individuals from 
Disadvantaged Backgrounds (ECR), to promote a diverse and strong 
scientific workforce by alleviating the financial barriers that often 
discourage many talented health professionals from health disparity, 
medically underserved and disadvantaged communities from pursuing a 
research career.
    The NCMHD funds are supporting the deployment of 466 emergent 
researchers to 42 states and the District of Columbia to conduct health 
disparities research. These programs are the foundation for developing 
a lasting relationship with talented and committed health disparities 
scholars. Fifty-six percent of the awardees in the HDR program are 
members of a health disparity population. The loan repayment programs 
exemplify the multidisciplinary approach needed to address health 
disparities. For example, epidemiology, pharmacology, linguistics, 
etiology, ethnography, health policy, and behavioral science are among 
the program's research disciplines. Research includes: identifying 
barriers to health care access; race and long-term diabetes self 
management in an HMO; a comparison of androgen receptor for 
polymorphism in African American and Caucasian women with breast 
cancer; and reducing HIV/STI risk in young adult minority populations.
    The number of participating institutions in the Research 
Infrastructure in Minority Institutions (RIMI) Program has tripled 
since 2001. Program accomplishments include faculty seminar series on 
health disparities research; research on the health and developmental 
impact of methamphetamine production in New Mexico children, and the 
establishment of a Natural Toxins Research Center. The NCMHD will 
continue to build upon the RIMI program by exploring partnerships among 
tribal colleges, community/junior colleges, and non-research intensive 
four-year institutions with major research-intensive colleges and 
universities.
    The Minority Health and Health Disparities International Research 
Training Program (MHIRT) positions the NCMHD in collaboration with the 
NIH Fogarty International Center, to extend its health disparities 
research and training capacity across borders. The MHIRT program 
enables students and faculty from health disparity populations to 
participate in international research training opportunities in 
countries such as South Africa, Sweden, Italy, Mexico, Bulgaria, 
Thailand, Trinidad, China, Australia, Brazil, and Senegal. Research 
efforts include cancer epidemiology, reproductive biology, 
parasitology, malaria, ethnopharmacology and neurobiology.

          COMMUNITY-BASED PARTICIPATORY RESEARCH AND OUTREACH

    The NCMHD recently established an Office of Community-Based 
Participatory Research and Outreach, and launched a new program that 
will support collaborative partnerships between academic institutions 
and community-based organizations for research studies looking at the 
interface of physical and psychological environments and their health 
impacts on communities of color and the medically underserved; 
methodology research looking at effective methods of measuring racism 
and community level outcomes; evaluation of outcomes; and impact of the 
research. This program will build on the NCMHD existing community-based 
research and outreach initiatives through its Project EXPORT program.

                    FEDERAL RESEARCH COLLABORATIONS

    In addition to its core programs, the NCMHD has continued to fund a 
broad range of collaborations with the other NIH Institutes and 
Centers, the Department of Health and Human Services, and other Federal 
agencies. Recently, the NCMHD launched a new initiative to support 
research relevant to the Mississippi Delta Region and its medically 
underserved populations. This endeavor involved the collaboration of 
eight NIH Institutes and Centers with the NCMHD supporting 
approximately $8 million in research projects.

                               CONCLUSION

    Working with our many research partners, the top priority of the 
NCMHD is to build a solid and diverse national biomedical research 
enterprise of individuals, institutions, and communities dedicated to 
eliminating health disparities. The NCMHD will sustain and expand its 
primary strategies. Research capacity building will extend beyond 
academia to involve community and faith-based organizations, 
individuals, and business at local and grassroots levels. Training and 
the diversification of the health, scientific, and technological 
workforce will remain key areas of focus in developing innovative 
projects. Prevention, treatment, cultural competency, and health care 
delivery for urban and rural communities will be approached more 
aggressively. We will continue to strive for an America in which all 
populations will have an equal opportunity to live long, healthy, and 
productive lives.
                                 ______
                                 
    Prepared Statement of Dr. Paul Sieving, Director, National Eye 
                               Institute

    Mr. Chairman and Members of the Committee: I am pleased to present 
the fiscal year 2006 President's budget request for the National Eye 
Institute (NEI). This budget includes $673,491,000, an increase of 
$4,421,000 over the fiscal year 2005 enacted level of $669,070,000 
million comparable for transfers proposed in the President's request. 
As the Director of the NEI it is my privilege to report on the progress 
laboratory and clinical scientists are making in combating blindness 
and visual impairment and about the unique opportunities that exist in 
the field of vision research.

                    GLAUCOMA AND OPTIC NEUROPATHIES

    Glaucoma is a group of eye disorders that causes optic nerve damage 
that can lead to severe visual impairment or blindness. Elevated 
intraocular pressure (IOP) is frequently, but not always, associated 
with glaucoma. Glaucoma is a major public health problem and published 
studies find it is the most common cause of visual impairment and 
blindness in African Americans.
    The prevalence of glaucoma is three times higher in African 
Americans than in non-Hispanic whites.\1\ Additionally, the risk of 
visual impairment is much higher and the age of onset is earlier than 
in Whites. An NEI-supported follow-up study to the Ocular Hypertension 
Treatment Study (OHTS) found that early treatment of elevated IOP 
reduces the risk of developing glaucoma in African Americans. Of the 
participants in the treatment arm of the study, 8.4 percent developed 
glaucoma whereas 16.1 percent in the observation group developed the 
disease. Additionally, the OHTS follow-up study found that certain 
biological characteristics of the eye including corneal thickness are 
helpful in predicting who will likely develop glaucoma and who will 
benefit from therapy. This study provides important treatment and 
prognostic information for clinicians in caring for this at risk 
population.
---------------------------------------------------------------------------
    \1\ The Eye Diseases Prevalence Research Group: Prevalence of open-
angle glaucoma among adults in the United States. Arch Ophthalmol 
122:532-538, 2004.
---------------------------------------------------------------------------
                            RETINAL DISEASES

    Retinal diseases are a diverse set of sight-threatening conditions 
that include age-related macular degeneration, diabetic retinopathy, 
retinopathy of prematurity, retinitis pigmentosa, Usher's syndrome, 
ocular albinism, retinal detachment, uveitis (inflammation) and cancer 
(choroidal melanoma and retinoblastoma). This year, NEI supported 
laboratory researchers made great strides in developing therapies for 
these diseases. For example, a recent NEI study found that eye 
injections of bone marrow stem cells from adult animals prevented 
vision loss in two rodent models of retinitis pigmentosa (RP). These 
findings raise the possibility of a therapy in which patients could 
receive an injection of their own bone marrow stem cells to preserve 
vitally important central vision.
    Age-related macular degeneration (AMD) is a leading cause of 
blindness and visual disability in older age Americans. The inability 
to prevent the development of AMD and its complications is largely due 
to an imprecise understanding of the pathologic mechanisms of the 
disease. Genetic and environmental factors have previously been 
implicated in the disease. A recent NEI supported study in animal 
models has found evidence that inflammation may also play a role. These 
animal models suggest that the immune system contributes to the disease 
and offer new insights into possible mechanisms of the disease. The 
availability of animal models of the disease will also allow for the 
testing of new intervention strategies.

                            CORNEAL DISEASES

    The cornea is the transparent tissue at the front of the eye. 
Corneal disease and injuries are the leading cause of visits to eye 
care professionals, and are some of the most painful ocular disorders.
    The epithelial cells of the cornea form a surface barrier that 
protects the underlying tissues from the external environment. When 
this layer is damaged, the epithelial cells normally respond quickly to 
close the wound and reform the barrier. In some cases, however, this 
response is defective, leading to the formation of persistent and 
painful corneal ulcers. Development of more effective treatments for 
this condition has been hampered by the limited information about the 
cellular and biochemical events that regulate corneal wound closure. 
This year, scientists at the NEI discovered that an enzyme called Cdk5 
plays a central role in regulating the migration of epithelial cells to 
close corneal wounds. More importantly they discovered that drugs which 
inhibit Cdk5 promote cell migration and wound closure. These findings 
suggest a new therapeutic approach for treating persistent corneal 
ulcers and other conditions that impair wound healing. Animal studies 
are in progress to determine whether inhibitors of Cdk5 can safely be 
used in the eye to enhance wound healing.

                                CATARACT

    Cataract, an opacity of the lens of the eye, interferes with vision 
and is the leading cause of blindness in developing countries. It is 
also a major public health problem in this country. Throughout life, 
the lens carries out a process of continued growth with epithelial 
cells dividing and differentiating into fiber cells. As epithelial 
cells differentiate into fiber cells they become denuded of certain 
cell components so they will not interfere with vision or cause 
cataracts. NEI supported scientists have recently discovered that the 
epithelial cells ``borrow'' enzymes involved in programmed cell death, 
or apoptosis, to mediate the destruction of these cell parts. Apoptosis 
is a normal biologic process that guides an orderly destruction of 
cells that are no longer functional or needed. This study defines a 
critical step in how fiber cells are formed and will spark further 
investigation into whether alterations in apoptotic enzymes play a role 
in cataract formation.

              STRABISMUS, AMBLYOPIA AND VISUAL PROCESSING

    Developmental disorders such as strabismus (misalignment of the 
eyes) and amblyopia (commonly known as ``lazy eye'') are among the most 
common eye conditions that affect the vision of children. In addition, 
published data estimates that more than 3 million Americans suffer from 
visual processing disorders not correctable by glasses or contact 
lenses.
    It is estimated that 20 percent of preschool children ages 3-4 have 
a treatable eye condition.\2\ While many states are developing 
guidelines for preschool screening programs, none of the commonly used 
vision tests have been evaluated in a research-based environment to 
establish their effectiveness. Initial results from the NEI-sponsored 
Vision in Preschoolers (VIP) Study found that 11 commonly used 
screening tests vary widely in identifying children with symptoms of 
common childhood eye conditions such as amblyopia, strabismus, and 
significant refractive error. When the best tests are used by highly 
skilled personnel in a controlled setting, approximately two-thirds of 
children with one or more of the targeted disorders were identified. 
These better tests were able to detect 90 percent of children with the 
most severe visual impairments. The ongoing VIP study will continue to 
provide state and local agencies with data to select the most effective 
vision screening exams that are currently available. The VIP study will 
also help ensure that more children are detected and treated at an 
early stage when therapy is most effective.
---------------------------------------------------------------------------
    \2\ Comparison of preschool vision screening tests as administered 
by licensed eye care professionals in the Vision in Preschoolers Study. 
Ophthalmology 111(4): 637-50, 2004.
---------------------------------------------------------------------------
    A fundamental issue in neuroscience has been the inability of nerve 
cells to regenerate. If researchers could develop therapies that 
overcome this limitation, the deleterious effects of many neurologic 
diseases and central nervous system (CNS) injuries might be reversed or 
greatly improved. NEI-supported researchers provoked nerve cell 
regeneration in rodents by activating a nerve cell's natural growth 
capacity and using gene therapy to suppress the effects of growth-
inhibiting factors. Although vision was not restored, this combined 
approach stimulated nerve cell regeneration three times greater than 
prior attempts. Regeneration of the mature CNS would provide an 
opportunity to treat blindness and other neurologic diseases.

                           HEALTH DISPARITIES

    Census 2000 data indicate that 12.5 percent of residents in the 
United States, or 35 million people, are Latino. Based on these data, 
it is estimated that by the year 2025, 61.4 million Latinos will live 
in this country, making this the fastest growing minority population. 
However, there is little available data to ascertain the prevalence and 
severity of major eye diseases in this population. Results from the 
NEI-sponsored Los Angeles Latino Eye Study (LALES) suggest that Latinos 
have some of the highest rates of visual impairment and blindness in 
the United States. The prevalence of visual impairment and blindness in 
Hispanics increased with age and women were more frequently affected 
than men. From a socio-economic perspective, Latinos who were 
unemployed, divorced or widowed, or less educated had increased rates 
of visual impairment and blindness. The prevalence statistics, coupled 
with the socio-economic data from LALES concerning the factors that 
negatively influence access to health care, will aid the NEI, through 
its public education programs, to devise strategies that better target 
these at-risk populations.

                              NIH ROADMAP

    A major theme of the NIH Roadmap, Re-engineering the Clinical 
Research Enterprise, is aimed at accelerating and strengthening the 
clinical research process. This Roadmap theme is consonant with the 
NEI's own goal of supporting the highest quality clinical research. The 
NEI and vision research community have anticipated these opportunities 
by creating networks such as the Pediatric Eye Disease Investigator 
Group (PEDIG) and the newly launched Diabetic Retinopathy Clinical 
Research Network. Continuation and expansion of these initiatives 
should facilitate and hasten the translation of research discoveries 
from the laboratory to the clinic for the benefit of those afflicted 
with a range of eye disorders and diseases.

                       NIH NEUROSCIENCE BLUEPRINT

    The NIH Neuroscience Blueprint was launched in 2004 to further 
enhance cooperation among 15 NIH Institutes and Centers that support 
research on the nervous system. Blueprint participants are developing 
an initial set of initiatives focused on tools, resources, and training 
that can have a quick and substantial impact because each builds on 
existing programs. Among the Blueprint initiatives for fiscal year 
2006, NEI will participate in the systematic development of genetically 
engineered mouse strains for research on the nervous system and 
training in neuroimaging and computational biology. NEI will also 
participate with other Institutes in an initiative to provide 
specialized neuroscience resources such as animal model, imaging, gene 
sequencing and screening facilities.
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to respond to any questions you or other members of the 
committee may have.
                                 ______
                                 
    Prepared Statement of Dr. Allen M. Spiegel, Director, National 
        Institute of Diabetes and Digestive and Kidney Diseases

    Mr. Chairman and Members of the Committee: I am pleased to present 
the fiscal year 2006 President's budget request for the National 
Institute of Diabetes and Digestive and Kidney Diseases (NIDDK) a sum 
of $1,872,146,000, which includes $150,000,000 for the Special 
Appropriation for Research on Type 1 Diabetes through Sec. 330B of the 
Public Health Service Act. The NIDDK transfers some of these funds to 
other institutes of the NIH and to the Centers for Disease Control and 
Prevention (CDC). Adjusted for mandatory funds, this is an increase of 
$8,562,000 over the fiscal year 2005 enacted level of $1,863,584,000 
comparable for transfers proposed in the President's request.
    I appreciate the opportunity to testify on behalf of the NIDDK. Our 
Institute supports research to combat a wide range of debilitating 
chronic health problems, including diabetes and other endocrine and 
metabolic diseases; digestive diseases; kidney and urologic diseases; 
blood diseases; and obesity. Through vigorous support of investigator-
initiated research and Institute-initiated efforts, the NIDDK will 
continue to elucidate the fundamental biology underlying health and 
disease and to explore new strategies for disease diagnosis, treatment, 
and ultimately, prevention.

           FROM THE LABORATORY BENCH TO THE PATIENT'S BEDSIDE

    In recent years, ever-advancing technologies have led to an 
explosion of biomedical knowledge. It is imperative that scientists 
harness new discoveries to improve medical care. Thus, in addition to 
supporting critical basic and clinical research, the NIDDK is also 
bolstering ``translational'' research, to accelerate the progression of 
scientific discovery from basic to clinical studies to directly benefit 
patients. In one stage of translational research, insights gained at 
the laboratory ``bench'' spur the design of new strategies for 
prevention or intervention, which investigators then test in clinical 
studies--at the patient ``bedside.'' In a second stage of translational 
research, investigators explore ways to bring successful interventions 
and lifesaving knowledge from the clinical research setting into the 
realm of healthcare practice.
    With the goal of directing NIDDK translational research investments 
to enhance efforts on multiple diseases, I established a Trans-NIDDK 
Translational Research Working Group to identify research obstacles and 
opportunities. The Working Group charted the progression from basic to 
clinical research to medical practice for a number of health conditions 
to identify common themes for future research. These analyses were 
considered by NIDDK's National Advisory Council; external advice was 
also received at other scientific meetings.
    By way of example, translational research relating to the 
assessment of blood sugar (glucose) levels has greatly benefited 
diabetes care. Scientists discovered that levels of a variant of the 
red blood cell protein hemoglobin, called hemoglobin A1c (HbA1c), 
correlate with blood sugar levels. In the 1990s, a landmark NIDDK-
supported clinical trial demonstrated that people with type 1 diabetes 
can reduce the risk of eye, kidney, and nerve complications by lowering 
their HbA1c levels through intensive treatment of blood sugar. As a 
result of this research, target levels for HbA1c were set, thus 
improving patient care by encouraging medical practitioners to use a 
combination of methods to better control blood sugar. This research 
further led to the FDA's acceptance of the HbA1c level as an end-point 
sufficiently robust to define clinical benefit in clinical trials. 
``Biomarkers,'' such as the level of HbA1c, can facilitate clinical 
trials and thus stimulate the development of new therapeutic agents. 
Many new drugs for diabetes have now been FDA-approved based on HbA1c 
as an outcome.
    In another example of successful bench-to-bedside research, NIDDK-
supported investigators elucidated the biological defect responsible 
for the devastating inherited metabolic disease, MPS I; discovered a 
naturally-occurring dog model for the disease; and tested a potential 
therapy in dogs. Following clinical testing, this therapeutic agent is 
now produced by industry and available on the market to treat this 
disease. These two examples illustrate the critical role of NIH 
investment in research from bench-to-bedside. Both also spanned several 
decades from the initial basic research discoveries to clinical 
application. Thus, a critical goal of NIDDK's new translational 
research efforts is to accelerate this process.
    In one planned translational research effort, the NIDDK will pursue 
the development of new biomarkers. Examples of diseases or conditions 
for which such biomarkers would be valuable include acute kidney 
failure, liver and kidney fibrosis, type 1 diabetes, and insulin 
resistance--which is associated with type 2 diabetes. The NIDDK will 
also foster research on biomarkers for interstitial cystitis, including 
the evaluation of a potential diagnostic marker that emerged from prior 
NIDDK-funded research.
    Among other translational research efforts, the NIDDK will 
strengthen research to bring new non-invasive imaging techniques from 
the laboratory to the clinical setting to enhance clinical research on 
liver, pancreatic, kidney, and urologic diseases. The Institute will 
also encourage the development of new animal models suitable for 
preclinical testing of diagnostic, preventive, or therapeutic 
interventions for diseases within NIDDK's mission. Although a wealth of 
information about human biology has been and continues to be gleaned 
from studies of mice and other animals, in many cases existing animal 
models are insufficient for preclinical testing. Other translational 
research efforts are capitalizing on fundamental knowledge about how 
proteins assume their proper structures. This approach, informed by a 
recent NIDDK-sponsored conference, will help propel the search for 
therapies for cystic fibrosis and certain liver and kidney diseases, 
which are caused by defects in protein ``folding'' or ``processing.'' 
Translational research promoted by the NIH Roadmap will synergize with 
these NIDDK efforts to accelerate progress.
    Insights gained from clinical observations can open new avenues for 
basic research studies, which, in turn, will spur new clinical research 
endeavors. Several NIDDK initiatives are fostering increased 
collaboration between basic and clinical researchers, including support 
for ancillary studies to major ongoing NIDDK clinical trials. Such 
studies will also maximize the Institute's investment in these trials. 
As part of our new efforts to enhance our research centers programs, 
the NIDDK will encourage basic and clinical research partnerships to 
take advantage of the opportunities of research centers.
    In addition to the bench-to-bedside research just described, the 
NIDDK is pursuing strategies to best translate successful clinical 
research results from patient study volunteers to the public. These 
efforts include, for example, translating the results of the Diabetes 
Prevention Program (DPP) clinical trial, which demonstrated that people 
at high risk for type 2 diabetes can dramatically reduce risk of 
disease onset through modest weight loss and exercise. To promote these 
positive findings, the NIDDK launched its campaign, ``Small Steps. Big 
Rewards. Prevent Type 2 Diabetes,'' with tailored messages and 
materials developed for ethnic groups at high risk for type 2 diabetes, 
older adults, and a general audience. In parallel, the Institute is 
supporting research demonstration and dissemination projects to explore 
new strategies for effectively translating the DPP results, from 
clinical trial to community. This research includes testing programs 
that target different age groups and minority populations.
    New translation efforts to combat kidney disease are building upon 
the recent finding that even modestly-impaired kidney function 
increases risk of cardiovascular disease and premature death. Avoiding 
these devastating outcomes requires early awareness of kidney disease 
and appropriate treatment. Critically important is detection of 
deterioration in the kidneys' filtering capacity, the glomerular 
filtration rate (GFR). While GFR is difficult to measure directly, it 
can be estimated from routinely measured serum creatinine. The NIDDK's 
National Kidney Disease Education Program (NKDEP) is thus encouraging 
laboratories that measure serum creatinine to provide clinicians with 
GFR values. The NKDEP recently launched an education campaign 
emphasizing the importance of early detection and treatment, and 
targeting this message to primary care providers and those at high risk 
for kidney disease.

          EXAMPLES OF BASIC AND CLINICAL RESEARCH ENHANCEMENTS

    Underscoring a growing health crisis among our Nation's children, 
this past year an NIDDK-supported pilot study of middle school students 
uncovered high levels of the ``metabolic syndrome,'' which is a cluster 
of health problems associated with obesity and increased risk for 
diabetes and cardiovascular disease. To address the health threats 
posed by obesity, we developed and published a Strategic Plan for NIH 
Obesity Research. Informed by extensive input from scientific and lay 
experts, the Strategic Plan was developed by the NIH Obesity Research 
Task Force. Since its inception by the NIH Director, I have had the 
privilege of co-chairing the Task Force with the NHLBI Director, with 
the aims of synergizing and accelerating obesity research across the 
NIH. Consistent with the goals of the Strategic Plan, the NIDDK is 
pursuing a multifaceted obesity research agenda, from basic molecular 
investigations to novel intervention studies to translational research. 
For example, the NIDDK is spearheading a new trans-NIH initiative to 
study how factors such as maternal weight during pregnancy can lead to 
obesity in offspring. This research has important implications for 
public health.
    In the area of digestive diseases, the Action Plan for Liver 
Disease Research has now been published. It was developed through 
NIDDK-led efforts with broad external input from the research, 
professional, and patient-advocacy communities. Examples of the many 
areas addressed by the Action Plan include developing or improving 
therapies for hepatitis C; developing tools for early liver cancer 
detection; and research on living donor liver transplantation. The 
Action Plan will direct new liver disease research; the NIDDK will also 
continue major ongoing clinical studies on hepatitis C; biliary 
atresia, a disease that strikes children; and non-alcoholic 
steatohepatitis, a fatty liver disease.
    The Action Plan for Liver Disease Research is part of a larger 
planning process for research on digestive diseases, which have an 
enormous burden on the U.S. population. For inflammatory bowel disease, 
external advice received in previous planning efforts will continue to 
inform the NIDDK research agenda. New planning efforts will aim to 
strengthen research on irritable bowel syndrome and other functional 
gastrointestinal disorders, which are debilitating and highly prevalent 
but not well understood. Following focused planning efforts relevant to 
gastroparesis, the NIDDK will establish a new clinical research 
consortium to study this debilitating syndrome of nausea, vomiting, 
bloating, and other symptoms which complicates diabetes and other 
diseases.
    In the areas of kidney and urologic diseases, in addition to the 
efforts described earlier, the NIDDK will encourage partnerships to 
pursue promising new therapies for polycystic kidney disease, and will 
launch a new clinical intervention study of children with 
vesicoureteral reflux, a bladder condition which can impair kidney 
function.
    I have highlighted today examples of NIDDK's many and diverse 
research plans and efforts. These reflect our strong commitment to 
improving human health.
    Thank you, Mr. Chairman. I would be pleased to answer any questions 
that the Committee may have.
                                 ______
                                 
Prepared Statement of Dr. Stephen E. Straus, Director, National Center 
               for Complementary and Alternative Medicine

    Mr. Chairman and Members of the Committee: I am pleased to present 
the fiscal year 2006 President's budget request for the National Center 
for Complementary and Alternative Medicine (NCCAM). The fiscal year 
2006 budget includes $122,692,000, an increase of $587,000 over the 
fiscal year 2005 enacted level of $122,105,000 comparable for transfers 
proposed in the President's request.
    In 2004 NCCAM celebrated its first 5 years by reflecting on its 
contributions to the science of complementary and alternative medicine 
(CAM) and crafting a second strategic plan that articulates the 
Center's plans for 2005-2009. The plan is a collaborative effort that 
was developed with extensive input solicited from the public, CAM 
practitioners, and experienced scientific investigators; it articulates 
NCCAM's agenda for researching CAM healing practices, training CAM 
researchers, and conducting outreach.
    It is noteworthy that an independent analysis released in January 
2005 of the major scientific and policy issues surrounding CAM use, 
which was undertaken by conventional and CAM investigators for the 
Institute of Medicine (IOM) of the National Academies, identified many 
of the same research and training priorities as had NCCAM in its 
strategic planning process. The IOM report emphasized that evidence-
based science must inform all health care practices, both conventional 
and CAM.
    In accord with the philosophy articulated by the IOM, scientific 
rigor has been and will remain the foundation upon which NCCAM advances 
its research agenda. In its first 5 years, NCCAM funded more than 1,200 
projects at some 260 CAM and conventional research institutions. The 
results of these projects are being published in leading medical 
journals, affording the public and their health care providers better 
data on which to base decisions on CAM use. The following are a few 
highlights of NCCAM's recent scientific advances, ongoing activities, 
and plans that illustrate the Center's progress and future directions.

                   UNDERSTANDING WHO USES CAM AND WHY

    Understanding who uses CAM and why they do so informs NCCAM's 
research goals, initiatives, and collaborations. In 2004, NCCAM 
reported results based on survey data collected in partnership with the 
Centers for Disease Control and Prevention from more than 31,000 
Americans. The data revealed that 62 percent of survey respondents used 
CAM in 2002. Back pain was the single most common reason respondents 
used CAM, followed by respiratory infections. To track trends in CAM 
use, NCCAM and the CDC have agreed to undertake a followup survey in 
2007. Additional NCCAM-funded survey analyses are also under way to 
examine in greater detail CAM use in diverse minority populations.

                 DETERMINING THE EFFECTS OF ACUPUNCTURE

    Acupuncture is among the top ten most popular CAM practices in the 
United States. In spite of its venerable traditions as a therapeutic 
practice in Asia, scientific research on acupuncture and how it might 
work is a relatively recent phenomenon. The recent report on the 
efficacy of acupuncture for osteoarthritis demonstrates the power and 
promise of the research strategies developed and implemented by NCCAM.
    More than 20 million Americans have osteoarthritis, a frequent 
cause of pain and disability among aging adults. In 2004, NCCAM-funded 
investigators, building on the results of previous smaller studies, 
reported the results of the largest randomized, controlled Phase III 
clinical trial of acupuncture ever conducted. This study of 570 
patients demonstrates that acupuncture is an effective complement to 
conventional treatments in patients with osteoarthritis of the knee.

                      EXPLORING MIND-BODY MEDICINE

    Recognizing the important role of social and behavioral factors in 
illness and health, NCCAM's new strategic plan describes further growth 
in the Center's investments on mind-body medicine for a range of 
diseases. One such study already under way is a clinical trial 
examining the use of meditation to achieve weight loss and enhance 
overall health and well-being among obese men and women. Also, in 2004 
NCCAM funded a mind-body center as part of its research centers 
program.
    To further stimulate the field of mind-body medicine research, 
NCCAM is co-funding an initiative with the NIH Office of Behavioral and 
Social Sciences Research to encourage interdisciplinary collaborations 
to elucidate processes underlying mind-body interactions and health and 
to develop health promotion and disease prevention and treatment 
interventions.

              INVESTIGATING DIETARY SUPPLEMENTS AND FOODS

    As reported in the NCCAM/CDC survey, herbal products are among the 
most popular CAM therapies. Although many believe these products to be 
safe because they are ``natural'' or have been used for centuries, few 
of these products have undergone sufficient study of their safety and 
effectiveness. Research on botanicals is a priority area, and NCCAM 
funds numerous studies ranging from basic laboratory investigations to 
large Phase III clinical trials, to gather data on the nature, safety, 
and efficacy of popular herbal remedies.
    For example, NCCAM supports several interrelated studies of 
cranberries for preventing urinary tract infections (UTIs), which 
afflicts approximately 25 percent of women at least once in their 
lifetime. These include Phase II clinical trials to identify the 
optimal cranberry formulation, dose, and treatment duration in studies 
on UTI prevention as well as other smaller studies on the basic 
mechanisms, pharmacokinetics, and renal clearance of cranberry's major 
chemical components.
    Another priority for NCCAM's dietary supplement research portfolio 
is chronic liver disease, which claimed the lives of more than 20,000 
Americans in 2002 and disproportionately affects minorities. Through 
the Small Business and Innovative Research program, NCCAM supports 
development of a standardized milk thistle product, the most promising 
CAM therapy for liver disease. In collaboration with the National 
Institute of Diabetes and Digestive and Kidney Diseases, NCCAM will 
undertake early phase studies of safety and tolerability of milk 
thistle to determine if a Phase III trial is likely to be successful, 
and if so, the optimal research design for its implementation.
    NCCAM grantees are also examining the potential therapeutic 
properties of foods such as soy--especially as it relates to 
alleviating menopausal symptoms and promoting bone health. Last year 
NCCAM-supported scientists reported that in a study of pain induced by 
bone cancer, soy-fed mice experienced less pain than those in a control 
group. A better understanding of how dietary constituents and plant-
based nutrients moderate pain may yield further treatments to help 
patients with chronic pain.
    Benefiting NCCAM's botanical research agenda is its partnership 
with the NIH Office of Dietary Supplements (ODS). This year NCCAM and 
ODS have renewed their partnership in funding Botanical Research 
Centers to promote interdisciplinary collaborative studies on dietary 
supplements.

           MEETING THE DIVERSE NEEDS OF SELECTED POPULATIONS

    NCCAM has a broad-based research portfolio, reflecting the 
diversity of individuals who use CAM for help in managing an array of 
diseases and conditions. For example, understanding how racial and 
ethnic minorities use CAM is a focus of the Center's research agenda in 
health disparities. Initiatives are under way to examine the interplay 
of race, ethnicity, age, gender, and locale to understand how they 
affect minorities' use of CAM to manage chronic illnesses such as 
diabetes or asthma. Examining these practices will help direct future 
research to answer why specific populations use certain CAM practices--
for cultural reasons, because of access issues, for economic reasons, 
or for effectiveness--which in turn will help health care providers 
better meet the needs of these groups.
    Diseases and conditions predominately affecting the elderly are 
major targets of ongoing investments. For example, NCCAM is supporting 
the largest randomized Phase III clinical trial to date of Ginkgo 
biloba to prevent dementia in the elderly. Cardiovascular disease 
(CVD), the leading cause of death in the United States, is also a 
research priority for NCCAM. Investigations are ongoing of the ability 
of green and black tea extracts (Camellia sinensis) to reduce 
cholesterol absorption and biosynthesis in postmenopausal women and 
patients at high risk for CVD.
    In 2004, NCCAM grantees reported results from a clinical trial in 
children affected with upper respiratory infections (URI). In the 
trial, over 400 healthy 2- to 11-year-olds received a placebo or an 
echinacea product, an herbal identified by the NCCAM/CDC survey as 
widely used, to determine objectively whether it would reduce the 
severity of URIs over the 4-month study period. The researchers 
observed no differences between the two groups in the duration, 
severity, number of days with fever, and rate of adverse events except 
for an increased incidence of rashes in children receiving echinacea. 
Given the widespread use of this product, NCCAM is following up on this 
research, focusing on prevention of infection, which is how echinacea 
is usually taken, and studying the mechanisms by which echinacea may 
have health effects.
    In the wake of the Women's Health Initiative, NCCAM is developing a 
diverse research portfolio to explore use of CAM in treating menopausal 
symptoms, including hot flashes and osteoporosis. Some studies are 
examining the safety and efficacy of a range of CAM modalities women 
now use to treat these symptoms; others address more basic science 
questions, such as a therapy's mechanism of action. NCCAM's research 
portfolio also addresses other important health conditions exclusive to 
women--endometriosis and premenstrual syndrome (PMS)--as well as those 
that affect more women than men, such as UTIs, osteoporosis, 
fibromyalgia, osteoarthritis, breast and other cancers, and 
cardiovascular disease.

                 PARTICIPATING IN TRANS-NIH INITIATIVES

    NCCAM co-chairs a critical component of the NIH Roadmap for Medical 
Research Activity, Reengineering the Clinical Research Enterprise, to 
develop a more effective and cost-efficient model of translational 
research to move basic research into safe, well-designed clinical 
trials. In addition, NCCAM is actively involved in the NIH 
Neurosciences Blueprint, a trans-NIH initiative to accelerate the 
efficiency and pace of neurosciences research. Also, as part of the 
Trans-NIH Obesity Initiative, NCCAM is co-sponsoring efforts on 
childhood obesity and obesity prevention and treatment.

                        CHARTING NCCAM'S FUTURE

    NCCAM has accomplished much in its first 5 years. The first NCCAM-
supported large-scale clinical trials are nearing completion; these 
findings are appearing in the nation's leading medical journals. NCCAM 
also has developed a comprehensive communications program to inform the 
public and health care professionals about CAM research findings. And 
the Center has created new opportunities in CAM research training for 
young scientists and has forged linkages between CAM institutions and 
conventional research centers. With its second strategic plan as a 
guide, NCCAM looks forward to making ongoing contributions as the 
nation's lead CAM research agency.
    Thank you Mr. Chairman. I would be pleased to answer any questions 
that the Committee may have.
                                 ______
                                 
    Prepared Statement of Dr. Lawrence A. Tabak, Director, National 
             Institute of Dental and Craniofacial Research

    Mr. Chairman and Members of the Committee: I am pleased to present 
the President's budget request for the National Institute of Dental and 
Craniofacial Research (NIDCR) for fiscal year 2006. The fiscal year 
2006 budget includes $393,269,000, an increase of $1,440,000 over the 
fiscal year 2005 level of $391,829,000 comparable for transfers 
proposed in the President's Request.

  THE ROAD AHEAD: MERGING SCIENTIFIC VISION AND TECHNOLOGY DEVELOPMENT

    Many of the opportunities that now face our nation's oral health 
researchers have never been more exciting or scientifically 
challenging. For the first time, we can envision a day when early stage 
tooth decay will be reversible with remineralizing solutions that patch 
the tooth and halt the disease process before a filling is required. 
Researchers will soon begin to learn how to engineer teeth and their 
constituent parts in the laboratory and transplant them into the mouth 
to replace a missing tooth or damaged tissue. The day also is 
approaching when saliva will be a reliable diagnostic fluid to detect 
systemic diseases, providing a rapid, non-invasive alternative to 
blood-based tests. These are but a few of the many opportunities that 
await us. And yet, as important as these visions of the future are in 
setting the course toward improved public health, it is abundantly 
clear that the road ahead will be blocked unless we develop new tools 
and technologies for working within the complex microenvironments of 
the human body. It is this merging of scientific vision with technology 
development that the NIDCR is fostering within our nation's oral 
research community and which I would like to highlight.

                EARLY DIAGNOSIS TO PREVENT DENTAL CARIES

    Let me begin with one of the examples just mentioned. Despite 
dramatic reductions in tooth decay in the United States over the last 
half century, dental caries remains a significant public health 
problem, particularly among disadvantaged population groups. Dental 
decay also is an unexpected impediment to timely deployment of military 
personnel. At a time when our nation remains at war, dental readiness 
has been cited in testimony by the Reserve Officers Association as the 
number one deployment problem for National Guard and Reserve members. 
In a 2002 Department of Defense study, 34 percent of military personnel 
required dental care before they could be deployed, compared to only 16 
percent in 1998.
    The NIDCR will soon launch an initiative to evaluate the ability of 
emerging technologies to accurately and reproducibly measure extremely 
subtle changes in dental enamel that signal the earliest phases of 
dental caries. While this initiative may sound highly technical, its 
outcome could play an essential role in transforming dental care. 
Treatments with the potential to remineralize tooth surfaces in the 
very earliest stages of decay, long before a filling is needed, are 
emerging. In anticipation of the required clinical trials to rigorously 
evaluate these treatments, NIDCR will soon launch an initiative to 
ensure that microscopic changes in a tooth's mineral content can be 
measured accurately and reproducibly. Through this enabling research, 
the evaluation of these treatments will be firmly grounded in science, 
ensuring the greatest possible benefit to the public.

                    BIOENGINEERING: BUILDING A TOOTH

    Tooth loss has been a public health problem in the United States 
since the days of George Washington and Thomas Jefferson. Despite 
revolutionary advances in oral health over the last half century, tooth 
loss remains a problem, particularly among disadvantaged groups. In 
addition, tooth agenesis--the lack of one or more permanent teeth--is 
the most common congenital malformation in humans. While dental 
implants or dentures are often effective replacements, science has 
progressed to the point that it may be possible to generate replacement 
teeth from scratch, which would mark a truly historic advance in oral 
healthcare and in our understanding of human biology.
    Whereas just a few years ago tooth regeneration was far beyond the 
reach of science, which is no longer the case. An historic opportunity 
now awaits dental science to learn to seed and reproducibly control the 
complex, tightly orchestrated cellular and molecular interactions 
involved in producing a tooth and its supporting structures. The 
crucial first steps will be to: identify existing gaps in our knowledge 
of tooth formation; pursue viable solutions from throughout the 
biological and physical sciences to bridge these gaps; and, based on 
these comprehensive analyses, formulate blueprints for a complete 
tooth. Relying on the best of these blueprints, interdisciplinary teams 
of scientists will begin the process of engineering replacement teeth. 
It is likely that these investigations will initially yield viable 
replacement parts, such as enamel, dentin or periodontal ligament, but 
the ultimate goal is complete tooth regeneration.

                  LAB ON A CHIP: SALIVARY DIAGNOSTICS

    Another particularly exciting area of research is salivary 
diagnostics. Scientists have long recognized that our saliva serves as 
a ``mirror'' of the body's health, in that it contains the full 
repertoire of proteins, hormones, antibodies, and other molecular 
substances that are frequently measured in standard blood tests to 
monitor health and disease. Saliva is easy to collect and poses none of 
the risks, fears, or ``invasiveness'' of blood tests. The problem has 
been that the needed technologies have not existed to adequately 
develop salivary diagnostics on a large scale.
    The Institute continues to support a major research effort that 
will further develop these needed technologies and create the first 
comprehensive baseline catalogue of all proteins found normally in oral 
fluids. This is the initial step in building the needed scientific 
infrastructure required to expand salivary diagnostics. Already, 
scientists have begun to evaluate which of the myriad gene products in 
saliva correlate with various disease processes.
    The NIDCR envisions that this basic research could one day 
translate into miniature, hi-tech tests, or so-called ``labs'' on a 
silicon chip, which rapidly scan oral fluids for the presence or 
absence of multiple proteins linked to various systemic diseases and 
conditions. Given the ease of sample collection and the breadth of 
protein markers that could be arrayed on the silicon chip, salivary 
tests have the potential to revolutionize how diseases are diagnosed. 
Physicians and dentists would continue to diagnose diseases. But they 
would be in the position for the first time to monitor a patient's 
health, producing a comprehensive molecular print out of that 
individual's health status that can be assessed over time.
    Salivary diagnostics will have benefits far beyond medicine and 
dentistry as well. Law enforcement agencies could employ saliva tests 
in the field to determine rapidly whether a person is intoxicated or 
has recently used illegal drugs. These tests may also be beneficial in 
determining exposures to environmental, occupational, and biological 
substances, such as anthrax.

          ORAL CANCER: EARLY DETECTION IS KEY TO SAVING LIVES

    The field of salivary diagnostics recently yielded exciting early 
findings related to oral cancer detection. According to the American 
Cancer Society and the Centers for Disease Control and Prevention, oral 
cancer is the seventh most common cancer among U.S. males and ranks 
fourth among African American men. Unfortunately, survival rates have 
not improved significantly in decades. A patient's chance of survival 
is improved significantly with early detection and treatment. A team of 
NIDCR-supported scientists at the University of California at Los 
Angeles recently reported that they could measure elevated levels of 
four distinct cancer-associated molecules in saliva and distinguish 
within 91 percent accuracy between healthy people and those diagnosed 
with oral squamous cell carcinoma. This ``proof-of-principle'' study 
marks the first report in the scientific literature that distinct 
patterns of ``messenger RNA'' are not only measurable in saliva, but 
can indicate a developing tumor. These initial results highlight the 
potential clinical value of saliva and hold out exciting possibilities 
for development of commercially available tests capable of delivering 
early, reliable, non-invasive detection of developing tumors.

               PAIN: TRANSLATING TARGETS INTO TREATMENTS

    Sizeable gaps exist in our understanding of some of the most basic 
cells involved in the pain process. Prime examples are the glial cells. 
For decades, scientists assumed that glial cells primarily played a 
supportive role in the central nervous system and had no direct 
influence on the transmission of sensory signals to the brain. But, as 
more powerful analytical molecular tools have emerged in recent years, 
scientists now realize that glial cells play a far more important role 
in pain than was previously appreciated. With this new awareness, it 
becomes imperative to better define the biology of these cells and 
their roles in regulating certain aspects of nervous system function.
    The NIDCR will launch an initiative that will stimulate needed 
research into the basic biology of glial cells and their interactions 
with neurons in causing orofacial pain disorders, such as 
temporomandibular joint disorders. The initiative will encourage 
multidisciplinary studies in a variety of areas to define more broadly 
than ever important aspects of the pain process. Based on this broad 
investigative approach, key aspects of the pain process will be more 
clearly defined, pointing the way to unique and highly specific 
molecular targets for drug development. Without identifying these 
additional targets, it will be impossible to ever adequately control or 
treat pain, particularly among the estimated 10 percent of Americans 
who suffer from chronic pain.

                              NIH ROADMAP

    The NIH Roadmap themes are synergistic with NIDCR research 
initiatives and provide added impetus to the efforts of oral health 
researchers. For example, the theme Re-engineering the Clinical 
Research Enterprise is particularly relevant to the development of 
NIDCR-sponsored dental Practice Based Research Networks. Similarly, the 
goals of the initiative Building Blocks, Biological Pathways and 
Networks are closely linked to NIDCR's own bioengineering initiative, 
``Building a Tooth.'' Research Teams of the Future provides an 
opportunity to further integrate dentists into the new clinical 
research structure, and highlights NIDCR's longstanding efforts to 
encourage multi- and interdisciplinary approaches to research 
questions.
    With the above-mentioned examples and other research progress, such 
as in salivary gene transfer, defining the oral biofilm, and the 
molecular targeting of oral cancer, NIDCR has never faced more exciting 
opportunities. By merging our vision of the future with technology 
development, the road ahead will lead this nation to a new generation 
of progress and improved oral health.
    Thank you, Mr. Chairman. I would be pleased to answer any questions 
that the Committee may have.
                                 ______
                                 
 Prepared Statement of Dr. Jack Whitescarver, Director, Office of AIDS 
                                Research

    Mr. Chairman and Members of the Committee, I am pleased to present 
the fiscal year 2006 President's budget request for the NIH AIDS 
research programs, a sum of $2,932,992,000, which is an increase of 
$12,441,000 above the comparable fiscal year 2005 appropriation.

                           WORLDWIDE PANDEMIC

    AIDS is the deadliest pandemic of modern times. More than 20 
million people have already died of AIDS, and more than 60 million 
people around the world have been infected with HIV. AIDS is the 
leading infectious cause of death worldwide, surpassing tuberculosis 
and malaria.\1\ Its impact is profound, affecting families, 
communities, agriculture, business, healthcare, education, military 
preparedness, and economic growth. The United Nations General 
Assembly's Declaration of Commitment on HIV/AIDS states . . .'' the 
global HIV/AIDS epidemic, through its devastating scale and impact, 
constitutes a global emergency and one of the most formidable 
challenges to human life and dignity, as well as to the effective 
enjoyment of human rights, which undermines social and economic 
development throughout the world and affects all levels of society--
national, community, family, and individual.'' \2\ According to a U.N. 
report, ``The misery and devastation already caused by HIV/AIDS is 
enormous, but it is likely that the future impact will be even greater 
. . . The HIV/AIDS epidemic has erased decades of progress in combating 
mortality and has seriously compromised the living conditions of 
current and future generations.'' \3\ A CIA report estimated that by 
2010, five countries of strategic importance to the United States--
Nigeria, Ethiopia, Russia, India, and China--collectively will have the 
largest number of HIV/AIDS cases on earth.\4\ Foreign Affairs magazine 
stated: ``. . . HIV/AIDS is set to be a factor in the very balance of 
power within Eurasia--and thus in the relationship between Eurasian 
states and the rest of the world.'' \5\ Dramatic increases in HIV 
infection also are occurring in Eastern Europe, Central Asia, Latin 
America, and the Caribbean.
---------------------------------------------------------------------------
    \1\ Report on the Global HIV/AIDS Epidemic: July 2002, (UNAIDS/WHO, 
Geneva, Switzerland, 2002).
    \2\ The Impact of AIDS (Department of Economic and Social Affairs, 
United Nations, 2004).
    \3\ The Impact of AIDS (Department of Economic and Social Affairs, 
United Nations, 2003).
    \4\ Intelligence Community Assessment: The Next Wave of HIV/AIDS: 
Nigeria, Ethiopia, Russia, India, and China. (CIA, 2002).
    \5\ The Future of AIDS, Foreign Affairs, November/December 2002.
---------------------------------------------------------------------------
                           THE U.S. EPIDEMIC

    In the United States, according to CDC, the decline in death rates 
observed in the late 1990s, due largely to expanded use of new 
antiretroviral therapies (ART), has now leveled off. The use of ART has 
now been associated with a serious side effects and long-term 
complications that may have a negative impact on mortality rates. HIV 
infection rates are continuing to climb among women, racial and ethnic 
minorities, young homosexual men, individuals with addictive disorders, 
and people over 50 years of age.\6\ This means that the overall 
epidemic is continuing to expand.\7\ \8\ \9\ CDC reports that 
approximately one quarter of the HIV-infected population in the United 
States also is infected with hepatitis C virus (HCV). HIV/HCV co-
infection is found in 50 to 90 percent of injecting drug users (IDUs). 
HCV progresses more rapidly to liver damage in HIV-infected persons and 
may also impact the course and management of HIV infection, as HIV may 
change the natural history and treatment of HCV.\10\
---------------------------------------------------------------------------
    \6\ Characteristics of Persons Living with AIDS and HIV, 2001, HIV/
AIDS Surveillance Supplemental Report (CDC, 2003).
    \7\ Year-End HIV/AIDS Surveillance Report for 2002 (CDC, 2003).
    \8\ Centers for Disease Control and Prevention HIV Prevention 
Strategic Plan Through 2005, (CDC, 2001).
    \9\ Cases of HIV Infection and AIDS in the United States 2003, HIV/
AIDS Surveillance Report (CDC, 2004).
    \10\ Frequently Asked Questions and Answers about Co infection with 
HIV and Hepatitis C Virus (CDC, 2002).
---------------------------------------------------------------------------
    For the past several years, we have cautioned in our testimony that 
the appearance of multi-drug resistant strains of HIV presents an 
additional serious public health concern.\11\ \12\ \13\ \14\ \15\ In 
just the past few weeks, we have had a new warning about that 
potential. The New York City Health Department reported the possibility 
of a more virulent and aggressive multi-drug resistant HIV strain \16\ 
focusing attention again upon the nature of the infection, the 
associated immune decline, and the behaviors linked to HIV 
transmission. It is too early to determine if this is some newly 
virulent form of HIV. A series of highly sophisticated tests is now 
underway to examine how the virus replicates in cells, as well as the 
efficiency and mechanisms of viral attack. The fact that the individual 
infected by this virus progressed more rapidly to immune decline may be 
reflective of a number of factors, some unrelated to the viral strain, 
such as host factors, native immune system function, or genetics. We 
have much more to learn about this case. However, it highlights a 
number of lessons about the active and ongoing U.S. HIV epidemic. HIV 
infection does not occur in a vacuum or in isolation--it occurs in the 
context of behaviors, including alcohol and drug use (the use of 
crystal methamphetamine in the New York City case), that require a 
contextually appropriate and interwoven response. This case underscores 
the importance of access to quality care that may need to include HIV 
resistance testing, and closer monitoring for immune decompensation in 
the setting of appropriate treatment. Most importantly, this case is a 
wake-up call, a reminder that the ability to interrupt HIV 
transmission, as well as the cycle of pain and suffering associated 
with HIV disease, is directly related to the robustness of HIV care, 
treatment and research infrastructure in the communities impacted by 
this disease. This expanding and evolving U.S. epidemic continues to 
present new and complex scientific challenges.
---------------------------------------------------------------------------
    \11\ N. Loder, Nature 407, 120 (2000).
    \12\ H. Salomon et al., AIDS 14, 17 (2000).
    \13\ Y.K. Chow et al., Nature 361, 650 (1993).
    \14\ M. Waldholz, Drug Resistant HIV Becomes More Widespread, Wall 
Street Journal, 2/5/99.
    \15\ World Health Report on Infectious Diseases: Overcoming 
Antimicrobial Resistance, (WHO, Geneva, 2000).
    \16\ ``New York City Resident Diagnosed with Rare Strain of Multi-
Drug Resistant HIV that Rapidly Progresses to AIDS,'' New York City 
Health Department Press Release 2/11/2005.
---------------------------------------------------------------------------
                     ROADMAP FOR NIH AIDS RESEARCH

    In response to this worldwide crisis, NIH is the world's leader in 
the magnitude and quality of our AIDS research effort--a comprehensive 
program of basic, clinical, and behavioral research on HIV infection, 
its associated co-infections, opportunistic infections, malignancies, 
and other complications. No other disease so thoroughly transcends 
every area of clinical medicine and scientific investigation, crossing 
the boundaries of nearly all of the NIH Institutes and Centers. The 
Office of AIDS Research (OAR) plays a unique role at the NIH, 
establishing a roadmap for the AIDS research program. OAR coordinates 
the scientific, budgetary, and policy elements of the NIH AIDS program, 
prepares an annual comprehensive trans-NIH strategic plan and budget 
for all NIH-sponsored AIDS research; facilitates NIH involvement in 
international AIDS research activities; and identifies and facilitates 
multi-institute participation in priority areas of research. These 
legislative authorities are critical to identify and ensure support for 
the areas of highest scientific priority.

              COMPREHENSIVE AIDS RESEARCH PLAN AND BUDGET

    The OAR planning process is inclusive and collaborative, involving 
the NIH Institutes, eminent non-government experts from academia, 
industry, foundations, and AIDS community representatives. The Plan 
serves as the framework for developing the annual AIDS research budget 
for each Institute and Center, for determining the use of AIDS-
designated dollars, and for tracking and monitoring those expenditures. 
The planning process also serves to monitor and assess scientific 
progress. The Plan establishes the NIH AIDS scientific agenda in the 
areas of: Natural History and Epidemiology; Etiology and Pathogenesis; 
Therapeutics; Vaccines; and Behavioral and Social Science; 
Microbicides; Racial and Ethnic Minorities; Women and Girls; Prevention 
Science; International Research; Training, Infrastructure, and Capacity 
Building; and Information Dissemination.
    In consultation with the Director of NIH, the OAR determines the 
total annual AIDS research budget. The Institutes and Centers submit 
their AIDS budget request to OAR, and the OAR establishes their AIDS 
research budgets, in accordance with the priorities of the Plan, at 
each step of the budget development process.

                 FUNDING FOR HIGHEST PRIORITY RESEARCH

    To develop the fiscal year 2006 request, OAR initiated a 
comprehensive trans-NIH review of all grants and contracts supported 
with AIDS-designated funds to ensure that these projects represent the 
highest scientific priorities and opportunities. OAR carefully reviewed 
the mix of investments in key priority areas of research in view of the 
current epidemic. This budget request reflects OAR's redirecting of 
AIDS funds to the highest priority projects and new scientific 
opportunities in fiscal year 2006.
    This budget request places highest priority on the discovery, 
development, and testing of additional HIV vaccine candidates, 
including funding to move promising vaccine candidates into large-scale 
clinical trials to evaluate the potential for efficacy. The NIH 
priority in AIDS vaccine research to date has resulted in approximately 
70 clinical trials of nearly 40 vaccine candidates. The evaluation of 
an AIDS vaccine will require extensive testing in the United States and 
in international settings where there is a high incidence of HIV.
    In the area of therapeutics research, current drug regimens have 
resulted in extended survival and improved quality of life for many 
HIV-infected individuals in the United States and Western Europe. 
However, a growing proportion of patients receiving therapy are 
demonstrating treatment failure, experiencing serious drug toxicities 
and side effects, and developing drug resistance. The increasing 
incidence of metabolic disorders, cardiovascular complications, major 
organ dysfunction, and physical changes associated with current 
antiretroviral drugs underscores the critical need for new and better 
treatment regimens. Improved regimens also are needed to treat HIV co-
infections such as hepatitis B and C, as well as other opportunistic 
infections to reduce drug interactions and problems with adherence to 
complicated treatment regimens. The goal of this research is to develop 
new, safe, less toxic, less expensive, and more effective therapeutic 
agents and regimens.
    OAR spearheaded a multi-IC inter-disciplinary collaboration to 
formalize plans for the restructuring of the NIH clinical trials 
networks for HIV therapeutics, vaccines and prevention. This effort 
resulted in a set of principles to guide the development of the Request 
for Applications (RFAs) for the re-competition of these essential 
multi-IC supported clinical programs in fiscal year 2006, designed to 
ensure that they operate effectively and cooperatively, making the best 
use of research dollars.
    Our prevention research priorities include the development of 
vaccines, topical microbicides, strategies to prevent mother-to-child 
transmission, including a better understanding of risk associated with 
breast-feeding, management of sexually transmitted diseases (STDs), and 
behavioral research strategies, including interventions related to drug 
and alcohol use. Efforts continue to identify the most appropriate 
intervention strategies for different populations and sub-epidemics in 
the United States and around the world.

                      INTERNATIONAL AIDS RESEARCH

    NIH bears a unique responsibility to address the global epidemic, 
with priority on the urgent need for more affordable and sustainable 
prevention and treatment approaches that can be implemented in 
resource-limited nations. The high incidence of Hepatitis B and C, 
malaria, and TB in many of these nations further complicates the 
treatment and clinical management of HIV-infected individuals. NIH 
international AIDS research includes: development of HIV vaccine 
candidates and chemical and physical barrier methods, such as 
microbicides; behavioral strategies; strategies to prevent mother-to-
child transmission; therapeutics for HIV-related co-infections and 
other conditions; and approaches to using ART in resource-poor 
settings. NIH supports international training programs and initiatives 
that help build research infrastructure and laboratory capacity.

                          WOMEN AND MINORITIES

    In the United States, the rate of diagnoses for African Americans 
was almost 10 times the rate for whites and almost 3 times the rate for 
Hispanics. The rate of AIDS diagnoses for African American women was 25 
times the rate for white women.\17\ Women experience HIV/AIDS 
differently than men. NIH research has demonstrated that women progress 
to AIDS at lower viral load levels and higher CD4 counts than men. 
Women also experience different clinical manifestations and 
complications of HIV disease. These findings may have implications for 
care and treatment of HIV-infected women, particularly with ART. NIH is 
exploring research questions about specific characteristics of women 
and girls that might play a role in transmission, acquisition, or 
resistance to HIV infection during different stages of the life course.
---------------------------------------------------------------------------
    \17\ HIV/AIDS Surveillance Report 2003, Vol. 15 (CDC, 2004).
---------------------------------------------------------------------------
    We are focusing on the need for comprehensive strategies to 
decrease HIV transmission in affected vulnerable populations, and 
improve treatment options and treatment outcomes, including 
interventions that address the co-occurrence of other STDs, hepatitis, 
drug abuse, and mental illness; and interventions that consider the 
role of culture, family, and other social factors in the transmission 
and prevention of these disorders in minority communities. NIH 
continues to make significant investments to improve research 
infrastructure and training opportunities for minorities and will 
continue to ensure the participation of minorities in AIDS clinical 
trials, as well as in natural history, epidemiologic, and prevention 
studies.

                                SUMMARY

    The NIH's leadership role in the response to the AIDS pandemic is 
fundamental and unprecedented, and we have established a research 
program that is complex, comprehensive, multi-disciplinary, inter-
disciplinary, and global. Further, this research investment is reaping 
even greater dividends, as AIDS-related research is also unraveling the 
mysteries surrounding many other infectious, malignant, neurologic, 
autoimmune, and metabolic diseases. The legislative authorities of the 
OAR allow NIH to pursue a united research front against the global AIDS 
epidemic. NIH is enhancing collaboration, minimizing duplication, and 
ensuring that research dollars are invested in the highest priority 
areas of scientific opportunity that will allow NIH to meet its 
scientific goals. We are deeply grateful for the continued support the 
Administration and this Committee have provided to our efforts.

    Senator Specter. Well, that is a good juncture to discuss 
that, Dr. Zerhouni. My colleagues look at the increases in the 
NIH budget and compare them with what is done generally or in 
other research lines, the National Academy of Sciences. NIH has 
gotten a much greater increase than anyone, and I think that's 
because this subcommittee has taken an interest in the subject 
and we have seen what you can do.
    How can you quantify the good use of the money? Because 
many of my colleagues say, well, we don't know the details of 
NIH, but they've gotten too much money too fast to be 
efficient. Are you efficient?
    Dr. Zerhouni. Well, this is----
    Senator Specter. I know what the answer's going to be, but 
tell me why it's yes.
    Dr. Zerhouni. I'm going to give you very simple numbers, 
sir. I believe in facts. Are we efficient? Do we have too 
much--have we received too many resources? $96 per American per 
year is what we invest in research and development and 
knowledge faced to a $5,500 per year spending in health care, 
rising at a much faster rate than inflation.
    This ratio is really the key. We need to accelerate our 
knowledge so that we can change the paradigm of how we treat 
patients today. It would be more effective if we could develop 
methods of intervening years before the disease develops, 
rather than do what we do today, which is intervene after the 
disease has struck.
    Senator Specter. Give me an illustration of that.

                RESULTS FROM ACCELERATING OUR KNOWLEDGE

    Dr. Zerhouni. A good illustration of that, I showed you the 
statistics on heart disease. You've seen how the mortality has 
dropped. That's because we've used as a preventive measure 
drugs that reduce high blood pressure and drugs that reduce 
cholesterol. Those two actions have led to a half of the 
reduction in mortality. That's a good example.
    In stroke, we've reduced the mortality of stroke by 50 
percent, just because we've used methods to reduce the impact 
of high blood pressure.
    In cancer, screening for cancer, in colon cancers, is 
responsible for the majority of the reduction in mortality from 
colon cancer. So there are things we can do as we learn more 
about the genetics----
    Senator Specter. Would you amplify your response on cancer?
    Dr. Zerhouni. Well, in cancer you can see, for example, in 
breast cancer--I'll give you one example in breast cancer--with 
the use of tamoxifan and the use of new drugs, we've reduced 
the occurrence, the reoccurrence of breast cancer by 50 
percent. We believe that in high risk populations, as we can 
identify them, and the National Cancer Institute is working on 
these factors, we'll be able to ultimately reduce the number of 
patients altogether who develop cancer. The same is true in 
colon cancer.
    Senator Specter. How will you do that?
    Dr. Zerhouni. Primarily by understanding----
    Senator Specter. Why haven't you done it before now?
    Dr. Zerhouni. I think we did not know the genetics of 
breast cancer or colon cancer until 10, 15 years ago. We 
started to know it, and our knowledge has accelerated over the 
past 5, 6 years with the completion of the human genome. We are 
continuing our efforts with the understanding of the genetic 
map and the continuing efforts and investments that NCI has put 
in understanding the genetics of cancer. That's the knowledge 
that allows us to do that.
    Senator Specter. On this subject, we have with us today Dr. 
Andrew von Eschenbach, who's the director of the National 
Cancer Institute. Dr. von Eschenbach, would you step forward?
    I might comment on the number of witnesses we had here 
because I had set at the outset that we have not followed the 
customary practice of having all of the directors where we 
couldn't possibly question more than 20 people who work in 
attendance. But Dr. Zerhouni and Dr. von Eschenbach are 
presidential appointees, and Dr. Zerhouni requested bringing 
Dr. Anthony Fauci and Dr. Allen Spiegel because of questions 
which might arise, and then we have added in, as I said 
earlier, Dr. James Battey because of the currency of an issue 
which has arisen on the application of the new ethics rules.
    Dr. von Eschenbach.
    Dr. von Eschenbach. Yes, sir.

                           THE WAR ON CANCER

    Senator Specter. You have the largest allocation in the 
National Institutes of Health, coming close to almost $5 
billion. President Nixon declared war on cancer in 1970. 
Thirty-five years have passed and we've won some wars, but not 
that one. What will it take to win that war?
    Dr. von Eschenbach. Well, Mr. Chairman, first of all, the 
wisdom and the support that we have received at the National 
Cancer Institute from the Congress in providing the resources 
has led us to a point where in 1971 when we began this effort 
we did not understand cancer. We didn't understand that it was 
a spectrum of diseases, and we certainly didn't understand the 
basis of that disease. But today----
    Senator Specter. A spectrum of diseases?
    Dr. von Eschenbach. Yes, sir.
    Senator Specter. How many roughly?
    Dr. von Eschenbach. Well, there are certainly a large 
number of cancers, but what we're learning even today is that 
even when we think of one cancer like breast cancer or 
lymphoma, or even colon cancer, there are subsets of those 
cancers because of the fact that there are unique, different 
changes in the genes and the molecules that cause and drive 
that cancer----

                                LYMPHOMA

    Senator Specter. How many subsets of lymphoma? I have a 
special interest.
    Dr. von Eschenbach. There are two major subsets of 
Hodgkin's and non-Hodgkin's lymphomas. But even within those 
groups, even as we speak, we are learning that there are 
subsets----
    Senator Specter. Subsets within Hodgkin's lymphoma?
    Dr. von Eschenbach. Correct, sir, and especially in non-
Hodgkin's lymphomas. For example----
    Senator Specter. But how about subsets in Hodgkin's 
lymphoma? You'll pardon my special interest.
    Dr. von Eschenbach. Yes, sir. If you allow me, one of the 
ways that we're beginning to understand even what we think is a 
single disease of Hodgkin's lymphoma is to recognize that in 
different patients that lymphoma may have different molecules 
or proteins on the surface of the cell that cause it to behave 
differently and respond differently to different therapies or 
interventions.
    For example, a recent drug that has been created is a drug 
that can attach itself to those proteins on the surface of the 
cell. One of those proteins is CD-20, an antibody. So if we can 
look at a Hodgkin's tumor and determine whether the antibody is 
present or not, we can then design and apply specific therapy 
for that specific patient.

                          RETURN ON INVESTMENT

    To follow up on the question of the return on investment, 
this investment in cancer research that has led us to a point 
today where we're beginning to understand cancers at the 
molecular and genetic and cellular level is influencing our 
selection of therapy and moving us to personalized medicine and 
personalized oncology.
    We're sparing patients unnecessary treatments that we can 
predict will not help them, while at the same time making 
certain we're giving patients the specific and exact therapy 
that we can predict and know at the molecular level will help 
them.
    This drug I alluded to that's recently been released, 
Bexxar, combines the knowledge of that antibody, of CD-20, in a 
group of other lymphomas, non-Hodgkin's lymphomas, called 
follicular lymphoma. By identifying that antibody and coupling 
to it a radioactive material, we can target those lymphoma 
cells, and patients who were previously considered incurable 
now have a 75 percent complete response rate in elimination of 
their tumor.
    Senator Specter. Before yielding to Senator Cochran, the 
distinguished chairman of the full committee I want to ask you 
one more question, Dr. Zerhouni, and you one more question, Dr. 
von Eschenbach. If we have a flat-level funding for NIH this 
year, how many grants will you have to reduce because of 
inflationary factors and other factors, contrasted with what 
you could do if we were able to get the extra $1.5 billion 
which is in the budget resolution?

                             SUCCESS RATES

    Dr. Zerhouni. The total number of grants will decrease by 
about 400 total. As I said, we were going to make a special 
effort to increase the number of grants for new investigators 
or what we call competing investigators so that----
    Senator Specter. With the extra $1.5 billion, then what?
    Dr. Zerhouni. We could reestablish--you know, one of the 
things you said that is very important that we hear a lot is 
NIH has too much money, it cannot spend any more money. The 
best statistics I can give you is we are getting more and more 
ideas we cannot fund, and our success rate is actually 
dropping. I'll show you some statistics here that you can see, 
and we were at about 32 percent a few years back to 30 percent 
to 25, 22, and eventually we will reach 21 percent in 2006. 
With----
    Senator Specter. Of grants on applications, percentage that 
you grant?
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Dr. Zerhouni. By those number of scientists we can fund 
when they apply, one in five, or a little bit above that. So 
clearly anything we could do to reestablish the ability of 
fulfill and satisfy the scientific demand would be helpful. 
However, we recognize as you did the very, very difficult 
fiscal times we're in.

                       FUNDING THE WAR ON CANCER

    Senator Specter. Dr. von Eschenbach.
    Dr. von Eschenbach. Yes, sir.
    Senator Specter. With sufficient funding, can we win the 
war on cancer in the reasonably near future?
    Dr. von Eschenbach. Senator, we have made a commitment at 
the National Cancer Institute to eliminate the suffering and 
death that results from cancer, to eliminate the outcome of 
cancer, and to bring that about as early as 2015 in this 
Nation. We have made that commitment because we believe that 
this investment that has been made in cancer research has led 
us to a point today where we can build on our understanding of 
cancer and use that knowledge to develop new and more effective 
interventions that can in fact achieve the goal----
    Senator Specter. Do you have sufficient funding to reach 
that goal by 2015?
    Dr. von Eschenbach. The funding that we have we are 
applying as effectively and as efficiently as possible to 
achieve that trajectory. Obviously, with increase resources we 
have increasing opportunities to even further accelerate that 
pace of progress.
    Senator Specter. If your funding were increased, could you 
reduce that date to 2010?
    Dr. von Eschenbach. We certainly could accelerate the pace 
of progress, and how quickly and how soon we could bring that 
about, I could not absolutely predict.
    Senator Specter. I would like you to give that some thought 
and provide the subcommittee with a projection as to what kind 
of funding you would require to reduce the figure to 2010. A 
lot of people are going to have a lot of suffering in those 
other 5 years.
    Dr. von Eschenbach. Yes, sir.
    Senator Specter. Really in the 5 years from now until 2010.
    [The information follows:]

                       National Cancer Institute

    What would it take to accelerate the achievement of the NCI's 2015 
goal to eliminate suffering and death due to cancer from 2015 to 2010?
    You have requested information on the amount of money necessary for 
the National Cancer Institute (NCI) to achieve its 2015 goal by 2010. 
It should be noted, though, that these funding estimates for additional 
resources were developed without taking into consideration overall 
fiscal constraints and other competing priorities of NIH, HHS, or the 
rest of the Federal government over this five-year time period. The 
current annual NCI budget is nearly $5 billion, and the resources 
discussed below would be in addition to this base.
    NCI has established an ambitious goal of eliminating the suffering 
and death due to cancer by 2015 by sustaining and integrating progress 
in the discovery, development, and delivery of more effective 
interventions based on molecular mechanisms of cancer. We estimate that 
expenditure of an additional $4.2 billion above the NCI base of nearly 
$5 billion over the next five years could accelerate progress. While 
the elimination of suffering and death due to cancer may not be fully 
achievable by 2010, there would be significant progress toward 
narrowing the gap between 2015 and 2010.
    This $4.2 billion estimate reflects an additional up front 
allocation of $2.5 billion to be expended over five years for a 
National Advanced Technology Initiative for cancer (NATIc) to 
accelerate the emerging disciplines of molecular oncology, 
nanotechnology, and bioinformatics for use in creating a pipeline of 
new personalized cancer diagnostics and therapeutics. This would also 
reflect an annual increase of $171 million over current base NCI levels 
for five years to deploy a modern integrated cancer clinical trials 
infrastructure and an annual increase of $164 million for five years to 
expand and integrate the NCI-designated Cancer Centers program from 60 
existing centers to 75. In addition to resources, additional 
legislative authorities related to exemptions from specific parts of 
current procurement, grant review and processing, and licensing and 
patenting rules would also help speed progress toward an accelerated 
cancer goal.
    Three decades ago there were 3 million U.S. cancer survivors; today 
that number has increased to over 10 million. Today, each minute of 
every hour of every day, one American dies from cancer: 570,280 lives 
will be lost this year due to this disease. Despite this fact, there 
has been remarkable progress in understanding the cancer process and 
applying that knowledge. Today, 65 percent of patients diagnosed with 
cancer can expect to survive. If we had the ability to apply what we 
know today to every cancer patient, we could have an immediate impact 
on survival, largely through the NCI Cancer Centers. Incremental 
improvements in survival will continue toward our 2015 goal, but we can 
accelerate these gains. Even improving the overall survival rate to 90 
percent by 2010 could mean an additional 850,000 lives saved. The 
impact of this strategy could produce annual changes in the first two 
years of around 2-3 percent, with larger increases occurring in 2008-
10.
    For most cancer patients, survival is greatly influenced by early 
detection. The rapid deployment of advanced imaging, nanotechnology 
supported early detection platforms and targeted therapies will change 
the face of diseases such as ovarian cancer, lung, colon and breast 
cancers; where survival is low because we can not currently detect them 
before they spread. Ovarian cancer, which is very difficult to detect 
and diagnose in its early stages, has over 25,000 new cases diagnosed 
annually and over 14,000 deaths; the mortality rate is nearly 85 
percent. Imaging and detection techniques presently under development 
and broadly applied could reverse that mortality rate to be an 85 
percent survival rate. Lung cancer, with approximately 170,000 expected 
deaths this year, would see a significant reduction in the number of 
deaths if the application of new technologies combined with other 
interventions could be universally applied in an accelerated manner.
    The challenge to achieving the goal of eliminating the suffering 
and death due to cancer by 2010 is daunting, but with the authorities 
and appropriations commensurate with the task, the pace of progress 
could be accelerated, and the gap between 2015 and 2010 narrowed. The 
following reflects a brief overview of how such funds, if available, 
could be applied.
  --Rapid Deployment of a National Advanced Technology Initiative for 
        cancer--$2.5 billion one time appropriation with commensurate 
        authorities.
  --Deployment of a Modern Integrated Clinical Trials Infrastructure--
        $171 million addition to the NCI base budget.
  --Expansion and Integration of the Cancer Centers Program--$164 
        million addition to the NCI base budget.
  --Mechanisms and Flexibilities--streamlined procurement and review 
        processes to acquire materials and services; coordination of 
        licensing and patenting activities.
    A National Advanced Technology Initiative for cancer (NATIc) could 
provide a linkage between the National Cancer Program and R&D 
initiatives being developed in selected National Laboratories and 
advanced technology facilities located in more than 40 states and 
regions. Connected in real time through a common bioinformatics grid, 
NATIc as a ``network of networks'' of science, technology, and 
treatment, could serve to accelerate the emerging discipline of 
molecular oncology to create a pipeline of new personalized cancer 
diagnostics and therapeutics from bench concept to bedside and 
community delivery. In the next few years, such an initiative could:
  --Accelerate the implementation of a nationwide high-end information 
        technology grid for bioinformatics that could be uniquely 
        adapted for real time data sharing. NCI's pilot version, called 
        caBIG, is currently being implemented among 50 cancer centers, 
        the Food and Drug Administration (FDA), and other 
        organizations.
  --Develop a comprehensive biomarker discovery and validation program.
  --Foster the application of emerging technologies, such as 
        nanotechnology, and integrate molecular agents with advanced 
        imaging devices.
  --Accelerate a nationwide ``real time'' medical information 
        electronic system for research and medical data sharing using 
        technologies and devices currently employed by the banking 
        industry and large-scale commercial enterprises.
  --Enhance the discovery and validation of new targets of genes and 
        proteins critical to cancer development.
    NCI could deploy a more modem and integrated infrastructure for 
cancer clinical trials. This clinical research infrastructure could:
  --Strengthen collaborations with industry, FDA, Centers for Medicare 
        and Medicaid Services, and other public, private, academic, and 
        patient advocacy organizations to oversee the conduct of cancer 
        clinical trials.
  --Develop new infrastructure and procedures to standardize, 
        coordinate, and track clinical trials development and accrual 
        across all NCI-supported clinical trials.
  --Increase utilization of imaging tools in screening and therapy 
        trials, evaluate new imaging probes and methodologies, enable 
        access to the imaging data from trials in an electronic format, 
        and facilitate evaluation of image-guided interventions.
  --Expand access and improve the timeliness for completion of the 
        highest priority clinical studies.
  --Foster the development of a cadre of established clinical 
        investigators who could work between bench and bedside.
  --Pilot new approaches and develop prototypes for clinical trials 
        networks that could improve the efficiency, coordination, and 
        integration of our national efforts.
  --Develop a common clinical trials informatics platform that could be 
        made available to the full range of investigators working 
        within the cancer clinical trials system.
    NCI could accelerate the expansion and integration of the NCI 
designated Cancer Centers program, including the addition of 15 new 
cancer centers, increasing the number of centers from the current 60 to 
75. The Cancer Centers program could:
  --Implement progressive bioinformatics and communication systems to 
        achieve horizontal integration.
  --Fund additive programs in collaborative, multidisciplinary 
        research, and require integration and sharing of results.
  --Broaden the geographic impact of the centers, networks, and 
        consortia and vertically integrate them with community and 
        regional health care delivery systems.
  --Improve the access of minority and underserved populations to 
        state-of-the-art research and resources.
  --Create and strengthen partnerships with government agencies and 
        community organizations.
  --Broadly provide expertise, and other resources to caregivers, 
        patients and families, and appropriate health agencies.
    In addition to appropriations, flexible legislative authorities 
related to exemptions from specific parts of current procurement, grant 
review and processing, and licensing and patenting rules could also 
help accelerate progress. A streamlined procurement process could 
facilitate the acquisition of materials and services to support the R&D 
activities. Technology development could also be enhanced by sufficient 
flexibility and integration to enable interactions among a wide array 
of laboratories and other entities. Expedited review procedures and 
workflow processing could help to award funds in sequence as needed. 
This might include direct solicitation from known laboratories or other 
sources of technology, and capability to terminate funding instruments 
at the convenience of the government with limited appeal processes so 
that funds could be redirected from low performing consortia to the 
more productive venues.
    Coordination of the licensing and patenting activities among 
grantees, contractors and the intramural program could also be useful 
for many of the multi-component technology platforms that could be 
created through this effort. An accelerated process for Determination 
of Exceptional Circumstances (DEC) and deviations from appropriate 
Federal Acquisition Regulation (FAR) clauses, when deemed valuable to 
the broad research enterprise, could be utilized.

    Senator Specter. Senator Cochran, thank you for joining the 
subcommittee.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much. We 
appreciate you chairing this hearing and also inviting Dr. 
Zerhouni and selected members of the National Institutes of 
Health staff who can help us understand the budget request and 
do our best to identify the areas that need emphasis in this 
budget. We appreciate your leadership on this subcommittee and 
on the full committee as well.
    I notice that the budget request is $144.5 million over 
last year's appropriate level for the National Institutes of 
Health. I'm hopeful that that will permit the NIH to continue 
its research into health disparities, examining why a 
disproportionate number of African-Americans, for example, 
suffer from heart disease than the rest of the population. I 
think taking the research to the underserved areas of our 
country is beneficial. I hope you can let us know what your 
reaction to that initiative is at this point and what you 
foresee in terms of the needs for funding will be.
    I think I'll stop at that point and let you respond, and I 
then have a couple of other questions.

                     STRATEGIC GOALS AND OBJECTIVES

    Dr. Zerhouni. Those points are absolutely on target, 
Senator. As you know, we have five major goals that we have 
outlined in our strategic plans. One is aging of the 
population, the change from acute to chronic diseases. The 
third one is health disparity, not in any particular order. 
Those are amongst the five. And then we have biodefense and 
emerging and re-emerging diseases, including, for example, 
obesity.
    We're acutely aware of the disparate impact of these 
conditions on the American population. As you know, we have the 
vanguard study in the Jackson heart study that in fact studies 
how to do this better. As part of the Roadmap for Medical 
Research, we are also developing the idea of a community-based 
corps of clinical researchers that will be included within the 
underserved areas of the country and connected through a better 
information system, so that more patients in those communities 
can participate.
    A good example of that, Senator, was the ALLHAT study, 
which was the study of hypertension conducted in over 600 
practices. A great majority of the practices were in African-
American communities and showing which drugs were the most 
effective in those populations.
    So we will continue that. I think the investment needs to 
be continued, Senator. This is not an easy problem to tackle, 
but we need to look forward to more activities that will 
integrate the main research that we do with the research that 
needs to be done in those communities.

                COMPLEMENTARY AND ALTERNATIVE MEDICINES

    Senator Cochran. One other interesting new area of inquiry 
for the National Institutes of Health is in the area of dietary 
supplements and herbal products. There is a growing number of 
Americans using these supplements and products. The National 
Center for Complementary and Alternative Medicines is playing a 
role in helping us understand the effects of that activity and 
the use of those products.
    What are the current research needs or priorities in terms 
of this budget request that we need to consider when we are 
reviewing the request and deciding on the amounts to 
appropriate?
    Dr. Zerhouni. First and foremost is your statement about 
the increasing use of dietary supplements across our population 
is real. Herbal products are becoming very popular. One of the 
things we need to do as scientists is to figure out whether or 
not these products are of equal effectiveness across their 
compositions. So we need to have more research done in exactly 
how to make these herbal products reliable and safe.
    We are doing that at NCCAM. We verify the purity of these 
herbal products. We also have trials verifying their 
effectiveness. This year NCCAM and the Office of Dietary 
Supplements are going to fund five new botanical research 
centers across the country. There is a request for applications 
that has gone out. We've received the applications. So we'll 
have at least an infrastructure now of five centers that will 
look exactly at these issues of how do you really make sure 
that when you buy a particular product it's effective for what 
you think it is effective for.
    Senator Cochran. My final question has to do with the role 
for new technologies in the detection and treatment of disease. 
For example, the National Institute for Biomedical Imaging and 
Bioengineering was created specifically to enhance research on 
these technologies across the NIH Institutes. What budget 
levels are needed for this work to be done and to improve the 
rate of discovery in biomedical research across the Institutes 
and increase the development of new tools for diagnosis and 
treatment in clinical practice?

      NATIONAL INSTITUTE FOR BIOMEDICAL IMAGING AND BIOENGINEERING

    Dr. Zerhouni. This is newest Institute, as you all know, 
that is essentially going through its strategic first steps. It 
is the only Institute that has for a mission the interaction of 
technologies, physical sciences, biological sciences, in the 
context of bioengineering or biomedical imaging. In that 
regard, it is very important to continue to invest, because as 
we see, you know, when we look at detection, for example, of 
new diseases, new technologies to do research, it's becoming 
very apparent that we need to make specific investments in 
those areas if we are going to make progress in both detection 
and therapy.
    For example, nanotechnology is a good example whereby you 
can through nanotechnology techniques concentrate energy inside 
a tumor and treat a tumor in a way that you couldn't otherwise. 
NIBIB is key to that interface. It's taken a role, a lead role, 
in matching physical sciences and biological sciences at NIH, 
works with the National Institute of General Medical Sciences.
    Obviously, the budgetary environment is such that they have 
to make very tough choices in terms of prioritization. But from 
my standpoint, Senator, emerging research technologies, I see 
that and we've identified in the Roadmap for Medical Research, 
as a major area of investment. In the past, biomedical 
researchers tended to wait for technology to be developed and 
then used it off the shelf, whether it be computers or robotics 
or other technologies.
    In the future, as we are going to areas of research that 
are only specific to medical research, no one in the free 
market is going to develop an off-the-shelf technology that 
will have just application to medicine. And therefore, NIBIB's 
strategic role has to increase over time, and all of NIH's 
investment in that area.
    Senator Cochran. Thank you very much. I appreciate your 
leadership in these areas that I've touched on and generally at 
NIH. I think you're doing a great job and we appreciate your 
service.
    Dr. Zerhouni. Thank you, Senator.
    Senator Specter. Thank you very much, Senator Cochran. I'm 
now going to yield to the distinguished ranking member, Senator 
Harkin. I'm going to go vote and I will return promptly so we 
can maintain the continuity of the hearing.
    Senator Harkin [presiding]. Thank you very much, Dr. 
Zerhouni.
    Dr. Zerhouni. Good morning.
    Senator Harkin. I apologize for being a little late for 
your presentation. Obviously we all have a lot of committees we 
have to go to. But I just wanted to make a brief opening 
statement and welcome you back and the others back.
    As you know, Dr. Zerhouni, both Senator Specter and I have 
been very strong supporters of NIH and funding. We've partnered 
in doubling the funding for NIH over 5 years. We got that job 
done. It was one of my proudest moments as a Senator to 
actually get that accomplished.
    Yet as I look at the President's budget for 2006, it's with 
a sense of disappointment. We didn't double the funding for NIH 
to then have the bones cut out of the funding. But that's what 
it seems is happening. This budget would provide the smallest 
percentage increase since 1970, .5 percent. The total number of 
grants would drop by 402. Most importantly, the success rate 
for new and competing grants would fall to 21 percent. I have 
the table here. I guess you put it up here. I missed it, but my 
staff told me you put it up here. Twenty-one percent, that's 
the lowest since 1970, and that's as far back as our records 
go, 21 percent. This is very disturbing.
    Our scientists have just mapped the human genome. We should 
be entering a golden age of medical research. Scientists should 
be flocking to this field. It's the wrong time to hold this 
budget flat.
    I'm also troubled by other developments. Top researchers 
are leaving NIH. Recruitment is suffering because of new 
conflict of interest regulations. While I strongly support 
restrictions on outside compensation, I am concerned that the 
new regulations go too far, Dr. Zerhouni, especially when it 
comes to requiring employees to divest stocks that they've had 
for many years.
    I just, as an aside, ran into a woman yesterday, just 
yesterday afternoon. The AACI group had a reception yesterday 
and I was just talking to a woman. I mentioned this hearing and 
she mentioned how it was her sister, I believe, was a 
researcher at the National Institute of Environmental Health 
Sciences in North Carolina, had been there for a long time, is 
leaving because through the years she said the most income she 
and her husband ever had was $125,000 a year. Lately, because 
she's worked all these years, she bought some stock early on, 
that's her retirement, that's for her kids going to college, 
and according to her--I don't know, I'm just telling you what 
she told me--she has zero input to any kind of drugs or drug 
companies or anything. Yet she's told she's got to divest that 
stock. You know what? She's leaving. That's wrong. That's 
wrong. We've got to change this, Dr. Zerhouni. We've got to 
change this.
    I look forward to working with you and I'll have some more 
questions about that.
    Jim Battey, who's leaving, has been a great researcher, 
great leader. I've worked with him on deafness and 
communication disorders. As I understand it--I don't mean to 
get into all this personal stuff--but I understand there's a 
family trust set up that he has to administer and stuff like 
that, and he has to leave because of this. This isn't right. We 
have to have a change and we have to have a change soon, 
immediately.
    Now, let me just switch to something else, and that's the 
whole issue of stem cell research. The administration's 
outdated policy on stem cells is making NIH increasingly 
irrelevant in one of the most exciting areas of research today. 
We know about California putting in $300 million a year. NIH is 
spending less than one-tenth of that amount, NIH one-tenth the 
amount of one State. Inevitably, researchers are going to look 
to individual States for direction on stem cell research 
instead of the NIH.
    What's happening to NIH? Is it just a shell of its former 
self? It's supposed to be the greatest biomedical research 
institution in the world. I'm beginning to wonder.
    Our federally funded scientists are on the front lines in 
the war against cancer and heart disease, diabetes, on down the 
line. To me there is no higher priority in this appropriations 
bill than funding NIH at an adequate level.
    So that's my opening statement and I just want to return to 
the conflict of interest rules. Now, you know I have the 
greatest personal admiration for you and friendship. I think 
you're doing a great job in leading the institution. But I must 
chastise you. These are too onerous. They've got to be redone, 
and they've got to be redone soon before you start losing more 
people out of there. I mean, you know, sometimes we tend to see 
a conflict of interest and we go overboard, and I think we've 
gone overboard here.
    So I'm just asking, are you prepared to recommend to HHS 
that the Department issue new revised regulations that won't 
hurt NIH's ability to retain and attract top scientists?

                   PENDING CONFLICT OF INTEREST RULES

    Dr. Zerhouni. Well, I'm glad you asked the question, 
because as you know, this has been a painful episode for NIH 
where we've looked at several hundred issues that came up 
through the activities of scientists for private pay with 
biotech and pharmaceutical companies, as you were concerned 
about. From my standpoint it was very important to take care of 
that issue, and we did.
    We proposed the moratorium because I think there were two 
reasons there that prompted me to do that. One was the fact 
that there were activities there that truly did not advance 
research. They were more into the marketing and product 
endorsement activities. I thought that we needed new 
guidelines. Second, I believed that our management system of 
ethics was not functional, and to establish a new one, to re-
centralize it, takes a while.
    Now, you should know that these rules and regulations are 
not under my direct authority.
    Senator Harkin. I understand.
    Dr. Zerhouni. They are those of----
    Senator Harkin. I misspoke. It's HHS.
    Dr. Zerhouni [continuing]. HHS and the Office of Government 
Ethics. We've consulted with them and indicated to them that 
some of the applications may need to be tested on the ground. 
That's why we insisted that these be called interim final 
regulations and they be subject to comments and evaluation and 
adjustments. I have to say that I'm as concerned as you are.
    Remember that at this point the most impact I have seen, 
because the rules have not been implemented in terms of stock 
divestiture, is the impact on families and the impact on all of 
the employees that would be required to divest of stock. That 
part of the rule frankly is the one that I think we need to 
reevaluate very quickly, as you said. I have requested a delay 
in the application of this rule from Secretary Leavitt, who's 
been extremely responsive and extremely concerned about any 
impact.
    In the preamble to the rule, as you may know, we have 
stated very clearly that the Department and NIH will carefully 
look at the impact on retention and recruitment and the impact 
on the activities of our scientists in terms of outside 
activities.
    So we are totally prepared to look at that, I am totally 
prepared to look at that, and request from those who have the 
authority--the Office of Government Ethics and the Department--
to consider changes. So far I would say that, number one, we've 
had a responsive interaction. Number one, we've had a 90-day 
delay, and no one has been asked to divest at this point.
    But nonetheless, the uncertainty itself can be damaging to 
morale and damaging to recruitment and retention. You've 
mentioned the example of Dr. Battey, who's a very good 
colleague of mine, an outstanding scientist, and I understand 
very much his predicament and I've made that known to the 
Secretary and to the Department.
    There's another case, as you know. I've taken a lot of time 
and effort in recruiting outstanding directors. When I became 
director there were six vacancies and two others. I was very 
proud of the fact that we've been able to recruit outstanding 
directors from outside of the NIH and inside of the NIH. The 
latest one was Dr. David Schwartz from Duke University, who 
last week sent me a letter saying that he was delaying his 
coming until this issue of stock divestiture is clarified.
    So I feel the same way you do in the sense that the 
philosophy of the interim regulation as promulgated by those 
who promulgated that with our consultation is in my view one 
that would be more appropriate for a regulatory agency rather 
than a scientific agency, and does require in my view more 
selective approaches rather than these approaches.
    I think the Department has been responsive. As you may 
know, the Department has excluded trainees from these rules. 
That's over 5,000 scientists who are not subject to these 
rules. However, we've also encouraged our scientists at NIH to 
come forward. I've had multiple meetings with scientists who 
are very concerned about this, and gotten their comments, and 
based on those comments we'll adjust accordingly.
    So I share your concern and I do believe that, as you will 
see, we will be adjusting accordingly to correct for that 
issue, which I think is the one that is at the core of the 
complaints that you've heard. But also I am concerned about any 
impediments that free academic exchange might incur because--
with trade associations--because of this over-regulatory 
interpretation of what NIH does. I don't think NIH has the 
influence of a regulatory agency, and I think as we go through 
the evaluation comment period, you will see improvements in 
that, Senator.
    Senator Harkin. I appreciate that and I apologize for 
misstating. Sometimes I look out there I just see HHS, and I 
said--I meant not you but the whole Department----
    Dr. Zerhouni. It's okay. I'm used to it.
    Senator Harkin. The whole Department for what they did. But 
we----
    Dr. Zerhouni. I'll take responsibility for----
    Senator Harkin. We've got to settle this. I'm sorry. I've 
got to go vote, and I assume Senator Specter will be right 
back, and so the committee will stand in recess until the chair 
gets back.
    Dr. Zerhouni. Thank you.
    Senator Specter [presiding]. The hearing of the 
Appropriations Subcommittee on Labor, Health, Human Services, 
and Education will now proceed.
    Dr. Zerhouni, at the outset I thanked you for the 
assistance which NIH has provided on an arrangement with the 
Institute of Medicine to fund an examination of certain areas 
of asbestos-related injuries. We are trying to put through an 
asbestos bill and there is a question as to whether there is a 
causal connection between asbestos and certain ailments, and 
the Institute of Medicine has agreed to expedite a study in the 
course of 1 year. I worked with Dr. Raynard Kington in your 
absence and we were able to work that out expeditiously, and I 
thank you for that.
    Dr. Zerhouni, let's turn to the issue of the guidelines on 
ethics and the concerns which have been expressed by some. And 
I'm going to want to hear from--we're going to want to hear 
from Dr. James Battey in a few moments as to the range of the 
restrictions which have been imposed and the reaction and 
whether you think there might be some justification for a 
review of the standards and practices.

                          GUIDELINES ON ETHICS

    Dr. Zerhouni. Senator, first and foremost, the rules as we 
have--as they have been promulgated by the Department of Health 
and Human Services and the Office of Government Ethics are 
interim final regulations. In that process we made it very 
clear that those rules will be subject to an impact analysis 
and a comment period, especially when it comes to recruitment 
and retention areas and the maintaining of the excellence of 
the science at NIH.
    Now, as you know, when we developed the rules there was a 
component of the rules that was related to consulting with 
industry. I believe that the rules that we have put in place do 
establish and re-establish public trust and maintain public 
trust in that we will ban those until we are completely certain 
that we have an oversight system that is more functional than 
the one we had before.
    Senator Specter. Do they go too far?
    Dr. Zerhouni. In that context--in the consulting area, I 
think this is something that we need to do because we do not 
have, I believe, at this point an ethics oversight management 
system that can assure you and assure myself that those 
interactions are----
    Senator Specter. How about in areas other than consulting?
    Dr. Zerhouni. In areas such as stock divestiture, as you 
know, the rules require that all employees and their spouses 
divest of stock in either directly or indirectly related 
industries of NIH. As I looked at that rule over the past 2 
months, I've had extensive consultation with our scientists, 
with outside entities, directors of the Institutes, and it is 
clear to me that in the short 2 months, where these rules have 
not been implemented by the way, no one has been asked to 
divest, that this would have a deleterious impact. Best 
example, as you mentioned, is Dr. Battey, who really cannot 
disentangle himself from his family obligations; Dr. Schwartz, 
who's the new director that I just appointed and recruited from 
Duke University, who was to take his job on April 11, who has 
delayed his coming until we can understand these rules a little 
bit better.
    Senator Specter. How about the issue raised that someone 
couldn't accept train fare to travel to a distant city to give 
a lecture?
    Dr. Zerhouni. That is not correct. I've heard that. That, 
Senator, that is not correct. People can accept train fares, 
hotel reimbursement when they go to do an academic lecture at 
some other points.
    Senator Specter. Is there any other area besides consulting 
and divestment on a broad category?
    Dr. Zerhouni. I think the interaction between our 
scientists and trade associations, scientific associations, 
should not be hampered to the extent that we have seen them 
being hampered over the past two months. We need to work on 
that.
    I have to tell you, Senator, that Secretary Leavitt has 
been very responsive and receptive. We've requested a delay in 
the implementation of the stock divestiture rule of 90 days so 
we can understand it better. We have also asked that all of our 
scientist trainees, 5,000 of them, be exempted from these 
rules.
    So, again, I think we do believe that through this process 
of comments and evaluation that we have put in place in the 
interim final regulations, that we will be able to adjust 
accordingly.
    Senator Specter. How about on the trade association issue?
    Dr. Zerhouni. Right.
    Senator Specter. How about on the trade association issue?
    Dr. Zerhouni. Again, I think, Senator, from my standpoint, 
if you look at the framing of these interim final regulations, 
they make an assumption that NIH has the same influence as a 
regulatory agency. In that context obviously these interactions 
have to be scrutinized, but I don't at this point have a final 
opinion, but it seems to me that they may restrict areas of 
academic interchange----
    Senator Specter. So you do not have a final opinion, so 
you're still looking at that?
    Dr. Zerhouni. We're still looking at that, but I do believe 
that we should not as a policy goal restrict interactions that 
are purely scientific or academic in any way, shape or form.

                           STOCK DIVESTITURE

    Senator Specter. Let us hear from Dr. James Battey, if we 
may. Dr. Battey, thank you for joining us. We know that there 
has been an issue as to divestment which has been problemsome 
for you with retention at NIH. Would you tell the subcommittee 
your situation?
    Dr. Battey. Absolutely. But let me preface my remarks by 
wishing you Godspeed in recovering from your illness, Senator 
Specter.
    Senator Specter. Well, thank you. Thank you.
    Dr. Battey. I have the greatest job in the world as far as 
I'm concerned right now. I've been the Director of the National 
Institute on Deafness and Other Communication Disorders for 8 
years, and I have enjoyed every single minute of it for 8 
years. But I manage a family trust on behalf of my mother and 
father, it's their sole source of income, as well as my two 
sisters, as well as educating my father's seven grandchildren. 
That is a responsibility that I must put before even the 
greatest job in the world. I cannot divest the stocks in that 
trust. The cost to my family would be very, very substantial, 
and that is not something that I am willing to entertain on 
behalf of my sisters, my father's seven grandchildren, and my 
mother and my father.
    Dr. Zerhouni. I should point out, Senator, that Dr. Battey 
at no time had any consulting activity with industry during his 
entire career. He's been one of the outstanding citizens of 
NIH.
    Senator Specter. Well, Dr. Zerhouni, did Dr. Battey's 
situation run afoul of the ethical guidelines which have 
recently been established?
    Dr. Zerhouni. Not all of them obviously. It really relates 
specifically to the obligation to divest, forced divestiture of 
all holdings related to the industries that relate to NIH.
    Senator Specter. Well, is that rule----
    Dr. Zerhouni. That's really what the issue is.
    Senator Specter [continuing]. In effect at NIH?
    Dr. Zerhouni. This rule is not in effect. It is proposed to 
be implemented by July 3. We have asked the Secretary and 
received a delay of 90 days. It was supposed to be activated 2 
months after the beginning of the rule on February 3. It was 
clearly obvious to us at NIH that this would have a deleterious 
impact. We've been requesting and informing the Department, I 
believe that the Secretary by delaying the implementation of 
this part of the rule, the forced divestiture, by 90 days, is 
giving us the opportunity to adjust accordingly.
    Senator Specter. If, Dr. Battey, if this rule is not 
promulgated and become final, can we save you from California?
    Dr. Battey. There are a set of circumstances under which I 
would entertain remaining with the National Institutes of 
Health. As I said before, I love this job, I think it's the 
greatest job in the world.
    Senator Specter. Well, we will leave to Dr. Zerhouni the 
exploration of those set of circumstances. But my telephone 
number is in the book.
    Dr. Battey. Senator, I very much appreciate your support.
    Senator Specter. Because as I had said earlier, very much 
concerned about the impact and I'm not faulting anyone. This is 
a tough area to move in, and there are bound to be unintended 
consequences. But with your record and your reputation, it 
would be very unwise, not helpful, to have the NIH lose you on 
this issue. I'm glad to see that Dr. Zerhouni and the others 
who are promulgating the rules are having a delay and will take 
these issues into account.
    Dr. Battey. Thank you. Let me just add that I agree 100 
percent with Dr. Zerhouni that it is absolutely essential that 
the Agency maintain the public trust and be a neutral broker in 
the eyes of all those who consult with us and ask us to give 
opinions in the area of biomedical research.
    Senator Specter. Well, I'm pleased to hear you say that, 
and let's see if we can't get it to work out to retain Dr. 
Battey and move ahead with the ethical guidelines in ways which 
are really meaningful and necessary.

                           STEM CELL RESEARCH

    Before Senator Harkin returns, Dr. Zerhouni, just a 
question or two about stem cells. Where are we heading? Are we 
going to be losing all of our stem cell geniuses to Europe, to 
California, to Massachusetts?
    Dr. Zerhouni. California right now is probably the State 
that has the most wide-ranging policy allowing research in the 
field of regenerative medicine. Clearly, when you look at the 
scientific evolution of this field, and as I've said before, 
from the purely scientific standpoint, there's no doubt that 
access to more cells is seen by scientists as very important to 
their progress.
    Much can be done with the cells available through NIH and 
they're federally funded through the current policy. However, 
it is clear that when you look forward, NIH is funding about 
$30 million worth of human embryonic stem cells and over $390 
million total in regenerative medicine. The California 
investment is about $300 million total, not just in embryonic 
stem cells. So it's not fair to say that the Federal investment 
is one-tenth of the California investment. That relates to the 
human embryonic stem cells. The California investment is not 
specific to just human embryonic stem cells.
    Senator Specter. Dr. Zerhouni, why shouldn't we utilize the 
stem cells which are frozen, several hundred thousand created 
for in vitro fertilization? They have the potential to save 
lives. Why shouldn't we use them for scientific research?
    Dr. Zerhouni. From the purely scientific standpoint, 
scientists will tell you, I will tell you that there are areas 
of research that could be advanced, especially when you look at 
the 22 cell lines that we have. There is mounting evidence that 
we have contamination issues that may prevent their use for 
clinical applications, other issues of genetic stability are 
also emerging.
    Clearly from the purely scientific standpoint, more cell 
lines may well be very helpful. The issue is not a scientific 
issue, as you well know. The issue is the policy is predicated 
on a moral and ethical line that says that we could not use 
Federal funds to remove the potential for life of these 
embryos.
    Senator Specter. Well, what is the moral and ethical line 
if they're going to be destroyed? If they could create life--
Senator Harkin and I took the lead in appropriating funds for 
embryo adoption. People would take the embryos and utilize them 
to produce children, people. But if they're going to be 
destroyed, where is the moral issue?
    Dr. Zerhouni. I think you'll have to ask that from those 
who hold that view. I mean, obviously there are--there is a 
polarization of views on this issue. Some believe very strongly 
that an embryo is the beginning of life, and therefore, any use 
of that is inappropriate. Others obviously see the good on the 
other side. Every ethical issue is a balance between a social 
good and something that is seen by some as destructive.
    I think that debate needs to go on, needs to occur. It is 
occurring, I think, amongst yourselves as legislators. From a 
purely scientific standpoint we believe, and we've said so, 
that more lines may well be helpful to this research.
    Senator Specter. The legislation which Senator Harkin and 
Senator Feinstein, Senator Hatch, Senator Kennedy, and I have 
introduced bans cloning. We have the issue of nuclear 
transplantation, which does not come near the question of 
cloning. There are reportedly remarkable opportunities on 
nuclear transplantation to provide cures for the individual 
himself, herself, whose bodily substance is satisfied. Why not, 
Dr. Zerhouni?
    Dr. Zerhouni. Well, again, the issue here is Federal 
funding being used on the one hand to use discarded embryos, as 
you mentioned. Then the other is somatic cell nuclear transfer 
where you create an embryo. The issue here is fundamentally the 
use of Federal funds for this kind of research. It's not a 
scientific issue.
    Senator Specter. Well, I know the issue. The President's 
policy permits the use of some lines developed up to August 9, 
2001. But there is growing evidence that the stem cell lines 
available on the NIH registry are showing epigenetic and 
genetic changes in small regions of the chromosomes. This is a 
prepared statement, Dr. Zerhouni, so I'm reading. Deputy 
Senator Taylor just made this available to me and I want to ask 
you the question.
    I've been instructed to ask you this, Dr. Battey. When I 
get an instruction from Bettilou Taylor, I take it.
    Dr. Battey. I think that's very well-advised, Senator.

                 FEDERAL FUNDING FOR STEM CELL RESEARCH

    Senator Specter. Well, this is a joint question from Ellen 
and Bettilou and Tom and Arlen. All of those lines are being 
used to study basic biology of stem cells. Their use in 
clinical applications is questionable. There is confusion among 
scientists and administrators at universities where scientists 
have both Federal and non-federal funding for stem cell 
research about exactly what research infrastructure or core 
facilities developed with NIH funds in the past can be used in 
studies involving stem cells not eligible for Federal funding.
    Dr. Battey, in addition to the position which you 
identified, and until last week you were chair of the NIH Stem 
Cell Task Force, what is your view of the current limitations 
of Federal funding?
    Dr. Battey. Senator, the state of the science is moving 
very, very rapidly here, and we have learned many things since 
the last time I had an opportunity to testify before this 
subcommittee. For example, scientists at the University--or in 
the city of Chicago have now made stem cell lines from embryos 
that were identified in pre-implantation genetic diagnosis to 
harbor mutations that cause disease.
    These stem cell lines could potentially be used to create 
cellular model systems that would allow the development of 
drugs to treat these diseases. I'm talking about diseases like 
muscular dystrophy and Huntington's disease. These cell lines, 
however, were all created after August 9, 2001, and are 
therefore ineligible for Federal funding.
    The issue you mentioned about funding streams, it's a real 
issue. Let me give you an example. Imagine for the sake of 
argument an investigator who has a cell line he got from Doug 
Melton, it's not eligible for funding, and a cell line from 
Wisconsin that is. That investigator extracts messenger RNA 
from those two cells and then wants to go to his core facility 
for doing a study of what's been expressed in terms of gene 
expression that was funded initially by support from the 
National Institutes of Health. Can that investigator analyze 
that sample in that facility?
    These are the sorts of complex issues that are now arising 
on a daily basis in places where there are substantial amounts 
of funding for stem cell research that is outside the confines 
of that which can be funded using Federal dollars.
    Senator Specter. Well, thank you very much, Dr. Battey. 
Senator Harkin has this on his agenda, and I'm going to excuse 
myself at this point and turn the hearing over to my 
distinguished colleague, Senator Harkin. We often say that when 
the gavel changes hands, it's seamless. Show them, Tom. We have 
had a unique partnership in this contentious Senate and 
Congress to put aside party differences in the interests of 
moving ahead on a factual basis. I think the American people 
are really sick and tired of the bickering, and Senator Harkin 
and I have, I think, established the kind of a relationship 
which is in the public interest. It's all yours, Tom.
    Senator Harkin [presiding]. The only follow-up I had with 
Senator Specter's question for you, Dr. Battey, was on the 
scientific basis of this. Now, I don't know what all these 
words mean, but your statement says: ``there's growing evidence 
that the HESC lines available on the NIH human embryonic stem 
cell registry are showing epigenetic and genetic changes in 
small regions of the chromosomes.'' Please explain what that 
means.

             EXPLANATION OF EPIGENETIC AND GENETIC CHANGES

    Dr. Battey. I'll try to explain as best as I can. A genetic 
change, Senator, is an actual change in the order of bases in 
the DNA sequence itself. An epigenetic change is a change that 
involves marking on those DNA bases that have implications for 
which genes get expressed and under what circumstances. What is 
becoming increasingly apparent is that as the cells are 
cultured for prolonged periods of time, we are observing both 
small genetic changes as well as epigenetic changes. This does 
not come as any great surprise to a cell biologist, and in fact 
is observed almost any time you culture cells for prolonged 
periods of time.
    The reason for that is, although all the words are 
complicated, the reason is very simple and easy to grasp, and 
that's that when you grow cells in culture, you are continually 
selecting for a more rapidly growing cell. That is intrinsic to 
the process of passaging and growing cells.
    So it is inconceivable to me that you would not evolve 
changes that would confer a growth advantage as you culture 
cells over prolonged periods of time. In fact, what is 
remarkable is how stable these embryonic stem cell lines are 
over time. The fact--but nevertheless, these changes will 
evolve if you culture the cells for maybe 50, 75, or 100 
passages.
    Senator Harkin. To my layman's mind, it seems what you're 
saying is that somehow this would affect their use in any kind 
of further down-the-road treatment in humans?
    Dr. Battey. That we don't know. That is not clear yet. If 
the changes, however, move the cell towards a more rapidly 
growing state, it is possible that you would have a cell that 
would evolve a genetic change that would take it one step 
closer to becoming a tumor of the stem cells, which is a 
teratoma. I think that's the major concern.
    Dr. Zerhouni. Senator, the best analogy--sorry.
    Senator Harkin. No, go ahead. Yes, please.
    Dr. Zerhouni. The best analogy to this is the one I had to 
come up with to explain this in layman's terms. That is that 
if, suppose you have an original document and you want to make 
Xerox copies of that document, and you make billions of copies 
each generation from the previous document. What may happen is 
that after the 150th generation, after making billions of 
copies of the DNA, you'll have errors, and you'll have a poorer 
copy and a poorer copy and a poorer copy as you go forward.
    At the onset of this field, 5 or 6 years ago, everyone 
thought that stem cells were renewable in a perfect state, as 
if you had a perfect copy each time. Well, as the science has 
advanced and our methods of measurements have become more 
accurate, we are finding that in fact there are errors that 
occur over the transmission of information through that copying 
process. That may, in fact, have profound implications as to 
the viability of an experiment and the viability of the use of 
these over a long period of time.
    Senator Harkin. Again, in my layman's mind, it sounds like 
that argues for getting as many stem cell lines as possible.
    Dr. Zerhouni. From a scientific standpoint, I think there 
are lots to be learned. In addition to the new science that has 
occurred recently, in terms of disease-specific cell lines that 
could be used such as the lines that Dr. Battey mentioned that 
have specific diseases in them, so that you could use that to 
study that disease process in a laboratory. From the scientific 
standpoint, this might be helpful.
    Senator Harkin. I just had a couple of other questions that 
I really wanted to go over here. Dr. Zerhouni, one of them had 
to do with, again, the success rate down to 21 percent overall. 
I noticed that at NCI, National Cancer Institute, it's 19 
percent. At NCCAM it's 8 percent. I'm concerned about, again, 
what message this sends to young investigators who have a 
particularly hard time winning grants when money gets tight.
    If a young med school student with huge loans to pay knows 
he faces only a 1-in-5 or a 1-in-10 chance of getting a grant, 
he or she may want to think twice about whether they want to 
enter this career. Would you just speak if you can for a little 
bit on the impact that you might see that a 21 percent success 
rate would have on your ability to attract young scientists to 
medical research?

                        NATURE OF SUCCESS RATES

    Dr. Zerhouni. Again, the 21 percent success rate reflects 
two facts. One is the doubling has been very successful in 
attracting a larger number of excellent scientists to NIH. So 
the number of applications has in fact increased over time. I 
wanted to show you again the graphic there. The black line 
shows the number of applications rising all the way to 44,000. 
So we have more--go ahead.
    Senator Harkin. Now, are those applications or are those 
peer-reviewed applications that are----
    Dr. Zerhouni. Peer-reviewed applications.
    Senator Harkin. Peer-reviewed.
    Dr. Zerhouni. Right. The applications----
    Senator Harkin. Not the total. These are just the----
    Dr. Zerhouni. These are the ones that are peer-reviewed by 
NIH that are----
    Senator Harkin. Made it through.
    Dr. Zerhouni. Made it to review. Of those, we funded 32 
percent in 2001, 25 percent in 2004, and 22 and 21. Obviously 
if the number of applications had stayed level, our success 
rate would have been higher. But the fact is we have more areas 
of research that we are into today than we were 5 or 10 years 
ago.
    Now, your concern about young scientists is my concern as 
well. As you may know, I have requested a study from the 
Institute of Medicine. Two years ago we engaged our advisory 
councils about the issue of the lengthening of the time it 
takes for a young scientist today to be independent and to have 
their own research ideas worked on. Thirty years ago, 27 
percent of our NIH grantees were 35 years or younger. Today, 
less than 4 percent of our NIH grantees are 35 years or 
younger.
    That reflects two things--I'm sorry.
    Senator Harkin. What was that year cut-off?
    Dr. Zerhouni. 30 years ago.
    Senator Harkin. 30.
    Dr. Zerhouni. 27 percent of our scientists 30 years ago 
were younger than 35 years of age. Today it's 4 percent. On 
average when you look at the first grant, median is about 39, 
40 years of age. This to me is a little too long. I really 
believe that there is a lot of creativity that occurs early in 
a scientific career.
    The effect is twofold. One is the lengthening of the 
training period, but also the competitiveness of our grant 
process. That's why a 21 percent success rate, if not balanced 
by new grants, as I've done, and if not carefully managed, can 
lead to a loss of talent.
    Think about it this way, Senator. If you're a 25-year-old 
scientist and you look at your career and you have to wait 
until age 39 to have a chance to get a grant from NIH, you 
might consider other career tracks. That to me is the one thing 
that I worry the most about. We're going to consider very 
carefully the IOM recommendations and try to do the best we can 
within the fiscal constraints that we have.
    But I think it is a trend, Senator, that all of us have to 
be aware of, and that is the plight of the young scientist, not 
just in biomedical sciences, by the way, Senator. It affects 
science and technology in general.
    Senator Harkin. It seems to me in my memory bank someplace, 
that this has been a discussion point in the past. Do you have 
a fund in the Director's office or something like that where--
who was it termed it the ``ah-ha'' fund? Some young scientist 
says ah-ha, I got this idea, and you can kind of pick some of 
these young people and say, oh, they're on to something maybe, 
maybe, we don't know. But don't you have some fund like that? 
Is there something at NIH that allows that to happen under your 
direction?

                       VARIOUS SOURCES OF FUNDING

    Dr. Zerhouni. I do not have a fund for that. But through 
the Roadmap, we've established a Pioneer Award to try to in 
fact encourage that, to try to find out if there are scientists 
out there that we're not funding through the process.
    Institutes themselves, by the way, through loan repayment 
programs, career award developments, K-22 awards, all kinds of 
mechanisms are responsive to a different degree to this issue 
of the young scientists. We have Shannon awards, which provide 
a young scientist with transitional dollars.
    I think, as the IOM recommends, it's time for us to look at 
all of our policies across NIH and find out, especially in 
tougher times, what we need to do proactively to in my view 
protect the pipeline of talent that 20 years from now will be 
the discoverers of the new cures and new treatments and new 
knowledge that we need.
    We have a retreat with the NIH directors planned later this 
year to talk just about this as well. We have discussed this 
issue amongst ourselves quite a bit, as we are concerned about 
it.

                            AVIAN INFLUENZA

    Senator Harkin. I'll look at that some more myself, see if 
there's some way we can set something up like that. There were 
a couple of other areas I wanted to cover, one for Dr. Fauci 
and one for Dr. von Eschenbach. I'll start with Tony.
    A lot of stuff being written about avian flu. Why is the 
spread of this avian influenza so alarming? What steps is the 
Institute taking to address this issue?
    Dr. Fauci. Well, thank you for that question, Senator 
Harkin. It's a very important public health issue. The concern 
surrounding the avian flu threat that we are currently 
undergoing now relates to the fact that the situation in 
countries in Southeast Asia, particularly Thailand, Vietnam, 
and to a lesser degree Cambodia, is that there a virus called 
H5N1 circulating among chicken flocks. That is the way we 
designate influenzas by an H and an N, which are two of the 
proteins that are the important identification markers.
    The regular flu that's circulating around this winter was 
an H3N2, a totally human influenza virus. The H5N1 is a bird 
flu. It has been infecting and killing large numbers of 
chickens in Asia. But what has happened over a period starting 
from the first identification in 1997 in Hong Kong of H5N1, 
which infected 18 people by jumping from the chicken to the 
human, and killing six of those, over the past year-and-a-half, 
in 2003 and now in a very accelerated way in 2004 and 2005, 
we've now had larger numbers of chickens infected and larger 
numbers of people. As of last night's count, there were 79 
official cases confirmed and 49 official deaths confirmed.
    Now, that may seem like a small number, but first of all, 
the mortality is very high, and second, there's a transition of 
the viruses getting a greater efficiency of spreading from the 
chicken to the human. Then what we're very concerned about is 
human-to-human spread. That has not occurred efficiently up to 
this point. There is at least one documented case in Thailand 
of a mother who got it from her 11-year-old child who, the 
child got it from the chicken, but the mother actually got it 
from the child.
    If there is increased efficiency of spread from person to 
person, we have the possibility of what we call a pandemic. 
Now, that means that the society in general, our civilization, 
doesn't have any baseline immunity to H5N1, because unlike 
H3N2, where each year we get exposed to one variety or another 
of that strain, we get vaccinated or we get infected, so that 
our society has some degree of background immunity to an H3N2. 
We have zero background immunity to H5N1.
    So the possibility of there being rampant spread, 
particularly with the high mortality that we're seeing right 
now, is a very sobering prospect that we're looking at. What 
are we doing about it?
    Senator Harkin. So the flu shot I got does not protect me 
from----
    Dr. Fauci. Not even a little bit. Not even a little bit. 
So--but don't worry because there's not H5N1 right here now. 
But we're concerned about it.
    So what are we doing about it? The NIH component of the 
broader Department of Health and Human Services pandemic flu 
preparedness plan is the research limb. You know, the CDC does 
the surveillance, the identification, the public health 
measures. The FDA does the regulation of the vaccines and the 
drugs that we're screening for, and that's all done under the 
Office of Public Health Emergency Preparedness.
    What we're doing is fundamental basic research on the 
virus, understanding its virulence and pathogenesis, getting 
sequence data on all of the various strains so that we can make 
them available to investigators to do things like screening for 
drugs, targeting for drugs, and the development of vaccines.
    Probably the thing that's of most practical concern to you 
and the committee and the general public is that we have moved 
very rapidly in identifying the H5N1 using a particular 
molecular technique developed by one of our grantees to develop 
a seed virus. Two weeks ago, we started the screening for a 
trial. Last week we gave the first injections, and as of 
yesterday, we have over 150 people enrolled in a phase 1 trial 
of H5N1 in three centers in our network of vaccine centers in 
Rochester, New York, UCLA, and Baylor, I believe.
    We have now data that we're going to be collecting on the 
safety, what is the proper dose of the vaccine, and what is the 
difference in the immunogenicity in normal adults. That will be 
finished within a period of a couple of months, people from 18 
to 64. Then we're going to move on to people greater than 65, 
and then we're going to do it in children.
    In addition, finally, as part of the departmental program, 
we've purchased 2 million doses for the strategic national 
stockpile of H5N1 in anticipation of being able to scale this 
up in commercialized lots, not just thousands or millions, but 
tens of millions if we need it.
    Finally, the Department's plan is to stockpile Tamiflu, 
which is the antiviral to which this particular virus is 
susceptible.
    Senator Harkin. What did you say?
    Dr. Fauci. Tamiflu. The regular name for it is Oseltamivir. 
It's an anti-influenza drug.
    Senator Harkin. I'm glad you've cleared that up for me.

              TRAVEL RISKS ASSOCIATED WITH AVIAN INFLUENZA

    Well, now, the only follow-up question I have is--okay, so 
we're not exposed to avian influenza, but they are in Southeast 
Asia. How concerned should we be of people traveling back and 
forth, picking up the virus, bringing it back here, and 
transmitting it?
    Dr. Fauci. At this point not. But the CDC, together with 
WHO, is heightening in a very accelerated way their 
surveillance mechanism in Southeast Asia. Since the virus does 
not transmit efficiently at all from human to human, it is 
extraordinarily unlikely that you would have a situation where 
someone would be infected, that most likely would be a chicken 
farmer, who would then get on a plane and come to Washington.
    So the chance of that is extremely unlikely. For that 
reason, there are no public prohibitions on travel with regard 
to this.
    I just want to mention one thing, I just thought of it. I 
gave you--just because I want the record to be correct--the 
other center that's doing the trial is not Baylor. It's the 
University of Maryland in Baltimore.
    Senator Harkin. Thanks very much, Dr. Fauci.
    Dr. Fauci. You're welcome.

                      HUMAN CANCER GENOME PROJECT

    Senator Harkin. Dr. von Eschenbach, I want to ask something 
Dr. Jim Watson brought up to me a couple of times, and that has 
to do with the human cancer genome project.
    Dr. von Eschenbach. Yes, sir.
    Senator Harkin. About the need for that kind of effort. I 
understand that NCI and the Human Genome Research Institute, 
Dr. Collins, have teamed up on an effort called the human 
cancer genome project. Just what is this? What are you doing? 
Tell me about this.
    Dr. von Eschenbach. Well, thank you, Senator, for the 
question, and also thank you very much for your passion and 
concern for patients, especially cancer patients. This effort 
is intended to address much of our opportunity in understanding 
cancer. We know, though it is a series of complex diseases, it 
is also a disease process. There is a portion of that process 
that defines our susceptibility to cancer and then the 
development and progression of that cancer to the point where 
it causes the suffering and death that we see all around us.
    So we're trying to understand that cancer process. We're 
trying to understand it at the very fundamental genetic and 
molecular and cellular level as to why and how we're 
susceptible to different cancers, how and why they develop and 
then progress in some patients to the point that they actually 
take our life.
    We have a series of investigations to understand that 
process. We're trying to understand it at the genetic level and 
also understand it at the molecular and proteomic level. We've 
even launched recently an effort in nanotechnology to begin to 
utilize that field to understand the process.
    The specific project that you are referring to is one of 
those initiatives where we are teaming up with another NIH 
Agency, the National Human Genome Research Institute, to co-
partner in an effort to understand and to determine all the 
genetic changes and mutations that determine our susceptibility 
to cancer and define the development of cancer.
    We believe that if we understand those genes and those 
genetic changes, we'll be able to use that knowledge and that 
information to be able to select and screen patients to 
determine susceptibility, to be able to define the risk that 
one has for a particular type of cancer, so that we then have 
that knowledge and can use that to intervene earlier in a way 
to try to prevent that process from occurring. Also to be able 
to use the knowledge of those genetic changes so that we can 
find better methods to detect the development of cancer, 
because if we can pick up the development of those genetic 
changes and know that cancer is now starting in someone's body, 
we could then eliminate that cancer when it's still very early 
and do that much more safely and much more easily.
    If we can detect and eliminate cancer early, we could 
eliminate the outcome of cancer, the suffering and death that 
we see. So this is one initiative that we believe holds great 
promise for achieving the goal of 2015, the elimination of 
suffering and death due to cancer.
    Senator Harkin. So you've embarked on this and----
    Dr. von Eschenbach. It's in process of development, sir. 
And we have a pilot project that we are in the midst of 
planning and developing so that we can create the 
infrastructure for a broader application of this.
    Senator Harkin. So when we meet again here later on, you'll 
be able to keep us updated as to what the progress of this is?
    Dr. von Eschenbach. Absolutely, sir.
    Senator Harkin. I appreciate that very much. I really don't 
have any more time. Did anybody else have any--Dr. Zerhouni, 
did you have anything else you wanted to add for the record?
    Dr. Zerhouni. No. I really appreciate the questions you've 
posed today.
    Senator Harkin. Thank you. Again, I apologize for jumping 
on you on the conflict of interest, but I hope there's some 
people here from HHS, because that's really who I was directing 
it at.
    But I'll say, we need you in forefront of this too. This is 
your NIH.
    Dr. Zerhouni. I certainly am.
    Senator Harkin. I just don't think we can afford to 
continue to put this off. We've got to address it right away.
    Dr. Zerhouni. I think you've heard me, sir.
    Senator Harkin. I know, and I appreciate that. Thank you 
all very much for the great job you do. Hopefully we can get 
that .5 up, but I don't know. We'll try our best.
    Dr. Zerhouni. Thank you very much.

                     ADDITIONAL SUBMITTED STATEMENT

    Senator Harkin. Thank you all very much.
    The subcommittee has received a statement from The National 
Alliance for eye and Vision Research which will be placed in 
the record.
    [The statement follows:]

Prepared Statement of The National Alliance for Eye and Vision Research

    The National Alliance for Eye and Vision Research (NAEVR) is 
pleased to submit this written testimony to the file of the April 6, 
2005, hearings of the Labor, Health and Human Services, Education and 
Related Agencies Subcommittee of the Senate Appropriations Committee.

                              ABOUT NAEVR

    Founded in 1997, NAEVR is a non-profit advocacy organization 
comprised of 50 professional, consumer and industry organizations 
involved in eye and vision research. NAEVR's goal is to achieve the 
best vision for all Americans through advocacy and public education 
about the value and cost-effectiveness of eye and vision research 
sponsored by the National Institutes of Health (NIH), the National Eye 
Institute (NEI) and other federal research entities.

NAEVR REQUESTS FISCAL YEAR 2006 NIH FUNDING AT $30 BILLION TO MAINTAIN 
                       THE MOMENTUM OF DISCOVERY

    Although NAEVR realizes that Congress faces an expanding set of 
challenges at home and abroad, we join the community of support for 
medical research in requesting Congress to fund the NIH at $30 billion 
in fiscal year 2006, or a 6 percent increase over the fiscal year 2005 
level, to maintain the momentum of discovery. NAEVR believes that the 
NIH has made tremendous contributions that have served to improve the 
quality of lives for millions of Americans and contain healthcare 
costs.
    NAEVR commends Chairman Specter's leadership in introducing Senate 
Amendment 173 to the fiscal year 2006 Senate Budget Resolution that 
would add $1.5 billion to the NIH beyond that proposed in the 
administration's budget, to a level of approximately $30 billion. NAEVR 
also recognizes the leadership demonstrated by the full Senate in 
successfully passing the amendment and Senate Budget Resolution, and we 
strongly urge the Senate and House conferees to maintain this number in 
the conference bill.
    Congress' past bipartisan leadership in doubling the NIH budget 
from fiscal year 1998 to fiscal year 2003 has had a profound impact on 
the health care of all Americans, in terms of earlier, more accurate 
diagnosis of disease; more targeted, effective treatment options; more 
comprehensive, cost-effective prevention strategies; and the 
transformation of acute diseases to chronic, manageable diseases. With 
this basis, NIH has plans to further transform how basic and clinical 
research is conducted through initiatives such as the NIH Roadmap for 
Medical Research (the NEI is a lead Institute on the Nanomedicine 
project) and NIH Neuroscience Blueprint, in which 15 Institutes are 
engaged, including the NEI.
    NAEVR commends NIH Director Dr. Zerhouni for his leadership in 
eliminating roadblocks that prevent collaborative research and using 
NIH-directed dollars in a cost-effective manner. However, his efforts 
to maximize the return on medical research dollars can only go so far. 
For example, in the fiscal year 2006 funding process, NIH would need an 
increase of at least 3.5 percent just to keep pace with the Biomedical 
Research and Development Price Index (BRDPI). Since the fiscal year 
2006 funding level in the administration's budget proposal would 
represent the third year in which the NIH would not keep pace with 
inflation, the gains realized from the past investment in the NIH will 
be jeopardized.
    In summary, to ensure that NIH's momentum is not eroded further, 
and to continue the fight against diseases and disabilities that affect 
millions of Americans, NAEVR requests that Congress seek an NIH budget 
of at least $30 billion in fiscal year 2006.

 NAEVR REQUESTS FISCAL YEAR 2006 NEI FUNDING AT $711 MILLION AS VISION 
           HEALTH IS A ``TOP PRIORITY'' AMONG MANY PRIORITIES

    NAEVR requests that Congress fund the NEI at $711 million in fiscal 
year 2006, or a 6 percent increase over fiscal year 2005. This 
``Citizens Budget'' for the NEI represents the eye and vision research 
community's judgment as the level necessary to advance the 
breakthroughs resulting from NEI's basic and clinical research that 
will result in treatments and therapies to prevent eye disease and 
restore vision.
    In presenting this request, NAEVR asks Congress to make this 
nation's vision health a ``top priority'' among the many priorities it 
faces in the fiscal year 2006 funding cycle for the following reasons:
  --Eye and vision research responds to the nation's top public health 
        challenges and touches the lives of all Americans.
  --The eye is a unique biological system offering exceptional 
        experimental advantages in which to conduct genetic, 
        neuroscience and cellular mechanism research.
  --Vision impairment and eye disease is a major public health problem 
        that is growing and which disproportionately affects the aging 
        and minority populations.
  --The economic and societal costs of vision impairment and eye 
        disease are significant and growing; adequately funding the NEI 
        is a cost-effective investment in our nation's health.
  --Past NEI-funded basic and translational research is resulting in 
        treatments and therapies to slow the progression of vision loss 
        and restore vision.

  EYE AND VISION RESEARCH RESPONDS TO THE NATION'S TOP PUBLIC HEALTH 
           CHALLENGES AND TOUCHES THE LIVES OF ALL AMERICANS

    Dr. Zerhouni has identified the NIH's top public health challenges 
as an aging population; chronic diseases; health disparities; emerging 
diseases (primarily co-morbidities); and biodefense. NEI is responding 
to all of these challenges as they relate to eye and vision research:
  --Not only has the NEI sponsored studies to characterize the 
        incidence of age-related eye diseases such as age-related 
        macular degeneration (AMD), glaucoma, diabetic retinopathy and 
        cataracts, it sponsors extensive research into the cause and 
        potential prevention of and treatments for these chronic 
        diseases.
  --Working with the National Center on Minority Health and Health 
        Disparities (NCMHD), the NEI has sponsored studies to 
        characterize vision impairment and eye disease disparities to 
        direct further research--whether into the underlying 
        physiological cause and potential concomitant therapy, or to 
        the socio-economic or access issues that may enable it to focus 
        its public health education programs.
  --NEI has taken its basic research on diabetic retinopathy, a co-
        morbidity of diabetes, and tested treatments through a Clinical 
        Trials Network. This optimal example of translating basic 
        research ``from bench to bedside'' has resulted in treatments 
        that are more than 95 percent effective and save the United 
        States $1.6 billion annually.
  --Going beyond the traditional focus on battlefield visual acuity, 
        NEI's biodefense research has resulted in new therapies to 
        treat infectious eye diseases and promote corneal healing.
    While addressing the nation's top public health challenges, NEI 
research also touches all Americans, whether directly or through loved 
ones. NEI research has the potential to ensure the best vision health 
of individuals at all stages of life--from newborns to the most 
elderly?thereby ensuring their independence, productivity and quality 
of life.

THE EYE IS A UNIQUE BIOLOGICAL SYSTEM OFFERING EXCEPTIONAL EXPERIMENTAL 
   ADVANTAGES IN WHICH TO CONDUCT GENETIC, NEUROSCIENCE AND CELLULAR 
                           MECHANISM RESEARCH

    As the entire medical research community gains a better 
understanding of the genetic basis of disease, the eye emerges as a 
unique biological system in which to study cellular mechanisms and 
pathways. The eye and vision community is at the forefront of genetic 
research, as the eye offers accessibility and a system in which one can 
measure the potential effect from a treatment. For example, NEI-
sponsored researchers have recently announced the discovery of a gene 
strongly associated with a person's risk of developing AMD, which is 
the leading cause of vision loss in older Americans. This may enable 
researchers to develop tests for the disease before symptoms begin to 
appear and when drug therapies might help slow its progress.
    Since the retina is a direct outgrowth of the brain and nerve cells 
underlie the ability to process vision, the eye also serves as an 
important system in which to study neurodegenerative diseases. For 
example, NEI-funded researchers have recently announced the 
regeneration of the optic nerve in mice, which could potentially result 
in treatments for Americans blinded by glaucoma or other injuries that 
destroy the optic nerve, as well as for other Central Nervous System 
disorders.

VISION IMPAIRMENT AND EYE DISEASE IS A MAJOR PUBLIC HEALTH PROBLEM THAT 
     DISPROPORTIONATELY AFFECTS THE AGING AND MINORITY POPULATIONS

    Over the past 40 years, Americans have consistently identified fear 
of vision loss as second only to fear of cancer in public opinion 
polls. In recent NEI-sponsored research, patients with advanced AMD 
equated that condition to the gravest chronic diseases. These societal 
implications of vision impairment and eye disease are important since, 
as of the year 2000 census, there were more than 119 million Americans 
age 40+ who are most at risk from age-related eye disease such as AMD, 
glaucoma, diabetic retinopathy and cataracts.
    In 2004, an NEI-sponsored study reported that vision loss from eye 
diseases will increase as Americans age. Also in 2004, the NEI reported 
on an African American subset analysis in its Ocular Hypertension 
Treatment Study (OHTS) and initial findings from its Los Angeles Latino 
Eye Study (LALES), both of which were co-sponsored by the NCMHD. 
Combined, these three studies reported that:
  --Blindness or low vision currently affects 3.3 million Americans age 
        40+, or 1 in 28, and is projected to reach 5.5 million by year 
        2020.
  --Age-related eye diseases currently affect more than 35 million 
        Americans age 40+, and include intermediate-to-advanced AMD, 
        glaucoma, diabetic retinopathy and cataracts. This number is 
        projected to increase to about 50 million by the year 2020.
  --More than 1.8 million Americans currently have advanced AMD, and 
        this number is expected to grow to 3 million by the year 2020. 
        Another 7.3 million Americans currently have intermediate-stage 
        AMD. Currently, 200,000 Americans each year develop advanced 
        AMD, and this number is expected to double by 2020. Because AMD 
        affects the part of the eye called the macula, which is 
        necessary for central vision, it affects a person's ability to 
        read and drive. This has an enormous impact on quality of life 
        and independence for older Americans.
  --Glaucoma, a chronic potentially blinding disease that requires 
        life-long treatment to control it, currently affects 2.2 
        million Americans, with 3.3 million expected to develop it by 
        the year 2020. Glaucoma is now the leading cause of blindness 
        in the fast-growing Hispanic population age 65+. Glaucoma is 
        almost three times as common in African Americans as in White 
        Americans and is the leading cause of blindness in the African 
        American population.
  --Diabetic retinopathy is the leading cause of blindness in the 
        industrialized world in people between ages 25 and 74. It 
        currently affects 4.1 million Americans age 40+, or one out of 
        12 Americans with diabetes in that age group, and is expected 
        to increase to 7.2 million by the year 2020. Although 
        successfully treatable in more than 95 percent of cases, many 
        people do not know they are diabetic until symptoms, such as 
        vision loss, occur. And with estimates of 50 million Americans 
        having diabetes by the year 2020 at a yearly cost of $1 
        trillion, and one-third of all American children born in year 
        2000 developing it in their lifetimes, there will be increasing 
        demand for research into new treatments and prevention 
        therapies.
  --Cataracts, which are the leading cause of low vision, currently 
        affect nearly 20.5 million Americans age 65+, which is 
        projected to increase to 30.1 million Americans by the year 
        2020. In the United States, a cataract is widely treatable by 
        removing the natural lens and implanting an intraocular lens 
        (IOL). However, in the rest of the world, cataracts are the 
        leading cause of blindness due to lack of access to adequate 
        care.
    The past investment in the NEI's basic research has yielded 
breakthrough discoveries in the potential cellular mechanisms that 
result in these diseases, and its clinical research has resulted in an 
array of treatments for these conditions. However, the expanding 
population at risk for eye and vision disease will demand new and more 
effective therapies that restore vision or ultimately prevent the onset 
of these diseases. Adequately funding the NEI now ensures that its 
basic and clinical research ``in the pipeline'' comes to fruition and 
can be responsive to this growing public health problem.

 THE ECONOMIC AND SOCIETAL COSTS OF VISION IMPAIRMENT AND EYE DISEASE 
      ARE SIGNIFICANT; FUNDING NEI IS A COST-EFFECTIVE INVESTMENT

    Although the NEI estimates that the current annual cost of vision 
impairment and eye disease to the United States is $68 billion, this 
number does not fully quantify the impact of lost productivity and 
diminished quality of life. And as noted above, this financial burden 
to both the public and private sector is expected to increase 
dramatically, primarily due to an aging population and the growing 
prevalence of eye diseases that result in vision loss.
    Adequately funding the NEI can delay, save and prevent 
expenditures, especially those associated with the Medicare and 
Medicaid programs, and is, therefore, a cost-effective investment. For 
example:
  --As previously cited, the NEI-sponsored Early Treatment Diabetic 
        Retinopathy and Diabetic Retinopathy studies have saved as much 
        as $1.6 billion per year in costs of blindness and vision 
        impairment and resulted in treatments that are more than 95 
        percent effective.
  --NEI-funded researchers have developed treatments for Retinopathy of 
        Prematurity (ROP), a blinding complication in premature babies. 
        As a result, more than 1,500 infants born this year with the 
        most serious form of this condition can experience sighted 
        lives, which would have cost the government $1 million in 
        benefits and lost taxes over the lifetime of each child.
  --Economists estimate that cataract surgery provided Americans over 
        $300 billion in benefits in 2003 alone.
    Funding the NEI at $711 million in fiscal year 2006 is a cost-
effective investment, as it will directly save healthcare expenses and 
return individuals to productive roles in society.

 PAST NEI-FUNDED RESEARCH IS RESULTING IN TREATMENTS AND THERAPIES TO 
         SLOW THE PROGRESSION OF VISION LOSS AND RESTORE VISION

    The NEI has an impressive record of accomplishment over the past 5 
years, as documented in its National Plan for Eye and Vision Research. 
Some of the most exciting developments that have widespread 
implications for Americans of all ages and races include:
  --NEI is conducting additional clinical trials on nutritional 
        supplements that may slow the progression of AMD, following 
        previous research demonstrating that zinc and three antioxidant 
        vitamins are effective in reducing vision loss in people at 
        high risk for developing advanced AMD.
  --An NEI-sponsored study has found that eye injections of bone-marrow 
        derived stem cells prevented vision loss in two rodent models 
        of Retinitis Pigmentosa (RP), a family of eye diseases that 
        cause vision loss. This study raises the possibility that 
        patients could receive an injection of their own bone marrow 
        stem cells to preserve central vision.
  --NEI-supported investigators are moving closer to human clinical 
        trials of a gene therapy to treat neurodegenerative eye 
        diseases, including Leber Congenital Amaurosis (LCA), which is 
        a rapid retinal degeneration that blinds infants in the first 
        year of life. Previous research has restored vision in dogs 
        with LCA. This gene therapy not only has direct implications 
        for the 9 million Americans affected by AMD, RP, Usher Syndrome 
        and the entire spectrum of retinal degenerative diseases, but 
        can potentially lead to therapies for glaucoma, diabetic 
        retinopathy and cataracts.

                               CONCLUSION

    NAEVR supports fiscal year 2006 NIH funding at $30 billion to 
ensure that our nation's medical research infrastructure can maintain 
its momentum of discovery. NAEVR also requests that Congress make our 
nation's vision health a ``top priority'' among many priorities by 
funding the NEI at $711 million in fiscal year 2006. NEI-funded 
research results in therapies that reduce health expenses and return 
individuals to productive lives. It is a cost-effective investment in 
maintaining the momentum of discovery and vision health for all 
Americans.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Harkin. There will be some additional questions 
which will be submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing.]

              Questions Submitted by Senator Arlen Specter

                            OBESITY RESEARCH

    Questions. Last year, NIH announced release of a comprehensive 
Strategic Plan for Obesity Research. What initiatives have you 
undertaken, particularly to address the critical problem of childhood 
obesity, since release of this plan?
    Answer. The NIH is pursuing a broad spectrum of research avenues 
consistent with the recommendations in the Strategic Plan for NIH 
Obesity Research. An important area of focus of these efforts is 
childhood obesity, to address the serious impact obesity has on 
children--potentially leading to a lifetime of serious health problems. 
Highlights of such efforts include fostering new research on prevention 
and treatment of pediatric obesity in primary care settings and other 
site-specific settings, which may include the home, day-care, school, 
or other community venues. In another effort, the NIH is beginning a 
project to develop a rating system for youth obesity-related policies. 
The current effort involves developing, for use as a research resource, 
a system to rate factors associated with physical activity and 
nutrition that are addressed by such policies. Such factors may 
include, for example, aspects of physical education or recess in 
schools. Once developed, this research resource would then be made 
available to investigators as a tool to facilitate analysis of the 
relative impacts of these factors on behaviors relevant to obesity. 
This effort would encompass policies at both the state and local 
levels. In developing this research resource, the NIH is coordinating 
with the CDC and other organizations which are supporting related 
efforts.
    Other recently-launched NIH research would impact obesity in both 
adults and children. For example, the NIH is encouraging new studies to 
address the influence on obesity of factors in the ``built 
environment,'' such as aspects of community design that may hinder 
physical activity. An upcoming conference will focus on environmental 
factors and obesity in youth. Improved technologies would facilitate a 
wide range of investigations. Such improved technologies would 
encompass, for example, the areas of more accurately measuring calorie 
consumption (energy intake) and physical activity (energy expenditure), 
and monitoring whether a person's energy intake and expenditure match 
(a state of energy balance) or whether one is greater. Thus, the NIH 
released research solicitations to bring innovative bioengineering 
technology to address issues in energy balance, intake, and 
expenditure. Capitalizing on major ongoing NIH research investments, 
the NIH is continuing to solicit proposals for ancillary studies to 
several existing obesity-related clinical trials and networks; the NIH 
is also encouraging other productive partnerships between basic and 
clinical researchers. Interdisciplinary research focused on obesity is 
also being enhanced as a result of a recent NIH Roadmap initiative to 
support new Exploratory Centers for Interdisciplinary Research; several 
of these centers will focus on obesity. The NIH is also continuing to 
pursue genetic studies of obesity. Efforts are underway to develop an 
Intramural Obesity Clinical Research Center, on the NIH campus, to 
generate new knowledge regarding the prevention, treatment, and 
underlying molecular mechanisms of obesity and its associated diseases. 
Intramural-extramural collaboration will be a focus of these efforts.
    Examples of efforts currently being developed include a new 
initiative to study how factors such as maternal weight during 
pregnancy can lead to obesity in offspring. Another effort is being 
planned to support collaborative research on the neurobiological basis 
of human eating behavior, bridging the gap between understanding at the 
genetic and molecular level of neural pathways involved in food intake 
and the understanding of behavioral influences on human obesity.

                               INFLUENZA

    Question. Dr. Fauci, why is the spread of avian influenza so 
alarming?
    Answer. The spread of avian influenza is of great concern because 
in the past, highly virulent pandemic influenza strains have originated 
as avian influenza. Influenza pandemics are global outbreaks that 
emerge infrequently and unpredictably and involve strains of virus to 
which humans have little or no immunity. Three deadly influenza 
pandemics have occurred in the 20th century: in 1918, 1957, and 1968. 
The 1918-1919 pandemic was by far the most severe, killing 
approximately 500,000 people in the United States and 20-40 million 
people worldwide--almost two percent of the global population at that 
time. Worldwide, the pandemics that began in 1957 and 1968 killed 
approximately 2 million and 700,000 people, respectively.
    H9N2 and H5N1 influenza are two avian viruses that have jumped 
directly from birds to humans and have significant pandemic potential. 
In 1999 and 2003, H9N2 influenza caused illness in three people in Hong 
Kong and in five individuals elsewhere in China; fortunately, the virus 
did not acquire the ability to spread from human to human. Between 
January 28, 2004 and April 14, 2005, there were 88 confirmed cases of 
and 51 deaths from H5N1 avian influenza infection in humans in 
Cambodia, Thailand, and Vietnam, according to the World Health 
Organization. To date, there have been a small number of cases where 
human-to-human transmission of the virus may have occurred. However, 
public health experts fear that the longer and more widely the H5N1 
virus circulates in poultry, the greater the likelihood that the virus 
may evolve into one that is more easily transmitted between people. If 
this were to happen, a worldwide pandemic could follow.
    Question. What steps is your Institute taking to address this 
issue?
    Answer. The National Institute of Allergy and Infectious Diseases 
(NIAID) is using a multi-faceted approach to address the threat of 
avian influenza, including surveillance of animals, vaccine and 
antiviral development, basic research, and genome sequencing. Through a 
contract to St. Jude Children's Research Hospital, NIAID is supporting 
disease surveillance in wild birds, live bird markets, and pigs in Hong 
Kong, allowing scientists to track potential emergent influenza 
strains. In January 2005, the contract was expanded to include animal 
surveillance in Vietnam, Thailand, and Indonesia.
    The Institute has taken a number of steps to develop and clinically 
test vaccines against the two influenza viruses with the greatest 
pandemic potential. For example, under contract to NIAID, Chiron 
produced 40,000 doses of an H9N2 inactivated vaccine; a Phase I 
clinical trial of this vaccine in healthy adults began March 31, 2005. 
NIAID intramural scientists have also developed an attenuated H9N2 
vaccine candidate that will soon be evaluated in humans.
    NIAID has also initiated clinical testing of an H5N1 influenza 
candidate vaccine developed by NIAID-supported researchers at St. Jude 
Children's Research Hospital. In January 2004, these researchers 
obtained a clinical isolate of the highly virulent H5N1 virus that was 
fatal to humans in Vietnam in late 2003 and early 2004. They used a new 
technique called reverse genetics to create an H5N1 candidate vaccine 
from this strain. In May 2004, NIAID awarded contracts to Sanofi 
(formerly Aventis) Pasteur and Chiron for the manufacturing and 
production of inactivated vaccine against H5N1 influenza using this 
strain. Sanofi Pasteur delivered vaccine to NIAID in early March 2005; 
delivery of the Chiron vaccine is estimated to be in fall 2005. NIAID's 
Vaccine and Treatment Evaluation Units (VTEUs) currently are conducting 
a clinical trial of the Sanofi Pasteur vaccine in healthy adults. 
Following the review of the safety and immunogenicity data from the 
adult trial, NIAID plans to initiate trials of the H5N1 vaccine in 
healthy elderly and other populations. In addition, NIAID intramural 
researchers have developed three attenuated H5N1 vaccine candidates, 
which have been shown to be protective in mice; initial clinical trials 
of one of these vaccine candidates may begin as early as this year.
    Efforts also are underway to test and improve antiviral drugs to 
prevent or treat avian influenza. NIAID is supporting an animal study 
to determine if combination therapy with two classes of antiviral 
drugs--neuraminidase inhibitors and adamantanes--is more effective that 
a single antiviral in reducing viral replication and emergence of drug 
resistant strains. The Institute is also supporting the development and 
testing of a long-acting next generation neuraminidase inhibitor that 
can be administered once per week.
    NIAID supports a number of basic research projects that could lead 
to significant advances in pandemic influenza preparedness, including 
research that could lead to vaccine strategies that would provide 
broader protection against a wide range of influenza strains and 
strategies to allow rapid production of a vaccine against a newly 
emergent strain. In addition, the Influenza Genome Sequencing Project, 
launched in the fall of 2004, is a collaboration between NIAID, the 
Centers for Disease Control and Prevention (CDC) and other 
organizations. The complete genetic sequences of thousands of influenza 
virus isolates will be determined and made available to the scientific 
community; to date, approximately 120 viruses have been sequenced. This 
program will enable scientists to better understand the emergence of 
influenza epidemics and pandemics by observing how influenza viruses 
evolve as they spread through the population. Moreover, scientists will 
be able to match viral genetic characteristics with virulence, ease of 
transmissibility, and other properties; this knowledge could lead to 
improved methods of treatment and prevention, as well as guide the 
public health emergency response should an influenza pandemic emerge.

                           BIOTERROR THREATS

    Question. Dr. Fauci, please update us on the progress in the 
development of countermeasures against bioterror threats?
    Answer. Since the attacks of September 11, 2001, and the anthrax 
attacks the following month, the United States has made significant 
progress in developing countermeasures against bioterror threats. The 
National Institute of Allergy and Infectious Diseases (NIAID) supports 
a comprehensive biodefense research and development program, which 
includes the development of biodefense countermeasures to combat 
Categories A, B, and C biological agents, as well as the expansion of 
the national research infrastructure and resources available to 
biodefense researchers. Basic research on microbes and host immune 
defenses serves as the foundation for applied research to develop the 
vaccines, therapeutics and diagnostics that the United States will need 
in the event of a bioterror attack.
    The NIAID biodefense program has benefited from the passage of the 
Project BioShield Act of 2004, which granted the National Institutes of 
Health and NIAID authorities to expedite and simplify the solicitation, 
review, and award of grants and contracts for the development of 
critical medical countermeasures. NIAID used its new BioShield 
authorities to make recent grant awards for research aimed at the 
development of therapeutics for botulinum toxin, Ebola virus, anthrax, 
pneumonic plague, tularemia, and smallpox. Using BioShield authorities, 
the standard eighteen-month timeline from the conception of an 
initiative to grant award was reduced to approximately nine months. In 
fiscal year 2005, the Institute anticipates making additional awards 
using these BioShield authorities for research related to the 
protection of the immune system against damage by radiological or 
nuclear attacks.
    The following are a few specific examples of NIAID's progress in 
the research and development of biomedical countermeasures against 
Category A bioterror agents:

Anthrax
    In 2002 and 2003, NIAID initiated early and advanced product 
development and testing of the next-generation anthrax vaccine (rPA) by 
awarding contracts to two companies, Avecia and VaxGen. In November 
2004, DHHS used its own Project BioShield authorities to award a 
contract to VaxGen to supply 75 million doses of rPA anthrax vaccine to 
the SNS. In addition, NIAID-supported scientists are conducting 
research to identify new targets for therapeutics. Scientists supported 
by NIAID determined the structure of the anthrax toxin, providing a 
better understanding of how the toxin causes disease and giving 
scientists the opportunity to design drugs that will specifically 
inhibit the anthrax toxin.

Smallpox
    In 2003, NIAID initiated the advanced development of Modified 
Vaccinia Ankara (MVA) smallpox vaccine through contracts to Acambis and 
Bavarian Nordic. Contracts awarded in October 2004 are supporting 
larger scale manufacturing of the MVA vaccine as well as additional 
studies of safety and effectiveness in animals and humans. Though a 
vaccine is the only proven way to prevent smallpox infection, 
therapeutics to fight an infection are also an important component of 
the biodefense arsenal. NIAID-supported scientists have discovered a 
new way to block the ability of smallpox to spread from cell to cell, 
which may lead to the development of next-generation antiviral drugs to 
combat smallpox and other viral infections.

Plague
    NIAID is supporting the manufacture of a plague vaccine through a 
contract awarded to Avecia in October 2004; this award will also 
support preclinical testing in animals and initial human clinical 
trials.

Tularemia
    In collaboration with the Department of Defense (DOD), NIAID is 
conducting a Phase I clinical trial using the DOD's Live Vaccine Strain 
(LVS) tularemia vaccine. In October 2004, NIAID modified an existing 
contract with DynPort Vaccine Company to support the manufacture of 
additional LVS vaccine in anticipation of possible future clinical 
trials as well as for use in evaluation of the stability of the 
vaccine.

Botulinum toxin
    In March 2005, NIAID made its first contract award using Project 
BioShield authorities to XOMA LLC, for the production of botulinum 
toxin monoclonal antibodies (serotype A) for clinical evaluation. In 
fiscal year 2005, NIAID expects to use Project BioShield authorities to 
make an additional contract award for the production of a recombinant 
botulinum toxin vaccine (serotype E) for clinical evaluation.

Viral hemorrhagic fevers
    NIAID's Vaccine Research Center (VRC) is currently conducting the 
first human trial of a vaccine to prevent Ebola infection. In addition, 
NIAID grantees and scientists recently made a critical discovery 
related to how Ebola virus infects cells. These findings raise the 
possibility that a broad-spectrum antiviral therapeutic could be 
effective against multiple hemorrhagic fever viruses such as Ebola and 
Marburg.

                           BIODEFENSE FUNDING

    Question. Dr. Fauci, we have heard that members of the scientific 
community have criticized that increased biodefense funding at NIH has 
come at the expense of other important public health research. Can you 
comment on this?
    Answer. The terrorist attacks of September 11, 2001, and the 
dissemination of anthrax spores through the U.S. mail later that fall 
prompted the Administration, with bipartisan support from Congress, to 
dramatically increase spending on biodefense research, with the 
specific goal of developing medical countermeasures to protect the 
public against agents of bioterror. More than $1.5 billion was added to 
the National Institutes of Health (NIH) budget in fiscal year 2003 for 
biodefense research. These funds are additive to funds for other 
infectious diseases research; the biodefense funds did not and will not 
divert resources from other important infectious diseases research.
    The non-biodefense resources of the National Institute of Allergy 
and Infectious Diseases (NIAID) increased by more than 50 percent from 
fiscal year 2000 to fiscal year 2005, keeping pace with or exceeding 
the average annual increases received by NIH during this same period.

                    DEVELOPING ADVANCED TECHNOLOGIES

    Question. From everything being written in the media, there is 
reason to be optimistic that we are close to unraveling the mysteries 
of cancer. Much of the progress being made is a direct result of new 
technology that wasn't available even only a few years ago. If there 
are still gaps in available technology that are preventing researchers 
from having a complete understanding of the complexities of cancer, has 
NCI considered ways in which the necessary tools could be developed?
    Answer. Research over the past three decades has led to unimagined 
progress in our understanding of the cancer process at the genetic, 
molecular, and cellular levels. The combination of scientific talent, 
infrastructure, partnerships, and expertise coupled with an 
extraordinary array of advanced technologies is allowing us to 
understand cancer as a process--a process that begins with a single 
genetic alteration and proceeds through several stages to a lethal 
disease. Even now, as we stand an inflection point for progress in 
eliminating the suffering and death due to cancer, emerging 
technologies hold the key to accelerating our understanding of the 
complexities of cancer and how to prevent, diagnose, and treat cancer 
in its many forms. As we search for the most effective ways to harness 
the power of scientific discovery and to enhance our understanding of 
cancer's complexities, we know that the most direct path will be 
through the optimal integration of science and technology, specifically 
advanced technologies such as bioinformatics, cancer imaging, 
proteomics (the study of proteins), and nanotechnology (man-made 
devices minuscule enough to enter living cells).
    The National Cancer Institute (NCI) has already taken steps to 
achieve paradigm shifting technology advances through the launch of the 
cancer Bioinformatics Grid (caBIG), an unprecedented platform to be 
available to the entire cancer research community. NCI has also 
established the Alliance for Nanotechnology in Cancer to unite a broad 
array of programs to maximize the technology outputs. Initiatives in 
proteomics and cancer imaging are underway as well. As these 
technologies mature, we must also create the technology development 
resources and the seamless system needed to capitalize on their 
discoveries.

                         PERSONALIZED MEDICINE

    Question. Over the past year, there has been a great deal of 
discussion surrounding research areas such as genomics, proteomics, and 
metabolomics. Articles suggest that research in these areas will 
provide research breakthroughs that will translate into new forms of 
targeted therapies and a way to personalize the treatment that cancer 
patients will receive in the future. Is this a realistic expectation or 
just science fiction?
    Answer. Personalized medicine is not only a real possibility; it is 
critical to achieving NCI's goal to eliminate the suffering and death 
due to cancer by 2015. The Nation's investment in cancer research has 
led us to a point today where we're beginning to understand cancers at 
the molecular and genetic and cellular levels, and this understanding 
is influencing our selection of therapy and moving us to personalize 
medicine and personalize oncology. As our understanding of the cancer 
process increases, so does our ability to seek out and target key 
points in that process to disrupt and reverse the development of 
cancer. Part of our challenge is to understand how those targets differ 
from cancer type to cancer type and how each patient might react 
differently to potential therapies. Technologies such as molecular and 
genetic profiling and proteomics are opening the door to understanding 
these diseases and how they behave on an individual basis.
    Using molecular profiling, NCI scientists have been able to 
identify and predict mantle cell lymphoma patients' survival following 
diagnosis based on the each cancer's distinct signature. Knowing whose 
disease is slow-moving and whose is progressing rapidly should help 
determine who would do well with a watchful waiting approach and who 
may benefit from early and aggressive treatment, possibly with new 
therapeutic regimens. For chronic lymphocytic leukemia, scientists have 
known for several years that there were two types of this leukemia, but 
the means for telling the two apart and affecting treatment choices was 
complex and not available to most patients. The same NCI group recently 
showed that expression of a single gene, ZAP-70, is a surrogate for 
this distinction, paving the way for better treatment choices for more 
patients.
    Recent breakthroughs are also enabling scientists to identify 
patterns of protein markers associated with cancer initiation and 
progression and with particular cancers. Biomarkers (tumor indicators 
found in body fluids or tissues) hold promise for making personalized 
medicine a reality. They have many potential applications including 
early diagnostic testing, monitoring response to treatment, detecting 
metastatic disease, and building ``designer'' therapies. Already, 
information-rich blood sample proteins are being use to detect patients 
with ovarian cancer, effectively differentiating early-stage cancer 
patients from unaffected individuals. Similar methods potentially may 
be used to monitor a patient's response to molecularly targeted drugs, 
which could prove useful in designing patient-tailored therapies.

                   CANCER BIOMEDICAL INFORMATICS GRID

    Question. NCI has built an impressive network of cancer centers 
around the country. Have you developed any resources that would enable 
the cancer centers and the broader cancer research community to share 
data and information?
    Answer. By using the power of modern information technology, NCI is 
leading the way in developing a bioinformatics platform that promises 
to revolutionize the biomedical research enterprise. Scientists in 
various disciplines will have access to a common infrastructure for 
collaboration and integration of findings, and new ``plug and play'' 
tools developed by the researcher community will make it possible for 
investigators to greatly accelerate their research. For example, 
researchers at Cancer Centers across the country will be able to access 
data on the molecular characteristics of patients with a particular 
type of cancer who are being treated with a specific drug. Diverse data 
mounted on common platforms will permit researchers to use innovative 
analytic tools to mine the information in ways inconceivable a few 
years ago.
    Up to the present, bioinformatics resources have been developed in 
organizational isolation, with tremendous variability in rules, 
processes, vocabularies, data content, and analytical tools. NCI will 
address these concerns and strengthen the potential for bioinformatics 
integration with the cancer Biomedical Informatics Grid (caBIG). The 
caBIG will provide a unifying architecture to transparently connect 
information and tools much like a home entertainment system in which 
components are made by different manufacturers but built to common 
standards that allow users to combine them in various ways. Our long-
term goal for bioinformatics is to improve the sophistication of 
information technology use and surmount the barriers that limit 
interaction across research institutions. NCI is currently piloting a 
core infrastructure with the participation of 50 Cancer Centers.
    We are also fostering the development and use of new informatics 
technology to accelerate, better coordinate, and facilitate 
participation in NCI-supported clinical research. Currently, volumes of 
valuable raw data are not tapped, effective best practices are not 
widely distributed, and resources are wasted because of duplication of 
effort. With new bioinformatics tools and infrastructure, trials will 
be completed more quickly in multi-institutional settings with uniform 
electronic case report forms and data reporting systems. Databases and 
analytical tools will make information from all clinical trials 
available to NCI-supported researchers for efficient patient accrual, 
information retrieval, and data analysis. Informatics systems will 
assist the cancer community with priority setting and allow for fuller 
participation and a more transparent decision making process. Advocacy 
groups and individual patients will be empowered to participate in 
clinical research and to authorize use of materials for basic science 
investigations. Confidential clinical and proprietary information will 
be protected by controlled, secure access. Just as e-business models 
have transformed the American market place, the caBIG platform will 
overcome traditional institutional limitations. Community 
practitioners, clinical research organizations, and academic centers 
will be linked through this new model of clinical research. Healthcare 
providers will become full partners in the research enterprise and 
educated consumers of research findings.

                          CANCER SURVIVORSHIP

    Question. Recent statistics show that there are now nearly 10 
million cancer survivors in the United States. This is a dramatic 
change from the outcome that the majority of people diagnosed with 
cancer faced in the not too distant past. What have been the key 
advances in medicine that have provided so many more people with a 
healthy outcome after being diagnosed with cancer?
    Answer. Healthy outcomes for cancer can be primarily attributed to 
two key areas--early detection and prevention, and better treatment 
regimens. Newly aligned goals focused on preventing cancer from 
occurring and detecting it early when it is most curable are the keys 
to reducing the incidence of cancer. Dramatic developments in 
technology and a more complete understanding of the causes and 
mechanisms of cancer have given us more effective ways to prevent the 
disease. New evidence-based interventions encourage lifestyle 
improvements in diet and physical activity, discourage smoking, and 
promote the use of safe and fully tested chemoprevention approaches for 
people at risk. Pioneering proteomic and biomarker advances and the 
promise of nanotechnology give hope for the early detection and 
diagnosis of cancer and prediction of patient response to treatment. 
Advanced information systems and methods of evaluation maximize the 
impact of existing technologies. NCI is ramping up specimen 
repositories and widely accessible bioinformatics resources to support 
the development of these breakthroughs.
    Newer and better drugs are being developed every day, and 
combinations of many of these drugs are leading to longer survival 
times for many cancer patients. For example, the long-term outlook for 
breast cancer survivors improved significantly with news of a study 
that revealed the benefits of a drug that inhibits the synthesis of the 
hormone estrogen. The large, international study of the drug letrozole 
was specific to postmenopausal women who had been treated for early 
stage breast cancer that was estrogen-receptor positive and had just 
completed a five-year course of tamoxifen. Women who took letrozole 
(Femara) were 43 percent less likely to experience a recurrence 
compared to women who took a placebo. The study, begun in 1998, was 
stopped ahead of schedule in 2003 when the positive effects became 
clear so that the women taking a placebo could be offered the drug.
    Another example is the promising agent, iodine-131 tositumomab 
(Bexxar), which is easier to take and less toxic than standard 
chemotherapy and has significant impact in extending the lives of 
patients who took it. In a phase II trial that included 76 patients 
with advanced-stage follicular lymphoma, nearly all of the patients (95 
percent) responded to treatment, and three out of four were free of the 
disease after a single course of treatment. Five years later, most of 
the patients were in remission.

                           CANCER PREVENTION

    Question. The development of new ways to treat cancer seems to be 
highlighted in the press quite often. It makes more sense to find ways 
to prevent cancer--can you tell us about any progress NCI has made in 
cancer prevention?
    Answer. The prevention of cancer focuses on studying and modifying 
behaviors that increase risk, mitigating the influence of genetic and 
environmental risk factors, and interrupting the carcinogenesis process 
through early medical intervention. We can save many lives, for 
example, by continuing to advance understanding of the biological and 
behavioral basis of nicotine addiction and energy balance. Evidence 
from recent NCI-sponsored studies suggest specific gene variations can 
affect smokers' cravings and that bupropion, an antidepressant used to 
help smokers quit, may ease these cravings, especially in women. Other 
medications to help smokers quit are under development and current 
evidence suggests that information and referrals from quit lines, as 
well as behavioral counseling from healthcare providers, significantly 
increase abstinence rates.
    NCI is also supporting the development of prevention vaccines and 
chemopreventive agents for suppressing the carcinogenic process either 
at its inception or in pre-invasive stages. A new vaccine that targets 
the infectious agent human papilloma virus (HPV), implicated in 
cervical cancer, is being tested in clinical trials and is anticipated 
to be available to women at risk in the near term. Preclinical studies 
are beginning to identify prevention agents that impact cellular level 
targets to intervene in the cancer process, and clinical trials will 
test the value of these agents in preventing disease. NCI has 
established a new consortium of research centers to conduct early phase 
cancer prevention clinical trials. In 2004, NCI completed recruitment 
of 19,747 postmenopausal women at increased risk of breast cancer to 
participate in a clinical trial of the chemopreventive agent 
Raloxifene. Another prevention trial, the Prostate Cancer Prevention 
Trial, ended early after showing that men who took finasteride reduced 
their chances of getting prostate cancer by nearly 25 percent compared 
to men taking a placebo. A new proteomics technique has been used to 
successfully distinguish people who responded well to a drug that 
reduces colon polyps from those who did not. This technique increases 
our ability to target preventive agents to those who will most benefit. 
The impact preventative medicine and behavioral research have on 
reducing the cancer burden will continue to grow as similar techniques 
are developed and refined.
    As we make such breakthroughs, we must actively translate 
prevention research into improved outcomes and facilitate the role of 
public policy to see that all people have knowledge of and access to 
preventive medicine and approaches. NCI understands that the media are 
a critical component of health communication as it relates to cancer 
prevention and we are working to optimize dissemination to patients, 
caregivers, and at-risk populations. For example, inadequate nutrition 
and physical activity appear to contribute to a sizable proportion of 
cancers. Through NCI's 5 A Day for Better Health Program, we seek to 
increase public awareness of the importance of eating 5 to 9 servings 
of fruits and vegetables every day for better health and provide 
consumers with specific information about how to include more servings 
of fruits and vegetables into their daily routines. NCI has also 
established Centers of Excellence in Cancer Communication Research, two 
of which are examining how the media communicate about cancer 
prevention. Through efforts like these, NCI is seeking ways to better 
work within media constructs to raise the level of dissemination and 
understanding of evidence-based cancer prevention messages.

             CLINICAL RESEARCH AND ACADEMIC HEALTH CENTERS

    Question. Dr Zerhouni, as a result of the recent doubling of NIH by 
Congress we've seen a remarkable increase in fundamental knowledge 
about diseases like Alzheimer's, Parkinson's and diabetes. But I'm sure 
you understand that knowledge, in and of itself, is not enough unless 
it's put to use. Many of us are concerned that the next step in the 
process--the clinical research that translates into cures and improved 
treatments--isn't getting enough attention. Please tell us specifically 
what's being done to get science from the bench to the bedside, and 
whether you have enough legislative authority to put more emphasis on 
that side of the equation?
    Answer. In order to improve human health, scientific discoveries 
must be translated into practical applications. Such discoveries 
typically begin with a clinical observation in a single patient or 
group of patients, or at ``the bench'' with basic research--in which 
scientists study disease at a molecular or cellular level. However, the 
discovery must then be translated to the clinical level, or the 
patient's ``bedside.'' Translation is complicated, with input needed 
from a multidisciplinary team of scientists and other professionals.
    In recent years, NIH-supported studies have addressed important 
translational issues, which have had direct implications for patient 
care on the front lines of medicine. The Women's Health Initiative 
assessed whether hormone replacement therapy (HRT) in post-menopausal 
women reduced heart attack rates; results demonstrated that it did not, 
and in fact, increased health risks; the Antihypertensive and Lipid-
Lowering Treatment to Prevent Heart Attack Trial (ALLHAT) compared the 
occurrence of heart attack and stroke in high-risk hypertensive 
patients treated with either newer classes of drugs or with long 
established, inexpensive diuretics, and found that the diuretics were 
at least as effective as the new, more expensive medications; the 
Sudden Cardiac Death in Heart Failure Trial (SCD-HeFT) tested whether 
an implantable cardiac defibrillator (ICD) or an antiarrythmic drug 
would help prevent sudden death in heart failure patients, and reported 
that the ICD significantly reduced deaths (while the drug was no better 
than placebo); the National Emphysema Treatment Trial (NETT) tested the 
effectiveness of bilateral lung volume reduction surgery (LVRS) in the 
treatment of emphysema, and established that that LVRS benefits some 
but is harmful to others. Results were used as the basis for CMS 
coverage decisions regarding LVRS.
    Despite these and other important findings, NIH recognizes that 
concerns have been raised about the status of clinical and 
translational research. The agency is accelerating and strengthening 
this focus through the ``Re-engineering the Clinical Research 
Enterprise'' initiative, which is part of the NIH Roadmap. By 
integrating clinical and translational resources--such as informatics, 
biostatistics, career development, regulatory support--into a unified 
program, the NIH aims to greatly enhance the efficiency and scope of 
clinical research. This will allow more rapid translation of basic 
research into studies that can be performed in human subjects and 
provide tools for the rapid and broad dissemination of the results of 
clinical trials.
    As a result of Roadmap initiatives, academic institutions are 
beginning to undergo transformative changes to break down 
organizational roadblocks and disciplinary silos and bring individuals 
with different types of expertise into newly collaborative, integrative 
structures focused on solving complex health problems. There are also 
experiments underway that will allow for the creation of enhanced 
training and career pathways for individuals in the translational and 
clinical sciences. Because there is broad heterogeneity among the 
individual cultures of the AHCs, NIH is encouraging flexibility in 
experimenting with different and innovative approaches to address the 
need for training the clinical and translational investigators of the 
21st century.
    Moreover, the NIH Clinical Roadmap is working to develop a cadre of 
community-based physicians trained to carry out clinical studies in the 
context of their own health care settings, and to be leaders in 
translating cutting edge research findings directly into clinical care. 
An ongoing study is evaluating the feasibility and mechanisms necessary 
to succeed in implementing such a program.
    Also under the aegis of the Roadmap, the NIH has established a new 
Clinical Research Policy Analysis and Coordination Program to stimulate 
the development of coordinated policies, practices, and tools to 
harmonize Federal regulatory policy and to ensure efficient oversight 
of clinical and translational research and of human subject 
protections.
    In addition, NIH is fostering intergovernmental relationships with 
the Centers for Medicare and Medicaid Services (CMS), the Agency for 
Healthcare Research and Quality (AHRQ), the Centers for Disease Control 
and Prevention (CDC) and other agencies and health care plans to help 
ensure that clinical research results are used to develop evidence-
based, cost-effective healthcare.
    In its efforts to address the bottlenecks in translating results 
from clinical research into improved treatments and other 
interventions, the NIH aims to create a coordinated and supportive new 
infrastructure that will facilitate the more rapid translation of 
discoveries from the laboratory to the healthcare setting.
    Question. On a related note, the academic health centers where 
clinical research is carried out--like Case Western Reserve, for 
example--are being squeezed. Part of the problem is the result of 
unfunded federal mandates like HIPAA. How does this affect NIH's 
ability to support clinical research, and ultimately help patients?
    Answer. NIH recognizes the many requirements to which institutions 
must respond as they conduct and oversee clinical research. While these 
requirements pertain to important matters like human subject 
protections and safety oversight, NIH believes that much can be done to 
streamline them, thereby enhancing their effectiveness and diminishing 
unnecessary burden. To promote specific initiatives in this regard, the 
NIH established as a key element of its Roadmap effort a new Clinical 
Research Policy Analysis and Coordination (CRpac) Program.
    CRpac's goal is to create a trans-government forum for stimulating 
the harmonization, streamlining, and optimization of policies and 
requirements pertaining to the conduct and oversight of clinical 
research. CRpac staff thus work closely with other Federal agencies and 
offices that have responsibilities related to the funding and oversight 
of clinical research, including the Office for Human Research 
Protections, the Food and Drug Administration, the Department of the 
Veterans Administration, the Department of Defense, and other Federal 
agencies that have adopted the ``Common Rule'' for human subjects 
protections. Ensuring the more effective protection of research 
participants, as well as promoting the more efficient translation of 
research findings into clinically useful products, are two major aims 
of this program.
    Some specific foci of the CRpac program include harmonizing diverse 
adverse event reporting requirements; clarifying policy where 
variability in the interpretation of the human subjects regulations 
exists; providing guidance on the use of IRBs and DSMBs; and 
stimulating a dialogue and consensus on clinical trial design issues to 
advance the science, safety, and ethics of translational research.
    Question. Again, what do you need in the way of legislative 
authority to meet the demands placed on these academic health centers?
    Answer. NIH has sufficient legislative authority and flexibility to 
meet the demands placed on academic health centers.

                          ALZHEIMER'S DISEASE

    Question. For the past several years this Subcommittee has 
consistently encouraged NIH to assign a high priority to research on 
Alzheimer's disease. In fiscal year 2002, the Subcommittee went so far 
as to encourage NIH to boost its investment in Alzheimer's disease 
research to $1 billion. But despite the steady increase in 
appropriations for the Aging Institute, I understand that your 
investment in Alzheimer research actually declined by nearly $20 
million between fiscal year 2003 and fiscal year 2004. Would you 
explain how that could possibly happen?
    Answer. It is true that NIH funding for Alzheimer's disease (AD) 
research--for which the National Institute on Aging (NIA) is the lead 
NIH institute, although several NIH Institutes support AD research--
decreased from fiscal year 2003 to fiscal year 2004. Since its 
inception in 1974, the NIA has placed a very high priority on 
Alzheimer's disease and AD-related research, such that AD has received 
by far more funding by NIA than any other aging-related disease 
research. In fiscal year 2004, despite the Institute's best efforts, 
which included the funding of a major new multi-million dollar 
initiative, the Alzheimer's Disease Neuroimaging Initiative, the NIA--
and to a lesser degree, the NIH as a whole--experienced its first-ever 
decrease in AD funding.
    In fiscal year 2004, the number of Research Project Grant (RPG) 
applications submitted across all NIA programs was unusually high, up 
40 percent from fiscal year 2003. This made fiscal year 2004 a very 
competitive year overall for RPG funding at NIA. Of the applications 
the Institute received that were judged highly meritorious in peer 
review, considerable more dealt with other diseases and conditions 
included in the NIA mandate, while far fewer were AD-related, than in 
the preceding year. This was highly unusual, and there is every 
expectation that it will not re-occur and that funding for AD-related 
research will increase in fiscal year 2005.
    Question. Can you give the Subcommittee some assurances that this 
will not occur again?
    Answer. An immediate assurance can be offered to the Subcommittee 
that Alzheimer's disease research continues to be a high priority for 
the NIA, and that the situation is being continually monitored and 
proactive steps have been taken that should prevent the re-occurrence 
of this unanticipated situation. So far during fiscal year 2005, AD 
research applications have been more competitive in peer review than 
this time last year, so that AD-related awards are outpacing non-
Alzheimer's disease awards. In addition, $8 million of approximately 
$10.2 million available for new NIA initiatives in fiscal year 2005 has 
been allocated for AD initiatives. Finally, the fiscal year 2005 
Centers allocation will provide an increase in the AD Centers program 
funding of at least 1.5 percent above fiscal year 2004.
    We are continuing to monitor the situation closely, but currently 
fiscal year 2005 AD funding is on track and consistent with application 
success rates seen in previous years. If this rate continues through 
the rest of the fiscal year, fiscal year 2005 AD funding will most 
assuredly be higher than fiscal year 2004.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                Fiscal year
                                                         -------------------------------------------------------
                                                              2003          2004          2005          2006
----------------------------------------------------------------------------------------------------------------
Alzheimer's Total NIH...................................          658           633           647           649
Aging Institute share...................................         (502)         (483)         (496)         (498)
----------------------------------------------------------------------------------------------------------------

                       POLYCYSTIC KIDNEY DISEASE

    Question. The National Institutes of Health in general--and the 
National Institute of Diabetes and Digestive and Kidney Diseases 
[NIDDK], in particular, has--under your NIH Roadmap to the Future 
initiative--focused anew on translating basic research discoveries into 
therapeutic interventions to treat/cure some of the world's most 
prevalent life-threatening diseases, including polycystic kidney 
disease or PKD . . . the most common life-threatening genetic disease 
affecting 600,000 Americans. I would appreciate your comments about 
whether the discovery of the PKD genes in 1994/1995 culminating in the 
current clinical drug trial for PKD in humans--enabled by research 
partnerships between the Federal government (via NIDDK), private 
funding sources, and industry, combined with innovative technological 
advances such as provided from the CRISP study--is an example of what 
was envisioned in the development of the NIH Roadmap initiative, and--
if so, in what respects?
    Answer. The intent in developing the NIH Roadmap for Medical 
Research was to tackle very broad scientific challenges and thereby to 
generally move translational research forward for the benefit of all. 
Thus, NIH Roadmap initiatives are not specific to any particular 
diseases, but are expected to yield benefits for a wide range of 
diseases. While not directly funded under the Roadmap, the PKD research 
you cited--such as the Consortium for Radiologic Imaging Studies of 
Polycystic Kidney Disease (CRISP) study--is indeed consistent with the 
vision of the broader NIH Roadmap for Medical Research. The CRISP study 
has been a successful collaborative effort of imaging specialists and 
clinicians focused on PKD. The focus of the CRISP study is investment 
in the groundwork that will facilitate the development and eventual 
testing of clinically practical intervention strategies for PKD. The 
CRISP investigators have used state-of-the-art imaging techniques to 
develop new non-invasive methods that can reliably assess PKD 
progression. Such methods are important as they will facilitate design 
of future clinical trials of new therapies for PKD, which will likely 
require shorter follow-up periods and fewer patients than current 
trials of kidney disease. Similarly, it is hoped that NIH Roadmap 
initiatives will, among other things, provide technologies and other 
resources to facilitate discovery and characterization of disease 
genes; integrate expertise from multiple disciplines to more 
effectively attack problems in health and disease; enable more rapid 
testing of promising therapies in animal models of disease and in 
humans; and promote partnerships between the public and private 
sectors. By optimizing scientific tools and removing barriers to 
progress for researchers across all research fields, the NIH Roadmap 
should help pave the way to an accelerated pace of discovery from the 
bench-to-the-bedside for specific diseases such as PKD.
    Question. In testimony before Congress on April 22, 2004, Dr. Allen 
Spiegel, the Director of NIDDK, said that ``PKD represents an 
intersection of public health need, scientific opportunity and input 
from stakeholders regarding research directions, and that the NIDDK--
working in conjunction with patient groups, such as the PKD Foundation, 
and investigator groups, such as the American Society of Nephrology--
resulted in a strategic plan to exploit research opportunities, engage 
in expanded molecular research, develop new animal models and establish 
four PKD Research Centers.'' In sum, he said NIDDK is committed to 
moving the research agenda forward toward the goal of developing more 
effective diagnosis, treatment and prevention of disease. Therefore, 
considering these developments and the fact that the prime cause of 
death for PKD patients is chronic cardiovascular disease, that PKD 
patients suffer greatly from psychosocial problems like depression, 
anxiety and suicide due to PKD's chronic nature, and the recessive form 
of PKD has such a high rate of morbidity and mortality in neonates and 
infants, to what extent is NIH considering ``inter-institutional'' 
research involving NIDDK, NHLBI (the National Heart, Lung and Blood 
Institute), NICHD (National Institute of Child Health & Human 
Development) and the NIMH (the National Institute for Mental Health) as 
a means to uncover potential interventional methods which could address 
these significant co-morbidities?
    Answer. There are two major avenues through which the NIH is able 
to pursue collaborative research opportunities and initiatives on the 
co-morbidities of PKD and other chronic kidney diseases. First, the 
statutory Kidney, Urologic, and Hematologic Diseases Interagency 
Coordinating Committee (KUHICC)--chaired by the National Institute for 
Diabetes and Digestive and Kidney Diseases (NIDDK)--encourages 
cooperation, communication, and collaboration among all relevant 
Federal agencies. Meetings of the Kidney Diseases Subcommittee provide 
an important opportunity for the NIH Institutes and Centers to initiate 
collaborations on shared interests in kidney disease.
    Second, as the lead Institute for research on chronic kidney 
diseases, including PKD, the NIDDK has spearheaded collaborative 
efforts to address many of the comorbidities experienced by PKD and 
other chronic kidney disease patients. Let me provide a few examples. A 
major new collaborative study being led by NIDDK, with participation of 
the NICHD, the NHLBI and the NINDS, is the Pediatric Chronic Renal 
Insufficiency Cohort Study (``CKIDS''). This important new undertaking 
will address the impact of chronic kidney disease on cardiovascular 
morbidity as well as neurocognitive development and emotional health; 
it will include children with both the recessive and dominant forms of 
PKD. In a related area, an initiative on chronic illness self-
management in children is currently being supported by the NIDDK, 
NHLBI, NICHD, and the National Institute on Nursing Research. The NHLBI 
convened a working group, ``Cardio-Renal Connections in Heart Failure 
and Cardiovascular Disease,'' on August 20, 2004 to further 
understanding of the interaction of the heart and the kidney in 
cardiovascular disease. The NHLBI is also a cosponsor of a planned 
NIDDK program announcement ``Pilot and Feasibility Program Related to 
the Kidney'' to foster the development of high-risk pilot and 
feasibility research; it is anticipated that this PA will be issued in 
2005. In 2001, the NIDDK collaborated with the NIMH and the NIH Office 
of Behavioral and Social Sciences Research (OBSSR) in holding a major 
conference to determine the state of knowledge with regard to the co-
morbid condition of depression in patients with diabetes, kidney 
disease, and obesity/eating disorders, and to propose a research agenda 
for the future. Finally, NHLBI and NIDDK have created a working group 
to address the relationship between hypertension and kidney disease, 
and are working collaboratively to design new initiatives in this area. 
All of these collaborative activities complement NIDDK's continuing 
efforts to address comorbidities of chronic kidney disease, such as the 
Chronic Renal Insufficiency Cohort (CRIC) study, which is examining the 
relationship between cardiovascular disease and chronic kidney disease 
in adults, in order to try to find opportunities to prevent and better 
treat both. Another example is the Folic Acid for Vascular Outcome 
Reduction in Transplantation (FAVORIT) trial, which is testing whether 
treatment to lower total homocysteine levels using a high-dose 
combination of folic acid, vitamin B12, and vitamin B6 will reduce 
cardiovascular damage in kidney transplant recipients. Both of these 
large studies include substantial numbers of patients with PKD.

                       BASIC BEHAVIORAL RESEARCH

    Question. As a matter of some concern I would like to bring to your 
attention an item relating to the National Institute of General Medical 
Sciences. I would also like to include Dr. Berg, as Director of NIGMS, 
on this item.
    Dr. Zerhouni, for the past seven years, starting in fiscal year 
1999, the Committee has included report language urging NIGMS to fund 
basic behavioral research and training. two years ago, Senator Inouye, 
Senator Harkin, and I had a colloquy on the senate floor expressing the 
Committee's strong support for basic behavioral research and training. 
Following the colloquy, I know the NIH commissioned a Task Force to 
study the matter and report back to the Director's Advisory Committee. 
I understand that report was made available to you and your Advisory 
Committee last December and it, too, very strongly urged that NIH 
initiate such a program and create an Institutional presence for it in 
an Institute like NIGMS.
    Dr. Zerhouni, what are your plans to implement a basic behavioral 
research and training program at NIGMS?
    Answer. In keeping with the preferred approach of performing 
portfolio analysis across NIH rather than on an institute-by-institute 
basis, a working group of the Advisory Committee to the Director, NIH, 
was formed to examine basic behavioral research across NIH. The working 
group reported to the Advisory Committee on December 2, 2004. Their 
analysis revealed that the institutes and centers (including NIGMS) 
supported approximately $2.68 billion in behavioral research, including 
approximately $936 million in basic behavioral research, in fiscal year 
2003. In addition to this base, several components of the NIH Roadmap 
for Medical Research are directed toward basic behavioral research. In 
particular, several mechanisms are being used to stimulate 
interdisciplinary research at the interface of the behavioral/social 
and biological sciences, provide the interdisciplinary training 
necessary for postdoctoral investigators to work in these areas, and 
support development of innovative methods and technology that will 
facilitate research at the intersection of the behavioral, social and 
biomedical sciences.
    Following the submission of the working group report, NIGMS has 
taken several steps to more clearly articulate the basic behavioral 
research it supports, encourage the submission of more research 
applications in these areas, and increase the number of investigators 
who can work at the interface of the behavioral and biological 
sciences:
    Research Training at the Interface of the Behavioral and Biological 
Sciences.--Basic behavioral research is of critical importance to the 
mission of the NIH and can play a crucial role in understanding the 
etiology of disease and enhancing preventive and therapeutic 
inventions. Greater understanding of the molecular, genetic, and neural 
processes governing behavior, and the reciprocal effects of behaviors 
on physiological processes, is crucial for a complete understanding of 
human health and those diseases in which behavior is a risk factor, 
diagnostic indicator, or symptom. To advance our knowledge in these 
areas, researchers will need to integrate multiple disciplinary 
perspectives, methodologies, and levels of analysis. NIGMS has a strong 
background in developing and supporting such interdisciplinary research 
training. While some existing NIGMS training programs such as the 
Medical Scientist Training Program and the Systems and Integrative 
Biology program include elements of the behavioral sciences, there has 
not been a program dedicated to training at the basic behavioral 
science-biological science interface. NIGMS has developed a proposal 
for such a predoctoral program and is coordinating its further 
development with other NIH Institutes having an interest in this area.
    Collaborative Research on Basic Mechanisms of Behavior.--To 
encourage the multidisciplinary research that is needed for a fuller 
understanding of the basic mechanisms of behavior, NIGMS has proposed 
an initiative to facilitate collaborations between basic behavioral 
scientists and investigators with expertise in state-of-the-art 
genetics, molecular biology, and genomics. It is anticipated that this 
collaborative research, performed with model organisms, will either 
enhance existing models or lead to the development of new models of 
normal or abnormal human behavior. The concept for this solicitation is 
to be presented for approval at the May 2005 meeting of the National 
Advisory General Medical Sciences Council.
    Assessing Interactions Among Social, Behavioral, and Genetic 
Factors in Health.--NIGMS is a major contributor to an Institute of 
Medicine committee examining the state of the science on gene-
environment interactions that affect human health. The study will 
identify approaches and strategies to strengthen the integration of 
social, behavioral, and genetic research in this field as well as 
consider relevant training and infrastructure needs. The results of 
this study will be used by the NIH to guide its programs in these 
areas.

                          WORK WITH PUBLISHERS

    Question. I know that you are putting together an Advisory Working 
Group to provide advice on implementation of the NIH Public Access 
policy. I understand that the Working Group will not be able to convene 
prior to the May 2nd implementation date of the new policy.
    Publishers are eager to work with you as they formulate their own 
policies for accommodating the NIH policy. They are important to the 
success of the NIH plan and I urge you to consult with them before May 
2nd, as you finalize the details of the implementation policy.
    Do you plan to consult with stakeholders before finalizing the 
details for implementing the access policy?
    Answer. Throughout the implementation phase, we have had inquiries 
from and communicated with a number of publishers and members of the 
library community concerning the operation of the submission system. 
The initial submission system has been designed to enable individual 
investigators to submit their manuscripts in keeping with the basic 
goals of the Policy. We plan to seek feedback from users, and we will 
make system enhancements based on substantial input from all 
stakeholders, including publishers, to facilitate submissions in the 
future by others designated to do so for the authors.
    Question. Given that your policy is to take effect May 2, can you 
outline the process NIH is following to assure such representation, and 
whether you expect to have scientific publishers identified and cleared 
for membership by May 2?
    Answer. Invitations to Working Group members have been made. The 
following publishers have accepted and will be participating in the 
Working Group: Jeffrey M. Drazen, M.D., Editor-in-Chief, New England 
Journal of Medicine; Brian Nairn, Chief Executive Officer, Health 
Sciences; Elsevier Mark E. Sobel, M.D., Ph.D., Executive Officer, 
American Society for Investigative Pathology; and Annette Thomas, 
Ph.D., Managing Director, Nature Publishing Group

                        SPINAL MUSCULAR ATROPHY

    Question. It is my understanding that the new Spinal Muscular 
Atrophy ``model'' for preclinical research and development for 
candidate therapeutics is in place. Please outline the applicability of 
this model to Muscular Dystrophy.
    Answer. The SMA Project, which is now underway, represents a new 
and as yet untested approach for developing therapies for diseases that 
meet certain criteria essential to a highly targeted therapy 
development strategy. SMA is a consequence of inherited mutations in 
the SMN1 gene. The SMN2 gene product has a very similar function to 
that of SMN1; thus, increasing the expression of the intact SMN2 gene 
was both a rational and plausible mechanism for therapeutic 
development. Moreover, since research had already identified several 
chemical structures with the biologic activity of increasing SMN2 
protein expression, there was a consensus that development of drugs 
targeting SMN2 expression represented the best pathway for SMA 
treatment development. In sum, the key traits in the design of the SMA 
project were: (a) a consensus pathway to SMA treatment development, 
such that resources were not diverted away from other, potentially 
successful, strategies and (b) the availability of lead chemical 
compounds on which to base drug development. It remains to be seen 
whether the unique drug development strategy that was selected for the 
SMA pilot program will be sufficiently effective to warrant its 
consideration for other neurological disorders.
    The important question with respect to MD is not whether the SMA 
model could be applied to MD in some way, but whether it is the best 
possible approach to apply the resources available for MD therapy 
development. There were critical criteria used in the NINDS's design of 
the SMA project (consensus on strategy and availability of lead 
compounds) that do not currently apply to MD. In the area of MD, there 
are at least five or six potential strategies under active study, any 
of which may prove to be effective in the treatment of MD. These 
strategies range from those that have a relative high probability of 
success in delaying the loss of muscle mass and thereby augmenting 
quality of life, to those that have a higher risk of sort-term failure 
but in the long run may more dramatically increase both quality and 
length of life. At this point in time, there is no consensus on any one 
strategy for emphasis, since the potentially most successful strategy 
is not nearly as clear as it was for SMA. Instead of choosing to divert 
resources to any one of a number of plausible strategies in MD therapy 
development, the NIH is making parallel investments in all of the 
strategies. As research progresses along these multiple, parallel 
pathways, their relative potential for therapeutic development and 
availability of candidate lead compounds likely will change and the NIH 
would adjust its aggressive pursuit of an MD therapy accordingly. 
Unless an arbitrary choice was made to exclude potentially successful 
treatment strategies in order to provide the necessary focus, an SMA-
type program is not applicable to MD.
    Question. The committee understands that the SMA Model statement of 
work is based upon an NIH Strategic plan developed by a steering 
committee. How does this separate steering committee reconcile research 
priorities with the NIH Director's strategic vision?
    Answer. The formal statement of work for the Spinal Muscular 
Atrophy (SMA) Project was developed by the NINDS scientific and 
contract staff to specify what services the contractor for the SMA 
Project would provide. The NINDS recruited the scientists and 
physicians on the SMA Project steering committee from industry, 
academia, the FDA, and the NIH based on their expertise in drug 
development and areas relevant to SMA. NINDS scientists serve on this 
committee in an ex officio capacity. This committee is advisory to 
NINDS, and the recommendations of the committee are implemented by 
NINDS in the context of the Director's strategic vision for NIH, which 
emphasizes applying innovative approaches to translate basic science 
progress into the development of therapies.
    Question. Please outline NIH assessment of the technical and 
contractual risk associated with the SMA model.
    Answer. There are two major aspects of risk associated with the SMA 
Project, neither of which can be meaningfully quantified. First and 
foremost, the scientific challenges of developing a therapy for a 
neurogenetic disorder are enormous. Medical science, despite extensive 
efforts, has had few successes so far in this endeavor for many 
reasons, not the least of which is the complexity of the nervous system 
and its diseases. Thus, the goal of developing a therapy within four 
years to the point that it is ready for human testing is extremely 
ambitious. This is one of the reasons that the selection criteria for 
the first disease of focus were necessarily stringent, and explains why 
the project must focus on one basic therapeutic strategy in order to 
move quickly toward the goal. The second aspect of risk concerns the 
structure of the program itself. The program is intended to expedite 
therapy development, but several aspects of the project are novel and 
untested, so whether it will indeed be an efficient and effective use 
of resources remains to be seen. In effect, the SMA Project must 
develop de novo a virtual drug company and develop a drug. It has 
proven challenging to identify contractors who are willing and able to 
perform services in disease areas that are outside the normal scope of 
their operations, particularly with such a rapid and restricted time 
line. Once the contracts are in place, the coordination of the various 
efforts and the marshalling of the whole toward accomplishment of the 
goal present considerable organizational, as well as scientific 
challenges, as evidenced by the high failure rate among even 
established biotechnology and pharmaceutical companies in this type of 
endeavor. It is difficult to anticipate what hurdles might arise in 
such a novel undertaking.
    Question. The committee understands that the SMA model was chosen 
because of the state of scientific understanding of this disease. What 
are the specific metrics and measures of merit for this determination?
    Answer. The NINDS chose SMA as the focus of the SMA Project because 
this disease best met the criteria that are critical for success of a 
narrowly focused approach to therapy development. These criteria 
include: (1) severity of disease (2) scientific readiness--which 
includes a defined genetic cause (loss of the SMN1 gene), a consensus 
strategy for treatment (increasing the SMN2 gene product), and the 
availability of ``lead'' chemical compounds. The focus of the SMA 
Project is a type of translational research that is normally conducted 
only in industry settings, which is the chemical conversion of an 
active chemical compound into a drug that is safe enough for human 
testing. Applying this strategy relies on the availability of ``lead'' 
chemical compounds that have a desirable biological activity and have 
the potential to be chemically improved for human use. Most 
importantly, previous academic and privately funded efforts had applied 
this strategy and identified small drug-like molecules with the desired 
activity, and the SMA Project is optimizing the activity and 
pharmacology of these molecules to make them suitable for clinical 
testing.
    Question. What would be the comparable level of understanding in MD 
research that would justify an MD model for translational research?
    Answer. Like SMA, MD is a severe, debilitating disease, and for 
some of the forms of MD, there are defined causes. However, unlike SMA, 
there is no consensus strategy for treatment, there is no single 
biological activity to target for treatment, and there are no ``lead'' 
compounds identified as potential therapeutics.
    In the case of Duchenne MD, there are several quite different and 
equally promising approaches to develop therapies. These include 
strategies to replace the defective gene, to repair that gene, to alter 
gene splicing, to override premature gene stop codons, to upregulate 
potentially compensatory genes, to increase the regenerative capacity 
of muscle by providing various trophic substances or by blocking the 
effects of growth inhibiting substances, to reduce the rate of muscle 
degradation by blocking various components of that process, and to 
replace cells via stem cells or progenitor cells. Unfortunately, none 
of these approaches have yet yielded the drug-like molecules that could 
form the basis of a drug development program for MD to the same degree 
that these are available for SMA, and the goal of identifying promising 
leads in these approaches to therapy development for MD is better 
served by a more diverse and competitive approach. The narrow focus of 
optimization efforts applied in the SMA Project will only be relevant 
to MD once these leads have been identified.
    The NIH is aggressively investing resources in translational 
research for MD through other mechanisms. These include the Wellstone 
Muscular Dystrophy Centers, the NINDS Cooperative Program in 
Translational Research, and investigator initiated research grants. 
Given finite resources, undertaking an SMA Project for MD at this time 
would require the NIH to divert funds from these other programs. The 
broad-based approach that the NIH is currently pursuing is the more 
appropriate way to advance MD translational research at this time.

                       MUSCULAR DYSTROPHY CENTERS

    Question. Please outline for the committee how MD centers are 
promoting translational research from advancements in basic MD 
research.
    Answer. Several of the Senator Paul D. Wellstone Muscular Dystrophy 
Cooperative Research Centers are supporting projects on translational 
research, which is research designed to take basic research to the 
stage of clinical testing. For example, investigators at the University 
of Washington are doing translational research in dystrophic mice that 
is designed to lead to a phase I clinical trial of gene therapy for 
Duchenne MD (DMD). Researchers at the University of Pittsburgh are also 
exploring methods for improved gene delivery using an adeno-associated 
virus (AAV) in a canine model of MD. AAV is a viral vector (the 
``delivery vehicle'' for a gene) that has been designed to carry a 
mini-dystrophin gene to a specific muscle location. If successful, this 
technique could allow the muscle to become more resistant to injury and 
restore function. A second translational study at the University of 
Pittsburgh center is using a dystrophic mouse model to explore the 
delivery of normal muscle derived stem cells to diseased heart tissue. 
The newest center at the University of Iowa will study the use of stem 
cell and novel gene therapy strategies for MD. One project in 
particular will study the development of mouse embryonic stem cells as 
therapeutic tools for muscular dystrophy. This center will also 
emphasize study of muscle membrane repair mechanisms that could lead to 
an alternative strategy for treatment of MD.
    An essential component of the Wellstone Centers program are the 
research cores at each center, which are developing improved research 
resources for use by the entire MD research community to accelerate 
translational research. For example, the core modules at the University 
of Washington are developing research and clinical grade gene transfer 
vectors and these vectors will be studied for their utility in gene 
therapy for the muscular dystrophies. The Wellstone Center at the 
University of Rochester uses one of its core modules to serve as a 
repository of resources, including cell lines, animal models, small 
molecules, and autopsy tissue. Core modules at the University of 
Pittsburgh support translational and clinical studies in clinical 
vector production for gene therapy. One of the cores within the new 
University of Iowa center will develop new in vitro models by 
inactivating genes that cause the various types of MD in an existing 
human embryonic stem cell line.
    Collaboration and coordination among the Wellstone Centers is 
another important component of the Centers program, and the Centers are 
awarded funds to support these collaborative efforts. Currently, the 
Wellstone Centers are using these funds to support two dog colonies--
one at University of Missouri and one at the Fred Hutchinson Cancer 
Research Center--as a national resource for research in MD, and working 
to ensure that these colonies are maintained and available for 
translational research. The dog MD models appear to have a phenotype 
that is very similar to that of Duchenne MD patients. The dog model is 
also important for assessing immune problems that may be associated 
with vectors used for gene therapy; thus, testing in the dog is an 
important stage after initial work in mouse muscular dystrophy models. 
These dogs are currently being used by researchers at a number of the 
Wellstone centers, as well as other researchers in the MD field.

                           MUSCULAR DYSTROPHY

    Question. Muscular Dystrophy researchers are exploring various 
avenues for therapeutic solutions, which include small molecule 
compounds, gene therapy and stem cell research. Please outline for the 
committee efforts in integrating these research efforts and 
prioritizing research investment strategies.
    Answer. NIH-funded researchers are pursuing a number of strategies 
to develop treatments for the MDs. These encompass drug-based (such as 
small molecule compounds), gene-based (such as gene therapy) and cell-
based (such as stem cells) approaches. For example, several studies are 
aimed at developing drug-based therapies to protect muscle mass and 
slow muscle degeneration by blocking various components of the 
degenerative process. Compounds such as protease inhibitors and 
glycosylating enzymes are potentially promising in this area. Other 
studies are pursuing strategies to enhance muscle repair and 
regeneration mechanisms to slow, and possibly stabilize muscle 
degeneration by either providing various trophic substances or by 
blocking the effects of growth inhibiting substances. In addition, NIH-
funded researchers are optimizing cell-based muscle replacement 
strategies, particularly strategies using stem cells or progenitor 
cells to populate skeletal and cardiac muscles with muscle fibers that 
express the absent proteins. Scientists are also developing and testing 
strategies for gene replacement therapy, including both gene or drug 
therapy strategies to replace the defective gene or increase expression 
of functionally homologous or compensatory genes. Finally, genetic 
modification therapies are being studied to bypass inherited mutations, 
using, for example, drug and antisense oligonucleotide exon skipping 
strategies.
    NIH is taking steps to ensure integration and coordination of these 
research efforts. For example, coordination of research efforts at the 
Senator Paul D. Wellstone Muscular Dystrophy Cooperative Research 
Centers is facilitated by a Steering Committee made up of 
representatives from the Centers and from the NIH institutes that fund 
them (NIAMS, NINDS, and NICHD). The steering committee's goal is to 
maximize collaborative utilization of the unique resources in 
infrastructure, expertise, and clinical recruitment created by the 
Wellstone Centers. This integration is particularly important in the 
areas of gene therapy and stem-cell based treatment strategies as a 
number of the Centers have projects and support cores focused on these 
two areas.
    Integration of research efforts and prioritization of strategies is 
also an important function of the Muscular Dystrophy Coordinating 
Committee (MDCC). This summer, a scientific working group will meet to 
develop and prioritize specific research aims based on broad research 
goals in the Muscular Dystrophy Research and Education Plan developed 
by the MDCC. Treatment strategies is one of the programmatic areas 
addressed in Plan and includes approaches such as developing effective 
gene therapy techniques, optimizing potential cell-based therapies, and 
pursuing pharmacological treatment approaches. The working group will 
not only prioritize research strategies, but will also identify 
additional obstacles and barriers to the progress of MD research and 
treatment, noting those that are likely to be addressed through ongoing 
research and programs, and those that might benefit from additional 
emphasis. At the next meeting of the MDCC (November 2005), the MD 
Scientific Working Group recommendations will be presented for 
discussion by MDCC member agencies.
    The MDCC also serves as a venue to coordinate research efforts 
among member agencies and organizations. The November 2005 MDCC meeting 
will have a specific focus on translational research, examining the 
relationship of current translational efforts by the NIH, the 
Department of Defense, the Muscular Dystrophy Association, and Parent 
Project Muscular Dystrophy. This meeting will identify the 
translational research strategies that are currently supported by 
federal agencies and advocacy groups and will reinforce efforts to 
minimize overlap and maximize utilization of resources available for 
MD.
    Question. Please outline for the committee the specific 
translational research efforts for MD; indicating their relative 
maturity. What percentage of research is investigator-initiated versus 
Institute generated?
    Answer. Translating scientific advances into therapies that can 
help people with muscular dystrophies is a very high priority for the 
NIH, and multiple strategies for therapeutic development are currently 
being pursued. The relative maturity for the most promising of these 
translational research approaches and some of the NIH-funded research 
and research initiatives in these areas are described below. These 
approaches are presented in ascending order of risk and projected 
development time, starting with the lowest risk and shortest time 
frame. The risk/development time assessments should be recognized as 
estimates, and those that are most easily achieved may dramatically 
improve quality of life for muscular dystrophy patients but are not the 
cures that may be possible from higher risk/longer time frame 
approaches.
    Blocking the loss of muscle mass.--Muscle fiber degeneration and 
the profound loss of muscle mass is the most visible consequence of MD 
and is directly responsible for progressive deterioration of muscle 
function in several types of MD. Strategies to block muscle fiber 
degeneration have shown promise. For example, several studies have 
shown that systemic treatment with a protease inhibitor reduces muscle 
membrane damage and ameliorates muscle degeneration in the mdx mouse 
model of DMD. Investigators in the NINDS intramural research program 
are currently pursuing the use of a protease inhibitor as a therapeutic 
strategy in MD patients.
    A project has also been approved for funding through the NINDS's 
``Cooperative Program in Translational Research'' for development of 
protease inhibitors that may be capable of delaying muscle degeneration 
in a variety of types of MD.
    Enhancing muscle regeneration mechanisms.--Muscle has an inherent 
repair capacity that allows it to overcome damage but this mechanism 
appears to be overwhelmed in MD. NIH-funded researchers have identified 
genes that regulate muscle regeneration; these represent potentially 
important therapeutic targets for MD. One of these genes, GDF8 or 
myostatin, inhibits muscle development and regeneration. Myostatin 
inhibition studies using molecular genetics or a specific blocking 
antibody suggest that the strategy can increase muscle mass in several 
types of MD. The very recent development of a strategy using an 
endogenous myostatin inhibitor may hold promise. Alternatively, growth 
factors that promote muscle growth and regeneration also have shown 
promise as a therapeutic strategy.
    Replacing degenerating muscle with new muscle derived from stem 
cells.--Muscle and other tissues contain stem cells that can be 
directed to form muscle fibers. There has been considerable progress in 
isolating and expanding stem cells, directing their fate, targeting 
them to dystrophic muscle, and using imaging technology to monitor the 
efficacy of stem cell transplantation. Overcoming the host immune 
response is one of the significant obstacles to the success of cell-
based therapy in MD.
    A project at the Wellstone Center at the University of Pittsburgh 
is focused on delivery of stem cells to diseased muscle, while the 
Center at the University of Iowa will use one of its cores as a stem 
cell resource for the MD community. In addition, a project funded as a 
result of an NIH program announcement entitled, ``Muscular Dystrophy: 
Pathogenesis and Therapies,'' as well as other NIH-supported studies, 
are exploring how to coax stem cells to become skeletal muscle cells 
with the ultimate goal of transplanting these differentiated cells.
    Gene therapy.--Gene targeting to replace a defective gene must 
overcome the problems of accessing the muscle tissues and avoiding an 
immune response to the delivery system. In addition, the large size of 
the dystrophin gene--in the case of Duchenne MD--has necessitated the 
development of novel vectors and mini-dystrophin and micro-dystrophin 
constructs. NIH-supported research has made considerable progress in 
these areas. Dystrophin constructs that are capable both of restoring 
muscle function and of being contained in the AAV vectors have been 
generated and tested in animal models. An additional obstacle in gene 
therapy is delivering the gene construct to sufficient numbers of 
muscle fibers such that muscle function is improved. Delivery systems 
are currently being tested for achieving the goal of treating MD 
patients.
    A number of projects at the Wellstone Centers are pursuing gene 
therapy strategies, and the research cores at two of the Centers are 
developing tools for use in gene therapy studies, as outlined earlier. 
The NINDS Cooperative Program in Translational Research also recently 
funded a major project that brings together a team of basic and 
clinical scientists to carry out the steps necessary to bring gene 
therapy for Duchenne MD to readiness for clinical trials. In addition, 
the program announcement, ``Muscular Dystrophy: Pathogenesis and 
Therapies,'' has resulted in a number of funded projects focused on 
developing novel or modified vectors, using mini-dystrophin constructs, 
and studying ways to effectively deliver the genes to muscle.
    Genetic strategies to bypass the mutations that cause MD.--Other 
approaches to correct a defective gene besides gene replacement are 
also being pursued. For example, antisense oligonucleotide (AO) 
technology may be used to skip, or splice out, those portions of the 
gene containing mutations and then produce a shortened, but still 
functional protein. Through research in cell culture and in animal 
models, AO administration has been shown to enhance expression of 
normal dystrophin protein. Studies supported by the NIH have made 
critical breakthroughs in AO technology and in demonstrating proof of 
principal in cell culture. While this technology is very promising, the 
delivery of AOs is subject to the many of the same obstacles as in the 
gene therapy studies described above. Other approaches include the use 
of drugs to produce ``read-through'' past the gene defect. An NINDS-
supported clinical trial for gentamicin-mediated read-through in DMD 
patients is underway.
    Both of these approaches--AO therapy and identification of 
compounds to promote read through--are being pursued in studies funded 
as a result of the program announcement, ``Muscular Dystrophy: 
Pathogenesis and Therapies.''
    It is difficult to estimate the percentage of MD translational 
research that is investigator-initiated versus institute generated, 
although the NIH MD portfolio contains a significant amount of both 
types. Investigators may submit a grant to the NIH as part of the 
regular submission process, or in response to a particular Institute-
generated initiative. The NIH Institutes, with considerable input from 
the research community, have been working to develop initiatives and 
programs to stimulate translational research in the MDs. For example, 
in April 2005, NIAMS announced a request for applications for Centers 
of Research Translation. Furthermore, NIH is currently developing a 
translational research initiative specific to MD, which will stress the 
milestone-driven approach to research and will include substantial 
project development and grant management interactions with NIH program 
staff.
    Question. Accelerated review of research proposals remains a 
concern for patient advocacy groups and the committee. Please outline 
for the committee all efforts NIH has undertaken with the Center for 
Scientific Review to expedite review decisions. Please provide 
supporting data regarding the length of time from RFP to award on MD 
related research.
    Answer. NIH's peer review process is widely recognized as the 
cornerstone of the remarkable success of the NIH extramural program. 
The NIH Center for Scientific Review (CSR) receives all grant 
applications submitted to NIH (approximately 75,000 per year), logs 
them in, refers these applications to a peer review panel to be 
evaluated on technical and scientific merit, and identifies a potential 
funding source at NIH. The majority of applications that come to NIH 
are reviewed by CSR, while the remaining ones are reviewed by specific 
institutes, in particular those that are received in response to a 
specific solicitation.
    Currently, the interval between NIH receiving an application and 
the application being considered for funding is typically 6-7 months. 
For example, in the case of the Senator Paul D. Wellstone MD 
Cooperative Research Centers, applications in response to the first 
Request for Applications (RFA) were received in February 2003, and 
awards were made in September 2003. NIH and CSR are considering ways to 
reduce this interval. However, it is essential that efforts to speed 
the process do not compromise the core values of NIH peer review 
system--a thorough and fair review of the application by a review panel 
with the appropriate scientific and technical expertise. One approach 
to accelerate the review cycle is the electronic receipt of 
applications. NIH is now accepting several types of grant applications 
electronically and will continue to introduce electronic receipt of 
other application types. When electronic receipt of grant applications 
is fully implemented at NIH, the system should offer considerable time 
savings because data, which in the past have been manually entered, 
will be automatically captured as soon as applications are submitted. 
In addition, it may be possible to automatically analyze some of the 
data initially captured during electronic receipt and streamline the 
referral process, thereby offering additional time savings.
    Expediting review of grant applications while maintaining review 
quality is a high priority for NIH. To underscore this, Dr. Zerhouni 
has recently created a new NIH Peer Review Advisory Committee to 
provide guidance on developing ways to advance NIH peer review and 
ensure its vitality. In addition, in March 2005, Dr. Zerhouni named a 
new CSR Director, Dr. Antonio Scarpa. When Dr. Scarpa begins work on 
July 1, 2005, he is expected to place a high priority on the goal of 
compressing the peer review cycle.

                   PEER REVIEW ON MUSCULAR DYSTROPHY

    Question. Continuity in Peer Review for Muscular Dystrophy research 
remains a concern. Please outline for the committee all efforts to 
ensure peer reviewers' areas of expertise encompass the full body of 
muscular research.
    Answer. The peer review of the majority of applications received by 
NIH is conducted at the Center for Scientific Review (CSR). In response 
to concerns expressed by the MD community, a working group of the 
Center for Scientific Review (CSR) Advisory Committee met in March 2001 
to evaluate the review of skeletal muscle biology research 
applications. The Skeletal Muscle Biology Working Group was composed of 
17 leading scientists in the field and several NIH staff. A particular 
concern of the working group was the locus of review for muscular 
dystrophy applications. Ultimately, the working group recommended the 
formation of a Skeletal Muscle Biology Special Emphasis Panel (SMB 
SEP). Nearly all muscular dystrophy related research applications 
reviewed by CSR were to be reviewed in this committee. The SMB SEP met 
for the first time in October 2001.
    The Skeletal Muscle Biology Working Group offered this 
recommendation as an interim solution pending recommendations to be 
made by the larger Musculoskeletal, Oral and Skin Sciences (MOSS) Study 
Section Boundaries Team (also a working group of the CSR Advisory 
Committee) that was scheduled to meet in July 2001 as part of a CSR-
wide reorganization process. The MOSS Team meeting in July 2001 drew 
heavily on and expanded the recommendations of the Skeletal Muscle 
Biology Working Group. The MOSS Team recommended elevating the status 
of the review group from a special emphasis panel to a permanent 
regular study section. This recommendation was accepted by the CSR 
Advisory Committee, and a new regular study section named Skeletal 
Muscle Biology and Exercise Physiology (SMEP) was implemented. The last 
meeting of the SMB SEP was in June 2003 and the first meeting of the 
SMEP study section, its successor, was in October 2003. The SMEP study 
section is now the primary locus of review for muscular dystrophy 
related research applications at CSR.
    The range of science in the applications reviewed by SMEP is 
extremely broad, spanning fundamental molecular biology to therapeutic 
interventions. To match this breadth, the committee is composed of a 
number of individuals with the expertise necessary to cover these 
varied topics. Eleven of the regular members assigned to review these 
applications are noted investigators who themselves conduct muscular 
dystrophy related research. As members rotate off the committee they 
are replaced by individuals with a similar background--five new members 
have been nominated for the coming year. In addition, to supplement 
this broad expertise, the committee has used twelve temporary members 
who also are involved in conducting muscular dystrophy related 
research.
    As stated above, the majority of applications received by NIH are 
reviewed by CSR. In contrast, applications that respond to specific 
initiatives are reviewed by individual NIH Institutes. Like CSR, the 
Institutes are also committed to ensuring that individuals with the 
appropriate expertise review applications, and continuously work to 
identify and invite scientists with specific knowledge and appropriate 
background to participate in the review of applications.
                                 ______
                                 
               Questions Submitted by Senator Judd Gregg

                    UMBILICAL CORD BLOOD STEM CELLS

    Question. Given that Umbilical Cord Blood Stem Cells are already 
being used to treat over 70 life threatening diseases, should the 
National Institutes of Health take steps to educate the public, and if 
so, how should education take place?
    Answer. The NIH scientists address questions from representatives 
of the news media and the public who directly contact the NIH. In 
addition, NIH scientists speak at conferences that are convened by 
professional and public interest organizations and they provide advice 
to the Health Resources and Services Administration in the development 
of a national cord blood bank program. Future directions for public 
education would involve convening a strategy development workshop of 
researchers and relevant stakeholder groups to determine what is 
currently being done to address education issues, identify major 
education gaps, and recommend and prioritize specific education 
outreach activities and areas requiring further research.
    In addition to these efforts, the NIH maintains a stem cell 
information website at http://stemcells.nih.gov. The NIH Stem Cell 
website is frequently visited by individuals seeking information on 
stem cell research, including cord blood stem cells. For example, the 
website has an NIH report entitled ``Stem Cells: Scientific Progress 
and Future Research Directions.'' This report has a chapter (http://
stemcells.nih.gov/info/scireport/chapter5.asp) on hematopoietic (blood-
forming) stem cells, including stem cells from the umbilical cord. 
Several stem cell literature databases that include cord blood stem 
cell research studies can also be found on the NIH website at http://
stemcells.nih.gov/research/literature.asp. There are also links to 
several organizations, including the National Marrow Donor Program and 
the International Cord Blood Society, that have informational sites on 
cord blood stem cells. The website also contains a ``Frequently Asked 
Questions'' section (http://stemcells.nih.gov/info/faqs.asp#umbilical) 
with information on ``Where can I donate umbilical cord stem cells?'' 
Overall, the NIH Stem Cell website provides useful scientific 
information to the public about stem cell science.
    Question. What research is currently being done regarding the use 
of Umbilical Cord Blood Stem Cells to treat disease?
    Answer. The NIH currently funds clinical research to evaluate the 
safety and effectiveness of matched sibling cord blood transplantation 
in children with sickle cell anemia and thalassemia (Cooley's anemia). 
The first multi-center, unrelated-donor cord blood banking and 
transplantation study (COBLT), which was funded by the NIH, was 
recently completed. The COBLT study evaluated the safety and 
effectiveness of cord blood transplantation in adult and pediatric 
patients with hematologic malignancies as well as pediatric patients 
with inborn errors of metabolism and immune deficiencies. Its results 
were shared with the Institute of Medicine for a recent report on Cord 
Blood: Establishing a National Hematopoietic Stem Cell Bank Program. 
Publication of the COBLT study results is in progress.
    A major obstacle to cord blood transplantation in adult recipients 
is the limited hematopoietic stem cell dose available in a single cord 
blood unit. The NIH currently funds research exploring alternative 
approaches to optimize transplant outcome. These approaches include the 
transplantation of two partially matched cord blood units from 
different cord blood donors, use of a less toxic (non-myeloablative) 
conditioning regimen prior to cord blood transplantation, and expansion 
of cord blood stem cells in culture and their use in conjunction with 
non-expanded cord blood for transplantation in patients with 
hematologic malignant diseases. These studies are in the early phase of 
clinical investigation. In addition, the NIH funds the Center for 
International Blood and Marrow Transplant Research, which conducts 
registry studies to evaluate the clinical outcomes of cord blood 
transplantation.
    The NIH also funds a variety of basic and pre-clinical research 
projects to examine the properties of cord blood stem cells, including 
the immune responses of cord blood cells during and after 
transplantation, the growth properties of cord blood stem cells, and 
conditions to improve the outcome of cord blood transplantation.
                                 ______
                                 
               Questions Submitted by Senator Tom Harkin

                    POLYCYSTIC KIDNEY DISEASE (PKD)

    Question. In testimony before Congress last year, Dr. Allen Spiegel 
said the NIDDK is committed to moving the PKD research agenda forward 
toward the goal of developing more effective diagnosis, treatment and 
prevention of the disease. Considering that the prime cause of death 
for PKD patients is chronic cardiovascular disease, PKD patients suffer 
greatly from psychosocial problems like depression, anxiety and suicide 
due to PKD's chronic nature, and the recessive form of PKD has such a 
high rate of morbidity and mortality in neonates and infants, to what 
extent is NIH considering ``inter-institutional'' research involving 
the NIDDK, NHLBI, NICHD, and the NIMH as a means to uncover potential 
interventional methods which could address these significant co-
morbidities?
    Answer. The NIH has two major avenues for pursuing collaborative 
research opportunities and initiatives on the co-morbidities of PKD and 
other chronic kidney diseases. The first avenue is the statutory 
Kidney, Urologic, and Hematologic Diseases Interagency Coordinating 
Committee (KUHICC). This Committee, which is chaired by the National 
Institute for Diabetes and Digestive and Kidney Diseases (NIDDK), 
encourages cooperation, communication, and collaboration among all 
relevant Federal agencies. Meetings of the Kidney Diseases Subcommittee 
provide an important opportunity for the NIH Institutes and Centers to 
initiate collaborations on shared interests in kidney disease.
    The second avenue is through the activities of the NIDDK, the lead 
NIH Institute for research on chronic kidney diseases, including PKD. 
In this capacity, the NIDDK has spearheaded collaborative efforts to 
address many of the comorbidities experienced by PKD and other chronic 
kidney disease patients. Let me provide a few examples. In 2001, the 
NIDDK collaborated with the National Institute of Mental Health (NIMH) 
and the NIH Office of Behavioral and Social Sciences Research (OBSSR) 
in holding a major conference to determine the state of knowledge with 
regard to the co-morbid condition of depression in patients with 
diabetes, kidney disease, and obesity/eating disorders, and to propose 
a research agenda for the future. A major new collaborative study being 
led by NIDDK, with participation of the National Institute for Child 
Health and Human Development (NICHD), the National Heart, Lung, and 
Blood Institute (NHLBI) and the National Institute of Neurological 
Disorders and Stroke (NINDS), is the Pediatric Chronic Renal 
Insufficiency Cohort Study (``CKIDS''). This important new undertaking 
will address the impact of chronic kidney disease on cardiovascular 
morbidity as well as neurocognitive development and emotional health; 
it will include children with both the recessive and dominant forms of 
PKD. The NHLBI convened a working group, ``Cardio-Renal Connections in 
Heart Failure and Cardiovascular Disease,'' on August 20, 2004 to 
further understanding of the interaction of the heart and the kidney in 
cardiovascular disease. The NHLBI is also a cosponsor of a planned 
NIDDK program announcement (PA), ``Pilot and Feasibility Program 
Related to the Kidney,'' to foster the development of high-risk pilot 
and feasibility research; it is anticipated that this PA will be issued 
in 2005. An initiative on chronic illness self-management in children 
is currently supported by NIDDK, NHLBI, NICHD, and the National 
Institute on Nursing Research. Finally, through a working group they 
created to address the relationship between hypertension and kidney 
disease, the NIDDK and NHLBI are working collaboratively to design new 
initiatives in this area. All of these collaborative activities 
complement the NIDDK's continuing efforts to address comorbidities of 
chronic kidney disease. Examples of these efforts include the Chronic 
Renal Insufficiency Cohort (CRIC) study, which is examining the 
relationship between cardiovascular disease and chronic kidney disease 
in adults, in order to try to find opportunities to prevent and better 
treat both, and the Folic Acid for Vascular Outcome Reduction in 
Transplantation (FAVORIT) trial, which is testing whether treatment to 
lower total homocysteine levels using a high-dose combination of folic 
acid, vitamin B12, and vitamin B6 will reduce cardiovascular damage in 
kidney transplant recipients. Both of these large studies include 
substantial numbers of patients with PKD.

                             PUBLIC ACCESS

    Dr. Zerhouni, I commend you for instituting a new policy that will 
increase public access to NIH-funded research. I'm hopeful that this 
policy will help speed the pace of scientific progress and give 
patients and taxpayers better access to research that they are, after 
all, paying for.
    Question. There's still some question, though, about how many 
researchers will voluntarily submit their papers to PubMed Central, and 
how much of an embargo time they'll require between the publication of 
a paper in a scientific journal and when the paper will be posted for 
public access. Have you considered, as a way of leading by example, 
requiring your own intramural researchers to deposit their final papers 
in PubMed Central and make those papers accessible immediately at the 
time of publication?
    Answer. We have provided NIH staff training about the Policy and 
intramural research managers are now actively encouraging authors to 
submit manuscripts and designate public release as soon as possible. 
The Policy-related submissions will directly benefit NIH-supported 
investigators because recent studies have shown that freely available 
articles get cited more in other research publications. An increase in 
the number of citations helps improve the professional standing of 
investigators. Due to these benefits we anticipate that intramural 
authors will choose the earliest release dates.
    I also believe that the voluntary nature of the final policy 
permits sufficient flexibility to accommodate the needs of different 
stakeholders and leaves the ultimate decision in the hands of 
scientific investigators who are in the best position to judge the 
circumstances and the time frame under which their work may be made 
accessible to the public at large. This flexibility allows authors to 
delay posting of manuscripts if there are concerns about the policy's 
adverse impact on their area of research. Therefore, we believe that by 
having a Policy that provides maximum flexibility, authors will respond 
with maximum participation.
    Question. I'm also concerned that the policy could place 
researchers in a difficult position. It's up to researchers to 
negotiate with publishers to get permission to post the articles in the 
NIH database. Since participation is voluntary, publishers might 
pressure researchers not to release their work at all, or to wait a 
full 12 months. Do you share this concern? How will you know if this 
pressure is taking place?
    Answer. We will be gathering statistics on grantee participation 
rates and their specified embargo periods. An NIH Public Access Working 
Group of the NLM Board of Regents has been established and includes 
representatives of various stakeholder groups that will advise the NLM 
Board of Regents on implementation and assess progress in meeting the 
goals of the NIH Public Access Policy. The above statistics will be 
presented to this Working Group and, if it appears necessary, the 
Working Group may suggest modifications of the policy to ensure that 
the public archive is sufficiently timely and comprehensive.
    Question. Finally, could you provide this subcommittee with a 
report, as soon as possible after December 1, 2005, on how many 
eligible articles were deposited in PubMed Central during the first six 
months of the policy and what the average embargo period was. 
Additionally, we would like to know how many articles are in the 
pipeline awaiting posting. Lastly, do you have any way of tracking 
through PubMed the number of articles supported with NIH funds but not 
submitted to PubMed Central? In other words, will you be able to 
provide both the numerator and the denominator of the equation that 
will demonstrate success of your policy?
    Answer. We estimated that the results of NIH-supported research 
were published in approximately 60,000 to 65,000 articles based on the 
number of articles published in the last several years that contained 
an NIH grant number within the text. We will estimate participation by 
comparing the actual number of papers deposited in the NIH Manuscript 
Submission (NIHMS) system for a given interval with the historical 
average. For example, 5,000 deposited articles per month would indicate 
approximately 100 percent participation. By the close of the calendar 
year sufficient data should be available to make an assessment of the 
degree of participation. Statistics for the distribution of the embargo 
periods requested by authors will be readily available from the 
submission system.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye

                 CANCER COUNCIL OF THE PACIFIC ISLANDS

    Question. The Cancer Center in Hawaii continues to provide vital 
research that will benefit Native Hawaiians, Pacific Islanders, and the 
world community. Last year, the Senate requested that a task force 
review the continuing and unique needs of Native Hawaiians and Pacific 
Islanders, specifically as those findings relate to the higher 
incidence of some types of cancers in these populations. Please provide 
an update from the Director's task force on your findings.
    Answer. As recommended by the work of National Cancer Institute's 
(NCI) task force in the Pacific Rim, NCI has created the Cancer Council 
of the Pacific Islands (CCPI), a community-and region-based council 
comprised of representatives of the professional native physicians and 
other health professionals representing the six U.S.-associated 
jurisdictions of the Pacific to address the cancer health needs within 
each of these jurisdictions. NCI has supported the development of this 
task force and conducted needs assessments in all jurisdictions, and 
continues to support capacity building and to address high priority 
cancer needs in these communities. The CCPI provides a community-based 
forum through which all federal agencies conducting programs in these 
jurisdictions coordinate efforts.
    The accomplishments of the Cancer Council of the Pacific Islands 
are substantial. These accomplishments are also significant in that, 
for the first time, Island leaders are provided a controlling voice in 
the design, development, and implementation of their own survey 
instrument and subsequent activities. With the assistance of selected 
professors and students from the University of Hawaii, a comprehensive 
cancer assessment was administered in Kosarae, Chuuk, Pohnpei, Yap, 
Belau, Marshall Islands (Ebeye, Majuro), Northern Mariannas, American 
Samoa, and Guam. We are now implementing the prioritized listings of 
health needs identified as a result of those assessments.
    NCI recently awarded a 5-year Community Networks Cooperative 
Agreement to the Lyndon Baines Johnson Tropical Medical Center in 
American Samoa to directly address cancer disparities, train minority 
investigators, reduce access barriers, and provide research 
infrastructure to link American Samoa to NCI research--Cancer 
Information Service (NCI's cancer information helpline), innovated 
screening, and diagnostic technologies and clinical trials, in 
particular.
    Recently, the CCPI met with NCI, the Health Resources and Services 
Administration, the Centers for Disease Control and Prevention (CDC), 
and other federal partners, as well as C-Change (a coalition of the 
nation's key cancer researchers and policymakers), to work on 
developing Comprehensive Cancer Plans for each jurisdiction, and a 
regional plan for the Pacific Rim. NCI is providing technical 
assistance and administrative support to augment CDC's efforts in 
developing these plans. Once these plans are developed, each 
jurisdiction and the CCPI will be able to apply for CDC implementation 
funds. NCI is committed to this community-based effort in the Pacific 
Rim and continues to develop collaborative programs for the CCPI with 
federal agencies who can improve the health and well-being of the 
Pacific Island communities.

                          CANCER AND ETHNICITY

    Question. Additionally, I chaired hearings in Honolulu during which 
data was presented showing striking differences in the incidents of 
cancer among various ethnic groups. I am told the FDA now encourages 
clinical testing for new drugs in a variety of ethnic groups because 
the drugs themselves have a different effect on each group. Has NIH or 
NCI been pursuing additional research on the genetic or cultural causes 
of cancer and the efficacy of treatment by different ethnic groups?
    Answer. Two years ago, the National Cancer Institute (NCI) launched 
the Breast and Prostate Cancer and Hormone-related Gene Variants Cohort 
Consortium (BPC3 Study) to pool data and biospecimens from 6 large 
cohorts to conduct research on gene-environment interactions in cancer 
etiology. One of these cohorts, the Multiethnic Cohort (MEC) Study, is 
evaluating the genetic and biochemical determinants of cancer risk in 
traditionally understudied minority populations and consists of 215,251 
men and women (ages 45-75 years at baseline) from Hawaii (Asians, 
Whites, and Native Hawaiians) and California (African-Americans and 
Latinos). NCI has begun a Minority Accrual Initiative, whose goals 
include increasing the number of minority investigators and minority 
patients in cancer research. The University of Hawaii received funding 
to foster minority accrual to clinical trials through this initiative. 
Historically, the University of Hawaii and its affiliated hospitals 
have accrued large numbers of minority patients, both Asian-Americans 
and Native Hawaiians, to prevention and treatment trials.
    NCI has also encouraged collaborations between sites with 
relatively non-diverse populations (e.g., Rochester, Minnesota) and 
sites with large minority populations (e.g., Wayne State, Howard 
University) to increase minority accrual to early clinical trials where 
substantial data regarding variations in drug disposition can be 
acquired. Drug disposition data from all NCI's Cancer Therapy 
Evaluation Program trials is evaluated to determine whether any 
differences are evident for these subcategories of patients. In 
addition, Phase 3 clinical trials are analyzed for differences in 
outcome according to race and age among other factors and have resulted 
in publications in these areas and new research approaches to eliminate 
disparities. The bioinformatics infrastructure that supports these 
clinical trials will facilitate even greater data sharing across trials 
and more robust comparisons and data analysis in the future.
    In a public-private partnership, NCI has funded seven sites to 
explore approaches to improve accrual of minority and older patients to 
early clinical trials. In addition, for large clinical trials groups 
that accrue approximately 25,000 patients per year to NCI sponsored 
clinical trials, there are a number of specially funded programs that 
focus on increasing the accrual and evaluation of under-represented 
racial, ethnic, and demographic groups (elderly and rural) to clinical 
trials. These include supplements to specific programs in the NCI 
Clinical Cooperative Groups and the long-standing Minority-Based Cancer 
and Community Oncology Program. There is also a large program funded in 
collaboration with the National Institute of General Medical Sciences 
that supports a Pharmacogenetics Network. This Network evaluates 
pharmacogenomics in drug development which includes the study of the 
impact of race/ethnicity on drug efficacy.
    Question. How satisfied are you with the amount and quality of 
research done in this area?
    Answer. Preliminary findings from the Hawaii Tumor Registry show 
that foreign-born Asians, when compared to U.S.-born Asians and 
Caucasians, have a lower percentage of cancer diagnosed at an early 
stage, a higher percentage of cancer diagnosed at a late stage, and 
lower rates of cancer survival. In an effort to overcome these 
disparities, we have strengthened NCI community-based programs in 
Hawaii including the Community Network Program, Imi Hale Native 
Hawaiian Cancer Network, the American Samoa Community Cancer Network at 
the Lyndon B. Johnson Tropical Medical Center in American Samoa, and 
strengthening support for the Cancer Research Center of Hawaii, a NCI-
designated cancer research center whose mission is to bring together 
researchers who focus on understanding the etiology of cancer and on 
reducing its impact on the people of Hawaii.
    NCI expects to continue to expand research in cancer health 
disparities to increase our understanding of why some populations 
experience greater incidence, mortality, and lower survival from cancer 
than the majority of Americans. In the NCI report, Making Cancer Health 
Disparities History, published in March 2004, a Trans-HHS Cancer Health 
Disparities Progress Review Group (PRG) comprised of leading cancer 
experts, researchers, patients, cancer survivors, and advocates in 
cancer and health disparities reviewed the status of cancer health 
disparities in the United States and forged a set of 14 priority 
recommendations for Department of Health and Human Services (HHS) to 
lead the Nation in eliminating cancer health disparities. On March 28, 
2005, the HHS Health Disparities Council established a Subcommittee on 
Cancer with NCI as its chair. The subcommittee will focus on six of the 
PRG's 14 recommendations that will address needs ranging from the 
planning and coordination of program efforts to discovery, development, 
and delivery of research advances to all Americans.
    Communities, caregivers, and researchers must form strong alliances 
and explore creative solutions for developing culturally competent 
venues for service delivery. Community-based participation must be an 
integral part of the planning, development, and implementation of 
solutions to bring research advances to all populations. This cross 
fertilization will build synergism and ensure stronger, more dynamic 
alliances for overcoming cancer health disparities.

                          BEHAVIORAL RESEARCH

    Question. Since 1999, the Committee's report has urged the National 
Institute of General Medical Sciences (NIGMS) to fund basic behavioral 
research. The legislative mandate for NIGMS specifically includes 
behavioral science research, yet I am not satisfied basic behavioral 
research has been adequately or even minimally addressed. I understand 
a working group was established as part of the NIH Advisory Committee 
to the Director on Research Opportunities in the Basic Behavioral and 
Social Sciences. I feel we have been extremely patient and sufficient 
time has elapsed to review this issue. Please provide a report to the 
Committee outlining the recommendations of the working group and your 
timeline for implementation.
    Answer. In keeping with the preferred approach of performing 
portfolio analysis across NIH rather than on an institute-by-institute 
basis, a working group of the Advisory Committee to the Director, NIH, 
was formed to examine basic behavioral research across NIH. The working 
group reported to the Advisory Committee on December 2, 2004. Their 
analysis revealed that the institutes and centers (including NIGMS) 
supported approximately $2.68 billion in behavioral research, including 
approximately $936 million in basic behavioral research, in fiscal year 
2003. In addition to this base, several components of the NIH Roadmap 
for Medical Research are directed toward basic behavioral research. In 
particular, several mechanisms are being used to stimulate 
interdisciplinary research at the interface of the behavioral/social 
and biological sciences, provide the interdisciplinary training 
necessary for postdoctoral investigators to work in these areas, and 
support development of innovative methods and technology that will 
facilitate research at the intersection of the behavioral, social and 
biomedical sciences.
    Following the submission of the working group report, NIGMS has 
taken several steps to more clearly articulate the basic behavioral 
research it supports, encourage the submission of more research 
applications in these areas, and increase the number of investigators 
who can work at the interface of the behavioral and biological 
sciences:
    Research Training at the Interface of the Behavioral and Biological 
Sciences.--Basic behavioral research is of critical importance to the 
mission of the NIH and can play a crucial role in understanding the 
etiology of disease and enhancing preventive and therapeutic 
inventions. Greater understanding of the molecular, genetic, and neural 
processes governing behavior, and the reciprocal effects of behaviors 
on physiological processes, is crucial for a complete understanding of 
human health and those diseases in which behavior is a risk factor, 
diagnostic indicator, or symptom. To advance our knowledge in these 
areas, researchers will need to integrate multiple disciplinary 
perspectives, methodologies, and levels of analysis. NIGMS has a strong 
background in developing and supporting such interdisciplinary research 
training. While some existing NIGMS training programs such as the 
Medical Scientist Training Program and the Systems and Integrative 
Biology program include elements of the behavioral sciences, there has 
not been a program dedicated to training at the basic behavioral 
science-biological science interface. NIGMS has developed a proposal 
for such a predoctoral. program and is coordinating its further 
development with other NIH Institutes having an interest in this area.
    Collaborative Research on Basic Mechanisms of Behavior.--To 
encourage the multidisciplinary research that is needed for a fuller 
understanding of the basic mechanisms of behavior, NIGMS has proposed 
an initiative to facilitate collaborations between basic behavioral 
scientists and investigators with expertise in state-of-the-art 
genetics, molecular biology, and genomics. It is anticipated that this 
collaborative research, performed with model organisms, will either 
enhance existing models or lead to the development of new models of 
normal or abnormal human behavior. The concept for this solicitation is 
to be presented for approval at the May 2005 meeting of the National 
Advisory General Medical Sciences Council.
    Assessing Interactions Among Social, Behavioral, and Genetic 
Factors in Health.--NIGMS is a major contributor to an Institute of 
Medicine committee examining the state of the science on gene-
environment interactions that affect human health. The study will 
identify approaches and strategies to strengthen the integration of 
social, behavioral, and genetic research in this field as well as 
consider relevant training and infrastructure needs. The results of 
this study will be used by the NIH to guide its programs in these 
areas.
                                 ______
                                 
               Questions Submitted by Senator Harry Reid

                        CHRONIC FATIGUE SYNDROME

    Question. Funding for research on chronic fatigue syndrome (CFS) 
has fallen to less than $5 million per year, at the same time national 
prevalence estimates for this serious condition have risen to nearly 
one million American adults and adolescents. In June 2003, Dr. Vivian 
Pinn announced plans to issue a Request for Applications (RFA) for 
research on CFS following an NIH workshop on neuro-immune mechanisms in 
CFS. Almost two years later this RFA has not been issued. What are 
NIH's immediate plans to stimulate research into CFS, a condition that 
CDC reports costs the U.S. economy $9.1 billion a year in lost 
productivity?
    Answer. Funding levels for CFS have remained at approximately $5-$6 
million a year without a significant decline in dollars in years. NIH 
continues to encourage an increase in the number of CFS research 
proposals that are submitted for review and funding each year. 
Applications to PA-02-034, The Pathophysiology and Treatment of Chronic 
Fatigue Syndrome, based on recommendations from an October 2000 
symposium, tripled from its release in December 2001 through fiscal 
year 2004. This PA was revised and reissued under the same title as PA-
05-030 in December 2004 to include research ideas from the June 2003 
scientific workshop, Neuroimmune Mechanisms and Chronic Fatigue 
Syndrome: Will Understanding Central Mechanisms Enhance the Search for 
the Causes, Consequences, and Treatment of CFS? This program 
announcement specifically invites the submission of investigator-
initiated grant applications to support research on the epidemiology, 
diagnosis, pathophysiology, and treatment of CFS in diverse groups and 
across the life span. Applications that address gaps in the 
understanding of the environmental and biological risk factors, the 
determinants of heterogeneity among patient populations, and the common 
mediators influencing multiple body systems that are affected in CFS 
are encouraged.
    The proceedings of this June 2003 workshop were recently published 
(NIH Publication No. 04-5497) and posted on the ORWH/CFS website 
(http://www4.od.nih.gov/orwh/cfs-newhome.html). Seven new projects 
related to CFS were funded in fiscal year 2004 and address topics 
raised at this workshop. One of these is an intramural project which 
reflects the impact of a new Trans- NIH Intramural Interest Group on 
Scientific Integrative Medicine that resulted from the June 2003 CFS 
Workshop. Also based on this workshop, the ORWH and the Trans-NIH 
Working Group for Research on Chronic Fatigue Syndrome will be issuing 
a new interdisciplinary Request for Applications (RFA) later in fiscal 
year 2005. This new RFA on CFS has progressed through the usual steps 
following the workshop when the intent was announced. In addition, NIH 
continues to plan relevant scientific activities and efforts on which 
to base future CFS research initiatives.
    Question. Last fall, an analysis of NIH funding for chronic fatigue 
syndrome (CFS) was presented to the DHHS CFS Advisory Committee by the 
CFIDS Association of America. This report documented that NIH had 
overstated its funding of CFS research for fiscal year 1999-fiscal year 
2003 by 19.6 percent through the inclusion of studies unrelated to CFS. 
Total funding of CFS research for this five-year period is just $26 
million--a very small amount given magnitude of the condition and the 
generous increases Congress provided to NIH during these same years. 
What efforts are being taken to ensure that spending figures issued by 
NIH are accurate and reliable and what is NIH doing to expand support 
of research on CFS?
    Answer. The funding figures provided by the NIH on expenditures 
related to CFS are based upon the best scientific and budgetary 
deliberations and are consistent and accurate. As with all scientific 
and budgetary data collections, these funding figures reflect projects 
designated as CFS research by Institute and Center (IC) staff, each 
utilizing his/her best scientific judgment. These figures include 
funding for basic and laboratory studies that are pivotal in the 
development of clinical and translational research; although such 
studies may not seem specific for CFS, they deal with the basic 
biologic processes that are fundamental to developing a better 
understanding of CFS and are thus integral to CFS research. The NIH 
continues to implement efforts to increase CFS research through an 
increase in funded proposals.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl

                           EPILEPSY RESEARCH

    Question. As you know, epilepsy is a major public health problem, 
affecting 2.5 million Americans throughout their life spans. The impact 
of epilepsy--ranging from debilitating side-effects of treatment to 
brain damage and even death--has long been under-recognized. Epilepsy 
is a public health problem of major proportions.
    Because epilepsy may occur at any age and as a result of many 
different, poorly understood and complicated causes, Congress has 
encouraged the NIH to focus on this problem with a multi-disciplinary 
approach involving efforts by the NIMH, NIA, NICHD and NHGRI in 
coordination with the lead institute, NINDS.
    Epilepsy is the perfect model for a disease that will succumb to a 
coordinated, multi-disciplinary research effort such as you outlined in 
``The NIH Neuroscience Blueprint''. A few of the above-mentioned 
Institutes have begun to address epilepsy, but coordination and 
communication between them is a necessity if this multi-disciplinary 
approach is to prove fruitful.
    It seems critically important to establish a working group to 
coordinate research efforts, clinical trials and learn from the co-
morbidities which are so common in patients with epilepsy. Dr. 
Zerhouni, how do you intend to facilitate the coordination which needs 
to exist between these research efforts in order to reduce the burden 
of this all-too-common neurological disorder?
    Answer. The National Institute of Neurological Disorders and Stroke 
(NINDS) is the lead NIH Institute for epilepsy research and the primary 
funding source for studies of seizure disorders. Several other NIH 
Institutes and Centers also fund epilepsy related projects, including 
the National Institute of Child Health and Human Development (NICHD), 
the National Human Genome Research Institute (NHGRI), the National 
Institute of Mental Health (NIMH), and the National Institute on Aging 
(NIA). In order to better facilitate coordination of research efforts 
in this area, these Institutes formed an Interagency Epilepsy Working 
Group. Since its establishment in January 2003, several other NIH 
Institutes with an interest in epilepsy research have joined, including 
the National Institute of Biomedical Imaging and Bioengineering 
(NIBIB), the National Institute on Alcohol Abuse and Alcoholism 
(NIAAA), the NIH John E. Fogarty International Center (FIC), as well as 
a representative from the National Center for Chronic Disease 
Prevention and Health Promotion at the Centers for Disease Control and 
Prevention (CDC).
    The members of the Interagency Epilepsy Working Group are primarily 
extramural program staff who administer epilepsy research grants and 
develop program activities to facilitate research efforts. The purpose 
of this group is to increase communication among institutes and 
agencies supporting epilepsy related research and to explore 
opportunities for increased coordination. An example of these 
cooperative activities is a recent workshop sponsored by the NINDS and 
the NIMH on the treatment of non-epileptic seizures, held on May 1-3, 
2005. The goals of the workshop were to better define diagnostic 
criteria for non-epileptic seizures, develop outcome measures for 
clinical trials, and to discuss a research strategy for this condition.
    The Interagency Epilepsy Working Group meets on a regular basis, 
most recently in October 2004 and April 2005. The April Working Group 
meeting focused on the development of biomarkers for epilepsy related 
research. Working Group members presented examples of relevant 
Institute activities which could be adapted to epilepsy and discussed 
possible approaches to planning a workshop in this important area of 
research. In addition, members of the Working Group participated in the 
most recent meeting of the Epilepsy Benchmark Stewards in February 
2005. The Epilepsy Benchmarks are milestones developed by the epilepsy 
community in 2001 to measure progress in epilepsy research, and 
Stewards have been designated to monitor progress toward meeting each 
Benchmark goal. The purpose of the February meeting was to review 
Benchmark progress and to begin planning a large epilepsy conference 
for 2007 to assess and update the Epilepsy Benchmarks. Working Group 
members will continue to be involved as conference planning progresses.

                            K30 GRANT AWARDS

    Question. As you know, the K30 grant program supports the training 
of clinical researchers--health professionals who translate laboratory 
discoveries to improvements in the care of patients. It is my 
understanding that this year, funding was insufficient to accommodate a 
decision to increase the size of awards from $200,000 to $300,000, 
resulting in the University of Wisconsin losing their K30 award as of 
June. While I applaud your efforts to increase the award amount, I am 
concerned that programs like the one at Madison, who depend on K30 
grants, will be forced to close their doors.
    The shortage of clinical researchers trained to advance medical 
science and improve the care of patients has been well-documented in 
reports from the National Academy of Sciences and the NIH. The 
University of Wisconsin's program has trained 144 clinical researchers 
to date. What will you do to ensure the K30 grant program is funded at 
a level sufficient to restore and expand the program at the $300,000 
level?
    Answer. The NIH recognizes the need for clinical research training 
to ensure that the nation's needs for clinician researchers are met. As 
such we have a number of programs designed to create well-trained 
patient-oriented researchers. A major part of this effort is the 
Clinical Research Curriculum Award (K30). To help address the needs of 
this specific trans-NIH program, a decision was made to increase the 
total funds available from $10,958,000 in fiscal year 2004 to 
$14,700,000 in fiscal year 2005. Additionally, all Institutes and 
Centers funding clinical research will contribute to these awards and 
the size has been increased to $300,000. While we realize that we 
cannot fund all meritorious applications, we do expect to award 49 
grants out of the 81 applications received which is a 61 percent 
success rate.

                        IRRITABLE BOWEL SYNDROME

    Question. Dr. Zerhouni, for the last several years, my colleagues 
and I on the Appropriations Committee have asked NIDDK to develop a 
strategic plan for research into Irritable Bowel Syndrome (IBS), a 
chronic complex of disorders that malign the digestive system. Can you 
update this Committee on the timetable for development and 
implementation of a strategic plan for IBS at NIDDK?
    Answer. The NIH concurs that a strategic plan for IBS will identify 
areas of scientific opportunity and serve as a stimulus in the 
prevention, diagnosis, and management of this functional disorder. Due 
to recent Congressional interest, the NIH is in the early stages of 
creating a new Commission on digestive diseases, which will develop a 
long-range research plan for the entire spectrum of these diseases, 
including IBS.
    The congressional directive to establish the Commission is in the 
Senate report language accompanying the Labor/HHS appropriations bill 
(Senate Report 108-345, page 165). In documentation accompanying the 
President's Budget request for fiscal year 2006, the NIH has informed 
the Labor/HHS appropriations committees that it considers the 
establishment of the commission at this time to be both appropriate and 
useful (HHS fiscal year 2006 Justification of Estimates for 
Appropriations Committees, pp. OD 64-65).
    This Commission will perform an assessment of the state-of-the-
science in digestive diseases and develop a Long-Range Research Plan 
for Digestive Diseases--with broad stakeholder input from scientific 
and lay experts. A parallel effort, under the leadership of the 
National Institute of Diabetes and Digestive and Kidney Diseases 
(NIDDK), will compile current data on the burden of digestive diseases, 
which would also feed into the Commission's planning process. As noted 
in the draft charter for the Commission, the Long-Range Research Plan 
would focus solely on research--consistent with the NIH mission.
    The Commission is important because the Long-Range Research Plan it 
develops will serve as a beneficial scientific guidepost to both the 
NIH and the digestive diseases community, and would serve the public 
health. According to recent estimates, the total costs associated with 
major forms of digestive diseases approach $43 billion annually. The 
Plan will focus on research in specific diseases, including IBS, and 
will also address the training and education of researchers in 
digestive diseases research; programs for the collection, 
dissemination, and exchange of information and resources in health and 
disease relevant to digestive diseases research; and identification of 
cross cutting, innovative research disciplines and technologies and 
opportunities for synergy in both basic and clinical research within 
the Institutes and Centers of the NIH. The inclusion of IBS as a part 
of a larger strategic planning effort, instead of conducting a stand-
alone IBS planning effort, will provide greater opportunity to identify 
cross-cutting themes common to multiple digestive diseases and common 
hurdles shared by many.

                    AGE-RELATED MACULAR DEGENERATION

    Question. I understand that the rate of occurrence of age-related 
macular degeneration (AMD) will double over the next 15 years, robbing 
our seniors of their sight. Can you tell us about the research into 
this disease, and specifically, what therapies may be emerging to stop 
or reverse this trend?
    Answer. The National Institutes of Health strongly supports 
research for age-related macular degeneration (AMD) and has contributed 
greatly to the understanding of the disease and to the development of 
new therapies for the disease. Four recently published studies 
supported by the National Eye Institute report on the identification of 
inherited variations in a gene that greatly increase the risk of 
developing AMD. The gene, known as complement factor H, is involved in 
the body's immune defense system. These findings suggest a possible 
role for inflammation in the cascade of biological events that leads to 
AMD. This important discovery may lead to development of new approaches 
to preventing, diagnosing, and treating this disease.
    The National Eye Institute conducted Age-Related Eye Disease Study 
(AREDS) found that a daily high-dose specific formulation of 
antioxidants and zinc can slow the progression of AMD from intermediate 
to advances stages of the disease. Based on an analysis of prevalence 
data and the AREDS study findings, it is estimated that more than 
300,000 Americans could avoid developing advanced AMD and its 
associated vision loss over the next five years by taking this 
formulation.
    An advanced form of AMD called ``wet'' AMD develops as a result of 
new, abnormal blood vessels that grow beneath the retina, leak blood 
and fluid, and produce scar tissue. Left untreated, catastrophic loss 
of central vision may occur. The FDA has approved two new treatments, 
verteporfin and pegaptanib, for controlling ``wet'' AMD. These newly 
approved treatments were developed by industry, but benefited from 
early support for basic research that provided a better understanding 
of the underlying biology. A number of even newer treatments, also 
aimed at preventing or reducing this abnormal blood vessel growth in 
AMD, are being evaluated in ongoing clinical trials.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin

                     DRUG RESEARCH AND DEVELOPMENT

    Question. NIH has made tremendous contributions to the public good 
through investments in medical research and therapeutic clinical 
trials. I'm troubled, though, that U.S. citizens are paying twice for 
pharmaceuticals, once through taxpayer support for NIH-funded research 
and then again at the pharmacy when they purchase the drugs that NIH 
funding helped to develop.
    For example, I have a hard time believing that prices charged for 
drugs like Taxol, AZT, Gleevec, and others that are substantially 
funded by taxpayer money are fair.
    Is there anything NIH can do to retain or recoup some of the market 
value of these therapies that are developed based on NIH-funded 
research?
    Answer. Since 2003, NIH has executed 610 new licenses and has 
collected $112 million in royalty income from its intramural research 
program. This represents about two-thirds of the royalty income 
collected by all federal agencies. Most of NIH's licenses are executed 
for early-stage technologies with small companies that do not yet have 
product sales. NIH, however, carefully crafts its licensing terms so 
that it captures a reasonable share of the profits for those products 
that achieve commercialization. In addition, NIH has established a 
Monitoring and Enforcement Branch in the Office of Technology Transfer 
dedicated to monitoring the expeditious development of our licensed 
technologies and to ensuring that we receive the full return on our 
investment.
    In May 2000, the U.S. Congressional Joint Economic Committee issued 
The Benefits of Medical Research and the Role of NIH, which examined 
the role of federal funding for medical research and the benefits that 
derive from that research. The Committee report concluded that the 
benefit of increased life expectancy to the United States as a result 
of advances in health care from NIH-funded medical research results in 
a payoff of about 15 times the taxpayers' investment in NIH. Clearly, 
there are financial and public health related benefits of remarkable 
value that flow from NIH-funded biomedical research.
    The NIH contributes to affordability by conducting and funding 
research that leads to the development of a wider selection of drugs or 
new drugs, where no drugs were available. More alternatives can 
translate into more choices for the public, greater market competition, 
affordability and, ultimately, overall return to society by the 
improvement of the quality of life. Thus, as long as NIH continues to 
focus on its core mandate, namely conducting and funding broad-based 
research that could lead to the development of new drugs and therapies 
in the future, we believe that NIH is acting as a responsible partner 
in the national enterprise to improve the quality of life for the 
public and to make drugs more affordable.

                             PUBLIC ACCESS

    Question. Your first steps toward more readily accessible research 
information for the public are commendable and appropriate. As I 
understand the process, the results of NIH-funded research should be 
available 12 months after it is published.
    But why are you proposing that making research results accessible 
to the public is ``recommended?'' If this is such a good idea--and I 
think it is--why isn't it required?
    Answer. The voluntary nature of the Policy was established to 
encourage investigators to deposit their manuscripts in NIH's public 
archive. We believe this approach will ultimately result in broader 
participation. The Policy-related submissions will directly benefit 
NIH-supported investigators because recent studies have shown that 
freely available articles get cited more in other research 
publications. An increase in the number of citations helps improve the 
professional standing of investigators. Due to these benefits we 
anticipate that authors will decide to participate and to choose the 
earliest release dates.
    I also believe that the voluntary nature of the final policy 
permits sufficient flexibility to accommodate the needs of different 
stakeholders and leaves the ultimate decision in the hands of 
scientific investigators who are in the best position to judge the 
circumstances and the time frame under which their work may be made 
accessible to the public at large. Therefore, we believe that by having 
a Policy that provides maximum flexibility, authors will respond with 
maximum participation.
    Question. A year's delay after publication in a journal strikes me 
as a very long time, given the pace of biomedical developments today. 
How much time do you expect most participating researchers to let go by 
between publication and release of the study publicly?
    Answer. The Public Access Policy strongly encourages all NIH-funded 
researchers to make their peer-reviewed author's final manuscripts 
available to other researchers and to the public at the National 
Library of Medicine's (NLM) PubMed Central (PMC) immediately after the 
official date of final publication. At the time of submission, authors 
are also given the option to release their manuscripts at a later time, 
up to 12 months after publication. NIH expects that only in limited 
cases will authors deem it necessary to select the longest delay 
period.
    The Policy-related submissions will directly benefit NIH-supported 
investigators by offering an alternate means by which they can fulfill 
the existing requirement to provide publications as part of progress 
reports. It is anticipated that, in the future, investigators applying 
for new and competing renewal support from the NIH will also utilize 
this resource by providing links in their applications to their PubMed 
Central-archived information. Further, recent studies have shown that 
freely available articles get cited more in other research 
publications. Increased citations help improve the professional 
standing of investigators. Due to these benefits we anticipate authors 
will choose the earliest release dates.
    Question. What rates of participation and time delays would you 
consider a success?
    Answer. Our goal is to build a comprehensive archive of the results 
of research that NIH funds. Rather than specifying a particular target 
number, we will be looking for an increasing number of manuscripts to 
be submitted over time and a decreasing delay period. Issuance of this 
policy is the beginning of a process that will include refinements as 
experience develops, outcomes are evaluated, and public dialogue among 
all the stakeholders is continued. An NIH Public Access Working Group 
of the NLM Board of Regents has been established. The Working Group 
includes representatives of the various stakeholder groups and will 
advise the NLM Board of Regents on implementation and assess progress 
in meeting the goals of the NIH Public Access Policy. Once the system 
is operational, modifications and enhancements will be made as needed 
based on the recommendations of the Working Group, or a permanent 
subcommittee of the Board, providing ongoing advice on improvements.
    We hope that secondary effects of the Policy might also be viewed 
in terms of ``success.'' Since the Proposed Policy's release in 
September 2004, we have heard that an increasing number of publishers, 
within and outside of the United States, are considering changes to or 
adoption of Open Access publishing models. For example, in January the 
Nature Publishing Group altered its open access model to increase 
accessibility to its publications. We are optimistic that these changes 
will provide the public with free electronic access to Journal 
articles, through the publisher's web site, on a faster time scale or 
for the first time. This ``change in the landscape'' complements the 
benefits of the NIH Policy since the majority of articles in Journals 
(approximately 90 percent) do not result from NIH-funded research.

                          SUBCOMMITTEE RECESS

    Senator Harkin. Thank you very much.
    The subcommittee will stand in recess to reconvene at 9:30 
a.m., on Monday, July 11 in room SD-192. At that time we will 
hear testimony from the Honorable Patricia Harrison, President 
and CEO, Corporation for Public Broadcasting.
    [Whereupon, at 11:18 a.m., Wednesday, April 6, the 
subcommittee was recessed, to reconvene at 9:30 a.m., Monday, 
July 11.]


DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
              AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                         MONDAY, JULY 11, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Arlen Specter (chairman) 
presiding.
    Present: Senators Specter, Stevens, Inouye, and Durbin.

                  CORPORATION FOR PUBLIC BROADCASTING

STATEMENT OF KENNETH Y. TOMLINSON, CHAIRMAN, BOARD OF 
            DIRECTORS

               OPENING STATEMENT OF SENATOR ARLEN SPECTER

    Senator Specter. Good morning, ladies and gentlemen. The 
hour of 11 o'clock having arrived, the Appropriations 
Subcommittee on Labor, Health, Human Services, and Education 
will now proceed. This morning's hearing will focus on the 
funding for public broadcasting. The subcommittee is now in the 
final phases of preparing our submission to the full committee, 
which will be done later this week, and I thought it would be 
useful to consider the issue which has received public 
attention as to the appropriate level of funding for public 
broadcasting.
    There has been some concern expressed as to whether there 
is sufficient balance on public broadcasting. The subcommittee 
thought it would be useful to have this hearing to explore 
these issues before we make our final recommendations before 
the subcommittee meeting tomorrow and the full committee on 
Thursday. Then of course, there is floor action. So we think 
this would be helpful as a prelude what committee action on the 
appropriate level of funding should be. Congress likes to keep 
its hands off of these matters to avoid any politicization at 
all, but we do have the oversight responsibility and we have 
the appropriations function, so we are going to proceed with 
this hearing.
    I would like to call the witnesses at this time: Ms. 
Patricia Harrison, President and CEO of the Corporation for 
Public Broadcasting; Mr. Ken Tomlinson, Chairman of the Board 
of Directors; Mr. Pat Mitchell, President and CEO of Public 
Broadcasting Service; Mr. John Lawson, President and CEO of the 
Association of Public Television Stations; Mr. David Boaz, 
Executive Vice President of the Cato Institute.
    Well, welcome, ladies and gentlemen. Thank you for coming 
in on a Monday hearing. Monday morning activities in the 
Congress are somewhat limited by tradition, but it is a very, 
very busy week with a great many items on our Congressional 
agenda.
    Our first witness is Mr. Ken Tomlinson, Chairman of the CPB 
Board of Directors. First elected to the board in 1993, he 
began his career as a journalist with the Richmond Times-
Dispatch in 1965; was a correspondent in Vietnam and was 
Director of the Voice of America for 2 years. Mr. Tomlinson was 
Editor in Chief of the Reader's Digest until he retired in 
1996.
    Our practice, ladies and gentlemen, as I think you have 
already been advised, is to have 5-minute opening statements, 
leaving the maximum amount of time for questions and answers 
following the opening statements.
    Mr. Tomlinson, thank you for joining us and we look forward 
to your testimony.

               SUMMARY STATEMENT OF KENNETH Y. TOMLINSON

    Mr. Tomlinson. Thank you, Mr. Chairman. I did submit my 
testimony for the record so that we could preserve as much time 
as possible.
    I am proud to be here in support of Federal funding for 
public broadcasting. I happen to believe that increasing the 
education basis of our children's programming alone merits a 
great deal of focus in terms of what we do in the coming weeks 
and months. As you well know, it is easier to show cartoons 
than to produce programming that has an education basis. We 
should be working so that our education-based programming helps 
young people learn how to read, but also helps people become 
interested in civic responsibility and, in the tradition of Tom 
Friedman, in math and science as well.
    We have a rich history of cultural programs coming out of 
WNET in New York that I would like to see us be able to 
continue and expand. Obviously, across the river at WETA we 
have the great tradition of the ``Jim Lehrer News Hour.'' This 
is journalism dating back to the original ``McNeil-Lehrer 
Report,'' journalism that represents the highest standard. 
There has never been any question of balance on that program.

                           PREPARED STATEMENT

    We look at the importance of the digital conversion. We 
look at the demands we face in terms of the need for a new 
interconnection system. I have brought the issue of the 
importance of political balance, common sense political 
balance, to the public debate. This should not overshadow the 
needs that public broadcasting has, and I am very pleased to be 
here to support those needs.
    Thank you.
    [The statement follows:]
               Prepared Statement of Kenneth Y. Tomlinson
    I come to you this morning as an individual who supports Federal 
funding for public broadcasting.
    I believe that education-based children's programming represents 
one of the most critical responsibilities for public broadcasters. We 
need to produce programming that will inspire children from all walks 
of life to want to read--to want to acquire knowledge about our 
nation's history and our own civic responsibilities. Taking a cue from 
Tom Friedman, we also should be inspiring interest in math and science, 
because surely we must recognize we live in a world that is flat.
    The cultural programs--the great performances that in recent years 
have been produced by WNET in New York--are an important part of the 
mandate of public broadcasting. The current affairs programs coming 
from WETA--I speak specifically for the tradition of journalistic 
excellence that is the history of the NewsHour with Jim Lehrer--merit 
our support. So, too, is the excellent programming that has come to us 
over the years from WGBH in Boston.
    The clock is ticking on the deadline for funding a new 
interconnection system for public broadcasting. The opportunities 
presented by a transition to digital broadcasting will open exciting 
new doors for the public broadcasting system.
    In recent months I have asserted over and again that you cannot 
understand the case for federal support of public broadcasting until 
you see the fruits of these services in states like North Carolina, 
Kentucky, and South Dakota. If you want to get an idea of the digital 
future of public broadcasting, go to North Carolina and see, thanks to 
public support for a bond issue, four channels that make public 
broadcasting far more relevant and far more valuable to the people of 
that state.
    I would be remiss this morning, however, if I failed to address 
issues surrounding my work to meet the legal mandate that Congress 
placed on CPB to require political balance. Listen to Section 19 of the 
law that governs what we do: CPB shall facilitate the development of 
programs ``of high quality, diversity, creativity, excellence, and 
innovation, which are obtained from diverse sources, will be made 
available to public telecommunications entities, with strict adherence 
to objectivity and balance in all programs or series of programs of a 
controversial nature . . .''
    I did not initiate the controversy over balance, and I am the first 
to recognize this controversy has not been good for the health of 
public broadcasting. So allow me to review the actions that I have 
taken to encourage political balance for the sake of encouraging a wide 
base of support for what we do.
    In late 2003, I went to the leadership of PBS to make the point 
that NOW with Bill Moyers had become a symbol of our ignoring our legal 
mandate to require balance. It was not that Bill Moyers work does not 
represent outstanding political advocacy broadcasting. I did not ask 
for a moment of the show to be removed from public broadcasting 
schedules. My point was that law requires a diversity of opinions, and 
on Friday evenings, public broadcasting would do well to reflect 
conservative points of view as it did so eloquently liberal points of 
view.
    When PBS leadership asserted NOW to be balanced, I asked that a 
consultant review six months of the program and assess the political 
direction of the program's content. Later, I would ask the consultant 
to review other programs on public broadcasting to illustrate that 
unlike NOW they reflected diverse political opinions. The contract for 
this consultant was processed under the supervision of CPB staff and 
our General Counsel according to CPB rules and regulations. I had never 
known CPB board members to be involved in approving contracts with 
consultants--and I had observed any of a number of consultants brought 
in by CPB executive leadership to do similar tasks--so I did not run 
this issue by the board. At no time did I make any effort to keep the 
contract secret from my fellow board members.
    Much has been made in recent days over the classifications of 
viewpoints expressed by Senator Chuck Hagel and former Congressman 
Robert Barr. As the researcher's work illustrates, Bill Moyers did not 
invite Senator Hagel on his show to give him a platform for advocating 
his belief that free trade is critical to the success of U.S. foreign 
policy. That would have run counter to Bill Moyers' deeply held beliefs 
that, by the way, were frequently given time on his program. No, 
Senator Hagel was asked to come to the Moyers show to talk about 
aspects of the war in Iraq that differed from the positions of 
President Bush.
    Bob Barr was not invited on NOW to discuss his political philosophy 
that largely is in conflict with Mr. Moyers' position. Bob Barr was on 
the Moyers program to attack the Patriot Act, which not coincidentally, 
Bill Moyers questioned.
    Again, there is an important audience for the liberal advocacy 
journalism that is Bill Moyers. The law, however, requires CPB to 
encourage balance when such programming is presented.
    Fortunately the board leadership of PBS recognized that Friday 
evening programming should reflect diverse points of view. When it was 
clear that PBS was following through on this commitment, I ended the 
study and did not make it public because to do so would have called 
attention to the fact that for nearly two years public broadcasting 
ignored our legal responsibility for presenting diverse viewpoints on 
controversial issues.
    All of this occurred more than a year ago. So why did the issue 
become a staple in certain press venues in recent months? The answer to 
that question lies in the politics of public broadcasting--as well as 
the politics of year 2005. But one thing is certain. The more this 
debate continues, the more we jeopardize future public support for 
public broadcasting.
    Clearly, it is time for us to lay aside partisanship, seek popular 
consensus for what public broadcasting should be doing, and go forward 
to meet the challenges that lie ahead.
    I look forward to responding to any questions that the Senators 
might have.

    Senator Specter. Thank you very much, Mr. Tomlinson.
    We now turn to--you had concluded your verbal presentation?
    Mr. Tomlinson. Yes, sir.
    Senator Specter. Thank you.
    We turn now to Ms. Patricia Harrison, President and CEO of 
the Corporation for Public Broadcasting. Prior to taking her 
current position, she served as Assistant Secretary of State 
for Education and Cultural Affairs. In 1997 she was elected Co-
Chairman of the National Republican Committee, serving there 
until January of 2001, a graduate of American University.
    Thank you for joining us, Ms. Harrison, and we look forward 
to your testimony.

STATEMENT OF PATRICIA HARRISON, PRESIDENT AND CHIEF 
            EXECUTIVE OFFICER, CORPORATION FOR PUBLIC 
            BROADCASTING
    Ms. Harrison. Thank you, Mr. Chairman. I too have submitted 
my written testimony----
    Senator Specter. All written testimony will be made a part 
of the record in full.
    Ms. Harrison. I would like, with your permission, to use my 
time just to make a few brief remarks.
    Senator Specter. That is fine.
    Ms. Harrison. Thank you. First let me express my strong 
commitment to and belief in the mission of public broadcasting. 
Although I have been in the position of President and CEO of 
CPB for only 5 working days, it is a belief I have long held. 
It began when I served as an intern at WAMU as a student at 
American University. It continued when my children were small 
and we all watched ``Sesame Street'' together, and then much 
later ``Masterpiece Theater.'' It grew as I listened to NPR in 
the morning before I began my day as Assistant Secretary at the 
State Department.
    I believe that public broadcasting is in the public 
interest, that it furthers the general welfare of all our 
citizens, that it is a vital connection to community for 
millions of Americans, all races, all ages, urban and rural, 
and for new Americans and their children. Public broadcasting 
strengthens our civil society and it merits the investment of 
monies represented by our budget request for 2006 and 2008.
    My second point: I am committed to protecting the 
nonpartisan nature of public broadcasting. As you said, I come 
to CPB after almost 4 years as Assistant Secretary of State, 
managing a bureau of hundreds of people, civil servants, 
Foreign Service officers, working with 1,500 public and private 
organizations and 80,000 volunteers to facilitate 30,000 
nonpartisan educational, cultural, and professional exchanges 
annually.
    I am ready to work with Congress, the CPB Board, staff, the 
public broadcasting stations, national organizations, public 
and private funders in an open and transparent way in order to 
serve the millions of Americans who turn to public broadcasting 
each week.
    Now let me turn to the budget. CPB is requesting $430 
million in advance appropriations for fiscal year 2008, the 
vast majority of which will go directly to local television and 
radio stations for locally based, locally relevant operations. 
The corporation requests $45 million in fiscal year 2006 for 
the ongoing conversion to digital technology. We are requesting 
$40 million in 2006 to fund the replacement of the public 
television interconnection system.
    Mr. Chairman, I recognize that we make these requests at a 
time of great pressure on the Federal budget. But when we 
appeal to Congress for funds, we should recognize that hundreds 
of thousands of Americans are already including public 
broadcasting support in their personal budgets by writing 
checks to support these programs, and the fact is that every 
dollar of Federal funding is matched six times over by 
voluntary contributions from viewers, foundations, 
universities, State and local governments, corporations, and 
small business owners, and of every dollar of Federal funding 
we receive 95 cents of that dollar goes to the local stations 
and services they provide. Public broadcasting really 
represents the best example of public-private partnerships.
    We have all read the research on the importance of early 
learning and, though ``Sesame Street'' showed us the way 37 
years ago, the need is even greater today. Public television is 
responding to that need and in fact it is public television's 
responsibility. Whether we are talking about ages 2 through 8 
and early learning programs or middle school to high school 
with a focus on history and civics, the aim is to ensure our 
country's successor generation is prepared for the future.
    For those who have questioned the relevance of public 
broadcasting in a multi-channel world, the answer is that 
public broadcasting is more relevant than ever. We address 
community needs, we provide entertainment, education, 
information programming, and none of this is matched anywhere 
else in the 500-channel universe. That is just one of the 
reasons more than 100 million Americans tune in every week for 
uninterrupted programs where they are treated as citizens, not 
just as consumers.

                           PREPARED STATEMENT

    Mr. Chairman, members of the committee, on behalf of my new 
colleagues in public broadcasting let me say how much we 
appreciate the vital support Congress continues to provide. I 
look forward to working with the committee on behalf of public 
broadcasting in the public interest.
    Thank you and I will be happy to address any questions you 
may have.
    [The statement follows:]

               Prepared Statement of Patricia S. Harrison

    Mr. Chairman and members of the subcommittee, thank you for this 
opportunity to discuss with you the Corporation for Public 
Broadcasting's funding requests for fiscal year 2006 and fiscal year 
2008. Although I became CPB's President only 1 week ago, I have long 
understood and appreciated the vital role that public broadcasting 
plays in the lives of so many Americans.
    I accepted the challenge of leading CPB because I believe that 
public broadcasting serves as a vital connector to community for so 
many Americans rural and urban. Public broadcasters offer television 
and radio worth watching and listening to, and that is why so many of 
us spend our most precious resource--our time--on public broadcasting. 
I believe public broadcasting is a unique source of education, 
information, and entertainment that fully deserves strong, continuing 
congressional support.
    There is another reason I wanted to lead CPB. It is based on my 
almost 4 years serving as Assistant Secretary of State for Educational 
and Cultural Affairs. In that capacity, I managed a bureau of hundreds 
of people, worked with 1,500 public/private partnerships and 80,000 
volunteers to conduct 30,000 cultural, professional and educational 
exchange programs annually, including the prestigious Fulbright and 
International Visitor programs.
    These vital programs were also connectors between the American 
people and citizens from other countries. In the early 1990's, the 
budget was cut for exchanges and just when we needed to have this 
critical outreach after September 11, 2001, the resources were not 
there. I am very proud that I was able to increase our budget with the 
help of Congress. My goal was to reach out beyond the elites to 
younger, more diverse audiences, and to affirm and connect with what we 
have in common as opposed to our differences. One example--with the 
strong support of Senators Kennedy and Lugar, we were able to create 
the first high school program for boys and girls from the Arab Muslim 
world.
    I see a similar challenge facing public broadcasting today. This is 
an important time to affirm what we have and to work to make it better, 
to reinvigorate public broadcasting and underscore its unique relevance 
in the multi-channel world.
    I have a proven track record of leadership, and I am ready, willing 
and eager to help lead this organization into a strengthened 
relationship with public broadcasting stations, national organizations, 
public and private funders, and the millions of Americans who turn to 
public broadcasting each week.
    As I begin my tenure at CPB, I am particularly fortunate to be able 
to build on what the corporation's staff and their colleagues 
throughout the public broadcasting community have already done. Mr. 
Chairman, today I will mention just a few of these initiatives--work 
that is possible, Mr. Chairman, because of the commitment made by 
Congress and so many others in the public interest, and work that I 
believe will help us leverage an even greater return on the public's 
investment.
    As the distinguished committee knows, public broadcasting is a 
collection of locally based stations that serve both local and national 
needs.
    Public broadcasters offer coverage of national news--and of local 
high school and college sports. They bring the world's greatest artists 
and performances into our living rooms, and they collaborate with local 
arts and cultural institutions. Public broadcasting reaches children 
just learning to read, and often these children are sitting in front of 
the television with parents who are themselves learning to read in a 
new language.
    Public broadcasting is not one size fits all. What you see and hear 
depends upon where you live and what the communities needs are.
  --in Pennsylvania, you can explore your state's history with Marking 
        Pennsylvania History on WHYY;
  --in Iowa, you can tune in to Living in Iowa, a monthly statewide 
        magazine show;
  --and in North Dakota, you can keep up on all the doings with Dakota 
        Datebook, daily on North Dakota Public Radio.
    All across the country, stations are bringing different services 
and programming, informed by community attitudes and concerns, to their 
audiences. They are able to do this so effectively because they are 
locally owned and operated. They know their communities, what their 
neighbors want in terms of programming, what their local organizations 
need in terms of support. In a word, they are connected. And that 
connection is one that distant commercial media simply can't or won't 
provide.
    Mr. Chairman, with your permission, I'd like to turn now to our 
funding requests and the ways in which those federal dollars benefit 
citizens and communities across the country.
    These requests were of course submitted before I came aboard last 
week, but I have had the opportunity to review them with staff and 
believe they merit strong support.
    CPB is requesting $430 million in advance appropriations for fiscal 
year 2008, the vast majority of which will flow directly to local 
public television and radio stations for locally based, locally 
relevant operations.
    Additionally, the corporation requests $45 million in fiscal year 
2006 for the ongoing conversion to digital technology. Mr. Chairman, 
this is so important. As the result of the investment made by Congress 
so far, hundreds of public television and radio stations are offering 
digital signals, and we have recently begun making grants to develop 
new digital services for local communities.
    Digital is the future of broadcasting and the future is here. Mr. 
Chairman and members of the Committee, public broadcasting must be 
enabled to participate fully in that future, and thanks to your ongoing 
support, it is well on the way.
    Finally, CPB is requesting $40 million in fiscal year 2006 to fund 
replacement of the public television interconnection system. Given the 
scheduled expiration of public television's satellite leases, we must 
not miss this opportunity to develop a system that is both more 
efficient and compatible with the new digital technologies.
    Mr. Chairman, I recognize that we make these requests in a time of 
great pressure on the federal budget. The requested funds, however, 
represent an investment of only about $1.75 per American--and the 
return on investment is far greater in terms of value to older 
citizens, urban and rural residents, and minority audiences. If this 
were a stock, I would argue it is one of the best investments the 
American people have ever made.
    Public broadcasting serves every one. There are no qualifications 
of age and income; no requirements for matching funds; no copays. 
Instead, public broadcasting is available to virtually every American, 
free of charge, in every community across the country. And every week, 
more than 100 million of our fellow citizens take advantage of the 
opportunity to tune in.
    In fact, this July 4th I began my day in Washington, D.C. listening 
to Morning Edition and the reading of the Declaration of Independence. 
My day ended at the Capitol Fourth concert and fireworks on the Capitol 
steps. Public television covered this event, which meant that my 90-
year-old mother and so many others like her throughout the country 
could share in the celebration of America's birthday without leaving 
home.
    Of every dollar CPB receives from the federal government, 95 cents 
goes to local stations, either directly, or indirectly to support 
radio, television and on-line programming, research and technology.
    The largest amount by far--72 cents of every dollar--goes directly 
to local public television and public radio stations. As I said, these 
stations are uniquely connected to their communities. They determine 
their own program schedules, and often produce their own programming; 
they respond to community needs and leverage local support.
    CPB also supports the creation of programming for radio, 
television, and new media. Probably every American is familiar with 
signature programs like Masterpiece Theater and Sesame Street, but 
today, we're funding tomorrow's classics. If you've heard any of the 
new StoryCorps or This I Believe segments on public radio or listened 
to Philadelphia's own Terry Gross, you know what I mean. And we have 
similarly high hopes for our newly announced children's programming 
initiative, which will continue public broadcasting's leadership in 
high-quality, non-commercial, educational programming for children; for 
America at a Crossroads, which will explore the issues facing us in the 
wake of the 9/11 attacks; and for the American History and Civics 
Initiative, which will capitalize on today's technology to reach and 
teach middle and high school students.
    To carry out its mandate to serve the underserved, CPB provides 
support to five minority consortia--representing the unique points of 
views of Latinos, African-Americans, Native Americans, Asian Americans, 
and Pacific Islanders. We also fund the Independent Television Service, 
through which the work of innovative, independent filmmakers is made 
available to the public television audience.
    And we also work to ensure that the programs we support have a life 
long after the television and radio are turned off. Materials are 
available on website and for classroom use and often prove enduringly 
popular as the years go on. Radio material, too, is available for 
download or web-based listening. And programming is frequently 
supported with direct, person-to-person outreach, something 
distinguishes public broadcasting from our commercial counterparts. In 
other words, our impact resonates well beyond the broadcast.
    Another six cents of every dollar go to projects that benefit the 
entire public broadcasting community. We negotiate and pay music 
royalties for all of public broadcasting, for example, allowing 
audiences nationwide to enjoy new and classic recordings, and we 
recently completed the most comprehensive audience research project in 
public television history, information that producers and broadcasters 
will use to guide programming decisions for years to come.
    With special appropriations from Congress, CPB helps local public 
broadcasters provide the advanced public service digital technology 
makes possible. We are funding the upgrade of the public television 
interconnection system that delivers programming to stations. And we 
are funding station purchases of digital equipment that they will use 
to provide new and needed streams of news, music, and public service 
programming. From homeland security information to special streams of 
programming for kids, the public investment is creating a deeper, 
richer mix of services available to people across the country.
    CPB's administrative expenses are limited by law to five percent, 
but we normally hold them even lower. Less than a nickel of every 
federal dollar stays in Washington; the rest is spent to benefit 
stations across the country.
    The Federal appropriation accounts for only about 15 percent of the 
entire cost of public broadcasting, and stations and other 
organizations must work very hard to raise the money to fund their 
activities. In fact, CPB funded the Major Giving Initiative, which has 
helped stations sharpen their community-based fundraising skills and 
improve their balance sheets.
    The Federal dollars are critically to leveraging all the other 
resources. It opens the door for funding from state and local 
governments, universities, businesses, foundations, by providing a 
``seal of approval'' from the Federal Government.
    The funding we receive from Congress ensures that public 
broadcasting continues to offer programming and services that are 
superior across the board to those offered by commercial competitors. 
As Ken Burns has said, ``The programming on PBS, in all of its splendid 
variety, offers the rarest treat amidst the outrageous cacophony of our 
television marketplace--it gives us back our attention and our memory. 
And by so doing insures that we have a future.''
    Public broadcasting attracts the support of viewers and listeners 
nationwide--people from all walks of life, who add their dollars to the 
vital core of Federal support, writing the checks to fund programs and 
services that are important to their lives, leisure, and careers.
    The Public Broadcasting Act describes public television and radio 
stations as ``valuable community resources'' that can help address 
local concerns. The American public has already invested a great deal 
in creating, preserving and now modernizing these resources. With the 
requested funding, we will work to fulfill their hopes and expectations 
by continuing to deliver high quality, high value services.
    Mr. Chairman, members of the subcommittee, on behalf of all my 
colleagues in public broadcasting, let me say how much we appreciate 
the vital support Congress continues to provide. And let me say 
personally that I understand how valuable public broadcasting is. Plain 
and simple, strong public broadcasting means a stronger democracy. I 
take that responsibility extremely seriously. Thank you, and I will be 
happy to try to answer any questions you may have.

    Senator Specter. Thank you very much, Ms. Harrison.
    We have been joined by the distinguished Senator from 
Hawaii, Senator Inouye, who has been in the Congress as long as 
Hawaii has been a State, initially in the House of 
Representatives and in the Senate, 1960?
    Senator Inouye. 1963.
    Senator Specter. 1963.
    Would you care to make an opening statement, Senator?
    Senator Inouye. I thank you very much, Mr. Chairman. But at 
this moment I would prefer just to ask questions.
    Senator Specter. Thank you. Thank you very much.
    Our third witness is Ms. Pat Mitchell, President and CEO of 
Public Broadcasting Service. She has a broad and distinguished 
background as a journalist, television executive, and educator. 
During her 3-decade career, she has been recognized at her work 
at NBC, CBS, ABC, and CNN; a graduate of the University of 
Georgia.
    Thank you for joining us, Ms. Mitchell. We look forward to 
your testimony.

STATEMENT OF HON. PAT MITCHELL, PRESIDENT AND CHIEF 
            EXECUTIVE OFFICER, PUBLIC BROADCASTING 
            SERVICE
    Ms. Mitchell. Thank you very much, Mr. Chairman, and I 
welcome Senator Inouye on behalf of the PBS Board Chair Mary 
Bidderman, who hails from Hawaii, as you know.
    I am very grateful for this opportunity to be here to 
support the appropriations request for the Corporation for 
Public Broadcasting. Mr. Chairman, allow me to welcome Pat 
Harrison to the community of public broadcasting. Last week Pat 
and I shared the PBC Fourth of July Concert and we celebrated 
both our country's independence and also the value of a Public 
Broadcasting Service who can independently bring such a 
celebration through our local station, WETA, and its leader, 
Sharon Rockefeller, who is with us as well, into every American 
home.
    We understand the enormous responsibilities we all have in 
leading such a valued media enterprise at such a time of 
transformational change, a time when our mission, which is to 
use the power of media to serve the public good, is more needed 
than ever. And we are grateful, Mr. Chairman, that in such a 
time when you have such challenging choices to appropriate 
public funds that you continue to appropriate them for public 
media.
    Public media must have the public's trust. It is our rating 
system, our currency, our measure of achievement. In a recent 
Roper poll, Americans named public broadcasting the most 
trusted national institution in this country. The result of 
this trust is the collective good work of public broadcasting 
producers, stations, and the collective goodwill of the 
American people we serve. It is also, Mr. Chairman, the result 
of a collaborative, constructive relationship between the 
management of the public broadcasting organizations seated at 
this table.
    It is a great affirmation to know that Americans indicate 
in independent surveys they consider public television to be 
their best value for their tax dollars, second only to military 
defense.
    So what is PBS's role, then, in using these funds? We are 
not a network like ABC or CBS, but we do provide nearly 3,000 
hours of top-quality educationally-based programs to 170 public 
television stations, who distribute them to 350 communities. 
These are the programs that define public television, but they 
come through essentially local institutions, built on local 
values, serving public and local community interests.
    During my tenure at PBS, I have visited more than 100 of 
these stations and on these visits I have seen the positive 
results of public service media in our communities up close and 
personal. I wish I had the time to share the smiles and 
appreciative thank-you's that have come from parents and 
caregivers and teachers and home schoolers in every community. 
I meet these people and for them PBS is not a luxury or a 
burden; it is an important part of their lives.
    Let us not forget the 40 million Americans without cable or 
satellite. It also matters that, even in homes where there are 
300 channel choices, PBS is still among the top six media 
choices, viewed by more than 70 percent of Americans every 
month. Add to that the millions of visitors to pbs.org and 
station websites every day, learners of all ages, taking 
advantage of 175,000 pages of educational content. Then add the 
millions more that are reached through educational services and 
community partnerships, and you begin, Mr. Chairman, to get a 
picture of the true scale, the unparalleled power of reach and 
power that PBS and our stations in our community are bringing 
to communities in this country.
    We do it in ways that have earned the public's trust: 
children's programs that educate, science programs that 
illuminate, history that is definitive, memorable, news and 
documentaries that are trustworthy and reliable, because of the 
editorial standards that ensure accuracy, fairness, and balance 
across our schedule, all of our programs produced in the public 
interest, not to motivate consumers.
    PBS's management, Mr. Chairman, not the PBS board or any 
other party, is ultimately responsible for ensuring these 
standards guide our decision-making and public opinion polls 
verify that the public perceives we are doing it, free of bias 
and any undue influence from any source.
    Then beyond being a broadcaster that is so valued, we are 
also this Nation's largest educational service, the leading 
source of online lesson plans, 3,500 free on-line, the number 
one choice of educational content in classrooms. More than 5 
million adults receive their GEDs through public television 
stations; workplace essential training; and over the past 10 
years a partnership with the Department of Education has 
changed the lives of hundreds of millions of parents and 
caregivers through Ready To Learn and Ready To Teach. We have 
prepared children for school achievement and we have prepared 
teachers to use the latest technology to meet today and 
tomorrow's learners.

                           PREPARED STATEMENT

    With your support, we will continue to build on this 
foundation of trust and use all the new technologies to deliver 
even more public service.
    Thank you, Mr. Chairman. I look forward to your questions.
    [The statement follows:]

                   Prepared Statement of Pat Mitchell

    Mr. Chairman, members of the Subcommittee: I welcome this 
opportunity to be a witness on behalf of the Public Broadcasting 
Service, this country's largest public service media enterprise, which 
is also this country's most trusted national institution, according to 
a recent Roper Poll.
    Public media must have the public's trust. Trust is our ratings 
system. Our currency. Our measure of achievement.
    And like public education, public health programs, and public 
libraries, public broadcasting is supported by public funds--another 
reason why it is essential to be sure that we have earned the public's 
trust.
    I am pleased to share that Americans have said in independent 
surveys that public television is the best value for their tax dollars, 
second only to military defense. This may surprise some, just as many 
are surprised to learn that the amount of those tax dollars is about 
one tax dollar per citizen per year, totaling less than 20 percent of 
the costs of operating public radio and television stations in 
communities across the country.
    This investment of public funds is the foundation upon which public 
broadcasting has built a national/local, public/private partnership 
that is unique in the world, and it is crucial that we maintain that 
foundation. Therefore, we are asking this committee to fund $430 
million to the Corporation for Public Broadcasting for fiscal year 2008 
to support local stations' operations and public broadcasting 
programming.
    Only in America with our strong philanthropic culture would a media 
enterprise such as PBS meet its mission year after year by leveraging 
every tax dollar with three or four private dollars from foundations, 
corporations, and yes, viewers like you, voluntarily adding their 
personal dollars to ensure that the programs and services of public 
broadcasting continue in their communities.
    Those viewers come from every sector of our communities, closely 
aligned in age, ethnicity, education and income with the overall 
demographic picture of this country. It is a committed constituency who 
believes--as Congress has historically indicated through its 
appropriations votes--that in a media landscape of hundreds of media 
businesses with fewer and fewer owners, with more choices than ever but 
fewer real options, that this country needs, perhaps more than ever, 
one media enterprise that resists the race to the bottom for profits 
and popularity, that respects the intelligence of its audience and 
responds to the need for programs that reflect our values and both 
celebrate and document the best of our history and culture.
    We need one media enterprise, as originally conceived over 35 years 
ago, that is not using its power to sell, cannot be bought or 
influenced and that truly does belong to all of the American people. It 
is those people's voices that have been heard in these halls and around 
the country to protect a service that is open to voices from every 
perspective, that tackles the tough, complex issues they want and need 
to understand, that puts them on the frontlines of the news and in the 
front rows of the theatre and that teaches their children letters and 
numbers as well as respect and other pro-social behavior.
    Those are the ``viewers like you'' who never ask the question, 
``Who needs PBS in today's media landscape?'' And yes, among them, are 
the often forgotten 40 million Americans who cannot afford or do not 
choose the options of cable or satellite. For them and for most rural 
communities, the funds to support a new interconnection system are 
critical to the sustainability of the national public broadcasting 
service that connects all 348 member stations to PBS and to each other.
    Because of their unique national/local structure, PBS and its 
member stations also offer a unique and important means of 
communicating during a crisis. Trials are under way to determine how 
best to serve first responders and how to ensure communities get what 
they need in times of disaster. The interconnection system must be 
updated to fully optimize this additional service for Americans.
    Therefore, we are asking that this committee fund the $40 million 
needed to build out the interconnection system so that we can ensure 
the universal reach that is our mandate and the delivery of national 
and local programs that serve our mission.
    ``Serve'' is the operative word because PBS and its 348 member 
stations have a mission to serve, not to sell, to inform and engage 
citizens, not to motivate them as consumers.
    This is a distinction with a big difference and the difference can 
be measured by results. I'd like to share a few of them with you today.
    The most obvious and most celebrated are the programs, consistently 
among the most honored for educational value, excellence in quality and 
journalistic standards, and--even in the midst of 300 media choices--
still among the top choices every week in most households and still 
viewed by nearly 70 percent of American households. In addition, PBS 
was chosen again this year as the number one television and video 
resource for classrooms by teachers across the country.
    Those who question whether there is still a need for PBS when there 
are so many other choices need to take a closer look at those other 
choices. I think you would agree that ``Monster Garage'' is not really 
a substitute for ``Masterpiece Theatre.'' And while distracting and 
amusing, ``Dancing with the Stars'' will not have the long lasting 
value of PBS' series on Broadway, a Ken Burn's history of jazz or 
baseball or the upcoming World War II program.
    At PBS, we do not begin with questions like, Will this program sell 
a product? We begin with questions like, What's the educational value 
of the content? How can teachers use it? Will it have lasting value to 
learners of all ages? Is it comprehensive, well researched? Does it 
contribute to a diversity of perspectives on the subject? Does it add 
to the understanding of our community, our country and our world? Will 
it open a mind, change a life, strengthen a family, teach a skill, 
connect a community? Will it comply with PBS's editorial standards for 
reliability, transparency, objectivity and balance?
    PBS recently updated its editorial standards with the help of a 
blue ribbon panel of journalism experts and also created the position 
of PBS ombudsman to ensure both transparency and responsiveness to the 
public. A search is under way to fill that new role.
    Every year, PBS distributes almost 3000 hours of programs that meet 
our high standards:
  --Children's programs that teach the concepts of literacy and math, 
        which foster respect and pro-social behavior, which get our 
        youngest and most disadvantaged ready to learn and prepared for 
        school.
  --Science and history programs that set the standard for accuracy and 
        comprehensiveness and are, along with the rest of our 
        programming, the most used TV and video curricula in American 
        schools.
  --Drama and performance programs that celebrate our country's great 
        cultural diversity and inspire the artists, the dancers, the 
        writers and musicians of tomorrow.
  --News and investigative journalism programs that Americans turn to 
        for an understanding of the complex issues of our times.
    And this is just the tip of the iceberg.
    Many of these programs and additional educational content go to 
PBS.org, which learners of all ages visit more than one million times a 
day to view 175,000 pages of content--web sites that extend the value 
of PBS and that link users seamlessly to their local PBS station web 
sites for local information, programs and educational services. 
Teachers across the country use nearly 4,000 highly credible, freely 
available lesson plans and study guides based on PBS content in their 
classrooms, all customized to national and state curriculum standards.
    Beyond broadcast and the Internet are the extensive and diverse 
outreach activities that engage PBS and stations in additional 
community service for which our content is perfectly suited: Through a 
Department of Education grant, Ready To Teach, our PBS TeacherLine 
service has been training teachers in reading, math, science, 
curriculum & instruction and technology integration. Everywhere I go 
around this country, teachers express appreciation for this 
professional development training, which is available through online 
courses, videoconferencing and face-to-face workshops, and for the 
state-of-the art digital technology PBS and its member stations are 
deploying to America's classrooms and school systems. The committee's 
support of these programs is essential, and we are requesting that this 
committee fund $17 million to enable PBS and its member stations to 
continue providing this critical service.
    In addition to providing teachers with access to training, PBS and 
its stations are meeting another community need, offering training to 
workers who have faced layoffs or hold jobs in industries in 
transition. KET, a statewide network of PBS member stations in 
Kentucky, is addressing the need to keep Americans fully engaged in the 
economic lives of their communities by offering through PBS 
distribution and to other stations a program that teaches workplace 
skills.
    Together with stations and partnerships with institutions of 
learning, PBS also offers video curriculum and materials for Americans 
seeking to complete their high school education and take college 
classes. More than 2 million Americans have received their GED 
certificates through PBS programs, and PBS and its local stations have 
helped more than 6 million adults earn college credit using PBS 
courses.
    When he signed the law creating public broadcasting in 1967, 
President Johnson said we should ``use the miracles of communication to 
create the miracles of learning.'' PBS and its member stations are 
doing this every day in every community, making us the single largest 
educational institution in the country.
    Education is a significant part of what we do, and the return on 
investment of tax dollars can be measured in the number of children 
better prepared to read and to succeed in school and in the number of 
Americans in every community who are being informed and educated 
through public service media.
    Traveling the country as the president and CEO of PBS, I have seen 
these results up close and personal.
    In rural Pennsylvania, I spoke with a young woman who thanked me 
for her high school diploma and the college degree she expects to earn 
through her PBS station.
    I have met teachers in Iowa who use our videos and DVDs who look to 
us to train all teachers in the best uses of technology.
    I have visited kindergartens and have seen caregivers in 
Mississippi, some with few educational resources, put in a DVD of our 
PBS KIDS program ``Between the Lions'' and I have watched the joy on 
children's faces when they used that program to connect the letters to 
a word they're learning.
    I have been in homes in Texas where there were no books until our 
Ready To Learn program provided books for the children learning to read 
and taught the parents how to support literacy in the home.
    And I have talked with hundreds of homeschoolers for whom PBS 
content comprise their core curriculum.
    Education is our mission and we need your support to ensure that we 
can sustain this service, particularly through Ready To Learn, for 
which we are asking this committee to fund $32 million for programs and 
community outreach. Developed in cooperation with the Department of 
Education, Ready To Learn has helped nearly one million parents and 
teachers prepare eight million children for success in school using 
local public television stations as outreach partners.
    We are working to strengthen our educational offerings in the 
future through an effort called the Digital Future Initiative (DFI), 
led by former Netscape Chairman Jim Barksdale and former FCC Chair Reed 
Hundt. The panel, made up of experts from inside and outside public 
broadcasting, is examining the future of learning and technology, and 
analyzing where PBS and its member stations fit into that future.
    The DFI will recommend new services we can deploy in the digital 
future for learners of all ages, but nothing will be possible without 
current funding, which we hope you will support. With that, we will 
solicit new partners who share our education mission, once again 
leveraging the private funds to make the public funds go even further.
    With your help in securing the foundation of public funds--the all-
important investment of public dollars--PBS and its member stations are 
the best positioned media enterprise to succeed in the digital future--
in fact, to lead it. Eighty-nine percent of our stations have converted 
at least their transmission facilities, but some remain in need and 
cannot be left behind. We are asking this committee for $45 million to 
help stations fund the conversion to digital broadcast technology.
    For PBS and for those stations that have converted, the transition 
to digital means a transition to a new way of serving the American 
people by deploying our already considerable offerings across platforms 
that respond to our audience's needs in this media landscape. And that 
is what this is all about. Harnessing the current power of media--
unprecedented in its capability to do good--on behalf of the American 
people.
    In a media landscape transformed by technology, consolidating in 
ownership and power, this country needs one media enterprise:
    --where education comes first;
  --where partisanship is checked at the newsroom door;
  --where editorial guidelines ensure that all content produced for us 
        is fair, transparent in the process and accurate. We have 
        recently updated our editorial guidelines to ensure that we 
        continue to achieve these goals at every level.
    In a media landscape where fewer and fewer Americans trust the 
press, we maintain our high level of trust because the public believes 
that we are independent of pressures that come from the marketplace and 
the influence of any funding source.
    And in a media environment where our children are spending 4 to 6 
hours a day interacting and engaged with media of some sort, we offer a 
media experience that is committed to the values of family and the 
values of this democracy.
    We are this country's only media enterprise that invests public 
funds in a public-private partnership through a strong national program 
service and an interconnected community of locally owned media 
institutions, public radio and public television stations. And we are 
this country's only media enterprise that delivers programs and 
services that meet community needs and that measures our value and 
relevancy by how many minds we open, how many lives we change, how many 
ways we strengthen communities and how well we serve this democracy.

    Senator Specter. Thank you. Thank you very much, Ms. 
Mitchell.
    Our next witness is Mr. John Lawson, President and CEO of 
the Association of Public Television Stations. He served on the 
board of the National Coalition for Technology in Education and 
Training, was appointed to the Federal Communications 
Commission's Media Security and Reliability Council in 2002, a 
graduate of the University of South Carolina.
    Thank you for coming in this morning, Mr. Lawson, and the 
floor is yours.

STATEMENT OF JOHN M. LAWSON, PRESIDENT AND CHIEF 
            EXECUTIVE OFFICER, ASSOCIATION OF PUBLIC 
            TELEVISION STATIONS
    Mr. Lawson. Thank you, Mr. Chairman and Senator Inouye. 
Thanks for inviting me to testify on behalf of America's 356 
local public training stations. In an era of media 
consolidation, our stations are among the last of the locally 
controlled media and that fact alone makes them vital to our 
democratic society.
    With all that has been said and written about public 
broadcasting, especially over the past few weeks, my concern is 
that we not lose sight of who we really are and, more to the 
point, who we really serve. It is not the media, it is not the 
pundits, and it is not us here in this room. It is viewers and 
listeners who turn to public TV and radio as their most trusted 
source for news and public affairs. It is children, whose 
public education is improved by programs in reading, math, and 
science. It is parents, who depend on public television for 
home schooling and for family-friendly and non-violent 
programming. And it is people living in Russell, Kansas, and 
Cumming, Iowa, Hooper Bay, Alaska, and other rural communities 
who depend on public TV and radio as information lifelines.
    Senator Specter. Why special concern about Russell, Kansas?
    Mr. Lawson. I understand that is where you were born, sir.
    Senator Specter. Close. Bob Dole was born there. I was born 
in Wichita, moved there when I was 12.
    Mr. Lawson. Okay, where you grew up.
    Senator Specter. Glad to have Russell included. You can 
have some extra time for mentioning that.
    Mr. Lawson. I will take it.
    So these are the real people, Senator, that public 
broadcasting serves. But make no mistake, our viewers challenge 
us and we challenge ourselves to keep pace with a changing 
society. With the support of this subcommittee, we are 
converting to digital, DTV. In practical terms, that means 
that, instead of broadcasting a single program, stations can 
reach nontraditional learners, kids, the elderly, Spanish 
speakers, and rural Americans with multiple news services 
simultaneously.
    I am also pleased to report that the Department of Homeland 
Security has turned to our stations as the backbone for 
upgrading the Cold War-era emergency alert system and 
overcoming the communications bottlenecks we saw on 9-11 both 
here and in New York City.
    Mr. Chairman, just over 2 weeks ago the House of 
Representatives voted by a two to one margin to restore $100 
million that the House Appropriations Subcommittee cut from 
CPB. While we are grateful for that bipartisan vote of 
confidence, funding for four critically important programs 
still was completely eliminated in the House bill. Tomorrow 
this subcommittee will take on the different task of allocating 
scarce resources.
    So please let me summarize what our stations believe is 
needed to continue serving their communities. First and 
foremost, CPB funding is irreplaceable for our stations. It is 
the foundation. It is the seed money on which all the other 
money we raise stands.
    Also very important is the longstanding practice of this 
subcommittee to provide these funds 2 years in advance. This 
allows for good planning, provides a buffer from politics, and 
does not cost the Federal Government any more than a current 
year appropriation.
    For CPB, we urge you to appropriate $430 million for fiscal 
year 2008, an increase of $30 million over what was 
appropriated last year and the year before. These additional 
funds are needed, among other reasons, because stations are 
required to transmit both analog and digital signals and added 
cost for electricity alone is $30 million per year.

                 NEXT GENERATION INTERCONNECTION SYSTEM

    Two years ago, this subcommittee recognized that our 
current satellite system is wearing out. We have planned a 4-
year phase-in of a new system that will allow local stations, 
wherever they are, to share programming with one another across 
their State and across the country. For this year's installment 
we are requesting level funding, $40 million.

                      CPB DIGITAL TRANSITION FUNDS

    This is another temporary line item. Next year the FCC 
requires stations to deliver full power digital signals and 
have their final DTV channel allocations in place. To help 
stations meet these Federal mandates and complete their digital 
buildup, we are requesting $45 million. This augments State and 
private funding.

                     READY TO LEARN, READY TO TEACH

    If I can characterize CPB funds as the foundation for our 
stations, I would describe these programs as the crown jewels. 
Ready to Learn provides educational programming for tens of 
millions of American children and its outreach component has 
helped to further prepare eight million children to enter 
school. Ready to Teach uses technology to help train teachers 
in core subjects and provides grants to stations to create 
world-class curriculum content. We are requesting $32 million 
for Ready to Learn and $17 million for Ready to Teach.

                           PREPARED STATEMENT

    In conclusion, Mr. Chairman, Senator Inouye, you and 
ranking member Harkin and Chairman Cochran and Stevens and your 
colleagues on this subcommittee have provided steadfast support 
for public broadcasting. Through good times and bad, you have 
made it possible for public stations to serve uniquely their 
local communities. We are deeply grateful for your lifetime 
support.
    Thank you.
    [The statement follows:]

                  Prepared Statement of John M. Lawson

    Mr. Chairman and members of the Subcommittee: Thank you for the 
opportunity to testify on behalf of our members--representing the 356 
local public television stations across the nation. In an era of 
mergers and acquisitions, our stations are among the last of the 
locally-controlled media and, in that regard, perhaps best reflect one 
of the central tenets of our democratic society.
    With all that's been said and written about public broadcasting, 
especially over the past several weeks, my concern is that we not 
become distracted from our core issues. More to the point, I think it's 
important that we not lose sight of who we serve.
    It's not the media. It's not the pundits. And it's not really us in 
Washington.
  --It's the viewers and listeners who turn to public TV and radio as 
        their most trusted source for news and public affairs.
  --It's the children whose public education is improved by programs in 
        reading, math and science.
  --It's the parents who depend on public television for home-
        schooling, and who want to be assured that what their children 
        watch on TV is family-friendly and non-violent.
  --And it's the people living in Russell, Kansas, Cumming, Iowa, 
        Tunica, Mississippi, Hoppers Bay, Alaska and other rural 
        communities, who depend on public TV and radio as a lifeline 
        for news and weather alerts.
    These are the real people public broadcasting serves.

                            THE DIGITAL AGE

    But make no mistake. We are not resting on our laurels. Our viewers 
challenge us--and we challenge ourselves--to keep pace with a changing 
society.
    With the support of this subcommittee, we are converting to digital 
television broadcasting [DTV]. In practical terms, this means that 
instead of transmitting a single program over the airwaves, stations 
can now broadcast a wide range of new services, including standards-
based education, all-day channels for kids, and expanded public affairs 
and local programming, simultaneously. DTV means we can reach non 
traditional learners, the elderly, Spanish language speakers and Rural 
Americans as never before.
    I'm also pleased to report that the Department of Homeland Security 
has turned to our stations for help with upgrading the aging Emergency 
Alert System [EAS]--using our digital signals to overcome the 
communications bottlenecks we saw on 9/11, both here and in New York 
City.
    Last year, in fact, my association and DHS signed a cooperative 
agreement to begin a pilot project in the National Capital Region to 
demonstrate the capabilities of public television's infrastructure to 
support the distribution of digital EAS messages. The goal was to prove 
that we could distribute digital EAS messages (such as audio, video, 
and/or data messages) wirelessly to any number of communications 
devices: TVs, radios, PCs, cell phones, pagers and wireless networks.
    The pilot has been a success, and I am gratified to make an 
important announcement today. Building upon the success of this pilot 
project here in the National Capital Region, DHS has signed a new 
cooperative agreement with APTS to plan the national roll-out of the 
Digital Emergency Alert System. We will use the PBS satellite system 
and the local public television stations as the backbone for this 
significantly upgraded public warning system.

                              HOUSE ACTION

    Just over two weeks ago, the House of Representatives voted--by a 2 
to 1 margin--to restore $100 million cut from the Corporation for 
Public Broadcasting by the House Appropriations Committee. While we are 
grateful for that bipartisan vote of confidence, unfortunately, the 
House bill still fails to fund four critically important programs: next 
generation interconnection, digital conversion, ready to learn and 
ready to teach. In other words, the bill sent by the House to the 
Senate falls more than $103 million short of what is required to 
sustain public broadcasting's mission in the 21st century.
    Moreover, we believe the House cuts presented a great fiscal 
contradiction. On the one hand, two authorizing committees--Budget and 
Commerce--have made the digital conversion of the television industry a 
major priority. This is because the Federal Government can recover and 
auction off the nation's analog television spectrum for billions of 
dollars in new revenue, without raising taxes. Some of these channels 
have already been promised to public safety. On the other hand, this 
will occur only when consumers all make the switch and broadcasters 
cease analog transmission.
    Public television has clearly led the broadcasting industry in 
driving the digital conversion. Yet the House cuts would severely 
damage our digital transition at precisely the moment in history when 
Public Television is doing the most to make the auctions feasible by a 
date certain. In purely financial terms, cuts to public television are 
penny-wise and pound foolish.
    Tomorrow, this subcommittee will take on the difficult task of 
allocating scarce resources across a range of important programs. So, 
if I may, I'd like to briefly review what our local stations believe is 
needed to continue serving their communities.

                          CPB ADVANCE FUNDING

    First and foremost, the Corporation for Public Broadcasting is the 
lifeblood of funding for our stations. Federal funding is the 
foundation, the seed money on which we raise all other money.
    As you know, there has been a long-standing practice of providing 
CPB funds two years in advance, so that stations can more effectively 
plan and manage their operations, as well as leverage non-Federal 
funds. Doing so does not cost the Federal Government any more than a 
current-year appropriation would.
    For CPB, we ask that no funds previously appropriated for fiscal 
year 2006 be rescinded. We suggest that the outpouring of popular 
support for public broadcasting that compelled the full House to 
restore a $100 million cut by the House Appropriations Committee is the 
clearest expression of opposition to any rescission.
    We further urge you to appropriate $430 million for fiscal year 
2008, an increase of $30 million over what was appropriated last year. 
This represents an annualized increase over two years of three and 
three-quarters percent. These additional funds are needed because 
stations are required to transmit both analog and digital signals. Just 
the added cost for electricity amounts to $30 million--annually.

                 NEXT GENERATION INTERCONNECTION SYSTEM

    Two years ago, this subcommittee recognized that our current 
satellite interconnection system is wearing out and badly in need of 
replacement. We set out a four-year phase-in of a new system that will 
allow local stations--wherever they are--to share programming with one 
another, across their state, and across the country.
    For this year's installment, we are requesting level funding--$40 
million.
    We call this system the Next Generation Interconnection System, or 
NGIS. Like its predecessors, NGIS will serve as a distribution system 
linking PBS to local stations. Yet this time, stations will be equipped 
with servers that will store programming, digitally, to be aired--or 
shared--at the station's discretion.
    In engineering-speak, NGIS will give public broadcasters station-
to-station connectivity, on demand. Let me give you an example of what 
that capability means in the real world.
    Let's assume that WHYY in Philadelphia has produced a program on 
the history and preservation of the Liberty Bell. In the NGIS world, 
WHYY will be able to distribute the program to any station in the 
country that wants it with the ease of a few clicks of a mouse. But 
that's just the beginning. Perhaps a station in say, Bethel, Alaska, is 
working with their local school district to put together some multi-
media history content. A station employee in Alaska gets online to 
search public television archives and, lo and behold, not only finds 
what WHYY has produced on the Liberty Bell, but can choose just a small 
segment of that program--whatever works best for them. Think of this 
station-to-station sharing feature as connecting hundreds of local 
digital libraries that house local content.

                              CPB DIGITAL

    Next year, the Federal Government requires that public television 
stations deliver a full digital signal to their entire viewing area, 
and that the final digital channel selection for stations be in place. 
To help meet these Federal mandates, we are requesting $45 million to 
help stations complete their digital build-out. This augments the DTV 
conversion funds that have come from State governments and private 
fundraising. With funding for fiscal year 2006, our request will ramp 
down to zero over the next few years. Without this funding, rural and 
smaller public television stations are at real risk of going dark when 
the digital clock strikes 12:00.

                     READY TO LEARN/READY TO TEACH

    If I can characterize CPB as the lifeblood of our stations, I would 
describe the Ready To Learn and Ready To Teach programs as the crown 
jewel in public broadcasting. These programs are what the term 
``educational'' in our governing statute are all about.
    Ready To Learn provides educational programming for tens of 
millions of American children, including Between the Lions, 
DragonTales, Clifford, and Sesame Street. The unique national-local 
partnership between PBS and local stations supports both the 
development and distribution of educational programming and the 
extension of this programming into the community, using specially 
developed curriculum and community outreach activities. The Ready To 
Learn service is designed to build partnerships with local community 
organizations such as childcare centers, schools, libraries, 
businesses, civic groups, and government agencies facilitated through 
local public television stations.
    Through this extensive national-local partnership, approximately 
eight million children have benefited from the outreach component of 
the program, better prepared to enter school ready to succeed. This 
year, Public Television is requesting $32 million in fiscal year 2006 
to expand the reach and programming supported by Ready To Learn.
    Ready To Teach uses technology to help train elementary and 
secondary school teachers in core curriculum subjects. It is a teacher 
professional development program that joins the power of multimedia 
content with facilitated training modules in conjunction with local 
accredited higher ed institutions. To date, the 80 Ready To Teach 
stations have reached tens of thousands of teachers. Ready To Teach 
continues to grow in terms of both station and teacher participation; 
thus for fiscal year 2006, we request $17 million to continue this 
effective program.
    In conclusion, Mr. Chairman, I want to thank you, Senator Cochran, 
Senator Stevens, Senator Harkin, and your colleagues on this 
subcommittee for your unswerving support of public broadcasting. Time 
and again--through good times and bad--you have made it possible for 
public television and radio to fulfill their role to the local 
communities they serve. Thank you.

    Senator Specter. Thank you very much, Mr. Lawson.
    The final witness on this panel is Mr. David Boaz, 
Executive Vice President of the Cato Institute. Prior to 
joining Cato in 1981, he was Executive Director of the Council 
for a Competitive Economy. He has played a key role in the 
development of the Cato Institute and the libertarian movement, 
a graduate of Vanderbilt University.
    We appreciate your coming in this morning, Mr. Boaz, and we 
look forward to your testimony.

STATEMENT OF DAVID BOAZ, EXECUTIVE VICE PRESIDENT, CATO 
            INSTITUTE
    Mr. Boaz. Thank you, Mr. Chairman. Mr. Chairman and Senator 
Inouye. Thank you for the opportunity to provide a little 
diversity on this table and to explain why I think taxpayer 
funding for the Corporation of Public Broadcasting should be 
eliminated. I will touch briefly on several arguments in my 
oral discussion and I will save the most important for last.
    First, we have a $400 billion deficit and Congress and the 
Appropriations Committees should be looking for opportunities 
to cut nonessential spending. In a world of 500 channels and 
the World Wide Web, government-funded radio and training 
networks are nonessential.
    Second, public broadcasting is welfare for the rich. In 
their public defenses, officials of CPB wax eloquent about 
bringing ``Sesame Street'' and Shakespeare to poor and isolated 
children. In talking to their advertisers, however, they are 
more candid. The audiences for PBS and NPR are the best 
educated, most professional, and richest audiences in 
broadcasting. Their cultural programming reflects elite tastes 
and I like a lot of it myself. But I think that we upper middle 
class people should pay for our own art and entertainment.
    Third, NPR and PBS can survive privatization. As they often 
remind us, they get only 15 percent of their revenue from the 
Federal Government. Mr. Chairman, families and businesses in 
Pennsylvania often deal with 15 percent losses in their income. 
It is not fun, but they do it. The $2.5 billion public 
broadcasting complex can survive and prosper without Federal 
tax dollars.
    Fourth, in news and public affairs programming, bias is 
inevitable. Any reporter or editor has to choose what is 
important. It is impossible to make such decisions without a 
framework, a perspective, a view of how the world works. A 
careful listener to NPR would notice a preponderance of reports 
on racism, sexism, and environmental destruction, reflecting a 
particular perspective on what is most important in our world. 
David Fanning, the executive producer of PBS's ``Front Line,'' 
responds to questions of bias by saying: ``We ask hard 
questions to people in power. That is anathema to some people 
in Washington these days,'' unquote. But there has never been a 
``Front Line'' documentary on the burden of taxes of the number 
of people who have died because Federal regulations keep drugs 
off the market, or the way that State governments have abused 
the rule of law in their pursuit of tobacco companies, or the 
number of people who use guns to prevent crime. Those hard 
questions just do not occur to liberal journalists.
    Anyone who got all his news from NPR would never know that 
Americans of all races live longer, healthier, and in more 
comfort than ever before in history or that the environment has 
been getting steadily cleaner.
    That brings me to my major concern. We would not want the 
Federal Government to publish a national newspaper. Neither 
should we have a government television network and a government 
radio network. If anything should be kept separate from 
government and politics, it is the news and public affairs 
programming that informs Americans about government and its 
policies. When government brings us the news, with all the 
inevitable bias and spin, the government is putting its thumb 
on the scales of democracy.
    Journalists should not work for the Government. Journalists 
should not have officials of the Government looking over their 
shoulders. And taxpayers should not be forced to subsidize news 
and public affairs programming.
    Therefore I urge you, not merely to reduce, but to 
eliminate taxpayer funding for public broadcasting. Now, even 
if this committee comes to my conclusion that taxpayer funding 
for radio and television networks is imprudent and 
constitutionally unfounded, I recognize that you may hesitate 
to withdraw a funding stream that stations count on. Even 
though Federal funding is only about 15 percent of public 
broadcasting revenues, you might choose to phase out the 
funding, perhaps on a 5-year schedule.

                           PREPARED STATEMENT

    The total funding request for this year is about $500 
million. Congress could reduce it by $100 million a year, 
leaving the CPB entirely free of taxpayer funding and of 
Federal intervention in what journalists do at the end of 5 
years.
    Thank you for your attention, Senators.
    [The statement follows:]

                    Prepared Statement of David Boaz

    Thank you for the opportunity to testify on taxpayer funding for 
the Corporation for Public Broadcasting and by extension for National 
Public Radio and the Public Broadcasting System. I shall argue that 
Americans should not be taxed to fund a national broadcast network and 
that Congress should therefore terminate the funding for CPB.
    We wouldn't want the Federal Government to publish a national 
newspaper. Neither should we have a government television network and a 
Government radio network. If anything should be kept separate from 
Government and politics, it's the news and public affairs programming 
that informs Americans about Government and its policies. When 
Government brings us the news--with all the inevitable bias and spin--
the Government is putting its thumb on the scales of democracy. 
Journalists should not work for the Government. Taxpayers should not be 
forced to subsidize news and public-affairs programming.
    Much of the recent debate about tax-funded broadcasting has 
centered on whether there is a bias, specifically a liberal bias, at 
NPR and PBS. I would argue that bias is inevitable. Any reporter or 
editor has to choose what's important. It's impossible to make such 
decisions without a framework, a perspective, a view of how the world 
works.
     As a libertarian, I have an outsider's perspective on both liberal 
and conservative bias. And I'm sympathetic to some of public 
broadcasting's biases, such as its tilt toward gay rights, freedom of 
expression, and social tolerance and its deep skepticism toward the 
religious right. And I share many of the cultural preferences of its 
programmers and audience, for theater, independent cinema, history, and 
the like. The problem is not so much a particular bias as the existence 
of any bias.
    Many people have denied the existence of a liberal bias at NPR and 
PBS. Of course, the most effective bias is one that most listeners or 
viewers don't perceive. That can be the subtle use of adjectives or 
frameworks--for instance, a report that ``Congress has failed to pass a 
health care bill'' clearly leaves the impression that a health care 
bill is a good thing, and Congress has ``failed'' a test. Compare that 
to language like ``Congress turned back a Republican effort to cut 
taxes for the wealthy.'' There the listener is clearly being told that 
something bad almost happened, but Congress ``turned back'' the threat.
    A careful listener to NPR would notice a preponderance of reports 
on racism, sexism, and environmental destruction. David Fanning, 
executive producer of ``Frontline,'' PBS's documentary series, responds 
to questions of bias by saying, ``We ask hard questions to people in 
power. That's anathema to some people in Washington these days.'' But 
there has never been a ``Frontline'' documentary on the burden of 
taxes, or the number of people who have died because federal 
regulations keep drugs off the market, or the way that state 
governments have abused the law in their pursuit of tobacco companies, 
or the number of people who use guns to prevent crime. Those ``hard 
questions'' just don't occur to liberal journalists.
    Anyone who got all his news from NPR would never know that 
Americans of all races live longer, healthier, and in more comfort than 
ever before in history, or that the environment has been getting 
steadily cleaner.
    In Washington, I have the luxury of choosing from two NPR stations. 
On Wednesday evening, June 29, a Robert Reich commentary came on. I 
switched to the other station, which was broadcasting a Daniel Schorr 
commentary. That's not just liberal bias, it's a liberal roadblock.
    In the past few weeks, as this issue has been debated, I've noted 
other examples. A common practice is labeling conservatives but not 
liberals in news stories--that is, listeners are warned that the 
conservative guests have a political agenda but are not told that the 
other guests are liberals. Take a story on the Supreme Court that 
identified legal scholar Bruce Fein correctly as a conservative but did 
not label liberal scholars Pamela Karlan and Akhil Amar. Or take the 
long and glowing reviews of two leftist agitprop plays, one written by 
Robert Reich and performed on Cape Cod and another written by David 
Hare and performed in Los Angeles. I think we can be confident that if 
a Reagan Cabinet official wrote a play about how stupid and evil 
liberals are--the mirror image of Reich's play--it would not be 
celebrated on NPR. And then there was the effusive report on Pete 
Seeger, the folksinger who was a member of the Communist Party, 
complete with a two-hour online concert, to launch the Fourth of July 
weekend.
    And if there were any doubt about the political spin of NPR and 
PBS, it was surely ended when a congressional subcommittee voted to cut 
the funding for CPB. Who swung into action? Moveon.org, Common Cause, 
and various left-wing media pressure groups. They made ``defending 
PBS'' the top items on their websites, they sent out millions of 
emails, they appeared on radio and television shows in order to defend 
an effective delivery system for liberal ideas. Public broadcasters 
worked hand in glove with those groups, for instance linking from the 
NPR website to those groups' sites.
    There are many complaints today about political interference in 
CPB, PBS, and NPR. I am sympathetic to those complaints. No journalist 
wants political appointees looking over his shoulder. But political 
interference is entirely a consequence of political funding. As long as 
the taxpayers fund something, their representatives have the authority 
to investigate how the taxpayers' money is being spent. Recall the 
criticism directed at PBS in 1994 for broadcasting Tales of the City, 
which has gay characters. Because of the political pressure, PBS 
decided not to produce the sequel, More Tales of the City. It appeared 
on Showtime and generated little political controversy because Showtime 
isn't funded with tax dollars. Remove the tax funding, and NPR and PBS 
would be free from political interference, free to be as daring and 
innovative and provocative as they like.
    One dirty little secret that NPR and PBS don't like to acknowledge 
in public debate is the wealth of their listeners and viewers. But 
they're happy to tell their advertisers about the affluent audience 
they're reaching. In 1999 NPR commissioned Mediamark Research to study 
its listeners. NPR then enthusiastically told advertisers that its 
listeners are 66 percent wealthier than the average American, three 
times as likely to be college graduates, and 150 percent more likely to 
be professionals or managers.
    But perhaps that was an unusual year? Mediamark's 2003 study found 
the same pattern. As NPR explained, based on the 2003 study:
    Public radio listeners are driven to learn more, to earn more, to 
spend more, and to be more involved in their communities. They are 
leaders and decision makers, both in the boardroom and in the town 
square. They are more likely to exert their influence on their 
communities in all types of ways--from voting to volunteering.
    Public radio listeners are dynamic--they do more. They are much 
more likely than the general public to travel to foreign nations, to 
attend concerts and arts events, and to exercise regularly. They are 
health conscious, and are less likely to have serious health problems. 
Their media usage patterns reflect their active lifestyles, they tend 
to favor portable media such as newspapers or radio.
    As consumers, they are more likely to have a taste for products 
that deliver on the promise of quality. Naturally, they tend to spend 
more on products and services.
    Specifically, the report found, compared with the general public, 
NPR listeners are
  --55 percent less likely to have a household income below $30,000
  --117 percent more likely to have a household income above $150,000
  --152 percent more likely to have a home valued at $500,000 or more
  --194 percent more likely to travel to France
  --326 percent more likely to read the New Yorker
  --125 percent more likely to own bonds
  --125 percent more likely to own a Volvo.
    PBS has similar demographics. PBS boasts that its viewers are:
  --60 percent more likely to have a household income above $75,000
  --139 percent more likely to have a graduate degree
  --98 percent more likely to be a CEO
  --132 percent likely to have a home valued at $500,000 or more
  --315 percent more likely to have stocks valued at $75,000 or more
  --278 percent more likely to have spent at least $6000 on a foreign 
        vacation in the past year.
    Tax-funded broadcasting is a giant income transfer upward: the 
middle class is taxed to pay for news and entertainment for the upper 
middle class. It's no accident that you hear ads for Remy Martin and 
``private banking services'' on NPR, not for Budweiser and free 
checking accounts.
    Defenders of the tax-funded broadcast networks often point out that 
only about 15 percent of their funding comes from the Federal 
Government. Indeed, NPR and PBS have been quite successful at raising 
money from foundations, members, and business enterprises. Given that, 
they could certainly absorb a 15 percent revenue loss. Businesses and 
nonprofit organizations often deal with larger revenue fluctuations 
than that. It isn't fun, but it happens. In a time of $400 billion 
deficits, Congress should be looking for nonessential spending that 
could be cut. Tax-funded broadcasting is no longer an infant industry; 
it's a healthy $2.5 billion enterprise that might well discover it 
liked being free of political control for a paltry 15 percent cut.
    Finally, I would note that the Constitution provides no authority 
for a Federal broadcasting system. Members of Congress once took 
seriously the constraints imposed on them by the Constitution. In 1794 
James Madison, the father of the Constitution, rose on the floor of the 
House and declared that he could not ``undertake to lay his finger on 
that article of the Federal Constitution which granted a right to 
Congress of expending, on objects of benevolence, the money of their 
constituents.'' In 1887, exactly 100 years after the Constitution was 
drafted, President Grover Cleveland made a similar point when he vetoed 
a bill to buy seeds for Texas farmers suffering from a drought, saying 
he could ``find no warrant for such an appropriation in the 
Constitution.'' Things had changed by 1935, when President Roosevelt 
wrote to Congress, ``I hope your committee will not permit doubts as to 
constitutionality, however reasonable, to block the suggested 
legislation.'' I suggest that this committee take note of the fact that 
no article of the Constitution authorizes a national broadcast network.
    Even if this committee comes to the conclusion that taxpayer 
funding for radio and television networks is imprudent and 
constitutionally unfounded, I recognize that you may hesitate to 
withdraw a funding stream that stations count on. In that regard, I 
would note again that federal funding is only about 15 percent of 
public broadcasting revenues. But you might also phase out the funding, 
perhaps on a 5-year schedule. The total funding request for this year 
is about $500 million. Congress might decide to reduce it by $100 
million a year, leaving the CPB entirely free of federal taxpayer 
funding at the end of 5 years.
    But Congress's resolve in such matters is not trusted. Recall the 
1996 Freedom to Farm Act, which likewise promised to phase out farm 
subsidies. Barely two years had passed when Congress began providing 
``emergency relief payments'' to make up for the scheduled reductions. 
This time, if Congress pledges to phase out broadcasting subsidies, it 
needs to make sure that its decision sticks.
    A healthy democracy needs a free and diverse press. Americans today 
have access to more sources of news and opinion than ever before. 
Deregulation has produced unprecedented diversity--more broadcast 
networks than before, cable networks, satellite television and radio, 
the Internet. If there was at some point a diversity argument for NPR 
and PBS, it is no longer valid. We do not need a government news and 
opinion network. More importantly, we should not require taxpayers to 
pay for broadcasting that will inevitably reflect a particular 
perspective on politics and culture. The marketplace of democracy 
should be a free market, in which the voices of citizens are heard, 
with no unfair advantage granted by Government to one participant.

    Senator Specter. Thank you very much, Mr. Boaz.
    We have been joined by Senator Durbin. Would you care, 
Senator Durbin, at this point to make an opening statement?
    Senator Durbin. I can put it in the record. I would just 
like to ask some questions.
    Senator Specter. Without objection, his statement will be 
put in the record.
    [The statement follows:]
            Prepared Statement of Senator Richard J. Durbin
    Thank you, Mr. Chairman, for holding this hearing today. I want to 
welcome all the witnesses, and look forward to their testimony.
    Like millions of parents around the nation, I am a strong supporter 
of public broadcasting for all the great educational opportunities it 
provides to our children. Over one third of all public broadcasts aired 
on weekdays are dedicated to children's programming. More important 
than what children see on public television is what they don't see--
commercials about junk food and toys, interruptions throughout a 
program, violence, adult themes, and content simply not suitable for 
children.
    Public Broadcasting Service provides more than just a wide range of 
programs for children's learning. PBS also provides online learning 
games and activities for children, as well as resources--including 
workshops and free books--for parents, caregivers, and educators to 
further enhance the academic and pro-social skills-learning experience 
for the children. These high quality tools, many of which are developed 
jointly with the U.S. Department of Education, have been proven to help 
build our children's literacy and school-readiness skills.
    I am also a supporter of public broadcasting because of the value 
it adds to smaller towns and rural counties throughout Illinois and 
elsewhere. Sixty-five million Americans live in rural areas, yet many 
of these households do not have cable and broadband access. Free, over-
the-air, public educational television continues to be a critical asset 
to rural Americans.
    Thus, there is no question in my mind when it comes to fully 
funding the Corporation for Public Broadcasting and the other requests 
made by the public broadcasting community. It is a bargain to think 
that we can have such an abundance of quality programs for the entire 
year at the cost of a little more than $1 of public funding per person 
in America.
    Public funding is especially important for smaller or rural 
stations that depend on the federal funding as seed money to plan out 
their operations for the upcoming years. For these stations, the 
federal funds we provide each year make up a larger portion of their 
annual budget than stations in other parts of the country. But, unlike 
their counterparts in big cities, rural public stations simply do not 
have the fundraising bases--such as large pool of individual, 
corporate, and foundation donors--that could potentially replace any 
shortfall in federal funding.
    I look forward to working with the Chairman and the members of this 
subcommittee to ensure that every item asked for by our local stations 
can be met in our appropriations process this week and beyond.
    I also look forward to clearing the air today of several 
controversies surrounding recent activities at the Corporation for 
Public Broadcasting. I am very concerned to read in the press that 
there may be partisan political activities taking place at CPB, and I 
hope we will receive some straight answers to these lingering questions 
from representatives of CPB.
    Mr. Kenneth Tomlinson, who appears before us today as CPB's 
chairman of the board of directors, has been associated with many of 
these allegations. There are reports that he has made personnel 
decisions based on partisan or political factors and that he has 
influenced the content of programs that are aired on public 
broadcasting. These allegations rise to such a serious level that CPB's 
own inspector general has initiated an internal investigation.
    One episode is particularly troubling. According to press reports, 
Mr. Tomlinson paid an outside consultant over $14,000 of taxpayer funds 
to have him monitor certain public broadcast programs to determine the 
political ideology of guests who appear on these shows. The 
consultant's report is now in the public domain, and its conclusions 
are suspicious, at best. For example, according to Mr. Tomlinson's 
consultant, my Republican colleague, Senator Chuck Hagel, is a 
``liberal'' because he happened to disagree with some of President 
Bush's positions on a show that aired on public broadcast. The report 
is full of such ridiculous assertions.
    I have also read that Mr. Tomlinson personally advocated for the 
addition of a program to the PBS lineup hosted by editors of the Wall 
Street Journal's editorial page, in his self-described attempt to 
balance the perceived liberal bias of ``NOW'' with Bill Moyers. This 
comes at the same time when CPB is insisting on tying new funding for 
PBS to an agreement that PBS would commit to strict new standard of 
``objectivity and balance'' in its programs.
    Apparently, Mr. Tomlinson believes public broadcasting is too 
liberal, even though a series of focus groups and two national surveys 
conducted at CPB's own request concluded that the public perception is 
otherwise. Specifically, the survey of over 1,000 adults found that 
only 21 percent thought the Public Broadcasting Service had a liberal 
bias and 22 percent thought the National Public Radio had a liberal 
bias. The survey found that 12 percent thought PBS had a conservative 
bias and 9 percent thought the same of NPR. This means that two-thirds 
of those surveyed believed there was no apparent bias on PBS or NPR.
    Additionally, the survey conducted on CPB's behalf found that 80 
percent of respondents had a ``favorable'' opinion of public 
broadcasting, while only 10 percent had an ``unfavorable'' opinion. 
More than half of the respondents (55 percent) also said that PBS 
programming was ``fair and balanced,'' while NPR received an even 
higher approval rating of 79 percent.
    The internal survey results and the overwhelming support expressed 
by the public as evidenced by the recent vote in the House of 
Representatives to restore funding for public broadcast seem to 
indicate that perhaps Mr. Tomlinson should rethink what he believes is 
in the best interests of the consumers of public broadcasting.

    Senator Specter. Mr. Boaz, let us start with the question 
that you raised, that public broadcasting can survive without 
Federal funding. Ms. Mitchell, can public broadcasting survive 
without Federal funding, as Mr. Boaz suggests?
    Ms. Mitchell. Mr. Chairman, I would respectfully disagree 
with the principle of Mr. Boaz's arguments. It is a principle 
of this democracy that, while we have very successful private 
bookstores, we still invest in private--in public libraries. 
And we have private schools, but we invest in public schools.
    This Congress saw the benefit of setting aside public 
spectrum for public service broadcasting and that is, it seems 
to me, a great use of public funds, using the power of media to 
inform and engage citizens so that the great work of this 
democracy might go forward.
    Senator Specter. Ms. Mitchell, I am not quite sure of your 
answer. Can public broadcasting survive without Federal 
funding?
    Ms. Mitchell. The taxpayer dollars, Mr. Chairman, are 
leveraged with private money. So that 15 percent is a hugely 
important critical foundation for not only the station 
services, because most of the money, as Ms. Harrison 
represented, goes directly to the stations, and there they 
leverage from the 15 or 20 percent of their budget that is 
provided by appropriations, they leverage all of this private 
investment from foundations, corporations, and, yes, viewers 
like you, who still voluntarily support at a level that is the 
largest single percentage.
    Senator Specter. Mr. Lawson, the point is made by Mr. Boaz 
that there ought not to be a national newspaper and analogizes 
that to public broadcasting. Let me ask you a two-part 
question. Would you agree that there ought not to be a national 
newspaper, part one? And part two, does public broadcasting--
and I am going to give Mr. Boaz a chance to respond to this, 
too--come anywhere in the range of constituting what would be a 
national media organ?
    Mr. Lawson. No, sir, I do not think there should be a 
national newspaper and I do not think public broadcasting in 
any way constitutes a national media organ. As I said in my 
statement, we are the last of the locally controlled media. 
That is a characteristic of American public broadcasting that 
is different from any other country. We are not the BBC, we are 
not NHK, we are not centrally managed. It is about local 
control.
    I can tell you, if the 15 percent went away, first you 
would see stations serving rural America go dark. Secondly, 
even for the big market stations there would be so much 
pressure on them to replace that money. The Federal money is 
the foundation, it is the seed money. All the other money we 
raise is based on that, and you would see enormous pressure on 
even the largest stations to become more commercial.
    So localism is the key to public broadcasting in the United 
States.
    Senator Specter. Mr. Boaz, you raise a very fundamental 
point here on the kinds of programming and have identified a 
series of subjects which you note that the ``Front Line'' 
documentary has never addressed, such as burden of taxes or the 
regulatory system or pursuit of private companies. Has ``Front 
Line'' or other similar programs on public broadcasting 
addressed any of the issues which you think would provide 
balance on the kind of hard questions which ought to be asked?
    Mr. Boaz. I am sure that no program has been completely 
unbalanced. But I am not aware of ``Front Line''--I did 
actually check with ``Front Line'' on these specific claims and 
they acknowledge that, no, they have never done a documentary 
on those. Certainly some of the questions that ``Front Line'' 
deals with I think are important and sometimes ``Front Line's'' 
programming is I think balanced.
    But I do not think you can watch it or listen to National 
Public Radio, which I do at least twice a day, and not get the 
impression that there is a particular perspective guiding it. 
As I say in my written testimony, I agree with some of that 
perspective. I am sympathetic to NPR's skepticism about the 
religious right, its support for social tolerance and freedom 
of expression. But I do think that is a perspective.
    I have a political opinion and so do the editors and 
producers at NPR. So I do think it is impossible to avoid some 
sort of perspective or theme running through your programming 
and I think that ``Front Line,'' the other documentary series, 
NPR, have not avoided that bias.

                        HOUSE APPROPRIATION BILL

    Senator Specter. Ms. Harrison, the Appropriations Committee 
is going to have to consider the issue of digital transition. 
The House did not provide a direct appropriation for digital 
transition, but instead gave CPB authority to carve out funds 
from station grants.
    To what extent would the absence of a direct grant for 
digital transition and a requirement that the money come out of 
station grants be problemsome for you?
    Ms. Harrison. Mr. Chairman, if I could answer that question 
by folding in some of the things that we have been discussing 
here today. Public broadcasting is our strongest connected 
community at a time when we need an informed citizenry. Even 
though we have multiple channels, it seems amazing; the more 
channels we have, the more dumbing down occurs through 
programs, whether it is aimed at children or it is aimed at 
people who are older.
    If we have to give up the money for this very, very 
important digital technology, it will come directly out of the 
sole purpose for which public broadcasting exists, and that is 
to be a network of knowledge. We will have to meet with the 
stations, the general managers, and the cuts will be very bad.
    I feel so strongly about the purpose of public broadcasting 
as an educator, and now as we have increasingly more young 
people in this country who do not understand our history or 
civics, we have new Americans--and you know, sometimes those 
moms and their kids are sitting in front of these children's 
programs and they are learning English, they are learning about 
our country. If we did not have public broadcasting today, we 
would have to re-invent it.
    I come to this job from a former position where in the 
early 90s exchanges were cut. We thought technology was going 
to enable us to increase mutual understanding between the 
people of the United States and other countries. What we found 
out is the people to people connection is important. This 
community connection is vital to our country's strength and I 
think to the strength of our democracy.
    Senator Specter. We have since been joined by Senator 
Stevens, formerly the chairman of the full committee. Before 
going to Senator Inouye for his opening round of questions, 
Senator Stevens, would you care to make an opening statement?

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much, Mr. Chairman. I am 
sorry to be late. To confess, my mind is still in Alaska on the 
fishing stream, and there is 4 hours time difference, too. But 
I do appreciate the opportunity to come here and I hope I can 
stay through a round of questioning.
    I believe that the full amount of the request should be 
supported by the subcommittee and moneys deleted by the House 
be restored. But I also believe that what Mr. Boaz has just 
said is true, that there are signs in portions of the 
Corporation for Public Broadcasting and the Broadcasting 
Service which indicate that there are unfortunate trends in 
some places to take on political issues in a way that 
demonstrates a bias.
    It is my judgment that there should be no bias, no leaning 
to the right or to the left by management or by those who 
operate the stations. The answer that I think you should have 
given, Ms. Mitchell, to the chairman's question are the Federal 
dollars necessary, can these organizations survive without 
Federal money, the answer has got to be no. In my State there 
are many places where you do not have sufficient base for 
public support. Our State helps by paying in some areas the 
telephone services for these various stations. But there are 
other areas in the country which do not have public support 
capability, financial support capability.
    I do believe that the Federal money is not only seed money 
for the system, but it is absolutely necessary to assure that 
the system will be extended to wherever there is a need, rather 
than wherever there is the public support base for financial 
contributions.
    But I thank you for holding the hearing. I do think that 
members of the Congress ought to calm down. This system needs 
our support. I remember so well when we started some of the 
concepts of matching funds. We took away the actual matching 
fund requirement that existed for a little while. But I do 
believe that this is an essential service.
    My mind goes back to ``The Adams Papers'' or to the 
rebroadcasting of some of the BBC programming that we would not 
have had otherwise. I know this system is needed by the 
country, but I deplore the fact that there are some people 
within it that want to exercise their political bias in 
delivering it. That is your problem. I think the board's 
problem is to get rid of that and restore the balance that 
existed in the past in the system and really not look to the 
left or the right, but just look wherever there is bias going 
either direction and set the record straight so we will not 
face this challenge that the House has delivered.
    I think they were right in delivering it, because I think 
you are all here today to really react to the cause of that 
deletion. I think our job is to put the money back and convince 
them that there has been a wakeup call, that the bells have 
rung and that people have heard the message, and we are all 
going to make this system work.
    Thank you, Mr. Chairman.
    Senator Specter. Thank you very much, Senator Stevens.
    Senator Inouye.

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Thank you very much.

                         AUDIENCE DEMOGRAPHICS

    I would like to assure the panel here that I fully support 
full funding of what you are requesting. I would like to ask 
Ms. Harrison or Ms. Mitchell, do you believe that in the case 
of your operation monies--funded by the taxpayers--are they 
being spent to cater only to the rich and the educated? That is 
what was said here.
    Ms. Mitchell. Our viewers and our supporters, Senator 
Inouye, reflect and mirror very closely the demographic makeup 
of our communities, and that is in terms of income and 
education and ethnicity and cultural background. I would like 
to take Mr. Boaz on some of my visits to our stations, where he 
would meet these people and see their faces, the faces of 
caregivers in rural Mississippi who have no books in the home, 
who are unprepared themselves, and often, as Pat said, even 
without the literacy skills they need, much less the skills to 
pass it on to the children in their care.
    In those places and the rural places in this country, all 
over this country, we are there providing caregivers with 
materials they would not have otherwise: free books, training 
for these caregivers, literacy skills that prepare those 
children, usually the most disadvantaged.
    I would also point out that among all the other children's 
programs that are on television, ours are the only ones that 
begin with educators, that begin with clear learning 
objectives, and that are based in every way, through 
characters, scenarios, to appeal to every child in this 
country, so that no parent or caregiver is left behind.
    Mr. Chairman, may I take this moment also to say that in a 
time when, as Senator Stevens referenced, the trust in media 
has never been lower in this country--and I think there is good 
reason for that. And since our trust level is so high, we felt 
it very important for us to review the editorial standards that 
guide our program decisionmaking. More than a year ago we put 
together a blue ribbon panel of journalists and we asked them 
to look at our programming from every perspective: Was it 
reflecting the needs of our communities that we knew from the 
public opinion polls, and then the editorial standards, were 
they ensuring that we complied, not only with the statutory 
obligations for objectivity and balance, but that we went 
beyond that and clarified what we mean by accuracy, 
reliability, transparency.
    Those new guidelines are in place and we believe that they 
will further ensure that on all subjects--and those subjects 
that Mr. Boaz referenced I am going to pass along to ``Front 
Line'' this afternoon; they sound like subjects we should be 
looking at--that on all subjects we represent the diversity of 
perspectives that is in this country.
    Ms. Harrison. Senator Inouye, I welcome this opportunity to 
address your question and also in an oblique way Mr. Boaz. CPB 
is the only organization within public broadcasting that really 
is cast to look at the concerns you expressed: Are we taking 
care of minorities? Are we looking at rural communities? Are we 
doing the outreach which only public broadcasting can do, prior 
to a program and after, involving communities?
    My father when he died had Alzheimer's. I only wish that my 
mother had been able to access a recent program that public 
broadcasting did on Alzheimer's that was not just a program; it 
had a shelf life long after the program was over. It involved 
caretakers and organizations. After you watched this series, 
you felt there was some light at the end of the tunnel.
    Commercial television cannot do this. This is the focus 
that CPB has and the mandate that we have, that it is not an 
elite programming entity, that we look at the big picture. 
Children more and more--I keep harping on that--if we do not 
focus on children, we are not going to have a very positive big 
picture for anyone across the line of all issues.
    Thank you.

                     IMPORTANCE OF FEDERAL FUNDING

    Senator Inouye. Do you believe that our funding, Federal 
funding, is in our national interest?
    Ms. Harrison. I certainly do. You know, I do not want to 
appear as an instant expert. I have only been on this job for 
4\1/2\ working days. But what surprised me was that in 1975 in 
an amendment to the Public Broadcasting Act President Ford at 
the time not only wanted Federal funding, he suggested it be 5 
years out. Also, there is the authority to fund up to 40 
percent, and the percentage has been going down. So we are at 
15 percent now. I think the highest was 19 percent. 15 percent 
is modest, and I think all credit to the stations who have 
raised 85 percent of what they need to do, which keeps it 
local.

                           PREPARED STATEMENT

    Senator Inouye. I notice my time is up, sir.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Since its creation as part of the 1967 Public Broadcasting Act, 
public broadcasting has pursued an ambitious mandate to provide 
educational, cultural and informational programming that takes creative 
risks while serving traditionally unserved and underserved populations.
    Public broadcasting is a unique voice in the local community that 
we have come to trust and depend on. A recent survey conducted by The 
Roper Center for Public Opinion Research determined that public 
broadcasting is one of America's most trusted institutions.
    Public television has set the standard with award-winning 
documentaries, outstanding children's programming, and in-depth news 
and public affairs programming that cannot be found on commercial 
television channels. The current audience for National Public Radio 
programming is 26 million listeners each week, up 97 percent over the 
past decade, as more and more Americans seek thoughtful analysis of the 
important issues facing our nation and our communities.
    I am proud to be a long-time proponent of public broadcasting and 
believe that public broadcasting has been a tremendous success.
    The funding cuts proposed by the House are ill-advised and poorly 
timed. As this Committee is well-aware, massive consolidation in the 
media industry along with a general coarsening of public discourse on 
the commercial airwaves is making it more and more difficult for 
families to find quality programming that is suitable for children. It 
makes no sense to undermine the primary place on the channel line-up 
that parents and families trust the most.
    I am concerned not only about the funding cuts but also about the 
recent controversies reported in the press over possible misuse of 
taxpayer funds and the lack of transparency in decisions made by the 
Chairman of the CPB Board.
    As a result of the current budget deficit, many important programs 
face funding cuts. These are not easy choices to make. While I am 
pleased that some of the funding for public broadcasting was restored 
by the House, funding for several important programs has been 
eliminated.
    Funding for ``Ready to Learn,'' which supports high quality 
children's programming, and grants supporting the transition from 
analog to digital broadcasting and the interconnection services that 
link public broadcasting stations together were all canceled out by our 
House colleagues. Traditionally, the Senate has restored this funding 
and I hope that Senators Specter and Harkin will continue to champion 
these important programs.
    In particular, I question the wisdom of eliminating the funding to 
help local stations make the transition from analog to digital 
television, while at the same time, the Commerce Committees in both the 
House and Senate are considering legislation to complete the digital 
transition.
    Public broadcasters are leading the way in the digital transition. 
More than 87 percent of public television stations are operating in 
digital. Public television licensees have embraced new services enabled 
by digital technology. Many stations already utilize multicasting 
capabilities to provide ``PBS Kids'' programming as a dedicated 
children's channel and to provide educational services through ``PBS 
You'' as a dedicated channel.
    Even without a government mandate, public radio stations are moving 
quickly to implement digital technology with 79 public radio stations 
broadcasting in digital and over 300 with licensed digital technology.
    The use of taxpayer funds by the Chairman of CPB to hire lobbyists 
and consultants raises serious concerns. Not only do such actions 
potentially violate the prohibitions against advocacy in current law, 
but the fact that these steps were apparently taken without 
consultation with either the full Board or the President and CEO of CPB 
is extremely troubling.
    The Inspector General is currently investigating whether these 
decisions violate the law and the CPB's bylaws, and I will look forward 
to his full report on those concerns. Without accountability and 
transparency in the use of taxpayer funds, the legitimacy of these 
actions is rightly questioned.
    Concerns have also been raised that the CPB is straying from its 
statutory obligation to act as a heat shield between Congress and 
programming decisions. The Public Broadcasting Act requires the CPB 
``to carry out its purposes and functions and engage in its activities 
in ways that will most effectively assure the maximum freedom of the 
public telecommunications entities . . . from interference with, or 
control of, program content or other activities.''
    Thank you Mr. Chairman and I look forward to the testimony of the 
witnesses today on these important issues.

    Senator Specter. Thank you very much, Senator Inouye.
    Senator Stevens.
    Senator Stevens. Senator Durbin.
    Senator Specter. Well, the early bird rule would go to 
Senator Durbin, but the practice of the committee has been to 
alternate between the sides.
    Senator Stevens. I am not prepared yet.
    Senator Specter. Senator Durbin, you have the floor.

                POLITICAL BALANCE IN PUBLIC BROADCASTING

    Senator Durbin. Thank you, Mr. Chairman, and I thank the 
panel. I especially thank you, Mr. Chairman, for calling this 
hearing because if your experience is like mine, this is an 
issue on the minds of a lot of people, what is happening to 
public broadcasting. Are we going through some effort now to 
politicize this, to change the nature and philosophy of 
something that we value very much in this country?
    I am a fan, have been for a long time. Obviously, I am not 
alone. When you read the surveys of people asking them what 
they think about public broadcasting, it is pretty good. Over a 
thousand adults polled, PBS and NPR had an 80 percent favorable 
rating. Not a single one of us on this side of the panel would 
look askance at that number. 80 percent favorable is pretty 
good.
    When you ask if it is fair and balanced, not to steal a 
line from some other company, 55 percent said PBS programming 
is, 79 percent said NPR is fair and balanced.
    That is why it strikes me as odd, Mr. Tomlinson, that we 
are on this crusade of a sort here, this mission, to change 
what is going on. I do not quite get it, understand what your 
agenda is here and what you are trying to achieve.
    I read and I watched over the break Mr. Moyers' speech in 
St. Louis, ordered a copy online, read it twice. It is 
troubling to me. I think Bill Moyers' program now is a balanced 
program and I think most people would agree with it. Now, Mr. 
Mann that you hired or someone hired to monitor this program 
came up with some rather strange conclusions about who is a 
liberal and who is a conservative and who is a friend of the 
President and who is not.
    Even I think in your opening statement you have tried to 
clarify that you do not stand by his conclusions, for example 
on Senator Hagel, the characterization of Senator Hagel as 
liberal and such. Maybe you do think he is a liberal. I do not 
know what that conclusion might be.
    But the point I would like to get to is this. Let us go to 
a specific question. Under section 19 of Public Broadcasting 
Act you are required to mandate political balance on all shows. 
It has been reported that you have championed the addition of 
``Wall Street Journal Editorial Report'' to the PBS lineup and 
that you have raised money for that purpose. I would like you 
to clarify. If you did that, how much money was raised? What 
was your purpose in bringing in the Wall Street Journal, which, 
as has been noted, is a publication owned by a company that has 
been very profitable and would not appear to need a subsidy to 
put on a show?
    Mr. Tomlinson. I think Senator Stevens hit the nail on the 
head: no bias. No bias on the left, no bias on the right. If we 
have programs, like the Moyers program, that tilt clearly to 
the left, then I think according to the law we need to have a 
program that goes along with it that tilts to the right and let 
the people decide.
    Senator Durbin. Let me ask you about this ``clearly to the 
left'' bias on the Moyers show. How did you reach that 
conclusion? Did you watch a lot of those shows?
    Mr. Tomlinson. I watched a lot of those shows, and I think 
Mr. Mann's research demonstrates that the program was clearly 
liberal advocacy journalism. It was good broadcasting. Bill 
Moyers is a very capable broadcaster. But it seems to me we 
should be able to agree that we do not want bias, and if we do 
in the interest of provoking debate, if we have some bias on 
public television, let us balance it out in the course of the 
evening.
    Senator Durbin. So what was Mr. Mann's expertise? Why did 
you happen to hire him? According to Senator Dorgan, who has 
seen the raw data, he was paid thousands of dollars. His data, 
riddled with spelling errors, was faxed to you from a Hallmark 
store in downtown Indianapolis. What is this man's background 
for judging a program like Moyers' program and whether it is 
liberal or not?
    Mr. Tomlinson. He worked for 20 years for the National 
Journalism Center, which is a 401(c)(3) organization.
    Senator Durbin. National Journalism Center?
    Mr. Tomlinson. National Journalism Center.
    Senator Durbin. What is that?
    Mr. Tomlinson. But the point of watching----
    Senator Durbin. Excuse me. What is the National Journalism 
Center?
    Mr. Tomlinson. It is a center here in Washington that funds 
internships for----
    Senator Durbin. And they are straight down the middle of 
the road, moderate, centrist group, right and left?
    Mr. Tomlinson. I think it qualified for 401(c)(3) support. 
I do not think it was regarded as right of center.
    But the point is, it is like Bob Dylan said, you do not 
need a weather vane to see which way the wind is blowing. It 
was very clear that the Moyers program was liberal advocacy 
journalism. I wanted a statistical basis because I did not 
think people were responding appropriately. We got the 
statistical basis, and as soon as----
    Senator Durbin. From Mr. Mann?
    Mr. Tomlinson. From Mr. Mann's research. And as soon as we 
got the statistical basis, it turned out other people had 
determined that that program should be balanced. It was 
balanced. All this took place something like a year and a half 
ago.
    Senator Durbin. Well, let me--I have got to get to the 
basic question here. I will not go through the list of some of 
Mr. Moyers' more liberal guests--Frank Gaffney, Grover 
Norquist, Richard Viguerie, Paul Gigot--on his liberal program.
    Mr. Tomlinson. It was our experience----
    Senator Durbin. But let me ask you this if I can.
    Mr. Tomlinson. Yes, sir.
    Senator Durbin. Did you feel that it was your 
responsibility or authority to go out and put together the Wall 
Street editorial page show and to find subsidy for that? Did 
you feel that that was your responsibility to do?
    Mr. Tomlinson. I felt that the law required us to reflect 
balance in our current affairs programming. I was not the only 
one involved in encouraging a program that represented a 
diverse point of view from the Moyers show.
    Senator Durbin. So following Mr. Moyers' comments in St. 
Louis, can we expect you to do the same for ``The Nation 
Magazine?'' Are you going to raise $5 million to make sure they 
have a show?
    Mr. Tomlinson. I do not see, I do not see today we have a 
balance problem. We have a 30-minute show ``Now'' and we have a 
30-minute show, ``Wall Street Journal.'' That is balanced. Let 
the people decide. Balance is common sense.
    Senator Durbin. But Mr. Tomlinson, the people I said at the 
outset already decided. They thought that the Corporation for 
Public Broadcasting was presenting balance and they thought 
that--they gave a high approval rating. You have perceived a 
problem here which the American people obviously do not 
perceive.
    Mr. Tomlinson. Well, certainly in terms of ``Jim Lehrer 
News Hour'' there is no balance problem. That is great 
journalism. Public broadcasting has a great reputation in these 
areas.
    We had a period of time a few years ago where I think we 
were all asleep at the switch in terms of the Moyers program. I 
never wanted to take the Moyers program off the air.
    Senator Durbin. What do you mean by ``asleep at the 
switch'' with the Moyers program? I would like you to tell me a 
little bit more.
    Mr. Tomlinson. Because we should have been aware that on 
Friday evening if you presented liberal advocacy journalism for 
an hour you really should present conservative advocacy 
journalism for an hour, just for a matter of balance. The law 
requires balances.
    Senator Durbin. This was your conclusion based on Mr. 
Mann's investigation?
    Mr. Tomlinson. This was my conclusion when I found that 
there was a dispute over my view of this program and the 
general view of this program. I quite frankly have run into 
next to no serious people who regarded the Moyers program as 
anything other than good liberal advocacy programming.
    Senator Durbin. Will you accept his invitation to take an 
hour, go on the air on public television, and to debate that 
issue?
    Mr. Tomlinson. Absolutely. But you know----
    Senator Durbin. Oh, you will accept it?
    Mr. Tomlinson. Oh, absolutely. But you know, Senator 
Durbin, Bill Moyers and I both have concluded that this debate 
is not good for public television.
    Senator Durbin. No, it is not.
    Mr. Tomlinson. There were things that Moyers said in that 
speech about me that were most inaccurate and unfair. It 
saddened me to see that. I could have come back in kind. I 
chose not to. We are for public broadcasting, we are for no 
bias in public broadcasting. We do not want bias on the right 
and we do not want bias on the left.
    Senator Durbin. I have gone over my time. I thank the 
chairman for giving me a couple extra minutes and I will wait 
for the next round.
    Mr. Tomlinson. Thank you, sir.
    Senator Specter. I thought we had a little more leeway 
here, Senator Durbin, than we do on the Judiciary Committee. So 
the red light was flexible.
    Senator Stevens, would you care to question?

                PUBLIC TELEVISION INTERCONNECTION SYSTEM

    Senator Stevens. Well, I would clear up the Senator from 
Illinois' confusion. I think Bill Moyers is biased and I 
respect him for it. I think he is a very talented spokesman for 
his point of view in the political spectrum. I applaud you for 
recognizing that and counterbalancing it. I think your support 
will demonstrate that in the long run.
    But the main thing is I want to get back to the financing 
of this, because that is the question before us, really. I just 
was waiting for the information, Mr. Chairman. My State 
contributed $5.3 million as a State to public broadcasting 
stations in Alaska because we recognize the need for the system 
and to maintain it. I do believe that all States that have 
similar dependent communities should recognize it and should 
come forward and support it.
    I would like to know whether you can tell me about the 
concepts that have been left out of this bill this year. The 
satellite upgrade of $40 million, the request from the 
President was deleted. The digital programming of $45 million 
was deleted. Each of those had had money in the fiscal year 
2005. And the Ready to Learn program of $32 million was 
deleted.
    Now, those are the items that we are really concerned with. 
CPB's request was $430 million. The House brought it down to 
$400 million. There are lots of small adjustments that have to 
be made in these bills this year. I am not as disturbed about 
that as I am disturbed about the deletion of satellite 
upgrading, digital programming, and the Ready to Learn program, 
which I think has been eminently successful in places like the 
rural stations that I mentioned in my State.
    Who among you would be willing to talk about the satellite 
upgrade and its necessity? Mr. Lawson, is that you?
    Mr. Lawson. Yes, sir, I will take that one. It has been a 
Federal responsibility since day 1 to provide for this 
interconnection between the stations for the distribution of 
programming. Congress last, with your support, last funded that 
in the early 1990s. That system is becoming obsolete. The 
satellite leases are expiring. If that system is not renewed, 
then we are FedExing tapes around.
    This is a system, this is the glue that holds our whole 
system together in terms of technical infrastructure. The 
exciting thing about the next generation, right now we are 
feeding a lot of programming to tape machines. It is expensive, 
it is very labor-intensive. This system will allow more peer to 
peer, station to station interaction. They will literally be 
emailing programs around as attachments to emails.
    So you are going to see Alaska and stations all over this 
country with this new system not only receiving the PBS 
programming over the satellite, but they themselves will be 
able to move programming around and share it with other 
stations, without even having to go through a national 
organization like PBS.
    So the infrastructure for the satellite interconnection is 
absolutely crucial. Without it we are not connected.
    Senator Stevens. Let me tell you a little history. When I 
moved to Alaska our programming, such as sports and weekly 
programming, they were sent up by tapes to Alaska. So if you 
had a baseball game on Friday on the 1st in Washington, D.C., 
you would see it on the 8th in Alaska. You know, I soon got out 
of the habit of watching baseball.
    My point is right now what this means is real-time delivery 
to the country as a whole. Satellite interconnections are 
available in the South 48. In many places you can use fiber or 
you can use other connections. But in the rural part of the 
country that satellite connection is absolutely important.
    So I want to assure you that is one thing, and I think in 
my colleague's State in Hawaii those small stations around the 
islands--actually, if you put a ring around Hawaii it would be 
bigger than Alaska; did you know that? We do not let them count 
the water. Ours is frozen in between, but his is open water.
    But the point is is we need that.
    Now, digital programming, who is going to tell us about the 
digital programming and the reason for even the President 
increased it by $6 million? Who wants to comment on that? Is 
that yours too, Mr. Lawson? Ms. Harrison?

                           DIGITAL CONVERSION

    Ms. Harrison. Well, again jumping in probably where I 
should not, but I, as somebody new to this position, I come 
with a fresh eye, I do believe. And I am just so impressed. 
Just to give you an example, there is something called the 
Think Bright Digital Content Initiative, and that is going to 
be programming targeted to address five community needs: family 
literacy, success in school, family health, learning 
disabilities, civic engagement. It is going to also include 
research and development.
    What is really happening as we move into this new 
technology--and again, that is part of the 1967 mandate--as we 
keep up with changing technology, so we can be that connector 
to the community, we are now facing almost a different viewer 
and listener, not the passive viewer or listener, but the 
viewer and listener who wants to really have input, who wants 
to participate.
    Now, right now we are saying this is the younger 
generation. They are learning. In many cases they are way ahead 
of us. The technology is ahead of us. For public broadcasting 
to be vital and, as we said, this important connector to 
community, the technology must be there. We cannot have the 
programming without the advanced technology. It is going to 
enable us to do things we had not thought possible before.
    I think it is one of the most exciting developments. As we 
look at the successor generation and how they are involved with 
computers and downloading on their MP3's, we are going to have 
a growing group of listeners and viewers who are really going 
to be there on some of these issues that I mentioned earlier.
    Senator Stevens. My time is up, but if I could I would like 
to ask one question about Ready to Learn. Ready to Learn money 
also went up by $8.7 million, I believe--no, $7.7 million. Who 
can explain Ready to Learn to us now?
    Ms. Mitchell. The Ready to Learn grant, Senator, as you 
know has been a very successful partnership with the Department 
of Education. Over the last 10 years PBS, our children's 
programming producers, and our stations have leveraged this 
grant again to provide new series that are based on educational 
learning objectives, teaching the most disadvantaged, as well 
as all of our Nation's preschoolers, the skills that they need 
for literacy.
    In addition, we work with the Department of Education to 
provide these educational programs and then stations take the 
largest percentage of these Ready to Learn funds and use them 
to provide, through experienced educational teams at every 
station, the kind of workshop, training, and programs that are 
making the difference in the lives.
    We looked at the number. It was 100 million families have 
been affected by the Ready to Learn programs. Going forward, 
CPB, PBS, and other teams of producers worked together on our 
new proposal, looking at how we might engage these new digital 
technologies to enhance what we are already doing.
    If I might augment what Pat said about our leadership in 
the digital arena, we know how to use these technologies and we 
know how to use them for public interest and public education.
    Senator Stevens. I am sorry, my time is up. I am informed I 
made a mistake. I was looking at your request rather than the 
President's request.
    But let me tell you this. Alaska has the highest rate of 
computer literacy in the Nation on a per capita basis, despite 
our isolation. The reason is our young people get the computers 
from the second grade up. But they also, through the local 
stations that they are watching, have these programs. That 
makes them relevant to their lives even though they in most 
instances do not have modem capability, they do not have the 
ability to go up. Now, the schools, libraries, and health 
facilities do, but individual citizens do not have that same 
access.
    So it is very important to us that this kind of concept of 
Ready to Learn be supported also.
    Thank you very much, Mr. Chairman.
    Senator Specter. Thank you, Senator Stevens.

                              BILL MOYERS

    Senator Harkin, who is the ranking Democrat on the 
subcommittee, could not be here this morning. But he asked me 
to ask this question on his behalf and on his time, although it 
retraces some of what Senator Durbin has had to say. This 
question is for you, Mr. Tomlinson.
    Mr. Bill Moyers' comment was made in a speech in St. Louis 
about 2 weeks ago and Senator Harkin would like to know whether 
you would be willing to take up Mr. Moyers' expression of an 
interest in a public debate between you and him on the 
questions you have raised about him and his objectivity. The 
question that Senator Harkin has is is that a conversation or 
debate which you would be prepared to engage in with Mr. Moyers 
publicly?
    Mr. Tomlinson. Absolutely, Mr. Chairman. Let me say, 
though, that in that speech in St. Louis Mr. Moyers said some 
most inaccurate things about me. He charged or he implied that 
in the early 1980s when I was chairman, when I was director of 
Voice of America, that I was somehow involved in some blacklist 
scandal. I have never been associated with anything like that.
    He implied I was forced out of office because of that. I 
left my years of service at VOA with general acceptance that I 
had been a success, as it were.
    Now, this thing between Mr. Moyers and me could be a lot of 
fun. We would have a lot of fun debating on television for an 
hour about that. It would not be good for public television and 
I think Mr. Moyers and I both agree that in recent weeks we 
stopped--we now have balance on that Friday evening offering 
and we did not think it was in the interest of public 
broadcasting for us to continue.
    Senator Specter. Do you think it would be a lot of fun?
    Mr. Tomlinson. It would be a lot of fun.
    Senator Specter. Would you think it ought to be broadcast 
on ``Saturday Night Live?''
    Mr. Tomlinson. That is probably where it belongs.
    Senator Specter. How about on public broadcasting, where 
you have a little more control? I do not think you can control 
``Saturday Night Live,'' but would you be willing to have it on 
public broadcasting?
    Mr. Tomlinson. Yes. As I say----
    Ms. Mitchell. Mr. Chairman, if I might, Mr. Tomlinson would 
have to----
    Senator Specter. Do you want to join in the debate, Ms. 
Mitchell?
    Ms. Mitchell. No, I just thought it was important to 
clarify that that is not Mr. Tomlinson's decision, what would 
go on PBS. That decision is made by PBS management.
    Senator Specter. We may come to PBS management here. But 
Mr. Tomlinson has standing to express a view as to whether he 
would like to have it there or not.
    Ms. Mitchell. We would consider it.
    Senator Specter. Now that you have considered it, what is 
your decision?
    Ms. Mitchell. I think your suggestion of ``Saturday Night 
Live'' might be a better place.
    But in all seriousness, Senator, it just seems important 
to, as Mr. Tomlinson has said and I think you are hearing from 
all of us, to focus on the fact that, as Senators on this 
committee have already indicated, the American public looks at 
all of our programming and they trust it and they value it, and 
they do not judge it only in terms of political balance. There 
are a lot of other balances that we are concerned about.
    We are concerned in media about the balance between what is 
important, what matters in this country, as well as what just 
amuses us. What entertains us is not as important as what is 
educating us. Our role as public service media is to use this 
enormous power to educate, to strengthen family values, and to 
contribute to the strength of this democracy, and that judges 
and that guides our decisions about programming.
    Senator Specter. Well, Senator Harkin is almost out of 
time. I would perhaps--well, your acceptance of the debate 
challenge is fine, Mr. Tomlinson. We will now have to find a 
venue, and perhaps if you cannot find any other venue we can 
have a hearing before the subcommittee. But I do not know that 
C-SPAN would be willing to do any more on this subject, but we 
could see.
    Senator Harkin wants to yield back 53 seconds.

                      CPB INTERCONNECTION REQUEST

    Coming back to my own 5 minutes of time, I have asked the 
question about the digital transmission and the lack of funding 
in the House bill. Senator Stevens has covered this to an 
extent, but I want to be sure about your response. The 
interconnection 10-year lease expires on October 1 next year 
for the satellite that transmits public radio and television 
programs. It is going to cost $120 million. We have already put 
up almost $50 million and CPB is requesting an additional $40 
million. The President and the House have both proposed 
diverting $52 million from 2006 grants.
    Ms. Mitchell, Mr. Lawson, I take it your answer would be 
the same as on the issue of digital transition, if you did not 
get funding that it would be very, very problemsome?
    Mr. Lawson. Yes, sir, it would. That would come--that money 
would come directly out of the station operational money and 
programming money. I would like to point out that the 
conversion to digital is a Federal mandate and our stations 
have raised and spent $1.1 billion to do that. Half of that 
came from State legislatures. Congress has been generous in the 
last few years with Federal support and we are sort of over the 
hump in terms of getting this thing built out. But that final 
money for the next couple of years is needed, especially for 
stations serving rural America that do not have the kind of 
matching money that some of the other stations have.
    Senator Specter. Thank you very much, Mr. Lawson. We do not 
have much time. I want to move on to some other questions.
    Mr. Boaz, in your written statement you say: ``As a 
libertarian, I have an outsider's perspective on both liberal 
and conservative bias and I am sympathetic to some of the 
public broadcasting's biases, such as its tilt toward gay 
rights, freedom of expression, and social tolerance and its 
deep skepticism of the religious right.''
    Picking up on your statement about being sympathetic toward 
gay rights, let me ask you about the request from Education 
Secretary Margaret Spellings in January of this year to PBS 
asking that it not distribute an episode of the children's 
program ``Postcards from Buster'' that featured a family with 
two lesbian moms. PBS agreed not to distribute the program. 
What is your view of that?
    Mr. Boaz. Well, I am not personally offended by Buster's 
trip to Vermont. I think it is good to teach social tolerance. 
But I understand that there are a lot of Americans who do not 
appreciate that, who did not like the program or would not have 
if they had seen it. So I understand why Secretary Spellings 
thought it was her responsibility to interfere.
    What I would say in relation to public television is this 
is why it is a bad idea to have a government-run television 
station, because Secretary Spellings can write a letter to Fox 
or CNN saying, hey, I wish you would not run this program, but 
she has no authority over them. Here, because of the 
government's funding, the taxpayers fund these networks, 
therefore the taxpayers are occasionally going to exercise 
their authority to look at what the stations are running.
    I think that is not good. I think it is not good to have 
political overseers. I am sure that Senators would exercise 
more oversight if they saw these things more often. I am sure 
Senators, for instance, are usually in transit or visiting 
community affairs on Friday nights, so they have not actually 
seen the Bill Moyers program, because if they did I think it 
would be difficult to sustain the argument that it was not 
advocacy journalism, though good advocacy journalism.
    But I think the basic point that ``Buster'' illustrates is 
the danger of having political oversight of a news and public 
affairs program.
    Senator Specter. Ms. Mitchell, who made the decision with 
respect to ``Postcards from Buster'' and Secretary Spellings' 
request?
    Ms. Mitchell. The decision not to distribute the program on 
the national program service that goes from PBS to our stations 
was made by PBS management and was made before the letter from 
Secretary Spellings.
    But might I speak just a moment more about this unique 
partnership and why it has worked so well? The Ready to Learn 
teams, who include PBS children's producers, a PBS team, 
station teams, as well as the team at the Department of 
Education, sit down and very carefully review the objectives of 
these programs, and they review the subjects that are going to 
be treated. But when this subject came in we felt that it was 
of such controversial nature for some of our communities that 
it was best to go back to what you have heard us all say all 
morning: public broadcasting is a local institution.
    Senator Specter. Do you share Mr. Boaz's--my red light just 
went on, but I want to finish this subject up with a very brief 
question and then you can expand on your answer. Do you share 
Mr. Boaz's comment about his concern about the regulatory 
approach or the decision being made by a public agency on this 
kind of an issue?
    Ms. Mitchell. No, indeed I do not. The money that has come 
to PBS and our producers from the Ready to Learn partnership 
with the Department of Education has made it possible to 
prepare millions of children in this country for school.
    Senator Specter. Senator Inouye.

                         CPB USE OF CONSULTANTS

    Senator Inouye. Thank you.
    I would like to ask Mr. Tomlinson a few questions. Do you 
believe it is legal or appropriate for the chairman of the 
board, CPB board, to hire a consultant at Federal funds in 
excess of $14,000 without the consultation or approval of the 
board?
    Mr. Tomlinson. Senator Inouye, I observed every procedure 
that I had seen used over my 5 years on the board in the hiring 
of this consultant. These decisions were made in the CPB front 
office. I went to the president of CPB, I went to the general 
counsel. I asked that this contract be handled like any 
consultant's contract through the business office. It was 
handled by the general counsel.
    In my 5 years on the board, the board had never been asked 
about contracts. I certainly was not trying to hide this from 
the board and I would have taken it to the board in a minute if 
anyone had pointed to me that this should have been done.
    Senator Inouye. In the case of Mr. Mann, did you get the 
approval of Ms. Mitchell?
    Mr. Tomlinson. I am CPB. She is PBS. I got the approval of 
the president of CPB, the general counsel, and the business 
office. The consultant's contract was handled no different----
    Senator Inouye. The law does not require you to consult 
with the board?
    Mr. Tomlinson. No, sir. I was certainly not trying to hide 
it from the board and if I had known of any tradition that the 
board should be involved I certainly would have involved the 
board.

                              CPB POLLING

    Senator Inouye. There are also press reports that allege 
that you refused to make public CPB's own research that had 
been conducted by two polling firms, Terrence Group and the 
Lake Snell and Perry Associates.
    Mr. Tomlinson. That is simply not true. On the day that 
charge was made, you could go to the CPB website and find all 
the results of these polls.
    Senator Inouye. Well, I am giving you the opportunity.
    Mr. Tomlinson. Yes, sir. I appreciate it.
    We also share the friendship of Mary Bitterman, who did an 
outstanding job at Voice of America and has done an outstanding 
job for public broadcasting.

                         CPB USE OF CONSULTANTS

    Senator Inouye. Did you use $15,000 of taxpayers' funds to 
hire two Republican lobbyists without the knowledge of the 
board to defeat amendments to the reauthorization bill?
    Mr. Tomlinson. The board was stunned to discover that there 
was a serious proposal in the authorization process to require 
that four of our nine members come from the community of public 
broadcasters. The board unanimously opposed this. We have a 
very small staff relative to other agencies at CPB. Our 
legislative person was on vacation when we made this discovery. 
Our leadership, the leadership, again our president, general 
counsel, were involved in hiring at least three consultants to 
help us communicate, determine what the situation was on 
Capitol Hill in that time frame.
    I was an indirect part of the process. The decision again 
was made by the chain of command.

                        JOURNAL EDITORIAL REPORT

    Senator Inouye. Is it appropriate for the chairman of the 
board to secure private funding from the corporate world for 
the ``Journal Editorial Report'' hosted by Mr. Paul Gigot?
    Mr. Tomlinson. The decision to add Paul Gigot and the 
``Wall Street Journal Editorial Report'' was one that involved 
a lot of people at both PBS and CPB. It was a decision that I 
saw no opposition to, and I was not directly involved in 
negotiating any contracts involving it.
    Senator Inouye. You had no role to play in that?
    Mr. Tomlinson. I certainly thought it was a good idea and I 
thought it was an important idea because of the importance of 
having balance in current affairs broadcasting. I would never 
have put the Wall Street Journal show on alone. Again, as 
Senator Stevens said, no biases; make it neutral, make it 
common sense. If you have a liberal show, have a conservative 
show, one in the middle. If you have a conservative show, have 
a liberal show.
    This is to me common sense and it is good for public 
broadcasting.
    Senator Inouye. So your position is that these press 
reports are false?
    Mr. Tomlinson. The press reports, yes, sir.
    Senator Inouye. Thank you.
    Senator Specter. Thank you, Senator Inouye.
    Senator Durbin.

                        ``NOW WITH BILL MOYERS''

    Senator Durbin. Mr. Tomlinson, I am going to follow up on 
that. So let me understand what you are saying. You had to get 
``Now'' off the air because of liberal advocacy----
    Mr. Tomlinson. No, no. I never wanted to take ``Now'' off 
the air.
    Senator Durbin. No pressure on Mr. Moyers?
    Mr. Tomlinson. No, no, sir. No, sir. In fact, if I had put 
pressure on Mr. Moyers you know exactly the way Mr. Moyers 
would have responded.
    Senator Durbin. So let me ask you this question. Mr. Moyers 
has said that when rumors began to circulate regarding hiring a 
consultant to monitor his show he tried three times to meet 
with the CPB board to hear their concerns and answer their 
questions three times, and every time he was refused. So let me 
ask you to clarify then. If you had no axe to grind with Mr. 
Moyers, no problem with Mr. Moyers, why is it he could not get 
to meet with you?
    Mr. Tomlinson. Well, I did have a problem with his show. In 
terms of at the time--and I would have to go back and 
reconstruct about his requests to meet with us. At the time I 
remember discussing it with the president of CPB and he did not 
think it was appropriate to have such a meeting because our 
purpose--you are not going to change Bill Moyers. He has got a 
wonderful record of public service, but you are not going to 
change the politics of Bill Moyers, nor were you going to 
change the politics of that show. Frankly, I did not want to 
change the politics of----
    Senator Durbin. Well, I wish you would check, because he 
said he tried to reach out to you three times and could not get 
a meeting.
    The point I want to get to is this. Assume for a second 
this was, as you called it, liberal advocacy on the ``Now'' 
show. Now we have something from the Wall Street Journal. Would 
you call that conservative advocacy?
    Mr. Tomlinson. Yes.
    Senator Durbin. Would you?
    Mr. Tomlinson. Yes.
    Senator Durbin. Okay.
    Mr. Tomlinson. So now we have a 30-minute show, a successor 
to Moyers' called ``Now,'' and a 30-minute Wall Street Journal 
show. That is balanced.
    Senator Durbin. You do not expect within the content of 
each show that there be a balanced presentation, or do you?
    Mr. Tomlinson. No, I do not think that is realistic. I am 
old school. I think you should have the kind of programming 
that gives you back and forth. I think that you should have 
liberals and conservatives on these shows and let the viewer 
decide.
    Senator Durbin. I guess what troubles me then is why you 
had to put this pressure on Mr. Moyers. I do not understand 
that. If you just wanted to put a conservative show on next to 
him, you could have done that all along.
    Mr. Tomlinson. I do not quite understand how I put pressure 
on Mr. Moyers.
    Senator Durbin. You do not think you put any pressure on 
Mr. Moyers?
    Mr. Tomlinson. No, no. In fact, I think if I had he would 
have responded in kind. He does not respond well to pressure.

                            VOICE OF AMERICA

    Senator Durbin. Let me say that you made some references to 
your service at the Voice of America quite a few years ago and 
also the fact that it was referred to in Mr. Moyers' speech. I 
would like to make sure the record reflects that Mr. Moyers 
said this about your service at Voice of America and the 
controversy involving Mr. Frick, and I quote Mr. Moyers' 
speech:
    ``Let me be clear about this. There is no record apparently 
of what Ken Tomlinson did. We don't know whether he supported 
or protested the blacklisting of many American liberals or what 
he thinks of it now.''
    That is a direct quote from his speech. So I do not know if 
that is all of the things that he said there, but that was 
included in his remarks.
    If I might ask you, too----
    Mr. Tomlinson. There was an earlier reference that linked 
me to----

                        ``NOW WITH BILL MOYERS''

    Senator Durbin. That you were working there at the time Mr. 
Frick was involved in some of these activities, that is true.
    Let me ask you this. The board leadership, you say in your 
testimony: ``The board leadership of PBS recognized that Friday 
evening programming should reflect different points of view. 
When it was clear that PBS was following through on its 
commitment, I ended the Mann study and did not make it public 
because to do so would have called attention to the fact that 
for nearly 2 years public broadcasting ignored our legal 
responsibility for presenting diverse viewpoints on 
controversial views.''
    I am trying to follow what you are saying here. Without 
your study--in other words, without your study alleging liberal 
bias in PBS programming, people would not have noticed it? Is 
that what you are saying?
    Mr. Tomlinson. I did not need a study to document that the 
Moyers program was biased.
    Senator Durbin. Then why did you pay Frederick Mann 14,000 
taxpayers' dollars?
    Mr. Tomlinson. Because I was facing people, not unlike you, 
who were saying at the time: Gee, there is nothing wrong with 
the Moyers program; this program is balanced. Statistically--
you know, Warner Wolf used to say: ``Let's go to the 
videotape.'' We took 6 months of Moyers programs and 
demonstrated that it was left wing advocacy journalism.
    As I said, it is outstanding stuff. He is a great 
broadcaster. But the show was biased from the left.
    Senator Durbin. I do not understand how this gentleman is 
competent to make that conclusion, and some of the things that 
he characterizes on here are clearly off the wall. But at the 
risk of----
    Mr. Tomlinson. He had, for example, Bob Barr, a Republican 
former Congressman, was on the Moyers show to attack the 
Patriot Act. He was not on the Moyers show to take any of his 
traditional positions.
    Senator Durbin. Sounds pretty balanced to me.
    Mr. Tomlinson. He was on the show to balance the Patriot 
Act. That is how he got on the show. Conservatives and 
Republicans got on the Moyers show by and large when they took 
positions which agreed with Mr. Moyers.
    Senator Durbin. Are you familiar with the fact that the 
bill to reform the Patriot Act is co-sponsored by me and 
Senator Larry Craig.
    Mr. Tomlinson. Well, I certainly welcome reform of 
anything, Senator. I am just talking about journalism here.
    Senator Durbin. That is what I am talking about, too.
    Mr. Tomlinson. I am talking about how he came to be on that 
show.
    Senator Durbin. Ms. Harrison, are you familiar with Bill 
Moyers' program? Did you watch it?
    Ms. Harrison. I have to admit I have not. I have been 
working 24-7 in my previous job. But I guess I should let you 
ask the question before I answer a question you have not asked 
yet.

                      PATRICIA HARRISON BACKGROUND

    Senator Durbin. I just want to try to understand your 
familiarity with Corporation for Public Broadcasting, NPR, PBS.
    Ms. Harrison. I understand the mission and that we have two 
tracks here. One is to ensure that public broadcasting is not 
pressured or interfered with by the Federal Government in any 
way or the board. The other mission is to ensure that there are 
a diversity of views.
    I do believe in just looking at a lot of material in the 
last several days that one of the answers to this--and I too 
would like to get back to the mission of public broadcasting--
is the Office of the Ombudsman, an independent office. They 
really have no authority to pre-censor, to censor, but they 
just do what many ombudsmen do for newspapers, and to take it 
out of this whole controversial range and have it as something 
that is just ongoing; I know PBS has their own ombudsman, and 
to start focusing on the real issue here, which is the 
importance of public broadcasting.
    Senator Durbin. Mr. Chairman, if I could ask one last 
question of Ms. Harrison.
    Ms. Harrison. Yes.
    Senator Durbin. If we matched up our resumes, very few 
things would come out the same, but----
    Ms. Harrison. I have a feeling where you are going.
    Senator Durbin. But it would demonstrate that we are both 
political animals. We both from our partisan perspectives have 
been pretty actively involved in our partisan beliefs. Clearly 
the concern over what is happening with Mr. Tomlinson is that 
we are politicizing public broadcasting, and the fear is now 
that if it reaches the point where the average viewer, who now 
thinks so highly of public broadcasting by radio or television, 
begins to believe that it has now been taken over by people 
with a political agenda, who want to spare this administration 
or any administration of criticism, who want to make certain 
that those who are the most effective advocates for one point 
of view are silenced or diminished, it is going to really tear 
at the heart of what is good about public broadcasting.
    Now, you come in with a strong Republican resume. I in the 
same spot would have a strong Democratic resume. The obvious 
question is, can you put this aside? Do you feel like you have 
got water to carry here for the White House and the 
administration in this new position?
    Ms. Harrison. That is a three-part question and it is 
actually a very important question. First, let me say before I 
am a member of any party I am an American. For the last 4 
years, as I alluded to, I ran a bureau. During that period of 
time the OIG did its first review in 50 years of the Bureau of 
Educational and Cultural Affairs. I am very proud of the fact 
that what they found was that my leadership style, my 
management style, was inclusive, I am a team-builder.
    I have a track record in the private sector. Running a 
company, I could not tell you who is Republican and Democrat. 
When I take on, let me just call this a mission, I am looking 
at best achievable outcome and I think about the last day that 
I am going to be on the job. I have a strong enough ego to want 
to say because I took this job the entity, the organization, 
was stronger than before I came here.
    I am committed to this. Without going into braggadocio too 
much, I did have other opportunities, but I believe in the 
mission of public broadcasting. And I believe that the people 
who are concerned need to not only listen to what I say, but to 
watch what I do. I am going to fight for this. I am here 
fighting for this budget. I am now the CEO of the Corporation 
for Public Broadcasting and I know what my clear mission is.
    I fought for similar things. One of the reasons I wanted to 
do this, Senator, is I find a similar mission that I had at the 
Bureau of Educational and Cultural Affairs, where people look 
at exchanges and say, why do we need those people coming here. 
Basically, these things are the things that are really going to 
connect our country.
    I do not know what else to say. I was president of Capital 
Press Women. I have been an advocate for women. I founded an 
organization, National Women's Economic Alliance. I have 
written two books really focused on helping women. I feel 
confident that I am a fair person, that I have a great deal of 
integrity, and that nobody owns me ever. Plus I come from 
Brooklyn, New York, and I am an Italian-American.
    Senator Durbin. I have a daughter living in Brooklyn now. 
Maybe she is picking up some of the same attributes.
    Thank you to the panel. Mr. Chairman, thank you for your 
patience.

                         CPB USE OF CONSULTANTS

    Senator Specter. Senator Durbin, I thought you would not 
have any question after that last response.
    Mr. Tomlinson, the New York Times has reported a couple of 
payments, one for a lobbyist, $10,000 into the insights of a 
specific Senator. Is that true?
    Mr. Tomlinson. I described that situation a moment ago and 
with your indulgence I would like to go over how we got to that 
point.
    Senator Specter. Go ahead.
    Mr. Tomlinson. Our board discovered that there were 
interests in public broadcasting which wanted to put into the 
authorization bill language which would have required four of 
our members come from the public broadcasting community. The 
board was very concerned about this. We were unanimously 
opposed to this. When our board members, including our 
Democrats, called counterparts on Capitol Hill, they discovered 
quite a lot of work had gone into this on the part of the 
public broadcasting community.
    We have a small staff at CPB. Our legislative person the 
week we discovered this was on vacation. Our front office 
turned and hired to my knowledge, or at least had three--
brought in three different consultants to work that bill, to 
try to get to Capitol Hill----
    Senator Specter. Mr. Tomlinson, that is all very 
interesting, but why pay $10,000 to find insights into a 
Senator? Why not your picking up the phone and talking to him 
or going to pay him a visit, and save $10,000 on a very tight 
budget?
    Mr. Tomlinson. If our legislative person had been in town 
that week, that might have been the direction we would have 
gone.
    Senator Specter. Well, you had some protracted period of 
time to make the contact, did you not?
    Mr. Tomlinson. Yes.
    Senator Durbin. Do you not think the Senator would be a lot 
more impressed by having you in your position come talk to him, 
giving him your reasons, than the amorphous approach of 
somebody seeking insights into his background?
    Mr. Tomlinson. Absolutely. But the reason CPB has 
traditionally hired these consultants is because we have a 
small core staff and we tend to turn to the outside for help in 
these areas.
    Senator Durbin. And $5,000 being paid to provide advice on 
the legislative process for a month, without having talking to 
any of the lawmakers; is that also accurate?
    Mr. Tomlinson. Yes, although we--because this thing was 
sprung on us overnight. Our board, both Democrats and 
Republicans, we were absolutely unaware that for apparently 
weeks leaders in public broadcasting had been working to 
require that four of our nine members be drawn from the public 
broadcasting community. We did not think that was right.
    Senator Specter. Well, Mr. Tomlinson, when we see reports 
in the press about that and then have them confirmed by you, it 
raises a question at least in my mind as to the propriety of 
the expenditures. We Senators see a lot of people and I would 
repeat that if a man in your position came to see a Senator I 
think it would bear a lot more weight, or even a telephone 
call.
    So as a little guidance to the future, when you are short 
on budget to bear that in mind.
    Mr. Boaz, do you think that public broadcasting ought to 
take any further steps to seek the avoidance of what you 
consider to be political bias?
    Mr. Boaz. I think it is valuable to seek to avoid the bias, 
and I do think if you look at the examples--there is this 
report nobody has mentioned, that appeared in the newspaper 
``Current,'' the newspaper of public TV and radio, not by a 
conservative, that goes through looking at Bill Moyers show and 
points out several examples of heavy bias on the issues that 
mattered a lot to Mr. Moyers.
    One way you balance that is by having different programs 
there. I do not think the addition of the ``Wall Street Journal 
Editorial Report'' is going to balance the overall thrust of 
prime time programming on PBS.
    But as I say, I do believe that it is impossible to choose 
the topics and choose the speakers and choose the angles 
without having some perspective involved, and that is why, 
rather than seek political balance, put a Republican onto the 
CPB board, put a Republican somewhere into NPR or PBS, the 
better thing is to depoliticize the system, take it out of 
politics entirely.
    My guess is that public radio and television might be more 
adventurous if they did not have a Republican administration 
and a Republican Congress looking over their shoulders. Some 
people would remember a few years ago when PBS broadcast 
``Tales of the City'' and there was a lot of controversy 
because this was a fictional program that had some gay 
characters and some drugs involved in it. They decided not to 
do more ``Tales of the City.'' The commercial network Showtime 
picked it up and nobody complained, because it was not 
taxpayers' money, it was not an official government imprimatur, 
and we understand that in a free society Showtime can pretty 
much show what it wants to.
    So I think if you depoliticize you will avoid this problem 
of getting two ombudsmen or a new chairman, a new president. 
You take it completely out of the realm of politics.
    Senator Specter. Ms. Mitchell, do you think there is any 
substance at all to Mr. Boaz's contention of political bias on 
the public broadcasting?
    Ms. Mitchell. The public opinion polls certainly 
substantiate our firm conviction that we are producing a 
schedule that meets our editorial standards and that meets the 
obligations of fairness and balance.
    Might I also respond to something else I think you asked?
    Senator Specter. Before you go on to another subject, I do 
not think that is quite responsive to my question. My question 
was do you think there is any basis for Mr. Boaz's contention 
that there is political bias on public broadcasting?
    Ms. Mitchell. We take every allegation of that very 
seriously. Last year, out of 3,000 hours there were less than 
30 hours that rose to what we would consider any kind of 
question or controversy. But 2 years ago we looked at our 
editorial standards and said they need to be updated, we need 
to be very clear with our producers what we expect from them in 
terms of fairness and objectivity, accuracy, and transparency. 
So we clarified it.
    Senator Specter. Is your answer no?
    Ms. Mitchell. The answer is we work very hard to ensure 
that there is not, and when there is an opinion or a point of 
view, Senator, we are very clear that that is what the viewer 
is hearing; it is someone's point of view, someone's 
commentary.
    Senator Specter. Okay, I interpret that to mean possibly. 
To the extent that there is any possible bias, what you are 
saying is that you take every step you can to eliminate it?
    Ms. Mitchell. In dealing with controversial issues, we 
require of our producers that they do the most thorough, 
accurate, transparent process to examine--and we take on the 
complex issues, Mr. Chairman, as you know, many of which are 
not taken on by mainstream media. We do not attempt, except in 
our news programs, to balance everything within a segment or 
within a program, because that is what the law requires, and we 
believe that there is a better understanding and comprehension 
if you do it over a series of programs.
    But we take very seriously any charge that our programs are 
not representing the diversity of perspectives in this country. 
We think of ourselves as a big tent where a Bill Moyers and a 
Paul Gigot and a Travis Smiley and a Gwen Eifel all are 
welcome.
    Senator Specter. Ms. Harrison, do you have anything you 
would like to add? We are about to conclude the hearing.
    Ms. Harrison. Just very briefly. There are some mechanisms 
in place, because public broadcasting, the word most important 
is the ``public.'' So there is a toll-free number where viewers 
and listeners can call in. We direct them also to connected 
links. We have a very vigorous e-mail program.
    So we are hearing from viewers and listeners all the time, 
and these are remarks and observations that are not just 
dismissed. I am very busy answering my own enormous mail right 
now and I have to tell you the interesting thing is I am 
getting about the same degree from people saying it is too left 
and the same degree it is too right, concerns on both sides. I 
think we have a very passionate listener and viewer audience, 
and I think the Office of the Ombudsman is a good step.
    Senator Specter. Mr. Lawson, anything you care to add?
    Mr. Lawson. Yes, sir. My association was the author of the 
amendment in question that prompted Mr. Tomlinson to hire the 
two lobbyists. That just speaks to the need for----
    Mr. Tomlinson. I did not hire the lobbyists, John. They 
were hired by the front office.
    Mr. Lawson. Mr. Chairman, it just speaks to the need for 
greater transparency in the way that CPB operates. We would 
like to pick up the conversation we had with the Senate 
Commerce Committee last year and the rest of Congress to work 
out some reforms to the way CPB operates.
    Senator Specter. Mr. Tomlinson, awaiting the Moyers-
Tomlinson debate, do you have anything else to add now?
    Mr. Tomlinson. No, Mr. Chairman. Thank you so much for your 
support of public broadcasting.
    Senator Specter. Mr. Boaz, we will give you the last word 
if you want it.
    Mr. Boaz. I feel like Daniel in the lion's den. But I am 
glad to have the last word. I believe that the controversies 
that----
    Senator Specter. Daniel did not do too badly and neither 
have you.
    Mr. Boaz. I believe the controversies that we are 
discussing are an illustration of the problem I raised, that it 
is inevitable that you are going to have politicization if you 
have government funding. That is why I think public radio and 
television would be better off without government funding.

                     ADDITIONAL SUBMITTED STATEMENT

    Senator Specter. We have received an additional submitted 
statement that will be included in the record at this point.
    [The statement follows:]

              Prepared Statement of Americans for the Arts

    On behalf of Americans for the Arts, I am pleased to provide you 
this statement in support of funding for the Corporation for Public 
Broadcasting (CPB). As you know, recently the fiscal year 2006 funding 
for CPB was threatened during House subcommittee consideration. The 
House bill was substantially improved during full committee debate and 
floor action, but it is still inadequate. I write to you today to ask 
for your support in keeping CPB fully funded.
    Americans for the Arts is the service organization for the nation's 
4,000 local arts agencies, which provide $1 billion of annual funding 
and support for the arts and humanities at the local level. It is 
important to note at the outset that many local arts agencies are 
important partners, and funders, of local public television and radio 
stations. We are asking the federal government to continue to honor its 
commitment to public broadcasting, just as local arts agencies continue 
to honor theirs.
    CPB supports public television and radio through its partners, the 
Public Broadcasting Service (PBS) and National Public Radio (NPR). 
These organizations provide important access to the arts for millions 
of Americans. With both community-based arts programming, and 
nationally televised shows such as ``On Stage at the Kennedy Center'' 
and ``Austin City Limits,'' public broadcasting is often a primary 
source of arts programming in many rural parts of the country. Public 
broadcasting also serves as an important source of information about 
live arts performances and exhibitions. Any reduction to its budget 
would drastically reduce the access that many Americans have to the 
arts.
    Public broadcasting's national programs are probably well known to 
members of the Committee. While you are probably familiar also with 
local programming in your own state, I would like to provide a few 
examples of local arts programming from around the country.
  --In Pittsburgh, WQED, the nation's first community-owned television 
        station, airs ``Performance in Pittsburgh'' featuring recorded-
        in Pittsburgh concert highlights as well as interviews with 
        Pittsburgh musicians and presenters. The WQED-FM, the radio 
        station produces ``Pittsburgh Symphony Radio'' presenting the 
        Pittsburgh Symphony Orchestra's recent concerts at Heinz Hall, 
        archival tapes and tour performances.
  --Iowa Public Television (IPT) has a show named, ``A Century of Iowa 
        Architecture,'' which uses high definition cameras to capture 
        the details and drama behind the construction and design of 
        Iowa's most significant buildings. Also, as part of its School-
        to-Careers programming IPT has programming specifically on 
        becoming an artist. The National Employer Leadership Council 
        (NELC) highlighted Iowa Public Television in its publication 
        Best Practices in School-to-Careers: Rural Issues.
  --The Mississippi Arts Council and Mississippi Public Broadcasting 
        produced a seven-part radio show titled, ``Sounds From Around 
        the Corner'' which included gospel and old-time fiddling, as 
        well as more recent immigrant traditions such as Latino music 
        and classical Indian singing--all performed by Mississippi 
        artists.
  --In Alaska, CPB has provided funding for the weekly ``AK'' cultural 
        magazine show produced by the Alaska Public Radio Network. In 
        2003, Public Radio News Directors International voted AK second 
        place nationally for ``Best Public Affairs Program''.
    Budget cuts would heavily impact public radio broadcasting, as CPB 
funding represents 15 percent of the budget for many individual member 
stations of NPR. If they lose that support, many of them will have to 
make severe cuts to their programming and local services. This will 
especially impact rural areas and stations serving minority 
populations, as they heavily rely on federal funding for their 
operating budgets. While local and state arts agencies also support 
these stations, they could not make up for a loss of federal funding on 
this scale.
    While the House partially restored CPB funding, its legislation, as 
passed, eliminated $39 million to help local stations switch to digital 
transmission, $40 million to upgrade aging satellite technology, and 
made a $23 million cut to the ``Ready to Learn'' program, which 
provides money for the creation of shows such as ``Sesame Street'' and 
``Reading Rainbow.'' These are all important items for CPB operations. 
We hope you will fully fund these programs in your subcommittee 
consideration, and that you will fight for them in conference with the 
House.
    With your leadership, we can insure that CPB funding is adequately 
funded, and that public television and radio can continue to provide 
high quality arts and cultural programming to our nation.

                         CONCLUSION OF HEARINGS

    Senator Specter. Thank you all very much for coming in. Let 
me tell you, drawing four Senators on a Monday morning in 
Washington is high praise for this panel and this subject. That 
concludes our hearings.
    [Whereupon, at 12:39 p.m., Monday, July 11, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    MATERIAL SUBMITTED BY AGENCIES NOT APPEARING FOR FORMAL HEARINGS

    [Clerk's note.--The Social Security Administration and the 
Railroad Retirement Board were unable to testify and the 
following information was received in support of their fiscal 
year 2006 budget requests.]
    [The information follows:]

                     SOCIAL SECURITY ADMINISTRATION

              Questions Submitted by Senator Arlen Specter

                         HUMAN CAPITAL PLANNING

    Question. In January 2001, the General Accounting Office identified 
strategic human capital management as a government wide high-risk area. 
What steps are you taking to acquire, develop, and retain an 
appropriate mix of agency staffing/talent, particularly in light of the 
Agency's impending retirement wave? What is the Agency's plan for 
creating an organizational culture that promotes high performance and 
accountability and empowers and includes employees in setting and 
accomplishing programmatic goals? How does the fiscal year 2006 budget 
support these activities?
    Answer. SSA has a long history of successful human capital 
planning. We first analyzed the impact of our impending retirement wave 
in 1998. This prompted development of a Future Workforce Transition 
Plan (FWTP) which laid out the strategies to ensure that a highly 
skilled staff was in place.
    We update our analysis of projected retirements annually and make 
appropriate adjustments to our recruitment, retention and succession 
strategies. We expanded upon the FWTP to publish a comprehensive and 
strategic Human Capital Plan in January 2004. The plan lays out how SSA 
will use human capital to meet the Agency's mission and goals and 
ensure that we have employees in place with the skills necessary to 
continue SSA's tradition of excellent citizen service. Employees across 
the Agency work together to accomplish these initiatives and, as a 
result, SSA received a President's Management Agenda score of ``green'' 
for the Strategic Management of Human Capital in June 2004.
    To date, we have maintained our green status by successfully 
completing planned activities, continuing with initiatives underway and 
adding new ones that will further improve our management of human 
capital.
    Since 2001, we have implemented a new national recruitment strategy 
with the following key elements: (1) an integrated marketing campaign 
with a new SSA brand entitled ``Make a difference in people's lives and 
your own;'' (2) emphasis on the Inter/Intranet; (3) coordinated on-
campus college recruitment; (4) automated staffing/recruiting; (5) 
practical methods for diversity recruitment; (6) streamlined hiring; 
and (7) maximum use of hiring flexibilities. We have expanded on these 
key elements through other key recruitment successes, including the 
release of a National Recruitment Guide to ensure consistency and 
excellence in our recruitment activities and the establishment of 
partnerships with other Federal agencies to assist veterans with 
transitioning to civilian employment.
    We are maximizing the use of technology to improve recruitment and 
hiring. SSA is in the process of transitioning to a new web-based 
staffing automated system. We are also working to improve methods of 
submitting, collecting, and processing electronic job applications. 
Improving the application process in those areas is expected to improve 
the hiring process by encouraging a larger number and more qualified 
applicants to apply for Federal positions and by facilitating more 
timely selections.
    Our recruitment efforts have proven successful in attracting 
quality hires. We hired over 15,000 employees in fiscal years 2001-
2004. For fiscal year 2005, we have hired 2,616 through March 2005. 
This includes employees who were recently hired in support of the 
recent Medicare legislation which will provide drug benefit subsidies 
to the elderly.
    We develop employees from entry-level through the Executive level. 
Our orientation programs for new employees emphasize our organizational 
culture and public service values.
    SSA has received many accolades for its national leadership 
development programs that have often been referred to as the ``best in 
government.'' This reputation is based upon our use of competency-based 
programs that include a rigorous selection process and a variety of 
program features that produce well-rounded graduates. The programs 
include the Senior Executive Service Candidate Development Program for 
executives, the Advanced Leadership Program for middle- and senior-
level employees, the Leadership Development Program for employees at 
the journeyman level, and the Presidential Management Fellows Program 
for entry-level professionals.
    SSA has redesigned entry level training, developing job-specific 
training competencies and delivering related training for about 24,000 
positions in the claims representative, service representative, and 
teleservice representative occupations. In fiscal year 2006, SSA will 
develop competency-based training that will be used for another 4,000 
positions in the benefit authorizer, claims authorizer and technical 
support technician occupations.
    SSA is also delivering training to prepare employees for the new 
Medicare legislation. The intent of this training is to ensure all 
employees understand and can process the workloads associated with the 
new legislation.
    We are also maximizing the use of technology in the training arena 
by implementing a project development plan to migrate to a common, 
government-wide electronic-learning service.
    Our 2-year retention rate for new hires has been gradually 
increasing from 84 percent for 1998 hires to 89.9 percent for 2002 
hires; a rate which is considered outstanding in the private and public 
sectors. We have enhanced our orientation process and are improving our 
exit interview processes to further support our high retention rate.
    We are promoting high performance and accountability by improving 
our performance management systems. We implemented new multi-tiered 
appraisal systems for Senior Executive System employees in October 2002 
and for GS-15s in October 2003. We are further improving our 
performance management systems by implementing a new multi-tier 
performance appraisal model for union-represented employees that, when 
implemented, will differentiate between levels of performance and 
enhance managers' ability to hold employees accountable for results.
    Full funding of the fiscal year 2006 President's budget will allow 
us to continue to carry out our Strategic Human Capital Plan 
activities.

                        DIRECT SERVICE POSITIONS

    Question. What is your plan to increase the number of direct 
service positions, while maintaining appropriate levels of technical, 
policy, and administrative support staff? The Subcommittee is aware 
that SSA met its long-term goal of reallocating 5 percent of 
headquarters positions to direct service in fiscal year 2004. 
Specifically, how was this accomplished? What does the budget assume 
for such redirections in fiscal year 2005 and fiscal year 2006?
    Answer. We met our goal through a combination of redeployments and 
overall attrition in staff components. For example, 71 employees 
transferred from staff components to direct service positions in the 
Office of Central Operations in November 2002. The fiscal year 2006 
budget request assumes no additional redirections for fiscal year 2005 
or fiscal year 2006. The fiscal year 2006 budget request does assume an 
increase in full-time equivalents from fiscal year 2005, attributable 
mainly to the 2,200 direct service employees hired in fiscal year 2005 
to handle workloads related to the new Medicare prescription drug 
program. Although hired initially to deal with this new Medicare 
workload, these employees will be trained on all of SSA's programs so 
they can ultimately help backfill for the 3,000-4,000 employees we lose 
each year due to retirements and resignations.

                 ENRICHMENT OPPORTUNITIES AND LEARNING

    Question. One long-term outcome identified in SSA's Agency 
Strategic Plan is ensuring ongoing enrichment opportunities and 
training. Specifically, how does the fiscal year 2006 budget support 
this long term outcome?
    Answer. SSA is dedicated to improving its training and development 
programs in order to build the skills our employees at all levels need 
to deliver quality customer service in the 21st century's technological 
environment. To fill emerging skills gaps, SSA is focusing on improving 
the training it provides all its employees--from the lowest levels to 
the top. We are using the lessons we learned from ``getting to green'' 
to stay focused on our commitment to improve learning at SSA so all of 
our employees are prepared to support SSA's mission.
    Currently, SSA's Office of Training is moving forward to:
  --Develop and implement a competency-based training approach to 
        ensure that our employees on the front-line doing mission 
        critical work have the skills and knowledge they need to 
        effectively address the concerns of the American public.
  --Ensure that the Agency has the number of well-rounded, competent 
        leaders it needs by implementing a new leadership development 
        strategy that will enhance SSA's nationally acclaimed career 
        development programs.
  --Open up more learning opportunities for SSA's employees by moving 
        from SSA's Online University to the government-wide GoLearn 
        online learning system. SSA employees nationwide will be able 
        to select from over 2,000 courses that are designed to make the 
        most of their potential.
    Of the many influences that are shaping SSA's future, none may be 
more fundamental or influential than the training we provide our 
employees. Our shared learning helps us to forge a sense of common 
purpose nationwide and provides us with the knowledge and skills we 
need to do our jobs. SSA's future success at meeting the public's 
increasingly varied needs depends on our ability to open up learning 
opportunities that make the most of our employees. Because of this, SSA 
is continuing to reassess the needs of its workforce and investing in 
workforce learning and performance for each of our employees and the 
Agency as a whole.
  --SSA provided an average of 48 hours of training per employee over 
        SSA's Interactive Video Teletraining (IVT) network and Online 
        University. SSA employees were particularly interested in new 
        IVT broadcasts that covered the new Medicare policy, security 
        in SSA's offices, and the growing use of the Internet.
  --The Office of Training is continuing to work with Operations to 
        redesign the training for new or recently promoted employees in 
        our mission critical positions. In redesigning our training, 
        SSA has been using results from private sector source surveys 
        and studies to develop a competency-based training program. 
        This approach provides our students with the knowledge, skills, 
        and abilities they need to do their jobs in an environment that 
        is becoming increasingly automated.
    By the end of last year, the entry-level training for Title II and 
Title XVI Claims Representatives (CRs), Service Representatives (SRs), 
and Teleservice Representatives were redesigned to reflect this 
competency-based approach.
    Redesigned training lessons improve the way our new employees learn 
their jobs by integrating information regarding SSA's programs and 
policies with structured off-air activities and on-the-job-training. 
This plays a key role in helping new employees master the technology 
and automated processes that are a critical element of today's SSA work 
environment. Mentors help guide and support students as they develop 
new skills by practicing on SSA computer systems, taking part in role-
playing, and having on-the-job experiences that will serve them well 
when they take on their new roles full time.
    The Office of Training has also been developing training for 
specific groups of employees. Working with Operations' offices across 
the country, they have completed the development of competency-based 
training for Benefit Authorizers, Claims Authorizers, and Technical 
Support Technicians in the Program Service Centers by 2006. They have 
also improved fundamentals training for employees who do not provide 
direct services to the public. This training gives general information 
about the Title II and Title XVI programs and strengthens our 
commitment to work purposefully together in shaping and managing these 
programs.
    Because of the continuing changes in the disability programs, SSA 
is working to update and expand the disability training materials for 
new or recently promoted disability adjudicators. SSA also provides a 
significant amount of training for OHA employees who process disability 
claims at the appeals levels. Topics that SSA provides on its IVT 
network focus on OHA's Case Processing Management System, Speech 
Recognition Software, Digital Recording, Dismissals, Remands, and 
Docket Management.
    The Office of Training is evaluating the training needs of SSA's 
Executive Officers and expects to develop a core curriculum for that 
position by the end of the fiscal year.
    Technology has also played an important role in SSA training.
  --During fiscal year 2004 and into fiscal year 2005, Social Security 
        continued to move forward towards realizing its vision of 
        providing IVT nationwide. By the end of 2004, employees in more 
        than 100 additional offices were linked to the IVT network. 
        Today, over 98 percent of Agency and Disability Determination 
        Service (DDS) employees have access to IVT.
  --The IVT network continues to play an important role in ensuring 
        that our employees learn what they need to know, when they need 
        it. The first part of the Medicare Part D subsidy training on 
        policy was developed and successfully delivered over the IVT 
        network. The second part of this training, which will cover 
        systems and subsidy changing events, is being readied for 
        delivery this May.
  --SSA is working behind the scenes to improve the delivery of its IVT 
        broadcasts. With the conversion of the headquarters' practice 
        studio, SSA now has a fully functional digital broadcast 
        facility in Baltimore that helps us improve our ability to get 
        up-to-date programs to our employees. SSA is also upgrading its 
        other six broadcast facilities and enhancing our automated 
        scheduling and evaluation procedures as well in an effort to 
        better ensure that our IVT programs reach the employees who 
        need them.
  --SSA is expanding the benefits and values of online learning through 
        the SSA GoLearn training site. SSA GoLearn replaces SSA's 
        current Online University (OLU). All employees and their 
        managers will have unprecedented opportunities to take over 
        2,000 courses at their workstations or at home, at no cost to 
        them or their offices. Each employee will learn at his or her 
        own pace and be able to select courses that will help them 
        learn and perform better or become eligible for other, more 
        rewarding work. Successful learners will automatically get 
        credit for completed courses on their personnel records, 
        without filling out any paperwork.
  --IVT provides disability policy training to SSA and the DDS 
        employees. IVT broadcasts provide these employees with help in 
        handling a host of difficult technical issues, including 
        electronic disability, evidence in childhood cases, disability 
        fraud detection, and disability onset. SSA also broadcasts 
        vocational and adjudicative tips in case development and 
        processing for employees who handle SSA's disability workloads.
    Since 2004, SSA has ensured that it has the talent it needs to lead 
the Agency by supporting the expansion of the national leadership 
development programs.
  --60 employees have been selected to take part in the Leadership 
        Development Program (LDP) that will begin mid-year. The GS-9 
        through GS-11 employees who will participate in the program 
        will have the opportunity to move forward in the Agency by 
        making the most of the training and rotational assignments 
        available to them in the 18-month program.
  --The Senior Executive Service Candidate Development Program (SES 
        CDP) is expected to be announced later this year. The SES 
        candidates are expected to begin their program in 2006. In 
        order to develop the qualifications they need to become the 
        government's top executives, SSA's SES candidates will take a 
        variety of Agency rotational assignments and some will spend 
        time at other Federal agencies to prepare them to successfully 
        lead change within the Federal Government.
  --Approximately 26 top graduate students are expected to be selected 
        at the end of this calendar year for the Presidential 
        Management Fellows (PMF) 2-year development program.
    SSA is continuing to seek new ways to ensure that the Agency has 
the leadership it needs to succeed in the 21st century. Earlier this 
year, a national workgroup of manager and trainers in headquarters and 
from the field worked together to establish a new strategy for 
developing leaders at SSA. The Office of Training is getting nationwide 
comments on the strategy which is designed to foster competencies that 
leaders and managers need to effectively manage people, achieve 
results, and promote performance management. SSA anticipates 
implementing this new, improved approach to leadership by the end of 
this year.
    Full funding of the fiscal year 2006 President's budget request for 
SSA will permit us to continue to carry out these training and 
development programs.

                       INITIAL DISABILITY CLAIMS

    Question. Over the period fiscal year 2000-fiscal year 2004, 
initial disability claims pending have increased by more than 16 
percent and now total more than 620,000, despite an increase in agency 
resources from $6.6 billion to $8.3 billion, or almost 26 percent. 
Please provide a breakout of DDS (Disability Determination Service) 
resources (dollars and staffing) over this period. What explains this 
growth in backlogs, despite increasing Agency resources? What specific 
actions are underway or planned in fiscal year 2005 and fiscal year 
2006 to ensure more timely adjudication of disability cases and more 
cost-effective expenditure of agency resources?
    Answer. The growth in initial disability claims pending is the 
result of a dramatic growth in initial claims receipts. Over the fiscal 
year 2000-2004 period, DDS initial claims receipts increased almost 24 
percent.
    SSA responded within available resources to this increase in 
receipts by: (1) increasing DDS resources; (2) initiating fewer 
continuing disability reviews in fiscal year 2003 and fiscal year 2004 
and redirecting those resources to process initial claims; and (3) 
improving productivity in the DDSs. In spite of these efforts, we were 
unable to keep up with the growth in receipts.
    In fiscal year 2005, we implemented a plan to lower initial pending 
levels to 592,000 by the end of the fiscal year. Thus far this year, we 
have succeeded in lowering pendings to 608,000. To help achieve the 
pending goal, increased funding was provided to the DDSs, and DDSs were 
authorized additional hiring and increased overtime. In addition, where 
requested and needed, Federal assistance in case processing is being 
provided to some DDSs. In fiscal year 2006, the President's budget 
request reflects productivity and processing time improvement for the 
DDSs, mainly through an electronic disability claims process (eDib).
    Despite not receiving the full President's budget request for the 
last two fiscal years, my Service Delivery Budget goal is still to 
reduce disability claims pending to 400,000 by 2008. To achieve this, 
we need the Committee's support, including full funding for the 
President's budget request of $9.403 billion for SSA's administrative 
expenses.
    A breakout of DDS resources (dollars and staffing) for fiscal year 
2000-fiscal year 2004 is provided in the chart below.

                          [Dollars in millions]
------------------------------------------------------------------------
                     Year                        Worrkyears     Amount
------------------------------------------------------------------------
2000..........................................       14,231       $1,461
2001..........................................       14,397        1,513
2002..........................................       14,947        1,588
2003..........................................       14,700        1,593
2004..........................................       14,772        1,672
------------------------------------------------------------------------

                        EDIB AND IMPLEMENTATION

    Question. The Government Accountability Office (GAO) added Social 
Security's disability programs to its list of High-Risk programs. SSA's 
fiscal year 2006 budget request supports complete implementation of an 
electronic disability process--eDIB--as a means to improving the 
timeliness of and efficiency associated with disability decision. How 
much funding is included in the fiscal year 2006 request to support the 
eDIB? In several recent reports, GAO has raised concerns about the 
cost-benefit analysis, risk assessment and mitigation, and 
implementation plan for this initiative. Given the difficulties 
experienced in previous attempts to improve this process, what 
contingencies are in place to deal with challenges in implementing 
eDIB? Specifically, what resources are available and supports in places 
to deal with any potential implementation challenges?
    Answer. SSA has requested approximately $50 million in fiscal year 
2006 for information technology (IT) hardware/software services, as 
well as internal IT staff to support eDib.
    The most important thing to note is that eDib functionality was 
implemented by January 2004 and has been working effectively since that 
time. This includes the Internet Disability Report, the Electronic 
Disability . . . Collect System (EDCS), new hardware and software for 
the State legacy systems, the Document Management Architecture (DMA), 
and the Office of Hearings and Appeals (OHA) Case Process Management 
System (CPMS). We are well on our way to the completion of the eDib 
rollout to all of the Social Security and State offices.
    SSA has put many controls and resources into the process to assure 
our success as we implement these features, as we build upon them, and 
as we continue to roll-out full electronic folder capability across the 
nation to all components involved in processing the disability 
workload. This includes regular high level monitoring of the project 
status. There is frequent contact among all of the SSA components 
involved in eDib including staff from systems, policy and operations. 
SSA also deploys policy, systems, workflow, and usability experts to 
field offices, Disability Determination Service (DDS) offices, OHA 
offices, and Office of Quality Assurance (OQA) sites to learn first-
hand about the issues faced by staff working with the eDib applications 
and works to resolve any problems quickly.
    In addition, SSA is conducting an Independence Day Assessment (IDA) 
before moving a DDS, OHA, or OQA office to a fully electronic process 
(i.e., new cases can be processed in the electronic folder with no new 
paper folder created). This assessment ensures that everything is 
working properly before going fully electronic by validating the 
business process, the systems functionality, and other processes and 
procedures. The assessment also makes sure the electronic folder meets 
all documentation standards set forth by SSA and the National Archives 
and Records Administration (NARA).
    SSA has assigned an ``integrator'' for each State. The integrator 
is responsible for tracking the progress of testing and implementation 
in each State and is the single point of contact for the DDS should 
they encounter issues. The integrator is responsible for identifying 
the component/person that can address and resolve each issue. This has 
proven to be a very successful model for eDib implementation. In 
addition, each DDS receives onsite support by their legacy system 
vendor and SSA Systems staff during testing and training, as well as 
during the first week of production.
    We have placed a strong focus on risk management. We hired a 
contractor to work with our Project managers to develop Risk Management 
Plans for each of the major eDib projects. We have assigned each of the 
risks to the appropriate Project Managers for their use in addressing 
the risks. Our contractor updates these plans with the Project Managers 
to assure continued monitoring and mitigation of risks.

                      DISABILITY REDESIGN PROCESS

    Question. According to SSA's service delivery assessment of the 
disability process completed in 2002, persons pursuing their disability 
claims through all levels of Agency appeal wait an average of 1,153 
days for that final decision. Due to backlogs, cases that go through 
all levels of appeal spend nearly 50 percent of the time (535 days) 
waiting for SSA action. Commissioner, you have proposed an ambitious 
redesign concept for the disability determination process, and also 
have established a date of January 2006 as the earliest major changes 
in the disability determination process may become effective. 
Improvements to this process are needed, as the current process takes 
too long. What process will you follow for making final decisions about 
the redesign plan and what is the timeline for making those decisions? 
How much funding is proposed in the FY'06 budget associated with 
redesign implementation (OB) and what redesign activities do they 
support?
    Answer. Improving the disability process is one of my highest 
priorities as Commissioner. I am close to making the final decisions 
that will convert my new approach for improving disability 
determinations into a proposed regulation which will provide the right 
decision as early in the process as possible and create work 
opportunities for people with disabilities.
    When I announced my new approach, I stressed that the changes 
envisioned were predicated on successful implementation of our 
electronic disability system (which we call eDib) and that it was 
critically important to listen to the ideas of all interested parties 
as we developed the disability determination improvements.
    I am pleased to report that our State-by-State roll out of eDib is 
on track. All of our field offices across the nation are now using the 
Electronic Disability Collect System (EDCS) that initially creates the 
electronic folder. This system was implemented at the first State 
Agency Disability Determination Services (DDS) in January 2004, and 
additional DDSs have continued to implement eDib ever since. Currently, 
eDib has been rolled out in all States except North Dakota, Alaska, 
Nebraska, New York and Washington, DC. With the exception of New York, 
all remaining States will be rolled out by the end of June 2005. At the 
same time, our Office of Hearings and Appeals (OHA) has begun using the 
new Case Processing and Management System (CPMS), which is a new 
software for processing cases and managing OHA office workloads. CPMS 
will enable OHA to work with the electronic file.
    In view of the complexity and importance of the disability 
programs, my second strategy, having an open process, has been 
invaluable in my decision making. Last year, I launched a massive 
outreach effort to obtain and give thoughtful consideration to all 
comments on the current system and our proposed improvements. I created 
the Disability Service Improvement Staff within my immediate office to 
coordinate this effort and I have been taking a personal role in 
listening to those involved and interested in the disability process. I 
have personally participated in more than 60 meetings with more than 40 
organizations--both within SSA and outside of the Agency. As I have 
been making decisions, I have carefully considered hundreds of views 
and suggestions received from the Congress, the general public, and 
many public and private sector groups and individuals.
    With respect to fiscal year 2006 funding, I anticipate that our 
plan to roll out the new process region by region will enable us to 
implement these improvements without seeking additional resources 
beyond those the President requested for SSA from the Congress for 
fiscal year 2006.

                        SPECIAL DISABILITY CASES

    Question. The Subcommittee is aware that SSA's latest plan is to 
complete the entire review of the special disability cases by 2010. 
What specifically is the Agency's plan for accomplishing this goal and 
how much funding will be required to review all of these cases?
    Answer. As of fiscal year 2004, we have processed 96,600 cases of 
the estimated 300,000 individuals eligible for Supplemental Security 
Income (SSI) who are also entitled to (but not receiving) Social 
Security Disability Insurance benefits. In fiscal year 2005, we plan to 
process 30,500 cases at a cost of $78 million. The fiscal year 2006 
budget includes $79 million for the processing of 30,600 special 
disability cases.
    Through fiscal year 2004, SSA spent approximately $175 million on 
the processing of Special Disability cases. Assuming full funding of 
the President's fiscal year 2006 budget request, as well as sufficient 
funding in future years to support continued processing of this 
workload, we expect to complete case processing by September 2010 at an 
administrative cost of about $630 million.

                                  CDRS

    Question. The Subcommittee notes that one of the Agency's Long-Term 
Outcomes under its Stewardship goal is to remain current with 
Disability Insurance CDRs and to regain currency with SSI CDRs. What 
are the performance outcomes the Agency needs to achieve during the 
years fiscal year 2005 through fiscal year 2009 to meet this long-term 
outcome measure? What is SSA's plan for meeting this goal? What best 
practices did SSA develop during the period when Congress provided 
special funding that are being applied to the process currently that 
will ensure the most cost-effective expenditure of LAE resources? How 
will the Agency determine an appropriate balance between Continuing 
Disability Reviews processed through mailers and those cases requiring 
a full medical review?
    Answer. To remain current in Title II CDRs and achieve currency in 
Title XVI CDRs by the end of fiscal year 2009, SSA would need to 
process over 7.5 million CDRs, including those that will come due 
during the period fiscal year 2006-fiscal year 2009 and CDRs that we 
have been unable to initiate through fiscal year 2005 because of 
funding limitations. While we are updating our CDR plan to reflect more 
current information, including the latest projections of initial 
disability claims receipts, we do not believe that we will be able to 
achieve Title XVI currency until after fiscal year 2009.
    The President's fiscal year 2006 budget includes budget enforcement 
legislation that would place caps on net discretionary budget authority 
and outlays. The legislation would permit adjustments to these caps for 
spending above a base level for several government-wide program 
integrity activities, including SSA's CDRs. The amount of the 
adjustment for CDRs is $189 million, which means if the President's 
proposal is enacted, $189 million of SSA's budget request would not be 
counted towards the overall cap on discretionary budget authority.
    Congress provided SSA with special funding for CDRs, outside the 
discretionary budget caps, from fiscal year 1996 through fiscal year 
2002. During this period and continuing, SSA has worked continuously to 
improve the efficiency and effectiveness of the CDR program. The 
results are borne out by the following passage from SSA's most recent 
Annual Report to Congress on CDRs covering fiscal year 2003:

    ``SSA's CDR process has consistently yielded a favorable ratio of 
savings to costs in the Disability Insurance (DI) program. Prior to the 
implementation of the current process for case selection, it was 
estimated that we were achieving $3 in DI program savings for each $1 
in administrative costs invested in full medical CDRs. The addition of 
the mailer process beginning in 1993 was estimated to result in a 
doubling of this ratio to approximately $6 to $1.
    ``Actual results to-date for the period during which supplemental 
administrative funding has been available have been even better than 
anticipated. During this period, the number of cases processed has 
expanded significantly, especially in the review of SSI cases. This 
expanded process has yielded savings-to-cost ratios for the seven 
fiscal years 1996-2002 averaging roughly $10.3 to $1.''----From SSA's 
Annual Report of Continuing Disability Reviews, fiscal year 2003; 
published October 27, 2004.

    The breakthrough innovation was the implementation of a statistical 
profiling/mailer process in 1993 which permitted SSA to reliably 
identify large cohorts of beneficiaries with a low probability of 
cessation due to medical improvement for whom the expensive full 
medical review process is not required. The CDR statistical scoring 
models are a series of mathematical formulas designed to predict the 
likelihood of medical improvement for each Retirement Survivors 
Disability Insurance (RSDI) beneficiary and SSI adult recipient. Based 
on the scores generated by these models and a statistical threshold 
which determines whether a mailer or full medical examination would be 
the most cost effective type of review to perform, cases scoring below 
the threshold are targeted for CDR mailers, and those scoring at or 
above the threshold are targeted for full medical reviews.
    During the early years of the special funding we focused primarily 
on improving internal systems and operational processes needed to 
reliably control and track more than a million reviews annually. SSA 
engaged a statistical contractor in fiscal year 2000 to improve the 
performance of the statistical modeling. Since then, the contractor has 
updated and expanded the data and mathematical formulas upon which the 
statistical scoring is based.
    SSA has been able to implement several processing improvements 
based on research findings by our statistical contractor. Since fiscal 
year 2002, SSA has been able to use the profiling/mailer process to 
identify RSDI disabled workers with a statistical model score 
signifying ``medium'' probability of medical improvement who do not 
require a full medical review. The process was extended to SSI disabled 
adult beneficiaries in fiscal year 2005. In fiscal year 2003, we were 
able to apply Medicare usage data to identify additional RSDI disabled 
workers with a low or medium probability of medical improvement. 
Altogether since fiscal year 2002, these innovations have avoided well 
over 500,000 full medical reviews, more than $300 million in 
administrative costs, and significantly reduced unnecessary burden on 
our most severely disabled beneficiaries.
    We continuously monitor the performance of the statistical models 
and can readily make enhancements that are suggested. In addition, the 
models have been scrutinized by several teams of auditors and found to 
be accurate and reliable. And, together with our statistical 
contractor, we continue to look for additional processing efficiencies 
that can be implemented in the future.
    With respect to determining the appropriate balance between CDRs 
processed through mailers and those performed as full medical reviews, 
this decision is determined through the CDR statistical scoring models. 
For cases with medical re-examinations due to be scheduled in the 
particular fiscal year, we begin releasing CDR mailers and full medical 
reviews at the start of the fiscal year, and continue the release 
process throughout the year, with the goal of releasing all cases due 
for a CDR in that year.

                             TICKET TO WORK

    Question. According to the ``Justification of Estimates for 
Appropriations Committees'' for the fiscal year 2006 budget request, 
the Ticket to Work Program will be expanded to all States and U.S. 
Territories by September 2004. Specifically, how much funding is 
available within the fiscal year 2006 request for the Limitation for 
Administrative Expenses account to support implementation of the Ticket 
to Work program and what activities are supported? How much funding 
from other sources within the fiscal year 2006 budget request support 
the program?
    Answer. The administrative budget for fiscal year 2006 includes 
$39.4 million for Return to Work activities. This funding is for 
Benefits Planning and Assistance Cooperative Agreements ($23 million), 
Protection and Advocacy grants ($7 million), and the Program Manager 
Contract ($9.4 million).
    The following chart summarizes other objects administrative costs 
of the Ticket to Work program by major category:

                             RETURN TO WORK
                        [In millions of dollars]
------------------------------------------------------------------------
                                                       Fiscal year
                                               -------------------------
                                                    2005     2006 budget
                                                  estimate    submission
------------------------------------------------------------------------
Benefits Planning & Assistance Cooperative             23.0         23.0
 Agreements (including training and technical
 assistance)..................................
Protection & Advocacy Grants..................          7.0          7.0
Program Manager Contract......................      \1\ 6.9          9.4
                                               -------------------------
      Total...................................         36.9        39.4
------------------------------------------------------------------------
\1\ The fiscal year 2005 contract is only for nine months. The contract
  is being re-competed for fiscal year 2006. The President's budget
  estimates $9.4 million for fiscal year 2006, the same as the full year
  cost for fiscal year 2004.

    Benefits Planning and Assistance and Cooperative (BPAO) Agreements 
are intended to ensure that community based benefits planning and 
assistance outreach services are available across the United States and 
its territories. The law authorized $23 million to be appropriated each 
year and the Social Security Protection Act of 2004 (Public Law 108-
203) extended this authorization through 2009.
    The Protection and Advocacy (P&A) grants are used to provide advice 
to beneficiaries and to provide an avenue for resolving disputes. The 
Social Security Protection Act of 2004 also extended authorization to 
provide funding for P&A grants through fiscal year 2009. The budget 
continues funding of $7 million for P&A grants in fiscal year 2005 and 
fiscal year 2006.
    The Program Manager Contract provides funds to an outside 
contractor to help SSA manage the Ticket to Work program. The contract 
will be re-competed and the required funding has been estimated to be 
$9.4 million for fiscal year 2006.
    The budget also includes program funding to cover outcome and 
milestone payments made to Employment Networks (ENs) under the Ticket 
to Work program. State Vocational Rehabilitation (VR) agencies have the 
option, on a case-by-case basis, to elect to be paid under the 
reimbursement payment system or as an EN. The Beneficiary Services 
Budget for fiscal year 2006 includes $262 million to cover 
reimbursement payments to VR agencies and Ticket payments to ENs (see 
chart).
    The chart below summarizes the estimated Beneficiary Services 
payments:

                                          BENEFICIARY SERVICES PAYMENTS
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                        OASDI                      SSI
                                                             ---------------------------------------------------
                                                                     Fiscal year               Fiscal year
                                                             ---------------------------------------------------
                                                                  2005         2006         2005         2006
----------------------------------------------------------------------------------------------------------------
Reimbursement Payments (VR).................................           80          104           52           67
Ticket Payments (EN)........................................           25           54           25           37
                                                             ---------------------------------------------------
      Total Payments........................................          105          158           77          104
----------------------------------------------------------------------------------------------------------------

                      DISABILITY PROGRAM NAVIGATOR

    Question. How has SSA collaborated with other federal agencies and 
partners to increase the work opportunities of individuals receiving 
Social Security and SSI disability payments and what resources are 
included within the fiscal year 2006 budget request to carry out such 
activities? Specifically, what has been the experience in increasing 
work opportunities through the Disability Program Navigator housed in 
One Stop Centers and the Area Work Incentive Coordinators? Why is 
funding for the Disability Program Navigator position being 
discontinued in 2005?
    Answer. On September 30, 2002, SSA and DOL entered into an 
interagency agreement to jointly fund a two-year pilot and evaluation 
of a new position within the One-Stop Career Center system, the 
Disability Program Navigator (DPN). This funding, in the form of 
cooperative agreements, was distributed to 14 States in fiscal year 
2003. A primary objective of the Navigator is to increase employment 
and self-sufficiency for individuals with disabilities by linking them 
to employers and by facilitating access to programs and services that 
will enable their entry or reentry into the workforce.
    SSA and DOL funded the DPN's for a second year which will support 
the project through June 2005. During the second year of this joint 
initiative, Navigators experienced increased activity in the area of 
relationship building within the One-Stop Center as well as with 
employers, Vocational Rehabilitation agencies, Benefit Planning, 
Assistance and Outreach (BPAO) providers, and SSA Area Work Incentive 
Coordinators (AWIC). Evaluation survey data is currently being 
collected and, based on the results, SSA will make a decision regarding 
funding for an additional year.
    The SSA AWICs are the Agency focal point for public information 
outreach and education efforts for the Ticket to Work program. The 
fifty-five nationwide AWICs work closely with the external Ticket to 
Work partners, such as Protection and Advocacy representatives, BPAO 
representatives, Employment Networks (ENs), Disability Program 
Navigators, Vocational Rehabilitation and other disability advocates. 
In some regions AWICs are included in regional training events with the 
BPAOs and have partnered with Maximus to provide training to the ENs. 
AWICs, Plan for Achieving Self-Support (PASS) specialists and SSA 
regional office staff participate in the training and refresher 
training sessions.
    In addition, SSA has entered into a number of interagency 
agreements and cooperative agreements which are focused on increasing 
work opportunities for individuals receiving disability benefits.
    SSA has entered into a $100,000 interagency agreement with HHS' 
Office of the Assistant Secretary for Planning and Evaluation (ASPE) to 
subcontract the evaluation of the Florida Freedom Initiative (FFI). The 
FFI is an expansion of a Real Choice Systems Change grant from the 
Centers for Medicare and Medicaid Services (CMS), which is targeted to 
a subpopulation of participants in the section 1115 waiver 
demonstration called Consumer-Directed Care Plus. This subpopulation 
consists of adults with mental retardation/developmental disabilities. 
In addition to the financial commitment to the evaluation of the FFI, 
SSA will be waiving certain SSI and SSDI program rules for FFI 
participants to test whether the combination of Social Security and CMS 
waivers fosters greater self-sufficiency among demonstration 
participants.
    SSA's Youth Transition Demonstration (YTD) consists of seven 
cooperative agreements in six States (California, Colorado, Iowa, 
Maryland, Mississippi, and New York). The goal of these cooperative 
agreements is to find more effective ways to enable youth who receive 
SSI and SSDI as well as those who are at risk of receiving these 
benefits, to transition successfully to work or post-secondary 
education and ultimately to maximize their economic self-sufficiency. 
These seven cooperative agreements were awarded September 30, 2003 for 
up to five years. The latest budget estimate for fiscal year 2006 
includes $11.8 million for funding the demonstration projects, 
evaluation and technical assistance. These partners are collaborating 
at the State level with the Vocational Rehabilitation Services, 
Department of Education, Department of Labor One Stop Centers as well 
as other State and local agencies.
    Since 2001, SSA has been working under an Interagency Agreement 
with DOL's Office of Disability Employment Policy (ODEP) to promote 
SSA's Ticket to Work Program within DOL's ``Employer Assistance 
Referral Network'' (EARN). DOL has incorporated Ticket to Work into a 
specialized unit of EARN called ``Ticket to Hire'' (TTH). EARN's 
primary purpose is to provide employers with a one-stop service to help 
them locate and recruit skilled candidates with disabilities for jobs. 
TTH matches employers' job openings with qualified, job-ready 
candidates from the Ticket to Work Program. Presently, there is 
$600,000 budgeted for the continuation of this Interagency Agreement 
for fiscal year 2006.

                              OHA HEARINGS

    Question. Over the period fiscal year 2000-fiscal year 2004, the 
number of social security hearings pending have increased by 90 percent 
to more than 590,000, despite an increase in agency resources from $6.6 
billion to $8.3 billion, or almost 26 percent. Pending hearings grew by 
nearly 80,000 during the last fiscal year and the average processing 
time increased by almost 14 percent, despite the provision of 
additional staff support to OHA and the hiring of 103 administrative 
law judges. Please provide a breakout of Office of Hearings and Appeal 
resources (dollars and staffing) over this period. What accounted for 
this growth in backlogs, despite increasing agency resources? What 
actions are underway or planned in fiscal year 2005 and fiscal year 
2006 to ensure more timely dispositions and more cost-effective 
expenditure of agency resources?
    Answer. The inability to hire ALJs between fiscal year 2001 and 
fiscal year 2004 resulted in increased cases pending, even though we 
were able to hire 103 ALJs in fiscal year 2004. This ALJ shortage, 
along with a 14 percent increase in case receipts during the same time 
period, has also increased processing time. OHA has hired an additional 
100 ALJs during fiscal year 2005, and anticipates hiring additional 
ALJs during fiscal year 2006 which will, when these ALJs are fully 
trained, facilitate case processing. Other actions being implemented to 
decrease processing time include the:
  --development of File Assembly Units for assembling files for 
        hearings;
  --establishment of a Centralized Screening Unit which reviews and 
        prepares cases for potential On-The-Record Decisions;
  --implementation of various initiatives at the hearing level to 
        expedite the issuance of decisions. These include the 
        following: screening cases for on-the-record allowances; 
        issuance of fully favorable decision by the ALJ at the hearing 
        (bench decisions); providing an easily prepared decision format 
        for ALJ's to prepare decision findings; and
  --electronic developments such as eDib, the Digital Recording 
        Acquisition Program and the Case Processing Management System 
        (CPMS), are expected to expedite case processing and tracking.
    Despite not receiving the full President's budget request for the 
last two fiscal years, my Service Delivery Budget goal is to eliminate 
the hearings pending backlog by 2010. To achieve this, we need the 
Committee's support, including full funding for the President's budget 
request of $9.403 billion for SSA's administrative expenses.
    The breakout of OHA's resources (dollars and staffing) over the 
period covering fiscal year 2001 through fiscal year 2004 is as 
follows:

                          [Dollars in millions]
------------------------------------------------------------------------
                     Year                        Workyears      Amount
------------------------------------------------------------------------
2001..........................................        7,945       $692.8
2002..........................................        8,049        751.1
2003..........................................        7,903        815.7
2004..........................................        8,204        867.0
------------------------------------------------------------------------

                              hiring aljs
    Question. What is SSA's plan for hiring Administrative Law Judges 
in fiscal year 2005 and fiscal year 2006? How does the fiscal year 2006 
budget request support continued improvement in Administrative Law 
Judge productivity, one way to help reduce the growing average 
processing time for hearings, which is up 31 percent from fiscal year 
2000 to fiscal year 2004? The Committee is aware of the more than 100 
day decrease in average processing time for hearings associated with 
the use of the video teleconferencing capability. What are the savings 
associated with the expansion of these facilities proposed in the 
fiscal year 2006 budget request?
    Answer. OHA hired 100 ALJs for fiscal year 2005 and plans to hire 
additional ALJs in fiscal year 2006 depending on the level of funding 
available. After the nine-month learning curve, we expect that the 
increase in ALJ resources will help reduce the hearings backlog, and as 
a result, reduce the average processing time.
    Including the 80 additional sites installed this fiscal year, there 
now are a total of 240 video teleconferencing sites in operation. We 
have conducted nearly 12,000 video hearings this fiscal year through 
April compared to 4,000 through April of fiscal year 2004. Video 
hearing usage contributes to ALJ productivity improvements because 
fewer hearings are postponed, ALJ travel is decreased, and expert 
resources are more accessible.

                OHA'S CASE PROCESSING MANAGEMENT SYSTEM

    Question. The new Office of Hearings and Appeals Case Processing 
Management System was scheduled to be completed by September 2004. What 
training resources are being expended to support its successful 
implementation? What does the fiscal year 2006 budget assume about 
savings related to this new system in fiscal year 2005 and fiscal year 
2006?
    Answer. The Case Processing Management System (CPMS) conversion 
began in May 2004 and was completed in August 2004. The following 
training resources supported successful implementation of the Case 
Processing Management System (CPMS):
  --CPMS training began in April 2004 and ended in July 2004;
  --CPMS training took place ``onsite'' at each hearing office (HO);
  --CPMS training was performed over a 40-hour week;
  --Training was broken into several categories, general training for 
        all staff then job specific training for each job type;
  --The on-site trainers were in the HO to help with the conversion of 
        all Hearing Office Tracking Systems data to CPMS;
  --The trainers remained onsite the week after training to address any 
        CPMS issues that arose; and
  --Further support has been provided after the training was completed:
    --A CPMS help desk in Falls Church is now maintained full-time;
    --CPMS training manuals have been made available on the OHA's 
            website;
    --CPMS training material is on the OHA Website;
    --Continual updates are made to the training materials on the 
            website;
    --Net meetings are conducted with HO's on the use of CPMS; and
    --A series of three Interactive Video Teletraining sessions on the 
            use of CPMS were completed in March 2004.
    No specific savings were associated with implementation of CPMS. 
However, the system is an essential element for implementation of the 
electronic folder process at the hearings level and will assist us in 
our plan to achieve an annual productivity improvement of 2 percent.

                      ELECTRONIC SERVICE DELIVERY

    Question. Given the focus SSA has placed on electronic service 
delivery as a means of providing appropriate service to growing 
workloads, how is the agency monitoring electronic service delivery use 
and experience to alter and build its electronic service delivery 
infrastructure in a secure and user-friendly way?
    Answer. E-Government services within SSA are maturing as a service 
delivery alternative to face-to-face contact, mail, and telephone. 
Substantial investments in infrastructure have been made with the 
expectation that electronic services will continue to grow and become a 
viable, efficient channel for the delivery of SSA's services. In fiscal 
year 2004, over 611,000 electronic entitlement and supporting actions, 
i.e., applications, Medicare replacement cards, change of address, 
etc., were processed. This represents an increase of 179 percent over 
the fiscal year 2002 baseline.
    Electronic services are monitored using management information 
data. This data is analyzed to identify usage trends and to determine 
the level of resources required for these workloads. Customer feedback 
using email, surveys and telephone calls are additional ways to monitor 
usage.

Customer Feedback
  --We have general feedback mechanisms on most web-pages that allow 
        customers to send us their comments or complaints via email.
  --Some on-line applications on the SSA web site also allow general 
        customer feedback through the use of surveys. In addition, SSA 
        has incorporated several American Customer Satisfaction Index 
        (ACSI) surveys on its web site. Sponsored by the Department of 
        the Treasury's Federal Consulting Group, ACSI surveys use a 
        standardized set of questions to measure user satisfaction.
  --SSA's Office of Quality Assurance uses telephone surveys to measure 
        customer satisfaction with the Agency's programs, including 
        services available from the web site.
  --SSA subscribes to demographic data services that allow us to 
        identify who is visiting the SSA site, from where, how long 
        they stay, how many pages they visit, etc. This data helps us 
        identify both popular and problem pages/services on the web 
        site, and to focus marketing of the web site and its services.
    Question. What new electronic services will be supported by the 
fiscal year 2006 budget and how will current services be improved to 
enhance user experience and Agency efficiency?
    Answer. The following services will be supported:
  --SSA's Internet Change of Address application has been enhanced to 
        allow access through Knowledge Based Authentication in addition 
        to the pin/password access.
  --Speech technology provides citizens with the option to use 
        automated telephone applications on the National 800 Number 
        Network to access claims, benefits and related programmatic 
        information.
  --Last year, we completed speech-enabled automation of the 
        transcription process over the National 800 Number Network. 
        Prior to this conversion, callers left a message which was 
        manually transcribed by SSA employees. Now callers hear a 
        message confirming that their request was received and is being 
        processed. If the request was not successful, the caller is 
        directed to an agent for assistance.
  --SSA's Electronic Wage Reporting initiative encourages employers to 
        report their employees' wages electronically rather than via 
        paper, magnetic tape or diskettes/CD ROMs. SSA offers online 
        assistance and staffs an Employer 800 Number to provide 
        information and technical support to employers. At least 70 
        percent of all W-2s will be filed electronically in fiscal year 
        2006, resulting in WY savings for the Agency and in more 
        accurate, timely postings to the Master Earnings File.
  --The Electronic Special Redetermination Mailer is an approved 
        project in the Agency IT Systems Plan fiscal year 2005-2006. 
        Under this project, High Error Profile (HEP) redeterminations 
        will be processed using a new, expanded redetermination mailer 
        that will be scanned in the Office of Earnings Operations 
        (OEO). Mailer responses will be extracted electronically and 
        compared to the Supplemental Security Record, and decision 
        logic will be applied which clears cases or refers them for 
        manual review/exception resolution in OEO or the Field Offices. 
        Testing of the electronic special mailer is planned for April 
        2006 with implementation by October 2006.
  --Social Security Number Verification Service (SSNVS) was recently 
        approved by OMB. SSA plans to begin implementation in June 
        2005, with full nationwide implementation in October 2005. 
        Employers who previously called the Employer 800 Number to 
        verify employee SSNs will be able to obtain that confirmation 
        via the Internet, instead. SSA plans extensive marketing of 
        electronic SSNVS, which is expected to reduce SSN verification 
        calls to the Employer 800 Number, verifications requested by 
        tape/diskette, and the processing of paper listings.
  --Electronic Freedom of Information Act (EFOIA) is expected to expand 
        the use of the Internet to provide faster and better access to 
        Government services and Information. The EFOIA system will 
        employ technology that will automate SSA's internal FOIA 
        processes to substantially reduce the FOIA processing time and 
        allow us to respond to citizens within the legally required 20-
        day timeframe. The new system will accept electronic credit 
        card payments and respond to requests via aggressive use of the 
        Internet. EFOIA is expected to reduce the OEO unit time for 
        FOIA actions by 20 percent effective with fiscal year 2006.
  --The Microfilm/Microfiche Replacement Project was approved by the 
        Information Technology Advisory Board in fiscal year 2004 after 
        evaluation of Proof of Concept (POC) results. The processes SSA 
        has used to produce, store, and access microfilm/fiche data 
        have been among its most labor-intensive and costly. 
        Microfilming technology is outdated and increasingly difficult 
        to maintain. Online access by Operations employees from their 
        workstations will enable SSA to process related workloads on a 
        timely basis and ensure both the availability and integrity of 
        SSA's databases. Based on POC results, the unit time required 
        for employees in the PSCs, ODIO and OEO to access data will 
        decrease from an average of 12 minutes to an average of 2 
        minutes.
  --W-2C Online will continue to decrease the volume of W-2 corrections 
        received in OEO for manual processing (examination, data entry/
        balancing, microfilming, etc.).
  --As part of the e-Authentication initiative of the Presidential E-
        Government Initiatives, SSA has signed a Memorandum of 
        Understanding with GSA to implement the federated 
        authentication architecture with several SSA applications 
        through fiscal year 2006. The federated authentication 
        architecture will allow SSA to use the authentication of an 
        online customer by a trusted partner (e.g., a financial 
        institution whose authentication process has been certified by 
        GSA) to conduct business online. The federated authentication 
        architecture offers the potential for millions of online 
        customers of banks and other financial institutions to use 
        their existing pin/passwords to gain secure access to SSA 
        electronic applications, improving and simplifying user access 
        to our electronic applications without SSA (or any other 
        government agency) having to establish or maintain pin/
        passwords.
  --Development of the electronic folder to replace the paper 
        disability folder will continue with processes to speed the 
        request and retrieval of electronic evidence from medical, 
        educational, and other third parties.
  --SSA is studying ways to enhance the claims process to incorporate 
        secure messaging with claimants as an alternative communication 
        approach to the more-expensive telephone and in-person 
        channels.
    Question. What specific activities are supported in the fiscal year 
2006 budget to promote the use of electronic services to employers, 
covered workers and current recipients/beneficiaries?
    Answer. Through our network of field office managers and Public 
Affairs Specialists, we conduct ongoing outreach to raise awareness of 
online services and to encourage their use. Each year, working in their 
local communities, these professionals deliver speeches, submit 
newspaper articles, conduct workshops, lead seminars, and conduct radio 
and television interviews on all aspects of Social Security's programs, 
including the benefits of doing business with us online. We include 
information about our online services in all our Social Security 
publications, including the Social Security Statement, which we send to 
all workers age 25 and older.
    We also use a variety of other tools tailored to specific target 
audiences, as follows:

General Public
  --An Online Services Marketing Kit, which includes:
    --A Fact Sheet (also available in Spanish);
    --Links to Special Places, a one-page handout that lists webpages 
            such as the Glossary, the Immigration page, Most Popular 
            Baby Names--items that draw people of all ages and 
            ethnicities to the site;
    --A tri-fold leaflet, Apply Online for Social Security Benefits, 
            that answers questions about our online retirement 
            application;
    --A one-page ``URL Handout'' that provides addresses for the online 
            retirement application, the Social Security Statement page, 
            the Benefit Planners and Social Security card information; 
            and
    --An Internet bookmark
  --800 Number on-hold messages promoting online services
  --Partnerships with local libraries to distribute Social Security 
        Online bookmarks and conduct educational seminars

Third Parties With Clients Applying for Disability Benefits
  --PowerPoint overview of the i3368PRO (Internet Adult Disability and 
        Work History Report)
  --Instructional CD containing examples of the i3368PRO online 
        application screens
  --``eColleague letters'' (email messages that formerly were paper-
        based ``Dear Colleague'' letters) to national organizations 
        (advocates, attorneys, social service agencies, etc.)
  --Webpage www.socialsecurity.gov/i3368prohelp that provides 
        background information, helpful tips, etc.

Covered workers
  --Cost-of-Living Adjustment (COLA) notices sent to all beneficiaries 
        in January each year inviting them to visit 
        www.socialsecurity.gov
  --Panel on homepage promoting online retirement application
  --Door signs that show office hours and encourage visitors to do 
        business online
  --Posters, tent cards, leaflets
  --PowerPoint presentations
  --PowerPoint overview of the i3368 (Internet Adult Disability and 
        Work History Report)
  --Instructional CD containing examples of the online application 
        screens
  --Draft redesign of Baby Names page to promote online retirement 
        planners and calculators
  --800 Number on-hold messages promoting online services

Current recipients/beneficiaries
  --Change of Address:
    --Articles for local news outlets, organizations' house organs, 
            etc.
    --Correspondence with people who wrote to the Commissioner, the 
            Congress, or the White House
    --Fact Sheet
    --Partnership with USPS to place a link to SSA from their homepage
  --Direct Deposit:
    --Partner with Fidelity to allow their online customers to set up 
            direct deposit of their Social Security benefits into an 
            eligible account
  --800 Number on-hold messages promoting all online services

Employers
  --Articles in SSA/IRS Reporter
  --Electronic Wage Reporting CD
  --Posters, pamphlets, fact sheets
  --Inserts for inclusion in IRS correspondence with employers
  --Seminars at national conferences, such as the IRS Tax Forums the 
        American Payroll Association and the National Restaurant 
        Association to promote online wage reporting and filing for 
        retirement online
  --Partnerships with Chambers of Commerce across the country to 
        encourage small business owners to file their wage reports 
        online
  --Partnerships with Human Resource Managers including the Society of 
        Human Resource Managers to encourage their employees to file 
        for retirement online
  --CD for Human Resource Managers promoting online retirement and 
        providing useful tips
  --Screen calendars (calendar strips that people affix to their 
        computer monitors)
  --Survey of non-electronic filers to identify (and help us overcome) 
        barriers to online wage reporting
  --Website covering all aspects of online wage reporting
  --Toll-free call center specifically for employers with wage 
        reporting issues
  --W2News e-mail specifically for employers discussing wage reporting 
        issues
    Question. How much savings does SSA expect through its electronic 
service delivery initiative in fiscal year 2005 and over the period 
fiscal year 2004-fiscal year 2007?
    Answer. Although savings have not been specifically identified for 
most of these initiatives, we expect that the efficiencies gained 
through implementation and expansion of these efforts will be an 
essential element in our ability to reach a goal of a 2 percent annual 
improvement in productivity.

                 BI-PARTISAN SOLVENCY EDUCATION PROGRAM

    Question. Please provide the Subcommittee with additional 
information related to the proposed bi-partisan solvency education 
program. What resources are requested within the fiscal year 2006 
budget for these activities? How does this planned level of expenditure 
compare with fiscal years 1999-2004?
    Answer. Among the many services provided by the Social Security 
Administration is educating the American public about the programs and 
finances of Social Security. One of the stated objectives in our Agency 
Strategic Plan is: ``Through education and research efforts, support 
reforms to ensure sustainable solvency and more responsive retirement 
and disability programs.'' No specific amount was included in SSA's 
fiscal year 2006 budget request for solvency education. As in prior 
years, this effort is part of the ongoing educational program conducted 
by SSA to educate the public about the Social Security program, 
including the financing challenges facing them, through our ongoing 
communication efforts. As the national discussion continues on how best 
to strengthen Social Security for the future, we will work to continue 
to ensure that policymakers and the public have the information needed 
to assess the implications of all proposals under consideration.
    Messages about the current status of the Trust Funds, as described 
in the Annual Report of the Board of Trustees of the Federal Old-Age 
and Survivors Insurance and Disability Insurance Trust Funds are 
included in a number of our public information resources, including:
  --On our website--www.socialsecurity.gov;
  --In our publications--``The Future of Social Security'' and 
        ``Understanding The Benefits'' pamphlets;
  --In the annual Social Security Statement mailed to all workers age 
        25 and older not currently receiving benefits; and
  --When appropriate, as part of the presentation by our Agency 
        communicators when speaking to groups and organizations.

                        SOCIAL SECURITY EARNINGS

    Question. Each year approximately nine million wage records cannot 
be reconciled due to a mismatch associated with the name or Social 
Security Number of a person. According to the Inspector General of the 
Social Security Administration, as of July 2002, the Earnings Suspense 
File contained 236 million wage items totaling roughly $374 billion. Of 
these amounts, roughly 80 million items worth $13 billion are more than 
30 years old. What activities are proposed in the fiscal year 2006 
budget to update the records of wage earners whose current or future 
social security benefits would be lower than provided under current law 
due to processing mismatches? What steps are being taken to ensure that 
earnings are posted to the correct social security number upon initial 
submission and how does the fiscal year 2006 budget support these 
actions?
    Answer. In fiscal year 2003, SSA began developing new matching 
software to associate earnings items in the Earnings Suspense File 
(ESF) with the correct individual master earnings file. The new 
routines use data housed on the ESF, enumeration records, benefit 
records and earnings records to confirm that the correct earnings 
records were identified. In fiscal year 2003 and 2004, SSA removed 
about 10 million items from the ESF and posted them to the correct 
earnings records for tax years 1937 through 2000. In fiscal year 2005, 
we are continuing to expand our new software and are focusing on tax 
year 2001. The improvements will also be used to remove additional ESF 
items for years prior to 2001.
    To prevent future earnings from going into the ESF, SSA works with 
employers to provide tools to allow them to determine if they have a 
name/Social Security number (SSN) mismatch on their payroll records 
prior to sending W-2s to SSA for processing. SSA provides a free 
Employee Verification Service where an employer can verify if a name 
and SSN match. SSA has piloted an Internet-based version of this 
service, the Social Security Number Verification Service (SSNVS). SSA 
anticipates offering this free Internet-based service to all employers.
    SSNVS allows an employer to verify up to ten names/SSNs at a time 
with SSA over the Internet while receiving a response within seconds. 
In addition, an employer may submit a file over the Internet of up to 
250,000 names/SSNs and receive a response on the next business day.

              LEGISLATIVE PROPOSAL--SSI DISABILITY CLAIMS

    Question. The fiscal year 2006 budget request includes a 
legislative proposal that would require SSA to review at least 50 
percent of favorable decisions for adult SSI disability claims before 
starting payments. What are the administrative costs of this proposal 
in fiscal year 2006, and are these costs requested within the LAE 
account? What are the anticipated programmatic savings from this 
proposal?
    Answer. Under current law, SSA reviews at least 50 percent of all 
Title II initial disability allowances made by State agencies on behalf 
of SSA. The budget proposal would apply the same requirement for adult 
disability allowances in the SSI program. When fully phased in, 50 
percent of initial SSI disability allowances would be reviewed.
    The administrative costs in fiscal year 2006 are estimated to be 
about 45 workyears and $6 million which would be absorbed under the LAE 
account if the legislation is enacted.
    The estimated program savings to general revenues of the 
preeffectuation proposal in the budget are about $493 million over 10 
years in the SSI program alone. Additional Medicaid savings from the 
proposal over 10 years are estimated to be about $639 million.

                     SOCIAL SECURITY PROTECTION ACT

    Question. According to the ``Justification of Estimates for 
Appropriations Committees'' for the fiscal year 2006 budget request, 
the LAE account includes resources needed to implement the Social 
Security Protection Act. How much funding is required to implement each 
activity required by the Act?
    Answer. There are fifty-one sections of the SSPA enacted March 2, 
2004. The fiscal year 2006 administrative budget includes $14.7 
million, and 211 workyears (WYs), to fund the following provisions:
  --Expanding numbers of onsite representative payee reviews the Agency 
        will need to conduct under Section 102(b).
  --Processing suspensions of Title II benefits to persons fleeing 
        prosecution, custody, or confinement, and/or those violating 
        probation or parole as provided in Section 203. This section 
        extends fugitive felon provisions currently applied to Title 
        XVI beneficiaries to Title II beneficiaries.
  --Issuing receipts to acknowledge submission of reports of changes in 
        work or earnings status of disabled beneficiaries as provided 
        in Section 202.
    The SSPA also authorizes attorney fees to be paid directly out of 
individuals' retroactive SSI benefits to the same extent and under the 
same processes as currently are in place for deducting attorney fees 
from retroactive OASDI benefits (Section 302). Additionally, it 
requires SSA to test the impact of establishing a fee payment process 
for non-attorney representatives that is similar to the current one for 
attorneys (Section 303).

                       RAILROAD RETIREMENT BOARD

          Prepared Statement of Michael S. Schwartz, Chairman

    Mr. Chairman and Members of the Committee: We are pleased to 
present the following information to support the Railroad Retirement 
Board's (RRB) fiscal year 2006 budget request.
    The RRB administers comprehensive retirement/survivor and 
unemployment/sickness insurance benefit programs for railroad workers 
and their families under the Railroad Retirement and Railroad 
Unemployment Insurance Acts. The RRB also has administrative 
responsibilities under the Social Security Act for certain benefit 
payments and Medicare coverage for railroad workers. During fiscal year 
2004, the RRB paid $9 billion in retirement/survivor benefits to about 
649,000 beneficiaries, and $83 million in unemployment/sickness 
insurance benefits to about 34,000 claimants.
    We are respectfully requesting a total agency budget of 
$103,398,240 in fiscal year 2006. This total includes $102,543,040 for 
ongoing agency operations, which is the same as the amount included in 
the President's proposed budget for the year. In addition, we are 
requesting $855,200 for critical elements of the RRB's Enterprise 
Architecture Capital Asset Plan.

                     ADMINISTRATIVE FUNDING ISSUES

    The President's proposed budget would provide the same level of 
funding for the RRB's administrative expenses in fiscal year 2006 as 
the amount appropriated for fiscal year 2005. To operate at this level, 
RRB staffing has been significantly reduced. Early this fiscal year, 77 
employees were separated from the agency through a program of voluntary 
separation incentives, and since that time, new hiring has been 
severely restricted. The agency's funded staffing level for fiscal year 
2005 is currently 76 full-time equivalent staff years (about 7.3 
percent) lower than fiscal year 2004.
    Continuation of the same funding level from fiscal year 2005 to 
2006 would effectively require the RRB to absorb all fiscal year 2006 
cost increases for the goods and services required to administer the 
railroad retirement/survivor and unemployment/sickness insurance 
benefit programs. These rising costs include the January 2006 pay 
increase for the agency's employees, which would total approximately 
$1.61 million at the currently estimated rate of 2.6 percent.
    Under current law, the cost increases would require further cuts in 
agency staffing, because nearly 80 percent of the RRB's budget is used 
for employees' salaries and benefits. We estimate that the President's 
proposed budget would provide sufficient funding for a staffing level 
of 931 FTE's, which is 41 FTE's less than we expect to use in fiscal 
year 2005. In order to reach this level, we would need to conduct a 
reduction-in-force of about 18 employees at an estimated cost of 
$233,000.

                   NONGOVERNMENTAL DISBURSEMENT AGENT

    The President's proposed budget assumes that the RRB will contract 
with a nongovernmental agent for disbursement services, as provided 
under Section 107(e) of the Railroad Retirement and Survivors' 
Improvement Act of 2001 (Public Law 107-90). However, initial market 
research has indicated that the cost of doing so would be about three 
times the cost of having similar services provided by the Department of 
the Treasury. In addition, our Inspector General has questioned whether 
certain services provided by the Department of the Treasury, such as 
reclamations, would be provided as effectively by a nongovernmental 
disbursement agent.
    We have concluded that outsourcing this function would be 
inconsistent with the President's policy of outsourcing only where the 
government would save costs. For fiscal year 2005, the Congress added 
language to our appropriations bill prohibiting this transfer: Section 
516 of the Departments of Labor, Health and Human Services, and 
Education, and Related Agencies Appropriations Act, 2005 provides that 
none of the funds appropriated under the Act are to be used to contract 
with a nongovernmental disbursement agent. The RRB also submitted 
separate legislation to address this issue during the previous 
Congress, and we plan to again submit legislation on the subject during 
this Congress.
    Current estimates indicate that the cost of contracting with a 
nongovernmental disbursement agent would be in excess of $3 million for 
the first year and $2.3 million in subsequent years. By comparison, the 
annual cost of having these services provided by the Department of the 
Treasury is about $800,000. Enactment of legislation to remove this 
requirement would provide sufficient savings in fiscal year 2006 to 
enable the RRB to cover essential operating costs at the proposed 
budget level.

               ENTERPRISE ARCHITECTURE CAPITAL ASSET PLAN

    Our budget request includes funding for a key element of the RRB's 
Enterprise Architecture Capital Asset Plan, which addresses the major 
initiatives needed to implement the agency's target enterprise 
architecture. This request is highlighted separately because of its 
significance to the long-term, continued viability of agency programs, 
and the realization that movement toward the desired target 
architecture will be a multi-year effort involving special funding 
needs. We are requesting an additional $855,200 in fiscal year 2006 to 
continue with an initiative to convert our processing systems to a 
relational database management system.
    Gartner Consulting recommended that we investigate alternatives for 
our Computer Associates' Integrated Database Management System (IDMS) 
and prepare to actively retire the platform beyond 2006. The RRB's day-
to-day operations are heavily dependent on application systems that are 
based on IDMS technology. Delaying the database management system 
conversion would create a high risk of loss for these systems, which 
would compromise the agency's ability to pay benefits and fulfill its 
mission in the future. For this reason, we have already begun project 
development for this initiative. We are currently developing 
specifications for contractual assistance, and we expect to release a 
request for proposals later in fiscal year 2005. Preliminary estimates 
indicate that a full conversion might be accomplished within 12 to 18 
months, although our schedule will depend on the availability of 
resources.
    In addition to the requests for administrative expenses, the 
Administration's budget includes $97 million to fund the continuing 
phase-out of vested dual benefits, and $150,000 for interest related to 
uncashed railroad retirement checks.

                  FINANCIAL STATUS OF THE TRUST FUNDS

    Railroad Retirement Accounts.--The RRB continues to coordinate its 
activities with the National Railroad Retirement Investment Trust 
(NRRIT), which was established by the Railroad Retirement and 
Survivors' Improvement Act of 2001 to manage and invest railroad 
retirement assets. The RRB transferred $586 million to the NRRIT in 
fiscal year 2004. This amount is in addition to the $19.188 billion and 
$1.502 billion transferred in fiscal years 2003 and 2002, respectively. 
In fiscal year 2004, the NRRIT transferred $1.564 billion to the RRB 
for the payment of tier 2 benefits.
    In June 2004, we released the annual report on the railroad 
retirement system required by Section 22 of the Railroad Retirement Act 
of 1974, and Section 502 of the Railroad Retirement Solvency Act of 
1983. The report, which reflects changes in benefit and financing 
provisions under the Railroad Retirement and Survivors' Improvement Act 
of 2001, addresses the 25-year period 2004-2028 and contains generally 
favorable information concerning railroad retirement financing. The 
report included projections of the status of the retirement trust funds 
under three employment assumptions. These indicated cash flow problems 
only under a pessimistic employment assumption, and then not until 
calendar year 2026. This is 4 years later than in the previous year's 
report.
    Railroad Unemployment Insurance Accounts.--The equity balance of 
the railroad unemployment insurance accounts at the end of fiscal year 
2004 was $87.5 million, an increase of $36 million from the previous 
year. The RRB's latest annual report on the financial status of the 
railroad unemployment insurance system, issued in June 2004, was 
generally favorable. The report indicated that even as maximum daily 
benefit rates rise 35 percent (from $55 to $74) from 2003 to 2014, 
experience-based contribution rates are expected to keep the 
unemployment insurance system solvent. No loans are anticipated even 
under our most pessimistic assumption. The average employer 
contribution rate remains well below the maximum throughout the 
projection period, but a 1.5 percent surcharge is now in effect and is 
expected for calendar year 2006 and probably 2007. We did not recommend 
any financing changes based on this report.
    In conclusion, we want to stress the RRB's continuing commitment to 
improving our operations and providing quality service to our 
beneficiaries. We recognize that fiscal year 2006 will be a tight 
budget year throughout the Federal government, and our budget request 
reflects our continued commitment to contain the RRB's administrative 
costs accordingly. Thank you for your consideration of our budget 
request. We will be happy to provide further information in response to 
any questions you may have.
                                 ______
                                 
       Prepared Statement of Martin J. Dickman, Inspector General

    Mr. Chairman and Members of the Subcommittee: My name is Martin J. 
Dickman, Inspector General of the Railroad Retirement Board (RRB). I 
would like to thank you, Mr. Chairman, and the members of the committee 
for your continued support for the Office of Inspector General. I wish 
to describe our fiscal year 2006 appropriations request and our planned 
activities.
    The Office of Inspector General requests funding of $7,195,968 to 
ensure the continuation of its independent oversight of the RRB. The 
agency is responsible for managing benefit programs which paid $9 
billion in retirement and survivor benefits to approximately 649,000 
beneficiaries in fiscal year 2004 and an additional $83 million in net 
railroad unemployment and sickness insurance benefits to 32,000 
claimants. The RRB also administers Medicare Part B, the physician 
services aspect of the Medicare program, for qualified railroad 
retirement beneficiaries. Through this program, approximately $923 
million in annual Medicare benefits are paid to approximately 551,000 
beneficiaries.
    In fiscal year 2005, the Office of Inspector General will continue 
to concentrate its efforts on the performance of reviews of significant 
policy issues and program operational areas. We will coordinate our 
efforts with agency management to identify and eliminate operational 
weaknesses. We will also continue our investigation of allegations of 
fraud, waste and abuse, and refer cases for prosecution and monetary 
recovery action.
    We also request the removal of the prohibition on the use of 
appropriated funds for any audit, investigation or review of the 
Railroad Medicare program. The RRB manages a nationwide contract for 
processing Medicare Part B claims for railroad beneficiaries. The 
agency is responsible for the enrollment of beneficiaries, premium 
collection, answering beneficiary inquiries and conducting the annual 
Carrier Performance Evaluation for the Medicare carrier.
    The prohibition does not permit the OIG to fulfill its statutory 
oversight responsibilities for a major agency program. The prohibition 
is contrary to Federal government priorities to reduce fraud in one of 
the largest Federal programs.
    We also request oversight authority to conduct audits and 
investigations of the National Railroad Retirement Investment Trust 
(NRRIT), the body responsible for the investment of approximately $27 
billion in trust funds used to support Railroad Retirement Act benefit 
programs. This office would ensure sufficient reporting mechanisms are 
in place and assess if the NRRIT members are fulfilling their fiduciary 
responsibilities. We have repeatedly expressed concerns about RRB 
management's passive relationship with the NRRIT, and identified the 
issue as a serious challenge for the RRB.
    The OIG currently is required to reimburse the agency for office 
space, equipment, communications, office supplies, maintenance and 
administrative services. We are the only Federal OIG that cannot 
negotiate a service level agreement with its parent agency. We, 
therefore, request that the language in appropriation law be removed.

                            OFFICE OF AUDIT

    Auditors will perform the audit of the RRB's 2005 financial 
statements and preliminary work for the 2006 financial statements to 
ensure the issuance of reliable financial information. The OIG will 
obtain the services of a consulting actuary to audit the statement of 
social insurance.
    Audit staff will work with agency management to ensure detailed and 
verifiable financial information is available from the National 
Railroad Retirement Investment Trust (NRRIT). As discussed above, we 
believe RRB management should take a more active interest in NRRIT 
activities.
    They will conduct the annual evaluation of the RRB's information 
systems security to meet the requirements of the Federal Information 
Security Management Act of 2002. We will also monitor the agency's 
information systems operations to determine if the agency is meeting 
the goals established in its Strategic Information Resources Management 
Plan and to ensure the agency is in compliance with the provisions of 
the Information Technology Management Reform Act.
    Auditors will continue to monitor agency actions to address 
security deficiencies and complete corrective actions. They will ensure 
that network and system security safeguards are in place to protect the 
confidentiality of sensitive financial and personal information. 
Auditors will also perform assessments of the agency's e-government 
initiatives to identify and eliminate system vulnerabilities, and to 
ensure compliance with the E-Government Act of 2002. We will continue 
our monitoring efforts of the RRB's document imaging activities and the 
expansion of paperless processing to ensure the integrity of records.
    Auditors will continue to review RRB benefit processes and 
procedures to identify ways to reduce administrative and adjudicative 
errors. They will offer recommendations to strengthen the agency's debt 
collection program to reduce the outstanding receivables.

                        OFFICE OF INVESTIGATIONS

    The Office of Investigations (OI) identifies, investigates and 
presents cases for prosecution, throughout the United States, 
concerning fraud in RRB benefit programs. In fiscal year 2006, OI will 
continue to focus its resources on the investigation of cases with the 
highest fraud losses. OI currently has approximately 500 active 
investigations involving fraudulent benefit payments and fraudulent 
reporting with fraud losses of approximately $11 million. These cases 
involve all RRB programs that provide sickness and unemployment 
insurance benefits to injured or unemployed workers, retirement 
benefits, and disability benefits for workers who are disabled.
    We will continue our efforts with program managers to address 
weaknesses in agency programs that allow fraudulent activity to occur, 
and will recommend changes to ensure program integrity.
    We will concentrate our resources on cases with the highest fraud 
losses, those related to the RRB's retirement and disability programs 
as well as fraudulent reporting by railroad employers. OI will dedicate 
considerable resources to the investigation of nationwide schemes to 
defraud the RRB disability program. Disability cases currently 
constitute about 40 percent of our investigative caseload. These cases 
involve more complicated schemes and result in the recovery of 
substantial funds for the agency's trust funds.
    In fiscal year 2006, we will continue to use the Department of 
Justice Affirmative Civil Enforcement (ACE) program for those cases 
which do not meet the criminal guidelines of U.S. Attorneys. Through 
this program, we are able to obtain civil judgements and recover trust 
fund monies for the RRB.

                                SUMMARY

    In fiscal year 2006, the Office of Inspector General will continue 
to focus its resources on the review and improvement of RRB program 
operations and ensuring the integrity of agency trust funds. We will 
also continue to aggressively pursue individuals who engage in 
activities to fraudulently obtain RRB funds.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]

                          DEPARTMENT OF LABOR

     Prepared Statement of Motivation, Education and Training, Inc.
    Honorable Chairman, Senator Arlen Specter, and Honorable Committee 
Members: It is with sincere appreciation that I convey our gratitude 
for your efforts on behalf of all hard working Americans, and for 
granting us the opportunity to share information about the nation's 
migrant and seasonal agricultural workers and the importance of the 
National Farmworker Jobs Program.
    I am the executive director of Motivation Education & Training, 
Inc. (MET), the authorized National Farmworker Jobs Program (NFJP) 
operator in Louisiana, Minnesota, North Dakota, and Texas, which are 
all funded through Section 167 of the Workforce Investment Act (WIA). 
MET is a community-based organization headquartered near Houston, 
Texas, and has been actively engaged serving low-income populations and 
communities for almost four decades.
    Since the 1960s, the affirmative efforts of both Congress and 
various Presidential Administrations have created and preserved a 
modest, though vital, system to aid farmworkers and their family 
members who seek improved economic prospects through career training 
and stabilization services. As you may know, a typical American 
agricultural worker faces some of the harshest working conditions in 
the United States, and yet their compensation is neither commensurate 
with the risks taken, nor sufficient for the work performed. During the 
most recently completed Program Year, MET served more than 3,000 
migrant and seasonal farmworkers with reported average annual earnings 
of $5,855 per client. Despite this shockingly low income, very few 
farmworkers, only 6.3 percent, seek and receive public assistance, 
preferring instead the path of self-reliance and an extremely meager 
existence.
    Uncertainty, which is inherent in the agricultural economy, ensures 
the perpetuation of a cruel paradox wherein extended periods of 
joblessness due to lack of available work, are interspersed with 
fleeting spikes in labor demand as crops mature or weather conditions 
permit activity in the fields. The long distances that many farmworkers 
and their families travel represents the desperate tradeoff between the 
mere hope of income and the likelihood that any semblance of stability 
can be achieved and maintained. But members of this community face 
severe challenges when seeking to exercise other career options, and 
for many families, reliance on agriculture is passed along from one 
generation to the next, thus ensuring the inheritance of work, 
subsistence, and poverty for decades to come.
    Historically, migrant and seasonal farmworkers have had relatively 
limited access to the public workforce investment system. A number of 
factors have worked in concert to discourage their participation, and 
even in the recently expanded One-Stop network, farmworkers can expect 
little assistance outside of the local systems where NFJP programs 
consistently offer high caliber career development and stabilization 
services. Yet despite both the need for the program and the phenomenal 
performance of the NFJP with respect to all other workforce investment 
programs, the current leadership at the US Department of Labor fails to 
see any value in preserving this most basic form of individual, family, 
and community economic development. Though duly authorized in WIA we 
now face the regular threat of elimination, but MET and our partners 
across the country continue to strive for better employment options for 
farmworkers and increased earnings that can move families out of 
poverty and into progressively higher tiers of economic stability and 
security.
    Within the last year, a series of DOL-sponsored community forums in 
three regions of the country reinforced the necessity of preservation 
of the NFJP. The dialogues brought together local workforce boards, 
local and regional One-Stop partners, state agencies, federal 
stakeholders, and NFJP representatives in a setting that encouraged 
analysis and discussion related to improved One-Stop access for migrant 
and seasonal farmworkers. The forum in Texas that I attended primarily 
served as the central U.S. regional dialogue, and ultimately delivered 
two resounding messages: (1) preservation of the NFJP is crucial if 
farmworker clients can expect any type of appropriate workforce 
investment service; (2) expanded farmworker access to the One-Stop 
system is an improbable, if not impossible, prospect in the absence of 
the NFJP or a substantially similar nationally-administered initiative.
    Workforce board representatives affirmed the necessity of our 
experienced and capable administration of workforce investment services 
for migrant and seasonal farmworkers. Citing the complexity of the 
challenge that farmworker clients represent to the general system's 
core, intensive, and training delivery operations, as well as our 
singular expertise in working with these constituents, boards and other 
key stakeholders candidly expressed their concerns about some of the 
limitations within the evolving One-Stop system. I did not hear one 
dialogue participant state, suggest, or even imply that passing 
responsibility to the states and local boards would do anything except 
dramatically reduce farmworker access to public workforce services.
    A reasonable evaluation of NFJP performance clearly places this 
critical workforce component in the highest echelon of WIA authorized 
partners, achieving better results than programs that receive 
substantially more funds per client, as well as those serving 
populations that are better equipped than farmworkers upon program 
entry to secure sustainable employment. We work hard to place our 
clients in permanent positions that will afford an opportunity for 
consistent long-term upward mobility, and that provide compensation 
packages consistent with the needs of today's families. Few jobs are 
permanent in the strictest sense, and given the nature of the evolving 
global economy, an individual's ability to acquire and retain 
employment is only as promising as that person's capacity to satisfy 
emerging skill demands and their facility in utilizing available 
resources to promote their employment. Without the individual attention 
and highly intensive case management intervention that is available to 
farmworkers only through the NFJP, most of this population would be 
unable to matriculate or complete a workforce development training 
program of the type necessary to secure and retain higher wage and 
higher skill employment.
    Belt-tightening and budget reductions are inevitable considerations 
in light of the current federal revenue shortfall; however, we would do 
immeasurable injustice to a worthy few and an extreme disservice to our 
national character if, in our attempt to reduce expenditures, we place 
a heavier load on the backs of our already overburdened and less 
fortunate citizens. I would respectfully request your favorable 
consideration of full restoration for the NFJP in fiscal year 2006, and 
if that proves altogether too ambitious, at least the maintenance of 
current federal support for this crucial component in the struggle for 
economic self-sufficiency among the poorest of America's workers.
                                 ______
                                 
    Prepared Statement of the National Association of Home Builders

    On behalf of the more than 220,000 members of the National 
Association of Home Builders (NAHB), as well as our workforce 
development arm, the Home Builders Institute (HBI), we thank you for 
the opportunity to submit this statement for the record on the 
Responsible Reintegration of Youth Offenders program, and the Prisoner 
Re-entry Program.
    NAHB members are involved in home building, remodeling, multifamily 
construction, property management, subcontracting, design, housing 
finance, building product manufacturing and other aspects of 
residential and light commercial construction. Known as ``the voice of 
the housing industry,'' NAHB is affiliated with more than 800 state and 
local home builder associations around the country. NAHB's builder 
members will construct about 80 percent of the more than 1.6 million 
new housing units projected for 2005, making the housing industry one 
of the largest engines of economic growth in the country, and vital to 
the nation's overall economic growth and prosperity.
    Throughout the past two decades, one of the most pressing problems 
confronting our industry has been a shortage of skilled workers. Record 
numbers in the construction of new homes, retirements and lackluster 
interest in the construction trades by younger generations, compounded 
by insufficient training opportunities for those interested in 
construction, are among the many factors contributing to the shortages. 
According to the Bureau of Labor Statistics, some 240,000 workers are 
needed each year to meet the nation's demand for housing, and they 
anticipate that over 1 million new jobs in the residential construction 
industry will be created in the next decade as builders attempt to keep 
up with demand for affordable housing.

            HOME BUILDERS INSTITUTE (HBI) PROGRAM BACKGROUND

    Each year, the Home Builders Institute (HBI) works through various 
programs to train and place several hundred youth in residential 
construction jobs. Through real-life, hands-on training, some of our 
nation's most at-risk young people, learn a skill, and earn a second 
chance at a productive and successful life and career. Since 1994, HBI 
has focused a significant portion of its effort and resources on one 
particular targeted population, adjudicated youth, through its Project 
CRAFT (Community Restitution Apprenticeship-Focused Training) program. 
Piloted in 1994 through a Department of Labor demonstration grant, 
Project CRAFT is targeted solely to adjudicated youth and youthful 
offenders. This program has successfully combined employers, the 
juvenile justice system, workforce development and other systems, in 
one overall approach, and has since been implemented at 15 sites in ten 
states (Colorado, Ohio, Florida, Maryland, Mississippi, New Jersey, 
North Dakota, South Carolina, Tennessee, and Texas). Funding for HBI's 
implementation of this program in the state of Tennessee has come 
largely through funds provided under the Responsible Reintegration of 
Youth Offenders budget line.
    Project CRAFT incorporates the apprenticeship concept of hands-on 
training and academic instruction, utilizing its Pre-Apprenticeship 
Certificate Training (PACT), numeracy, literacy and employability 
skills curricula. Under the supervision of journey-level trade 
instructors, students learn residential construction skills while 
completing community service construction projects. Nearly 85 percent 
of Project CRAFT graduates achieve success through industry jobs each 
year.
    Since 1994, Project CRAFT has helped more than 2,000 high-risk 
youth, and in addition to offering adjudicated youth trade skills and 
job placement, community service projects by students saved taxpayers 
nearly $400,000 in labor costs in 2003-2004 alone. During 2003-2004, 
Project CRAFT graduates were placed in jobs with an average wage of 
$8.58/hour and graduates performed over 49,000 hours of community 
service as part of their programs. Recidivism rates for Project CRAFT 
have averaged between 10-15 percent, an impressive rate when compared 
to the national average of over 50 percent. Additionally, students in 
the program tend to evidence one grade level of improvement in math and 
language skills attributable largely to the formal education component 
that includes contextual learning. Math and communication skills are 
continually reinforced as students are challenged to apply these skills 
to everyday situations in the field and in the classroom.
    Project CRAFT efforts were recognized by the Department of Labor 
and the National Youth Employment Coalition when in September 2002, the 
program received a PEPNet (Promising and Effective Practices Network) 
Award. We are also grateful to the Senate Subcommittee on Labor, Health 
and Human Services and Education for its acknowledgement of Project 
CRAFT in fiscal year 2005 Report Language, as well as Congress' years 
of dedicated support for the Responsible Reintegration of Youth 
Offenders program.

          RESPONSIBLE REINTEGRATION OF YOUTH OFFENDERS PROGRAM

    NAHB and HBI's encouraging experience with Project CRAFT is an 
example of the enormous success of the Responsible Reintegration of 
Youth Offenders pilot program, and the reason why we very strongly 
support the continuation of funding for a youth-focused program 
targeting adjudicated youth with training that provides this at-risk 
population with important job- and life-skills. The Responsible 
Reintegration of Youth Offenders Program has helped to bring together 
industry and government in a partnership with tangible positive 
outcomes. Since 1994 the program has earned a reputation as a 
worthwhile investment of taxpayer dollars, a significant and important 
resource to the nation's building industry, and a major contributor to 
the future success of thousands of young people. It is a demonstration 
model that works, and as such deserves to be touted and replicated. We 
hope that its proven success and recognition as an effective 
intervention will help enable it to receive continued funding, whether 
through a stand-alone program, or as part of a youth-focused component 
of the Prisoner Re-entry Program.

                       PRISONER RE-ENTRY PROGRAM

    In its fiscal year 2006 budget proposal, the administration 
proposes to fund the Prisoner Re-entry Program through appropriations 
to three federal departments (Department of Labor, $35 million; 
Department of Justice $15 million, Department of Housing and Urban 
Development, $25 million.) We hope this joint funding level will 
provide more opportunities to train the nation's at-risk youth. The 
Prisoner Re-entry Program continues to focus on ``helping individuals 
exiting prison make a successful transition to community life and long-
term employment'' through programs to help ex-offenders find and keep 
employment, obtain housing, and take advantage of mentoring programs.
    NAHB and HBI support the goals of the Prisoner Re-entry program, 
and agree that there is enormous potential for successful programming 
targeting ex-offenders. NAHB and HBI continue to believe that an 
important targeted community within the Prisoner Re-entry program must 
be adjudicated juveniles and we support extending Prisoner Re-entry 
program eligibility to adjudicated juveniles and youthful offenders 
ages 16-24, in addition to other age groups served by the program. We 
have found that these young people in particular are energetic, 
interested and engaged in learning the skills taught through our 
Project CRAFT program. We believe that any funding targeted to training 
those who are re-entering society must include a component targeted to 
the youth offender population.
    As we have stated, the Prisoner Re-entry program has significant 
potential for helping the adult offender community receive important 
training and job skills. And we believe that HBI is well-positioned to 
participate in an adult-focused program through its Project TRADE 
(Training, Restitution, Apprenticeship, Development and Education) 
program--which is the sister program to the youth-focused Project 
CRAFT. Designed to train and place adult offenders in employment in the 
home building industry, TRADE is currently being implemented in 
Colorado Springs and Sheridan, Ill. Project TRADE has trained over 500 
adult offenders in the residential construction trade since 1995 
through programs in Maryland, North Carolina, North Dakota, Oregon, 
Pennsylvania, Washington, Tennessee, Colorado and Illinois. We believe 
that Project TRADE's emphasis on adults complements the work done by 
Project CRAFT with younger offenders.

                               CONCLUSION

    NAHB and HBI continue to strongly support the goals of the 
Responsible Reintegration of Youth Offenders program. We also support 
the Department of Labor's interest in targeting a program to ex-
offenders and adjudicated individuals through the Prisoner Re-entry 
program, and we very strongly support the inclusion of youth offenders 
and adjudicated juveniles in this initiative.
    We believe that the Responsible Reintegration of Youth Offenders 
demonstration program has been highly successful, as evidenced by our 
own accomplishments with Project CRAFT. We fervently hope that any 
proposal supported by congressional appropriators will take into 
account the needs of both the youth and adult ex-offender populations, 
and will clearly lay out congressional intent to continue serving the 
youth ex-offender population.
    Again, we thank the subcommittee for this opportunity to share our 
views on the Responsible Reintegration of Youth Offenders program, and 
Prisoner Re-entry Initiative. We look forward to working with you to 
promote training programs that help America's at-risk youth acquire the 
skills they need for successful and productive careers in the home 
building industry.
                                 ______
                                 
   Prepared Statement of the National Coalition for Homeless Veterans

                              INTRODUCTION

    The National Coalition for Homeless Veterans appreciates the 
opportunity to submit recommendations on fiscal year 2006 
appropriations for and program management issues related to the U.S. 
Department of Labor (DOL).
    The National Coalition for Homeless Veterans (NCHV), established in 
1990, is a nonprofit organization with the mission of ending 
homelessness among veterans by shaping public policy, promoting 
collaboration, and building the capacity of service providers. NCHV's 
nearly 250 member organizations in 46 states and the District of 
Columbia provide housing and supportive services to homeless veterans 
and their families, such as street outreach, drop-in centers, emergency 
shelter, transitional housing, permanent housing, recuperative care, 
hospice care, food and clothing, primary health care, addiction and 
mental health services, employment supports, educational assistance, 
legal aid and benefit advocacy.
    More than 250,000 veterans are homeless on any given night; more 
than 500,000 experience homelessness over the course of a year. 
Conservatively, one of every three homeless adult males sleeping in a 
doorway, alley, box, car, barn or other location not fit for human 
habitation in our urban, suburban, and rural communities has served our 
nation in the Armed Forces. Homeless veterans are mostly males (2 
percent are females). 54 percent are people of color. The vast majority 
are single, although service providers are reporting an increased 
number of veterans with children seeking their assistance. 45 percent 
have a mental illness. 50 percent have an addiction.
    America's homeless veterans have served in World War II, Korea, the 
Cold War, Vietnam, Grenada, Panama, Lebanon, anti-drug cultivation 
efforts in South America, Afghanistan, and Iraq. 47 percent of homeless 
veterans served during the Vietnam Era. More than 67 percent served our 
nation for at least three years and 33 percent were stationed in a war 
zone.
    Male veterans are twice as likely to become homeless as their non-
veteran counterparts, and female veterans are about four times as 
likely to become homeless as their non-veteran counterparts. Like their 
non-veteran counterparts, veterans are at high risk of homelessness due 
to extremely low or no income, dismal living conditions in cheap hotels 
or in overcrowded or substandard housing, and lack of access to health 
care. In addition to these shared factors, a large number of at-risk 
veterans live with post traumatic stress disorders and addictions 
acquired during or exacerbated by their military service. In addition, 
their family and social networks are fractured due to lengthy periods 
away from their communities of origin. These problems are directly 
traceable to their experience in military service or to their return to 
civilian society without appropriate transitional supports.
    Contrary to the perceptions that our nation's veterans are well-
supported, in fact many go without the services they require and are 
eligible to receive. One and a half million veterans have incomes that 
fall below the federal poverty level. Neither the VA, state or county 
departments of veteran affairs, nor community-based and faith-based 
service providers are adequately resourced to respond to these 
veterans' health, housing, and supportive services needs. The VA plays 
only a limited role in providing employment services to veterans, 
administering just one small supported employment program for veterans 
with serious disabilities.
    The U.S. Department of Labor and state and local workforce agencies 
bear primary responsibility for ensuring that veterans are provided 
opportunities to prepare for and obtain productive employment. 
Accordingly, we urge Congress to provide full funding for the programs 
of the Department of Labor Veterans Employment and Training Service 
(VETS) in order to ensure that our nation's workforce services system 
is equipped to fulfill their obligations to our nation's veterans.

    FISCAL YEAR 2006 APPROPRIATION RECOMMENDATION--HOMELESS VETERAN 
                         REINTEGRATION PROGRAM

    The Homeless Veterans Reintegration Program (HVRP), within the 
Department of Labor's Veterans Employment and Training Service (VETS), 
provides competitive grants to community-based, faith-based, and public 
organizations to offer outreach, job placement and supportive services 
to homeless veterans. HVRP is the primary employment services program 
accessible by homeless veterans and the only targeted employment 
program for any homeless subpopulation. Homeless veterans have many 
additional barriers to employment than non-homeless veterans due to 
their lack of housing. HVRP grantees remove those barriers through 
specialized supports unavailable through other employment services 
programs. Grantees are able to place HVRP participants into employment 
for $2,100 per placement, a tiny investment for moving a veteran out of 
homelessness, and off of dependency on public programs.
    DOL estimates that 14,750 homeless veterans will be served through 
HVRP at the fiscal year 2005 appropriation level of $21 million. This 
figure represents just three percent of the overall homeless veteran 
population, which the Department of Veterans Affairs estimates numbers 
more than 500,000 over the course of a year. An appropriation at the 
authorized level of $50 million would enable HVRP grantees to reach 
approximately 24,000 homeless veterans.
    Additionally, HVRP is being used as the account to fund a joint 
Department of Labor and Department of Veterans Affairs initiative 
authorized by Congress to assist veterans incarcerated in their reentry 
to the community. This decision essentially adds a new purpose to the 
HVRP program, for which additional funds are needed.
    We urge Congress to appropriate at least $50 million for HVRP in 
fiscal year 2006 Labor-HHS-Education appropriations legislation.

           FUNDING FOR HOMELESS VETERANS REINTEGRATION PROGRAM
                        [In millions of dollars]
------------------------------------------------------------------------
                        Fiscal year                             Amount
------------------------------------------------------------------------
2004.......................................................           19
2005.......................................................         20.8
2006--Administration.......................................           22
2006--NCHV.................................................           50
------------------------------------------------------------------------

   FISCAL YEAR 2006 APPROPRIATION RECOMMENDATION--VETERANS WORKFORCE 
                           INVESTMENT PROGRAM

    The Veterans Workforce Investment Program (VWIP), within the 
Department of Labor's Veterans Employment and Training Service (VETS), 
provides grants to states and community-based, faith-based, and local 
public organizations to offer workforce services targeted to veterans 
with service connected disabilities, with active duty experience in a 
war or campaign, recently separated from the service, or facing 
significant barriers to employment (including homelessness). At least 
80 percent of total VWIP funds are distributed via competition. VETS 
may reserve 20 percent of total VWIP funds for discretionary grants. 
VETS uses these discretionary funds for studies, demonstration 
projects, and additional funding to supplement competitive grants. The 
fiscal year 2005 appropriation for VWIP is $8.5 million.
    Both those agencies that receive VWIP funds and those hoping to 
apply face the problem of resource scarcity. Due to funding 
limitations, agencies and organizations in less than half of states 
receive VWIP funds. The need for the type of targeted assistance that 
VWIP offers is clearly needed by veterans in all states. Additionally, 
caps on the size of grant awards make it difficult for existing 
grantees to recruit and retain staff. This limits program effectiveness 
and the collaborative process. Sadly, the President's fiscal year 2006 
request is a step backward, reversing the one million increase that 
Congress appropriated just last year.
    We urge Congress to appropriate at least $33.5 million for VWIP in 
fiscal year 2006 Labor-HHS-Education appropriations legislation.

            FUNDING FOR VETERANS WORKFORCE INVESTMENT PROGRAM
                        [In millions of dollars]
------------------------------------------------------------------------
                        Fiscal year                             Amount
------------------------------------------------------------------------
2004.......................................................          7.5
2005.......................................................          8.5
2006--Administration.......................................          7.5
2006--NCHV.................................................         33.5
------------------------------------------------------------------------

                               CONCLUSION

    NCHV appreciates the opportunity to submit recommendations to 
Congress regarding the resources and activities of the U.S. Department 
of Labor. We look forward to continuing to work with the Appropriations 
Committee in ensuring that our federal government does everything 
within its grasp to prevent and end homelessness among our nation's 
veterans. They have served our nation well. It is beyond time for us to 
repay the debt.
                                 ______
                                 
  Prepared Statement of the Opportunities Industrialization Center of 
                               Washington

    Honorable Chairman Specter and members of the Subcommittee: 
Opportunities Industrialization Center of Washington (OIC) has been 
providing employment and training, educational, nutritional and other 
community services in Central Washington for over 34 years. Since July 
of 1999, we have been the U.S. Department of Labor National Farmworker 
Jobs Program (NFJP) grantee for the state of Washington. Agriculture is 
one of Washington State's principal industries; the value of major 
crops alone is approximately $5.5 billion per year.
    Our NFJP program operates six regional offices and three satellite 
offices in central and western Washington. OIC provides a full range of 
core, intensive, training, and related assistance services to eligible 
farmworkers and dependents. From July of 1999 to June of 2004, we 
provided direct services to approximately 3,200 farmworkers, most all 
of whom had substantial barriers to employment. Approximately 41 
percent of our customers had less than an 8th grade education and an 
additional 29 percent had only up to an 11th grade education. Also, 58 
percent of customers were limited English proficient, 79 percent lacked 
significant work history outside of agriculture, 34 percent lacked 
transportation, and 20 percent were single head of household with 
children. Over 80 percent were unemployed at the time they entered our 
program. In light of these obstacles, our staff did an excellent job in 
obtaining year-round employment for approximately 1,200 of our 
customers, which was 114 percent of program goals during this time 
period.
    OIC has been a part of the development of our state's WorkForce 
Development System (the OneStop system) and are partners in each of the 
Workforce Development Councils within the areas that we provide 
services. This includes participation on key committees as the voice of 
the farmworker, as well as out-stationing of staff in each area's 
WorkSource Center. It is our experience that, while our state's 
WorkSource Centers provide quality services overall, they are not yet 
positioned to provide adequate services to the farmworker community.
    Traditionally, farmworkers in our state have been reluctant to go 
to official/bureaucratic settings in order to receive services. This 
holds true for our WorkSource Centers, most of which are housed in what 
were formerly Washington State Employment Security Department Job 
Service Centers, and which continue to be managed by this agency. Most 
WorkSource Centers maintain traditional business hours, Monday through 
Friday from 8:00 a.m. to 5:00 p.m. Moreover, service delivery is 
designed around a self-service methodology and makes extensive use of 
computer-based systems. As a result migrant and seasonal farmworkers 
are prevented from accessing services due to hours of operation. Also, 
people with low levels of literacy and/or limited/non-existent computer 
skills such as our customers cannot make effective use of available 
resources.
    A compounding problem is the lack of resources needed to adequately 
serve customers with substantial barriers to employment. Our state is 
currently working to develop its biennium budget, which currently has a 
$2.1 billion shortfall. Major cutbacks are targeted for most all state 
agencies, including the Employment Security Department which operates 
the WorkSource centers.
    For years, our WorkSource Centers have struggled to maintain 
adequate staffing due to budgetary constraints. With our state's 
current budget crisis, this problem will only worsen. Our NFJP program 
has helped to alleviate this problem by out-stationing staff on a 
regularly scheduled basis in the eight WorkSource Centers and affiliate 
sites. Our bilingual-bicultural staff provides direct services to 
customers and collaborating with our other WorkSource partners in 
serving the universal access needs of our customers in general, and 
farmworkers and agricultural employers in particular.
    The National Farmworker Jobs Program has been a success both 
nationally and within the state of Washington. To our knowledge, there 
are no resources at the federal or state level to fill the void that 
will occur if its funding is reduced or eliminated. Thus, the vital 
services now provided through the NFJP to Washington State's migrant 
and seasonal farmworkers, as well as to our state's WorkSource system, 
will not be replaced.

                        OIC NFJP SUCCESS STORIES

    The following illustrates both the value provided through the 
National Farmworker Jobs Program, and the perseverance and dedication 
of those whom we are entrusted to serve.
    Mrs. P came to Washington State with her family, not knowing anyone 
here or having any family members. Over most of her 17 years of married 
life, Mrs. P had never worked outside the home, while her husband 
provided for their five children (ages range from 3 years to 16 years) 
and her. Things changed dramatically when her husband suffered a severe 
emotional trauma resulting from his involvement in a fatal accident, 
together with other negative incidents. He has since been unable to 
work and is on long-term disability.
    Without a high school education, no driver's license or work 
experience, Mrs. P was only able to work in agriculture. She found her 
way to our office through the referral of a previous participant. 
Following assessment, an Individual Employment Plan was developed with 
Mrs. P to help her move out of the fields and into a good job that paid 
a livable wage. Mrs. P began work experience training in our Mount 
Vernon office as an Office Assistant and attended GED classes in the 
evenings. Later that fall she received training in our Office 
Technology course, a class developed specifically for our participants 
to teach them keyboarding, Microsoft office professional programs and 
prepare them for an office occupation (classes are held in the evening 
to accommodate participant such as Mrs. P who have to work during the 
day to support families). Mrs. P was also provided with job search/
resume assistance that lead to an OJT with Housing Authority of Skagit 
County as a full time General Office Clerk earning $9.28 an hour. Mrs. 
P also worked hard to get her Washington State Driver's License and 
after three attempts she finally realized this goal. Through her 
diligence, and the opportunities provided through our program, Mrs. P 
is now working as a Section 8 Specialist earning $11.15 an hour with 
Housing Authority of Skagit County.
    Prior to coming to our program, Ms. A. was, in her words, ``On the 
road to nowhere.'' Abused as a child, she attempted suicide at 11 and 
ran away from home at the age of 13. When she found her way to our 
Wenatchee office, she was unemployed and without any funds to support 
her 16 year old son and herself. Her only meaningful employment was 20 
years spent working in the orchards since she was 13. As might be 
expected, she never attended high school, and her prospects for full-
time employment were bleak.
    Staff met with Ms. A to perform an assessment to address her 
immediate needs; identify her skills, interests, and goals; and put 
together a plan to meet those goals. Ms. A focused on two goals that 
had always eluded her: to earn her GED and obtain a permanent job 
through which she could support her son.
    Staff immediately provided Ms. A with emergency services for food 
and shelter to stabilize her situation. They then enrolled her into an 
evening High School Equivalency program to provide the instruction and 
tutoring she needed to work towards her GED. Also, a work experience 
placement was developed to help her develop essential job-related 
skills, while also providing income to her household. Staff also 
provided Ms. A with ongoing counseling and support to help her attain 
success.
    Through her hard work, Ms. A felt the pride of having her son watch 
as she received her GED in a gradation ceremony with 22 other 
farmworkers. She also realized her employment goal when she became a 
full-time receptionist and assistant to the housing director for the 
Wenatchee Women's Resource Center. In all, staff worked with Ms. A for 
approximately one year to assist her in moving back onto a ``road to 
somewhere.''
                                 ______
                                 
     Prepared Statement of the National Job Corps Association, Inc.

    On behalf of the National Job Corps Association (NJCA) we want to 
thank the Labor, Health and Human Services and Education Appropriations 
Subcommittee for its dedication to Job Corps and our country's most 
vulnerable youth. For 40 years, Job Corps has consistently demonstrated 
its relevance and positive results for employers and youth. The 
program's supporters represent a bipartisan and broad coalition of 
congressional leaders; employers and community organizations; and other 
key decision-makers. They all agree that Job Corps has adapted to 
America's economic changes by listening to local and national 
businesses. In turn, Job Corps has partnered with high demand, high 
growth businesses to develop innovative solutions to meet their 
workforce needs and find life-long careers for America's most 
economically disadvantaged youth.
    We appreciate the Committee's strong support for the Job Corps 
program and urge you to provide Job Corps with $1.6 billion in the 
fiscal year 2006 appropriations process. The NJCA is deeply concerned 
that President's budget request does not go far enough to efficiently 
maintain the effective job training and educational services and the 
requisite infrastructure necessary to serve Job Corps' estimated 68,000 
students entering the 21st century workforce. While we encourage 
spending restraint by the United States Government, we also believe it 
is imperative to provide adequate funding to programs with proven 
positive results. We believe the work that Job Corps accomplishes on a 
daily basis goes hand-in-hand with the economic prosperity and security 
of our local communities and our nation.

                          JOB CORPS SUCCESSES

    Job Corps is known as ``America's first choice for a second 
chance'' for a good reason. Job Corps works. Over the past 40 years, 
Job Corps has instilled in more than 2 million youth the skills and 
attitudes they need to become productive, contributing participants of 
the nation's workforce. For a moment, consider some of Job Corps' most 
shining examples and see for yourself why Job Corps is considered one 
of the most successful job training programs in the country.
    Judge Sergio Gutierrez attended the Wolf Creek Job Corps Center 
(Oregon) in 1970 after he decided to drop out of high school to provide 
additional money for his family which was barely making ends meet at 
the time. The self proclaimed introvert proudly recalls how Job Corps 
enabled him to come into his own as a leader of a carpentry crew. After 
graduating from Job Corps, Judge Gutierrez enrolled at Boise State 
University where he received his B.A. in Elementary Education. After 
teaching fifth grade and English as a Second Language for a few years, 
Judge Gutierrez went back to school to earn his Juris Doctor degree 
from the University of California. In 1993, Judge Gutierrez was 
selected to serve as the district judge for the 3rd Judicial District 
of Idaho. In 2002, he earned a higher judicial appointment, this time 
as a member of the Idaho Court of Appeals. Today, Judge Gutierrez takes 
his children to visit Job Corps centers. Judge Gutierrez said, ``I 
wanted them to see where my success began.''
    Jasmine Small, a Licensed Practical Nursing (LPN) graduate from the 
Keystone Job Corps Center (Pennsylvania) graduated from the program and 
went on to pass the Pennsylvania State Board of Nursing Exam. The 
Tobyhanna, Pennsylvania native completed her clinical rotation at the 
Kingston HCR Manor Care facility, and in August 2004 accepted a job on-
site. Small aspires to be a Registered Nurse (RN) one-day. ``Job Corps 
helped me grow strong and determined to get things done,'' Small said. 
Thanks to employer partners like HCR Manor Care, Small will continue to 
advance her career within the health care field.

                     NJCA FISCAL YEAR 2006 REQUEST

    The NJCA requests a total of $1.6 billion for Job Corps in the 
fiscal year 2006 budget: $1.486 billion for Job Corps' Operational 
account and $115 million in the Construction, Rehabilitation and 
Acquisitions (CRA) account. The NJCA believes that Job Corps merits a 
$54 million increase over the fiscal year 2005 appropriations. This 
increase would provide a modest cost-of-living increase over the fiscal 
year 2005 enacted levels that unfortunately have not been addressed 
over the last two fiscal cycles. The increase would allow Job Corps to 
maintain its existing student services and allotted slots with a full 
inflationary adjustment for the 122 centers, address infrastructure 
rehabilitation needs, continue to eliminate the $350 million backlog of 
repairs, and provide second year funding for incremental expansion of 
Job Corps.

Operational Funds
    As the nation's largest residential education and job training 
program, Job Corps is designed to serve our nation's at-risk youth who 
might otherwise ``fall between the cracks.'' Job Corps succeeds by 
providing a safe place to learn the literacy, vocational, and 
employability skills youth need to become productive, taxpaying members 
of their community.
    Job Corps' 24-hour-a-day, 7-day-a-week program of individualized 
attention, discipline, and support has produced long-term results that 
save taxpayer dollars. As a residential program, Job Corps operations 
are particularly vulnerable to fixed cost increases, including 
wholesale food, transportation, utilities/energy, and health care. As 
you are aware, the price of gasoline has spiked to all-time highs in 
the last three years; food and beverage costs have increased by 24 
percent over the last ten years; and medical costs and health insurance 
premiums have risen at double-digit rates. These increases are costs 
Job Corps cannot control. While Job Corps has been implementing 
strategies to decrease costs--particularly energy costs--money has to 
be invested in the short-term to save money in the future. We all know 
that investing in our homes increases the property value. Investing in 
Job Corps increases the value of our local economies through an 
increased number of youth--32 percent of Job Corps youth come from 
families on public assistance--becoming well-positioned taxpaying 
members of their communities.
    Job Corps continues to maintain a high placement rate. In fact, 
more than 90 percent of all Job Corps graduates get jobs, enlist in the 
military, or enroll in higher education, making Job Corps America's 
most effective job training programs for economically disadvantaged 
youth.
    In fiscal year 2006 the NJCA requests the Committee provide $1.486 
billion for Job Corps' Operational account. This would allow Job Corps 
to:
  --Maintain existing student services and allotted slots with a full 
        cost-of-living increase for the 122 Job Corps centers across 
        the country;
  --Continue Job Corps' rigorous 24-hour-a-day, comprehensive 
        residential services for approximately 68,000 economically 
        disadvantaged youth per year;
  --Provide funding necessary to cover the escalating costs of staff 
        salaries, wholesale food, utilities/energy, transportation, 
        medical, mental and dental services, and workers compensation 
        insurance; and
  --Develop Job Corps pilot and demonstration projects to strengthen 
        academic and vocational offerings in high-growth and emerging 
        occupations, including but not limited to health care, homeland 
        security, and the military.

Construction, Rehabilitation and Acquisition (CRA) Funds
    With respect to Job Corps' capital account, the NJCA requests $115 
million in fiscal year 2006. These funds would be targeted to: repair 
dorms, classrooms, and other student facilities on existing Job Corps 
centers; replace deteriorated structures, especially those that 
threaten safety and health or violate minimum building codes, including 
mechanical systems; continue to address the estimated $350 million 
backlog in construction and/or repair needs; and provide second year 
funding for incremental Job Corps expansion.
    As you know, Job Corps gives young people the opportunity to focus 
and learn in a safe, stable, and supportive environment. However, the 
average building on a Job Corps center is 46 years-old--20 years older 
than the industry standard. While the program is trying valiantly to 
address the backlog of construction and repair improvements, it needs 
more funding to allow students to learn in an auspicious setting. Over 
the past several years, the Committee has taken a proactive approach to 
provide the program with the funds necessary to maintain Job Corps' 
physical plant. We thank the Committee for its strong support and urge 
Members to continue that support in fiscal year 2006.

Incremental Expansion
    Within Job Corps' CRA account, the NJCA strongly supports $15 
million for second year funding for the Congressional supported 
incremental expansion of Job Corps. As part of the NJCA's 10-year 
initiative--Job Corps: For the Nation and the Next Generation--to 
strengthen and improve Job Corps, the NJCA supports the Committee's 
past effort to designate centers as ``High-Growth Centers,'' designed 
specifically to address the country's most vital workforce needs. The 
NJCA envisions these ``High-Growth Centers'' providing academic and 
vocational training in the following high growth, high demand 
industries such as: automotive, construction, financial services, 
health professions, hospitality, information technology, homeland 
security, and transportation. In Job Corps' most recent expansion 
process, more than 50 communities across the nation applied for new 
centers in their communities. Since that time, many other communities 
have expressed interest, including Las Vegas; Nevada, Otttumwa, Iowa; 
and the states of New Hampshire and Wyoming, the only states lacking a 
Job Corps center. The NJCA looks forward to working with the Committee 
to continue the incremental expansion of Job Corps.

Preparing the Workforce for the 21st Century Job Corps: For the Nation 
        and the Next Generation
    Increasingly, private and public employers have turned to the Job 
Corps program for qualified entry-level recruits. While they are 
enthusiastic about the employees they hire from the program, they 
commonly express one limitation: the number of trained and employment-
ready graduates in these fields is too small. Although Job Corps is the 
nation's largest national residential training and education program, 
it currently can accommodate only about 68,000 students per year. 
Hospitals, pharmacies, nursing homes, the U.S. Army and Navy, civilian 
military support contractors, security firms, local police departments, 
and ambulance companies all say that they can hire as many qualified 
applicants as Job Corps can produce. Job Corps has beds, however, for 
only one percent of youth eligible to attend the program.
    To address these demands, the NJCA has developed a decade-long 
initiative, Job Corps: For the Nation and Next Generation, to 
strengthen and expand Job Corps to help meet our nation's needs for 
trained, entry level workers in three areas: health care, homeland 
security, and military preparedness. This Initiative would leverage the 
contributions of private and public sector partners with federal 
appropriations to expand Job Corps' capacity to train entry-level 
employees in these three crucial areas of shortage. The Initiative 
would produce quantifiable results over 10 years: 60,000 graduates in 
health care occupations, 50,000 graduates defending homeland security, 
and 50,000 military personnel. To support this Initiative, the NJCA 
requests dedicated funds beyond the NJCA's $1.6 billion request in the 
following federal programs and/or Departments:

Addressing the Nation's Health Care Workforce Shortage
    The NJCA requests dedicated funding--$5 million--for the Health 
Resources and Services Administration (HRSA)'s Bureau of Health 
Professions to address the shortage of health care professionals and 
provide access to health care vocational opportunities for many 
disadvantaged young people enrolled in Job Corps. The NJCA strongly 
believes that Job Corps centers are uniquely qualified to utilize HRSA 
grant programs to train students to pursue health careers while 
generating more health care professionals to serve economically 
disadvantaged communities. The NJCA urges that HRSA funds be dedicated 
to Job Corps in two key grant programs: Pathways to Health Professions 
Demonstration Program and Health Careers Adopt-a-School Demonstration 
Program.

Ensuring Safer Communities for the Nation
    Within the Department of Homeland Security (DHS) and building upon 
language in the fiscal year 2005 Omnibus Appropriations legislation, 
the NJCA requests funds--$2 million--for a pilot demonstration program 
to establish local relationships between the Transportation Security 
Administration (TSA) at three designated Job Corps centers. The pilot 
program would study the needs of airports and attrition rates of 
airport security personnel and the feasibility of utilizing local Job 
Corps centers with security training programs as suppliers of 
qualified, eager-to-work homeland security and airport screener 
employees.
    The NJCA also requests funds--$3 million--from DHS in fiscal year 
2006 budget to develop fully recognized Federal Emergency Management 
Agency (FEMA) training sites at three designated Job Corps centers. The 
partnership between FEMA and Job Corps would include Homeland Security 
and Fire Safety certifications that are currently incorporated into 
existing Safety/Security vocational programs on Job Corps campuses 
across the country.

Enhancing America's Security and Readiness
    Building upon the mutually beneficial relationships that Job Corps 
has established with the U.S. Army, U.S. Navy, U.S. Coast Guard, and 
U.S. Army and Air National Guard, the NJCA requests $5 million from the 
Department of Defense (DOD) to develop military-endorsed curriculum in 
order to establish six military preparation programs that would 
increase the number of Tier I high quality accessions recruits joining 
the military. These military preparation programs would be incorporated 
within a student's academic and vocational training. By providing these 
funds, Job Corps can significantly supplement the military's efforts to 
address unmet recruiting and retention needs through a 40-year 
successful residential education and training program for disadvantaged 
youth. Curricula would include the critical components valued by the 
military in grooming and advancing recruits to become high quality 
accession enlistments. Preference would be given to Job Corps centers 
located near military installations.

President's Community College Initiative
    The NJCA requests that a minimum of $10 million of President Bush's 
proposed $250 million fiscal year 2006 Community College Initiative 
(also called the President's Community-Based Job Training Grants) be 
dedicated to community colleges partnerships with Job Corps centers. 
The NJCA requests this modest portion within the U.S. Department of 
Labor's Employment and Training Administration proposed budget be 
designated to: (1) develop strategic partnerships with community 
colleges, business and industry leaders, and Job Corps centers to train 
students in high, growth, high demand industries; and (2) design ``dual 
enrollment'' programs based on reciprocal agreements between Job Corps 
and adjacent community colleges.
    The NJCA strongly believes it is fitting and proper for community 
colleges to work with Job Corps because both parties share the same 
basic goals of providing access and opportunity to disadvantaged 
Americans. Job Corps and community colleges also have the ability to 
partner with employers looking for higher-skilled workers. Numerous Job 
Corps centers have already established working relationships and 
participated with local community colleges to provide advanced career 
training, increased opportunity to pursue occupations in high-growth 
industries, and greater access to industry-recognized certification 
programs.

                               CONCLUSION

    As Job Corps looks to the future, we hope you agree that it remains 
a federal program that is worthy of America's support. The NJCA looks 
forward to working with members of this Committee to define, expand and 
advance this decade-long effort to tie Job Corps' training more closely 
to our nation's most critical labor needs. Even in these tough 
budgetary times when no federal program can be above scrutiny, Job 
Corps shines through with versatility of purpose and a record of 
success that can help America address its most serious challenges. Job 
Corps remains a beacon of hope for many young Americans and an 
excellent example of our government's role in helping all sectors of 
our society. Thank you for your strong support.
    The NJCA is a professional trade association comprised of business, 
labor, volunteer, advocacy, academic, and community organizations. All 
are joined in supporting the Association's mission ``to unite the Job 
Corps community through activities and services that strengthen the 
program for the benefit of students, staff and employers.''
                                 ______
                                 
            Prepared Statement of Rural Opportunities, Inc.

    On behalf of the Migrant and Seasonal Farmworkers in Pennsylvania, 
Rural Opportunities, Inc. (ROI) extends a sincere thank you to the Sub-
Committee for the opportunity to share our success as the statewide 
grantee funded by the United States Department of Labor under the 
Workforce Investment Act, Section 167--The National Farmworker Jobs 
Program (NFJP).
    In providing services to migrant and seasonal farmworkers, ROI's 27 
years of experience in Pennsylvania has clearly demonstrated that 
farmworkers are a ``special population'' that have unique needs that 
require not only basic skills, English-as-a-Second Language, and job 
training; but, access to services via outreach in rural communities at 
non-traditional hours of service provision where and when One-Stop 
services are virtually non-existent. Further, should these services be 
required, the language requirements to ensure access are often 
unavailable unless a ROI staff person is on site in the One-Stop.
    In painting a personal picture, examples may be that if a 
farmworker were accessing services in Philadelphia County, they may 
speak Khmer. If a farmworker were accessing services in Franklin County 
or Chester County, he/she may speak Creole and Spanish respectively. 
ROI has continuously hired bilingual staff that is culturally sensitive 
and skilled at working with the predominant farmworker population in 
the specific service-provision area; thus, ensuring access.
    With this said ROI has taken its responsibility seriously for the 
stewardship of the federal funds it is awarded by ensuring access to 
effective employment and training programs that not only ensure the 
transferability of skills, but future upward-mobility both within 
agriculture and out. ROI places a high priority on measuring and 
improving the efficiency and effectiveness of our program by collecting 
detailed data on our farmworker program participants through our 
Management Information System, by monitoring program results as they 
pertain to performance standards, and evaluating our net impact.
    ROI has always been a strong training provider. Thus, again, having 
the NFJP Program ``zeroed out'' for funding, when we are a premiere 
program that truly provides training to the hardest-to-serve, is 
unconscionable. Perhaps, one can better understand the impact of the 
NFJP Program through the words of a program graduate. Alfonso Lua, of 
Dunmoyer Trucking, Inc., states, ``When I came to the program several 
years ago, I had nothing. Rural Opportunities helped me get my 
Commercial Driver's License (CDL) and I became a truck driver. Now I 
own 13 rental properties. I am going to make almost $70,000 this year. 
The program is like a ladder you can use to better yourself. If you 
want to have success, you have to educate yourself and learn something 
new. That's why the program is there to help with this. It is an 
alternative to staying where you are''.
    Alfonso Lua was a program participant who had been a farmworker for 
many years; yet, had always dreamed of becoming a truck driver. In the 
typical One-Stop setting, Alfonso may not have been able to access CDL 
Training because of his, then, language limitations. ROI worked hand-
in-hand with Alfonso translating the parts of the truck from Spanish to 
English to ensure Alfonso clearly understood the translation. Further, 
ROI Staff provided on-site tutoring, ensuring a positive outcome. 
Another program participant, Madelyn Morales, a Department Manager at 
Wal-Mart, Inc. states, ``Thank you to Rural Opportunities, Inc. who 
believed in me and opened possibilities for me to become someone in 
life''. When program participants confront barriers in accessing 
employment that requires specialized training, ROI has the expertise to 
tailor a curriculum to an individual's needs. This is extremely 
important in working with the farmworker population.
    ROI also has taken the initiative, as a NFJP Grantee, to work hand-
in-hand with agricultural employers who often are overlooked in the 
One-Stop System. ROI has developed cross-training for agricultural 
upgrade taking harvesters into a variety of demand occupations. Without 
the services provided by ROI under the auspices of the NFJP program, 
these particular training services would be inaccessible. The 
significance of this can not be underestimated as an agricultural 
employer representative, Maria C. Serrano, Human Resource & Benefits 
Specialist of Giorgi Mushroom Company, states, ``We at Giorgi Mushroom 
Company have the practice of employee development and we provide 
advancement opportunities to motivate employees. In our harvesting 
department it is often hard to promote within, since they lack the 
skills for advancement. That is where Rural Opportunities, Inc. comes 
in. They help tremendously, companies like ours to help and motivate 
employees to pursue a different position within the company. Their NFJP 
Program allows our employees the opportunity to advance by providing 
the necessary resources to develop new skills, where there is no 
economic drain to the company. Quite the contrary, it helps our 
company. We have enjoyed a very good relationship with ROI in allowing 
us the opportunity so that we can pass this program on to our 
employees. Their programs have helped not only our employees become a 
better people and gain a new position, but also our company as a whole. 
ROI offers remarkable programs that work for both the company and 
employees by giving them the chance. Without these programs, no one 
wins. We strongly agree that ROI Programs benefit both parties 
involved; and we deeply support their efforts.''
    In closing, ROI believes our success speak volumes about the NFJP 
Program's success. We are just one of the NFJP Grantees that the 
Department of Labor's own assessment stipulates do excellent work every 
day. Let us not forget that Migrant and Seasonal Farmworkers already 
bring multiple barriers to the table. Let us not place another barrier 
in their path by eliminating the NFJP Program. We request the Sub-
Committee recognize the enormous potential of this program by 
maintaining the NFJP Program in the Appropriations for the Department 
of Labor for 2006; thus, ensuring that the services this population so 
desperately needs is funded.
    Thank you for this opportunity to present testimony today.
                                 ______
                                 

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

  Prepared Statement of the Academic Family Medicine Advocacy Alliance

    Mr. Chairman, the Society of Teachers of Family Medicine, the 
Association of Departments of Family Medicine, the Association of 
Family Medicine Residency Directors, and the North American Primary 
Care Research Group, thank you for the opportunity to provide this 
statement for the record on behalf of funding for family medicine 
training, and the Agency for Health Care Research and Quality (AHRQ).

  HEALTH PROFESSIONS: THE PRIMARY CARE MEDICINE AND DENTISTRY CLUSTER

    Mr. Chairman, the Academic Family Medicine Advocacy Alliance would 
like to thank you and this committee for your commitment to these 
programs. We very much appreciate the funding included in the fiscal 
year 2005 appropriations funding bill, especially in light of fiscal 
constraints. Family medicine training programs are funded under Section 
747, the Primary Care Medicine and Dentistry cluster, of Title VII of 
the Public Health Service Act. We ask that you continue your support 
for family medicine training, and restore the appropriations level for 
section 747, the Primary Care Medicine and Dentistry Cluster, to fiscal 
year 2003 levels of $92 million, a small increase of about $3 million.
    This statement is designed to show the committee how its investment 
is paying off. This statement will discuss the success of these 
programs and include recommendations about what still needs to be done. 
As you look at all the opportunities you have to fund domestic health 
programs you need to be able to make judgments about the value and 
utility of these programs. We have been asked in various venues to show 
proof that these funds actually do what they are designed to do. We 
must show that this money makes a difference. In this statement we 
intend to do just that. In addition, we believe Congress also needs to 
understand the unmet needs that exist in our nation--needs health 
professions programs can successfully help address.

President's Budget Request for Fiscal Year 2006 Once Again Zeros Out 
        Primary Care Funding
    The President's budget zeroes out funding for the Primary Care 
Medicine and Dentistry cluster. In addition, the proposal includes only 
$11 million for all Title VII Health Professions programs, a sharp cut 
from current level funding of $308 million.

Family Medicine Training Programs Are A Success
    First, let's take a look at health professions training--
specifically family medicine training. These programs are producing the 
outcomes that Congress has requested. A recent study (Family Medicine, 
June 2002), by the Robert Graham Center For Policy Studies showed that 
federal funding through Title VII of family medicine departments, 
predoptoral programs, and faculty development hps made a difference. 
The study measured the differences in career choices made by students 
exposed to Section 747 funds compared to those who were not, both 
within the same school and in different schools. This research found 
that section 747 funding is associated with:
  --54 percent increase in students going into family practice
  --25 percent more into primary care
  --34 percent more into rural underserved counties
    The increased number of family physicians associated with Title VII 
funding between 1978-1993 was found to be about 7,000. If the same 
continued for the next decade, there would be 12,000 additional family 
physicians attributable to Section 747 funding in 2003. We must 
conclude from this data that this funding means that thousands of 
physicians are making different career choices, choices that positively 
affect millions of patients in underserved areas and in primary care. 
Moreover, if this money were to ``go away'' fewer students would be 
making these career choices.

Funding primary care training programs improves the health of America
    A greater supply of primary care physicians is associated with 
positive health outcomes due to early detection and an increased 
integration of care and oversight. With the associated rise in primary 
care physicians cited above, we can extrapolate from other sources that 
this increase could mean:
  --4,600 cases of colon cancer prevented and 1,400 deaths from colon 
        cancer prevented.
  --7,400 cases of cervical cancer prevented and 3,200 deaths from 
        cervical cancer prevented.
  --24,000 individuals quit smoking.
  --7,700 additional physicians serving in rural areas and 970 
        additional physicians serving in HPSAs.
  --1.2 million deaths prevented.

Primary care is cost effective
    A study in Health Affairs (April 2004) demonstrates that the 
associated measures in primary care physicans resulting from Title VII, 
section 747 leads to an estimated $320 billion in saved health care 
expenses and 1.2 million lives saved over 26 years. For example, a 
study in the New England Journal of Medicine (Feb. 1996) looked at 
outcomes and costs of people who came to a primary care physician, a 
chiropractor, or an orthopedic surgeon for their back pain. It was 
determined that the patients all had the same outcome regardless of who 
provided care, but the primary care physicians' care cost $194 per 
person less. According to a study in the Journal of Family Practice 
(May 1998) because back pain is so common, a primary care physician can 
expect to see 82 cases per year; therefore, Title VII funds can be 
thought to have had an estimated overall health care cost savings of 
$2.4 billion from back pain alone.

Loss of funding for family medicine training would cause tremendous 
        impact on service to the underserved
    A study by the Robert Graham Center looked at counties designated 
as HPSAs to determine the degree to which the United States relies on 
family physicians in comparison to more other specialty. Of the more 
than three thousand counties in the United States, 784 are designated 
HPSAs. In a hypothetical exercise, the study removed all family 
physicians from the U.S. counties. Without family physicians, there 
would be 1,184 HPSAs--a 43 percent increase.

Family Physicians Staff the Nation's Community Health Centers (CHCs)
    The President's fiscal year 2006 budget would provide approximately 
$2 billion to CHCs in fiscal year 2006, an increase of $304 million. 
Since nearly one-half of the physicians who staff the nation's CHCs are 
family physicians, support for Section 747 would mean more trained 
doctors for those centers.

Family Physicians Have an Economic Impact on States
    On average, the income that comes into a community due to the 
presence of one family physician, and the additional jobs that result 
from his or her practice, amounts to approximately:
  --$1.2milllion in rural areas, and,
  --$0.9 million in urban areas.
    (Oklahoma Physician Manpower Training Commission, October 2003.)

What Is The Unmet Need? Why Must We Continue To Fund And Grow These 
        Programs?
    According to a study by Politzer, et al (The Journal of Rural 
Health, Winter,1999) Title VII funding is key to ending HPSAs. This 
funding has led to the time needed for HPSA elimination to decrease to 
15 years. Doubling the funding for these programs would decrease the 
time for HPSA elimination to as little as 6 years.
    According to the study, without this funding, not only would HPSAs 
not be eliminated, but the number of shortage areas would continue to 
grow. Moreover, success has been attained by an allocation of funds 
more favorable to family medicine than the other two primary care 
specialties.
    Title VII funding has indeed accomplished many of the objectives 
for which it was designed:
  --Funding of innovative projects
  --Providing ``seed money'' for the start-up of new projects
  --The creation and maintenance of departments of family medicine in 
        the nation's medical schools
  --The development of 3rd year clerkships in family medicine
  --The increase in students selecting primary care residencies from 
        those schools with funded family medicine departments and 3rd 
        year clerkships
  --The increased rate of graduates from Title VII funded projects 
        entering practice in medically underserved areas (MUAs), with a 
        resultant reduction in the time required for Health Professions 
        Shortage Area (HPSA) elimination

Section 747 Advisory Committee Recommends Higher Funding
    In 1998, Congress established an Advisory Committee to review and 
make recommendations on Section 747. The Advisory Committee on Training 
in Primary Care Medicine and Dentistry (ACTPCMD) recently released its 
recommendations to Congress and the Secretary of the Department of 
Health and Human Services. The first recommendation urges greatly 
expanding federal support for Section 747 to $198 million. The 
Committee notes the growing need for primary care providers, as well as 
the success of Title VII funded programs.
    The training enterprise that does not value primary care either 
financially or otherwise is a key part of the problem. Title VII funds 
that support the infrastructure and stability of family medicine 
departments in medical schools have to be sustained in order to keep 
producing the current levels of primary care physicians and, more 
specifically, those who will practice in rural and other underserved 
areas. Clearly, the programs of Title VII are on the right track toward 
meeting the health care challenges of the 21st century. So, while we 
believe that current funding must be maintained, more needs to be done.

Proposed Performance Measures need to be redefined
    The current proposed performance measures are neither measurable 
nor appropriate. Consequently, assessments of effectiveness of the 
programs based on these measures are highly flawed.
    For example, the target set for the proportion of underrepresented 
minorities (URMs) and disadvantaged students in health professions 
funded programs is set at 50 percent for 2005, even though only 12.5 
percent of current medical school graduates are URMs, and data on 
disadvantaged backgrounds is not routinely, or accurately collected. 
The concept of disadvantaged background varies based on income related 
to family size, or is based on a vague--non-quantifiable--notion of 
persons growing up in environments that don't prepare them to enter 
health professions schools.
    In 2000 approximately 12.5 percent of the medical degrees awarded 
in the United States went to underrepresented minorities. For all of 
health professions minority representation has risen from 8.3 percent 
in 1985 to 11.7 percent in 2000. Given this data, it's simply 
unrealistic to expect any program to increase its minority 
representation in one year from 12.5 percent to 25 or 50 percent.

Primary Care Training Programs React Quickly to Emerging Health 
        Challenges
    Title VII dollars have created an infrastructure that allows 
educational programs to respond to contemporary health care issues. 
Specifically, the ACTPCMD report states that:

    ``Investment in education to provide primary care has effects that 
touch the largest number of people in the country. No other group of 
health care providers can exert such a broad influence on the kind and 
quality of health care in the United States. Primary care training 
programs are ideally positioned to react quickly to meet ever-changing 
health care needs and issues, whether they are related to HIV/AIDS, 
growing numbers of elderly with chronic illnesses, implications of the 
modern genetics revolution, the threat of bioterrorism, or other issues 
that will continue to emerge and demand rapid educational intervention. 
Thus, this infrastructure is uniquely able to play a pivotal role in 
bringing emerging issues in health care to the population at large.''

    Mr. Chairman, we know that this committee has to weigh the value of 
funding various programs against each other. We hope that the evidence 
we have presented here will bring the committee to the conclusion that 
funding spent on these programs would bring value for the money and 
would be money exceptionally well spent.

   FUNDING FOR THE AGENCY FOR HEALTH CARE RESEARCH AND QUALITY (AHRQ)

    Mr. Chairman, once again, we thank you and this committee for 
funding this important agency. It is apparent that the key federal 
agency available to fund primary care research is the Agency for 
Healthcare Research and Quality (AHRQ). In its recent reauthorization, 
Congress established within the Agency a Center for Primary Care 
Research to ``serve as the principal source of funding for primary care 
practice research in the Department of Health and Human Services.'' The 
statute defined primary care research as research that ``focuses on the 
first contact when illness or health concerns arise, the diagnosis, 
treatment or referral to specialty care, preventive care, and the 
relationship between the clinician and the patient in the context of 
the family and community.

Funding Request For AHRQ
    We recommend appropriations of $440 million for the Agency for 
Healthcare Research and Quality (AHRQ) in fiscal year 2005. AHRQ 
conducts primary care and health services research geared to physician 
practices, health plans and policymakers that helps the American 
population as a whole.

President's Budget Request for fiscal year 2006 AHRQ Funding
    The President's budget includes $316 million for AHRQ, which is the 
same as actual funding for fiscal year 2005. This figure does not 
recognize the $53 million in authorization that Congress provided AHRQ 
in the Medicare Modernization Act to study ``clinical effectiveness and 
appropriateness of specific health services and treatments.''

What Does AHRQ Do?
    AHRQ's three goals are to (1) improve physician practice and 
Americans' health outcomes, (2) improve the quality of health care 
(e.g., patient safety), and (3) improve the health care system (e.g., 
increase access and reduce costs). In brief, AHRQ ``helps to improve 
the health and health care of the American people . . .'' (AHRQ report, 
March, 2001).

How Does AHRQ Meet Its Goals?
    AHRQ translates research findings from basic science entities like 
the National Institutes of Health into information that doctors can use 
every day in their practice with their patients. Another key function 
of the agency is to support research on the conditions that affect most 
Americans.

AHRQ Translates Research into Everyday Practice
    Congress has provided billions of dollars to the National 
Institutes of Health, which has resulted in important insights in 
preventing and curing major diseases. AHRQ takes this basic science and 
produces information that physicians can use every day in their 
practices. AHRQ also distributes this information throughout the health 
care system. In short, AHRQ is the link between research and the 
patient care that Americans receive. An example of this link is basic 
science research showing that beta blockers reduce mortality. AHRQ 
supported research to help physicians determine which patients with 
heart attacks would benefit from this medication.

AHRQ Supports Research on Conditions Affecting Most Americans
    Most Americans get their medical care in doctors' offices and 
clinics. However, most medical research comes from the study of 
extremely ill patients in hospitals. AHRQ studies and supports research 
on the types of illness that trouble most people. AHRQ looks at the 
problems that bring people to their doctors every day--not the problems 
that send them to the hospital. For example, AHRQ supported research 
that found older antidepressant drugs are as effective as new 
antidepressant medications in treating depression, a condition that 
affects millions of Americans.

Institute of Medicine Recommends $1 Billion for AHRQ
    The Institute of Medicine's report, Crossing the Quality Chasm: A 
New Health System for the 21St Century (2001), recommended $1 billion a 
year for AHRQ to ``develop strategies, goals, and actions plans for 
achieving substantial improvements in quality in the next 5 years. `` 
The report looked at redesigning health care delivery in the United 
States. AHRQ is a linchpin in retooling the American health care 
system.
       recommendations for family medicine training and research
    The Academic Family Medicine Advocacy Alliance have two main 
recommendations for the fiscal year 2006 Labor/HHS Appropriations bill. 
They are as follows:
  --We ask that you continue your support for family medicine training, 
        and bring the appropriations level for section 747, the Primary 
        Care Medicine and Dentistry Cluster, up to fiscal year 2003 
        levels of $92 million, a small increase of approximately $3 
        million.
  --In order to support critical practice-oriented primary care 
        research, and to ensure that existing grants and contracts will 
        not be cut, we are asking that the Agency for Healthcare 
        Research and Quality be funded at $440 million.
                                 ______
                                 
                   Prepared Statement of AIDS Action

    I am pleased to submit this testimony to the members of this 
committee on the importance of adequate funding for the fiscal year 
2006 HIV/AIDS portfolio. The federal government's commitment to funding 
research, prevention, and care and treatment for those living with HIV 
is critical. We would not be where we are today in responding to this 
epidemic without the federal government's 24-year commitment to funding 
HIV programs here at home. AIDS Action is dedicated to working with the 
federal government to make sure it sustains this commitment.
    Since 1984, AIDS Action's goals have been clear: to ensure 
effective, evidence-based HIV care, treatment, and prevention services; 
to encourage the continuing pursuit of a cure and a vaccine for HIV 
infection; and to support the development of a public health system 
which ensures that its services are available to all those in need. 
Furthermore, our commitment to working toward these goals is constant: 
AIDS Action is here Until It's Over.
    For over 20 years AIDS Action Council, through its member 
organizations and the greater public health community, has worked to 
enhance HIV prevention programs, research protocols, and care and 
treatment services. An important part of this collaborative effort has 
been working to secure comprehensive federal resources to address 
community needs.
    It is therefore on behalf of AIDS Action Council's diverse 
membership, comprising community-based AIDS service organizations, 
public health departments, and other organizations concerned with HIV 
research, education, and advocacy, that I bring your attention to some 
of the issues impacting the funding picture for fiscal year 2006.
    Despite the good news of improved treatments, which have made it 
possible for people with HIV disease to lead longer and healthier 
lives, stark realities remain:
  --There is neither a cure nor a vaccine for HIV.
  --Current treatments do not work for everyone, and some have 
        debilitating side-effects.
  --There are nearly 1 million people living with HIV in the United 
        States.
  --Access to health care is unequal.
  --Half a million HIV positive Americans are not receiving regular 
        medical care.
    The Ryan White Comprehensive AIDS Resources Emergency (CARE) Act, 
which is administered by the Health Resources and Services 
Administration (HRSA) and is funded by this subcommittee, provides 
services to more than 533,000 people living with and affected by HIV 
throughout the United States and its territories. It is the single 
largest source of federal funding solely focused on the delivery of HIV 
services; it provides the framework for our national response to the 
HIV epidemic. As such, CARE Act programs have been critical to reducing 
the impact of the domestic HIV epidemic. Yet, providers of HIV services 
are working from a deficit. In recent years, CARE Act funding has been 
decreased through across-the-board rescissions. The .80 percent 
rescission that was executed on all non-defense and non-homeland 
security discretionary spending during the final negotiations for the 
fiscal year 2005 bill had a devastating impact on the HIV/AIDS 
portfolio in general, and on the Ryan White CARE Act in particular. 
Moreover, President Bush's budget for fiscal year 2006 requests just 
one increase to the CARE Act--an additional $10 million for the AIDS 
Drug Assistance Program (ADAP).
    Now in its fifteenth year, the Ryan White CARE Act is scheduled for 
reauthorization in this session of the 109th Congress, a fact President 
Bush made known to all Americans in his State of the Union address, 
when he voiced his strong support for reauthorization. He stated, 
``Because HIV/AIDS brings suffering and fear into so many lives, I ask 
you to reauthorize the Ryan White Act to encourage prevention, and 
provide care and treatment to the victims of that disease. And as we 
update this important law, we must focus our efforts on fellow citizens 
with the highest rates of new cases, African American men and women.''
    In June 2004, while discussing the global HIV epidemic, our 
President stated with confidence, ``There's no doubt we can bring hope 
in all parts of the world, not only in Africa, but in neighborhoods in 
our own country where people wonder what the American Dream means.''
    On this point, AIDS Action Council concurs with President Bush: 
hope can be brought to all parts of the world. However, we respectfully 
disagree with the President on what will be needed to ensure hope here 
at home. The delivery of hope relies on the delivery of health care to 
all neighborhoods in this great nation--an effort that will not be 
sufficiently supported by the funding levels the President has 
requested for the HIV/AIDS portfolio in his fiscal year 2006 budget 
request.
    Clearly, it will take more than a $10 million increase for ADAP, a 
single program within the Ryan White CARE Act, to ensure HIV positive 
Americans receive the care and services necessary to remain healthy and 
productive. It is my hope that the Congress, through the good work of 
this subcommittee, will recognize and address the true funding needs of 
the care programs within the domestic HIV/AIDS portfolio.
    Last year, there was an overall increase of 14.5 percent in the 
estimated number of living AIDS cases among the fifty-one hardest hit 
eligible metropolitan areas (EMAs) in the United States, with increases 
as high as 22.6 percent in some areas. Yet fiscal year 2004 funding 
allocations for Title I of the Ryan White CARE Act, which is designed 
to provide services to these areas, were reduced. Forty of the fifty-
one jurisdictions experienced a decrease in funding, with some 
decreases as high as 15 percent. Similar reductions continued in fiscal 
year 2005 when thirty-three of the EMAs experienced a funding decrease, 
the highest being 14 percent.
    Some of the services provided under Title I include physician 
visits, laboratory services, case management, home-based and hospice 
care, nutrition services, and substance abuse and mental health 
services. According to the most recent data available from the Health 
Resources and Services Administration (HRSA), more than half (51.8 
percent) of Title I funds are allocated to core health care services, 
and more than one-third (35.0 percent) are allocated to services 
closely associated with medical care (including medically-based housing 
and care coordination and referral). These services are critical to 
ensuring patients have access to, and can effectively utilize, life-
saving therapies.
    Title II of the CARE Act ensures a foundation for HIV related 
health care services in each state and territory, including the 
critically important AIDS Drug Assistance Program (ADAP) and Emerging 
Communities Program. Title II base grants (excluding ADAP and Emerging 
Communities) decreased from $292,279,000 in fiscal year 2004 to 
$282,597,700 in fiscal year 2005 for a total decrease of over $9 
million ($9,681,300).
    Funding for Emerging Communities remained stable at $10 million, 
but it was divided among an increased number of communities. The $5 
million ``tier one'' award was divided among four cities in fiscal year 
2004 and among five cities this fiscal year, which resulted in funding 
reductions. Funding cuts for the original four cities ranged from 
$200,000 to $264,000 so that a fifth could receive $836,000. This type 
of funding variability is not conducive to providing consistent HIV 
care in emerging communities.
    We applaud the President's recommended increase of $10 million for 
ADAP in his fiscal year 2006 budget. ADAP provides medications for the 
treatment of individuals with HIV who do not have access to Medicaid or 
other health insurance. According to the National ADAP Monitoring 
Project, approximately 85,825 clients received medications through ADAP 
in June 2003.
    A single drug in the multiple-drug regimen of highly active anti-
retroviral therapy (HAART), the standard of care for HIV disease, may 
cost as much as $15,000 annually. Drugs to treat other infections may 
bring the annual cost for a single HIV patient to $40,000 a year. With 
the increasing number of people living with AIDS, the number of newly 
diagnosed infections fixed at 40,000 per year, and cuts in funding to 
state Medicaid programs, pressures on ADAP are increasing. Over the 
years, ADAP has proven to be a remarkable program, allowing people to 
receive the care and treatment they need. Consequently, AIDS Action 
urges Congress both to fully fund ADAP and to consider restructuring 
ADAP to ensure universal access to all needed drugs, regardless of 
state of residence. Moreover, many of the medicines supplied through 
ADAP reach maximum efficacy only in conjunction with proper nutrition. 
Therefore, we urge Congress to continue funding for Ryan White CARE Act 
nutrition programs, funded predominantly through Titles I and II.
    Funding for Title III of the Ryan White CARE Act is awarded under 
the Early Intervention Services program. Title III grant recipients 
include community-based clinics and medical centers, hospitals, public 
health departments, and universities in 22 states and the District of 
Columbia. The grants are targeted toward new and emerging sub-
populations impacted by the HIV epidemic. The Title III funds are 
particularly needed in rural areas where the availability of HIV care 
and treatment is still relatively new. Urban areas also continue to 
need Title III funds to ensure that emerging populations within these 
areas are not shortchanged as grantees struggle to meet the needs of 
previously identified HIV positive populations.
    The Title IV portion of the Ryan White CARE Act is awarded under 
the Comprehensive Family Services Program to provide comprehensive care 
for HIV positive women, infants, children, and youth, as well as their 
affected families. These grants fund the planning of services that 
provide comprehensive HIV care and treatment and the strengthening of 
the safety net for HIV positive individuals and their families.
    If we are to comprehensively address the HIV care and treatment 
crisis in the United States, we must never forget the smaller--but 
nonetheless significant--programs in the CARE Act: AIDS Education and 
Training Centers (AETC), dental reimbursement, and special projects of 
national significance (SPNS). Like nearly every other CARE Act program, 
AETC and SPNS have been affected by diminishing federal funding.
    Given that the President continues to support increases in funding 
to, and a greater reliance on, community health centers nationwide to 
provide care to the uninsured and under insured, we now find ourselves 
simultaneously faced with a pool of community providers who need to be 
educated about proper HIV care. The role of the AETCs is invaluable in 
ensuring that such education is available to physicians who are being 
asked to treat the increasing numbers of HIV positive patients who 
depend on them for care. Dental care is another crucial part of the 
spectrum of services needed by people living with HIV disease. Oral 
health is one of the first aspects of health care to be neglected by 
those who cannot afford, or do not have access to, proper medical care. 
Furthermore, oral health problems are often one of the first 
manifestations of HIV disease. Reimbursement offered by this CARE Act 
program allows dental education institutions to offer their much needed 
services to people living with HIV.
    As this testimony suggests, rising infections and strapped care 
systems necessitate the research and development of innovative models 
of care. The SPNS program is designed for this very purpose and must 
therefore receive sufficient funding.
    AIDS Action believes the entire Ryan White CARE Act portfolio needs 
$3.2 billion for fiscal year 2006 to address the true needs of the 
approximately 1 million people that the Centers for Disease Control and 
Prevention (CDC) estimates are living with HIV in the United States. 
President Bush has requested just over $2 billion ($2,083,342,088).
    The Housing Opportunities for People with AIDS (HOPWA) program, 
administered by the U.S. Department of Housing and Urban Development 
(HUD), is another integral program in the HIV care system. Stable 
housing is absolutely critical to the ability of people living with HIV 
to access and adhere to an effective HIV treatment plan. Without 
housing, one cannot appropriately store medicine or food and often 
cannot consistently access clean water or clean bathrooms. Furthermore, 
when one has no housing, the need for shelter often rises above the 
need to take care of one's HIV infection, which places the individual 
at higher risk of becoming ill and infecting others.
    AIDS Housing of Washington has estimated that approximately one-
third to one-half of people living with HIV are homeless, cannot afford 
their current housing, or are at risk of becoming homeless. HOPWA is 
the only program that specifically addresses the housing needs of 
people living with HIV. Despite the importance of the program, HOPWA's 
funding has been dramatically cut. In fiscal year 2005, HOPWA was 
funded at $281.7 million ($281,728,000), down from $294.8 million 
($294,800,000) in fiscal year 2004--a cut of more than $13 million. In 
his fiscal year 2006 budget proposal, the President proposes an 
additional cut to the program of almost $14 million, to $268 million 
($268,000,000) total. AIDS Action believes that $385 million should be 
appropriated to the HOPWA program for fiscal year 2006 to address the 
needs of HIV positive people requiring housing assistance.
    HIV continues to be an ongoing public health crisis. Despite 
treatment advances, there was a 2 percent increase in progression from 
HIV to an AIDS diagnosis between 2001 and 2002--the first such increase 
in several years. AIDS-defining illnesses are the leading cause of 
death among African-American women between the ages of 25 and 34 and 
they are the third leading cause of death among all African Americans 
in this age group. They are the sixth leading cause of death for 
Latinos and whites in this age group.
    According to CDC estimates contained in the agency's December 2003 
HIV/AIDS Surveillance Report, 929,985 cumulative cases of AIDS have 
been diagnosed in the United States, with a total of 524,059 deaths 
since the beginning of the epidemic. The CDC also estimates that 
between 850,000 and 950,000 people are living with HIV/AIDS in the 
United States, and approximately one-quarter of them, or 180,000-
280,000 people, are unaware of their status and could unknowingly 
transmit the virus to another person.
    For several years, estimates of new infections have remained at 
40,000 per year, compared to an estimated 180,000 new infections in the 
mid 1980s: an extraordinary achievement in efforts against HIV.
    To further reduce new infections, the CDC implemented a new 
initiative in April of 2003 called Advancing HIV Prevention: New 
Strategies for a Changing Epidemic (AHP), consisting of four key 
strategies:
  --Make HIV testing a routine part of medical care.
  --Implement new models for diagnosing HIV infection outside medical 
        settings.
  --Prevent new infections by working with persons diagnosed with HIV 
        and their partners.
  --Decrease mother-to-child transmission of HIV.
    The Urban Coalition for HIV/AIDS Prevention (UCHAPS), which 
represents the six cities that are directly funded by the CDC for HIV 
prevention and is an AIDS Action member, has responded positively to 
the AHP Initiative. UCHAPS members are working with the CDC to 
implement the Initiative effectively in their respective communities.
    This Initiative, however, does not supersede the HIV Prevention 
Strategic Plan that was published by the CDC in 2001, which stated a 
goal of reducing by half the number of new HIV infections by 2005. 
These strategies, though innovative, require additional funding for 
implementation. AIDS Action Council estimates that the CDC HIV/AIDS, 
STD, and TB prevention programs will need $2.33 billion in fiscal year 
2006 to address the true unmet needs of prevention in HIV/AIDS, STDs, 
and TB. AIDS Action Council therefore is concerned that the President 
limited his fiscal year 2006 request for the CDC HIV/AIDS, sexually 
transmitted disease (STD), and tuberculosis (TB) prevention programs to 
$956,283,000--a request that is $4,428,000 less than what the CDC 
received in fiscal year 2005.
    How will we keep apace of the epidemic and meet--albeit belatedly--
the goal of limiting new infections to 20,000 annually without an 
immediate infusion of new resources, new partnerships, and new funding? 
Without such an infusion, this country will continue to face 
significant challenges in providing urgent care and treatment to HIV 
positive people.
    Research on the domestic HIV epidemic is vital to the control of 
the disease. Research that includes biomedical, behavioral, and social 
services is the cornerstone of HIV prevention research. The research 
agenda for HIV prevention science at the Office of AIDS Research (OAR), 
part of the National Institutes of Health (NIH), targets interventions 
to at-risk individuals, both infected and uninfected, to reduce HIV 
transmission. It is essential that OAR continue its groundbreaking 
research to secure a vaccine that will keep HIV negative people 
negative. It is equally important that this office continue to research 
promising treatment vaccines that may help HIV positive people maintain 
optimal health. The research on microbicides for vaginal and anal 
sexual intercourse is critical as well. The use of microbicides by the 
receptive partner will give them power over their personal health when 
they cannot negotiate condom use with their partner to protect 
themselves from HIV transmission.
    The research at NIH on new medications for drug resistant strains 
of HIV is also critical. The current success of treatment for people 
living with HIV and AIDS is due in large part to early research 
investments in new drugs that now have improved the health of people 
living with HIV. The United States must continue to take the lead in 
the research and development of new medicines to treat current and 
future strains of HIV. Primary prevention of new HIV infections must 
remain a high priority in the field of research.
    Behavioral research to help individuals delay the initiation of 
sexual relations, limit the number of sexual partners, limit the 
consumption of alcohol and drugs prior to sexual relations, and move 
from drug use to drug treatment are all critically important in finding 
a solution to the spread of HIV in the United States. NIH's Office of 
AIDS Research is critical in supporting all of these research arenas. 
Increased funding is necessary to ensure that the resources needed to 
address all the research concerns are available both now and in the 
future. Commitment in research will ultimately decrease the care and 
treatment dollars needed if HIV continues to spread at the current 
rate.
    AIDS Action is concerned that President Bush has only requested 
$2,932,992,000 for the AIDS portfolio at NIH. AIDS Action believes the 
National Institutes of Health AIDS portfolio must be funded at $3.327 
billion for fiscal year 2006.
    On behalf of all HIV positive Americans, and those affected by the 
disease, AIDS Action Council asks that you carefully consider the 
ramifications of the President's suggested cuts to the domestic HIV/
AIDS portfolio. Help us save lives by allocating sufficient funds to 
address this nation's epidemic.
                                 ______
                                 
    Prepared Statement of the American Academy of Family Physicians

    The 94,000-member American Academy of Family Physicians submits 
this statement for the record to the Senate Appropriations Subcommittee 
on Labor/Health and Human Services, Education and Related Agencies. Our 
statement is made in support of the Section 747 Primary Care Medicine 
and Dentistry Cluster. The Academy also supports the Agency for 
Healthcare Research and Quality (AHRQ) and rural health programs.

        SECTION 747 PRIMARY CARE MEDICINE AND DENTISTRY CLUSTER

Family Medicine Training
    Section 747 is the only federal program that funds family physician 
training. The law requires the program to meet two goals: (1) increase 
the number of primary care physicians (family physicians, general 
internists and general pediatricians) and (2) boost the number of 
people to provide care to the underserved. Regarding family medicine 
specifically, Section 747 offers competitive grants for training 
programs in medical school and in residency programs.
    The fiscal year 2005 spending bill provided $89 million to Section 
747, a figure that was $3 million below the fiscal year 2003 levels, 
which is the highest figure the program has received in the last 
several years. Unfortunately, the President's fiscal year 2006 budget 
provided zero dollars for the program. In contrast, the congressionally 
established Advisory Committee on Training in Primary Care Medicine and 
Dentistry, which was set up solely to evaluate these programs, 
recommended significantly more funding: $198 million.
    Family physicians are the specialists trained to provide 
comprehensive, coordinated and continuing care to patients of both 
genders and all ages and ethnicities, regardless of medical condition. 
These residency-trained, primary care physicians treat babies with ear 
infections, adolescents who are obese, adults with depression and 
seniors with multiple, chronic illnesses. And because they focus on 
prevention, primary care, and integrating care for patients, they are 
able to treat illnesses early and cost-effectively and when necessary, 
they help patients navigate our complex health system and find the 
right subspecialists.

Section 747 and Rural and Underserved Areas
    In the last few years, there has been a great deal of interest in 
whether Section 747 actually meets its statutory goals, and 
specifically whether or not more physicians are practicing in rural and 
underserved areas as a result of the program. Due to this concern, the 
Robert Graham Center for Policy Studies studied medical schools 
receiving Section 747 family medicine funds and concluded that these 
programs met the law's requirements. According to this research, the 
trainees exposed to Section 747 funding while in these schools were 
more likely to:
  --Practice in family medicine or primary care;
  --Practice in a rural area; or
  --Practice in a whole county Primary Care Health Professions Shortage 
        Area (HPSA) (i.e., a county with inadequate numbers of family 
        physicians, general pediatricians, general internists or 
        obstetrician/gynecologists).
    More specifically, according to this research, students with any 
exposure to Section 747 were 25 percent more likely to go into a 
primary care HPSA and 34 percent more likely to go to a rural county to 
practice. Moreover, the exposure of students to Section 747 funding 
between 1978-1993 was associated with nearly 4,000 additional primary 
care physicians in rural areas and 500 additional physicians in HPSAs 
than would have otherwise occurred. This research showed that Section 
747, was, in fact, meeting the goals of the law.

Preventing HPSAs
    Along a similar vein, another study by the Robert Graham Center 
looked at counties designated as HPSAs. The research showed that the 
United States relies on family physicians more than any other medical 
specialty. For example, of the more than three thousand counties in the 
United States, 784 are designated HPSAs. In a hypothetical exercise, 
the study removed all family physicians from the U.S. counties and 
found that without these specialists, there would be 1,184 HPSAs--a 43 
percent increase. Section 747 grants contribute to bringing health care 
to underserved areas.

Family Physicians for Community Health Centers and NHSC
    Family physicians also play a major role in staffing the nation's 
Community Health Centers (CHCs) and National Health Service Corps 
(NHSC). The Academy strongly supports the Administration's commitment 
to funding increases for these programs. However, we believe that 
increasing funding for CHCs and the NHSC is only a partial solution. 
Without support for family physician training, there will be fewer 
physicians who work in these centers or practice in underserved areas. 
Thousands of family physicians will be needed if the necessary number 
of CHCs sites and NHSC staff is to be realized.
    In fact, in 2003, Community Centers depended on primary care 
physicians for 95 percent of their physician staffing, over half of 
whom were family or general practice physicians. And, since 1971, the 
National Health Service Corps has placed more than 18,000 health care 
providers in underserved areas: almost half of the NHSC doctors were 
family physicians. Support for CHCs and the NHSC must go in tandem with 
funding for Section 747.

Lower Health Care Costs and Improved Quality
    As the only federal program aimed at producing more generalists, 
Section 747 plays a role in lowering our nation's health care costs and 
increasing the quality of U.S. health care. For example, an article in 
Health Affairs (April 2004) demonstrated that states that spent more on 
Medicare had lower quality of care. There were two reasons for this 
result: states' expensive health care did not improve patient 
satisfaction, or, outcomes (e.g., people who were admitted to intensive 
care in the last 6 months of their life.)
    The second reason was also important: the authors found the makeup 
of the health care workforce made a difference. In fact, more primary 
care doctors in a state meant higher quality care and lower cost. In 
contrast, more specialists and fewer generalists led to lower quality 
and higher costs. And, just a small increase in the number of 
generalists in a state was associated with a large boost in that 
state's quality ranking.
    An article in a more recent edition of Health Affairs (March 2005), 
``The Effects of Specialist Supply on Populations' Health: Assessing 
the Evidence'' went even further. This piece stated that there is a 
``negative relationship between the supply of primary care physicians 
and death from stroke, infant mortality and low-birthweight, and all-
cause mortality.'' The article went on to say that just one more 
primary care physician per 10,000 people was associated with a decrease 
of 34.6 deaths per 100,000 population.
    The article also cited breast cancer research for the state of 
Florida, which indicated that ``each tenth-percentile increase in 
primary care physician supply is associated with a statistically 
significant 4 percent increase in odd of early-stage breast cancer. `` 
Statistics were similar for other types of cancers: there was a 
relationship between early identification and the supply of primary 
care physicians. Numerous other research was included in the Health 
Affairs article indicating that a higher ratio of primary care 
physicians to populations led to better health outcomes. These data 
support the need for additional funding for Section 747, the only 
federal program that produces primary care physicians.

Economic Impact
    In 2003, the Oklahoma Physician Manpower Training Commission 
studied the amount of income that comes into a community due to the 
presence of one family physician, and the additional jobs that result 
from his or her practice. Their research showed that the figure was 
approximately $1.2 million in rural areas and $0.9 million in urban 
areas.

The Overspecialized U.S. Physician Workforce
    Unlike all other developed countries, the United States does not 
have a primary care-based health care system. While other developed 
countries have about equal numbers of primary care doctors and 
subspecialists, less than one-third of the U.S. physician workforce is 
primary care doctors (including family physicians). As a result, about 
two-thirds of the U.S. physician workforce is made up of 
subspecialists.
    In addition, compared to those in other developed countries, the 
United States spends the most per capita on healthcare--but has the 
worst healthcare outcomes. More than 20 years of evidence have shown 
that a health system based on primary care produces greater health and 
economic benefits. Boosting support for Section 747, which funds 
training for family physicians and for other primary care disciplines, 
could improve the health of patients in the United States to enjoy 
those benefits.

              AGENCY FOR HEALTHCARE, RESEARCH AND QUALITY

    The Academy recommends $440 million for the Agency for Healthcare, 
Research and Quality (AHRQ). A major purpose of AHRQ is to conduct 
primary care and health services research geared to physician 
practices, health plans and policymakers. What this means is that the 
agency translates research findings from basic science entities like 
the National Institutes of Health (NIH) into information that doctors 
can use every day in their practices. Another key function of the 
agency is to support research on the conditions that affect most 
Americans.
    More recently, AHRQ has become the lead federal agency for research 
on comparative clinical effectiveness; information technology; and 
patient safety. For example, the Medicare Modernization Act asked AHRQ 
to study the ``clinical effectiveness and appropriateness of specified 
health services and treatments,'' and to use this information to 
improve the quality and effectiveness of the costly Medicare, Medicaid 
and SCHIP programs. In fiscal year 2005, $15 million was appropriated 
by Congress for this purpose, and the agency now has determined the top 
10 conditions for initial research. This type of study on ``what 
works'' in clinical therapies is crucial in an era of skyrocketing 
health care costs and limited federal dollars.
    Historically, however, AHRQ has been the lead agency to translate 
research into information for physicians and patients. Over the years, 
Congress has provided billions of dollars to the National Institutes of 
Health, which has resulted in important insights in preventing and 
curing major diseases. However, AHRQ's role has been to take this basic 
science and produce understandable, practical materials for the entire 
healthcare system. In short, AHRQ is the link between research and the 
patient care that Americans receive.
    In addition, AHRQ has long-supported research on conditions that 
affect most people. Most Americans get their medical care in doctors' 
offices and clinics. However, most medical research comes from the 
study of extremely ill patients in hospitals. AHRQ studies and supports 
research on the types of illness that trouble most people. In brief, 
AHRQ looks at the problems that bring people to their doctors every 
day--not the problems that send them to the hospital.

                         RURAL HEALTH PROGRAMS

    Continued funding for rural programs is vital to provide adequate 
health care services to America's rural citizens. We support the 
Federal Office of Rural Health Policy; Area Health Education Centers; 
the Community and Migrant Health Center Program; and the NHSC. State 
rural health offices, funded through the National Health Services Corps 
budget, help states implement these programs so that rural residents 
benefit as much as urban patients.

                               CONCLUSION

    The Academy urges Congress to increase funding for Section 747 
family medicine training, at a minimum, to the fiscal year 2003 level 
of $92 million; provide $440 million for AHRQ and support rural health 
programs. Federal funding for these initiatives is vital to sustain and 
improve America's health care system.
                                 ______
                                 
        Prepared Statement of the American Academy of Pediatrics

    This statement is submitted on behalf of the American Academy of 
Pediatrics (AAP) and the endorsing organizations, the Society for 
Adolescent Medicine (SAM) and the Ambulatory Pediatric Association 
(APA).
    There have been numerous and significant successes in improving the 
health of America's children and adolescents. The number of 2-year-olds 
who have received the recommended series of immunizations is at an all-
time high. Child death rates have fallen steadily over the past several 
years. And teen pregnancy rates continue to decline. However, despite 
these significant improvements, more than 9 million children and 
adolescents through age 18 remain uninsured. Moreover, racial and 
ethnic health disparities for many children and adolescents continue to 
exist, while the percent of children living in poverty continues to 
climb. Clearly there remains much work to do. As clinicians we must not 
only diagnose and treat our patients but also promote strong preventive 
interventions to improve the overall health and well-being of all 
infants, children, adolescents and young adults. Likewise, as policy-
makers, you have an integral role to play in improving the health of 
the next generation through adequate and sustained funding of vital 
federal programs.
    The AAP, SAM and APA has identified three key priorities within 
this Committee's jurisdiction key priorities that are at the heart of 
improving the health and well-being of America's children and 
adolescents: access to health care, quality of health care, and 
immunizations.

                                 ACCESS

    We believe that all children and adolescents should have full 
access to health care. From the ability to receive primary care from a 
pediatrician trained in the unique needs of children and adolescents, 
to timely access to pediatric medical subspecialists and pediatric 
surgical specialists, America's children and adolescents deserve access 
to quality pediatric care.
    Maternal and Child Health Block Grant.--The Maternal and Child 
Health (MCH) Block Grant Program at the Health Resources and Services 
Administration (HRSA) is the only federal program exclusively dedicated 
to improving the health of all mothers and children. Nationwide, the 
MCH Block Grant Program provides preventive and primary care services 
to over 28 million women, infants, children, adolescents and children 
with special health care needs. In addition, the MCH Block Grant 
Program supports community programs around the country in their efforts 
to reduce infant mortality, prevent injury and violence, expand access 
to oral health care, and address racial and ethnic health disparities. 
Moreover, the MCH Block Grant Program includes efforts dedicated to 
addressing interdisciplinary adolescent training and services and 
research for adolescents' physical and mental health care needs. HRSA 
also supports adolescent health programs for vulnerable populations, 
including health care initiatives for incarcerated and minority group 
adolescents, and violence and suicide prevention. It also plays an 
important role in the implementation of the State Children's Health 
Insurance Program (SCHIP), which is critically important at a time when 
states are continuing to suffer from ongoing deficits and shifting 
costs. One of the many successful MCH Block Grant programs is the 
Healthy Tomorrows Partnership for Children Program, a public/private 
collaboration between the MCH Bureau and the American Academy of 
Pediatrics. Established in 1989, Healthy Tomorrows has supported over 
140 family-centered, community-based initiatives in over 40 states, 
including Ohio, Wisconsin, Texas, California, Kentucky, and Maryland. 
These initiatives have addressed issues such as access to oral and 
mental health care, abstinence, injury prevention, and enhanced 
clinical services for chronic conditions such as asthma. To continue to 
foster these and other community-based solutions for local health 
problems, in fiscal year 2006 we strongly support an increase in 
funding for the MCH Block Grant Program to $755 million.
    Family Planning Services.--The family planning program, Title X of 
the Public Health Services Act, ensures that all teens have 
confidential access to valuable family planning resources. The 
consequence of adolescent pregnancy, sexually transmitted infections 
(STIs), and HIV/AIDS demands that adolescents be able to make informed, 
responsible sexual decisions. Title X--which does not provide funding 
for abortion services--supports teens in making those decisions. 
According to a January 2005 report from the Henry J. Kaiser Family 
Foundation, the percentage of high school students who report ever 
having had sexual intercourse has declined over the past decade, while 
the rate of contraceptive use among those teens has increased. 
Nevertheless, teen pregnancy rates continue to vary widely over racial 
and ethnic groups, over 4 million teens still contract a sexually 
transmitted infection each year, and nearly half (48 percent) of all 
teens say that they want more information from--and increased access 
to--sexual health care services. Responsible sexual decision-making, 
beginning with abstinence, is the surest way to protect against 
sexually transmitted diseases and pregnancy. However, for adolescent 
patients who are already sexually active, confidential contraceptive 
services, screening and prevention strategies should be available. We 
therefore support a funding level in fiscal year 2006 of $350 million 
for Title X of the Public Health Service Act.
    Mental Health.--It is estimated that one in five children and 
adolescents has a mental health problem such as depression, ADHD, or an 
eating disorder, and for as many as six million this problem may be 
significant enough to disturb school attendance, interrupt social 
interactions, and impact quality of family life. Despite these 
startling statistics, the National Institute of Mental Health (NIMH) 
estimates that fewer than one in five of these children receives 
treatment, due in part to stigma and the lack of affordability of care 
and availability of specialists. One key point of access for helping 
these children receive the mental health care they need is the 
inclusion of mental health services--provided by qualified counselors, 
psychologists, and social workers--in the nation's schools. Grants 
through the Children's Mental Health Services program have been 
instrumental in achieving decreased utilization of inpatient services, 
improvement in school attendance and lower law enforcement contact for 
children and adolescents. To ensure the continued and growing success 
of this and other programs focusing on children and adolescents with 
mental health problems, the AAP and the endorsing organizations 
recommend that $114.7 million be allocated in fiscal year 2006 for the 
Mental Health Services for Children program.
    Health Professions Education and Training.--Critical to building a 
pediatric workforce to care for tomorrow's children and adolescents are 
the Training Grants in Primary Care Medicine and Dentistry, found in 
Title VII of the Public Health Service Act. These grants are the only 
federal support targeted to the training of primary care professionals. 
They provide funding for innovative pediatric residency training, 
faculty development and post-doctoral programs throughout the country. 
For example, at the Cincinnati Children's Hospital, Title VII health 
professions programs have funded critically important programs in 
pediatric medical education. The Residency Training in Primary Care 
grant is designed to train physicians for a career in primary care 
pediatrics, and features a strong emphasis on behavioral and 
developmental pediatrics, pediatrics in a community setting, and care 
for under-represented minorities and medically underserved populations. 
The community settings in which the primary care training takes place--
and, often, ultimately where the physicians chose to practice--are 
federally-designated HPSAs with diverse populations. This program is 
now an integral part of the Cincinnati Children's pediatric residency 
training program, and widely sought after by physicians entering 
training at Children's.
    Through the enduring support of this subcommittee and Congress, the 
Title VII program has continued to finance critically important 
educational opportunities in a variety of settings that educate and 
train tomorrow's generalist pediatricians to be culturally competent 
and to meet the special health care needs of their communities. We 
recommend fiscal year 2006 funding of at least $40 million for General 
Internal Medicine/General Pediatrics. We also join with the Health 
Professions and Nursing Education Coalition in supporting an 
appropriation of at least $550 million in total funding for Titles VII 
and VIII. We further recommend and support the Administration's 
increase in funds in fiscal year 2006 for the National Health Service 
Corps, a key component to ensuring an adequate distribution of health 
care providers across the country, but emphasize the need for continued 
support of the training and education opportunities through Title VII 
for health care professionals who will work in these areas including 
community health centers.
    Independent Children's Teaching Hospitals.--Equally important to 
the future of pediatric education and research is the dilemma faced by 
independent children's teaching hospitals. Children's hospitals across 
the country are critical to the care of the nation's children and play 
a significant role in research and training tomorrow's pediatricians 
and pediatric subspecialists. This is especially important at a time 
when pediatric neurologists, gastroenterologists, and many other 
specialists for children are in short supply nationally. The children's 
hospitals have the critical mass of patients, physicians, and services 
needed to train these specialists, and their ability to sustain their 
teaching programs contributes to their ability to maintain these 
services. However, these hospitals qualify for very limited Medicare 
support, the primary source of funding for graduate medical education 
in other inpatient environments. As a bipartisan Congress has 
recognized in the past several years, equitable funding for Children's 
Hospitals Graduate Medical Education is needed to continue the 
education and research programs in these child- and adolescent-centered 
settings. We therefore reject the Administration's reduction in funding 
for this vital program and join with the National Association of 
Children's Hospitals to request total funding of $309 million for the 
CHGME program in fiscal year 2006 reflecting an adjustment for the cost 
of inflation. The support for independent children's hospitals should 
not come, however, at the expense of valuable Title VII and VIII 
programs, including grant support for primary care training.

                                QUALITY

    Access to health care is only the first step in protecting the 
health of all children and adolescents. We must ensure that the care 
provided is of the highest quality. Robust federal support for the wide 
array of quality improvement initiatives is needed if this goal is to 
be achieved.
    Emergency Services for Children.--One program that assists local 
communities in providing quality care to children is the Emergency 
Medical Services for Children (EMSC) grant program. There are 31 
million child and adolescent visits to the nation's emergency 
departments every year. Children under the age of 3 years account for 
most of these visits. Up to 20 percent of children needing emergency 
care have underlying medical conditions such as asthma, diabetes, 
sickle-cell disease, low birthweight, and bronchopulmonary dysplasia. 
Providers must be educated and trained to manage these special health 
care needs in emergency situations, and emergency systems must be 
equipped with the resources needed to care for this especially 
vulnerable population. In order to assist local communities in 
providing the best emergency care to children, we urge that the EMSC 
program be maintained and funded at $20 million in fiscal year 2006.
    Agency for Healthcare Research and Quality.--Quality of care rests 
on quality research--for new detection methods, new treatments, new 
technology and new applications of science. As the lead federal agency 
on quality of care research, the Agency for Healthcare Research and 
Quality (AHRQ) provides the scientific basis to improve the quality of 
care, supports emerging critical issues in health care delivery and 
addresses the particular needs of priority populations, such as 
children. Substantial gaps still remain in what we know about health 
care needs for children and adolescents and how we can best address 
those needs. Children are often excluded from research that could 
address these issues. The AAP and endorsing organizations strongly 
support AHRQ's objective to encourage researchers to include children 
and adolescents as part of their research populations. We also support 
increasing AHRQ's efforts to build pediatric health services research 
capacity through career and faculty development awards and strong 
practice-based research networks. Additionally, AHRQ is focusing on 
initiatives in community and rural hospitals to reduce medical errors 
and to improve patient safety through innovative use of information 
technology--an initiative that we hope would include children's 
hospitals as well. Through its research and quality agenda, AHRQ 
continues to provide policymakers, health care providers, and patients 
with critical information needed to improve health care; therefore, we 
join with the Friends of AHRQ to recommend funding of $440 million for 
AHRQ in fiscal year 2006.
    National Institutes of Health.--Since its inception, the National 
Institutes of Health (NIH) is an integral part of the public health 
continuum. NIH has served as a vital component in improving the 
nation's health through research, both on and off the NIH campus, and 
in the training of research investigators, including pediatric 
investigators. Over the years, NIH has made dramatic strides that 
directly impact the quality of life for infants, children and 
adolescents through biomedical and behavioral research. For example, 
NIH research has led to successfully decreasing infant death rates, 
increasing the survival rates from respiratory distress syndrome, and 
the transmission of HIV from infected mother to fetus and infant has 
dropped from 25 percent to just 1.5 percent. NIH is engaged in a 
comprehensive research initiative to address and explain the reasons 
for a major public health dilemma--the increasing number of obese and 
overweight adults and children in this country. Today U.S. teenagers 
are more overweight than young people in many other developed 
countries. There is also a need for ongoing and increased biomedical 
research and funding support to study pre-term delivery, etiology, 
prevention and treatment regimens. In 2002, more then 480,000 babies 
were born prematurely and the causes of nearly half pre-term births are 
unknown. The pediatric community applauds the prior commitment of 
Congress to maintain adequate funding for the NIH and we urge you to 
sustain this momentum of scientific discovery. We support the 
recommendation of the Ad Hoc Group for Medical Research Funding for a 
funding level in fiscal year 2006 of $30 billion. In addition, to 
ensure ongoing and adequate child and adolescent focused research, such 
as the National Children's Study conducted at the National Institute 
for Child Health and Human Development (NICHD), we join with the 
Friends of NICHD Coalition in requesting $1.35 billion in fiscal year 
2006.
    We commend this committee's ongoing efforts to make pediatric 
research a priority at the highest level of the NIH. We urge continued 
federal support of NIH efforts to increase pediatric biomedical and 
behavioral research, including such proven programs as targeted 
training and education opportunities and loan repayment. We recommend 
continued interest in and support for the Pediatric Research Initiative 
in the Office of the NIH Director and sufficient funding to continue 
the pediatric training grant and pediatric loan repayment programs 
enacted in the Children's Health Act of 2000. This would ensure that we 
have adequately trained pediatric researchers in multiple disciplines 
that will not come at the expense of other important programs.
    Finally, as clinicians, we know first-hand the considerable 
benefits for children and society in securing properly studied and 
dosed medications. The benefits of pediatric drug testing are 
undisputed. Proper pediatric safety and dosing information reduces 
medical errors and adverse events, ultimately improving children's 
health and reducing health care costs. In a very conservative estimate, 
the FDA projected savings from pediatric testing of over $228 million a 
year in reduced hospitalization expenses for just five diseases 
affecting children. But until now there has been little incentive for 
drug companies to study off-patent drugs--older drugs that are 
critically needed therapies for children. The Research Fund for the 
Study of Drugs, created as part of the Best Pharmaceuticals for 
Children Act of 2002, provides support for these critical pediatric 
testing needs, but unfortunately is currently funded at an amount 
sufficient to test only a fraction of the NIH and FDA-designated 
``priority'' drugs. Therefore, we urge you to provide the NIH with 
sufficient funding to fund the study of generic (off-patent) and 
selected on-patent drugs for pediatric use.
    We believe that these requests represent the best and most reliable 
estimates of the level of funding needed to sustain the high standard 
of scientific achievement embodied by the NIH. However, we encourage 
Congress to explore all possible options to identify additional sources 
of funding needed to support these increases if we are to reach these 
funding goals while not weakening any other valuable component of the 
Public Health Service.

                             IMMUNIZATIONS

    Immunization remains one of the greatest public health achievements 
of the 20th century and has saved millions of lives. Since the 
widespread use of vaccines, millions of children have avoided terrible 
diseases that can cause great suffering and, in some cases, death. For 
example before immunization, polio paralyzed 10,000-25,000 children and 
adults, rubella (German measles) caused birth defects and mental 
retardation in as many as 20,000 newborns, and measles infected 
millions of children, killing 400-500 and leaving thousands with 
serious brain damage. Immunizations have reduced by more than 95 to 99 
percent the cases of vaccine-preventable infectious diseases in this 
country. And some, like rubella, are virtually eliminated from North 
America, thanks to successful immunization programs.
    Pediatricians, working alongside public health professionals and 
other partners, have brought the United States its highest immunization 
coverage levels in history. As a result, disease levels are at, or 
near, record low levels. We attribute this, in part, to the Vaccines 
for Children (VFC) Program and encourage Congress to maintain its 
commitment to ensuring the program's viability. The VFC program 
combines the efforts of public health and private pediatricians and 
other health care professionals to accomplish and sustain vaccine 
coverage goals for both today's and tomorrow's vaccines. It removes 
vaccine cost as a barrier to immunization for some and reinforces the 
concept of vaccine delivery in a ``medical home.'' However, we are 
concerned that once again the Administration's fiscal year 2006 
proposal to reduce funding for the Section 317 program to expand VFC is 
shortsighted. Additional section 317 funding is necessary to provide 
the pneumococcal conjugate vaccine (PCV-7), a vaccine that prevents an 
infection of the brain covering, blood infections and approximately 7 
million ear infections a year, to those remaining states that currently 
do not provide it. Increased funding also is needed to purchase the 
influenza vaccine. It is now recommended that young children between 
the ages of 6 months and 23 months of age receive an annual influenza 
vaccine. This age cohort is increasingly susceptible to serious 
infection and the risk of hospitalization. And an increase in funding 
is needed to purchase the recently recommended meningococcal conjugate 
vaccine (MCV). Meningococcal disease is a serious illness, caused by 
bacteria, with 10-15 percent of cases fatal and another 10-15 percent 
of cases resulting in permanent hearing loss, mental retardation, or 
loss of limbs.
    The public health infrastructure that now supports our national 
immunization efforts must not be jeopardized with insufficient funding. 
One of the conclusions of the 2000 Institute of Medicine report, 
Calling the Shots, was that unstable funding for state immunization 
programs threatens coverage levels for specific populations and age 
groups and vaccine safety. This continues to be true today. A strong 
and sufficient infrastructure is essential. For example, adolescents 
continue to be adversely affected by vaccine-preventable diseases 
(e.g., chicken pox, hepatitis B, measles and rubella). Comprehensive 
adolescent immunization activities at the national, state and local 
levels are needed to achieve national disease elimination goals. States 
and communities continue to be financially strapped and therefore, many 
continue to divert funds and health professionals from immunization 
clinics in order to accommodate anti-bioterrorism initiatives. 
Moreover, continued investment in the CDC's immunization activities 
must be made to avoid the reoccurrence of childhood vaccine shortages 
by providing and adequately funding a national 6 month stockpile for 
all routine childhood vaccines--stockpiles of sufficient size to insure 
that significant and unexpected interruptions in manufacturing do not 
result in shortages for children.
    While the ultimate goal of immunizations clearly is eradication of 
disease, the immediate goal must be prevention of disease in 
individuals or groups. To this end, we strongly believe that CDC's 
efforts must be sustained. In fiscal year 2006, we recommend an overall 
increase in funding of $232 million to ensure that the CDC's National 
Immunization Program has the funding necessary to accommodate vaccine 
price increases, new disease preventable vaccines coming on the market, 
global immunization initiatives--including funds for polio eradication 
and the elimination of measles and rubella--and to continue to 
implement the recommendations developed by the IOM.

                               CONCLUSION

    We appreciate the opportunity to provide our recommendations for 
the coming fiscal year. As this Subcommittee is once again faced with 
difficult choices and multiple priorities we know that as in the past 
years, you will not forget America's children and adolescents.

               OTHER RECOMMENDATIONS FOR FISCAL YEAR 2006

                 DEPARTMENT OF HEALTH AND HUMAN SERVICES
------------------------------------------------------------------------
                        Agency                               Amount
------------------------------------------------------------------------
Centers for Disease Control and Prevention (total)...     $8,065,000,000
    Global Immunization (including polio eradication)        153,000,000
    Birth Defects, Disability and Health.............        135,000,000
    Newborn Hearing Screening Technical Assistance...          9,000,000
    National Violent Death Reporting System..........         10,000,000
    Folic Acid Education Campaign....................          4,000,000
Health Resources and Services Administration (total).      7,500,000,000
    Newborn Screening (Title XXVI)...................         25,000,000
    Newborn Hearing Screening Grants to States.......         10,000,000
    Consolidated Community Health Centers............      2,038,000,000
Substance Abuse and Mental Health Services                 3,531,000,000
 Administration (total)..............................
------------------------------------------------------------------------

                                 ______
                                 
   Prepared Statement of the American Academy of Physician Assistants

    On behalf of the more than 55,000 clinically practicing physician 
assistants in the United States, the American Academy of Physician 
Assistants is pleased to submit comments on fiscal year 2006 
appropriations for Physician Assistant (PA) education programs that are 
authorized through Title VII of the Public Health Service Act.
    A member of the Health Professions and Nursing Education Coalition 
(HPNEC), the Academy supports the HPNEC recommendation to provide at 
least $550 million to support the Titles VII and VIII programs in 
fiscal year 2006, including $18 million to support PA educational 
programs, as recommended by the Advisory Committee on Primary Care 
Medicine and Dentistry.
    The Academy believes that the recommended increase in funding for 
the Title VII health professions programs is well justified. The 
programs are essential to the development and training of primary 
health care professionals and contribute to the nation's overall 
efforts to increase access to care by promoting health care delivery in 
medically underserved communities.
    The Academy is very concerned with the Administration's proposal to 
eliminate funding for most Title VII programs, including zero funding 
for training in primary care medicine and dentistry. As Members of the 
Subcommittee are aware, these programs are designed to help meet the 
health care delivery needs of the nation's Health Professional Shortage 
Areas (HPSAs). By definition, the nation's more than 3,800 HPSAs 
experience shortages in the primary care workforce that the market 
alone can't address. We wish to thank the members of this subcommittee 
for your historical role in supporting funding for the health 
professions programs, and we hope that we can count on your support for 
these important programs in fiscal year 2006.

               OVERVIEW OF PHYSICIAN ASSISTANT EDUCATION

    Physician assistant programs provide students with a primary care 
education that prepares them to practice medicine with physician 
supervision. PA programs are located at schools of medicine or health 
sciences, universities, teaching hospitals, and the Armed Services. All 
PA educational programs are intensive education programs that are 
accredited by the Accreditation Review Commission on Education for the 
Physician Assistant.
    The typical PA program consists of 111 weeks of instruction. The 
first phase of the program consists of intensive classroom and 
laboratory study, providing students with an in-depth understanding of 
the medical sciences. More than 400 hours in classroom and laboratory 
instruction are devoted to the basic sciences, with over 70 hours in 
pharmacology, more than 149 hours in behavioral sciences, and more than 
535 hours of clinical medicine.
    The second year of PA education consists of clinical rotations. On 
average, students devote more than 2,000 hours or 50-55 weeks to 
clinical education, divided between primary care medicine and various 
specialties, including family medicine, internal medicine, pediatrics, 
obstetrics and gynecology, surgery and surgical specialties, internal 
medicine subspecialties, emergency medicine, and psychiatry. During 
clinical rotations, PA students work directly under the supervision of 
physician preceptors, participating in the full range of patient care 
activities, including patient assessment and diagnosis, development of 
treatment plans, patient education, and counseling.
    Physician assistant education is competency based. After graduation 
from an accredited PA program, the physician assistant must pass a 
national certifying examination jointly developed by the National Board 
of Medical Examiners and the independent National Commission on 
Certification of Physician Assistants. To maintain certification, PAs 
must log 100 continuing medical education credits over a two-year cycle 
and reregister every two years. Also to maintain certification, PAs 
must take a recertification exam every six years.

                      PHYSICIAN ASSISTANT PRACTICE

    Physician assistants are licensed health care professionals 
educated to practice medicine as delegated by and with the supervision 
of a physician. In all states, physicians may delegate to PAs those 
medical duties that are within the physician's scope of practice and 
the PA's training and experience, and are allowed by law. Forty-eight 
states, the District of Columbia, and Guam authorize physicians to 
delegate prescriptive privileges to the PAs they supervise.
    PAs are located in almost all health care settings and in every 
medical and surgical specialty. Nineteen percent of all PAs practice in 
non-metropolitan areas where they may be the only full-time providers 
of care (state laws stipulate the conditions for remote supervision by 
a physician). Approximately 41 percent of PAs work in urban and inner 
city areas. Approximately 44 percent of PAs are in primary care. Nearly 
one-quarter practice in surgical specialties. Roughly 80 percent of PAs 
practice in outpatient settings. In 2004, an estimated 206 million 
patient visits were made to PAs and approximately 250 million 
medications were prescribed or recommended by PAs.

  CRITICAL ROLE OF THE TITLE VII, PUBLIC HEALTH SERVICE ACT, PROGRAMS

    A growing number of Americans lack access to primary care, either 
because they are uninsured, underinsured, or they live in a community 
with an inadequate supply or distribution of providers. The growth in 
the uninsured U.S. population increased from approximately 32 million 
in the early 1990s to nearly 45 million today. Simultaneously, the 
number of medically underserved communities continues to rise, from 
1,949 in 1986 to more than 3,800 today.
    The role of the Title VII programs is to alleviate these problems 
by supporting access to quality, affordable, and cost-effective care in 
areas of our country that are most in need of health care services, 
specifically rural and urban underserved communities. This is 
accomplished through the support of educational programs that train 
more health professionals in fields experiencing shortages, improve the 
geographic distribution of health professionals, and increase access to 
care in underserved communities.
    The Title VII programs are the only federal education programs that 
are designed to address the supply and distribution imbalances in the 
health professions. Since the establishment of Medicare, the costs of 
physician residencies, nurses, and some allied health professions 
training has been paid through Graduate Medical Education (GME) 
funding. However, GME has never been available to support PA education. 
More importantly, GME was not intended to generate a supply of 
providers who are willing to work in the nation's medically underserved 
communities. That is the purpose of the Title VII Public Health Service 
Act Programs, which support such initiatives as loans and scholarships 
for disadvantaged students, scholarships for students with exceptional 
financial need, centers of excellence to recruit and train minority and 
disadvantaged students, and interdisciplinary initiatives in geriatric 
care and rural health care.
    Furthermore, now that there is compelling evidence that race and 
ethnicity correlate with persistent, and often increasing, health 
disparities among U.S. populations, increasing the diversity of health 
care professionals is essential. Title VII programs are unique in that 
they seek to recruit providers from a variety of backgrounds. This is 
particularly important, as studies have found that those from 
disadvantaged regions of the country are three to five times more 
likely to return to those underserved areas to provide care versus 
other areas.

               TITLE VII SUPPORT OF PA EDUCATION PROGRAMS

    Targeted federal support for PA education programs is currently 
authorized through section 747 of the Public Health Service Act. The 
program was reauthorized in the 105th Congress through the Health 
Professions Education Partnerships Act of 1998, Public Law 105-392, 
which streamlined and consolidated the federal health professions 
education programs. Support for PA education is now considered within 
the broader context of training in primary care medicine and dentistry.
    Public Law 105-392 reauthorized awards and grants to schools of 
medicine and osteopathic medicine, as well as colleges and 
universities, to plan, develop, and operate accredited programs for the 
education of physician assistants and faculty, with priority given to 
training individuals from disadvantaged communities. The funds ensure 
that PA students from all backgrounds have continued access to an 
affordable education and encourage PAs, upon graduation, to practice in 
underserved communities. These goals are accomplished by funding PA 
education programs that have a demonstrated track record of: (1) 
placing PA students in health professional shortage areas; (2) exposing 
PA students to medically underserved communities during the clinical 
rotation portion of their training; and (3) recruiting and retaining 
students who are indigenous to communities with unmet health care 
needs.
    The program works. A review of PA graduates from 1990-2003 reveals 
that students graduating from PA programs supported by Title VII are 65 
percent more likely to be from underrepresented minority backgrounds 
and 29 percent more likely to practice in underserved settings, than 
students graduating from PA programs that were not supported by Title 
VII.
    The PA programs' success in recruiting and retaining 
underrepresented minority and disadvantaged students is linked to their 
ability to creatively use Title VII funds to enhance existing 
educational programs. For example, a PA educational program in Iowa 
uses Title VII funds to target recruitment efforts to disadvantaged 
students, providing shadowing and mentoring opportunities for 
prospective students, increasing training in cultural competency, and 
identifying new family medicine preceptors in underserved areas. PA 
programs in Texas use Title VII funds to create new clinical rotation 
sites in rural and underserved areas, including new sites in border 
communities, and to establish non-clinical rural rotations to help 
students understand the challenges faced by rural communities. One 
Texas program uses Title VII funds for the development of web based and 
distant learning technology and methodologies so students can remain at 
clinical practice sites. A PA program in New York, where over 90 
percent of the students are ethnic minorities, uses Title VII funding 
to focus on primary care training for underserved urban populations by 
linking with community health centers, which expands the pool of 
qualified minority role models that engage in clinical teaching, 
mentoring, and preceptorship for PA students. Several other PA programs 
have been able to use Title VII grants to leverage additional resources 
to assist students with the added costs of housing and travel that 
occur during relocation to rural areas for clinical training.
    Without Title VII funding, many of these special PA training 
initiatives would not be possible. Institutional budgets and student 
tuition fees simply do not provide sufficient funding to meet the 
special, unmet needs of medically underserved areas or disadvantaged 
students. The need is very real, and Title VII is critical in meeting 
it.

     NEED FOR INCREASED TITLE VII SUPPORT FOR PA EDUCATION PROGRAMS

    Increased Title VII support for educating PAs to practice in 
underserved communities is particularly important given the market 
demand for physician assistants. Without the Title VII funding to 
expose students to underserved sites during their training, PA students 
are far more likely to practice in the communities where they were 
raised or the communities in which they attended school. Title VII 
funding is a critical link in addressing the natural geographic 
maldistribution of health care providers by exposing students to 
underserved sites during their training, where they frequently choose 
to practice following graduation. Currently 36 percent of PAs met their 
first clinical employer through their clinical rotations.
    Changes in the health care marketplace reflect a growing reliance 
on PAs as part of the health care team. Currently, the supply of 
physician assistants is inadequate to meet the needs of society, and 
the demand for PAs is expected to increase. A 1994 report of a 
workgroup of the Council on Graduate Medical Education (COGME), 
``Physician Assistants in the Health Workforce,'' estimated that the 
anticipated medical market demand and the estimated workforce 
requirements for PAs would exceed supply. Additionally, the Bureau of 
Labor Statistics projects that the number of available PA jobs will 
increase 49 percent between 2002 and 2012. Title VII funding has 
provided, and continues to provide, a crucial pipeline of trained PAs 
to underserved areas. One way to assure an adequate supply of physician 
assistants, especially PAs likely to practice in underserved areas, is 
to continue offering financial incentives, such as funding preferences, 
to PA programs that emphasize recruitment and placement of people 
interested in primary health care in medically underserved communities.
    Despite the increased demand for PAs, funding has not 
proportionately increased for the Title VII programs that are designed 
to educate and place physician assistants in underserved communities. 
Nor has the Title VII support for PA education kept pace with increases 
in the cost of educating PAs. A review of PA program budgets from 1984 
through 2003 indicates an average annual increase of seven percent, a 
total increase of 245 percent over the past 19 years, yet federal 
support has remained relatively static.

              RECOMMENDATIONS ON FISCAL YEAR 2006 FUNDING

    The American Academy of Physician Assistants urges members of the 
Appropriations Committee to consider the inter-dependency of all the 
public health agencies and programs when determining funding for fiscal 
year 2006. For instance, while it is important to fund clinical 
research at the National Institutes of Health (NIH) and to have an 
infrastructure at the Centers for Disease Control (CDC) that ensures a 
prompt response to an infectious disease outbreak or bioterrorist 
attack, the good work of both of these agencies will go unrealized if 
the Health Resources and Services Administration (HRSA) is inadequately 
funded. HRSA administers the ``people'' programs, such as Title VII, 
that bring the cutting edge research discovered at NIH to the 
patients--through providers such as PAs who have been educated in Title 
VII-funded programs. Likewise, CDC is heavily dependent upon an 
adequate supply of health care providers to be sure that disease 
outbreaks are reported, tracked, and contained.
    The critically important programs administered by NIH, HRSA, and 
CDC are integral components within the nation's public health 
continuum. One component is not more important than another, and no one 
component can succeed without adequate support from each of the other 
elements.
    Furthermore, while the Academy applauds the Administration's 
proposal to strengthen national security by increasing support for 
health emergency preparedness initiatives, it should not do so at the 
expense of Title VII programs. Training is the key to preparedness, and 
Title VII, section 747, is an ideal mechanism for educating primary 
care providers in public health competencies, facilitating population 
based and community-based skills and training, and increasing the 
alliance between public health and primary care providers. This is 
particularly important for our Nation's most disadvantaged and 
underserved populations, because they are the most vulnerable during 
medical emergencies because of a lack of resources and access to care.
    The Academy respectfully requests that the Title VII and VIII 
health professions programs receive $550 million in funding for fiscal 
year 2006, including $18 million to support PA educational programs, as 
recommended by the Advisory Committee on Primary Care Medicine and 
Dentistry.
    Thank you for the opportunity to present the American Academy of 
Physician Assistants' views on fiscal year 2006 appropriations.
                                 ______
                                 
 Prepared Statement of the American Association of Nurse Anesthetists 
                                 (AANA)

                                 FISCAL YEAR 2006 APPROPRIATIONS REQUEST SUMMARY
----------------------------------------------------------------------------------------------------------------
                                            Fiscal year 2005 actual     Fiscal year 2006 budget    AANA request
----------------------------------------------------------------------------------------------------------------
HHS /HRSA /BHPr Title VIII Advanced       Awaiting grant allocations  Grant allocations not           $3,000,000
 Education Nursing, Nurse Anesthetist      $3.5 MM fiscal year 2004.   specified.
 Education Reserve.
Title VIII HRSA BHPr Nursing Education    $150,674,000..............  $150,471,000..............     210,000,000
 Programs.
----------------------------------------------------------------------------------------------------------------

    Chairman Specter, Ranking Member Harkin, and members of the 
Subcommittee: The AANA is the professional association for more than 
30,000 Certified Registered Nurse Anesthetists (CRNAs) and student 
nurse anesthetists representing over 90 percent of the nurse 
anesthetists in the United States. Today, CRNAs are directly involved 
in approximately 65 percent of all anesthetics given to patients each 
year in the United States. CRNA services include administering the 
anesthetic, monitoring the patient's vital signs, staying with the 
patient throughout the surgery, as well as providing acute and chronic 
pain management services. CRNAs provide anesthesia for a wide variety 
of surgical cases and are the sole anesthesia providers in almost 70 
percent of rural hospitals, affording these medical facilities 
obstetrical, surgical, and trauma stabilization, and pain management 
capabilities. CRNAs work in every setting in which anesthesia is 
delivered including hospital surgical suites and obstetrical delivery 
rooms, ambulatory surgical centers (ASCs), pain management units and 
the offices of dentists, podiatrists and plastic surgeons.
    Having provided anesthesia since the Civil War, masters' educated 
nurse anesthetists today have set for ourselves the most rigorous 
continuing education and recertification requirements in the field. We 
are humbled and honored that the Institute of Medicine reported in 1999 
that anesthesia is 50 times safer than 20 years ago. And a recent study 
by Dr. Michael Pine of over 400,000 cases in 22 states involving CRNAs, 
anesthesiologists, or both together finds ``the type of anesthesia 
provider does not affect inpatient surgical mortality.'' In addition, a 
recent AANA workforce study's data showed that CRNAs and 
anesthesiologists are substitutes in the production of surgeries. 
Through continual improvements in research, education, continuing 
education and practice, nurse anesthetists are vigilant to continue 
improving patient safety.
    And CRNAs provide the lion's share of the anesthesia care required 
by our U.S. Armed Forces through active duty and the reserves, from 
here at home to the leading edge of the field of battle. In May 2003, 
at the beginning of ``Operation Iraqi Freedom'' 364 CRNAs had been 
deployed to the Middle East to ensure military medical readiness 
capabilities. For decades CRNAs have staffed ships, remote U.S. 
military bases, and forward surgical teams without physician 
anesthesiologist support.

      IMPORTANCE OF TITLE VIII NURSE ANESTHESIA EDUCATION FUNDING

    Our chief request before the Subcommittee today, for at least $3 
million to be reserved for nurse anesthesia education from Title VIII, 
is based on two facts. First, there is a 12 percent vacancy rate of 
nurse anesthetists in the United States impacting people's healthcare. 
And second, the Title VIII program supported strongly by members of 
this Subcommittee in the past is an effective means to help address the 
nurse anesthesia workforce demand. This demand for CRNAs is something 
we as a profession are addressing every day with success, and with the 
critical assistance of federal funding through HHS' Title VIII 
appropriation.
    In 2003 the AANA conducted a nurse anesthesia workforce study, 
which concluded a 12 percent vacancy rate in hospitals for CRNAs, and a 
lower vacancy rate in ambulatory surgical centers for 2002. The supply 
has increased in recent years, stimulated by increases in the number of 
CRNAs trained. However, these increases had not been enough to offset 
the number of retiring CRNAs. This trend, as of 2003, will require 
raising the number of nurse anesthesia graduates to fill the growing 
vacancy rate. This is compounded by rising number of Medicare-eligible 
Americans, from about 34 million today, to more than 40 million in 
2010, who will require the care that CRNAs provide.
    The problem is not that our 94 accredited schools of nurse 
anesthesia are failing to attract qualified applicants. These CRNA 
schools are located all across the country including ten in 
Pennsylvania, five each in Ohio and Florida and Texas, four each in 
Illinois and New York, three each in California and Connecticut and 
Maryland, two in Rhode Island, and one in Wisconsin. It is that they 
are full. Each CRNA school continues to turn away qualified 
applicants--bachelor's educated nurses who had spent at least one year 
serving in a critical care environment. Recognizing the importance of 
nurse anesthetists to quality healthcare, the AANA has been working 
with its 94 accredited schools of nurse anesthesia to increase the 
number of qualified graduates, and to expand the number of CRNA 
schools. The Council on Accreditation of Nurse Anesthesia Educational 
Programs (COA) reports that in 1999, our schools produced 948 new 
graduates. By 2005, that number had increased to 1,628, a 72 percent 
increase in just five years. The growth is expected to continue. The 
COA projects CRNA schools to produce 1,800 graduates in 2005. But to 
meet the challenge, we simply must continue expanding the capacity and 
number of CRNA schools. With the help of competitively awarded Title 
VIII funding, we are making significant progress, expanding both the 
number of clinical practice sites and the number of graduates.
    We are pleased to report that this progress is extremely cost-
effective from the standpoint of federal funding. Anesthesia can be 
provided by nurse anesthetists, physician anesthesiologists, or by 
CRNAs and anesthesiologists working together. And we know what the Pine 
study confirms, ``the type of anesthesia provider does not affect 
inpatient surgical mortality.'' Yet, for what it costs to train just 
one anesthesiologist, eleven CRNAs may be educated for the same task at 
the same superlative level of safety. This represents an eleven to one 
educational cost/benefit for supporting CRNA educational programs with 
federal dollars vs. supporting other anesthesia providers' education. 
This also contributes to a three or four to one anesthesia delivery 
cost/benefit. These ratios represent a cost/benefit unprecedented in 
any other healthcare specialty.
    So is this $3 million Title VIII investment in nurse anesthesia 
education effective? In February 2003, AANA surveyed its CRNA school 
program directors, to gauge the impact of the Title VIII funding. Of 
those that had reported receiving competitive Title VIII Nurse 
Education and Practice Grants funding, and there were eleven such 
schools from 1998 to 2003, they said they on average had increased 
their number of graduating CRNAs by more than 15 each per year. They 
reported on average more than doubling their number of CRNA graduates 
per school, who provide care to patients during and following their 
education. Moreover, they reported producing additional CRNAs that went 
to serve in rural or medically underserved areas. Under both of these 
circumstances, an increased number of student nurse anesthetists and 
CRNAs are providing healthcare to the people of medically underserved 
America.
    We believe it is important for the Subcommittee to allocate $3 
million for nurse anesthesia education for several reasons. First, as 
we have shown, the funding is cost-effective and well-needed. Second, 
the Title VIII authorization previously providing such a reserve 
expired in September 2002. The amount we request is consistent with 
what Title VIII provided in fiscal year 2001. Third, this particular 
funding is important because nurse anesthesia for rural and medically 
underserved America is not affected by increases in the budget for the 
National Health Service Corps and community health centers, since those 
initiatives are for delivering primary and not surgical healthcare. 
And, last, this funding meets an overall objective to increase access 
to quality healthcare in medically underserved America.

       TITLE VIII FUNDING FOR STRENGTHENING THE NURSING WORKFORCE

    Mr. Chairman, the AANA joins a growing coalition of nursing 
organizations and others in support of the Subcommittee providing a 
total of $210 million in fiscal year 2006 for nursing shortage relief 
through Title VIII. This amount is approximately $60 million over the 
fiscal year 2005 level, and over the President's fiscal year 2006 
budget. Every district in America is familiar with the importance of 
nursing.
    I understand that this request is a significant increase over the 
President's request. Thanks to your leadership and that of the 
Subcommittee, Congress increased nurse education funding $5 million 
over the President's request in fiscal year 2005 for which we are 
grateful, though we are concerned the Division of Nursing ``expert 
panel'' report that motivated requests to reduce Advanced Education 
Nursing is itself fraught with shortfalls, pitfalls and problems.
    Another perspective is that America spends more than $1.7 trillion 
on healthcare this year, paid by private and public sources. About $298 
billion of that is estimated to be Medicare outlays in 2005. About $8.7 
billion of that Medicare funds direct and indirect GME, with some 99 
percent of that funding helping to educate physicians and allied health 
professionals, and about 1 percent to help educate nurses. $301 million 
of the fiscal year 2005 appropriations bill supports a GME-type program 
for pediatricians through children's hospitals. These are all worthy 
things. But for every present and future healthcare patient, Congress 
must put some focus on nurses and nurse anesthesia care.
    From each dollar America spends in healthcare our request is that 
the federal government should allocate at least 15 thousandths of a 
cent to ensure we have enough nurses, and at least two ten-thousandths 
of a cent to ensure we have the safe anesthesia care we need when we 
need it. This action will improve patients' healthcare, and strengthen 
seniors' Medicare, all at once.
    Thank you.
                                 ______
                                 
    Prepared Statement of the American College of Obstetricians and 
                             Gynecologists

    The American College of Obstetricians and Gynecologists (ACOG), on 
behalf of its 46,000 partners in women's health care, is pleased to 
offer this statement to the Senate Committee on Appropriations, 
Subcommittee on Labor, Health and Human Services, and Education. We 
thank Chairman Specter, Ranking Member Harkin, and the entire 
subcommittee for their leadership to continually address maternal and 
child health care services.
    The Nation has made important strides to improve women and 
children's health over the past several years, and ACOG is grateful to 
this Committee for its commitment to research. We look forward to 
working with the Members of this Committee to ensure that vital 
research continues to eliminate disease and to ensure valuable new 
treatment discoveries are implemented. The NIH has examined and 
determined many disease pathways, while the Health Resources and 
Services Administration has been successful in translating research 
findings into valuable public health policy solutions. This dedicated 
commitment to elevate, promote and implement medical research faces an 
uncertain future at a time when scientists are on the cusp of new 
cures.
    It is vital that the Committee provide strong support for current 
studies, and for future advances, as well. We urge the Committee to 
support a 6 percent increase for the National Institutes of Health 
(NIH) in fiscal year 2006, and a 6 percent increase for the National 
Institute of Child Health and Human Development (NICHD). We also 
continue to support efforts to secure adequate funds for important 
public health programs such as the Health Resources and Services 
Administration (HRSA). Continued appropriations to these agencies will 
ensure ongoing and new research initiatives continue to yield positive 
results for women and children's health.

        NATIONAL INSTITUTES OF HEALTH--RESEARCH LEADING THE WAY

Ob-Gyn Representation on the NICHD Advisory Council
    ACOG is most concerned that research conducted through the National 
Institute on Child Health and Human Development (NICHD) receives 
adequate funding, that the Institute can attract new ob-gyn 
researchers, and that individuals who have expertise and knowledge 
about its work guide NICHD.
    NICHD has overseen tremendous advancements for women including 
improving pregnancy and childbirth outcomes, and identifying cures for 
diseases and conditions affecting women of all ages and at all stages 
in life. NICHD is, in fact, the Institute where the vast majority of 
ob-gyn related research takes place and the only Institute where ob-
gyns have a prominent role. It's critical, then, to require that the 
NICHD Advisory Council include an adequate number of individuals who 
have distinguished themselves in ob-gyn clinical practice and research.
    Currently, this important Council, which guides the Institute's 
research funding decisions, is composed of 17 appointed members, 
including pediatricians, ob-gyns, sociologists, biologists, media 
consultants, and nurses. The ob-gyns on the Council bring years of 
expertise and knowledge of women's health care needs, research 
priorities, and the impact of research discoveries on women's lives. In 
November 2004, the number of ob-gyns on the Council was reduced from 3 
to 2.
    ACOG worked actively with the NICHD to advocate the appointment of 
another ob-gyn to this position, and we are deeply troubled that NICHD 
filled this position with an attorney, rather than with another ob-gyn. 
Research conducted at NICHD helps shape the future of women's health 
care. Women across America and the world suffer from issues of maternal 
morbidity, uterine fibroids, vulvodynia and numerous other health care 
issues that are far from being understood and cured. The world faces 
global challenges, too, of the spread of sexually transmitted diseases, 
which have barely been acknowledged, much less challenged and defeated.
    The NICHD Advisory Council must include an adequate number of ob-
gyns who are experts in these clinical and research areas. We object 
strongly to any attempt to reduce the ability of our specialty to 
contribute to the research direction of this Institute which is 
obviously so critical to the area that we know better than any other 
group or medical specialty--women's health.
    We look to Congress to amend the NICHD statute to require that its 
Advisory Council include no fewer than three experts in the field of 
ob-gyn. This action is necessary to ensure that decisions that will 
affect the future of women's health care are made by individuals with 
expertise and a deep level of commitment to the field. We hope to work 
actively with this Committee and the Congress to restructure the 
Council representation requirements.

Research at the NICHD
    The NICHD conducts research that holds great promise to improve 
maternal and fetal health and safety. With the support of Congress, the 
Institute has initiated research addressing the causes of cerebral 
palsy, gestational diabetes and pre-term birth. However, much more 
needs to be done to reduce the rates of maternal mortality and 
morbidity in the United States. More research is needed on such 
pregnancy-related issues as the impact of chronic conditions during 
pregnancy, racial and ethnic disparities in maternal mortality and 
morbidity, and drug safety with respect to pregnancy.
    A commitment to research in maternal health sheds light on a 
breadth of issues that save women's lives. Important research examining 
the following issues must continue:

            Reducing High Risk Pregnancies
    NICHD's Maternal Fetal Medicine Unit Network, working at 14 sites 
across the United States (University of Alabama, University of Texas-
Houston, University of Texas-Southwestern, Wake Forest University, 
University of North Carolina, Brown University-Women and Infant's 
Hospital, Columbia University, Drexel University, University of 
Pittsburgh-Magee Women's Hospital, University of Utah, Northwestern 
University, Wayne State University, Case Western University, and Ohio 
State University), will help reduce the risks of cerebral palsy, 
caesarean deliveries, and gestational diabetes. This Network discovered 
that progesterone reduces preterm birth by one-third.

            Reducing the Risk of Perinatal HIV Transmission
    In the last 10 years, NICHD research has helped decrease the rate 
of perinatal HIV transmission from 27 percent to 1.2 percent. This 
advancement signals the near end to mother-to-child transmission of 
this deadly disease.

            Reducing the Effects of Pelvic Floor Disorders
    The Institute has made recent advancements in the area of pelvic 
floor disorders. The NICHD is investigating whether women that have 
undergone cesarean sections have fewer incidences of pelvic floor 
disorder than women who have delivered vaginally.

            Reducing the Prevalence of Premature Births
    NICHD is helping our Nation understand how adverse conditions and 
health disparities increase the risks of premature birth in high-risk 
racial groups.

            Drug Safety During Pregnancy
    The NICHD recently created the Obstetric and Pediatric Pharmacology 
Branch to measure drug metabolism during pregnancy.
The Challenge of the Future: Attracting New Researchers
    Despite the NICHD's critical advancements, reduced funding has made 
it difficult for this research to continue, largely due to the lack of 
new investigators. Congressional programs such as the loan repayment 
program, the NIH Mentored Research Scientist Development Program for 
reproductive health, and a small grant program, all attract new 
researchers, but low pay lines make it difficult for the NICHD to 
maintain these researchers. Due to the structure of the peer review 
system, previous grant recipients have an advantage because their 
grants require fewer funds. This makes it more difficult for new 
investigators to get into the system, jeopardizing the future of 
women's health research. We urge the Committee to significantly 
increase funding at the NICHD to maintain a high level of research 
innovation and excellence, in turn reducing the incidence of maternal 
morbidity and mortality and discovering cures for other chronic 
conditions.

  HEALTH RESOURCES AND SERVICES ADMINISTRATION: TURNING RESEARCH INTO 
                               SOLUTIONS

    It is critical that we rapidly transform women's health research 
findings into public health solutions. The Health Resources and 
Services Administration (HRSA) has created women and children's health 
outreach programs based on research conducted on prematurity, high risk 
pregnancies, gestational diabetes, and a variety of other health 
issues. The National Fetal Infant Mortality Review and the Provider's 
Partnership are two examples of the successful programs under the 
Healthy Start Initiative.
    For example, research shows tobacco abuse and health disparities 
are risk factors for infant mortality. Healthy Start offers programs 
for states, which fund provider and community education programs that 
improve maternal health through tobacco cessation programs, and finds 
ways to decrease the infant mortality rate by investigating cultural 
and institutional health disparities.

                 NATIONAL FETAL INFANT MORTALITY REVIEW

    The Fetal and Infant Mortality Review (FIMR) is a cooperative 
federal agreement between ACOG and the Maternal Child Health Bureau at 
HRSA. FIMR uses the expertise of ob-gyns and local health departments 
to find solutions to problems related to infant mortality. In light of 
the recent increase in the infant mortality rate for 2002, the FIMR 
program is vital to develop community-specific, culturally appropriate 
interventions. Today 220+ local programs in 42 states are implementing 
FIMR and finding it is a powerful tool to bring communities together to 
address the underlying problems that negatively affect the infant 
mortality rate.
    In order to meet the demand of the increasing number of FIMR 
programs, NFIMR must be able to continue its activities at an adequate 
funding level. A rigorous national evaluation of FIMR conducted by 
Johns Hopkins University has concluded that the FIMR methodology is an 
effective perinatal initiative. Based on that new research, FIMR can 
now be called an evidence based MCH intervention. All Healthy Start 
programs and every locality with disparities in infant outcomes should 
be actively encouraged to implement this FIMR process.
    We urge this Committee to recognize the many positive contributions 
of the FIMR program and ensure it remains a fully funded program within 
HRSA.

                         PROVIDER'S PARTNERSHIP

    Through May 2003, HRSA funded the Provider's Partnership, a 
cooperative agreement between the Federal Maternal and Child Health 
Bureau and ACOG. This Partnership includes a series of state-level 
projects initiated to address key women's health issues, while 
simultaneously building partnerships between ACOG Members and public 
health leadership.
    The Partnership works specifically with psychosocial issues that 
greatly impact the health and well being of women. The morbidity and 
mortality attributed to issues such as a woman's depression, tobacco 
use, substance abuse and domestic violence are becoming increasingly 
apparent as they weigh on both the woman and her entire family. Without 
treatment, these psychosocial issues place a heavy financial burden on 
state and federal resources. Obstetrician-gynecologists play a critical 
role in addressing these problems within their current practice, 
however because of the complexity and the importance of promptly 
linking at-risk women with appropriate services, responsibility for 
full psychosocial assessment and treatment cannot fall solely on 
obstetrician-gynecologists. Partnerships between women's health care 
physicians and state and community programs are needed that allow for 
integration of medical care with psychosocial services. Partnerships 
increase coordination thereby minimizing demands on both the behavioral 
health care system and individual providers. Provider's Partnership 
enables stakeholders to improve prevention interventions, so that later 
complications can be avoided.
    There are currently 30 state-level Partnership teams focused on 
depression in women, tobacco use, perinatal HIV transmission and oral 
health. These teams have been successful at surveying obstetric 
providers on their screening; counseling and referral practices for 
perinatal depression and tobacco use, the results of which have been 
the basis for the development of statewide legislative and practice 
policy guidelines; establishing pilot screening and intervention 
initiatives for depression in women; and instituting provider training 
and technical assistance for depression and tobacco use screening and 
intervention. Despite their successes, these teams still struggle for 
funds to offset administrative and program costs. Representatives from 
additional states have expressed an interest in developing an ACOG 
Provider's Partnership, however, any new efforts are being postponed 
until additional funding can be identified.
    Interagency cooperation to address the multiple factors that affect 
maternal and child health will help us increase our Nation's overall 
health. By continuing to translate research done at the NICHD on high-
risk pregnancies, drug metabolism, and preterm births, into positive 
outreach programs such as NFIMR and the Provider's Partnership, we can 
further improve maternal health and reduce infant mortality.
    Again, we would like to thank the Committee for its continued 
support of maternal and child health research and programs. We strongly 
urge this Committee to support increased funding for the National 
Institute of Child Health and Human Development (NICHD), and renewed 
appropriations for the National Fetal Mortality Review (NFIMR) and the 
Provider's Partnership programs. This funding would significantly 
increase the number of women and families who benefit from smoking 
cessation programs, depression screening, and community specific 
solutions to infant mortality. Through joint community and government 
efforts we can decrease the harmful consequences these issues have on 
the Nation's health.
    We further urge the Committee and the Congress to pass a 
requirement that the NICHD Advisory Council include no fewer than three 
experts in the field of ob-gyn, to ensure a bright future for 
advancements in women's health.
                                 ______
                                 
          Prepared Statement of the American Heart Association

    Heart disease, stroke and other cardiovascular diseases kill more 
Americans each year than the next 5 leading causes of death combined, 
putting people of all ages at risk. Cardiovascular diseases remain our 
nation's No. 1 killer and a major cause of disability. We are concerned 
that our government is still not devoting sufficient resources for 
research and prevention to America's No. 1 killer--heart disease--and 
to our country's No. 3 killer--stroke.

                  STILL NO. 1--AN UNHAPPY DISTINCTION

    Cardiovascular diseases represent a continuing crisis of pandemic 
proportions. More than 70 million Americans suffer from these diseases, 
and risk factors are on the rise. About 65 percent of American adults 
are overweight or obese and an estimated 9.2 million children and 
adolescents ages 6-19 are overweight or obese. Also, an estimated 65 
million Americans have high blood pressure, nearly 38 million adults 
have high cholesterol, and nearly 14 million have diagnosed diabetes. 
Cardiovascular diseases cost Americans more than any other disease--an 
estimated $394 billion in medical expenses and lost productivity in 
2005. Heart defects are the most common birth defect and cause more 
infant deaths than any other birth defect.

               HEART DISEASE AND STROKE. YOU'RE THE CURE

    Now is the time to capitalize on our progress in understanding 
heart disease, stroke and other cardiovascular diseases. Promising, 
cost-effective breakthroughs in treatment and prevention are available, 
and new ones are on the horizon. A continued, sustained investment in 
the NIH and appropriate funding for NIH heart disease and stroke will 
support critically needed new initiatives, especially in the 
translation of that research into useful clinical and state programs. 
For fiscal year 2006, we urge you to:

Appropriate $30 billion for the National Institutes of Health (NIH)--to 
        provide a continued, sustained investment in life-saving 
        medical research
    NIH research provides new treatment and prevention strategies, 
creates jobs, and maintains America's status as the world leader in the 
biomedical and biotechnology industries.

Provide $2.3 billion for NIH heart research and $341 million for NIH 
        stroke research
    Researchers are on the brink of advances to enhance prevention and 
to provide new treatments so you and your loved ones can be spared the 
pain and suffering of heart disease and stroke. For example, the impact 
of co-morbidities on the progression of atherosclerosis and on its 
prevention and treatment needs further study. In terms of the well-
recognized epidemic of obesity, research is needed on the science of 
weight regulation, on both the genetic and environmental bases of 
obesity, and on nutrition and exercise science. Inter-Institute 
communication and joint programs, which have been encouraged by the 
Director, should continue to grow, particularly in areas such as growth 
and development, atherosclerosis, obesity and diabetes among others.

Allot $55.6 million for Heart Disease and Stroke for the CDC to expand, 
        intensify and coordinate prevention initiatives such as the 
        State Heart Disease and Stroke Prevention Program and the Paul 
        Coverdell National Acute Stroke Registry
    Science must be translated into state programs that hearten 
Americans to make healthy lifestyle choices to avert and control heart 
disease and stroke and track and improve stroke care delivery.

Allocate $15 million to continue to help rural and community areas 
        treat cardiac arrest in time to save lives by initiating 
        automated external defibrillator (AEDs) programs
    The Rural Access to Emergency Devices Act (part of Public Law 106-
505) and the Community Access to Emergency Defibrillation Act (part of 
Public Law 107-188) help rural and community areas purchase AEDs and 
train emergency and lay responders in their use.

            HEART AND STROKE RESEARCH BENEFITS ALL AMERICANS

    Thanks to advances in addressing risk factors and in treating 
cardiovascular diseases, more Americans are surviving these often 
deadly and disabling diseases. Heart disease and stroke research, 
prevention and treatment breakthroughs are saving and improving lives. 
Several examples follow.
    Automated External Defibrillator.--Each year, 250,000 Americans die 
from cardiac arrest. Training volunteers to perform cardiopulmonary 
resuscitation and to use an AED--a briefcase-size device that shocks 
the heart into a normal rhythm--distributed in shopping malls, sports 
venues and other public places can double the survival rate of cardiac 
arrest victims.
    Implantable Cardioverter Defibrillator.--An ICD, which provides an 
electrical impulse to correct an often fatal irregular heart beat, 
notably reduces deaths in heart failure patients. So, the government 
announced an expansion of the number of Medicare recipients eligible to 
receive ICDs. They estimate that about 25,000 Medicare beneficiaries 
will receive ICDs in the first year, possibly saving up to 2,500 lives. 
These patients are required to share information about their condition, 
so medical professionals can assess which individuals are helped the 
most by ICDs.
    Women and Low-Dose Aspirin.--A study found that low-dose aspirin on 
alternative days did not prevent first heart attacks or death from 
cardiovascular diseases in women, but clot-based strokes were 
significantly reduced, with the greatest benefit in women age 65 and 
older.
    Ultrasound in Combination with tPA Enhances Drug's Effectiveness 
Against Stroke.--Tissue plasminogen activator (tPA) effectively 
dissolves clots that are causing an acute clot-based stroke. But, using 
ultrasonography, a non-invasive technique that uses sound waves, in 
combination with tPA improves the drug's clot busting abilities, 
leading to improved chances for a better recovery from stroke.
    We join other members of the research community in advocating for 
an fiscal year 2006 appropriation of $30 billion for the NIH to provide 
a continued, sustained investment in life-saving medical research and 
support investigation into new therapies. The NIH budget for heart 
disease and stroke remains disproportionately under-funded compared to 
the enormous burden of these diseases and the numerous promising 
scientific opportunities that could advance the fight against these 
disorders. Heart disease, stroke and other cardiovascular diseases meet 
the NIH's criteria for priority setting (public health needs, 
scientific quality of research, scientific progress potential, 
portfolio diversification and adequate infrastructure support), but the 
NIH continues to invest only 7 percent of its budget on heart research 
and a mere 1 percent on stroke research. We have a particular interest 
in individual NIH components that relate directly to our mission. Our 
funding recommendations for these Institutes follow.

         HEART RESEARCH CHALLENGES AND OPPORTUNITIES FOR NHLBI

    Advances have been made by more than 50 years of American Heart 
Association-funded research and more than a half-century of investment 
by Congress in the National Heart, Lung, and Blood Institute. While 
more people survive heart disease and stroke, they can cause permanent 
disability, requiring costly medical care and loss of productivity and 
quality of life.
    We urge this Committee to appropriate funding for the NHLBI and for 
its heart disease and stroke-related efforts to support and expand 
current activities and to invest in promising and critically needed new 
initiatives to aggressively advance the battle against heart disease 
and stroke. To accomplish this goal, we advocate an appropriation of 
$3.1 billion for the NHLBI, including $1.9 billion for heart disease 
and stroke. This added investment is needed to focus on heart disease 
and stroke challenges and opportunities. Several of these follow.
    Heart Failure Clinical Research Network.--Despite advances in 
treatment, the number of new cases and the number of Americans 
suffering from heart failure continue to grow. And, the long-term 
prognosis for patients remains poor. A planned research network with 
the capability of implementing multiple concurrent clinical studies 
would conduct clinical studies of new approaches to improve outcomes 
and would provide an infrastructure to enable rapid translation of 
promising research findings into patient care.
    Novel Targets and Therapy Development for Clot-based Stroke.--There 
is only one FDA-approved emergency treatment for clot-based stroke: t-
PA. However, fewer than 5 percent of patients receive it, largely 
because it must be given within three hours from the onset of symptoms. 
To address an urgent need to develop new therapies, the NHLBI and the 
National Institute of Neurological Disorders and Stroke (NINDS) have 
planned a collaborative effort to identify new molecular targets, 
explore promising agents, and develop innovative therapies to quickly 
restore blood flow to the brain and limit stroke damage.
    Technologies for Engineering Small Blood Vessels.--A need exists to 
develop alternatives to natural blood vessels for patients who require 
heart artery bypass surgery and for children born with complex heart 
defects because the supply of native blood vessels to use as grafts 
does not meet the demand and prosthetic grafts fail at an unacceptable 
rate. Planned research would address the development of functional, 
small blood vessel substitutes.
    Specialized Centers of Clinically Oriented Research for Vascular 
Injury, Repair, and Remodeling.--The NHLBI has planned a new SCCOR 
program to conduct interdependent clinical and multidisciplinary basic 
research projects on the molecular and cellular mechanisms of vascular 
(blood vessel) injury, repair, and remodeling. This program would 
promote patient-oriented research to improve prevention, detection, and 
treatment of vascular diseases, such as stroke. The SCCORs would 
provide resources to enable new clinical investigators to develop 
skills and research capabilities to conduct relevant research in this 
area.

         STROKE RESEARCH CHALLENGES AND OPPORTUNITIES FOR NINDS

    Stroke is the No. 3 killer of Americans and a major cause of 
permanent disability. Many of America's 5.4 million stroke survivors 
face debilitating physical and mental impairment, emotional distress 
and huge medical costs. About 1 in 4 stroke survivors is permanently 
disabled. An estimated 700,000 Americans will suffer a stroke this 
year, and nearly 163,000 will die. In addition to the elderly, stroke 
also strikes newborns, children and young adults.
    We urge you to provide sufficient funding for the NINDS to support 
and expand current activities and to invest in promising and critically 
needed new initiatives to aggressively prevent stroke, protect the 
brain during stroke and enhance rehabilitation. To accomplish this 
goal, we advocate for an fiscal year 2006 appropriation of $1.6 billion 
for the NINDS, including $183 million for stroke. Some challenges and 
opportunities follow.
    Strategic Stroke Research Plan.--As a result of congressional 
report language during the fiscal year 2001 appropriations process, the 
NINDS convened a Stroke Progress Review Group (SPRG). Their report 
serves as a guide for a long-range strategic planning for stroke and 
includes 5 research priorities and 7 resource priorities to be 
addressed in the coming years. Multiple scientific programs initiated 
since the SPRG report are making impressive progress. But, more funding 
is needed to continue to implement these activities and other 
components of the plan.
    Emerging Stroke Risk Factors.--Although more Americans are 
controlling major stroke risk factors, such as high blood pressure and 
smoking, the number of stroke victims continues to rise. Scientists are 
defining new risk factors and re-examining the role of existing ones. 
Researchers are studying the role of inflammation in damaging arteries, 
heart valve disease, irregular heartbeats, and the long-term effects of 
high blood pressure. Increased funding for new approaches in these 
areas may lead to new ways to prevent stroke.
    Therapeutic Strategies for Stroke.--Several major clinical trials 
have identified new methods for preventing and treating stroke in high-
risk populations, including stroke survivors. But, as the number of 
strokes increases and disparities in treatment persist, funding for 
translational and clinical studies is vital to providing cutting-edge 
stroke treatment and prevention.
    Stroke Education.--As a member of the Brain Attack Coalition, 
organizations devoted to fighting stroke, we work with the NINDS to 
increase public awareness of stroke symptoms and the need to call 9-1-
1. Together, we initiated a public education campaign, Know Stroke: 
Know the Signs, Act in Time, and we are striving to develop systems to 
make tPA available to appropriate patients. In partnership with the 
CDC, the NINDS extended this campaign to launch a grassroots program 
called Know Stroke in the Community to enlist the aid of ``Stroke 
Champions'' who educate communities about stroke signs and symptoms. A 
pilot phase of the program in 5 cities has just been completed. When 
these measures are implemented, stroke treatment will shift from 
supportive care to early brain-saving intervention. But more funding is 
needed to educate the public and health providers about stroke.

   RESEARCH IN OTHER NIH INSTITUTES BENEFIT HEART DISEASE AND STROKE

    Research seeking to prevent and find better treatments for heart 
disease, stroke and other cardiovascular diseases is supported by other 
NIH entities like the National Institute on Aging, the National 
Institute of Diabetes and Digestive and Kidney Diseases, the National 
Institute of Nursing Research, the National Institute of Child Health 
and Human Development and the National Center for Research Resources. 
It is important to provide sufficient additional resources for these 
entities to continue and expand their critical work.

               AGENCY FOR HEALTHCARE RESEARCH AND QUALITY

    The AHRQ is a critical partner with the public and private health 
care sectors. They help develop evidence-based information needed by 
consumers, providers, health plans and policymakers to improve health 
care decision making. We join with the Friends of AHRQ in advocating 
for an appropriation of $440 million for the AHRQ to advance health 
care quality, cut medical errors and expand the availability of health 
outcomes information.

               CENTERS FOR DISEASE CONTROL AND PREVENTION

    Prevention is the best way to protect Americans' health and ease 
the financial and human burden of disease. Resources must be made 
available to bring the benefits of research to places where heart 
disease and stroke strike--our towns and neighborhoods. The CDC builds 
a bridge between what we learn in the lab, translating findings into 
programs in the communities where we live. We advocate an fiscal year 
2006 appropriation of $8.7 billion for the CDC, with a 10 percent 
increase over current funding for state-based chronic disease 
prevention and health promotion programs.
    Within that figure, we support an appropriation of $55.6 million 
for the CDC's Heart Disease and Stroke line--which would bring per 
capita spending for heart disease, stroke and other cardiovascular 
disease prevention from 10 cents to about 12 cents. This would allow 
the CDC to better expand, intensify and coordinate prevention 
activities against these diseases, such as enhancing the State Heart 
Disease and Stroke Prevention Program and the Paul Coverdell National 
Acute Stroke Registry. It would also allow the CDC to begin the 
development of a state-based cardiac arrest registry, augment current 
health communication projects on heart attack and stroke signs and 
symptoms, as well as public and health care provider education; and 
support critical standardization of lipid and other measurements.
    We commend Congress for encouraging the CDC to create a Heart 
Disease and Stroke Division. With ample resources and capacity, a 
Division would further enable CDC's efforts in this area. Thanks to 
this Committee's support since fiscal year 1998, the CDC's State Heart 
Disease and Stroke Prevention Program covers 33 states, allowing them 
to design and/or implement state-tailored prevention programs. But only 
12 states receive funding to actually implement programs to prevent and 
control heart disease and stroke. The other 21 states were only 
provided funds to support program planning; which is now largely 
complete. Since cardiovascular diseases remain the No. 1 killer in 
every state, each state needs funding for basic implementation of a 
State Heart Disease and Stroke Prevention Program. With fiscal year 
2005 funding, the CDC can only elevate up to two states from planning 
to program implementation.
    An appropriation of $55.6 million would allow the CDC to add up to 
4 new states to the State Heart Disease and Stroke Prevention Program, 
allowing them to conduct a state-tailored prevention plan, and would 
elevate 4 more states to from planning to program implementation. It 
would enhance the Paul Coverdell National Acute Stroke Registry, which 
tracks and improves delivery of acute stroke care that can mean the 
difference between a fairly normal life and long-term disability. After 
developing and conducting 8 registry prototypes (fiscal year 2001-
2003), the CDC funded 4 state health departments to implement 
registries in fiscal year 2004.
    We recommend the following fiscal year 2006 funding levels for the 
following CDC programs:
  --$132 million for the Preventive Health and Health Services Block 
        Grant;
  --$70 million for the Obesity, Physical Activity and Nutrition 
        Program;
  --$50 million for the Youth Media Campaign;
  --$82.4 million for the School Health Education Program; and
  --$145 million for the Office of Smoking and Health.
             health resources and services administration.
    About 95 percent of cardiac arrest victims die before reaching a 
hospital. AEDs are small, easy-to-use devices that can shock a heart 
back into normal rhythm and restore life. The Rural Access to Emergency 
Devices Act and the Community Access to Emergency Defibrillation Act 
authorize funds for state and local governments to start AED programs. 
States, cities and towns nationwide eagerly await funds from these 
vital public health service grant awards, with available funds far 
below requests. An appropriation of $15 million is required to support 
these authorized programs.

                        DEPARTMENT OF EDUCATION

    Physical inactivity is a key risk factor for heart disease and 
stroke. Yet, our youth have fewer chances for physical education. 
Congress has been appropriating money for the Carol M. White Physical 
Education Program (PEP) to provide funding for school-based physical 
education initiatives that teach life-long physical activity habits and 
thus prevent diseases, like heart disease and stroke. We advocate for 
an appropriation of $100 million for PEP.

                             ACTION NEEDED

    Despite progress, heart disease, stroke and other cardiovascular 
diseases remain America's No. 1 killer. Cardiovascular diseases meet 
the NIH's criteria for priority setting, but NIH continues to invest 
only 7 percent of its budget on heart research and a mere 1 percent on 
stroke research. Increasing funding for promising research 
opportunities and for proven prevention and treatment programs will 
allow continued strides against these diseases. Our government's 
response to this challenge will help define the health and well being 
of Americans for decades.
                                 ______
                                 
    Prepared Statement of the Americans for Nursing Shortage Relief 
                                Alliance

    The ANSR Alliance (Americans for Nursing Shortage Relief) 
appreciates the opportunity to submit written comments for the record 
regarding funding for nursing workforce and research programs in fiscal 
year 2006. ANSR is a coalition of 48 nursing organizations representing 
a diverse cross section of healthcare and professional organizations, 
healthcare providers, and friends of nursing that have united to 
address the ever-growing nursing shortage.
    To ensure that the nation has a sufficient and adequately prepared 
nursing workforce to provide quality care to all well into the 21st 
century, ANSR and the nation's 2.7 million registered and advanced 
practice registered nurses (RNs and APRNs) advocate at least $210 
million for the nursing workforce programs within Title VIII of the 
Public Health Service Act at the Health Resources and Services 
Administration (HRSA) as well as $160 million for the National 
Institute of Nursing Research (NINR) at the National Institutes of 
Health (NIH) in fiscal year 2006. ANSR stands ready to work with 
policymakers at the federal level to advance policies and programs that 
will sustain and strengthen the nation's nursing workforce.

                      NURSING SHORTAGE BACKGROUND

    Nursing is the nation's largest healthcare provider group with an 
estimated 2.7 million licensed nurses. Nurses play a critical role in 
the health care system because they represent approximately 54 percent 
of all health care workers and provide patient care in virtually all 
locations in which health care is delivered. Our ability, as a nation 
to meet these projected workforce needs is complicated by a number of 
factors.
  --The total nursing workforce is aging. By 2010, the average age of 
        RNs is forecasted to be 45.4 years, an increase of 3.5 years 
        over the current age, with more than 40 percent of the RN 
        workforce expected to be older than 50 years.
  --Approximately half of the RN workforce is expected to reach 
        retirement age within the next 10 to 15 years. The average age 
        of new RN graduates is 31 years; RNs are entering the 
        profession older and will have fewer years to work than nurses 
        traditionally have had.
  --For the first time, registered nurses top the U.S. Bureau of Labor 
        Statistics list of occupations with the largest projected 10-
        year job growth. Nurses have been on the list for some time but 
        never as number one. The Bureau's latest projections put the 
        demand for registered nurses at 2.9 million in 2012, up from 
        2.3 million in 2002.
  --The national nursing shortage also is affecting our nation's 7.6 
        million veterans who receive care through the 1,300 Veterans 
        Administration (VA) health care facilities.
  --Nearly 1,800 faculty members leave their positions and fewer than 
        400 potential faculty candidates receive doctoral degrees each 
        year.
  --For the 2003-2004 academic year, an estimated 125,000 qualified 
        applicants were turned away from nursing programs at all levels 
        due largely to a faculty shortage.

             ADEQUATE NURSING WORKFORCE: HOMELAND SECURITY

    Homeland security efforts try to prevent harm to our country, and 
nurses play a critical role. These efforts involve the health system, 
and nurses represent the largest group of health care providers who 
will be called on to respond to an emergency, disaster, or mass-
casualty event. The estimates for the nurse workforce demand in 2010 do 
not take into account the healthcare system's ability to meet the 
healthcare needs of a surge of patients that could be expected from a 
mass-casualty event, whether natural or man-made. Given the findings of 
the bipartisan 9-11 Commission, it seems particularly relevant now to 
ensure an adequate supply of all levels of nurses, who are often front-
line, first-responders in the case of tragedy. Unless steps are taken 
now, the nation's ability to respond to a natural or intentional 
disaster will be impeded by the growing nationwide nursing shortage. An 
investment in the nurse workforce is a step in the right direction to 
re-build the public health infrastructure and increase our nation's 
healthcare readiness and emergency response capabilities.

                           GROWING UNMET NEED

    Fortunately--after years of failing to have enough interested 
individuals to pursue nursing--our nation is finally seeing a slight 
upturn in nursing school applications. Many Americans, who have lost 
their jobs due to the economy, and others interested in a second 
career, find nursing attractive because of the job security, sufficient 
pay, and the opportunity it affords to help others. However, nursing 
organizations are hearing from prospective nursing students that they 
face waiting periods of up to 3 years before they can matriculate 
because there is not enough teaching faculty available. In many cases, 
students who have been accepted into programs face long waits to 
matriculate in nursing school due to these challenges. For example, in 
2004, U.S. nursing schools turned away more than 32,000 qualified 
applicants to entry-level baccalaureate and graduate nursing programs 
due to insufficient faculty, clinical sites, classroom space, clinical 
preceptors, and budget constraints, including almost 3,000 students who 
could potentially fill faculty roles. When nursing programs of all 
levels are considered, the number of qualified applicants turned away 
during the 2003-2004 academic year grows to more than 125,000. Without 
sufficient support for current nursing faculty and adequate incentives 
to encourage more nurses to become faculty--our nation will fail to 
have the teaching infrastructure necessary to educate and train the 
next generation of nurses we need so desperately to care for our family 
and friends, neighbors, colleagues, and ourselves.
    Enacted in 2002, the Nurse Reinvestment Act included new and 
expanded initiatives, including loan forgiveness, scholarships, career 
ladder opportunities, and public service announcements to advance 
nursing as a career. Despite the enactment of this critical measure, 
HRSA fails to have the resources necessary to meet the current and 
growing demands for our nation's nursing workforce. For example, in 
fiscal year 2003, HRSA received 8,321 applications for the Nurse 
Education Loan Repayment Program, but only had the funds to award 7 
percent (602) of all applications. Also in fiscal year 2003, HRSA 
received 4,512 applications for the Nursing Scholarship Program, but 
only had funding to support a mere 2 percent (94) of all applications.
    Therefore, the ANSR Alliance strongly urges Congress to provide 
HRSA with a minimum of $210 million in fiscal year 2006 to ensure that 
the agency has the resources necessary to fund a higher rate of Nurse 
Education Loan Repayment and Nursing Scholarship applications as well 
as implement other essential endeavors to sustain and boost our 
nation's nursing workforce.

            SUSTAIN AND SEIZE NURSING RESEARCH OPPORTUNITIES

    The National Institute of Nursing Research (NINR) supports basic 
and clinical research to establish a scientific basis for the care of 
individuals across the life span--from management of patients during 
illness and recovery to the reduction of risks for disease and 
disability and the promotion of healthy lifestyles. These efforts are 
crucial in translating scientific advances into cost-effective health 
care that does not compromise quality of care for patients. 
Additionally, NINR fosters collaborations with many other disciplines 
in areas of mutual interest such as long-term care for older people, 
the special needs of women across the life span, bioethical issues 
associated with genetic testing and counseling, and the impact of 
environmental influences on risk factors for chronic illnesses such as 
cancer. The ANSR Alliance supports a fiscal year 2006 appropriation 
level of $160 million for the NINR at the National Institutes of 
Health.

                               CONCLUSION

    The ANSR Alliance stands ready to work with policymakers to advance 
policies and support programs that will sustain and strengthen our 
nation's nursing workforce. We thank you for this opportunity to 
discuss the funding levels necessary to ensure that our nation has a 
sufficient nursing workforce to care for the patients of today and 
tomorrow.

----------------------------------------------------------------------------------------------------------------
                                                                               President's
                   Programmatic area                     Final fiscal year    budget fiscal      ANSR's request
                                                                2005            year 2006
----------------------------------------------------------------------------------------------------------------
Nurse Workforce Development Programs...................       $151,889,000       $150,000,000       $210,000,000
National Institute of Nursing Research.................        138,000,000        139,000,000        160,000,000
----------------------------------------------------------------------------------------------------------------

    ANSR Alliance Organizations that endorse this testimony: American 
Association of Critical-Care Nurses; American Association of 
Occupational Health Nurses, Inc.; American Academy of Nurse 
Practitioners; American College of Nurse Practitioners; American 
Nephrology Nurses Association; American Society of PeriAnesthesia 
Nurses; Association of periOperative Registered Nurses; Association of 
State and Territorial Directors of Nursing; Association of Women's 
Health, Obstetric and Neonatal Nurses; Emergency Nurses Association; 
Infusion Nurses Society; National Association Nurse Massage Therapists; 
National Association of Orthopaedic Nurses; National Association of 
Pediatric Nurse Practitioners; National Association of School Nurses; 
National Council of State Boards of Nursing; National League for 
Nursing; National Nursing Centers Consortium; National Student Nurses' 
Association; Nurses Organization of Veterans Affairs; Oncology Nurses 
Society; Society of Trauma Nurses; and Society of Urologic Nurses and 
Associates.
                                 ______
                                 
         Prepared Statement of the American Nurses Association

    The American Nurses Association (ANA) appreciates this opportunity 
to comment on fiscal year 2006 appropriations for nursing education, 
workforce development, and research programs. Founded in 1886, ANA is 
the only full-service national association representing registered 
nurses. Through our 54 constituent member associations, we represent 
registered nurses (RNs) across the nation in all practice settings.
    The ANA gratefully acknowledges this Subcommittee's history of 
support for nursing education and research. We appreciate your 
continued recognition of the important role nurses play in the delivery 
of quality health care services. This testimony will give you an update 
on the status of the nursing shortage, its impact on the nation, and 
the outlook for the future.

                       THE NURSING SHORTAGE TODAY

    The nursing shortage is far from solved. Here are a few quick 
facts:
  --On February 11, 2004, the Bureau of Labor Statistics reported that 
        registered nursing will have the greatest job growth of all 
        U.S. professions in the time period spanning 2002-2012. During 
        this 10-year period, health care facilities will need to fill 
        more than 1.1 million RN job openings.
  --The Division of Nursing at the Health Resources and Services 
        Administration projects that, absent aggressive intervention, 
        the supply of nurses in America will fall 29 percent below 
        requirements by the year 2020.
  --The American College of Healthcare Executives reported in October, 
        2004 that 72 percent of hospitals were experiencing a nursing 
        shortage at their facility.
  --According to the National Council of State Boards of Nursing, the 
        number of first-time, U.S. educated nursing school graduates 
        who sat for the NCLEX-RN (the national licensure examination 
        for registered nurses) decreased by 20 percent from 1995-2003. 
        A total of 19,820 fewer students in this category of test 
        takers sat for the exam in 2003 as compared with 1995.
    This growing nursing shortage is having a detrimental impact on the 
entire health care system. Numerous recent studies have shown that 
nursing shortages contribute to medical errors, poor patient outcomes, 
and increased mortality rates. A study based on a review of more than 6 
million patients was published in the New England Journal of Medicine 
in May, 2002. The researchers found that hospitalized patients had 
better outcomes when the number of hours of RN care per day increased. 
Specifically, nursing shortages were found to correlate with longer 
lengths of stay, increased incidence of urinary tract infections and 
upper gastrointestinal bleeding, higher rates of pneumonia, shock and 
cardiac arrest. Increased hours of RN care resulted in fewer ``failure-
to-rescue'' deaths from pneumonia, shock or cardiac arrest, upper 
gastrointestinal bleeding, sepsis and deep venous thrombosis.
    Research published in the October 23, 2002 Journal of the American 
Medical Association demonstrated that more nurses at the bedside could 
save thousands of patient lives each year. In reviewing more than 
232,000 surgical patients at 168 hospitals, researchers from the 
University of Pennsylvania concluded that a patient's overall risk of 
death rose roughly 7 percent for each additional patient above four 
added to a nurse's workload.
    A Joint Commission on the Accreditation of Healthcare Organizations 
(JCAHO) study published in 2002 shows that nearly one-quarter of all 
unanticipated deaths or injuries result from a lack of adequate nursing 
care.

          THE IMPACT ON PREPAREDNESS AND MILITARY HEALTH CARE

    This growing nursing shortage has effects well beyond domestic 
health care. RNs are integral in everything from adequate terrorism 
preparedness, to veterans' health delivery, to disaster response. In 
the event of a terrorist attack, nurses will be needed to evaluate 
patients, administer vaccines and medications, perform disease 
surveillance, and to train non-licensed staff. The Agency for 
Healthcare Research and Quality has developed a model to determine the 
number of health staff needed for these activities. According to this 
model, a small-scale anthrax attack in New York City would require 
18,981 trained staff working around the clock for four days to provide 
needed testing and antibiotics. A contained, small-scale smallpox 
attack in Columbus, OH would require 2,296 patient-care staff working 
around the clock for 4 days. The GAO reports that five out of 7 states 
have claimed that nursing shortages are hindering their bioterrorism 
preparedness efforts.
    The nursing shortage is also stressing military health care 
delivery. Because the military holds the vast majority of its health 
care assets in the reserves, the reserve activation has been 
particularly hard on nursing. There are currently more than 19,000 RNs 
providing care through the military reserves. As these nurses are drawn 
out of the domestic labor pool, the shortage is exacerbated.
    The Army, Navy, and Air Force are offering lucrative RN recruitment 
packages that include large sign-on bonuses, generous scholarships, and 
loan forgiveness packages. Yet, for the last 2 years the Army has not 
met its RN recruiting goals for either the active service or the 
reserves. The Air Force has not met its recruiting goals for the last 5 
years. Therefore, this shortage impacts our very strength as a nation.

                 NURSING WORKFORCE DEVELOPMENT PROGRAMS

    Federal support for the Nursing Workforce Development Programs 
contained in Title VIII of the Public Health Service Act is 
unduplicated and essential. In 2002, the 107th Congress recognized the 
detrimental impact of the developing nursing shortage and passed the 
Nurse Reinvestment Act (Public Law 107-205). This law improved the 
programs of Title VIII to meet the unique characteristics of today's 
shortage. This significant achievement holds the promise of recruiting 
new nurses into the profession, promoting career advancement within 
nursing and improving patient care delivery. This promise will not be 
met, however, without a significant investment.
    In fiscal year 2004 this Subcommittee allocated $142 million in 
funding for Title VIII, this supported 28,253 individual student 
nurses. In fiscal year 2005, the hard work of this Subcommittee 
resulted in $151 million in funding for Title VIII programs. ANA 
strongly urges you to increase funding for Title VIII programs by at 
least $24 million to a total of $175 million in fiscal year 2006. The 
nursing shortage and its impact on the health care of the nation demand 
this continued investment.
    In 1974, this Subcommittee invested $153.6 million Title VIII. 
Inflated to today's dollars, this long-ago appropriation would equal 
$592 million, approximately four times the current appropriation. 
Certainly, today's shortage is more dire and systemic than that of the 
1970's; it deserves an equivalent response.
    Title VIII includes the following program areas:
    Nursing Education Loan Repayment Program & Scholarships.--This line 
item is comprised of the Nurse Education Loan Repayment Program (NELRP) 
and the Nursing Scholarship Program (NSP), the Secretary of HHS has the 
authority to allocate funds between the two areas. The NELRP repays 
nursing student loans in return for at least two years of practice in a 
facility with a critical nursing shortage. For the first two years of 
service, the NELRP will repay 60 percent of the RN's student loan 
balance. If the nurse elects to stay for another year, an additional 25 
percent of the loan will be repaid. Within 3 years, a nurse can pay off 
85 percent of his/her student loans.
    The NELRP boasts a proven track record of delivering nurses to 
facilities hardest hit by the nursing shortage. HRSA has given NELRP 
funding preference to RNs who work in skilled nursing facilities, 
disproportionate share hospitals, and departments of public health. 
However, lack of funding has hindered the full implementation of this 
program. In fiscal year 2004, HRSA received more than 4,800 
applications for the NELRP. Due to lack of funding, only 857 loan 
repayments were awarded. Therefore, 82 percent of the nurses willing to 
immediately begin practicing in facilities hardest hit by the shortage 
were turned away from this program.
    The nursing scholarship program offers funds to nursing students 
who, upon graduation, agree to work for at least two years in a health 
care facility with a critical shortage of nurses. Preference is given 
to students with the greatest financial need. Like the loan repayment 
program, the nursing scholarship program as been stunted by a lack of 
funding. In fiscal year 2004, HRSA received more than 8,800 
applications for the nursing scholarship. Due to lack of funding, a 
mere 126 scholarships were awarded. Therefore, 98 percent of the 
nursing students willing to work in facilities with a critical shortage 
of nurses were denied access to this program.
    Nurse Faculty Loan Program.--This program establishes a loan 
repayment fund within schools of nursing to increase the number of 
qualified nurse faculty. Nurses may pursue a master's or doctoral 
degree. They must agree to teach at a school of nursing in exchange for 
cancellation of up to 85 percent of their educational loans, plus 
interest, over a 4-year period. Loans can cover the costs of tuition, 
fees, books, laboratory expenses, and other reasonable education 
expenses.
    This program is vital given the critical shortage of nursing 
faculty. America's schools of nursing can not increase their capacity 
without an influx of new teaching staff. Last year, schools of nursing 
were forced to turn away tens of thousands of qualified applicants due 
largely to the lack of faculty. In fiscal year 2004, HRSA awarded 61 
nurse faculty loan repayments.
    Nurse Education, Practice, and Retention Grants.--This section 
contains grant areas designed to expand enrollments in baccalaureate 
nursing programs; develop internship and residency programs to enhance 
mentoring and specialty training, and; provide new technologies in 
education including distance learning. Practice grant are designed to 
expand practice arrangements in non-institutional settings to improve 
primary health care in medically underserved communities; provide care 
for underserved populations; provide skills necessary to practice in 
existing and emerging health systems, and; develop cultural 
competencies. Retention grant areas include career ladders and improved 
patient care delivery systems. The career ladders program supports 
education programs that assist individuals in obtaining the educational 
foundation required to enter the profession, and to promote career 
advancement within nursing.
    Enhancing patient care delivery system grants are designed to 
improve the nursing work environment. It provides grants to facilities 
to enhance collaboration and communication among nurses and other 
health care professionals, and to promote nurse involvement in the 
organizational and clinical decision-making processes of a health care 
facility. These best practices for nurse administration have been 
identified by the American Nurse Credentialing Center's Magnet 
Recognition Program. These practices have been shown to double nurse 
retention rates, increase nurse satisfaction, and improve patient care.
    Nursing Workforce Diversity.--This program provides funds to 
enhance diversity in nursing education and practice. It supports 
projects to increase nursing education opportunities for individuals 
from disadvantaged backgrounds--including racial and ethnic minorities, 
as well as individuals who are economically disadvantaged. Racial and 
ethnic minorities currently comprise more than 25 percent of the 
nation's population and will comprise nearly 40 percent by the year 
2020. Only 12 percent of the RNs in the United States come from diverse 
backgrounds. Increasing the number of RNs from diverse races helps to 
address the prevention, treatment, and rehabilitation needs of an 
increasingly diverse population. For fiscal year 2004, HRSA received 
144 submissions for nursing workforce diversity grants. HRSA was only 
able to fund 20 (14 percent of applications).
    Advanced Nurse Education.--Advanced practice registered nurses 
(APRNs) are RNs who have attained advanced expertise in the clinical 
management of health conditions. Typically, an APRN holds a master's 
degree with advanced didactic and clinical preparation beyond that of 
the RN. Most have practice experience as RNs prior to entering graduate 
school. Practice areas include, but are not limited to: anesthesiology, 
family medicine, gerontology, pediatrics, mental health, midwifery, 
neonatology, and women's & adult health. Title VIII grants have 
supported the development of virtually all initial state and regional 
outreach models using distance learning methodologies to provide 
advanced study opportunities for nurses in rural and remote areas.
    These grants also provide traineeships for masters and doctoral 
students. Title VIII funds more than 60 percent of U.S. nurse 
practitioner education programs and assists 83 percent of nurse 
midwifery programs. Over 45 percent of advanced nursing graduates go on 
to practice in medically underserved communities, and in areas with 
large Medicaid populations. Many provide care to minority or 
disadvantaged patients. In fiscal year 2004, HRSA funded 82 advanced 
education nursing grants (78 percent of applications), 335 advanced 
education nursing traineeships (every application), and 73 nurse 
anesthetist traineeships (every application).
    Comprehensive Geriatric Education Grants.--This authority awards 
grants to train and educate nurses in providing health care to the 
elderly. Funds are used to train individuals who provide direct care 
for the elderly, to develop and disseminate geriatric nursing 
curriculum, to train faculty members in geriatrics, and to provide 
continuing education to nurses who provide geriatric care. The growing 
number of elderly Americans and the impending health care needs of the 
baby boom generation make this program critically important. In fiscal 
year 2004, HRSA continued 17 previously awarded grants.

             NATIONAL INSTITUTE OF NURSING RESEARCH (NINR)

    ANA also urges the Subcommittee to increase funding for the NINR, 
one of the institutes at the National Institutes of Health (NIH). 
Nursing research is an integral part of the effectiveness of nursing 
care. Advances in nursing care arising from nursing and other 
biomedical research improves the quality of patient care and has shown 
excellent progress in reducing health care costs. Research programs 
supported by NINR address a number of critical public health and 
patient care questions. The research is driven by real and immediate 
problems encountered by patients and families.
    Recent studies have revealed the difference in heart attack 
symptoms in women versus men, the most effective means to prevent 
infectious diseases in inner city households, the incidence and risk 
factors for uterine rupture in pregnancies following cesarean section, 
and the means to help family caregivers provide high-quality long, term 
care for loved ones with chronic health care needs. NINR is leading the 
NIH research on end-of-life and palliative care. NINR is the lowest 
funded institute at NIH. ANA recommends $160 million in fiscal year 
2006 funding for the NINR.

                               CONCLUSION

    While we appreciate the continued support of this Subcommittee, ANA 
is concerned by the fact that Title VIII funding levels have not been 
sufficient to assist qualified students enter the nursing profession. 
The nursing shortage will continue to worsen if significant investments 
are not made in nursing workforce development programs. Recent efforts 
have shown that aggressive and innovative recruitment efforts can help 
avert the impending nursing shortage--if they are adequately funded.
    ANA asks you to meet today's shortage with a relatively modest 
investment of $175 million in Title VIII programs. Additionally, an 
investment of $160 million in the NINR will help assure that these 
nurses are equipped with the information needed to provide the best 
care possible.
                                 ______
                                 
  Prepared Statement of the American Public Health Association (APHA)

    The American Public Health Association (APHA), the oldest 
organization of public health professionals, represents more than 
50,000 members from over 50 public health occupations. We are pleased 
to submit our views on federal funding for public health activities in 
fiscal year 2006.

         RECOMMENDATIONS FOR FUNDING THE PUBLIC HEALTH SERVICE

    APHA's budget recommendation concurs with the estimate developed by 
the Coalition for Health Funding: we believe the Public Health Service 
needs an increase of $3.5 billion in fiscal year 2006. This figure is 
based on the professional estimate of need and opportunity within each 
agency of the Public Health Service and would accommodate needed 
increases for the Centers for Disease Control and Prevention (CDC), the 
Health Resources and Services Administration (HRSA), the Substance 
Abuse and Mental Health Services Administration (SAMHSA), the Agency 
for Healthcare Research and Quality (AHRQ), and the National Institutes 
of Health (NIH), as well as agencies outside this subcommittee's 
jurisdiction--the Food and Drug Administration (FDA) and the Indian 
Health Service (IHS).

               CENTERS FOR DISEASE CONTROL AND PREVENTION

    APHA supports a funding level for the Centers for Disease Control 
and Prevention that enables it to carry out its mission to protect and 
promote good health and to assure that research findings are translated 
into effective state and local programs. It is time to support CDC as 
an agency--not just the individual programs that it funds. In the best 
professional judgment of the American Public Health Association, in 
conjunction with the CDC Coalition--given the challenges of terrorism 
and disaster preparedness, new and re-emerging infectious diseases, the 
epidemic of obesity, particularly among children, and our many unmet 
public health needs and missed prevention opportunities--the agency 
will require funding of at least $8.65 billion to support its mission 
for fiscal year 2006.
    APHA is pleased with the support the Subcommittee has given to CDC 
programs over the years, including your recognition of the need to fund 
Severe Acute Respiratory Syndrome (SARS) response efforts, obesity 
prevention, chronic disease prevention, and solutions to the shortage 
of the flu vaccine. By translating research findings into effective 
intervention efforts in the field, the agency has been a key source of 
funding for many of our state and local programs that aim to improve 
the health of communities. Perhaps more importantly, federal funding 
through CDC provides the foundation for our state and local public 
health departments, supporting a trained workforce, laboratory capacity 
and public health education communications systems.
    CDC also serves as the command center for our nation's public 
health defense system against emerging and reemerging infectious 
diseases. From anthrax to West Nile to smallpox to avian flu, the 
Centers for Disease Control and Prevention is the nation's--and the 
world's--expert resource and response center, coordinating 
communications and action and serving as the laboratory reference 
center. States and communities rely on CDC for accurate information and 
direction in a crisis or outbreak.
    In fiscal year 2002, Congress appropriated $7.7 billion for CDC. In 
fiscal years 2003, 2004 and 2005, Congress appropriated $7.1 billion, 
$7.2 billion, and $8.0 billion, respectively. Now the President's 
proposed budget for the agency in fiscal year 2006 is $7.5 billion--a 
$500 million cut from last year's funding, and $200 million below the 
fiscal year 2002 funding level. We are moving in the wrong direction. 
Public health is being asked to do more, not less. As far as we can 
tell, in light of the current workload placed on the public health 
service--in addition to the threat of emerging diseases such as the 
avian flu--it simply does not make any sense to cut the budget for CDC 
at a time when the threats to public health are so great. Funding 
public health outbreak by outbreak is not an effective way to ensure 
either preparedness or accountability.
    Furthermore, the President's budget proposes the elimination of two 
very important chronic disease prevention programs: the Preventive 
Health and Health Services Block Grant and the Childhood Obesity 
Prevention Program (COPP), also referred to as the VERB or CDC Youth 
Media campaign. As states use their Prevention Block Grant dollars to 
address high priority needs such as emerging and chronic diseases, 
child safety seat programs, suicide prevention, smoke detector 
distribution and fire safety programs, adult immunization, oral health, 
worksite wellness, infectious disease outbreaks, food safety, emergency 
medical services, safe drinking water, and surveillance needs--we can 
scarcely understand why the Prevention Block Grant should be 
eliminated. And the success of the COPP program shows that over 30 
percent of the target audience, children ages 9 to 10 years, increased 
their physical activity as a direct result of the VERB media campaign. 
This type of success warrants continued funding of a program to empower 
our children to respond to the growing concerns of the obesity epidemic 
and improve the health of this nation. We encourage the Subcommittee to 
restore the cuts and fund the Prevention Block Grant at $132 million 
and the COPP program at $70 million.
    Until we are committed to a strong public health system, every 
crisis will force trade offs. For instance, the Administration's recent 
reprogramming request to make up for the vaccine shortage with money 
originally appropriated by Congress for chronic disease prevention 
programs (COPP and the Preventive Health and Health Services Block 
Grant) and bioterror preparedness funds is the most recent concrete 
example of attention to one disease coming at the expense of another.
    We also encourage the Subcommittee to provide $10 million for CDC's 
Environmental Public Health Services Branch to revitalize environmental 
public health services at the national, state and local level. As with 
the public health workforce, the environmental health workforce is 
declining. Furthermore, the agencies that carry out these services are 
fragmented and their resources are stretched. These services are the 
backbone of public health and are essential to protecting and ensuring 
the health and well being of the American public from threats 
associated with West Nile virus, terrorism, E. coli and lead in 
drinking water.

              HEALTH RESOURCES AND SERVICES ADMINISTRATION

    HRSA programs assure that all Americans have access to our nation's 
best available health care services. HRSA provides a health safety net 
for medically underserved individuals and families, including 45 
million Americans who lack health insurance; African American infants, 
whose infant mortality rate is more than double that of whites; and the 
estimated 850,000 to 950,000 people living with HIV/AIDS. Programs to 
support the underserved place HRSA on the front lines in erasing our 
nation's racial/ethnic and rural/urban disparities in health status. 
HRSA funding goes where the need exists, in communities all over 
America. The agency's overriding goal is to achieve 100 percent access 
to healthcare, with zero disparities. In the best professional judgment 
of APHA, in conjunction with the Friends of HRSA Coalition, to respond 
to this challenge, the agency will require a funding level of at least 
$7.5 billion for fiscal year 2005.
    We are grateful to the Subcommittee for your consistent strong 
support for all of HRSA's programs, including the initiatives in 
terrorism preparedness and response in the past. Unfortunately, the 
president's budget overall recommends a massive $838 million or over 12 
percent cut to the agency for fiscal year 2006. We urge the members of 
the Subcommittee to restore the cuts and fund the agency at a level 
that allows HRSA to effectively implement these important programs.
    APHA is pleased that the Administration has requested a significant 
17.5 percent increase for Community Health Centers. More than 4,000 of 
these sites across the nation provide needed primary and preventive 
care to nearly 15 million poor and near-poor Americans. Health centers 
provide access to high-quality, family-oriented, culturally and 
linguistically competent primary care and preventive services, 
including mental and behavioral health, dental and support services. 
Nearly three-fourths of health center patients are uninsured or on 
Medicaid, approximately two-thirds are people of color, and more than 
85 percent live below 200 percent of the poverty level.
    However, we are once again very concerned that the HRSA health 
professions programs under Title VII and VIII have once again landed on 
the chopping block. Today our nation faces a widening gap between 
challenges to improve the health of Americans and the capacity of the 
public health workforce to meet those challenges. An adequate, diverse, 
well-distributed and culturally competent health workforce is 
indispensable to our national readiness efforts and to address critical 
health care needs. These programs help meet the health care delivery 
needs of the areas in this country with severe health professions 
shortages, at times serving as the only source of health care in many 
rural and disadvantaged communities. Therefore, the elimination of most 
funding for the Title VII health professions training programs and flat 
funding for Title VIII nurse training will only make certain that the 
needs of these medically underserved populations will not be met.
    Furthermore, we believe the elimination of the Healthy Community 
Access Program, universal newborn hearing screening programs, and the 
Emergency Medical Services for Children Program, especially when 
coupled with the flat-funding of the Maternal and Child Health Block 
Grant, will further undermine the availability of health services for 
some that are most in need--especially children. The Healthy Community 
Access Program is an example in which communities build partnerships 
among health care providers to deliver a broader range of health 
services to their neediest residents. This program of coordinated 
service delivery is innovative, not duplicative of other available 
programs, and therefore its elimination it of grave concern. Also, the 
proposed zero funding of universal newborn hearing screening programs 
in the Administration's budget will likely cause many hearing 
impairments in infants to go undetected, which can negatively impact 
speech and language acquisition, academic achievement, and social and 
emotional development. The proposed elimination of the Emergency 
Medical Services for Children Program will hurt many children who are 
eligible for Medicaid and SCHIP, but not enrolled due to state 
enrollment limits and budgetary pressures, and therefore frequently use 
emergency health services.
    We are very concerned that most programs under the Ryan White CARE 
Act, administered by HRSA's HIV/AIDS Bureau, would be flat-funded 
should the figures requested by the Administration be implemented. The 
CARE Act program is an important safety net program, providing an 
estimated 533,000 people access to services and treatments each year. 
At a time when HIV/AIDS is the fifth leading cause of death for people 
who are 25 to 44 years old in the United States, and the number of new 
domestic HIV/AIDS cases is increasing, not decreasing, flat funding 
these critical Ryan White Act programs does not make much sense.
    Through its many programs and new initiatives, HRSA helps countless 
individuals live healthier, more productive lives. In the 21st century, 
rapid advances in research and technology promise unparalleled change 
in the nation's health care delivery system. HRSA is well positioned to 
meet these new challenges as it continues to provide first-rate health 
care to the nation's most vulnerable citizens. We recommend growth in 
HRSA's budget to meet the needs of vulnerable populations served by the 
agency.

               AGENCY FOR HEALTHCARE RESEARCH AND QUALITY

    We request a funding level of $443 million for the Agency for 
Healthcare Research and Quality for fiscal year 2006, an increase of 
$124 million over last year. This level of funding is needed for the 
agency to fully carry out its Congressional mandate to improve health 
care quality, including eliminating racial and ethnic disparities in 
health, reducing medical errors, and improving access and quality of 
care for children and persons with disabilities. The cuts proposed in 
the administration budget will severely hamper these efforts.

       SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES ADMINISTRATION

    APHA supports a funding level of $3.5 billion for the Substance 
Abuse and Mental Health Services Administration for fiscal year 2006, 
an increase of $262 million over last year. This funding level would 
provide support for substance abuse prevention and treatment programs, 
as well as continued efforts to address emerging substance abuse 
problems in adolescents, the nexus of substance abuse and mental 
health, and other serious threats to the mental health of Americans.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

    The budget of the Office of Minority Health has been decreased in 
the last several years. In fiscal year 2004, OMH received $55 million; 
in fiscal year 2005, OMH received $50 million; and the proposed budget 
in fiscal year 2006 is $47 million. APHA is concerned that at a time 
when we have increasing evidence of disparities in health care 
delivery, access and health outcomes, the budget of OMH is getting cut. 
We support restoring OMH funding to the fiscal year 2004 level.

                               CONCLUSION

    In closing, we emphasize that the public health system requires 
financial investments at every stage. Successes in biomedical research 
must be translated into tangible prevention opportunities, screening 
programs, lifestyle and behavior changes, and other interventions that 
are effective and available for everyone. While we have said this 
before, in the post-September 11th era, we need to apply this to our 
spending growth in terrorism preparedness as well. We must think in a 
broad and balanced way, leveraging homeland security programs and 
funding whenever possible to provide public health benefits as a matter 
of routine, rather than emergency.
    We thank the subcommittee for the opportunity to present our views 
on the fiscal year 2006 appropriations for public health service 
programs.
                                 ______
                                 
  Prepared Statement of the Association of Maternal and Child Health 
                                Programs

    Mr. Chairman and members of the subcommittee, I am pleased to 
submit testimony on behalf of the Association of Maternal and Child 
Health Programs (AMCHP) regarding the critical need for funding of the 
Title V Maternal and Child Health Services Block Grant in fiscal year 
2006. As AMCHP's President and the director of Iowa's Child Health 
Specialty Clinics program, which uses MCH block grant funds to serve 
Iowa's children and their families, I know these funds make a 
difference. Because of the MCH Block Grant, states are able to fund a 
variety of activities to improve the health of your constituents. I 
urge you to provide $755 million for the MCH Block Grant this year.
    AMCHP is a national non-profit organization representing the 
leaders of state public health programs for maternal and child health, 
and children with special health care needs in all 50 states, the 
District of Columbia, and eight additional jurisdictions. Every state 
health department receives Title V Maternal and Child Health Services 
Block Grant funds to improve the health of all mothers and children.
    This modest increase to $755 million (3 percent) is necessary to 
help states maintain current levels of service. Between 1999 and 2003, 
the number of women and children served by this program increased by 
almost 4 million (16 percent). Federal funding has declined since 2003. 
The President's request of $723.9 million for fiscal year 2006 would be 
the fourth straight year of level or reduced funding. States are being 
called to do more with less and state MCH programs have done their best 
to make sure that the women and children we served are not adversely 
affected. However, maternal and child health programs in every state 
have reached a breaking point, with many states experiencing reductions 
in both state and federal funding; without additional funds, more 
severe cuts may have to be made.
    I also urge you to reject the Administration's proposal to 
eliminate funding for HRSA's Emergency Medical Services for Children 
program, Universal Newborn Hearing Screening program, trauma program 
and CDC's preventive health and health services block grant. The budget 
request argues that states will be able to use their MCH Block Grant 
funds to support some of these activities. States already work with 
these programs to avoid duplication and to ensure that each federal 
dollar, whether obtained through the block grant or not, goes further. 
The reality is that states have less federal and state funds available 
for maternal and child health programs and would not be able to support 
the current activities without cutting funds for other health 
priorities. Eliminating Newborn Hearing Screening grants will force 
states to cut other worthy MCH programs in order to continue hearing 
screening or to scale back or not conduct newborn hearing screening 
activities. According to a recent report, thanks to the HRSA funding, 
over 86 percent of infants born in hospitals nationwide are screened 
for hearing loss, up from 25 percent in 1999. Additionally, continued 
funding ($5 million) within the Special Projects of Regional and 
National Significance (SPRANS) set-aside for MCH oral health activities 
is critical. Most state dental programs for children are part of the 
state's maternal and child health program and are supported through the 
Maternal and Child Health block grant and support ongoing leadership to 
states to address long-term oral health problems.
    The Title V Maternal and Child Health Block Grant is one of the 
nation's oldest health programs and plays a pivotal part in states' 
current maternal and child health policy. The authorization of funding 
for the Maternal and Child Health Block Grant goes back to the Social 
Security Act of 1935. The legislation represented one of the very first 
state ``grant-in-aid'' programs, allocating federal revenues to states 
that agreed to meet the program's basic conditions of participation, 
which revolved around two main goals. The first was to help states 
lessen the negative social and public health impact of the Great 
Depression through promotion of maternal and child health services and 
the development of a basic preventive and primary health care 
infrastructure for women and children. The second, and one directly 
tied to the terrible epidemic of polio, was to assist states through 
grants to develop services for ``crippled children.''
    Today, Maternal and child health programs have expanded their roles 
and lead state efforts to increase immunization and newborn screening 
rates, reduce infant mortality, prevent childhood accidents and 
injuries, and reduce adolescent pregnancy. Each year, more than 27 
million women, infants, children and adolescents, including those with 
special health care needs, are served by MCH Block Grant funds. Half of 
the 4 million women who give birth annually receive health services 
made possible by the MCH Block Grant.
    While the block grant now represents a much smaller funding stream 
for states, it still remains one of the few resources that gives 
states' the ability to provide numerous services to meet needs 
identified by the states, to millions of women, children, and their 
families annually. And in every state, the MCH Block Grant still 
provides a health safety net for low-income women and children, by 
being a payor of last resort for needed medical services when other 
sources of payment (either public or private) are not available.

    WHO DO WE SERVE? WHAT DOES THE TYPICAL TITLE V CLIENT LOOK LIKE?

    Every year, over 4 million babies are born in this country. Many of 
them are healthy and families leave the hospital confident of a better 
future. I can discuss the many ways that MCH Block Grant dollars and 
state programs help in producing those healthy outcomes. However, I 
want to focus on the case of those families with children who may have 
special health care needs present at birth or shortly afterwards. Like 
the parent from Massachusetts with a son who was eventually diagnosed 
with congenital heart disease, abnormal heart rhythms, and is now 
pacemaker dependent. Immediately after birth, the parent made countless 
visits to the pediatrician sensing that something seemed wrong with her 
son, but she didn't know what. He was jaundiced for weeks after he was 
born and didn't gain weight, as he should. Even on formula, her son 
still did not gain weight. In a span of two calendar years, her son was 
hospitalized for 134 consecutive days. For all the ``I feel for you'' 
visits she had from hospital social workers, no one ever told her son 
was eligible for SSI after the first 30 consecutive calendar days as an 
inpatient, or that her family could apply for Massachusetts Medicaid 
buy-in option to offset their exorbitant out-of-pocket costs for the 
healthcare services her son was receiving. This parent, like many 
others, continued to have great difficulty in coordinating health care 
services. She had to make thousands of phone calls to state agencies 
and search the Internet, plead with her insurance company to pay for 
things, call state agencies, surf the Internet late into the night 
looking for support services, for other parents, or for anything that 
would help.
    Another family in Pennsylvania juggle 11 doctors who treat their 
son with special health care needs and who constantly struggle to 
navigate the health care system for as many options that are available 
to improve the quality of life for their son. These are just a few 
examples of what is unfortunately a very common occurrence throughout 
the country.
    MCH Block Grant funds help assure that every state has the ability 
to connect families like the one described above to services and when 
those services are not otherwise available, to pay for that care. In 
Missouri, a child was born with an infection similar to a form of 
meningitis and was in the NICU for the first 8 weeks of his life. 
Within a day after mother and child went home, a nurse from the Bureau 
of Special Health Care Needs contacted the family. The support from the 
state's children with special health care needs program did not stop 
but continued and even now 16 years later, is available when the family 
needs it. Anything from adaptive equipment, to personal care attendant 
services have been provided when necessary.
    State Maternal and Child Health Programs play a primary role in 
assuring health care for children with special health care needs and 
their families. The services that each state provides may vary but by 
law, 30 percent of each state's Maternal and Child Health Block Grant 
allocation must be used to provide services for these kids. Why? 
Because the experiences for families that I outlined above have 
occurred too often. Since 1935, Congress has provided funding to states 
to make sure that we put an end to stories like these. A recent 
national survey by the Maternal and Child Health Programs estimated 13 
percent of children in the United States have a special health care 
need. Maternal and Child Health Block Grant funded programs are 
reaching slightly over 1 million but more can be done with increased 
funding for this important program.
    In Iowa, Child Health Specialty Clinics is the designated Title V 
Children with Special Health Care Needs program. We operate a statewide 
program that works with families, service providers and communities to 
provide subspecialty health care and support to children, from birth 
through age 21, who have a chronic condition (physical, developmental, 
behavioral or emotional) or who have an increased risk of a chronic 
condition and need special services. Like similar programs in all 
states, the program is primarily funded through the Maternal and Child 
Health Block Grant. Each specialty clinic center can offer from one to 
four evaluation and planning clinics per month. These clinics are 
staffed by community pediatricians, nurses, and nutritionists and serve 
mostly children with behavioral and developmental problems. Clinics 
serve children with chronic health problems like heart disease, 
diabetes, sickle cell disease, and bone and joint disease. Fees for the 
clinics are based on a sliding scale that accounts for family size and 
income.
    Besides the clinics, Iowa uses MCH block grant funds to provide 
other services for children and their families including making sure 
family support is available and organizing care plans for children. 
Through a statewide parent-to-parent network, we provide one-on-one 
emotional support, problem-solving assistance and help with 
understanding health insurance to families. The network connects 
parents new to the program with parents who have already been through 
many of the same experiences When one child can have as many as 11 
doctors, the burden on families to navigate the health care maze can be 
crushing. Another way we help is helping families navigate the health 
care system. Some children with complicated health problems require 
different services from varied agencies and we help coordinate needed 
care with local agencies within the family's community. These are 
provided as free services to families.
    Child Health Specialty Clinics serve approximately 9,000 children 
yearly, including 800 infants and 1,500 preschoolers, including making 
phone, mail and face-to-face contacts with families and health care 
providers. A few years ago I had 14 of these centers throughout Iowa. 
Today, we have 13 centers and in most other locations are now open only 
four days a week. Funding reductions at the state and federal level 
mean less clinics, families have to travel farther, and no ability to 
address emerging needs such as care for children with special emotional 
and behavioral health needs, one of the largest needs that we are 
currently seeing in the state.

                           STATE BUDGET CUTS

    More MCH Block Grant funds are needed. Below are specific examples 
of reductions in services that states have made due to declining 
federal and state funding for maternal and child health.

                                  IOWA

    Because of decreased state and federal funding along with increases 
in personnel costs (inflation), Iowa closed pediatric mobile clinics, 
eliminated nutrition services for children, closed the Waterloo center 
and reduced services at other centers. Without increased funding, we 
are looking at:
  --Closing centers in Burlington, Council Bluffs, Sioux City
  --Consolidating the Dubuque and Davenport with other centers
  --Increased waiting time up to 12 months for families and their kids 
        to get the services they need
  --Ending behavioral pilot programs, a medical home project and other 
        activities to make sure these children and their families get 
        the right services when they need them.

                                  OHIO

    Ohio received one of the steepest cuts in federal MCH block grant 
funding, losing $1.5 million (or 6 percent) between fiscal year 2003 
and fiscal year 2004. Combined with a $7.5 million decline in the state 
funds available to support MCH, the ability for the program to maintain 
services to the 266,000 women, infants, and children who received 
services in 2002 has been severely compromised. Ohio's Children with 
Special Health Care Needs (CSHCN) program, because of both state cuts 
and cuts in the Ohio MCH Block Grant, has had to decrease the number of 
diagnoses covered by the CSHCN Treatment Program and to change the 
eligibility rules to reduce the services provided. Three diagnosed 
conditions were eliminated from coverage, affecting almost 600 
children.
    Other changes may affect up to 5,000 children who rely on the 
program. Co-payments are increased for families. Raising co-payments 
can significantly impact the financial and physical health of these 
families and their children if they are unable to pay them. These 
families turn to Title V when insurance (either private or public) 
cannot provide the services. The Ohio Specialty Field Clinic Program 
received a 20 percent decrease in MCH block grant and other funding 
support. The Specialty Clinic Program provides access to pediatric 
specialists for children in Ohio. The number of clinics will be cut, 
all in rural Ohio where the greatest need for services exists. This 
will affect the access to care for 300 children in Ohio's rural areas. 
Cardiac Specialty Clinics will be closed as of July 1, 2004. Funding 
reductions also slow the ability to respond to emerging issues, such as 
an increase in Ohio's infant mortality rate, which rose from 7.5 per 
1,000 births in 2000 to 7.9 in 2002.

                                 TEXAS

    Texas received a reduction of $753,000 (3 percent) in federal MCH 
funds. That reduction along with a reduction in state funds for MCH in 
2004-2005 will drastically increase the unmet needs of the MCH 
population in Texas. Currently, the MCH program addresses less than 10 
percent of the MCH population-in-need. For example, Title V MCH fiscal 
year 2004 contracts for services (i.e., initiatives directed toward 
teen pregnancy, childhood obesity, immunization, etc) decreased by 33 
percent and by 13 percent for direct services (prenatal care, child 
well-check visits, dental, family planning, etc.). In 2001, the Texas 
Children with Special Health Care Needs program instituted a waiting 
list that has grown to 1,200 families and is expected to continue to 
increase.

                               CONCLUSION

    Since its creation, the Title V Maternal and Child Health Block 
Grant has grown from a $2.7 million program in fiscal year 1936 to a 
$723.9 million program in fiscal year 2005, and despite its relatively 
modest size, it has been revisited by Congress repeatedly over the 
years as new maternal and child health related concerns become evident. 
Even with the enactment of Medicaid in 1965, the Early and Periodic 
Screening, Diagnostic, and Treatment (EPSDT) program in 1967 (which 
simultaneously amended Medicaid and Title V to increase support for 
primary care) and SCHIP in 1997, Title V continues as a source of 
flexible funding that allows states to invest in the child health 
``infrastructure'' for both basic and specialty care. Increased funding 
is crucial to helping state MCH programs navigate the changing maternal 
and child health world. Please provide $755 million for the Maternal 
and Child Health Block Grant in fiscal year 2006. Again, thank you for 
this opportunity to testify.
                                 ______
                                 
Prepared Statement of the Association of Women's Health, Obstetric and 
                            Neonatal Nurses

    The Association of Women's Health, Obstetric and Neonatal Nurses 
(AWHONN) appreciates the opportunity to comment on the fiscal year 2006 
appropriations for nursing education, research, and workforce programs 
as well as programs designed to improve maternal and child health. 
AWHONN is a membership organization of 22,000 nurses whose mission is 
to promote the health of women and newborns. AWHONN members are 
registered nurses, nurse practitioners, certified nurse-midwives, and 
clinical nurse specialists who work in hospitals, physicians' offices, 
universities, and community clinics across North America as well as in 
the Armed Forces around the world.
    AWHONN appreciates the support that this Subcommittee has provided 
for nursing education, research and workforce programs as well as 
maternal and child health programs in the past. We realize that there 
are many competing priorities for the Subcommittee members, and we 
appreciate your consistent support.

                        GROWING NURSING SHORTAGE

    AWHONN supports the advancement of quality care through an adequate 
nurse workforce Data from the Bureau of Health Professions, Division of 
Nursing's National Sample Survey of Registered Nurses--February 2002, 
confirm that of the approximately 2.7 million registered nurses in the 
nation, only about 82 percent of these nurses were working full-time or 
part-time in nursing. In addition to the shrinking pipeline of nurses 
coming into the program, the dominant factor in this shortage is the 
impending retirement of up to 40 percent of the workforce by 2010 or 
soon thereafter. This will occur at the same time that the needs of the 
aging baby boomer population will markedly increase demand for health 
care services and the services of registered nurses.
    This critical demand is reinforced by the fact that in February 
2004, the U.S. Bureau of Labor released statistics detailing how 
registered nurses have the largest projected 10-year job growth in the 
United States, with about 1 million new job openings by 2010. In 
addition to the care provider shortage, nursing faculties are also 
decreasing in number, requiring universities to decline acceptance to 
qualified nursing school applicants. The Southern Regional Education 
Board states that with faculty vacancies and newly budgeted positions, 
there has been a 12 percent shortfall in the number of nurse educators 
needed to train nursing applicants. The entire nursing workforce needs 
strengthening. As a result, it will take long-term planning and 
innovative initiatives at the local, state and federal level to assure 
an adequate supply of a qualified nurse workforce for the nation.

                  NURSE WORKFORCE DEVELOPMENT PROGRAMS

AWHONN recommends a total of $210 million for fiscal year 2006 to fund 
        the Nurse Workforce Development programs in Title VIII
    The Nurse Education Act (Public Health Service Act, Title VIII), 
enacted in 1964, represents the only comprehensive federal legislation 
to provide funds for nursing education. The programs authorized in this 
portion of Public Law 105-392 help schools of nursing and nursing 
students prepare to meet patient needs in a changing health care 
delivery system, favoring programs in institutions that train nurses 
for practice in medically underserved communities and Health 
Professional Shortage Areas.
    Reauthorized as the Nursing Workforce Development section in 1998, 
the new NEA gives the Department of Health and Human Services more 
discretion over the focus of federal spending. In 2002, Congress 
enacted the Nurse Reinvestment Act, which provides funding for new and 
expanded programs. These programs include scholarships, career ladders, 
internships and residencies, retention programs, and faculty loans 
designed to encourage students to consider nursing, keep nurses in the 
field, and ensure that nurse educators are plentiful enough to educate 
future nurses that we desperately need. The new programs received an 
initial appropriation of $20 million in fiscal year 2003, which was in 
addition to $93 million in funding provided for existing Title VIII 
programming. Unfortunately, due to limited funding in the first 2 years 
of the new authorization, the loan and scholarship programs have not 
been successful in providing support to students in nursing schools. In 
the first year, only 574 loan repayment contracts were made nationally, 
averaging roughly 11 loan repayment agreements per state, and less than 
2 percent of all scholarship applicants were funded.
    The shortage of registered nurses and the effect of the shortage on 
nurse staffing and patient safety demand a significant increase in 
funding for these programs. Nursing is the largest health profession 
with over 2.7 million nurses, yet only one-fifth of 1 percent of 
federal health funding is directed to nursing education. A significant 
increase in funding for these programs would lay the groundwork to 
expand the nursing workforce, through education and clinical training 
and retention programs, in order to address some of the serious 
shortage issues.
    The nursing shortage is not confined solely to care providers; 
there is also a growing, significant shortage of nurse faculty. The 
American Association of Colleges of Nursing (AACN) reports that the 
average age of nursing professors is 52, and for associate professors 
the average age is 55. The impending retirement of these seasoned 
educators will impact the ability of our schools and universities to 
meet the educational health care needs of the nation. According to 
AACN, U.S. nursing schools turned away almost 16,000 qualified 
applicants to baccalaureate nursing programs in 2003 due to 
insufficient faculty, clinical sites, classroom space, and budget 
constraints. Additionally, 125,000 qualified applicants were turned 
away from nursing programs at all levels across the United States in 
2004 according to the National League for Nursing.
    While the capacity to implement faculty development is currently 
available through Section 811 and Section 831, adequate funding and 
direction is needed to ensure that these programs are fully 
operational. Options to provide support for full-time doctoral study 
are essential to rapidly prepare the nurse educators of the future. 
AWHONN recommends that a portion of the funds be allocated for faculty 
development and mentoring.
    Further, AWHONN recognizes the importance of appropriate 
investments in advanced practice nursing programs. As in other 
professions the advanced degree has become a necessary achievement for 
career advancement, and registered nurses who pursue the MSN degree are 
a part of the cadre of nurses who go on to become faculty. Our nation 
needs more nurses with basic training to enter the field, but focusing 
only on these nurses addresses just half of the problem. The nursing 
shortage encompasses nursing faculty; both advanced practice nursing 
and basic nursing must receive additional funding but not one at the 
expense of the other.

                    MATERNAL AND CHILD HEALTH BUREAU

AWHONN recommends $850 million in funding in fiscal year 2006 for the 
        Maternal and Child Health Bureau
    This program provides comprehensive, preventive care for mothers 
and young children, as well as an array of coordinated services for 
children with special needs. In fact, the Maternal Child Health Block 
Grant (MCH) serves over 80 percent of all infants in the United States, 
half of all pregnant women, and 20 percent of all children.
    MCH programs are facing increased demands for services due to 
continued growth in the Children's Health Insurance Program, which in 
turn identifies more children who are eligible for other MCH Services. 
Title V complements Medicaid and the State Children's Health Insurance 
Program by providing ``wrap-around'' services and enhanced access to 
care in underserved areas. Additional funding would give states the 
resources they need to expand prenatal and infancy home visitation 
programs, an approach that has been shown, in NINR research, to improve 
the prenatal health-related behavior of women and reduce rates of child 
abuse and neglect as well as maternal welfare dependence.

                         INDIAN HEALTH SERVICE

AWHONN recommends an fiscal year 2006 appropriation of $5.54 billion 
        for IHS
    The Indian Health Service (IHS) is the principal federal health 
care provider and health advocate for Indian people with the goal of 
``ensur[ing] that comprehensive, culturally acceptable personal and 
public health services are available and accessible to all American 
Indian and Alaska Native people.'' IHS is tasked with an enormous 
responsibility in providing care to over half of the American Indian 
population.
    The American Indian and Alaska Native people have long experienced 
lower health status when compared with other Americans. Lower life 
expectancy and the disproportionate disease burden exist perhaps 
because of inadequate education, poverty, discrimination in the 
delivery of health services, and cultural differences. These are broad 
quality of life issues rooted in economic adversity and poor social 
conditions.
    A recent study of federal health care spending per capita found 
that the United States spends $3,803 per year per federal prisoner, 
while spending about half that amount for a Native American: $1,914. 
Per capita health care spending for the U.S. general population is 
$5,065 per year. A significant increase in funding over fiscal year 
2005 spending levels is necessary for the federal government to fulfill 
its responsibility to Indian Country and achieve its stated goals.
    While the nursing shortage continues nationwide, IHS has been 
disproportionately affected by the lack of RNs. IHS nurses are older, 
with an average age of 48, and nearly 80 percent of RNs are over the 
age of 40. Further, the average vacancy rate for RNs is 14 percent. IHS 
administers three interrelated scholarship programs designed to meet 
the health professional staffing needs of IHS and other health programs 
serving Indian people. These programs are severely under-funded. 
Targeted resources need to be invested in the IHS health professions 
programs in order to recruit and retain registered nurses in Indian 
Country.
    Additionally, Section 112 of the Indian Health Care Improvement 
Act, Public Law 94-437, authorizes grants to public or private schools 
of nursing, tribally-controlled community colleges and tribally-
controlled post secondary vocational institutions for the purpose of 
recruiting, training and increasing the number of professional nurses 
who deliver health care services to Indian people. On average, Section 
112 programs provide five undergraduate scholarships per year and two 
master's program scholarships. This important program should be 
expanded to provide many more scholarships, both at the undergraduate 
and graduate levels, in an effort to offer meaningful relief to the 
nursing shortage for IHS healthcare providers and the patients they 
serve.

             NATIONAL INSTITUTE OF NURSING RESEARCH (NINR)

AWHONN recommends an increase of $22 million over fiscal year 2005 
        funding levels for the NINR, resulting in an fiscal year 2006 
        appropriation of $160 million
    NINR engages in significant research affecting areas such as health 
disparities in ethnic groups, training opportunities for management of 
patient care and recovery, and telehealth interventions in rural/
underserved populations. This research allows us to refine the practice 
and provide quality patient care in its current challenging 
environment.
    NINR research contributes to or results in improved health outcomes 
for women. Recent public awareness campaigns target differences in the 
manifestation of cardiovascular disease between men and women. The 
differing symptoms are the source of many missed diagnostic 
opportunities among women suffering from the disease, which is the 
primary killer of American women. In a study funded by NINR, 
researchers were able to qualitatively analyze the intensity of pain 
and limitation of activity experienced by women suffering from angina, 
both of which were found to be of greater intensity than that 
experienced by men. The study concluded that the gender variation could 
significantly impact diagnosis and treatment of female patients 
suffering from related cardiovascular problems.
    Because of the emphasis on biomedical research in this country, 
there are few sources of funds for high-quality behavioral research for 
nursing other than NINR. It is critical that we increase funding in 
this area in an effort to optimize patient outcomes and decrease the 
need for extended hospitalization.

    NATIONAL INSTITUTE OF CHILD HEALTH AND HUMAN DEVELOPMENT (NICHD)

AWHONN supports an increase in funding for NICHD for fiscal year 2006, 
        bringing the appropriation to $1.35 billion
    NICHD seeks to ensure that every baby is born healthy, that women 
suffer no adverse consequences from pregnancy, and that all children 
have the opportunity for a healthy and productive life unhampered by 
disease or disability. With increased funding, NICHD could expand its 
use of the NICHD Maternal-Fetal Medicine Network to study ways to 
reduce the incidence of low birth weight. Prematurity/low birthweight 
is the second leading cause of infant mortality in the United States 
and the leading cause of death among African American infants. AWHONN, 
like many organizations directly involved in programs to improve the 
health of women and newborns, looks to NICHD to provide national 
initiatives, such as the Maternal-Fetal Medicine Network that assists 
with the care of pregnant women and babies.
    Recently NICHD released research indicating they may have found a 
test to predict preeclampsia in patients before the life-threatening 
complication, affecting five percent of all pregnancies, occurs. 
Abnormal levels of placental growth factor (PlGF) were found in the 
urine of pregnant women who later developed preeclapmsia. Once NICHD 
screens for women who are high risk for developing preeclampsia, this 
group can be studied to prevent or cure this complication. This finding 
is a promising lead in the effort to prevent and cure preeclampsia.

      NATIONAL INSTITUTES OF ENVIRONMENTAL HEALTH SCIENCES (NIEHS)

AWHONN supports an increase in funding for NIEHS for fiscal year 2006, 
        bringing the appropriation to $680 million
    Research conducted by the NIEHS plays a critical role in what we 
know about the relationship between our environmental exposures and 
disease onset. Through the research sponsored by this Institute, we 
know that Parkinson's disease, breast cancer, birth defects, 
miscarriage, delayed or diminished cognitive function, infertility, 
asthma and many other diseases and ailments have confirmed 
environmental triggers. Our expanded knowledge, as a result, allows 
both policy makers and the general public to make important decisions 
about how to reduce toxin exposure and reduce the risk of disease and 
other negative health outcomes.
    One impressive collaborative research project spearheaded by the 
NIEHS is the recent partnering of public and private funding agencies 
that will examine how better community design encourages people to be 
more physically active in their daily lives. Researchers will identify 
how our built environment contributes to obesity and how environmental 
changes can combat a growing public health problem. The NIEHS will 
examine the program's impact on physical activity, obesity, and other 
health indicators.

            CENTERS FOR DISEASE CONTROL AND PREVENTION (CDC)

AWHONN recommends an fiscal year 2006 appropriation of $8.65 billion 
        for the CDC
    For nearly 60 years, the Centers for Disease Control and Prevention 
(CDC) has evolved to assume responsibility for programs in infectious 
disease surveillance, control and prevention, injury control, health in 
the workplace, prevention of heart disease, cancer, stroke, obesity and 
other chronic diseases, improvements in nutrition and immunization, 
environmental effects on health, prevention of birth defects, 
laboratory analyses, outbreak investigation and epidemiology training, 
and data collection and analysis on a host of vital statistics and 
other health indicators. Now more than ever, CDC's role in protecting 
the nation's health through prevention has become evident as we address 
issues of terrorism, emergency preparedness and health system capacity 
and infrastructure. Increased funding for CDC is critical.
            Birth Defects
    For over 30 years, CDC has been deeply involved in the prevention 
of birth defects through programs like the Folic Acid Education 
Campaign and the new National Center on Birth Defects and Developmental 
Disabilities (NCBDDD). The public health impact of birth defects is 
tremendous. Of the four million babies born each year in the United 
States, approximately 120,000 are born with a serious birth defect. 
According to CDC, the lifetime costs of caring for infants born in 
1992, with at least one birth defect \1\ or cerebral palsy was about $8 
billion. The emotional and financial burden for the families with 
affected children is devastating. CDC funds several programs critical 
to reducing the number of children born with birth defects, including 
funding to states for birth defects tracking systems. Due to lack of 
funds, CDC is only able to fund 15 states in fiscal year 2005, which is 
down from 28 states in fiscal year 2004. Additional funding for these 
grants is needed to fund all of the states seeking CDC assistance for 
these critical surveillance programs.
---------------------------------------------------------------------------
    \1\ These birth defects include: Spina bifida, truncus arteriosus, 
single ventricle, transposition/double outlet right ventricle, 
Tetralogy of Fallot, tracheo-esophageal fistula, colorectal atresia, 
cleft lip or palate, atresia/stenosis of small intestine, renal 
agenesis, urinary obstruction, lower-limb reduction, upper-limb 
reduction, omphalocele, gastroschisis, Down syndrome, and diaphragmatic 
hernia.
---------------------------------------------------------------------------
            Cardiovascular Disease
    Cardiovascular disease is the leading cause of death in the United 
States, causing one death every 34 seconds and $393.5 billion a year in 
direct and indirect healthcare costs, according to the American Heart 
Association. The CDC reports that almost one-fourth of the U.S. 
population has some form of cardiovascular disease. Additionally, 65 
percent of American adults are overweight or obese and nearly 16 
percent of children and adolescents are overweight. Obesity is 
considered a major public health problem because it serves as the 
gateway disease for many other illnesses including but not limited to: 
depression, type 2 diabetes, hypertension, stroke, and poor female 
reproductive health and pregnancy complications.
    These are but two examples of illnesses with programmatic public 
health funding through CDC. Any cuts to these programs will potentially 
leave millions of Americans without primary prevention programs that 
ultimately save lives and money. AWHONN urges $8.65 billion in funding 
for CDC chronic disease prevention and health promotion programs to 
ensure that these programs have the resources necessary to translate 
preventive health research into practice. This investment will save 
lives and billions in health care costs and productivity.

                        SUMMARY RECOMMENDATIONS

    A summary of AWHONN formal funding recommendations for these and 
other federal health programs:

----------------------------------------------------------------------------------------------------------------
                                                                               President's
                   Programmatic area                     Final fiscal year    budget fiscal     AWHONN's request
                                                              2005 \1\          year 2006
----------------------------------------------------------------------------------------------------------------
Nurse Workforce Development Programs...................       $151,889,000       $150,000,000       $210,000,000
Maternal & Child Health Block Grant....................        729,817,000        724,000,000        850,000,000
Indian Health Service..................................      2,985,000,000      3,048,000,000      5,540,000,000
Title X--Family Planning...............................        288,283,000        286,000,000        350,000,000
Newborn Hearing Screening..............................          9,872,000  .................         13,000,000
AHRQ...................................................        319,000,000        319,000,000        440,000,000
NIH....................................................     28,649,000,000     28,845,000,000     30,368,000,000
NINR...................................................        138,000,000        139,000,000        160,000,000
NICHD..................................................      1,271,000,000      1,278,000,000      1,350,000,000
NIEHS..................................................        645,000,000        648,000,000        680,000,000
CDC....................................................      4,572,000,000      4,017,000,000      8,650,000,000
----------------------------------------------------------------------------------------------------------------
\1\ Fiscal year 2005 numbers taken from conference report on omnibus bill do not reflect a further .8% across-
  the-board rescission.

    Thank you for the opportunity to submit testimony on these critical 
areas of funding.
                                 ______
                                 
    Prepared Statement of the Blue Cross and Blue Shield Association

    The Blue Cross and Blue Shield Association (BCBSA), which 
represents 40 independent, locally operated Blue Cross and Blue Shield 
Plans throughout the nation, is pleased to submit written testimony to 
the subcommittee on fiscal year 2006 funding for Medicare contractors.
    Blue Cross and Blue Shield Plans play a leading role in 
administering the Medicare program. Many Plans contract with the 
federal government to run much of the daily work of paying Medicare 
claims accurately and timely. Blue Cross and Blue Shield Plans serve as 
Part A Fiscal Intermediaries (FIs) and/or Part B carriers and 
collectively process most Medicare claims.
    This testimony focuses on three areas:
    Background, including a description of Medicare contractor 
functions;
    Current financial challenges facing Medicare contractors; and
    BCBSA recommendations for Medicare contractor fiscal year 2006 
funding.

                               BACKGROUND

    Blue Cross and Blue Shield Medicare contractors are proud of their 
role as Medicare administrators. While workloads have soared, operating 
costs--on a unit cost basis--have declined about two-thirds from 1975 
to 2005. In fact, contractors' administrative costs represent less than 
1 percent of total Medicare benefits.
    Medicare contractors have four major areas of responsibility:
    1. Paying Claims.--Medicare contractors process all the bills for 
the traditional Medicare fee-for-service program. In fiscal year 2006, 
it is estimated that contractors will process over 1.1 billion claims, 
nearly 4 million every working day.
    2. Providing Beneficiary and Provider Customer Services.--
Contractors are the main points of routine contact with Medicare for 
both beneficiaries and providers. Contractors educate beneficiaries and 
providers about Medicare and respond to over 50 million inquiries 
annually.
    3. Handling Hearings and Appeals.--Beneficiaries and providers are 
entitled by law to appeal the initial payment determination made by 
carriers and FIs. These contractors handle nearly 8 million annual 
hearings and appeals.
    4. Special Initiatives to Fight Medicare Fraud, Waste, and Abuse.--
All contractors have separate fraud and abuse departments dedicated to 
assuring that Medicare payments are made properly. Few government 
expenditures produce the documented, tangible savings of taxpayers' 
dollars generated by Medicare anti-fraud and abuse activities. For 
every $1 spent fighting fraud and abuse, Medicare contractors save the 
government $14.

                      CURRENT FINANCIAL CHALLENGES

    Of utmost importance to attaining outstanding performance is an 
adequate budget. Medicare contractors have been underfunded since the 
early 1990's, however, and the largest portion of the contractor 
budget--Medicare operations--faces particularly severe funding 
pressures. Medicare operations activities include claims processing, 
beneficiary and provider education and communications, hearings and 
appeals of claims initially denied, and systems maintenance and 
security.
    The underfunding of CMS and its Medicare contractors has gotten 
even more acute since the passage of the Health Insurance Portability 
and Accountability Act (HIPAA), the Benefits Improvement and Protection 
Act (BIPA), and the Medicare Modernization Act (MMA), which places new 
responsibilities on contractors, without sufficient resources to 
perform those duties. For example, between 1992 and 2002, Medicare 
benefits outlays increased 97 percent; claims volume increased 50 
percent; yet Medicare operations funding increased a mere 26 percent. 
Contractor staffing only increased by 6 percent during this time even 
though many new responsibilities were added and claims volume continued 
to rise. Clearly funding has not kept pace with additional work. In 
addition, the Medicare reform legislation includes significant changes 
that will require additional resources on an ongoing basis for 
contractors to implement.
    Whenever possible, contractors respond to reduced funding by 
achieving significant efficiencies in claims processing, but it is not 
enough to keep pace with rising Medicare claims volume and diminishing 
funding levels. It should be noted that contractors are already 
extremely efficient. Currently, contractors' administrative costs 
represent less than 1 percent of total Medicare benefits.
    Inadequate budgets for Medicare operations also impact Medicare's 
fight against fraud and abuse. While many think of Medicare operations 
activities as simply paying claims, these activities are Medicare's 
first line of defense against fraud and abuse and are critically linked 
to activities under the separately-funded Medicare Integrity Program 
(MIP). As an example, many of the front-end computer edits (e.g., 
preventing duplicate payments and detecting inaccurately coded claims 
or claims requiring additional screening) are funded through Medicare 
operations.
    Inadequate funding impacts different functions at different times, 
but always disrupts the integration of all the functional components 
needed to ``get things right the first time.'' It thus results in 
inefficiency and higher costs.
bcbsa fiscal year 2006 funding recommendations for medicare contractors
    BCBSA is pleased that many Members of this subcommittee recognize 
the need for adequate administrative resources at CMS. We are concerned 
the Administration's fiscal year 2006 budget would significantly cut 
Medicare operations funding by nearly $43 million. BCBSA urges Congress 
to take the following steps to allow Medicare contractors to meet 
increased workloads as well as beneficiary and provider needs:

A. Increase Medicare Contractor Operations Funding to $2,240 Million 
        for fiscal year 2006
    Medicare contractors continue to face increases in Medicare claims 
volume. Further reductions in administrative costs, as proposed in the 
President's budget, would seriously jeopardize contractors' ability to 
administer Medicare. BCBSA recommends:
    1. Claims processing funding must be maintained at $812 million 
($10 million more than President's budget).--The President's budget 
would decrease claims processing funding by $10 million under the 
assumption that beneficiary movement to Medicare Advantage plans will 
decrease contractor workloads, particularly in claims processing, 
appeals and inquiries. BCBSA disagrees with this assumption.
    While BCBSA recognizes a slight reduction in claims, appeals, and 
inquiries could occur, the amount is highly uncertain. In fact, data 
suggests claims volume will increase by 4 percent in fiscal year 2006. 
Congress must ensure funding is available should volume and costs be 
higher than anticipated. Otherwise, contractors will be faced with 
budget shortfalls that will result in reduced services for 
beneficiaries and providers.
    2. Appeals funding must be restored to $109 million ($12.5 million 
more than the President's budget).--The President's budget would 
decrease appeals funding by $25 million under the assumption that the 
new Qualified Independent Contractors (QICs) will take on certain 
appeals responsibilities, lessening the load for contractors. BCBSA 
disagrees with this assumption.
    Appeals workloads and costs are on the rise for several reasons. 
First, implementation of the QICs is behind schedule, requiring 
contractors to continue some of this work. Second, contractor 
interfaces with QICs require funding to prepare the case and transfer 
information. Third, CMS recently announced it will eliminate provider 
phone appeals, which cost $10 compared to $19 for written appeals, and 
require separate written notification of favorable determinations.
    3. Inquires funding must be increased to $232 million ($27 million 
more than the President's budget).--The President's budget would 
decrease inquiries funding by $17 million under the assumption that 
CMS' 1-800-MEDICARE call volume will continue to increase, diminishing 
work at the contractor site. BCBSA disagrees with this assumption.
    While Medicare contractor call volume may decrease, the complexity 
and length of the call is increasing significantly. CMS often refers 
complex beneficiary and provider inquiries to the Medicare contractor 
that originally processed the claim. Further, CMS implemented a new 
Provider Customer Service Program required by the Medicare 
Modernization Act, but did not account for its costs in the fiscal year 
2006 budget.

B. Increase Flexibility and Funding for the Medicare Integrity Program 
        (MIP)
    Congress created MIP in 1996 to provide a permanent, stable funding 
authority for the portion of the Medicare contractor budget that is 
explicitly designated as fraud and abuse detection activities. Despite 
the continued rise in claims, MIP funding has been capped at $720 
million since fiscal year 2003. In fact, claims volume increased by 
more than 16 percent (158 million claims) since MIP was last increased. 
Clearly, benefit integrity activities cannot keep pace with rising 
claims volumes without additional funding. BCBSA recommends Congress:
  --Authorize an automatic yearly increase in MIP consistent with the 
        rate of inflation and increase in claims volume;
  --Direct a portion ($20 million) of the new Part D oversight funding 
        toward MIP Part A and B activities; and
  --Urge CMS to give contractors greater flexibility to manage their 
        Medicare Integrity budgets.
    The following chart highlights BCBSA's request compared to fiscal 
year 2005 and the President's fiscal year 2006 request.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                    President's
                                                                    Fiscal year     fiscal year    BCBSA fiscal
                   Medicare contractor budget                          2005            2006          year 2006
                                                                                  recommendation  recommendation
----------------------------------------------------------------------------------------------------------------
Medicare Operations.............................................           2,233           2,190           2,240
Medicare Integrity Program......................................             720             720             740
                                                                 -----------------------------------------------
      Total Contractor Budget...................................           2,953           2,910           2,980
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
     Prepared Statement of the Coalition of Northeastern Governors

    The Coalition of Northeastern Governors (CONEG) is pleased to 
provide this testimony for the record to the Senate Subcommittee on 
Labor, Health and Human Services, Education, and Related Agencies 
regarding fiscal year 2006 appropriations for the Low Income Home 
Energy Assistance Program (LIHEAP). The Governors appreciate the 
Subcommittee's consistent support for the LIHEAP program, and we 
recognize the difficult decisions facing the Subcommittee in this time 
of severe fiscal constraints. However, in light of sharply higher home 
energy prices, we request the Subcommittee provide $3.4 billion in 
regular fiscal year 2006 LIHEAP funding as well as the authority to 
release emergency contingency funds for unforeseen circumstances, such 
as price spikes in home heating fuels, severe weather and other 
potential emergencies.
    LIHEAP is a vital tool in making home energy more affordable for 
almost 5 million of the nation's very low-income households--the 
elderly and disabled on fixed incomes and families with young children. 
The percentage of income spent on total home energy by these low-income 
households can be four times higher than average households. For many 
of these households, annual income is simply not sufficient to pay high 
winter heating bills, even in periods of economic growth. Even after 
taking constructive actions to reduce their home energy use, too many 
low-income residents are forced to make dangerous choices between 
heating their homes, paying the full rent or mortgage, seeking medical 
attention, or purchasing food or vital medications.
    The substantial rise in home heating fuel prices hits these 
vulnerable citizens especially hard. The Northeast is heavily dependent 
on deliverable home heating fuels such as home heating oil, kerosene, 
and propane. In addition, price volatility in these fuels adversely 
affects the low-income households who, without the disposable income to 
purchase fuels off-season, typically enter the market when both the 
demand for and price of fuels are high.
    The Energy Information Administration predicts that the price of 
home heating oil, propane, and natural gas will continue to rise this 
year. Compared with 2001 to 2002, households can expect this winter to 
pay 55 percent more to heat a home with natural gas, 93 percent more 
for those heating with home heating oil, and 51 percent more for those 
heating with propane. However, within this same time period, the annual 
LIHEAP appropriation has increased modestly. In spite of the welcomed 
increase in LIHEAP funding, only a fraction--approximately 15 percent 
of eligible households--can be served at current LIHEAP funding. As a 
result, states across the country in recent years have seen significant 
increases in their regular LIHEAP caseloads, as well as in requests for 
emergency assistance from those households in imminent danger of a 
utility or fuel service cut-off. At current funding levels, states may 
be faced with the prospect of serving even fewer eligible households, 
reducing benefits, or curtailing the duration of the program. Clearly, 
the projected need far outweighs the available funding.
    Higher energy prices diminish the purchasing power of available 
LIHEAP funding assistance. In addition, without funds to carryforward 
to the new heating season, state LIHEAP programs lack the capability to 
undertake the ``pre-buy'' programs that help stabilize heating fuel 
prices for low-income households and expand the reach of limited 
program funds. An increased federal appropriation would allow states to 
manage the program resources in a manner to better take advantage of 
market opportunities.
    The current uncertainty of world energy markets underscores the 
importance of states being able to prepare for rising and potentially 
volatile energy prices. These preparedness activities, while critical, 
cannot fully shield our lowest-income citizens from the impacts of 
higher heating fuel prices. An increase in the regular LIHEAP 
appropriation to $3.4 billion in fiscal year 2006 will enable states 
across the nation to reach more of those vulnerable citizens in need of 
assistance and more fully implement cost-effective measures to meet 
their continuing energy needs.
    Your support for fiscal year 2006 LIHEAP appropriations at the $3.4 
billion level, as well as the authority to release emergency 
contingency funds for unforeseen circumstances, is urgently needed to 
enable our states to help mitigate the potential life-threatening 
emergencies and economic hardship that confront the nation's most 
vulnerable citizens.
    We thank the Subcommittee for this opportunity to share the views 
of the Coalition of Northeastern Governors, and we stand ready to 
provide you with any additional information on the importance of the 
Low Income Home Energy Assistance Program to the Northeast.
                                 ______
                                 
          Prepared Statement of the Community Medical Centers

    Mr. Chairman and Members of the Subcommittee: My name is Dr. Philip 
Hinton and I am the Chief Executive Officer of Community Medical 
Centers in Fresno, California. Community Medical Centers is a not-for-
profit, locally owned health care corporation that is committed to 
improving the health of the community. I am pleased to provide the 
subcommittee with a request for assistance in securing federal monies 
for a critical project in the Central San Joaquin Valley that would 
improve access to health care to the uninsured in Fresno County.
    The challenges and struggles facing our nation's public hospitals 
and health systems are ever-increasing. The nation's uninsured 
population continues to grow while there are significant reductions in 
state and federal government support. Hence, it is imperative for 
public hospitals to maximize their public funding sources while being 
proactive and creative in its strategies to deliver care to those who 
need it most.
    Community Medical Centers serves as the ``safety net'' provider for 
Fresno County. In its 1996 partnership with the County of Fresno, 
Community assumed the obligations of indigent care. In order to fulfill 
this obligation, last year Community provided over $90 million in 
uncompensated care. However, as Community looks to the future, it has 
determined the need for a more bold and aggressive strategy to meet the 
tremendous need for health care services in Fresno County.
    In its efforts to make health care available to the over 30 percent 
of the County's residents who are uninsured, Community has planned an 
Outpatient Care Center on the campus of the Regional Medical Center in 
downtown Fresno. This proposed facility will provide primary and 
specialty care including a children's clinic, a women's clinic focusing 
on prenatal, obstetrical and gynecological needs, asthma treatment and 
education, diabetes education and treatment, and surgical follow-up. 
This facility addresses the need for primary care services to the 
underinsured and uninsured population while attempting to reduce the 
number of unnecessary visits to local emergency departments. Although 
the overcrowding of emergency departments by the uninsured is a 
national problem, the Fresno area is particularly impacted with a 
larger percentage of uninsured.
    In addition to a high percentage of uninsured, the region boasts 
some equally sobering statistics:
  --An unemployment rate hovering at 15 percent
  --Over 25 percent of the residents living below the poverty line
  --The third highest asthma mortality rate in the nation
  --The highest rates of teen pregnancy in the state
  --Late or no prenatal care for pregnant women
    We believe that an Outpatient Care Center is critical to begin 
addressing these challenges, and we would like to ask for your 
assistance in securing $1 million towards the construction of this 
facility. We at Community Medical Centers are working diligently to 
secure significant private foundation monies for this facility as well. 
We understand that this request would require a special earmark under 
the Health Resources Services Administration account in the Labor/
Health and Human Services/Education appropriations bill. We know that 
funds are limited, but feel that this project merits funding. It is a 
project which will improve the quality of life in the Central San 
Joaquin Valley.
                                 ______
                                 
      Prepared Statement of the Council of State and Territorial 
                            Epidemiologists

    The Council of State and Territorial Epidemiologists (CSTE) is 
pleased to provide the Subcommittee with its fiscal year 2006 funding 
recommendations for nine priorities all of which are programs and 
activities administered by the Centers for Disease Control and 
Prevention.
    CSTE is a professional association with over 850 public health 
epidemiologists working in all 50 states as well as local and 
territorial health agencies to detect, prevent and control conditions 
that impact the public's health. CSTE members possess expertise in 
surveillance and epidemiology in a broad range of areas including 
communicable diseases, immunization, environmental health, chronic 
diseases, occupational health, injury control, maternal and child 
health and oral health.

 PUBLIC HEALTH WORKFORCE: INCREASING STATE AND LOCAL EPIDEMIOLOGY AND 
                          LABORATORY CAPACITY

  --$4 million increase for CDC's Office of Workforce and Career 
        Development in fiscal year 2006 to support 65 CDC/Council of 
        State and Territorial first year applied epidemiology fellows 
        at a cost of $60,000 per year;
  --$2 million in increased funding for CDC's National Center for 
        Infectious Diseases in fiscal year 2006 to support 35 CDC/
        Association of Public Health Laboratory applied research 
        training fellows.
    The disciplines of epidemiology and laboratory science are the 
pillars and backbone of public health practice. States and local 
communities have come to rely on well trained public health 
epidemiologists and laboratory scientists to investigate, monitor, and 
respond aggressively to public health threats. Every state's residents 
have become familiar with the ``disease detectives'' who they know will 
be in the lead for communicating risks and recommending preventive 
action for outbreaks of SARS, flu, West Nile virus, Monkeypox and 
epidemics of obesity, diabetes, HIV/AIDS and a host of other serious 
threats the public has experienced during recent years. These are the 
``go to'' professionals in every state. Yet, a new 2004 epidemiology 
capacity survey shows the number and the level of training of 
epidemiologists is perceived as seriously deficient in most states. 
Federal funding has increased the number of epidemiologists engaged in 
bioterrorism preparedness since 2002, but has done so at the expense of 
state environmental health, injury and occupational health activities--
shifting epidemiologists from these activities to federal bioterrorism 
preparedness priorities. Those engaged in chronic disease activities 
have increased since 2002, but are still viewed as too low in number 
and training and the number of epidemiologists engaged in infectious 
disease activities has stagnated.
    Efforts under the leadership of CDC have been made to begin 
addressing these gaps at both the federal and state level. In addition 
to expanded CDC Epidemic Intelligence Service and Career Epidemiology 
Field Officers for state and local health departments, CDC is 
supporting training fellowship programs for epidemiologists and 
laboratory scientists who are expected to increase state capacity and 
provide future leadership in these professions. CSTE applauds these 
efforts and proposes aggressive expansion of existing state-focused 
programs to increase the number of epidemiologists and public health 
laboratory scientists at state and local health departments. The 
proposed fiscal year 2006 increase will provide CSTE and APHL with the 
resources to accelerate much needed expansion of the state and local 
workforce in these critical disciplines to approximately 75 
epidemiologists and 75 laboratory scientists in training during fiscal 
year 2006.
    The overall benefits to the states and localities will be 
additional well trained epidemiologists and laboratory scientists 
entering employment through training programs that include the 
following characteristics:
  --national recruiting through a partnership between CSTE and the 
        Association of Schools of Public Health
  --orientation and training course with CDC and CSTE and APHL faculty
  --a ready-made applicant pool for state and local positions with 
        adequate time to evaluate job performance
  --a structured, individualized training curriculum for each fellow
  --technical and administrative support for fellows and state mentors

  PUBLIC HEALTH INFRASTRUCTURE ENHANCEMENT AND TERRORISM PREPAREDNESS

    CSTE supports $927 million, at a minimum, for CDC's State and Local 
preparedness grants to enhance capacity to prepare for and respond to 
terrorist attacks. The President's fiscal year 2006 request for CDC's 
State and local terrorism preparedness grants cuts funding by $130 
million and appears to shift this funding to National Stockpile 
activities, including a new $50 million Federal Mass Casualty 
Initiative. CSTE opposes this cut to on-going efforts to build strong 
state and local capacity which means, in many cases, eliminating 
personnel already hired. New federal initiatives, if they are deemed 
needed, should be funded from new resources.
    After decades of neglect of governmental public health systems, 
documented in numerous Institute of Medicine (IOM) reports, and Reports 
to Congress (The Future of the Public's Health in the 21st Century, 
IOM, 2003; Emerging Microbial Threats to Health in the 21st Century, 
IOM, 2003; Report to Congress, Public Health's Infrastructure: a Status 
Report, CDC, 2001; Emerging Infectious Diseases: Consensus on Needed 
Laboratory Capacity could Strengthen Surveillance, GAO, 1999), Congress 
and the Administration began a substantial effort to repair the damage 
following the events of 9/11 and the ensuing anthrax attacks. This 
effort to restore and enhance the system to protect the public against 
terrorist attacks, as well as naturally occurring disease threats, such 
as SARS, pandemic influenza, and West Nile virus, is beginning to have 
positive effect, but progress can only continue with sustained support.
    Reasons for maintaining funding levels in fiscal year 2006:
  --No single State, and no community in any State, has reached a full 
        level of national security preparedness to address the health 
        consequences of a terrorist event.
  --Few public health preparedness investments are one-time expenses. 
        State and local health departments have been strongly urged to 
        use preparedness funding to increase their personnel capacity 
        in epidemiology, laboratory science, communications and 
        logistics. Personnel are on-going expenses.
  --State and local health departments are in the third year of 
        expanded funding for terrorism preparedness. The effect of 
        reducing the amount of available funding by 14 percent will 
        seriously jeopardize their momentum in addressing critical 
        capacity needs.
  --The CDC cooperative agreement guidance listed several new 
        eligibility areas for State spending, including mental health, 
        chemical preparedness, and food security and newly expanded 
        guidance is expected for fiscal year 2005. In addition, States 
        are being asked to help administer several new federal programs 
        such as BioWatch, BioSense, ChemPack, additional smallpox 
        vaccination program activities, and consequence management for 
        postal facility Biohazard Detection Systems. This requires 
        spreading funding over increased areas of responsibility.
    Now is not the time to reduce our national commitment to State and 
local health departments. Building a strong public health 
infrastructure, particularly a trained public health workforce with 
sufficient epidemiologists and public health laboratory scientists, 
core public health professionals, will take a sustained commitment of 
resources over a long period of time, but will reap critical benefits 
in protected health.

CSTE SUPPORTS $132 MILLION FOR THE PHHS BLOCK GRANT IN FISCAL YEAR 2006

    The Preventive Health and Health Services Block Grant, currently 
funded at $132 million, is proposed to be eliminated in the President's 
fiscal year 2006 budget. CSTE urges Congress not to cut this important 
prevention program for states, but maintain funding at the fiscal year 
2005 level. When this proposed cut is considered alongside the $130 
million cut in the state and local Bioterrorism grant program, the net 
result is to seriously undermine support for developing state public 
health capacity and activities, a strong Congressional goal leading up 
to and following the attacks of 9/11.
    The Block Grant was created to help states focus on achieving the 
health objectives identified in Healthy People 2010--a nationally 
conceived effort to set and achieve national health goals. To receive 
block grant funding, states must develop health plans, report to the 
federal government about their activities, and target public health 
interventions to populations in need. The flexibility of the grant 
allows each state to address their own unique challenges in exciting 
and innovative ways.
    Examples of this include a program in Idaho to prevent falls for 
older adults. Falls are the leading cause of injury death for Idaho 
adults age 65 and older, with hip fractures along costing the United 
States $20 billion annually. The Idaho program funds a curriculum and 
provides training to individuals who lead senior fall prevention 
exercise programs throughout the state. Another example is in Alabama 
where the Community Waterborne Disease Program, funded solely with PHHS 
Block Grant dollars protects 340,000 Alabamians who reside in rural 
areas against waterborne disease outbreaks from contaminated wells and 
septic tanks. Other Block Grant funds are used to combat newly emerging 
public health threats, such as West Nile virus, distribute smoke 
detectors, counter the growing epidemic of obesity and ensuing chronic 
diseases, improve cancer screening, conduct disease surveillance and 
infectious disease outbreaks, such as Hepatitis A and E.coli 0157:H7. 
While Block Grant funds sometimes complement existing categorical 
programs, they DO NOT DUPLICATE other CDC funded programs.

 CSTE SUPPORTS $250 MILLION FOR INFECTIOUS DISEASES CONTROL IN FISCAL 
                               YEAR 2006

    Infectious diseases are the leading cause of death worldwide, and 
the number of deaths from infectious diseases had been increasing in 
the recent past and remains substantial in the United States today. New 
challenges in the growth of resistance to commonly used antibiotics, 
emerging disease threats such as avian flu, SARS, the rapid spread of 
West Nile virus across the United States, and the rising number of food 
borne disease outbreaks, including increased monitoring of mad cow 
disease, make increased resources for infectious diseases control 
essential to the nation's health and well-being.
    CSTE's fiscal year 2006 recommendation for infectious diseases 
control is $25 million more than the fiscal year 2005 appropriation 
level of $225.5 million. CSTE urges that the additional $25 million in 
funding target the following critical areas:
  --Expand the Emerging Infections Program (EIP) from its current 
        funding level of about $20 million to allow more than the 
        current 11 States (CA, CO, CT, GA, MD, MA, NM, NY, OR, TN, TX) 
        to join this program that provides a population-based network 
        of surveillance for infectious diseases, applied epidemiologic 
        and laboratory research, as well as capacity for flexible 
        public health response.
  --Provide support for epidemiology fellowship programs to expand the 
        number of trained public health epidemiologists, particularly 
        at the State level, where shortages in these essential public 
        health professionals are severe.
  --Expand the Epidemiology and Laboratory Capacity (ELC) cooperative 
        agreement program which provides the 50 States, plus six large 
        local health departments (Chicago, Houston, Los Angeles, New 
        York City, Philadelphia, Washington, D.C.) and Puerto Rico, 
        with support to strengthen the collaboration between 
        epidemiologic and laboratory science at the State and local 
        level to meet the demands placed upon the country by emerging 
        and re-emerging infectious disease threats.
  --Ensure that funding for CDC's new initiative in global infectious 
        diseases supports the International Emerging Infections 
        Program, which is modeled on the U.S. EIP program.

 CSTE SUPPORTS $50 MILLION FOR CDC'S HEALTH TRACKING GRANT PROGRAM IN 
                            FISCAL YEAR 2006

    Researchers have linked specific diseases with exposures to some 
environmental hazards, such as the link between exposure to asbestos 
and lung cancer. Other links remain unproven, such as the suspected 
link between exposure to disinfectant by-products and bladder cancer. 
As the Pew Environmental Health Commission's report, ``America's 
Environmental Health Gap: Why the Country Needs A Nationwide Health 
Tracking Network'' noted, there is currently no national surveillance 
system to investigate the possible links between these environmental 
exposures and a number of diseases and conditions. Most states have 
little environmental health capacity. The Environmental Public Health 
Tracking Program is designed to increase state and local environmental 
health capacity by providing resources to conduct surveillance of 
health effects, exposures and hazards and their possible linkages.

Program Accomplishments
    Since fiscal year 2002, CDC has supported 20 state and local health 
departments to:
  --Build environmental health capacity
  --Increase collaboration between environmental and health agencies
  --Identify and evaluate existing data systems
  --Build partnerships with non-governmental organizations and 
        communities
  --Develop model systems that link data
    Additional funding would be used to:
  --Fund additional state health departments to increase their 
        environmental health capacity
  --Fund technical development activities to support a nationwide 
        network
  --Expand training and education activities
  --Expand collaboration with national partners to coordinate 
        technologic standards development efforts for the network
    Surveillance: Four Priorities--Behavioral Risk Factor Surveillance 
Survey (BRFSS).--Among the many important chronic disease programs 
within CDC's Center for Chronic Disease Prevention, Health Promotion, 
and Genomics which CSTE supports, a priority is the Behavioral Risk 
Factor Surveillance Survey (BRFSS). CSTE urges continued progress 
toward achieving a funding level of $18 million (+$10 million)--the 
base amount needed to fully implement the survey. CSTE is very pleased 
that Congress increased funding for the survey from $1.8 million where 
it had remained for many years, to $6.9 million in fiscal year 2003 and 
to $7.2 million in fiscal year 2004 and $7.6 million in fiscal year 
2005. The BRFSS is a primary source of information to guide 
intervention, policy decision, and budget direction at the local, state 
and federal level for a host of health problems, especially chronic 
diseases. It is the source of data for 24 of the 73 chronic disease 
indicators, six areas of the Healthy People 2010 leading health 
indicators and serves as the core source of surveillance for multiple 
public health programs across the CDC. The additional funding provided 
in fiscal year 2004 and fiscal year 2005 will significantly improve 
data collection infrastructure, timeliness, and analysis that will not 
only improve guidance for state-based public health activities, but 
allow state to state comparisons, state to national comparisons, and a 
more solid foundation for national resource and other decisions with 
regard to a range of public health activities.
    HIV/AIDS Surveillance.--Within a total recommendation of $1,049.2 
million (+$386.6 m) for CDC's HIV/AIDS prevention activities, CSTE 
urges an increase of $35 million in fiscal year 2006 for HIV/AIDS 
surveillance cooperative agreements with state and local health 
departments to strengthen HIV case reporting. Surveillance activities 
are critical to the goal of preventing new HIV infections which can 
save an estimated $195,000 in lifetime treatment costs per individual. 
Persistent, significant funding gaps between what state and local 
health departments have requested and what CDC can provide impede 
attainment of national prevention goals. CSTE recommends, at minimum, 
an additional $35 million for HIV/AIDS core surveillance, enhanced 
perinatal surveillance, incidence surveillance, behavioral surveillance 
and morbidity monitoring.
    National Violent Death Reporting System.--Within a total 
recommendation of $168 million (+$30 m) for CDC's National Center for 
Injury Prevention and Control, CSTE urges $10 million in funding for 
fiscal year 2006 (+$6.8 million) to continue building a fully 
implemented violent death reporting system in every state. Information 
from the reporting system can be used to target prevention and early 
intervention efforts to prevent a significant number of the 50,000 
annual deaths in the United States due to violence. Increased resources 
in fiscal year 2006 would be used to create uniform reporting systems 
in more states and build capacity to both collect and analyze data; 
ensure leadership and assistance; establish strong partnerships among 
federal, state, and non-governmental organizations; and research 
potential barriers to data collection. As of August, 2004, CDC is 
funding 17 states: AK, CA, CO, GA, KY, MA, MD, NC, NJ, NM, OK, OR, RI, 
SC, UT, VA, WI.
    State-Based Occupational Safety and Health Surveillance.--Within a 
total recommendation of $335 million (+$49 m) for CDC's NIOSH 
activities, CSTE urges that $10 million be provided in fiscal year 2006 
to fully fund this program to prevent workplace injuries, diseases and 
death.. Both the CDC and CSTE believe that programs should be 
established within State Health departments as one of the most 
effective ways to build a nationwide system to prevent major causes of 
injuries and illnesses that are caused by hazardous conditions at work. 
The CDC and CSTE have established 13 occupational health indicators 
that every State should use to measure the burden of workplace injuries 
and illnesses, and then determine where they need to act to reduce 
preventable disease and disability in the population. In fiscal year 
2005, NIOSH has funded the first 12 States to establish programs to use 
these indicators to count workplace injuries and illnesses, and make 
recommendations about how to prevent a few important health conditions 
(such as asthma, pesticide illness, silica lung diseases, and 
needlesticks). This program should be expanded to all 50 States to 
assure that every State has the capacity to track work-related health 
problems and take steps to prevent work-related injury, disease and 
death. Professional judgment assesses that $10 million is needed to 
expand this program to all 50 States.
                                 ______
                                 
Prepared Statement of the Friends of the Health Resources and Services 
                         Administration (HRSA)

    The Friends of HRSA is an advocacy coalition of more than 100 
national organizations, collectively representing millions of public 
health and health care professionals, academicians and consumers. Our 
member organizations strongly support programs that assure Americans' 
access to health services.
    HRSA programs assure that all Americans have access to our nation's 
best available health care services. Through its programs in thousands 
of communities across the country, HRSA provides a health safety net 
for medically underserved individuals and families, including 45 
million Americans who lack health insurance; 49 million Americans who 
live in neighborhoods where primary health care services are scarce; 
African American infants, whose infant mortality rate is more than 
double that of whites; and the estimated 850,000 to 950,000 people 
living with HIV/AIDS. Programs to support the underserved place HRSA on 
the front lines in erasing our nation's racial/ethnic and rural/urban 
disparities in health status. HRSA funding goes where the need exists, 
in communities all over America. The Friends support a growing trend in 
HRSA programs to increase flexibility of service delivery at the local 
level, necessary to tailor programs to the unique needs of America's 
many varied communities. The agency's overriding goal is to achieve 100 
percent access to health care, with zero disparities. In the best 
professional judgment of the members of the Friends of HRSA, to respond 
to this challenge, the agency will require a funding level of at least 
$7.5 billion for fiscal year 2006.
    Through its many programs and new initiatives, HRSA helps countless 
individuals live healthier, more productive lives. In the 21st century, 
rapid advances in research and technology promise unparalleled change 
in the nation's health care delivery system. HRSA is well positioned to 
meet these new challenges as it continues to provide first-rate health 
care to the nation's most vulnerable citizens. We are grateful to the 
Subcommittee for your consistent strong support for all of HRSA's 
programs, including the initiatives in terrorism preparedness and 
response in the past. Unfortunately, the president's budget overall 
recommends a massive $838 million or over 12 percent cut to the agency 
for fiscal year 2006. We urge the members of the Subcommittee to 
restore the cuts and fund the agency at a level that allows HRSA to 
effectively implement these important programs.
    Community-based health centers and National Health Service Corps-
supported clinics form the backbone of the nation's safety net. More 
than 4,000 of these sites across the nation provide needed primary and 
preventive care to nearly 15 million poor and near-poor Americans. HRSA 
primary care centers include community health centers, migrant health 
centers, health care for the homeless programs, public housing primary 
care programs and school-based health centers. Health centers provide 
access to high-quality, family-oriented, culturally and linguistically 
competent primary care and preventive services, including mental and 
behavioral health, dental and support services. Nearly three-fourths of 
health center patients are uninsured or on Medicaid, approximately two-
thirds are people of color, and more than 85 percent live below 200 
percent of the poverty level. Additional primary care is provided by 
2,700 clinicians in the National Health Service Corps. Corps members 
work in communities with a shortage of health professionals in exchange 
for scholarships and loan repayments. The Friends of HRSA are pleased 
that the president has requested a significant 17.5 percent increase 
for Community Health Centers for a total of $2.038 billion.
    The Friends are concerned about a number of programs slated for 
deep cuts or elimination under the Administration's fiscal year 2006 
budget proposal. An adequate, diverse, well-distributed and culturally 
competent health workforce is indispensable to our national readiness 
efforts. We are concerned with the president's proposed cut for 
hospital preparedness. In the post 9/11 era, all responders, providers 
and facilities must be ready to detect and respond to complex 
disasters, including terrorism, and HRSA must continue to support these 
vital programs.
    HRSA Health Professions Programs under Title VII and VIII address 
the need for an adequate national workforce in the face of projected 
nationwide shortages of nurses, pharmacists, and other professionals. 
Graduates of these programs are up to 10 times more likely to practice 
in underserved areas, and they are up to 5 times more likely to be 
minorities. These programs provide support to students, programs, 
departments, and institutions to improve the accessibility, quality, 
and racial and ethnic diversity of the health care workforce. In 
addition to providing unique and essential training and education 
opportunities, these programs help meet the health care delivery needs 
of the areas in this country with severe health professions shortages, 
at times serving as the only source of health care in many rural and 
disadvantaged communities. The Friends are greatly concerned about the 
elimination of most funding for the Title VII health professions 
training programs and flat funding for Title VIII nurse training.
    The Healthy Community Access Program is an example in which 
communities build partnerships among health care providers to deliver a 
broader range of health services to their neediest residents. Grantees 
are public or private entities that demonstrate a commitment to 
bridging service gaps and improving health outcomes for uninsured and 
underserved people. The Friends are very concerned that the 
Administration's budget proposal once again recommends eliminating this 
program of coordinated service delivery, an innovative program that 
does not duplicate other available programs.
    Another vital program administered by HRSA is newborn screening. 
Newborn screening is a public health activity used for early 
identification of infants affected by certain genetic, metabolic, 
hormonal or functional conditions for which there is effective 
treatment or intervention. Screening detects disorders in newborns 
that, left untreated, can cause death, disability, mental retardation 
and other serious illnesses. Parents are often unaware that while 
nearly all babies born in the United States undergo newborn screening 
tests for genetic birth defects, the number and quality of these tests 
vary from state to state. Screening programs coordinated through the 
HRSA Bureau of Maternal and Child Health will assure that every baby 
born in the US receive, at a minimum, a universal core group of 
screening tests regardless of the state in which he/she is born.
    Title 26 of the Children's Health Act of 2000 authorized funding 
for grants and programs to improve state-based newborn screening. This 
provision also called for an advisory committee to provide advice and 
recommendations to the Secretary for the development of grant 
administration policies and priorities, and to enhance the ability of 
the Secretary to reduce mortality or morbidity from heritable 
disorders. The Secretary appointed 15 members to this committee in 
February 2004. HRSA, together with this committee, recently published a 
report to be considered by the Secretary, which makes recommendations 
on the number and types of conditions that should be required by state 
programs. The Friends are very concerned that the Administration's 
budget did not include additional funding for such activity and that 
once again, the President's budget zeroed-out existing funding for the 
universal newborn hearing screening program. The newborn screening 
program is vital to ensuring that newborns are screened and treated for 
conditions that, if left alone, disability, mental retardation and even 
death.
    HRSA programs improve health care service for the more than 61 
million people who live in rural America. Although almost a quarter of 
the population lives in rural areas, only an eighth of our doctors work 
there. Because rural families earn less than urban families, many 
health problems associated with poverty are more serious, including 
high rates of chronic disease and infant mortality. While the recently 
passed Medicare prescription drug bill included several enhancements 
for Medicare reimbursement for rural hospitals, this does not justify 
the elimination of small, targeted programs designed to improve access 
to health care services in rural areas. The deep $115 million cut 
proposed for rural health programs has the potential to only exacerbate 
rural/urban health disparities seen today.
    In light of many states experiencing budget crises, HRSA's State 
Planning Grants Program provides one-year grants to States to develop 
plans for providing access to affordable health insurance coverage to 
all their citizens. Considering that 45 million Americans are 
uninsured, with many individuals simultaneously being dropped from 
Medicaid and SCHIP rolls, there is a need for states to explore 
alternative approaches that provide health insurance benefits to its 
residents that are affordable in nature. The potential for states to 
share best practices as a result of this program is enormous, and 
therefore the Friends of HRSA is gravely concerned with this program's 
proposed elimination in the president's budget request.
    Also, the proposed elimination of the Emergency Medical Services 
for Children Program is of concern considering many children who are 
eligible for Medicaid and SCHIP cannot enroll due to state enrollment 
limits and budgetary pressures. Therefore, these uninsured children 
will likely increasingly utilize emergency health services, as they are 
less likely to have a usual source of care. Not investing in improving 
the quality of emergency health services to children, especially at 
this time, may result in higher rates of death and disability among 
this population. Also, this program, as outlined in the midcourse 
review of the EMSC Five-Year Plan, 2001-2005, has been shown to make 
significant progress in meeting stated objectives to improve emergency 
health service delivery to children.
    The Friends of HRSA are also concerned with the proposed flat 
funding of programs that make a difference in thousands of communities 
across the United States, and ultimately affect the lives of millions. 
The Maternal and Child Health Block Grant is another source of flexible 
funding for states and territories to address their unique needs, and 
remains in great need of increased, not flat, funding. The Block Grant 
is one of several HRSA Maternal and Child Health programs. Each year, 
more than 26 million pregnant women, infants and children nationwide 
are served by a MCH program. Of the nearly 4 million mothers who give 
birth annually, almost half receive some prenatal or postnatal service 
from a MCH-funded program. MCH programs increase immunizations and 
newborn screening, reduce infant mortality and developmentally 
handicapping conditions, prevent childhood accidents and injuries, and 
reduce adolescent pregnancy. Although states in theory could use MCH 
block grant funds to continue the universal newborn hearing screening 
and Emergency Medical Services for Children programs, two programs that 
have been proposed for elimination, in reality this is not a viable 
alternative. With the proposed flat funding of the block grant, funding 
additional programs under its auspices would mean that programs 
currently funded would have to be cut.
    Title X of the Public Health Service Act was enacted to provide 
high-quality, subsidized contraceptive care to those who need but 
cannot afford such services, to improve women's health, reduce 
unintended pregnancies, and decrease infant mortality and morbidity. 
Title X programs provide comprehensive, voluntary and affordable family 
planning services to millions of low-income women and men--many of whom 
are uninsured--at more than 4,600 clinics nationwide. People who visit 
Title-X funded clinics receive a broad package of preventive health 
services, including breast and cervical cancer screening, blood 
pressure checks, anemia testing, and STD/HIV screening.
    The Ryan White CARE Act programs, administered by HRSA's HIV/AIDS 
Bureau, are the largest single source of federal discretionary funding 
for HIV/AIDS health care for low-income, uninsured and underinsured 
Americans. We are very concerned that most programs under the Act would 
be flat-funded should the figures requested by the Administration be 
implemented, which will not be enough to meet the growing need and 
demand for services. The CARE Act program is an important safety net 
program, providing an estimated 533,000 people access to services and 
treatments each year. In addition to primary health care, CARE Act 
programs support the dissemination of drug therapies, home-based care, 
early intervention services, treatment adherence, case management and 
support. The CARE Act also funds a dental reimbursement program and the 
AIDS Education and Training Centers that offers specialized clinical 
education on the latest in HIV/AIDS care. Only the State AIDS Drug 
Assistance Program (ADAP), which provides medications to over 120,000 
individuals those living with HIV/AIDS who would otherwise fall through 
the cracks, lacking private health insurance, but ineligible for 
Medicaid, receives an increase of $10 million over fiscal year 2005.
    Cross-cutting HRSA programs continually respond to new public 
health challenges. Tooth decay remains the single most chronic 
childhood disease in the nation. About 125 million Americans have no 
dental insurance; lack of access to dental care is especially severe 
among children of poor, rural and minority families. A quarter of the 
nation's school-age children have 80 percent of all dental disease, 
putting them at risk for a host of related illnesses. And as new drugs 
help people with HIV/AIDS live longer, healthier lives, their need for 
regular oral health care will continue to climb. HRSA can help both 
groups by increasing the number of dentists in community and school-
based centers and by providing greater reimbursements to hospital 
dental clinics and dental schools for the growing costs of treating 
people living with HIV/AIDS.
    The members of the Friends of HRSA are grateful for this 
opportunity to present our views to the Subcommittee.
                                 ______
                                 
        Prepared Statement of the InterTribal Bison Cooperative

                      INTRODUCTION AND BACKGROUND

    My name is Ervin Carlson, a Tribal Council member of the Blackfeet 
Tribe of Montana and President of the InterTribal Bison Cooperative. 
Please accept my sincere appreciation for this opportunity to submit 
testimony to the honorable members of the Appropriations Sub-Committee 
on Labor, Health and Human Services and Education. The InterTribal 
Bison Cooperative (ITBC) is a Native American non-profit organization, 
headquartered in Rapid City, South Dakota, comprised of 54 federally 
recognized Indian Tribes located within 18 States across the United 
States.
    Buffalo thrived in abundance on the plains of the United States for 
many centuries before they were hunted to near extinction in the 1800s. 
During this period of history, buffalo were critical to survival of the 
American Indian. Buffalo provided food, shelter, clothing and essential 
tools for Indian people and insured continuance of their subsistence 
way of life. Naturally, Indian people developed a strong spiritual and 
cultural respect for buffalo that has not diminished with the passage 
of time.
    Numerous tribes that were committed to preserving the sacred 
relationship between Indian people and buffalo established the ITBC as 
an effort to restore buffalo to Indian lands. ITBC focused upon raising 
buffalo on Indian Reservation lands that did not sustain other economic 
or agricultural projects. Significant portions of Indian Reservations 
consist of poor quality lands for farming or raising livestock. 
However, these wholly unproductive Reservation lands were and still are 
suitable for buffalo. ITBC began actively restoring buffalo to Indian 
lands after receiving funding in 1992 as an initiative of the Bush 
Administration.
    Upon the successful restoration of buffalo to Indian lands, 
opportunities arose for Tribes to utilize buffalo for tribal economic 
development efforts. ITBC is now focused on efforts to assure that 
tribal buffalo projects are economically sustainable. Federal 
appropriations have allowed ITBC to successfully restore buffalo the 
tribal lands, thereby preserving the sacred relationship between Indian 
people and buffalo. The respect that Indian tribes have maintained for 
buffalo has fostered a serious commitment by ITBC member Tribes for 
successful buffalo herd development. The successful promotion of 
buffalo as a healthy food source will allow Tribes to utilize a 
culturally relevant resource as a means to achieve self-sufficiency.

        FUNDING REQUEST FOR PREVENTATIVE HEALTH CARE INITIATIVE

    The InterTribal Bison Cooperative respectfully requests an 
appropriation for fiscal year 2006 in the amount of $2,000,000 in the 
form of an earmark to the Department of Health and Human Service 
Department's budget. ITBC intends to utilize the funds to conduct a 
national demonstration project focused on the delivery of bison meat to 
Native Americans suffering from diet related diseases.
    The Native American population currently suffers from the highest 
rates of Type 2 diabetes. The Indian population further suffers from 
high rates of cardio vascular disease and various other diet related 
diseases. Studies indicate that Type 2 diabetes commonly emerges when a 
population undergoes radical diet changes. Native Americans have been 
forced to abandon traditional diets rich in wild game, buffalo and 
plants and now have diets similar in composition to average American 
diets. More studies are needed on the traditional diets of Native 
Americans versus their modern day diets in relation to diabetes rates. 
However, based upon the current data available, it is safe to assume 
that disease rates of Native Americans are directly impacted by a 
genetic inability to effectively metabolize modern foods. More 
specifically, it is well accepted that the changing diet of Indians is 
a major factor in the diabetes epidemic in Indian Country.
    Approximately 65-70 percent of Indians living on Indian 
Reservations receive foods provided by the USDA Food Distribution 
Program on Indian Reservation (FDPIR) or from the USDA Food Stamp 
Program. The FDPIR food package is composed of approximately 58 percent 
carbohydrates, 14 percent proteins and 28 percent fats. Studies have 
shown that the FDPIR food package has not been compatible with the 
genetic compositions of Native Americans and has been a major factor in 
the high incidence of diet-related disease among Native Americans. 
Indians utilizing Food Stamps generally select a grain based diet and 
poorer quality protein sources such as high fat meats based upon 
economic reasons and the unavailability of higher quality protein food 
sources.
    Buffalo meat is low in fat and cholesterol and is compatible to the 
genetics of Indian people. ITBC intends to develop a health care 
initiative that would educate Indian Reservation families of the 
benefits of incorporating buffalo meat into their diets. In conjunction 
with educating Reservation families on the benefits of buffalo meat, 
ITBC intends to develop methods to make buffalo meat accessible for 
Indian families and to promote incorporation of buffalo into their 
diets. ITBC intends to coordinate with Reservation health care 
providers in nutritional studies of Reservation populations that 
incorporate buffalo meat into diet packages.
    ITBC believes that incorporating buffalo meat will positively 
impact the diets of Indian people living on Reservations. A healthy 
diet for Indian people that results in a lower incidence of diabetes 
and other diet related illnesses will reduce Indian Reservation health 
care costs and result in a savings for taxpayers.

          FUNDING REQUEST FOR ITBC TRAINING AND LABOR PROGRAM

    The InterTribal Bison Cooperative respectfully requests an 
appropriation for fiscal year 2006 in the amount of $500,000. This 
amount is $400,000 above the fiscal year 2005 appropriation for ITBC 
and is critical to maintain last years funding level and to develop 
ITBC's training and labor program.
    In fiscal year 2005, the ITBC and its member Tribes were funded at 
$100,000, a decrease of $200,000 from the previous year. ITBC is now 
requesting $500,000 for fiscal year 2006 for job training as part of 
ITBC's labor initiative. To insure the success of ITBC's buffalo 
restoration efforts to Indian lands, training for the various jobs 
related to the buffalo projects is essential. Most member Tribes of 
ITBC have reservation unemployment rates of 72 percent. Jobs 
opportunities on most Indian Reservations are limited, low-paying, and 
often seasonal and temporary. The jobs created by buffalo restoration 
to Indian lands will positively impact Tribal unemployment rates and 
the overall Reservation poverty levels. Raising buffalo as an economic 
development effort requires skilled labor in permanent employment. ITBC 
has developed a job training program incorporating on-the-job training 
and work experience for youth that specifically addresses the unique 
needs of managing and maintaining buffalo. ITBC's training program 
further focuses on strengthening the economic development opportunities 
of buffalo restoration with training specific to meat processing, 
veterinary science, wildlife and biological services, infrastructure 
development, business and management training, and the overall 
development of a skilled workforce.
    Sufficient funding for job training is critical to the success of 
the buffalo restoration projects. The increase in funding will ensure 
that ITBC can provide job training, job growth training to ITBC member 
tribes. Without funding at the requested level, the buffalo restoration 
projects have less assurance of success.

                       ITBC GOALS AND INITIATIVES

    In addition to developing a preventative health care initiative, 
ITBC intends to continue with buffalo restoration efforts and the 
Tribal buffalo marketing initiative.
    In 1991, seven Indian Tribes had small buffalo herds, with a 
combined total of 1,500 animals. The herds were not utilized for 
economic development but were often maintained as wildlife only. During 
ITBC's relatively short 10-year tenure, it has been highly successful 
at developing existing buffalo herds and restoring buffalo to Indian 
lands that had no buffalo prior to 1991. Today, through the efforts of 
ITBC, over 35 Indian Tribes are engaged in raising over 15,000 buffalo. 
All buffalo operations are owned and managed by Tribes and many 
programs are close to achieving self-sufficiency and profit generation. 
ITBC's technical assistance is critical to ensure that the current 
Tribal buffalo projects gain self-sufficiency and become profit-
generating. Further, ITBC's assistance is critical to those Tribes 
seeking to start a buffalo restoration effort.
    Through the efforts of ITBC, a new industry has developed on Indian 
reservations utilizing a culturally relevant resource. Hundreds of new 
jobs directly and indirectly revolving around the buffalo industry have 
been created. Tribal economies have benefited from the thousands of 
dollars generated and circulated on Indian Reservations.

                               CONCLUSION

    ITBC has proven highly successful since its establishment to 
restore buffalo to Indian Reservation lands to revive and protect the 
sacred relationship between buffalo and Indian Tribes. Further, ITBC 
has successfully promoted the utilization of a culturally significant 
resource for viable economic development.
    ITBC has assisted Tribes with the creation of new jobs, on-the-job 
training and job growth in the buffalo industry resulting in the 
generation of new money for tribal economies. ITBC is also actively 
developing strategies for marketing Tribally owned buffalo. Finally, 
and most critically for Tribal populations, ITBC is developing a 
preventive health care initiative to utilize buffalo meat as a healthy 
addition to Tribal family diets to reduce the incidence of diet-related 
illnesses.
    ITBC strongly urges you to support its request for a $2,000,000 
earmark to the Department of Health and Human Service Department's 
budget to develop the critically needed preventative health care 
initiative utilizing Tribally produced buffalo.
                                 ______
                                 
             Prepared Statement of the Lummi Indian Nation

                               WHO WE ARE

    The Lummi Nation is a party to the Point Elliot Treaty of 1855. 
Under this Treaty we understand that the Lummi Nation has secured the 
protection of the United States of America and has reserved the right 
to govern our own lands, people and the people who enter these lands 
voluntarily. The Lummi Nation is a federally recognized Indian tribal 
government located in what is now called the State of Washington. The 
Lummi Nation includes a population of nearly 5,000 people. The Lummi 
Nation land base includes over 12,500 upland acres and 5,000 acres of 
tidelands. The Lummis are a fishing people with fishing rights in the 
San Juan Islands and much of Puget Sound and its associated waterways 
extending for hundreds of miles.

Self-governing Status
    The Lummi Nation is one of the first self-governance Tribes. 
Although many thought the Lummi Nation was seeking to establish a new 
relationship with the Federal government, it was really seeking to re-
establish the relationship that it started in 1855; to affirm the 
government-to-government relationship that began back then and reshape 
it into a relationship that fits today's realities, needs and goals. 
Each generation must continue the unbroken promise to take 
responsibility for the welfare of our people that began in the past and 
extends into the future.

Health Disparities Index
    Over the past several years there has been growing concern over the 
disparities in Health care funding that is available to disadvantaged 
populations within the United States. Unfortunately this concern has 
not generated additional funding for health care services. Instead the 
information that there are substantial and verifiable disparities in 
the level of funding provided to minority population. New funding has 
been appropriated to study the problem and to make recommendations that 
will most likely include a recommendation for additional service 
funding.

U.S. Civil Rights Commission Report
    The Civil Rights Report ``A Quiet Crisis'' was issued last year. In 
this report, the federal government provides a devastating indictment 
of the level of funding for Indian Country. This situation did not 
occur during the current administration, nor did it occur during the 
previous administration. This is not about politics. It is about human 
beings.

                   INDIAN HEALTH CARE IMPROVEMENT ACT

    The Lummi Nation wants the Congress and the Department to support 
that section of the proposed Indian Health Care Improvement Act which 
enables tribes to not only participate but to operate Medicaid Program 
services consistent with the need for health care service needs of 
their people. This proposal is budget neutral. These costs are already 
included in the current expenditure. This is simply re-routing a 
existing expenditures through the Tribal governments, which are closest 
to the people who are being served. This proposal enables Tribal 
governments to develop their own Medicaid Services plans instead of 
simply participating in the State's plan.

               HEAD START BUREAU--NEW HEAD START FACILITY

    The Lummi Nation is proud to have operated a Head Start Program 
since 1969. Our Head State Program now serves one hundred and eighteen 
children (118) and their families. However, the Lummi Nation Head Start 
Program needs to serve over two hundred (200). The limitations of the 
existing facility have limited the expansion of the program and its 
badly needed services. The Lummi Nation has completed construction of a 
new school facility with Bureau of Indian Affairs funding. In the 
process of constructing this facility the Lummi Nation planned for the 
construction of a new Head Start Facility adjacent to the new School 
Facility. Water, sewer and electrical services have been stubbed out to 
the site, thereby reducing the cost of constructing the facility. The 
first phase of construction will cost approximately $500,000.

                ADMINISTRATION FOR CHILDREN AND FAMILIES

Tribal Social Services Demonstration Projects
    ACF staff have informed Tribal Leadership the Department was 
considering a demonstration project to provide Tribes with direct 
access to Title IV (b) and Title IV (e) Social Services and Foster Care 
Services. The Lummi Nation supports the idea of a demonstration project 
and would eagerly participate in such a project. The Lummi Nation would 
support legislation that enables tribal governments to work directly 
with DHHS to access funding for Title IV (b), (c), (d), and (e) while 
maintaining their service relationship with the State services for the 
benefit of all Indian children.

Unemployment and Poverty
    The Lummi Nation approaches the problems of poverty and welfare 
through its own experience. The Lummi Nation economy is unique. It had 
remained a traditional fishing economy in the 21st century. The 
strength of the annual salmon runs had supported the Lummi Nation 
economy since time immemorial. However, these runs have finally 
succumbed to combination of farm fish competition, over-fishing and 
disappearing habitat.

Increasing Welfare Case Load
    The experience of the Lummi Nation is that TANF caseloads are 
increasing not decreasing. Due to the failure of the last 5 years 
fishing seasons the Lummi Nation fishers are being added into the 
existing welfare base case loads for the TANF and BIA General 
Assistance Programs. Each Lummi fisher person supports an additional 
four to five families that worked on their boat and received a share of 
the total income. These fishing boats have reduced by 53 percent from 
700 to 373. What community in the United States could sustain this 
level of economic disaster? For the Lummi Nation this is the bankruptcy 
of nearly all its small businesses owners/operators within a short 
period of time.

Funding for Tribes to Build Social Services/TANF Infrastructure
    The existing TANF funding for Tribes fails to recognize the long-
term investment in the development of the State Welfare infrastructure. 
Therefore, Tribes are presented a less than level playing field when 
they seek to develop and implement welfare service programs that meet 
the needs of their people. The Lummi Nation urges the Committee to 
consider earmarking a portion of the funding provided to States for 
their administrative costs to support the development of Tribal TANF 
infrastructure. This funding should be provided directly to Tribes who 
have assumed the responsibility for operating TANF.

       SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES ADMINISTRATION

Tribal Substance Abuse Block Grant
    The Lummi Nation has been able to have several meeting with the 
senior management of the Substance Abuse and Mental Health Services 
Administration over the past year. During one of these meeting we 
suggested that they re-program just one year's increase in the funding 
that is available to ``States under the Substance Abuse Block Grant 
funding. Currently only the Red Lake Ban of Chippewa is receiving an 
allocation directly from the Substance Abuse Block Grant administered 
by the Substance Abuse and Mental Health Services Administration. The 
Tribal specific Block Grant Program could be started using only the 
increases that are appropriated for the general population re-
programmed as a Tribal only Substance Abuse Block Grant. Then Congress 
would subsequently appropriate enough funds for annual inflationary 
increases for both the State Block Grant and the Tribal Block Grant.

Alcohol and Substance Abuse Program Infrastructure Funding
    SAMHSA has been able to support the development of State Alcohol 
and Substance abuse program infrastructure. While Tribal governments 
face the same data challenges that are posed by the operation of the 
Alcohol and Substance Abuse Treatment, Prevention and After-care 
activities. Apparently tribal governments can achieve what State 
governments who have access to tax bases of their own, cannot do 
without Federal assistance.

                          DEPARTMENT OF LABOR

Jobs Now--Job Creation and Economic Development
    In response to the economic fishing disaster for the Lummi people, 
of past 5 years, the Lummi Nation has created the JOBS NOW Initiative 
and is in the process of developing a long-term economic stimulus plan. 
These initiatives utilize all of the Lummi Nation projects, services, 
and resources to address the internal, social and economic needs of 
Lummi Nation families. Through this initiative the Lummi Nation has 
been able to register its membership in a job skills bank and 
identified area of job training that are in demand by the local labor 
market and consistent with the employment preferences of the 
membership.

Lummi Nation Families Ned 500 Jobs to Replace Lost Fishing Industry 
        Jobs
    The goal of the Lummi Nation Salmon Recovery Initiative is to 
create 500 jobs that provide a family wage to confront the current and 
long-term effects of the fishing economic disaster that is facing Lummi 
Nation members. Therefore the Lummi Nation urges the Committee to 
support additional job training program funding earmarked to address 
the economic crisis that is facing the members of the Lummi Nation.

Lummi Nation Dislocated Fishers Project
    The Lummi Nation is fully aware of how different, how culturally 
specific this economic dislocation is. The Lummi Nation expects the 
federal government including the Department of Labor to recognize the 
unique relationship that exits between the Lummi Nation and the United 
States of America through the Point Elliot Treaty of 1855.
    The Lummi Nation anticipated that it would be afforded the full 
discretion allowed under the law. Instead we believe that we have been 
held hostage to the past experiences of the Dislocated Worker Program. 
Past practices are not useful guides to new situations. We are 
disappointed with the reaction of the Department of Labor to the needs 
of our community members. The situation at Lummi Nation is a real 
economic dislocation, not just a profit dislocation. This is not a 
company failure. This is not simply a mater of mismanagement and plant 
failure. We are not working with workers but with small businessmen who 
were previously successfully self-employed. The service models that are 
imposed by the Department of Labor are based on the plant failure 
model.
    It is clear that the intent of the legislation is to assist workers 
to get jobs when the industry that supported them is no longer 
operable. Our situation is clearly within the intent of the authorizing 
legislation. The fishing industry to which our people have devoted 
their lives and invested their fortune has changed, due to no action or 
inaction on the part of the workers for whom assistance is sought.

Negotiated Standard
    During negotiations with the Department of Labor the Lummi Nation 
sought and received a promise that funding would be available to meet 
the needs of all eligible members of the Lummi Nation. The Lummi Nation 
expects the Department to honor this standard and continue funding of 
this project until all eligible Lummi Nation members have been provided 
services such that they are able to secure and maintain comparable 
permanent employment.

+$420,000.--Additional funding for Lummi Nation WIA Programs and 
        Services
    The Lummi Nation allocation for funding under the WIA Comprehensive 
and Youth Programs is less than one third of what it needs to be. The 
Lummi Nation is requesting that the Committee review its allocations 
and increase the funding that is available to the Lummi Nation by three 
(3) times. The Lummi Nation receives $140,000 annually to meet the 
needs of 5,000 people, with multiple needs including basic reading and 
writing skills, physical therapy, other personal issues to address 
prior to job training and eventually employment. The Lummi Nation needs 
an allocation of $420,000.

                        DEPARTMENT OF EDUCATION

Funding for Tribal Education Departments
    This is needed by all of Indian Country. Those tribes that do not 
operate their own schools need the infrastructure to support their 
youth in the public schools. Those Tribes that do operate schools need 
the Department format to insure that educational services are connected 
to the Tribal government.

No Child Left behind
    The United States of America has left behind Indian children,. 
While we are supportive of many provision of the Act we are not aware 
of any benefits that it has brought to us. Indian children are still 
left behind by the lack of adequate school and preschool facilities, 
teachers and operating resources. While the 2006 Presidents budget 
Request does includes requests to maintain the 2004 funding level it is 
woefully inadequate. The leading cause of death in our community is 
abuse of alcohol and/or drugs. Children who live in such a community 
have significant social, developmental needs that must be addressed so 
that basic educational services can be of any value. The current 
funding level mean that Indian Children will continue to be left behind 
as the rest of America is catapulted into the 21st Century.

Vocational Rehabilitation
    The Lummi Nation is a long-standing grantee of the Department's 
Indian Vocational Rehabilitation. We are grateful for the support of 
the Department for the development of the Lummi Nation Vocational 
Rehabilitation Program as well as the funding to provide mush needed 
services for our membership. The Department needs to insure that the 
full amount of this allocation is available for the benefit of Indian 
people.

477 Program
    The Lummi Nation along with other who are participating in the 477 
Program are seeking to consolidate all employment and training 
programs, services functions and activities. The Education Department 
needs to fully participate in this program. The Lummi Nation urges the 
Committee to require the Department to meet with Tribal leadership and 
members of the Committee staff to identify the barriers to full 
participation and develop appropriate administrative and or legislative 
remedies.
                                 ______
                                 
   Prepared Statement of the National Association of County and City 
                            Health Officials

                                SUMMARY

    The proposed cuts in the fiscal year 2006 budget of the Centers for 
Disease Control and Prevention (CDC) fall disproportionately on local 
and state public health departments. The two largest proposed program 
cuts for CDC are a reduction of $130 million in funding for state and 
local bioterrorism preparedness and elimination of the $131 million 
Preventive Health and Health Services block grant program. Such funding 
cuts would seriously compromise the ability of the nation's 
governmental public health system to fulfill its mission of protecting 
and promoting health.
    Local public health departments work every day on the front lines 
to combat threats to the health of their communities. They can ill 
afford substantial reductions in federal support for their roles as 
first responders to bioterrorism and other public health emergencies. 
Moreover, local public health departments receive about 40 percent of 
the Preventive Health and Health Services block grant (PHHS) funds. 
These enable them to carry out programs ranging from prevention of 
heart attack and stroke to combating West Nile virus. In states where 
local health departments rely on these funds to run prevention programs 
for which no other sources of funding are available, activities to 
reduce the burdens of preventable disease will be reduced.
    At a time when the nation is engaged in urgent work to protect the 
homeland from terrorists, as well as to stop an epidemic of obesity, it 
is profoundly counterproductive and irrational to reduce support for 
local programs that are the first line of defense against the greatest 
threats to the health of communities. NACCHO urges Congress to continue 
funding these two CDC programs at levels no less than that of the 
current fiscal year. Those levels are $932 million for state and local 
bioterrorism preparedness and $131 million for the Preventive Health 
and Health Services block grant.

STRENGTHENING THE GOVERNMENTAL PUBLIC HEALTH SYSTEM TO IMPROVE HOMELAND 
                  SECURITY REQUIRES SUSTAINED FUNDING

    Congress recognized in 1997 an unmet need to strengthen the 
nation's capacity to respond to an act of bioterrorism and initiated 
funding for bioterrorism preparedness in fiscal year 1999. The initial 
funding of about $121 million (which included $51 million solely for 
stockpiling medications) assisted CDC and state and local health 
departments to begin examining what plans and resources were necessary. 
After 9/11 and the anthrax outbreaks in the fall of 2001, Congress 
increased bioterrorism funding markedly and included $940 million for 
building state and local capacities, of which about $870 million was 
actually made available to states and localities. The Department of 
Health and Human Services got these funds out to states and three large 
cities via cooperative agreements very promptly, far ahead of other 
homeland security funds for states and localities.
    Substantial bioterrorism preparedness funds for improving all 
aspects of preparedness have actually been in the hands of state health 
departments since August 2002, less than three years. Local public 
health departments, many of which have been funded for much less time, 
are justifiably proud of the progress they have made.
    Extensive response plans, developed in collaboration with local 
emergency management systems, have been made. Numerous ``tabletop'' and 
real field exercises have tested local capabilities. Mass vaccination 
clinics have taken place, some in conjunction with the actual 
requirement to provide smallpox vaccine to selected first responders, 
others as a real response to this year's flu vaccine shortage. 
Communications systems and equipment that enable rapid electronic 
information exchange among health departments and by health departments 
to their communities are operational. Improved systems for disease 
detection are in place.
    Local health departments have engaged hospitals, physicians, and 
other individuals and organizations in the private sector in developing 
their roles in responding to a serious disease outbreak. Complex 
logistical arrangements needed to distribute medications or equipment 
from the Strategic National Stockpile to stricken populations have been 
developed.
    In some locations, genuine public health crises, such as suspected 
SARS cases or flu vaccine shortages, have demanded a response. In the 
act of the responding, local health departments and their community 
partners continually identify new challenges and new ways to improve 
their ability to respond. Improving a locality's ability to detect a 
disease outbreak promptly and to contain it swiftly is a continuous 
process. Interrupting that process through funding cuts would take the 
nation's bioterrorism preparedness backwards, not forward. New 
capacities that are now in place cannot be sustained without sustained 
funding.
    The Administration has proposed to fund more medicines and supplies 
for the Strategic National Stockpile and to purchase portable medical 
treatment units, instead of sustaining funding for state and local 
capacities. Yet the acquisition of vaccines or equipment is useless 
unless there are trained people and established systems in place to get 
the vaccines or treatment to stricken populations. According to a 
recent report by the Government Accountability Office (``Bioterrorism: 
Information on Jurisdictions' Expenditure and Reported Obligation of 
Program Funds,'' February 2005), state and local governments are taking 
action responsibly to prepare for bioterrorism and there are not large 
surpluses of unspent funds. It is wholly irrational to suggest that 
more vaccines and supplies can improve national preparedness, if 
funding to sustain health departments' capacity to use those vaccines 
and supplies is simultaneously cut back.
    The nation has a long way to go before every citizen enjoys the 
best possible protection by disease detection and response systems that 
work as quickly as humanly possible. Providing this protection is the 
job of the governmental public health system. No other entity can do 
it. NACCHO urges Congress not to cut back funds available to local 
public health departments, the nation's first responders to 
bioterrorism.

           THE PHHS BLOCK GRANT IS A LINCHPIN FOR PREVENTION

    Local public health departments receive approximately 40 percent of 
the Preventive Health and Health Services block grants nationally. The 
proportion varies among states from less than 5 percent to almost 100 
percent. The block grant funds fulfill three critical purposes. First, 
they enable states to address critical unmet public health needs. The 
coexistence of other federal categorical public health funds does not 
mean that available categorical funds are sufficient or available to 
address all problems. They are not. Improving chronic disease 
prevention through screening programs and programs that promote healthy 
nutrition and physical activity are prime examples of activities to 
which many jurisdictions devote PHHS funds. Forty percent of fiscal 
year 2004 block grant funds were spent on chronic disease prevention, 
including prevention of obesity, stroke, heart disease, cancer, 
diabetes, and dental caries.
    Second, PHHS funds provide some flexible funding to address 
unexpected problems or problems that are unique to a particular 
geographic area. West Nile virus, a fully preventable disease spread to 
humans by mosquitoes, is one good example. Third, PHHS fund provide 
leverage for more funds and in-kind resources from non-federal sources. 
In one southern state, local health departments collectively used $2.77 
million in block grant funds to establish new prevention programs and 
generate $5 million in additional resources for those programs.
    States are fully accountable to the Department of Health and Human 
Services for their expenditures of block grant funds and report how 
much money they spend by specific program area. In those states where 
local health departments receive a significant amount of PHHS funds 
from the state, local prevention efforts will diminish. Local and state 
health departments are key leaders and providers of population-based 
prevention programs. They work to keep prevention in the public eye and 
they build on programs that have been proven effective in reducing 
disease and preventing premature death. As health care costs escalate, 
reducing the nation's commitment to prevention by eliminating the PHHS 
block grant and weakening state and local public health departments is 
unwise and uneconomic.
    The National Association of County and City Health Officials 
(NACCHO) is the organization representing the almost 3,000 local public 
health departments in the United States.
                                 ______
                                 
 Prepared Statement of the National Association of Foster Grandparent 
                           Program Directors

                              INTRODUCTION

    I am honored to testify in support of fiscal year 2006 funding for 
the Foster Grandparent Program (FGP), the oldest and largest of the 
three programs known collectively as the National Senior Volunteer 
Corps, which are authorized by Title II of the Domestic Volunteer 
Service Act (DVSA) of 1973, as amended and administered by the 
Corporation for National and Community Service (CNS).
    Good morning Mr. Chairman. My name is Brenda Lax and I have been 
the Foster Grandparent Program Director with the City of Kansas City, 
Missouri for the past 17 years. I am here in my capacity as President 
of the National Association of Foster Grandparent Program Directors 
(NAFGPD). NAFGPD is a membership-supported professional organization 
whose roster includes the majority of more than 350 directors who 
administer Foster Grandparent Programs nationwide, as well as local 
sponsoring agencies and others who value and support the work of FGP. 
This year we will celebrate our 40th Anniversary of engaging low-income 
seniors in service to children with special needs with a reception on 
September 21, 2005 here in Washington, DC. On behalf of NAFGPD members 
across the country, I would like to extend an invitation to you and 
your staff to join us for this special occasion.
    Mr. Chairman, I would like to begin by thanking you and the 
distinguished members of the Subcommittee for your steadfast support of 
the Foster Grandparent Program. No matter what the circumstances, this 
Subcommittee has always been there to protect the integrity and mission 
of our programs. Our volunteers and the children they serve across the 
country are the beneficiaries of your commitment to FGP, and for that 
we thank you. I also want to acknowledge your outstanding staff for 
their tireless work and very difficult job they have to ``make the 
numbers fit.''--an increasingly difficult task in this budget 
environment.
    Last year I had the great privilege of testifying before the House 
Subcommittee about the fiscal year 2005 budget request for FGP. While 
it was a great honor to be there, I was compelled to deliver some very 
disappointing news--a cut of some $3.5 million was proposed for our 
programs across the country. Well, Mr. Chairman under your leadership 
the Subcommittee not only rejected this misguided cut, but provided an 
increase of nearly $2 million over the fiscal year 2004 enacted level. 
NAFGPD was very glad to see this ill-conceived cut rejected, and we 
believe your action sent a message about our programs--they are alive 
and well and quite worthy of scarce federal resources.
    Thanks to your action in the fiscal year 2005 appropriations 
process, Mr. Chairman, the fiscal year 2006 budget request for FGP does 
not suggest another significant cut to our programs. Instead, the 
fiscal year 2006 budget provides an increase of $634,000 (.5 percent) 
for headquarters-based administrative functions such as training and 
technical assistance. While NAFGPD was pleased to see our programs not 
slated for a cut, we remain concerned that the Corporation's request 
does not provide any new funding where it is needed most--in the field. 
All of us recognize the spending constraints placed on the President 
and, most importantly on you and the Appropriations Committee, Mr. 
Chairman. However, in a time of such scarce federal resources, NAFGPD 
believes strongly that any new funding should flow to our programs in 
the field where it is most urgently needed, not CNCS headquarters.
    NAFGPD respectfully requests the subcommittee to provide $116.440 
million for the Foster Grandparent Program in fiscal year 2006, an 
increase of $5.016 million over the fiscal year 2005 level. This 
critical funding will ensure the continued viability of the Foster 
Grandparent Program, and allow for important expansion of this unique 
program. Specifically, this proposal would fund a 3 percent cost of 
living increase for every Foster Grandparent Program and expansion 
grants to existing programs that would add 372 new low-income senior 
volunteers to serve children.

                            FGP: AN OVERVIEW

    Established in 1965, the Foster Grandparent Program was the first 
federally funded, organized program to engage older volunteers in 
significant service to others. From the 20 original programs based 
totally in institutions for children with severe mental and physical 
disabilities, FGP now comprises nearly 350 programs in every state and 
the District of Columbia, Puerto Rico, and the Virgin Islands. All of 
these programs are now primarily based in community volunteer sites--
where most special needs children can be found today--and are 
administered locally through a non-profit organization or agency and 
Advisory Council comprised of community citizens dedicated to FGP and 
its mission. FGP represents the best in the federal partnership with 
local communities, with federal dollars flowing directly to local 
sponsoring agencies, which in turn determine how the funds are used. 
There are currently 38,700 Foster Grandparent volunteers who give over 
36 million hours annually to more than 277,000 children.
    The Foster Grandparent Program is unique for several reasons. We 
are one of only two volunteer programs in existence that enable seniors 
living on very limited incomes to serve their communities as volunteers 
by providing a small non-taxable stipend and other support which allow 
volunteers to serve at little or no cost to themselves. Our volunteers 
provide intensive, consistent service--15 to 40 hours every week, 
usually 4 hours every day. FGP provides intensive pre-service 
orientation and at least 48 hours of ongoing training every year to 
keep volunteers current and informed on how to work with children who 
have special needs. And our volunteers provide one-to-one service to 
their assigned children, exactly what is required to help prepare our 
nation's neediest children to become self-sufficient adults.

                          FGP: THE VOLUNTEERS

    The Foster Grandparent Program is a versatile, dynamic, and 
uniquely multi-purpose program. First, we give Americans 60 years of 
age or older who are living on incomes at or less than 125 percent of 
the poverty level the opportunity to serve 15 to 40 hours every week 
and use the talents, skills and wisdom they have accumulated over a 
lifetime to give back to the communities which nurtured them throughout 
their lives. Seniors in general are not valued or respected in today's 
society, and low-income seniors are particularly devalued because of 
their economic status. They are rarely asked by their communities to 
contribute through volunteering, because they are not traditionally 
those who participate in community activities.
    FGP actively seeks out these low-income seniors. We dare to ask 
them to serve, to give something back. And we help them to develop the 
additional skills they may need to function effectively in settings 
unfamiliar to them, like public schools, hospitals, childcare centers, 
and juvenile detention facilities. We also provide them with ongoing 
training and support throughout their tenure as Foster Grandparents. 
Through their service, our older volunteers say they feel and stay 
healthier, that they feel needed and productive. Most importantly, they 
leave to the next generation a legacy of skills, perspective and 
knowledge that has been learned the hard way--through experience.
    Within budgetary constraints, FGP is engaging older people who are 
not usually asked to serve and those usually considered as needing 
services rather than being able to serve: 86 percent are 65 or older 
and 45 percent come from various ethnic groups.

                           FGP: THE CHILDREN

    Through our volunteers, the Foster Grandparent Program also 
provides person-to-person service to children and youth under the age 
of 21 who have special or exceptional needs, many of whom face serious, 
often life-threatening challenges. With the changing dynamics in family 
life today, many children with disabilities and special needs lack a 
consistent, stable adult role model in their lives. The Foster 
Grandparent is very often the only person in a child's life who is 
there every day, who accepts the child, encourages him no matter how 
many mistakes the child makes, and focuses on the child's successes.
    Special needs of children served by Foster Grandparents include 
AIDS or addiction to crack or other drugs; abuse or neglect; physical, 
mental, or learning disabilities; speech, or other sensory 
disabilities; incarceration and terminal illness. Of the children 
served, 7 percent are abused or neglected, 26 percent have learning 
disabilities, and 11 percent have developmental delays. FGP focuses its 
resources in areas where they will have the most impact: early 
intervention services and literacy activities. Nationally, 85 percent 
of the children served by Foster Grandparents are under the age of 12, 
with 39 percent of these children age 5 or under. Foster Grandparents 
work intensively with these very young children to address their 
problems at as early an age as possible, before they enter school. 
Nearly one-half of FGP volunteers serve nearly 12 million hours 
annually addressing literacy and emergent-literacy problems with 
special needs children.
    Activities of the FGP volunteers with their assigned children 
include teaching parenting skills to teen parents; providing physical 
and emotional support to babies abandoned in hospitals; helping 
children with developmental, speech, or physical disabilities develop 
self-help skills; reinforcing reading and mathematics skills; and 
giving guidance and serving as mentors to incarcerated or other youth.

                        FGP: THE VOLUNTEER SITES

    The Foster Grandparent Program provides agencies and organizations 
providing services to special-needs children with a consistent, 
reliable, invaluable extra pair of hands 15 to 40 hours every week to 
assist in providing these services. Seventy-one percent of FGP 
volunteers serve in public and private schools as well as sites that 
provide early childhood pre-literacy services to very young children, 
including Head Start.

                      FGP: COST-EFFECTIVE SERVICE

    The Foster Grandparent Program serves local communities in a high 
quality, efficient and cost-effective manner, saving local communities 
money by helping our older volunteers stay independent and healthy and 
out of expensive in-home or institutional care. Using the Independent 
Sector's 2003 valuation for one hour of volunteer service ($17.19/
hour), the value of the service given by Foster Grandparents annually 
is over $618 million, and represents a 5-fold return on the federal 
dollars invested in FGP. The annual federal cost for one Foster 
Grandparent is $3,800--less than $4.00 per hour.
    The value local communities place on FGP and its multifaceted 
services is evidenced by the large amount of cash and in-kind donations 
contributed by communities to support FGP. For example, FGP's fiscal 
year 2001 federal allocation was matched with $40 million in non-
federal donations from states and local communities in which Foster 
Grandparents volunteer. This represents a non-federal match of 42 
percent, or $.42 for every $1.00 in federal funds invested--well over 
the 10 percent local match required by law.

                NAFGPD'S FISCAL YEAR 2006 BUDGET REQUEST

    Given the dramatically expanding number of low-income seniors 
eligible to serve and the staggering number of troubled and challenged 
children in America today, we respectfully request that the 
Subcommittee provide $116.440 million for the Foster Grandparent 
Program in fiscal year 2006, an increase of $5.016 million over fiscal 
year 2005. This critical funding will ensure the continued viability of 
the Foster Grandparent program, and allow for an expansion of this 
important program.
    The requested increase would be allocated for the following 
purposes, in order of priority:
    1st.--Award an administrative cost increase of 3 percent to each 
existing Foster Grandparent Program in order to maintain quality, 
enable recruitment and sustain the important work already being done by 
programs.
    2nd.--In accordance with the Domestic Volunteer Service Act (DVSA), 
designate one-third of the increase over the fiscal year 2005 level to 
fund Program of National Significance (PNS) expansion grants to allow 
existing FGP programs to expand the number of volunteers serving in 
areas of critical need as identified by Congress in the DVSA.
    This funding proposal will generate opportunities for approximately 
372 new low-income senior volunteers contributing in excess of 400,000 
hours of service annually to more than 2,000 additional children.
    The message is clear: (1) the population of low-income seniors 
available to volunteer 15 to 40 hours every week is increasing; (2) 
communities need and want more Foster Grandparent volunteers and more 
Foster Grandparent Programs. FGP respectfully requests increased 
funding that will address our most pressing need: a 3 percent 
administrative cost increase that will enable the program to expand its 
reach across the nation. The Subcommittee's continued investment in FGP 
now will pay off in savings realized later, as more seniors stay 
healthy and independent through volunteer service, as communities save 
tax dollars, and as children with special needs are helped to become 
contributing members of society.
    Mr. Chairman, in closing I would like to again thank you for the 
subcommittee's support and leadership for FGP over the years. NAFGPD 
takes great comfort in knowing you and your colleagues in Congress 
appreciate what our low-income senior volunteers accomplish every day 
in communities across the country.
                                 ______
                                 
         Prepared Statement of the National League for Nursing

    The National League for Nursing (NLN)--representing more than 1,200 
nursing schools and health care agencies, some 18,000 individual 
members composed of nurses, educators, administrators, public members, 
and 18 constituent leagues--appreciates the Subcommittee's past support 
for nursing education and your continued recognition of the important 
role nurses play in the delivery of health care services. We are 
concerned, however, that the advancements made by Congress to help 
alleviate the nursing shortage will be lost during the fiscal year 2006 
appropriations process unless additional resources are expended. NLN 
urges your continued support for Title VIII--Nursing Workforce 
Development Programs by ensuring that these programs are funded at a 
minimum level of $210 million for fiscal year 2006. To put this funding 
request into perspective, in 1974, during the last serious nursing 
shortage, Congress appropriated $153 million for nurse education 
programs. In today's dollars that would equate to $592 million, 
approximately four times what the federal government is spending now.
    Today's nursing shortage is very real and very different from any 
experienced in the past. The current shortage is evidenced by an aging 
workforce and an inadequate number of people entering the profession. 
Schools of nursing are suffering from a continuing and growing shortage 
of faculty, which prevents these institutions from admitting many 
qualified students who are applying to their programs. A recent NLN 
survey of nursing programs at all levels shows that an estimated 
125,000 qualified applicants were turned away from nursing programs for 
the academic year 2003-2004 because of the severe faculty shortage. The 
supply of appropriately prepared nurses and nursing faculty is 
inadequate to meet the needs of a diverse, aging population, and this 
shortfall will grow more serious over the next 5 years.
    Congress did an admirable job of passing the Nurse Reinvestment Act 
in 2002. The new monies used to fund loans and scholarships are 
appreciated. However, it has become abundantly clear that significantly 
more funding is required to even minimally meet the existing need.
    NLN's Faculty Survey conducted in 2002 concludes that not enough 
qualified nurse educators exist to teach the number of nurses needed to 
ameliorate the nursing shortage. Subsequent information indicates that 
this situation is getting more serious and is not expected to improve 
in the near future, since an inadequate number of nurse educators are 
currently in the education pipeline.
    The NLN Survey found three trends influencing the future of nursing 
education over the next decade:
  --The aging of the nurse faculty population.--An average of 1.3 full-
        time faculty members per program left their positions in 
        nursing education in 2002. About half the Survey respondents 
        had at least one unfilled budgeted full-time faculty position 
        and some have as many as 15 such positions. 36.5 percent of 
        faculty who left their positions in the preceding year did so 
        because of retirement; 8.6 percent of faculty were 61 years of 
        age or older; and 75 percent of the current faculty population 
        is expected to retire by 2019.
      Approximately 1,800 full-time faculty members leave their 
        positions each year. About 10,000 master's level nurses 
        graduate per year, 15 percent of whom would have to go into 
        teaching just to maintain the status quo. Since this is highly 
        unlikely, the gap between unfilled positions and the candidate 
        pool will widen significantly.
  --The increasing number of part-time faculty.--The number of part-
        time faculty ha increased notably since 1996--nearly 17 percent 
        in baccalaureate programs and 14 percent in associate degree 
        programs. Part-time faculty now provides approximately 23 
        percent of the estimated number of faculty FTEs.
      Part time employees are often not an integral part of the design, 
        implementation, and evaluation of the overall nursing education 
        program. Many may hold other positions that often limit their 
        availability to students. Further, many part-time faculty have 
        not been prepared for the faculty role.
  --The large number of nursing faculty who are not prepared at the 
        doctoral level.--Approximately half the full-time faculty in 
        baccalaureate and higher degree programs hold a doctoral 
        degree. In associate degree programs, doctorally prepared 
        faculty account for only 6.6 percent of the total faculty and 
        the number is slightly more than 5 percent in diploma programs. 
        Only 350 to 400 nursing students receive doctoral degrees each 
        year and the pool of doctorally prepared candidates for full-
        time nursing professorships is very limited.
      Educators without doctoral degrees may lack credibility within a 
        university setting and have limited opportunities to assume 
        leadership positions. Institutions with low numbers of 
        doctorally prepared educators may be less likely to get funds 
        to support research or educational innovations.
    As important as educational incentives are for future practicing 
nurses, the scholarships for doctoral students who will instruct the 
next generation of nurses are even more critical. Please do not allow 
us to lose ground in the fight against the nursing shortage. Fund Title 
VIII--Nursing Workforce Development Programs at a level commensurate 
with the severity of the health care crisis facing the nation today.
    Your support will help ensure that nurses exist in the future who 
are prepared and qualified to take care of you, your family, and all 
those in this country who will need our care. If you have any questions 
about NLN's position or we can be of further assistance to you, please 
feel free to contact Kathleen Ream, NLN Manager of Government Affairs, 
at 703-241-3974.
                                 ______
                                 
      Prepared Statement of the National Mental Health Association

    Thank you for this opportunity to submit testimony to the 
Subcommittee and to address the important issue of mental health. The 
National Mental Health Association (NMHA), the country's oldest and 
largest advocacy organization addressing all aspects of mental health 
and mental illness, represents over 340 affiliates throughout the 
country. NMHA is uniquely positioned to speak to the entire mental 
health and substance abuse portfolio including prevention, early 
intervention, treatment, and research.
    NMHA would like to thank Chairman Regula and Reps. Obey and Kennedy 
for your leadership and for your strong support in winning increases 
last year for mental health programs. However, we are deeply troubled 
by the Administration's current proposal to cut mental health services 
at the Center for Mental Health Services (CMHS) by a dangerous 7 
percent (from $901 to $837 million) and to increase funding for the 
National Institutes of Health (NIH) by less than 1 percent. We hope to 
highlight the tremendous need for mental health services in communities 
throughout the country and why it is imperative that we make an 
investment not cuts in mental health.

             CALL TO MAKE MENTAL HEALTH A NATIONAL PRIORITY

    NMHA strongly urges you to make mental health a national priority. 
In creating the Commission on Mental Health, President Bush 
emphatically declared that ``Our country must make a commitment: 
Americans with mental illness deserve our understanding, and they 
deserve excellent care. I look forward to . . . fixing the [mental 
health] system, so that Americans do not fall through the cracks.''
    These are not cracks; these are, at this time, unbridgeable chasms. 
As we know and as corroborated in a December 2004 New York Times 
editorial, the robust community-based mental health system that 
national leaders envisioned would replace the country's reliance on 
warehoused institutional care never materialized. As a result, an 
astounding 80 percent of children entering the juvenile justice system 
have mental disorders, and prisons and jails have become de facto 
mental hospitals, but without the treatment that would allow 
individuals with a mental illness to control their symptoms and 
organize their lives.
    The President's New Freedom Commission on Mental Health, the first 
such commission in over 25 years, recommended a fundamental 
transformation of the Nation's approach to mental health care. This 
transformation must ensure that mental health services and supports 
actively facilitate recovery, and build resilience to face life's 
challenges--with consumers active participants in designing and 
developing their plans of care. The Commission also found that our 
nation's failure to make mental health a priority is a national 
tragedy. A measure of the scope of that tragedy is the 
disproportionately high number of individuals with mental illness in 
the corrections system as well as over 30,000 lives lost annually to 
suicide--a loss, the Commission states, that is largely preventable.

          UNTENABLE FISCAL YEAR 2006 MENTAL HEALTH BUDGET CUTS

    Although mental illness (the chronic disease of the young) ranks 
first in the United States in terms of causing disability, the proposed 
fiscal year 2006 budget for the Center for Mental Health Services at 
SAMHSA would shrink funding for the federal government's lead mental 
health agency to virtually the level of support provided the agency for 
fiscal year 2002. Cutting a mental heath budget to fiscal year 2002 
levels at a time that more than 67 percent of adults and nearly 80 
percent of children who need mental health services do not receive 
treatment is hardly a formula for making mental health a national 
priority.
    NMHA strongly urges the Subcommittee to reverse the proposed 7 
percent cut or loss of nearly $70 million to mental health services at 
the Center for Mental Health Services (CMHS).
    In particular, we urge you to reverse the following proposals in 
the Administration's budget for the Substance Abuse and Mental Health 
Services Administration:
  --The proposed cut in funding for a successful youth-violence 
        prevention program by nearly a third, from $94 to $67 million;
  --The proposed cut in funding for jail diversion program by nearly 50 
        percent, from $7 to $4 million;
  --The proposed cut in funding of an additional $40 million in CMHS' 
        important Programs of Regional and National Significance 
        account--in essence slashing funding from an account aimed at 
        much needed priority programming; and
  --The proposed cut in funding for substance abuse prevention by 7 
        percent, from $198 to $184 million.
    In addition, we urge you to build on the Administration's proposal 
to:
  --Level fund critical youth suicide-prevention efforts, the 
        children's systems-of-care, the homelessness (PATH), PAIMI and 
        elderly programs, the mental health and substance abuse block 
        grants, as well as the Consumer TA Centers; and
  --Provide an increase of only 0.4 percent, on average, for research 
        activities at the National Institutes of Mental Health, Drug 
        Abuse, and Alcohol Abuse and Alcoholism.
    Lastly, we support the Administration's $6 million increase request 
for the State Infrastructure Grants, which will likely fund 11 grants 
with the proposed new total of $26 million, to assist States with 
planning and implementing the Commission's call for transformation of 
state mental health services across multiple service systems.

       YOUTH VIOLENCE PREVENTION: A WHOLLY UNWARRANTED BUDGET CUT

    Recent tragic events illustrate what we believe are critical 
failures in priority-setting in the SAMHSA budget. This month's 
horrible shootings at Minnesota's Red Lake High School, the most 
violent school slaying since Columbine, is a reminder that youth 
violence is still prevalent and underscores the need for every school 
house to be prepared to deal with traumatic, tragic events. Surely this 
incident is emblematic of the shortsightedness of the Administration's 
proposed devastating cut of nearly 33 percent or $27 million to youth 
violence prevention--the Safe Schools/Healthy Students (SS/HS) 
program--at CMHS.
    As CMHS' major school violence prevention program, the SS/HS 
initiative addresses school violence prevention through a wide range of 
early childhood development, early intervention and prevention, suicide 
prevention, and mental health treatment services. The primary objective 
of this grant program is to promote healthy development, foster 
resilience in the face of adversity, and prevent violence. The 
President's Commission report highlighted the need for the mental 
health system to coordinate better with other federal agencies. This 
landmark program, administered jointly with the Department of Education 
(Safe and Drug Free Schools Office) and the Department of Justice 
(Office of Juvenile Justice and Delinquency Prevention), does just 
that.
    The Red Lake School shooting and other such shootings underscore 
the tremendous mental health needs of young people that too often go 
unmet. One in ten children suffers from a mental disorder severe enough 
to cause some level of impairment. Even more children experience 
psychiatric trauma, or emotional harm, which is essentially a normal 
response to an extreme event that may or may not happen with some 
regularity.
    This Subcommittee should make investments not only in the area of 
youth violence prevention, but also invest in Jail Diversion programs 
designed to keep young people at home and in their communities as they 
get care. This is not the time to cut funding for programs that help to 
protect our nation's youth.

                LACK OF COMMUNITY MENTAL HEALTH SERVICES

    While we call on the Subcommittee to reverse the alarming cuts 
proposed in the SAMHSA budget, we urge that the Subcommittee also 
provide needed increases in funding. To illustrate the magnitude of 
needs that plead for attention, we urge that you take steps to address 
the shocking findings highlighted by Sen. Susan Collins (R-ME) whose 
hearing last year spotlighted the devastating reality that, every day, 
about 2,000 children and adolescents are warehoused in juvenile 
detention centers around the country simply because community mental 
health services are unavailable. An estimated $100 million of 
taxpayers' money is spent on the detention of these youth awaiting 
community mental health services. Shouldn't that $100 million and other 
precious resources be invested in the community rather than in the 
corrections system to provide cost-effective, quality mental health 
services? Consider the outrage that would be heard if 2,000 young 
people with ANY other illness not only went without treatment, but were 
involuntarily institutionalized as well.
    NMHA agrees with Senator Collins that ``another consequence of our 
tattered `safety net' for children with mental illness [is] the 
inappropriate use of juvenile detention centers as `holding areas' for 
young people who are waiting for mental health services. Like custody 
relinquishment [of children with mental disorders], these inappropriate 
detentions are a regrettable symptom of a much larger problem, the lack 
of available, affordable, and appropriate mental health services and 
support systems.''
    With this tragic situation in mind, we urge you to consider, for 
example, a greater investment in the Children's Mental Health Services 
program that would allow CMHS to expand beyond the 92 grants in 46 
States that have provided services to approximately 54,343 children 
from 1993-2004. This program, which scored highly in the OMB PART 
review/evaluation, has only served children in 274 or 9 percent of the 
3,142 counties in the United States.

    NEEDS ARE INCREASING, AND APPROACHING A MENTAL HEALTH STATE OF 
                               EMERGENCY

    The need for mental health services is ever-escalating for both 
young people and adults, and gaining ever-wider recognition. To 
illustrate, a February 2005 study found that U.S. hospital emergency 
departments greatly under-diagnose psychiatric disorders. Investigators 
from Louisiana State University examined records of more than 33,000 
patients and discovered an overall psychiatric disorder rate among 
patients of 5.27 percent--far below the national rate of 20 percent to 
28 percent. The researchers believe this points to large numbers of 
missed diagnoses. Last July a county in Nevada declared a ``State of 
Emergency'' after many individuals with mental illness overcrowded the 
state's hospitals. In Nebraska, the state last February reported its 
mental health system to be in crisis. And with the fifth-highest 
suicide rate in the nation, West Virginia's Gazette-Mail concluded 
earlier this year that the state is in the midst of a ``mental health 
crisis.''
    Broad societal mental health needs too often go unrecognized. As 
the nation grapples with an obesity epidemic, for example, there has 
been insufficient recognition of the link to mental health. Yet mental 
health issues are often closely intertwined with other chronic illness. 
In the case of obesity, for example, we can expect individuals who 
suffer from obesity to be at risk for heart disease. Two decades of 
NIMH research have shown that people with heart disease are more likely 
to suffer from depression than otherwise healthy people, and 
conversely, that people with depression are at greater risk for 
developing heart disease. With sharp cutbacks in the already modest 
(PRNS) funding available to the Center for Mental Health Services to 
address priority needs, any opportunity that might exist to address 
such co-morbidities appears futile. Yet such a focus could pave the way 
for the one in three people who have survived a heart attack and 
experience major depression in a given year to improve their overall 
health and lessen the fiscal burden on the nation's health care system.

                           RETURNING SOLDIERS

    It has been reported that through the end of September 2004, nearly 
900 troops had been evacuated from Iraq by the Army for psychiatric 
reasons, included attempts or threatened attempts at suicide. And a 
study of members of combat infantry units deployed to Iraq in 2003 
published in the New England Journal of Medicine (July 1, 2004), 
researchers found evidence of major depression, anxiety, or PTSD after 
combat duty in approximately one of every six of these troops. Dr. 
Stephen C. Joseph, an assistant secretary of defense for health affairs 
from 1994 to 1997, declared that ``the mental health consequences are 
going to be the medical story of [the Iraqi] war.'' We should not 
assume, however, that those bearing the psychic scars of this war will 
necessarily seek treatment from the Defense Department or the 
Department of Veterans Affairs. The study in New England Journal was 
particularly troubling in that regard in finding that most veterans who 
appeared to have combat-related mental health problems avoided seeking 
the treatment available in the military, due principally to stigma. 
That finding suggests that for many veterans war-related mental health 
problems may go unaddressed for a period of time. In many instances, an 
already overburdened public mental health system may be called on to 
meet their needs.
    At a minimum, this problem calls for a robust, multi-pronged 
campaign to renew and more fiercely combat the enormous stigma in key 
sectors of American society, such as among service-members. Where 
stigma and misperceptions regarding mental health problems fuel 
resistance to early intervention, one can foresee that these problems 
will simply persist and worsen. Yet with a sharply diminished budget, 
it is highly unlikely that SAMHSA could even consider a new anti-stigma 
effort.

                                SUICIDE

    Yet another very troubling dimension of the SAMHSA budget is its 
``status quo'' approach to public health crisis. Both the Institute of 
Medicine and the President's New Freedom Commission on Mental Health 
have highlighted that mental illness plays a major role in the over 
650,000 attempted suicides in America every year--30,000 suicides are 
completed. Almost twice as many individuals die from suicide than 
homicide yet hundreds of millions are spent on law enforcement and 
corrections facilities to prevent and protect Americans from homicides 
while suicide prevention funding under the proposed CMHS budget would 
be held to a mere $16.5 million. We urge the Subcommittee to heed this 
disparity and bring funding for suicide prevention efforts more closely 
in line with the scope of this public health crisis.
    The tragedy that befell Sen. Gordon Smith and his family when his 
son took his life did shine a spotlight on this unspeakable crisis. 
Last year, Congress enacted the Garrett Lee Smith Memorial Act to: (a) 
support the planning, implementation, and evaluation of organized 
activities involving statewide youth suicide intervention and 
prevention strategies; (b) authorize grants to institutions of higher 
education to reduce student mental and behavioral health problems; and 
(c) authorize funding for the national suicide prevention resource 
center. The program will provide early intervention and assessment 
services, including screening programs, to youth who are at risk for 
mental or emotional disorders that may lead to a suicide attempt, and 
that are integrated with school systems, educational institutions, 
juvenile justice systems, substance abuse programs, mental health 
programs, foster care systems, and other child and youth support 
organizations.
    Suicide is a problem of enormous scope and demands a response 
commensurate with its enormity. The truly tragic aspect to suicide is 
how largely preventable this crisis is. It is not just young people at 
risk of suicide deaths, older Americans are also at great risk. We urge 
the Subcommittee to increase both youth-suicide prevention funding and 
support for the Elderly program at CMHS to deal with suicide and other 
issues endemic to an aging population.

                                CLOSING

    Shrinking CMHS program funding to fiscal year 2002 dollar levels is 
a very troubling response to a landmark Presidential commission's call 
to make mental health a national priority. But a budget decline of this 
magnitude would have concrete implications in communities across this 
country. It would, for example, mean closing the door to states and 
communities that badly need help to improve mental health service-
delivery. It would mean no help to anguished school systems that are 
struggling to achieve the twin goals of school-safety and healthy-
students in the face of the threat of more Columbines and Red Lakes. It 
would mean despair for young people languishing in juvenile detention 
facilities across the country while they wait for community mental 
health treatment and families forced to relinquish custody of their 
children to secure desperately needed mental health services.
    Without a seismic shift in the level of priority the Federal 
government gives to mental health, and a corresponding investment in 
research, supports and services, we can expect to see a 
disproportionate numbers of individuals with mental illness who attempt 
and complete suicide or languish in corrections facilities.
    By making mental health a more robust funding priority, this 
Subcommittee could dramatically change the lives of millions of 
Americans, improving not only their well-being but our nation's 
productivity. And by investing in early intervention services and in an 
array of other mental health services and supports, precious resources 
at the state and federal level would be saved by stemming the flow of 
resources being spent in corrections or other systems that deliver 
mental health services that are not as cost-effective and at a lower 
quality than providing those services in the community.
                                 ______
                                 
     Prepared Statement of the National Nursing Centers Consortium

    The NNCC (National Nursing Centers Consortium) appreciates the 
opportunity to submit written comments for the record regarding funding 
for nursing workforce and research programs in fiscal year 2006. This 
testimony does not include a monetary request. Instead, the NNCC 
requests that this subcommittee support the creation of a new grant 
program under the jurisdiction of the Health Resources and Services 
Administration's (HRSA's) Bureau of Health Professions (BHPr) that 
would enable the Centers for Medicare and Medicaid Services (CMS) to 
issue nurse-managed health centers (NMHCs) prospective payment 
reimbursement for their Medicare and Medicaid patients.

                            NNCC BACKGROUND

    The NNCC is the first nation wide association of nurse-managed 
health centers (NMHCs) in the United States. The organization currently 
represents over 100 NMHCs and individual members in 35 states. These 
centers are typically community-based non-profit organizations or are 
affiliated with university-based schools of nursing. The fact that many 
NNCC member centers are affiliated with schools of nursing allows them 
to act as teaching centers for new nurses entering the workforce. Along 
with fulfilling this important role with regard to nursing education, 
these centers also provide a host of primary care, health promotion and 
disease prevention services to medically underserved patients living in 
both urban and rural communities. NNCC member centers are run by nurse 
practitioners in partnership with the communities they serve. Many 
NMHCs have established community advisory boards that give the 
community a role in determining the future of the center and the 
services provided. Along with nurse-practitioners, these services may 
also be provided clinical nurse specialists, registered nurses, health 
educators, community outreach workers, health care students and 
collaborating physicians.
    The vision of the NNCC is to improve the health of communities 
through neighborhood-based health care services that are accessible, 
acceptable, and affordable. The mission is to strengthen the capacity, 
growth, and development of nurse-managed health centers to provide 
quality health care services to vulnerable populations and to eliminate 
health disparities in underserved communities.

       THE FINANCIAL CRISIS FACED BY NURSE-MANAGED HEALTH CENTERS

    Many NMHCs were initially established with the help of Nurse 
Practice and Retention grants from the BHPr. However, of the 70 
grantees that received Division of Nursing (DON), grants to establish 
nurse-managed health centers between 1993-2001, 27 or 39 percent have 
been forced to close. There are two main reasons why such a high 
percentage of DON funded NMHCs are no longer in operation. The first 
reason is that DON has shifted its funding priorities to nurses working 
in acute care settings, and is no longer funding NMHCs. The second 
reason is that even though a recent study conducted by the NNCC and 
sponsored CMS found that NMHCs are safety-net providers, they do not 
have access to the prospective payment system (PPS), which is offered 
to other safety-net providers such as Community Health Centers (CHCs) 
and Federally Qualified Health Centers (FQHCs).
    Under PPS, CHCs/FQHCs are able to offset the cost of caring for the 
uninsured because they receive a higher level of reimbursement for 
their Medicare and Medicaid patients. Even though NMHCs also see a high 
percentage of uninsured patients they cannot offset these costs through 
PPS. Without PPS, NMHCs are forced to depend on low capitation payments 
from managed care organizations (MCOs) and unreliable private grants. 
These payments and grants are not sufficient to cover the costs of 
operating NMHCs.
    For example, the average cost of caring for a Medicaid recipient at 
a NMHC is about $540 per year. However, Medicaid MCOs pay an average 
annual capitation payment of about $144 for each Medicaid patient. This 
means that capitation payments only cover about 26 percent of the costs 
associated with caring for Medicaid patients. NMHCs are forced to seek 
outside funding to recover the other 74 percent of these costs. 
Assuming the NMHC is able to cover these costs, the center must then 
take into account the costs associated with caring for their uninsured 
clients that are and not eligible for capitation payments. About 46 
percent of the clients receiving care at NNCC member centers around the 
nation are uninsured.
    In contrast, CHCs and FQHCs with access to PPS are able to recover 
about 89 percent of the costs associated with their Medicaid clients. 
This increased revenue allows these centers to direct a higher 
percentage of their resources to covering the cost of caring for their 
uninsured patients. In addition, CHCs receive an average payment of 
$250 for each uninsured patient. PPS helps to ensure that CHCs/FQHCs 
remain financially viable. If NMHCs do not also gain access to PPS 
reimbursement many more of these centers will be forced to close 
leaving thousands of medically underserved and uninsured clients 
without access to critical primary care services. Congress itself has 
recognized the tremendous financial challenges faced by NMHCs, and has 
published language, ``encouraging HRSA to provide alternative means to 
secure cost-based (or PPS) reimbursement for NMHCs'' (Senate Report 
108-345 (2005) p.37).
    Earlier this year the Senate Appropriations Committee praised NMHCs 
for the important work they are doing to reinforce America's health 
care safety-net. The committee stated, ``Nurse-Managed Health Centers 
(NMHCs) serve a dual function in strengthening the health care safety-
net by providing health care to populations in underserved areas and by 
providing the clinical experiences to nursing students that are 
mandatory for professional development.'' (Senate Report 108-345 (2005) 
p.37). If Congress truly values NMHCs this subcommittee should move to 
ensure that they have access to PPS reimbursement.
    NNCC requests that this subcommittee support the creation of a new 
grant program under which HRSA's BPHr would be allowed to distribute 
grants through which CMS could issue NMHCs PPS reimbursement. The most 
likely place for BPHr to find the authority to issue such grants would 
be under Title VIII of the Public Health Service Act (PHSA). Placing 
the new grant program under Title VIII of the PHSA would allow NMHCs to 
retain their emphasis on education and nursing workforce development. 
The NNCC also requests that any NMHCs, which previously received start 
up funding through DON, be automatically granted access to the newly 
created PPS. As mentioned above, there are still about 48 NMHCs in 
operation around the country which were established with the help of 
DON grants. However, shifting funding priorities at DON have left these 
centers in need of a stable source of funding. Granting them automatic 
access to PPS would make them financially viable and allow them to 
provide a full range of primary care, health promotion and disease 
prevention services to their patients. These centers record close to 
600,000 client encounters each year. Lastly, CHCs receive approximately 
$250 every year for each of their uninsured patients. BHPr should be 
given the discretion to provide similar grant funding to NMHCs that 
provide care to a high percentage of uninsured clients.

                               CONCLUSION

    We thank you for this opportunity to discuss the financial crisis 
faced by NMHCs and the significance of maintaining their financial 
sustainability. The NNCC is ready to assist policy makers in granting 
NMHCs PPS reimbursement, and has already drafted a model bill that 
would accomplish this goal. If the above steps are taken the NNCC 
believes the future of these important safety-net providers will be 
secure for years to come.
                                 ______
                                 
  Prepared Statement of the National Organizations Responding to AIDS 
                            (NORA) Coalition

          RECOGNIZING THE CHALLENGES AND LOOKING TO THE FUTURE

    The year 2005 brought with it a new Congress and a new 
Administration, yet for people living with, and at risk for, HIV and 
the organizations and agencies that serve them, things have remained 
much the same. For the fourth year in a row federal funding for the 
domestic HIV/AIDS portfolio remains level, and for the past two years 
funding has been reduced through funding rescissions. For the fifth 
consecutive year, the Centers for Disease Control and Prevention (CDC) 
maintains that there are 850,000-950,000 people living with HIV in the 
United States, despite a minimum of 40,000 new infections each year.\1\ 
And once again we find ourselves challenged to make a noticeable 
difference in the course of the HIV epidemic.
---------------------------------------------------------------------------
    \1\ Centers for Disease control and Prevention, ``Basic 
Statistics,'' 2003. <<http://www.cdc.gov/hiv/stats.htm#hivest>>
---------------------------------------------------------------------------
    Since 2000, the CDC has estimated that there were 850,000-950,000 
people living with HIV in the United States. Since that time, the CDC 
has reported that there are approximately 40,000 new HIV infections, 
and 15,000 deaths from AIDS related causes, in the United States each 
year.\2\ (This is a minimum number; recent data suggests that we may be 
actually seeing 43,000-44,000 additional new infections each year.) 
Thus, by simply doing the math it would seem that today, in 2005, there 
are roughly 125,000 more people living with HIV in this country then 
there were just five years ago--for a total of 975,000-1,075,000 HIV 
positive Americans. In other words, 1 million people.\3\
---------------------------------------------------------------------------
    \2\ Fleming, P., et al., ``HIV Prevalence in the U.S. 2000,'' 9th 
Conference on Retroviruses and Opportunistic Infections, February 2002.
    \3\ Ovadiya, Iris, and Tytel, Jessica, AIDS Action.
---------------------------------------------------------------------------
    Twenty-four years after the start of the HIV epidemic one million 
people are living in the United States with HIV--and that number 
continues to grow each and every day. Despite all the progress that has 
been made, from the development of new treatments and therapies to 
increased availability of testing and counseling services, the epidemic 
here at home is still far from over.
    The U.S. domestic response has historically been a patchwork of 
services, ranging from the work of community-based organizations to 
that of agencies of the federal government, each of which continues to 
play a critical role in addressing the epidemic. Since the beginning 
the thread that has bound all of these pieces together has been the 
financial support of Congress and the White House. Unfortunately, 
recent fiscal constraints have caused that thread to fray--to the point 
where some of the pieces are threatening to come undone. It is 
increasingly clear that unless we reengage ourselves in the real work 
of responding to this epidemic we will no longer be able to maintain 
the public health systems that have until now have been the true 
successes in addressing HIV in the United States.
    Of special note, of the 1 million people who are currently living 
with HIV in the United States, CDC and the Health Resources and 
Services Administration (HRSA) estimate that roughly one half are 
accessing regular medical care.\4\ On one level that is a very 
important accomplishment. 500,000 people are receiving the live-saving 
treatment and medical support that they need because our government 
made an investment and a commitment to help through the establishment 
of the Ryan White Comprehensive AIDS Resources Emergency (CARE) Act and 
through the commitment of additional resources to existing programs. 
However, the fact remains that the other half--another 500,000--are not 
in care, either because they are unaware of their HIV status or because 
of financial and/or other barriers that are keeping them from getting 
the care and treatment that they need. This grim statistic has remained 
unchanged for the past five years. The challenge before us now is to 
find a way to tip the balance.
---------------------------------------------------------------------------
    \4\ Fleming, P., et al., ``HIV Prevalence in the U.S. 2000,'' 9th 
Conference on Retroviruses and Opportunistic Infections, February 2002.
---------------------------------------------------------------------------
    If we are going to provide care and support services for those 
500,000 Americans currently not in care we must first face up to the 
reality of the challenge that lies before us. Most of the programs 
within the domestic federal HIV portfolio have been level-funded and/or 
cut for the past four fiscal years. Many are now facing their lowest 
funding levels in recent memory--despite the fact that they are seeing 
an increasing demand for services. We are now finding ourselves 
straining to meet the needs of the 500,000 we already serve, all the 
while aware of the need to reach an additional 500,000 whose needs we 
have not even begun to assess or address. Despite all of our best 
efforts we are still not reaching the people who need us most. Without 
access to testing and counseling, and subsequently care and treatment, 
these people remain unaware of the realities of their HIV infection, 
and thus unable to maintain their own health and prevent further 
transmission of the virus. This is simply unacceptable.
    Both CDC and HRSA have recently identified the half a million HIV 
positive people not in care as a top priority for their HIV programs. 
Beginning with the 2000 reauthorization of the Ryan White CARE Act, 
HRSA has focused attention on what it has termed ``unmet need,'' 
individuals who are HIV positive and aware of their status, but not in 
care. CARE Act grantees have received instructions from HRSA to 
prioritize this population in the delivery of services in an attempt to 
successfully connect these individuals to care. However, no additional 
resources have been allocated to grantees for this task, and many 
report that they are already overburdened by their current client load. 
For example, in the Washington, D.C. metro area newly diagnosed HIV 
positive clients are being placed on 3 month long waiting lists for 
doctor's appointments.
    In 2003, CDC launched Advancing HIV Prevention (AHP), a new 
initiative ``aimed at reducing barriers to early diagnosis of HIV 
infection and, if positive, increasing access to quality medical care, 
treatment, and ongoing prevention services.'' \5\ One of the primary 
goals of this national initiative is to increase access to HIV 
counseling, testing, and referral to care. Since the first funds were 
awarded in 2003, AHP has shown success in linking people to testing 
through the use of new rapid test technologies; however, it remains to 
be seen whether or not the CDC can successfully link these people to 
care--and whether or not HRSA's already overburdened care system can 
maintain them in services.
---------------------------------------------------------------------------
    \5\ Centers for Disease Control and Prevention, ``Advancing HIV 
Prevention: New Strategies for a Changing Epidemic,'' September 2003. 
<<http://www.cdc.gov/hiv/partners/AHP-brochure.htm>>
---------------------------------------------------------------------------
    Last year NORA chose to focus on building upon our past successes. 
This year we must look to what we still have left to do. The AHP and 
unmet need initiatives are working, but we can not expect them to be 
the definitive solution. The HIV epidemic in this country continues to 
evolve, and we continue to face unanticipated policy and program 
challenges. In the past year alone we have seen the initial phases of 
implementation of the Medicare Modernization Act, the expansion of 
rapid testing technologies, and emerging concerns about the Food and 
Drug Administrations (FDA) drug approval process. At the same time the 
Department of Health and Human Services has committed itself to the 
goal of reducing by half annual HIV infections in this country by 2010, 
after realizing that the 2005 goal was out of reach. The federal 
government must commit to fund, manage, and monitor the domestic 
response, or else we will find ourselves falling even farther behind in 
our response to the epidemic.
    The challenge before us today is significant, but it is not 
insurmountable. If we commit to funding that truly meets the needs of 
people living with, and at risk for, HIV infection then we can change 
the course of the epidemic.
    We know how to provide care.
    We know what it takes to link people to medical treatment.
    We know how to support its communities living with HIV.
    Now is the time to turn knowledge into action.
    The chart that follows is NORA's funding recommendations for fiscal 
year 2006.

                                       NORA FISCAL YEAR 2006 APPROPRIATIONS REQUESTS FOR FEDERAL HIV/AIDS PROGRAMS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                 President's                         Fiscal year 2006
            Program               Fiscal yeary 2006 need   Fiscal year 2005    fiscal year 2006     Change from            NORA           Change from
                                                             appropriation         request        fiscal year 2005   recommendations    fiscal year 2005
--------------------------------------------------------------------------------------------------------------------------------------------------------
 DEPARTMENT OF HEALTH AND HUMAN
            SERVICES
 
Minority HIV/ AIDS Initiative    $855 million...........  $399 million \1\..  $399 million.....  .................  $610 million.....  +$411 million
 (To be added across multiple
 HHS programs and included in
 fiscal year 2002 program
 totals as indicated).
ACF: Runaway and Homeless Youth  .......................  104 million.......  114 million......  +$10 million.....  140 million......  +36 million
 Act Programs.
Agency for Healthcare Research   .......................  319 million.......  319 million......  .................  440 million......  +121 million
 and Quality.
CDC: Total--HIV, STD, TB line..  2.33 billion...........  961.2 million.....  957.3 million....  -4 million.......  2.33 billion.....  +1.27 billion
CDC: HIV Prevention and          .......................  662.6 million.....  686.6 million....  -4 million.......  1.5 billion......  +813.4 million
 Surveillance.
CDC: STD Prevention............  .......................  159.7 million.....  159.7 million....  .................  351 million......  +191.3 million
CDC: TB Prevention.............  .......................  138.9 million.....  138.9 million....  .................  287.3 million....  +148.4 million
CDC: Viral Hepatitis             .......................  17.36 million.....  17.36 million....  .................  100.24 million...  +82.88 million
 (Infectious Disease Control
 line).
CDC: DASH (Chronic Disease       .......................  56.75 million.....  56.76 million....  +0.1 million.....  88.25 million....  +31.49 million
 Prevention and Health
 Promotion line).
FDA............................  .......................  1.45 billion......  1.5 billion......  +50 million......  1.57 billion.....  +116 million
HRSA: Ryan White CARE Act Total  3.2 billion............  2.048 billion.....  2.058 billion....  +10 million......  2.56 billion.....  +513 million
Title I........................  .......................  610 million.......  610 million......  .................  725 million......  +115 million
Title II: Care.................  .......................  334 million.......  334 million......  .................  384 million......  +50 million
Title II: ADAP.................  1.5 billion (non-add)..  787 million.......  797 million......  +10 million......  1.09 billion.....  +303 million
Title III......................  .......................  196 million.......  196 million......  .................  236.6 million....  +41 million
Title IV.......................  .......................  72.53 million.....  72.53 million....  .................  113.25 million...  +40.72 million
Part F: AETCs..................  .......................  35 million........  35 million.......  .................  45 million.......  +10 million
Part F: Dental Reimbursement...  .......................  13.3 million......  13.3 million.....  .................  19 million.......  +5.7 million
HRSA: Consolidated Health        .......................  1.733 billion.....  2.038 billion....  +304.2 million...  2.038 billion....  +304.2 million
 Centers.
HRSA: Title V..................  .......................  724 million.......  724 million......  .................  755 million......  +31 million
HRSA: Title X..................  .......................  286 million.......  286 million......  .................  350 million......  +66 million
Indian Health Service: HIV/AIDS  .......................  2.68 million......  2.79 million.....  +0.1 million.....  10 million.......  +7.32 million
 Program.
NIH Office of AIDS Research....  3.327 billion..........  2.92 billion......  2.93 billion.....  +12 million......  3.1 billion......  +200 million
Office of the Secretary: Office  5 million..............  ..................  .................  .................  2 million........  +2 million
 of HIV/AIDS Policy.
SAMHSA: Center for Substance     .......................  1.78 billion......  1.78 billion.....  .................  1.85 billion.....  +71 million
 Abuse Treatment Block Grant
 \2\.
SAMHSA: Center for Substance     .......................  422.4 million.....  447.1 million....  +24.7 million....  472 million......  +50 million
 Abuse Treatment--other.
SAMHSA: Center for Substance     .......................  198.7 million.....  184.3 million....  -14.4 million....  210 million......  +11 million
 Abuse Prevention \3\.
SAMHSA: Mental Health Block      .......................  432.8 million.....  432.8 million....  .................  471.5 million....  +38.9 million
 Grant \4\.
SAMHSA: Center for Mental        .......................  176.7 million.....  144.1 million....  -32.6 million....  191.8 million....  +15.1 million
 Health Services--other \4\.
SAMHSA: GBHI...................  .......................  40.1 million......  34.4 million.....  -5.7 million.....  42.5 million.....  +1.7 million
SAMHSA: PATH...................  .......................  54.8 million......  54.8 million.....  .................  59.8 million.....  +5 million
 
 DEPARTMENT OF EDUCATION (DOE)
 
Protection and Advocacy for      .......................  16.6 million......  16.6 million.....  .................  22 million.......  +5.4 million
 Human Rights.
 
DEPARTMENT OF HOUSING AND URBAN
       DEVELOPMENT (HUD)
 
HOPWA..........................  2.8 billion............  282 million.......  268 million......  -14 million......  385 million......  +103 million
McKinney-Vento Homelessness      .......................  1.241 billion.....  1.44 billion.....  +199 million.....  1.572 billion....  +331 million
 Assistance Grant Program.
 
    GLOBAL HIV/AIDS PROGRAMS
 
President's Emergency Plan for
 AIDS Relief (PEPFAR)
 
HIV/AIDS Programs..............  6.7 billion............  2.9 billion.......  3.16 billion.....  +265 million.....  4.61 billion.....  +1.7 billion
 
Global Fund to Fight AIDS,
 Tuberculosis and Malaria (non-
 add)
 
Global Fund....................  1.5 billion............  435 million.......  300 million......  -135 million.....  1.5 billion......  +1.06 billion
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ NOTE.--All fiscal year 2004 amounts include the .80 percent rescission.
\2\ The numbers in this chart reflect the entire budget of SAMHSA for Substance Abuse Treatment; HIV/AIDS programs are included in this total.
\3\ The numbers in this chart reflect the entire budget of SAMHSA for Substance Abuse Prevention; HIV/AIDS programs are included in this total.
\4\ The numbers in this chart reflect the entire budget of SAMHSA for Mental Health Services; HIV/AIDS programs are included in this total.

     Prepared Statement of the North American Brain Tumor Coalition

    I am Gary L. Kornfeld, a nine-year survivor of a grade 3 
oligoastrocytoma and Chair of the North American Brain Tumor Coalition 
(NABTC). On behalf of the Coalition, I am pleased to offer these 
comments regarding brain tumor research for the record of the Labor, 
Health and Human Services, and Education Appropriations Subcommittee. 
The NABTC, a network of 12 brain tumor organizations, is dedicated to 
improving treatments for brain tumors and ensuring individuals with 
brain tumors access to high quality care. The volunteers who comprise 
the NABTC are survivors, family members, friends, and caregivers, and 
we know firsthand the devastating effects that brain tumors can have. 
We are working hard to reduce the suffering from brain tumors and 
improve the outlook for all who receive this diagnosis.
    Each year, approximately 190,000 people in the United States and 
10,000 in Canada will be diagnosed with a primary or metastatic brain 
tumor. Approximately 40,000 individuals in the United States will be 
diagnosed with primary brain tumors; of this total, more than 18,000 
will be diagnosed with malignant brain tumors. Brain tumors are a 
leading cause of death from childhood cancer, accounting for almost a 
quarter of cancer deaths in children up to 19 years of age. Brain 
tumors are the second leading cause of cancer death in young adults 
ages 20-39.
    These numbers, as frightening as they are, do not convey the 
complete story. The treatment of brain tumors is very difficult, and 
factors that contribute to these treatment challenges are the location 
of these tumors and the fact that there are more than 120 different 
kinds of tumors. Standard therapies for brain tumors include surgery, 
radiation therapy, and chemotherapy, used either individually or in 
combination.

                      RECENT ADVANCES IN TREATMENT

    There have been recent advances in the treatment of glioblastoma 
multiforme (GBM), or grade IV malignant glioma, which usually causes 
death in a year. Researchers have found that concurrent administration 
of a chemotherapy drug, temozolomide, and radiation therapy results in 
a clinically meaningful survival benefit of two and one-half months for 
newly diagnosed glioblastoma patients.
    These findings were published in the New England Journal of 
Medicine on March 10, 2005.\1\ Temozolomide with radiation can be a 
very significant development for patients with GBM, and the brain tumor 
community applauds this development. However, much more must be done to 
extend and improve the lives of those affected by brain tumors. 
Progress against brain tumors still comes much too slowly.
---------------------------------------------------------------------------
    \1\ Stupp, et al., ``Radiotherapy Plus Concomitant and Adjuvant 
Temozolomide for Glioblastoma,'' New England Journal of Medicine, March 
10, 2005.
---------------------------------------------------------------------------
    The NABTC believes treatment strides will come through an enhanced 
investment in brain tumor research and improved dissemination of 
information about the best available care for brain tumors. Researchers 
in the Glioma Outcomes Project recently reported troubling gaps in care 
of individuals with brain tumors, suggesting that more work needs to be 
done to guarantee that the best possible therapies are available to all 
with brain tumors.\2\
---------------------------------------------------------------------------
    \2\ Chang, et al., ``Patterns of Care for Adults With Newly 
Diagnosed Malignant Glioma,'' Journal of the American Medical 
Association, February 2, 2005.
---------------------------------------------------------------------------
             ENHANCE THE INVESTMENT IN BRAIN TUMOR RESEARCH

    In 2000, the National Cancer Institute (NCI) and National Institute 
of Neurological Disorders and Stroke (NINDS) published the report of a 
brain tumor research advisory panel, called the Brain Tumor Progress 
Review Group. This report included an aggressive and thoughtful plan 
for moving brain tumor research and treatments forward. In 2000, the 
NABTC endorsed the Progress Review Group plan and urged implementation 
of its key research recommendations. In 2005--half a decade after the 
report's publication--the NABTC finds that the report still describes a 
valid and vital plan for brain tumor research. While the continuing 
relevance of the report is in part a testament to the vision of the 
Progress Review Group, it is primarily a testament to the troubling 
lack of progress in brain tumor research and treatment and the failure 
to implement the report's recommendations.
    To advance brain tumor research, the NABTC recommends that:
  --NCI and NINDS implement the recommendations of the Brain Tumor 
        Progress Review Group. To ensure that we do not look back from 
        2010 and observe limited progress on the Progress Review Group 
        plan, the NABTC requests that NCI and NINDS submit to Congress 
        a brain tumor research plan, including timelines and a budget 
        for implementation of the PRG report.
  --The Directors of NCI and NINDS appoint leaders of their extramural 
        brain tumor programs without delay. Strong scientific 
        management is necessary to ensure that the nation's financial 
        investment in brain tumor research is utilized as effectively 
        as possible. Extramural research coordinators should be 
        appointed at each institute to ensure that there is proper 
        leadership on brain tumor research issues.
  --Congress provide adequate funding for existing brain tumor research 
        efforts. There are several structures or systems for clinical 
        research on brain tumors, including the brain tumor consortia 
        and the brain tumor specialized programs of research 
        significance (SPOREs), but these programs are not adequately 
        funded to allow investigation of all promising brain tumor 
        treatments and to ensure correlative studies as part of trials.
  --NINDS and NCI convene a special workshop on brain tumor research. 
        Brain tumor research is an area where cross-disciplinary 
        research approaches are absolutely critical, and a workshop on 
        a cutting-edge brain tumor research topic would likely 
        stimulate innovative research efforts. A workshop is an 
        activity that could be undertaken by NINDS in collaboration 
        with NCI.
    For individuals with brain tumors and their families, friends, and 
caregivers, the NABTC urges a greater sense of urgency among the 
leaders of NCI and NINDS regarding brain tumor research.

           ELIMINATE THE TWO-YEAR WAITING PERIOD FOR MEDICARE

    Although we realize Medicare is not in the jurisdiction of this 
Subcommittee, we nevertheless would like to direct your attention to 
important legislation, introduced by Senator Jeff Bingman (D-NM) and 
Representative Gene Green (D-TX), that would eliminate the two-year 
waiting period for Medicare benefits for those who have established 
eligibility for Social Security Disability benefits. For many 
individuals with brain tumors, the current 24-month waiting period can 
result in delays in access to care that extends or improves life.
    Thank you again for the opportunity to offer this brief statement 
on brain tumor research and care.
                                 ______
                                 
           Prepared Statement of the Oncology Nursing Society

    The Oncology Nursing Society (ONS) appreciates the opportunity to 
submit written comments for the record regarding funding for cancer and 
nursing related programs in fiscal year 2006. ONS, the largest 
professional oncology group in the United States composed of more than 
31,000 nurses and other health professionals, exists to promote 
excellence in oncology nursing and the provision of quality care to 
those individuals affected by cancer. As part of its mission, the 
Society honors and maintains nursing's historical and essential 
commitment to advocacy for the public good.
    This year more than 1.37 million Americans will be diagnosed with 
cancer and more than 570,000 will lose their battle with this terrible 
disease. Despite these grim statistics, significant gains in the War 
Against Cancer have been made through our nation's investment in cancer 
research and its application. Research holds the key to improved cancer 
prevention, early detection, diagnosis, and treatment, but such 
breakthroughs are meaningless unless we can deliver them to all 
Americans in need. Recent studies have reported 126,000 registered 
nurse vacancies in hospitals and 13,900 registered nurse vacancies in 
nursing homes. These statistics create a sizeable barrier to ensuring 
that all people benefit from breakthroughs in cancer research.
    To ensure that all people with cancer have access to the 
comprehensive, quality care they need and deserve, ONS advocates on-
going and significant federal funding for cancer research and 
application, as well as funding for programs that help ensure an 
adequate oncology nursing workforce to care for people with cancer. The 
Society stands ready to work with policymakers at the local, state, and 
federal levels to advance policies and programs that will reduce and 
prevent suffering from cancer and sustain and strengthen the nation's 
nursing workforce.

    SECURING AND MAINTAINING AN ADEQUATE ONCOLOGY NURSING WORKFORCE

    Over the last 10 years, the setting in which treatment for cancer 
is provided has changed dramatically. An estimated 80 percent of all 
Americans receive cancer care in community settings including cancer 
centers, physicians' offices, and hospital outpatient departments. 
Treatment regimens are as complex, if not more so, than regimens given 
in the inpatient setting a few years ago. Oncology nurses are on the 
front lines in the provision of quality cancer care for individuals 
with cancer--administering chemotherapy, managing patient therapies and 
side-effects, working with insurance companies to ensure that patients 
receive the appropriate treatment, providing counseling to patients and 
family members, and engaging in myriad other activities on behalf of 
people with cancer and their families.
    Overall, age is the number one risk factor for developing cancer. 
Approximately 77 percent of all cancers are diagnosed at age 55 and 
older. Currently, Medicare beneficiaries account for more than 50 
percent of all cancer diagnoses and 64 percent of cancer deaths. Over 
the next 10 to 15 years the number of Medicare beneficiaries with 
cancer is estimated to double while more than 1.1 million registered 
nursing vacancies will need to be filled by 2012 to meet growing 
patient demand and replace retiring nurses. With an increasing number 
of people with cancer needing high quality health care, coupled with an 
inadequate nursing workforce, our nation could quickly face a cancer 
care crisis of serious proportion with limited access to quality cancer 
care, particularly in traditionally underserved areas. A study in the 
New England Journal of Medicine found that nursing shortages in 
hospitals are associated with a higher risk of complications--such as 
urinary tract infections and pneumonia, longer hospital stays, and even 
patient death. Without an adequate supply of nurses, there will not be 
enough qualified oncology nurses to provide the quality cancer care to 
a growing population of people in need and patient health and well 
being could suffer.
    Further, of additional concern is that our nation also will have a 
shortage of nurses available and able to conduct cancer research and 
clinical trials. With a shortage of nurses in cancer research, the War 
against Cancer will take longer because of unfulfilled staffing needs 
coupled with the reality that in some practices and cancer centers 
resources could be funneled away from cancer research to pay for the 
hiring and retention of oncology nurses to provide direct patient care. 
Without a sufficient supply of trained, educated, and experienced 
oncology nurses, our nation will falter in its delivery--or 
application--of the benefits from our federal investment in research.
    ONS has joined with others in the nursing community in advocating 
$210 million as the fiscal year 2006 funding level necessary to support 
implementation of the Nurse Reinvestment Act and the range of nursing 
workforce programs housed at the U.S. Health Resources and Services 
Administration (HRSA). Enacted in 2002, the Nurse Reinvestment Act 
included new and expanded initiatives, including loan forgiveness, 
scholarships, career ladder opportunities, and public service 
announcements to advance nursing as a career. Despite the enactment of 
this critical measure, HRSA fails to have the resources necessary to 
meet the current and growing demands for our nation's nursing 
workforce. For example, in fiscal year 2004 HRSA received 4,873 
applications for the Nurse Education Loan Repayment Program, but only 
had funding to award 857--a rate of 17.6 percent. Also in fiscal year 
2004, the agency received 8,806 applications for the Nursing 
Scholarship Program, but only could fund 126--a rate of 1.4 percent. 
Further exacerbating the current situation is that nursing programs 
turned away more than 125,000 qualified students last year, in part due 
to a shortage of faculty. If funded sufficiently, the components and 
programs of the Nurse Reinvestment Act would help address the multiple 
factors contributing to the nationwide nursing shortage, including the 
shortage of faculty, decline in nursing student enrollments, and poor 
public perception of nursing as a viable and worthwhile profession.
    ONS strongly urges Congress to provide HRSA with a minimum of $210 
million in fiscal year 2006 to ensure that the agency has the resources 
necessary to fund a higher rate of Nurse Education Loan Repayment and 
Nursing Scholarship applications as well as implement other essential 
endeavors to sustain and boost our nation's nursing workforce. Nurses--
along with patients, family members, hospitals, and others--have joined 
together in calling upon Congress to provide this essential level of 
funding. One Voice Against Cancer (OVAC)--a collaboration of more than 
45 national nonprofit organizations representing millions of 
Americans--has added a request of $210 million for the Nurse 
Reinvestment Act funding to its fiscal year 2006 appropriations 
advocacy agenda. ONS and its allies have serious concerns that without 
full funding, the ``Nurse Reinvestment Act'' will prove an empty 
promise; the current and expected nursing shortage will worsen and 
people will not have access to the quality cancer care they need and 
deserve.

 BOOST OUR NATION'S INVESTMENT IN CANCER PREVENTION, EARLY DETECTION, 
                             AND AWARENESS

    Approximately two-thirds of cancer cases are preventable through 
lifestyle and behavioral factors and improved practice of cancer 
screening. Although the potential for reducing the human, economic, and 
social costs of cancer by focusing on prevention and early detection 
efforts remains great, our nation does not invest sufficiently in these 
strategies. While as a nation we spend almost a trillion dollars a year 
on our health care system, we only allocate about one percent of that 
amount for population-based prevention. By the year 2020, cancer and 
other chronic disease expenditures will reach one trillion dollars or 
80 percent of health care costs. The nation must make significant and 
unprecedented federal investments today to address the burden of cancer 
and other chronic diseases, and to reduce the demand on the healthcare 
system and diminish suffering in our nation both for today and 
tomorrow.
    As the nation's leading prevention agency, the Centers for Disease 
Control and Prevention (CDC) plays an important role in translating and 
delivering at the community level what is learned from research--
especially ensuring that those populations disproportionately affected 
by cancer receive the benefits of our nation's investment in medical 
research. Therefore, ONS joins with our partners in the cancer 
community--including OVAC--in calling on Congress to provide additional 
resources for physical activity, nutrition, and tobacco control 
programs and other cancer-related screening, prevention, and public 
health education efforts supported through the CDC to support and 
expand much-needed and proven effective cancer prevention, early 
detection, and risk reduction efforts. Specifically, ONS advocates the 
appropriation of $404 million in fiscal year 2006 for the Centers for 
Disease Control and Prevention's (CDC) comprehensive cancer, ovarian 
cancer, breast and cervical cancer early detection, cancer registries, 
prostate cancer, colorectal cancer, and skin cancer programs. ONS also 
urges an increase funding for the CDC's physical activity, nutrition, 
and tobacco-control programs to help reduce risk factors for developing 
cancer and other chronic diseases, diminish suffering from cancer, and 
decrease the demand on the healthcare system.
  --$250 million for the National Breast and Cervical Cancer Early 
        Detection Program;
  --$65 million for the National Cancer Registries Program:
  --$25 million for the Colorectal Cancer Prevention and Control 
        Initiative;
  --$25 million for the Comprehensive Cancer Control Initiative;
  --$20 million for the Prostate Cancer Control Initiative;
  --$5 million for the National Skin Cancer Prevention Education 
        Program;
  --$9 million for the Ovarian Cancer Control Initiative;
  --$5 million for the Geraldine Ferraro Blood Cancer Program;
  --$145 million for the National Tobacco Control Program; and
  --$70 million for the Nutrition, Physical Activity, and Obesity 
        Program.

            SUSTAIN AND SEIZE CANCER RESEARCH OPPORTUNITIES

    Our nation has benefited immensely from past federal investment in 
biomedical research at the National Institutes of Health (NIH). ONS has 
joins with the entire cancer community in advocating $30.1 billion for 
the NIH in fiscal year 2006. This will allow NIH to sustain and build 
on its research progress resulting from the recent NIH budget doubling 
effort while avoiding the severe disruption to that progress that would 
result from a minimal increase.
    Cancer research is producing extraordinary breakthroughs--leading 
to new therapies that translate into longer survival and improved 
quality of life for cancer patients. We have seen extraordinary 
advances in cancer research resulting from our national investment that 
have produced effective prevention, early detection and treatment 
methods for many cancers. To that end, ONS calls upon Congress to 
allocate $5.21 billion to the National Cancer Institute (NCI) in fiscal 
year 2006 to continue our battle against cancer.
    The National Institute of Nursing Research (NINR) supports basic 
and clinical research to establish a scientific basis for the care of 
individuals across the life span--from management of patients during 
illness and recovery to the reduction of risks for disease and 
disability and the promotion of healthy lifestyles. These efforts are 
crucial in translating scientific advances into cost-effective health 
care that does not compromise quality of care for patients. 
Additionally, NINR fosters collaborations with many other disciplines 
in areas of mutual interest such as long-term care for older people, 
the special needs of women across the life span, bioethical issues 
associated with genetic testing and counseling, and the impact of 
environmental influences on risk factors for chronic illnesses such as 
cancer. ONS joins with the nursing community in advocating an 
allocation of $160 million for NINR in fiscal year 2006.

                               CONCLUSION

    ONS stands ready to work with policymakers to advance policies and 
support programs that will reduce and prevent suffering from cancer 
this year and sustain and strengthen our nation's nursing workforce. 
Moreover, ONS maintains a strong commitment to working with Members of 
Congress, other nursing societies, patient organizations, and other 
stakeholders to ensure that the oncology nurses of today continue to 
practice tomorrow and that we recruit and retain new oncology nurses to 
meet the unfortunate growing demand that we will face as the baby boom 
generation ages. We thank you for this opportunity to discuss the 
funding levels necessary to ensure that our nation has a sufficient 
nursing workforce to care for the patients of today and tomorrow and 
that our nation continues to make gains in our fight against cancer.
                                 ______
                                 
           Prepared Statement of the Procter & Gamble Company

    Procter & Gamble appreciates the opportunity to provide testimony 
in support of funding for the Interagency Coordinating Committee on the 
Validation of Alternative Methods (ICCVAM) and pain and distress 
research under the jurisdiction of the Labor, Health and Human 
Services, Education and Related Agencies Subcommittee in fiscal year 
2006.
    As a leader in the development of alternatives to animal testing, 
P&G is committed to eliminating animal testing for products intended 
for human use. We are working on a global basis with governments and 
academia to eliminate regulations that require unnecessary animal 
testing and to promote the acceptance of alternatives. To date, P&G has 
devoted significant resources to this effort and helped to develop more 
than 50 proven alternative methods. Despite these advances, it is 
acknowledged that state-of-the-art science cannot replace animal 
research at present and far more research is needed, by governments, 
academia and the private sector, for the development, promotion and 
validation of alternative test methods.

  INTERAGENCY COORDINATING COMMITTEE ON THE VALIDATION OF ALTERNATIVE 
                            METHODS (ICCVAM)

    We were very pleased that Congress enacted Public Law 106-545 by 
unanimous voice vote in both chambers in 2000. This legislation, 
introduced by Senator Mike DeWine (R-OH) and Representatives Ken 
Calvert (R-CA) and Tom Lantos (D-CA), strengthened and made permanent 
the Interagency Coordinating Committee on the Validation of Alternative 
Methods (ICCVAM). The statute has already begun to enhance the federal 
government's capacity to evaluate and adopt chemical testing methods 
that are often faster, cheaper, and more scientifically sophisticated 
than current methods, as well as more responsive to the public's 
concerns about the welfare of animals used in toxicity testing. Public 
Law 106-545 has streamlined the process by which these better methods 
are validated and assessed, and has eased institutional barriers within 
federal agencies that discourage their use.
    ICCVAM performs an invaluable ``win-win'' function for regulatory 
agencies and stakeholders in industry, public health, and animal 
protection by assessing the suitability of new toxicological test 
methods that have interagency application. These new (and newly 
revised) methods include alternative methods that can limit animal use 
or suffering in testing. After appropriate independent peer review of a 
new test method, ICCVAM provides its assessment of the new test to the 
federal agencies that regulate the particular endpoint that the test 
measures. In turn, the federal agencies maintain their authority to 
incorporate the validated test method as appropriate for the agencies' 
regulatory mandates. This streamlined approach to assess the validation 
status of new test methods has reduced the regulatory burden of 
individual agencies, provided ``one-stop shopping'' for industry, 
animal protection, and public health advocates to consider test 
methods, and set uniform criteria for what constitutes a validated test 
method.
    ICCVAM arose from an initial mandate in the NIH Revitalization Act 
of 1993 for the National Institute of Environmental Health Sciences 
(NIEHS) to ``(a) establish criteria for the validation and regulatory 
acceptance of alternative testing methods, and (b) recommend a process 
through which scientifically validated alternative methods can be 
accepted for regulatory use.'' In 1994, NIEHS established an ad hoc 
ICCVAM to write a report that would recommend criteria and processes 
for validation and regulatory acceptance of toxicological testing 
methods that would be useful to federal agencies and the scientific 
community. Through a series of public meetings, interested stakeholders 
and agency representatives from 14 regulatory and research agencies 
developed NIH Publication No. 97-3981, Validation and Regulatory 
Acceptance of Toxicological Test Methods. This report has become the 
``sound science'' guide for consideration of new test methods by the 
federal agencies and interested stakeholders. After publication of the 
report, the ad hoc ICCVAM moved to standing status under the NIEHS' 
National Toxicology Program Interagency Center for the Evaluation of 
Alternative Toxicological Methods (NICEATM). Representatives from 
federal regulatory and research agencies have continued to meet, with 
advice from NICEATM's Scientific Advisory Committee and independent 
peer review committees, to assess the validation of new toxicological 
test methods.
    Since its inception, ICCVAM has conducted rigorous evaluations of 
several test methods and has concluded that these methods are 
scientifically valid, i.e., have been adequately validated, and are 
acceptable for specific purposes. These methods include Corrositex, 
Epiderm, Episkin, and Transcutaneous Epithelial Resistance assays for 
assessing skin corrosivity; the 3T3 NRU Phototoxicity assay for 
assessing phototoxicity; the Local Lymph Node Assay for assessing skin 
sensitization; and the Up and Down Method and various cytotoxicity 
assays for assessing acute systemic toxicity. In turn, the appropriate 
regulatory agencies have incorporated these methods into their 
regulatory practices.
    The open public comment process, input by interested stakeholders, 
and the continued commitment by various federal agencies have all 
enhanced the ICCVAM process. Now, under Public Law 106-545, ICCVAM is 
poised to go beyond its largely passive role of assessing the 
validation status of test methods that have been developed and 
validated by industry and others. ICCVAM should adopt a more proactive 
role in developing and validating promising tests methods in 
partnership with outside stakeholders, to ensure that a steady stream 
of new test methods are available for review and adoption by the 
federal government. Such a proactive stance and partnership with 
stakeholders will enable the federal government to better harness the 
potential of emerging technologies to meet the challenge of efficiently 
testing large numbers of chemicals with minimal cost in terms of money 
and animal lives. With a more proactive approach, ICCVAM could, for 
example, explore the potential of investigator-initiated and small 
business grant programs to further its mission.
    Adequate funding should be provided for ICCVAM to put the resources 
in place to ensure the federal government and industry have the best 
available tools with which to assess the toxic properties of chemicals 
in commerce. To accomplish this, we respectfully request an earmark of 
$3.6 million for fiscal year 2006 and the following Committee Report 
language:

    ``In order for the Interagency Coordinating Committee for the 
Validation of Alternative Methods (ICCVAM) to carry out its 
responsibilities under the ICCVAM Authorization Act of 2000, the 
Committee strongly urges NIEHS to strengthen the resources provided to 
ICCVAM for methods validation reviews in fiscal year 2006. ICCVAM and 
NIEHS activities must include up-front validation study design, 
execution, and review to ensure that new and revised test methods, non-
animal test methods, and alternative test methods (such as QSARs, 
mechanistic screens, high throughput assays, and toxicogenomics) are 
deemed scientifically valid before they are recommended or adopted for 
use by federal agencies or used in implementing the National Toxicology 
Program's Road Map and Vision for NTP's toxicology program in the 21st 
century.''

                       PAIN AND DISTRESS RESEARCH

    An estimated 40 percent of the National Institutes of Health (NIH) 
budget--or currently more than $11 billion--is devoted to some aspect 
of animal research. At this time, no funding is set aside specifically 
for research into alternatives that reduce the amount of pain and 
distress to which research animals are subjected, nor methods that 
replace or reduce the use of vertebrate animals in research. NIH may 
receive $28.8 billion in fiscal year 2006 if Congress fulfills the 
President's budget request. Out of this funding, we seek $2.5 million 
(0.009 percent) for research and development focused on identifying and 
alleviating animal pain and distress. In addition to our request for a 
specific funding amount, we also urge the Committee to specify in 
report language that this research should be conducted in conjunction 
with, or ``piggy-backed'' onto, ongoing research that already causes 
pain and distress. Infliction of pain and distress on additional 
animals is unnecessary, given the volume of existing research (we 
estimate a minimum of 20-25 percent of all animal research) that is 
believed to involve moderate to significant pain and/or distress.
    The large extent to which animals are used in federally-funded 
research underscores the importance of earmarking funds for pain and 
distress research. NIH has a statutory mandate to conduct or support 
research into alternative methods that produce less pain and distress 
in animals. This was specified in the NIH Revitalization Act of 1993 
regarding a plan for the use of animals in research. Earmarked funding 
will assist NIH in meeting this mandate. Additionally, researchers 
themselves often comment publicly at scientific meetings about the 
urgent need for funding in order to properly understand and mitigate 
pain and distress in research animals and to follow Animal Welfare Act 
and Public Health Service policy requirements to minimize pain and 
distress.
    It is well known that uncontrolled, undetected, and unalleviated 
pain and distress has adverse effects on animal welfare, which leads to 
adverse effects on the quality of science. Ultimately, the lack of 
information on pain and distress leads to misinterpretation of research 
results that could result in harmful effects in human beings when pre-
clinical animal research results are applied to humans in clinical 
trials.
    A 2001 survey conducted by an independent polling firm indicates 
that concern about animal pain and distress strongly influences public 
opinion about animal research in general. Seventy-five percent of the 
American public opposes research that causes severe animal pain and/or 
distress, even when it is health-related. Despite this public concern, 
NIH has failed to sponsor research and development aimed at determining 
how to minimize animal suffering and distress in the laboratory.
    During the past several years, our organization has been reviewing 
institutional policies and practices with respect to pain and distress 
in animal research. We have found that research institutions have 
inconsistent policies due to the lack of information on this subject, 
and that standards vary greatly from one institution to another. The 
federal standard for determining laboratory animal pain specifies that, 
if a procedure causes pain or distress to humans, it should be assumed 
to cause pain and distress to animals. Furthermore, while human 
experience can and should provide a useful guide in some cases, there 
are others in which humans are never subjected to the conditions facing 
laboratory animals. Information on pain and distress that animals 
themselves actually experience is important.
    Our nation takes pride in leading the world in biomedical research, 
yet we lag behind many other countries in our efforts to minimize pain 
and distress in animal subjects. For example, the United Kingdom, 
Sweden, Switzerland, Germany, the Netherlands and the European Union 
all have committed funds specifically for the ``three R's'' (replacing 
the use of animals, reducing their use, and refining research 
techniques to minimize animal suffering).
    We urge the Committee to make this small investment of $2.5 million 
to promote animal welfare and enhance the integrity of scientific 
research. We also respectfully request this accompanying committee 
report language:

    ``The Committee provides $2.5 million to support research and 
development focused on improving methods for recognizing, assessing, 
and alleviating pain and distress in research animals. No pain and 
distress should be inflicted solely for the purpose of this initiative, 
since the investigations can and should be conducted in conjunction 
with ongoing research that is believed to involve pain and distress 
under Government Principle IV of Public Health Service Policy, which 
assumes that procedures that cause pain and distress in humans may 
cause pain and distress in animals.''

    Again, we appreciate the opportunity to share our views regarding 
priorities for the Labor, Health and Human Services, Education and 
Related Agencies Appropriation Act of fiscal year 2006. We hope the 
Committee will be able to accommodate these modest requests that will 
benefit animals, enhance effectiveness of toxicological testing, and 
improve the quality of research. Thank you for your consideration.
                                 ______
                                 
  Prepared Statement of the Society for Animal Protective Legislation

    On behalf of the Society for Animal Protective Legislation (SAPL) 
and Doris Day Animal League I would like to discuss several important 
issues within the jurisdiction of this committee. In addition, SAPL 
endorses the funding request by the Doris Day Animal League for fiscal 
year 2006 to operate the National Institute of Environmental Health 
Sciences' (NIEHS) National Toxicology Program Interagency Center for 
the Evaluation of Alternative Toxicological Test Methods (NICEATM) for 
Interagency Coordinating Committee for the Validation of Alternative 
Methods (ICCVAM) activities for fiscal year 2006.

CRIMINAL ANIMAL CRUELTY CHARGES FILED AGAINST NIH'S ALAMOGORDO PRIMATE 
                                FACILITY

    For years, the NIH funded the New Mexico-based Coulston Foundation 
primate testing lab with millions of taxpayer-funded dollars despite 
the lab's continued violations of the Animal Welfare Act. Compliance 
with federal animal welfare laws is a requirement for receipt of 
federal funds. The Coulston situation resulted in unprecedented 
regulatory action by the U.S. Department of Agriculture, international 
media interest, and intense Congressional scrutiny. The NIH's actions 
at Coulston prompted the House Committee on Energy and Commerce to 
launch a broad investigation of the mismanagement of billions of 
dollars in taxpayer-funded grants by NIH.
    Under the intense pressure from Congress, the NIH eventually 
stopped funding the Coulston lab. The agency assumed ownership of the 
facility located on Holloman Air Force Base, renamed it the Alamogordo 
Primate Facility (APF), and in June 2001 awarded Charles River 
Laboratories with a 10-year, $42 million contract to operate the lab, 
which houses approximately 265 government-owned chimpanzees. The NIH is 
legally responsible for the ``day-to-day management'' of the APF 
including its ``associated animal activities.'' The APF is an 
intramural NIH lab and is listed under the agency's Animal Welfare 
Assurance.
    One would think that after the years of Coulston abuses--and the 
accompanying NIH malfeasance that prompted a Congressional 
investigation--the agency would be that much more careful to ensure 
that the lab it now directly owns and manages would comply with the 
most basic precepts of animal welfare and simple human decency.
    One would be wrong.
    In September 2004, New Mexico District Attorney Scot Key filed 
multiple counts of criminal animal cruelty, accusing the NIH's 
handpicked contractor, Charles River Laboratories, and APF Director, 
veterinarian Rick Lee, of institutional negligence in the deaths of two 
chimpanzees and the near-death of a third. The D.A.'s independent 
criminal investigation found that it was ``standard practice'' for 
Charles River to leave critically ill chimpanzees in the ``care'' of 
security guards after trained animal care staff repeatedly walked off, 
clocking out at the end of the workday around 4:00 p.m.
    Because the APF is a federal research facility, it is required to 
comply with the Animal Welfare Act, but the USDA has no jurisdiction to 
enforce it. In 2001, the New Mexico legislature, prompted by the 
continuing abuses at Coulston and the federal government's inability to 
stop them, amended the state's animal cruelty statute to remove the 
blanket exemption for research facilities.
    In September 2003, the NIH was informed that the D.A. had initiated 
a criminal investigation against Charles River; that APF Director Lee 
had illegally threatened employees with lie detector tests in an 
attempt to find out who had leaked information about the treatment of 
the chimpanzees; and that the allegations were worse than anything ever 
documented at the Coulston lab. On October 1, 2003, an ad hoc NIH 
consultant, veterinarian Thomas Butler, conducted a one-day site visit 
along with the NIH official, Dr. Raymond O'Neill, in charge of 
overseeing the contract with Charles River. Butler's ``site visit'' 
report--compiled in less than one day by an ad hoc NIH consultant with 
no law enforcement authority--was neither thorough nor an 
investigation. Indeed, it completely failed to address the heart of the 
criminal charges: Charles River's abandonment of the three 
chimpanzees--including Rex, who was unconscious and vomiting--to 
security guards. In stark contrast to the NIH consultant's report, 
multiple eyewitnesses named in the D.A.'s months-long independent 
criminal investigation corroborated the criminal charges.
    On March 23, 2005, New Mexico judge Jerry Ritter accepted Charles 
River's argument that it was engaged in the practice of veterinary 
medicine, and dismissed the charges; he issued no written opinion 
regarding the other legal technicalities. By making this argument, 
Charles River and the NIH have conceded that for them, the ``practice 
of veterinary medicine'' constitutes intentional and repeated 
abandonment of critically ill or injured chimpanzees to once-per-hour 
observation by untrained security guards.
    Charles River never denied the facts alleged by the D.A. in the 
criminal charges, and the judge's decision did not deny the merits of 
the case. For now, Charles River and the NIH are accountable to 
absolutely no legitimate law enforcement authority. Neither the D.A., 
the USDA, nor the New Mexico Veterinary Board have any jurisdiction 
over the APF. The only ``oversight'' is provided by the NIH--the very 
definition of a conflict of interest--whose malfeasance at this very 
same facility when it was operated by the Coulston Foundation prompted 
a Congressional investigation of the entire agency.
    After the years of abuse at Coulston, the situation at this 
government-owned facility descended into alleged criminal animal 
cruelty while the agency was paying Charles River millions of tax 
dollars annually, including $175,000 in maximum bonus incentives. 
Charles River and the NIH have never denied the cold, cruel facts 
alleged by the D.A. in criminal charges resulting from a months-long 
independent criminal investigation conducted by a 24-year police 
veteran.
    Charles River and the NIH cannot be allowed to evade their 
culpability by hiding behind legal technicalities, half-truths and the 
typical NIH whitewash. This small-town District Attorney was attempting 
to uphold the law and do the job that a $28 billion federal agency has 
refused to do. We urge Congress to step into this gaping void of 
oversight and hold accountable the perpetrators of this unconscionable 
cruelty and their violation of the most basic standards of simple human 
decency. Congress should continue to actively investigate NIH's 
mismanagement of the APM and hold public hearings into the situation.

 NIH FAILS TO ADDRESS THIS SUBCOMMITTEES CONCERN ON ILLEGALLY ACQUIRED 
                             DOGS AND CATS

    Approximately 90,000 dogs and cats are used for experimentation in 
the United States each year. The vast majority of these animals are 
obtained from breeders who raise the animals under controlled 
conditions and have extensive information on their genetic background 
and health and vaccination status. In addition, some dogs and cats are 
being bred for experimentation at research facilities like the 
University of Texas, and in some cases, inexpensive random type animals 
are purchased directly from animal pounds.
    Despite extensive documentation strongly discouraging the practice, 
some research facilities are foot-dragging by continuing to buy dogs 
and cats from random source dealers. These dealers, with a Class B 
license designation by the U.S. Department of Agriculture (USDA), are 
notorious for selling animals to laboratories that have been acquired 
illegally and for their widespread failure to comply with other minimum 
requirements under the Animal Welfare Act.
    The saga of C.C. Baird is a prime example of the problem. Baird was 
a licensed dealer who sold random source dogs and cats for 
experimentation for about 15 years. More than a year and a half ago, 
126 animals were seized by federal authorities because their health was 
in jeopardy. And shortly thereafter USDA finally filed charges against 
him for hundreds of violations of the Animal Welfare Act stating, ``The 
violations alleged in this complaint are of the utmost seriousness, and 
include severe mistreatment and neglect of a multitude of animals in 
respondents' custody, falsification of health certificates for dogs and 
cats that respondents sold to research facilities, multitudinous 
record-keeping deficiencies and instances of noncompliance with the 
barest standards of care, husbandry and housing for dogs and cats.'' 
The charges against Baird included failure to provide adequate 
veterinary care and illegal acquisition of animals.
  --Dog Dealer's Day of Reckoning: http://www.awionline.org/pubs/
        Quarterly/03-52-4/524p1011.htm
  --A Glimpse Behind the Kennel Door: http://www.awionline.org/pubs/
        Quarterly/04-53-3/533p16.htm
  --Random Source Dealer Surrenders: http://www.awionline.org/pubs/
        Quarterly/05-54-1/541p2.htm
    Despite all of this, several registered research facilities 
including the University of Missouri continued to purchase animals from 
him. Unless NIH gives proper direction, some institutions will continue 
to place a higher priority on a cheap, ready supply of dogs than 
ensuring that animals are legally acquired and properly cared for. 
Thankfully, Baird has finally been put out of business. In fact, less 
than 20 Class B dealers remain, but the problems will persist until 
their number is reduced to zero.
    NIH has told this Subcommittee that it is ``committed to ensuring 
the appropriate care and use of animals in research.'' However, NIH has 
left the decision of whether or not to buy dogs and cats from random 
source dealers ``to the local level on the basis of scientific need.'' 
NIH defends the use of Class B dealers arguing that these dealers are 
needed to obtain ``animals that may not be available from other 
sources, such as genetically diverse, older, or larger animals.'' In 
fact, in the rare circumstance that a researcher asserts the need for 
such animals, they can be obtained directly from pounds as noted 
previously.
    The distinction between non-purpose-bred animals from pounds versus 
Class B dealers must be made. By using Class B dealers (middlemen) 
instead of pounds, researchers are contributing to the problem. In 
their search to fill researchers' demands for ``genetically diverse, 
older or larger animals,'' random source dealers and their suppliers 
may be stealing pets from backyards and farms or they are acquiring 
animals through fraud by collecting animals offered ``free to a good 
home.''
    All animals used in research should be obtained from legitimate 
sources.
    Taxpayer dollars, in the form of NIH extramural grants, must not 
continue to fund purchase of dogs and cats from dealers whose modus 
operandi are pet theft, acquisition of pets by fraud, payments made 
under the table and other illegal activities. Proper oversight of NIH's 
dispersal of extramural grants is urgently needed. We respectfully 
request that this Subcommittee include the following language in the 
HHS appropriations bill: ``None of these funds shall be used for 
research which utilizes dogs and/or cats obtained from random source 
dealers.''
                                 ______
                                 
           Prepared Statement of the Tri-Council for Nursing

    The Tri-Council for Nursing is an alliance of four national nursing 
organizations--the American Association of Colleges of Nursing (AACN), 
the American Nurses Association (ANA), the American Organization of 
Nurse Executives (AONE), and the National League for Nursing (NLN). 
Focused on leadership and excellence in nursing, the Tri-Council 
represents the breadth of the nursing profession including practicing 
nurses, nurse executives, nurse educators, and nurse researchers.
    The Nursing Workforce Development Programs under Title VIII of the 
Public Health Service Act strive to meet the health needs of the nation 
by assuring an adequate supply and distribution of qualified nursing 
personnel. These Programs increase access to quality care through 
improved composition, diversity, and retention of the nursing 
workforce; improved quality of nursing education and practice; and the 
identification of and use of data, and program performance measures and 
outcomes to make informed decisions on nursing workforce issues. The 
Tri-Council for Nursing urges Congress to ensure that adequate funding 
is available to address the critical nursing shortage through the 
Nursing Workforce Development Programs authorized by Title VIII of the 
Public Health Service Act.
    This testimony highlights the fundamental importance of the Nursing 
Workforce Development Programs as they relate to an adequately prepared 
nursing workforce. As an example, we would like to bring the public 
health role of nurses and the vital services they are providing to this 
nation today to the forefront of your attention.
    Nurses are a critical, but often unrecognized, component of the 
federal medical response to major emergencies and disasters, both 
natural and manmade. In the case of a major emergency, nurses have and 
will continue to be called upon to assist with chemoprophylaxis (oral 
or injectable medications/vaccinations) of hundreds of thousands or 
millions of Americans. The Office of Public Health Preparedness at the 
Health Resources and Services Administration (HRSA) estimates that a 
population of 100,000 people attacked by biological weapons would 
require 200 personnel working 100 hours just to deliver 
chemoprophylaxis. This effort would require approximately 16,171 
trained persons for a city the size of New York. Nurses will also be 
called upon to assist with the planned use of ``special needs 
shelters'' during disasters. People in special needs shelters may 
include an insulin-dependent diabetic who requires frequent monitoring, 
epileptic persons with a history of unstable seizure activity, and 
persons with disabilities requiring assistance with activities of daily 
living.
    Today's nursing shortage is very real and very different from any 
experienced in the past. It is evidenced by acute shortages of 
registered nurses (RNs) who are adequately prepared to meet patient 
care needs in a changing health care environment across the country. 
Although applications and enrollments for nursing programs have 
increased due to the major marketing efforts of corporations and health 
care providers, a serious nursing faculty shortage prevents the 
expansion of nursing programs to educate the number of nurses needed 
now and in the future. Studies have shown that unless dramatic steps 
are taken, the supply of appropriately prepared nurses will fall far 
short of what is needed to meet the needs of a diverse population and 
that this shortfall will grow more serious over the next 20 years. 
Since RNs represent the largest portion of our health care workforce, 
the shortage threatens the very essence of our health care system.
    In February 2004, the Bureau of Labor Statistics reported that 
registered nursing would have the greatest job growth of all 
professions in the United States in the years spanning 2002 to 2012. 
During this ten-year period, health care facilities will need to fill 
more than 1.1 million RN job openings. HRSA projects that, absent 
aggressive intervention, the RN workforce will fall 29 percent below 
requirements by the year 2020.
    The increasing health care demands of an aging population and 
changes in the country's nursing work-force have combined to create a 
shortage unlike any other. A fundamental shift has occurred in the RN 
workforce over the last two decades. As occupational opportunities for 
young women have expanded, and the changing health care environment has 
increased stresses on nursing, the number of young people entering the 
profession has declined resulting in a steady and dramatic increase in 
the average age of the nurse. Today, the average working RN is more 
than 43 years old.

           NURSES--INCREASING ACCESS TO QUALITY PATIENT CARE

    Studies have shown that insufficient numbers of nurses contribute 
to medical errors, poor patient outcomes, and increased mortality 
rates. A study published in the May 30, 2002, New England Journal of 
Medicine reported that higher levels of nursing care correlate with 
better patient care. Another study published in the October 23, 2002, 
Journal of the American Medical Association found that among the 
surgical patients studied, a pronounced correlation existed between 
nursing shortages and both patient mortality and failure to rescue.
    By the year 2025, 68.3 percent of the current nursing workforce 
will be among the first of 78 million baby boomers reaching retirement 
age and enrolling in the Medicare program. By 2030, 20 percent of the 
population--70 million--will be older Americans, more than twice their 
number in 1999. The emerging complex health and social conditions of an 
aging population demonstrate the need for more and experienced nurses 
to care for this special population. Funding to support additional 
research and education in this area is needed.
    Nurses can increase the public's access to quality primary health 
care through advanced practice registered nurses (APRNs), RNs who have 
attained advanced expertise in the clinical management of health 
conditions. Typically, an APRN holds a master's degree with advanced 
didactic and clinical preparation beyond that of the RN. Practice areas 
include, but are not limited to, anesthesiology, family medicine, 
gerontology, pediatrics, mental health, and midwifery. APRNs include:
    Nurse Practitioners (NPs) who diagnose and treat common illnesses 
and injuries; provide immunizations; manage high blood pressure, 
diabetes, and other chronic problems; order and interpret lab tests; 
and counsel patients on adopting healthy lifestyles. Research confirms 
that NPs improve the public's access to high quality care at a cost 
savings to the system while a landmark study published in 2000 in the 
Journal of the American Medical Association indicates that NP quality 
of care is equal to that of physicians.
    Clinical Nurse Specialists (CNSs) who provide care in a range of 
specialty areas, such as oncology, neonatal, and obstetric/
gynecological nursing, pediatrics, and psychiatric/mental health while 
working in hospitals and other clinical sites. CNSs develop quality 
assurance procedures and serve as educators and consultants. An 
estimated 69,000 CNSs are currently in practice.
    Certified Nurse-Midwives (CNMs) who provide prenatal and 
gynecological care to normal healthy women; deliver babies in 
hospitals, private homes, and birthing centers; and continue with 
follow-up postpartum care. Of all visits to CNMs, 90 percent are for 
primary, preventive care that includes gynecologic care such as annual 
exams and reproductive health visits.
    Certified Registered Nurse Anesthetists (CRNAs) who administer more 
than 65 percent of all anesthetics given to patients each year, and are 
the sole anesthesia providers in approximately two-thirds of all rural 
hospitals.
    As more acute public health needs exist in our communities, nurses, 
through their professional qualifications and sheer numbers, are at the 
very core of the nation's public health infrastructure.
    ``Nurse managed centers'' (NMCs) play an important role in the 
health services delivery system and offer a unique approach to primary 
care that emphasizes health promotion and disease prevention, 
particularly in underserved communities. They often serve at-risk 
persons who might not otherwise receive health care. About half of all 
their patients are uninsured and many are unable to turn elsewhere for 
medical care. In the Philadelphia region, for example, nurses at nurse-
managed health centers see their patients almost twice as often as 
other providers see theirs; their patients are hospitalized 30 percent 
less and use the emergency department 15 percent less often than those 
patients of other health care providers. Unfortunately, NMCs often 
struggle or fail to remain financially viable; the centers themselves 
need a safety net to survive financially.
    The Nursing Workforce Development Programs of Title VIII provide 
the ability to maintain and expand the availability of a qualified 
nursing workforce and facilitate the integration of underrepresented 
populations into nursing.
    Section 811.--The Advanced Education Nursing Program--funds 
traineeships for individuals preparing to be nurse practitioners, nurse 
midwives, nurse administrators, and public health nurses. In addition, 
grants are awarded to nursing schools to support education and training 
of APRNs.
    Section 821.--The Nursing Workforce Diversity Program--funds grants 
to increase nursing education opportunities for individuals who are 
from disadvantaged backgrounds by providing student stipends, pre-entry 
preparation, and retention activities. These opportunities ensure a 
culturally diverse workforce to provide health care for a culturally 
diverse patient population.
    Section 831.--The Nurse Education, Practice and Retention Program--
provides grant support for academic and continuing education projects 
designed to strengthen the nursing workforce. Several of this program's 
priorities apply to quality patient care including developing cultural 
competencies among nurses and providing direct support to establishing 
or expanding NMCs in non-institutional settings to improve access to 
primary health care in medically underserved communities. It also 
serves to provide grants to eligible entities to improve retention of 
nurses and enhanced patient care.
    Section 846.--The Loan Repayment and Scholarship Programs--is 
divided into two primary components. The Nursing Education Loan 
Repayment Program assists individual registered nurses by repaying up 
to 85 percent of their qualified educational loans over three years in 
return for their commitment to work at health facilities with a 
critical shortage of nurses. Similarly, the Nurse Scholarship Program 
provides financial aid to individual nursing students in return for 
working a minimum of two years in a health care facility with a 
critical nursing shortage.
    Section 855.--The Comprehensive Geriatric Education Grant Program--
focuses on training, curriculum development, faculty development, and 
continuing education for nursing personnel caring for the elderly.

                      NURSES--EDUCATING THE FUTURE

    At nursing schools across the nation, a surge of qualified 
applicants, who could ease the worsening shortage of nurses, is being 
turned away because schools of nursing are suffering from a continuing 
and growing shortage of faculty. This situation is not expected to 
improve in the near term, since an adequate number of nurse educators 
are currently not in the education pipeline.
    The nursing faculty shortfall is driven by health care jobs that 
offer better pay than faculty positions and by fewer nurses pursuing 
the doctorate required for full-time teaching positions. Just as with 
the nursing workforce, the faculty is graying and a wave of retirements 
is expected about the same time when more care will be needed for aging 
baby boomers. An insufficient faculty was the top reason cited by 
nursing schools for not accepting all qualified applicants into entry-
level programs for the 2004-2005 academic year. Just as important as 
educational incentives are for future practicing nurses, the 
scholarships for doctoral students who will instruct the next 
generation of nurses are even more critical.
    Title VIII funding bolsters existing programs to increase the 
number of qualified nurse faculty.
    Section 846A.--The Nurse Faculty Loan Program--supports the 
establishment and operation of a loan fund within participating schools 
of nursing to assist RNs to complete their education to become nursing 
faculty. The Program provides a cancellation provision in which 85 
percent of the loan may be cancelled over four years in return for 
serving full time as faculty in a school of nursing.
    Section 811.--The Advanced Education Nursing Program--provides 
trainee support for individuals preparing to be nurse educators. These 
funds support master's and doctoral programs, combined RN/master's 
degree programs, and post-nursing master's certificate programs.

                                SUMMARY

    While the Tri-Council for Nursing is encouraged by a recent 
resurgence of interest in the nursing profession, we are concerned that 
the funding levels for the Title VIII--Nursing Workforce Development 
Programs are insufficient to assist qualified students to enter, 
advance, and remain within the nursing profession. The nursing shortage 
will continue to worsen if significant investments are not made in 
these Title VIII programs. Recent efforts have shown that aggressive 
and innovative strategies can help avert the impending nursing 
shortage--if they are adequately funded. The contributions of nurses in 
our health care system are complex and multifaceted, and are directly 
impacted by the level of federal funding that supports nursing 
programs.
                                 ______
                                 
       Prepared Statement of Patient Services Incorporated (PSI)

    PATIENT SERVICES INCORPORATED MEDICAL INSURANCE AND CO-PAYMENT 
           ASSISTANCE CASE MANAGEMENT PROGRAM FOR HEPATITIS C

    PSI believes that its 16 years of proven patient assistance and 
results can and will translate into providing successful solutions to 
two major challenges in healthcare policy that the United States is 
currently facing:
  --Providing standard comprehensive health insurance coverage for the 
        uninsured and the underinsured in this country.
  --Developing a public-private partnership to solving this problem in 
        light of the tightening budget constraints at the federal and 
        state government levels.
    With our goals and vision in mind, PSI would use the federal 
resources to further develop and augment the Medical Insurance and Co-
payment Assistance Case Management Program for Hepatitis C to save 
federal and state government resources in this era of fiscal austerity. 
PSI intends to do this by:
  --Assisting Medicaid eligible patients affected with the Hepatitis C 
        virus (HCV) by transitioning these patients into the private 
        insurance market. According to our research, 10 percent to 15 
        percent of the Hepatitis C patient population on Medicaid who 
        are responding positively to the Pegylated Alpha Interferon/
        Ribavirin Combination treatment regimen can return to work. A 
        positive response to the regimen can be defined as having such 
        a low amount of the virus in your cell system that the viral 
        load is undetectable. This portion of the population can re-
        enter the workforce, thus returning to the status of taxpayer 
        and transition off the Medicaid roles.
  --PSI will use a portion of the federal funds to purchase health 
        insurance premiums through State High-Risk policies, Guaranteed 
        Issue policies, and/or Open Enrollment policies for these 
        patients thus freeing up Medicaid dollars. These patients will 
        then be eligible to re-enter the workforce, and ultimately be 
        covered by an employer funded benefits package.
  --Assisting the segment of the Hepatitis C patient population not 
        eligible for Medicaid, such as those patients enrolled in the 
        Medicare program, state assistance programs, as well as those 
        patients underinsured or uninsured.
    --PSI can assist patients on Medicare by satisfying the co-payment 
            for the expensive, but life-altering treatment regiments.
    --PSI can assist those patients receiving treatments through state 
            assistance programs by transitioning them into the private 
            insurance market.
    --PSI can assist those patients who are uninsured and underinsured 
            by transitioning them into the private insurance market.
    Over the last 9 years, PSI has proven that as an organization it 
can be an effective steward of taxpayer's dollars. For a $1 million 
investment by the federal government, PSI believes it can assist 1,200 
to 1,500 patients. This investment could have the potential once fully 
implemented to save the federal and state governments $10 million a 
year.

Is your project a labor, health and human services, or education 
        request?
    Health and Human Services

Within the Labor, Health and Human Services, Education Appropriations 
        Bill, the specific account within which funding is sought
    Centers for Medicare and Medicaid Services (CMS): Research, 
Demonstration and Evaluation Program.

Amount Requested
    $1,000,000 for fiscal year 2006; $1,000,000 for fiscal year 2007; 
$1,000,000 for fiscal year 2008.
How, specifically the federal funds will be spent, if obtained?
    PSI asks Congress to establish a demonstration project through the 
Department of Health and Human Services, Centers for Medicare and 
Medicaid Services, which will assist Medicare and Medicaid eligible 
individuals, who are infected with the Hepatitis C virus (HCV) and 
desiring assistance, to identify and subsidize individual health 
insurance policies. By providing premium and co-payment assistance, PSI 
will save federal Medicare and Medicaid dollars.
    PSI will begin the Medical Insurance and Co-payment Assistance 
Management Program for Hepatitis C by the Summer of 2005.
Federal funding history of the organization
    This is the first year that Patient Services Incorporated has made 
a federal funding request.
List the amount state, local and private funds being used to support 
        the project. Indicate the proposed federal share of the project
    PSI is in the final stages of development of a co-payment 
assistance program with private sector industry. The industry support 
will provide PSI with funds to develop a disease management program for 
patients infected with Hepatitis C. This program would provide PSI with 
key funds to launch this pilot program, which would provide pharmacy 
co-payment assistance for the treatment regiment of Hepatitis C.
    The private funds provided to PSI will initially assist 100 
patients nationwide. PSI will also continue to reach out to other 
manufacturers of Hepatitis C treatments for further development of this 
program. The infusion of federal resources will assist in developing 
the PSI Medical Insurance and Co-payment Assistance Case Management 
Program for Hepatitis C into a more comprehensive program.
    Proposed federal share: $1 million per year, for 3 years.
Report language requested
    Recommend Report Language Centers for Medicare and Medicaid 
Services, Program Management of the Medicare and Medicaid Research, 
Demonstration and Evaluation program.
    The committee has included $1,000,000 for a demonstration project/
pilot program with Patient Services Incorporated of Midlothian, 
Virginia to save federal health care costs by subsidizing private 
health insurance coverage for individuals suffering from the Hepatitis 
C virus (HCV). The committee requests a report on the results of this 
unique and potentially cost-saving program.
Members of Congress are you working with on this request
    Senator John Warner (R-VA) and Senator George Allen (R-VA).
Please share any additional information you deem important
    Currently there is authorization for programs such as PSI's 
proposal under the following bills:
    (1) Centers for Medicare and Medicaid Research, Demonstration and 
Evaluation Program is an existing, statutory program.
    (2) The Medicare Modernization Act authorizes demonstration 
projects for innovative programs to reduce federal health care costs, 
and for chronic care improvement pilot projects.
    Pertinent background information and justification for this 
appropriations request:
Patient Services Incorporated Demonstration Project/Pilot Program: 
        Covering the Uninsured with Chronic and Catastrophic Illness
    PSI is a national, non-profit organization committed to supporting 
people with specific chronic illnesses and conditions by locating and 
securing solutions with health insurance by paying health insurance 
premiums and pharmacy co-payments in order to help improve their 
quality of life. PSI's vision for the future is to become the premier 
national non-profit organization in developing strategies and programs 
through collaboration with federal and state governments, corporations 
and individuals to address gaps in public and private health care 
coverage.
    PSI asks Congress to establish a demonstration project through the 
Department of Health and Human Services, Centers for Medicare and 
Medicaid Services, which will assist Medicare and Medicaid eligible 
individuals, who are infected with the Hepatitis C virus (HCV) and 
desiring assistance, to identify and subsidize individual health 
insurance policies. By providing premium and co-payment assistance, PSI 
will save federal Medicare and Medicaid dollars.
Background on PSI
    Founded in 1989, PSI has spent the last fifteen years working with 
patients from the chronic disease community. PSI currently assists 
patients nationwide with the expensive costs of seventeen chronic 
illnesses and acute conditions. A few examples are those with 
Hemophilia, Alpha 1, Rheumatoid Arthritis, Crohn's Disease, Immune 
Deficiencies, Psoriasis and Multiple Sclerosis. PSI saves families from 
becoming financially devastated when a member is diagnosed with an 
expensive chronic illness. The PSI model provides the means for 
patients to become insured and have choices of treatments and 
providers.
    Private contributors, foundations, and corporate sponsors donate 
resources to PSI. PSI uses these resources to help families avoid 
turning to government sponsored social service programs. Families are 
offered assistance based upon the severity of their medical and 
financial needs, which is determined through an application process, a 
procedure that is unique to PSI. PSI has developed a sliding scale 
formula specifically designed to capture the working middle class 
person, providing the family with a safety net from financial ruin and 
assuring a successful return to work outcome. PSI does this by working 
with patients to gain access to insurance through State High Risk 
Insurance Pools, Open Enrollment, and Guaranteed Issue health insurance 
policies. PSI also assists patients in maintaining COBRA policies for 
those who qualify. PSI is committed to working with the chronically ill 
to ensure that they have the resources to meet their specific and 
costly health care needs.
    PSI is in the unique position of tackling head-on the acute problem 
of locating and ultimately paying for health insurance for the 
uninsured population in the United States. Currently the United States 
Census Bureau reports that there are over 44 million Americans who have 
no health insurance for a time period of one year or more. However, 
over 80 million Americans are without health insurance for some period 
of time during any given year. PSI can assist individuals in both 
categories. Since 1996, PSI also has successfully worked with State 
Health Department Title V programs, such as, Children With Special 
Health Care Needs and Childrens Rehabilitative Services (Medicaid). The 
PSI model has saved the Commonwealth of Virginia over $12 million since 
1996 and the state of Kentucky over $5 million in program costs since 
2000.
    In 2002, the U.S. Department of Health and Human Services' Office 
of the Inspector General issued a positive opinion endorsing the PSI 
model of premium assistance and sanctioning the co-payment assistance 
for Medicare patients. The Centers for Medicare and Medicaid Services 
acknowledged in its recent 641 Replacement Drug Demonstration Project 
that charitable organizations, like PSI, can assist patients with the 
out of pocket expenses associated with certain replacement drugs.
    It is no secret the chronic illnesses are both financially and 
emotionally draining for patients and families to cope with. Treating 
chronic conditions also accounts for the largest percentage of spending 
within the Medicare budget. The costliest five percent of Medicare 
beneficiaries account for about half of all Medicare spending each 
year. PSI has developed programs to help many of the families afflicted 
by these costly diseases; their Medical Insurance and Co-payment 
Assistance Case Management Program for Hepatitis C holds a great deal 
of promise for individuals and families who are affected by this virus 
and the accompanying complications.
Hepatitis C
    The Hepatitis C virus (HCV) is a disease of the liver that has 
potentially fatal outcomes. In the majority of Hepatitis C cases, 
infection becomes chronic and slowly damages the liver over many years. 
During this time, the liver damage can lead to cirrhosis (scarring) of 
the liver, end-stage liver disease, and liver cancer. In the United 
States, Hepatitis C affects close to 4 million people, making the 
disease more prevalent than HIV/AIDS infection. The costs for providing 
care for patients with HCV-associated liver disease in the United 
States are estimated to range from $758 million to several billion 
dollars annually. Hepatitis C infections are expected to increase to 
10.8 million Americans in the next decade, leading to a major drain on 
government health resources and increased health costs.
    Hepatitis C can be treated; early diagnosis and treatment are 
crucial to being able to control the progression of the disease and 
reduce the chances of further liver damage. There are instances where 
the treatment has taken a protracted time to show any positive results 
in lowering the viral load of patients, and in certain cases the 
treatment may not change the progression of the disorder. Currently, 
the National Institutes of Health (NIH) recommends that Hepatitis C 
patients receive pegylated alpha interferon treatment in combination 
with the antiviral drug, Ribavirin. Three different agents are used in 
this treatment approach:
  --Alpha Interferons.--A protein made naturally by your body to boost 
        your immune system and to regulate other cell functions. All of 
        the currently approved treatments for chronic Hepatitis C 
        include some form of natural or synthetic alpha interferon.
  --Pegylated Alpha Interferon.--Made by attaching a large water-
        soluble molecule call polyethylene glycol (PEG) to the alpha 
        interferon molecule. These modified alpha interferons stay in 
        the body longer and studies show they are more effective in 
        producing a sustained viral response in patients with chronic 
        Hepatitis C.
  --Ribavirin.--An antiviral drug that is used with manufactured forms 
        of alpha interferon for the treatment of chronic Hepatitis C. 
        Ribravirin by itself has not been shown to be effective against 
        the Hepatitis C virus, but in combination with forms of alpha 
        interferon is a much more successful treatment than alpha 
        interferon alone.
    The Pegylated Alpha Interferon/Ribavirin Combination treatment 
regimen is expensive; according to the 2003 Red Book Update, the costs 
range from $24,000 to $48,000 for the drug alone. These costs do not 
include fees for administering the drugs, laboratory visits, and 
medical tests associated with HCV. Hepatitis C is an expensive chronic 
illness; PSI is able to work with the federal government to assist this 
community to ensure that it receives quality care in an economically 
efficient way.
                                 ______
                                 
           Prepared Statement of the Society for Neuroscience

                              INTRODUCTION

    Mr. Chairman and members of the subcommittee, I am Dr. Carol Barnes 
of the University of Arizona and President of the Society for 
Neuroscience (SfN). I am here today in my capacity as the President of 
SfN to urge your support of biomedical research. SfN represents the 
entire range of scientific research endeavors aimed at understanding 
the nervous system and translating this knowledge to the treatment and 
prevention of nervous system disorders. It fosters the broad 
interdisciplinarity of the field, which uses multiple perspectives to 
study the nervous system of organisms ranging from invertebrates to 
humans across various stages of development, maturation, and aging.

                 WHAT IS THE SOCIETY FOR NEUROSCIENCE?

    The Society for Neuroscience is a nonprofit membership organization 
of basic scientists and physicians who study the brain and nervous 
system. Neuroscience includes the study of brain development, sensation 
and perception, learning and memory, movement, sleep, stress, aging, 
and neurological and psychiatric disorders. It also includes the 
molecules, cells, and genes responsible for nervous system functioning 
and human behavior.
    The 36,000 members of SfN include basic researchers studying the 
many neuroscience disciplines and clinicians specializing in neurology, 
neurosurgery, psychiatry, ophthalmology, and related fields. In 1970, 
neuroscience barely existed as a separate discipline. Today, there are 
more than 300 training programs in neuroscience alone. The field of 
neuroscience has made startling discoveries that have transformed our 
understanding of the healthy brain and helped to deliver treatments of 
disorders affecting millions.

         NATIONAL INSTITUTES OF HEALTH'S NEUROSCIENCE BLUEPRINT

    The NIH Neuroscience Blueprint is a framework to enhance 
cooperation among 15 NIH Institutes and Centers that support research 
on the nervous system. Over the past 10 years, driven by the science, 
the NIH neuroscience Institutes and Centers have increasingly joined 
forces through initiatives and working groups focused on specific 
disorders. The Blueprint builds on this foundation, making 
collaboration an everyday part of how the NIH does business in 
neuroscience. By pooling resources and expertise, the Blueprint can 
take advantage of economies of scale, confront challenges too large for 
any single institute, and develop research tools and infrastructure 
that will serve the entire neuroscience community.
    Last year, the Blueprint participants developed a set of 
initiatives focused on tools, resources, and training with immediate 
impact because they would build on existing programs. These initiatives 
include an inventory of neuroscience tools funded by the NIH and other 
government agencies, enhancement of training in the neurobiology of 
disease for basic neuroscientists, and expansion of ongoing gene 
expression database efforts, such as the Gene Expression Nervous System 
Atlas (GENSAT).
    Advances in the neurosciences and the emergence of powerful new 
technologies offer many opportunities for Blueprint activities that 
will enhance the effectiveness and efficiency of neuroscience research. 
Blueprint initiatives for fiscal year 2006 will include systematic 
development of genetically engineered mouse strains of critical 
importance to research on the nervous system and its diseases and 
training in critical cross cutting areas such as neuroimaging and 
computational biology.
    Several of the most common causes of death and disability, as well 
as hundreds of rare disorders, affect the brain, spinal cord, or nerve 
cells in the eye, ear, or elsewhere in the body. The vast array of 
nervous system disorders encompasses mental illness, neurological 
disease, drug and alcohol abuse, chronic pain conditions, developmental 
disorders, and dementias of aging. Numerous problems of hearing, 
vision, and other senses also include a brain component, and are 
serious health issues.
    In fiscal year 2006, NIH intends to allocate $26 million, with $14 
million contributed by collaborating institutes and centers, for 
Blueprint initiatives as follows:
  --Neuromouse Project.--developing genetically engineered mouse 
        strains specifically for nervous system disease research;
  --Cross-Institute Neuroscience Training Programs.--training in 
        critical cross-cutting areas such as neuroimaging and 
        computational biology;
  --Neuroscience Core Grants.--supporting specialized, 
        interdisciplinary ``core'' centers that might focus on areas 
        such as animal models, cell culture, computer modeling, DNA 
        sequencing, drug screening, gene vectors, imaging, microarrays, 
        molecular biology, or proteomics and their applications to 
        neuroscience research;
  --Translation of Discoveries.--accelerating the translation of basic 
        neuroscience discoveries into better ways to treat and prevent 
        nervous system diseases; and
  --Analytical Methods and Conceptual Models.--spurring the development 
        of new analytical methods and conceptual models to study 
        disease and allow for increased coordination among public 
        education and outreach campaigns involving the brain and 
        nervous system.

                            ACCOMPLISHMENTS

    The Society for Neuroscience would like to thank you for your past 
support. In the last 10 years, funding from the NIH and the Department 
of Veterans Affairs has helped scientists make great progress in 
helping people in many areas, including:
    1. Bipolar disorder.--Also known as manic depression, bipolar 
disorder is a serious brain disease that causes extreme mood swings, 
from intense feelings of euphoria (mania) to deep depression. Past 
funding from NIH and the Department of Veterans Affairs has helped 
scientists make great progress in understanding bipolar disorders and, 
thus, in diagnosing and treating the illness. Using the latest brain 
imaging technologies, scientists have also discovered that brain 
function and structure in people with bipolar disorder differs markedly 
from that in people without the illness. Researchers have found a 
significant decrease in the size of the amygdala, a part of the brain 
that governs emotions, in people with bipolar disorder. Other studies 
have found a decrease in the density of gray matter in the brains of 
people with bipolar disorder. These and other exciting new findings are 
helping to pave the way for the design of new drugs that directly 
target specific genes or areas of the brain.
    2. Alzheimer's Disease & Normal Aging.--Alzheimer's disease, one of 
the most frightening memory-robbing disorders, hampers the lives of 
some 4 to 5 million older Americans, costing the United States at least 
$100 billion in medical care and lost productivity each year. 
Fortunately, NIH-funded research has helped to generate new treatments 
that can aid memory loss. These medications slow memory deterioration 
in some patients and allow others to resume normal lives. Additional 
gains can and must be made in the field of memory research in order to 
benefit a wider range of people, and to reduce the financial burden of 
care. Recent studies on animal models suggest that the outlook could 
improve with treatments that target brain mechanisms to enhance memory. 
Additionally, research into Alzheimer's disease and its effects on 
memory have also led to important advances in how memory can be 
optimized in normal aging. This would clearly benefit the remaining 
millions of Americans who are looking toward successful aging.
    3. Depression & Heart Disease.--Depression is a biologically based 
brain disorder that affects about 10 percent of Americans over the age 
of 18. Depressed people feel intensely sad and worthless and have a 
diminished sense of emotional well-being. Among other diseases such as 
alcoholism and stroke, people with depression have an increased risk 
for heart disease, particularly coronary artery disease. In otherwise 
healthy people, depression doubles the risk for coronary artery 
disease. Furthermore, for those with coronary artery disease, there is 
evidence that depression influences outcomes, particularly mortality, 
following a heart attack. Additionally, for those undergoing coronary 
artery bypass grafting, there is increasing evidence that depression is 
associated with poorer outcomes. Studies from Johns Hopkins University 
reveal that patients with severe depression are up to five times more 
likely to have poorer outcomes such as the return of chest pain, heart 
attacks, or death. Despite much progress in understanding the biology 
of depression in the past decade, much remains to be done. The 
mechanisms of the interaction between depression and outcomes with 
cardiac disease are not clear. Nor is it known if treatment of 
depression, even mild depression, would lead to more favorable outcomes 
for those with cardiac problems. NIH-funded research might help us 
answer these complicated questions in order to save lives and money.

                      THE AMERICAN BRAIN COALITION

    Last year, the Society for Neuroscience, along with the American 
Academy of Neurology, started the American Brain Coalition (ABC). ABC 
is a nonprofit organization that brings together patients with 
disabling brain disorders, the families of those that suffer, and the 
professionals that research and treat diseases of the brain. The 
mission of the ABC is to reduce the burden of brain disorders, and 
advance the understanding of the brain.
    Because the brain is the center of human existence and the most 
complex living structure known, ABC advocates for collaboration among 
researchers and doctors who treat disorders of the brain. As seen with 
depression and heart disease, the brain plays a vital role in 
conditions once believed to be unrelated to the brain. It is only 
through more research that we will begin to further understand, 
prevent, and treat neurological and psychiatric diseases.

                    FISCAL YEAR 2006 BUDGET REQUEST

    The Society for Neuroscience supports the Ad Hoc Group for Medical 
Research Funding request of a 6 percent increase for NIH in fiscal year 
2006. This will help NIH to carry out its Blueprint initiatives and 
help people affected by neurological disorders lead healthier, 
productive lives. Furthermore it will help sustain the infrastructure 
for innovative discoveries necessary to compete as a worldwide leader 
in biomedical research.
    The request is based on the following information:
  --$1 billion is needed to cover biomedical research inflation, which 
        is projected to be 3.5 percent;
  --$560 million is needed to replace the evaluation set-aside (an 
        amount taken from each institute), which this year amounted to 
        2.4 percent (it used to be 1 percent); and
  --The total number of research project grants (RPGs) is declining by 
        402 from what it was in fiscal year 2005.
    Mr. Chairman, thank you for the opportunity to testify before this 
committee.
                                 ______
                                 
     Prepared Statement of The Humane Society of the United States

    On behalf of The Humane Society of the United States (HSUS) and our 
more than 8.6 million supporters nationwide, we appreciate the 
opportunity to provide testimony on our top funding priorities for the 
Labor, Health and Human Services, Education and Related Agencies 
Subcommittee in fiscal year 2006.

  INTERAGENCY COORDINATING COMMITTEE ON THE VALIDATION OF ALTERNATIVE 
                            METHODS (ICCVAM)

    We were very pleased that Congress enacted Public Law 106-545 by 
unanimous voice vote in both chambers in 2000. This legislation, 
introduced by Senator Mike DeWine (R-OH) and Representatives Ken 
Calvert (R-CA) and Tom Lantos (D-CA), strengthened and made permanent 
the Interagency Coordinating Committee on the Validation of Alternative 
Methods (ICCVAM). The statute has already begun to enhance the federal 
government's capacity to evaluate and adopt chemical testing methods 
that are often faster, cheaper, and more scientifically sophisticated 
than current methods, as well as more responsive to the public's 
concerns about the welfare of animals used in toxicity testing. Public 
Law 106-545 has streamlined the process by which these better methods 
are validated and assessed, and has eased institutional barriers within 
federal agencies that discourage their use.
    ICCVAM performs an invaluable ``win-win'' function for regulatory 
agencies and stakeholders in industry, public health, and animal 
protection by assessing the suitability of new toxicological test 
methods that have interagency application. These new (and newly 
revised) methods include alternative methods that can limit animal use 
or suffering in testing. After appropriate independent peer review of a 
new test method, ICCVAM provides its assessment of the new test to the 
federal agencies that regulate the particular endpoint that the test 
measures. In turn, the federal agencies maintain their authority to 
incorporate the validated test method as appropriate for the agencies' 
regulatory mandates. This streamlined approach to assess the validation 
status of new test methods has reduced the regulatory burden of 
individual agencies, provided ``one-stop shopping'' for industry, 
animal protection, and public health advocates to consider test 
methods, and set uniform criteria for what constitutes a validated test 
method.
    ICCVAM arose from an initial mandate in the NIH Revitalization Act 
of 1993 for the National Institute of Environmental Health Sciences 
(NIEHS) to ``(a) establish criteria for the validation and regulatory 
acceptance of alternative testing methods, and (b) recommend a process 
through which scientifically validated alternative methods can be 
accepted for regulatory use.'' In 1994, NIEHS established an ad hoc 
ICCVAM to write a report that would recommend criteria and processes 
for validation and regulatory acceptance of toxicological testing 
methods that would be useful to federal agencies and the scientific 
community. Through a series of public meetings, interested stakeholders 
and agency representatives from 14 regulatory and research agencies 
developed NIH Publication No. 97-3981, Validation and Regulatory 
Acceptance of Toxicological Test Methods. This report has become the 
``sound science'' guide for consideration of new test methods by the 
federal agencies and interested stakeholders. After publication of the 
report, the ad hoc ICCVAM moved to standing status under the NIEHS' 
National Toxicology Program Interagency Center for the Evaluation of 
Alternative Toxicological Methods (NICEATM). Representatives from 
federal regulatory and research agencies have continued to meet, with 
advice from NICEATM's Scientific Advisory Committee and independent 
peer review committees, to assess the validation of new toxicological 
test methods.
    Since its inception, ICCVAM has conducted rigorous evaluations of 
several test methods and has concluded that these methods are 
scientifically valid, i.e., have been adequately validated, and are 
acceptable for specific purposes. These methods include Corrositex, 
Epiderm, Episkin, and Transcutaneous Epithelial Resistance assays for 
assessing skin corrosivity; the 3T3 NRU Phototoxicity assay for 
assessing phototoxicity; the Local Lymph Node Assay for assessing skin 
sensitization; and the Up and Down Method and various cytotoxicity 
assays for assessing acute systemic toxicity. In turn, the appropriate 
regulatory agencies have incorporated these methods into their 
regulatory practices.
    The open public comment process, input by interested stakeholders, 
and the continued commitment by various federal agencies have all 
enhanced the ICCVAM process. Now, under Public Law 106-545, ICCVAM is 
poised to go beyond its largely passive role of assessing the 
validation status of test methods that have been developed and 
validated by industry and others. ICCVAM should adopt a more proactive 
role in developing and validating promising tests methods in 
partnership with outside stakeholders, to ensure that a steady stream 
of new test methods are available for review and adoption by the 
federal government. Such a proactive stance and partnership with 
stakeholders will enable the federal government to better harness the 
potential of emerging technologies to meet the challenge of efficiently 
testing large numbers of chemicals with minimal cost in terms of money 
and animal lives. With a more proactive approach, ICCVAM could, for 
example, explore the potential of investigator-initiated and small 
business grant programs to further its mission.
    Adequate funding should be provided for ICCVAM to put the resources 
in place to ensure the federal government and industry have the best 
available tools with which to assess the toxic properties of chemicals 
in commerce. To accomplish this, we respectfully request an earmark of 
$3.6 million for fiscal year 2006 and the following Committee Report 
language:

    ``In order for the Interagency Coordinating Committee for the 
Validation of Alternative Methods (ICCVAM) to carry out its 
responsibilities under the ICCVAM Authorization Act of 2000, the 
Committee strongly urges NIEHS to strengthen the resources provided to 
ICCVAM for methods validation reviews in fiscal year 2006. ICCVAM and 
NIEHS activities must include up-front validation study design, 
execution, and review to ensure that new and revised test methods, non-
animal test methods, and alternative test methods (such as QSARs, 
mechanistic screens, high throughput assays, and toxicogenomics) are 
deemed scientifically valid before they are recommended or adopted for 
use by federal agencies or used in implementing the National Toxicology 
Program's Road Map and Vision for NTP's toxicology program in the 21st 
century.''

                       PAIN AND DISTRESS RESEARCH

    An estimated 40 percent of the National Institutes of Health (NIH) 
budget--or currently more than $11 billion--is devoted to some aspect 
of animal research. At this time, no funding is set aside specifically 
for research into alternatives that reduce the amount of pain and 
distress to which research animals are subjected, nor methods that 
replace or reduce the use of vertebrate animals in research. NIH may 
receive $28.8 billion in fiscal year 2006 if Congress fulfills the 
President's budget request. Out of this funding, we seek $2.5 million 
(0.009 percent) for research and development focused on identifying and 
alleviating animal pain and distress. In addition to our request for a 
specific funding amount, we also urge the Committee to specify in 
report language that this research should be conducted in conjunction 
with, or ``piggy-backed'' onto, ongoing research that already causes 
pain and distress. Infliction of pain and distress on additional 
animals is unnecessary, given the volume of existing research (we 
estimate a minimum of 20-25 percent of all animal research) that is 
believed to involve moderate to significant pain and/or distress.
    The large extent to which animals are used in federally-funded 
research underscores the importance of earmarking funds for pain and 
distress research. NIH has a statutory mandate to conduct or support 
research into alternative methods that produce less pain and distress 
in animals. This was specified in the NIH Revitalization Act of 1993 
regarding a plan for the use of animals in research. Earmarked funding 
will assist NIH in meeting this mandate. Additionally, researchers 
themselves often comment publicly at scientific meetings about the 
urgent need for funding in order to properly understand and mitigate 
pain and distress in research animals and to follow Animal Welfare Act 
and Public Health Service policy requirements to minimize pain and 
distress.
    It is well known that uncontrolled, undetected, and unalleviated 
pain and distress has adverse effects on animal welfare, which leads to 
adverse effects on the quality of science. Ultimately, the lack of 
information on pain and distress leads to misinterpretation of research 
results that could result in harmful effects in human beings when pre-
clinical animal research results are applied to humans in clinical 
trials.
    A 2001 survey conducted by an independent polling firm indicates 
that concern about animal pain and distress strongly influences public 
opinion about animal research in general. Seventy-five percent of the 
American public opposes research that causes severe animal pain and/or 
distress, even when it is health-related. Despite this public concern, 
NIH has failed to sponsor research and development aimed at determining 
how to minimize animal suffering and distress in the laboratory.
    During the past several years, our organization has been reviewing 
institutional policies and practices with respect to pain and distress 
in animal research. We have found that research institutions have 
inconsistent policies due to the lack of information on this subject, 
and that standards vary greatly from one institution to another. The 
federal standard for determining laboratory animal pain specifies that, 
if a procedure causes pain or distress to humans, it should be assumed 
to cause pain and distress to animals. Furthermore, while human 
experience can and should provide a useful guide in some cases, there 
are others in which humans are never subjected to the conditions facing 
laboratory animals. Information on pain and distress that animals 
themselves actually experience is important.
    Our nation takes pride in leading the world in biomedical research, 
yet we lag behind many other countries in our efforts to minimize pain 
and distress in animal subjects. For example, the United Kingdom, 
Sweden, Switzerland, Germany, the Netherlands and the European Union 
all have committed funds specifically for the ``three R's'' (replacing 
the use of animals, reducing their use, and refining research 
techniques to minimize animal suffering).
    We urge the Committee to make this small investment of $2.5 million 
to promote animal welfare and enhance the integrity of scientific 
research. We also respectfully request this accompanying committee 
report language:

    ``The Committee provides $2.5 million to support research and 
development focused on improving methods for recognizing, assessing, 
and alleviating pain and distress in research animals. No pain and 
distress should be inflicted solely for the purpose of this initiative, 
since the investigations can and should be conducted in conjunction 
with ongoing research that is believed to involve pain and distress 
under Government Principle IV of Public Health Service Policy, which 
assumes that procedures that cause pain and distress in humans may 
cause pain and distress in animals.''

    Again, we appreciate the opportunity to share our views and top 
priorities for the Labor, Health and Human Services, Education and 
Related Agencies Appropriation Act of fiscal year 2006. We hope the 
Committee will be able to accommodate these modest requests that will 
benefit animals, enhance effectiveness of toxicological testing, and 
improve the quality of research. Thank you for your consideration.
                                 ______
                                 
           Prepared Statement of Voices for National Service

    Mr. Chairman and Members of the Subcommittee, Voices for National 
Service, formerly known as the Save AmeriCorps Coalition, is a 
coalition of community-based organizations, faith-based groups, state 
commissions, private sector partners, institutions of higher education, 
and others interested in promoting national service through AmeriCorps 
and other vehicles. We look forward to working with you to strengthen 
AmeriCorps and national service as you oversee the entire budget of the 
Corporation for National and Community Service for the first time.
    In light of AmeriCorps 10th Anniversary, it is appropriate to 
review some of the goals Congress set for AmeriCorps in 1993: ``to meet 
the unmet human, educational, environmental and public safety needs of 
the United States; to renew the ethic of civic responsibility and the 
spirit of community throughout the United States; to expand educational 
opportunity by rewarding individuals who participate in national 
service with an increased ability to pursue higher education or job 
training; to encourage citizens of the United States, regardless of 
age, income, or disability, to engage in full-time or part-time 
national service; and, to provide tangible benefits to the communities 
in which national service is performed.''
    We believe that those who do service through AmeriCorps, as part of 
school or community-based service-learning, or senior volunteer 
programs, through their churches synagogues and mosques, and community-
based organizations are part of one of the great currents of American 
history: working with one's neighbor to build a better community and a 
better nation. President Bush captured this theme when, in his State of 
the Union Address in 2002, he said:

    ``My call tonight is for every American to commit at least 2 
years--4,000 hours--over the rest of your lifetime to the service of 
your neighbors and your nation. . . . Our country [also] needs citizens 
working to rebuild our communities. We need mentors to love children, 
especially children whose parents are in prison. And we need more 
talented teachers in troubled schools.''

      GOVERNMENT SPONSORED SERVICE IS DEEPLY ROOTED IN OUR HISTORY

    It was almost a century ago that philosopher William James spoke of 
service as ``the moral equivalent of war'' and said if there ``were a 
conscription of the whole youthful population to form for a certain 
number of years a part of the army enlisted against Nature, the 
injustice would tend to be evened out . . . .''
    Since that speech in 1906, Presidents from Franklin D. Roosevelt to 
George W. Bush have proposed that Americans serve both here and abroad 
to improve conditions for those who need support. They recognized that 
serving made better citizens and better Americans, that government--in 
conjunction with community-based institutions--has a role to play in 
solving our most intractable problems and that service must be real, 
not make-work.
    In 1933, President Roosevelt spoke to Civilian Conservation Corps 
(CCC) members in Warm Springs, Georgia and told them that ``You are 
rendering a real service, not only to this community but to this part 
of the State and the whole State. It is permanent work, it is work that 
is going to be useful for a good many generations to come. That is why, 
one reason why, the people of this country as a whole believe in the 
Civilian Conservation Corps . . . .''
    It is difficult to believe that nearly half a century has passed 
since President Kennedy challenged a new generation by saying ``And so, 
my fellow Americans: ask not what your country can do for you--ask what 
you can do for your country.'' Kennedy's Peace Corps proposal included 
many of the principles embodied in AmeriCorps:

    ``In establishing our Peace Corps we intend to make full use of the 
resources and talents of private institutions and groups. Universities, 
voluntary agencies, labor unions and industry will be asked to share in 
this effort . . .  making it clear that the responsibility for peace is 
the responsibility of our entire society. . . . We will only send 
abroad Americans who are wanted by the host country--who have a real 
job to do--and who are qualified . . . . Programs will be developed 
with care, and after full negotiation . . . . Life in the Peace Corps 
will not be easy. There will be no salary and allowances will be at a 
level sufficient only to maintain health and meet basic needs.''
             national service has broad bipartisan support
    The roots of AmeriCorps are contained in national service 
legislation enacted in 1990 and signed by President George H.W. Bush. 
It reflected his belief, articulated in his Inaugural address, that 
``America is never wholly herself unless she is engaged in high moral 
principle. We as a people have such a purpose today. It is to make 
kinder the face of the Nation and gentler the face of the world. My 
friends, we have work to do.'' To address these issues, he said ``we 
will do the wisest thing of all: We will turn to the only resource we 
have that in times of need always grows--the goodness and the courage 
of the American people.'' He called for:

    ``A new engagement in the lives of others, a new activism, hands-on 
and involved, that gets the job done. We must bring in the generations, 
harnessing the unused talent of the elderly and the unfocused energy of 
the young. For not only leadership is passed from generation to 
generation, but so is stewardship. And the generation born after the 
Second World War has come of age. The old ideas are new again because 
they are not old, they are timeless: duty, sacrifice, commitment, and a 
patriotism that finds its expression in taking part and pitching in.''

    Exactly seven years less one day before September 11, President 
Clinton swore in the first class of AmeriCorps members. Reflecting many 
of the themes articulated by President Bush, he told them that 
``Service is never a simple act, it's about sacrifice for others and 
about accomplishment for ourselves, about reaching out, one person to 
another, about all our choices gathered together as a country to reach 
across all our divides. It's about you and me and all of us together--
who we are as individuals and what we are as a nation. Service is a 
spark to rekindle the spirit of democracy in an age of uncertainty.''
    Like Presidents Roosevelt, Kennedy, and Bush, President Clinton 
also understood that each generation owes something to the nation for 
what it has received as well as to those who follow:

    ``And your generation is no exception. We look at you now. And we 
know you are no generation of slackers. Instead you are a generation of 
doers. And you want to give something back to the country that has 
given so much to you. The only limit to our future is what we're 
willing to demand of ourselves today. Generations of Americans before 
us have done the groundwork. Now, it falls to all of us to build on 
their foundations.''

    Two years ago, AmeriCorps was in crisis; its very survival in 
doubt. At that time, virtually every governor, more than 150 mayors, 
hundreds of university presidents, and corporate and civic leaders 
publicly recognized the good that AmeriCorps had accomplished since its 
creation 10 years ago. More than 100 editorials in large and small 
newspapers throughout the nation provided ample evidence of how 
AmeriCorps members improved their communities.
    President George W. Bush's support, important bipartisan 
legislative initiatives to improve the management of the Corporation 
for National and Community Service, installation of a new leadership 
team, and the rulemaking process still underway not only helped to save 
AmeriCorps but to remind us that service is the responsibility of all 
Americans.

                       STRENGTHENING COMMUNITIES

    AmeriCorps members serve in more than 900 local and state nonprofit 
organizations, public agencies, and faith-based organizations funded by 
the Corporation for National and Community Service through both state 
commissions as well as national nonprofit AmeriCorps programs including 
Teach for America, the National Association of Community Health 
Centers, the Red Cross, Habitat for Humanity, City Year, Public Allies, 
the National Association of Service and Conservation Corps, Jumpstart 
for Young Children, the Sisters of Notre Dame, and the Experience 
Corps.
    They serve to address problems within four broad categories: 
``unmet human, educational, environmental, or public safety needs.'' 
Communities identify their needs and choose the model that is most 
appropriate to meeting those needs. This is a bottom up, not a top-down 
program.
    AmeriCorps members also help strengthen Homeland Security and 
prevent or mitigate the effects of natural disasters. Recently, 
AmeriCorps members from Minnesota and Washington State joined 
colleagues serving in Florida to bring a measure of relief to victims 
of devastating hurricanes. They helped mobilize the largest volunteer 
disaster response in American history, repaired damaged homes, and 
distributed food and water to victims and community volunteers. Indeed, 
since September 11, 2001 the AmeriCorps program has expanded its work 
in public safety, public health, disaster relief, and homeland 
security.
    AmeriCorps members teach in underserved schools, tutor and mentor 
youth including the children of prisoners, run after-school programs, 
build affordable housing, provide public health services, prevent 
forest fires and do disaster relief, run after-school programs, and 
help communities respond to disasters. Hundreds of AmeriCorps state 
programs clean rivers and streams, enrich after school programs, 
support local law enforcement by providing meaningful alternatives to 
gangs, deliver services to the elderly, and meet other needs defined by 
the communities in which they serve.
    This year, for example, AmeriCorps members are serving more than 2 
million children and youth, providing valuable resources to reach the 
President's goal of having all children able to read by third grade. 
They are also helping to recruit and train more than 600,000 community 
volunteers.
    AmeriCorps members leverage community resources as well as perform 
direct service. In fiscal year 2003, AmeriCorps members recruited more 
than 529,000 community volunteers an increase of almost 275,000 (from 
the previous year when the Corporation stopped recruiting new members 
and new volunteers because of its self-imposed recruitment freeze). 
Last year, AmeriCorps programs generated more than $165 million from 
non-Corporation partners, $70 million more than in the previous year.

                            ACCOMPLISHMENTS

    According to the State Profiles and Performance Report 2002-2003 
published by the Corporation for National and Community Service 
(December 2004), examples of what AmeriCorps members accomplished 
include (but are not limited to):
  --In Alaska, members tutored almost 6,000 students in grades 1 
        through 12 and assessed 485 homes for energy efficiency.
  --In Florida, members recruited 2,000 community volunteers to provide 
        education services, maintained and expanded 200 acres of 
        habitat for threatened and endangered species, and built 40 
        homes for low-income families.
  --In Georgia, almost 7,500 homeless individuals received referrals to 
        permanent or transitional housing.
  --In Indiana, 2,400 juveniles participated in career development 
        activities for offenders or ex-offenders.
  --In Iowa, more than 4,800 elementary and middle students received 
        tutoring and mentoring support, and 32,000 received education 
        and training about the environment.
  --In Kentucky, members staged eight forums to educate more than 1,000 
        at-risk elderly about home safety and conducted 265 Home Safety 
        Assessments for seniors.
  --In Maine, members made 600 presentations on disaster preparedness, 
        benefiting more than 36,000 people and almost 1,300 people 
        participated in after-school activities designed to reduce 
        violence in public housing.
  --In Maryland, members removed 453 tons of trash, improving the 
        quality of storm water run-off into the Chesapeake Bay and 
        1,900 homeless families received food, clothing, or furniture.
  --In Minnesota, members constructed 151 housing units for low income 
        seniors or people with disabilities, planted almost 142,000 
        trees, and conserved more than 10,000 acres of habitat and 
        land.
  --In Mississippi, members trained 715 people with disabilities in 
        life skills, helped train mentally, or developmentally, 
        disabled adults for employment, and mentored 1,100 low income 
        and underachieving middle school students.
  --In Montana, members constructed 54 miles of fence to protect wild- 
        or park lands, maintained 309 miles of trails, roads, and other 
        public areas, and increased access to technology for more than 
        1,100 youth, parents, and members of the community.
  --In Nevada, 3,200 students in grades 1 through 12 received tutoring, 
        577 homeless veterans received employment-related counseling, 
        and almost 1,000 women benefited from anti-victimization 
        counseling and workshops on preventing domestic violence.
  --In New Mexico, almost 24,400 people participated in after-school 
        sports and violence avoidance activities, 400 adults received 
        instruction in basic skills development and GED training, and 
        138 homeless families found homes.
  --In New York, members transported 1,000 children to medical 
        appointments, delivered meals and snacks to about 58,000 
        children and seniors, and provided literacy activities to 
        almost 17,000 children.
  --In Ohio, members trained more than 9,000 youth in conflict 
        resolution, built repaired, or rehabilitated 364 housing units, 
        and provided educational support services to 1,500 students 
        during the summer months.
  --In Oregon, 7,000 students benefited from updating high school 
        Career Centers with college, military, apprenticeship, and 
        trade school information, planted almost 5,000 trees, and grew 
        and distributed more than 900 pounds of produce.
  --In Pennsylvania, members tutored almost 14,600 elementary and high 
        school students and more than 6,800 citizens received either 
        needs assessment or support in the areas of domestic violence, 
        foster care, mental health, and housing for homeless veterans.
  --In Tennessee, more than 900 people received access to health care, 
        almost 200 children had their immunizations ensured, and more 
        than 1,300 senior women received informational materials about 
        breast cancer.
  --In Washington, almost 37,000 students benefited from out of class 
        enrichment activities like field trips, about 6,600 peer tutors 
        were recruited, and more than 19 miles of rivers, river banks, 
        beaches, and fish habitat were restored or conserved, 
        benefiting local salmon runs.
  --In Wisconsin, members organized or packed 290 tons of food to be 
        distributed to community agencies and provided after-school 
        tutoring or mentoring services to more than 1,200 students.
  --In West Virginia, more than 3,200 children received tutoring in a 
        six-week summer literacy program, helping to realize an average 
        four month gain in literacy skills.
    According to the Corporation's National Performance Benchmarking 
Survey, ``57 percent of organizations' AmeriCorps partners reported 
that AmeriCorps members `considerably' helped them increase their 
involvement in partnerships and coalitions. (29 percent reported 
`moderately' helped).'' Also, three quarters of grantees said that 
``AmeriCorps had increased `by a considerable amount' the number of end 
beneficiaries served.'' About ``83 percent of grantees reported that 
AmeriCorps members helped their organization either `considerably' (53 
percent) or `moderately' (30 percent) in leveraging additional 
volunteers.'' And, ``more than 75 percent of organizations receiving 
disaster and emergency readiness and preparedness training from 
AmeriCorps programs have become better prepared by conducting emergency 
drills, changing organization operations, or preparing emergency 
kits.''
    With your support, in the next fiscal year, approximately 40,000 
AmeriCorps members will provide tutoring to students, help operate 
after-school programs, increase Americans' access to health care, and 
provide support for families in crisis. In addition, more than 5,000 
children of prisoners will receive services provided by AmeriCorps 
members.
    In 2004, the Corporation for National and Community Service 
celebrated its tenth anniversary. In the last decade, more than 400,000 
young Americans dedicated themselves to either full or part-time 
service through AmeriCorps to improve their communities and their 
country. At the same time, AmeriCorps members earned Education Awards 
worth more than $1 billion.

                    SERVICE CHANGES THOSE WHO SERVE

    Serving in AmeriCorps also changes those who serve. According to 
the recent study conducted by Abt Associates ``Serving Country and 
Community: A Longitudinal Study of Service in AmeriCorps'' 
participation in AmeriCorps ``resulted in statistically significant 
positive impacts on members' connection to community, participation in 
community-based activities, and personal growth through service. While 
AmeriCorps members increased their level of civic engagement . . . 
scores for comparison group members typically showed little or no 
change. . . .'' ``Additionally, there was a positive and significant 
effect of AmeriCorps participation on volunteering for members without 
prior volunteering experience. These results are important because they 
reflect the capacity of AmeriCorps to strengthen existing beliefs in 
and commitments to civic engagement and community service, and to 
awaken new ones.''
    The Abt study also reported that service in AmeriCorps ``had a 
meaningful impact on both attitudinal and behavioral employment 
outcomes.'' It increased ``the work skills of AmeriCorps members'' and 
motivated ``members to choose public service careers, such as teaching, 
social work, and military service.''
    Thus, AmeriCorps proves its value everyday in communities across 
the country and by changing the lives of AmeriCorps members.

                      THE FISCAL YEAR 2006 REQUEST

    We are hopeful that under your leadership local communities 
throughout the nation will continue to be served by as many as 75,000 
AmeriCorps members. At the same time, we want to make clear that we are 
as committed to the quality of the service as to reaching a specific 
number of AmeriCorps members.
    We very much appreciate the increase in funding that Congress 
provided in fiscal year 2004 to save AmeriCorps. It must be noted, 
however, that funding for AmeriCorps grants has declined from the 
fiscal year 2004 enacted high of $312 million to the proposed $275 
million, a cut of more than 10 percent. At the same time funding for 
the Trust has increased from $129 to a proposed $146 million.
    The Voices for National Service Coalition believes that it will 
require $442 million to achieve the number of AmeriCorps members 
proposed by the Corporation for National and Community (75,000) while 
maintaining the historical balance between full-time, part-time, and 
Education award only AmeriCorps members. To sustain this level of 
service, we urge you to fund AmeriCorps at the level proposed by 
President Bush in his fiscal year 2005 budget. We are very concerned 
that with operating costs increasing, recruiting the same number of 
AmeriCorps members with $20 million fewer dollars than the President 
proposed just last year may force the Corporation to make programmatic 
compromises that will undermine the historic nature and fundamental 
character of AmeriCorps. While we support the Corporation's desire to 
increase the number of ``effective, lower cost programs, such as 
professional and teacher corps'' we remain convinced that 
responsiveness to local needs requires the Corporation to support a mix 
of higher, as well as lower, cost programs.
    We also want to call the Committee's attention to two other 
elements of the Corporation's request. First, we support the 
Corporation's proposal to eliminate the cap on National Direct grants. 
We share its concern that ``capping funding for National Direct grants 
may prevent [it] from supporting outstanding service programs.'' 
Second, we are concerned about the Corporation's failure to seek funds 
for the Challenge Grant program. Challenge grants promote competition 
and are an important tool which programs can use to leverage additional 
private sector funds. If the Corporation truly wants to achieve program 
sustainability by reducing dependence on federal grants, it ought to 
increase Challenge Grant funds rather than eliminate them. The response 
to Challenge Grants has been overwhelming and we believe the program's 
success justifies its continuation.

              PROMOTING QUALITY AND INCREASING EFFICIENCY

    As you begin your difficult work this year, Voices for National 
Service urges you to consider the following themes that will further 
increase the Corporation's effectiveness and meet its goal of ``put 
[ting] the customer first'':
    1. Education Award Only slots should be a tool for state 
flexibility and cost-effectiveness. They should not become a way to 
increase the number of AmeriCorps members ``on the cheap.'' We believe 
that the current ratio between full- and part-time members and 
recipients of Education Awards should be maintained and that no more 
than 40 percent of the AmeriCorps portfolio should be allocated to 
Education Award Only programs. This will allow states to reduce cost 
per member, and be responsive to both local resources and local needs.
    2. The Corporation must continue to affirm its commitment to 
diversity of AmeriCorps members and be sensitive to geographic 
diversity as well as racial, ethnic, and socio-economic diversity. 
Corporation policy should reflect an understanding of the difficulties 
that programs in rural areas and inner-cities have in recruiting 
private sector and philanthropic dollars and the fact that programs 
whose enrollment focus is on low-income, out of school and minority 
young people are likely to have greater difficulty recruiting and 
retaining members than programs that recruit more affluent members.
    3. The Re-fill Rule should be fully restored. While we appreciate 
the Corporation's effort to reintroduce its slot refill policy, the 
present one-to-one, one-time-only policy is not sufficient to ensure 
that programs can meet local needs. AmeriCorps programs that enroll 
significant numbers of economically and educationally disadvantaged 
corps members are likely to experience higher rates of attrition and 
lower rates of retention. Reverting to its prior practice of allowing 
programs to completely re-fill vacated slots at any time during the 
year would allow greater participation in AmeriCorps, encourage 
participants with a broad array of backgrounds to participate, and 
ultimately allow programs--and AmeriCorps as a whole--to provide 
deserving people, often highly disadvantaged, the opportunity to pursue 
their educational goals.

                               CONCLUSION

    For the last 70 years, Presidents of both parties, and their 
Congressional champions, have recognized that service programs with 
government support, the active support of community-based 
organizations, faith-based institutions, and the private sector can 
play an important role in strengthening communities, teaching the 
virtues of civic engagement, and strengthening the bonds that connect 
us as a people. Service is not only an effective strategy for attacking 
our problems, it is a way to remind Americans of all ages that we have 
a responsibility to give something back to our country.
    We believe that AmeriCorps has made substantial progress in meeting 
these ambitious goals and look forward to working with you to improve 
the lives of all Americans through service.
    Thank you for the opportunity to provide this testimony.
                                 ______
                                 

                     NATIONAL INSTITUTES OF HEALTH

              Prepared Statement of the Alpha-1 Foundation

                       SUMMARY OF RECOMMENDATIONS

    The Alpha-1 Foundation requests an allocation in the budget to 
enable the CDC, National Center for Birth Defects and Developmental 
Disabilities to implement a national targeted Alpha-1 detection 
program. The Foundation recommends that CDC receive $2 million in 
fiscal year 2006 for implementation.
    The Foundation recommends that NHLBI enhance its portfolio of 
research and education on the fourth leading cause of death in the 
United States, Chronic Obstructive Pulmonary Disease (COPD), including 
genetic risk factors such as Alpha-1 Antitrypsin Deficiency.
    The Foundation commends NIH on the roadmap and recommends that 
NHLBI, NIDDK, NHGRI, NIEHS, and other institutes establish an Alpha-1 
inter-institute coordinating committee to facilitate collaboration on 
this genetic lung and liver disease.
    The Foundation encourages HRSA to collect additional data to 
evaluate the impact of the new lung transplant organ allocation system 
being implemented by the Organ Procurement and Transplantation Network/
United Network for Organ Sharing.
    The Foundation supports the request of the Ad Hoc Group for Medical 
Research Funding for a $30 billion appropriation for NIH in fiscal 
2006.
    Mr. Chairman and members of the Subcommittee thank you for the 
opportunity to submit testimony for the record on behalf of the Alpha-1 
Foundation.

                         THE ALPHA-1 FOUNDATION

    The Alpha-1 Foundation is a national not-for-profit organization 
dedicated to providing the leadership and resources that will result in 
increased research, improved health, worldwide detection and a cure for 
Alpha-1 Antitrypsin (Alpha-1) Deficiency. The Foundation has built the 
research infrastructure with private investment, funding over 
$15,000,000 in grants from basic to social science, establishing a 
national patient registry, tissue and DNA bank, translational 
laboratory, assisting in fast track development of new therapeutics, 
and stimulating the involvement of the scientific community. The 
Foundation has invested the resources to support clinical research 
which follows the roadmap established by the NIH; uniquely positioning 
it for a perfect private public partnership. There is a lack of 
awareness of the insidious nature of the early symptoms of the lung and 
liver disease associated with this genetic condition by both medical 
care providers and the public. It is our hope that the federal 
government will leverage the Foundation's investment with support for a 
national Alpha-1 targeted detection program.

                ALPHA-1 IS SERIOUS AND LIFE THREATENING

    Alpha-1 is the leading genetic risk factor for Chronic Obstructive 
Pulmonary Disease (COPD) and is often misdiagnosed as such. Alpha-1 
afflicts an estimated 100,000 individuals in the United States with 
fewer than 5 percent accurately diagnosed. These are people who know 
they are sick and as yet have not put a name to their malady. Although 
Alpha-1 testing is recommended for those with COPD this standard of 
care is not being implemented. In addition, an estimated 20 million 
Americans are the undetected carriers of the Alpha-1 gene and may pass 
the gene on to their children. Of these 20 million carriers, 7-8 
million may be at risk for lung or liver disease.
    The pulmonary impairment of Alpha-1 causes disability and loss of 
employment during the prime of life (20-40 years old), frequent 
hospitalizations, family disorganization, and the suffering known only 
to those unable to catch their breath. Fully half of those diagnosed 
require supplemental oxygen. Lung transplantation, with all its 
associated risks and costs, is the most common final option. Alpha-1 is 
the primary cause of liver transplantation in infants and an increasing 
cause in adults. Alpha-1 liver disease currently has no specific 
treatment aside from transplantation. The cost to these families in 
time, energy and money is high and often devastating. Alpha-1 also 
causes liver cancer.
    Alpha-1 is a progressive and devastating disorder that in the 
absence of proper diagnosis and therapy leads to premature death; in 
spite of the availability of therapeutics for lung disease and 
preventative health measures that can be life-prolonging. It is 
estimated that untreated individuals can have their life expectancy 
foreshortened by 20 or more years. Yet early detection, the avoidance 
of environmental risk factors and pulmonary rehabilitation can 
significantly improve health.

       THE MEDICAL NEEDS OF THE ALPHA-1 COMMUNITY HAVE GONE UNMET

    Alpha-1 is a hidden killer that desperately needs new therapies. 
There is a lack of awareness of the insidious nature of the early 
symptoms of the lung and liver disease associated with this genetic 
condition by both medical care providers and the public.
    Currently, the only specific therapy for Alpha-1 lung disease is 
intravenous augmentation therapy produced from pooled human plasma at 
an average annual cost of $50,000-$100,000. This therapy increases the 
plasma levels of the deficient protein and appears to slow or halt the 
progression of the pulmonary disease described above. There is 
currently nothing available to regenerate lung tissue and restore lung 
function.
    In addition, Alpha-1 liver disease is equally life threatening, as 
is the case with many chronic liver conditions, often reaching an 
advanced stage with few symptoms and little warning. Advanced liver 
disease is often untreatable, and many with Alpha-1 have erroneously 
been told they have alcoholic liver disease because of the lack of 
physician awareness.

                            ALPHA-1 AND COPD

    As the forth leading cause of death, COPD is a major public health 
concern. Data indicates that not all individuals who smoke develop lung 
disease leading many to conclude that COPD has significant genetic and 
environmental risk factors. As the most significant genetic risk factor 
for COPD, Alpha-1 has much to tell us about the pathogenesis of lung 
disease. Discoveries and advances made in Alpha-1 will impact the 
larger 10-24 million individuals living with COPD.

                               DETECTION

    The Alpha-1 Foundation conducted a pilot program in the state of 
Florida where we garnered the knowledge and experience necessary to 
launch an awareness and National Targeted Detection Program (NTDP). The 
goals of the NTDP are to educate the medical community and people with 
COPD and liver disease, alerting them that Alpha-1 may be an underlying 
factor of their disease; and stimulating testing for Alpha-1. This 
effort will uncover a significant number of people who would benefit 
from early diagnosis, treatment and preventative health measures.
    The Foundation distributes the American Thoracic Society/European 
Respiratory Society (ATS/ERS) ``Standards for the Diagnosis and 
Management of Individuals with Alpha-1 Antitrypsin Deficiency'' to 
physicians, nurses and respiratory therapists. Additionally, health 
care practitioners and the COPD community are being targeted through 
press releases, newsletter articles and various website postings.
    The national implementation of the NTDP is enhanced through the 7 
Clinical Resource Network Centers of the National Heart, Lung, Blood 
Institute of the National Institutes of Health; 51 Foundation 
affiliated Clinical Resource Centers; large pulmonary practices and 
various teaching hospitals and universities. The NTDP also employs a 
direct to consumer approach targeted to people with COPD.
    The Alpha-1 Foundation's Ethical Legal and Social Issues (ELSI) 
Working Group endorsed the recommendations of the ATS/ERS Standards 
Document which recommends testing symptomatic individuals or siblings 
of those who are diagnosed with Alpha-1. Early diagnosis in Alpha-1 can 
significantly impact disease outcomes by allowing individuals to seek 
appropriate therapies, and engage in essential life planning. 
Unfortunately, seeking a genetic test may lead to discrimination 
against individuals who have no control over their inherited condition. 
The absence of federal protective legislation has caused the ELSI to 
recommend against population screening and genetic testing in the 
neonatal population. The Foundation commends the Senate for passing the 
Genetic Non-Discrimination Act of 2005 and is working to ensure that 
the House takes the same positive action.
    The Alpha-1 Coded Testing (ACT) Trial, funded by the Alpha-1 
Foundation and conducted at the Medical University of South Carolina 
offers a free and confidential finger-stick test that can be completed 
at home. The results are mailed directly to the participants. The ACT 
Trial has offered individuals the opportunity to receive confidential 
test results since September of 2001, to date over 2,400 test kits have 
been requested.

                            ALPHA-1 RESEARCH

    The Alpha-1 Foundation believes that significant federal investment 
in medical research is critical to improving the health of the American 
people and specifically those affected with Alpha-1. The support of 
this Subcommittee has made a substantial difference in improving the 
public's health and well-being.
    The Foundation requests that the National Institutes of Health 
increase the investment in Alpha-1 Antitrypsin (AAT) Deficiency and 
that the Centers for Disease Control and Prevention initiate a federal 
partnership with the Alpha-1 community to achieve the following goals:
  --Promotion of basic science and clinical research related to the AAT 
        protein and AAT Deficiency;
  --Funding to attract and train the best young clinicians for the care 
        of individuals with AAT Deficiency;
  --Support for outstanding established scientists to work on problems 
        within the field of AAT research;
  --Development of effective therapies for the clinical manifestations 
        of AAT Deficiency;
  --Expansion of awareness and targeted detection to promote early 
        diagnosis and treatment.

             SPECIFIC AREAS OF CONCERN AND RECOMMENDATIONS

    1. The Foundation requests an allocation in the budget to enable 
the CDC, National Center for Birth Defects and Developmental 
Disabilities to implement a national targeted Alpha-1 detection 
program. The Foundation recommends that CDC receive $2 million in 
fiscal year 2006 for implementation.
    2. The Foundation recommends that NHLBI enhance its portfolio of 
research and education on the fourth leading cause of death in the 
United States, Chronic Obstructive Pulmonary Disease (COPD), including 
genetic risk factors such as Alpha-1 Antitrypsin Deficiency.
    3. The Foundation commends NIH on the roadmap and recommends that 
NHLBI, NIDDK, NHGRI, NIEHS, and other institutes establish an Alpha-1 
inter-institute coordinating committee to facilitate collaboration on 
this genetic lung and liver disease.
    4. The Foundation encourages HRSA to collect additional data to 
evaluate the impact of the new lung transplant organ allocation system 
being implemented by the Organ Procurement and Transplantation Network/
United Network for Organ Sharing.
    5. The Foundation supports the request of the Ad Hoc Group for 
Medical Research Funding for a $30 billion appropriation for NIH in 
fiscal 2006.

                           ALPHA-1 FAST FACTS

    Alpha-1 Antitrypsin Deficiency (Alpha-1) is one of the most common 
fatal genetic diseases, 95 percent of those with Alpha-1 are 
undiagnosed.
    Alpha-1 is commonly misdiagnosed as asthma and Chronic Obstructive 
Pulmonary Disease (COPD) as symptoms are similar. It usually takes 
seven years and five physicians to be accurately diagnosed after the 
onset of symptoms.
    The World Health Organization (WHO) and the American Thoracic 
Society/European Respiratory Society recommends that all individuals 
with chronic obstructive pulmonary disease (an estimated 10-24 million 
Americans) as well as adults and adolescents with asthma (an estimated 
14.6 million Americans) be tested for Alpha-1.
    Alpha-1 is more prevalent than Cystic Fibrosis. An estimated 20 
million Americans are undetected carriers of the Alpha-1 gene and may 
be at risk for lung and/or liver disease and may pass the gene on to 
their children.
    Alpha-1 is a life-threatening adult onset lung disease that is 
progressive and irreversible. It is a major reason for lung 
transplantation. Nothing repairs lung tissue damage but early diagnosis 
allows individuals to engage in preventative health strategies and 
receive appropriate therapy which saves health care dollars.
    Alpha-1 can also manifest as liver disease (5-10 percent) in adults 
as well as newborns for which the only treatment is a liver transplant. 
Alpha-1 is a leading cause of liver transplants in newborns.

                   COMMON SYMPTOMS OF ALPHA-1 INCLUDE

  --Recurring respiratory infections
  --Shortness of breath or awareness of one's breathing
  --Non-responsive Asthma or Year-Round Allergies
  --Rapid deterioration of lung function without a history of 
        significant smoking
  --Decreased exercise tolerance
  --Chronic liver problems
  --Elevated liver enzymes
                                 ______
                                 
Prepared Statement of the American Association for Geriatric Psychiatry

    The American Association for Geriatric Psychiatry (AAGP) 
appreciates this opportunity to present its recommendations on issues 
related to fiscal year 2006 appropriations for mental health research 
and services. AAGP is a professional membership organization dedicated 
to promoting the mental health and well being of older Americans and 
improving the care of those with late-life mental disorders. AAGP's 
membership consists of approximately 2,000 geriatric psychiatrists as 
well as other health professionals who focus on the mental health 
problems faced by senior citizens.
    AAGP would like to thank the Subcommittee for its continued strong 
support for increased funding for the National Institutes of Health 
(NIH) over the last several years, particularly the additional funding 
you have provided for the National Institute of Mental Health (NIMH), 
the National Institute on Aging (NIA), the National Institute on 
Alcohol Abuse and Alcoholism (NIAAA), and the Center for Mental Health 
Services (CMHS) within the Substance Abuse and Mental Health Services 
Administration (SAMHSA). Although we generally agree with others in the 
mental health community about the importance of sustained and adequate 
Federal funding for mental health research and treatment, AAGP brings a 
unique perspective to these issues because of the elderly patient 
population served by our members.
    There are serious concerns, shared by AAGP and researchers, 
clinicians, and consumers that there exists a critical disparity 
between appropriations for research, training, and health services and 
the projected mental health needs of older Americans. This disparity is 
evident in the convergence of several key factors:
  --demographic projections inform us that, with the aging of the U.S. 
        population, there will be an unprecedented increase in the 
        burden of mental illness among aging persons, especially among 
        the baby boom generation;
  --this growth in the proportion of older adults and the prevalence of 
        mental illness is expected to have a major direct and indirect 
        impact on general health service use and costs;
  --despite the fact that effective treatment exists, the current 
        mental health needs of many older adults remain unmet;
  --the number of physicians being trained in geriatric mental health 
        research and clinical care is insufficient to meet current 
        needs, and this workforce shortfall is projected to become a 
        crisis as the U.S. population ages over the next decade;
  --a major gap exists between research, mental health care policy, and 
        service delivery; and
  --despite recent significant increases in appropriations for support 
        of research in mental health, the allocation of NIMH and CMHS 
        funds for research that focuses specifically on aging and 
        mental health is disproportionately low, and woefully 
        inadequate to deal with the impending crisis of mental health 
        in older Americans.

       DEMOGRAPHIC PROJECTIONS AND THE MENTAL DISORDERS OF AGING

    With the baby boom generation nearing retirement, the number of 
older Americans with mental disorders is certain to increase in the 
future. By the year 2010, there will be approximately 40 million people 
in the United States over the age of 65. Over 20 percent of those 
people will experience mental health problems. A national crisis in 
geriatric mental health care is emerging and has received recent 
attention in the medical literature. Action must be taken now to avert 
serious problems in the near future. While many different types of 
mental and behavioral disorders can occur late in life, they are not an 
inevitable part of the aging process, and continued research holds the 
promise of improving the mental health and quality of life for older 
Americans.
    The current number of health care practitioners, including 
physicians, who have training in geriatrics is inadequate. As the 
population ages, the number of older Americans experiencing mental 
problems will almost certainly increase. Since geriatric specialists 
are already in short supply, these demographic trends portend an 
intensifying shortage in the future. There must be a substantial public 
and private sector investment in geriatric education and training, with 
attention given to the importance of geriatric mental health needs. We 
will never have, nor will we need, a geriatric specialist for every 
older adult. However, without mainstreaming geriatrics into every 
aspect of medical school education and residency training, broad-based 
competence in geriatrics will never be achieved. There must be adequate 
funding to provide incentives to increase the number of academic 
geriatricians to train health professionals from a variety of 
disciplines, including geriatric medicine and geriatric psychiatry.
    Current and projected economic costs of mental disorders alone are 
staggering. The direct medical expense to care for a patient with 
Alzheimer's disease ranges from $18,000 to $36,000 a year per patient, 
depending on the severity of the disease. In addition, there are 
substantial indirect costs associated with caring for an Alzheimer's 
disease patient including social support, care giving, and often 
nursing home care. It is estimated that total costs associated with the 
care of patients with Alzheimer's disease is over $100 billion per year 
in the United States. Psychiatric symptoms (including depression, 
agitation, and psychotic symptoms) affect 30 to 40 percent of people 
with Alzheimer's and are associated with increased hospitalization, 
nursing home placement, and family burden. These psychiatric symptoms, 
associated with Alzheimer's disease, can increase the cost of treating 
these patients by more than 20 percent. Although NIA has supported 
extensive research on the cause and treatment of Alzheimer's, treatment 
of these behavioral and psychiatric symptoms has been neglected and 
should be supported through NIMH.
    Depression is another example of a common problem among older 
persons. Approximately 30 percent of older persons in primary care 
settings have significant symptoms of depression; and depression is 
associated with greater health care costs, poorer health outcomes, and 
increased mortality. Of the approximately 32 million Americans who have 
attained age 65, about five million suffer from depression, resulting 
in increased disability, general health care utilization, and increased 
risk of suicide. Older adults have the highest rate of suicide rate 
compared to any other age group. Comprising only 13 percent of the U.S. 
population, individuals age 65 and older account for 19 percent of all 
suicides. The suicide rate for those 85 and older is twice the national 
average. More than half of older persons who commit suicide visited 
their primary care physician in the prior month--a truly stunning 
statistic.
    The enormous and widely underestimated costs of late-life mental 
disorders justify major new investments. The personal and societal 
costs of mental illness and addictive disorders are high, but advances 
in research and treatment will help save lives, strengthen families, 
and save taxpayer dollars.

               THE BENEFITS OF RESEARCH ON PUBLIC HEALTH

    The U.S. Surgeon General's Report on Mental Health (1999) and the 
Administration on Aging Report on Older Adults and Mental Health (2001) 
underscore the prevalence of mental disorders in older persons and 
provide evidence that research has lead to the development of effective 
treatments. These reports summarize research findings showing that 
treatments are effective in relieving symptoms, improving functioning, 
and enhancing quality of life. Preliminary findings suggest that these 
interventions reduce the need for expensive and intensive acute and 
long-term services. However, it is also well demonstrated that there is 
a pronounced gap between research findings on the most effective 
treatment interventions and implementation by health care providers. 
This gap can be as long as 15 to 20 years. These reports stress the 
need for translational and health services research focused on 
identifying the most cost-effective interventions, as well as creating 
effective methods for improving the quality of health care practice in 
usual care settings. A major priority (neglected to date) is the 
development of a health services research agenda that examines the 
effectiveness and costs of proven models of mental health service 
delivery for older persons.
    Special attention also needs to be paid to inadequately or poorly 
studied, serious late-life mental disorders. Illnesses such as 
schizophrenia, anxiety disorders, alcohol dependence and personality 
disorders have been largely ignored by both the research community and 
the funding agencies, despite the fact that these conditions take a 
major toll on patients, their care givers, and society at large. Many 
of AAGP's members are at the forefront of groundbreaking research on 
Alzheimer's disease, depression, and psychosis among the elderly, and 
we strongly believe that more research funds must be focused in these 
areas. Improving the treatment of late-life mental health problems will 
benefit not only the elderly, but also their children, whose lives are 
often profoundly affected by their parents' illness.
    While the funding increases supported by this Subcommittee in 
recent years have been essential first steps to a better future, a 
committed and sustained investment in research is necessary to allow 
continuous progress on the many research advances made to date.

                  NATIONAL INSTITUTE OF MENTAL HEALTH

    In his fiscal year 2006 budget, the President proposed an increase 
of $200 million for the National Institutes of Health (NIH), which 
would bring the entire NIH budget to a level of $28.8 billion. However, 
this 0.7 percent increase over the fiscal year 2005 funding level pales 
in comparison with recent annual double-digit increases. A decline in 
adequate funding increases could have a devastating impact on the 
ability of NIH to sustain the ongoing, multi-year research grants that 
have been initiated in recent years.
    For NIMH, the President is proposing $1.418 billion for scientific 
and clinical research, a 0.4 percent increase over the agency's fiscal 
year 2005 appropriation of $1.412 billion. It is important to note that 
from fiscal year 1999 through fiscal year 2005, NIMH received increases 
that lagged behind the increases received by many of the other NIH 
institutes. Furthermore, the increase proposed by the Administration 
for NIMH for fiscal year 2006 is lower than that proposed for most of 
the other institutes at NIH. As Congress moves forward with 
deliberations on the fiscal year 2006 budget, AAGP believes that NIMH 
should receive a percentage increase that, at the very minimum, is 
equal to the average percentage increase for the other NIH institutes.
    Commendable as recent funding increases for NIH and NIMH have been, 
AAGP would like to call to the Subcommittee's attention the fact that 
these increases have not always translated into comparable increases in 
funding that specifically address problems of older adults. Data 
supplied to AAGP by NIMH indicates that while extramural research 
grants by NIMH increased 59 percent during the five-year period from 
fiscal year 1995 through fiscal year 2000 (from $485,140,000 in fiscal 
year 1995 to $771,765,000 in fiscal year 2000), NIMH grants for aging 
research increased at less than half that rate: only 27.2 percent 
during the same period (from $46,989,000 to $59,771,000). Furthermore, 
despite the fact that over the past four years, Congress, through 
Committee report language, has specifically urged NIMH to increase 
research grant funding devoted to older adults, this has not occurred.
    AAGP is pleased that NIMH has recently renewed its emphasis on 
mental disorders among the elderly, and commends the recent creation of 
a new Aging Treatment and Prevention Intervention Research Branch at 
NIMH. AAGP would like the scope of this Branch increased into a 
comprehensive aging Branch that is responsible for all facets of 
clinical research, including translational, interventions, and disease-
based psychopathology. The Branch should also be given adequate 
resources to fulfill its primary mission within NIMH.
    In addition to supporting research activities at NIMH, AAGP 
supports increased funding for research related to geriatric mental 
health at the other institutes of NIH that address issues relevant to 
mental health and aging, including the National Institute of Aging 
(NIA), the National Institute on Alcohol Abuse and Alcoholism (NIAAA), 
the National Institute on Drug Abuse (NIDA), and the National Institute 
of Neurological Disorders and Stroke.

                   CENTER FOR MENTAL HEALTH SERVICES

    It is also critical that there be adequate funding increases for 
the mental health initiatives under the jurisdiction of the CMHS within 
SAMHSA. While research is of critical importance to a better future, 
the patients of today must also receive appropriate treatment for their 
mental health problems. SAMHSA provides funding to State and local 
mental health departments, which in turn provide community-based mental 
health services to Americans of all ages, without regard to the ability 
to pay. AAGP was pleased that the final budgets for fiscal years 2002, 
2003, 2004, and 2005 included $5 million for evidence-based mental 
health outreach and treatment to the elderly. AAGP worked with members 
of this Subcommittee and its House counterpart on this initiative, 
which is a very important first step in addressing the mental health 
needs of the nation's senior citizens. Increasing this mental health 
outreach and treatment program must be a top priority, as it is the 
only Federally funded services program dedicated specifically to the 
mental health care of older adults.
    Funding for the dissemination and implementation of evidence-based 
practices in ``real world'' care settings must also be a top priority 
for Congress. Despite significant advances in research on the causes 
and treatment of mental disorders in older persons, there is a major 
gap between these research advances and clinical practice in usual care 
settings. The greatest challenge for the future of mental health care 
for older Americans is to bridge this gap between scientific knowledge 
and clinical practice in the community, and to translate research into 
patient care. Adequate funding for this geriatric mental health 
services initiative is essential to disseminate and implement evidence-
based practices in routine clinical settings across the states. 
Consequently, we would urge that the $5 million for mental health 
outreach and treatment for the elderly included in the CMHS budget for 
fiscal year 2005 be increased to $20 million for fiscal year 2006.
    Of that $20 million appropriation, AAGP believes that $10 million 
should be allocated to a National Evidence-Based Practices Program, 
which will disseminate and implement evidence-based mental health 
practices for older persons in usual care settings in the community. 
This program will be a collaborative effort, actively involving family 
members, consumers, mental health practitioners, experts, professional 
organizations, academics, and mental health administrators. With $10 
million dedicated to a program to disseminate and implement evidence-
based practice in geriatric mental health, there will be an assured 
focus on facilitating accurate, broad-based sustainable implementation 
of proven effective treatments, with an emphasis on practice change and 
consumer outcomes. Such a program should include several development 
phases including identification of a core set of evidence-based 
practices, development of evidence-based implementation, and practice 
improvement toolkits and field-testing of evidence-based 
implementation. This program will provide the foundation for a longer-
term national effort that will have a direct effect on the well-being 
and mental health of older Americans.
    The Community Mental Health Services Block Grant Program 
distributes funds to 59 eligible States and Territories through a 
formula based upon specified economic and demographic factors. 
Applications must include an annual plan for providing comprehensive 
community mental health services to adults with a serious mental 
illness and children with a serious emotional disturbance. Because the 
mental health needs of our Nation's elderly population are often not 
met by existing programs and because the need for such services is 
dramatically and rapidly increasing, AAGP recommends that SAMHSA 
require States' plans to include specific provisions for mental health 
services for older adults. Experience has demonstrated that States do 
not make adequate provisions for older adults. This population, which 
has unique needs, has been neglected in the planning process. Steps 
need to be taken to ensure that adequate mental health services are 
available to them.

               AGENCY FOR HEALTHCARE RESEARCH AND QUALITY

    One of the most valuable resources in our efforts to improve access 
to and the quality of geriatric mental health services is the Agency 
for Healthcare Research and Quality (AHRQ). In recent years the Agency 
has supported important research on mental health topics including 
studies on children's mental health issues, the impact of mental health 
parity on consumers' share of mental health costs, improving care for 
depression in primary care, and cultural issues in the treatment of 
mental illness in minority populations. This work has led to important 
contributions to the mental health literature, and the advancement of 
effective diagnosis and treatment of mental illness. We applaud these 
efforts and urge the Committee to increase support for the critical 
work of this Agency.
    However, we are concerned that the research agenda of the Agency 
has not given more attention to geriatric mental health issues. The 
prevalence of undiagnosed and untreated mental illness among the 
elderly is alarming. Conditions such as depression, anxiety, dementia, 
and substance abuse in older adults are often misdiagnosed or not 
recognized at all by primary and specialty care physicians. There is 
accumulating evidence that depression can exacerbate the effects of 
cardiac disease, cancer, strokes, and diabetes. Research has also shown 
that treatment of mental illness can improve health outcomes for those 
with chronic diseases. Effective treatments for mental illnesses in the 
elderly are available, but without access to physicians and other 
health professionals with the training to identify and treat these 
conditions, far too many seniors fail to receive needed care.
    AAGP believes there is an urgent need to translate findings from 
aging-related biomedical and behavioral research into geriatric mental 
health care. By utilizing the resources of the evidence-based practice 
centers under contract to AHRQ, results from geriatric mental health 
research can be evaluated and translated into findings that will 
improve access, foster appropriate practices, and reduce unnecessary 
and wasteful health care expenditures. We urge the Committee to direct 
AHRQ to support additional research projects focused on the diagnosis 
and treatment of mental illnesses in the geriatric population. We also 
believe a high priority should be given to the dissemination of 
scientific findings about what works best, to encourage physicians and 
other health professionals to adopt ``best practices'' in geriatric 
mental health care.

                               CONCLUSION

    Based on AAGP's assessment of the current need and future 
challenges of late life mental disorders, we submit the following 
fiscal year 2006 funding recommendations:
    1. The current rate of funding for aging grants at NIMH and CMHS is 
inadequate. Funding for NIMH and CMHS aging-related health services 
grants should be increased to be commensurate with current need--at 
least three times their current funding levels. In addition, the 
substantial projected increase in mental disorders in our aging 
population should be reflected in the budget process in terms of dollar 
amount of grants and absolute number of new grants.
    2. To help the country's elderly access necessary mental health 
care, previous years' funding of $5 million for evidence-based mental 
health outreach and treatment for the elderly within CMHS must be 
increased to $20 million.
    3. A fair grant review process will be enhanced by committees with 
specific expertise and dedication to mental health and aging.
    4. Adequate infrastructure and funding within both NIMH and CMHS to 
support the development of initiatives in aging research, to monitor 
the number and quality of applicants for aging research grants, to 
promote funding of meritorious projects, and to manage those grant 
portfolios.
    5. The scope of the recently formed Aging Treatment and Prevention 
Intervention Research Branch at NIMH should be increased to include all 
relevant clinical research, including translational, interventions, and 
disease-based psychopathology, and must receive NIMH's full support so 
it may fulfill its primary mission.
    6. AHRQ should undertake additional research projects focused on 
the diagnosis and treatment of mental illnesses in the geriatric 
population, and dissemination of information on best practices.
    7. Funding for NIAAA must be increased by at least 20 percent to 
enable it to undertake more research and collect more data focused on 
issues such as the link between alcohol use and late-life suicide and 
the impact of alcohol use across the lifespan.
    AAGP strongly believes that the present research infrastructure, 
professional workforce with appropriate geriatric training, health care 
financing mechanisms, and mental health delivery systems are grossly 
inadequate to meet the challenges posed by the expected increase in the 
number of older Americans with mental disorders. Congress must support 
funding for research that addresses the diagnosis and treatment of 
mental illnesses, as well as programs for delivery of geriatric mental 
health services that increase the quality of life for those with late-
life mental illness.
    AAGP looks forward to working with the members of this Subcommittee 
and others in Congress to establish geriatric mental health research 
and services as a priority at NIMH, CMHS, AHRQ and NIAAA.
                                 ______
                                 
    Prepared Statement of the American Autoimmune Related Diseases 
                              Association

    The American Autoimmune Related Diseases Association (AARDA) is the 
only national voluntary health agency advocating for the over 100 
autoimmune diseases as a genetically and clinically interrelated 
family, like cancer. AARDA's aim is to initiate, foster and facilitate 
collaboration in autoimmune awareness, education, advocacy and 
research. AARDA initiated, supports and facilitates the National 
Coalition of Autoimmune Patient Groups (NCAPG), a coalition of 25 
voluntary health agencies focusing on individual autoimmune diseases.
    The family of autoimmune diseases is under-recognized and as a 
result poses a major healthcare problem in the United States. These 
diseases afflict over 22 million Americans, more than twice as many as 
cancer. Treatment costs exceed $120 billion per year and are rising 
rapidly, putting autoimmune disease's financial burden on the same 
level as heart and stroke disease and cancer. Autoimmune diseases are 
one of the top ten leading causes of death in females under the age of 
65.
    Autoimmune diseases are a major cause of chronic disability, 
further increasing their financial burden on society. Well-known 
autoimmune diseases include lupus, rheumatoid arthritis, multiple 
sclerosis, and juvenile (Type 1) diabetes. Lesser-known are 
scleroderma, Crohn's disease, myasthenia gravis, polymyositis, 
autoimmune liver diseases, Sjogren's syndrome and autoimmune blood 
disorders.
    There is a huge disparity in autoimmune disease research funding 
compared to other major disease groups, such as cancer and heart 
disease. And some autoimmune diseases get a disproportionate amount of 
research funding compared to the others.
    Congress addressed these issues in the Children's Health Act of 
2000, which mandated the National Institutes' of Health (NIH) 
Autoimmune Disease Coordinating Committee to develop an integrated 
Autoimmune Diseases Research Plan to address the entire family of 
autoimmune diseases and their common underlying cause--the immune 
system mistakenly attacking healthy body tissue and organs. All NIH 
institutes, the CDCP, VA, FDA and many patients' organizations provided 
input to develop and review the Research Plan. It is an excellent plan 
recommending an integrated cost-effective approach to autoimmune 
disease research and information dissemination.
    Some of the Autoimmune Diseases Research Plan's recommendations 
have been implemented, but most have not. Much remains to be done, 
especially in the new and promising research areas identified in the 
Plan. AARDA strongly supports additional funding for the NIH Autoimmune 
Disease Coordinating Committee to further expand implementation of the 
Autoimmune Diseases Research Plan. This additional funding will allow 
the Coordinating Committee to pursue promising research in the areas of 
environmental triggers, biomarkers and underlying disease mechanisms to 
help identify individuals at risk of developing an autoimmune disease 
and develop techniques to prevent the disease or minimize its impact.
    AARDA respectfully requests Congress to appropriate $40 million for 
the NIH Autoimmune Disease Coordinating Committee to expand 
implementation of the Autoimmune Diseases Research Plan to study 
environmental triggers of autoimmune disease. This research will pay 
for itself many times over by helping to reduce the major financial 
burden the family of autoimmune diseases places on our country.
    On behalf of the many millions afflicted with an autoimmune disease 
and their families, thank you for the opportunity to address this 
important issue as Congress develops the Labor, HHS fiscal year 2006 
budget. For More information, contact Virginia T. Ladd, Director, 
American Autoimmune Related Diseases Assoc., 22100 Gratiot, Eastpointe, 
MI., 48021, 586-776-3900 (p) 586-776-3903 (F)
                                 ______
                                 
           Prepared Statement of the American Brain Coalition

                 WHAT IS THE AMERICAN BRAIN COALITION?

    The American Brain Coalition (ABC) is a nonprofit organization that 
seeks to reduce the burden of brain disorders and advance the 
understanding of the functions of the brain. ABC, unlike any other 
organization, brings together all types of organizations representing 
the 50 million individuals affected by brain disorders. This includes 
the afflicted patients, the families of those that suffer, the 
caregivers, and the professionals that research and treat diseases of 
the brain.
    ABCs' goals are to: (1) promote research funding and progress 
towards cures, (2) help to build a healthcare system that is more 
responsive to people with both acute and chronic brain disorders, and 
(3) advance public understanding about the causes, impacts, and 
consequences of neurologic and psychiatric illness in our society.
    The brain is the center of human existence, and the most complex 
living structure known. As such, ABC members have a broad range of 
interests. Among others, the coalition includes organizations and 
individuals that:
  --are clinicians who treat neurological diseases
  --are scientists who research the brain, including the neurological 
        and psychiatric disorders that affect it
  --investigate basic and clinical aspects of epilepsy
  --fund research on Rett Syndrome, a debilitating neurological 
        disorder
  --are pioneers in educational and vocational training for the 
        mentally retarded
  --have family members affected by mental health conditions, such as 
        depression, schizophrenia, and obsessive-compulsive disorder
  --are affected by Parkinson's disease and essential tremor

              CONGRESSIONAL SUPPORT ACCELERATES DISCOVERY

    The National Institutes of Health (NIH), the world's premier 
medical research enterprise, is leading the way in research related to 
the brain. Thanks to this subcommittee, Congress held to its commitment 
to double the budget of the NIH in the late 1990s and early 2000s. The 
primary goal for the added funds was to discover better treatments and 
cures for human disease. Since then, scientists have amassed a wealth 
of medical knowledge. Today, researchers have a greater understanding 
of how the brain and nervous system function due to NIH-funded 
research. On behalf of the millions of Americans suffering from a 
disorder of the brain, ABC thanks the Chairman and Ranking Member for 
their continued support of this life altering research.
    Many recent scientific discoveries, including those in neurology 
and psychiatry, have just begun to show their potential. Some 
accomplishments that are a direct result of NIH research include:
  --The development of drugs that reduce the severity of symptoms for 
        those suffering with multiple sclerosis and Parkinson's disease
  --The identification of stroke treatment and prevention methods
  --The discovery of a new class of anti-depressants that produce fewer 
        side effects than their predecessors
  --The creation of new drugs to help prevent epileptic seizures
  --The expansion of treatments for the psychotic symptoms of 
        schizophrenia
    Insights into the biology of schizophrenia, post-traumatic stress 
disorder, and other diseases have led to the development of enhanced 
diagnostic techniques, better prevention methods, and more effective 
treatments. Simply put: the result of Congressional support for 
research leads to improved patient care.

                WHAT COMES NEXT? THE FUTURE OF RESEARCH

    ABC supports NIH in its entirety, with a more specific interest in 
the institutes and centers that focus on diseases and disorders of the 
brain and nervous system. Because the brain affects all parts of the 
body, brain research is broad and must be conducted across institutes 
in order to fully understand the diseases that affect so many 
Americans.
    The NIH Neuroscience Blueprint is a framework to enhance 
cooperation among 15 NIH institutes and centers that support this 
research. Over the past 10 years, driven by the science, the NIH 
neuroscience institutes and centers have increasingly joined forces 
through initiatives and working groups focused on specific disorders. 
The Blueprint builds on this foundation, making collaboration an 
everyday part of how the NIH does business in neuroscience. By pooling 
resources and expertise, the Blueprint can take advantage of economies 
of scale, confront challenges too large for any single institute, and 
develop research tools and infrastructure that will serve the entire 
neuroscience community.
    The Neuroscience Blueprint encourages the collaboration necessary 
in order to advance basic science and to develop new more effective 
bedside treatments. The following diseases, along with many others, 
have the potential to be greatly affected from this research.
    1. Stroke.--Research has already led to the development of more 
effective stroke treatments, the identification of new prevention 
methods, and the creation of improved rehabilitation techniques. 
Despite much progress in stroke research over the past decade, much 
remains to be done.
    With continued funding, therapies to reverse paralysis of limbs may 
be possible. A preliminary analysis indicates that the resulting 
financial benefits from reduced medical care, a quicker return to work, 
and improved quality of life outweigh the costs of therapy. Future 
studies seek to refine the technique, called constraint-induced 
movement therapy to further improve outcomes and lower costs.
    2. Epilepsy.--Research in the field of Epilepsy has already led to 
the discovery of genetic mutations that play a role in how seizures 
begin. Additionally, research has aided in the development of a new 
generation of antiepileptic drugs and better brain scanning techniques 
that assist in diagnosis.
    With continued funding, additional drug therapies might be 
developed to control seizures. Currently, up to one-third of patients 
are resistant to drug therapy. More research must be done in order to 
improve the quality of life for these people. One promising approach 
may be to use gene therapy to modify the excitability of hyperactive 
brain cell circuits. Additionally, increased funding might aid in the 
development of devices that are implanted into the brain that could 
forewarn doctors and patients of an impending seizure. These tiny 
devices could then deliver the drugs directly to the epileptic brain 
region in doses that could be regulated by the patient or doctor. Much 
more work is needed before such a system could be widely used.
    3. Bipolar Disorder.--Past funding from NIH and the Department of 
Veterans Affairs has helped scientists make great progress in 
understanding bipolar disorder. Today, we know that bipolar disorder is 
a biologically based disorder, and not a result of a weak personal 
character. Using the latest brain imaging techniques, scientists have 
discovered that the brain function and structure in patients with 
bipolar disorder differs markedly from that in people without the 
illness.
    Continued funding for research could lead to the development of 
tests for earlier diagnosis and treatment, as well as drug therapies to 
prevent or reverse the progressive loss of brain cells that occurs with 
bipolar disorder. Already, scientists are exploring the possibility for 
low-dose lithium as a preventative measure against atrophy and loss of 
cells. Research on lithium may prove advantageous for a variety of 
diseases, including schizophrenia and Alzheimer's disease.
    Only with continued funding will scientists be able to bring hope 
to the millions of Americans suffering from a brain disorder.

BEYOND HELPING PEOPLE: FEDERAL INVESTMENTS IN RESEARCH ARE ECONOMICALLY 
                               BENEFICIAL

    Not only does research save lives, but it is a good investment for 
the future of America. We know that illness is expensive. Depressive 
diseases alone cost U.S. businesses $83 billion in medical 
expenditures, suicide-related costs, absences from work, and reduced 
productivity while at work. The annual cost of Alzheimer's disease in 
the United States is over $100 billion, with more that $30 billion of 
that amount paid out by Medicare. As the baby boomers age, without 
effective therapy, the number of people affected by Alzheimer's will 
quadruple. This number is only expected to increase.
    NIH-funded research could alleviate some of the financial strains 
that brain disorders place on businesses, government, and families. For 
example, a one month delay in admitting Alzheimer's patients to nursing 
homes could save $1billion per year. Without additional research, the 
economic burden placed on U.S. resources will be exacerbated.
    In addition to helping control costs, the federal investment in 
research helps stimulate local economies. NIH dollars are sent to every 
state in the country, helping to employ thousands of people. According 
to the Bureau of Labor Statistics, nearly 1 million people in the 
United States are employed in the biosciences. This number is projected 
to grow at an annual rate of 13 percent.

                             RECOMMENDATION

    As the Subcommittee considers the fiscal year 2006 appropriations 
for the Department of Health and Human Services, we urge you to support 
a 6 percent increase in funding for the National Institutes of Health 
in order to sustain the pace of recent discoveries.
    Treatments for diseases and disorders of the brain will only be 
possible if the NIH, the world's leading medical research enterprise, 
has a longstanding commitment from Congress.
    ABC's request is based on the following information:
  --$1 billion is needed to cover biomedical research inflation, which 
        is projected to be 3.5 percent;
  --$560 million is needed to replace the evaluation set-aside (an 
        amount taken from each institute), which this year amounted to 
        2.4 percent (it used to be 1 percent); and
  --The total number of research project grants (RPGs) is declining by 
        402 from what it was in fiscal year 2005.
    Thank you for the opportunity to provide testimony to this 
Subcommittee.
                                 ______
                                 
        Prepared Statement of the American College of Cardiology

    More than 70 million Americans are living with cardiovascular 
disease, with more than 900,000 of them dying this year from disease-
related complications. In fact, heart disease claims more lives than 
cancer, diabetes, and chronic respiratory diseases combined. As 
physicians toil to keep these patients alive, another group of 
individuals is working just as hard to fight the ravages of heart 
disease: Medical researchers.
    The American College of Cardiology (ACC), a 33,000-member nonprofit 
professional medical society advocating for quality cardiovascular 
care, supports increased federal funding of medical research and 
urgently calls on Congress to continue to invest in future 
cardiovascular care.
    As with any financial outlay, there needs to be a healthy return on 
investment. The same holds true for medical research, and the ACC 
believes the data speaks loudly. Between 1982 and 2002, death rates 
attributed to cardiovascular diseases declined by 37 percent. This 
remarkable achievement can be attributed to clinically proven 
treatments and techniques for managing heart disease. These life-saving 
technology advances and treatments originate with cutting-edge 
research. Without federally-funded clinical trials, there would not be 
stents or statins, ICDs or AEDs, and millions more Americans would die 
prematurely from cardiovascular disease.
    Each year, agencies such as the National Institutes of Health (NIH) 
release groundbreaking studies that fundamentally change the course of 
medicine. This year was no exception. Initially presented at the ACC's 
Annual Scientific Session in early March and published March 31, 2005, 
in The New England Journal of Medicine, The Women's Health Study has 
left its mark on the cardiovascular world. This 10-year study of 40,000 
healthy women showed that aspirin did not reduce the risk of major 
cardiovascular events, a stark contrast to the effects of aspirin in 
men. In addition, researchers concluded that many women, especially 
those 65 and older, may benefit from taking low-dose aspirin every 
other day with the primary goal to prevent stroke. The results of this 
study hold immediate implications for the treatment of women at risk 
for heart disease, but also point to the broader role of understanding 
and adjusting for gender in the development of medical regimens.
    Compelling cardiovascular research conducted by the NIH and the 
National Heart, Lung and Blood Institute (NHLBI) is critical to 
physicians winning the fight against heart disease. The ACC does not 
believe that President Bush's proposed fiscal year 2006 budget reflects 
the commitment needed to these critical research institutions. Under 
the President's plan, the National Institutes of Health (NIH) would 
receive a 0.5 percent increase, which is significantly less than the 
current rate of inflation. As one of 27 institutes falling under the 
NIH umbrella, the NHLBI stands to receive a pittance of this modest 
increase. The Centers for Disease Control and Prevention (CDC) fare 
even worse, facing millions of dollars in actual funding cuts for 
fiscal year 2006.
    In order to continue life-saving cardiovascular research and 
education, the ACC supports the following fiscal year 2006 
appropriations funding levels:
  --$30 billion for the NIH, including $2.3 billion for heart research 
        and $341 million for stroke research
  --$3.1 billion for the NHLBI, including $1.9 billion for heart and 
        stroke-related research
  --$55.6 million for the CDC's Heart Disease and Stroke Prevention 
        Program
    These allocations will enable core cardiovascular research that 
improves clinical outcomes and quality of care. As the medical 
landscape continues to shift with the introduction of new technology 
and more complex caseloads, evidence-based research serves as the 
foundation of clinical guidelines that direct physician practice. The 
ACC draws on federally-funded research to craft documents that set the 
standard for cardiovascular care and guide the practice of our members 
worldwide.
    Adequately funding research today will reap dividends tomorrow, 
upon which the federal government through its Centers for Medicare & 
Medicaid Services (CMS) will undoubtedly benefit. Even now, CMS is 
sponsoring pilot projects designed to pay physicians based on evidence-
driven performance. Advances in medical protocols derived from 
federally underwritten research will become the backbone for this push 
to deliver better, more cost-effective patient care.
    By investing in medical research now, Congress can help at-risk 
patients minimize the impact of cardiovascular disease and improve 
quality of care for more than 70 million heart patients. The ACC 
encourages the subcommittee to continue its support of federally-funded 
cardiovascular research by supplying federal agencies with the 
resources to continue their life-saving work. Thank you for permitting 
the ACC to share its views on this important topic.
                                 ______
                                 
   Prepared Statement of the American Dental Hygienists' Association

    The American Dental Hygienists' Association (ADHA) appreciates this 
opportunity to submit written testimony regarding fiscal year 2006 
appropriations for the Department of Health and Human Services.
    ADHA is the largest national organization representing the 
professional interests of the more than 120,000 dental hygienists 
across the country. Dental hygienists are preventive oral health 
professionals who are licensed in each of the fifty states. As 
prevention specialists, dental hygienists understand that recognizing 
the connection between oral health and total health can prevent 
disease, treat problems while they are still manageable, and conserve 
critical health care dollars. Dental hygienists are committed to 
improving the nation's oral health, a fundamental part of total health.
    Indeed, in order to improve access to oral health care, ADHA is 
working to establish a new oral health care provider, the ``Advanced 
Dental Hygiene Practitioner.'' This new provider would deliver 
preventive, therapeutic and restorative services directly to 
underserved Americans. Please visit the ADHA web site at www.adha.org 
for more information.

U.S. SURGEON GENERAL REPORT ON ORAL HEALTH IN AMERICA AND THE NATIONAL 
                       ORAL HEALTH CALL TO ACTION

    In May 2000, the U.S. Surgeon General issued Oral Health in 
America: A Report of the Surgeon General. This landmark report confirms 
what dental hygienists have long known: that oral health is an integral 
part of total health and that good oral health can be achieved. The 
Surgeon General's Report on Oral Health challenges all of us--in both 
the public and private sectors--to address the compelling evidence that 
not all Americans have achieved the same level of oral health and well-
being. The Report describes a ``silent epidemic'' of oral diseases, 
which affect our most vulnerable citizens--poor children, the elderly 
and many members of racial and ethnic minority groups.
    ADHA suggests that one step that needs to be taken is to improve 
access to the preventive oral health care services provided by dental 
hygienists. This is important because unlike most medical conditions, 
the three most common oral diseases--dental caries (tooth decay), 
gingivitis (gum disease) and periodontitis (advanced gum and bone 
disease)--are proven to be preventable with the provision of regular 
oral health care. Despite this prevention capability, tooth decay--
which is an infectious transmissible disease--still affects more than 
half of all children by second grade. Clearly, more must be done to 
increase children's access to oral health care services.
    While the profession of dental hygiene was founded in 1923 as a 
school-based profession, today the provision of dental hygiene services 
is largely tied to the private dental office. Increased utilization of 
dental hygienists in schools, nursing homes, and other sites--with 
appropriate referral mechanisms in place to dentists--will improve 
access to needed preventive oral health services. This increased access 
to preventive oral health services will likely result in decreased oral 
health care costs per capita and, more importantly, improvements in 
oral and total health.
    As the General Accounting Office (GAO) confirmed in two recent 
separate reports to Congress, ``dental disease is a chronic problem 
among many low-income and vulnerable populations'' and ``poor children 
have five times more untreated dental caries (cavities) than children 
in higher-income families.'' The GAO further found that the major 
factor contributing to the low use of dental services among low-income 
persons who have coverage for dental services is ``finding dentists to 
treat them.'' Increased utilization of dental hygiene services--
appropriately linked to the services of dentists--is critical to 
addressing the nation's crisis in access to oral health care for 
vulnerable populations. Indeed, ADHA is committed to working with the 
Congress to improve access to oral health care services, particularly 
for children eligible for Medicaid and the State Children's Health 
Insurance Program (SCHIP). ADHA urges this Subcommittee and all members 
of Congress to support the Medicaid and SCHIP programs. ADHA strongly 
supports the Smith-Bingaman amendment in the fiscal year 2006 Senate 
Budget Resolution that strikes cuts to the Medicaid program and calls 
for a Medicaid Commission to carefully study and recommend changes to 
the program.

         NATIONAL INSTITUTE OF DENTAL AND CRANIOFACIAL RESEARCH

    As the Surgeon General's Report on Oral Health so clearly 
demonstrates, the nation's oral health can and must be further 
improved. The National Institute of Dental and Craniofacial Research 
(NIDCR) is the nation's focal point for oral health research and 
NIDCR's work has yielded significant advancements in oral health.
    Over the past 50 years, our nation's investment in dental and 
craniofacial research has yielded tremendous advances in American 
public health. Some of the often-cited examples include a sharp 
reduction in the once rampant rate of dental caries and tooth loss, 
improved care of all aspects of gum (periodontal) diseases, and the 
effective management of oral pain. In its ongoing quest to improve the 
nation's oral health, a fundamental part of overall health and general 
well-being, NIDCR is, for example, working to realize the potential of 
salivary diagnostics. As NIDCR Director Lawrence A. Tabak, DDS, PhD 
explains, ``scientists have long recognized that our saliva serves as a 
mirror' of the body's health, in that it contains the full repertoire 
of proteins, hormones, antibodies, and other molecular analytes that 
are frequently measured in standard blood tests.''
    NIDCR's work in dental research has not only resulted in better 
oral health for the nation, it has also helped curb increases in oral 
health care costs. Americans save nearly $4 billion annually in dental 
bills because of advances in dental research and an increased emphasis 
on preventive oral health care. To enable NIDCR to continue and to 
build upon its important research mission, ADHA joins with other groups 
in the oral health community to recommend that NIDCR be funded at $420 
million for fiscal year 2006. ADHA further urges that NIDCR be 
preserved as an independent institute in any future NIH reorganization.

 DENTAL HEALTH IMPROVEMENT ACT, A COMPONENT OF THE HEALTH CARE SAFETY 
                       NET AMENDMENTS ACT OF 2002

    ADHA is pleased to see the increasing recognition among federal 
policymakers of the importance of oral health to overall health and 
well-being. A primary illustration of this appreciation for the link 
between oral health and general health is the Dental Health Improvement 
Act, which was passed by Congress as part of the Health Care Safety Net 
Amendments Act of 2002 (Public Law 107-261). This important legislation 
will assist states in addressing the crisis in access to oral health 
services. ADHA joins with others in the oral health community to 
recommend $10 million to fund the oral health programs and initiatives 
contained within the Act.

            CENTERS FOR DISEASE CONTROL ORAL HEALTH PROGRAM

    ADHA would also like to lend its support to the Centers for Disease 
Control and Prevention (CDC) Oral Health Program. ADHA joins with other 
dental groups in urging a budget of $18 million for the CDC Oral Health 
Program. This funding level will enable the Oral Health Program to 
continue its vital work to control and prevent oral disease, including 
its important work in the area of community water fluoridation and 
school-based dental sealant programs. ADHA also requests $130 million 
for the CDC prevention block grant. Last year, approximately $3.5 
million in block grant monies flowed to the states for critical oral 
health projects such as replacement of fluoridation equipment.

            RYAN WHITE HIV/AIDS DENTAL REIMBURSEMENT PROGRAM

    Included in the Ryan White CARE Act is a dental reimbursement 
program that assists in meeting the oral health needs of people living 
with HIV/AIDS, most of whose care is not covered under existing federal 
and state assistance programs. The dental reimbursement program 
provides participating institutions with partial reimbursement for the 
cost of providing oral health care services to low income people living 
with HIV and AIDS. In 1999, oral health care was provided to more than 
65,000 patients under the program.
    The ``Ryan White CARE Act Amendments of 2000'' rendered--for the 
first time--dental hygiene programs eligible for the dental 
reimbursement program. While there are only 55 dental schools in the 
United States, there are presently 279 accredited dental hygiene 
education programs in the United States. In fact, all states have at 
least one dental hygiene education program.
    ADHA joins with the American Dental Education Association in 
recommending $19 million for this important program. ADHA further urges 
this Subcommittee to direct HRSA to work to actively encourage and 
facilitate the participation of dental hygiene programs in the Ryan 
White HIV/AIDS reimbursement effort.

                   MATERNAL AND CHILD HEALTH PROGRAM

    The Maternal and Child Health Block Grant Program provides vital 
support and services that improve the health of women and children. It 
is critical that the oral health component of this program be 
strengthened. This is important because, for example, research 
increasingly recognizes the link between severe periodontal disease in 
pregnant women and pre-term low birth weight babies. ADHA strongly 
supports the MCH programs and urges full funding for fiscal year 2006.

                      HEALTH PROFESSIONS EDUCATION

    ADHA supports the important work of Title VII of the Public Health 
Service Act, in particular, the Allied Health Project Grants and the 
Scholarships for Disadvantaged Students Program. Allied health 
disciplines constitute fully 60 percent of the health care work force. 
The Scholarships Program seeks to recruit and retain minority and 
disadvantaged students.
    ADHA joins the Association of Schools of Allied Health Professions 
in recommending $20 million for Allied Health Project Grants and full 
funding for the Scholarships for Disadvantaged Students program. With 
the acknowledged need for cost-effective health care providers, it is 
time to augment funding for and recognition of these important allied 
health programs. ADHA further urges full funding for the Centers for 
Excellence Program, the Faculty Loan Repayment Program and the Health 
Careers Opportunity Program.

                     NATIONAL HEALTH SERVICE CORPS

    ADHA strongly supports the National Health Service Corps (NHSC) and 
its Scholarship and Loan Forgiveness Programs. Scholarships and loan 
forgiveness provide vital assistance to students entering the health 
professions. ADHA urges that the committee again direct the NHSC to 
increase the participation of dental health providers, dentists and 
dental hygienists alike. This is important because too few Americans--
particularly low-income Americans--regularly access needed oral health 
services. ADHA supports $213 million for this important effort.

                 INDIAN HEALTH SERVICE DENTAL PROGRAMS

    American Indians and Alaska Natives suffer disproportionately from 
poor oral health. Indeed, 75 percent of American Indian and Alaska 
Native children aged 2-5 years old experience untreated dental decay 
(caries). The prevalence of dental disease only increases with age. A 
staggering 91 percent of American Indian and Alaska Native children 
aged 15-19 years old experience tooth decay. In fiscal year 2004, the 
proportion of American Indian and Alaska Natives with access to dental 
care was only 24 percent. Presently, there are 109 vacancies in the IHS 
dental program. Clearly, there is much to be done to improve access to 
oral health services for Alaska Natives and American Indians. 
Accordingly, ADHA strongly supports the Community Health Aide Program, 
including the use of dental health aide therapists. ADHA joins with the 
American Academy of Pediatrics and the American Dental Association in 
recommending $124 million for IHS dental programs.

                               CONCLUSION

    In closing, the American Dental Hygienists' Association appreciates 
the important contributions this Subcommittee has made in improving the 
quality and availability of oral health services throughout the 
country. ADHA is committed to working with this Subcommittee--and all 
Members of Congress--to improve the nation's oral health which, as Oral 
Health in America: A Report of the Surgeon General so rightly 
recognizes, is a vital part of overall health and well-being.
    Please contact our Washington Counsel, Karen Sealander of McDermott 
Will & Emery (202/756-8024 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8fe4fceaeee3eee1ebeafdcfe2f8eaa1ece0e2">[email&#160;protected]</a>), with questions or 
for further information. Thank you for this opportunity to submit the 
views of the American Dental Hygienists' Association.
                                 ______
                                 
        Prepared Statement of the American Diabetes Association

    Thank you for the opportunity to submit testimony on the importance 
of federal funding for diabetes programs at the Centers for Disease 
Control and Prevention (CDC) and diabetes research at the National 
Institutes of Health (NIH).
    As the nation's leading nonprofit health organization providing 
diabetes research, information and advocacy, the American Diabetes 
Association feels strongly that federal funding for diabetes prevention 
and research efforts is critical not only for the 18.2 million 
Americans who currently have diabetes, but also for the more than 40 
million who have a condition known as ``pre-diabetes.''
    Diabetes is a serious disease, and is a contributing and underlying 
cause of many of the diseases on which the federal government spends 
the most health care dollars. In addition to the $132 billion in 2002 
dollars in direct and indirect costs spent solely on diabetes each 
year, diabetes is a significant cause of heart disease (which costs our 
nation $183.1 billion each year), a significant cause of stroke ($43.3 
billion each year), and the leading cause of kidney disease ($40.3 
billion). Diabetes is also the leading cause of adult-onset blindness 
and lower limb amputations.
    Approximately 42,000 people suffering from diabetes live in each 
congressional district and the number of people living with diabetes in 
this country is growing at a shocking rate. Between 1990 and 2001, 
diabetes prevalence in the United States has increased by more than 60 
percent. The number of Americans with diabetes is now growing at a rate 
of 8 percent per year and is the single most prevalent chronic illness 
among children. Because the systemic damage diabetes imposes throughout 
the body, it is no surprise that the life expectancy of a person with 
the disease averages 10-15 years less than that of the general 
population.
    As the statistics listed above illustrate, we are facing an 
epidemic of diabetes in this country, which if left unchecked could 
have significant implications for many future generations. The picture, 
however, is not without hope. We can stem the tide of this disease, but 
to do so requires a renewed federal commitment not only to research, 
but also to prevention.
    The Association appreciates the increased attention by Congress to 
diabetes research at the National Institutes of Health (NIH) in recent 
years. While there is not yet a cure for diabetes, researchers at NIH 
are working on a variety of projects that represent hope for the 
millions of individuals with type 1 and type 2 diabetes. The 
Association strongly encourages you to provide a 6 percent increase to 
the NIH to fulfill this promise. Unfortunately, while the death rate 
due to diabetes has increased by more than 40 percent in recent years, 
diabetes research funding has not kept pace. Indeed, from 1987-2001, 
appropriated diabetes funding as a share of the overall NIH budget has 
dropped by more than 20 percent (from 3.9 percent to 2.9 percent). Over 
the last 4 years, Congress has begun to address this discrepancy. We 
respectfully ask you to continue this commitment.
    While the NIH continues to work towards finding a cure, we must 
also adequately fund the diabetes prevention and outreach work being 
done at the Centers for Disease Control and Prevention. Therefore, we 
are requesting:
  --At least a 10 percent increase over fiscal year 2005 levels for the 
        CDC's Center on Chronic Disease Prevention and Health, 
        including an additional $10 million increase for the CDC's 
        Division of Diabetes Translation (DDT); and
  --Restoration of the Preventive Health & Health Services Block Grant.
    The CDC's Division of Diabetes Translation is critical to our 
national efforts to prevent and manage diabetes because they translate 
the research that has already been done to real programs at the 
community level. Currently, for every $1 that diabetes costs this 
country, the federal government invests less than $.01 to help 
Americans prevent and manage this deadly disease. This dynamic must be 
changed. While the Association strongly believes that significant 
funding is needed to fully fund programs in all 50 states, our request 
of $10 million recognizes the current budget realities.
    In 2004 DDT provided support for more than 50 state- and 
territorial-based Diabetes Prevention and Control Programs (DPCPs) to 
increase outreach and education, and reduce the complications 
associated with diabetes. However, funding constraints required DDT to 
provide severely limited support to 24 states, 8 territories, and D.C. 
This level of funding, referred to as ``capacity building,'' allows a 
state to do surveillance, but is not enough for the state to do much--
or anything--in the way of intervention.
    DDT was able to provide the higher level of support, ``basic 
implementation,'' to the other 26 states. At the basic implementation 
level, states are able to devise and execute community-level programs. 
With an additional $10 million over fiscal year 2005 funding levels, an 
additional 7 states could start to receive the substantial benefits of 
basic implementation programs.
    The basic implementation programs undoubtedly make a major impact 
on local communities. For example, Daviess County in Kentucky is using 
their DPCP funding to support a community-based program that has 
trained more than 500 health professionals through professional 
education programs, screened and referred more than 1,500 people for 
diabetes through innovative events designed to reach the neediest 
individuals, provides test strips and emergency medications to more 
than 150 individuals annually, and lead comprehensive media and 
outreach campaigns to educate the public to recognize the risk factors 
for diabetes. While this example highlights the accomplishments from 
only one county in one state; it demonstrates the broad approach 
enabled by the basic implementation programs. Our goal is to make this 
a reality for the rest of the country, so that communities have the 
ability to invest in their future by investing in diabetes prevention 
and education.
    Without fully-funded diabetes programs and projects in all parts of 
the country, it will be exceedingly difficult -if not impossible--to 
control the escalating costs associated with diabetic complications and 
to stem the epidemic rise in diabetes rates. State DPCPs, when provided 
with enough funding, are proven programs that have been extremely 
successful in helping Americans prevent and manage their diabetes. In 
the Division of Diabetes Translation Program Review fiscal year 2004, 
the CDC stated, ``The Basic Implementation DPCPs serve as the backbone 
for our growing primary prevention efforts. These state programs are 
the key elements to our success in meeting the challenges of 
controlling and preventing diabetes.'' For example, in Minnesota, the 
DPCP initiated a unified, statewide strategic plan for combating 
diabetes which resulted in more than 800,000 Minnesotans getting 
educational messages through television, radio, print, and web 
coverage. In Utah, innovative messaging such as bus wraps on public 
transportation are being used to inform hard-to-reach, at-risk 
populations of the NDEP messages, ``You are the Heart of Your Family'' 
and ``Control Your Diabetes. For Life.'' Americans in every state 
should have access to such quality programs. Unfortunately, the 
Division's fiscal year 2005 budget of just over $63 million, and the 
President's request for near flat-funding in fiscal year 2006, will 
prevent more counties from implementing programs such as the one 
described above.
    In addition to DPCP, the CDC's Division of Diabetes Translation 
also conducts other activities to help people currently living with 
diabetes. For example, CDC works with NIH to jointly sponsor the 
National Diabetes Education Program (NDEP), which seeks to improve the 
treatment and outcomes of people with diabetes, promote early 
detection, and prevent the onset of diabetes. The CDC is also currently 
working to develop a National Public Health Vision Loss Prevention 
Program that will investigate the economic burden and strength the 
surveillance and research of this all-to-common complication of 
diabetes. In addition, CDC funds work at the National Diabetes 
Laboratory to support scientific studies that will improve the lives of 
people with diabetes. In fiscal year 2004, the Division of Diabetes 
Translation alone published 46 manuscripts on the care, prevention, and 
science of diabetes.
    The Association is also supportive of restoration of the CDC's 
Preventive Health & Health Services Block Grant (PBG). The PBG, which 
allows states to develop innovative health programs at the community 
level, received $132 million in FYO5, but is currently slated for no 
funding for fiscal year 2006. These programs have been very successful. 
For example, New York State uses theirs to help fund statewide regional 
partnerships that provide much needed diabetes prevention and control 
activities for medically underserved individuals and communities. 
Currently, about $2.2 million goes toward diabetes-related programs. 
While this is a relatively small amount, it is nonetheless important to 
the communities it is currently helping.
    The Association, and the millions of individuals with diabetes we 
represent, firmly believes that we could rapidly move toward curing, 
preventing, and managing this disease by increasing funding for 
diabetes programs and research both at CDC and NIH. Your leadership is 
essential to accomplishing this goal. As you are considering fiscal 
year 2006 funding, we ask you to remember that chronic diseases, 
including diabetes, account for nearly 70 percent of all health care 
costs as well as 70 percent of all deaths annually. Unfortunately, less 
than $l.25 per person is directed toward public health interventions 
focused on preventing the debilitating effects associated with chronic 
diseases, demonstrating that federal investment in chronic disease 
prevention remains grossly inadequate. We cannot ignore those Americans 
who are currently living with diabetes and other diseases.
    In closing, the American Diabetes Association strongly urges the 
Subcommittee and Congress to provide a 10 percent increase for the 
CDC's Center on Chronic Disease Prevention and Health, including a $10 
million increase for the CDC's Division of Diabetes Translation, and to 
restore the Preventive Health & Health Services Block Grant. Providing 
this funding would be an important step towards empowering states to 
fight diabetes at the community level. Additionally, we urge the 
Subcommittee to increase NIH funding by 6 percent to allow for an 
increased commitment to diabetes research.
    On behalf of the 18.2 million Americans with diabetes--a disease 
that crosses gender, race, ethnicity and political party; a disease 
that is among the most costly, debilitating, deadly and prevalent in 
our nation; and a disease that is exploding throughout our nation--
thank you for the opportunity to submit this testimony. The American 
Diabetes Association is prepared to answer any questions you might have 
on these important issues.
                                 ______
                                 
          Prepared Statement of the American Lung Association

                    SUMMARY: FUNDING RECOMMENDATIONS
                        [In millions of dollars]
------------------------------------------------------------------------
                           Agency                               Amount
------------------------------------------------------------------------
National Institutes of Health..............................         30.1
    National Heart, Lung, and Blood Institute..............      3,117.4
    National Institute of Allergy and Infectious Disease...      4,667.1
    National Institute of Environmental Health Sciences....        680.0
    National Institute of Nursing Research.................        146.2
    Fogarty International Center...........................         71.0
Centers for Disease Control and Prevention.................      8,500.0
    National Institute for Occupational Safety and Health..        326.0
    Office on Smoking and Health...........................        130.0
    Environmental Health: Asthma Activities................         70.0
    Tuberculosis Control Programs..........................        215.0
------------------------------------------------------------------------

              SUMMARY OF FISCAL YEAR 2006 RECOMMENDATIONS

    American Lung Association (ALA) is pleased to present our 
recommendations for programs in the Labor Health and Human Services and 
Education Appropriations Subcommittee purview.
    The American Lung Association is the oldest voluntary health 
organization in the United States, with a National Office, constituent, 
and affiliate associations around the country. Founded in 1904 to fight 
tuberculosis, the American Lung Association today fights lung disease 
in all its forms, with special emphasis on asthma, tobacco control and 
environmental health. The Lung Association is funded by contributions 
from the public, along with gifts and grants from corporations, 
foundations and government agencies. The American Lung Association 
achieves its many successes through the work of thousands of committed 
volunteers and staff.

                       MAGNITUDE OF LUNG DISEASE

    Each year, an estimated 341,500 Americans die of lung disease. Lung 
disease is America's number three killer, responsible for 1 in every 7 
deaths. More than 25 million Americans suffer from a chronic lung 
disease. This year, lung diseases cost the U.S. economy an estimated 
$94.9 billion.
    Lung diseases represent a spectrum of chronic and acute conditions 
that interfere with the lung's ability to extract oxygen from the 
atmosphere, protect against environmental or biological challenges and 
regulate a number of metabolic processes. Lung diseases include: 
chronic obstructive pulmonary disease, lung cancer, tuberculosis, 
pneumonia, influenza, sleep disordered breathing, pediatric lung 
disorders, occupational lung disease, sarcoidosis and asthma.
    Mr. Chairman, while our comments today will focus on selected parts 
of the Public Health Service; the American Lung Association is firmly 
committed to appropriate funding for all sectors of our nation's public 
health infrastructure.

                                  COPD

    Chronic Obstructive Pulmonary Disease, or COPD, is a growing health 
problem. Yet it remains relatively unknown to most Americans and much 
of the research community. COPD is an umbrella term used to describe 
the airflow obstruction associated mainly with emphysema and chronic 
bronchitis. COPD is the fourth leading cause of death in the United 
States and worldwide.
    While the exact prevalence of COPD is not well defined, it affects 
tens of millions of Americans and can be an extremely debilitating 
condition. It has been estimated that 16 million patients have been 
diagnosed with some form of COPD and as many as 16 million more are 
undiagnosed. New government data based on a 1998 prevalence survey 
suggest that 3 million Americans have been diagnosed with emphysema and 
9 million are diagnosed with chronic bronchitis. Emphysema affects more 
men than women, while chronic bronchitis affects more women than men. 
In 1999, 119,524 people in the United States died of COPD. During the 
period 1979-1998, the number of deaths from COPD rose almost 126 
percent. COPD costs the U.S. economy an estimated $30.4 billion a year.
    Today, COPD is treatable but not curable. Fortunately, promising 
research is on the horizon for COPD patients. Research in the genetic 
susceptibility underlying COPD is making progress. Research is also 
showing promise for reversing the damage to lung tissue caused by COPD.
    Despite these promising research leads, the American Lung 
Association feels that research resources committed to COPD are not 
commensurate with the impact COPD has on the United States and the 
world. The American Lung Association strongly recommends that the NIH 
and other federal research programs commit additional resources to COPD 
research programs.

                                 ASTHMA

    Asthma is a chronic lung disease in which the bronchial tubes of 
the lungs become swollen and narrowed, preventing air from getting into 
or out of the lung. A broad range of environmental triggers that vary 
from one asthma-sufferer to another causes these obstructive spasms of 
the bronchi.
    Asthma is on the rise. A 1998 survey found that an estimated 26 
million Americans (including 8.6 million children under the age of 18) 
have at some point in their lifetime been told by their doctor that 
they have asthma. Rates are increasing for all ethnic groups and 
especially for African American and Hispanic children. While some 
children appear to out grow their asthma when they reach adulthood, 75 
percent will require life-long treatment and monitoring of their 
condition.
    Asthma is expensive. The growth in the prevalence of asthma will 
have a significant impact on our nation's health expenditures, 
especially Medicaid. Currently, asthma costs the United States $12.7 
billion annually, including $8.1 billion in direct medical 
expenditures. Asthma attacks bring nearly two million people to the 
emergency room each year. Asthma also kills. In 1998, 5,438 people in 
the United States died as a result of an asthma attack. That is a 109 
percent increase from 1979. A disproportionate share of these deaths 
occurred in African American families.

Federal Response to Asthma
    The federal response to asthma has three components: research, 
programs and planning. We are pleased to report that, with support from 
the subcommittee, we are making progress on all three fronts.

            Asthma Research
    As the prevalence of asthma has grown, so has asthma research. 
Researchers are developing better ways to treat and manage chronic 
asthma. Research supported by National Heart, Lung and Blood Institute 
(NHLBI) has shown that using corticosteroids to treat children with 
mild to moderate asthma is safe and effective. For several years there 
had been concern that corticosteriods would stunt the growth of 
children who used them. This five-year study showed that children had a 
one-year small reduction in their growth rate. But they had normal 
growth rates compared with children who did not use corticosteriods for 
the following four years. Children who used corticosteroids did suffer 
fewer asthma attacks and made fewer trips to the emergency room.

            Genetic Research
    Genetic Research is also providing insights into asthma. Physicians 
have noticed that while most people respond well to inhaled beta-
agonists--a commonly prescribed drug to treat asthma--some patients do 
not response or have worse asthma using inhaled beta-agonists. 
Researchers in the NHLBI supported Asthma Clinical Research Network 
have discovered that a genetic variation in the beta-adrenegric 
receptor determines how well asthma patients will respond to inhaled 
beta-agonists. This discovery will enable physicians to better target 
the drugs they proscribe to treat asthma.
    Researchers supported by NHLBI have developed better animal models 
to allow expression of selected asthmatic genetic traits. This will 
allow researchers to develop a greater understanding of how genes and 
environmental triggers influence asthma's onset, severity and long-term 
consequences.

            Asthma Programs
    Last year, Congress provided approximately $32.7 million for the 
Centers for Disease Control and Prevention (CDC) to conduct asthma 
programs. The American Lung Association recommends that CDC be provided 
$70 million in fiscal year 2006 to expand its asthma programs.

                              TUBERCULOSIS

    Mr. Chairman, tuberculosis has been with us since the dawn of time. 
It is an airborne infection caused by a bacterium, Mycobacterium 
tuberculosis (TB). TB primarily affects the lungs but can also affect 
other parts of the body, such as the brain, kidneys or spine.
    TB is spread through coughs, sneezes, speech and close proximity to 
someone with active tuberculosis. People with active tuberculosis are 
most likely to spread TB to others they spend a lot of time with, such 
as family members or coworkers. It cannot be spread by touch or sharing 
utensils used by an infected person.
    There are an estimated 10 million to 15 million Americans who carry 
latent TB infection. Each has the potential to develop active TB in the 
future. About 10 percent of these individuals will develop active TB 
disease at some point in their lives. In 2001, there were 15,991 cases 
of active TB reported in the United States.
    The Institute of Medicine (IOM) recently published a report, 
entitled Ending Neglect: The Elimination of Tuberculosis in the United 
States. The report documents the cycles of attention and progress 
toward TB elimination, the periods of insufficient funding and the re-
emergence of TB. The American Lung Association is pleased to note that, 
for the time being, TB rates in the United States are declining. From a 
high in 1992 of 26,673 new cases, we have seen 9 straight years of 
decline. However, the drop in 2001 was reportedly only 2 percent, 
indicating a leveling off of the overall decline in cases and a cause 
for concern within the public health community. This is no time to 
lower our defenses in funding TB programs.
    While declining overall TB rates is good news, the emergence and 
spread of multi-drug resistant TB poses a significant threat to the 
public health of our nation. Continued support is need if the United 
States is going to continue progress toward the elimination of TB.
    The IOM report provides the United States with a road map of 
recommendations on how to eliminate TB in the United States. The IOM 
report identifies needed detection, treatment, prevention and research 
activities. The American Lung Association has endorsed the IOM report 
and its recommendations. We estimate it will cost $528 million for the 
CDC Tuberculosis Elimination Program to implement the report 
recommendations.
    The NIH also has a prominent role to play in the elimination of TB. 
Currently there is no highly effective vaccine to prevent TB 
transmission. However, the recent sequencing of the TB genome and other 
research advances has put the goal of an effective TB vaccine within 
reach. In addition, the American Lung Association encourages the 
subcommittee to fully fund the tuberculosis vaccine blueprint 
development effort at the National Institutes of Allergy and Infectious 
Disease (NIAID).

Fogarty International Center TB Training Programs
    The Fogarty International Center (FIC) at NIH provides training 
grants to U.S. universities to teach AIDS treatment and research 
techniques to international physicians and researchers. The goal is to 
develop a cadre of health professionals in the developing world who can 
begin controlling the global AIDS epidemic.
    Because of the link between AIDS and TB infection, FIC has created 
supplemental TB training grants for these institutions to train 
international health care professionals in the area TB treatment and 
research. This supplemental program has been highly successful in 
beginning to create the human infrastructure to treat the nearly two 
billion people who have TB worldwide.
    However, we believe TB training grants should not be offered 
exclusively to institutions that have received AIDS training grants. 
The TB grants program should be expanded and open to competition from 
all institutions. The American Lung Association recommends Congress 
provide $71 million for FIC to expand the TB training grant program 
from a supplemental grant to an open competition grant.

          RESEARCHING AND PREVENTING OCCUPATIONAL LUNG DISEASE

    Protecting the health of our nation's workforce will require 
research, training, tracking and new technologies. The American Lung 
Association recommends that the subcommittee provide $326 million for 
the National Institute for Occupational Safety and Health (NIOSH) at 
the Centers for Disease Control and Prevention (CDC), including $25 
million for the NIOSH National Occupational Research Agenda (NORA). 
NORA represents a partnership research plan for occupational disease. 
The NORA agenda was developed with input from labor, business and the 
health community.

                               CONCLUSION

    In conclusion, Mr. Chairman, lung disease is a growing problem in 
the United States. It is America's number three killer, responsible for 
1 in 7 deaths. The lung disease death rate continues to climb. Overall, 
lung disease and breathing problems constitute the number one killer of 
babies under the age of one year. Worldwide, tuberculosis kills three 
million people each year, more people than any other single infectious 
agent does. Mr. Chairman, the level of support this committee approves 
for lung disease programs should reflect the urgency illustrated by 
these numbers.
                                 ______
                                 
      Prepared Statement of the American Psychological Association

    The American Psychological Association (APA) is the largest 
association of psychologists in the world, representing 155,000 
members, affiliates and students. APA exists to advance psychology as a 
science, a profession, and a means of promoting education and human 
welfare. APA members serve as scientists funded by the National 
Institutes of Health and Centers for Disease Control and Prevention, as 
teachers and professors in our nation's high schools, colleges and 
universities, and as health professionals who treat patients in public 
and private clinics and programs. APA encourages the committee to 
strengthen U.S. investment in a continuum of programs on health 
promotion, disease prevention and care, ranging from basic research to 
clinical applications that will improve the health and education of all 
Americans. We appreciate the opportunity to submit testimony for the 
record.

              U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

National Institutes of Health
    The Administration's fiscal year 2006 budget proposes an NIH 
funding increase of 0.5 percent, lower than the biomedical inflation 
rate. This would not allow NIH to take advantage of many scientific 
opportunities. The success rate is already falling from one in three 
grant applications funded, to one in four. APA encourages the Committee 
to include a six percent funding increase for NIH in this year's 
legislation.
    Funding increases for the NIH Office of Behavioral and Social 
Sciences Research (OBSSR) have been negligible for the past two years, 
and the Administration's budget continues the trend (the request is 
$26.2 million). The Committee has praised OBSSR for making it easier 
for NIH institutes to cooperate to fund cross-cutting initiatives. 
OBSSR has been able to leverage substantive funding initiatives with a 
small budget. However, its ability to do so is eroding. OBSSR is 
planning trans-NIH programs to fund behavioral and social research on 
health disparities in minority populations, and on how gene/environment 
interactions affect health. It would benefit from a six percent 
increase. APA supports an appropriation of $27.66 million for OBSSR.
    Critically important behavioral research is being conducted by most 
NIH institutes. We can list only a few examples here. Epidemiology 
studies supported by NIAAA show that alcohol is a drug of choice for 
youth and that it is associated with a host of consequences in this age 
group, including death and increased risk of harm and other negative 
outcomes. Recent data show that 18- to 24-year-olds have the highest 
prevalence of alcohol dependence of any age group. These and other data 
make it clear that alcohol has become entrenched in the developmental 
processes of adolescence, and that the developmental changes of 
adolescence appear to make this age group particularly vulnerable to 
alcohol's effects. Research by NIDA and others shows that the human 
brain does not fully develop until about age 25. Having insight into 
how the human brain works, and understanding the biological 
underpinnings of risk taking among young people will help in developing 
more effective prevention programs. NIAAA and NIDA are to be commended 
for pursuing research to understand how to extricate alcohol and other 
addictive drugs from adolescent development and how to change 
adolescents' behaviors toward addictive substances.
    Psychological research supported by the NICHD is providing critical 
answers to many questions about childhood development, including how 
children learn to read and how they can overcome learning disabilities. 
Additional work is needed to improve our understanding of the role of 
cognition in learning mathematical and scientific concepts. Additional 
research is also needed to inform the public health community of how 
best to modify high-risk behaviors in children and families that 
contribute to the rising incidence of childhood obesity.
    As NIMH implements its reorganization, APA is encouraging the 
institute to maintain its support for a comprehensive research 
portfolio that includes funding for a broad array of basic behavioral 
research and continues to support research on the promotion of mental 
health and the study of psychological, social, and legal factors that 
influence behavior. Given the increasing burden of mental disorders on 
children and adolescents, behavioral interventions are especially 
needed for children and adolescents with eating disorders, attention 
deficit-hyperactivity disorder, post-traumatic stress disorder and the 
most common forms of depression. Translational research in the 
behavioral and social sciences is especially needed to address how 
basic behavioral processes, such as cognition, emotion, motivation, 
development and social interaction, inform the diagnosis, treatment and 
delivery of services for mental disorders.
    APA remains concerned that basic behavioral research at NIH--that 
is, research on the mechanisms that influence and underlie behavior, 
conducted outside a disease context--is vulnerable to budget pressures 
and pressures to demonstrate effective interventions. NIH institutes 
must balance the imperative for translation with the need to continue 
posing basic questions that will fuel the next generation of 
interventions. Much basic research is supported at NIH by the National 
Institute of General Medical Sciences, yet NIGMS funds very little 
basic behavioral research. APA asks that the committee continue to 
encourage or direct NIGMS, as it has for the past five years, to fill 
some of the gaps that now appear in NIH support of basic behavioral 
research and research training.

                ADMINISTRATION FOR CHILDREN AND FAMILIES

Prevention of child maltreatment
    Nationwide, an estimated 896,000 children are abused and neglected 
each year, resulting in an estimated 1,400 child deaths. The negative 
effects of child maltreatment can persist into adulthood. An increase 
of $15 million will enhance prevention activities for child 
maltreatment by population-based monitoring to capture information 
about children outside child protective service systems and improve 
data collection to inform policy, research and public awareness 
programs. These funds will also advance research to prevent the 
negative consequences of child maltreatment and to examine risk and 
protective factors to further the development and implementation of 
culturally and linguistically appropriate prevention and intervention 
approaches.

Bullying prevention
    Research indicates that bullying directly affects approximately one 
in three school children within a school semester. In addition, 
research confirms that bullying among children poses serious risks for 
victims and perpetrators and may seriously undermine the climate of 
schools. APA urges the adoption of research-based comprehensive 
bullying prevention programs and adequate federal funding to support 
the implementation of effective, comprehensive bullying prevention 
programs.

     HEALTH RESOURCES AND SERVICES ADMINISTRATION BUREAU OF HEALTH 
                              PROFESSIONS

Graduate Psychology Education (GPE) Program
    Funding in the amount of $6 million for fiscal year 2006 is 
requested to continue the Graduate Psychology Education (GPE) Program, 
which was established in fiscal year 2002. The GPE Program, 
administered by the Bureau of Health Professions, is the only federal 
program dedicated solely to psychology education and training.
    Funded in fiscal year 2003 at $4.5 million and flat-funded for 
fiscal year 2004 and fiscal year 2005, the funds are now obligated to 
27 grants on a three year cycle. As a result there will be no new 
competition this year. Without a modest increase of $1.5 million there 
will not be a new competition in fiscal year 2006. The $6 million 
request for fiscal year 2006 will enable hundreds of interested 
universities and training sites (e.g., veterans hospitals, children's 
hospitals, academic science centers and public health facilities) to 
apply for a GPE grant to increase the number of psychologists 
practicing in underserved rural and urban communities.
    The GPE Program provides grants to APA accredited doctoral, 
internship and post-doctoral programs in support of interdisciplinary 
training of psychology students for the provision of mental and 
behavioral health services to underserved populations (i.e., older 
adults, children, chronically ill persons, and victims of abuse and 
trauma), especially in rural and urban communities. Furthermore, the 
GPE Program addresses the need for mental health services that was well 
documented in the New Freedom Commission on Mental Health Report 
(2003): about 1 in 5 American adults (44 million people) experience a 
mental disorder in a given year and 28 percent of adults meet the full 
criteria for a mental or addictive disorder.

   SUBSTANCE ABUSE, MENTAL HEALTH SERVICES ADMINISTRATION CENTER FOR 
                         MENTAL HEALTH SERVICES

Mental and Behavioral Health Services on Campus Program
    Funding in the amount of $5 million for fiscal year 2006 is 
requested for the newly established Mental and Behavioral Health 
Services on Campus Program, which is part of the Garrett-Lee-Smith 
Memorial Act that provides support for youth suicide early intervention 
and prevention programs, technical assistance centers for suicide 
prevention, and mental and behavioral services on campuses. The program 
also helps identify the best means, strategies and solutions for 
addressing the mental and behavioral health needs of our college aged 
youth.
    The Mental and Behavioral Health Services on Campus program 
received $1.5 million from fiscal year 2005 funds. The requested 
increased funding for $5 million in fiscal year 2006 will help ensure 
that SAMSHA administrators will be able to implement the program in a 
way that best addresses the needs that exist on college campuses. 
Academic failure on our college campuses, which is often associated 
with mental or behavioral problems, not only results in personal loss, 
but loss in federal investment (student financial assistance), as well. 
In the most severe cases, unaddressed psychological problems can lead 
to depression and even suicide--a loss that can never be measured.

Minority AIDS Initiative
    The estimated number of AIDS cases from 1999 to 2003 has increased 
for racial and ethnic minorities, including African Americans, Latino/
as, Asian Pacific/Islanders and American Indians/Alaska Natives. Many 
persons with HIV/AIDS have mental and/or substance abuse disorders. 
While treatment can enhance overall health and well-being, racial and 
ethnic minorities have less access to, and lower utilization of, mental 
health and substance abuse services. Accordingly, APA recommends an 
additional $5 million, for a total of $15 million, for the Minority 
AIDS Initiative to provide culturally competent and accessible mental 
health and substance abuse services to persons of color living with 
HIV/AIDS.

                 CENTER FOR SUBSTANCE ABUSE PREVENTION

Rapid HIV Testing
    Each year, 25 to 30 percent of HIV-infected people who come to 
public clinics for HIV testing do not return a week later to receive 
their test results. With the rapid HIV test, results are available in 
about 20 minutes. Greater availability of this test can increase 
overall HIV testing and reduce the number of people--an estimated 
225,000 Americans--who are unaware of their HIV infection. APA strongly 
supports the Rapid HIV Testing Initiative to train mental health and 
substance abuse service providers on rapid HIV testing and prevention 
counseling and urges an additional $4.8 million, for a total of $9.6 
million, for fiscal year 2006. Mental health treatment services for 
individuals testing positive should also be provided as a critical 
component of rapid HIV testing.

 CENTERS FOR DISEASE CONTROL AND PREVENTION (CDC) NATIONAL CENTER FOR 
                     INJURY PREVENTION AND CONTROL

Suicide prevention
    An increase of $5 million over the fiscal year 2005 appropriation 
for suicide prevention activities will allow CDC to support the 
evaluation of suicide prevention planning, programs, and communication 
efforts to change knowledge and attitudes and to reduce suicidal 
behavior. These evaluation efforts will support communities to identify 
promising and effective suicide prevention strategies that follow the 
public health model and build community resilience.

National Violent Death Reporting System (NVDRS)
    An increase of $10 million over the fiscal year 2005 appropriation 
for the NVDRS will allow approximately 20 additional states to be 
funded to gather and share state-level data about violent deaths. This 
state-based system collects data from medical examiners, coroners, 
police, crime labs, and death certificates to understand the 
circumstances surrounding violent deaths. The information can be used 
to develop, inform, and evaluate violence prevention programs.

     NATIONAL INSTITUTE FOR OCCUPATIONAL SAFETY AND HEALTH (NIOSH)

    APA recommends an overall increase of $40 million over the fiscal 
year 2005 appropriation for NIOSH. As the only federal agency for 
occupational safety and health research and prevention, NIOSH provides 
national and international leadership to prevent work-related illness, 
injury, and death by gathering information, conducting scientific 
research, and translating the knowledge gained into products and 
services.

                      U.S. DEPARTMENT OF EDUCATION

Institute for Education Sciences
    Support for research is particularly critical at the Institute of 
Education Sciences as it seeks to translate scientifically based 
research findings into classroom practice. To support the highest 
quality cognitive, developmental, and educational science, we would 
encourage IES to hold a field-initiated studies competition in the next 
fiscal year to encourage innovative research driven by scientific 
opportunities.
    APA appreciates the opportunity to present appropriations 
recommendations for the written record, and encourages members of the 
Committee to contact our Public Policy Office at (202) 336-6062 with 
questions or concerns about this statement.
                                 ______
                                 
        Prepared Statement of the American Psychological Society

                       SUMMARY OF RECOMMENDATIONS

  --As a member of the Ad Hoc Group for Medical Research Funding, APS 
        recommends $30 billion for NIH in fiscal year 2006.
  --APS requests Committee support for increased behavioral and social 
        science research and training at NIH in order to: better meet 
        the Nation's health needs, many of which are behavioral in 
        nature; realize the exciting scientific opportunities in 
        behavioral and social science research, and; accommodate the 
        changing nature of science, in which new fields and new 
        frontiers of inquiry are rapidly emerging.
  --Committee support is requested for specific behavioral science 
        activities at a number of individual institutes. This statement 
        provides examples to illustrate the exciting and important 
        behavioral and social science work being supported at NIH.
    Mr. Chairman, Members of the Committee: The American Psychological 
Society is a nonprofit organization dedicated to the promotion, 
protection, and advancement of the interests of scientifically oriented 
psychology in research, application, teaching, and the improvement of 
human welfare. Our 16,000 members are scientists and educators at the 
Nation's universities and colleges.
    On behalf of our members, I would like to thank you for your 
leadership in the bipartisan effort to double NIH budget. As a result, 
NIH has experienced a period of unparalleled growth in the past 5 
years, and the progress achieved as a result of research funded by NIH 
will lead us into a new era of discovery and innovation. Unfortunately, 
that progress is threatened by the Administration's request for fiscal 
year 2006, which at only .7 percent (or $196 million) over fiscal year 
2005 will not even cover the costs of inflation, never mind sustain and 
advance the nation's investment in NIH. As a member of the Ad Hoc Group 
for Medical Research Funding, APS recommends $30 billion for NIH in 
fiscal year 2006, an increase of 6 percent over fiscal year 2005 
funding levels. This increase would help provide a stable base of 
funding for the Nation's public health research enterprise and allow 
NIH to continue its important scientific pursuits.
    Within the NIH budget, APS is particularly focused upon the 
behavioral and social science research activities of NIH.
the importance of behavioral research in addressing the nation's health
    In any realistic picture of our Nation's health, a core finding is 
that behavior is central to many, maybe to most of our Nation's leading 
health concerns: heart disease; stroke; lung disease and certain 
cancers; obesity; AIDS, suicide; teen pregnancy, drug abuse and 
addiction, depression and other mental illnesses; neurological 
disorders; alcoholism; violence; injuries and accidents--all have large 
behavioral components. Further, nearly 40 percent of premature deaths 
in the United States can be attributed to smoking, physical inactivity, 
poor diet, or alcohol misuse according to the Centers for Disease 
Control and Prevention.
    None of the conditions or diseases described above can be fully 
understood without an awareness of the behavioral and psychological 
factors involved in causing, treating and preventing them. For example, 
before you address how to change attitudes and behaviors around AIDS, 
you need to know how attitudes develop and change in the first place. 
Or, before you can change decisions about any risky behavior, you need 
to know how judgments and decisions are made on a range of topics. 
Similarly, before you address memory decline in the elderly, you need 
to know the basics of learning and memory and how that changes with 
age. And before you address the complexity of the interactions among 
genetics, the brain, and schizophrenia, you need to know the basics of 
cognition, emotion, culture, behavioral aspects of neuroscience, and 
behavioral genetics.
    APS members include thousands of scientists who, with NIH support, 
conduct basic, applied, and clinical research related to physical and 
mental health at our Nation's leading universities and colleges. 
Virtually every institute at NIH supports some amount of psychological 
science. Examples include: The connections between the brain and 
behavior; research into how children grow and develop; management of 
debilitating chronic conditions such as diabetes and arthritis as well 
as mental disorders; and the behavioral aspects of smoking and drug and 
alcohol abuse, so that science may find ways for people to escape 
addiction.
    NIH Director Dr. Elias Zerhouni, has expressed strong support for 
behavioral science at NIH, and sees this research as critical to our 
Nation's health. ``We are aware of the challenge in social and 
behavioral science. It's going to be front and center,'' he has stated. 
He went on to add, ``The bill for the nation will be unbearable in 
health and social costs without recognition of the role of behavior.'' 
However, to date, behavioral research has not received the recognition 
or support needed to reverse the effects of behavior-based health 
problems in this Nation.
    APS asks that you continue to help make behavioral research more of 
a priority at NIH, both by providing maximum funding for those 
institutes where behavioral science is a core activity, by encouraging 
NIH to advance a model of health that includes behavior in deciding its 
scientific priorities, and by encouraging the establishment of a stable 
infrastructure to support basic behavioral science research at NIH.
    basic behavioral science research needs a stable infrastructure
    Twenty-four of the 27 institutes at NIH fund behavioral science 
research, and seven institutes commit over $100 million to this 
enterprise. Six institutes commit over 20 percent of their resources to 
behavioral science research. However, most of these institutes do not 
fund research into the fundamental behavioral processes that underlie 
the diseases and conditions that constitute some of the most vexing 
health problems facing us today. Traditionally, such basic behavioral 
research has been supported by the National Institute of Mental Health 
(NIMH). NIMH, for any number of historical reasons, has been the home 
for far more basic behavioral science than any other institute. Many 
basic behavioral and social questions were being supported by NIMH, 
even if their answers also could be applied to other institutes. 
Recently, NIMH has begun to aggressively reduce its support for many 
areas of the most basic behavioral research, saying that, like many 
other Institutes, it too is disease specific and must focus its energy 
on battling mental illness through translational and clinical research. 
This means that previously funded areas now are not being supported.
    NIMH is to be commended for promoting the transfer of knowledge 
into application for mental illness. But this is happening at the 
expense of critical basic behavioral research. Without progress in our 
understanding of fundamental behavioral processes, there will not be a 
sufficient body of knowledge to translate into application. Until other 
institutes begin to support larger amounts of basic behavioral science 
research connected to their respective missions, it is essential that 
NIMH's programs of research in behavioral phenomena such as cognition, 
emotion, psychopathology, perception, development, and others continue 
to flourish. APS asks the Committee to encourage NIMH's continued 
efforts to strengthen the ties between basic and clinical behavioral 
research, and to encourage NIMH's basic behavioral science portfolio in 
order to ensure continued progress in our understanding of the causes, 
treatment and prevention of mental illness and the promotion of mental 
health.

  NIGMS SHOULD SUPPORT BASIC BEHAVIORAL SCIENCE RESEARCH AND TRAINING

    Answering basic social and behavioral science questions is central 
to the overall NIH mission. The recent change at NIMH regarding basic 
behavioral research illustrates the problem of depending too much on 
non-structural support at any one agency for fundamental behavioral and 
social science research. Basic behavioral and social science needs a 
dependable structure of its own.
    The most appropriate location is the National Institute of General 
Medical Sciences (NIGMS), also known as NIH's ``basic research 
institute''. NIGMS already has a mandate to support basic behavioral 
research and training, but that mandate has not been fulfilled in part 
because NIMH already was serving that function.
    Since fiscal year 1999, this Committee has repeatedly issued report 
language urging NIGMS to fund basic behavioral research and training, 
saying, for example: ``The Committee is concerned that NIGMS does not 
support behavioral science research training. As the only Institute 
mandated to support research not targeted to specific diseases or 
disorders, there is a range of basic behavioral research and training 
that NIGMS could be supporting. The Committee urges NIGMS, in 
consultation with the Office of Behavioral and Social Sciences, to 
develop a plan for pursuing the most promising research topics in this 
area.'' [Senate fiscal year 2000 Appropriations Report 106-166, Senate 
fiscal year 2001 Appropriations Report 107-293, Senate fiscal year 2002 
Appropriations Report 107-84, Senate fiscal year 2003 Appropriations 
Report 107-216, Senate fiscal year 2004 Appropriations Report 108-82]
    Two years ago, Senators Specter, Inouye, and Harkin, engaged in a 
colloquy on the Senate floor expressing the Committee's strong support 
for basic behavioral research and training, and expressing their 
concern that NIH had not responded to this matter after many years of 
report language. Since then, NIH commissioned a task force to study the 
matter and report back to the Director's Advisory Committee. The panel 
formally recommended the establishment of a secure and stable home for 
basic behavioral science research and training at an NIH institute, 
and, in particular, suggested that an institute such as NIGMS should be 
that home, as this Committee has recommended for years.
    NIGMS is on record saying except for a few fields of inquiry, 
behavioral studies largely fall outside of its research mission, and 
are instead deemed to be within the missions of other institutes at the 
National Institutes of Health. And APS believes this line of thinking 
may still hold true within NIGMS. However, NIGMS' statutory mandate 
encompasses ``general or basic medical sciences and related natural or 
behavioral sciences [emphasis added] which have significance for two or 
more other national research institutes'' (TITLE 42, CHAPTER 6A, 
SUBCHAPTER III, Part C, subpart 11, Sec. 285k).
    Basic behavioral research in the cognitive, psychological and 
social processes underlying substance abuse and addiction (significance 
for NIDA, NIAAA, NCI and NHLBI), obesity (significance for NIDDK, 
NHLBI, and NICHD) and the connections between the brain and behavior 
(significance for NIMH, NINDS, and NHGRI) just to name a few, all are 
within the NIGMS mission. Given the statutory mandate, the 
recommendations of a recent Director's advisory council's task force, 
the strong Congressional interest, the scientific imperative, and most 
important, the health needs of the Nation, APS asks the Committee to 
direct NIGMS to develop a plan for establishing a basic behavioral 
science research and training program at NIGMS.
nih needs a comprehensive behavioral science research training strategy
    The outcomes of science are unpredictable. Yet there is one aspect 
of science where the time and money invested is guaranteed to pay off: 
the training of our future scientists. We know that if we provide 
support now for a young investigator, we will have a well-trained, 
highly-qualified scientist as a result. This is a serious issue in 
behavioral science at NIH, where the demand for behavioral science 
investigators at NCI, NIMH, and other institutes outpaces the current 
supply of behavioral science researchers. In order to meet the future 
needs of research in health and behavior, NIH must have a comprehensive 
training strategy in place today, one that focuses on training young 
investigators in the core disciplines of behavioral and social science 
research as well as in multidisciplinary perspectives.
    APS is hopeful that NIH will take a closer look at forthcoming 
recommendations from a congressionally mandated National Academy of 
Sciences (NAS) study of research personnel needs with regard to the 
National Research Service Awards (NRSAs). It is anticipated that this 
study will be transmitted to Congress and NIH in the near future. When 
NAS conducted this study in 2000, NIH selectively implemented NAS's 
recommendations and ignored important findings with regard to the need 
for increased training, if at all. This Committee has taken note of the 
behavioral science recommendations from this study in the past, and has 
supported increasing NRSA awards as a mechanism to increase behavioral 
science research training. APS asks the Committee to developments 
closely.
    More generally, APS asks the Committee to support the development 
of a comprehensive training strategy for behavioral and social science 
research at NIH. This strategy should include all training mechanisms, 
and should be balanced between interdisciplinary research and 
traditional core disciplines in the behavioral sciences.

                  BEHAVIORAL SCIENCE AT KEY INSTITUTES

    In the remainder of my testimony, I would like to highlight 
examples of the cutting edge behavioral science research being 
supported by individual institutes.
National Institute of Mental Health (NIMH)
    NIMH is funding behavioral research ranging from neural information 
processing to social psychology decision-making. Ultimately, this 
investment will help researchers understand and improve the way people 
think, plan, and make choices about their future as it relates to 
everything from chronic mental illness to AIDS. For example, one NIMH 
study is aimed at identifying how people understand the near future 
versus the distant future with the hopes of relating study findings to 
HIV prevention. By investigating how temporal distance from future 
events influences judgments and decisions regarding those events, 
researchers hope to identify the advantages and disadvantages of 
decision-making at different points in time.
    An NIMH-funded project is examining the operation of attention at 
two coarsely defined stages of processing: visual perception and visual 
working memory. By comparing ``memory-intensive'' tasks in which 
working memory is overloaded but the perceptual demands are minimal 
with ``perception-intensive'' tasks in which memory is not overloaded 
but the perceptual demands are great, researchers expect to see 
attention operate at different stages in these tasks. By developing 
methods to isolate and assess perceptual-level and working memory-level 
property mechanisms, researchers will be able to more easily identify 
attentional mechanisms compromised in a given disorder. This program of 
research will have important long-term implications for psychological/
psychiatric disorders in which attention is compromised, such as 
attention deficit disorder, many anxiety disorders, even schizophrenia.
    Similarly, the NIMH project titled ``Executive Processes-Behavioral 
and Neuroimaging Study'' will help scientists better understand the 
brain mechanisms responsible for so-called ``executive'' brain 
functions, such as the ability to stay focused, to multi-task, and to 
respond with action. Studying these executive processes, which play a 
central role in cognition, could influence how we look at behavioral 
and psychological functioning, from the changes that occur over the 
life span to early diagnosis and treatment of dementia and other 
conditions involving reduced cognitive capacities.

National Institute on Drug Abuse (NIDA)
    By supporting a comprehensive research portfolio that stretches 
across basic neuroscience, behavior, and genetics, the National 
Institute on Drug Abuse (NIDA) is leading the Nation to a better 
understanding and treatment of drug abuse. APS applauds NIDA for 
strengthening its efforts to study adolescent brain development to 
examine the influence drug exposure has on behavioral, psychological, 
and physiological development. New research supported by NIDA reveals 
that drug addiction is a ``developmental disease'' that often starts 
during the early developmental stages in adolescence, an age at which 3 
million 12-17 year olds reported using illicit drugs last year. If we 
can better understand the effects structural brain changes have on 
functions like thinking, decision-making, sensation and perception we 
will be able to better develop targeted and more likely effective 
prevention strategies from the brain development perspective. APS asks 
this Committee to support this and other critical behavioral science 
research at NIDA, and to increase NIDA's budget in proportion to the 
overall increase at NIH in order to reduce the health, social and 
economic burden resulting from drug abuse and addiction in this Nation.

National Institute on Alcohol Abuse and Alcoholism (NIAAA)
    The National Institute on Alcohol Abuse and Alcoholism (NIAAA) 
works to examine the biological, chemical and behavioral factors 
associated with alcohol abuse and consumption, the third highest cause 
of preventable death in the United States according to the Centers for 
Disease Control and Prevention. Over time, NIAAA has broadened its 
behavioral science portfolio to understand the underlying psychological 
and cognitive processes that lead people to drink, and the impact of 
chronic alcohol abuse on those processes. Today, the institute is 
stepping up its efforts via its Improving Effectiveness of Treatment 
initiative to move beyond what we understand about today's behavior 
therapies and to further understand the mechanisms that determine how 
and why alcohol-related behavior changes. And since these changes are 
influenced by neurobiological, psychological and social factors, this 
new and exciting research includes multiple levels of research to 
ensure an integrated understanding to improve behavior strategies. APS 
asks this Committee to support NIAAA's behavioral science research 
efforts, and to increase NIAAA's budget in proportion to the overall 
increase at NIH in order to reduce the health, social and economic 
burden resulting from alcohol abuse and alcohol dependence.

National Cancer Institute (NCI)
    The National Cancer Institute (NCI) is an agency that continues to 
make enormous advances in the behavioral sciences to achieve effective 
cancer prevention and control. Since its Behavioral Research Program 
was launched in 1997, NCI has funded comprehensive behavioral science 
research programs ranging from basic behavioral science to research on 
the development, testing and dissemination of disease prevention and 
health promotion interventions in areas such as tobacco use, diet, and 
even sun protection. APS applauds NCI's foresight to conduct 
transdisciplinary research within the program's five branches of 
Tobacco Control, Cancer Communications, Health Disparities, Energy 
Balance, and Cancer Survivorship because it set forward a new path for 
science--and APS believes disciplines are only made stronger when 
complimented by others. Take for example the agency's Centers for 
Transdisciplinary Research on Energetics and Cancer within the Energy 
Balance branch. This initiative brings together NCI's investment in 
diet, weight and physical activity research priorities by bringing 
together scientists from multiple disciplines to carry out projects 
ranging from the biology and genetics of energy balance to behavioral, 
sociocultural and environmental influences on nutrition, physical 
activity, weight, energy balance and energy transferred to or expended 
in life processes. In addition to training established scientists, this 
investment fosters collaboration among transdisciplinary teams. APS 
asks Congress to support NCI's behavioral science research and training 
initiatives and to encourage other institutes to use these programs as 
models.

National Institute on Aging (NIA)
    APS is particularly pleased with NIA's dedication to behavioral 
research through the Behavioral and Social Research (BSR) Program--and 
its 3 branches of individual behavior, population and social processes 
and research resources and development--that supports basic social and 
behavioral research and research training by studying the dynamic 
interplay between individuals' aging; their changing biomedical, 
social, and physical environments; and multilevel interactions among 
psychological, physiological, social, and cultural levels. Agency-
conducted research like that of the Behavioral and Imaging Approaches 
to Implicit Memory in Aging study will ultimately make a major 
contribution to our understanding of age-related changes in memory. As 
researchers carefully integrate behavioral and neuroimaging studies to 
broaden and deepen current understanding of age-related changes in 
implicit memory, they are evaluating decision accuracy in both young 
and elderly subjects to assess the neural substrates supporting 
encoding and retrieval of implicit memory. APS asks the Committee to 
support NIA's behavioral science research efforts and to increase NIA's 
budget in proportion to the overall increase at NIH in order to 
continue its high quality research to improve the health and wellbeing 
of older Americans.

Office of Behavioral and Social Sciences Research (OBSSR)
    I'm pleased to report that psychological scientist David Abrams, 
from Brown University, has been appointed as the Director of the Office 
of Behavioral and Social Sciences Research at NIH. We ask the Committee 
to join us in welcoming Dr. Abrams to this position, and to support 
OBSSR in its efforts to achieve a strengthened behavioral science 
research enterprise at NIH.
    It's not possible to highlight all of the worthy behavioral science 
research programs at NIH. In addition to those reviewed in this 
statement, many other institutes play a key role in NIH behavioral 
science research enterprise. These include the National Heart, Lung, 
and Blood Institute, the National Institute of Neurological Disorders 
and Stroke, the National Institute of Diabetes and Digestive and Kidney 
Diseases, the National Institute of Nursing Research, and the National 
Institute for Human Genome Research. Behavioral science is a central 
part of the mission of these institutes, and their behavioral science 
programs deserve the Committee's strongest possible support.
                                 ______
                                 
        Prepared Statement of the American Society of Hematology

    Chairman Specter and members of the Subcommittee, the American 
Society of Hematology (ASH) thanks you for the opportunity to submit 
written testimony on the fiscal year 2006 Departments of Labor, Health 
and Human Services, and Education Appropriations Bill. In addition, ASH 
sincerely thanks the Subcommittee for its support of biomedical 
research.
    The Society represents nearly 14,000 clinicians and scientists 
committed to the study and treatment of blood and blood-related 
diseases. These diseases encompass malignant disorders such as 
leukemia, lymphoma, and myeloma; non-malignant conditions including 
anemia, thrombosis, and bleeding disorders; and congenital disorders 
such as sickle cell anemia, thalassemia, and hemophilia. In addition, 
hematologists have been pioneers in the fields of bone marrow 
transplantation, gene therapy, and the development of many drugs for 
the prevention and treatment of heart attacks and strokes.
    Hematologists treat a diverse group of patients. For example, 
anemia is a condition that has enormous consequences in the quality-of-
life and functioning of the elderly; sickle cell disease is an 
inherited blood disorder that primarily affects African Americans. The 
hematological cancers--leukemia, lymphoma, and myeloma--strike men and 
woman of all ages; in 2005, nearly 115,000 Americans will be diagnosed 
with and more than 53,000 will die from these cancers.
    The study of blood and its disorders involves a number of NIH 
Institutes, including the National Heart, Lung and Blood Institute 
(NHLBI), the National Cancer Institute (NCI), the National Institute of 
Diabetes, Digestive and Kidney Diseases (NIDDK), and the National 
Institute on Aging (NIA). The Society supports the leadership of these 
Institutes and commends them for their vision and responsible research 
portfolio management.
    The Society's requests this year focus on translating basic 
scientific findings into improved treatments for patients with serious 
blood diseases. New comprehensive approaches to clinical research 
funding will advance our understanding of how to treat these and other 
diseases, enable patients to participate in high quality clinical 
protocols, and attract and train much-needed clinicians and clinical 
researchers to the field of hematology.

                   FISCAL YEAR 2006 FUNDING REQUESTS

NIH Funding
    ASH fully supports the Ad Hoc Group for Medical Research Funding 
recommendation of $30 billion for NIH in fiscal year 2006. This 6 
percent increase represents an important step in maintaining NIH's 
commitment to medical research funding so that the progress made during 
the doubling years is not eroded. Research programs are not spigots 
that you can turn on and off without compromising their effectiveness. 
Innovative scientific teams working in sophisticated labs cannot be 
sustained without some stability in medical research funding from year 
to year. It is critical that the US maintain its commitment to medical 
research.
    For fiscal year 2006, the Bush Administration proposed $28.845 
billion, a $196 million or 0.7 percent increase over last year. This is 
the third consecutive year that the President's Budget request for NIH 
has not kept pace with medical inflation. Only continued, sustained 
investment in life-saving medical science today will provide cures and 
therapies for tomorrow. A proposed NIH budget along the lines of 
President Bush's recommendation is effectively a cut in funding; it 
doesn't keep up with the cost of medical inflation.
    Moreover, NIH budgets in the range proposed by the Bush 
Administration will force NIH to drop paylines substantially below the 
33rd percentile--where they are generally considered unhealthy for the 
biomedical research enterprise. Estimated paylines for most NIH 
Institutes in fiscal year 2006 are less than the 18th percentile. Low 
paylines create an atmosphere of hopelessness for even established 
investigators and little incentive for young researchers to take the 
chance that their grant would receive funding. More funding at NIH 
would provide the Institutes the opportunity to raise their paylines 
and fund more qualified and innovative research.
    In addition, there needs to be a highly-trained scientific 
workforce for NIH to meet its research objectives. Training the next 
generation of biomedical researchers has traditionally been the 
responsibility of NIH. Under the President's fiscal year 2006 Budget 
proposal, NIH will support almost 400 fewer full time training 
positions than last year. Without funding for the next generation of 
physician scientists, the biomedical research enterprise will not be 
prepared for future efforts.
    The Society is proud that NIH-sponsored research in hematology has 
led to important discoveries and generated new treatments and 
pharmaceutical products with broad applicability to human diseases. We 
have all benefited from past investments in NIH research. Recent 
advances include the incredibly effective hematologic drug Gleevec--a 
breakthrough in treating chronic myelogenous leukemia--that is one of 
the first drugs of its kind to be approved that targets specific 
molecules in cancer cells, leaving healthy cells unharmed. Moreover, 
ASH has always emphasized the synergy that is vital to successful 
scientific work. Basic research on the blood has aided physicians who 
treat patients with heart disease, strokes, end-stage renal disease, 
cancer and AIDS. As a result of this cross-fertilization, the Society 
remains firmly committed to broad-based support for biomedical research 
and to the existing peer-review process as the best way to identify and 
prioritize scientific grants.
    In fiscal year 2006, ASH also urges the Subcommittee to recognize 
the following areas of hematology research that have shown impressive 
progress and offer the potential of future advances:

            Coordination of the Issues Common to the Hemoglobinopathies
    Sickle cell anemia and thalassemia are inherited blood disorders 
caused by mutations in the genes for the hemoglobin molecule--the 
protein in red blood cells that carries oxygen to all parts of the 
body--and affect the normal functioning of hemoglobin in our blood. 
These conditions cause many problems including moderate to severe 
anemia, chronic pain, iron overload with its associated diabetes, liver 
and heart failure, enlarged spleen, bone weakness, pulmonary 
hypertension, and stroke. Although these disorders share many common 
issues, their research programs at NHLBI are organized into two 
parallel structures that could possibly benefit from the expertise of 
researchers focused on the other disorder. ASH believes there is an 
opportunity to determine the science and management issues common to 
the hemoglobinopathies and identify areas of scientific collaboration 
and promising new research directions in sickle cell anemia and 
thalassemia.

            Expansion of Research Activities in the Underlying Causes 
                    of Thrombosis at NHLBI and NIA
    Venous and arterial thrombosis (blood clots) are serious conditions 
that can lead to heart attacks, strokes, limb loss, and respiratory 
dysfunction. Vascular biology research provides the foundation for 
understanding the underlying causes of atherosclerosis, angiogenesis, 
inflammation, and thrombosis. Greater understanding of vascular biology 
will lead to more knowledge about the prevention of thrombosis, which 
has implications into the further research of heart disease, stroke, 
recurrent fetal loss, complications associated with sickle cell anemia 
and diabetes, as well as the interruption of the blood supply to tumors 
and cancers.
    Recent research disclosed that deep vein thrombosis affects up to 2 
million Americans annually. Overall, thrombosis has sharply increased 
rates in the elderly and causes significant mortality and morbidity. 
With an expanding elderly population, thrombosis could become an even 
more serious health care problem. Although age is a known and important 
risk factor for thrombosis, there are other major research questions 
that need to be investigated in order to improve its diagnosis and 
treatment, such as the underlying causes of thrombosis. ASH believes 
that new research initiatives in the underlying causes of thrombosis 
will be helpful for improving the diagnosis and treatment of this 
potentially fatal complication of many diseases.

            Strengthening of Support for Clinical and Translational 
                    Blood Cancer Research
    In 2005, nearly 115,000 Americans will be diagnosed with a 
hematologic malignancy, such as leukemia, lymphoma, and multiple 
myeloma. Moreover, more than 53,000 Americans will die from these 
cancers, compared to 40,870 for breast cancer, 30,350 for prostate 
cancer, and 56,290 for colon and rectum cancer. The blood cancers 
strike individuals of all ages, races, and each gender, and serve as 
valuable prototypes for the development of therapies for all types of 
malignant disorders. The Society hopes to work with NCI to strengthen 
its support for translational and clinical blood cancer research and 
use all available mechanisms to support blood cancer research by 
improving treatments and rapidly moving research advances from the 
laboratory bench to the patient's bedside.

            Expansion of Research Opportunities in Erythroid 
                    Differentiation, Oxidant Injury, and Metabolomics
    High quality hematology research in iron metabolism, gene 
regulation, and stem cell plasticity is currently being funded by 
NIDDK. ASH hopes to work with the Institute to continue advancing 
research in these areas and set new priorities in cutting edge 
hematology topics, such as erythroid differentiation, oxidant injury, 
and metabolomics.

Funding for the Sickle Cell Treatment Act (Public Law 108-357)
    Sickle Cell Disease (SCD) is an inherited blood disorder that is a 
major health problem in the United States. More than 2.5 million 
Americans, mostly African-Americans, have the sickle cell trait. SCD 
occurs in approximately 1 in 300 African-American newborns each year. 
The average life span for a patient with this devastating disease is 45 
years. While we continue to make progress with treatments, patients 
suffer debilitating pain and dangerous problems such as blood clots and 
strokes.
    As part of fiscal year 2005 Appropriations legislation, Congress 
provided $200,000 for the Health Resources and Services Administration 
to set up a demonstration program for sickle cell disease health 
centers and establish the National Coordinating Center to collect 
sickle cell disease-related data as authorized in the Sickle Cell 
Treatment Act (Public Law 108-357).
    For fiscal year 2006, ASH requests $10 million to continue to build 
this program by creating 40 Health Centers across the United States 
that would provide education, treatment (i.e., genetic counseling and 
testing), and continuity of care for individuals with sickle cell 
disease. In addition, this support would train health professionals at 
the 40 centers as well as establish a National Coordinating Center to 
collect, monitor and distribute information on best practices for the 
prevention and treatment of sickle cell disease. This recommendation 
has bipartisan, bicameral support as well as the backing of the 
Congressional Black Caucus and many other health, children's, church, 
union and African-American groups.
    ASH believes that the centers created through the Sickle Cell 
Treatment Act will improve the lives of SCD patients through disease 
management programs to help them live longer, healthier lives while 
funding research to find a comprehensive cure and providing community 
education about this disease and its treatment options.

        CONGRESSIONAL OVERSIGHT OF THE NIH PUBLIC ACCESS POLICY
 
   The Society remains concerned about the impact of the NIH Public 
Access Policy on the agency's budget, researchers, and not-for-profit 
journals. ASH requests that the Subcommittee continue to be engaged in 
the oversight of the policy's implementation. Moreover, the Society 
urges the Subcommittee to call for an analysis of the financial impact 
of the policy on the NIH budget and individual research grants.

                               CONCLUSION

    This is an exciting time to be engaged in biomedical research and 
the Society is proud that ASH members are participating in so many 
innovative studies. ASH praises the NIH leadership for the excellent 
stewardship of the hematology research portfolio at NCI, NHLBI, NIDDK, 
and NIA. The opportunities in hematology research are immense, 
particularly in translational research. Partnerships and cooperative 
ventures involving multiple academic centers are necessary for clinical 
research projects to succeed and need special attention from NIH. When 
properly conceived and implemented, ASH believes these studies will 
lead to improved therapies for patients with debilitating and deadly 
blood disorders. The Society sincerely hopes that the Subcommittee will 
continue its longstanding support of biomedical research and will find 
the means to fund NIH at $30 billion in fiscal year 2006.
    In addition, ASH requests that the Subcommittee provide $10 million 
for the Sickle Cell Treatment Act (Public Law 108-357) in fiscal year 
2006. This support will create a network of centers across the United 
States for the education, treatment, and continuity of care for 
individuals with sickle cell disease, a major health care problem.
    Thank you again for the opportunity to submit testimony. Please 
contact Jeff Coughlin, ASH Government Affairs Manager, at (202) 776-
0544 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cba1a8a4beaca3a7a2a58ba3aea6aabfa4a7a4acb2e5a4b9ac">[email&#160;protected]</a> if you have any questions or need 
further information on hematology research, fiscal year 2006 NIH 
funding, and support for the Sickle Cell Treatment Act.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM), representing 43,000 
members in the microbiological sciences, is pleased to provide a 
statement on the fiscal year 2006 funding for the Centers for Disease 
Control and Prevention (CDC). Although the fiscal year 2006 budget 
request includes important funding for influenza vaccine, childhood 
immunizations, global disease detection, and the Strategic National 
Stockpile, the ASM is concerned about the proposed budget reduction of 
$491 million for CDC at a time when new health challenges, including a 
possible influenza pandemic, threaten public health. The 2003 Institute 
of Medicine (IOM) report, Microbial Threats to Health, warns that the 
magnitude and urgency of microbial threats demand renewed concern and 
commitment. The IOM report emphasizes the importance of strong CDC 
programs including greater global capacity for responding to infectious 
disease outbreaks, better case reporting by health care providers and 
laboratories, and expanded efforts related to antimicrobial resistance.
    With people at risk from a broad range of health threats, our 
public health system will not be able to respond adequately without 
appropriate resources for public health programs. The ASM, therefore, 
recommends an increase of 8 percent in the fiscal year 2006 budget for 
the CDC. CDC's importance to safeguarding public health, both 
nationally and globally, is now unprecedented, but the level of funding 
for CDC is not keeping pace with its growing responsibilities to 
address new health threats. Infectious disease public health needs have 
been and will continue to increase and CDC's funding must remain strong 
to address them.

                    CDC INFECTIOUS DISEASE PROGRAMS

    The CDC recently reorganized programs to better adapt to changing 
health threats. The Infectious Diseases Coordinating Center oversees 
three major programs, the National Immunization Program, the National 
Center for Infectious Diseases, and the National Center for HIV/AIDS, 
Sexually Transmitted Diseases and Tuberculosis Prevention. The 
President's budget includes $1.7 billion related to domestic prevention 
and control of infectious diseases through these programs.

                               INFLUENZA

    The National Center for Infectious Diseases is responsible for 
measuring progress in global influenza surveillance and detection to 
prepare for a pandemic influenza outbreak. Funding for pandemic 
influenza preparedness is appropriated through the Department of Health 
and Human Service's (DHHS) Public Health and Social Services Emergency 
Fund (PHSSEF). The budget proposes $120 million for the expansion of 
year-round vaccine production capacity, a priority in the DHHS's draft 
Pandemic Influenza Response and Preparedness Plan. A significant 
investment will be required to enhance vaccine capacity to address the 
threat of pandemic influenza by developing a newer generation of 
influenza vaccine that can be quickly produced and deployed to 
strengthen the public heath infrastructure on state and local levels, 
and to ensure that needed vaccines, antivirals and antibiotics are 
readily available.

                                HIV/AIDS

    Under the CDC reorganization, programs focused on HIV/AIDS, 
sexually transmitted diseases (STDs), and tuberculosis are managed 
through the National Center for HIV, STD, and TB Prevention (NCHSTP). 
The budget proposes $956 million, $658 million of which is focused on 
prevention of these infectious diseases. Despite CDC efforts over the 
past two decades, the number of new HIV infection cases each year 
continues to remain high and the number of Americans living with HIV/
AIDS is increasing. In fiscal year 2003, CDC launched a different U.S. 
initiative, based on new rapid testing techniques for immediate patient 
results, designed to better prevent infections through earlier 
notification and to help identify the estimated 180,000 to 280,000 
people not aware of their HIV-positive status.

                             GLOBAL HEALTH

    The agency's recent reorganization also coordinated programs under 
the Office of Global Health (OGH) to track and prevent the 
international spread of diseases like measles, polio, and HIV/AIDS. The 
overarching goals are to recognize outbreaks faster, wherever in the 
world they occur, and to better control and prevent further outbreaks. 
Global disease detection mandates steady expansion of surveillance 
systems worldwide, as trade and travel allow rapid spread of previously 
unknown or unanticipated pathogens. Clinical and public health 
laboratory capacity must be strengthened together with epidemiologic 
and communications capabilities. The World Health Organization goal of 
eradicating polio by 2005 has suffered some setbacks recently, with 
wild poliovirus spreading in some African countries during 2003 and 
2004. But last year, cases of the disease declined by nearly 50 percent 
in India, Pakistan, and Afghanistan. Since the WHO global initiative 
began in 1988, CDC and others have invested more than $3 billion in the 
polio campaign. An estimated 250,000 lives have been saved and 5 
million cases of childhood paralysis prevented. The CDC also partners 
with other federal agencies in the Global AIDS Program and in the 
President's Emergency Plan for AIDS Relief. In fiscal year 2004, nearly 
2 million HIV laboratory tests and 275,000 tuberculosis infection 
laboratory tests were conducted under auspices of the Global AIDS 
Program. In addition, antiretroviral drug therapy was provided for 
nearly 19,000 AIDS patients in nine countries. By the end of 2003, the 
active spread of measles had been stopped in the Western Hemisphere. 
That year the CDC and its partners vaccinated more than 115 million 
children worldwide. Unfortunately measles persists as one of the 
world's leading child killers with an estimated 30 million cases and 
700,000 deaths each year.

                        ANTIMICROBIAL RESISTANCE

    Overuse of antimicrobials seriously increases the prevalence of 
pathogens resistant to commonly prescribed drugs. Antimicrobial 
resistance is considered one of the pressing issues faced by the CDC 
and other public health institutions. The 2003 Annual Report of the 
Antimicrobial Resistance Interagency Task Force reported that the 
number of cases of invasive pneumococcal disease in children in seven 
geographic areas declined by 75 percent in 2002 due to widespread use 
of pneumococcal vaccine, thereby reducing the use of antimicrobials 
which may become resistant. In fiscal year 2004, the CDC inaugurated a 
national media campaign about antibiotic resistance, to educate both 
patients and health care providers about the serious ramifications of 
overprescribing antibiotics. Also in fiscal year 2004, extramural 
grants were awarded for applied research in the estimate of economic 
costs for antimicrobial resistant human pathogens of public health 
importance. The purpose of the grant program is to obtain information 
that might impact and improve the current methods of preventing the 
emergence and spread of antimicrobial resistance. ASM supports 
sufficient budgetary increases in such prevention programs. The return 
on investment creates enormous health and economic benefits to the 
American public.

                             IMMUNIZATIONS

    The CDC's immunization program would receive $2.1 billion under the 
proposed fiscal year 2006 budget, to support the two primary goals of 
the program: at least 90 percent of all 2-year-olds to receive the 
recommended vaccines, and assurances of an adequate annual influenza 
vaccine supply. Investments in immunization programs are proven cost-
savers. For example, every dollar spent on measles-mumps-rubella 
vaccine saves an estimated $23 in health-care costs. Fiscal year 2006 
funds would flow through the Vaccines for Children program and the 
Section 317 program, the former to provide vaccinations to children 
otherwise underserved in the health care system, the latter to 
subsidize state immunization efforts. As part of the overall CDC 
immunization focus, $197 million is requested for influenza-related 
activities, representing a nine-fold increase over fiscal year 2001 
appropriations. Funds would further expand the pediatric vaccine 
stockpile initiated last year, purchase additional doses of influenza 
vaccines for the general public, and encourage greater vaccine 
production for next winter's flu season. The fiscal year 2006 emphasis 
on immunization activities is a prudent use of federal funds needed to 
protect the public.

                              SURVEILLANCE

    DNA technology provides some of the notable cutting-edge science 
upon which CDC testing and surveillance programs are built and 
operated. The PulseNet system, which tracks foodborne illness 
outbreaks, is one particularly extensive use of such technology. These 
illnesses affect more than 76 million Americans each year; periodic 
outbreaks often are widely publicized in the national media. One 
example is the 2004 outbreak of salmonellosis among more than 500 
people across five states, which CDC epidemiologists tied to 
contaminated restaurant tomatoes. Another is a multi-state incident of 
hepatitis A infecting more than 1,000 people after they ingested 
imported green onions. Similar surveillance systems now exist in 
Europe, Pacific Rim countries, and Latin America. The CDC's 
Tuberculosis Genotyping Program, initiated in fiscal year 2004, also 
fingerprints the genetic profiles of pathogens, enabling case 
investigators to assess very quickly how and where the bacterium is 
spreading. It already has described outbreaks in several states, 
permitting rapid deployment of preventive measures.

                       BIOTERRORISM PREPAREDNESS

    Defenses against possible bioterrorist attacks are a collaborative 
initiative among federal, state, and local agencies and authorities. 
The CDC is largely responsible for sufficient supplies of 
countermeasures such as vaccines and portable treatment units. The 
Administration proposes an increase of $56 million for bioterrorism 
preparedness activities at the CDC, for a total of $1.6 billion in 
fiscal year 2006. Six hundred million is proposed for further enhancing 
the Strategic National Stockpile (SNS). Specifically, the Medical 
Contingency Station project will be enhanced and increased funding will 
also help to pay for BioShield acquisitions and the purchase of 
additional anthrax antibiotics for the SNS. The CDC maintains the 
capacity to transport SNS materials and personnel to any location 
within the United States within 12 hours. During fiscal year 2004, the 
CDC nearly tripled the amount of medical countermeasures against 
anthrax, now capable of treating 30 million people.
    Since 2001, the CDC has recognized the importance of anti-
bioterrorism capabilities at the state and local levels, where attacks 
are most likely to occur. About $4.5 billion has been invested in CDC 
programs to assure state and local preparedness. The agency's 
Laboratory Response Network (LRN) now includes 134 reference labs in 
all states, up from 91 in 2001, nearly all capable of detecting agents 
of anthrax, tularemia and smallpox. Five veterinary diagnostic 
laboratories are now part of the system, recognizing the importance of 
animal-to-human transmission of disease pathogens. More than 8,800 
laboratory personnel have been trained for bioterrorism emergencies 
under CDC auspices. During fiscal year 2004, CDC invested about $846 
million to improve the ability of 62 state, local, and territorial 
health departments to respond to terrorism, infectious disease 
outbreaks, and other public health crises. The CDC funded the Cities 
Readiness Initiative, to boost delivery of medicines and other supplies 
during large-scale emergencies. The current proposed budget for fiscal 
year 2006 however, decreases support for state and local capacity. A 
report released this March by New York University concludes that 
bioterrorism-related training and equipping of local response personnel 
like paramedics have been seriously neglected, an example of yet unmet 
needs.

                        BUILDINGS AND FACILITIES

    Since 2001, the CDC has initiated or completed construction of more 
than 2.7 million square feet of laboratory and administrative space, 
replacing badly deteriorating buildings that were unsafe and 
inadequate. This year will mark the completion in Atlanta of a new 
Infectious Disease Laboratory, the Scientific Communications Center, 
the headquarters building with an Emergency Operations Center to 
coordinate quick responses, and the Environmental Toxicology 
Laboratory. The fiscal year 2006 request includes $22.5 million to 
complete a replacement Vector Borne Infectious Diseases lab in Fort 
Collins, Colorado and an additional $7.5 million to fund miscellaneous 
repairs and improvements. CDC's master plan for its buildings and 
facilities includes additional building renovations that are currently 
on hold, with hope to be funded in the near future. ASM applauds 
expenditures in recent years to replace the former CDC facilities in 
such poor condition and supports the completion of the master plan when 
funds can be allocated.
    The ASM appreciates the opportunity to provide written testimony 
and would be pleased to assist the Subcommittee as it considers its 
appropriation for the CDC for fiscal year 2006.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM), the largest single 
life science society with over 43,000 members, is pleased to submit a 
statement on the fiscal year 2006 appropriation for the National 
Institutes of Health (NIH). The ASM appreciates the strong support that 
the Congress has provided for NIH supported biomedical research. 
Congress's investment in NIH has paid tremendous dividends in terms of 
human health improvements. We can expect progress against disease to 
continue because of recent scientific advances and new opportunities 
for applications of research knowledge gained from basic research 
discoveries. The challenge of infectious diseases, cancer, diabetes and 
other chronic diseases will continue to increase, thus, strong support 
for NIH is needed.
    The ASM recommends a 6 percent increase in the budget for NIH in 
fiscal year 2006 and believes this increase would improve the pace of 
scientific investigation and the translation of science into new and 
better approaches to prevent, diagnose and treat diseases. A funding 
increase of this magnitude would allow NIH to take fuller advantage of 
innovative tools and technologies and the many extraordinary research 
achievements that have been made during the recent past. It would help 
to respond to urgent disease threats and realize more of the important 
medical treatment and public health goals that loom on the near 
horizon.
    The ASM considers a 6 percent increase justified for NIH if it is 
to continue current programs and deal with new and pressing needs, 
including the threat from pandemic influenza, other emerging infectious 
diseases such as the recent and unexpected outbreak of SARS, the AIDS 
pandemic, a myriad of infectious and chronic diseases that continue to 
take a human toll worldwide and biodefense initiatives.
    Since fiscal year 2003, the NIH budget has flattened, and at less 
than 1 percent, the proposed fiscal year 2006 budget increase will 
result in difficult funding decisions for research programs. Because 
the budget request for NIH falls below the current biomedical rate of 
inflation, which is about 3.5 percent, biomedical research will face a 
slowdown in the pace of scientific progress. This static state in 
funding comes at a rare time with unprecedented opportunities for major 
advances in human health and also at the very time that our nation's 
competitors are significantly increasing their investments in research. 
Their investments are based on the demonstrated positive impact of 
biotechnology and biomedical research on economic development. The 
European Union has set a goal of becoming the most competitive 
knowledge based economy in the world by 2010. Without increased 
investment in federally funded research in the United States, we stand 
to diminish the growth of U.S. technology.

                      BASIC RESEARCH AND TRAINING
 
   The ASM emphasizes the importance of providing increased support 
for basic research and the training and participation of young 
investigators in biomedical fields. Basic research and human ingenuity 
provide the underpinning of new knowledge that is necessary for 
successful medical breakthroughs. Basic research drives scientific 
creativity and productivity, making increased funding for investigator 
initiated research project grants a particularly critical issue when 
making funding decisions. Under the proposed fiscal year 2006 budget 
for NIH, the total number of research project grants (RPGs) supported 
falls below that of fiscal year 2005 by over 400 and no inflationary 
increases are provided for direct, recurring costs in noncompeting 
RPGs. The ASM recommends increased funding for NIH to ensure a 
continuum of high quality research project grants and scientist 
training programs to keep biomedical research in the future as vigorous 
as it is today.
    Specifically, ASM draws attention to the fact that scientific 
knowledge of microbes and their role in life and in the environment is 
key to new discoveries that will benefit human health. For example, the 
study of microbes resulted in the discovery that DNA is the genetic 
material of life and was responsible for the molecular revolution that 
has transformed biology. Research into basic life processes of bacteria 
is a critical underpinning of cellular studies that contribute to 
progress in the life sciences. Research on bacteria is urgent because 
more bacteria are becoming resistant to antibiotics, raising the 
specter of untreatable diseases. NIH should increase support for basic 
microbiology research and training and review research portfolios of 
the National Institute of General Medical Sciences (NIGMS), which 
provides support for fundamental research, and coordinate with other 
agencies such as the National Science Foundation (NSF) and the 
Department of Energy (DOE) to ensure that scientific opportunities in 
important areas of basic bacteriology physiology and genetics research 
are receiving adequate attention. The ASM recommends that NIH take 
steps such as workshops, requests for proposals and training grants to 
increase the infrastructure in this important area of science.

                          INFECTIOUS DISEASES

    Over the past 10 years, new and emerging microbial threats have 
continued to challenge the research community as well as the public 
health infrastructure. Despite scientific and medical advances, 
infectious diseases persist as the third leading cause of death in the 
United States and the second leading cause of death worldwide. A recent 
report from the Institute of Medicine on microbial threats to public 
health concluded that a comprehensive infectious disease research 
agenda is essential for successful anti-disease campaigns. The basic 
and applied research supported by the National Institute of Allergy and 
Infectious Diseases (NIAID) is essential to responding to infectious 
disease public health challenges. Unfortunately, the budget for the 
NIAID would increase by only 1.3 percent in the request for fiscal year 
2006, far less than the amount needed to maintain or accelerate NIAID 
supported work to combat a myriad of infectious diseases.
    Influenza is a familiar infectious disease threat with the proven 
potential for decimating pandemics. Influenza develops in about 20 
percent of U.S. citizens each year and an estimated 36,000 die annually 
from complications of influenza in the United States, with 250,000 to 
500,000 deaths worldwide. In the United States influenza and pneumonia 
remain the leading infectious cause of mortality and are ranked seventh 
among all causes of death. Influenza viruses steadily mutate and new 
strains periodically move from animal hosts to humans. World attention 
is drawn to outbreaks of avian influenza in Southeast Asia with about 
55 infected persons and 42 deaths since January 2004. The current 
strain of H5N1 influenza could acquire characteristics that permit 
transmission among humans which could lead to a worldwide influenza 
pandemic. The 1918 influenza pandemic killed at least 20 million people 
and pandemic avian influenza could kill millions of people. The NIH 
Influenza Genomics Project conducts rapid sequencing of the complete 
genomes of thousands of avian and human influenza viruses and newly 
emerging ones and will study the molecular basis of how new strains of 
influenza virus emerge and characteristics that contribute to 
virulence. Research is being done to develop a live attenuated vaccine 
candidate against each of 15 isolated hemagglutinin proteins that may 
speed the development of a vaccine against a potential pandemic strain. 
Using reverse genetics technology, a genetically engineered vaccine 
candidate against H5N1 was developed in weeks. This technology was also 
used to identify a genetic mutation in a H5N1 viral gene that makes the 
virus more lethal.
    In late 2002, Severe Acute Respiratory Syndrome (SARS) became the 
first severe newly emergent infectious disease of the 21st century, but 
was rapidly characterized and contained. Because of air travel by its 
earliest victims, SARS reached five countries within 24 hours and more 
than 30 countries on 6 continents within 6 months of the initial 
diagnosed case. Nearly 8,000 persons became ill and international 
travel and trade were greatly affected. The global cost of SARS has 
been estimated at about $80 billion. NIAID funded research in 
collaboration with the Centers for Disease Control and Prevention (CDC) 
demonstrated that SARS is a viral disease and a new coronavirus was 
identified quickly as the causative agent. By May of 2003, an 
international collaboration of researchers had decoded the genetic 
sequence of the virus to develop a candidate vaccine that in November 
2004 entered early phase tests in humans. Less than 2 years separated 
the discovery that SARS is a new infectious disease and the beginning 
of vaccine testing in humans, a process that traditionally can take 
decades. Results came quickly because of research and public health 
cooperation, NIAID resources and new molecular biology techniques. 
Research and technology developed during past disease outbreaks 
facilitate NIAID responses to unique or sporadic challenges like SARS, 
West Nile virus, Ebola virus, and bovine spongiform encephalopathy.
    Research yields major insights into the pathogenic mechanisms of 
established diseases such as HIV/AIDS, tuberculosis and malaria. An 
estimated 40 million people worldwide are living with HIV/AIDS. NIAID 
research has made possible critical discoveries about the basic biology 
of HIV and the immune response to HIV infection which has led to the 
development of therapies that suppress the growth of the virus. 
Approximately 20 antiretroviral medications that target HIV have been 
developed and approved by the Food and Drug Administration. More 
scientific research is needed on the virus to identify additional 
targets for therapeutic interventions and vaccines. Despite the fact 
that tuberculosis (TB) is one of the oldest infectious diseases known, 
the global incidence rate is still increasing. More than one third of 
the world is latently infected with TB. Every day there are 5,000 
deaths due to TB. A big part of the problem is the increasing number of 
patients with the deadly combination of TB and HIV. The only available 
medicines to treat and diagnose TB are from another era. Rapid 
development of new tools is greatly needed to address the growing 
problems of multi-drug resistant TB. Malaria is one of the major 
killers of humans in the world with an estimated 300 million acute 
illnesses each year and more than 1 million deaths. Both tuberculosis 
and malaria pathogens are increasingly resistant to commonly used 
antimicrobial drugs. Genomic and postgenomic techniques are being 
applied to identify key molecular pathways that could be exploited to 
develop TB interventions and vaccines. The complete genomic sequence of 
the malaria vector and parasite were completed in 2002, providing 
powerful tools to further characterize the genes and proteins involved 
in the life cycle of the malaria parasite. NIAID supported programs in 
basic and applied areas are contributing to knowledge that is needed to 
design new vaccines, therapeutics and diagnostics against these 
formidable infectious diseases that exact a terrible social, economic 
and human toll globally.
    The NIAID research portfolio is challenged as never before to 
address new and emerging infectious diseases and those that have 
affected humans for thousands of years but are still a public health 
threat. NIAID supports important research on the hepatitis viruses 
which cause liver inflammation and tissue damage and can cause chronic 
infections. There are more than 25 identified sexually transmitted 
infections (STIs) that affect more than 15 million people in the United 
States. STIs can lead to infertility, complications in pregnancy, 
cervical cancer, low birth weight, congenital/perinatal infections and 
other chronic conditions and are of critical global and national health 
priority because of their impact on women and infants. NIAID basic and 
clinical research studies on mechanisms of pathogenesis of STIs and 
prevention strategies for the control of these infections are 
essential. Bacterial and viral infections of the gastrointestinal tract 
often lead to diarrheal disease and to chronic conditions such as 
ulcers and stomach cancer. In the United States, diarrhea is the second 
most common infectious illness and diarrheal diseases account for 15 to 
34 percent of deaths in some countries. Infection with Helicobacter 
pylori is a major risk factor for developing peptic ulcer disease, 
stomach cancer and primary gastric B cell lymphoma. NIAID supports 
research to understand, prevent and treat enteric diseases through a 
variety of initiatives. NIAID also sponsors research on West Nile 
Virus, which first emerged in 1999 in New York City, other insect-borne 
diseases such as Lyme Disease and fungal diseases that can cause severe 
systemic infections.

                          BIODEFENSE RESEARCH

    The NIH is responsible for the implementation of the strategic plan 
for biodefense research. The NIH biodefense budget, proposed at $1.7 
billion for fiscal year 2006, is part of the budget for NIAID, the lead 
agency at NIH for infectious diseases and immunology research. Research 
is the backbone of the NIAID biodefense efforts and includes genomics 
and studies of pathogenesis and host defense, microbial physiology and 
animal disease models. Sustained funding by the Administration and 
Congress over the past few years is making possible significant 
progress evidenced by over 60 NIAID biodefense initiatives now in 
place.
    Following the September 11, 2001 terrorist attack in the United 
States and terrorist events using biological agents, awareness about 
the potential of bioterrorism and the vulnerability of people to a 
bioterrorism event prompted the U.S. Government to pursue a range of 
programs and capabilities to prepare for future emergencies (Homeland 
Security Presidential Directive 10). Among these was increased funding 
for research and development of medical countermeasures within the 
Department of Health and Human Services to enable the country to mount 
a successful medical and public health response to a biological attack 
on the civilian population should such a terrible event occur. In 2002 
the ASM testified before Congress that pathogenic microbes pose a 
threat to national security whether they occur naturally or are 
released in a bioterrorism attack. Biodefense research is part of the 
continuum of biomedical research aimed at protecting the nation and the 
world against infectious diseases. The ASM supports having federal 
biomedical and infectious disease research efforts related to civilian 
human health prioritized and conducted by and at the direction of the 
DHHS and NIH.
    In early 2002, the NIAID convened a panel of experts, the Blue 
Ribbon Panel on Bioterrorism and Its Implications for Biomedical 
Research, to provide guidance on the future biodefense research agenda, 
research resources, facilities and scientific personnel. The NIAID 
developed research priorities and goals for potential agents of 
bioterrorism with particular emphasis on the ``Category A'' agents 
considered by the CDC and NIH as the worst currently recognized 
potential bioterror threats. The NIAID developed the NIAID Strategic 
Plan for Biodefense Research, The NIAID Biodefense Research Agenda for 
CDC Category A Agents, and the NIAID Biodefense Research Agenda for 
Category B and C Priority Pathogens. Approximately 60 NIAID initiatives 
were funded in fiscal years 2002-2004, including funding for a network 
of 8 nationwide multidisciplinary Regional Centers of Excellence (RCE) 
for Biodefense and Emerging Infectious Diseases Research, 2 National 
Biocontainment Laboratories (NBLs), and 9 Regional Biocontainment 
Laboratories (RBLs) to provide secure space for the expanded civilian 
biodefense research program. The genomes of the biological agents 
listed as posing the most severe threats have been sequenced; new 
animal models have been developed to test promising drugs and 
repositories have been established to catalog reagents and specimens. 
NIAID is sponsoring basic research to understand structure, biology and 
mechanisms by which potential bioweapons cause disease, studies to 
elucidate how the human immune system responds to dangerous pathogens 
and technology to translate basic research into medical countermeasures 
to detect, prevent and treat diseases caused by potential biological 
weapons.
    Advances in biodefense research are outlined in the NIAID 
Biodefense Research Agenda for CDC Category A Agents Progress Report 
and the NIAID Biodefense Research Agenda for Category B and C Priority 
Pathogens Progress Report. NIAID supported biodefense research is 
conducted through collaborataive efforts with academic institutions and 
public/private partnerships and scientific communications are open, 
facilitating scientific and medical progress against infectious 
diseases. NIAID anticipates that the large investment mandated by the 
government in civilian biodefense research will advance scientific 
knowledge that will have positive spin offs for other diseases.
                                 ______
                                 
          Prepared Statement of the American Thoracic Society

                    SUMMARY: FUNDING RECOMMENDATIONS
                        [In millions of dollars]
------------------------------------------------------------------------
                         Agency                               Amount
------------------------------------------------------------------------
National Institutes of Health...........................        30,000.0
    National Heart, Lung and Blood Institute............         3,117.0
    National Institute of Allergy and Infectious Disease         4,667.0
    National Institute of Environmental Health Sciences.           680.0
    Fogarty International Center........................            71.5
    National Institute of Nursing Research..............           146.0
Centers for Disease Control and Prevention..............         8,500.0
    National Institute for Occupational Safety and                 326.0
     Health.............................................
    Environmental Health: Asthma Activities.............            70.0
    Tuberculosis Control Programs.......................           215.0
------------------------------------------------------------------------

    The American Thoracic Society (ATS) is pleased to submit our 
recommendations for programs in the Labor Health and Human Services and 
Education Appropriations Subcommittee purview.
    The American Thoracic Society, founded in 1905, is an independently 
incorporated, international education and scientific society that 
focuses on respiratory and critical care medicine. For 100 years, the 
ATS has continued to play a leadership role in scientific and clinical 
expertise in diagnosis, treatment, cure and prevention of respiratory 
diseases. With approximately 13,500 members who help prevent and fight 
respiratory disease around the globe, through research, education, 
patient care and advocacy, the Society's long-range goal is to decrease 
morbidity and mortality from respiratory disorders and life-threatening 
acute illnesses.

                        LUNG DISEASE IN AMERICA

    Lung disease in America is a serious problem. Each year, an 
estimated 342,000 Americans die of lung disease. Lung disease is 
responsible for one in every seven deaths, making it America's number 
three cause of death. More than 35 million Americans suffer from a 
chronic lung disease. In 2005, lung diseases cost the U.S. economy an 
estimated $139.6 billion in direct and indirect costs, a total of 5.9 
percent of the U.S. economy.
    Lung diseases represent a spectrum of chronic and acute conditions 
that interfere with the lung's ability to extract oxygen from the 
atmosphere, protect against environmental or biological challenges and 
regulate a number of metabolic processes. Lung diseases include chronic 
obstructive pulmonary disease, lung cancer, tuberculosis, influenza, 
sleep disordered breathing, pediatric lung disorders, occupational lung 
disease, sarcoidosis, asthma and severe acute respiratory syndrome 
(SARS).
    The ATS is pleased that the Subcommittee provided increases in the 
National Institutes of Health (NIH) and the Centers for Disease Control 
and Prevention (CDC) budget last fiscal year. However, we are extremely 
concerned with the president's fiscal year 2006 budget that proposes a 
mere 0.5 percent increase for NIH and significant cuts for CDC. We ask 
that this Subcommittee recommend a 6 percent increase for NIH and an 
8.1 percent increase for the CDC. In order to stem the devastating 
effects of lung disease, research funding must continue to grow to 
sustain the medical breakthroughs made in recent years. There are three 
lung diseases that illustrate the need for further investment in 
research and public health programs: Chronic Obstructive Pulmonary 
Disease, pediatric lung disease, specifically asthma and tuberculosis.

                                  COPD

    Chronic Obstructive Pulmonary Disease (COPD) is the fourth leading 
cause of death in the United States and the third leading cause of 
death worldwide. Yet, COPD remains relatively unknown to most 
Americans. COPD is the term used to describe the airflow obstruction 
associated mainly with emphysema and chronic bronchitis and is a 
growing health problem.
    While the exact prevalence of COPD is not well defined, it affects 
tens of millions of Americans and can be an extremely debilitating 
condition. It is estimated that 11.2 million patients have COPD while 
an additional 13 million Americans are unaware that they have this life 
threatening disease.
    According to the National Heart, Lung and Blood Institute (NHLBI), 
COPD cost the U.S. economy an estimated $37.2 billion in 2004. 
Unfortunately, NHLBI spends about $44,000 a year on COPD research. We 
recommend the Subcommittee encourage NHLBI to devote additional 
resources to finding improved treatments and a cure for COPD.
    Medical treatments exist to relieve symptoms and slow the 
progression of the disease. Today, COPD is treatable but not curable. 
Fortunately, promising research is on the horizon for COPD patients. 
Despite these leads, the ATS feels that research resources committed to 
COPD are not commensurate with the impact COPD has on the United States 
and the world. Clearly more needs to be done to make Americans aware of 
COPD, its causes and symptoms. We were pleased to participate in an 
NHLBI-sponsored workshop to formulate strategies toward implementing a 
National COPD Education and Prevention Program. As this effort 
continues, we encourage the NHLBI to maintain its partnership with the 
patient and physician community in the next stages in the development 
of the National COPD Education and Prevention Program.
    While additional resources are needed at NIH to conduct COPD 
research, CDC has a role to play as well. The ATS encourages the CDC to 
add COPD-based questions to future CDC health surveys, including the 
National Health and Nutrition Evaluation Survey (NHANES), the National 
Health Information Survey (NHIS) and the Behavioral Risk Factor 
Surveillance Survey (BRFSS). By collecting information on the 
prevalence of COPD, researchers and public health professionals will be 
better able to understand and control the disease.

                         PEDIATRIC LUNG DISEASE

    Lung disease affects people of all ages. The ATS is pleased to 
report that infant death rates for various lung diseases have declined 
for the past ten years. However, of the seven leading causes of infant 
mortality, four are lung diseases or have a lung disease component. In 
2002, lung diseases accounted for 21 percent of all deaths under one 
year of age. It is also widely believed that many of the precursors of 
adult respiratory disease start in childhood. The ATS encourages the 
NHLBI to continue with its research efforts to study lung development 
and pediatric lung diseases.
    The pediatric origins of chronic lung disease extend back to early 
childhood factors. For example, many children with respiratory illness 
are growing into adults with COPD. In addition, it is estimated that 
close to 20.3 million people suffer from asthma, including an estimated 
6.1 million children. While some children appear to outgrow their 
asthma when they reach adulthood, 75 percent will require life-long 
treatment and monitoring of their condition. Asthma is the third 
leading cause of hospitalization among children under the age of 15 and 
is the leading cause of chronic illness among children.
    The ATS feels that the NIH and the CDC must play a leadership role 
in the ways to assist those with asthma. National statistical estimates 
show that asthma is a growing problem in the United States. However, we 
do not have accurate data that provide regional and local information 
on the prevalence of asthma. To develop a targeted public health 
strategy to respond intelligently to asthma, we need locality-specific 
data. CDC should take the lead in collecting and analyzing this data.
    Last year, Congress provided approximately $32 million for the CDC 
to conduct asthma programs. We recommend that CDC be provided $70 
million in fiscal year 2006 to expand programs and establish grants to 
community organizations for screening, treatment, education and 
prevention of childhood asthma.

                              TUBERCULOSIS

    Tuberculosis (TB) is a global public health crisis that remains a 
concern for the United States. Tuberculosis is an airborne infection 
caused by a bacterium, Mycobacterium tuberculosis. Tuberculosis 
primarily affects the lungs but can also affect other parts of the 
body, such as the brain, kidneys or spine. The statistics for TB are 
alarming. Globally, one-third of the world's population is infected 
with the TB germ, 8-10 million active cases develop each year and 2-3 
million people die of tuberculosis annually. It is estimated that 10-15 
million Americans have latent tuberculosis. Tuberculosis is the leading 
cause of death for people with HIV/AIDS.
    While we are pleased that CDC has reported 12 straight years of 
decline in United States. TB rates, we remain concerned that TB rates 
in African Americans remain high and the TB rates in foreign-born 
Americans is growing. In addition, there has also been an increase in 
the number of TB cases among people with HIV/AIDS, prisoners, the 
homeless and certain immigrant communities.
    Upon review of this information, many have concluded that a cycle 
of neglect has begun, reminiscent of a previous resurgence in the early 
1980's. The ATS, in collaboration with the National Coalition for 
Elimination of Tuberculosis, recommends an increase of $105 million for 
TB control in fiscal year 2006 to allow the CDC undertake an 
unprecedented initiative, Intensified Support and Activities to 
Accelerate Control (ISAAC), to enhance, maximize and target resources 
to sustain the momentum of the past decade and accelerate the control 
and elimination of tuberculosis. ISAAC targets tuberculosis in African 
Americans, tuberculosis along the United States-Mexico border, allows 
for universal genotyping of all culture positive TB cases, and expands 
clinical trials for new tools for the diagnosis and treatment of 
tuberculosis.
    In the efforts to eliminate tuberculosis, it is important to note 
that in 2004 foreign-born residents accounted for nearly 54 percent of 
U.S. tuberculosis cases. The CDC is working to enhance screening of 
immigrants and refugees overseas, test recent arrivals from countries 
that have high TB rates, and cooperate with authorities to control 
tuberculosis along the United States-Mexico border.
    The NIH also has a prominent role to play in the elimination of 
tuberculosis. Currently there is no highly effective vaccine to prevent 
TB transmission. However, the recent sequencing of the TB genome and 
other research advances have put the goal of an effective TB vaccine 
within reach. The National Institute of Allergy and Infectious Disease 
has developed a Blueprint for Tuberculosis Vaccine Development. We 
encourage the Subcommittee to fully fund the TB vaccine blueprint. We 
also encourage the NIH to continue efforts to develop drugs to combat 
multi-drug resistant tuberculosis a serious emerging public health 
threat.
    It is clear that efforts to eliminate tuberculosis must continue. 
From recent TB outbreaks in Fort Wayne, IN and Chesapeake, VA to the 
hundreds of people being tested for tuberculosis in Houston, TX and 
Santa Barbara, CA, tuberculosis is still a problem in the United States 
today.

                       PHYSICIAN WORKFORCE SUPPLY

    As the number of people diagnosed with lung diseases rises, we need 
to ask, who will be treating lung disease patients in the future? The 
ATS is concerned about the supply of physicians in the United States. A 
recent study published in the Journal of the American Medical 
Association predicts that there will be an acute shortage of physicians 
trained to treat patients with critical care illness and lung disease 
starting in 2007.\1\ While the study focuses on supply of pulmonary/
critical care physicians, what is driving the shortage is the 
predicated increase in demand for physician services caused by the 
aging of the U.S. population.
---------------------------------------------------------------------------
    \1\ D. Angus, et al. Current and Project Workforce Requirements for 
Care of the Critically Ill and Patients with Pulmonary Disease: Can We 
Meet the Requirements of an Aging Population? JAMA 2000; 284:2762-2770.
---------------------------------------------------------------------------
    We are pleased that the Bureau of Workforce Analysis at Health 
Resources and Services Administration (HRSA) has taken an interest in 
this issue and will soon be releasing a study on pulmonary/critical 
care physician supply in the United States. We believe the HRSA study 
will confirm an existing shortage of pulmonary and critical care 
physicians. Should the HRSA study confirm a shortage of physicians, 
Congress will then need to take action to address the shortage before 
it reaches a crisis. Potential steps Congress could take include: 
increasing existing caps on training positions for pulmonary/critical 
care, expanding the J-1 visa waiver program, increasing class sizes in 
medical schools, and expanding loan forgiveness and accelerated 
deductions of interests on loans for students enrolled in critical care 
training programs.

                LUNG-DISEASE OPPORTUNITIES AND ADVANCES

    Pulmonary researchers have made significant advances in lung 
disease research. The following are identified areas of lung disease 
research that the NHBLI has said it will be exploring in the next year:
  --HIV-Related Pulmonary Complications. As mentioned earlier, the rate 
        of persons with HIV who are also contracting TB are steadily 
        growing. We applaud the NHLBI for its research on the roles of 
        co-infections, immune factors and genetic predisposition in the 
        pathogenesis of HIV-related pulmonary disease.
  --COPD and lung cancer research. Nearly a quarter of a million 
        Americans die each year of either COPD or lung cancer. NHLBI 
        hopes to address the gap in knowledge that a common 
        pathogenetic mechanism may be involved as a risk factor for 
        COPD and lung cancer. The research will focus on a search for 
        the similarities of the cellular and molecular mechanisms that 
        lead to COPD and lung cancer. This new research could have 
        important implications for the prevention and management of 
        both diseases.
  --Sleep Apnea or Sleep Disordered Breathing (SDB). SDB is a medical 
        condition associated with upper airway obstruction and 
        cessation of breathing that leads to repeated episodes of 
        asphyxia during the night. SDB is very prevalent in the U.S. 
        population with conservative estimates set at 2 percent to 3 
        percent of all children, 5 percent of middle age adults, and in 
        excess of 15 percent of the aged population. The major health-
        related implications and morbid consequences of SDB include the 
        neurocognitive and cardiovascular morbidities, depression, 
        hypertension, increased frequency of myocardial infarction and 
        stroke, and increased frequency of motor vehicle accidents due 
        to the increased sleepiness induced by the disruption of sleep 
        in SDB patients. Both the frequency of SDB and its consequences 
        are anticipated to increase in the next decades due to the 
        aging of the overall U.S. population and the ongoing epidemic 
        of obesity that afflicts our country. The ATS supports the need 
        for more research into the causes, diagnosis and treatment of 
        SDB.
    In conclusion, lung disease is a growing problem in the United 
States. It is this country's third leading cause of death, responsible 
for one in seven deaths. The lung disease death rate continues to 
climb. Overall, lung disease and breathing problems constitute the 
number one killer of babies under the age of one year. Worldwide, 
tuberculosis kills 3 million people each year, more people than any 
other single infectious agent. The level of support this Subcommittee 
approves for lung disease programs should reflect the urgency 
illustrated by these numbers.
                                 ______
                                 
 Prepared Statement of the Centers for Disease Control and Prevention 
                            (CDC) Coalition

    The CDC Coalition is a nonpartisan association of more than 100 
groups committed to strengthening our nation's prevention programs. Our 
mission is to assure that health promotion and disease prevention are 
given top priority in federal funding, to support a funding level for 
the Centers for Disease Control and Prevention (CDC) that enables it to 
carry out its prevention mission, and to assure an adequate translation 
of new research into effective state and local programs. Coalition 
member groups represent millions of public health workers, researchers, 
educators, and citizens served by CDC programs. We are grateful for the 
opportunity to present our views to the Subcommittee.
    It is time to support CDC as an agency--not just the individual 
programs that it funds. In the best professional judgment of the CDC 
Coalition--given the challenges and burdens of chronic disease, 
terrorism and disaster preparedness, new and re-emerging infectious 
diseases and our many unmet public health needs and missed prevention 
opportunities--the agency will require funding of $8.65 billion to 
support its mission for fiscal year 2006.
    The CDC Coalition is pleased with the support the Subcommittee has 
given to CDC programs over the years, including your recognition of the 
need to fund chronic disease prevention, infectious disease 
preparedness, and environmental health programs. By translating 
research findings into effective intervention efforts in the field, the 
agency has been a key source of funding for many of our state and local 
programs that aim to improve the health of communities. Perhaps more 
importantly, federal funding through CDC provides the foundation for 
our state and local public health departments, supporting a trained 
workforce, laboratory capacity and public health education 
communications systems.
    CDC also serves as the command center for our nation's public 
health defense system against emerging and reemerging infectious 
diseases. From anthrax to West Nile to smallpox to SARS, the Centers 
for Disease Control and Prevention is the nation's--and the world's--
expert resource and response center, coordinating communications and 
action and serving as the laboratory reference center. States and 
communities rely on CDC for accurate information and direction in a 
crisis or outbreak.
    In fiscal year 2002, Congress appropriated $7.7 billion for CDC. In 
fiscal years 2003, 2004 and 2005, Congress appropriated $7.1 billion, 
$7.2 billion, and $8.0 billion, respectively. Now the President's 
proposed budget for the agency in fiscal year 2006 is $7.5 billion--a 
$500 million cut from last year's funding, and $200 million below the 
fiscal year 2002 funding level. We are moving in the wrong direction. 
Public health is being asked to do more, not less. As far as we can 
tell, in light of the current workload placed on the public health 
service--in addition to the threat of emerging diseases such as the 
avian flu--it simply does not make any sense to cut the budget for CDC 
at a time when the threats to public health are so great. Funding 
public health outbreak by outbreak is not an effective way to ensure 
either preparedness or accountability.
    Until we are committed to a strong public health system, every 
crisis will force trade offs. For instance, the Administration's recent 
reprogramming request to make up for the vaccine shortage with money 
originally appropriated by Congress for chronic disease prevention 
programs (COPP and the Preventive Health and Health Services Block 
Grant) and bioterror preparedness funds is the most recent concrete 
example of attention to one disease coming at the expense of another.
    CDC serves as the lead agency for bioterrorism preparedness and 
must receive sustained support for its preparedness programs in order 
for our nation to meet future challenges. In the best professional 
judgment of CDC Coalition members, given the challenges of terrorism 
and disaster preparedness, and our many unmet public health needs and 
missed prevention opportunities, the agency will require at least level 
funding to adequately fulfill its mission for fiscal year 2006.
    We are concerned that the President's budget proposes cutting the 
state and local capacity grants for terrorism by almost $130 million, 
and eliminating the anthrax preparedness program. We encourage the 
Subcommittee to restore these cuts to ensure that our local communities 
can be prepared in the event of an act of terrorism.
    Heart disease remains the nation's number one killer. In 2002, 
696,947 people died of heart disease (51 percent of them women), 
accounting for 29 percent of all U.S. deaths. Stroke is the third 
leading cause of death after heart disease and cancer and a leading 
cause of serious, long-term disability. In 2002, stroke killed 162,672 
people (62 percent of them women), accounting for about 1 of every 15 
deaths. In 1998, the U.S. Congress provided funding for CDC to initiate 
a national, state-based heart disease and stroke prevention program 
with funding for eight states. Currently, 32 states and the District of 
Columbia are funded, 21 as capacity building programs and 12 as basic 
implementation programs. The CDC Coalition recommends $55.6 million for 
the Heart Disease and Stroke Prevention Program.
    The CDC carries out crucial work to reduce the incidence, morbidity 
and mortality of cancer through prevention, early detection, treatment, 
rehabilitation, and palliation. Cancer is the second leading cause of 
death in the United States. In 2004, about 1.4 million new cases of 
cancer will be diagnosed, and more than 563,700 Americans--about 1,500 
people a day--will die of the disease. The financial cost of cancer is 
also significant. According to the National Institutes of Health, in 
2003, the overall cost for cancer in the United States was $189.5 
billion: $64.2 billion for direct medical expenses, $16.3 billion for 
lost worker productivity due to illness, and $109 billion for lost 
worker productivity due to premature death. Among the ways they are 
fighting cancer, the CDC funds programs to detect colorectal, ovarian, 
prostate, skin, breast and cervical cancers, as well as maintain a 
cancer registry to track cancer incidence. The CDC coalition recommends 
$385 million for the Cancer Prevention and Control activities of the 
CDC.
    Nearly 16 million Americans have diabetes, including over 5 million 
who don't know it. During 1980-2002, the number of people with diabetes 
in the United States more than doubled, from 5.8 million to 13.3 
million. Although more than 18 million Americans have diabetes, 5.2 
million cases are undiagnosed. Each year, 12,000-24,000 people with 
diabetes become blind, more than 42,800 develop kidney failure, and 
about 82,000 have leg, foot, or toe amputations. Preventive care such 
as routine eye and foot examinations, self-monitoring of blood glucose, 
and glycemic control could reduce these numbers. Without additional 
funds, most states will not be able to create programs based on these 
new data. States also will continue to need CDC funding for diabetes 
control programs that seek to reduce the complications associated with 
diabetes. The CDC Coalition recommends $150 million for CDC's diabetes 
prevention efforts.
    Over the last 25 years, obesity rates have doubled among United 
States adults and children, and tripled in teens. Obesity, diet and 
inactivity are cross-cutting risk factors that contribute significantly 
to heart disease, cancer, stroke and diabetes. The CDC funds programs 
to encourage the consumption of fruits and vegetables, to get 
sufficient exercise, and to develop other habits of healthy nutrition 
and activity. The CDC Coalition recommends $70 million for CDC's 
Division of Nutrition and Physical Activity.
    Arthritis and chronic joint symptoms affect nearly 70 million 
Americans, or about one of every three adults, making it one of the 
most prevalent diseases in the United States. As the population ages, 
this number will increase dramatically. The CDC Coalition recommends 
$25 million for the arthritis programs of the CDC.
    More than 400,000 people die prematurely every year due to tobacco 
use. The CDC's tobacco control efforts seek to prevent tobacco addition 
in the first place, as well as help those who want to quit with ways to 
do so. The CDC Coalition recommends $145 million for the CDC's tobacco 
control programs.
    Each day 4,400 young people try their first cigarette. At the same 
time, daily participation in high school physical education classes 
dropped from 42 percent in 1991 to 32 percent in 2001. Almost 80 
percent of young people do not eat the recommended number of servings 
of fruits and vegetables, while nearly 30 percent of young people are 
overweight or at risk of becoming overweight. And every year, almost 
800,000 adolescents become pregnant and about 3 million become infected 
with a sexually transmitted disease. School health programs are one of 
the most efficient means of correcting these problems, shaping our 
nation's future health, education, and social well-being. CDC's 
Adolescent and School Health program supports coordinated school health 
programs that reduce disease risk factors. In 2003, CDC supported 22 
state-coordinated school health programs. The CDC Coalition recommends 
$82.4 million for school health programs.
    The President's budget proposes the elimination of the Childhood 
Obesity Prevention Program (COPP), also referred to as the VERB or CDC 
Youth Media campaign. The success of the COPP program shows that over 
30 percent of the target audience, children ages 9 to 10 years old, 
increased their physical activity as a direct result of the VERB media 
campaign. This type of success warrants continued funding to empower 
our children to respond to the growing concerns of the obesity epidemic 
and improve the health of this nation. We encourage the Subcommittee to 
restore the cuts and fund the COPP program at $70 million.
    Public health programs delivered at the local level should be 
flexible to respond to local needs. Within an otherwise-categorical 
funding construct, the Preventive Health and Health Services Block 
Grant is the only source of flexible dollars for states and localities 
to address their unique public health needs. The track record of 
positive public health outcomes from Prevention Block Grant programs is 
strong, yet so many requests go unfunded. However, the President's 
budget proposes the elimination of the Preventive Health and Health 
Services Block Grant. As states use their Prevention Block Grant 
dollars to address high priority needs such as emerging and chronic 
diseases, child safety seat programs, suicide prevention, smoke 
detector distribution and fire safety programs, adult immunization, 
oral health, worksite wellness, infectious disease outbreaks, food 
safety, emergency medical services, safe drinking water, and 
surveillance needs--we can scarcely understand why the Prevention Block 
Grant should be eliminated. In fact, the Prevention Block Grant has 
been flat funded since fiscal year 2000. We encourage the Subcommittee 
to restore the cuts and fund the Prevention Block Grant at $132 
million.
    Much of CDC's work in chronic disease prevention and health 
promotion, and in other programs areas, is guided by its prevention 
research activities. Prevention research considers the factors 
associated with illness, disability, and injury, such as lifestyles or 
exposure to environmental toxins, and the best ways to address these 
factors and thereby promote health. By answering these questions, 
prevention research links biomedical research, which focuses on human 
physiology and disease treatment, to policies and public health 
interventions that promote wellness and reduce the need for treatment.
    CDC provides national leadership in helping control the HIV 
epidemic by working with community, state, national, and international 
partners in surveillance, research, prevention and evaluation 
activities. These activities are critically important, as CDC estimates 
that between 800,000 and 900,000 Americans currently are living with 
HIV. Also, the number of people living with AIDS is increasing, as 
effective new drug therapies are keeping HIV-infected persons healthy 
longer and dramatically reducing the death rate. Prevention of HIV 
transmission is our best defense against the AIDS epidemic that has 
already killed over 400,000 U.S. citizens and is devastating the 
populations of nations around the globe, and CDC's HIV prevention 
efforts must be expanded.
    Elimination of tuberculosis and sexually transmitted diseases 
(STDs), especially syphilis, is now within our grasp. These welcome 
opportunities, if adequately funded now, will save millions in annual 
health care costs in the future. Untreated STDs contribute to infant 
mortality, infertility, and cervical cancer. State and local STD 
control programs depend heavily on CDC funding for their operational 
support.
    CDC conducts the National Health and Nutrition Examination Survey 
(NHANES), the only national source of objective health data to provide 
accurate estimates of diagnosed and undiagnosed medical conditions in 
the population. NHANES is a unique collaboration between CDC, the 
National Institutes of Health (NIH), and others to obtain data for 
biomedical research, public health, tracking of health indicators, and 
policy development. Through physical examinations, clinical and 
laboratory tests, and interviews, NHANES assesses the health status of 
adults and children in the United States. Mobile exam centers travel 
throughout the country to collect data on chronic conditions, 
nutritional status, medical risk factors (e.g., high cholesterol level, 
obesity, high blood pressure), dental health, vision, illicit drug use, 
blood lead levels, food safety, and other factors that are not possible 
to assess by use of interviews alone. Findings from this survey are 
essential for determining rates of major diseases and health conditions 
and developing public health policies and prevention interventions.
    We must address the growing disparity in the health of racial and 
ethnic minorities. CDC's REACH 2010 Demonstration Program, Racial and 
Ethnic Approaches to Community Health (REACH), helps states address 
these serious disparities in infant mortality, breast and cervical 
cancer, cardiovascular disease, diabetes, HIV/AIDS and immunizations. 
The CDC Coalition recommends $50 million for the REACH program.
    The CDC Coalition is requesting a $5 million increase, for an 
appropriation of $46 million for Steps to a HealthierUS (STEPS) 
program. Additional resources will allow for the creation of programs 
in more states. Furthermore, while the President's budget request 
includes $1.5 million to support the YMCA Pioneering Healthier 
Communities initiative, $3 million is needed to fully fund and continue 
to expand this important effort. This would enable the funding 20 NEW 
Pioneering Healthier Community projects with one-time start up grants; 
provide funding for a conference in 2005 to train these community 
leadership teams, and establish an office within the Centers for 
Disease Control and Prevention that would assist YMCAs, non-profits and 
local/state health departments in initiating, evaluating and sustaining 
healthy community change efforts.
    CDC oversees immunization programs for children, adolescents and 
adults, and is a global partner in the ongoing effort to eradicate 
polio worldwide. The value of adult immunization programs to improve 
length and quality of life, and to save health care costs, is realized 
through a number of CDC programs, but there is much work to be done and 
a need for sound funding to achieve our goals. Influenza vaccination 
levels remain low for adults. Levels are substantially lower for 
pneumococcal vaccination. Significant racial and ethnic disparities in 
vaccination levels persist among the elderly. Childhood immunization 
programs at CDC also need a funding boost, to ensure sufficient 
purchase and delivery of the recently-approved varicella and 
pneumococcal vaccines. In addition, developing functional immunization 
registries in all states will be less costly in the long run than 
maintaining the incomplete systems currently in place.
    Injury at work remains a leading cause of death and disability 
among U.S. workers. During the period from 1980 through 1995, at least 
93,338 workers in the United States died as a result of injuries 
suffered on the job, for an average of about 16 deaths per day. The 
Bureau of Labor Statistics (Department of Labor) has identified 5,915 
workplace deaths from acute traumatic injury in 2000. BLS also 
estimates that 5.7 million injuries to workers occurred in 1997 alone; 
while NIOSH estimates that about 3.6 million occupational injuries were 
serious enough to be treated in hospital emergency rooms in 1998. The 
injury prevention and workforce protection initiatives of NIOSH need 
continued support.
    Of the 4 million babies born each year in the United States, 3 
percent are born with one or more birth defects. Birth defects are the 
leading cause of infant mortality, accounting for more than 20 percent 
of all infant deaths. Children with birth defects who survive often 
experience lifelong physical and mental disabilities. An estimated 54 
million people in the United States currently live with a disability, 
and 17 percent of children under the age of 18 have a developmental 
disability. Direct and indirect costs associated with disability exceed 
$300 billion.
    Created by the Children's Health Act of 2000 (Public Law 106-310), 
the National Center on Birth Defects and Developmental Disabilities 
(NCBDDD) at CDC conducts programs to protect and improve the health of 
children and adults by preventing birth defects and developmental 
disabilities; promoting optimal child development and health and 
wellness among children and adults with disabilities. We encourage the 
Subcommittee to provide at least $135 million in fiscal year 2006 
funding for the NCBDDD. This would be a modest increase of $10 million 
and would further surveillance, research and prevention activities 
related to birth defects and developmental disabilities and improve the 
lives of those living with disabilities.
    We also encourage the Subcommittee to provide $10 million for CDC's 
Environmental Public Health Services Branch to revitalize environmental 
public health services at the national, state and local level. As with 
the public health workforce, the environmental health workforce is 
declining. Furthermore, the agencies that carry out these services are 
fragmented and their resources are stretched. These services are the 
backbone of public health and are essential to protecting and ensuring 
the health and well being of the American public from threats 
associated with West Nile virus, terrorism, E. coli and lead in 
drinking water.
    We appreciate the Subcommittee's hard work in advocating for CDC 
programs in a climate of competing priorities. We encourage you to 
consider our request for $8.65 billion for CDC in fiscal year 2006. 
Members of the CDC Coalition are grateful for this opportunity to 
present our views to the Subcommittee.
                                 ______
                                 
    Prepared Statement of the Charcot-Marie-Tooth Association (CMTA)

    I want to thank the Subcommittee for this opportunity to share 
information about Charcot-Marie-Tooth (CMT) disorder and to express 
support for expanded CMT research funded by the National Institutes of 
Health (NIH).

                           BACKGROUND ON CMT

    CMT is the most common inherited neurological disorder, affecting 
approximately 125,000 Americans. The disease affects people across 
their lifespan and is found world wide in all races and ethnic groups. 
Unlike muscular dystrophy, which strikes the muscles, CMT adversely 
affects the nerves that control the muscles. Individuals afflicted with 
CMT slowly lose normal use of their feet and legs and hands and arms as 
nerves to the extremities degenerate. The muscles in the extremities 
weaken due to the loss of stimulation by the affected nerves, and there 
is often a loss of sensory nerve function.
    Even though there are different types of CMT, CMT is largely 
inherited in an autosomal pattern, meaning when one parent has the 
disease (either the father or the mother), there is a 50 percent chance 
it will be passed onto each child. The degree of severity can vary 
greatly from patient to patient, even within the same family. A child 
may or may not be more severely disabled than his or her parent. In 
most cases, CMT does not affect life expectancy; however, in certain 
forms the disease is more severe: debilitating children so that they 
require wheelchairs and even resulting in premature death. There are 
currently no effective treatments--although physical therapy, 
occupational therapy, and moderate physical activity are beneficial.

                         STATUS OF CMT RESEARCH

    CMT was described over 100 years ago; yet, it has only been in the 
last 10 years that rapid advances in our understanding of CMT have 
occurred. We now know there are at least 30 different genetic causes of 
CMT, and the genetic location of many more types are known. 
Identification of the known CMT genes has led to the development of 
diagnostic tests, enabling many people to receive a firm diagnosis and 
evaluate risk to other family members. Despite identifying more genes 
associated with CMT, we are just beginning to understand how the genes, 
when abnormal, cause CMT.
    To elucidate the complexities surrounding CMT, the CMTA funded the 
CMT North American Database, which is housed at Indiana University. 
Simply put, the database is a standardized collection of data about a 
large number of people with all types of CMT that includes detailed 
information about a person's medical, genetic, and family histories. 
Having a central repository of standardized information of CMT patients 
will accelerate the pace of CMT research, by providing detailed 
information about large numbers of uniformly evaluated patients to 
qualified researchers. Information contained in the database should 
provide a more accurate picture of the range of disability caused by 
the various types and sub-types of CMT. The database will also be a 
rich resource to tap when drugs or other CMT treatments become 
available for testing.
    In addition to the database, for several years, CMTA has funded a 
quality research program including the sponsorship of many fellowships 
and national and international meetings. Ongoing studies are 
investigating the molecular basis of various forms of CMT, the 
molecular biology of molecules known to cause CMT, relationships 
between CMT and other neurodegenerative diseases such as ALS, and the 
development of rational clinical therapies to potentially treat CMT. 
The National Institutes of Health (NIH), in particular, the National 
Institute of Neurological Disorders and Stroke (NINDS), has co-funded 
several of these activities.

           CMT RESEARCH AND THE NATIONAL INSTITUTES OF HEALTH

    Despite providing modest support for a handful of successfully 
competed applications, NIH has not launched a coordinated effort to 
stimulate more CMT research opportunities nor invested sufficient 
resources. In fact, according to the NINDS, from fiscal year 2002 to 
fiscal year 2005, funding for CMT research at NINDS declined in real 
terms, even as total NIH dollars and funding of neuropathy research 
increased.
    We are pleased the report that the House and Senate Appropriations 
Subcommittees on Labor, Health and Human Services, and Education 
requested on CMT research at NIH last year has contributed to the 
understanding of relevant trans-NIH activities. Moreover, we are 
encouraged by NIH's announcement that it is beginning to plan a 
workshop on peripheral neuropathies, but believe that such a workshop 
should focus intensively on CMT so that it will result in outcomes 
which will be directly relevant to CMT research and could lead to a 
relevant program announcement or request for applications on CMT, 
specifically.
    We are confident the Subcommittee's continued interest in CMT 
research will help the NIH and CMT field work together to identify 
potential future research opportunities that could be incorporated into 
existing trans-NIH initiatives, such as the Blueprint for 
Neurosciences, or developed from the upcoming scientific workshop into 
a request for applications or program announcement.
    Unlike many other areas of research, CMT did not experience a 
largess of funding during the NIH doubling period. In spite of this 
fact, in recent years, researchers made substantial progress towards 
understanding CMT. Yet, additional advances in the field will be 
hampered without additional resources from the NIH. This support would 
not only benefit CMT. Data from CMT research has the potential to 
translate into direct benefits for research into other 
neurodegenerative disorders, such as ALS and MS, which devastate 
hundreds of thousands of Americans. Therefore, by increasing its 
support for CMT, NIH will also be facilitating research into other 
neurodegenerative diseases.

                        FISCAL YEAR 2006 REQUEST

    CMTA believes the Administration's request for the NIH in fiscal 
year 2006 is inadequate. Providing NIH with less than a one percent 
increase, as proposed, would fund the agency well below the rate of 
biomedical research inflation index (3.5 percent) and limit the 
agency's ability to invest in emerging areas of sciences, such as CMT, 
that are in dire need of an infusion of federal support. We urge the 
Subcommittee to increase funding for the NIH in fiscal year 2006. 
Moreover, we urge the Subcommittee to continue to express an interest 
in CMT and work with NIH to ensure that any workshop on peripheral 
neuropathies is intensively focused on CMT so that it will result in 
outcomes which will be directly relevant to CMT research and could lead 
to a relevant program announcement or request for applications on CMT, 
specifically. We encourage and strongly support any such program 
announcement or request for applications on CMT.
    Once again, I thank the Subcommittee for expressing its interest in 
CMT and for this opportunity to testify.
                                 ______
                                 
      Prepared Statement of the Coalition for American Trauma Care

    The Coalition for American Trauma Care is pleased to provide you 
with its recommendations for fiscal year 2006 appropriations for public 
health programs that support trauma care, trauma care research, and 
injury prevention.
    The Coalition for American Trauma Care is a nonprofit association 
of national health and professional organizations that seeks to improve 
care for the seriously injured patient through improved delivery of 
trauma care services, research and rehabilitation activities. The 
Coalition also supports efforts to prevent injury from occurring.
    Injury is one of the most important public health problems facing 
the United States today. It is the leading cause of death for Americans 
from age 1 through age 44. More than 145,000 people die each year from 
injury, 88,000 from unintentional injury such as car crashes, fires, 
and falls, and 56,000 from violence-related causes. Over 85 children 
and young adults die from injuries in the United States every day 
translating into 30,000 deaths annually. Injury is also the most 
frequent cause of disability. Millions of Americans are non-fatally 
injured each year leaving many temporarily disabled and some 
permanently disabled with severe head, spinal cord, and extremity 
injuries. Because injury so often strikes the young, injury is also the 
leading cause of years of lost work productivity and, at an estimated 
$224 billion in lifetime costs each year, trauma is our nation's most 
costly disease.
    Attention to injury was never more important in the wake of the 
September 11, 2001 attacks. Particularly concerning is our failure, as 
a nation, to fully implement organized systems of trauma care in every 
state and region which numerous studies have demonstrated are essential 
to saving the lives of those who are severely injured. The Health 
Resources and Services Administration's (HRSA) completed analysis of a 
2002 survey of the states that shows only eight states had 
comprehensive trauma systems, 12 states did not have even rudimentary 
elements of a trauma system and the remaining states are were in 
various stages of incomplete development. And yet a new Harris Poll, 
commissioned in November, 2004 to learn about the American public's 
views of and support for trauma systems found that:
  --Almost everyone recognizes the importance of having a trauma system 
        in their state.
  --Large majorities feel that having a trauma system in place is as 
        important as, or more important than, having State police or 
        HAZMAT teams.
  --About two in three Americans would be extremely or very concerned 
        if they learned that the trauma system in their state did not 
        meet recognized standards.
  --Americans are willing to spend their own money to have trauma 
        centers and trauma systems in place in their states.
  --Generally, Americans have high expectations of their states' trauma 
        centers and systems when it comes to handling natural disasters 
        or terrorist attacks.
    Trauma Care Systems.--The Coalition is opposed to the elimination 
of this program in the President's fiscal year 2006 budget request and 
urges you to provide $12 million in fiscal year 2006 for HRSA's Trauma-
EMS systems program. This is the amount provided in Senate authorizing 
legislation (S. 265) adopted unanimously by the Senate HELP Committee 
on February 9. The Trauma-EMS program was funded at $3.0 million in 
fiscal year 2001, and $3.5 million for fiscal year 2002-2005. Fully 80 
percent of the appropriated dollars, as authorized, is provided for 
state grants to further trauma system development. States receive 100 
percent federal funding in the first grant year and must provide a 2:1 
state to federal match in Year 2, and a 3:1 match in Year 3. States may 
do this through in-kind assets. Thus, this seriously under-funded 
program provides both critical federal leadership and leverages scarce 
state resources.
    The program has been making steady progress toward the goal of 
extending and strengthening organized systems of trauma care across the 
nation. In receiving grants from fiscal year 2002-2004 states had to 
assure:
    1. A lead agency for the state trauma system.
    2. Identification of a state-level trauma system manager.
    3. A multidisciplinary statewide trauma stakeholder group.
    4. Completion of the 2002 National Assessment (with fiscal year 
2001 funding).
    5. A statewide trauma system plan.
    After these components were in place (or for those states with 
advanced trauma systems), the program funded additional state-specific 
trauma system projects.
    A follow-up assessment of state progress in trauma system 
development is being planned for fiscal year 2005.
    National Center for Injury Prevention and Control.--The Coalition 
supports $168 million in funding in fiscal year 2006 for the National 
Center for Injury Prevention and Control which is currently funded at 
$138 million. While the Coalition remains a strong supporter of the 
National Center for Injury Prevention and Control, members would like 
to see more balance in support for unintentional injuries. Significant 
increases in the NCIPC in recent years have largely been earmarked for 
violence prevention--an important focus for NCIPC after disturbing 
incidents in public schools around the country. However, unintentional 
injury remains the leading killer of children and young adults and 
NCIPC's efforts to translate what works into communities should receive 
increased funding. These efforts help prevent, for example, the 20,000 
head injuries that occur every year by encouraging the use of bicycle 
helmets, and reduce burn-related injuries through smoke detector 
implementation programs. The Coalition is also disappointed that as the 
funding base for the National Center for Injury Control and Prevention 
has grown, the relative amount of funding for acute care research and 
demonstration has diminished.
    Traumatic Brain Injury (TBI).--Traumatic brain injury is a leading 
cause of trauma-related disability. Brain injury is a silent epidemic 
that compounds every year, but about which still little is known. The 
Coalition is opposed to the proposed elimination of this important 
program in the President's fiscal year 2006 budget request and urges 
you to provide a total of $30 million for the Traumatic Brain Injury 
(TBI) Act, reauthorized as part of the Children's Health Act of 2000 
(Public Law 106-310), as follows: $8.715 million for CDC for 
surveillance--the legislation directs the CDC to build upon its work 
with state registries to collect information to help improve service 
delivery to people who have sustained a TBI and to expand monitoring of 
the incidence and prevalence of TBI to include all age groups and 
individuals in institutional settings. In 2003, the CDC launched the 
first phase of the National Information Center for TBI (NCITBI)--a 
``one call'' national information center that provides persons with 
brain injury and their circles of support toll-free information on 
State-specific resources and linkage to services. The CDC has also been 
directed to monitor the incidence, outcomes and services needs of 
people who sustain injuries, including TBI, during mass casualty 
events. The Coalition also supports $15.193 million for the HRSA TBI 
State Grant Program--this Program was established to improve access to 
health and other services for individuals with TBI and their families 
by awarding competitive grants to States and Territories; and $6 
million for HRSA Protection and Advocacy Services for persons with TBI. 
In addition, the Coalition requests that you include report language to 
ensure that the National Institutes on Neurological Disorders and 
Stroke (NINDS) within NIH increases core funding to $2 million for each 
of its six Centers and that NINDS dedicate $1.0 million for funding a 
new coordinating and administrative network for the six Centers. We 
also request that NINDS dedicate funding to establish a new category of 
training grants to incentivize individuals to pursue careers in TBI 
bench science research. NINDS currently funds six bench science 
research centers at $1.0 million each. These six Centers represent 
groups of renowned basic and clinical physician-scientists working 
collaboratively on translational research programs who have developed 
the clinically-relevant laboratory models that will serve as the 
foundation for future research--it is imperative that we invest in the 
infrastructure that is now in place.
    Children's EMS.--The Coalition is opposed to the proposed 
elimination of this program in the President's fiscal year 2006 budget 
request and urges you to provide $20 million in fiscal year 2006, which 
maintains the fiscal year 2005 funding level. While children currently 
account for up to 30 percent of all emergency department visits and 10 
percent of ambulance runs annually, many facilities lack the 
specialized equipment needed to care for children. Moreover, many 
emergency personnel do not have the necessary education or training to 
provide optimal care to children. In order to assist local communities 
in providing the best emergency care to children the Children's EMS 
program needs to continue and continue at the fiscal year 2005 funding 
level.
    Preventive Health/Health Services Block Grant (PHHS).--The 
Coalition is opposed to the proposed elimination of this program in the 
President's fiscal year 2006 budget supports an fiscal year 2006 
funding level of $132 million, which maintains the same funding level 
as provided in fiscal year 2005. The Coalition rejects the President's 
request to eliminate this program because it is duplicative of other 
activities within the CDC. The PHHS Block Grant provides flexible 
funding to states to allow them to address specific health problems 
identified under the Healthy People 2010 assessment process. The 
funding allows states to take innovative approaches to address 
significant health issues and complements, not duplicates, some of 
CDC's other program activities. In addition, the PHHS Block Grant is 
the largest single source of federal funding for support basic state 
Emergency Medical Services' (EMS) infrastructure--the first line of 
defense against death and disability resulting from severe injury.
    The Coalition for American Trauma Care is disappointed by the 
President's fiscal year 2006 budget which proposes elimination of all 
funding for four programs specifically designed to build infrastructure 
to ensure that trauma and emergency medical services are available and 
appropriate to need: HRSA's Trauma-EMS systems program; HRSA's 
Traumatic Brain Injury program; HRSA's Children's EMS program and CDC's 
Preventive Health and Health Services Block Grant. If these cuts were 
enacted, the results would be devastating for emergency care in the 
United States for everyone and particularly for children and those who 
have suffered head injury. The burden of injury in America has been 
well documented by numerous IOM reports and injury facts speak for 
themselves: injury is the leading cause of death and disability for 
children and adults up to age 44. While much more can and needs to be 
done to prevent injury from occurring at all, we will never be able to 
eliminate it entirely. Cutting these programs will not lessen the 
injury burden in America; on the contrary, it will significantly 
increase the burden of death, disability and direct and indirect health 
care costs. We need to increase our investment in these program areas, 
not reduce our commitment.
    The Coalition greatly appreciates the support the Subcommittee has 
provided to trauma related programs in the past and looks forward to 
working with the Subcommittee in the coming weeks and months.
                                 ______
                                 
         Prepared Statement of the Coalition for Health Funding

    The Coalition for Health Funding is pleased to provide the 
Subcommittee with testimony recommending fiscal year 2006 funding 
levels for the agencies and programs of the U.S. Public Health Service. 
Since 1970, the Coalition's member organizations, representing 40 
million health care professionals, researchers, lay volunteers, 
patients and families, have been advocating for sufficient resources 
for PHS agencies and programs to meet the changing health challenges 
confronting the American people. The Coalition for Health Funding is 
the nation's oldest, most broadly based alliance focused on the breadth 
of discretionary health spending. One of the important principles that 
unites the Coalition's members is that the health needs of the nation's 
population must be addressed by strong, sustained support for a 
continuum of activities that includes biomedical, behavioral and health 
services research; community-based disease prevention and health 
promotion; health care services for vulnerable and medically 
underserved populations; ensuring a safe and effective food and drug 
supply; and education of a health professions workforce in adequate 
numbers to address the breadth of need.
    The Coalition for Health Funding believes the Bush Administration, 
and Congress, are missing an important opportunity to improve the 
health of all Americans by not making a stronger investment in the 
agencies and programs of the U.S. Public Health Service. Federal 
spending for public health is low compared to other health spending, 
amounting to three percent of total health care spending according to 
the Centers for Medicare and Medicaid, and yet an investment in public 
health has the potential to slow unsustainable growth in mandatory 
costs, reduce lost productivity at work, school and home, and 
strengthen every citizen's contribution for a healthy, economically 
strong America. Mounting evidence-based studies 
(www.thecommunityguide.org; www.aspe.hhs.gov/health/prevention/
prevention.pdf; www.modelprograms.samhsa.gov) demonstrating the 
effectiveness of prevention, early intervention, access to basic health 
care services and associated cost-savings support investing in public 
health programs and activities. Instead, over the past two fiscal years 
we have seen an erosion of resources, beginning with the budget phase, 
with flat-funding, or cuts in funding, effected for many programs 
during the Committee phase of the appropriations process followed by 
across-the-board cuts in the omnibus bills for all health programs. The 
President's fiscal year 2006 budget request takes these reductions 
considerably further by proposing to cut funding for the seven major 
public health agencies by $1.1 billion below fiscal year 2005 levels, a 
cut of 2.2 percent as the accompanying table shows.
    The Coalition for Health Funding urges the Subcommittee on Labor, 
Health and Human Services and Education to reject the President's 
proposal to reduce the nation's investment in public health and instead 
join 425 health organizations that, in letter dated February 1, 2005, 
urged the President and Congress to make an investment in public health 
of $3.5 billion over fiscal year 2005 levels. As that letter states:

    ``The health of all Americans is at risk from an unprecedented 
range of threats, including: chronic diseases and disabilities, 
infectious and food borne illnesses, biological and chemical terrorism, 
mental disorders and substance abuse, catastrophic injuries, and a 
shortage of healthcare providers and trained public health workers.
    ``Our nation's public health system will not be able to respond 
adequately to these threats without additional resources for the 
continuum of medical research, prevention, treatment and training 
programs. We urge you to increase discretionary funding for public 
health through the Function 550 budget allocation in fiscal year 2006 
by $3.5 billion. This investment is critical to improving the health, 
safety and security of our nation.''

    The following is a partial list of the Coalition's fiscal year 2006 
recommendations for specific U.S. Public Health Service agencies. The 
Coalition developed these recommendations working with eight other 
health coalitions with a more targeted focus on one agency, or major 
activities within a particular agency. The table that follows provides 
the Coalition's recommendations for all the major public health 
agencies.

                  NATIONAL INSTITUTES OF HEALTH (NIH)

    The Coalition supports $30.1 billion in fiscal year 2006 for the 
National Institutes of Health, a 6 percent increase over the fiscal 
year 2005 funding level, to provide sufficient resources to sustain the 
momentum of the recently completed campaign to double the nation's 
investment in the promising research supported and conducted by the 
NIH. The President's request to provide $28.6 billion, or a .5 percent 
increase over fiscal year 2005, is inadequate to fully reap the 
research opportunities that the doubling campaign have made available. 
NIH is engaging the next generation of biomedical research to integrate 
and aggregate basic research, computational capabilities, and clinical 
evidence into new cures. Transforming America's health for the 21st 
century will require a longstanding commitment from our country and its 
leaders. The pace and intensity of this transformation is critical. 
Health improvements will only be possible if the medical research 
enterprise runs smoothly. Recent discoveries NIH supported research has 
made possible include: lifestyle intervention can reduce the onset of 
Type II diabetes as occurred in 58 percent of those at risk in a recent 
trial; islet cell transplantation has reduced the need for insulin for 
250 individuals with juvenile diabetes; low-cost diuretics are as 
effective as newer, costlier drugs in lowering high blood pressure that 
affects one in four Americans, potentially saving money and enhancing 
compliance; newer antidepressant medications are more targeted to 
specific brain function resulting in fewer side effects and enhanced 
compliance; great advances in understanding the genetic factors in 
Alzheimer's Disease holds promise for treatment for the growing number 
of Americans afflicted with this devastating disease; new vaccines have 
been developed against Haemophilus influenzae type b, pneumococcal 
disease, Hepatitis A and B and a new Ebola vaccine is currently in 
trial.
    Scientific discoveries are the result of a series of incremental 
steps that pave the way for future breakthroughs. This process needs 
sustained support. A funding increase of only .5 percent will delay 
important initiatives leading to earlier, more targeted diagnoses; more 
targeted, effective treatment options; and more comprehensive, cost-
effective prevention strategies.

            CENTERS FOR DISEASE CONTROL AND PREVENTION (CDC)

    The Coalition for Health Funding recommends an overall funding 
level of $8.65 billion for CDC in fiscal year 2006. This amount is $616 
million more than the fiscal year 2005 funding level and $1.1 billion 
more the President's request for fiscal year 2006. The Coalition 
believes this is the amount needed to enable CDC to carry out its vital 
mission of disease prevention and health promotion.
    The Coalition opposes the President's request to cut $130 million 
from State and Local Preparedness grants and shift the funds to the 
Strategic National Stockpile (SNS) to purchase vaccines and terrorism 
countermeasures and fund a new $50 million Mass Casualty Initiative. 
Any SNS purchases and new federal terrorism initiatives, if deemed 
warranted, should be funded from new resources and not at the expense 
of State and Local Preparedness. State and Local health departments are 
in the third year of expanded funding for terrorism preparedness. The 
effect of a 14 percent cut will seriously jeopardize momentum in 
addressing critical capacity needs. Funding should be restored, at 
least, to fiscal year 2005 levels and the commitment to rebuilding the 
nation's neglected public health infrastructure resumed and sustained.
    The Coalition also opposes the proposed elimination of funding for 
the Preventive Health and Health Services Block Grant. This funding 
provides the only source of flexible funding to state health 
departments to help them meet Healthy People 2010 goals. The funding is 
often used in innovative ways which complement, not duplicate, other 
disease-specific categorical programs. It is also the only source of 
funding for many states to monitor well-contamination in poor rural 
areas. And it helps states cope with unexpected challenges such as 
emerging infectious diseases like West Nile Virus and the health 
consequences of disasters. Taken together, the proposed cut in the 
State and Local Bioterrorism grant program coupled with the elimination 
of the Preventive Block Grant seriously undermines funding for building 
State and Local public health capacity, a major Congressional goal 
expressed in legislation the year before (Public Law 106-505) and the 
year after (Public Law 107-188) the attacks of September 11, 2001.
    The Coalition is displeased that most of the rest of the programs 
and activities conducted by the CDC are proposed for flat funding in 
the President's budget. This is especially egregious for chronic 
disease programs at a time when the nation faces an epidemic of obesity 
and the ensuing increase in diabetes, heart disease, kidney disease, 
cancer, arthritis and other costly diseases. There should be a major 
national investment in finding ways to address this problem. The VERB 
program, eliminated in the President's budget, provides a model for 
reaching young adolescents; it should be replicated.
    Similarly, there is insufficient funding provided for infectious 
disease programs, most of which are flat-funded. The United States is 
still only partially prepared for diseases such as West Nile virus and 
pandemic flu, and has not committed funds to combat antimicrobial 
resistance commensurate with the scope and severity this problem 
presents in the United States. There are 40,000 new HIV infections each 
year which means the United States burden of HIV/AIDS is growing, not 
stagnant. The President's budget request does include increases for the 
National Immunization Program (+$50 million), but the Coalition 
supports an increase of $282 million in order to meet the national goal 
of vaccinating 90 percent of children and adults.
    Finally, the Coalition is, overall, deeply disappointed that the 
President's budget request cuts funding for the CDC, the nation's 
leading disease prevention/health promotion agency, by more than 6 
percent, instead of investing in this agency's potential for saving 
health care costs.

          HEALTH RESOURCES AND SERVICES ADMINISTRATION (HRSA)

    The Coalition for Health Funding recommends an overall funding 
level of $7.5 billion for HRSA in fiscal year 2006. This amount is $691 
million, or 10 percent, more than the fiscal year 2005 funding level, 
and is $1.5 billion more than the President's request. This is the 
amount that the Coalition believes is needed to provide adequate 
resources for the important programs that HRSA administers that address 
access to needed medical and health care services for medically 
underserved populations.
    The Coalition is pleased that the President has requested a 
significant 17 percent increase for Community Health Centers (CHC) for 
a total of $2.038 billion. These centers provide basic health care 
services for those who are medically underserved in both rural and 
inner city communities across the nation. With the number of uninsured 
rising, CHCs are more important than ever.
    There are many other areas in the HRSA budget that the President 
proposes to cut deeply that the Coalition opposes. Chief among these is 
the elimination of the Title VII Health Professions Education programs. 
These programs are beginning to document formally what their supporters 
have long known: that they have a solid track record in recruiting and 
training the kind of health professionals that practice in, and stay 
in, medically underserved areas. Graduates of these programs are 3-10 
times more likely to practice in underserved areas and are 2-5 times 
more likely to be minorities. The Title VII programs also have a solid 
track record in training needed health professionals in short supply 
including pharmacists, allied health professionals, dentists, a range 
of public health practitioners, psychologists, and physician 
assistants. These shortages will become worse as increasing numbers of 
the nation's healthcare workforce begin to retire and the babyboom 
generation requires increased care as it ages.
    The Coalition also opposes the elimination of five other programs: 
Community Access Program, an innovative program of coordinated service 
delivery to the uninsured that does not duplicate other available 
programs; the Trauma-EMS program which fosters statewide trauma system 
development to provide appropriate emergency response for seriously 
injured individuals--an important terrorism readiness component; the 
Children's EMS program which builds appropriate emergency response 
capacity for children; the Traumatic Brain Injury program which helps 
brain-injured individuals become successful community participants; the 
universal newborn screening program which ensures that all states 
screen infants for a core set of screening tests for genetic, 
metabolic, hormonal, or functional conditions many of which can be 
treated if detected and disability averted. The Coalition also opposes 
the $115 million cut to a number of rural programs, and the $101 
million cut to the Children's Hospitals Graduate Medical Education 
program.
    Also disturbing is the proposed level funding for many other 
programs. This includes the Nursing Education programs despite 
considerable documentation of the nursing shortage crisis. It also 
includes the Ryan White CARE Act programs at a time when the United 
States is experiencing 40,000 new HIV infections per year. The 
President's request for Ryan White programs, when compared to fiscal 
year 2005 levels, provides level funding for all titles except for the 
AIDS Drug Assistance Program which receives a $10 million increase--not 
enough to eliminate waiting lists for the life-saving drugs. The 
Maternal and Child Health Block Grant is a critical safety net program 
for poor women and special needs children. Flat-funding actually cuts 
services at a time when there is an upsurge in the number of families 
needing TANF assistance. Family Planning services, which support 4,600 
clinics across the United States that provide comprehensive services 
including screening for cancer, HIV, and other diseases as well as 
contraception and teen pregnancy prevention, are another critical 
safety net service that needs increased resources.
    Overall, the President proposes to cut existing HRSA programs by 
$838 million, or over 12 percent, at a time when the numbers of 
uninsured individuals and families is rising and they are turning to 
federally funded programs for assistance and care.

       SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES ADMINISTRATION

    The Coalition for Health Funding recommends an overall funding 
level of $3.5 billion for SAMHSA in fiscal year 2006. This amount is 
$262 million, or 8 percent, more than the fiscal year 2005 funding 
level, and $316 million more than the President's budget request, which 
includes a 54 million cut for SAMHSA programs.
    The Coalition is pleased that, for the third year, the President 
requests an increase for substance abuse treatment, although 
substantially less at $25 million than the last two years. However, 
once again, the increase comes at the expense of prevention which is 
slated for a $15 million cut. Substance abuse is a significant and very 
costly national problem involving an estimated 21.6 million Americans--
over 9 percent of the population--and needs investment in both 
treatment and prevention. SAMHSA has developed a set of evidence-based 
model prevention programs that community-based organizations need help 
in implementing. On the treatment side, of the 1 million Americans who 
express a need for substance abuse treatment in a regularly conducted 
household survey, 273,000 (26 percent) report they made an effort to 
obtain treatment, but were unable to do so. Clearly, a stronger 
investment--which the President has championed--needs to be made to 
provide treatment when it is sought.
    The Coalition is very disappointed that the President's budget cuts 
mental health program funding at SAMHSA by $64 million. There is no 
additional investment made in response to the findings and 
recommendations of the President's New Freedom Commission on Mental 
Health, the first such commission in over 25 years. The Commission 
advised the President that youth with mental and emotional problems 
face enormous access barriers and that an alarming 80 percent of youth 
in juvenile detention facilities have mental disorders. Yet the 
President's budget cuts the Jail Diversion program in half and the 
successful Youth Violence Prevention program by $27 million. These cuts 
should not be accepted in the aftermath of the Red Lake school massacre 
in Minnesota.
    The Coalition sincerely appreciates this opportunity to provide its 
fiscal year 2006 funding recommendations to the Subcommittee for the 
agencies and programs of the U.S. Public Health Service. The 
Coalition's recommendations for all of the public health agencies are 
provided in the accompanying table. The Coalition, and its member 
organizations, look forward to working with the Subcommittee in the 
weeks ahead to improve the health of all Americans.

                                                    COALITION FOR HEALTH FUNDING 2006 RECOMMENDATIONS
                                                                  [Dollars in millions]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                President's    Percent
                                                                                   dollar    President's                      Dolllar         Percent
                                                                   President's    request       request         CHF       difference CHF  difference CHF
                        Agency                           Fiscal      request    fiscal year  fiscal year  recommendation  recommendation  recommendation
                                                        year 2005  fiscal year     2006-        2006-       fiscal year     fiscal year     fiscal year
                                                                       2006     fiscal year  fiscal year       2006         2006-fiscal     2006-fiscal
                                                                                    2005         2005                        year 2005       year 2005
--------------------------------------------------------------------------------------------------------------------------------------------------------
NIH \1\..............................................     $28,444      $28,590        +$146         +0.5       $30,150         +$1,706            +6.0
CDC \2\..............................................       8,034        7,543         -491         -6.1         8,650            +616            +7.7
HRSA \1\.............................................       6,809        5,972         -837        -12.3         7,500            +691           +10.0
SAMHSA \1\...........................................       3,269        3,215          -54         -1.6         3,531            +262            +8.0
AHRQ.................................................         319          319  ...........  ...........           443            +124           +38.0
FDA \1\..............................................       1,450        1,500          +50         +3.4         1,566            +116            +8.0
IHS \1\..............................................       2,985        3,048          +63         +2.1         3,218            +232            +7.8
                                                      --------------------------------------------------------------------------------------------------
      Totals.........................................      51,310       50,187       -1,123         -2.2        55,058          +3,747           +6.8
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Reflects Total Budget Authority.
\2\ Reflects Total Program Level.

                                 ______
                                 
  Prepared Statement of the Crohn's and Colitis Foundation of America

              SUMMARY OF FISCAL YEAR 2006 RECOMMENDATIONS

    (1) A 6 percent increase for the National Institute of Diabetes, 
and Digestive and Kidney Diseases, and the National Institute of 
Allergy and Infectious Diseases and a corresponding increase for 
Inflammatory Bowel Disease Research at both institutes.
    (2) $1.5 Million for the National Inflammatory Bowel Disease 
Epidemiological Program at the Centers for Disease Control and 
Prevention.
    (3) $25 million for CDC's National Colorectal Cancer Screening 
Awareness Program.

                              INTRODUCTION

    Mr. Chairman, thank you very much for the opportunity to present 
the views of the Crohn's and Colitis Foundation of America (CCFA). I am 
Rodger DeRose, President and Chief Executive Officer of CCFA and I am 
honored to represent the people of this country who suffer from Crohn's 
disease and ulcerative colitis.
    Crohn's disease and ulcerative colitis are chronic disorders of the 
gastrointestinal tract which represent a leading cause of morbidity 
from digestive illness. Because they behave similarly, these disorders 
are collectively known as inflammatory bowel disease (IBD). IBD can 
cause severe diarrhea, abdominal pain, fever, and rectal bleeding. 
Moreover, IBD related complications can include; arthritis, 
osteoporosis, anemia, liver disease, and colon cancer. Crohn's disease 
and ulcerative colitis are not fatal, but they can be devastating. We 
do not know their cause, and there is no medical cure.
    CCFA is a non-profit, voluntary organization dedicated to finding a 
cure for Crohn's disease and ulcerative colitis. Throughout its 38-year 
history, CCFA has sponsored basic and clinical research of the highest 
quality. The Foundation also offers a wide range of educational 
programs for patients and healthcare professionals, and provides 
support services to assist people in coping with these chronic 
intestinal diseases.
    We are extremely grateful Mr. Chairman, for your support of IBD 
related programs in the fiscal year 2005 Labor-HHS bill. Your 
leadership is making a tremendous difference in the lives of the 
patients and families that we serve.

                  RECOMMENDATIONS FOR FISCAL YEAR 2005

(1) National Institutes of Health
    CCFA has developed highly successful research partnerships with the 
NIH. We are particularly proud of our longstanding collaborations with 
the National Institute of Diabetes and Digestive and Kidney Diseases 
(NIDDK) which sponsors the majority of IBD research at NIH, and the 
National Institute of Allergy and Infectious Diseases (NIAID).
    In 2001, a team of investigators from NIDDK, CCFA, and the private 
industry announced that they had identified the first gene for Crohn's 
disease. This historic breakthrough opens up exciting new pathways of 
research focused on the development of improved therapies for Crohn's 
disease patients. The research which led to the discovery of the gene 
would not have been possible without the strong support that Congress 
has provided to the NIDDK in recent years.
    Some of the most promising IBD research supported by the NIH has 
focused on translating findings from studies conducted on animal models 
to humans with IBD. These animal models have enabled researchers to 
form the current hypothesis that Crohn's disease and ulcerative colitis 
are caused by a malfunctioning immune system, wherein components of the 
patient's immune system overreact to normal intestinal bacteria. We 
know that people are susceptible to this malfunction because of their 
genetic makeup but further research is necessary to determine which 
bacteria are responsible, how these bacteria interact with the 
intestine's immune system, and which immune system components are 
involved.
    Mr. Chairman, IBD patients and their families are pinning their 
hopes for a better life on medical advancements made through NIH 
sponsored research. For this reason, CCFA recommends a 6 percent 
increase for NIDDK, NIAID, and NIH overall in fiscal year 2006. 
Moreover, CCFA encourages the subcommittee to increase IBD research 
funding within NIDDK and NIAID at the same rate as NIH overall.
(2) Centers for Disease Control and Prevention
            IBD Epidemiology Program
    Mr. Chairman, CCFA estimates that ``up to one million'' people in 
the United States suffer from IBD. Unfortunately, we do not have an 
exact number; due to the complicated nature of those diseases, patients 
may remain undiagnosed or misdiagnosed for several years.
    One of CCFA's main public policy objectives has been the 
establishment of a nationwide IBD epidemiological program in 
partnership with the Centers for Disease Control and Prevention.
    We are extremely grateful for your leadership in providing $750,000 
within CDC's National Center for Chronic Disease Prevention and Health 
Promotion for this much needed project in the fiscal year 2005 Labor-
HHS bill. This program, which was initially funded through private 
support provided to CDC from our Foundation, will further our 
understanding of both the prevalence of IBD in the United States, and 
the demographic characteristics of this unique patient population.
    The cultivation of patient demographic information is critically 
important to our biomedical research efforts given that environmental 
factors are believed to play a major role in the development and 
progression of IBD. If we are able to generate an accurate analysis of 
the geographic makeup of the IBD patient population, it will provide us 
with invaluable clues about the potential causes of IBD.
    CDC, in partnership with our scientific experts, are making 
significant progress on the epidemiology study. Phase one of the study 
has been completed and is being prepared for publication this summer. 
Plans are currently underway to expand the study to other key areas of 
investigation. For fiscal year 2006, CCFA respectfully requests an 
appropriation of $1.5 million for the continuation of the epidemiology 
study within the National Center for Chronic Disease Prevention and 
Health Promotion.
            Colorectal Cancer Prevention
    Finally Mr. Chairman, in addition to coping with either Crohn's 
disease or ulcerative colitis, many IBD patients are at high risk for 
developing colorectal cancer. As you may know, colorectal cancer is the 
third most commonly diagnosed cancer for both men and women in the 
United States and the second leading cause of cancer-related deaths. 
Because people who have suffered from IBD for more than 8 years are 
susceptible to this disease, CCFA has a long history of actively 
promoting the benefits of colorectal cancer screening.
    Although colorectal cancer is almost entirely curable when detected 
early, studies have shown a tremendous need to: (1) inform the public 
about the availability and advisability of screening and (2) educate 
healthcare providers about screening guidelines. CDC's National 
Colorectal Cancer Roundtable is actively working to address these 
challenges by partnering with organizations like CCFA to implement a 
national public awareness campaign emphasizing the importance of 
screening and early detection. Moreover, CDC's ``Screen for Life'' 
awareness campaign is actively promoting the importance of colorectal 
cancer screening via television, radio and print media. CCFA encourages 
the subcommittee to provide CDC with $25 million in fiscal year 2006 to 
support its colorectal cancer prevention activities.
    Once again, Mr. Chairman, thank you for the opportunity to present 
the views of Crohn's and Colitis Foundation of America. We look forward 
to continuing to work with you on these important issues.
                                 ______
                                 
 Prepared Statement of the Developmental Disabilities Research Centers 
                              Association

    Mr. Chairman, on behalf of the Developmental Disabilities Research 
Centers Association (DDRCA), I thank you for this opportunity to share 
with you and your Committee, some of the exciting achievements that are 
happening in the world of developmental disabilities and mental 
retardation research. I am Steven F. Warren, Director of the Kansas 
Mental Retardation and Developmental Disabilities Research Center at 
the University of Kansas and Chair of the Developmental Disabilities 
Research Centers Association. First, let me tell you a little about our 
Association.
    The DDRCA is a national resource that grew out of Congress' mandate 
in 1963 to establish ``centers of excellence'' in mental retardation 
and developmental disabilities research. With funding from the National 
Institute of Child Health and Human Development, our 20 member Centers 
represent the nation's first sustained and integrated effort to prevent 
and treat disabilities through biomedical and behavioral research. 
Today, we are the world's largest concentration of scientific expertise 
in the fields of intellectual and developmental disabilities. We 
believe that our Centers, and the network they form, substantially 
foster communication, innovation, and excellence in research. We work 
collaboratively on a number of research projects, and together with the 
Society for Developmental Pediatrics, produce the quarterly 
publication, ``Mental Retardation and Developmental Disabilities 
Research Reviews.'' Each edition highlights the exciting new research 
on a developmental disability.
    Our research Centers are located within premier research intensive 
universities and often are affiliated with major medical centers which 
provide academic, scientific and often clinical expertise as well as 
institutional support. Collectively, our work represents a 
multidisciplinary, vigorous, and innovative research program directed 
at understanding, treating and eventually substantially reducing the 
incidence of developmental disabilities including mental retardation. 
Additionally, our investigators are engaged in a very important 
mission--training the next generation of scientific investigators and 
clinicians in this area of great importance to America's children and 
families.
    Although a significant portion of the research portfolios at the 
Centers consists of fundamental studies that are directed at 
understanding the biological and behavioral processes in animal models 
and human subjects, each Center directs considerable attention toward 
seeking solutions to practical issues and problems. Our connection to 
the University Centers for Excellence in Developmental Disabilities 
(UCEDDs) is critical in relating our research to practice. The scope of 
the research conducted at the Centers encompasses every known major 
dimension of mental retardation.
    Over the last three decades there has been a huge payoff in the 
federal investment in the Developmental Disabilities Research Centers. 
Many disorders that cause intellectual disabilities can be prevented or 
treated to improve developmental outcomes. The Centers' scientific 
achievements have helped improve quality of life for individuals and 
families affected by disabilities. Among the most exciting aspects of 
this research is the work that is getting close to understanding the 
fundamental biological mechanisms that contribute to many of these 
disabilities with development of interventional strategies. I am 
pleased to share some examples with you.
    Brain Imaging Technologies.--We are all familiar now with magnetic 
resonance imaging or MRI technology. Many of us have experienced this 
technology as it has been used increasingly over the past 12 years as a 
way for physicians to see increasingly higher resolution images of the 
brain as well as to measure local brain activity and metabolism. 
Functional magnetic resonance imaging (fMRI) provides a way to examine 
brain processing during complex behavior such as thinking and reading. 
Signal abnormalities associated with several diseases and syndromes 
that dramatically affect behavior and cognition have been 
characterized, including fragile X syndrome, Rett syndrome, Turner 
syndrome, Tourette syndrome and neurofibromatosis.
    At the Kennedy Krieger Institute (KKI), the Mental Retardation 
Developmental Disability Research Center at Johns Hopkins University in 
Baltimore, MD., they have utilized functional brain imaging to 
establish a link between the lowering of vocabulary in children with 
neurofibromatosis (NF-1) and enlargement of the cerebrum. More detailed 
imaging techniques called spectroscopy imaging was then used to locate 
the specific regions of the brain that linked with the loss of 
vocabulary and cognitive functioning. A similar type of cerebral 
enlargement was discovered in autistic children by investigators at the 
University of North Carolina Mental Retardation Research Center. 
Understanding the processes of increased rates of brain growth will 
help lead researchers to finding preventive measures to stop the 
results of loss of IQ or vocabulary in these children.
    Brain Growth and Development.--We are aware that the brain develops 
complex circuitry both under the guidance of internal genetic cues and 
in response to the brain's interaction with the outside world through 
activity and experiences ranging from simple sensation to complex 
behavioral interaction between the child and others. Developmental 
problems result when genetic errors occur either through the expression 
of an inherited copy of a deleterious gene, through chromosomal 
abnormalities or when environmental factors may modify the expression 
pattern of genes. In addition, the developing brain is particularly 
sensitive to exposure to environmental toxins such as alcohol or lead. 
These insights into brain development provide a foundation for 
prevention through biomedical and behavioral intervention. During the 
initial formation of the brain in the fetus and in early postnatal life 
of the child, new nerve cells are forming and each one must extend fine 
processes that migrate through the brain to their correct targets and 
then they must establish the right connections (synapses) and assemble 
those synapses into the functional networks of communication sites 
whereby each cell in our brain talks to the next and communicates with 
the outside world. Many developmental disorders such as neonatal 
seizures that occur due to the mislocation of the brain's nerve cells 
to abnormal sites (heterotopia) or due to the failure of synapses to 
form their proper structural arrangements through a refinement process 
such as fragile X syndrome, result from the failure of synaptic 
connections to properly form in the developing brain. In order to 
understand a brain that has developed abnormally, leading to mental 
retardation or other developmental disabilities, it is necessary to 
understand the normal processes that guide this development.
    At the Civitan International Research Center and Mental Retardation 
Research Center at the University of Alabama at Birmingham, 
investigators have discovered a new particle that forms in nerve cells 
during their earliest stages of development that brings together all of 
the necessary molecules to allow formation of a newborn synapse. At the 
University of North Carolina Mental Retardation research Center, 
investigators have determined the chemical pathways for regulating the 
migration of newborn neurons' in the developing brain. Several groups 
of investigators have determined how the fragile X gene product protein 
plays a role in the normal refinement of synapses in the normal 
developing brain and the consequences of interference with this 
protein's production in humans with fragile X syndrome and animal 
models. The functional consequences of this abnormal development 
include abnormally strong responses to sensory stimuli as determined by 
investigators from the University of Colorado Mental Retardation/
Developmental Disabilities Research Center. This work is providing the 
scaffolding for designing strategies for specifically targeting early 
molecular events in the formation of the brain that may go awry in 
order to prevent or correct disorders of synaptic development.
    Language and Communication.--Language and communication are key 
aspects in a human's ability to function in society. Researchers now 
know that the first 48 months of life is an optimal period in brain 
development for language acquisition and therefore is a period when 
intervention can have the greatest impact on a child's overall 
communication ability. With this in mind, researchers are asking the 
question, ``Are there linkages between language impairments and various 
developmental disabilities or syndromes?''
    The Kansas Mental Retardation Developmental Disability Research 
Center asked a more specific question. ``Do some children with Specific 
Language Impairment (SLI) and children with some forms of autism share 
a genetic relationship?'' Research conducted in Kansas suggests that 
this may be the case. Children with SLI often show a particular grammar 
deficit, an inability to accurately mark tense in the sentences they 
produce. Research reveals that this deficit may even be inherited. 
Collaboration with researchers at the Shriver Center Mental Retardation 
Research Center in Massachusetts shows that children with autism were 
also found to exhibit this tense-marking deficit. On the other hand, 
collaboration with researchers at the University of Louisville in 
Kentucky demonstrated that children with William's syndrome do not show 
this deficit. Researchers at the University of Texas Health Sciences 
Center in Houston have found that in dyslexic children, remedial 
training is helpful and that this training results in changes in 
patterns of brain activation similar to those seen in proficient 
readers. This work will ultimately lead to better identification and 
effective interventions to limit the disability caused by these 
disorders.
    Early Identification and Intervention.--Researchers are learning 
that early intervention as well as early identification of a problem 
can lead to dramatically different life outcomes for a child and his/
her family. At the Civitan International Research Center at the 
University of Alabama at Birmingham MRRC, investigators have begun 
using a dramatic new training regiment in children with cerebral palsy. 
This therapy termed pediatric constraint induced intensive therapy 
(PCIIT) involves limiting the child's use of the most affected limb 
with intensive training of the other limb over several weeks. Similar 
to its beneficial effect in adults who have experienced stroke, this 
therapy results in improved use of the trained limb. Investigators will 
evaluate whether this therapy in children results in similar massive 
functional reorganization of the brain as occurs in adult stroke 
patients. The Mental Retardation Research Center at the University of 
Washington in Seattle, has devoted a great deal of its research to 
early intervention studies. Behavioral scientists there have enhanced 
the ability to recognize autism in the first two years of life. The new 
neuropsychological and brain-imaging findings in autism indicate that 
the severity observed reflects different underlying neurobiological 
bases that can be readily identified; these findings may now help focus 
early intervention programs. Other investigators in this field have 
identified and characterized the unique peer interaction deficits 
experienced by a vast majority of young children with developmental 
disabilities. Researchers who study early intervention developed a 
methodology to evaluate parent/child interactions using feeding and 
teaching scales, a methodology that has been extremely useful in 
identifying problem areas for children who are at risk. Researchers at 
the Waisman Mental Retardation Research Center at the University of 
Wisconsin in Madison, Wisconsin, have developed a method using gene 
sequencing technology to determine if children suffer from a rare but 
progressive disorder in children that has profound effects on cognitive 
development, Alexander's disease. By comparing their results with gene 
analysis to those obtained with more conventional clinical and fMRI 
analysis, these investigators have determined that a more definitive 
early diagnosis can be made with modern genetic tests. This work is 
contributing to our ability to identify and treat developmental 
disorders earlier and more effectively.
    Genetics.--About 40 to 60 percent of known causes of moderate to 
severe mental retardation have genetic origins. Researchers are working 
on DNA probes designed to identify specific genes, to distinguish 
abnormal genes, and to identify genes responsible for specific 
disabilities such as Duchenne muscular dystrophy. Investigators have 
succeeded in mapping genes responsible for disabilities caused by 
enzyme defects, storage diseases, and other inborn errors of 
metabolism. Researchers have identified genes located on chromosome 21 
known to be associated with Down syndrome and Alzheimer's disease. 
Researchers at the Baylor College of Medicine Mental Retardation 
Research Center in Houston, TX have discovered an X chromosome-linked 
gene that is associated with a large percentage of patients with Rett 
syndrome a neurodevelopmental disorder that primarily affects infant 
girls (the leading cause of mental retardation in girls) causing loss 
of speech, purposeful hand movements, seizures, ataxia and apraxia, 
episodes of apnea (breath holding) and sometimes death. Utilizing a 
mouse model, investigators at Baylor are investigating which genes are 
silenced in Rett and the underlying biological consequences of this 
process on neural development and synaptic function. Mutations in the 
same gene that causes Rett syndrome can also lead to other 
developmental disorders including autism and mild mental retardation as 
well as bipolar disorders and schizophrenia. Researchers at the 
University of Kansas Institute for Child Development have determined 
that children with Prader-Willi syndrome (the most common known form of 
genetically caused obesity) who have a life threatening eating disorder 
also display obsessive compulsive disorder (OCD). Both of these 
disorders may be caused by a gene defect on chromosome 15 causing lack 
of inhibition of brain centers involved with OCD and other brain 
centers that regulate growth hormone.This work is giving investigators 
a rich source of animal models to precisely identify the mechanisms 
whereby genetic defects cause developmental disorders and is providing 
the potential therapeutic targets for correcting the consequences of 
these disorders in humans.
    While we have come a long way over the last 30 years, we still have 
far to go. With knowledge generated by the DDRCs, we will be able to:
  --Use brain imaging and genetic methods to better understand the 
        causes of specific disabilities and design strategies for 
        treatment.
  --Develop new therapies to prevent or reverse some of the symptoms of 
        specific disabilities.
  --Better understand the process of brain cell development and 
        enrichment through studying the interplay of the brain's own 
        chemistry with a child's experiences.
  --Prevent many types of developmental disabilities by treating 
        maternal infections and viruses transmitted to their infants.
  --Capitalize on the brain's natural ``plasticity'' to optimize brain 
        development in children born with developmental disabilities 
        through early intervention or by extending the period of brain 
        development.
  --Design learning environments so all children have improved academic 
        outcomes, including those with learning and intellectual 
        disabilities.
  --Determine which child with a disability will respond best to which 
        speech or communication learning approach.
  --Develop culturally competent psychological and medical assessment 
        and treatment procedures for children born into minority 
        families.
  --Prevent and treat atypical behavior among children and adults with 
        disabilities who are especially prone to such difficulties, 
        such as children with autism, fragile X syndrome, or Rett's 
        syndrome.
  --Assist families in preparing their adult sons and daughters with 
        disabilities for successful lives of their own and prepare 
        older people with developmental disabilities for coping with 
        the normal process of aging.
    To address our concerns, we respectfully ask the Committee to 
increase NIH funding to $30.067 billion for fiscal year 2006. 
Additionally, we ask that you increase funding for NICHD to the level 
of $1.34 billion for fiscal year 2006.
    Again, I thank you Mr. Chairman for taking time to learn about the 
DDRC network and the scope of work being conducted at these Centers 
across the nation. Together we believe that we are making strong 
headway in finding solutions to the many diseases and disabilities, 
which affect the children and adults of our society. With your 
continued support, and that of the Subcommittee, we can make great 
strides into the future.
                                 ______
                                 
     Prepared Statement of the Digestive Disease National Coalition

              SUMMARY OF FISCAL YEAR 2006 RECOMMENDATIONS

  --Provide increased funding for the National Institutes of Health 
        (NIH) at 6 percent for fiscal year 2006. Increase funding for 
        the National Cancer Institute (NCI), the National Institute of 
        Diabetes and Digestive and Kidney Diseases (NIDDK) and the 
        National Institute of Allergy and Infectious Diseases by 6 
        percent.
  --Continue focus on digestive disease research and education at NIH, 
        including the areas of Inflammatory Bowel Disease (IBD), 
        Hepatitis and other liver diseases, Irritable Bowel Syndrome 
        (IBS), Colorectal Cancer, Endoscopic Research, Pancreatic 
        Cancer, Celiac Disease, and Hemochromatosis.
  --$30 million for the Centers for Disease Control and Prevention's 
        (CDC) Hepatitis Prevention and Control activities.
  --$25 million for the Center for Disease Control and Prevention's 
        (CDC) Colorectal Cancer Screening and Prevention Program.
    Chairman Specter, thank you for the opportunity to again submit 
testimony to the Subcommittee. Founded in 1978, the Digestive Disease 
National Coalition (DDNC) is a voluntary health organization comprised 
of 27 professional societies and patient organizations concerned with 
the many diseases of the digestive tract. The Coalition has as its goal 
a desire to improve the health and the quality of life of the millions 
of Americans suffering from both acute and chronic digestive diseases.
    The DDNC promotes a strong federal investment in digestive disease 
research, patient care, disease prevention, and public awareness. The 
DDNC is a broad coalition of groups representing disorders such as 
Inflammatory Bowel Disease (IBD), Hepatitis and other liver diseases, 
Irritable Bowel Syndrome (IBS), Pancreatic Cancer, Ulcers, Pediatric 
and Adult Gastroesophageal Reflux Disease, Colorectal Cancer, Celiac 
Disease, and Hemochromatosis.
    Mr. Chairman, the social and economic impact of digestive disease 
is enormous and difficult to grasp. Digestive disorders afflict 
approximately 65 million Americans. This results in 50 million visits 
to physicians, over 10 million hospitalizations, collectively 230 
million days of restricted activity. The total cost associated with 
digestive diseases has been conservatively estimated at $60 billion a 
year.
    The DDNC would like to thank the subcommittee for its past support 
of digestive disease research and prevention programs at the National 
Institutes of Health (NIH) and the Centers for Disease Control and 
Prevention (CDC). With respect to the coming fiscal year the DDNC is 
recommending an increase of 6 percent ($1.7 billion) to $30.1 billion 
for the National Institutes of Health (NIH) and all of its Institutes.
    Specifically the DDNC recommends:
  --$5.1 billion for the National Cancer Institute (NCI).
  --$1.9 million for the National Institute of Diabetes and Digestive 
        and Kidney Disease (NIDDK).
  --$4.66 billion for the National Institute of Allergy and Infectious 
        Diseases (NIAID).
    We at the DDNC respectfully request that any increase for NIH does 
not come at the expense of other Public Health Service agencies.
    With the completed and the challenging budgetary constraints the 
Subcommittee currently operates under, the DDNC would like to highlight 
the research being accomplished by NIDDK which warrants the increase 
for NIH.

                       INFLAMMATORY BOWEL DISEASE

    In the United States today about 1 million people suffer from 
Crohn's disease and ulcerative colitis, collectively known as 
Inflammatory Bowel Disease (IBD). These are serious diseases that 
affect the gastrointestinal tract causing bleeding, diarrhea, abdominal 
pain, and fever. Complications arising from IBD can include anemia, 
ulcers of the skin, eye disease, colon cancer, liver disease, 
arthritis, and osteoporosis. Crohn's disease and ulcerative colitis are 
not usually fatal but can be devastating. The cause of IBD is still 
unknown, but research has led to great breakthroughs in therapy.
    In recent years researchers have made significant progress in the 
fight against IBD. In 1998, the FDA approved the first drug ever 
specifically to fight Crohn's disease, a remarkable milestone. The DDNC 
encourages the subcommittee to continue its support of IBD research at 
NIDDK and NIAID at a level commensurate with the overall increase for 
each institute. The DDNC would like to applaud the NIDDK for its strong 
commitment to IBD research through the Inflammatory Bowel Disease 
Genetics Research Consortium. The DDNC urges the Consortium will 
continue its work in IBD research. Given the recent advancements in 
treatment for these diseases and the increased risk that IBD patients 
have for developing colorectal cancer, the DDNC strongly believes that 
generating improved epidemiological information on the IBD population 
is essential if we are to provide patients with the best possible care. 
Therefore the DDNC and its member organization the Crohn's and Colitis 
Foundation of America encourage the CDC to initiate a nationwide IBD 
surveillance and epidemiological program in fiscal year 2006.

                HEPATITIS C: A LOOMING THREAT TO HEALTH

    It is estimated that there are over 4 million Americans who have 
been infected with Hepatitis C of which over 2.7 million remain 
chronically infected. About 10,000 die each year and the Centers for 
Disease Control and Prevention (CDC) estimates that the death rate will 
more than triple by 2010 unless there is additional research, 
education, and more effective treatments and public health 
interventions. Hepatitis C infection is the largest single cause for 
liver transplantation and one of the principal causes of liver cancer 
and cirrhosis. There is currently no vaccine for hepatitis C, and 
treatment has limited success, making the infection among the most 
costly diseases in terms of health care costs, lost wages, and reduced 
productivity. Patients who are older at the time of infection, those 
who continually ingest alcohol, and those co-infected with HIV 
demonstrate accelerated progression to more advanced liver disease.
    The DDNC applauds all the work NIH and CDC have accomplished over 
the past year in the areas of hepatitis and liver disease. The DDNC 
urges that funding be focused on expanding the capability of state 
health departments, particularly to enhance resources available to the 
hepatitis C state coordinators. The DDNC also urges that CDC increase 
the number of cooperative agreements with coalition partners to develop 
and distribute health, education, communication and training materials 
about prevention, diagnosis and medical management for hepatitis A, B, 
and C.
    The DDNC supports $30 million for the CDC's Hepatitis Prevention 
and Control activities. The hepatitis division at CDC supports the 
hepatitis C prevention strategy and other cooperative nationwide 
activities aimed at prevention and awareness of hepatitis A, B, and C. 
The DDNC also urges the CDC's leadership and support for the National 
Viral Hepatitis Roundtable to establish a comprehensive approach among 
all stakeholders for viral hepatitis prevention, education, strategic 
coordination, and advocacy.

                      COLORECTAL CANCER PREVENTION

    Colorectal cancer is the third most commonly diagnosed cancer for 
both men and woman in the United States and the second leading cause of 
cancer-related deaths. Colorectal cancer affects men and women equally. 
Although colorectal cancer is preventable and curable when polyps are 
detected early, a General Accounting Office report issued in March 2000 
documented that less than 10 percent of Medicare beneficiaries have 
been screened for colorectal cancer. This report revealed a tremendous 
need to inform the public about the availability of screening and 
educate health care providers about colorectal cancer screening 
guidelines. In 2003, the New York City Department of Health has 
recommended colonoscopy for everyone over age 50 to prevent colorectal 
cancer.
    The DDNC recommends a funding level of $25 million for the CDC's 
Colorectal Cancer Screening and Prevention Program. This important 
program supports enhanced colorectal screening and public awareness 
activities throughout the United States. The DDNC also supports the 
continued development of the CDC-supported National Colorectal Cancer 
Roundtable, which provides a forum among organizations concerned with 
colorectal cancer to develop and implement consistent prevention, 
screening, and awareness strategies.

                           PANCREATIC CANCER

    In 2002, an estimated 28,300 people in the United States were found 
to have pancreatic cancer and approximately 28,200 died from the 
disease. Pancreatic cancer is the fifth leading cause of cancer death 
in men and women. Only 2 out of 10 patients will live 1 year after the 
cancer is found and only a very few will survive after 5 years. 
Although we do not know exactly what causes pancreatic cancer, several 
risk factors linked to the disease have been identified:
    (1) Age: Most people are over 60 years old when the cancer is 
found;
    (2) Sex: Men have pancreatic cancer more often than women
    (3) Race: African Americans are more likely to develop pancreatic 
cancer than are white or Asian Americans
    (4) Smoking
    (5) Diet: Increased red meats and fats
    (6) Diabetes
    The National Cancer Institute (NCI) has established a Pancreatic 
Cancer Progress Review Group charged with developing a detailed 
research agenda for the disease. The DDNC encourages the Subcommittee 
to provide an increase for pancreatic cancer research at a level 
commensurate with the overall percentage increase for NCI and NIDDK.

                     IRRITABLE BOWEL SYNDROME (IBS)

    IBS is a disorder that affects an estimated 35 million Americans. 
The medical community has been slow in recognizing IBS as a legitimate 
disease and the burden of illness associated with it. Patients often 
see several doctors before they are given an accurate diagnosis. Once a 
diagnosis of IBS is made, medical treatment is limited because the 
medical community still does not understand the pathophysiology of the 
underlying conditions.
    Living with IBS is a challenge, patients face a life of learning to 
manage a chronic illness that is accompanied by pain and unrelenting 
gastrointestinal symptoms. Trying to learn how to manage the symptoms 
is not easy. There is a loss of spontaneity when symptoms may intrude 
at any time. IBS is an unpredictable and fickle disease. A patient can 
wake up in the morning feeling fine and within a short time encounter 
abdominal cramping to the point of being doubled over in pain and 
unable to function.
    The unpredictable bowel symptoms may make it next to impossible to 
leave your home. It is difficult to ease the pain than may repeatedly 
occur periodically throughout the day. A patient can become reluctant 
to eat for fear that just eating a meal will trigger symptoms all over 
again. IBS has a broad and significant impact on a person's quality of 
life. It strikes individuals from all walks of life and results in a 
significant toll of human suffering and disability.
    While there is much we don't understand about the causes and 
treatment of IBS, we do know that IBS is a chronic complex of systems 
affecting as many as 1 in 5 adults. In addition:
    (1) It is reported more by women than men
    (2) It is the most common gastrointestinal diagnosis among 
gastroenterology practices in the United States
    (3) It is a leading cause of worker absenteeism in the United 
States
    (4) It costs the U.S. Health Care System an estimated $8 billion 
annually.
    Mr. Chairman, much more can still be done to address the needs of 
the nearly 35 million Americans suffering from irritable bowel syndrome 
and other functional gastrointestinal disorders.

                             CELIAC DISEASE

    Celiac Disease is a life-long condition in which the body develops 
an allergy to gluten, a protein found in wheat, barley, and rye, which 
can result in damage to the small intestine. Celiac disease affects as 
many as two million Americans. Onset of the disease can occur at any 
age. The common symptoms of Celiac Disease include fatigue, anemia, 
chronic diarrhea or constipation, weight loss, and bone pain. The only 
treatment for celiac disease is strict adherence to a gluten-free diet. 
Undiagnosed and untreated celiac disease can lead to other disorders 
such as osteoporosis, infertility, neurological conditions, and in rare 
cases cancer. Persons with Celiac Disease often have other associated 
autoimmune disorders as well.

                      DIGESTIVE DISEASE COMMISSION

    In 1976, Congress enacted Public Law 94-562, which created a 
National Commission on Digestive Diseases. The Commission was charged 
with assessing the state of digestive diseases in the United States, 
identifying areas in which improvement in the management of digestive 
diseases can be accomplished and to create a long-range plan to 
recommend resources to effectively deal with such diseases. The 
Commission's subsequent report in 1979 laid the groundwork for 
significant progress in the area of digestive disease research.
    After almost 25 years, however, the burden of digestive diseases 
among the U.S. population remains substantial. The DDNC, therefore, 
calls upon Congress to establish a contemporary Digestive Diseases 
Commission to address the numerous digestive disorders that remain in 
today's diverse population.
    The Commission should be comprised of the nation's leading non-
governmental scientists, physicians, and health professionals, 
including practicing clinical gastroenterologists and researchers 
studying in the field of digestive diseases. Congress should charge the 
Commission with the following:
    (1) Conducting a comprehensive study of the present state of 
knowledge of the incidence, duration, and morbidity of, and mortality 
rates resulting from, digestive diseases and of the social and economic 
impact of such diseases;
    (2) Evaluating the public and private facilities and resources 
(including trained personnel and research activities) for the 
diagnosis, prevention, and treatment of, and research in, such 
diseases; and
    (3) Identifying programs (including biological, behavioral, 
nutritional, environmental, and social programs) in which, and the 
means by which, improvement in the management of digestive diseases can 
be accomplished.
    The Commission also should develop and recommend a long-range plan 
for the use and organization of national resources to effectively deal 
with digestive diseases, related nutritional disorders and basic 
biological processes and mechanisms in nutrition which are related to 
digestive diseases. Finally, the Commission should recommend for each 
of the Institutes of the NIH whose activities are to be affected by the 
long-range plan estimates of the expenditures needed to carry out each 
Institute's part of the overall program.

                               CONCLUSION

    The DDNC understand the challenging budgetary constraints and times 
we live in that is subcommittee is operating under, yet we hope you 
will carefully consider the tremendous benefits to be gained by 
supporting a strong research and education program at NIH and CDC. 
Millions of Americans are pinning their hopes for a better life, or 
even life itself, on digestive disease research conducted through the 
National Institutes of Health.
    Mr. Chairman, on behalf of the millions of digestive disease 
sufferers, we appreciate your consideration of the views of the 
Digestive Disease National Coalition. We look forward to working with 
you and your staff.

                  DIGESTIVE DISEASE NATIONAL COALITION

    The Digestive Disease National Coalition was founded 25 years ago. 
Since its inception, the goals of the coalition have remained the same: 
to work cooperatively to improve access to and the quality of digestive 
disease health care in order to promote the best possible medical 
outcome and quality of life for current and future patients with 
digestive diseases.
                                 ______
                                 
           Prepared Statement of the Doris Day Animal League

    The Doris Day Animal League represents 350,000 members and 
supporters nationwide who support a strong commitment by the federal 
government to research, development, standardization, validation and 
acceptance of non-animal and other alternative test methods. We are 
also submitting our testimony on behalf of People for the Ethical 
Treatment of Animals and the Animal Welfare Institute and their 800,000 
members and supporters. Thank you for the opportunity to present 
testimony relevant to the fiscal year 2006 budget request for the 
National Institute of Environmental Health Sciences for the Center for 
the Evaluation of Alternative Toxicological Test Methods (NICEATM) for 
the Interagency Coordinating Committee for the Validation of 
Alternative Test Methods (ICCVAM) activities for fiscal year 2006.
    In 2000, the passage of the ICCVAM Authorization Act into Public 
Law 106-545, created a new paradigm for the field of toxicology. It 
requires federal regulatory agencies to ensure that new and revised 
animal and alternative test methods be scientifically validated prior 
to recommending or requiring use by industry. An internationally agreed 
upon definition of validation is supported by the 15 federal regulatory 
and research agencies that compose the Interagency Coordinating 
Committee for the Validation of Alternative Methods (ICCVAM), including 
the EPA. The definition is: ``the process by which the reliability and 
relevance of a procedure are established for a specific use.''

                         FUNCTION OF THE ICCVAM

    The ICCVAM performs an invaluable function for regulatory agencies, 
industry, public health and animal protection organizations by 
assessing the validation of new, revised and alternative toxicological 
test methods that have interagency application. After appropriate 
independent peer review of the test method, the ICCVAM recommends the 
test to the federal regulatory agencies that regulated the particular 
endpoint the test measures. In turn, the federal agencies maintain 
their authority to incorporate the validated test methods as 
appropriate for the agencies' regulatory mandates. This streamlined 
approach to assessment of validation of new, revised and alternative 
test methods has reduced the regulator burden of individual agencies, 
provided a ``one-stop shop'' for industry, animal protection, public 
health and environmental advocates for consideration of methods and set 
uniform criteria for what constitutes a validated test methods. In 
addition, from the perspective of animal protection advocates, ICCVAM 
can served to appropriately assess test methods that can refine, reduce 
and replace the use of animals in toxicological testing. This function 
will provide credibility to the argument that scientifically validated 
alternative test methods, which refine, reduce of replace animals, 
should be expeditiously integrated into federal toxicological 
regulations, requirements and recommendations.

                           HISTORY OF ICCVAM

    The ICCVAM is currently composed of representatives from the 
relevant federal regulatory and research agencies. It was created from 
an initial mandate in the NIH Revitalization Act of 1993 for NIEHS to 
``(a) establish criteria for the validation and regulatory acceptance 
of alternative testing methods, and (b) recommend a process through 
which scientifically validated alternative methods can be accepted for 
regulatory use.'' In 1994, NIEHS established the ad hoc ICCVAM to write 
a report that would recommend criteria and processes for validation and 
regulatory acceptance of toxicological testing methods that would be 
useful to federal agencies and the scientific community. Through a 
series of public meetings, interested stakeholders and agency 
representatives from all 14 regulatory and research agencies, developed 
the NIH Publication No. 97-3981, ``Validation and Regulatory Acceptance 
of Toxicological Test Methods.'' This report, and subsequent revisions, 
has become the sound science guide for consideration of new, revised 
and alternative test methods by the federal agencies and interested 
stakeholders.
    After publication of the report, the ad hoc ICCVAM moved to 
standing status under the NIEHS' NICEATM. Representatives from federal 
regulatory and research agencies and their programs have continued to 
meet, with advice from the NICEATM's Advisory Committee and independent 
peer review committees, to assess the validation of new, revised and 
alternative toxicological methods. Since then, several methods have 
undergone rigorous assessment and are deemed scientifically valid and 
acceptable. In addition, the ICCVAM is working to streamline assessment 
of methods from the European Union (EU) that have already been 
validated for use within the EU. The open public comment process, input 
by interested stakeholders and the continued commitment by the federal 
agencies has led to ICCVAM's success. It has resulted in a more 
coordinated review process for rigorous scientific assessment of the 
validation of new, revised and alternative test methods.

                       REQUEST FOR APPROPRIATIONS

    On December 19, 2000, the ``ICCVAM Authorization Act'' which makes 
the entity a permanent standing committee, was signed into Public Law 
No. 106-545. For several years, the NIEHS has provided between $1 and 
$2.6 million per fiscal year to the NICEATM for ICCVAM's activities. In 
order to ensure that federal regulatory agencies and their stakeholders 
benefit from the work of the ICCVAM, it is important to fund it at an 
appropriate level. I respectfully urge the Subcommittee to support 
increasing appropriations from within NIEHS' existing budget request 
for NICEATM for ICCVAM's activities to $3.6 million for fiscal year 
2006. This appropriation request includes all FTEs, funding for 
independent peer review assessment of test methods and meetings of the 
ICCVAM and other activities as deemed appropriate by the Director of 
the NIEHS.

                 REQUEST FOR COMMITTEE REPORT LANGUAGE

    The NIEHS should support the NICEATM/ICCVAM in creating a five-year 
roadmap for assertively setting goals to prioritize ending the use of 
antiquated animal tests for specific endpoints. While the stream of 
methods forwarded to the ICCVAM for assessment has remained relatively 
steady, it is imperative that the ICCVAM take a more proactive role in 
isolating areas where new methods development is on the verge of 
replacing animal tests. These areas should form a collective call by 
the federal agencies that compose ICCVAM to fund any necessary 
additional research, development, validation and validation assessment 
that is required to eliminate the animal methods. We also strongly urge 
the NICEATM/ICCVAM to closely coordinate research, development and 
validation efforts with its European counterpart, the European Centre 
for the Validation of Alternative Methods (ECVAM) to ensure the best 
use of available funds and sound science. This coordination should also 
reflect a willingness by the federal agencies comprising ICCVAM to more 
readily accept validated test methods proposed by the ECVAM to ensure 
industry has a uniform approach to worldwide chemical regulation.
    We also respectfully request the Subcommittee consider the 
following report language for the Senate Labor, Health and Human 
Services, Education and Related Agencies Appropriations bill:

    ``In order for the Interagency Coordinating Committee for the 
Validation of Alternative Methods (ICCVAM) to carry out its 
responsibilities under the ICCVAM Authorization Act of 2000, the 
Committee strongly urges the National Institute of Environmental Health 
Sciences (NIEHS) to strengthen the resources provided to ICCVAM for 
methods validation reviews in fiscal year 2006. ICCVAM and NIEHS 
activities must include up-front validation study design, execution and 
review to ensure that new and revised test methods, non-animal test 
methods, and alternative test methods (such as QSARs, mechanistic 
screens, high throughput assays, and toxicogenomics) are deemed 
scientifically valid before they are recommended or adopted for use by 
federal agencies or used in implementing the National Toxicology 
Program's (NTP) Road Map and Vision for NTP's toxicology program in the 
21st century.''

    Thank you for the opportunity to submit this request on behalf of 
our more than 1.1 million members and supporters.
                                 ______
                                 
     Prepared Statement of the Dystonia Medical Research Foundation

              SUMMARY OF FISCAL YEAR 2006 RECOMMENDATIONS

    Provide increased funding for the National Institute of Health at 6 
percent for fiscal year 2006. Increase funding for the National 
Institute of Neurological Disorders and Stroke (NINDS), the National 
Institute of Deafness and other Communication Disorders (NIDCD), and 
the National Eye Institute (NEI) by 6 percent.

                FISCAL YEAR 2006 RECOMMENDATIONS FOR NIH

  --NIH: $30.1 billion
  --NINDS: $1.63 billion
  --NEI: $709 million
  --NIDCD: $417.6 million
    Continue to accelerate funding for intramural and extramural 
dystonia research at NINDS.
    Provide funding for NINDS to conduct an epidemiological study and 
to increase public and professional awareness of dystonia.
    Continue to expand NIDCD's intramural and extramural research on 
dysphonia.
    Continue to expand NEI's intramural and extramural research on 
dystonia.
    Chairman Specter, thank you for the opportunity to submit testimony 
to the Subcommittee on behalf of the Dystonia Medical Research 
Foundation (DMRF). Dystonia has affected the lives of many Americans 
and we are thankful to be able to provide for you our recommendations 
for fiscal year 2006 federal funding with regards to dystonia research.
    Dystonia is a neurological disorder characterized by powerful and 
painful involuntary muscle spasms that causes the body to twist, 
repetitive jerking movements, and sustained postural deformities. There 
are several different variations of dystonia, including: focal 
dystonias which affect specific parts of the body, such as the arms, 
legs, neck, jaw, eyes, vocal cords; and generalized dystonia, affecting 
many parts of the body at the same time. Some forms of dystonia are 
genetic and others are caused by injury or illness. Dystonia does not 
affect a person's consciousness or intellect, but is a chronic and 
progressive movement disorder for which, at this time, there is no 
known cure. The Foundation estimates that some form of dystonia affects 
about 300,000 people in North America.
    Even though there is no known cure for dystonia, there are 
treatments to lessen the severity of the symptoms of the disease such 
as oral medications, botulinum toxin injections, and in some cases 
surgery. Having increased access to these medical therapies is becoming 
an increasing larger issue for the community as a whole.
    In the past few decades, dystonia researchers have made several 
exciting scientific advancements and have been able to rapidly turn 
laboratory and clinical research into diagnostic examinations and 
treatment procedures, directly benefiting those affected. Genetics, in 
particular, is opening up a new understanding into the cause and 
pathophysiology of the disorder. Thus far, 13 dystonia related genes or 
gene loci have been identified. In 1997, the DYT1 gene for childhood 
early onset dystonia was identified, and we now have a genetic test 
available to confirm diagnosis of this particular type of dystonia. 
Most recently, in 2002, the gene for myoclonus dystonia was identified. 
However the community is still without a diagnostic test and 
misdiagnosis still occurs too frequently.
    Deep brain stimulation is a surgical procedure that was originally 
developed to treat Parkinson's disease but is now being applied to 
severe cases of dystonia. Deep brain stimulation has drastically 
improved the lives of dozens of dystonia patients during the past few 
years. Individuals who were previously bedridden by muscle spasms and 
pain are able to walk without assistance, to speak clearly, to dress 
themselves, to get a driver's license, to date, to travel, and to live 
the life of an able-bodied person. Deep brain stimulation is currently 
used primarily to treat severe cases of generalized dystonia but its 
promising role in treating focal dystonias is being explored. Surgical 
interventions are a crucial and active area of dystonia research.

                    RESEARCH, AWARENESS, AND SUPPORT

    Now is an exciting time to be involved in dystonia research and 
awareness. Researchers are becoming more interested in movement 
disorders and dystonia at the National Institutes of Health (NIH), and 
research is yielding promising clues for better understanding and 
management of this disorder.
    One way the Dystonia Medical Research Foundation has advocated for 
more research on dystonia, is by funding ``seed'' grants to 
researchers. Thus far, the Dystonia Foundation has funded over 370 
grants, and 5 fellowships, totaling more than $18 million. Due to our 
advocacy there are a growing number of talented researchers dedicated 
to understanding the biochemistry of dystonia, genetic causes, new 
therapeutics and the necessity of an epidemiology study.
    Another primary goal of the Dystonia Foundation is education of 
both lay and medical audiences. The Foundation conducts regular medical 
workshops and patient symposiums to present, discuss, and disseminate 
comprehensive medical and research data on dystonia. In January 2001, 
NINDS co-sponsored a genetics and animal models meeting, designed to 
involve not only prominent researchers but inviting junior 
investigators to participate in the discussions. Additionally, in 
October 1996, the NIH was one of our co-sponsors for an international 
medical symposium, which featured 60 papers on dystonia and 125 
representatives from 24 countries. The Young Investigators Award 
Program and the Residency Program are in place to entice emerging 
medical professionals into the field of dystonia research and cultivate 
future dystonia experts.
    Since 1995, over 3,000 educational medical videos have been 
distributed to hospitals, medical and nursing schools, and at medical 
conventions. In addition to medical and coping publications, we have a 
children's video to educate families and increase public awareness of 
this devastating disorder in younger populations. Media awareness is 
conducted throughout the year, and especially during Dystonia Awareness 
Week, observed nationwide from October 14 through 20. Local volunteers 
have been successful in securing news stories on dystonia in local 
venues as well as national media shows such as Good Morning America, 
The Oprah Winfrey Show, and Maury Povich. Through his friendship with 
the mother of a dystonia patient, screen star Kirk Cameron has taken an 
interest in promoting dystonia awareness, and the Dystonia Foundation 
is in the process of investigating the possibility of a public service 
announcement and several appearances at fundraising events.
    The Dystonia Foundation has over 200 chapters, support groups, and 
area contacts across North America. In addition, there are 15 
international chairpersons whose mission is to promote awareness, 
children's advocacy, development, extension, Internet resources, 
leadership, medical education, and symposiums. Furthermore, patient 
symposiums are held internationally and regionally to provide the 
latest medical and coping information to dystonia patients and others 
interested in the disorder.

             DYSTONIA AND THE NATIONAL INSTITUTES OF HEALTH

    The Dystonia Medical Research Foundation recommends an increase to 
$30.1 billion or 6 percent for NIH overall, and a 6 percent increase 
for NINDS, and NIDCD. We at DMRF request that this increase for NIH 
does not come at the expense of other Public Health Service agencies.
    We also urge the Subcommittee to recommend that NINDS provide the 
necessary funding for additional extramural research and a large-scale 
dystonia epidemiological study. There is also an imperative need for 
NINDS to increase its efforts to educate the public and medical 
community about dystonia through co-sponsorship of workshops and 
seminars. We also encourage the Subcommittee to support NIDCD in its 
efforts to revamp its strategic planning process by implementing a 
Strategic Planning Group which will help NIDCD as they: consider 
applications for high program priority; develop program announcements 
and requests for applications; and develop new research areas in the 
Intramural Research Program.
    The National Institute of Neurological Disorders and Stroke (NINDS) 
awarded seven grants in fiscal year 2004 for dystonia research in 
response to the Program Announcement, ``Studies into the Causes and 
Mechanisms of Dystonia'' (August 2002). In addition, the National 
Institute on Deafness and Other Communication Disorders (NIDCD) funded 
an eighth study on brainstem systems and their role in spasmodic 
dysphonia.
    DMRF also supports the many intramural researchers studying 
dystonia. Research includes: exploring improved clinical rating scales 
for dystonia, elevations of sensory motor training, utilizing botox as 
a possible treatment for focal hand dystonia, characterization of 
abnormalities in sensory regions of the brain, treatments for spasmodic 
dysphonia, anatomy imaging of the affect of dystonia on brain activity, 
and exploring the link between laryngitis and spasmodic dysphonia. The 
public awareness impact of pianist Leon Fleisher's treatment through 
the NIH intramural research program has had a tremendously positive 
impact.
    NINDS continues to work with dystonia research and voluntary 
disease groups in the community. In January 2004, NINDS sponsored a 
workshop at Emory University on the Pathology of Dystonia, and in 
October 2004, NINDS participated in a workshop to develop a strategic 
plan for a series of studies on the epidemiology of dystonia. NINDS 
also provided funding in September 2004 to a researcher affiliated with 
the Dystonia Medical Research Foundation (DMRF) to provide partial 
support for a multi-year series of workshops focused on evolving areas 
of research that are critical for the development of therapeutics.
    Dystonia is the third most common movement disorder after 
Parkinson's Disease and tremor, and effects many times more people than 
better known disorders such as Huntington's Disease, muscular dystrophy 
and ALS or Lou Gehrig's Disease. We ask that NINDS fund dystonia-
specific extramural research at the same level that it supports 
research for other neurological movement disorders.

                               CONCLUSION

    The ultimate goal of the Dystonia Foundation is a cure for 
dystonia. Until that goal is realized, we are hungry for knowledge 
about the nature of dystonia and for more effective treatments with 
fewer side effects. We have amassed many exceptional and diligent 
researchers; who are committed to our goal, and our top priority is 
funding their very important research. But the Foundation cannot do it 
alone. We need federal support though NIH, NINDS, NIDCD and NEI to 
continue to fund quality scientific research and eliminate this 
debilitating disease.
    Combine the thwarting of scientific progress with the decreased 
access to therapies and all the progress of the last few years could be 
wiped away. We ask that you aggressively support medical research, 
specifically for movement disorders and brain research. By doing so, 
you are doing a tremendous service for my family and myself and to the 
hundreds of thousands of people and families affected by dystonia.
    Thank you very much.

                THE DYSTONIA MEDICAL RESEARCH FOUNDATION

    The Dystonia Medical Research Foundation was founded 25 years ago 
and has been a membership-driven organization since 1993. Since its 
inception, the goals of the Foundation have remained the same: to 
advance research for more effective treatments of dystonia and 
ultimately a cure; to promote awareness and education; and support the 
needs and well being of affected individuals and their families.
                                 ______
                                 
   Prepared Statement of the FacioScapuloHumeral Muscular Dystrophy 
               Society, Incorporated (FSH Society, Inc.)

    Mr. Chairman, it is a pleasure to submit this testimony to you 
today.
    My name is Daniel Paul Perez, of Lexington, Massachusetts, and I am 
testifying as President & CEO, of the FacioScapuloHumeral Muscular 
Dystrophy Society (FSH Society, Inc.) and as an individual who has 
lived with facioscapulohumeral muscular dystrophy (FSHD) for nearly 43 
years. FSHD is the third most prevalent form of muscle disease. It 
affects 1/20,000 people. For men, women, and children the major 
consequence of inheriting FSHD is a lifelong progressive and severe 
loss of all skeletal muscles. Most people are familiar with Duchenne 
muscular dystrophy (DMD) that affects boys. What they are not aware of 
is, that in any given moment, there are probably more individuals with 
FSHD alive than with Duchenne MD (14,800 vs. 11,000). Recently, the NIH 
identified significant gaps in FSHD and a preponderance of DMD research 
grants and reported that it only has five (5) active projects on 
facioscapulohumeral muscular dystrophy in its entire NIH wide 
portfolio.
    We have given testimony before the U.S. Congress every year since 
1994. We have submitted 26 written testimonies and 5 oral testimonies 
to the U.S. Senate and U.S. House Appropriations Subcommittees on 
Labor, Health, Human Services and Education and Related Agencies. We 
have had considerable report language written in the appropriations 
budget from the committees directed to the National Institutes of 
Health (NIH) with regard to improving the portfolio at the NIH in FSHD 
in nearly every year that we have come before you. In April 2000, prior 
to the passage of the ``Muscular Dystrophy CARE Act 2001'' law, we 
testified that Congressional directive on FSHD has been and is 
repeatedly ignored by the NIH. Since 2001, we have been working closely 
with the NIH on the MD CARE ACT 2001 law mandated research plan. Prior 
to all of the activity around the MD CARE Act 2001, we noted then that 
the NIH is seriously out of compliance with the previous four years of 
Congressional Directives. Incredibly, today in the calendar year 2005 
heading into the fiscal year 2006 the NIH still is out of compliance 
and has an anemic portfolio on FSHD. Going back in time, in 2000 we 
reported the NIH had not responded to the past and prior years of 
Report Language.
    The Report Language for 2000 has been responded to in an untimely 
manner and mainly ignored. The 2000 Report Language is as follows: 
``The Committee is concerned that NIH has not responded to a previous 
request to develop a plan for enhancing NIH research into 
Facioscapulohumeral (FSH) disease. The Committee urges NIH to promptly 
convene a research planning conference and to establish a comprehensive 
portfolio into the causes, prevention, and treatment of FSH disease 
through all available mechanisms, as appropriate. The Director is 
requested to be prepared to testify on the status of this initiative at 
the fiscal year 2001 appropriations hearing.'' (House Report 3037, p. 
81 for NINDS, p. 97 for NIAMS.) The status of fiscal year 2000 Report 
Language is as follows: FSHD extramural research is almost non-
existent. Intramural research on FSHD is non-existent at NIH.
    The Report Language for 1999 has been ignored and the status of the 
Report language for fiscal year 1999 is not done. The 1999 Report 
Language is as follows: ``The Committee encourages the Institute to 
continue and expand research efforts focused on aiding in the diagnosis 
and treatment of FSHD.'' (House Report, NINDS Section, p. 103), and, 
``The Committee was pleased with the Institute's response to last 
year's request which encouraged NIH to stimulate research in the area 
of facioscapulohumeral disease (FSHD). However, the Committee notes 
that NIAMS has not responded in developing a plan for enhancing FSHD 
research, and has not addressed the question of whether an intramural 
program in this area would be beneficial. Therefore, the Committee 
urges NIH to conduct a research planning conference in the near future 
in order to explore scientific opportunities in FSHD research, both 
intramurally and extramurally.'' (House Report, NIAMS Section, p. 120-
121.) The status of 1999 Report Language is as follows: FSHD extramural 
research is almost non-existent. Intramural research on FSHD is non-
existent at NIH.
    The Report Language for 1998 has been ignored and the status of 
Report language for fiscal year 1998 is not done. The 1998 Report 
Language is as follows: ``The Committee has heard compelling testimony 
about facioscapulohumeral (FSH) disease, which causes progressive and 
severe loss of skeletal muscle. FSHD research includes aspects such as 
molecular genetics, neurological function and muscular dystrophy 
involving multiple NIH Institutes. The Committee encourages NIH to take 
steps to stimulate research in this area and requests NIH to develop a 
plan for enhancing NIH research into FSH disease (FSHD), including an 
assessment of whether an intramural research program in this area would 
be beneficial.'' (House Report, p. 101.) In 2005, the status of 1998 
Report Language is as follows: FSHD extramural research is almost non-
existent. Intramural research on FSHD is non-existent at NIH.
    We have worked hard to be sure that our constituency understands 
and supports the doubling of the NIH budget and have been very 
successful in helping to grow the NIH budget from $10.326 billion to 
$28.649 billion. In the same period, we saw FSHD funding increase by 
about $1.3 million. This year we will spare you the heartache of our 
personal story and the pain and suffering our disease brings in its 
train. This year we simply would like you to ask the NIH ``Where did 
the money that Congress appropriated and further directed through 
appropriations report language go?''
    We formerly request a congressional investigation, hearing or some 
other Congressional action regarding the absolute failure of the NIH to 
increase funding in facioscapulohumeral muscular dystrophy (FSHD). We 
have been testifying and generating report language and laws for a 
dozen years and have done the yeoman's share in building the base for 
FSHD. Despite the specific directions from the Congress in report 
language as shown above and with a public law and a federal advisory 
committee on muscular dystrophy, the NIH has failed to follow through 
on improving FSHD research. Despite our active involvement with the 
NIH, the NIH has made the grant review process very secretive, has 
turned down opportunities to shed light on the grant decision making 
process and still has not responded to congressional letters and 
inquiries on the lack of facioscapulohumeral muscular dystrophy (FSHD) 
research in the NIH portfolio.
    I would like to illustrate what we have done at the FSH Society, 
Inc. to improve the funding and portfolio of muscular dystrophy (MD) 
and FSHD. The FSH Society (Society) has represented the FSHD community 
of researchers and clinicians by the following activities on the Hill, 
in the districts, and at the NIH. The FSH Society was the first on the 
Hill and at the NIH and before Parent Project Duchenne Muscular 
Dystrophy (PPDMD) and MDAUSA for many years since 1993. The Society has 
given nearly three dozen Congressional testimonies, in writing and in 
person, before the committee to support the doubling of the NIH budget 
and to encourage spending on muscular dystrophy. The Society has 
succeeded in achieving nearly a dozen sections of report language in 
appropriations reports. I have served on numerous NIH research and 
planning task forces. The Society has had countless hundreds of 
meetings with the Directors, Staff and program officers of the NIH 
NINDS, NIAMS, NICHD, NHGRI, ORD and the OD. I served on the five year 
long range planning meeting for the NIH NIAMS July 1999. I rewrote the 
MD CARE Act 2001 bills to include all muscular dystrophies, ages and 
genders, and to establish the Muscular Dystrophy Coordinating Committee 
(MDCC) federal advisory committee with public members, and to establish 
five national centers for MD not at the exclusion of the basic 
research, and much more. The Society has contributed to supporting two 
NIH funded FSHD research planning conferences (1997, 2000). I work 
closely and collaboratively with NIH program directors. I serve on the 
MDCC at the request of Secretary Tommy G. Thompson and Dr. Elias 
Zerhouni. I helped write the MDCC NIH research plan submitted to 
Congress in summer 2004. I continually encourage FSHD researchers to 
submit NIH grant applications for R01, R21, R03, P01, U54, K, T, F 
training and mentoring awards and Director's Pioneer Awards. The 
Society has given testimony before the Institute of Medicine (IOM) on 
improving the Center for Scientific Review (CSR) grant review process 
for FSHD. The FSH Society itself has funded $1.1 million in $30,000 a 
year fellowships to more than 2 dozen researchers in 5 years, leading 
to nearly 7 dozen publications in top tier journals. The FSH Society 
helps the NIH FSHD patient registry and existing Wellstone Cooperative 
Research Center's as a volunteer health agency.
    As a grant agency, the FSH Society has world renowned and leading 
clinicians and researchers peer reviewing applications, funding 
research, reviewing progress reports and preliminary data and ideas. We 
know and have comprehension on the quality of applicants and projects 
and data being submitted to you in the NIH grant applications for FSHD 
research. I have first hand knowledge of the research as well as our 
Nobel quality advisors. I can tell you that researchers of Wellstone, 
Nobel, and Howard Hughes stature working on FSHD have had applications 
on FSHD rejected by the NIH. However, their applications on other types 
of muscular dystrophy have been funded by the very same agency.
    Mr. Chairman, as you know, the National Institute of Child Health 
and Human Development (NICHD), the National Institute of Arthritis and 
Musculoskeletal Disorders (NIAMS), the National Institute of 
Neurological Disorders and Stroke (NINDS), and the National Human 
Genome Research Institute (NHGRI) are four of the National Institutes 
of Health (NIH) institutes called upon by the Muscular Dystrophy 
Community Assistance Research and Education Act of 2001 (MD CARE Act 
2001) to develop a research plan for muscular dystrophy (MD) research 
and education conducted through the National Institutes of Health. 
Certainly, other NIH institutes will be called into action where 
appropriate such as NHLBI, NEI, NIA, NIMH, NCRR, FIC, and OD.
    We rewrote the MD CARE Act 2001 bill from the Muscular Dystrophy 
Children's Assistance Research and Education Act 2001, covering only 
the childhood form of`Duchenne MD (DMD), to the Muscular Dystrophy 
Community Assistance Research and Education Act 2001 covering all forms 
of MD. We rewrote the bill to include all forms of muscular dystrophy 
affecting men, women, and girls in addition to boys because it was the 
right thing to do. Oddly, in 2004 Duchenne MD received a commanding 
portion of the muscular dystrophy funding and seven of the other 
muscular dystrophy types have little or no funding from the NIH.
    An analysis was presented at the December 2004 MD CARE Act mandated 
Muscular Dystrophy Coordinating Committee (MDCC) meeting of the 164 
grants in the NIH portfolio for future planning purposes related to the 
five sections of the muscular dystrophy research plan. Subsequent to 
the meeting, I requested the details of the 164 grants used for the 
December 1, 2004 discussion from Dr. John Porter (DHHS NIH NINDS), the 
Executive Secretary of the MDCC. It is has been communicated that this 
compilation was done for planning purposes. From discussions with Dr. 
Porter we understand that this view of grants differs from the muscular 
dystrophy portfolios as presented by the budget and NIH OCPL offices 
regarding the various institutes along coding parameters. The 164 
grants were assembled with a degree of scientific subjectivity and 
based on professional expertise and judgment. The December 2004 MDCC 
meeting yielded an analysis of a subjective grouping of the NIH wide 
164 muscular dystrophy grants. Eight were reported related to FSHD. At 
that time, the NIH identified that 8 out of 164 grants are on FSHD! 
Only eight out of 164 grants are for research on FSHD the third most 
prevalent dystrophy that affects men, women and children!
     The details of the data of the 164 grants as presented at the 
December 1, 2004 MDCC for the grants with funding start dates in 2004 
shows 35 grants funded for the 2004 year to that date. The count by 
dystrophy for calendar year 2004 is: 18 for Duchenne muscular dystrophy 
(DMD), 2 for Limb Girdle muscular dystrophy (LGMD), 1 for Myotonic 
muscular dystrophy (DM), 1 for facioscapulohumeral muscular dystrophy 
(FSHD), 7 for stem cell research, and 6 for other research. To re-
iterate by dystrophy the total grants awarded in 2004 were: 18 for DMD, 
2 for LGMD, 1 for DM, and 1 for FSHD! The most recent year of funding 
data shows that the non-Duchenne muscular dystrophy group is not doing 
well in terms of numbers of grants and funding. We request a hearing 
that focuses on this issue with immediacy and attention to ameliorating 
this unequal growth. Oddly, there is an order of magnitude difference 
between Duchenne muscular dystrophy (DMD) and the entire complement of 
all other dystrophies.
    What has happened in facioscapulohumeral muscular dystrophy (FSHD) 
research in the five years since the MD CARE Act was signed and what 
has happened since the thirteen years since we first started asking NIH 
to invest and build the facioscapulohumeral muscular dystrophy 
portfolio? NIH has rejected nearly four dozen grant applications on 
facioscapulohumeral muscular dystrophy of R03, R21, R01, P01, U54, NIH 
Director Pioneer Award Nominations mechanisms and more. The funding 
track record speaks for itself. To date in fiscal year 2005 the NIH has 
rejected every FSHD application it has received. It is difficult to 
attract investigators to FSHD when there is no money made available for 
them and it becomes a downward spiral to attract new and promising 
investigators.
    Incredibly, the NIH NIAMS, NINDS, NICHD, NHGRI FSHD funding is 
still non existent. Since 2001, the overall NIH wide muscular dystrophy 
budget has increased from $21.0M to $42.2M in fiscal year 2006 
estimated and enacted. Since 2001, the FSHD budget has increased from 
$500,000 to $1.6M in fiscal year 2006 estimated.

           NATIONAL INSTITUTES OF HEALTH (NIH) MUSCULAR DYSTROPHY AND FSHD APPROPRIATIONS HISTORY \1\
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                Total NIH    NIAMS      NINDS      NICHD      NHGRI     NIH wide
                  Fiscal year                     dollars   dollars    dollars    dollars    dollars    dollars
                                                  on MD      on MD      on MD      on MD      on MD     on FSHD
----------------------------------------------------------------------------------------------------------------
2000..........................................       12.6        4.8        4.9        1.2  .........        0.4
2001..........................................       21.0        9.2        8.2        0.5        0.3        0.5
2002..........................................       27.6       11.1        9.8        0.6        2.3        1.3
2003..........................................       39.1       15.5       13.2        4.5        2.1        1.5
2004..........................................       38.7       15.0       14.8        3.8        0.3        2.2
2005ES........................................       41.0       16.3       13.7        4.8        2.2        1.6
2005EN........................................       42.2       15.2       16.6        5.0        0.3        1.6
2006ES........................................       42.2       15.2       16.7        5.0        0.3        1.6
----------------------------------------------------------------------------------------------------------------
\1\ Source: NIH/OD Budget Office & NIH OCPL.

    NIH NIAMS. The NIAMS is ostensibly the lead institute at the NIH on 
muscular dystrophy. After all of our efforts the NIH National Institute 
of Arthritis and Musculoskeletal Disorders (NIAMS) now has only one 
research contract that it is co-funding with NIH NINDS for FSHD for 
$186,233 per year? Not one single research grant for FSHD, the third 
most prevalent dystrophy! The total muscular dystrophy portfolio ending 
December 15, 2005 was 58 projects, including Wellstone Cooperative 
Research Centers (CRC) components for a total of $14,992,725.
    NIH NINDS. The NINDS is the second largest NIH contributor towards 
muscular dystrophy research funding. The NIH National Institute of 
Neurological Disorders and Stroke (NINDS) now has three research 
grants, one research contract, and one-quarter of a Wellstone CRC for 
FSHD for a total of $1,386,620 in fiscal year 2004. The total muscular 
dystrophy fiscal year 2004 portfolio reported February 1, 2005 was 39 
projects, including Wellstone CRC components for a total of 
$14,756,290.
    NIH NICHD. The NICHD is third largest NIH contributor towards 
muscular dystrophy research funding. The NIH National Institute of 
Child Health and Human Development (NICHD) does not have a single 
research grant or project directly focused or covering FSHD, which is 
the third most prevalent dystrophy that affects both boys and girls. 
The total muscular dystrophy fiscal year 2004 portfolio reported 
December 1, 2004 was 15 projects, including Wellstone CRC components 
for a total of $3,837,633.
    NIH NHGRI. The NHGRI is historically the fourth largest NIH 
contributor towards muscular dystrophy research funding. The NIH 
National Human Genome Research Institute (NHGRI) does not have a single 
research grant or project directly focused or covering FSHD. The total 
muscular dystrophy fiscal year 2004 portfolio reported on December 1, 
2004 was 1 project (Z01-HG000215-02), including Wellstone CRC 
components for a total of $281,396. The project is Hereditary Inclusion 
Body Myopathy (HIBM) and HIBM is not a type of muscular dystrophy.
    Astonishingly, the total NIH wide spending on muscular dystrophy 
decreased from $39.1 million (fiscal year 2003) to $38.7 million 
(fiscal year 2004). Something is wrong with this trend given the 
Appropriations Subcommittee's interest in this area and the efforts of 
the patient and research communities to shore up and improve muscular 
dystrophy research.

                         NATIONAL INSTITUTES OF HEALTH (NIH) APPROPRIATIONS HISTORY \1\
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                   NIH         MD         MD        FSH        FSHD       FSHD
                  Fiscal year                    overall    research   percent    research   percent    percent
                                                 dollars    dollars     of NIH    dollars     of MD      of NIH
----------------------------------------------------------------------------------------------------------------
2000..........................................    $17,821      $12.6      0.071       $0.4       3.18     0.0022
2001..........................................     20,458       21.0      0.103        0.5       2.38     0.0024
2002..........................................     23,296       27.6      0.118        1.3       4.71     0.0056
2003..........................................     27,067       39.1      0.144        1.5       3.83     0.0055
2004..........................................     27,887       38.7      0.139        2.2       5.67     0.0079
2005E.........................................     28,495       41.0      0.144        1.6       3.90     0.0056
2006E.........................................     28,640       42.2      0.147        1.6       3.79    0.0056
----------------------------------------------------------------------------------------------------------------
\1\ Source: NIH/OD Budget Office & NIH OCPL.

    The NIH NIAMS, NINDS, NICHD, NHGRI the four lead institutes on 
muscular dystrophy reported a combined total of 113 projects on 
muscular dystrophy totaling $33,869,044 in fiscal year 2004. Of that 
total amount facioscapulohumeral muscular dystrophy (FSHD) received 
$1,572,853 for three grants, one contract and one-quarter of a 
Wellstone CRC.
    Looking at the three existing Wellstone Cooperative Research 
Centers (CRCs) the NIH NICHD is spending $1,631,994, the NIH NIAMS is 
spending $1,224,971, and the NIH NINDS is spending $1,462,151. Only 
one-quarter of the Wellstone CRC funded by the NIH NINDS specifically 
works on FSHD. One more Wellstone center is currently in the process of 
being funded and none of the work at the fourth Wellstone pertains to 
FSHD. Of $4,319,116 funded to the first three Wellstone CRCs, only 
$365,538 is directly titled for FSHD. Only 8.46 percent of the total 
Wellstone expenditure is being spent on the third most prevalent form 
of muscular dystrophy that affects both men and women.
    Mr. Chairman, we are troubled by the NIH grant review process used 
for the Wellstone Center applications as NIH uses a review process that 
deviates from its rigorous adherence to stating that it funds projects 
of the highest scientific merit. The Wellstone applications are 
reviewed for scientific merit and then the entire score is adjusted 
upward or downward based on a ``gestalt'' or an impression. The NIH 
NIAMS extramural program director writes that as an ``example, one or 
more of the research projects may have very high scientific merit but 
lack relevance or contribute little to the Center [Wellstone] as a 
whole; conversely, research projects with relatively lower scientific 
merit may provide necessary strengths to the other components of the 
Center, and make a major contribution to the Center as a whole.'' This 
changing of the rules has not worked in the favor of FSHD research and 
in fact quite the opposite in round two of the Wellstone evaluations. 
We ask the committee to hold a hearing to more closely examine if 
scientific quality is abrogated by a more subjective review standard.
    Mr. Chairman, we are asking you to inquire about the abysmal 
performance record in FSHD funding and FSHD oriented Wellstone CRCs by 
the NIH. Last, at the end of the day, we all recognize that simply not 
enough grants are being submitted by the extramural research community 
to the NIH. Note that the NIH has done nothing to date to specifically 
encourage or targeted to draw in FSHD research applications in five or 
six years. For most of fiscal year 2004, there was no active program 
announcement on the street in muscular dystrophy from the NIH giving 
researchers no obvious avenues or handles to submit basic research 
grants. Of course, researchers are not restricted from submitting 
applications and can always submit grants in the absence of a call for 
proposal but most look for a program announcement or call for 
applications as a signal of NIH interest. The NIH is certainly not 
receiving enough grants applications for FSHD, but it also manages to 
reject almost every one of the scarce few being submitted by the top 
FSHD researchers in the world. It can be said that the volunteer health 
agencies and extramural community of researchers have done everything 
in their power to grow the area of research and to promote new 
researchers and research projects. We have been very successful as 
shown above and need the NIH to capitalize on our success and 
investments. The NIH has recognized that there is a systemic problem 
and has even self-identified a significant gap as relates to FSHD, but 
it has not stated what and if anything it intends to do to ameliorate 
the unequal growth and opportunity for muscular dystrophies other than 
Duchenne muscular dystrophy.
    At the December 2004 MD CARE Act mandated Muscular Dystrophy 
Coordinating Committee (MDCC) the staff and Director's of the NIH 
admitted there was a problem in the gap with FSHD research. The follow-
up has been deferred to programmatic staff and the implementation 
details of the pending muscular dystrophy research plan. The NIH did 
not say exactly when it would follow-up on funding new research in 
FSHD. The NIH has a history in FSHD of committing to address this issue 
and never following through. The two prior NIH sponsored research 
planning conferences on FSHD are an example. Only a minor fraction of 
the 2000 NIH planning conference research plan developed by the NIH has 
been implemented. At this point, we are unsure if the lack of FSHD 
research in the NIH portfolio is a problem of miscommunication or 
perhaps a more deliberate and calculated on the part of the NIH.
    We also ask that Congress request an explanation from the program 
staff and Directors of the NIH NIAMS, NHGRI, OD and NICHD for the 
inability to do better in the area of FSHD despite repeated 
Congressional requests. We implore Congress to request the NIH to 
specifically build the research portfolio on FSHD through all available 
means, including re-issuing specific calls for research on FSHD at an 
accelerated rate, to make up for historical and present neglect.
    Mr. Chairman, we trust your judgment on the matter before us. We 
believe the Committee should explore why muscular dystrophy in general 
and FSHD in particular has been left behind in the great rise in 
research support at the NIH. Frankly, we are extremely frustrated that 
amid a huge increase in funding and strong unambiguous expressions of 
Congressional support, the NIH commitment in facioscapulohumeral 
muscular dystrophy (FSHD) is so feeble. Mr. Chairman thanks to your 
extraordinary efforts, consideration and work in this area I have hope 
that we will find solutions and that hope keeps me going.
    Mr. Chairman, again, thank you for providing this opportunity to 
testify before your Subcommittee.
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology

                         INTRODUCTION TO FASEB

    The Federation of American Societies for Experimental Biology 
(FASEB) is a coalition of 22 scientific societies who together 
represent more than 66,000 biomedical research scientists. The mission 
of FASEB is to enhance the ability of biomedical and life scientists to 
improve, through their research, the health, well-being and 
productivity of all people.

       FASEB'S RECOMMENDATION FOR NIH FUNDING IN FISCAL YEAR 2006

    As your committee begins deliberations on appropriations for 
agencies under its jurisdiction, FASEB would like to offer its views on 
funding for the National Institutes of Health (NIH). FASEB recommends 
that that the National Institutes of Health receive $30.07 billion in 
fiscal year 2006, an increase of 6 percent over the level for the 
previous fiscal year. This level of funding is consistent with our 
analysis of what is needed to prevent the curtailment of vital research 
programs.

                             NIH'S MISSION

    The National Institutes of Health (NIH) is the single most 
important source of funding that drives advances in basic biomedical 
research and clinical medicine. Over the past 50 years, NIH research 
has transformed the practice of medicine and made significant 
improvements in the long-term health of our citizens. Even greater 
benefits are possible in the next two decades, if we are positioned to 
capitalize on the many profound advances in fundamental science.
    Modern medical research is poised to revolutionize the prevention, 
diagnosis and treatment of disease. These opportunities coincide with 
urgent public health needs. The baby boom generation is graying; 
without more effective strategies against chronic diseases, such as 
osteoporosis, Parkinson's and Alzheimer's diseases, and heart disease, 
the health care needs of this generation will place enormous economic 
and social burdens on their children and our Nation. In addition, new 
and emerging infectious diseases are a constant threat to our society; 
without novel and improved methods for predicting, detecting, 
controlling and preventing emerging and re-emerging diseases, our 
nation will be ill prepared to respond to the major public health 
challenges of the twenty-first century. To meet all of these challenges 
with improvements in patient care depends on continuous scientific 
discovery that will usher in a new age in the practice of medicine.

      NOVEL MEDICAL PRACTICE MADE POSSIBLE BY NIH-FUNDED RESEARCH

    The pace of advancement continues to accelerate such that there are 
new treatments that substantially increase the quality and length of 
life for a large number of Americans. Most of these successes were only 
made possible because of basic research and committed clinical 
development. Below, we have highlighted some major advances in 
prevention and treatment of heart disease, infectious diseases, cancer, 
vaccines, obesity and diabetes, and women's diseases. We point out how 
basic research is benefiting Americans and increasing their longevity 
and quality of life. At the same time, we indicate some of the many 
areas of medicine that provide opportunities for important advances in 
the future.
    Cardiovascular Disease.--Without doubt, one of the most important 
advances in human health for an aging population has been the 
investigation and treatment of cardiovascular disease (CVD). Basic 
research identified the limiting step in cholesterol biosynthesis, and 
this led directly to the development of statins. These wonder drugs 
lower levels of blood lipids, and they are remarkably effective in the 
reduction of coronary events and death from coronary heart disease. 
Without the basic research, drug development for the treatment of 
hypercholesterol would have languished for years.
    Although important progress has been made, there is need to 
understand the causes of CVD, and find new means of prevention. Studies 
published within the past 2 years affirm that CVD is strongly affected 
by inflammation, and that the most reliable early predictors of disease 
are blood proteins that reflect chronic inflammation such as C-reactive 
protein. Further research into the prevention of dangerous inflammatory 
responses promises to substantially reduce the major cause of death in 
Americans.
    Infectious Diseases.--Like HIV/AIDS, Ebola and West Nile virus, 
SARS reminds us that emerging and reemerging infectious diseases are 
constant threats to national and international public health. In 2003, 
SARS rapidly moved across the globe, becoming a worldwide health 
emergency that resulted in quarantines, travel warnings, and mounting 
economic damage. The ability of NIH to marshal its resources to rapidly 
initiate development of diagnostics, therapeutics and vaccines against 
SARS has positioned us well in our quest for tools to detect, treat and 
prevent SARS.
    Cancer.--Using monoclonal antibodies (mAb), scientists have also 
identified the cell surface receptors that characterize many different 
cells of the body. These same mAb can be chemically engineered for use 
as biologic drugs in the treatment of many different diseases. The mAb 
reagent that targets a lymphocyte receptor has become a proven therapy 
for non-Hodgkin's B cell lymphoma; many patients remain disease-free 
for several years after having failed chemotherapy. Based on more 
recent clinical trials, this same drug may also be effective in the 
treatment of several forms of autoimmune disease including rheumatoid 
arthritis. Many other engineered mAb are being tested in clinical 
trials for use as biologic drugs, and again, more research is needed to 
identify new disease targets.
    The latest genetic technologies are also beginning to deliver 
important tools for the treatment of cancer. Recently, NIH-supported 
research has been used to develop technologies where virtually the 
entire genome can be studied on a small chip (DNA microarray). A recent 
example of the promise of this technology comes from the study of 
chronic lymphocytic leukemia (CLL). CLL patients fall into two 
categories: those whose tumors progress slowly and those with highly 
malignant tumors that require aggressive therapy. Microarray analyses 
identified the expression of a single gene that discriminates these 
tumor types with a high degree of accuracy. This has now led to a 
simple blood test to determine tumor prognosis and guide therapy. 
Microarray analyses will be used in the future to analyze each 
individual cancer as a way of guiding highly individualized therapies, 
and this will in turn result in a new generation of highly effective 
treatments.
    Vaccines.--Vaccine research and development proceeds at a rapid 
pace using new tools from a variety of fields. Hemophilus influenza 
type b is one of the leading causes of invasive bacterial infection in 
young children worldwide. The development of a vaccine for this disease 
has dramatically decreased the incidence of pediatric meningitis from 
approximately 20,000 to 200 cases per year in the United States. The 
cost for treating this disease and its complications was $500 million 
annually, whereas the cost of vaccination is presently no more than 
fifty cents per patient. The development of this successful vaccine 
evolved naturally out of NIH-supported research in basic immunology and 
many additional breakthroughs are anticipated. For example, similar 
vaccines are being tested to prevent pneumoccocal and meningococcal 
infections that often result in pneumonia or meningitis.
    New sequencing techniques made possible from the Human Genome 
Project allow the rapid decoding of genomes of bioterrorism threats as 
well as rapidly mutating pathogens. Immunologists have created a 
malaria vaccine that was made possible by genome sequencing of the 
malaria parasite and its mosquito host, and recent results in children 
show that this vaccine can convey a 50 percent decline in infections. 
The genome sequence of each pathogen facilitates the identification of 
virulence factors, which in turn, constitute the best targets for 
vaccination. For example, the creation of a SARS DNA microarray chip, 
available from NIAID, will aid in the rapid development of vaccines 
against this recently identified pathogen. The complementary nature of 
basic and clinical research is no where more apparent than in the 
advantage that vaccine research takes of chemical structures determined 
by x-ray crystallography. The recent discovery of the 3-D structure of 
the anthrax bacterium will speed development of novel antitoxins to 
protect our populace against bioterrorism. Thus, work on the horizon 
promises vaccines that will confer resistance to previously 
uncontrollable infectious agents.
    Obesity and Diabetes.--The obesity epidemic continues to rise. The 
projected health care requirements arising from complications 
associated with excessive weight will substantially expand the costs of 
Medicare and private health insurance in an aging population. In 
response to this crisis, NIH has increased funding in obesity research 
and this has led to an explosion of new information concerning the 
regulation of metabolism and the causes of pathogenesis. For example, 
the 2004 Lasker Prize was shared by two American NIH-funded researchers 
and a Frenchman for their work on nuclear receptors, and in part for 
the role these receptors play in insulin resistance and metabolism of 
fat cells. This work holds great promise for therapeutic intervention 
since nuclear receptors are easily targeted by modified versions of 
steroid hormones. Remarkably, some of the most incisive work has come 
from basic studies using model organisms, such as worms and flies, 
where genetic screens have identified the essential metabolic pathways.
    Over the period of the NIH budget doubling, researchers have 
discovered previously unknown hormones such as Resistin and Gherlin. 
Resistin is a fat-cell derived hormone that, in excess, causes problems 
with carbohydrate metabolism, and this is turn can result in diabetes. 
Gherlin, along with Leptin, has been found to be important in the 
modulation of appetite. In another area of metabolic research, we now 
understand the molecular basis for trans fatty acid and saturated fatty 
acid effects on LDL cholesterol, and this has important implications 
both in weight control and in cardiovascular disease.
    Health care costs more than twice as much for diabetes patients as 
for all other individuals. Eliminating or reducing the health problems 
caused by diabetes could significantly improve the quality of life for 
people with diabetes and their families while at the same time 
potentially reducing national expenditures for health care services and 
increasing productivity in the U.S. economy. These costs will increase 
dramatically if the epidemic is allowed to worsen. Indeed, it was 
recently predicted by the Centers for Disease Control that one out of 
three children born in the United States in the year 2000 will develop 
diabetes in his or her lifetime.
    Obesity affected 44 million Americans as of 2001, an increase of 74 
percent from 1991. Obesity is a major risk factor for diabetes and is 
also associated with cardiovascular disease and cancer. The total cost 
attributable to obesity amounted to $99.2 billion in 1995. 
Approximately $51.7 billion of those dollars were direct medical costs. 
The number of restricted-activity days, bed-days, and work-lost days 
increased substantially between 1988 and 1994, while the number of 
physician visits attributed to obesity increased 88 percent during the 
same period.\1\ The health-related economic cost of obesity to U.S. 
business is substantial, representing approximately 5 percent of total 
medical care costs.\2\
---------------------------------------------------------------------------
    \1\ Obesity Research 1998; 6 (2): 97-106.
    \2\ American Journal of Health Promotion 1998; 13 (2): 120-127.
---------------------------------------------------------------------------
    Women's Health.--Recent work has demonstrated that estrogen and 
related compounds reduce brain damage from stroke in experimental 
animals. With these new findings it is extremely important that support 
for existing and new research to resolve the controversy of safety and 
risks of hormone replacement therapy be continued and increased. Such a 
resolution will have a wide impact on women's health concerns such as 
osteoporosis, stroke, Alzheimer's disease and memory loss.

                        COMPETITIVE PEER REVIEW

    Part of the success of American science derives directly from the 
system for awarding research grants. The majority of NIH funding comes 
in response to investigator-initiated research proposals that are 
evaluated by a committee of experts in each scientific field. Elaborate 
care is taken to ensure that conflicts of interest are minimized and 
each research proposal is evaluated on its merit. Over many years this 
competitive system has promoted the highest quality research, and it is 
a shining example of a program based on ``reward for excellence.'' No 
scientist can afford to rest on his or her previous accomplishments. As 
opposed to the entitlement system of funding found in some other 
countries, the American system rewards productivity, innovation, and 
impact. While FASEB welcomes new ideas to make the system function even 
more efficiently, we support the basic concept of peer review as 
practiced by NIH.

               THE IMPORTANCE OF CONTINUING THE MOMENTUM

    There has never been greater opportunity for advancing biomedical 
science and generating more effective practices for clinical medicine. 
Within our reach are dramatic new breakthroughs that can lessen the 
economic and human costs of disease.
    In response to the massive amounts of new information being 
generated in every field of biomedical science, the NIH has recently 
developed a framework of priorities that NIH as a whole must address in 
order to optimize its entire research portfolio. The NIH Roadmap \3\ 
identifies the most compelling opportunities in three main areas and 
will (1) promote a quantitative understanding of the many 
interconnected networks of molecules that comprise our cells and 
tissues, their interactions, and their regulation; (2) explore new 
organizational models for team science; and (3) foster large-scale 
epidemiological studies and clinical trials to enhance the state of 
medical treatment and move new therapies into practice. Specialized 
core facilities and consortia are being promoted to bring together 
scientists from different disciplines as a way of accelerating 
discovery. FASEB supports the goals and vision of this initiative, 
although we maintain that most novel discovery and innovative research 
will continue to originate from individual investigators. In order to 
maintain our rate of discovery and build the infrastructure outlined in 
the Roadmap, NIH requires adequate support for agency-initiated and 
investigator-initiated projects.
---------------------------------------------------------------------------
    \3\ http://nihroadmap.nih.gov/.
---------------------------------------------------------------------------
    The momentum generated from doubling the NIH budget has energized 
biomedical science at every level. We see new young investigators 
making some of the most important discoveries. Training initiatives 
have encouraged talented students to choose a career in academic 
medicine. These highly talented and motivated individuals spend 10 
years or more after college in graduate school and postdoctoral 
appointments. In 2003, only 16.6 percent of new investigators obtained 
funding within their first 3 years of applying for these critical 
grants, thereby making it very difficult for these young scientists to 
establish their new innovative research programs.
    It is impossible to predict which cures and therapies might be lost 
if funds for medical research are curtailed, but it is certain that 
inconsistent NIH funding sends a chilling message to young scientists 
in training and those just entering the research field. Scientific 
competition will always be intense, but exceptionally talented young 
scientists must be assured that sufficient research funding will be 
available or they will be forced to pursue alternative careers.

                             RECOMMENDATION

    FASEB understands that the fiscal year 2006 budget for 
discretionary spending is projected to be constrained in light of the 
large deficit, the expenditures for defense and homeland security and 
the growth in entitlement obligations. However, FASEB strongly believes 
that the scientific opportunities for progress in medical research have 
never been greater. Therefore, FASEB recommends that the National 
Institutes of Health receive $30.07 billion in fiscal year 2006, an 
increase of 6 percent over the level for the previous fiscal year.
                                 ______
                                 
    Prepared Statement of the Friends of the National Institute of 
                 Environmental Health Sciences (NIEHS)

    The Friends of the National Institute of Environmental Health 
Sciences (NIEHS) group appreciates the opportunity to comment on the 
fiscal year 2006 appropriation for the institute. The Friends of NIEHS 
is a coalition committed to expanding the National Institutes of 
Health's (NIH) environmental health research portfolio through 
increased appropriations for NIEHS. Comprised of over 50 patient, 
healthcare provider, children's health, and industry groups, the 
Friends of NIEHS represents an enormously broad constituency dedicated 
to improving the nation's knowledge about our health and our 
environment.
    Over the last several years Congress has shown a strong commitment 
to health research sponsored by NIH. This financial commitment has 
allowed the nation to dedicate resources to emerging scientific 
opportunities that will lead to beneficial health outcomes for 
Americans. We thank Congress for fulfilling its commitment to double 
the NIH overall budget. However, we remain concerned about how we will 
fund these opportunities in the upcoming years.
    This dilemma is particularly true for the NIEHS. This institute 
plays a critical role in what we know about the relationship between 
our environmental exposures and disease onset. Through the research 
sponsored by this Institute, we know that Parkinson's disease, breast 
cancer, birth defects, miscarriage, delayed or diminished cognitive 
function, infertility, asthma and many other diseases and ailments have 
confirmed environmental triggers. Specifically, NIEHS has played an 
important role in discovering the mechanisms by which DES 
(diethylstilbestrol) causes damage, through its historical and ongoing 
work on DES in the animal model. Continuing research of these 
mechanisms is vital to help determine future health events related to 
DES, such as the possibility of third generation effects in the 
grandchildren of women who took DES during pregnancy. Our expanded 
knowledge, as a result, allows both policy makers and the general 
public to make important decisions about how to reduce toxin exposure 
and reduce the risk of disease and other negative health outcomes.
    As the nation continues to steel itself from terrorist threats, the 
Friends of NIEHS applauds Congress's commitment to bolstering research 
funding in the area of infectious disease as a part of national anti-
bioterrorism effort. The coalition, however, feels that an effort that 
only targets bioterrorism falls short of truly protecting the nation as 
it leaves the public vulnerable to chemical terrorism. Funding is 
critical for future initiatives such as research concerning the 
possible health effects of exposure to low levels of hazardous 
chemicals and the use of an Environmental Medical Unit (EMU), as 
previously supported by Congress and underway in Japan, to examine 
populations affected by toxicant-induced intolerances to determine the 
biomarkers and mechanisms by which to identify individual 
susceptibility so as to avoid placing such individuals in hazardous 
situations.
    In an effort to continue the expansion of this knowledge base, the 
Friends of NIEHS supports a $35 million increase in funding for NIEHS 
over fiscal year 2005 levels, bringing the total appropriation for 
fiscal year 2006 to $680 million. This additional funding will allow 
the Institute to continue current projects and pursue promising 
research in the areas of individual susceptibilities (due to gender, 
age, racial/ethnic backgrounds, etc.), environmental disease triggers 
and technologies (such as toxicogenomics and mouse genomics).
    While there are many competing interests that must be considered in 
the fiscal year 2006 budget, a top priority for Americans is medical 
research that explores the relationship between disease and the 
environment. The members of the Friends of NIEHS respectfully request a 
total of $680 million for fiscal year 2006 for the National Institute 
of Environmental Health Sciences. Thank you for this opportunity to 
discuss the importance of these programs as the Congress configures the 
Labor-HHS fiscal year 2006 budget.
    The Friends of NIEHS respectfully requests Congress to appropriate 
a total of $680 million for fiscal year 2006.
                                 ______
                                 
  Prepared Statement of the Friends of the National Institute on Drug 
                            Abuse Coalition

    Mr. Chairman and Members of the Subcommittee: The Friends of the 
National Institute on Drug Abuse (FoN) a burgeoning coalition of over 
50 organizations, is pleased to provide testimony to support the 
extraordinary work of the NIDA. Although a new coalition, it is 
comprised of organizations representing scientists, health 
professionals, and advocates for preventing and treating substance use 
disorders as well as understanding the causes and public health 
consequences of addiction. Pursuant to clause 2(g)4 of House Rule XI, 
the Coalition does not receive any federal funds.
    Drug abuse and addiction represent a major health crisis in 
America, and create an economic burden of over $484 billion per year. 
One way we can and should continue to address this problem is through 
scientific research. Because of the critical importance of drug abuse 
research for the health and economy of our nation, we write to you 
today to request your support for a 6 percent increase for NIDA in the 
Fiscal 2006 Labor, Health and Human Services, Education and Related 
Agencies Appropriations bill. That would bring total funding for NIDA 
in Fiscal 2006 to $1,067,040,300. Recognizing that so many health 
research issues are inter-related, we also support a 6 percent increase 
for the National Institutes of Health overall, which would bring its 
total to $30 billion for Fiscal 2006.
    NIDA is the world's largest supporter of research on the health 
aspects of drug abuse and addiction. The Institute supports a 
comprehensive research portfolio that has led to our current 
understanding of addiction as a preventable developmental disorder and 
a chronic relapsing disease associated with long-lasting changes in the 
brain and the body that can affect all aspects of a person's life. 
NIDA's research portfolio is broad and deep, and spans the continuum of 
basic neuroscience, behavior and genetics research through applied 
health services research and epidemiology. This work deserves 
continuing, strong support from the Congress. Some examples include:
    New research supported by NIDA and others reveals that drug 
addiction is a ``developmental disease.'' That is, it often starts 
during the early developmental stages in adolescence and sometimes as 
early as childhood. This is a time when the brain undergoes major 
changes in both structure and function. We now know that the brain 
continues to develop throughout childhood and into early adulthood. 
Exposure to drugs of abuse at an early age may increase a child's 
vulnerability to the effects of drugs and may impact brain development. 
As a result, NIDA has increased its emphasis on adolescent brain 
development to better understand how developmental processes and 
outcomes are affected by drug exposure, the environment and genetics. 
Recent advances in genetic research have enabled researchers to start 
to investigate which genes make a person more vulnerable, which genes 
protect a person against addiction, and how genes and environment 
interact. As part of the prevention portfolio NIDA is also involving 
pediatricians and other primary care providers to develop tools, skills 
and knowledge to be able to screen and treat patients as early as 
possible, including patients with mental disorders who may be at a high 
risk to develop addiction. We know that if we do not intervene early, 
drug problems can last a lifetime, making prevention a high research 
priority.
    Treatment research is another priority area for NIDA. Significant 
effort is underway to develop, test, and ensure the delivery of 
evidence-based interventions to all practitioners and patients across 
the country. Building on advances from the Institute's basic 
neuroscience and behavioral research program NIDA has introduced a 
number of effective medications and behavioral treatments. The 
Institute also continues to look for more innovative, efficacious, and 
cost-effective ways to treat patients for a variety of addictions, 
including addiction to nicotine. NIDA is also using the National Drug 
Abuse Treatment Clinical Trials Network (CTN) to help respond to 
emerging public health needs like prescription drug abuse and the 
increases in patients who are seeking treatment for both substance 
abuse and mental disorders.
    Another priority area for NIDA is curtailing the spread of HIV/
AIDS. Because illicit drug use can impact decision-making and increase 
the likelihood that an individual will engage in risk-taking behaviors, 
treatment for drug abuse is, itself, HIV prevention. Drug abuse 
treatment can reduce activities related to drug use that increase the 
risk of getting or transmitting HIV. NIDA is especially interested in 
reducing HIV/AIDS rates in racial and ethnic minority populations, 
which are disproportionately affected by this disease.
    Recognizing substance abuse as a disorder that can affect the 
course of other diseases, including HIV/AIDS, mental illness, trauma, 
cancer, cardiovascular disease and even obesity is critical to 
improving the health of our citizens. NIDA has launched several efforts 
to reach out to numerous professions within the healthcare community to 
address these issues.

        ADDITIONAL SUCCESS STORIES, CHALLENGES AND OPPORTUNITIES

    Adolescent Brain Development--How Understanding the Brain Can 
Impact Prevention Efforts.--NIDA maintains a vigorous developmental 
research portfolio focused on adolescent populations. NIDA working 
collaboratively with other NIH Institutes has shown that the human 
brain does not fully develop until about age 25. This adds to the 
rationale for referring to addiction as a ``developmental disease;'' it 
often starts during the early developmental stages in adolescence and 
sometimes as early as childhood, a time when we know the brain is still 
developing. Having insight into how the human brain works, and 
understanding the biological underpinnings of risk taking among young 
people will help in developing more effective prevention programs. FoN 
believes NIDA should continue its emphasis on studying adolescent brain 
development to better understand how developmental processes and 
outcomes are affected by drug exposure, the environment and genetics.
    Medications Development.--NIDA has demonstrated leadership in the 
field of medications development by partnering with private industry to 
develop anti-addiction medications resulting in a new medication, 
buprenorphine, for opiate addiction. FoN recommends that NIDA continue 
its work with the private sector to develop much needed anti-addiction 
medications, for cocaine, methamphetamine, and marijuana dependence.
    Co-Occurring Disorders.--NIDA recognizes substance abuse rarely 
occurs in isolation. And to adequately address co-occurring substance 
abuse and mental health problems, NIDA has developed robust 
collaborations with other agencies (such as NIAAA, NIMH and SAMHSA) to 
stimulate new research to develop effective strategies and to ensure 
the timely adoption and implementation of evidence-based practices for 
the prevention and treatment of co-occurring disorders. Through these 
initiatives, NIDA is supporting research to determine the most 
effective models of clinically appropriate treatment and how to bring 
them to communities with limited resources. FoN recognizes the 
imperative for continued funding of essential research into the nature 
of and improved treatment for these complex disorders and endorses 
these efforts.
    Drug Abuse and HIV/AIDS.--One of the most significant causes of HIV 
virus acquisition and transmission involves drug taking practices and 
related risk factors in different populations (e.g. criminal justice, 
pregnant women, minorities, and youth). Drug abuse prevention and 
treatment interventions have been shown to be effective in reducing HIV 
risk. Therefore, FoN trusts that NIDA will continue its support of 
research that is focused on the development and testing of drug-abuse 
related interventions designed to reduce the spread of HIV/AIDS in 
these populations.
    Emerging Drug Problems.--NIDA recognizes that drug use patterns are 
constantly changing and expends considerable effort to monitor drug use 
trends and to rapidly inform the public of emerging drug problems. FoN 
believes NIDA should continue supporting research that provides 
reliable data on emerging drug trends, particularly among youth and in 
major cities across the country and will continue its leadership role 
in alerting communities to new trends and creating awareness about 
these drugs.
    Reducing Prescription Drug Abuse.--NIDA research has documented 
recent increases in the numbers of adults and young people who are 
using prescription drugs for non-medical purposes. Reducing 
prescription drug abuse, particularly among our Nation's youth will 
continue to be a priority for NIDA. FoN endorses NIDA's programmatic 
research designed to further the development of medications that are 
less likely to have abuse/addiction liability, and to develop 
prevention and treatment interventions for adolescents and adults who 
are abusing prescription drugs.
    Reducing Methamphetamine Abuse.--NIDA continues to recognize the 
epidemic abuse of methamphetamine across the United States. 
Methamphetamine abuse not only affects the users, but also the 
communities in which they live, especially due to the dangers 
associated with its production. FoN believes NIDA should continue to 
support research to address the medical consequences of methamphetamine 
abuse. Topics of particular concern include: understanding the effects 
of prenatal exposure to methamphetamine and developing 
pharmacotherapies and behavioral therapies to treat methamphetamine 
addiction.
    Reducing Inhalant Abuse.--For the second year in a row, NIDA's 
Monitoring the Future Survey (MTF) has shown an increase in the use of 
inhalants by 8th graders. Inhalants pose a particularly significant 
problem since they are readily accessible, legal, and inexpensive. They 
also tend to be abused by younger teens and can be highly toxic and 
even lethal. FoN applauds NIDA's inhalant research portfolio and 
believes NIDA should continue its support of research on prevention and 
treatment of inhalant abuse, and to enhance public awareness on this 
issue as it did recently with the release of a Community Drug Alert 
Bulletin: Inhalants, as well as its new dedicated web site, 
www.inhalants.drugabuse.gov.
    General Medical Consequences of Drug Abuse.--NIDA recognizes that 
addiction is a disorder that affects the course of other diseases such 
as cancer, cardiovascular and infectious diseases. Therefore, FoN 
believes that NIDA should continue to support research on the medical 
consequences associated with drug abuse and addiction.
    Long-Term Consequences of Marijuana Use.--NIDA research shows that 
marijuana can be detrimental to educational attainment, work 
performance, and cognitive function. However, more information is 
needed in order to assess the full impact of long-term marijuana use. 
Therefore, FoN recommends that NIDA continue to support efforts to 
assess the long-term consequences of marijuana use on cognitive 
abilities, achievement, and mental and physical health, as well as work 
with the private sector to develop medications focusing on marijuana 
addiction.
    Translating Research Into Practice.--NIDA has been a leader working 
with State substance abuse authorities to reduce the current 15- to 20-
year lag between the discovery of an effective treatment intervention 
and its availability at the community level. In particular, NIDA worked 
with SAMHSA on a recent RFA designed to strengthen State agencies' 
capacity to support and engage in research that will foster statewide 
adoption of meritorious science-based policies and practices. FoN 
believes that NIDA should continue collaborative work with States to 
ensure that research findings are relevant and adaptable by State 
Substance Abuse systems. NIDA is also to be congratulated for its broad 
and varied information dissemination programs as part of an effort to 
ensure drug abuse research is used in everyday practice. The Institute 
is focused on stimulating and supporting innovative research to 
determine the components necessary for adopting, adapting, delivering, 
and maintaining effective research-supported policies, programs, and 
practices. As evidence-based strategies are developed, FoN urges NIDA 
to support research to determine how these practices can be best 
implemented at the community level.
    Primary Care Settings and Youth.--NIDA recognizes that primary care 
settings, such as offices of pediatricians and general practitioners, 
are potential key points of access to prevent and treat problem drug 
use among young people; yet primary care and drug abuse services are 
commonly delivered through separate systems. FoN encourages NIDA to 
continue to support health services research on effective ways to 
educate primary care providers about drug abuse; develop brief 
behavioral interventions for preventing and treating drug use and 
related health problems, particularly among adolescents; and develop 
methods to integrate drug abuse screening, assessment, prevention and 
treatment into primary health care settings.
    Utilizing Knowledge of Genetics and New Technological Advances to 
Curtail Addiction.--NIDA recognizes that not everyone who takes drugs 
becomes addicted and that this is an important phenomenon worthy of 
further exploration. Research has shown that genetics plays a critical 
role in addiction, and that the interplay between genetics and 
environment is crucial. The science of genetics is at a crucial phase--
technological advances are providing the tools to make significant 
breakthroughs in disease research. For example, FoN believes NIDA 
should take advantage of new high-resolution genetic technologies which 
may help to develop new tailored treatments for smoking.
    Combating Nicotine Addiction.--NIDA understands that the use of 
tobacco products remains one of the Nation's deadliest addictions and 
Fon supports NIDA's continuing efforts to address this major public 
health problem through its comprehensive research portfolio.
    Reducing Health Disparities.--NIDA research demonstrates that the 
consequences of drug abuse disproportionately impacts minorities, 
especially African American populations. FON was pleased to learn that 
NIDA formed a Subgroup of its Advisory Council to address this 
important topic and applauds NIDA for working to strategically reduce 
the disproportionate burden of HIV/AIDS among the African American 
population. FoN believes that researchers should be encouraged to 
conduct more studies in this population and to target their studies in 
geographic areas where HIV/AIDS is high and or growing among African 
Americans, including in criminal justice settings.
    The Clinical Trials Network--Using Infrastructure to Improve 
Health.--NIDA's National Drug Abuse Treatment Clinical Trials Network 
(CTN), which was established in 1999 and has grown to include over 17 
research centers or nodes spread across the country. The CTN provides 
an infrastructure to test the effectiveness of new and improved 
interventions in real-life community settings with diverse populations, 
enabling an expansion of treatment options for providers and patients. 
FoN suggests NIDA continue to develop ways to use the CTN as a vehicle 
to address emerging public health needs.
    Neuroscience Blueprint and Training.--NIDA is one of the 15 
Institutes and Centers involved in the NIH Blueprint activities and FoN 
recommends that NIDA continue to demonstrate leadership to foster 
additional training in cross-cutting scientific issues.
    Neuroimaging and the Developing Brain.--NIDA has also demonstrated 
leadership in the development and application of neuroimaging 
technologies to gain a greater understanding of the circuitry of the 
human brain underlying drug addiction. FoN encourages NIDA to utilize 
neuroimaging technology to improve its understanding of how the brain 
of children and adolescents develop.
    Behavioral Science.--NIDA has long demonstrated a strong commitment 
to supporting behavioral science research. FoN encourages NIDA to 
continue to determine the interplay of behavioral, biological, and 
social factors that affect development and the onset of diseases like 
drug addiction to understand common pathways that may underlie other 
compulsive behaviors such as gambling and eating disorders.
    Drug Treatment in Criminal Justice Settings.--NIDA is very 
concerned about the well-known connections between drug use and crime. 
Research continues to demonstrate that providing treatment to 
individuals involved in the criminal justice system decreases future 
drug use and criminal behavior, while improving social functioning. 
Blending the functions of criminal justice supervision and drug abuse 
treatment and support services create an opportunity to have an optimal 
impact on behavior by addressing public health concerns while 
maintaining public safety. FoN strongly supports NIDA's efforts in this 
area, particularly the Criminal Justice Drug Abuse Treatment Studies 
(CJ-DATS), a multi-site set of research studies designed to improve 
outcomes for offenders with substance use disorders by improving the 
integration of drug abuse treatment with other public health and public 
safety systems.

                               CONCLUSION

    It is true that many challenges remain. However, only the resources 
available for carrying out its vital mission limit the potential 
contributions of NIDA-funded research to the lives of countless 
individuals. This is why the Friends of NIDA ask you to provide an 
appropriation of $1,067,040,300 billion to the Institute so that our 
nation and the world will continue to benefit from NIDA's commitment to 
improving health and scientific advancement.
    We understand that the fiscal year 2006 budget cycle will involve 
setting priorities and accepting compromise. However, in the current 
climate, we believe a focus on substance abuse and addiction, which 
according to the World Health Organization account for nearly 20 
percent of disabilities among 15-44 year olds, deserve to be 
prioritized accordingly. We look forward to working with you to make 
this a reality.
    Thank you, Mr. Chairman, and the Subcommittee, for your support for 
the National Institute on Drug Abuse.
                                 ______
                                 
             Prepared Statement of the Heart Rhythm Society

    The Heart Rhythm Society (HRS) thanks you and the Subcommittee on 
Labor, Health and Human Services and Education for your past and 
continued support of the National Institute of Health, and specifically 
the National Heart, Lung and Blood Institute (NHLBI). The Heart Rhythm 
Society is the international leader in science, education and advocacy 
for cardiac arrhythmia professionals and patients, and the primary 
information resource on heart rhythm disorders. Its mission is to 
improve the care of patients by promoting research, education and 
optimal health care policies and standards. Founded in 1979 to address 
the scarcity of information about the diagnosis and treatment of 
cardiac arrhythmias, the Heart Rhythm Society is the preeminent 
professional group representing more than 3,700 specialists in cardiac 
pacing and electrophysiology in 64 countries.
    The Heart Rhythm Society recommends the Subcommittee continue its 
commitment to supporting biomedical research in the United States and 
recommends Congress provide NIH with a 6 percent increase for fiscal 
year 2006. This translates into an appropriation of $30 billion for 
NIH, with $3.1 billion designated to the National Heart, Lung, and 
Blood Institute (NHLBI). This increase will enable the NIH and NHLBI to 
sustain the level of research that leads to research breakthroughs and 
improved health outcomes.
    In particular, the Heart Rhythm Society recommends Congress support 
research into abnormal rhythms of the heart, known as cardiac 
arrhythmias. HRS appreciates the actions of Congress to double the 
budget of the NIH in recent years. The doubling of the NIH budget has 
served to promote a series of innovations that have improved treatments 
and cures for a variety of medical problems facing our nation.

                        RESEARCH ACCOMPLISHMENTS

    In our field for example, this research has provided critically 
important insights into the genetic basis of sudden death syndrome, 
which takes the lives of infants, children and young adults born with 
inherited defects in the ion channels or contractile proteins of the 
heart. SIDS (Sudden Infant Death Syndrome) remains the leading cause of 
death for infants one month to one year of age, continuing to claim the 
lives of approximately 2,500 babies each year.\1\ Our research has led 
to the recognition that sudden infant death syndrome is due, in part, 
to abnormal rhythms of the heart. This research is offering these 
babies a chance at a normal life span.
---------------------------------------------------------------------------
    \1\ First Candle/SIDS Alliance, Facts on SIDS, 2005 http://
www.sidsalliance.org/FC-PDF4/Expectant%20Parents/facts%20on%20sids.pdf.
---------------------------------------------------------------------------
    Major advances have also been realized in our ability to treat 
atrial fibrillation and to prevent the complications of stroke. Atrial 
fibrillation is found in about 2.2 million Americans and is an 
independent risk factor for stroke, increasing the risk about 5-fold. 
About 15-20 percent of strokes occur in people with atrial 
fibrillation. Stroke is a leading cause of serious, long-term 
disability in the United States and people who have strokes caused by 
AF have been reported as 2-3 times more likely to be bedridden compared 
to those who have strokes from other causes. Each year about 700,000 
people experience a new or recurrent stroke and in 2002 stroke 
accounted for more than 1 of every 15 deaths in the United States.\2\
---------------------------------------------------------------------------
    \2\ American Stroke Association and American Heart Association, 
Heart Disease and Stroke Statistics--2005 Update, 2005 http://
www.americanheart.org/downloadable/heart/
1105390918119HDSStats2005Update.pdf.
---------------------------------------------------------------------------
    Ablation therapy has provided a cure for individuals whose rapid 
heart rates had previously incapacitated them, giving them a new lease 
on life. Important advances have been made in identifying patients with 
heart failure and those who had suffered a heart attack and are at risk 
for sudden death. The development and implantation of sophisticated 
internal cardioverter defibrillators (ICD) in such patients has saved 
the lives of hundreds of thousands and provided peace of mind for 
families everywhere, including that of Vice-President Cheney. A new 
generation of pacemakers and ICDs is restoring the beat of the heart as 
we grow older, permitting us to lead more normal lives. Many of these 
advances are due to the research sponsored by the NHLBI.

                          BUDGET JUSTIFICATION

    These impressive strides notwithstanding, cardiac arrhythmias 
continue to plague our society and take the lives of loved ones at all 
ages, nearly one every minute of every day. Sudden Cardiac Arrest is a 
leading cause of death in the United States, claiming an estimated 
325,000 lives every year, or one life every two minutes.\3\ The burden 
of morbidity and mortality due to cardiac arrhythmias is predicted to 
grow dramatically as the baby boomers age. Atrial fibrillation strikes 
3-5 percent of people over the age of 65,\4\ presenting a skyrocketing 
economic burden to our society in the form of healthcare treatment and 
delivery. As previously mentioned one in seven of all strokes are due 
to atrial fibrillation. It is estimated in 2005 that the direct and 
indirect cost of stroke will be $56.8 billion.\5\ Cardiac diseases of 
all forms increase with advancing age, ultimately leading to the 
development of arrhythmias.
---------------------------------------------------------------------------
    \3\ Heart Rhythm Foundation, The Facts on Sudden Cardiac Arrest, 
2004 http://www.heartrhythmfoundation.org/its_about_time/pdf/
provider_fact_sheet.pdf.
    \4\ Heart Rhythm Society, Atrial Fibrillation & Flutter, 2005 
http://www.hrspatients.org/patients/heart_disorders/
atrial_fibrillation/default.asp.
    \5\ American Stroke Association, Impact of Stroke, 2005 http://
www.strokeassociation.org/presenter.jhtml?identifier=1033.
---------------------------------------------------------------------------
    The above progress we have witnessed in recent years is gradually 
eroding as the resources available to the academic scientific and 
medical community are diminished. The budgets appropriated by Congress 
to the NIH in the past two years averaged 2.8 percent and were far 
below the level of scientific inflation. These vacillations in funding 
cycles threaten the continuity of the research and the momentum that 
has been gained over the years.
    It is for this reason that we are asking for your support to 
increase NIH appropriations by 6 percent for a fiscal year 2006 budget 
of $30 billion for NIH and $3.1 billion for NHLBI. The Heart Rhythm 
Society recommends Congress specifically acknowledge the need for 
cardiac arrhythmia research to prevent sudden cardiac arrest and other 
life threatening conditions such as sudden infant death syndrome, 
definitive therapeutic approaches for atrial fibrillation and the 
prevention of stroke, and other genetic arrhythmia conditions.
    Thank you very much for your consideration of our request. If you 
have any questions or need additional information, please contact Amy 
Melnick, Vice-President, Health Policy at the Heart Rhythm Society 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="02636f676e6c6b6169426a70716d6c6e6b6c672c6d7065">[email&#160;protected]</a> or 202-464-3434). Thank you again for the 
opportunity to submit testimony.
                                 ______
                                 
       Prepared Statement of the Hemophilia Federation of America

              SUMMARY OF FISCAL YEAR 2006 RECOMMENDATIONS

  --Continued support for the completion of Ricky Ray Hemophilia Relief 
        Fund ``half-cases''.
  --An additional $10 million for Hemophilia Treatment Centers through 
        the Maternal Child Health Bureau at the Health Resources and 
        Services Administration.
  --Continued support for the Centers for Disease Control and 
        Prevention's hemophilia grant program, including expansion of 
        the program to additional patient-based organizations within 
        the hemophilia community.
  --A 6 percent increase overall for the National Institutes of Health, 
        including a 6 percent increase for the National Heart, Lung, 
        and Blood Institute, and the National Institute for Allergy and 
        Infectious Diseases.

                              INTRODUCTION

    The Hemophilia Federation of America (HFA) is a national voluntary 
health organization that both assists and advocates for the blood 
clotting disorders community. The Federation was founded in 1994 and 
exists for the purpose of serving its constituents as an advocate for 
blood safety, best practices treatment for hemophilia, issues involving 
health insurance, and enhancing the quality of life for those who 
suffer with hemophilia and other blood clotting disorders. Our mission 
is to serve the needs of all families with coagulation disorders and 
mitigate the complications of treatment. Our vision at the Hemophilia 
Federation of America is that the blood clotting disorders community 
has removed all barriers to both choice of treatment and quality of 
life.
    The Hemophilia Federation of America provides a multitude of 
programs and services to the bleeding disorder community. These 
programs include the Emergency Room Triage Program, which educates 
emergency room physicians and support staff to the sensitivities of 
patients with hemophilia need in an ER medical setting. The Moms on a 
Mission and Dads in Action programs work to intimately educate parents 
of those with hemophilia to be active in the care of their child and 
understand the care that the disorder needs to lead a healthy, 
productive life. The Helping Hands Project assists struggling families 
of hemophilia patients with resources to meet their medical and living 
expenses, because of the high costs of hemophilia treatment. HFA is 
proud of the services our organization provides to the hemophilia 
community and encourages the community to take advantage of them.

                    RICKY RAY HEMOPHILIA RELIEF FUND

    Mr. Chairman, we are extremely grateful for your leadership last 
year in supporting efforts to finalize pending ``half-cases'' within 
the Ricky Ray Hemophilia Relief Fund.
    The closing of the Ricky Ray fund in November of 2003 marked the 
completion of the 5-year period that the federal government designated 
to provide compassionate payments to those in the hemophilia community 
who were infected with HIV/AIDS due to contaminated anti-hemophilia 
factor concentrates in the 1980s.
    In the closing days of the Fund, the program administrator 
contacted HFA to ask for our assistance in the completion of many 
unfinished cases. He brought to our attention 43 cases where the 
entitled family only received half of the compassionate payment, due to 
a parent's absence from a patient's life. The Ricky Ray Fund 
administrator asked the Federation to assist him in the adjudication of 
those cases that qualified for additional support. HFA would like to 
thank the subcommittee for its assistance in working with the community 
to provide the remaining payments and encourage you to continue this 
support until this process is completed.

      HEMOPHILIA TREATMENT CENTERS/HEALTH RESOURCES AND SERVICES 
                             ADMINISTRATION

    In 1974, Congress created a network of Hemophilia Treatment Centers 
(HTCs) throughout the United States. This treatment centers remain 
essential to ensuring that comprehensive and specialized care is 
available for persons with bleeding disorders. There are currently over 
130 HTCs in the United States. These centers abide by federal 
guidelines for the delivery of comprehensive hemophilia services as 
developed by the Maternal Child Health Bureau and the Centers for 
Disease Control and Prevention.
    Hemophilia Treatment Centers provide family centered, state of the 
art medical and psychosocial services, as well as education and 
research to persons with inherited bleeding disorders. The bleeding 
disorder community utilizes many services through the Hemophilia 
Treatment Centers. These services include diagnostic evaluations for 
hemophilia, von Willebrand disease and other bleeding disorders. They 
also include annual comprehensive evaluations, clinical trials on new 
blood clotting therapies, coordination with the individual's primary 
care physician, emergency consultations, hematological management for 
surgeries, dental procedures and childbirth. Hemophilia Treatment 
Centers educate patients and family members on infusion training, 
encourage collaboration with HTC clinicians throughout the United 
States, participate in CDC research, and collaboration with the 
hemophilia voluntary health community.
    For fiscal year 2006 HFA encourages the subcommittee to increase 
funding for HTC's at the Maternal and Child Health Bureau by $10 
million.

    HEMOPHILIA GRANT PROGRAM AT THE CENTERS FOR DISEASE CONTROL AND 
                               PREVENTION

    Mr. Chairman, HFA strongly supports the expansion of the Centers 
for Disease Control and Prevention's hemophilia grant program. This 
important initiative provides support for education and awareness 
activities regarding hemophilia, as well as disease management, blood 
safety, and surviellance projects.
    Given the important contributions that all voluntary organizations 
in the hemophilia community make to patients and families, we are 
recommending that steps be taken to ensure that additional 
organizations can participate in the hemophilia program on an annual 
basis. Based on the current structure of the grant program, only one 
organization is able to receive funds to support patients. In order to 
maximize the effectiveness of this important initiative, we believe 
that additional organizations should be empowered to participate in the 
CDC program on an annual basis. We encourage the subcommittee to 
support our efforts in this area in fiscal year 2006 bill.

                     NATIONAL INSTITUTES OF HEALTH

    HFA applauds the National Heart, Lung and Blood Institute and the 
National Institute of Allergy and Infectious Diseases for their support 
of hemophilia research. In addition, we are grateful to the 
subcommittee for recognizing the growing problem of women and bleeding 
disorders, which if left untreated, can lead to such dangerous medical 
conditions as anemia, unnecessary hysterectomies, and complications 
during menstruation.
    Patients and families in the hemophilia community are placing their 
hopes for a better quality of life on treatment advances made through 
biomedical research. For fiscal year 2006, we encourage the 
subcommittee to provide a 6 percent increase overall for NIH, and a 6 
percent increase for NHBLI and NIAID.
    Mr. Chairman, thank you for the opportunity to present the views of 
the Hemophilia Federation of America. If you have any questions, please 
do not hesitate to contact HFA's Washington Representative, Dale Dirks 
at (202) 544-7499.
                                 ______
                                 
      Prepared Statement of the Hepatitis Foundation International

              SUMMARY OF FISCAL YEAR 2006 RECOMMENDATIONS

  --Continue the great strides in research and prevention at the 
        National Institutes of Health (NIH) by providing a 6 percent 
        budget increase for fiscal year 2006. Increase funding for the 
        National Institute for Allergy and Infectious Diseases (NIAID), 
        the National Institute of Diabetes and Digestive and Kidney 
        Diseases (NIDDK), the National Institute on Alcohol Abuse and 
        Alcoholism (NIAAA), and the National Institute on Drug Abuse 
        (NIDA) by 6 percent.
  --$41 million in fiscal year 2006 for a hepatitis B vaccination 
        program for high risk adults at CDC as recommended by the 
        National Hepatitis C Prevention Strategy.
  --$40 million in fiscal year 2006 for CDC's Prevention Research 
        Centers.
  --Continued support of the National Viral Hepatitis Roundtable.
    Mr. Chairman and members of the subcommittee thank you for your 
continued leadership in promoting better research, prevention, and 
control of diseases affecting the health of our nation. I am Thelma 
King Thiel, Chairman and Chief Executive Officer of the Hepatitis 
Foundation International (HFI), representing members of 425 patient 
support groups across the nation, the majority of whom suffer from 
chronic viral hepatitis.
    Currently, five types of viral hepatitis have been identified, 
ranging from type A to type E. All of these viruses cause acute, or 
short-term, viral hepatitis. Hepatitis B, C, and D viruses can also 
cause chronic hepatitis, in which the infection is prolonged, sometimes 
lifelong. While treatment options are available for all types of 
hepatitis, individuals with chronic viral hepatitis (types B, C, and D) 
represent the majority of liver failure and transplant patients. 
Treatment options and immunizations are available for most types of 
hepatitis (see below). However, all types of viral hepatitis are 
preventable.

                              HEPATITIS A

    The hepatitis A virus (HAV) is contracted through fecal/oral 
contact (i.e. fecal contamination of food, or diaper changing tables if 
not cleaned properly), and sexual contact. In addition, eating raw or 
partially cooked shellfish contaminated with HAV can spread the virus. 
Children with HAV usually have no symptoms; however, adults may become 
quite ill suddenly experiencing jaundice, fatigue, nausea, vomiting, 
abdominal pain, dark urine/light stool, and fever. There is no 
treatment for HAV; however, recovery occurs over a 3 to 6 month period. 
About 1 in 1,000 with HAV suffer from a sudden and severe infection 
that may require a liver transplant. Luckily, a highly effective 
vaccine can prevent HAV. This vaccination is recommended for 
individuals who have chronic liver disease (i.e. HCV or HBV) or 
clotting factor disorders, in addition to those who travel or work in 
developing countries.

                              HEPATITIS B

    Hepatitis B (HBV) claims an estimated 5,000 lives every year in the 
United States, even though we have therapies to both prevent and treat 
this disease. This disease is spread through contact with the blood and 
body fluids of an infected individual. Unfortunately, due to both a 
lack in funding to vaccinate adults at high risk of being infected and 
the absence of an integrated preventive education strategy, 
transmission of hepatitis B continues to be problematic. Additionally, 
there are significant disparities in the occurrence of chronic HBV-
infections. Asian Americans represent four percent of the population; 
however, they account for over half of the 1.3 million chronic 
hepatitis B cases in the United States. Current treatments have limited 
success in treating the chronically infected and there is no treatment 
available for those who are considered ``HBV carriers''. Preventive 
education and vaccination are the best defense against hepatitis B.

                              HEPATITIS C

    Infection rates for hepatitis C (HCV) are at epidemic proportions. 
Unfortunately, as many are not aware of their infection until several 
years after infection, we are dealing with an ``epidemic of 
discovery''. This creates a vicious cycle, as individuals who are 
infected continue to spread the disease, unknowingly. Hepatitis C is 
also spread through contact with an infected individual's blood. The 
CDC estimates that there are over 4 million Americans who have been 
infected with hepatitis C, of which over 2.7 million remain chronically 
infected, with 8,000-10,000 deaths each year. Additionally, the death 
rate is expected to triple by 2010 unless additional steps are taken to 
improve outreach and education on the prevention of hepatitis C, new 
research is undertaken, and case-finding is enhanced and more effective 
treatments are developed. As there is no vaccine for HCV, prevention 
education and treatment of those who are infected serve as the most 
effective approach in halting the spread of this disease.

                         PREVENTION IS THE KEY

    Only a major investment in immunization and preventive education 
will bring these diseases under control. All newborns, young children, 
young adults, and especially those who participate in high-risk 
behaviors must be a priority for immunization, outreach initiatives and 
preventive education. We recommend that the following activities be 
undertaken to prevent the further spread of all types of hepatitis:
  --Provide effective preventive education in our elementary and 
        secondary schools helping children avoid the ravages of health 
        problems resulting from viral hepatitis infection.
  --Training educators, health care professionals, and substance abuse 
        counselors in effective communication and counseling 
        techniques.
  --Public awareness campaigns to alert individuals to assess their own 
        risk behaviors, motivate them to seek medical advice, encourage 
        immunization against hepatitis A and B, and to stop the 
        consumption of any alcohol if they have participated in risky 
        behaviors that may have exposed them to hepatitis C.
  --Expansion of screening, referral services, medical management, 
        counseling, and prevention education for individuals who have 
        HIV/AIDS, many of whom may be co-infected with hepatitis.
    HFI recommends an increase of $41 million in fiscal year 2006 for 
further implementation of CDC's Hepatitis C Prevention Strategy. This 
increase will support and expand the development of state-based 
prevention programs by increasing the number of state health 
departments with CDC funded hepatitis coordinators. The Strategy will 
use the most cost-effective way to implement demonstration projects 
evaluating how to integrate hepatitis C and hepatitis B prevention 
efforts into existing public health programs. Additionally, HFI 
recommends that $10 million be used to train and maintain hepatitis 
coordinators in every state.
    CDC's Prevention Research Centers, an extramural research program, 
plays a critical role in reducing the human and economic costs of 
disease. Currently, CDC funds 26 prevention research centers at schools 
of public health and schools of medicine across the country. HFI 
encourages the Subcommittee to increase core funding for these 
prevention centers, as it has been decreasing since this program was 
first funded in 1986. We recommend the Subcommittee provide $40 million 
for the Prevention Research Centers program in fiscal year 2005.

                        INVESTMENTS IN RESEARCH

    Investment in the National Institutes of Health (NIH) has led to an 
explosion of knowledge that has advanced understanding of the 
biological basis of disease and development of strategies for disease 
prevention, diagnosis, treatment, and cures. Countless medical advances 
have directly benefited the lives of all Americans. NIH-supported 
scientists remain our best hope for sustaining momentum in pursuit of 
scientific opportunities and new health challenges. For example, 
research into why some HCV infected individuals resolve their infection 
spontaneously may prove to be life saving information for others 
currently infected. Other areas that need to be addressed are:
  --Reasons why African Americans do not respond to antiviral agents in 
        the treatment of chronic hepatitis C.
  --Pediatric liver diseases, including viral hepatitis.
  --The outcomes and treatment of renal dialysis patients who are 
        infected with HCV.
  --Co-infections of HIV/HCV and HIV/HBV positive patients.
  --Hemophilia patients who are co-infected with HIV/HCV and HIV/HBV.
  --The development of effective treatment programs to prevent 
        recurrence of HCV infection following liver transplantation.
  --The development of effective vaccines to prevent HCV infection.
    The Hepatitis Foundation International supports a 6 percent 
increase for NIH in fiscal year 2006. HFI also recommends a comparable 
increase of 6 percent in hepatitis research funding at the National 
Institute of Diabetes and Digestive and Kidney Diseases and the 
National Institute of Allergy and Infectious Diseases.

                  NATIONAL VIRAL HEPATITIS ROUNDTABLE

    Victims of hepatitis suffer emotionally as well as physically. They 
experience discrimination in employment, strained personal 
relationships and severe depression when treatments fail to control 
their illness as well as during their treatment. Traditionally, 
however, there has not been an organized effort to periodically convene 
all stakeholder organizations that play a role in hepatitis prevention, 
education, treatment and patient advocacy. Successfully addressing 
viral hepatitis will require a comprehensive and strategic approach 
developed by all key stakeholders.
    In order to fill this void, HFI and CDC co-founded the ``National 
Viral Hepatitis Roundtable''. HFI believes that a National Viral 
Hepatitis Roundtable will enhance and assist CDC's viral hepatitis 
mission for the prevention, control, and elimination of hepatitis virus 
infections in the United States, as well as the international public 
health community. It will provide an infrastructure for the sharing of 
information and education of all stakeholders.
    The ``National Viral Hepatitis Roundtable'' is a coalition of 
public, private, and voluntary organizations dedicated to reducing the 
incidence of infection, morbidity, and mortality from viral hepatitis 
in the United States through research, strategic planning, 
coordination, advocacy, and leadership.
    HFI is dedicated to the eradication of viral hepatitis, which 
affects over 500 million people around the world. We seek to raise 
awareness of this enormous worldwide problem and to motivate people to 
support this important--and winnable--battle. Thank you for providing 
this opportunity to present our testimony.

                 THE HEPATITIS FOUNDATION INTERNATIONAL

    The Hepatitis Foundation International (HFI) is dedicated to the 
eradication of viral hepatitis, a disease affecting over 500 million 
people around the world. We seek to raise awareness of this enormous 
worldwide problem and to motivate people to support this important--and 
winnable--battle.
    Our mission has four distinct parts:
  --Teach the public and hepatitis patients how to prevent, diagnose, 
        and treat viral hepatitis.
  --Prevent viral hepatitis by promoting liver wellness and healthful 
        lifestyles.
  --Serve as advocates for hepatitis patients and the related medical 
        community worldwide.
  --Support research into prevention, treatment, and cures for viral 
        hepatitis.
                                 ______
                                 
   Prepared Statement of the International Foundation for Functional 
                       Gastrointestinal Disorders

              SUMMARY OF FISCAL YEAR 2006 RECOMMENDATIONS

  --Provide a 6 percent increase for fiscal year 2006 to the National 
        Institutes of Health (NIH) budget. Within NIH, provide 
        proportional increases of 6 percent to the various institutes 
        and centers, specifically, the National Institute of Diabetes 
        and Digestive and Kidney Diseases (NIDDK).
  --Continue to accelerate funding for extramural clinical and basic 
        functional gastrointestinal research at NIDDK.
  --Continue to urge NIDDK to develop a strategic plan setting research 
        goals on IBS and functional bowel diseases and disorders.
  --Urge NIDDK to develop a standardization of scales to measure 
        incontinence severity and quality of life and to develop 
        strategies for primary prevention of fecal incontinence 
        associated with childbirth.
  --Provide funding to NIDDK and the National Cancer Institute (NCI) 
        for more research on the causes of esophageal cancer.
    Chairman Specter and members of the Subcommittee, thank you for the 
opportunity to present this written statement regarding the importance 
of functional gastrointestinal and motility research.
    IFFGD has been serving the digestive disease community for fourteen 
years. We work to broaden the understanding about functional 
gastrointestinal and motility disorders in adults and children.
    IFFGD speaks about and raises awareness on disorders and diseases 
that many people are uncomfortable and embarrassed to talk about. The 
prevalence of fecal incontinence and irritable bowel syndrome, as well 
as a host of other gastrointestinal disorders affecting both adults and 
children, is underestimated in the United States. These conditions are 
truly hidden in our society. Not only are they misunderstood, but the 
burden of illness and human toll has not been fully recognized.
    Given that we have been diligently working for the past thirteen 
years, it is an exciting time to work for IFFGD, not only are we 
serving more and more people, but we are beginning to be able to 
privately fund research. Our first research awards were made on April 
6, 2003.
    Since its establishment, the IFFGD has been dedicated to increasing 
awareness of functional gastrointestinal disorders and motility 
disorders, among the public, health professionals, and researchers. In 
November of 2002, we hosted a conference on fecal and urinary 
incontinence, the proceedings of which were published in 
Gastroenterology, the Official Journal of the American 
Gastroenterological Association. During the first week of April 2003 we 
also hosted the Fifth International Symposium on Functional 
Gastrointestinal Disorders, which was a great success in bringing 
scientists from across the world together to discuss the current 
science and opportunities on irritable bowel syndrome and other 
functional gastrointestinal and motility disorders. The IFFGD has 
become known for our professional symposia. We consistently bring 
together a unique group of international multidisciplinary 
investigators to communicate new knowledge in the field of 
gastroenterology. In 1 week, we will be holding the Sixth International 
Symposium on Functional Gastrointestinal Disorders.
    The majority of the diseases and disorders we address have no cure. 
We have yet to understand the pathophysiology of the underlying 
conditions. Patients face a life of learning to manage chronic illness 
that is accompanied by pain and an unrelenting myriad of 
gastrointestinal symptoms. The costs associated with these diseases are 
enormous, conservative estimates range between $25-$30 billion 
annually. The human toll is not only on the individual but also on the 
family. Economic costs spill over into the workplace. In essence these 
diseases reflect lost potential for the individual and society. The 
IFFGD is a resource and provides hope for hundreds of thousands of 
people as they try to regain as normal a life as possible.

                           FECAL INCONTINENCE

    At least 6.5 million Americans suffer from fecal incontinence. 
Incontinence is neither part of the aging process nor is it something 
that affects only the elderly. Incontinence crosses all age groups from 
children to older adults, but is more common among women and in the 
elderly of both sexes. Often it is a symptom associated with various 
neurological diseases and many cancer treatments. Yet, as a society, we 
rarely hear or talk about the bowel disorders associated with multiple 
sclerosis, diabetes, colon cancer, uterine cancer, and a host of other 
diseases.
    Damage to the anal sphincter muscles; damage to the nerves of the 
anal sphincter muscles or the rectum; loss of storage capacity in the 
rectum; diarrhea; or pelvic floor dysfunction can cause fecal 
incontinence. People who have fecal incontinence may feel ashamed, 
embarrassed, or humiliated. Some don't want to leave the house out of 
fear they might have an accident in public. Most try to hide the 
problem as long as possible, so they withdraw from friends and family. 
The social isolation is unfortunate but may be reduced because 
treatment can improve bowel control and make incontinence easier to 
manage.
    In November 2002, the International Foundation for Functional 
Gastrointestinal Disorders (IFFGD) sponsored a consensus conference--
``Advancing the Treatment of Fecal and Urinary Incontinence Through 
Research: Trial Design, Outcome Measures, and Research Priorities.'' 
Among other outcomes, the conference resulted in six key research 
recommendations:
    1. More comprehensive identification of quality of life issues 
associated with fecal incontinence and improved assessment and 
communication of treatment outcomes related to quality of life.
    2. Standardization of scales to measure incontinence severity and 
quality of life.
    3. Assessment of the utility of diagnostic tests for affecting 
management strategies and treatment outcomes.
    4. Development of new drug compounds offering new treatment 
approaches to fecal incontinence.
    5. Development and testing of strategies for primary prevention of 
fecal incontinence associated with childbirth.
    6. Further understanding of the process of stigmatization as it 
applies to the experience of individuals with fecal incontinence.

                     IRRITABLE BOWEL SYNDROME (IBS)

    Irritable Bowel Syndrome affects approximately 30 million 
Americans. This chronic disease is characterized by a group of 
symptoms, which can include abdominal pain or discomfort associated 
with a change in bowel pattern, such as loose or more frequent bowel 
movements, diarrhea, and/or constipation. Although the cause of IBS is 
unknown, we do know that this disease needs a multidisciplinary 
approach in research and treatment.
    Similar to fecal incontinence and depending on severity, IBS can be 
emotionally and physically debilitating. Because of persistent bowel 
irregularity, individuals who suffer from this disorder may distance 
themselves from social events, work, and even may fear leaving their 
home.
    In the House and Senate fiscal year 2003, 2004, and 2005 Labor, 
Health and Human Services, and Education Appropriations bills, Congress 
recommended that the National Institute of Diabetes and Digestive and 
Kidney Diseases (NIDDK) develop an IBS strategic plan. The development 
of a strategic plan on IBS would greatly increase the institute's 
progress toward the needed research on this functional gastrointestinal 
disorder.

                 GASTROESOPHAGEAL REFLUX DISEASE (GERD)

    Gastroesophageal reflux disease, or GERD, is a very common disorder 
affecting both adults and children, which results from the back-flow of 
acidic stomach contents into the esophagus. GERD is often accompanied 
by persistent symptoms, such as chronic heartburn and regurgitation of 
acid. But sometimes there are no apparent symptoms, and the presence of 
GERD is revealed when complications become evident. Symptoms of GERD 
vary from person to person. The majority of people with GERD have mild 
symptoms, with no visible evidence of tissue damage and little risk of 
developing complications. Periodic heartburn is a symptom that many 
people experience. There are several treatment options available for 
individuals suffering from GERD.
    Gastroesophageal reflux (GER) affects as many as one third of all 
full term infants born in America each year. GER results from an 
immature upper gastrointestinal motor development. The prevalence of 
GER is increased in premature infants. Many infants require medical 
therapy in order for their symptoms to be controlled. Up to 25 percent 
of older children and adolescents will have GER or GERD due to lower 
esophageal sphincter dysfunction. In this population, the natural 
history of GER is similar to that of adult patients, in whom GER tends 
to be persistent and may require long-term treatment.

                           ESOPHAGEAL CANCER

    Approximately 13,000 new cases of esophageal cancer are diagnosed 
every year in this country. Although the causes of this cancer are 
unknown, it is thought that this cancer may be more prevalent in 
individuals who develop Barrett's esophagus. Diagnosis usually occurs 
when the disease is in an advanced stage, early screening tools are 
currently unavailable.

              CHILDHOOD DEFECATION DISORDERS AND DISEASES

    Chronic Intestinal Pseudo-Obstruction (CIP).--About 200 new cases 
of CIP are diagnosed in American Children each year. Often life 
threatening, the future for children severely affected with CIP is 
brightened by the evolving promise of cure with intestinal or multi-
organ transplantation.
    Hirschsprung's disease.--A serious childhood and sometimes life-
threatening condition that can cause constipation, occurs only once in 
every 5,000 American children born each year. Approximately 20 percent 
of children with HD will continue to have complications following 
surgery. These complications include infection and/or fecal 
incontinence.
    Functional constipation.--Millions of children (1 in every 10) each 
year will be diagnosed with functional constipation. In fact, it is the 
chief complaint of 3 percent of pediatric outpatient visits and 10-25 
percent of pediatric gastroenterology visits.

  FUNCTIONAL GASTROINTESTINAL AND MOTILITY DISORDERS AND THE NATIONAL 
                          INSTITUTES OF HEALTH

    The International Foundation for Functional Gastrointestinal 
Disorders recommends an increase of 6 percent or 1.7 billion for NIH 
overall, and a 6 percent increase for NIDDK. However, we request that 
this increase for NIH does not come at the expense of other Public 
Health Service agencies.
    We urge the subcommittee to provide the necessary funding for the 
expansion of the NIDDK's research program on functional 
gastrointestinal (FGI) and motility disorders, this increased funding 
will allow for the growth of new research, a prevalence study and a 
strategic plan on IBS, and increased public and professional awareness 
of FGI and motility disorders.
    A primary tenant of IFFGD's mission is to ensure that clinical 
advancements concerning GI disorders result in improvements in the 
quality of life of those affected. By working together, this goal will 
be realized and the suffering and pain millions of people face daily 
will end.
    Thank you.

The International Foundation for Functional Gastrointestinal Disorders
    The International Foundation for Functional Gastrointestinal 
Disorders is a nonprofit education and research organization founded in 
1991. IFFGD addresses the issues surrounding life with gastrointestinal 
(GI) functional and motility disorders and increases the awareness 
about these disorders among the general public, researchers, and the 
clinical care community.
                                 ______
                                 
         Prepared Statement of the Lymphoma Research Foundation

    I am Melanie Smith, Director of Public Policy and Advocacy for the 
Lymphoma Research Foundation (LRF). LRF appreciates the opportunity to 
submit this statement to the record of the Labor, Health and Human 
Services and Education Appropriations Subcommittee. The LRF is the 
nation's largest lymphoma-focused voluntary health organization devoted 
exclusively to funding lymphoma research and providing patients and 
healthcare professionals with critical information on the disease. Our 
ultimate goal is to find a cure for all forms of lymphoma. To that end, 
we fund some of the world's leading lymphoma researchers at outstanding 
academic institutions. These researchers are engaged in research aimed 
at understanding the basic mechanisms of lymphoma and improving the 
current treatments for the disease. LRF also aims to equip those who 
are diagnosed with lymphoma with up-to-date information about treatment 
options. The organization sponsors educational conferences at which the 
leaders in lymphoma research and treatment address patients and 
families regarding cutting edge research and the most recent 
developments in therapies.

                         BACKGROUND ON LYMPHOMA

    Lymphoma is a major health problem. It is the most common form of 
blood cancer and the third most common form of childhood cancer. In 
2005, approximately 56,390 cases of non-Hodgkin's lymphoma (NHL) will 
be diagnosed in this country, and more than 19,000 Americans will die 
from NHL. Also this year, 7,350 cases of Hodgkin's lymphoma will be 
diagnosed, and more than 1,400 Americans will die from the disease. 
Nearly 500,000 Americans are living with lymphoma.
    In recent years, there have been exciting reports regarding the 
improvements in treatments for a number of forms of cancer, as well as 
reports that the incidence of cancer overall is declining. Regrettably, 
NHL stands in contrast to the general trends in cancer incidence, and 
the treatment options for NHL remain inadequate. Since the early 1970s, 
incidence rates for NHL have nearly doubled, although incidence rates 
have stabilized the last few years. And the 5-year survival rate for 
NHL stands at 59 percent. These are not satisfactory numbers, and they 
serve as measures of the work we still have to do.

                          RESEARCH ON LYMPHOMA

    We have learned a great deal about the genetic, molecular, and 
cellular basis of cancer. We do not know the cause of most lymphomas, 
but there is increasing information to suggest a link between 
environmental factors and infections and the development of many 
lymphomas. The environmental factors may include chemicals, toxins, 
drugs, infectious agents, such as hepatitis C and Epstein Barr virus, 
and the gastric pathogen Helicobacter pylori. There is strong evidence 
that in some individuals, immune dysfunction is a critical factor in 
the development of lymphoma.
    Our knowledge of cancer has improved significantly in the last 
decade, in large part due to the strong commitment of Congress to the 
National Institutes of Health (NIH) and its willingness to boost NIH 
funding. These funds have supported strong basic and clinical 
researchers who are focused on unlocking the secrets to cancer. There 
is a need to sustain that commitment to NIH, in order to equip 
scientists engaged in basic research and facilitate the translation of 
basic research findings into new treatments. This is certainly true in 
the case of lymphoma. There is a need to clarify the interactions among 
the environmental, viral, and immunogenetic factors that contribute to 
development of lymphoma and to ensure the development of new treatments 
based on our enhanced understanding of lymphoma.
    Over the last decade several new lymphoma treatments have been 
developed, expanding the options for those who are diagnosed with the 
disease. Lymphoma patients and researchers have clearly benefited from 
the nation's significant investment in research, and Congress deserves 
the appreciation of the community of lymphoma patients and researchers. 
Among the lymphoma treatments approved in the last decade are a 
monoclonal antibody and two different radioimmunotherapies. While we 
applaud the new treatments of the last decade, they are not magic 
bullets. For many, lymphoma remains a fatal disease.
    New therapies that capitalize on different research approaches are 
currently under investigation. These include therapeutic vaccines, 
immunotherapies, proteasome inhibitors, and examination of the 
microenvironment of lymphomas. Other work is focused on refining the 
chemotherapy regimens and developing treatment regimens with lower 
toxicities. All of this work deserves the support of private and public 
research funders.

                    ROLE OF NIH IN LYMPHOMA RESEARCH

    Although LRF plays a critical and creative role in funding lymphoma 
research, NIH is, and will remain, the key player in this field. NIH is 
the pivotal player not only because of the magnitude of its financial 
commitment to lymphoma research, but also because of the role it can 
play in bringing together all of the partners in the research 
community--NIH intramural researchers, academic researchers, private 
foundations, industry, and the Food and Drug Administration (FDA).
    NIH is also in the best position to encourage, facilitate, and fund 
the translation of basic research findings into new treatments. It is 
absolutely critical that we not lose the research momentum that has 
been the result, in significant part, because of the doubling of the 
NIH budget between fiscal year 1999 and fiscal year 2003. We recognize 
that funding for NIH will not be increased as rapidly in the near 
future as it was from fiscal year 1999 to fiscal year 2003, but we urge 
Congress to protect the investment in NIH research and to realize that 
a rapid deceleration in research funding threatens the past investment.
    LRF recommends that Congress urge NIH to direct special attention 
to translational and clinical research. LRF proposes that NIH 
strengthen its lymphoma research program by several actions:
  --The National Cancer Institute (NCI) should boost its support for 
        translational and clinical lymphoma research. NCI should 
        evaluate its current investment in clinical research and expand 
        or initiate programs to strengthen the clinical research 
        effort.
  --NCI should also increase its support for correlative studies of 
        tumor biology and treatment response, as well as its investment 
        in research on the late and long-term effects of current 
        lymphoma treatments.
  --NCI should strengthen its research effort focused on understanding 
        the complex interaction among environmental, viral and 
        immunogenetic factors that are involved in the initiation and 
        promotion of lymphoma.
  --Although NCI has historically been the lead institute in funding 
        lymphoma research, other institutes--the National Heart, Lung, 
        and Blood Institute (NHLBI), the National Institute on Aging 
        (NIA), and the National Institute of Environmental Health 
        Sciences (NIEHS)--should also evaluate and improve their 
        lymphoma research programs. A lymphoma-focused program to 
        investigate environmental/viral links is warranted.
    A strong partnership among voluntary health agencies like LRF, 
academic researchers, industry, and NIH will be optimal for advancing 
lymphoma research and improving the outlook for those who are diagnosed 
with the disease. New strategies are necessary for the rapid 
translation of basic research findings into new treatments. These 
strategies may include systems for funding collaborative research 
projects that engage researchers in multiple institutions and multiple 
disciplines, including academic researchers and industry. Private 
foundations are looking at creative means to ensure that their research 
dollars are optimized, and we encourage NIH to employ the same creative 
and flexible approaches.

ROLE OF THE CENTERS FOR DISEASE CONTROL AND PREVENTION IN BLOOD CANCER 
                               EDUCATION

    LRF is actively engaged in providing patients and their families 
and caregivers complete and up-to-date information about lymphoma, 
lymphoma research, and lymphoma treatment options. Because of our 
strong history in this area, we were gratified when Congress authorized 
and funded a program at the Centers for Disease Control and Prevention 
(CDC) for public and patient education on blood cancers. LRF was one of 
nine organizations that received grants, funded by fiscal year 2004 
appropriations, for public and patient education regarding the blood 
cancers. The benefits of our federally funded program, Lymphoma 
Awareness for Multicultural Populations (LAMP), which includes outreach 
to underserved communities, are already being realized.
    Congress was also generous in providing funding for this program in 
fiscal year 2005, an action that will allow the organizations to 
continue their programs and conduct full evaluations of their 
strategies for outreach and education. We urge Congress to provide a 
third year of funding, because the programs are being operated on a 3-
year cycle. Their full potential will be realized only if they run for 
the full 3-year anticipated cycle.
    LRF believes that strong partnerships will be a key feature of 
efforts to improve lymphoma treatments and provide lymphoma patients 
current information about their disease and treatment options. We 
encourage NCI to fund collaborative research ventures, and we urge CDC 
to continue its support of those private organizations that have years 
of experience in patient education. Those who receive a diagnosis of 
lymphoma face difficult choices, and we must work together to improve 
their options and their lives.
                                 ______
                                 
               Prepared Statement of Mended Hearts, Inc.

    I am Robert H. Gelenter, a volunteer for the Mended Hearts, Inc., a 
national heart disease patient support group with more than 289 
chapters across the United States and in Canada. We visit patients in 
approximately 460 hospitals throughout the United States. I have been 
appointed by the group to assist in this lobbying effort--a volunteer 
position.
    More than 29 years ago, I was diagnosed with a rare heart disease. 
After having severe chest pains and trouble breathing for more than two 
years, I was diagnosed with hypertrophic cardiomyopathy (HCM), a 
disease in which the heart enlarges. The heart muscle eventually 
thickens so much that it can't pump blood effectively. The heart muscle 
does not grow in the normal parallel patterns. Rather it grows in a 
haphazard manner. It affects men and women of all ages. When you read 
of a young athlete who has dropped dead on an athletic field the odds 
are very good that he or she had HCM. HCM is one of the leading causes 
of sudden cardiac death. There is no cure for this disease.
    Medication may work and there is a surgical procedure that may 
alleviate the pain. If that doesn't work a patient may need a heart 
transplant, yet spare organs are scarce. The doctor who made my 
diagnosis was trained at the National Heart, Lung, and Blood Institute 
of the National Institutes of Health.
    Initially, I received several medications, which allowed me to 
engage in most activities. But, some activities, such as walking up 
hills, caused severe shortness of breath and severe chest pains. But, 
generally I could function normally. However, after about 11 years, the 
discomfort was increasing, and it became apparent that I was in serious 
trouble. I could not walk 60 feet without having to stop to catch my 
breath. Sometimes the pain was so great that I would almost double over 
in the middle of the street. My wife told me that my face would become 
gray. The perspiration would pour off my body. If I was lucky I could 
find a chair to sit on. The quality of my life had deteriorated so 
drastically that I knew I needed some treatment.
    In 1988, I went to Georgetown University Medical Center for an 
angiogram--the gold standard for diagnosing heart problems. The 
cardiologist who performed the angiogram told me that he had bad news 
and worse news. The bad news was that I had a 95 percent blockage in my 
left anterior descending heart artery--the so-called ``widow makers 
spot.'' The worse news was that I had a major chance of having a severe 
heart attack with a less than a 5 percent chance of surviving that 
heart attack because of the hypertrophic cardiomyopathy. At this point, 
my wife was quietly crying and I was perspiring profusely. Since 
Georgetown University Medical Center did not have the expertise to 
operate on me, they called the NIH to see if they would accept me as a 
patient. I was sent home pending notice from the NIH.
    The NIH accepted me. After entering the National Heart, Lung, and 
Blood Institute on February 6, I was operated on February 11, 1988. No 
matter how trite the expression--that was the first day of the rest of 
my life. The surgery, considered drastic and rare as it is, is still 
the gold standard throughout the world for the treatment of 
hypertrophic cardiomyopathy. The Murrow Procedure, in honor of the 
innovator, was developed and improved at the NIH.
    Although this surgery is no longer performed at the National Heart, 
Lung, and Blood Institute, there is another experimental ongoing 
protocol in which the same effect is being attempted by using alcohol 
to deaden the excessive heart tissue.
    I am on medication for the rest of my life. My condition is 
progressive. Ten years ago, I was fitted with a pacemaker to insure 
that my heart beats at the correct rate. I am 100 percent dependent on 
this pacemaker. Without the pacemaker, there are times when my normal 
heart beat is so slow that I would die.
    I am eternally grateful to the physicians funded by the National 
Heart, Lung, and Blood Institute, particularly to Dr. MacIntosh and his 
staff, for the gift of life. Because of this marvelous research 
supported by the NHLBI, I have lived 17 years pain free. I have seen 
two children graduate from college and three grandchildren born, I have 
shared these years with a wonderful wife. I have been able to work at 
my profession--attorney at law.
    I have had the gift of life restored to me. To express my gratitude 
for that gift, I visit patients recovering from heart episodes at two 
hospitals, Washington Hospital Center and Washington Adventist 
Hospital.
    If this tale of woe is not enough about 2\1/2\ years ago, I 
suddenly began to have mini strokes. I experienced four episodes within 
7 months. The last episode was just a year ago. Medication now seems to 
have the incidents under control.
    I respectfully ask for the fiscal year 2006 appropriation in the 
following amounts:
  --NIH $30 billion, including $2.3 billion for heart research and $341 
        million for stroke;
  --NHLBI $3.1, including $1.9 billion for heart and stroke-related 
        research; and
  --NINDS $1.6 billion, including $183 million for stroke research.
    My experience is proof that the research supported by the National 
Heart, Lung, and Blood Institute and the National Institute for 
Neurological Disorders and Stroke benefits not just the patients at the 
NIH Clinical Center, but throughout the United States. The benefits go 
worldwide as well.
    Heart attack, stroke and other cardiovascular diseases remain the 
No. 1 killer and major cause of disability of men and women in the 
United States. Nearly 40 percent of people who die in the United States 
die from cardiovascular diseases. Last year, nearly 930,000 Americans 
died from cardiovascular diseases, including more than 150,000 under 
the age of 65.
    Thank you for your support of National Heart, Lung, and Blood 
Institute's heart research and the National Institute for Neurological 
Disorders and Stroke's stroke research.
                                 ______
                                 
   Prepared Statement of the March of Dimes Birth Defects Foundation

    The 3 million volunteers and 1,400 staff members of the March of 
Dimes appreciate the opportunity to submit the Foundation's federal 
funding recommendations for fiscal year 2006. The March of Dimes is a 
national voluntary health agency founded in 1938 by President Franklin 
D. Roosevelt to prevent polio. Today, the Foundation works to improve 
the health of mothers, infants, and children by preventing birth 
defects and infant mortality through research, community services, 
education, and advocacy. The March of Dimes is a unique partnership of 
scientists, clinicians, parents, members of the business community, and 
other volunteers affiliated with 52 chapters in every state, the 
District of Columbia and Puerto Rico.
    The volunteers and staff of the March of Dimes are deeply concerned 
that the funding recommendations and levels in the President's Budget 
and congressional Budget Resolutions will not be sufficient to support 
biomedical research and services needed to improve the health of 
children and families. For instance, the infant mortality rate 
increased in 2002 for the first time since 1958. Increases in deaths 
due to premature birth, birth defects, and maternal complications 
during pregnancy account for most of the increase. In our judgment, the 
funding increases recommended below are fully justified and would have 
an immediate positive impact on this disturbing trend and thereby lead 
to an overall improvement in the health of the nation's children.

                     NATIONAL INSTITUTES OF HEALTH

    The March of Dimes joins the larger research community in 
recommending a 6 percent increase in funding for the National 
Institutes of Health (NIH), bringing total federal support to just over 
$30 billion. The Administration's fiscal year 2006 budget proposal is 
insufficient to keep up with inflation and certainly will not sustain 
the necessary investment in medical research.

National Institute for Child Health and Human Development
    The mission of the National Institute for Child Health and Human 
Development (NICHD) is closely aligned with that of the March of Dimes. 
According to the National Center for Health Statistics (NCHS), in 2002, 
more than 480,000 babies were born prematurely in the United States--1 
in 8 births. Premature birth accounts for nearly 24 percent of deaths 
in the first month of life. Those babies that survive are more likely 
than full-term infants to face serious multiple health problems 
including cerebral palsy, mental retardation, chronic lung disease, and 
vision and hearing loss. Preterm labor can happen to any pregnant woman 
and the causes of nearly half of all preterm births are unknown.
    The NICHD has made a major commitment to understanding and 
preventing premature birth but additional funding is desperately 
needed. The March of Dimes recommends a 10 percent increase for NICHD 
in fiscal year 2006 and an increase of at least $100 million over the 
next five years to boost prematurity-related research. This increase 
should be devoted to a comprehensive biomedical research program to 
study preterm delivery etiology, prevention, and treatment regimens.
    Last year, the NCHS reported the first increase in the U.S. infant 
mortality rate since 1958 and 61 percent of this increase was due to an 
increase in the birth of premature and low birth weight babies. An 
analysis of Agency for Healthcare Research and Quality data conducted 
by the March of Dimes Perinatal Data Center estimated that the total 
national hospital bill for premature babies was $15.5 billion in 2002. 
The financial burden of prematurity is expected to continue to worsen 
until prevention of preterm births is better understood and clinical 
interventions are developed.
    The NICHD began a major new initiative involving genomic and 
proteomic research into the causes of premature birth in an effort to 
accelerate knowledge in the mechanisms responsible for premature birth. 
The RFA soliciting proposals for the establishment of a collaborative 
network for premature birth research was issued in June 2004. The NICHD 
received an excellent response to this RFA and had anticipated the 
start of this initiative in early 2005. The March of Dimes is very 
disturbed that the start of this crucial initiative has now been 
delayed because of insufficient funding.
     Unfortunately, even a 10 percent increase in funding would not be 
enough to enable NICHD to begin implementing the National Children's 
Study (NCS) of environmental and genetic influences on child health and 
development. The goal of the NCS is to pinpoint causes and find 
prevention and treatment strategies for many of today's childhood 
diseases and disorders. The planning of the study is largely complete 
and the study is ready to be piloted. On November 16, 2004, the Request 
for Proposals for the first NCS study sites and the data-coordinating 
center were published. But beyond the pilot sites, the future of this 
important study is uncertain without additional funding. The cost of 
this study is dwarfed by the $269 billion annual cost of treating the 
diseases and conditions it is designed to address, including preterm 
birth, according to NICHD estimates. If study findings were to result 
in only a 1 percent reduction in those costs, the expense of the entire 
study could be recovered in a single year. The March of Dimes believes 
it would be shortsighted to put off this study.

            CENTERS FOR DISEASE CONTROL AND PREVENTION (CDC)

Division of Reproductive Health
    The National Center for Chronic Disease Prevention and Health 
Promotion, Division of Reproductive Health works to promote optimal 
reproductive and infant health, but does not have the resources it 
requires to study the growing problem of preterm birth. Therefore, the 
March of Dimes recommends a $20 million increase in fiscal year 2006 to 
expand research related to preterm birth. Worsening rates of preterm 
birth require an expanded, comprehensive prevention research agenda to 
identify the causes, risk factors, and to find clinical interventions 
that are effective in preventing preterm labor. In particular, two 
specific programs should receive additional funding: (1) the Pregnancy 
Risk Assessment Monitoring System and (2) epidemiological research.
    The Pregnancy Risk Assessment Monitoring System (PRAMS) is a state-
specific, population based surveillance system designed to identify and 
monitor maternal behaviors and experiences before, during, and after 
pregnancy. Currently, CDC supports cooperative agreements with 29 
states and New York City through which PRAMS monitors approximately 62 
percent of all U.S. births. Data collected through PRAMS is used by 
researchers and policy makers to increase understanding of adverse 
pregnancy outcomes, to develop maternal and child health programs, and 
to incorporate the most up to date research findings into standards of 
practice. The March of Dimes recommends an increase of $5 million to 
expand PRAMS so that CDC can develop better national estimates on 
behavioral as well as demographic risk factors for preterm birth.
    Epidemiological research conducted at CDC is vital to reducing the 
incidence of preterm birth. The March of Dimes recommends an increase 
of $15 million to expand research on the prevention of preterm delivery 
for women at risk, focusing especially on factors contributing to 
higher rates of preterm delivery among African-American women. 
Increasing CDC's activities related to identifying the causes of 
preterm birth would improve early detection of women at risk for 
preterm labor and lead to new interventions for those at greatest risk.
National Center on Birth Defects and Developmental Disabilities
    Created by the Children's Health Act of 2000 (Public Law 106-310), 
the National Center on Birth Defects and Developmental Disabilities 
(NCBDDD) conducts programs to protect and improve the health of 
children and adults by preventing birth defects and developmental 
disabilities; promoting optimal child development and health and 
wellness among children and adults with disabilities. The March of 
Dimes recommends at least $135 million in fiscal year 2006 funding for 
the NCBDDD.
    Of particular interest to the March of Dimes is the NCBDDD's 
comprehensive birth defects program that includes surveillance, 
research and prevention activities. Of the four million babies born 
each year in the United States, 3 percent are born with one or more 
birth defects. Birth defects are the leading cause of infant mortality, 
accounting for more than 20 percent of all infant deaths. Children with 
birth defects who survive often experience lifelong physical and mental 
disabilities. In fact, birth defects contribute substantially to the 
nation's health care costs. According to CDC, the medical treatments 
and supportive services for the 17 most common birth defects exceed $8 
billion annually. A modest increase of $6 million in funding for 
surveillance, research and prevention activities is a vital step to 
making progress in reducing the incidence of birth defects.
    NCBDDD provides funding to states to develop, implement, and/or 
expand community-based birth defects surveillance systems, programs to 
prevent birth defects, and activities to improve access to health 
services for children with birth defects. Surveillance is vitally 
important for the early detection of new birth defects, for discovering 
the causes of birth defects and for evaluating the effectiveness of 
prevention programs. Due to lack of funds, CDC will only fund 15 states 
in fiscal year 2005, down from 28 states in fiscal year 2004. 
Additional resources are needed to fund all states seeking CDC 
assistance and increase assistance to states already receiving funds.
    The National Birth Defects Prevention Study is the largest case-
control study of birth defects ever conducted. This CDC-funded study is 
being carried out by 9 regional Centers for Birth Defects Research and 
Prevention located in Arkansas, California, Georgia, Iowa, 
Massachusetts, New York, North Carolina, Texas, and Utah. These centers 
obtain data and identify cases for inclusion in the study and conduct 
epidemiological research on birth defects. With adequate funding, this 
study has the potential to dramatically increase understanding of the 
causes of birth defects and is already providing information for 
improvement of programs to prevent birth defects. The causes of nearly 
70 percent of birth defects are still unknown.
    The centers study possible genetic and environmental causes, the 
use of certain medications during pregnancy, maternal diet, and vitamin 
use. This study provides the nation a continuing source of information 
on potential causes of birth defects. For example, in response to a 
scientific study showing a possible association between the drug 
loratadine, also sold under the brand name Claritin, and the 
occurrence of the birth defect hypospadias the National Birth Defects 
Prevention Study conducted a review that showed no association. This 
information is useful to physicians as well as women who take 
loratadine and become pregnant.
    The NCBDDD also is conducting a national public and health 
professions education campaign designed to increase the number of women 
taking folic acid. CDC estimates that up to 70 percent of neural tube 
defects (NTDs), serious birth defects of the brain and spinal cord 
including anencephaly and spina bifida, could be prevented if all women 
of childbearing age consume 400 micrograms of folic acid daily, 
beginning before pregnancy. Since fortification of U.S. enriched grain 
products with folic acid, the rate of NTDs in the United States has 
decreased by 26 percent. It is critical that CDC increase its campaign 
efforts to educate every woman of childbearing age and their providers 
about the importance of folic acid to further reduce the rates. 
Therefore, the March of Dimes recommends an appropriation of at least 
$4 million in fiscal year 2006 for the Folic Acid Education Campaign.

                        ADDITIONAL CDC PROGRAMS

National Immunization Program
    If we are to meet the Healthy People 2010 goals of vaccinating 90 
percent of children and adults, CDC, states and localities will need 
sufficient resources to ensure that those in need of immunizations 
receive them. Annually, 4 million children should be immunized against 
12 preventable diseases before the age of two. Yet, nearly 25 percent 
of two-year-olds have not received all of the recommended vaccine 
doses. CDC's National Immunization Program provides grants to 64 state, 
local, and territorial public health agencies to reduce the incidence 
of disability and death resulting from vaccine preventable diseases. To 
move the nation closer to the goal of vaccinating at least 90 percent 
of children and adults, the March of Dimes urges the Subcommittee to 
continue its longstanding policy of ensuring that federal vaccine 
programs are adequately funded. For fiscal year 2006, the March of 
Dimes recommends an overall increase of $232 million in order to ensure 
that the National Immunization Program has the resources it needs to 
account for vaccine price increases, introduction of new vaccines, and 
to facilitate implementation of recommendations developed by the 
Institute of Medicine.

Polio Eradication
    April 12, 2005 marks the 50th anniversary of the declaration that 
the poliovirus vaccine developed by Dr. Jonas Salk was safe and 
effective. The March of Dimes, formerly known as the National 
Foundation for Infantile Paralysis, funded Dr. Salk's groundbreaking 
work on the polio vaccine. Although eradication of polio in the United 
States resulted in a shift in the Foundation's focus to a new set of 
challenges pertaining to children's health, the March of Dimes 
continues to support completing the task of polio eradication 
worldwide. Global polio eradication will save lives and reduce 
unnecessary health-related costs. The March of Dimes supports a funding 
level of $106.4 million for CDC's fiscal year 2006 global polio 
eradication activities. With polio epidemics now confined to only 6 
countries (Nigeria, India, Pakistan, Niger, Egypt and Afghanistan), it 
is important that the U.S. government maintain its commitment to 
completion of the worldwide eradication initiative.

National Center for Health Statistics
    The Foundation also supports the vital work of the National Center 
for Health Statistics (NCHS), which provides data essential for 
research and programmatic initiatives. For example, the National Vital 
Statistics System is a major source of information on the utilization 
of prenatal care and on adverse birth outcomes such as preterm births, 
low birthweight, and infant mortality. Increased funding would allow 
CDC to modernize this system using web-based technology that 
facilitates rapid compilation of accurate and comprehensive data 
obtained from health professionals and facilities. This information is 
needed to track trends in birth outcomes and to support birth defects 
registries. Data from NCHS' surveys are also important to identify 
emerging trends and optimal uses of existing program resources. 
Additional resources would also enable CDC to continue the National 
Survey of Family Growth, which provides essential information on 
factors affecting birth outcomes.

          HEALTH RESOURCES AND SERVICES ADMINISTRATION (HRSA)

Newborn Screening
    Newborn screening is a vital public health activity used to 
identify genetic, metabolic, hormonal and/or functional conditions in 
newborns that left untreated can cause disability, mental retardation, 
and even death. Although nearly all babies born in the United States 
are screened for some genetic birth defects, the number and quality of 
these tests varies from state to state. The March of Dimes recommends 
that every baby born in the United States receive, at a minimum, 
screening for a core set of 29 metabolic disorders including hearing 
deficiencies.
    In fiscal year 2005, the Congress provided funding for 
implementation of Title XXVI of the Children's Health Act of 2000. This 
program is designed to strengthen state newborn screening programs; to 
improve states' ability to develop, evaluate, and acquire innovative 
testing technologies; and to establish and improve programs to provide 
screening, counseling, testing and special services for newborns and 
children at risk for heritable disorders. Unfortunately, funding for 
Title XXVI activities was obtained by diverting a portion of the SPRANS 
section of the Maternal and Child Health Block Grant which the 
Administration proposes to level fund in fiscal year 2006. The March of 
Dimes recommends that Title XXVI of the Children's Health Act be funded 
at a level of $25 million in new money to support HRSA's work with 
states to improve newborn screening programs across the nation.

Maternal and Child Health Block Grant
    Federal funding for Title V of the Social Security Act, the 
Maternal and Child Health (MCH) Block Grant, has failed to keep pace 
with increased demand for services. Although the Block Grant provides 
funds for a growing number of community-based programs such as home 
visiting, respite care for children with special health care needs and 
``wrap around'' services for pregnant women and children enrolled in 
Medicaid and SCHIP, the funding level for the Grant has not increased 
since fiscal year 2002. In order for maternal and child health programs 
to continue to shoulder responsibility for additional services, it must 
be adequately funded. The March of Dimes recommends fully funding Title 
V at the authorized level of $850 million.
    Thank you for the opportunity to testify on the federally supported 
programs of highest priority to the March of Dimes. The Foundation's 
staff and volunteers look forward to working with Members of the 
Subcommittee to improve the health of mothers, infants and children.

       MARCH OF DIMES FISCAL YEAR 2006 FEDERAL FUNDING PRIORITIES
                        [In millions of dollars]
------------------------------------------------------------------------
                                                         March of Dimes
               Program                Fiscal year 2005  fiscal year 2006
                                           funding        recommendation
------------------------------------------------------------------------
National Institutes of Health                 28,444.0          30,150.0
 (Total)............................
    National Institute of Child                1,270.0           1,397.0
     Health & Human Development.....
    National Human Genome Research               489.0             518.0
     Institute......................
    National Center on Minority                  196.0             208.0
     Health and Disparities.........
Centers for Disease Control and                8,034.0           8,650.0
 Prevention (Total).................
    Center on Birth Defects and                  125.0             135.0
     DevelopmentalDisabilities......
    Birth Defects Research &                      14.0              20.0
     Surveillance...................
    Folic Acid Education Campaign...               2.0               4.0
    Immunization....................             479.0             711.0
    Polio Eradication...............             106.4             106.4
    Safe Motherhood/Infant Health                 45.0              65.0
     (NCCDPHP)......................
    Pregnancy Risk Assessment                      7.3              12.3
     Monitoring System..............
    Prevention Research (Preterm                   1.5              16.5
     Birth).........................
    National Center for Health                   109.0             118.0
     Statistics.....................
Health Resources and Services                  6,809.0           7,500.0
 Administration (Total).............
    Maternal and Child Health Block              730.0             850.0
     Grant..........................
    Newborn Screening...............               2.0              25.0
    Newborn Hearing Screening.......              10.0              10.0
    Consolidated (Community) Health            1,734.0           2,038.0
     Centers........................
    Healthy Start...................             102.0             102.0
Agency for Healthcare Research and               319.0             440.0
 Quality............................
------------------------------------------------------------------------

                                 ______
                                 
   Prepared Statement of the National Coalition for Heart and Stroke 
                                Research

    My name is Jack Owen Wood. I solicit your support for more 
aggressive federal funding for research into prevention and treatment 
of the sister diseases, stroke and heart disease. Strokes and heart 
attacks are occurring at an alarming rate.
    I am representing the National Coalition for Heart and Stroke 
Research. The coalition consists of 18 national organizations 
representing more than 5 million volunteers and members united in 
support for increased funding for heart and stroke research. Members of 
the Coalition include:
    American Academy of Neurology; American Academy of Physical 
Medicine and Rehabilitation; American Association of Neurological 
Surgeons; American College of Cardiology American College of Chest 
Physicians; American Heart Association; American Neurological 
Association; American Stroke Association; American Vascular Association 
Foundation; Association of Black Cardiologists; Children's 
Cardiomyopathy Foundation, Inc.; Citizens for Public Action on Blood 
Pressure and Cholesterol, Inc.; Congress of Neurological Surgeons; 
Heart Rhythm Society; Mended Hearts, Inc.; National Stroke Association; 
Society of Interventional Radiology; and Society for Vascular Surgery.
    I will deal primarily with one man's personal experience with 
stroke and its functional and financial costs--my own. I have only the 
use of my right arm.
    I was born in 1937, raised in Vicksburg, Mississippi, earned an 
engineering degree at Mississippi State University and currently reside 
in Port Orchard, Washington. I worked for the Boeing Company in 
Seattle, am a former Director of the Washington State Energy Office, 
served as Director of Cost and Revenue Analysis and as the Forcasting 
Manager for a major Northwest Area Natural Gas Utility until May 1, 
1995.
    On May 1, 1995, at the age of 57, I was stricken and severely 
disabled by my stroke. Two years later I experienced a triple bypass 
heart operation. You might say I've ``been there and done that'' for 
both major cardiovascular diseases. So you see, I am an expert.
    Years ago I was offered an exciting and rewarding volunteer 
opportunity. I was asked to lead the ``Jack Wood Stroke Victor Tour'' 
for the American Heart Association.
    The Jack Wood Stroke Victor Tour was a 5-state lobbying tour. 
Through it I tried to meet personally with every Northwest 
Congressional representative on his or her home turf (in Alaska, Idaho, 
Montana, Oregon and Washington). In each meeting I was joined by local 
people, stroke survivors and their families and medical professionals. 
I told my story and asked them to join the Congressional Heart and 
Stroke Coalition and to support increased federal funding for heart and 
stroke research.
    I am proud to say I traveled to 18 communities and met personally 
with 28 members of our delegation or their staff.
    One of the most powerful memories for me was the frequency in which 
Members of Congress or staff members related their personal experience 
with stroke. One member I spoke to lost both parents to stroke. I 
suspect many of you have stories too.
    I realize your interest is greater than the physical impact of my 
stroke. Your concern must include the financial impact, not only to me, 
but also on our country from increased health care costs and lost 
productivity and its many implications.
    I have confronted the difficult and painful task of calculating 
that cost to me. Besides being a man whose stroke took his ability to 
pick up and play with his grandchildren and his livelihood, I remain a 
statistician at heart. I could not resist calculating and telling that 
part of my story. But please remember my story is not dissimilar to 
that of many of the 5.4 million stroke survivors in the United States. 
Many of whom were stricken in their prime earning years. Who in a 
matter of moments, seemingly without warning, are transformed from a 
contributor and provider to a receiver and patient.
    Allow me to highlight three figures that I feel sum up my data and 
should be important to you. I estimate that my stroke at age 57:
  --Reduced my earnings before retirement age 65 by more than $600,000.
  --Subsequently, the cost to the federal government in lost income and 
        other taxes, early Medicare payments and Social Security 
        disability payments is more than $320,000.
  --My HMO spent approximately $150,000 to respond to and treat my 
        stroke.
  --One man, over $1 million.
    About 700,000 Americans will suffer a stroke this year costing this 
nation an estimated $57 billion in medical expenses and lost 
productivity.
    Earlier I described a stroke as occurring seemingly without 
warning. All too often as in my case, people either don't know or 
ignore the signs of a stroke, even one in progress. When my stroke hit 
I denied it. It took me two days after my stroke to acknowledge it and 
seek help. Because of research into new treatments, we now have tPA, a 
clot-busting drug, which if administered within 3 hours of the onset of 
stroke symptoms, can dramatically reduce the damage of clot-based 
strokes. Had I recognized and acknowledged my stroke, gone to a 
hospital with a neurologist on staff and had there been tPA, the impact 
of my stroke most certainly would have been lessened.
    What is even more painful to me is that my impending stroke could 
have been detected. Unfortunately, we need to create easier and less 
expensive diagnostic techniques so that effective diagnostics can be 
given routinely as part of regular health exams. And they must be 
covered through insurance.
    I am not asking for your sympathy. Instead, please think of me as 
two of the ghosts in the famous Dickens' story. Please don't 
misunderstand, I am not casting you as Scrooge. See me as both the 
ghosts of things past and things yet to be. I too am here to tell you, 
the future, which I represent, needs not be. It is largely up to you.
    I hope my story and estimate of the cost of my stroke convinces you 
that taking on stroke and heart disease through increased research, 
leading to better prevention, diagnosis and treatment is fiscally 
responsible. The human and financial costs are astronomical.
    Thank you for your past support of research.
                                 ______
                                 
        Prepared Statement of the National Hemophilia Foundation

    Thank you for the opportunity for the National Hemophilia 
Foundation (NHF) to submit testimony to the Chairman and Members of the 
Appropriations Subcommittee on Labor, Health and Human Services, 
Education, and Related Agencies. NHF is a national voluntary health 
organization dedicated to improving the health and welfare of people 
affected by bleeding and clotting disorders, including hemophilia, 
women's bleeding disorders, and thrombophilia.

                               BACKGROUND

    Bleeding and clotting disorders are caused by genetic defects in 
the body's blood coagulation system, usually a missing protein that 
prevents or slows down blood clotting, or sometimes causes excessive 
clotting. There are several types of bleeding disorders. The most 
recognized bleeding disorder is hemophilia, a predominantly male 
disorder affecting approximately 20,000 individuals in the United 
States. The most common bleeding disorder is von Willebrand disease, 
which affects between one to two percent of the U.S. population. 
Thrombophilia, a blood clotting disorder effecting 2 million people 
each year, puts both men and women at risk of developing dangerous 
blood clotting in veins and arteries. These clots can obstruct the 
blood flow through the vessels causing pain and swelling of the tissue 
in the area and can lead to permanent tissue damage as well as death.

                        PREVENTION AND TREATMENT

Centers for Disease Control and Prevention
    The national network of hemophilia treatment centers (HTCs) created 
by Congress in 1974 remains essential to ensuring that comprehensive 
and specialized care is available for persons with bleeding and 
clotting disorders. The HTC role has expanded dramatically over the 
last three decades, evolving with the needs of the hemophilia and 
bleeding disorders community to provide coordinated care, blood safety 
surveillance, prevention, and improved disease management. This 
expansion also has included outreach and treatment for women with 
bleeding disorders and persons with thrombophilia.
    These programs, carried out by the Hereditary Blood Disorders 
Program in the National Center for Birth Defects and Developmental 
Disabilities at the Centers for Disease Control and Prevention (CDC), 
have demonstrated significant reductions in mortality and morbidity. 
More than 75 percent of the hemophilia community participates in one of 
the 140 centers that comprise the HTC network and more than 10,000 
women receive care at a HTC. Despite this dramatic growth in support 
and services, HTC funding has not increased in the last 10 years. 
Support for an increase has been identified in Congress, and 
Congressman Tom Price (R-GA) and many of his colleagues have sponsored 
a letter of support encouraging the Committee to allocate an additional 
$7 million for HTC funding. NHF urges the Committee's strong support 
for this additional funding to ensure HTCs can carry out needed 
education, prevention, blood safety, surveillance, and outreach 
programs with the bleeding and clotting disorders community.
Health Resources and Services Administration
    HTCs also receive needed funding as a special project of regional 
and national significance within the Maternal and Child Health Bureau 
(MCHB) Block Grant set-aside. MCHB funds are utilized by HTCs to cover 
the non-reimbursable costs of providing on-going nursing, prevention, 
dental, and rehabilitative services and support. MCHB funding for HTCs 
has remained steady for the past 20 years, resulting in eroded 
resources over time. MCHB funds for the HTC disease management network 
are essential to meeting the needs of the bleeding and clotting 
disorders community. NHF urges the Committee to maintain funding 
support for the HTCs through MCHB.

                          HEMOPHILIA RESEARCH

Bleeding and Clotting Disorders Research
    NHF is appreciative of the Committee's continued commitment to 
research. The strengthened research funding provided by the Committee 
to the National Institutes of Health has brought about rapid advances 
in science. Within NIH, the National Heart, Lung, and Blood Institute 
(NHLBI) has taken the lead on advancing research on bleeding and 
clotting disorders and the complications of these disorders. NHF is 
particularly appreciative of NHLBI's collaborative research program 
with the Foundation to support research on improved and novel therapies 
for treating these disorders and, like the Institute, has been 
overwhelmed by the scientific community's positive response to this 
approach. NHF encourages the Committee to increase its funding support 
for NHLBI such that valuable initiatives like the collaborative 
research program can be sustained.

Hepatitis C Virus
    HCV continues to severely impact the hemophilia and bleeding 
disorders community. As a result of their dependence on blood-based 
products, the hemophilia and bleeding disorders community has been 
severely affected by HIV and hepatitis. More than 80 percent of people 
with hemophilia born before 1992 have the Hepatitis C Virus (HCV). 
Today, nearly half of all persons with hemophilia have HCV. NHF has 
been grateful for the support of the Committee in encouraging continued 
partnerships between NHF and the National Institute of Allergy and 
Infectious Disease (NIAID) to address the importance of developing and 
advancing research initiatives for addressing HCV within the bleeding 
disorders community. NHF requests that NIAID continue to work with the 
Foundation's medical and scientific leadership and develop a report by 
March 31, 2006 on HCV research strategies that are being pursued within 
the bleeding disorders community.
    Over the last 20 years, the National Cancer Institute (NCI) has 
collected samples from patients with hemophilia infected with HIV and 
HCV through the Multi-Center Hemophilia Cohort Study. This cohort 
offers a rich database for improving the understanding of HCV and has 
served as the basis of significant peer reviewed findings. NHF 
understands that NCI has decided to no longer fund further research 
studies of the cohort. NHF requests the Committee's support in urging 
NCI to ensure the samples obtained through this cohort are preserved 
and accessible for future research. NHF also requests a report on 
possible future research opportunities provided by the cohort samples.
    The National Institute of Diabetes and Digestive and Kidney 
Diseases (NIDDK) has played a significant role in advancing and 
coordinating NIH's HCV research activities. With the high incidence of 
HCV within the bleeding disorders community, it is critical to further 
investigate and understand treatment options and advancements. NHF 
urges the Committee's support for NHF to work with NIDDK in developing 
and advancing research initiatives to address HCV within the bleeding 
disorders community.

                            RECOMMENDATIONS

    We are grateful for the Committee's support of bleeding and 
clotting disorders research, prevention, treatment, and outreach 
initiatives. For fiscal year 2006, we urge the Committee to:
  --Strengthen funding support for hemophilia and bleeding and clotting 
        disorders prevention and treatment programs by providing an 
        additional $7 million for the HTC network through CDC's 
        Hereditary Blood Disorders Program.
  --Provide continued support for the HTC network through MCHB.
  --Maintain support at NHLBI for research on improved and novel 
        therapies for bleeding and clotting disorders.
  --Provide support for continued collaboration between NHF and NIAID 
        in developing and advancing research initiatives for addressing 
        HCV within the bleeding disorders community.
  --Preserve NCI samples obtained through the Multi-Center Hemophilia 
        Cohort Study and ensure their accessibility for future research 
        initiatives.
  --Provide support for NIDDK to work with NHF in addressing HCV within 
        the bleeding disorders community.
    Thank you for the opportunity to provide this statement to the 
Committee.
                                 ______
                                 
     Prepared Statement of the National Multiple Sclerosis Society

    Mr. Chairman and distinguished members of the Subcommittee, we 
appreciate the opportunity to submit written testimony on behalf of the 
National Multiple Sclerosis Society. The Society was founded in 1946. 
Since its inception, the Society's highest priority has been to support 
research aimed at finding the cause of MS, better treatments, and a 
cure. In 2005, the National MS Society will spend over $35 million on 
MS research supporting over 350 MS investigations. By the end of 2005, 
the Society cumulatively will have expended some $460 million since 
awarding its first three grants in 1947. This represents the largest 
privately funded program of basic, clinical, and applied research and 
training related to MS in the world.
    The federal government must continue its vital role in furthering 
the scientific understanding of MS. To this end, the Society supports 
the following:
  --That the National Institutes of Health (NIH), in partnership with 
        the Society, invest additional funds to identify and 
        characterize MS susceptibility genes and bring additional 
        research focus to the primary progressive form of MS.
  --That NIH, in collaboration with the Society, other MS 
        organizations, and other federal research agencies, undertake a 
        study of the incidence, demographics and environmental factors 
        that may contribute to disease onset.
  --The National Institute on Disability and Rehabilitation Research 
        (NIDRR) in the Department of Education fund one additional 
        Medical Rehabilitation Research and Training Center for MS and 
        take steps to stimulate individual research projects.
  --That Congress increase fiscal year 2006 NIH funding by 6 percent.
    Multiple sclerosis is a chronic, unpredictable and often disabling 
disease of the central nervous system. Symptoms range from numbness in 
the limbs, to loss of vision, memory deficits, and in some instances 
partial or total paralysis. The progress, severity and specific 
symptoms of MS in any one person can vary and cannot yet be predicted, 
but advances in research and treatment are giving hope to those 
affected by the disease.
    The federal investment in the National Institutes of Health (NIH) 
and the National Institute on Disability and Rehabilitation Research 
(NIDRR) plays a major role in MS research. At the NIH, there are two 
institutes that conduct or fund the majority of MS research: the 
National Institute of Neurological Disorders and Stroke (NINDS) which 
funds 75 percent, and the National Institute of Allergy and Infectious 
Diseases (NIAID) which funds about 20 percent. The National Center for 
Medical Rehabilitation Research (NCMRR--a unit of the National 
Institute of Child Health and Human Development) also funds a small 
amount of MS research specifically targeting rehabilitation issues. In 
addition to the NIH, the NIDRR through the Department of Education 
invests in MS research.
    For fiscal year 2005 and fiscal year 2006, it is estimated that NIH 
expenditures on MS research will be approximately $102 and 103 million, 
respectively. For fiscal year 2005 and fiscal year 2006 NIDRR 
expenditures on MS research will be approximately $1.5 million per year 
out of a total budget of $140 million per year. While this demonstrates 
one measure of the federal investment in MS research, this amount pales 
in comparison with the annual direct and indirect disease cost--
approximately $23 billion for all people with MS in the United 
States.\1\
---------------------------------------------------------------------------
    \1\ Based on a 1994 Duke University study, indexed for 2004 by the 
National MS Society, the average annual cost of MS is estimated at 
$57,500 per person due to lost wages, increased medical care and other 
expenses. Nationwide, there are an estimated 400,000 people with MS.
---------------------------------------------------------------------------
    The National MS Society has had a long and productive relationship 
with the NIH, particularly with NINDS. Our founder Sylvia Lawry helped 
spearhead the legislation that established NINDS in 1950. The Society 
has been pleased to work with the NINDS on many areas of mutual 
interest and we hope to strengthen our partnership with NINDS and 
expand our relationships with other federal funders of MS research in 
the coming year.
    The Society supports the NIH Neuroscience Blueprint, announced last 
Fall, that reinforces intra-collaboration and information-sharing among 
14 NIH Institutes that conduct or support research on the brain and 
nervous system. The Blueprint should accelerate the translation of 
basic neuroscience discoveries into better ways to treat and prevent 
nervous system disease.

            INVESTING IN RESEARCH PRIORITIES RELEVANT TO MS

    The National MS Society will continue to pursue research 
opportunities with NIH and NIDRR in priority areas that are key to 
furthering the understanding of MS. We continue to monitor NIH's 
progress in expanding its commitment to MS research as suggested by 
Congress.
    In 2004, as part of our NIH advocacy efforts, the Society had the 
following congressional ``report language'' added by the House and 
Senate Appropriations Conference Committee as an instruction to NIH in 
the fiscal year 2004 omnibus appropriations package:

    ``The conferees urge NINDS to increase its overall investment in 
multiple sclerosis (MS) research. Special emphasis on imaging, 
biological markers and clinical trials for new therapeutics should be 
areas of high priority. The conferees are pleased to note the 
development of a joint symposium on MS genetics sponsored by NINDS and 
the National MS Society, and encourage the Institute to take a more 
active role at the NIH in furthering MS genetics research by developing 
collaborative strategies with the National Human Genome Research 
Institute and other relevant NIH institutes. The conferees request that 
NIH report back to Congress no later than September 30, 2004 with 
progress in its efforts to expand its commitment to multiple sclerosis. 
The conferees also are pleased to note a major success in past years in 
the creation of a joint collaborative research program in ``gender and 
immunity'' between the National Institute on Allergy and Infectious 
Diseases (NIAID) and a major voluntary association for the disease, in 
which NINDS participates. The conferees encourage NINDS to seek similar 
collaborative activities related to MS.''

    The Society was pleased to receive a copy of the report. While the 
Society is gratified by the many intramural and extramural activities 
and progress described in the report, we are disappointed to note that 
it did not address steps that NINDS would take to expand its commitment 
MS research as requested by the committee. We urge NINDS to increase 
its commitment to MS by:
  --Partnering with the Society to invest additional resources to help 
        solve the genetic basis of MS.
  --Working with the Society to bring additional research focus to the 
        primary progressive form of MS (PPMS).
    Family studies of people with MS and their relatives, have shown 
that the risk for MS depends on relatedness to the affected individual, 
that is, a sibling has a higher risk of developing MS than a cousin. In 
no other disease have recurrence risks been so comprehensively 
catalogued in groups of biological and social relatives. A strategy is 
needed to penetrate the genetics of MS. Although the NIH and the 
National MS Society have invested independently substantial funds in MS 
genetics over the past decade, this is an area that calls for 
additional collaboration. The past few years have seen real progress in 
the development of laboratory and analytical approaches to the study of 
genetic disorders. The Society encourages the NIH to move forward with 
the Society as a true partner in identifying those DNA regions that can 
be prioritized for encoding MS susceptibility genes. The identification 
and characterization of the MS genes will help to define the basic 
etiology of the disease, to help predict the course of the disease, and 
to influence therapeutics.
    Advances in immunology have provided clinicians with powerful tools 
to better understand the underlying causes of MS, leading to new 
therapeutic advances. Although there are FDA-approved treatments for 
relapsing MS, there are no approved treatments for progressive MS. The 
primary progressive form of MS (PPMS) is characterized from the onset 
by the absence of acute attacks and instead involves a gradual clinical 
decline. Approximately 10 percent of individuals are diagnosed with 
PPMS from the onset. Clinically this form of the disease is associated 
with a lack of response to any form of immunotherapy. This leads to the 
concept that PPMS may in fact be a very different disease as compared 
to relapsing remitting MS. The Society identifies the study of 
progressive MS as an area that merits greater attention by the research 
community in order to increase our understanding of PPMS and to have 
effective therapies for this progressive form of the disease. In the 
upcoming year, the Society encourages NIH to help the Society address 
this underserved area of MS research.
    In addition to efforts at the NIH, the Society is pleased to note 
that for more than 20 years, NIDRR has funded a Medical Rehabilitation 
Research and Training Center (MRRTC) for MS. However, the institute's 
overall investment in MS research remains limited, $1.5 million in 
fiscal year 2005. The NIDRR portfolio includes only two current 
projects related to MS, the aforementioned MRRTC and a Rehabilitation 
Research and Training Center on Health and Wellness in Long Term 
Disability that is only partially focused on MS. In contrast, spinal 
cord injury, with a prevalence less than that of MS, has 39. Since the 
advent of FDA-approved MS disease-modifying treatments in 1993, persons 
with MS have had access to therapeutics which can slow the progression 
of disability. However, in order to maintain maximum levels of 
independence, persons with MS need rehabilitation to address residual 
deficits. Unfortunately, due to the limited support for MS 
rehabilitation research, we know relatively little about the efficacy 
of rehabilitative interventions in MS. We therefore urge the NIDRR to 
increase its support for MS rehabilitation research through the funding 
of at least one additional MRRTC along with initiatives to stimulate 
individual research projects.

                    THE IMPORTANCE OF COLLABORATION

    The National MS Society cannot overemphasize the importance of 
collaboration. We are pleased to see that the Roadmap Initiative--a 3-
year plan addressing key research issues throughout NIH--continues to 
develop. The National MS Society encourages NIH to continue its efforts 
to increase collaboration across institutes and to pursue collaborative 
opportunities with other organizations. As we see it, there is no other 
choice.
    An area in critical need of attention concerns data related to the 
incidence, prevalence, and distribution of MS. The last national study 
of incidence and prevalence of MS in the United States took place more 
than 30 years ago. Since that time the population of the United States 
has changed dramatically in size, composition, and distribution. 
Moreover, numerous questions have arisen concerning possible ethnic, 
geographic, and local variations in the distribution of MS. Knowledge 
concerning these distributions and possible causal factors may provide 
important information concerning the nature of MS and its triggers. 
Moreover, rational policy formulation for MS health care requires up-
to-date information concerning numbers and characteristics of persons 
with MS down to the state level. Addressing these information needs is 
beyond the resources of the Society. We therefore urge the NIH, the 
CDC/ATSDR to work with the Society and perhaps other MS organizations 
such as the Consortium of MS centers, to begin the task of 
understanding how many Americans have MS, where they reside, and what 
environmental factors may have contributed to disease onset.
    To date, the Society has been successful with NIH on jointly 
funding a major initiative on gender and immune function. In 2001, the 
Society entered into a $20 million collaborative project with NIAID and 
other NIH institutes to investigate gender effects on the immune 
function, including autoimmunity. This is important because most 
autoimmune diseases (including MS) are far more prevalent in women than 
men. The Society is co-funding six projects and will contribute up to 
$4 million to this project. We would like to engage in other 
collaborative projects, especially with NINDS.
    The Society also was pleased that in 2004 NINDS and NMSS co-
sponsored a scientific workshop on biomarkers in MS. As outcomes from 
this workshop, the Society is looking to work closely with NINDS 
projects, such as the development of collaborative and international 
efforts to identify biomarkers for MS. Such efforts would significantly 
advance our efforts to effectively diagnose and treat MS.
    The Society was also pleased that in 2004 NINDS and NMSS co-
sponsored a scientific workshop on design of clinical trials in MS. The 
tremendous increase in potential therapies for MS has created new 
challenges in the design and execution of new MS therapies. The Society 
was pleased that an outcome of this workshop was an effort to draft a 
white paper for the Food and Drug Administration on the topic of use of 
magnetic resonance imaging (MRI) as a surrogate measure in MS clinical 
trials. Acceptance of MRI as a valid surrogate measure by the FDA would 
represent a significant step forward in testing the potential MS 
therapies and bringing them to approval in a more expeditious manner.
    The Society is also currently collaborating with the National 
Center for Medical Rehabilitation Research (NCMRR--a unit of the 
National Institute of Child Health and Human Development) on an 
international workshop to foster rehabilitation research in MS. This 
workshop will address the critical need to expand the quality and 
quantity of MS rehabilitation research. It is hoped that from this 
workshop may emerge opportunities for collaborative support of research 
initiatives to advance scientific knowledge concerning MS 
rehabilitation.

           OVERALL NIH FUNDING INCREASE FOR FISCAL YEAR 2006

    The Society is concerned that NIH may face a third year of overall 
low funding increases. Furthermore, in fiscal year 2004 and fiscal year 
2005, only bioterrorism research received a healthy increase, with much 
smaller increases allocated for disease research. We fear the same may 
occur in fiscal year 2006. This is particularly disappointing after the 
fiscal year 1999-2003 funding campaign that doubled the NIH budget in 
the 5-year period.
  --We urge Congress to appropriate a 6 percent fiscal year 2005 
        funding increase for NIH.
  --While there is a need to increase our country's investment in 
        bioterrorism research, we ask Congress to balance the fiscal 
        year 2006 NIH appropriation to allow growth across all NIH 
        institutes and all areas of disease research.
    We thank the Subcommittee for this opportunity to comment and 
applaud your commitment to advancing the health and well-being of all 
Americans through investment in biomedical research.
                                 ______
                                 
             Prepared Statement of the NephCure Foundation

            SUMMARY OF RECOMMENDATIONS FOR FISCAL YEAR 2006

    1. A 6 percent increase for the National Institutes of Health and 
the National Institute of Diabetes and Digestive and Kidney Diseases 
(NIDDK).
    2. Continue to expand the NIDDK Nephrotic Syndrome (NS)/Focal 
Segmental Glomerulosclerosis (FSGS) research portfolio by aggressively 
supporting grant proposals in this area and encouraging the National 
Center for Minority Health and Health Disparities (NCMHD) to initiate 
studies into the incidence/cause of NS/FSGS in the African-American 
population.
    3. The NephCure Foundation encourages we encourage follow up to the 
scientific workshop that took place in January, 2005, sponsored by 
NIDDK, in effort to initiate grant proposals focused on achieving the 
goals developed by the workshop. The workshop examined observations and 
opportunities for improved diagnosis and therapeutic interventions for 
Glomerular disease and Focal Segmental Glomerulosclerosis (FSGS).
    Mr. Chairman, and members of the subcommittee, I am pleased to 
present testimony on behalf of the NephCure Foundation (NCF), a non-
profit organization driven by a blue-ribbon panel of respected medical 
experts and a dedicated band of patients and families working for a 
common goal--to save kidneys and lives.
    I am Ed Hearn, former Major League catcher for the 1986 World 
Series Champion New York Mets and the Kansas City Royals. My career as 
a professional athlete came to an abrupt end in 1991, due to a shoulder 
injury. Upon recuperation, I intended to return to my team. While I was 
out due to my injury, I began to experience symptoms that indicated 
kidney malfunction, and within six months, I was diagnosed with Focal 
Segmental Glomerulosclerosis (FSGS), a debilitating and degenerative 
kidney disease. Today, after three kidney transplants, the aid of a 
breathing machine at night, a $3,000 IV once a month, and $40,000 of 
medication to pay for up to 50 pills that I must swallow each day, I 
live to tell my story and to speak for those suffering from FSGS. My 
hope is that we can find the means to prevent this life-threatening 
disease from affecting our youth and from jeopardizing the normalcy of 
their lives as it has mine and many others. I remain hopeful that a 
cure for FSGS will be uncovered, but until then, our focus must be on 
prevention.

            TREATMENT TRIALS BEGINNING, BUT NO CURE IN SIGHT

    Mr. Chairman, FSGS is one of a cluster of glomerular diseases that 
attack the one million tiny filtering units contained in each human 
kidney. These filters are called nephrons and these diseases attack the 
portion of the nephron called the glomerulus, scarring and often 
destroying the irreplaceable filters. Scientists do not know why 
glomerular injury occurs and they are not sure how to stop its 
inevitable destruction of the kidney.
    When I was a teenager, doctors found protein in my urine and told 
me that some day I might have kidney trouble. I pushed it out of my 
mind, thinking that some day meant when I was an old man down the road. 
Some day came faster than anyone expected. I believe that because I was 
a highly conditioned athlete, and catchers are more conditioned than 
most athletes, my body initially masked the symptoms of FSGS. 
Consequently, I retained the facde of physical health, and I do not 
know when FSGS initially began to internally attack my body.
    My first kidney transplant lasted more than seven years until the 
FSGS returned, as it often does. I received a second kidney from my 
aunt in 2000, but my body rejected it almost immediately, and I 
received a third kidney transplant in May of 2002. My story is not 
unique; there are thousands of other people in this country who have 
had their lives disrupted due to the sudden onset of FSGS. Although 
kidney transplants have been very successful for thousands of FSGS 
patients, there are many patients of whom the body rejects the 
transplanted kidney or the FSGS comes back and attacks the transplanted 
kidney, leaving the patient with no functioning kidneys. He or she must 
then rely on daily dialysis as a means of survival.
    FSGS patients are often on several medications, which cause medical 
complications and unbearable side effects. FSGS patients, upon 
diagnosis, often take a downward plunge at a rapid rate, and it is 
extremely difficult to make a comeback. In the last four years, I have 
undergone two kidney transplants, two years of dialysis, and a six week 
course of daily radiation treatment for rapidly spreading cancer that 
was primarily the result of the high doses of immunosuppressant drugs I 
am taking for FSGS. In the last three months alone, I have had over 65 
medical appointments. As you can see, it is nearly impossible for an 
FSGS patient to live a normal life.
    We are extremely thankful that an NIDDK-funded clinical trial began 
last year to study the efficacy of the current treatments for FSGS, and 
that ancillary studies are underway to examine tissue samples of 
injured glomerulus. However, these clinical trials hold no particular 
hope for patients who suffer from FSGS.
    There are thousands of young people who are in a race against time, 
hoping for a treatment that will save their lives. The NephCure 
Foundation today raises its voice to speak for them all, asking you to 
take specific actions that will aid our quest to find the cause and the 
cure of NS/FSGS.
    First and foremost, we support a 10 percent increase for the 
National Institutes of Health and the National Institute of Diabetes 
and Digestive and Kidney Diseases (NIDDK).

                TOO LITTLE DATA ABOUT A GROWING PROBLEM

    When glomerular disease strikes, the resulting Nephrotic Syndrome 
causes loss of protein in the urine and symptoms such as edema, a 
swelling that often appears first in the face. For example, many 
physicians mistake children's puffy eyelids as an allergy symptom. 
Stories of similar misdiagnoses are common at our Foundation. With 
experts projecting a substantial increase in Nephrotic Syndrome in the 
coming years, there is a clear need to educate pediatricians and family 
physicians about glomerular disease and its symptoms.
    The NephCure Foundation has numerous education programs underway, 
including patient education seminars; the most recent of which took 
place in March 2004. The next patient education seminar will take place 
in Washington, DC in May 2005. News of our most recent activities can 
be found on our web site at www.nephcure.org. However, our efforts 
alone are not enough.
    NIDDK launched a major federal outreach program early in 2002--the 
National Kidney Disease Education Program--we seek your support in 
urging NIDDK to assure that glomerular disease receives high visibility 
in this important program.

            GLOMERULAR DISEASE STRIKES MINORITY POPULATIONS

    Nephrologists tell us that glomerular diseases such as FSGS affect 
a disproportionate number of African-Americans and, according to NIDDK, 
``the worst prognosis is observed in African-American children.'' 
NephCure officials have described this situation in a meeting with Dr. 
John Ruffin, director of the National Center for Minority Health and 
Health Disparities (NCMHD).
    As the NCMHD becomes fully operational and plans programs, our 
Foundation will continue to work with the Center to encourage the 
creation of programs to study the high incidence of glomerular disease 
within the African-American population.
    We ask the Committee to join with us in expanding the NS/FSGS 
research portfolio by requesting that the National Center for Minority 
Health and Health Disparities seize the opportunity to establish 
research into the phenomenon of glomerular disease within the African 
American community.

                      MORE BASIC SCIENCE IS NEEDED

    The current FSGS clinical trials which follow an estimated 400 
patients over a three year period, are limited, according to the RFA, 
to examining the ``impact of immunomodulatory therapy on proteinuria.'' 
While the trials may lead to safer or more efficient care for children 
with FSGS, no one is suggesting that they will bring us closer to 
finding the cause and cure. Science has yet to prove that FSGS is an 
immune-mediated disease.
    Scientists tell us that much more needs to be done in the area of 
basic science, beginning with collection of tissue and fluid samples 
from a large number of patients on which years of important scientific 
research can be founded. NephCure is collaborating with the NIH in a 
major way to work for such progress.
    The National Institute of Diabetes and Digestive and Kidney 
Diseases (NIDDK) has agreed to match, dollar-for-dollar, funds raised 
by NephCure that will allow researchers to obtain DNA samples from 
hundreds of FSGS patients in upcoming clinical trials. The NIDDK will 
match up to $300,000 raised by NephCure for a combined total of 
$600,000. These trials are an ancillary study in conjunction with the 
first-ever national medication trials of FSGS treatment that may 
possibly lead to better understanding of the more common Nephrotic 
Syndrome, which can be a precursor to FSGS.
    We encourage follow up to the Scientific Workshop that took place 
in January, 2005, sponsored by NIDDK, in effort to initiate grant 
proposals focused on achieving the goals developed by the workshop. The 
workshop examined observations and opportunities for improved diagnosis 
and therapeutic interventions for glomerular disease and Focal 
Segmental Glomerulosclerosis (FSGS). This goal is consistent with the 
NIH Roadmap to Research initiative developed by NIH Director, Dr. Elias 
Zerhouni.
    The workshop united basic science and clinical investigators, FSGS 
patients, physician researchers, nephrologists from around the world 
and anyone with an interest in treatment for glomerular diseases to 
share and collaborate upon advances, challenges and research potential 
of these debilitating diseases. We must use the conference as a 
stepping stone and build upon the information collectively gathered to 
determine the resources needed to carry out these opportunities and 
challenges. The workshop/conference gave hope to the thousands of young 
people whose kidneys and lives are threatened by this terrible disease, 
and it gave honor to their heroic stories.
    We anticipate the potential for a Program Announcement and the 
potential for a Special Emphasis Program Announcement resulting from 
the conference or some other traditional mechanism to generate grant 
proposals. These mechanisms to encourage investigator initiated grant 
proposals should help to continue to expand the NS/FSGS portfolio at 
NIH.
    Mr. Chairman, as you know, patient support and advocacy groups such 
as the NephCure Foundation work closely with medical research 
organizations. They share a mutual understanding that unless major 
research efforts are undertaken, advances and improvements in the 
health of patients will not occur. Every year, the NephCure Foundation 
participates in advocating increased funding for the NIH and NIDDK. We 
want to reiterate how deeply grateful we are for your leadership and 
that of the subcommittee on medical research matters, which means so 
much for the health of the people in our nation.
    I will be pleased to answer any questions you may have.
                                 ______
                                 
      Prepared Statement of the National Prostate Cancer Coalition

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to share my remarks. The National Prostate Cancer Coalition 
(NPCC) was founded in 1996 to combat a long overlooked killer of men. I 
came to NPCC in 2001, having just recently been impacted by the disease 
myself. In 2000, my grandfather was diagnosed with prostate cancer. 
Having served his country so valiantly in World War II, he was now 
facing a new battle. Luckily, because of early detection through the 
prostate specific antigen (PSA) test and the digital rectal exam (DRE), 
the disease was caught early and, following a radical prostatectomy, he 
is now cancer free. But there are many men who are not so lucky. That's 
why you must adequately fund prostate cancer research for veterans like 
my grandfather, families like mine, and men all over America.
    Under the leadership of this committee we have seen prostate cancer 
research funding increase by nearly $300 million since in the last 6 
years. While we have come a long way, there is still much work to be 
done. For the second year since the founding of NPCC, prostate cancer 
deaths will continue to increase in 2005. More than 30,000 lives will 
be lost to the disease. Occurrences of prostate cancer are increasing 
as well, to over 230,000 men this year. While cases continue to grow, 
more men are catching the disease in its early stages, when the disease 
is most treatable, by early detection through screening.
    NPCC would like to offer its gratitude on behalf of the 2 million 
American men with prostate cancer for the support this committee has 
offered in the past. The recent doubling of the National Institutes of 
Health's (NIH) budget has helped prostate cancer research funding to 
expand to record levels, but we must ensure this funding is used 
appropriately. To that end, your committee was instrumental in 
requiring NIH and the National Cancer Institute (NCI) to submit a 
professional judgment budget for fiscal year 2003-fiscal year 2008 to 
outline the agencies' plans for prostate cancer research. You have also 
been influential in requesting a fiscal budget for that document, which 
was Congress received passed the April 2004 deadline. The budget 
requested lacked connectivity to the previous plan and made no 
references to goals or priorities. While no one disputes the historic 
importance of doubling, we ask you to encourage NIH and NCI to 
coordinate with each agency to put forward a comprehensive and cohesive 
plan that brings us closer to eradicating cancer. Additionally, we 
respectfully request your oversight to ensure this funding is producing 
results for prostate cancer.
    Huge sums of taxpayers' money have been allocated to NIH over the 
years and it is now time to examine what this windfall has produced. 
Therefore, we request that you to ensure that NIH to submits the yearly 
update on its prostate cancer research portfolio that reflects its 
progress according to the fiscal year 2003-fiscal year 2008 
professional judgment budget that was requested in fiscal year 2005.
    We are entering an exciting time in biomedical research. The recent 
Food and Drug Administration's approval of Avastin has opened a new 
door for cancer research. Avastin targets cancerous cells by blocking 
their blood supply, an idea that had been previously dismissed by the 
medical community as ``absurd''. The drug not only signals a turning 
point in changing cancer into a manageable, chronic disease but also 
demonstrates the value of seeking out novel and innovative research. We 
must encourage this kind of research at NIH, including assessing the 
value of stem cell research which has shown promise in research for 
neurological diseases, diabetes, and cancer.
    Developing a new approach to research is a priority for NPCC. The 
Prostate Cancer Research Funders Conference, first convened in 2001 and 
then revitalized last fall, seeks to formulate a collaborative, public-
private approach to seek out new ways of attacking the problem of 
prostate cancer. Originally co-convened by NPCC and NCI, participants 
now also include the Department of Defense, the Veterans Health 
Administration, the Centers for Disease Control and Prevention, the 
Food and Drug Administration, Canadian and British government agencies, 
private foundations/organizations and representatives from industry. 
Members of the Conference have come together to form a partnership that 
allows them to focus on key objectives and to address commonly 
recognized barriers in research. This could propel research forward 
significantly. As the Conference continues, we ask that the Committee 
make its functionality part of its oversight commitments to prostate 
cancer research. Currently, federal agencies participate voluntarily, 
but they can opt in or out based on the tenure of executive leadership 
and its time-limited decisions. For the conference to be successful 
federal agencies engaged in the prostate cancer research should, in our 
opinion, be required to participate, and we ask for your leadership to 
make that happen.
    Recognizing the importance of cutting edge research initiatives and 
collaborative research efforts, NIH director Elias Zerhouni, M.D. 
recently unveiled the NIH Roadmap. The Roadmap's strategy mirrors that 
of the Funders Conference, specifically by seeking out new approaches 
and ideas and stimulating cross-institutional and cross-center research 
for all NIH driven biomedical research. Believing, we think correctly, 
that the synergies in the Roadmap can achieve outcomes that are greater 
than those any one Institute or Center can achieve, we support its 
efforts to advance key biomedical research initiatives at an 
exponential rate. NPCC applauds the Roadmap and pledges its support to 
take biomedical research in new directions.
    As NIH and NCI look to redefine and increase the efficiencies of 
their research programs, Congress must equip them with the resources 
they need to implement new initiatives. Unprecedented increases in NIH 
and NCI's funding over the last 6 years have created opportunities 
never before available. We must take advantage of these achievements, 
to not do so will not only harm cancer patients everywhere but is, 
quite simply, poor business sense.
    NPCC was heartened when the President stated 2 years ago that ``in 
order to win the war against cancer, we must fund the war against 
cancer,'' but we are very concerned by recent reports suggesting the 
Administration's budget for fiscal year 2006 will propose a cut in the 
overall budget of the National Institutes of Health and other critical 
programs. Such a cut would be a major reversal in our nation's 
commitment to the fight against cancer.
    Societies for Experimental Biology (FASEB) have stated if increases 
are held to 2 percent-3 percent the grant funding rate at NIH will drop 
below 30 percent and approximately 500 fewer grants would be funded. To 
allow NIH and NCI to adequately continue to fund promising grants and 
research first realized during the budget doubling, Congress must 
appropriate at least ($30.1 billion) in funding for these agencies in 
fiscal year 2006. That may seem like a large number, but in reality, it 
is only a small fraction of the estimated $189 billion that cancer 
alone costs this nation yearly.
    Increasing NIH's budget by 8.5 percent would also allow NCI to 
dedicate more than $400 million to prostate cancer research in fiscal 
year 2005. Last year, NCI received only a 3.3 percent increase in 
funding over the previous year's level. Yet, with previously committed 
grant awards and outlays to the NIH Roadmap, NCI is ``effectively 
operating with a budget that is $2.7 million less than last year's 
operating budget (NCI Cancer Bulletin 2/3/04).'' The President's fiscal 
year 2006 budget allocates over $4.8 billion to NCI, is much less than 
the fiscal year 2005 increase. This level will mean even tougher 
choices in awarding grants at NCI. We believe that Congress should 
fully fund the NCI Director's Bypass Budget at $6.2 billion, which 
would rapidly accelerate the nations' fight against all cancers.
    As you know, education and early detection through screening are 
the catalyst to beating prostate cancer. Right now, the PSA blood test 
and DRE physical exam are the best measures for detecting prostate 
cancer early. We ask the Committee to allocate at least $20 million to 
the Center for Disease Control and Prevention's (CDC) prostate cancer 
awareness program. We also encourage the Committee to work with CDC to 
address our concern that the agency places insufficient value on these 
screening tools.
    Thank you again for the leadership you have shown in advancing 
biomedical and, more specifically, prostate cancer research. Under your 
leadership, the nation's war on cancer has reached heights never before 
realized. We look forward to continuing to work with you and the 
members of the Committee until a cure is found.
                                 ______
                                 
          Prepared Statement of the National Sleep Foundation

              SUMMARY OF FISCAL YEAR 2006 RECOMMENDATIONS
 
 --Provide a 6 percent increase for fiscal year 2006 to the National 
        Institutes of Health (NIH) and a proportional increase of 6 
        percent to the individual institutes and centers, specifically, 
        the National Heart, Lung, and Blood Institute (NHLBI).
  --Urge the National Center on Sleep Disorders Research (NCSDR) to 
        partner with other federal agencies, such as the Centers for 
        Disease Control and Prevention (CDC), and voluntary health 
        organizations, such as the National Sleep Foundation (NSF), to 
        develop a collaborative sleep education and public awareness 
        initiative.
  --Urge the United States Surgeon General to issue a Surgeon General's 
        Report on Sleep and Sleep Disorders.
    Mr. Chairman and members of the Subcommittee, thank you for 
allowing me to present testimony on behalf of the National Sleep 
Foundation or NSF. I am Dr. James Walsh, Chairman of the Board of 
Directors of the National Sleep Foundation, Executive Director of the 
Sleep Medicine and Research Center affiliated with St. John's Mercy and 
St. Luke's Hospitals, and Clinical Professor of Psychiatry at St. Louis 
University. The National Sleep Foundation is an independent, non-profit 
organization whose mission is to enhance public awareness about the 
need for sufficient restorative sleep, to increase the detection and 
treatment of sleep disorders, to foster sleep-related programs and 
policy for the betterment of public health, and to promote sleep 
research. We work with thousands of sleep medicine and other health 
care professionals, researchers, patients, drowsy driving victims 
throughout the country, and collaborate with many government and 
private organizations with the goal of preventing health and safety 
problems related to sleep deprivation and untreated sleep disorders.
    Sleep problems, whether in the form of medical disorders, or 
related to work schedules and a 24/7 lifestyle, are ubiquitous in our 
society. At least 40 million Americans suffer from sleep disorders; yet 
more than 60 percent of adults have never been asked about the quality 
of their sleep by a physician, and fewer than 20 percent have ever 
initiated such a discussion. Millions of individuals struggle to stay 
alert at school, on the job, and on the road. The latest estimates from 
the National Highway Transportation Safety Administration and the 
Federal Motor Carriers Safety Administration implicate fatigue and 
sleepiness in 1.1 million crashes annually. A recent study in Sweden 
showed that sleep disturbances are the second greatest risk factor for 
fatal accidents at work. Sleep apnea, a sleep-related breathing 
disorder which affects at least 5 percent of adult Americans, is 
closely related to some of America's most pressing health problems, 
such as obesity, hypertension, heart failure, and diabetes. Chronic 
insomnia, experienced by 10 percent of our population is a strong risk 
factor for depression and other widespread mental health conditions. 
Sleep disorders, sleep deprivation, and excessive daytime sleepiness 
add approximately $15 billion to our national health care bill each 
year. The National Center on Sleep Disorders Research estimates that by 
the year 2050, sleep problems will affect as many as 100 million 
Americans.
    Sleep science has clearly demonstrated the importance of sleep to 
health and well being, yet research studies continue to show that 
millions of Americans are at risk for the serious health, safety 
consequences of sleep disorders and inadequate sleep. Moreover their 
quality of life suffers and the personal and national economic impact 
is staggering. NSF believes that every American needs to understand 
that good health includes healthy sleep, just as it includes regular 
exercise and balanced nutrition. We must elevate sleep to the top of 
the national health agenda. We need your help to make this happen.
    Our biggest challenge is bridging the gap between the outstanding 
scientific advances we have seen in recent years and the level of 
knowledge about sleep held by health care practitioners, educators, 
employers, and the general public. This gap in knowledge is being 
discussed as I present this testimony today, by hundreds of concerned 
professionals. Yesterday and today, the National Center on Sleep 
Disorders Research, the National Heart, Lung, and Blood Institute, and 
the Trans-NIH Sleep Research Coordinating Committee are sponsoring a 
translational conference entitled ``Frontiers of Knowledge in Sleep and 
Sleep Disorders: Opportunities for Improving Health and Quality of 
Life.'' This two-day program has assembled health care providers, 
public health and education experts, policy makers, patient advocacy 
organizations, sleep medicine specialists, and other stakeholders. It 
is intended to address how information about sleep and sleep disorders 
can translate into improvements in public health and safety using cost-
effective, comprehensive, and broadly-applied strategies for education, 
societal change, and improved sleep-related health care.
    This conference is an important step in translating research into 
practice and into a broad-based public health message. The development 
of a sleep education and public awareness initiative would serve as a 
key legacy for the sleep translational conference and provide a forum 
for dissemination of the outcomes of the sleep translational 
conference. The National Sleep Foundation has been leading the way on 
public education regarding sleep and sleep disorders since it was 
founded in 1990. NSF and others have done a lot, but so much more needs 
to be done in order to educate the public and actually change behavior. 
Because resources are limited and the challenges great, we think 
creative and new partnerships need to be created to address the issues 
that are before us.
    In the fiscal year 2005 appropriations bill, Congress recommended 
that The National Center on Sleep Disorders Research partner with other 
federal agencies, such as the Centers for Disease Control and 
Prevention, and voluntary health organizations, such as NSF, to develop 
an ongoing, inclusive mechanism for public and professional awareness 
on sleep, sleep disorders, and the consequences of fatigue. Such a 
collaboration between federal agencies and voluntary health 
organizations will create an opportunity for dramatically improving 
public health and safety as well as the quality of life for millions, 
if not all, Americans. Beginning steps have been taken to establish 
this collaboration, but continued support from the National Center on 
Sleep Disorders Research and the Centers for Disease Control and 
Prevention is critical.
    Last year, at a National Institutes of Health sleep conference, the 
U.S. Surgeon General reported on the profound impact that chronic sleep 
loss and untreated sleep disorders have on all Americans. He emphasized 
that dissemination of the existing body of medical knowledge and 
implementation of expanded clinical practice guidelines regarding sleep 
and sleep disorders are critically important.
    Conferences and workshops held by the Surgeon General involve 
educating the public, advocating for effective disease prevention and 
health promotion programs and activities, and providing a highly 
recognized symbol of national commitment to protecting and improving 
the public's health.
    We believe that it is time that the federal government helps 
promote sleep as a public health concern through the development of a 
Surgeon General's report on sleep and sleep disorders in order to call 
attention to the importance of sleep and develop strategies to protect 
and advance the health and safety of the nation.
    Thank you again for the opportunity to present testimony to this 
Subcommittee.
                                 ______
                                 
          Prepared Statement of the NTM Info & Research, Inc.

                        SPECIFIC RECOMMENDATIONS

    NTMIR requests an allocation in the budget to enable NIH, (NIAID & 
NHLBI) to advance diagnostics and treatments for patients suffering 
from pulmonary Nontuberculous Mycobacteria (NTM) disease.
    NTMIR requests funds to facilitate and increase multi-centered 
trials to advance the effectiveness of treatments and to develop new 
treatments.
    NTMIR recommends that CDC/NCHS engage in surveillance to better 
understand the incidence of NTM disease and assess the level of 
awareness within the medical community.
    NTMIR supports the American Lung Association's request for an 
increase of $77 million in funding to combat TB so that we avoid the 
risk of a rise in incidence that complacency can yield.
    NTMIR supports the request of the Ad Hoc Group for Medical Research 
Funding for a $30 billion appropriation for NIH in fiscal 2006.
     what is pulmonary nontuberculous mycobacterial disease (ntm)?
    NTM is an infectious disease considered to be of environmental 
origin as these bacteria are ubiquitous in the water and soil that 
surround us. Although NTM is diagnosed by the same basic test used to 
diagnose traditional tuberculosis (TB), it is significantly more 
difficult to treat. NTM progressively diminishes lung capacity, with 
all the attendant negative consequences in life.
    Unfortunately, even though TB has a significantly high profile, NTM 
does not because education and awareness have been lacking. 
Furthermore, there is growing evidence that NTM is many times more 
prevalent than TB in the United States. For example, the State of 
Florida Infectious Disease Laboratory reports receiving over twice as 
many specimens that are NTM positive for every one that is positive for 
TB. Even more startling, the Agency for Health Care Administration for 
Florida hospital patient discharges shows almost 9 times the number of 
patients with the primary diagnosis of NTM versus those with TB.
    Doctors in leading treating facilities are reporting that even 
though NTM is not reportable, they are seeing more NTM patients than TB 
patients. A current report from Toronto, Ontario indicates that the 
prevalence may be six times higher than the older data we have in the 
United States.
    NTM is not limited to one strain and has certain strains that are 
inherently resistant to drug therapy, and in all cases multiple drugs 
are required on a lengthy to permanent basis. A significant number of 
patients require short to long term intravenous medication and this is 
a particular hardship for the elderly because Medicare does not cover 
in-home therapy. Medicare recipients must be hospitalized one to three 
times a week driving treatment costs significantly higher than in 
alternate settings.

                      NTM INFO & RESEARCH (NTMIR)

    NTMIR was founded through a partnership of concerned patients and 
interested physicians who see increasing numbers of people affected by 
this devastating disease. NTMIR was created to expand professional 
awareness, diagnosis and treatment, facilitate research and provide 
patient support. Our mission is a public/private partnership to advance 
the science and the outcomes for countless patients with NTM disease.
    NTMIR has already demonstrated a track record of success since it 
commenced its activities just two years ago. These include, successful 
implementation of the NTMInfo.com website and online support group, 
patient education throughout the country through the replication of an 
NTM information pamphlet, initiating professional education and Grand 
Round lectures to increase professional education both for specialists 
and family physicians, establishment of a partnership of cooperation 
with public health in the State of Florida and with the American Lung 
Association of Florida. Our most recent effort resulted in agreement 
between a major pharmaceutical company, the FDA and a division of HRSA 
to provide an urgently needed drug for patients who could not otherwise 
obtain it, some of whom might have died without it.
    We anticipate that these efforts will serve as models in other 
states and at the federal level.
     fern r. leitman, patient & director, ntm info & research, inc.
    Fern Leitman is a patient who has severe pulmonary NTM disease that 
has required ongoing medical therapy since 1996. Nonetheless, in 
addition to serving as vice president of Philip Leitman, Inc. where she 
is responsible for asset and acquisition evaluation, she is co-founder 
of the NTM website and NTM Info & Research, Inc.
    Since becoming ill, Fern has dedicated many hours each week to 
communicating with patients from around the United States to help them 
understand how they help themselves to battle NTM disease by being an 
active participant in their own treatment and care. In spite of living 
with devastating and chronic illness, Fern Leitman is committed to 
helping others to live a full life by enhancing the role that NTM Info 
& Research can play in bringing patients, physicians, and government 
organizations to a partnership that will raise awareness and actively 
pursue treatment options to improve the quality of life of those 
suffering with NTM.

                       STATEMENT OF FERN LEITMAN

    Thank you for the opportunity to submit a statement on behalf of 
NTM Info & Research and all the patients suffering with pulmonary NTM 
disease. NTM is an infectious disease that challenges treating 
physicians. Lung transplantation is usually not an option because 
immune suppressants complicate treatment.
    Before NTM struck and caused me to be very ill, I was extremely 
driven, highly competitive and very independent. I spent much of my 
life in sales and was the first woman to sell cars in Florida. I was a 
partner in a New York based garment manufacturing business and I 
survived that without a scratch. I enjoy being extremely active but 
life with nontuberculous mycobacterial disease (NTM) is really tough 
and debilitating.
    This disease has taken away my drive and endurance, one activity at 
a time. It is insidious, frightening, and misunderstood. Many patients 
have told us that they can no longer function because they are so short 
of breath. Others can no longer work and many are hospitalized 
repeatedly.
    The symptoms and the tests to diagnose NTM are much like those for 
TB. Unfortunately, it is much harder to treat. I am witness to the fact 
that after almost nine years of drug therapy I am still not well and 
have been told I will likely require lifelong drug therapy including IV 
medicines.
    Not enough is done because most doctors don't look for this 
disease. When NTM infected my lungs, I coughed continuously and was 
fatigued. I had a low-grade fever for years but never looked ill; I had 
repeated bouts of pneumonia, coughed up blood, and it took 10 years for 
a diagnosis. We hear the same story from other patients. Unfortunately, 
it was too late to repair the damage because the middle portion of my 
left lung was destroyed and there were areas where the tissue had been 
destroyed throughout both lungs. Many others are suffering with NTM and 
most don't even know it yet because, sadly, they haven't been 
diagnosed. Please help them.

          PHILIP LEITMAN, PRESIDENT, NTM INFO & RESEARCH, INC.

    Philip Leitman co-founded NTM Info & Research when his wife Fern 
became ill with severe pulmonary NTM disease. Fern and Philip began 
meeting and hearing from numerous patients who were struggling with NTM 
and had a lack of understanding about it. His personal commitment has 
drawn the support of numerous physicians, the media, as well as 
government and government organizations at various levels. Efforts that 
began by developing the website, (NTMInfo.com) are now an established 
not-for-profit seeking to enhance knowledge about NTM through 
collaborative efforts with leading institutions, government, and 
patients, as well as increased education to provide broader awareness 
and understanding of the need for timely diagnosis and effective multi-
faceted treatments.
    Mr. Leitman has an extensive background in business and 
international business. He currently is a Regional Vice-Chair of the 
Council of National Trustees of National Jewish Medical and Research 
Center, President and co-founder of NTM Info & Research, Inc., Board 
member of the American Lung Association of Florida, member of the 
Florida TB Control Coalition, and a former Board member of Senior Care 
and JVS Rehabilitation Sheltered Workshop.
    Philip Leitman is also President and CEO of Philip Leitman, Inc. He 
is active as a real estate developer in South Florida. He and his wife 
Fern live in Pinecrest, Florida, and their children and grandchildren 
live nearby.

                      STATEMENT OF PHILIP LEITMAN
 
   Fern's doctors say she sets a standard for wanting to survive, 
wanting to live, and wanting to function highly. I am proud to follow 
her lead. This is why!
    In September 1996, shortly after lung surgery, Fern's health 
deteriorated to the point where her doctors suggested that we call our 
children. Fern was rushed to a procedure room to put a bronchoscope 
into her lungs to see what was happening. At that moment, Fern told me 
to go back and talk to her roommate at the hospital because that woman 
had the same illness and was about to have lung surgery. Fern said, 
``Please tell her that she is not as sick and this won't happen to 
her.'' The other woman looked very much like Fern.. NTM can affect any 
one of us but for some unknown reason, it affects more women than men.
    What Fern is going through is simply not unique! There are support 
groups in New York, California, Texas, Florida, and soon in Boston. The 
NTMInfo.com website has now exceeded one million hits. A number of 
leading hospitals and a branch of the CDC are linked.
    Fern's normal morning routine starts with pulmonary therapy to 
clear her airways. Then there is a sinus wash. With breakfast, Fern 
takes five different oral drugs and IV medicines. In addition, there 
are inhaled medicines. The total time from awakening to being able to 
leave the house is usually four (4) hours.
    While tuberculosis is often known to appear in inner cities and 
immigrant populations, NTM knows no such boundaries. However, current 
epidemiologic data is not available. The latest data that we have from 
the Centers for Disease Control was collected in the 1980's and we 
urgently need newer data. Current data from the University of Toronto 
suggests that the prevalence may be six times higher than our older 
information. We have no reason to believe that Toronto is any different 
than Chicago or any other major U.S. city.
                                 ______
                                 
       Prepared Statement of the Ovarian Cancer National Alliance

    On behalf of the Ovarian Cancer National Alliance (the Alliance), I 
thank the Subcommittee for this opportunity to submit comments for the 
record regarding the Alliance's fiscal year 2006 funding 
recommendations that we believe are necessary to help reduce and 
prevent suffering from ovarian cancer. For 8 years, the Alliance has 
worked to increase awareness of ovarian cancer and advocated increased 
federal resources to support research on identifying more effective 
ovarian cancer diagnostics and treatments. While I recently joined the 
Alliance as executive director, my journey with ovarian cancer began 
with my own diagnosis 3 years ago.
    As an umbrella organization with 46 state and local groups, the 
Alliance unites the efforts of more than 500,000 grassroots activists, 
women's health advocates, and health care professionals to bring 
national attention to ovarian cancer. As part of this effort, the 
Alliance advocates sustained federal investment in the Centers for 
Disease Control and Prevention's (CDC) Ovarian Cancer Control 
Initiative. The Alliance respectfully requests that Congress provide $9 
million for the program in fiscal year 2006.

                   OVARIAN CANCER'S DEADLY STATISTICS

    According to the American Cancer Society, in 2005, more than 22,000 
American women will be diagnosed with ovarian cancer, and approximately 
16,000 will lose their lives to this terrible disease. Ovarian cancer 
is the fourth leading cause of cancer death in women. Currently, more 
than half of the women diagnosed with ovarian cancer will die within 5 
years. Among African American women, only 48 percent survive 5 years or 
more. When detected early, the 5-year survival rate increases to more 
than 90 percent, but when detected in the late stages, the 5-year 
survival rate drops to 28 percent.
    Today, it is both striking and disheartening to see that despite 
progress made in the scientific, medical and advocacy communities, 
ovarian cancer mortality rates have not significantly improved during 
the past decade, and a valid and reliable screening test--a critical 
tool for improving early diagnosis and survival rates--still does not 
yet exist for ovarian cancer. Behind the sobering statistics are the 
lost lives of our loved ones, colleagues and community members. While 
we have been waiting for the development of an effective early 
detection test--thousands of our sisters, including one-third of our 
founding board members, have lost their battle to ovarian cancer.
    I am considered one of the lucky ones. When I was diagnosed 3 years 
ago, my two cancers--ovarian and endometrial--were found to be in early 
Stage 1 when I had the best chance for surviving beyond 5 years--
something only 25 percent of women with this disease can claim. Like 
most women diagnosed in early stage ovarian cancer, my good fortune was 
not the result of my awareness of the symptoms, it was not the result 
of my awareness that I was at a higher risk, and it was not the result 
of having access to a currently non-existent early screening test. My 
good fortune was the lucky result of my perseverance with my doctor, 
and my subsequent treatment by the appropriate gynecologic oncologist 
specialist.
    I have come to work for the Alliance to ensure that other women can 
have the opportunity to be as fortunate as I have been. We cannot rely 
on luck for our survival. All women should have access to treatment by 
a specialist. All women should have access to a valid and reliable 
screening test. We must deliver new and better treatments to patients 
and the physicians and nurses who treat patients with this disease tell 
us that until we have a test, we must continue to increase awareness 
and educate women and health professionals about the signs and symptoms 
associated with this disease.

   THE OVARIAN CANCER CONTROL INITIATIVE AT THE CENTERS FOR DISEASE 
                         CONTROL AND PREVENTION

    As the statistics indicate, among the most urgent challenges in the 
ovarian cancer field are late detection and poor survival. The CDC's 
cancer program, with its strong capacity in epidemiology and excellent 
track record in public and professional education, is well positioned 
to address these problems. As the nation's leading prevention agency, 
the CDC plays an important role in translating and delivering at the 
community level what is learned from research, especially ensuring that 
those populations disproportionately affected by cancer receive the 
benefits of our nation's investment in medical research.
    Specifically, the CDC's Ovarian Cancer Control Initiative helps 
give all women the opportunity to survive ovarian cancer. Public 
awareness and education programs funded by the program make women and 
health professionals aware of the warning signs of ovarian cancer and 
examine survival trends based on care received, so they can better 
detect the cancer by identifying and understanding symptoms exhibited 
in early stages.
    In addition, the CDC has a strong tradition of partnering with 
primary care physicians to combat two key barriers to early detection--
recognition and diagnosis of the disease. Primary care physicians 
usually are the first to see women presenting with the disease. 
Increasing awareness and understanding of the signs and symptoms of 
ovarian cancer among these physicians can help improve early detection 
and survival rates.
    Prompted by efforts from leaders of the Alliance and championed by 
Representative Rosa DeLauro--with bipartisan, bicameral support--
Congress established the Ovarian Cancer Control Initiative at the CDC 
in November 1999. Congress' directive to the agency was to develop an 
appropriate public health response to ovarian cancer and conduct 
several public health activities targeted toward reducing ovarian 
cancer morbidity and mortality.
    Currently, the Ovarian Cancer Control Initiative supports several 
national program grants, including three new CDC funded state 
initiatives:
  --The Center for Health Promotion and Prevention Research at the 
        University of Texas in Houston--Funded to conduct a study 
        focusing on symptoms relating to early detection of ovarian 
        cancer and staging distinctions.
  --The School of Public Health at the University of Alabama at 
        Birmingham--Funded to conduct a study focusing on barriers to 
        early detection of ovarian cancer.
  --The North American Association of Central Cancer Registries 
        (NAACCR)--Funded to analyze and report data on ovarian cancer 
        incidence by race, and to find new ways to improve accuracy of 
        ovarian cancer incidence and mortality data among women who are 
        neither Caucasian nor African American.
  --The Department of Preventive Medicine at the University of Southern 
        California--Funded for 1 year to analyze cancer registry data 
        on borderline ovarian cancer cases in California.
  --The Oklahoma University Health Sciences Center--Funded to conduct a 
        2-year, multiple component study of women experiencing possible 
        ovarian cancer symptoms, how they seek treatment, and possible 
        barriers to their medical care.
  --Battelle Centers for Public Health and Evaluation--Funded to 
        conduct a review of medical literature on clinical management 
        of non-specific abdominal and pelvic symptoms potentially 
        suspicious of ovarian cancer in older women. The review will 
        provide the foundation for CDC funding to develop evidence-
        based guidelines for primary care providers to increase ovarian 
        cancer cases detected in early stages.
  --State tumor registries in California, Maryland, and New York--Each 
        state received funding from the National Program of Cancer 
        Registries to conduct a 3 year study to determine the 
        proportion of women who had their initial surgery performed by 
        a gynecologic oncologist and to detail aspects of the second 
        course of treatment provided.

            TAKING THE NEXT STEP IN PREVENTION AND AWARENESS

    In only 5 years, the CDC's Ovarian Cancer Control Initiative, with 
its support of studies on early detection and underserved populations, 
has made an important contribution to a better understanding and 
awareness of the disease. However, without a screening test, it is 
clear that more needs to be done. Additional funding in fiscal year 
2006 will enable the CDC to expand the reach and scope of its current 
ovarian cancer initiatives to help advance our nation's effort's to 
reduce and prevent ovarian cancer morbidity and mortality. The 
allocation of $9 million in fiscal year 2006 funding will continue the 
excellent progress being made and could expand the program's efforts to 
include:
  --Development of a risk model for ovarian cancer like the model for 
        breast cancer. This would help health care professionals 
        identify high-risk women, who then could be monitored 
        regularly. By helping health care providers to be ``on alert,'' 
        they have the information and tools they need to catch the 
        disease early and improve survival rates.
  --Conduct an education campaign targeted to high-risk women to 
        educate them about the signs and symptoms of ovarian cancer, 
        the importance of regular monitoring, and strategies for risk 
        reduction.
  --Development and implementation of a national campaign to inform 
        primary care physicians, who are usually the first to see women 
        with symptoms, about ovarian cancer.
  --Examination of the reasons why minority women have higher mortality 
        rates and development of appropriate strategies for addressing 
        this terrible health disparity.
  --Conduct an education initiative targeted to health care 
        professionals about best practices for treating the disease, 
        especially referral to a gynecologic oncologist for optimal 
        survival outcome.

             A SUSTAINED COMMITMENT TO FUND CANCER RESEARCH

    When funding stagnates or does not keep pace with inflation, 
progress in critical research programs is halted or slows 
significantly. Inadequate funding for the National Institutes of Health 
(NIH) and the National Cancer Institute (NCI) means smaller ``trickle 
down'' occurs for the lesser-known or less popular--yet terribly 
devastating--diseases like ovarian cancer. To ensure adequate funding 
for all types of cancer, particularly those most deadly and least 
understood, the Alliance joins the cancer community in asking for $30.1 
billion for NIH and $6.17 billion for NCI in fiscal year 2006.

                                SUMMARY

    The Alliance maintains a long-standing commitment to work with 
Congress, the Administration, and other policymakers and stakeholders 
to improve the survival rate from ovarian cancer through education, 
public policy, research, and communication. Please know that we 
appreciate and understand that our nation faces many challenges and 
Congress has limited resources to allocate, however, we are concerned 
that without increased funding to bolster and expand ovarian cancer 
education, awareness, and research efforts, the nation will continue to 
see growing numbers of women losing their battle with this terrible 
disease.
    On behalf of the entire ovarian cancer community--patients, family 
members, clinicians and researchers--we thank you for your leadership 
and support of federal programs that seek to reduce and prevent 
suffering from ovarian cancer. Thank you in advance for your support of 
$9 million in fiscal year 2006 funding for the CDC's Ovarian Cancer 
Control Initiative.
                                 ______
                                 
      Prepared Statement of the Pulmonary Hypertension Association

              SUMMARY OF FISCAL YEAR 2006 RECOMMENDATIONS

  --$250,000 within the Centers for Disease Control and Prevention 
        (CDC) for a pulmonary hypertension awareness and education 
        program.
  --A 6 percent increase for the National Heart, Lung and Blood 
        Institute (NHLBI) and the establishment of Pulmonary 
        Hypertension Centers of Excellence at the Institute.
  --$30 million for the Health Resources and Services Administration's 
        (HRSA) ``Gift of Life Donation Initiative.
    Mr. Chairman, thank you for the opportunity to submit testimony on 
behalf of the Pulmonary Hypertension Association.
    I am Dr. Anne Caesar, a professor of medicine at Georgetown 
University and a pulmonary hypertension patient (PH). PH is a rare 
disorder involving both the heart and the lungs. The walls of the blood 
vessels that supply the lungs thicken and often constrict, making them 
unable to carry normal amounts of blood. The heart works harder to 
compensate and eventually can't keep up. Life is threatened. Currently, 
there is no cure. Symptoms of pulmonary hypertension include shortness 
of breath with minimal exertion, fatigue, chest pain, dizzy spells and 
fainting.
    When PH occurs in the absence of a known cause, it is referred to 
as primary pulmonary hypertension (PPH). This term should not be 
construed to mean that because it has a single name it is a single 
disease. There are likely many unknown causes of PPH.
    Secondary pulmonary hypertension (SPH) means the cause of the 
disease is known. Common causes of SPH are the breathing disorders 
emphysema and bronchitis. Other less frequent causes are scleroderma, 
CREST syndrome and systemic lupus. In addition, the use of diet drugs 
can lead to the disease.
    While new treatments are available, unfortunately, PH is frequently 
misdiagnosed and often progresses to late stages by the time it is 
detected. Although PH is chronic and incurable with a poor survival 
rate, the new treatments becoming available are providing a 
significantly improved quality of life for patients. Recent data 
indicates that the length of survival is continuing to improve, with 
some patients able to manage the disorder for 20 years or longer.
    Eleven years ago, when three patients who were searching to end 
their own isolation founded this organization, there were less than 200 
diagnosed cases of this disease. It was virtually unknown among the 
general population and not well known in the medical community. They 
soon realized that this was not enough and as membership began to 
grow--driven by a newsletter written by patients and distributed by 
doctors--and as a community began to form, an 800 number support line 
was launched, support groups were established, a Scientific Advisory 
Board (SAB) was formed, a Patient's Guide to Pulmonary Hypertension was 
written, and a web site was launched.
    Today, PHA includes:
  --Over 5,000 patients, family members, and medical professionals.
  --An international network of over 100 support groups.
  --An active and growing patient telephone helpline.
  --A new and fast-growing research fund. (A cooperative agreement has 
        been signed with the National Heart, Lung, and Blood Institute 
        to jointly create and fund five, five-year, mentored clinical 
        research grants and PHA has awarded seven Young Researcher 
        Grants.)
  --A host of numerous electronic and print publications, including the 
        first medical journal devoted to pulmonary hypertension--
        published quarterly and distributed to all cardiologists, 
        pulmonologists and rheumatologists in the United States.

               CENTERS FOR DISEASE CONTROL AND PREVENTION

    PHA applauds the subcommittee for its leadership in encouraging CDC 
to initiate a professional and public PH awareness campaign. We 
continue to work with officials at the CDC to establish this important 
program which will better inform health care professionals and the 
general public about PH, its symptoms, and treatment options.
    PHA knows that Americans are dying because of a lack of awareness 
of both pulmonary hypertension and recent advances in research and 
treatments. Most particularly, this is true among underserved 
populations. These are the least likely and the least able to see the 
three and four doctors it often takes to get a correct diagnosis. We 
believe that activities proposed below need to include special focus on 
reaching underserved populations and their medical services.
    The following is a description of the specific initiatives we hope 
to launch in collaboration with CDC.
    (1) Increasing awareness and understanding of PH among primary care 
physicians is critically important, because these practitioners are 
usually the first point of contact for PH patients. If the primary care 
doctor misses the symptoms, then the chance for early diagnosis depends 
upon the intuition and persistence of the patient. They have a chance, 
if they aggressively pursue diagnosis by trained and aware specialists. 
If they are not aggressive, or if they are in a health plan that 
requires their general practitioner to prescribe the referral, they are 
more likely to go undiagnosed until it is too late to control their 
illness. To increases awareness we propose to launch the following:
  --Written and video diagnostic tools for placement on the Internet.
  --Working with state health departments and clinic administrators to 
        develop information for mailing to primary care physicians, 
        medical schools and medical centers in the United States 
        drawing their attention to the new web resources.
  --A simplified and visually attractive print version of the proper 
        diagnostic procedures, which will be targeted to primary care 
        physicians, public health clinics, medical schools, and medical 
        centers in the United States.
  --Advertising in publications general practitioners and public health 
        professionals are likely to read. The emphasis will be the 
        importance of early diagnosis and the ease of accessing 
        diagnostic tools via the Internet.
  --Improvements to an already produced CD-ROM that explains pulmonary 
        hypertension from a variety of perspectives. We would like to 
        make these available to the medical community and patients 
        through our web site on an as requested basis and at 
        conferences and through targeted mailings.
    (2) Due to the advancements in treatment for PH, it is important 
that we also focus on educating cardiologists and pulmonologists. Our 
strategies for reaching cardiovascular specialists include:
  --Expansion of the first Pulmonary Hypertension Journal focused on 
        educating a cardiologists and pulmonologists on issues related 
        to the diagnosis and treatment of the illness.
  --Placement of additional detailed information on the illness on the 
        web. The PH Journal and other publications will promote this 
        availability.
  --Expansion of the medical section of PHA's international conference 
        on pulmonary hypertension (the largest PH conference in the 
        world).
  --Expansion of PHA's Pulmonary Hypertension Resource Network. This 
        program is focused on increasing awareness and knowledge of PH 
        among nurses, respiratory therapists, technicians and 
        pharmacists through peer education.
    (3) Finally, PHA is committed to increasing PH awareness among the 
general public through the development of the following initiatives:
  --A series of 10, 15, and 30 second public service announcements on 
        PH. These PSAs will be in both audio and video form.
  --A PH media relations manual.
  --An organ donation and transplant listing Awareness Campaign 
        (unfortunately, many PH patients die before finding a suitable 
        organ donor).
  --Expansion of awareness and information activities on PHA's web 
        site.
  --Continuation of PH Awareness Month.
    PHA and CDC have engaged in an ongoing dialogue about these and 
other strategies designed to increase awareness of PH. We are grateful 
for CDC's support of a DVD focused on the diagnosis of PH. However, 
despite repeated encouragement from the subcommittee, CDC has not 
established an ongoing awareness and education initiative on this 
devastating disease. Therefore, for fiscal year 2006, we encourage you 
to provide $250,000 within CDC's Cardiovascular Disease program for the 
formal establishment of this important initiative.

                NATIONAL HEART, LUNG AND BLOOD INSTITUTE

    Mr. Chairman, PHA commends the leadership of the National Heart, 
Lung and Blood Institute (NHLBI) for its support of PH research. Three 
years ago, two separate groups of scientists funded by NHLBI 
simultaneously identified a genetic mutation associated with primary 
pulmonary hypertension.
    The two groups independently reported that defects in the BMPR2 
gene, which regulates growth and development of the lung, are 
associated with PPH. The defects in the gene lead to the abnormal 
proliferation of cells in the lung characteristic on PPH.
    Although both studies suggest that only one gene is involved in 
PPH, neither group identified the defects in BMPR2 as the sole cause of 
PPH. In addition, since many people without a known family history of 
PPH get the disease, both groups suggested that other factors may 
interfere with control of the tissue growth. Now that we have 
pinpointed a gene, we can focus on learning how it works. Hopefully, 
that information will enable researchers to devise better treatments 
and perhaps eventually a preventive therapy or cure.
    We greatly appreciate NHLBI's commitment to advancing research to 
better understand and ultimately cure this disease. Morever, we applaud 
the subcommittee's strong support of PH research at the Institute. For 
fiscal year 2006, PHA recommends a 6 percent increase for NHLBI and the 
NIH overall. In addition, PHA recommends the establishment of three 
pulmonary hypertension ``Centers of Excellence'' at NHLBI to support 
the expansion of research, training and information dissemination. 
Finally, we encourage the establishment of a PH data system and 
clearinghouse at the Institute.

                GIFT OF LIFE DONATION INITIATIVE AT HRSA

    Mr. Chairman, PHA applauds the success of the Department of Health 
and Human Services ``Gift of Life'' Donation Initiative. Currently, 
there are three drugs that PH patients can be prescribed to help 
improve the quality of life with PH. Eventually, many patients must 
move toward lung or heart and lung transplantation. PH is a difficult 
to diagnose illness and while patients often list soon after diagnosis, 
for many PH patients it is too late. This why PHA is developing the 
Bonnie's Gift Project.
    Bonnie's Gift was started in memory of Bonnie Dukart, one of PHA's 
most active and respected leaders. Bonnie was a PH patient herself. She 
battled with PH for almost 20 years until her death in 2001 following a 
double lung transplant. Prior to her death, Bonnie expressed an 
interest in the development of a program within PHA related to 
transplant information and awareness. PHA will use Bonnie's Gift as a 
way to disseminate information about PH, the importance of early 
listing, the importance of organ donation to our community and organ 
donation cards.
    PHA has entered into a partnership with the ``Gift of Life'' 
Donation Initiative to increase awareness of the importance of organ 
donation and early listing within the PH community. For fiscal year 
2006, PHA supports an appropriation of $30 million for HRSA's Gift of 
Life program.

                               CONCLUSION

    Mr. Chairman, once again thank you for the opportunity to present 
the views of the Pulmonary Hypertension Association. We look forward to 
continuing to work with you and the subcommittee to improve the lives 
of pulmonary hypertension patients. If you have any questions or would 
like additional information, please do not hesitate to contact me or 
the Pulmonary Hypertension Association's National Office.
                                 ______
                                 
         Prepared Statement of the Society of Nuclear Medicine

    The Society of Nuclear Medicine (SNM) appreciates the opportunity 
to submit written testimony for the official record regarding federal 
funding for biomedical research in fiscal year 2006.
    SNM is an international, scientific, and professional organization 
with more than 16,000 members dedicated to promoting the science, 
technology, and practical application of nuclear medicine. Over the 
last 50 years, since biomedical imaging first began, the Nuclear 
Medicine community has made groundbreaking discoveries thanks to the 
research and development that was facilitated at the National 
Institutes of Health (NIH). To that end, the Society strongly 
recommends sufficient levels of federal funding to sustain and seize 
new opportunities in biomedical research.
    The Society of Nuclear Medicine stands ready to work with 
policymakers at the local, state, and federal levels to advance 
biomedical research policies and programs that will reduce and prevent 
suffering from disease.

                       WHAT IS NUCLEAR MEDICINE?

    Nuclear Medicine is an established specialty that performs non-
invasive molecular imaging procedures to diagnose and treat diseases, 
and also to determine the effectiveness of therapeutic treatments--
whether surgical, chemical, or radiation. It contributes extensively to 
the treatments and diagnoses of patients with cancers of the brain, 
breast, blood, bone, bone marrow, liver, lungs, pancreas, thyroid, 
ovaries, and prostate. Molecular imaging continues to provide expert 
information to help doctors, technicians, and other health care 
personnel manage abnormalities of the heart, brain, and kidneys. In 
fact, recent advances in the detection and diagnosis of Alzheimer's 
disease can be attributed to Nuclear Medicine imaging procedures, 
specifically positron emission tomography (PET) scans. These advances--
which were made possible by research from nuclear medicine 
professionals--helped lead the Centers for Medicaid and Medicare 
Services (CMS) to extend Medicare coverage to include PET scans for 
some beneficiaries who suffer from Alzheimer's and other dementia-
related diseases.
    CMS Administrator Mark B. McClellan announced the coverage by 
saying: ``Together with outside experts and other agencies we examined 
the available data and determined that we ought to approve coverage for 
patients who've been worked up but whose diagnosis is uncertain.'' \1\
---------------------------------------------------------------------------
    \1\ CMS Press Release--Sept. 14, 2004--Medicare Posts Coverage 
Decision to Expand Coverage of PET Scans for Alzheimer's. http://
www.cms.hhs.gov/media/press/release.asp?Counter=1200.
---------------------------------------------------------------------------
    CMS' decision was also explained by Dr. Sean Tunis, CMS' Chief 
Medical Officer. He said: ``The available evidence supports the 
conclusion that PET scans help to evaluate patients with progressive 
symptoms of dementia, but for whom a diagnosis remains unclear despite 
a thorough standard medical evaluation. We will also support the 
conduct of additional studies that will determine the value of PET 
scans required in a broader population of Medicare beneficiaries who 
develop symptoms of dementia.''
    The effect nuclear medicine has on people is far-reaching. 
Annually, more than 16 million men, women, and children require 
noninvasive molecular/nuclear medical procedures. These safe, cost-
effective procedures include PET scans to diagnose and monitor 
treatments in cancer; cardiac stress tests that analyze heart function; 
bone scans for orthopedic injuries; and lung scans for blood clots. In 
addition, patients undergo procedures to diagnose liver and gall 
bladder functional abnormalities and to diagnose and treat 
hyperthyroidism and thyroid cancer.

                SUSTAIN AND SEIZE RESEARCH OPPORTUNITIES

    For decades, Americans and people from across the world have 
benefited from the strong federal investment in nuclear medicine and 
biomedical research at the National Institutes of Health. We can safely 
say, in the words CMS Administrator McClellan, ``the technology is 
promising.'' \2\ The Society hopes that this subcommittee will continue 
its trend of forward thinking and federally fund NIH and the National 
Institute of Biomedical Imaging and Bioengineering (NBIB) and the 
National Cancer Institute (NCI) at sufficient levels for fiscal year 
2006.
---------------------------------------------------------------------------
    \2\ CMS Press Release--Sept. 14, 2004--Medicare Posts Coverage 
Decision to Expand Coverage of PET Scans for Alzheimer's. http://
www.cms.hhs.gov/media/press/release.asp?Counter=1200.
---------------------------------------------------------------------------
    SNM is proud to join its colleagues in the public health community 
in recommending that in fiscal year 2006, NIH is funded at a level 
totaling $30.1 billion. This funding level will permit NIH to sustain 
and build upon its current research activities, which are a byproduct 
of the recent NIH budget doubling effort. Even a minimal decrease or 
slowed momentum of increased funding in NIH's budget could cause severe 
disruption in the research activities and capabilities.
    In 1946, the first successful nuclear magnetic resonance (NMR) 
experiments were performed. This led to the first nuclear magnetic 
resonance imaging (MRI) exam performed on a human being 31 years later 
in 1977. From the first MRI in 1977 to today, critical advances in 
technology have developed, allowing physicians, nuclear medicine 
technicians and other health care professionals to image in seconds 
what used to take hours, days, or even weeks. Research in biomedical 
imaging and bioengineering is progressing rapidly and recent 
technological advances have revolutionized the diagnosis and treatment 
of disease. In 2000, the National Institute of Biomedical Imaging and 
Bioengineering was created. This NIH institute, specifically focused on 
biomedical imaging and bioengineering, has made great strides in 
helping the health care community and its patients recognize and 
understand different diseases and disorders. Pancreatic 
transplantation, brain scans, improvement to epilepsy surgeries are 
just a few examples of how NIBIB research is helping diagnose and treat 
patients. In order for NIBIB to continue moving forward with its 
research, SNM requests $350 million in federal funding for fiscal year 
2006. This funding level will allow NIBIB to further its research, 
development, and application of emerging and breakthrough biomedical 
technologies that will facilitate improved disease detection, 
management, and prevention.
    In addition, SNM advocates that another arm of NIH that uses 
molecular imaging, NCI, receive sufficient funding--$5.21 billion--in 
fiscal year 2006. The American Cancer Society predicts that more than a 
million Americans will be diagnosed with cancer in 2005. We have made 
significant gains in the war on cancer, and there have been successful 
breakthroughs in diagnosing and treating this terrible disease. 
Currently PET scans are available to detect more than a dozen types of 
cancer. Cancer research is leading to new therapies that translate into 
longer survival and improved quality of life for cancer patients. 
Extraordinary advances in cancer research have resulted because of the 
strong commitment by the federal, state, and local governments in 
combating cancer. Effective prevention, early detection, and treatment 
methods for many cancers have resulted from this governmental interest, 
intervention and public education campaign. In order to continue making 
a strong case against cancer, SNM requests that the Committee allocate 
$5.21 billion in federal funds for the NCI in fiscal year 2006.

                               CONCLUSION

    As outlined above, SNM has a strong and vested interest in making 
sure that biomedical research in the United States is sufficiently 
funded. It is in everyone's best interest that the federal government 
invests the needed dollars to continue the pursuit of medical 
breakthroughs in technology and science. Without the sufficient funding 
levels--which include $30.1 billion for NIH, $350 million for NIBIB, 
and $5.21 billion for NCI--the positive effects and results of research 
and development are seriously compromised.
    SNM stands ready to work with policymakers from both sides of the 
aisle to advance biomedical research and innovation to help reduce and 
prevent suffering from disease for all Americans. Again, on behalf of 
the members of SNM, I thank you for the opportunity to submit testimony 
regarding the absolute need for increased federal funding for 
biomedical research. I am available to answer any questions you may 
have.
                                 ______
                                 
     Prepared Statement of the Spina Bifida Association of America

    On behalf of the more than 70,000 individuals and their families 
who are affected by Spina Bifida, the Spina Bifida Association of 
America (SBAA) appreciates the opportunity to submit written testimony 
for the record regarding increased funding for the National Spina 
Bifida Program and other related Spina Bifida initiatives in fiscal 
year 2006. SBAA is the national voluntary health agency working on 
behalf of people with Spina Bifida and their families through 
education, advocacy, research, and service. The Association was founded 
in 1973 to address the needs of the Spina Bifida community and today 
serves as the representative of 57 chapters serving more than 125 
communities nationwide. SBAA stands ready to work with Members of 
Congress and other stakeholders to ensure that our Nation takes all the 
steps necessary to reduce and prevent suffering from Spina Bifida.

                       BACKGROUND ON SPINA BIFIDA

    Spina Bifida is a neural tube defect (NTD) and occurs when the 
spinal cord fails to close properly during the early stages of 
pregnancy, typically within the first few weeks of pregnancy and most 
often before the mother knows that she is pregnant. Over the course of 
the pregnancy--as the fetus grows--the spinal cord is exposed to the 
amniotic fluid which becomes increasingly toxic. It is believed that 
the exposure of the spinal cord to the toxic amniotic fluid erodes the 
spine and results in Spina Bifida. There are varying forms of Spina 
Bifida, from mild--with little or no noticeable disability--to severe--
with limited movement and function. In addition, within each different 
form of Spina Bifida the effects can vary widely. Unfortunately, the 
most severe form of Spina Bifida occurs in 96 percent of children born 
with this birth defect.
    The result of this neural tube defect is that most children with it 
suffer from a host of physical, psychological, and educational 
challenges--including paralysis, developmental delay, numerous 
surgeries, and living with a shunt in their skulls, which helps to 
relieve cranial pressure associated with spinal fluid that does not 
flow properly. We are pleased to report that after decades of poor 
prognoses and short life expectancy, children with Spina Bifida are now 
living long enough to become adults with Spina Bifida. These gains in 
longevity are principally due to breakthroughs in research, combined 
with improvements generally in health care and treatment. However, with 
this extended life expectancy, our Nation and people with Spina Bifida 
now face new challenges--education, job training, independent living, 
health care for secondary conditions, aging concerns, among others. 
Despite these gains, individuals and families affected by Spina Bifida 
face many challenges--physical, emotional, and financial.
    Recent studies have shown that if all women of childbearing age 
were to consume 400 micrograms of folic acid daily prior to becoming 
pregnant and throughout the first trimester of pregnancy, the incidence 
of Spina Bifida could be reduced by up to 75 percent. However, even if 
we are successful in preventing the majority of Spina Bifida cases in 
the future, our Nation still must take steps to ensure that the tens of 
thousands of individuals living with Spina Bifida can live full, 
healthy, and productive lives. To ensure the highest quality-of-life 
possible, prevention interventions and treatment therapies must be 
identified, developed, and delivered to those in need.

                          COST OF SPINA BIFIDA

    It is important to note that the lifetime costs associated with a 
typical case of Spina Bifida--including medical care, special 
education, therapy services, and loss of earnings--are as much as $1 
million. The total societal cost of Spina Bifida is estimated to exceed 
$750 million per year, with just the Social Security Administration 
payments to individuals with Spina Bifida exceeding $82 million per 
year. Moreover, tens of millions of dollars are spent on medical care 
paid for by the Medicaid and Medicare Programs. Our Nation must do more 
to help reduce the emotional, financial, and physical toll of Spina 
Bifida on the individuals and families affected. Efforts to reduce and 
prevent suffering from Spina Bifida help to save money and save lives.

  IMPROVING QUALITY-OF-LIFE THROUGH THE NATIONAL SPINA BIFIDA PROGRAM

    Secondary conditions associated with Spina Bifida include full or 
partial paralysis, neurological disorders, bladder and bowel control 
difficulties, learning disabilities, depression, latex allergy, 
obesity, skin breakdown, and social and sexual issues. Children with 
Spina Bifida often have learning disabilities and may have difficulty 
paying attention, expressing or understanding language, and grasping 
reading and math. Early intervention with children who experience 
learning problems can help considerably to prepare them for school. 
With appropriate, affordable, and high-quality medical, physical, and 
emotional care, most people born with Spina Bifida likely will have a 
normal or near normal life expectancy. Ensuring access to these 
services is essential to improving the quality-of-life for those born 
with this birth defect.
    SBAA has worked with Members of Congress to ensure that our Nation 
is taking all the steps possible to prevent Spina Bifida and diminish 
suffering for those living with this condition. As part of this 
comprehensive effort, SBAA collaborated with Members of Congress and 
other interested parties to secure an essential increase in fiscal year 
2005 funding for the National Spina Bifida Program at the National 
Center for Birth Defects and Developmental Disabilities (NCBDDD) at the 
Centers for Disease Control and Prevention (CDC). SBAA thanks the 
Members of the Subcommittee for their expression of support for this 
new and integral program by allocating $3.6 million in fiscal year 
2005.
    The National Spina Bifida Program works on two critical levels--to 
reduce and prevent Spina Bifida incidence and morbidity and to improve 
quality-of-life for those living with Spina Bifida. The program seeks 
to ensure that what is known by scientists is practiced and experienced 
by the 70,000 individuals and families affected by Spina Bifida. For 
example, the program helps individuals with Spina Bifida and their 
families learn how to treat and prevent secondary health problems, 
which range from learning disabilities and depression to severe 
allergies and skin problems that make life difficult for these 
individuals. All of these problems can be treated or prevented, but 
only if those affected by Spina Bifida--and their caregivers--are 
properly educated and taught what they need to know to maintain the 
highest level of health and well-being possible.
    Second, the National Spina Bifida Program offers benefits to those 
who live with Spina Bifida and their families by working to improve the 
outlook for a life challenged by this complicated birth defect--
principally identifying potentially valuable therapies from in-utero 
throughout the lifespan and making them available and accessible to 
those in need. These secondary prevention activities represent a 
tangible quality-of-life difference to the 70,000 individuals living 
with Spina Bifida. With the goal being living well with Spina Bifida, 
the secondary prevention initiatives are focused on the creation and 
implementation of strategies to improve the quality-of-life. These 
quality-of-life efforts center on reaching the general population with 
Spina Bifida, advancing treatment of Spina Bifida and its related 
conditions, and working with adolescents living with Spina Bifida to 
address their specific academic, psycho-social, and vocational needs. 
In addition, the National Spina Bifida Program will create and 
implement a comprehensive program to assist teens with Spina Bifida in 
the development of life skills for independence, self-reliance, and 
success in the world.
    SBAA advocates that the National Spina Bifida Program receive $5.5 
million in fiscal year 2006 so the NCBDDD can expand and continue to 
promote quality-of-life programs that support people with Spina Bifida 
so they can live fulfilling and productive lives. In its first three 
years, this program already has made a difference for our community and 
with additional resources it can expand its reach and provide 
additional assistance and hope to those with an affected loved one. 
Increasing funding for the National Spina Bifida Program will help 
ensure that our nation continues to mount a comprehensive effort to 
prevent and reduce suffering from Spina Bifida.

                        PREVENTING SPINA BIFIDA

    While the exact cause of Spina Bifida is unknown, over the last 
decade, medical research has confirmed a link between a woman's folate 
level before pregnancy and the occurrence of Spina Bifida. Sixty 
million women are at-risk of having a child born with Spina Bifida and 
each year approximately 3,000 pregnancies in this country are affected 
by Spina Bifida, resulting in 1,500 births. As mentioned above, 
research has found that the consumption of 400 micrograms of folic acid 
daily prior to becoming pregnant and throughout the first trimester of 
pregnancy can help reduce incidence of Spina Bifida up to 75 percent. 
There are few public health challenges that our Nation can tackle and 
conquer by three-fourths in such a straightforward fashion. However, we 
must still be concerned with addressing the 25 percent of Spina Bifida 
cases that cannot be prevented by folic acid consumption, as well as 
ensuring that all women of childbearing age--particularly those most 
at-risk for a Spina Bifida pregnancy--consume adequate amounts of folic 
acid.
    The good news is that progress has been made in convincing women of 
the importance of folic acid consumption and the need to maintain diet 
rich in folic acid. Since 1968, the CDC has led the Nation in 
monitoring birth defects and developmental disabilities, linking these 
health outcomes with maternal and/or environmental factors that 
increase risk, and identifying effective means of reducing such risks. 
Former CDC Director Jeff Koplan has stated that the agency's folic acid 
prevention campaign has reduced neural tube defect births by 20 
percent. This public health success should be celebrated, but it is 
only half of the equation as approximately 3,000 pregnancies still are 
affected by this devastating birth defect. The Nation's public 
education campaign around folic acid consumption must be enhanced and 
broadened to reach segments of the population that have yet to heed 
this call--such an investment will help ensure that as many cases of 
Spina Bifida can be prevented as possible.
    SBAA works collaboratively with CDC and other nonprofits to 
increase awareness of the benefits of folic acid, particular for those 
at elevated risk of having a baby with neural tube defects (those who 
have Spina Bifida themselves or those who have already conceived a baby 
with Spina Bifida). With additional funding in fiscal year 2006 these 
activities could be expanded to reach the broader population in need of 
these public health education, health promotion, and disease prevention 
messages. SBAA advocates that Congress provide additional funding to 
CDC to allow for a particular public health education and awareness 
focus on at-risk populations (e.g. Hispanic-Latino communities) and 
health professionals who can help disseminate information about the 
importance of folic acid consumption among women of childbearing age.
    In addition to a $5.5 million fiscal year 2006 allocation for the 
National Spina Bifida Program, SBAA supports a fiscal year 2006 
allocation of $135 million for the NCBDDD so the agency can enhance its 
programs and initiatives to prevent birth defects and developmental 
disabilities and promote health and wellness among people with 
disabilities.

        IMPROVING HEALTH CARE FOR INDIVIDUALS WITH SPINA BIFIDA

    The mission of the Agency for Healthcare Research and Quality 
(AHRQ) is to improve the outcomes and quality of health care; reduce 
its costs; improve patient safety; decrease medical errors; and broaden 
access to essential health services. The work conducted by the agency 
is vital to the evaluation of new treatments in order to ensure that 
individuals and their families living with Spina Bifida continue to 
receive the high quality health care that they need and deserve. SBAA 
recommends that AHRQ receive $440 million in fiscal year 2006 so that 
it can continue to conduct follow-up efforts to evaluate Spina Bifida 
treatments, promulgate associated standards of care, and further the 
provision of evidence-based care stemming from the outcomes of the 2003 
Spina Bifida Research Conference. A new partnership between the Centers 
for Disease Control and AHRQ to develop treatments for Spina Bifida 
brings new hope for families living with Spina Bifida.

         SUSTAIN AND SEIZE SPINA BIFIDA RESEARCH OPPORTUNITIES

    SBAA seeks to support individuals and families affected by Spina 
Bifida, maximize the prevention of Spina Bifida, and ensure that all 
babies born with Spina Bifida have the greatest chance of survival and 
the highest quality-of-life--through the lifespan. When families 
recently diagnosed with a Spina Bifida pregnancy contact SBAA, the 
organization puts them in touch with other families who have a child 
with the condition so they can learn of the joys and challenges of 
having a child with the birth defect. Unfortunately, traditionally when 
families are faced with a Spina Bifida diagnosis they have had two 
difficult options. The first is to continue the pregnancy with the 
expectation of multiple surgeries for the child after birth, uncertain 
life expectancy, and many physical and developmental challenges and 
complications. The second, unfortunately, is to terminate the 
pregnancy. Fortunately, now there may be an important and effective 
third option.
    Since the late 1990s, doctors at three U.S. hospitals--Children's 
Hospital of Philadelphia, Vanderbilt University Medical Center in 
Nashville, and the University of California at San Francisco--have been 
operating before birth on fetuses diagnosed with Spina Bifida. In 2003, 
the University of North Carolina became the fourth hospital in the 
Nation to perform the in-utero operations. By closing the spinal lesion 
early in pregnancy, physicians believe they can minimize the damage 
created by fluid leaking from the spine, as well as limit by the harm 
done due to the spinal cord's contact with the amniotic fluid. Surgeons 
have found that closing the hole in the spine in this fashion before 
birth may correct breathing problems in 15 percent of the children 
receiving the procedure and may reduce the need for a shunt to drain 
fluid from the brain by between 33 percent and 50 percent.
    To determine whether or not this new procedure is safer and more 
effective than the traditional post-birth surgery to address the 
condition, the National Institute of Child Health and Human Development 
(NICHD) is conducting a large study involving the Children's Hospital 
of Philadelphia, Vanderbilt University Medical Center, and the 
University of California at San Francisco. While these three 
institutions have undertaken preliminary studies of the in-utero 
surgery technique, the overall and long-term effectiveness of this 
approach as compared to traditional therapy remains unknown. Given the 
potential for this surgery to ameliorate many of the conditions 
associated with Spina Bifida, we must do a better job of studying and 
evaluating this procedure, educating health care providers about this 
surgery as a potential option, and making information about it 
available to more families facing a Spina Bifida pregnancy.
    Our Nation has benefited immensely from past federal investment in 
biomedical research at the National Institutes of Health (NIH). SBAA 
joins with the rest of the public health community in advocating that 
NIH receive $30.1 billion in fiscal year 2006. This funding will 
support applied and basic biomedical, psychosocial, educational, and 
rehabilitative research to improve the understanding of the etiology, 
prevention, cure and treatment of Spina Bifida and its related 
conditions. In addition, SBAA urges the NIH to explore the following as 
they relate to individuals with Spina Bifida: assistive technology, in 
utero surgery, cost of care, women's and men's health, tethered cord, 
hydrocephalus, latex allergies, and other related factors.

                               CONCLUSION

    SBAA stands ready to work with policymakers to advance policies 
that will reduce and prevent suffering from Spina Bifida. Again, we 
thank you for the opportunity to present our views on funding for 
programs that will improve the quality-of-life for the 70,000 Americans 
and their families living with Spina Bifida and stand ready to answer 
any questions you may have.
                                 ______
                                 
    Prepared Statement of the Society for Investigative Dermatology

              SUMMARY OF FISCAL YEAR 2006 RECOMMENDATIONS

    (1) A 6 percent increase for all of the National Institutes of 
Health and the National Institute of Arhtritis and Musculoskeletal and 
Skin Dieseases (NIAMS).
    (2) Encourage NIAMS to create and enhance academic and educational 
opportunities for the advancement of scientific investigation of skin 
health and dermatologic diseases.
    (3) Encourage NIAMS to sponsor further burden of skin disease 
research and epidemiology activities to investigate general and skin-
disease specific measures in order to generate data surrounding the 
incidence, prevalence, economic burden, quality of life, disability and 
handicaps attributable to these diseases.
    (4) Promote the development of NIH-supported training resources 
dedicated to attract more individuals to careers in skin disease 
research.
    Mr. Chairman, and members of the subcommittee--I am very grateful 
for this opportunity to testify on behalf of the Society for 
Investigative Dermatology. I am Dr. Kevin Cooper, Professor of 
Dermatology, Chairman and Director of the Skin Diseases Research Center 
at the Department of Dermatology at Case Western Reserve University. I 
have been a physician and investigator serving the VA for 20 years in a 
part time capacity as a component of my academic work. I also serve as 
President of the Society for Investigative Dermatology.

                               BACKGROUND

    The Society for Investigative Dermatology has over 2000 members 
worldwide dedicated to the advancement and promotion of the sciences 
relevant to skin health and disease through education, advocacy, and 
the scholarly exchange of scientific information. Members include 
scientists and physician researchers from universities, hospitals, and 
industries committed to the science of dermatology. Each member firmly 
believes that further research is critical to improved prevention, 
diagnosis, and treatment for the 3,000 different diseases of the skin, 
hair, and nails, which affect about 80 million Americans each year.
    My purpose in being here today is to emphasize the need for 
increased funding for the National Institutes of Health (NIH) and the 
National Institute of Arthritis and Musculoskeletal and Skin Diseases 
(NIAMS), and to encourage follow-up to the ``Burden of Skin Disease'' 
workshop that took place in 2002. The workshop was held with the 
intention to investigate general and skin-disease specific measures in 
order to generate data surrounding the incidence, prevalence, economic 
burden, quality of life, disability and handicaps attributable to these 
diseases.
    Good health depends on healthy skin. Much of what we see on the 
outside of the body is a reflection of a person's health inside. From 
the yellow of hepatitis, to the deep purple lesions of Kaposi's 
sarcoma--a common side effect of AIDS, from the sizeable skin lesions 
of lupus erythematosus, to the painful deformed nails which may occur 
in patients with severe arthritis and psoriasis--health disorders often 
show up first as problems on the skin's surface. Skin samples are often 
used to make genetic diagnoses of internal disorders and in the future, 
the skin may be a target for gene replacement.
    Advances in cell biology allow us to understand the life cycle of 
skin and hair-producing cells and to explain how a malfunctioning 
immune system undermines the health of the body overall and the skin, 
in particular. Furthermore, the ongoing revolution in molecular and 
cell biology, genetics, immunology, information and laser technology 
provides unprecedented opportunities for achieving advances in basic 
research and medical treatment. We are becoming rapidly more adept at 
growing skin cells in the laboratory and at producing artificial skin. 
Increasingly, laser surgery is commonly replacing more invasive and 
traditional surgical methods.
    I would like to thank you for the increase in funding the 
subcommittee provided in fiscal year 2004 for NIH overall and for 
NIAMS. This year, we recommend a 6 percent increase for the NIH budget, 
and a similar percentage increase for NIAMS, which would lead to a 
funding level of $542 million for NIAMS. As the population ages and we 
live longer, dermatologists will be asked increasingly to treat cancers 
and other skin disorders that appear more often in aged individuals. 
Dermatologists will need to find new and better ways to help prevent 
and heal common conditions of the elderly, such as bed sores. Ulcers of 
the skin alone cost $8 billion per year to diagnose and treat.
    I would also like to thank the subcommittee for the inclusion of 
the conference report language in your fiscal year 2005 bill, calling 
for further attention to the numerous research opportunities and 
developments identified during the September 2002 Burden of Skin 
Disease workshop. Further exploration into the economic and social 
costs of skin disease in the U.S. population is necessary, as an 
analysis into many related areas has not been updated since 1979. More 
data must be collected to determine the prevalence of skin diseases and 
the disabilities they inflict upon those suffering from them. The 
translation of statistical data and methodology into improved bedside 
care must be a priority.
    The costs to society for medical care and lost wages due to 
conditions of the skin, hair and nails is estimated to be in the 
billions annually. However, the costs to those suffering from these 
debilitating conditions are immeasurable: they encounter discomfort and 
pain, physical disfigurement, disability, dependency and death. Skin 
conditions affect an individual's ability to interact with others and 
compromise the self-confidence of those inflicted.

                           RESEARCH ADVANCES

    The past two decades have seen explosive growth in technology and 
in increased sophistication in our understanding of the genetic and 
cellular mechanisms underlying many skin, hair and nail disorders. One 
consequence of these findings is a radical new paradigm shift in which 
the skin is now viewed as a complex organ that is intimately responsive 
to the immune system of the body. Several distinct cell types in the 
skin actively generate, regulate and perpetuate immune responses. Other 
important new research findings include the following:
  --A gene responsible for the inherited form of basal cell carcinoma 
        has been identified and may lead to new information as to the 
        origins of skin cancer.
  --A gene for an inherited form of hair loss has been discovered.
  --A new protein that links collagen and vascular defects in 
        scleroderma has been identified.
  --Advances in the design of drug-delivery systems allow for sustained 
        release of drugs through the skin, which will most likely lead 
        to treatments that are more effective.
  --Methods to grow real and artificial skin in laboratories are used 
        to prepare skin grafts for burn victims.
    The past two decades have focused on developing evaluation 
techniques such as clinical epidemiology, biostatistics, economics, and 
the quantitative social sciences used to determine the effectiveness of 
certain procedures and whether they contribute to the quality of life 
and health of both patients and society.
    As you know, medical research organizations such as the Society for 
Investigative Dermatology work closely with patient support and 
advocacy groups. We are pleased to say for many years we have worked 
with the Coalition of Skin Diseases for Skin Disease Research. The many 
organizations that participate in the Coalition have been the best 
possible advocates for increased funding, as they understand that 
unless major research efforts are undertaken, advances in understanding 
and improvements in the health of patients will not occur. Every year, 
we participate with these organizations in advocating increased funding 
for the NIH and NIAMS. We want to reiterate how deeply grateful we are 
for your leadership and that of the subcommittee on medical research 
matters, which means so much for the health of the people in our 
nation.
    I will be pleased to answer any questions you may have.
                                 ______
                                 
 Prepared Statement of the Society for Women's Health Research and the 
                   Women's Health Research Coalition

    On the behalf of the Society for Women's Health Research and the 
Women's Health Research Coalition, we are pleased to submit testimony 
in support of increased funding for biomedical research, and more 
specifically women's health research.
    The Society is the only national non-profit women's health 
organization whose mission is to improve the health of women through 
research, education, and advocacy. Founded in 1990, the Society brought 
to national attention the need for the appropriate inclusion of women 
in major medical research studies and the need for more information 
about conditions affecting women disproportionately, predominately, or 
differently than men.
    The Coalition was created by the Society in 1999 as a way to 
strengthen our grassroots advocacy with scientists and researchers and 
clinicians from across the country who are concerned and committed to 
improving women's health research. The Coalition now has more than 620 
members from across the country, including leaders within the 
scientific community and medical researchers from many of the country's 
leading universities and medical centers, directors from various 
Centers of Excellence on Women's Health as well as leading voluntary 
health associations, and pharmaceutical and biotechnology companies.
    The Society and the Coalition are committed to advancing the health 
status of women through the discovery of new and useful scientific 
knowledge. We believe that sustained funding for the women's health 
research programs that are conducted across the federal research 
agencies is necessary if we are to accommodate the health needs of the 
population and advance the nation's research capability. We urge your 
support for all these federal agencies and programs described below 
that are working to meet these goals.

                     NATIONAL INSTITUTES OF HEALTH

    From decoding the human genome to elucidating the scientific 
components of human physiology, behavior, and disease, scientists are 
unearthing exciting new discoveries which have the potential to make 
our lives and the lives of our families longer, healthier, and safer. 
The National Institutes of Health (NIH) has made this all possible by 
conducting and supporting our nation's biomedical research. The world-
class NIH researchers, scientists, and programs are dedicated to 
understanding how the human body works and to gain insight into 
countless diseases and disorders. Due to robust investment and support 
from Congress, NIH has made the United States the world leader in 
medical research and has had a direct and significant impact on women 
in science and on women's health research.
    In planning for fiscal year 2006 funding for the NIH, the 
Administration has proposed a 0.5 percent increase. This proposed 
amount however will not keep pace with the Biomedical Research and 
Development Price Index. It is vital that United States' commitment to 
medical research be sustained in order not to erode the foundation 
created over the past several years and to continue to build upon 
promising research to enhance the quality of life for all Americans 
touched by illness and disease.
    Therefore, to continue the momentum of scientific advancement and 
expedite the translation of research from the laboratory to the 
patient, the Society encourages an increase of six percent (6 percent) 
for the NIH, for a budget of at least $30 billion for fiscal year 2006. 
In addition, we request that you strongly encourage the NIH to assure 
that women's health research receives resources sufficient to meet the 
health needs of Americans.
    Scientists have long known of the anatomical differences between 
men and women, but only within the past decade have they begun to 
uncover significant biological and physiological differences. Sex 
differences have been found everywhere from the composition of bone 
matter and the experience of pain to the metabolism of certain drugs 
and the rate of neurotransmitter synthesis in the brain. Sex-based 
biology, the study of biological and physiological differences between 
men and women, has revolutionized the way that the scientific community 
views the sexes. The evidence is overwhelming, and as researchers 
continue to find more and more biological differences, they are gaining 
a greater understanding of the biological and physiological composition 
of both sexes.
    Much of what is known about sex differences is the result of 
observational studies, or is descriptive evidence from studies that 
were not designed to obtain a careful comparison between females and 
males. The Society has long recognized that the inclusion of women in 
study populations by itself was insufficient to address the inequities 
in our knowledge of human biology and medicine, and that only by the 
careful study of sex differences at all levels, from genes to behavior, 
would science achieve the goal of optimal health care for both men and 
women. This has given rise to sex-based biology.
    Many sex differences are already present at birth, whereas others 
develop later in life. These differences play an important role in 
disease susceptibility, prevalence, time of onset and severity and are 
evident in cancer, obesity, coronary heart disease, autoimmune, mental 
health disorders, and other illnesses. Physiological and hormonal 
fluctuations may also play a role in the rate of drug metabolism and 
the effectiveness of response in females and males. This research needs 
to be supported and encouraged. Congress recognizes this importance and 
should support NIH at an appropriate level of funding and direct NIH to 
continue and expand this research into sex-based biology.

                  OFFICE OF RESEARCH ON WOMEN'S HEALTH

    The NIH Office of Research on Women's Health (ORWH) has a 
fundamental role in improving women's health research at NIH. Within 
the Office of the Director, ORWH advises the NIH Director on matters 
relating to research on women's health; strengthens and enhances 
research related to diseases, disorders, and conditions that affect 
women; works to ensure that women are appropriately represented in 
biomedical and behavioral research studies supported by NIH; and 
develops opportunities for and supports recruitment, retention, re-
entry and advancement of women in biomedical careers. ORWH works in 
partnership with the NIH Institutes and Centers to ensure that women's 
health research is part of the scientific framework and improve 
interdisciplinary research opportunities in women's health within NIH. 
ORWH's ambitious agenda encompasses issues that go far beyond 
reproductive capacity, cutting across and integrating scientific 
disciplines, medical specialties, psychosocial and behavioral factors, 
and environmental determinants in a multidisplinary and collaborative 
approach. ORWH endeavors to address sex and gender perspectives of 
women's health and women's health research, as well as differences 
among special populations of women across the entire life span, from 
birth through adolescence, reproductive years, menopausal years and the 
more advanced, elderly years.
    Two highly successful pioneering programs offered through ORWH that 
are critical to further advancing women's health research are Building 
Interdisciplinary Research Careers in Women's Health (BIRCWH) and 
Specialized Centers of Research on Sex and Gender Factors Affecting 
Women's Health (SCOR). These programs benefit both women's and men's 
health through sex and gender research, interdisciplinary scientific 
collaboration, and provide tremendously important support for young 
investigators in a mentored environment.
    The BIRCWH program is an innovative, trans-NIH career development 
program that provides protected research time for junior faculty by 
pairing them with senior investigators in an interdisciplinary mentored 
environment. What makes BIRCWH so unique is that it bridges advanced 
training with research independence, as well as across scientific 
disciplines. Since 2000, 177 scholars have been trained in the 24 
centers recording over 634 publications and 526 abstracts. The scholars 
have secured 40 NIH grants and 70 awards from industry and 
institutional sources.
    The BIRCWH program offered at Magee Women's Hospital in Pittsburgh, 
for example, has been able to successfully support the transition of 
eight young faculty at the beginning of their careers. In the current 
environment young faculty are expected to generate their income by 
teaching, clinical care or grant support. However, being that they are 
new, grant support for salary is unlikely and they end up with heavy 
clinical and/or teaching load's--at just the time in their careers when 
they should be perfecting their recently developed research skills. The 
BIRCWH program allows young researchers at Magee to become established 
and ready to apply for extramural funding and salary support. Magee has 
also been able to provide additional mentoring, courses, and career 
guidance to young investigators in women's health research.
    The SCOR program was established in 2001 and now has 11 centers 
throughout the country. ORWH, along with the National Institute of 
Arthritis and Musculoskeletal and Skin Diseases, the National Institute 
of Child Health and Human Development, the National Institute of 
Diabetes and Digestive and Kidney Diseases, the National Institute on 
Drug Abuse, the National Institute of Mental Health, and the National 
Institute of Environmental Health Sciences, published a request for 
applications to create these centers as a way to meet some of the 
health promotion and disease prevention objectives outlined in the 
``Healthy People 2010'' initiative, a Public Health Service-led 
national activity for setting priority areas.
    The objective of the SCOR program is to expedite interdisciplinary 
development and application of new knowledge to human diseases, to 
learn more about the causes of these diseases, and to foster improved 
approaches to treatment and/or prevention. The program was designed to 
complement other federally supported programs addressing women's health 
issues such as BIRCWH.
    The Institutes and Centers at the NIH, working with the ORWH, have 
identified many research priority areas to be undertaken by SCORs. Some 
of these include studying the influence of toxic environmental factors 
on women's health; examining the sex and/or gender factors in acute and 
chronic pain conditions or syndromes; undertaking studies to examine 
kidney disorders, including the impact of pregnancy, diabetes, and 
hypertension on renal function; studying urologic and urogynecologic 
disorders; examining the biological and behavioral risk factors, 
including sex and/or gender factors, in the development of mental 
disorders such as addictive behaviors, schizophrenia, mood, anxiety, 
and eating disorders; and the developmental biology of the vascular 
system and the role of the fetal environment in programming lifelong 
cardiovascular function.
    We strongly encourage Congress to direct NIH to continue its 
support of ORWH and its programs. This step is needed to assure that 
advancements in discoveries of sex differences and, in particular, 
women's health that are long overdue are not lost. From the discovery 
and understanding of illness and diseases to the formulation of 
treatments, pain relief and potential cures, knowledge base gained from 
these important efforts must not be lost, as the benefits are of 
critical importance to all Americans, men and women.

 WOMEN'S HEALTH OFFICES WITHIN DEPARTMENT OF HEALTH AND HUMAN SERVICES

    In addition to the ORWH, there are several other offices throughout 
the Department of Health and Human Services (HHS) that enhance the 
focus of the government on women's health research. Agencies with 
offices, advisors or coordinators for women's health or women's health 
research are the Department of HHS, the Food and Drug Administration, 
the Centers for Disease Control and Prevention, the Agency for 
Healthcare Quality and Research, the Indian Health Service, the 
Substance Abuse and Mental Health Services Administration (SAMHSA), the 
Health Resources and Services Administration, and the Centers for 
Medicare and Medicaid Services. There is a vital need for these 
agencies to be funded at levels adequate for them to perform their 
assigned missions.
    We are grateful for the Committee's continuing support for the work 
of these entities. But with the exception of NIH and SAMSHA, none of 
these offices, advisors, or coordinators is statutorily authorized. 
Although an authorization does not guarantee an appropriation, having 
one makes it easier. The Society and its Coalition are addressing that 
issue in the appropriate venue through the Women's Health Office Act 
(H.R. 949 and S. 569). But, within your jurisdiction, we ask that the 
Committee Report clarify that Congress supports these offices and would 
like to see them continued and strengthened in the coming fiscal year.
    The focus on women's health within HHS has been of critical 
importance to the advances made in women's health in the last decade. 
As previously mentioned, prior to the early-mid 1990's biomedical 
research had been firmly rooted in the male model--the belief that male 
biology (outside of the reproductive system) was representative of the 
species, and that where female biology differed from male biology it 
was ``atypical'' or ``anomalous''. This led to a lack of knowledge 
about female biology that has significantly compromised women's health. 
It is the offices, advisors and coordinators in the agencies listed 
above who played an essential role in trying to make up for time lost 
in the last decade. We have only just scratched the surface of 
understanding female biology. Now is the time to press ahead and make 
those discoveries and educate women about their health and the 
misinformation they have been given for years and these offices are 
critical to the success of this effort.
    There are many wonderful programs that we could identify from these 
agencies but we would like to specifically mention two that have 
instrumental programs and initiatives that are vital to women's health. 
The HHS Office on Women's Health and the Agency for Healthcare Research 
and Quality each have a unique mission but are unified in advancing 
women's health research.

                      HHS OFFICE OF WOMEN'S HEALTH

    The HHS Office of Women's Health is the government's champion and 
focal point for women's health issues, and works to redress inequities 
in research, health care services, and education that have historically 
placed the health of women at risk. The HHS Office on Women's Health 
coordinates women's health efforts in HHS to eliminate disparities in 
health status and supports culturally sensitive educational programs 
that encourage women to take personal responsibility for their own 
health and wellness. A program initiated by the HHS Office on Women's 
Health that is critical to women's health is the National Centers of 
Excellence in Women's Health (CoEs). Developed in 1996, this program 
offers a new model for university-based women's health care. Selected 
on a competitive basis, the current twenty-one CoEs seek to improve the 
health of all women across the lifespan through the integration of 
comprehensive clinical health care, research, medical training, 
community outreach and public education, and medical school faculty 
leadership development.
    Located in leading academic health centers across the United States 
and Puerto Rico, these Centers are developing new models for women's 
health care that are setting standards beyond what is traditionally 
offered at hospital-sponsored women's clinical health centers. The CoEs 
are able to reach a more diverse population of women, including more 
women of color and women beyond their reproductive years. In addition, 
the CoEs have a strong commitment to integrating research, education, 
and clinical care than most traditional women's health centers.
    A recent evaluation of the CoEs conducted by HHS Office of Women's 
Health concluded that the CoEs provided comprehensive clinical 
preventive services, served a broader cross-section of women, reached 
underserved subpopulations, including minority and economically 
compromised communities, produced higher levels of patient 
satisfaction, and aided in mentoring more women in their professional 
roles as clinicians and/or researchers. However, the report also 
concluded that CoEs remain vulnerable to pressures including, obtaining 
adequate funding and having to compete for scarce resources.
    Coalition member and Director of the University of Illinois Chicago 
National Center of Excellence in Women's Health Stacie Geller, Ph.D., 
strongly believes that her CoE has been instrumental in promoting 
advancement and leadership opportunites for female researchers on 
campus and beyond. In addition, the University of Illinois Chicago CoE 
has improved healthcare for women with a ``one-stop shopping'' model 
within the medical center by incorporating an adolescent clinic, 
midlife practice, and a clinic designed to meet the needs of 
perimenopausal and postmenopausal women in the same facility. The CoE 
also works to reduce barriers to health care for underserved urban 
women, and partners with surrounding communities to disseminate health 
information.
    Considering the advancements that have been made and those that 
still need to be achieved, we urge Congress to provide an increase of 
$1.5 million for the HHS Office on Women's Health to allow it to 
continue to sustain and expand the National Centers of Excellence in 
Women's Health.

               AGENCY FOR HEALTHCARE AND RESEARCH QUALITY

    The Agency for Healthcare Research and Quality (AHRQ) is the lead 
Public Health Service agency focused on health care quality, including 
coordination of all federal quality improvement efforts and health 
services research. AHRQ's work serves as a catalyst for change by 
promoting the results of research findings and incorporating those 
findings into improvements in the delivery and financing of health 
care. This important information provided by AHRQ is brought to the 
attention of policymakers, health care providers, and consumers who can 
make a difference in the quality of health care women receive.
    Congress has had an active role in the Agency's work, providing 
funding while adding responsibilities. This has allowed AHRQ to enhance 
its research on how to: reduce deaths from medical errors; improve 
access and quality of care; promote evidence based health care; 
eliminate racial and ethnic disparities; compile the first national 
report on quality; and assist in improving emergency responsiveness.
    AHRQ has a valuable role in improving health care for women. 
Through AHRQ's research projects and findings, lives have been saved 
and underserved populations have been treated. For example, women 
treated in emergency rooms are less likely to receive life-saving 
medication for a heart attack. AHRQ funded the development of two 
software tools, now standard features on hospital electrocardiograph 
machines that have improved diagnostic accuracy and dramatically 
increased the timely use of ``clot-dissolving'' medications in women 
having heart attacks.
    While AHRQ has made great strides in women's health research, the 
Administration's budget for fiscal year 2006 could threaten life-saving 
research. If a budget request of $319 million were enacted, AHRQ would 
be flat funded at fiscal year 2005 levels. In reality, AHRQ's funding 
has been kept flat for two years as the recent $15 million increase is 
dedicated to a specific project. Flat funding prior to application of 
taps by Congress seriously jeopardizes the research and quality 
improvement programs that Congress demands or mandates from AHRQ. 
Congress through the Medicare Prescription Drug, Improvement, and 
Modernization Act of 2003 directed ARHQ to research comparative 
effectiveness of drugs and other products but provided no appropriated 
funds in fiscal year 2003 or 2004. In fiscal year 2005, AHRQ received 
$15 million to conduct such extensive and important research, far less 
than is needed to do the project.
    It is important that Congress continues its support for AHRQ by 
increasing their funding to $443 million for fiscal year 2006. This 
will ensure that adequate resources are available for high priority 
research, including women's health care, gender-based analyses, 
Medicare, and health disparities.
    In conclusion, Mr. Chairman, we thank you and this Committee for 
its strong record of support for medical and health services research 
and its unwavering commitment to the health of the nation through its 
support of peer-reviewed research. We look forward to continuing to 
work with you to build a healthier future for all Americans.
                                 ______
                                 
Prepared Statement of the Upper County Branch of the Montgomery County, 
                          Maryland Stroke Club

                  A STROKE SURVIVOR: A PERSONAL STORY

    My name is Susan Emery. I am the presiding officer of the Upper 
County Branch of the Montgomery County Stroke Club and I am a stroke 
survivor.
    Our club conducts education and support activities for stroke 
survivors, their family members, and caregivers. We serve people in the 
Maryland suburbs of Washington, D.C., and are fortunate to be in the 
same county as the National Institutes of Health. We have benefited on 
many occasions by the participation of NIH staff members in our 
membership meetings. They have been generous in sharing with us 
information about their research into stroke prevention and treatment.
    On December 26, 1965 at the age of 9, I was playing a new game with 
my brother and a few friends at the kitchen table. That is the last 
thing that I remember. I was unconscious for the next two days. My 
mother first learned, incorrectly, that I had spinal meningitis. I was 
transferred to another hospital where my mother was told that I had 
little chance of survival. Yet, I am here, more than 37 years later, 
and I have survived a stroke.
    People seldom associate strokes with children. These strokes are 
rare, but they do happen. There are about three cases of stroke per 
year in every 100,000 children under age 14. One of the difficulties in 
dealing with strokes in children is getting the right diagnosis 
quickly. There are often delays in diagnosis of childhood stroke.
    I spent 2 weeks in the hospital and the following 4 months in 
intensive physical therapy. My 10th birthday was spent in the hospital, 
and I have a picture in my photo album of myself with my mother and a 
new friend. My right eye is turned down, my mouth is turned down, but I 
am still smiling. During the 4 months in therapy at Holy Cross in 
Detroit, I learned the basics: how to walk, how to talk, and how to 
move the fingers on my right hand. My mother followed the doctor's 
instructions and sent me back to school very quickly, where classmates 
helped me button and unbutton my coat and carry my books, and teachers 
taped papers to the desk so I could learn to write again. I survived 
that 4 months, and would never wish to repeat it.
    I have been in therapy six times in my life. I need to tell you 
about the one time that was the most important to my family. I was 26 
years old and had just had my first child. I kept her safe, for I knew 
my limitations. I always used my left hand to support her. But when she 
was 6 months old, she got to be a little heavy, and twice, as I was 
putting her on the floor to change her diaper, my right hand slipped 
from under her buttocks. She fell only inches in both cases and did not 
even notice. But I noticed. I went in for 2 or 3 months of therapy 
close to Denver, Colorado, where I was living at the time. Here for the 
first time, they helped my right hand and arm dexterity through 
occupational therapy. I also learned that I had aphasia--the inability 
to speak, write or understand spoken or written language because of 
brain injury--because I called things like cornucopias, unicorns 
instead of fruit baskets. Instead of the word being the same, I picked 
a word that sounded the same. These therapists in Colorado worked with 
my mind and my body and I will forever be in their debt.
    Close to 15 years ago, I made a new life for myself in Maryland. 
Here, I have been an outpatient at the National Rehabilitation Hospital 
three times: once for my right foot, once for my Achilles tendon and 
once for my right knee. I have seen numerous physiatrists, all of whom 
are excellent in their field. I have also seen my fair share of 
therapists. Since I have had therapy off and on for most of my life, I 
can honestly say that the first few times you go in to see a therapist, 
you will come out hurting more than when you went in. But in the long 
run, they help tremendously.
    On a work related note, I received a Bachelor of Science in 1978 
from Michigan State University in Computer Science and worked for 12 
years in the field. I started working in the telecommunications 
industry in 1990, and got a Master of Science from the University of 
Maryland, University College in Telecommunications Management. I now 
work for ITT Industries as a senior engineer on a contract supporting 
the Federal Aviation Administration's leased telecommunications 
activities, and have worked there for more than 6 years. I have done 
more than survive. I have become a productive member of society.
    Stroke research has changed my life. Without the research carried 
out 40 to 50 years ago, I would not have benefited from electric shock 
therapy that made me understand the muscles that moved my fingers. 
Without research done 30 years ago, I may not have been able to 
understand how to exercise my hand for dexterity. Without research 
performed 10 years ago, the people around me would not understand that 
they need to get me to the hospital quickly if ever I have another 
stroke. Without current support, researchers may never understand how 
to stop strokes before they happen or how to make current stroke 
survivors live healthier lives.
    Stroke remains America's No. 3 killer and a major cause of 
permanent disability. An estimated 5.4 million Americans live with the 
consequences of stroke and about 1 in 4 is permanently disabled. Yet, 
stroke research continues to receive a mere 1 percent of the National 
Institutes of Health budget. I strongly urge you to significantly 
increase funding for the National Institutes of Health-supported stroke 
research, particularly for National Institute of Neurological Disorders 
and Stroke-supported stroke research. NIH stroke research is essential 
to prevent strokes from happening to children and adults in the first 
place, and to advance recovery and rehabilitation of those who survive 
this potentially devastating illness.
                                 ______
                                 

                        DEPARTMENT OF EDUCATION

       Prepared Statement of the Alamo Navajo School Board, Inc.

    The Alamo Navajo School Board, Inc. operates under resolution from 
the Alamo Navajo Community and from the Navajo Nation and was organized 
within the Alamo Navajo chapter community to establish and operate 
Federal and State programs that provide education, health and community 
development services to the people of Alamo under contracts, grants or 
cooperative agreements. We are responsible for operation of nearly all 
federal programs that serve the 2,000 Navajo people who live on the 
Alamo Reservation. Our 10-square mile reservation is isolated in south-
central New Mexico, 250 miles from the Big Navajo Reservation, thus it 
is critical that we provide local services to persons living on the 
Alamo Reservation. On an annual basis, we operate over $13 million of 
federal and state supported programs.
    In summary our recommendations for the fiscal year 2006 Labor-HHS-
Education and Related Agencies budget are:
  --Reject the Administrations proposal to de-fund the Perkins 
        vocational program and provide at least a modest increase;
  --Direct the Department of Education to allow BIA-funded schools to 
        apply directly for Library Literacy Grant funding;
  --Reject the Administration's proposal to de-fund the Safe and Drug 
        Free schools program and provide at least a modest increase;
  --Allow Indian Head Start program to have the flexibly to allocate 
        funds between their Early and regular Head Start programs;
  --Support a four percent tribal allocation under the Head Start 
        Program;
  --Increase funding for the Workforce Investment Act;
  --Reject the proposal to consolidate Supplemental Youth Services 
        funding into a block grant which would probably cause the loss 
        of Indian SYS funding;
  --Reject the Administration's proposals to reallocate and/or rescind 
        $92 million of already-appropriated fiscal year 2006 CPB funds 
        and to end forward funding for the CPB.
  --Support continued and increased CPB support for Native radio.

                          VOCATIONAL EDUCATION

    We operate a very successful and much-needed program funded through 
the Carl Perkins Vocational and Applied Technology Act and we strongly 
oppose the Administration's proposal to totally de-fund the Carl 
Perkins vocational education program. We are pleased that the House and 
Senate authorizing committees are proceeding with reauthorizing the 
Perkins Act, which sends a clear signal to the White House that 
Congress finds this a valuable program that should be continued.
    We have been administering a Section 116 Perkins Act grant under 
which we are successfully helping Indian people access and complete 
postsecondary education. Our project is named Access-Retention-
Completion (ARC) We are working toward development of a Navajo 
professional workforce that will enable people, if they so choose, to 
fill job needs on the Alamo Navajo Reservation that must now be filled 
by persons from outside the community. Under ARC, our students are able 
to gain academic and technical skills both on and off the reservation, 
via distance learning and on-site classes. The Alamo Navajo School 
Board has articulation agreements with several postsecondary 
institutions to offer classes both on and off reservation. We are able 
to help students with transportation to off-reservation education sites 
through the use of our 15-passenger van. We are making education more 
accessible and affordable for postsecondary students who are also 
parents. Our child care program provides pre-natal to early head start 
child care. We also have an after school tutoring program for older 
school-age children. Finally, we are providing support services to all 
postsecondary students through counseling, placement, advisement and 
facilitation.
    While we feel very good about the development of our Access-
Retention-Completion project, it takes more than four years to fully 
develop this multifaceted program. We are currently serving 83 
students, with an 80 percent completion rate for on-site classes and 
100 percent completion rate for students taking off-reservation 
classes. Our placement rate is 80 percent for on-site and 90 percent 
for off-reservation. Our students are about evenly split between on and 
off reservation programs. We also believe that our ARC project has the 
very real potential to be a model for other isolated communities--both 
Indian and non-Indian--and having several more years of assured funding 
would bring the necessary additional experience to serve as a model 
program.

              IMPROVING LITERACY THROUGH SCHOOL LIBRARIES

    The Alamo-Navajo School Board is excluded from applying for these 
much needed funds that would, as Congress intended, enable us to update 
our school library materials and media center equipment and assure an 
appropriately credentialed media specialist is on hand to assist our 
students. The Department of Education has taken the position that 
because the BIA-funded schools receive a 0.5 percent set-aside from the 
annual appropriations for this program, they cannot apply for 
discretionary grants as an LEA (local education agency) under the 
program operated by the Department. The average grant award under the 
Department's discretionary grant program ranges from $150,000 to 
$300,000.
    In fiscal year 2005, the Department of Education transferred 
$99,211 to the BIA for the use of the BIA-funded schools. The BIA, 
however, determined that instead of making the funds available--by 
discretionary or formula grant--to all of the 184 schools in the BIA 
school system, the entire fiscal year 2005 amount would be allocated to 
only two schools. The schools selected were on the BIA Center for 
School Improvement list for proposed restructuring, meaning they had 
not met adequate yearly progress (as required by the No Child Left 
Behind Act) despite earlier intervention.
    We understand that poorly performing schools require much 
assistance to enable them to help their students achieve academic 
success, and it is unlikely that the entire $99,000 would be sufficient 
to correct the deficiencies experienced by just one BIA-funded school. 
Nonetheless, it is unfair to all BIA schools if the Department of 
Education excludes BIA-funded schools from the discretionary program 
and the BIA adopts a policy to restrict funds made available to a 
select few. We urge the Congress to direct the Department of Education 
to reconsider its exclusionary practice and allow the BIA-funded 
schools to apply directly to the Department for the Library Literacy 
grant funding.

               SAFE AND DRUG FREE SCHOOLS AND COMMUNITIES

    The Alamo-Navajo School Board strongly opposes the Administration's 
proposal to eliminate funding for the Safe and Drug Free Schools State 
Grants program ($437.4 million in fiscal year 2005). Under the 1 
percent set-aside for BIA-funded schools, we received $29,000 that 
partially funded a school-home liaison who works directly with parents 
and community on matters identified by the school that would aid in 
ensuring a healthy learning environment.
    As you are no doubt aware, alcohol and drug-related illnesses and 
crime levels in Native American communities greatly exceed the 
mainstream populations. By tapping all available sources of funds, we 
seek to provide our students the drug prevention and school safety 
programs that will help them develop the life skills that may enable 
them to live better, healthier lives. We urge Congress to reject the 
Administration's proposal to eliminate this valuable program and 
instead provide at least a modest increase.

                               HEAD START

    The American Indian Head Start and Early Head Start programs 
receive a less than 3 percent share of the 13 percent set-aside for 
Indian, migrant, territorial, children with disabilities programs. In 
fiscal year 2004, that translated to $161.6 million for Indian Head 
Start (ages 3-5 years) and $27.5 million for Indian Early Head Start 
(ages 0-3 years), which served a combined total of nearly 24,000 
children. Under the Administration's proposal, our programs would 
receive none of the requested $45 million increase since all of it is 
targeted for pilot projects whereby states would consolidate Head Start 
and other state children's programs.
    Although level funding in these constrained budgetary times may be 
viewed as a success, programs such as ours which are located in very 
rural areas are faced with rising costs that are greater than those 
located in more metropolitan areas, i.e., fuel costs for 
transportation, food, staff training. Level funding also does not 
address the increasing costs related to higher salaries for staff who 
achieve the high quality staff requirements of the program nor the 
unfunded mandate to install small child restraints in program vehicles 
(which cost $6,000 but was not in our budget nor were we provided 
reimbursement from the national Head Start office).
    Further, with the myriad and increasingly stringent requirements, 
small programs such as ours are losing the flexibility to structure our 
services to best meet the needs of our children. We need to be able to 
structure our Early Head Start and Head Start programs to the changing 
dynamics of our community yet current Head Start policies restrict us 
from being able to allocate our program funds to provide the services 
in accordance with the demographic changes. For instance, this year our 
Early Head Start has a waiting list which could result in an additional 
classroom of students while our enrollment for the Head Start program 
is less than anticipated. The logical reaction would be to respond to 
the need and utilize program funds to establish the necessary 
additional Early Head Start class but we were informed by the Head 
Start Grant office that even though we receive our Early Head Start/
Head Start funds in one grant document, we must expend the monies under 
two separate budgets. Therefore, a number of Early Head Start eligible 
children in our community are not being served since there are no other 
early education programs available in our isolated area.
    We ask that when Congress takes up the reauthorization of the Head 
Start Act, that (1) the Indian Head Start set-aside be increased from 
the present 2.8 percent to no less than 4 percent; and (2) provide 
program flexibility so that Indian Early Head Start/Head Start grant 
recipients may allocate funds between their Early and regular Head 
Start programs in the manner that best meet the needs of the population 
served.

                        WORKFORCE INVESTMENT ACT

    The Alamo Navajo School Board receives funding under the Workforce 
Investment Act's Section 116 Program and the Supplemental Youth 
Services program. The Administration has proposed level funding ($54.2 
million) for the Section 116 program which provides grants to Indian 
Tribes, Urban Indians, Hawaiians and Samoans. This program has been 
flat funded or years and we support the National Congress of American 
Indians request of $75 million for the Section 116 program.
    We oppose the Administration's proposal that the Supplemental Youth 
Services Program (of which the tribes receive $1.5 percent allocation, 
or about $15 million annually) be combined with three other streams of 
money and put into a block grant, with no obvious guarantee that the 
tribal money would be preserved. We are pleased that the House bill 
reauthorizing the WIA (H.R. 27) did not go along with this 
consolidation proposal and urge that the Appropriations Committee 
likewise reject this proposal and to provide an increase for 
Supplemental Youth Services which has been flat funded for years.

                  CORPORATION FOR PUBLIC BROADCASTING

    The Alamo Navajo School Board is the licensee for a community radio 
station--KABR-AM in Magdalena, NM--which receives a modest amount of 
funding from CPB. We commend CPB for increasing funding for rural sole 
source radio stations--of which we are one. We also appreciate that CPB 
has provided start-up funds for a Center for Native American Radio 
which is to provide technical and other service to Indian radio 
stations. Our radio signal reaches approximately 13,000 people, 
including the Alamo population of 2,072. Of the 432 Alamo households, 
only 25 percent have telephones, and there is no cell phone service. So 
you can see what an important role our community radio station plays at 
Alamo Navajo.
    There are currently 33 Indian-owned radio stations--all 
noncommercial--in thirteen states. Most are licensed to nonprofit 
organizations. We ask for this Committee's continued support of Native 
radio.
    We are extremely concerned about the Administration's proposal to 
rescind $10 million and divert an additional $82 million of already 
appropriated fiscal year 2006 CPB funds to digital conversion and 
satellite interconnection. Such a rescission/diversion of funds would 
be a terrible setback for our station, which already runs on a shoe 
string. Should Congress approve the Administration's request and if it 
were applied across-the-board, we would be faced with a 25 percent 
reduction of CPB funds.
    We ask Congress to again reject--as you have done the past four 
years--the Administration's proposal that the advance funding for CPB 
be eliminated.
    Thank you for your consideration of concerns and recommendations of 
the Alamo Navajo School Board.
                                 ______
                                 
 Prepared Statement of the American Association of Colleges of Nursing

    The American Association of Colleges of Nursing (AACN) respectfully 
submits this statement highlighting funding priorities for nursing 
education and research programs in fiscal year 2006. AACN represents 
over 580 senior colleges and universities with baccalaureate and 
graduate nursing programs, and over 190,000 students and 10,000 faculty 
members. These institutions are responsible for educating about half of 
our nation's registered nurses (RNs) and all of the nurse faculty and 
researchers. Nursing represents the largest health profession in the 
nation, with approximately 2.7 million dedicated, trusted professionals 
delivering primary, acute, and chronic care to millions of Americans 
daily across the spectrum of settings.

                    THE NATIONWIDE NURSING SHORTAGE

    Our country continues to be plagued by a shortage of nurses that is 
only expected to intensify in the future. While AACN is cognizant of 
the difficult budget environment in which the Subcommittee and the 
entire Congress must operate, patient safety is compromised without a 
sufficient number of RNs. Indeed, the American College of Healthcare 
Executives reported in 2004 that 72 percent of hospitals were 
experiencing a nursing shortage. Furthermore, the Joint Commission on 
Accreditation of Healthcare Organizations (JCAHO) found in 2002 that 
the nursing shortage contributes to nearly a quarter of all unexpected 
incidents that kill or injure hospitalized patients. Since nurses 
comprise the largest component of hospital staffs, shortages also 
result in emergency room overcrowding and diversions, increased wait 
time for or outright cancellation of surgeries, discontinued patient 
care programs or reduced service hours, and delayed discharges.
    The U.S. Bureau of Labor Statistics (BLS) has projected that by 
2012, our nation will need an additional 1.1 million new and 
replacement registered nurses. Despite nursing being identified by BLS 
as the fastest growing occupation, according to the Health Resources 
and Services Administration (HRSA), the United States still will be 
roughly 800,000 nurses short in 2020, unless there is a significant and 
sustained increase in the number of nurses graduating each year and 
entering the workforce. There are nursing vacancies throughout all 
sectors of health care, including long-term care, home care, and public 
health. These alarming predictions are coupled with little change in 
the multitude of contributing factors such as the aging of America's 
population, the aging nurse workforce, high numbers of RN retirements, 
and the increasing demand for more intensive health care services by 
chronically ill, medically complex patients. It is clear that federal 
support must continue to play a critical role in the nation's effort to 
address the nursing shortage.

                     NURSING WORKFORCE DEVELOPMENT

    Acknowledging the situation, Congress passed The Nurse Reinvestment 
Act of 2002. This legislation reauthorized and expanded Nursing 
Workforce Development programs, administered by HRSA under Title VIII 
of the Public Health Service Act, to address the inadequate supply and 
distribution of RNs across the country. These authorities fund nursing 
education and retention programs as well as support individual students 
in their nursing studies. The seven Title VIII grant and student 
programs stimulate innovation in nursing practice and bolster nursing 
education throughout the continuum, from entry-level preparation 
through graduate study. Thoughtful and well-written authorities, Title 
VIII programs are the largest source of federal funding for nursing 
education. In fiscal year 2004, these programs provided loan and 
scholarship support to over 28,000 student nurses.
    Given the demonstrated need for these outstanding programs, past 
funding levels have been insufficient, receiving only $150.67 million 
in fiscal year 2005. AACN respectfully requests $175 million for Title 
VIII Nursing Workforce Development in fiscal year 2006, an additional 
$24.33 million over fiscal year 2005. New monies would support these 
crucial Title VIII programs designed to help resolve the nursing 
shortage through education, recruitment, and retention efforts for the 
nursing workforce. During the last serious nursing shortage in 1974, 
Congress appropriated $153 million for nursing education programs. 
Translated into today's dollars, that appropriation would total $592 
million, almost 4 times the current level.

                      COLLEGES OF NURSING RESPOND

    The approximately 1,500 schools of nursing nationwide have been 
working diligently to expand enrollments. In fact, AACN found in a 
recent study that enrollments increased in 2004 by 15.5 percent for 
entry-level baccalaureate, master's, and doctoral nursing programs, 
over the 9.1 percent increase experienced in 2003. These increases are 
attributed to intensive marketing efforts by the private sector, 
public-private partnerships providing additional resources to expand 
capacity of nursing programs, and state legislation targeting funds 
towards nursing scholarships and loan repayment.
    While impressive, these increases still cannot meet the demand. In 
the November 2003 issue of Health Affairs, Dr. Peter Buerhaus reported 
that nursing school enrollments would have to increase by at least 40 
percent annually just to replace those nurses who retire, due to 
declining numbers of young RNs over the past 20 years. It is important 
to note that in spite of protracted efforts by colleges nationwide, 
AACN found that enrollments have increased only by a total of 53.5 
percent over the last 5 years in entry-level baccalaureate programs.
    In spite of increasing enrollments and the demonstrated need for 
RNs, U.S. colleges of nursing must still turn away eligible students. 
In 2004, AACN found that at least 32,797 qualified applicants were 
turned away, up sharply from over 18,000 in 2003. These students were 
turned away due to insufficient numbers of faculty, clinical sites, 
classroom space, clinical preceptors, and budget constraints. Over 75 
percent of the schools surveyed cited the faculty shortage as the 
primary barrier to increasing enrollments. Some of these qualified 
students are being placed on waiting lists that may be as long as 2 
years.

              BOTTLENECK: THE COEXISTING FACULTY SHORTAGE

    AACN strongly believes that the most effective strategy for the 
resolution of the nursing shortage is addressing the underlying faculty 
shortage. HRSA reported in 2000 that just 9.6 percent of the RN 
workforce holds master's degrees, while only 0.6 percent holds 
doctorates. AACN found that more than half, 53.4 percent, of the nurse 
faculty vacancies in 2004 were for faculty positions requiring the 
doctoral degree. In 2003 AACN reported there were 10,500 full-time 
master's and doctorally prepared faculty teaching in baccalaureate and 
graduate nursing programs. Projections through 2012 show that the 
faculty pool will shrink by at least 2,000 as compared to 2003, even 
after accounting for retirements, resignations, and additional 
entrants. Note that these figures do not take into account the need for 
faculty in new or expanded programs, but represent only present 
staffing requirements. If the faculty vacancy rate holds steady, it is 
expected the deficit of nurse faculty will swell to over 2,600 unfilled 
positions in 2012.
    The situation is only expected to worsen with time. Faculty age 
continues to climb, narrowing the number of productive years nurse 
educators can teach. Significant numbers of faculty are expected to 
retire in the coming years, as the average age is 52. Likewise, there 
are not enough candidates in the pipeline to take their places. For 
example, an average of 410 individuals are awarded doctoral degrees in 
nursing each year, but almost a quarter, 23 percent, take jobs outside 
of academic nursing. Higher compensation in clinical and private sector 
settings lures current and potential nurse educators away from the 
classroom. The average salary of a nurse practitioner in an emergency 
department was $80,697, according to the 2003 National Salary Survey of 
Nurse Practitioners. In contrast, AACN found that the average salary 
for a nurse faculty member was $60,357 in 2003. Without sufficient 
nurse faculty, schools of nursing will not be able to expand their 
capacities to educate new generations of the nurses.

          REVERSING THE TREND: THE NURSE FACULTY LOAN PROGRAM

    This trend can be reversed--with your help. Additional 
appropriations for the Nurse Faculty Loan Program, Section 846A of 
Title VIII, will provide targeted assistance. Designed to help increase 
the number of nurse faculty, grants are provided to colleges of nursing 
in order to create a loan fund. To be eligible for these loans, 
students must be pursuing either a master's or doctoral degree on a 
full-time basis. Loan recipients will have up to 85 percent of their 
educational loans cancelled over a four-year period, if they agree to 
teach at a school of nursing. The loan is cancelled at a rate of 20 
percent for the first three years, increasing to 25 percent in the 
final year. A student may receive a maximum loan award of $30,000 per 
academic year for tuition, books, fees, laboratory expenses, and other 
reasonable educational costs. In fiscal year 2004, 61 grants were made 
to schools of nursing, which in turn supported a projected 419 future 
nurse faculty members. In fiscal year 2005, $4.83 million was 
appropriated.
    For example, if the current funding was doubled to almost $10 
million, based on this year's projections, colleges of nursing could 
educate over 800 future faculty. Though the student to faculty ratios 
vary by state, a common average is one faculty member for every ten 
students. Then one could surmise from that estimate that the doubled 
funding could help to educate over 800,000 future nurses.

                        OTHER SOURCES OF RELIEF

    AACN would like to highlight the following programs in addition to 
the Nurse Faculty Loan Program: the Advanced Education Nursing program, 
the Workforce Diversity program, and the Nurse Education, Practice, and 
Retention program.
    The Advanced Education Nursing program supports the majority of 
colleges of nursing that prepare graduate-level nurses to be primary 
care providers, some of whom become faculty. Receiving $58.17 million 
in fiscal year 2005, this grant program helps schools of nursing, 
academic health centers, and other nonprofit entities improve the 
education and practice of nurse practitioners, nurse-midwives, nurse 
anesthetists, nurse educators, nurse administrators, public health 
nurses, and clinical nurse specialists. Out of the 149 applications 
received for this program in fiscal year 2004, 82 new grants were 
awarded to institutions and 75 previous awarded grants were continued. 
In addition, 408 schools of nursing received traineeship grants, which 
in turn directly supported 8,925 individual student nurses.
    The health system's increasing demand for primary care, increased 
utilization of case management--particularly for chronic illnesses, 
prevention and cost-efficiency, and a shortage of physicians are 
driving the nation's need for nurse practitioners, certified nurse-
midwives, and other RNs with graduate education and advanced clinical 
skills, known as advanced practice nurses (APNs). Mounting studies 
demonstrate the quality of APN care is at least equal to, and at times 
better than comparable physician services rendered by physicians, and 
often at lower cost. This is especially important, as the 78 million 
Baby Boomers age, their demand for health care services will skyrocket. 
AARP reported that the rate of physician office visits by those 65 and 
older jumped 22 percent from 1985 to 1999.
    Workforce Diversity grants prepare disadvantaged students to become 
nurses. As the United States becomes ever more heterogeneous, it is 
imperative that the composition of our nursing workforce mirrors this 
shift. According to the U.S. Census Bureau, roughly 30 percent of the 
population was reported as a racial or ethnic minority in 2000, but by 
2050 that percentage will jump to over 52 percent. This program awards 
grants to schools of nursing and other entities seeking to increase 
access to nursing education for disadvantaged students, including 
racial and ethnic minorities under-represented among RNs. The program 
provides scholarships or stipends, pre-entry preparation, and retention 
activities to enable students to complete their nursing education. In 
fiscal year 2004, 144 applications were submitted, from those 27 new 
grants were awarded and 35 previously awarded grants were continued. 
Under the scholarship program alone, 473 students each received $7,000 
scholarships. Workforce Diversity received $16.27 million in fiscal 
year 2005.
    The Nurse Education, Practice and Retention program helps schools 
of nursing, academic health centers, nurse-managed health centers, 
state and local governments, and health care facilities strengthen 
programs that provide nursing education, facilitate innovations in 
nursing practice, and retention of the nursing workforce. Education 
grants are made to enable schools to expand enrollments in 
baccalaureate nursing programs, develop internship and residency 
programs, and provide for new technology. Practice grants are made to 
expand arrangements in non-institutional settings to improve primary 
health care in medically underserved communities, provide care for 
underserved populations, enhance practitioner skills, and develop 
cultural competencies. Retention grants are made to the Career Ladder 
program, which supports efforts to assist people to obtain the 
necessary education to either enter the profession or to advance within 
it; enhance patient care delivery systems through incorporation of best 
practices, and improved communication. In fiscal year 2004, 336 
applications were submitted, from those, 40 new grants and 85 
continuation grants were awarded. Nurse Education, Practice, and 
Retention received a total of $36.48 million in fiscal year 2005.

                 NATIONAL INSTITUTE OF NURSING RESEARCH

    One of the 27 Institutes and Centers at the National Institutes of 
Health (NIH), the efforts of the National Institute of Nursing Research 
(NINR) improve patient care and foster advances in nursing and other 
health professions' practice. These practices must be must constantly 
updated and validated based on rigorous, peer-reviewed research. The 
outcomes-based findings derived from NINR research are important to the 
future of the health care system and its ability to deliver safe, cost-
effective, and high quality care. Through grants, research training, 
and interdisciplinary collaborations, NINR addresses care management of 
patients during illness and recovery, reduction of risks for disease 
and disability, promotion of healthy lifestyles, enhancement of quality 
of life in those with chronic illness, and care for individuals at the 
end of life. To advance this research, AACN requests a funding level of 
$160 million in fiscal year 2006, an additional $21.91 million over the 
$138.09 million NINR received in fiscal year 2005.
NINR Addresses the Need for Translational and Clinical Research
    NINR emphasizes translational research, the means by which basic 
findings relating to behavior, molecules, and genes are tested in the 
clinical setting and translated into innovative medical practices and 
improvements in public health. This effort is incorporated into the NIH 
Roadmap for Medical Research. Under the framework of the Roadmap 
Initiative, NINR and nurse researchers are addressing the development 
of new interdisciplinary research teams and enhanced clinical research 
to move the overall NIH portfolio of social, behavioral, and medical 
research forward in this coordinated and cohesive effort.
NINR Addresses the Shortage of Nurse Researchers and Faculty
    NINR allocates 8 percent of its budget, a high proportion when 
compared to other NIH institutes, to research training to help develop 
the pool of nurse researchers. In fiscal year 2004, NINR training 
dollars supported 88 individual researchers and provided 186 
institutional awards, which in turn supported a number of nurse 
researchers at each site. Since nurse researchers often serve as 
faculty members for colleges of nursing, they are actively educating 
our next generation of RNs.

               AGENCY FOR HEALTHCARE RESEARCH AND QUALITY

    While NIH supports biomedical research that improves health care by 
focusing on disease cause, cure, and prevention; the Agency for 
Healthcare Research and Quality (AHRQ) supports research from a systems 
perspective, collecting evidence-based information on health care 
outcomes. AHRQ research findings are used by patients, clinicians, 
health system decision makers, and public policymakers to guide 
healthcare delivery systems and patient care. The research supported by 
AHRQ not only improves the quality of health care services, but also 
helps people make more informed decisions about their healthcare. AACN 
joins the Friends of AHRQ in recommending a funding level of $440 
million for fiscal year 2006, an additional $121 million over the 
fiscal year 2005 level of $318.7 million.
Health Systems Research at AHRQ Addresses Nurses' Role in Patient 
        Safety
    AHRQ research has demonstrated that inefficient work processes, 
overwhelming work loads, extended work hours, and poor workplace 
designs create obstacles to providing patients safe, cost-effective, 
and high quality health care. The New England Journal of Medicine 
published a study of over 6 million patients in May, 2002 that found 
hospitalized patients had better outcomes when the majority of their 
nursing care was provided by RNs. Decreased hours of RN care, stemming 
from the nursing shortage, correlated with longer hospital stays, 
increased incidence of urinary tract infections and gastrointestinal 
bleeding, as well higher rates of pneumonia, shock, and cardiac arrest. 
When patients received additional hours of RN care, the death rates 
dropped for pneumonia, shock or cardiac arrest, upper gastrointestinal 
bleeding, sepsis, and deep venous thrombosis.
AHRQ Research Demonstrates that Nurse Education Affects Patient 
        Outcomes
    Another AHRQ study found that by employing a greater proportion of 
more highly educated nurses reduced the mortality and failure to rescue 
rates from life threatening complications. This extensive study in the 
September 2003 issue of the Journal of the American Medical Association 
found that surgical patients have a ``substantial survival advantage'' 
if treated in hospitals with higher proportions of nurses educated at 
the baccalaureate or higher degree level. In hospitals, a 10 percent 
increase in the proportion of nurses holding BSN degrees decreased the 
risk of patient death and failure to rescue by 5 percent.

                               CONCLUSION

    Nurses can no longer simply give care to a patient at the bedside. 
They must evaluate research that promotes evidence-based practice and 
utilize technical innovations to provide quality patient care. To 
achieve this level of excellence, AACN recognizes that our nation 
desperately needs a dedicated, long-term vision for educating the new 
nursing workforce. Strategies must encompass state support, public-
private sector initiatives, and increased federal funding for nursing 
education and research. Title VIII Nursing Workforce Development 
programs enable colleges of nursing to innovate and prepare students 
for the realities of caring for our nation's diverse population in many 
health care settings across the lifespan. NINR, NIH, and AHRQ provide 
the research that supports the evidence base for safe practice and 
quality care delivery. We ask the Subcommittee to graciously consider 
our appropriations requests for fiscal year 2006.
                                 ______
                                 
          Prepared Statement of the American Chemical Society

    Chairman Specter and other members of the Labor, Health and Human 
Services and Education Subcommittee, I appreciate the opportunity to 
submit written testimony on behalf of the American Chemical Society. 
The American Chemical Society (ACS) is the world's largest scientific 
society with over 159,000 members. We represent individual chemists and 
engineers in academia, industry, and government.
    Mr. Chairman, the ACS recognizes that ensuring the continued 
economic supremacy and homeland security of this nation depends upon 
maintaining our global technological leadership. This leadership has 
resulted from the ready availability of a domestic workforce of highly 
trained scientists, technicians, engineers, and mathematicians (the 
STEM workforce). But today's high school students are not performing 
well in math and science overall, and a decreasing number of American 
students are pursuing college degrees in STEM fields. At the elementary 
school level, the recent PISA test showed that America's 15 year-olds 
perform below average in mathematics problem solving compared to their 
peers in other developed countries.
    Thanks to your leadership, the Department of Education budget has 
increasingly reflected a commitment to remedy this situation through 
investments in a number of STEM initiatives from the K-12 to 
postsecondary level. These programs must continue to receive strong 
support in order to ensure a globally competitive U.S. workforce.
    Central to this quest is ensuring the supply of qualified K-12 
science and mathematics teachers. As you know, the Math and Science 
Partnerships, authorized in the No Child Left Behind Act at an 
increasing annual level to reach $450 million by fiscal year 2007, are 
the sole source of dedicated DoEd K-12 math and science funding. This 
program supports valuable long-term, content-based continuing education 
for math and science teachers--the type of training that research shows 
is most effective in improving student achievement.
    Chairman Specter, we greatly appreciate your past support of the 
Partnership program which has grown from $12.5 million in fiscal year 
2002 to $180 million in fiscal year 2005. We applaud you for this and 
urge you to work toward the authorized level by funding the program at 
the level of $400 million in fiscal year 2006. Reaching the authorized 
level is critical, as the No Child Left Behind Act requires science 
testing to begin in the 2007-2008 school year.
    ACS also urges you to reject the Administration's proposal to 
earmark its requested $120 million increase in the program for a new 
high school mathematics initiative. This proposal strays from the 
intent of the No Child Left Behind Act, which seeks to address the 
equally critical needs in both math and science. A similar proposal was 
made by the Administration in the fiscal year 2005 budget and, in our 
view, wisely rejected by your Committee.
    The ACS recognizes the value of encouraging chemists retiring early 
or those desiring a change from industry work to consider and train for 
a second career in high school teaching. To that end, we support the 
president's Adjunct Teacher Corps initiative, which brings experienced 
professionals with subject-matter knowledge into the classroom to teach 
part or full-time in areas of high need, including science and math. 
These professionals can offer valuable insights into the content and 
practical applications of their subject areas. We recommend that 
funding be provided to ensure adequate teacher development and to 
ensure effective communication of their expertise to their students.
    On another front, the ACS opposes the Administration's proposal to 
eliminate the Vocational and Technical Education program. We feel it 
would have a very negative impact upon our technological leadership. In 
addition to scientists and engineers, the STEM workforce relies on 
highly trained technicians, of whom many enter the workforce through 
tech-prep programs that are currently supported under the Vocational 
and Technical Education program ($110.7 million in fiscal year 2005). 
It is unrealistic to expect states to assume the burden of funding 
tech-prep programs through the new High School Intervention program, 
due to its emphasis on meeting academic state standards.
    At the post-secondary level, the Department of Education provides 
incentives to students to pursue science and engineering occupations. 
The Graduate Assistance in Areas of National Need program (GAANN) is 
one such example. GAANN provides graduate and doctoral students with 
enhanced fellowship opportunities. We believe this program should 
support at least 1,200 fellowships, up from the 850 in fiscal year 2004 
and the 721 fellowships that would be supported under the current 
budget request. This increased support is vital at a time when our 
nation must have the intellectual resources to respond to homeland 
security threats and maintain our economic growth.
    Furthermore, we strongly support programs such as the Minority 
Science and Engineering Improvement program in order to increase the 
participation of underrepresented minorities in scientific and 
technological careers.
    In closing, we appreciate your past support and leadership on 
behalf of the Department of Education's programs. We strongly believe 
that proactively investing in STEM education today, will pay real 
dividends with a more competitive, innovative and successful American 
workforce tomorrow.
                                 ______
                                 
       Prepared Statement of the American College of Rheumatology

    The American College of Rheumatology (ACR) is pleased to provide 
this statement for the record in support of the several important 
agencies and programs that address arthritis within the Department of 
Health and Human Services.
    The ACR is an organization of physicians, health professionals and 
scientists that serves its members through programs of education, 
research and advocacy that foster excellence in the care of people with 
arthritis, rheumatic and musculoskeletal diseases.
    Arthritis means swelling, pain and loss of motion in the joints of 
the body. There are more than 100 rheumatic diseases that cause this 
condition, which can sometimes be fatal, in both children and adults of 
all ages. One in three adults, or 70 million people in the United 
States, are affected by arthritis and other rheumatic conditions 
according to the Centers for Disease Control and Prevention (CDC). 
Arthritis and other chronic joint problems are the leading cause of 
disability among adults in the United States, costing more than $86 
billion a year in medical costs and lost productivity. These numbers 
and related costs are expected to increase as the U.S. population ages.
    This burden will surely increase, possibly uncontrollably, as the 
baby boomer group continues to age. Although some forms of arthritis 
are predominant in older individuals, arthritis also affects children 
and adults of all ages. The number of individuals affected, as well as 
associated costs, will increase as the size of our elderly population 
continues its upswing.
    Current research is providing breakthrough advances that have the 
potential to revolutionize our understanding of arthritis and rheumatic 
diseases, leading to more effective treatments, decreased costs and 
increased quality of life for patients suffering from these conditions. 
The federal government is doing critical medical research into the 
causes, treatment and prevention of arthritis and rheumatic diseases. 
The ACR urges the subcommittee to increase its investment in research 
and arthritis programs to further progress made in preventing, 
diagnosing and treating these prevalent diseases.

                   THE NATIONAL INSTITUTES OF HEALTH

    The ACR supports a 2006 appropriation of $30 billion for the 
National Institutes of Health (NIH) in order for it to carry out its 
goal to acquire new knowledge to help prevent, detect, diagnose, and 
treat disease and disability. The NIH disperses funding to the 
different institutes within it, including the National Institute of 
Arthritis and Musculoskeletal and Skin Diseases (NIAMS) and the 
National Institute of Allergy and Infectious Diseases (NIAID). 
Therefore, overall funding for NIH is extremely important to the 
federal medical research effort in arthritis and rheumatic diseases.

   THE NATIONAL INSTITUTE OF ARTHRITIS AND MUSCULOSKELETAL AND SKIN 
                                DISEASES

    The ACR strongly supports a 2006 appropriation of $541.6 million 
for the National Institute of Arthritis and Musculoskeletal and Skin 
Diseases (NIAMS), which leads the federal medical research effort in 
arthritis and rheumatic diseases. The NIAMS conducts research related 
to the causes, treatments and prevention of diseases of the bone, 
joints, muscle, skin and other connective tissues. The NIAMS sponsors 
research and research training at universities and medical centers 
throughout the United States. Research sponsored by the NIAMS leads to 
the development of more effective treatments, which leads to decreased 
costs and improved quality of life for patients suffering from 
rheumatic diseases.

       THE NATIONAL INSTITUTE OF ALLERGY AND INFECTIOUS DISEASES

    The ACR recommends a 2006 appropriation of $4.667 billion for the 
National Institute of Allergy and Infectious Diseases (NIAID), which 
conducts research that strives to understand, treat, and ultimately 
prevent the myriad of infectious, immunologic, and allergic diseases. 
The NIAID's research focuses on the basic biology of the immune system 
and mechanisms of immunologic diseases including autoimmune disorders. 
To accomplish its goals, the NIAID carries out a wide range of basic, 
applied, and clinical investigations within its own laboratories, and 
provides research grant, contract, and cooperative agreement support to 
scientists at universities and other research institutions throughout 
the country and the world.

             THE AGENCY FOR HEALTHCARE RESEARCH AND QUALITY

    The ACR supports a 2006 appropriation of $440 million for the 
Agency for Healthcare Research and Quality (AHRQ) to carry out its 
mission to improve the quality, safety, efficiency, and effectiveness 
of health care for all Americans. AHRQ's health services research 
complements the biomedical research of the NIH by helping physicians, 
hospitals, purchasers and other stakeholders in health care delivery 
make informed decisions about what treatments work best, for whom, 
when, and at what costs.

                   THE NATIONAL ARTHRITIS ACTION PLAN

    The ACR recommends a 2005 appropriation of $15 million for the 
National Arthritis Action Plan (NAAP). The NAAP, housed within the CDC 
National Center for Chronic Disease Prevention and Health Promotion, 
helps deliver the advances made in the biomedical research system to 
millions of Americans who have arthritis. The NAAP is designed to 
increase recognition among the general public, people with arthritis 
and their families, medical care providers, and policy makers, of the 
impact of arthritis, what can be done to prevent or delay its onset, 
and what effective interventions and are available to reduce disability 
and improve the quality of life. The NAAP has made a tremendous impact 
in how state public health departments address this national health 
problem, and with increased funding, programs could be established in 
more states and existing programs could be expanded.

          IMPACT OF CONTINUING RESOLUTIONS ON MEDICAL RESEARCH

    The ACR urges Congress to recognize the difficulties imposed on 
researchers by interruptions in the medical research funding cycle 
caused by delays in the federal appropriations process. Use of the 
continuing resolution mechanism to fund government operations in the 
absence of the normal appropriations process often causes federally 
funded researchers to halt their research until the appropriations 
process is resolved. These disruptions have the potential to not only 
significantly compromise the validity of the basic medical research 
being conducted, but can result in the unnecessary expenditure of 
federal funds to reactivate specific research studies. In order to 
preserve the integrity of federally supported medical research, the ACR 
urges Congress to minimize the use of continuing resolutions.

                                SUMMARY

    The ACR appreciates the subcommittee's support for these important 
programs in recent years. As physicians involved in both research and 
specialized patient care, ACR members are acutely aware of the 
magnitude of the challenges that disease and disability place on the 
health care delivery system. The ACR encourages the subcommittee to 
provide a strong investment in the programs listed above for 2006 so 
that necessary research and programs to combat arthritis and related 
diseases can continue. These programs are critical to the development 
of more effective treatments, decreasing costs and improving the 
quality of life for patients suffering from rheumatic diseases.
                                 ______
                                 
    Prepared Statement of the American Dental Education Association

    The American Dental Education Association (ADEA) is grateful for 
the opportunity to provide testimony with regard to fiscal year 2006 
appropriations for Federal programs that help to educate the future 
dental workforce, encourage the prevention of dental disease and 
provide access to oral health care for underserved populations. These 
programs are critical to academic dental institutions in fulfilling 
their primary mission to educate, conduct research and provide patient 
care. ADEA strongly urges Congress to enhance funding for the programs 
and preserve their fundamental structure.
    ADEA is the premier national organization that speaks for dental 
education. It is dedicated to serving the needs of all 56 U.S. dental 
schools, nearly 730 dental residency programs and 550 allied dental 
programs, as well as the tens of thousands of faculty, dental residents 
and students engaged in training. It is at dental education 
institutions that future practitioners and researchers gain their 
knowledge; the majority of dental research is conducted; and 
significant dental care is provided to underserved low-income 
populations, including individuals covered by Medicaid and the State 
Children's Health Insurance Program (SCHIP).
    Academic dentistry endeavors to address the oral health needs of 
the nation's uninsured, underinsured and publicly insured citizens. 
Profound disparities in the oral health of the nation's population have 
resulted in what the Surgeon General \1\ called a ``silent epidemic'' 
of dental and oral diseases affecting the most vulnerable among us. 
These disparities, combined with the current shortage of dental school 
faculty, the scarcity of underrepresented minority dentists, and the 
need for targeted incentives to draw dentists to practice in rural and 
underserved communities, make our funding recommendations critically 
important.
---------------------------------------------------------------------------
    \1\ Oral Health in America: A Report of the Surgeon General, 2000.
---------------------------------------------------------------------------
    The Administration's fiscal year 2006 budget proposal reduces by 
approximately 96 percent funding for Title VII Health Professions 
Programs and eliminates 100 percent of the funding for pediatric, 
general and public health dental residency programs. Title VII programs 
embody the federal government's commitment to educating the nation's 
future health care providers. Such programs focus on wide-ranging and 
important matters including interdisciplinary training, geriatric and 
rural health care, allied health education, advanced training for 
dental, allopathic and osteopathic residents. Eliminating funding for 
the programs will gravely weaken the health infrastructure of the 
nation.
    Zeroing out funding for the dental residency training programs 
means that essential advanced education for dental residents and the 
oral health services they provide to underserved communities will be 
eliminated. Abandoning these programs will intensify and contribute to 
the growing crisis in accessing oral health services as more states 
reduce Medicaid dental benefits for adults, the frail elderly and 
compromised patients. Furthermore, restrictions in Medicaid and SCHIP 
enrollment and eligibility have reduced access to oral health care for 
children.
    As Congress wrestles with the fiscal year 2006 appropriations for 
federal agencies and programs of importance to dental education and 
research, ADEA respectfully urges that the following programs' funding 
be restored and enhanced at the levels recommended:

  $15 million for title vii general dentistry and pediatric dentistry 
                      residency training programs
    ADEA recommends that Congress restore and enhance funding for 
dental residency training programs. These programs are instrumental in 
educating dentists who work in underserved communities and treat 
Medicaid, SCHIP or other underserved populations, particularly those 
with special needs. Furthermore, dentists training in Title VII funded 
programs staff clinics that provide treatment at low or no cost.

$19 million for the ryan white hiv/aids dental reimbursement program of 
                    the ryan white care act (part f)
    The Dental Reimbursement and the Community-based Dental 
Partnerships programs, the smallest component of the CARE Act, are 
successful in increasing access and educating and training dental 
students, dental residents and allied dental students in the provision 
of care for patients afflicted with the disease. The Dental 
Reimbursement Program (DRP) accomplishes significant benefits for both 
patient care and education of future oral health practitioners.
    Academic dental institutions (ADI) are safety net providers of oral 
and dental care for low-income, uninsured or underinsured 
immunocompromised patients who are prone to oral infections. A recent 
study \2\ found that providing HIV/AIDS patients with regular 
diagnostic and preventive care reduced the need for more complex and 
costly services. Thus, two federal objectives--service to patients of 
limited means and education of future providers--are accomplished with 
this modest but important program.
---------------------------------------------------------------------------
    \2\ Journal of the American Dental Association (133 JADA 1343).
---------------------------------------------------------------------------
  $420 million for the national institute for dental and craniofacial 
                            research (nidcr)
    NIDCR is the only Institute within the National Institutes of 
Health (NIH) whose mission is to improve oral, dental and craniofacial 
health through research, research training, and the dissemination of 
health information. Oral disease affects nearly every American. It is 
essential that Congress increase support for NIDCR's diverse and 
critical research initiatives. Of paramount importance is funding for 
clinical research and dental school research infrastructure. Among the 
ongoing research projects being conducted by dental researchers is work 
on saliva as a reliable diagnostic fluid to detect systemic diseases in 
a non-invasive way, including the detection of cancer-associated 
molecules associated with oral squamous cell carcinoma as well as 
research on how to engineer teeth in the laboratory and transplant them 
into the mouth to replace a missing or damaged tooth. In any future NIH 
reorganization NIDCR should remain independent.

          THE CENTERS FOR DISEASE CONTROL AND PREVENTION (CDC)

$18 million for the CDC Oral Health Program
    The CDC Oral Health Program supports state and community-based 
programs that work to prevent oral disease and reduce disparities in 
oral health. The program works with states to establish surveillance 
systems that provide valuable health information to assess the 
effectiveness of programs and target them to populations at greatest 
risk. Grants have been used to support basic state oral health 
services, including support for program leadership, monitoring oral 
health risk factors, and developing and evaluating prevention programs 
such as community fluoridation and school-based sealant programs. 
Federal funding is essential to maintain these programs.
$130 million for the CDC Prevention Block Grant
    $3.5 million of this amount is for oral health projects. The 
President's budget eliminates the program completely. The funding is 50 
percent of the CDC money that flows back to states for oral health 
programs. It is used by states to purchase and replace fluoridation 
equipment and to maintain a state dental presence.
 $10 million for the dental health improvement act enacted as part of 
   the health care safety net amendments of 2002 (public law 107-251)
    The Dental Health Improvement Act will help, when funded, to 
eliminate the disparities in oral health status and assure access to 
oral health services for low-income children. The law authorized $50 
million over 5 years for innovative state oral health care grants. 
Congress has not yet provided funding for this important federal-state 
partnership. The American Dental Association (ADA) and the American 
Academy of Pediatric Dentists (AAPD) join ADEA in requesting $10 
million for this program in fiscal year 2006.
    Grants can be used for a variety of state initiatives including 
loan forgiveness programs for dentists serving in dental health 
professions shortage areas (HPSAs); grants or low-interest loans for 
dentists participating in Medicaid; dental faculty recruitment 
programs; and establishment or augmentation of a state dental officer 
position to coordinate oral health and access issues in the state. The 
program, when funded, will be a shining example of a true federal-state 
partnership, as states must agree to match at least 40 percent of any 
federal contributions under this grant.
$135 million for the minority and disadvantaged assistance programs in 
         the health professions education and training programs
    The infrastructure that has been established by previous federal 
investment requires sustained and increased support to meet the 
challenges of diversifying the health care workforce, addressing 
student indebtedness, eliminating faculty shortages, and eradicating 
oral health care disparities in underserved communities.
    The President's fiscal year 2006 budget eliminates funding for the 
Centers of Excellence (COE) program, the Health Careers Opportunity 
Program (HCOP), and the Faculty Loan Repayment Program (FLRP) and 
reduces by nearly 80 percent the funding for Scholarships for 
Disadvantaged Students (SDS). These programs are crucial if we are to 
address concerns with health disparities. The COE, HCOP and SDS 
programs are essential in assisting economically disadvantaged students 
enter and graduate from health professions schools. Underrepresented 
minority recruitment and retention in the health professions is a 
serious problem. In 2004, the first-year enrollment of underrepresented 
minority students in dental school was just 11.3 percent of the total 
first year dental student enrollment. In 1990, the percentage of 
underrepresented minority students in the first year class was 13.8 
percent of the total first year enrollment. While the FLRP assists in 
recruiting and retaining faculty, it is of particular importance to 
academic dentistry as there is currently a faculty shortage. ADEA 
strongly urges Congress to continue investing in HCOP, COE, SDS, and 
FLRP so that the health professions can make strides in diversifying 
the future health care workforce.
       $213 million for the national health service corps (nhsc)
    The National Health Service Corps Scholarship and Loan Repayment 
Programs assist students with financing their health professions 
education while promoting primary care access to underserved areas. It 
is critical that the NHSC receive increased funding to meet the growing 
health care needs in the nation's rural and underserved communities. 
The President's budget proposal cuts $5 million from the NHSC budget at 
a time when it is crucial to maintain a pipeline of health providers in 
health professions shortage areas.
    $108 million for the indian health service (ihs) dental programs
    Maintaining the health care infrastructure and supporting the 
health care workforce that provides care to the Alaska Native/American 
Indian (AN/AI) population is essential in meeting the needs of Indian 
people. The IHS Loan Repayment Program makes payments on health care 
worker's student loans while they provide care at one of 280 hospital 
sites located around the country. The IHS Scholarship program provides 
both hope and financial support to AN/AI students pursuing careers in 
the health professions. Without these programs access to care as well 
education for the AN/AI population will surely worsen.
$1 million for a medicaid commission to study and recommend changes to 
                                medicaid
    ADEA supports the amendment in the Senate's fiscal year 2006 Budget 
Resolution that halts further cuts to Medicaid and instead establishes 
a reserve fund of $1 million to establish a Medicaid Commission to 
study and recommend changes needed in Medicaid. While expenditures on 
dental care account for less than 1 percent of all Medicaid 
expenditures, 25 million children enrolled in Medicaid are eligible for 
needed dental care under the program. Medicaid accounts for almost a 
quarter of all dental expenditures for children under age 6 and 
provides the only guarantee of relief from dental pain and infections, 
restoration of teeth and dental health for millions of children on 
Medicaid. The Medicaid program is the only access that many of the 
poorest and sickest adults have to critical emergency oral health care.
    In conclusion, the American Dental Education Association 
appreciates consideration of our fiscal year 2006 budget 
recommendations for dental education and research. A sustained federal 
commitment is needed to help meet the challenges oral disease poses 
among the nation's most vulnerable citizens including children. So too 
is the development of a partnership between the federal government and 
dental education programs to implement a national oral health plan that 
guarantees access to dental care for everyone, ensures continued dental 
health research, eliminates disparities, and eliminates workforce 
shortages.
                                 ______
                                 
        Prepared Statement of the American Geological Institute

    To the Chairman and Members of the Subcommittee: Thank you for this 
opportunity to provide the American Geological Institute's perspective 
on fiscal year 2006 appropriations for the Department of Education's 
Mathematics and Science Partnership program.
    In 1999, the Third International Math and Science Study found that 
the longer U.S. students are in school, the farther they fall behind in 
math and science proficiency in international comparisons. That 
prompted President Bush to propose the National Math and Science 
Partnership (MSP) program as part of No Child Left Behind. The goal of 
the partnership program is to strengthen K-12 science and math 
education by promoting a vision of education as a continuum that begins 
with the youngest learners and progresses through adulthood with 
teacher training. Among its activities, the program supports 
partnerships that unite K-12 schools, institutions of higher education 
and private industry.
    Congress took the president's suggestion and authorized an MSP 
program at the National Science Foundation (NSF) and another 
partnership program at the Department of Education in 2002. These two 
acts of Congress were meant to fund two different types of partnerships 
to achieve the overall goal of highly qualified math and science 
teachers ensuring that all students have the basic knowledge to compete 
in the ever changing and competitive job market. The funds allocated 
for the NSF's MSPs go to the highest quality proposals chosen through a 
competitive peer-reviewed grant program. The program focuses on 
modeling, testing and identification of effective math-science 
activities. The funds allocated for the Department of Education MSPs go 
directly to the states as formula grants, providing funds to all states 
to replicate and then implement the best of the NSF partnerships 
throughout the country. Once states receive the money, they make 
competitive grants to local partnerships.
    At a hearing in October 2003, the House Science Committee found 
that these new partnership programs are ``on the right track toward 
improving math and science education.'' Testifying before the 
committee, M. Susana Navarro, executive director of the El Paso 
Collaborative for Academic Excellence MSP, said: ``What the MSP now 
provides is an opportunity to bring together partners across the 
community, K-16, toward the shared development and implementation of 
high quality math and science content and instructional practices aimed 
at improving student achievement among all students.''
    Just 3 months after that hearing, President Bush released his 
budget proposal for fiscal year 2005, which phased out the NSF 
partnership programs and shifted the funding to the MSP companion 
program at the Department of Education. However, the $120 million 
increase requested for 2005 was not slated to fund additional MSPs on 
the local level; instead it would have financed a new program focused 
on accelerating the math education of secondary-school students, 
especially those who are at risk of dropping out of school because they 
lack basic skills in math.
    The Senate Labor, Health and Human Services and Education did not 
go along entirely with the President's plan last year. The MSPs would 
have received $200 million, 4.5 percent less than the President 
requested but $51 million or 34 percent more than fiscal year 2004 
funding in the Senate version of the bill. The report stated, ``These 
funds will be used to improve the performance of students in the areas 
of math and science by bringing math and science teachers in elementary 
and secondary schools together with scientists, mathematicians, and 
engineers to increase the teachers' subject-matter knowledge and 
improve their teaching skills.''
    We applauded the Subcommittee because it did not choose to fund 
math over science and, ultimately, Congress did not chose to fund math 
over science. In last year's omnibus bill, the Math and Science 
Partnership budget increased 16 percent over fiscal year 2004 levels to 
$179 million and none of those funds were set-aside for one subject.
    This year, the President has proposed something similar. The fiscal 
year 2006 budget proposal increases the MSPs to $269 million, an 
increase of $90.4 million, or 51 percent, over the fiscal year 2005 
level. Although a large increase has been proposed, the President's 
plan restricts $120 million for the Secondary Education Mathematics 
Initiative, a competitive grant program to be administered by the 
Department of Education. This creates a net decrease in funding 
available to the states in fiscal year 2006 compared to the fiscal year 
2005 allocations.
    The $120 million in funds for Secondary Education Mathematics 
Initiative is part of the overall High School Initiative, which will 
expand the application of No Child Left Behind principles to improve 
high school education and raise achievement, particularly the 
achievement of students most at risk of failure. This new initiative 
combines a number of categorical programs in order to give states and 
districts more flexibility and contains stronger accountability 
mechanisms.
    AGI believes the two MSPs are the most effective approach to 
rapidly improving the abilities of all students to enhance their future 
prospects regardless of their ultimate career goals. The two programs, 
designed and authorized by Congress, are complementary. AGI supports 
funding at NSF for competitive grants for teaching tools and teacher 
training and funding at the Department of Education for formula grants 
for implementation of these tools in K-12 education. The peer-review 
process in the NSF program should be safeguarded as should the formula 
grants for all states as administered by the Department of Education. 
Moreover, the program within the Department of Education should not 
suffer a net reduction in funding in order to support a new initiative 
for mathematics. These funds should serve the Math and Science 
Partnership with no earmarks or set-asides.
    Thank you for the opportunity to present this testimony to the 
Subcommittee. If you would like any additional information, please 
contact me at 703-379-2480, ext. 228 voice, 703-379-7563 fax, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="12607d65737c5273757b6577703c7d6075">[email&#160;protected]</a>, or 4220 King Street, Alexandria VA 22302-1502.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium

    Mr. Chairman and Members of the Subcommittee, on behalf of this 
Nation's 34 Tribal Colleges and Universities (TCUs), which compose the 
American Indian Higher Education Consortium (AIHEC), thank you for the 
opportunity to share our fiscal year 2006 funding requests for programs 
within the U.S. Department of Education, and the U.S. Department of 
Health and Human Services--Head Start program.
    This statement will cover two areas: (a) background on the tribal 
colleges, and (b) justifications for our funding recommendations.

                    I. BACKGROUND ON TRIBAL COLLEGES

    The Tribal College Movement began in 1968 with the establishment of 
Navajo Community College, now Dine College, in Tsaile, Arizona. Rapid 
growth of tribal colleges soon followed, primarily in the Northern 
Plains region. In 1972, the first six tribally controlled colleges 
established AIHEC to provide a support network for member institutions. 
Today, AIHEC represents 34 Tribal Colleges and Universities located in 
12 states, which were begun specifically to serve the higher education 
needs of American Indians. Annually, these institutions serve upwards 
of 30,000 full-and part-time students from over 250 Federally-
recognized tribes.
    Currently, all but one of our colleges is accredited by 
independent, regional accreditation agencies and like all institutions 
of higher education, must undergo stringent performance reviews on a 
periodic basis to retain their accreditation status. In addition to 
college level programming, TCUs provide much needed high school 
completion (GED), basic remediation, job training, college preparatory 
courses, and adult education. Tribal colleges fulfill additional roles 
within their respective reservation communities functioning as 
community centers, libraries, tribal archives, career and business 
centers, economic development centers, public-meeting places, and child 
care centers. Each TCU is committed to improving the lives of its 
students through higher education and to moving American Indians toward 
self-sufficiency.
    Tribal colleges provide access to higher education for American 
Indians and others living in some of this Nation's most rural and 
economically depressed areas. These institutions, chartered by their 
respective tribal governments, were established in response to the 
recognition by tribal leaders that local, culturally based institutions 
are best suited to help American Indians succeed in higher education. 
TCUs combine traditional teachings with conventional postsecondary 
courses and curricula. They have developed innovative means to address 
the needs of tribal populations and are successful in overcoming long-
standing barriers to higher education for American Indians. Since the 
first tribal college was established on the Navajo reservation, these 
vital institutions have come to represent the most significant 
development in the history of American Indian higher education, 
providing access to and promoting achievement among students who may 
otherwise never have known postsecondary education success.
    Despite their remarkable accomplishments, tribal colleges remain 
the most poorly funded institutions of higher education in the country. 
Persistently inadequate funding remains the most significant barrier to 
their success. Funding for basic institutional operations of 26 
reservation based colleges is provided through Title I of the Tribally 
Controlled College or University Assistance Act (Public Law 95-471). 
Funding under the Act was first appropriated in 1981. Almost 25 years 
later, the funding level is at just 75 percent of the authorized level 
of $6,000 per Indian student, which is defined as an enrolled member of 
a Federally recognized tribe. In fiscal year 2005, these colleges are 
receiving $4,447 per full-time equivalent Indian student toward their 
institutions operating budgets. While mainstream institutions have had 
a foundation of stable state tax-based support, TCUs must rely on year-
to-year Federal appropriations for their basic institutional operating 
funds. Because TCUs are located on Federal trust territories, states 
have no obligation to fund them even for the non-Indian state-resident 
students who account for approximately 20 percent of TCU enrollments. 
Yet, if these same students attended any other public institution in 
the state, the state would provide basic operating funds to the 
institution.
    Inadequate funding has left many of our colleges with no choice but 
to continue to operate under severely distressed conditions. Although 
facilities initiatives of the last few years have resulted in 
widespread renovation and construction at TCUs, many colleges began in 
surplus trailers; cast-off buildings; and facilities with crumbling 
foundations, faulty wiring, and leaking roofs, and therefore have a 
long way to go. Sustaining quality academic programs is a challenge 
without a reliable source of facilities maintenance and construction 
funding.
    As a result of more than 200 years of Federal Indian policy--
including policies of termination, assimilation and relocation--many 
reservation residents live in abject poverty comparable to that found 
in Third World nations. Through the efforts of tribal colleges, 
American Indian communities receive services they need to reestablish 
themselves as responsible, productive, and self reliant.

                           II. JUSTIFICATIONS

A. Higher Education Act
    The Higher Education Act Amendments of 1998 created a separate 
section within Title III, Part A, specifically for the Nation's Tribal 
Colleges and Universities (Section 316). Titles III and V programs 
support institutions that enroll large proportions of financially 
disadvantaged students and have low per-student expenditures. TCUs 
clearly fit this definition as they are among the most poorly funded 
institutions in America, yet they serve some of the most impoverished 
areas of the country. TCUs are victims of their own success. This year 
two new tribal colleges are eligible to compete for funding under Title 
III. Despite the increase in the size of the pool of eligible 
institutions, the President's fiscal year 2006 Budget recommends level 
funding for this vital program. We urge the Subcommittee to fund 
section 316 at $32 million, an increase of $8.2 million over fiscal 
year 2005 and the President's request, and we ask that report language 
included in since fiscal year 2003 be restated clarifying that funds 
not needed to support continuation grants or new planning or 
implementation grants be available for facilities renovation and 
construction grants.
    The importance of Pell grants to our students cannot be overstated. 
Department of Education figures show that at the majority of all tribal 
college students receive Pell grants, primarily because student income 
levels are so low and our students have far less access to other 
sources of aid than students at mainstream institutions. Within the 
Tribal College system, Pell grants are doing exactly what they were 
intended to do--they are serving the needs of the lowest income 
students by helping people gain access to higher education and become 
active, productive members of the workforce. We urge Congress to fund 
this critical program at the highest possible level.

B. Carl D. Perkins Vocational & Applied Technology Education Act
    Tribally-Controlled Postsecondary Vocational Institutions.--Section 
117 of the Perkins Act provides basic operating funds for two of our 
member institutions: United Tribes Technical College in Bismarck, North 
Dakota, and Crownpoint Institute of Technology in Crownpoint, New 
Mexico. We urge that Congress fund this program at $8.5 million. 
Included in both the House and Senate reauthorization bills, which are 
being considered in the 109th Congress is language waiving section 117 
grantees from having to utilize a restricted indirect cost rate, since 
the timeline for enactment of the reauthorizing legislation is 
uncertain, we ask that you reiterate the language that has been 
included in this appropriations measure since fiscal year 2002 stating 
that Section 117 Perkins grantees need not utilize restricted indirect 
cost rate.
    The President's fiscal year 2006 budget once again proposes the 
elimination of the Native American Program Section 116, which reserves 
1.25 percent of appropriated funding to support Indian vocational 
programs. We strongly urge Congress to continue this program, which is 
vital to the survival of vocational education programs being offered at 
TCUs.

C. Greater Support of Indian Education Programs
    American Indian Adult and Basic Education.--This section supports 
adult education programs for American Indians offered by TCUs, state 
and local education agencies, Indian tribes, institutions, and 
agencies. Despite a lack of funding, TCUs must find a way to continue 
to provide basic adult education classes for those Indians that the 
present K-12 Indian education system has failed. Before many 
individuals can even begin the course work needed to learn a productive 
skill, they first must earn a GED or, in some cases, learn to read. 
According to a 1995 survey conducted by the Carnegie Foundation for the 
Advancement of Teaching, 20 percent of the participating students had 
completed a tribal college GED program before beginning higher 
education classes at the tribal college. At some schools, the 
percentage is even higher. Clearly, there is a tremendous need for 
basic educational programs, and TCUs need funding to support these 
crucial activities. Tribal colleges respectfully request that Congress 
appropriate $5 million to meet the ever increasing demand for basic 
adult education and remediation program services.
    American Indian Teacher Corps.--American Indians are severely 
under-represented in the teaching and school administrator ranks 
nationally. These competitive programs, aimed at producing new American 
Indian teachers and school administrators for schools serving American 
Indian students, support the recruitment, training, and in-service 
professional development programs for Indians to become effective 
teachers and school administrators, and in doing so excellent role 
models for Indian children. We believe that the TCUs are the ideal 
catalysts for these initiatives because of our current work in this 
area and the existing articulation agreements TCUs hold with 4-year 
degree awarding institutions. We request that Congress support these 
programs at $10 million and $5 million, respectively, to increase the 
number of qualified American Indian teachers and school administrators 
in Indian Country.

D. Department of Health and Human Services/Administration for Children 
        & Families/Head Start
    Tribal Colleges and Universities (TCU) Head Start Partnership 
Program.--The TCU/Head Start partnership has made a lasting investment 
in our Indian communities by creating and enhancing associate degree 
programs in Early Childhood Development and related fields. New 
graduates of these programs can help meet the mandate that 50 percent 
of all program teachers earn an associate degree in Early Childhood 
Development or a related discipline. More importantly, this program has 
afforded American Indian children Head Start programs of the highest 
quality. A clear impediment to the ongoing success of this partnership 
program is the erratic availability of discretionary funding made 
available for the TCU/Head Start partnership. Since fiscal year 1999, 
the first year of the program, a total of just 15 tribal colleges have 
been able to participate in this valuable program. Some colleges were 
awarded 3-year grants, others 5-year grants, and in fiscal year 2002 
there were no new grants funded at all. In fiscal year 2003, funding 
for eight new grants was made available, but in fiscal year 2004, only 
two new awards could be made because of the lack of adequate funds. The 
President's fiscal year 2006 budget includes a total request of $6.9 
billion for Head Start Programs. We request Congress direct the Head 
Start Bureau to designate a minimum of $5 million for the TCU/Head 
Start Partnership program, to ensure that this critical program can be 
continued and be expanded so that all TCUs might participate in the 
TCU- Head Start partnership program.

                            III. CONCLUSION

    Tribal colleges and universities are bringing education to 
thousands of American Indians. The modest Federal investment in the 
TCUs has paid great dividends in terms of employment, education, and 
economic development, and continuation of this investment makes sound 
moral and fiscal sense. Tribal colleges need your help if they are to 
sustain and grow their programs and achieve their missions.
    Thank you again for this opportunity to present our funding 
recommendations. We respectfully ask the Members of this Subcommittee 
for their continued support of the Nation's tribal colleges and 
universities and full consideration of their fiscal year 2006 
appropriations needs and recommendations.
                                 ______
                                 
 Prepared Statement of the Association of Minority Health Professions 
                                Schools

    Mr. Chairman, thank you very much for the opportunity to present 
the views of the Association of Minority Health Professions Schools 
(AMHPS). I am Dr. John E. Maupin, President of Meharry Medical College 
in Nashville, Tennessee and President of AMHPS.
    AMHPS is comprised of the nation's 12 historically black medical, 
dental, pharmacy, and veterinary. Combined, our institutions have 
graduated 50 percent of African-American physicians and dentists, 60 
percent of all the nation's African-American pharmacists, and 75 
percent of the African-American veterinarians.
    Mr. Chairman, historically black health professions institutions 
are addressing a pressing national need in carrying out their mission 
of training minorities in the health professions. While African-
Americans represent approximately 15 percent of the U.S. population, 
only 2-3 percent of the nation's health professions workforce is 
African-American. Studies have demonstrated that when African Americans 
and other minorities are trained in minority institutions, they are 
much more likely to: (1) serve in medically underserved areas, (2) care 
for minorities, and (3) accept patients who are Medicaid dependent or 
otherwise poor.
    This is important Mr. Chairman because the gap in health status 
between our nation's minority and majority populations continues to 
widen due in part to the lack of access to quality health care services 
in minority communities. As a result, we believe it is imperative that 
the federal commitment to training African Americans and other 
minorities in the health professions remains strong.
    In spite of our proven success in training health professionals, 
and the important contribution these professionals make, our 
institutions continue to face a financial struggle inherent to our 
mission. The financial challenges facing the majority of our students 
affect our institutions in numerous ways. For example, we are unable to 
depend on tuition as a means by which to respond to any discontinuation 
of federal support. Moreover, the patient populations served by the 
AMHPS institutions are overwhelmingly poor. As a result, our 
institutions cannot rely on patient care income at a time when the 
average medical school gets 40-60 percent of its operating revenue from 
health care services.
    Mr. Chairman, before I present AMHPS's appropriations 
recommendations for fiscal year 2006, I would like to express my 
sincere appreciation for your leadership in restoring funding for the 
Health Resources and Services Administration's health professions 
training programs in fiscal year 2005. For many of our schools, support 
from these programs represent the difference between our doors being 
open or closed. We cannot overstate our gratitude for your leadership 
in this area.

 FISCAL YEAR 2006 RECOMMENDATIONS FOR FEDERAL PROGRAMS OF INTEREST TO 
                                 AMHPS

Health Resources and Services Administration
            Health Professions Training
    The health professions training programs administered by the Health 
Resources and Services Administration are the only federal initiatives 
designed to address the longstanding under-representation of minority 
individuals in health careers. HRSA's Minority Centers of Excellence, 
Health Careers Opportunity Program, and Scholarships for Disadvantaged 
Students, support health professions institutions with a historic 
mission and commitment to increasing the number of minorities in the 
health professions.
    Mr. Chairman, our schools and students greatly appreciate the 
subcommittee's consistent support of these important programs. However, 
we are very disappointed that the administration's budget all but 
eliminates funding again this year for health professions programs 
focused on diversity in the workforce. For fiscal year 2006, AMHPS 
joins with the Health Professions Nursing and Education Coalition in 
recommending a funding level of at least $300 million for Title VII 
health professions training programs.
    For the health professions programs specifically focused on 
enhancing minority representation in the health care workforce AMHPS 
recommendations are as follows:

            Minority Centers of Excellence
    The purpose of the Minority Centers of Excellence program (COE) is 
to assist schools that train minority health professionals by 
supporting programs of excellence in health professions education at 
those institutions. The COE program focuses on improving student 
recruitment and performance; improving curricula and cultural 
competence of graduates; facilitating faculty/student research on 
minority health issues; and training students to provide health 
services to minority individuals by providing clinical teaching at 
community-based health facilities.
    For fiscal year 2006, AMHPS recommends a funding level of $40 
million for Minority Centers of Excellence (an increase of $6.1 million 
over fiscal year 2005).

            Health Careers Opportunity Program
    Grants made to health professions schools and educational entities 
under the Health Careers Opportunity Program (HCOP) enhance the ability 
of individuals from disadvantaged backgrounds to improve their 
competitiveness to enter and graduate from health professions schools. 
HCOP funds activities that are designed to develop a more competitive 
applicant pool through partnerships with institutions of higher 
education, school districts, and other community based entities. HCOP 
also provides for mentoring, counseling. primary care exposure 
activities and information regarding careers in a primary care 
discipline. Sources of financial aid are provided to students as well 
as assistance in entering into the health professions school
    For fiscal year 2006, AMHPS recommends a funding level of $40 
million for the Health Careers and Opportunities Program (an increase 
of $4.1 million over fiscal year 2005).

            Scholarships for Disadvantaged Students
    The Scholarships for Disadvantaged Students program was established 
to make scholarship funds available to eligible students from 
disadvantaged backgrounds who are enrolled (or accepted for enrollment) 
as full-time students. To be eligible for funding, a school must have 
in place a program to recruit and retain students from disadvantaged 
backgrounds (including racial and ethnic minorities) and demonstrate 
that the program has achieved success based on the number or percentage 
of disadvantaged students who graduate from the school.
    For fiscal year 2006, AMHPS recommends a funding level of $55 
million for the Scholarships for Disadvantaged Students program (an 
increase of $7.5 million over fiscal year 2005).

                   HEALTHY COMMUNITIES ACCESS PROGRAM

    Mr. Chairman, as you know, Congress passed legislation last year in 
2003 to reauthorize the Community Health Centers program. Included in 
this important measure was a provision which established a 
demonstration authority within the Healthy Community Access Program to 
foster greater collaboration between historically black health 
professions and federally qualified CHC's. Specifically, this 
provision:
    (1) Establishes a demonstration program for the development of 
research infrastructure at historically black health professions 
schools affiliated with federally qualified Community Health Centers.
    (2) Establishes joint and collaborative programs of medical 
research and data collection between historically black health 
professions schools and federally qualified Community Health Centers 
with the goal of improving the health status of medically underserved 
populations.
    (3) Supports the cost of patient care, data collection, and 
academic training resulting from these partnerships.
    Mr. Chairman, Meharry Medical College and other members of our 
Association successfully applied for funding under this new 
demonstration authority in fiscal year 2005. These funds are making an 
important contribution at all of our institutions. For fiscal year 
2006, we encourage the subcommittee to restore funding for the Health 
Communities Access Program to $83 million.

                     NATIONAL INSTITUTES OF HEALTH

The National Center on Minority Health and Health Disparities
    Established in 2000 by the Minority Health and Health Disparities 
Research and Education Act (Public Law 106-525), the National Center on 
Minority Health and Health Disparities at NIH is charged with 
addressing the longstanding health status gap between minority and 
majority populations. The National Center has the authority to:
  --Directly support biomedical research, training, and information 
        dissemination focused on eliminating health status disparities.
  --Serve in a leadership capacity in developing a comprehensive plan 
        for minority health research at NIH.
  --Participate as an equal when NIH institute and center directors 
        meet to determine research policy.
  --Support the enhancement of biomedical research capacity at minority 
        health professions institutions through a ``Research 
        Endowment'' program.
  --Support the development of health professions institutions with a 
        history and mission of serving minority and medically 
        underserved communities through a ``Centers of Excellence'' 
        program.
    For fiscal year 2006, AMHPS recommends a funding level of $250 
million for the National Center. This is an increase of $53 million. 
This new funding will enable the Center to support all of its new 
programs and begin to meet the challenge of eliminating health status 
disparities within minority and medically underserved communities.
Extramural Facilities Construction
    Mr. Chairman, if we are to take full advantage of the historic 
increases in biomedical research funding that Congress has provided to 
NIH, it is critical that our nation's research infrastructure remain 
strong.
    Under legislation passed in 2001, the authorization level for the 
Extramural Facility Construction program at the National Center for 
Research Resources was increased from $150 million to $250 million. In 
addition, the law maintains the 25 percent set-aside for Institutions 
of Emerging Excellence (many of which are minority institutions) for 
funding up to $50 million and allows the NCRR director to waive the 
matching requirement for participation in the program.
    Unfortunately, funding for the Extramural Facility Construction 
program was cut from $119 million in fiscal year 2004 to $30 million in 
fiscal year 2005. AMHPS encourages the subcommittee to prioritize 
support for this important program in fiscal year 2006 by restoring 
funding to the fiscal year 2004 level.

Research Centers at Minority Institutions
    The Research Centers at Minority Institutions program (RCMI) at the 
National Center for Research Resources has a long and distinguished 
record of helping our institutions develop the research infrastructure 
necessary to be leaders in the area of health disparities research. 
Although NIH has received unprecedented budget increases in recent 
years, funding for the RCMI program has not increased by the same rate. 
Therefore, AMHPS recommends that funding for this important program 
grow at the same rate as NIH overall in fiscal year 2005.

 STRENGTHENING HISTORICALLY BLACK GRADUATE INSTITUTIONS--DEPARTMENT OF 
                               EDUCATION

    The Department of Education's Strengthening Historically Black 
Graduate Institutions program (Title III, Part B, Section 326) is 
extremely important to AMHPS institutions. The funding from this 
program is used to enhance educational capabilities, establish and 
strengthen program development offices, initiate endowment campaigns, 
and support numerous other institutional development activities.
    For fiscal year 2006, AMHPS recommends an appropriation of $65 
million (an increase of $6.5 million over fiscal year 2005) to continue 
the vital support that this program provides to historically black 
graduate institutions.

                     HHS OFFICE OF MINORITY HEALTH

    The HHS Office of Minority Health (OMH) has the potential to play a 
critical role in addressing health status disparities throughout the 
country. Unfortunately, the office does not currently have the 
authority or resources necessary to support activities that will truly 
make a difference in closing the health gap between minority and 
majority populations. For fiscal year 2006, AMHPS recommends a funding 
level of $65 million for the Office, with $10 million designated for 
the following programs focused on medically underserved communities and 
capacity building for the training of minorities in health professions:
    (1) OMH sponsored programs to assist medically underserved 
communities with the greatest need in solving health disparities and 
attracting and retaining health professionals;
    (2) Assistance to minority institutions in acquiring real property 
to expand their campuses to increase the capacity to train minorities 
for medical careers;
    (3) Support of conferences for high school and undergraduate 
students to pursue health professions careers; and
    (4) Support for cooperative agreements with minority institutions 
for the purpose of strengthening their capacity to train more 
minorities in the health professions.
    Once again, thank you for the opportunity to present the views of 
the Association of Minority Health Professions Schools. We look forward 
to working with you in support of these important programs.
                                 ______
                                 
    Prepared Statement of the Association of University Centers on 
                              Disabilities

    Mr. Chairman, on behalf of the Association of University Centers on 
Disabilities, I am pleased to submit this written testimony for the 
record both as a means to thank you for the Committee's support of our 
Centers in fiscal year 2005, and as a way of alerting you to the 
exciting developments happening now across the national network of 
University Centers for Excellence in Developmental Disabilities, 
Education, Research and Service (UCEDDs). The network of UCEDDs is a 
showcase for unique and effective models for developing approaches and 
gathering new knowledge in the field of developmental disabilities and 
sharing this knowledge both nationally and internationally, as well as 
in our own states to improve the lives of people with developmental and 
other disabilities. I am Fred Palmer, Director of the Boling Center for 
Developmental Disabilities, Tennessee's University Center for 
Excellence in Developmental Disabilities at the University of Tennessee 
Health Science Center, and President of the Association of University 
Centers on Disabilities.
    The mission of the UCEDDs is to advance policy and practice, for 
and with people with developmental and other disabilities, their 
families and communities. As a network of 61 interdisciplinary Centers 
across the United States and its Territories, we work to ensure full 
participation in all aspects of living for individuals with 
disabilities.
    Since the early 1960s, when Congress established a small number of 
research centers to study mental retardation, we have grown into a 
national network where each University Center has developed its own 
area(s) of expertise based on the needs of the local community, state, 
and evolving expectations of people with disabilities nationwide to be 
more included in community life. Authorized by the Developmental 
Disabilities Assistance and Bill of Rights Act (Public Law 106-402) we 
currently focus our work on serving as a national education and 
training, service and information resource and research entity for our 
nation.
    We are extremely grateful that in fiscal year 2005, the Congress 
increased funding for the UCEDDs by $5 million, bringing our current 
funding to $31.5 million. This increase has provided us with an 
opportunity that has not existed in over a decade--the opportunity to 
increase the number of Centers in our network in order to better serve 
people with disabilities. With this money, we will establish three new 
Centers in states where there is a large minority population and/or 
difficulties reaching people with disabilities due to geographic 
hardships. The increased funding also provides each current Center with 
additional dollars to conduct research and provide community supports 
and services as outlined in the DD Act, essentially funding each 
current Center at the level authorized in 2000. Additionally, the 
increased funding allows the Administration on Developmental 
Disabilities to compete one or two small National Training Initiative 
grants which allow the grantee to conduct community-based training on a 
topical area of national significance.
    We are respectfully seeking an appropriation of $37 million for the 
network of Centers for fiscal year 2006. This increase will allow 
funding for the three new Centers to be increased to the same funding 
as the existing 61 Centers, as well as to continue our ability to 
establish additional Center grants in the five states that currently 
have unserved and underserved populations, and support for four new 
Centers that specialize in minority health disparities and education 
issues.
    AUCD believes that all people with disabilities must have the 
opportunity to maximize their potential, and have equal and meaningful 
access to all programs that help people be part of community life. We 
have been honored and pleased to work with President Bush and his 
Administration to carry out initiatives established in the New Freedom 
Initiative. Through Executive Order 12317, ``Community-Based 
Alternatives for Individuals with Disabilities'' we are working at the 
state and national level to implement programs and secure funding to 
rebalance the system of care for individuals with disabilities and 
their families. We believe that the country is at a turning point in 
time that can truly change the way that individuals with disabilities 
are perceived and treated. By helping states rebalance their service 
systems to serve people in the community first, as opposed to 
institutional settings, we are truly working to achieve the President's 
goals set forward in the Executive Order.
    The UCEDDs focus their work in a concerted effort through the areas 
of education and training at the university and community level; 
research, both basic and applied; and service provision at the 
individual and family level. Please allow me this opportunity to 
provide you with some examples.
    Education.--Quality of life in the community for individuals with 
disabilities depends upon well-trained professionals. Positioned within 
the university, UCEDDs educate professionals-in-training in 
interdisciplinary approaches and provide continuing education for 
professionals practicing in multiple fields relating to disabilities. 
Whether the focus is on leadership, direct service, clinical or other 
personnel training, these pre-service and continuing education programs 
are geared to the needs of students, fellows, and practicing 
professionals and have been essential in raising and defining the 
educational standards of service across health, education, employment 
and social service systems. Further, they have increased the capacity 
of States to be responsive to the needs of individuals with 
disabilities.
    Each year, UCEDDs provide education and training to approximately 
500,000 health, education, mental health, and policy-making 
professionals, as well as people with disabilities and their families. 
UCEDDs in communities nationwide provide this essential education and 
training.
    For example, one issue that Centers focus on nationally is positive 
behavioral supports. One UCEDD in Oregon houses the Center on Positive 
Behavioral Intervention and Support. The Center assists local schools 
in identifying, adapting, and sustaining effective behavioral 
practices, including school-wide discipline programs. Results from 
their replication efforts in over 400 schools nationwide indicate that 
their technical assistance and research has enhanced schools' capacity 
to address behavioral challenges, diminish disruptions, reclaim 
instructional time, and enhance quality and effectiveness of 
instruction.
    Through a partnership with the Centers for Disease Control and 
Prevention (CDC), the network of UCEDDs are designing and disseminating 
training materials on Down Syndrome and Spina Bifida. Educational 
modules are being designed for use in medical schools for training 
physicians in recognition and recommended treatments for these two 
conditions. Materials from these efforts will be disseminated to 
medical schools throughout the country.
    Research.--UCEDDs engage in cutting edge research on a wide variety 
of issues related to individuals with developmental disabilities and 
their families. From basic research to applied research and policy 
analysis, University Centers work to link research to public policy and 
professional practice. By studying areas such as brain development, 
autism spectrum disorders, and early literacy, UCEDD researchers are 
learning how children and adults learn and how best to teach them. 
UCEDDs lead in developing and evaluating new ideas and promising 
practices that improve the lives of children and adults with 
disabilities and their families and increase their access to quality 
services. Many participate in federally established research projects 
to study and disseminate information on the causes and prevention of 
disabilities and chronic conditions.
    One example of how research impacts upon policy and practice is a 
collaborative effort between one UCEDD and its state Department of 
Education and Department of Health and Human Services. Together they 
are studying the issues of access to, and retention in, high quality 
childcare for all children throughout the state. This multi-year, 
interdepartmental initiative is studying ways to develop a coordinated 
system of inclusive childcare and early education for all children, 
including those who are at risk due to poverty, disability, social-
emotional and behavioral challenges, abuse, or language and cultural 
differences. By implementing and studying various systems of support 
for childcare providers, the UCEDD will be able to inform policymakers 
in areas such as staff development and retention of childcare staff, 
providing childcare support to TANF families, inclusive childcare 
support for children with disabilities, and supporting children in 
foster care.
    Service.--UCEDDs provide direct services and supports to people 
with developmental and other disabilities, their families, and 
communities, including state-of-the-art diagnosis, evaluation, and 
support services for children and adults with disabilities in health 
care, cognitive development, behavior disorders, education, daily 
living, and work skills. Moreover, through technical assistance to 
other providers, they magnify the impact of their programs, reducing 
disparities among individuals and communities.
    In Ohio, one UCEDD is working with families living in rural 
counties of Ohio who encounter many barriers to accessing quality care 
for their children. Because most services for children with 
disabilities are in urban areas, families in Appalachia were traveling 
100 miles to the city for multiple evaluations by individual 
disciplines. This resulted in a great expense in time and money for the 
family. The Center now sends teams of providers to rural areas to 
provide interdisciplinary care to families. They provide evaluation of 
children, training for local healthcare providers, and support for the 
families through a system of rural clinics. These clinics are improving 
access of needed services to families and providers and help local 
providers to better diagnose developmental disabilities such as 
cerebral palsy, fetal alcohol syndrome, autism and other genetic 
disorders.
    UCEDDs also lead in improving the lives of people with disabilities 
through new technologies. More than 20 UCEDDs including those in 
Pennsylvania, Iowa, Texas, and Utah provide services that help 
individuals assess their technology needs and get the equipment they 
need to read, hear, speak, write, learn, work, play, and fully 
participate in their communities.
    Responding to National Needs.--UCEDDs are equipped to respond 
quickly to emerging national needs. We are currently expanding our work 
in the area of aging and disability. As we continue to see people with 
disabilities living longer, aging parents need community support to 
ensure the safety and well-being of their adult aged children when they 
can no longer care for them and communities must be prepared. UCEDDs 
are working in communities on many aging-related projects and working 
with the White House Conference on Aging to ensure that aging and 
disability is part of the national dialogue. We continue to work with 
the federal government on policies and initiatives on emergency 
preparedness for people with developmental and other disabilities 
sharing much of our expertise and experience that came with the 
September 11 disaster. Other national issues that have been addressed 
by UCEDDs have included treatment and diagnosis of Autism and Related 
Spectrum Disorders, reading disorders in children, design and 
dissemination of training programs for direct support personnel in 
developmental disabilities, provision of training in methods to support 
employment for individuals with disabilities and improvement of housing 
options for individuals with disabilities and their families.
    I again ask that you consider our request for $37 million for the 
network of UCEDDs so that we may expand our network to more adequately 
serve our nation's growing population of Americans with developmental 
and related disabilities and to address our nation's health 
disparities.
    Thank you for the opportunity to share this information about the 
UCEDDs. Your careful consideration of our appropriation requests is 
appreciated and we are happy to share more detailed information with 
you at your request.
                                 ______
                                 
 Prepared Statement of the Charles R. Drew University of Medicine and 
                                Science

            SUMMARY OF RECOMMENDATIONS FOR FISCAL YEAR 2006

    1. A 6 percent increase for all institutes and centers at the 
National Institutes of Health (NIH), specifically the National Center 
for Research Resources (NCRR), the National Center for Minority Health 
and Health Disparities (NCMHD), and the National Cancer Institute 
(NCI).
    2. Urge NCI to continue to support the establishment of 
collaborative minority health comprehensive cancer centers at 
historically minority institutions in collaboration with existing NCI 
cancer centers. Continue to urge NCRR and NCMHD to collaborate on the 
establishment of a cancer center at a historically minority 
institution.
    3. Urge the Department of Health and Human Services, particularly 
the Office of Minority Health (OMH), to develop a focused effort on 
faculty support to address the residency training programs at minority 
medical institutions.
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present you with testimony. Charles R. Drew University 
is one of four predominantly minority medical schools in the country, 
and the only one located west of the Mississippi River.
    Charles R. Drew University of Medicine and Science is located in 
the Watts-section of South Central Los Angeles, and has a mission of 
rendering quality medical education to underrepresented minority 
students, and, through its affiliation with the University of 
California Los Angeles (UCLA) at the co-located King-Drew Medical 
Center, Drew provides valuable health care services to the medically 
underserved community. Through innovative basic science, clinical, and 
health services research programs, Drew University works to address the 
health and social issues that strike hardest and deepest among inner 
city and minority populations.
    The population of this medically underserved community is 
predominately African American and Hispanic. Many of these people would 
be without health care if not for the services provided by the King-
Drew Medical Center and Charles R. Drew University of Medicine and 
Science. This record of service has led Charles R. Drew University (in 
partnership with UCLA School of Medicine) to be designated as a Health 
Resources and Services Administration Minority Center of Excellence.

                    A RESPONSE TO HEALTH DISPARITIES

    Racial and ethnic disparities in health outcomes for a multitude of 
major diseases in minority and underserved communities continue to 
plague this nation that was built on a premise of equality. As 
articulated in the Institute of Medicine report entitled ``Unequal 
Treatment: Confronting Racial and Ethnic Disparities in Health Care'', 
this problem is not getting better on its own. For example, African 
American males develop cancer fifteen percent more frequently than 
white males. Similarly, African American women are not as likely as 
white women to develop breast cancer, but are much more likely to die 
from the disease once it is detected. In fact, according to the 
American Cancer Society, those who are poor, lack health insurance, or 
otherwise have inadequate access to high-quality cancer care, typically 
experience high cancer incidence and mortality rates. Despite these 
devastating statistics, we are still not doing enough to try to combat 
cancer in our communities.
    In response to these findings and the high cancer rate in our own 
community, Charles R. Drew University of Medicine and Science proposes 
that a Minority Health Comprehensive Cancer Center be built on its 
campus.
    The Center would specialize in providing not only medical treatment 
services for the community, but would also serve as a research 
facility, focusing on prevention and the development of new strategies 
in the fight against cancer.
    Mr. Chairman, the support that this subcommittee has given to the 
National Institutes of Health (NIH) and its various institutes and 
centers has and continues to be invaluable to our University and our 
community. The dream of a state of the art facility to aid in the fight 
against cancer in our underserved community would be impossible without 
the resources of NIH.
    To help facilitate the establishment of a Minority Health 
Comprehensive Cancer Center at Charles R. Drew University of Medicine 
and Science, the University is seeking support from the National 
Institutes of Health's National Center for Research Resources (NCRR), 
the National Center for Minority Health and Health Disparities (NCMHD), 
and the National Cancer Institute (NCI).

           ACADEMIC RENEWAL AND CLINICAL FACULTY RECRUITMENT

    Some of the major challenges faced in sustaining high quality 
graduate medical education programs in ``safety-net'' medical centers 
with missions focused on the medically underserved, are directly 
related to the lack of sufficient numbers of clinical faculty highly 
trained in academic medicine. To address these challenges, a plan for 
academic enrichment is proposed.
    The plan is a strategic initiative to position Charles R. Drew 
University in the first decade of the 21st Century, as a leader in 
Urban Academic Health Sciences with an emphasis on training physicians 
and other health professionals to meet the needs of the medically 
underserved. The Plan for Academic Enrichment is an opportunity to 
enhance the impact of Charles R. Drew University as a national center 
of excellence in meeting the national, state, and local challenge of 
preparing a diverse complement of excellent physicians and other health 
professionals to close the health disparity gap by affording culturally 
sensitive quality care to the medically underserved and economically 
disadvantaged. A central component of the plan is the enrichment of 
academic excellence through the recruitment of new, highly qualified 
clinical teaching faculty, with solid research skills, to be members of 
the Charles R. Drew College of Medicine faculty to strengthen both the 
graduate and undergraduate medical education programs.

                               CONCLUSION

    Despite our knowledge about racial/ethnic, socio-cultural and 
gender-based disparities in health outcomes, the ``gap'' continues to 
widen in most instances. Not only are minority and underserved 
communities burdened by higher disease rates, they are less likely to 
have access to quality care upon diagnosis. As you are aware, in many 
minority and underserved communities preventive care and/or research is 
completely inaccessible either due to distance or lack of facilities 
and expertise. This is a critical loss of untapped potential in both 
physical and intellectual contributions to the entire society.
    Even though institutions like Drew are ideally situated (by 
location, population, and institutional commitment) for the study of 
conditions in which health disparities have been well documented, 
research is limited by the paucity of appropriate research facilities. 
With your help, this cancer center will facilitate translation of 
insights gained through research into greater understanding of 
disparities in cancer incidence, morbidity and mortality and ultimately 
to improved outcomes.
    We look forward to working with you to lessen the burden of cancer 
for all Americans through greater understanding of cancer, its causes, 
and its cures. We also look forward to working with the Department of 
Health and Human Services to address the residency training program 
issues at Charles R. Drew University.
    Mr. Chairman, thank you for the opportunity to present on behalf of 
Charles R. Drew University of Medicine and Science.
                                 ______
                                 
Prepared Statement of the Council of State Administrators of Vocational 
                         Rehabilitation (CSAVR)

    Mr. Chairman and Members of the Senate Appropriations Subcommittee: 
This testimony is submitted on behalf of the Council of State 
Administrators of Vocational Rehabilitation (CSAVR) in conjunction with 
the hearing held on March 2, 2005 before the Senate Subcommittee on 
Labor, Health and Human Services, Education and Related Agencies.
    The CSAVR is composed of the chief administrators of the State 
Vocational Rehabilitation (VR) Agencies serving individuals with 
physical and/or mental disabilities in the United States, the District 
of Columbia and the Territories. These agencies constitute the state 
partners in the State-Federal Program of Rehabilitation Services 
provided under Title 1 of the Rehabilitation Act of 1973, as amended. 
State VR agencies provide individualized services and supports to 
eligible individuals with significant disabilities that are required 
for them to go to work. These services may include, but are not limited 
to, counseling and guidance, job training, higher education, physical 
and mental restoration services, and assistive technology. Over 1 
million individuals with disabilities are served annually. In fiscal 
year 2004, these agencies placed over 213,000 individuals with 
disabilities into competitive employment.
    The CSAVR, founded in 1940 to furnish input into the State-Federal 
Rehabilitation Program, provides a forum for state administrators to 
study, deliberate, and act upon matters affecting the rehabilitation 
and employment of individuals with disabilities. The Council serves as 
a resource for the formulation and expression of the collective points 
of view of state rehabilitation agencies on all issues affecting the 
provision of quality employment and rehabilitation services to persons 
with significant disabilities.
    For fiscal year 2006, CSAVR recommends an increase in the 
Vocational Rehabilitation (VR) appropriation of $125 million above the 
President's budget request for fiscal year 2006. While the President's 
budget proposes a 3.2 percent increase in funding for the Public VR 
program, an increase of approximately 1.2 percent above the mandated 
CPI called for in law, this increase is based on the elimination of 
several smaller programs (Supported Employment (SE), Projects With 
Industry (PWI), and Migrant and Seasonal Farm Workers (MSFW), with an 
assumption that VR will continue to provide services, under Title 1 of 
the Rehabilitation Act, to the individuals previously served under 
these programs. The President's budget request for fiscal year 2006 is 
between $22 and $25 million less than the consolidated funding for 
these three programs; thus, VR would need additional funding for 
services to accommodate for the elimination of these programs. In 
addition to the proposed elimination of the SE, PWI, and MSFW programs, 
which CSAVR does not support, H.R. 27, the House bill to reauthorize 
the Workforce Investment Act (WIA), expands the requirements for VR to 
provide transition services to students with disabilities. CSAVR also 
anticipates that S. 9, the Senate bill to reauthorize the WIA, will 
include expanded transition requirements, when it is reintroduced as a 
free-standing bill. Based on the significant internal and external 
challenges facing the Public VR Program, (i.e., staffing shortages, 
state budget shortfalls, increased numbers of consumers seeking 
services, and increased service expectations, the CSAVR believes that 
an increased appropriation of $125 million above the President's budget 
request for VR, for fiscal year 2006, is an appropriate recommendation.

              THE PUBLIC VOCATIONAL REHABILITATION PROGRAM

    The Public VR Program is one of the most cost-effective programs 
ever created by Congress. It enables hundreds of thousands of 
individuals with disabilities to go to work each year and become tax-
paying citizens. In fiscal year 2004, the VR Program assisted over 1 
million individuals with disabilities who wanted to work, by providing 
them with the job skills, training and support services they needed to 
become employed. Of those served, more than 213,000 entered into 
competitive employment. Funding for the VR Program requires a state 
match of 21.3 percent, and creates a state-federal partnership that has 
worked effectively for more than 85 years, and has assisted over 15 
million individuals with disabilities to engage in employment and 
become tax-paying citizens.
    The Rehabilitation Act mandates that the annual Federal 
appropriation for the VR Program grow at a rate at least equal to the 
change in the Consumer Price Index (CPI) over the previous fiscal year. 
While the mandate was intended to create a floor for the VR 
appropriation, Congress has not appropriated funds above the mandated 
CPI increase since 1999. This is particularly problematic because the 
formula used to distribute these funds, which is based on a state's per 
capita income and population, results in significant variations in the 
increases in individual State's allotments. When the increase is 
limited to the CPI increase and the formula is applied, not all states 
receive increases that are equal to the annual rate of inflation. In 
fiscal year 2005, 30 states did not receive the 1.977 percent required 
CPI increase in their state allotment.

                CHALLENGES FACING THE PUBLIC VR PROGRAM

    Over the last several years, the Public VR Program has faced a 
number of external challenges that have been compounded by the minimal 
increases in Federal funding.

Special Education
    Between 1990 and 2004, the federal appropriation for special 
education increased by approximately 333 percent. During the same time 
period, the federal appropriation for the Public VR Program increased 
by only 22 percent. As a result of these very significant increases in 
special education funding, an ever-increasing number of special 
education students are exiting the education system and seeking adult 
services, including Vocational Rehabilitation, in order to participate 
in post secondary education, job training, and/or to go to work. In 
addition, the House passed the Job Training Improvement Act in March 
2005, which adds additional responsibilities to State VR agencies for 
the provision of transition services, beyond those presently required 
by current law. The Senate bill, S. 9, is also anticipated to add new 
transition responsibilities for VR when it is reintroduced. These 
additional requirements, if implemented effectively, will place a 
tremendous burden on the fiscal and personnel resources of State VR 
agencies, many of which are already sorely under-funded to meet the 
needs of adults with significant disabilities who are seeking 
employment.

Impact of the Workforce Investment Act of 1998 (WIA)
    The Public VR Program is a mandatory partner in the WIA and, as 
such, is required to contribute significant resources to support the 
infrastructure and other costs associated with the operation of the 
One-Stop Centers. While VR's involvement in State Workforce Investment 
Systems is critically important, WIA has placed yet another financial 
burden on an already strained program, further reducing the percentage 
of VR funds that are available to provide services and supports to 
eligible individuals with disabilities. In addition, the House bill to 
reauthorize the WIA, H.R. 27, proposes to take significant resources 
from the Public VR Program far beyond the resources contributed to the 
One-Stop Centers under current law. The Senate bill, S. 9, also 
requires additional resources from VR to fund the infrastructure costs 
and other common costs associated with the operation of One-Stop 
Centers.

Impact of the Ticket to Work and Work Incentives Improvement Act of 
        1999 (TWWIIA)
    The TWWIIA was designed to address disincentives to work found in 
the Social Security Disability Insurance Program (SSDI) and the 
Supplemental Security Income Program (SSI), and to increase employment 
opportunities for individuals enrolled in these programs. Research has 
shown that less than one-half of one percent of these individuals 
leaves the Social Security disability rolls each year as a result of 
paid employment. The provisions in TWWIIA that provide extended 
Medicare and Medicaid coverage to such individuals, when they enter or 
return to the workforce, are expected to encourage more beneficiaries 
to seek employment. Despite the establishment of a network of private 
providers to offer employment services to beneficiaries, the majority 
of beneficiaries, 90 percent, continue to seek services from State VR 
Agencies. With only minimal increases in VR funding over the last 
decade, this situation creates yet another challenge for the Public VR 
Program.

Temporary Assistance for Needy Families (TANF)
    Most states have had significant success in reducing their TANF, or 
welfare to work caseloads. While TANF caseloads have been shrinking, 
the composition of the remaining caseload has changed. A 2002 General 
Accounting Office (GAO) report found that individuals with disabilities 
and their family members represent approximately 44 percent of the 
remaining TANF population. Since many of these individuals have 
multiple and significant barriers to employment, state welfare agencies 
are increasingly turning to State VR Agencies for assistance in serving 
these individuals. With only minimal increases in funding, and 42 State 
VR Agencies operating under an Order of Selection, a system of 
prioritization whereby individuals with the most significant 
disabilities are served first, it is becoming increasingly difficult, 
if not impossible, for State VR Agencies to serve the increased numbers 
of TANF referrals.
    As stated earlier, the Public VR Program is one of the most cost-
effective programs ever created by Congress. Evidence of its success is 
further established by:
  --A 2002 Longitudinal Study of the Public VR Program which provided 
        evidenced based research that the VR Program is effective in 
        putting people with disabilities to work in good jobs with 
        opportunities for advancement.
  --A fiscal year 2005 Program Assessment Rating Tool (PART), developed 
        by the Office of Management and Budget (OMB) to rate program 
        performance, rated the VR Program favorably, and in general, 
        successful in meeting its program goal.
  --A report by the Social Security Administration, released annually, 
        that provides detailed information on the funds disbursed to 
        State VR Agencies, based on their successfully serving 
        beneficiaries on Social Security Disability Insurance (SSDI) 
        and Supplemental Security Income (SSI). In fiscal year 2004 SSA 
        projected a $470.3 million savings to the Trust Fund by the VR 
        Program, and established that every $1.00 that SSA spends on VR 
        results in a $6.00 savings.
    In this era of federal and state budget deficits, and an increase 
in the unemployment rate for individuals with disabilities, we urge you 
to consider an increase in funding for the Public VR Program, through 
which you can be assured to have positive outcomes, based on the three 
factors mentioned above.
    Our nation's ability to be competitive in a global economy depends 
on the quality of our workforce. According to a report released by the 
Department of Labor, Employment & Training Administration, during the 
fiscal year 2005 Budget Briefing, the American workforce will be vastly 
different than it is today, as the 21st century unfolds. Integrating 
all available workers into the workforce, including workers with 
significant disabilities, will be required for employers to meet the 
demands of the 21st century economy. Significant numbers of large and 
small employers have acknowledged that hiring individuals with 
disabilities makes good business sense. It provides them with 
dependable workers and access to a market of individuals with spending 
power, which has historically been untapped. These same employers also 
have long-standing, positive relationships with VR, to whom they look 
to provide them with qualified workers with disabilities. Integrating 
all available workers into the workforce, including workers with 
disabilities, will require significant resources. VR's positive 
relationships with employers, who rely heavily on the Public VR Program 
to meet their hiring needs, further emphasizes and documents the need 
for additional resources for VR.
                                 ______
                                 
       Prepared Statement of the Florida Department of Education

    Chairman Specter, and other distinguished members of the 
Subcomittee: My name is Carlos R. Saavedra. I am the Director of the 
Adult Migrant Program and Services Section of the Florida Department of 
Education and submit my testimony for consideration by the Subcommittee 
regarding the Workforce Investment Act, Title I, Section 167 National 
Farmworker Jobs Program. The Florida Department of Education is the 
grantee for the National Farmworker Jobs Program and has operated this 
program successfully for past years, under the aegis of the Office of 
Economic Development, the Comprehensive Employment and Training Act, 
and the Jobs Training Partnership Act.
    As you are aware, the President's budget for 2006 proposes to 
eliminate the National Farmworker Jobs Program. This action appears to 
be prompted by a reduction in the United States Department of Labor's 
Employment and Training budget; the conviction that farmworkers will 
receive similar services through the One-Stop Centers and the local 
One-Stop Systems; and the belief that the National Farmworker Jobs 
Program is ineffective and duplicates other programs.
    There are many issues that remain to be addressed and resolved 
first if the One-Stop Centers and the One-Stop Systems are to fulfill 
the mandate to serve migrant and seasonal farmworkers as part of their 
universe of clients. At the very least, state and local workforce 
boards will need to deal with issues of program performance and the 
manner for reaching farmworkers with services. Farmworkers live and 
work in the margins of small rural towns, where the One-Stop Systems 
have limited representation.
    As regards performance, local workforce boards and their service 
providers currently receive few, if any, incentives from the state 
workforce boards to serve farmworkers and other populations with 
special needs. Consequently, providers feel obliged to job place many 
clients in the shortest time possible, with little consideration of 
their need for remedial education and customized skills training, which 
farmworkers and other special population with special needs require. 
Under current conditions, local workforce boards and their providers 
see little or no benefit to enrolling individuals with extremely low 
education levels and high mobility rates, as is the case with migrant 
farmworkers. This is the current state of services to migrant and 
seasonal farmworkers via the One-Stop Centers and the One-Stop Delivery 
System in many states where farmworkers are a significant part of the 
overall workforce.
    As regards farmworkers' access to services, the degree and mix of 
employment, training and supportive services that farmworkers receive 
in their communities today is possible because of funding by the 
National Farmworker Jobs Program. The National Farmworker Jobs Program 
supports customized service strategies with bilingual and bicultural 
staff that serve as a bridge between the farmworker community and the 
services and those educational programs offered by community and faith-
based organizations and public institutions that are attuned to the 
needs of youth and adult learners. It is worth noting that the National 
Farmworker Jobs Program has high performance standards and outcome 
measures that are consistently met or exceeded. The outcomes for the 
Farmworker Jobs and Education Program, as Florida's National Farmworker 
Jobs Program is known, compares very favorably with national, state and 
local outcomes of other employment and training programs.
    In closing, I would like to share with the Subcommittee the story 
of one individual who benefited from Florida's Farmworker Jobs and 
Education Program and who was recently recognized by the Florida 
Department of Education as an ``All American Success''.
    Thank your for the opportunity to address this issue and ask that 
the Subcommittee consider farmworkers among those for whom continued 
federal support is essential.
                                 ______
                                 
               Prepared Statement of Gallaudet University

    Mr. Chairman and members of the Committee: I would like to express 
my appreciation to you and to Congress for the generous support that we 
received in fiscal year 2005 to continue maintaining and enhancing 
academic programs and salaries at Gallaudet University. I am especially 
grateful that Congress continues to support us during these challenging 
times. I would like to provide you with some details concerning our 
request for fiscal year 2006. In my testimony last year, I discussed 
ongoing efforts by Gallaudet to diversify our sources of revenue and 
support, and I also want to bring you up to date on this issue.
    It is important to note that the proportion of the Federal 
appropriation for Gallaudet University as a part of our total budget 
was 17 percentage points less in 2004 than it was in 1981. During the 
1980's and 1990's, we coped with limitations on Federal support by 
increasing our tuition charges at a rate that exceeded growth in the 
Consumer Price Index (CPI) during that period. However, in light of 
concerns expressed by members of Congress and others, we have limited 
the increase in tuition charges for fiscal year 2006 to 3 percent, 
commensurate with general inflation. Very significantly, we have also 
reduced staffing since 1989 by 20 percent. In addition, we have changed 
our strategy for funding major construction and renovation projects. 
When I became President in 1988, every building on the Kendall Green 
campus had been constructed with 100 percent Federal funding. Since I 
became President, every major construction or renovation project we 
have conducted has been supported either by cost-sharing with the 
Federal government or by private fundraising alone. For example, the 
buildings constructed here most recently, the Kellogg Conference Hotel 
at Gallaudet University and the Student Academic Center, were 
constructed without any additional Federal appropriations. In 2003, we 
completed a 4-year, $40 million capital campaign, and much of that 
funding went to support construction of the Student Academic Center and 
growth in our endowment. We have begun fundraising for a much-needed 
new facility to house our language and communication programs, and I am 
pleased to inform you that in November of last year we received a $5 
million gift for this project from the Sorenson family of Utah. I 
believe, therefore, that we have been very responsible in our requests 
for Federal support and that we have done everything we could to seek 
additional sources of funding during a period when Congress has faced 
funding limitations.
    Because of Congress' ongoing support of Gallaudet in fiscal year 
2005, we have been able to maintain a competitive pay structure for our 
employees while retaining the flexibility to meet the needs of a 
changing student body. Given the unique student population we serve and 
the communication skills our employees are expected to possess, 
retaining skilled employees is very critical to our mission. Gallaudet 
employees received general pay increases of 2 percent in fiscal year 
2003, 3 percent in fiscal year 2004, and 2 percent in fiscal year 2005, 
increases that are below what Federal employees in the region received 
during the same timeframe, but in line with increases in the CPI. It 
will be important for Gallaudet to ensure that our employees receive a 
3 percent pay increase in fiscal year 2006, commensurate with current 
increases in inflation. We are also requesting support for inflationary 
increases in non-salary areas, especially in the cost of utilities, 
insurance, and other professional fees.
    The administration budget for fiscal year 2006 includes $104.557 
million for Gallaudet, the same as our current year fiscal year 2005 
appropriation. I have carefully analyzed our fiscal year 2006 funding 
needs and have determined that in order to award a 3 percent salary 
increase to our faculty and staff, and to meet other inflation-driven 
increases, we need an increase of only $3.1 million, 3 percent above 
our current appropriation.
    While this minimal increase would allow us to continue with current 
programs, it would not allow us to invest in programs that the 
University considers of critical importance. Our three priorities for 
fiscal year 2006 include the following:
Initiatives to increase accessibility to information from outside and 
        from within the University campus--$975,000
    Information technology continues to be the ``great equalizer'' that 
levels the playing field for those who are deaf or hard of hearing. 
Ever-increasing access to visual media and the growing proliferation of 
text-based communication provides more opportunities for deaf and hard 
of hearing people in different aspects of society. Therefore, it is 
essential that Gallaudet continue to invest in information technology 
that will provide these kinds of opportunities for our students.
    This funding will support the replacement of computers used daily 
by students in the digital learning center at the Student Academic 
Center, in student services programs, and in classrooms. It will also 
support upgrades to the University's Web presence and to student e-
portfolio systems, which allow students to document their academic 
progress, receive feedback from their instructors, and present 
themselves electronically to potential employers.
    Finally, Gallaudet owns the largest and most unique collection of 
deafness-related materials in the world. Support will be given to the 
digitization of Gallaudet's unique archives. Digitizing these archives 
will make them more accessible to scholars and students at the 
University, as well as scholars from outside the Gallaudet community.
Initiatives to enhance University programs for deaf students from non-
        traditional and diverse backgrounds--$300,000
    Gallaudet continues to seek ways to reach out to and create a more 
positive educational climate for deaf students from non-traditional and 
diverse backgrounds. Demographic trends point to a growing number of 
students of color as well as a growing number of deaf students who are 
placed in educational settings where sign language is not the primary 
mode of communication.
    Gallaudet recognizes that teacher preparation is essential in 
supporting students of color. In order for the teachers to capitalize 
on the expertise that Gallaudet has to offer, we seek to offer a 
regional distance education degree program that will allow teachers to 
receive training and earn a degree from Gallaudet without their having 
to come to Washington, D.C. to earn all their credits.
    In public education today, more deaf students are placed in 
educational settings where sign language is not the primary mode of 
communication. We believe it is important to have sufficient support 
for students with such backgrounds who come to Gallaudet to help them 
make the transition to a direct communication environment. It is also 
important for those who are undecided about which college to attend to 
understand that there is a strong program in place to help with such 
transition. The additional funding will let Gallaudet study optimal 
ways to enhance real-time captioning. In addition, it will support 
upgrading of the New Signers Program that provides sign language 
instruction to new students with weak or no signing skills.
Improvements to the Theatre Arts Department, including renovations of 
        the Elstad Auditorium and Annex--$950,000
    Funding will enhance student learning by improving and expanding 
the Theatre Arts program at Gallaudet and by updating and expanding the 
Elstad Auditorium and Annex. As an institution that promotes the visual 
arts, we must provide a solid theatre arts experience to our students. 
Further, as the world's only university in which all programs and 
services are specifically designed to accommodate deaf and hard of 
hearing students, Gallaudet needs a first rate arena to promote direct 
access for a broad audience.
    Changes in technology in the last thirty years have been very 
significant, and we are falling behind in our technical theatre. 
Lighting and sound systems are outdated, as are computer programming, 
costume shop equipment, and the set workshop. The building is not wired 
for classrooms to have direct access to the information network, and 
the box office is not wired to enable the use of effective and 
efficient ticketing programs.
    Access to theatre for deaf and hard of hearing people is often 
limited to one or two interpreted performances in area productions. The 
improvements to the Gallaudet University Theatre Arts program and 
facilities would enable direct access by a broader audience, as well as 
allow for opportunities for us to partner with other theatre companies, 
such as the nationally acclaimed Arena Stage, to produce unique visual 
performances. Students would experience ``smart'' classrooms and learn 
how to use state-of-the-art theatrical technology. In addition, the 
deaf and hard-of-hearing community would have direct access to many 
theatrical performances. Finally, hearing audiences would be attracted 
to and exposed to deaf theatre.
Total Program Requests--$2,225,000
    The total request for Gallaudet University, including these three 
critical program priorities is $109.9 million, representing a 5 percent 
increase from our fiscal year 2005 appropriation. This increase would 
have a significantly positive impact on the University's ability to 
meet the increasing and changing needs of our students and those in the 
field of deaf education.
    I appreciate the challenges that Congress faces in making 
appropriations decisions for fiscal year 2006, but experience has shown 
that Gallaudet provides an outstanding return on the Federal dollars 
that are invested here in terms of the educated and productive deaf 
community that the nation enjoys as a result.
                                 ______
                                 
     Prepared Statement of the Medical Library Association and the 
           Association of Academic Health Sciences Libraries

            SUMMARY OF RECOMMENDATIONS FOR FISCAL YEAR 2006

    (1) A 6 percent increase for the National Library of Medicine at 
the National Institutes of Health and support for NLM'S urgent facility 
construction needs.
    (2) Continued support for the Medical Library community's role in 
NLM'S outreach, telemedicine and health information technology 
initiatives.
    Mr. Chairman, thank you for the opportunity to testify today on 
behalf of the Medical Library Association (MLA) and the Association of 
Academic Health Sciences Libraries (AAHSL) regarding the fiscal year 
2006 budget for the National Library of Medicine. I am Logan Ludwig, 
Associate Dean for Library and Telehealth Services at Loyola University 
Strich School of Medicine in Maywood, Illinois.
    Established in 1898, MLA is a nonprofit, educational organization 
of more than 1,100 institutions and 3,600 individual members in the 
health sciences information field, committed to educating health 
information professionals, supporting health information research, 
promoting access to the world's health sciences information, and 
working to ensure that the best health information is available to all.
    AAHSL is comprised of the directors of libraries of 142 accredited 
United States. and Canadian medical schools belonging to the 
Association of American Medical Colleges. Together, MLA and AAHSL 
address health information issues and legislative matters of importance 
to the medical community through a joint task force.
    Mr. Chairman, the National Library of Medicine, on the campus of 
the National Institutes of Health in Bethesda, Maryland, is the world's 
largest medical library. The Library collects materials in all areas of 
biomedicine and health care, as well as works on biomedical aspects of 
technology, the humanities, and the physical, life, and social 
sciences. The collections stand at 5.8 million items--books, journals, 
technical reports, manuscripts, microfilms, photographs and images. 
Housed within the library is one of the world's finest medical history 
collections of old and rare medical works. The Library's collection may 
be accessed in the reading room or requested on interlibrary loan. NLM 
is a national resource for all U.S. health science libraries through a 
National Network of Libraries of Medicine. Increasingly, it is becoming 
an international resource for world-wide research collaboration.
    With respect to the Library's budget for the coming fiscal year, I 
would like to touch briefly on four issues: (1) the growing demand for 
NLM's basic services; (2) NLM's outreach and education services; (3) 
NLM's telemedicine and informatics activities; and (4) NLM's facility 
needs.

              THE GROWING DEMAND FOR NLM'S BASIC SERVICES

    Mr. Chairman, it is a tribute to NLM that the demand for its 
services continues to steadily increase each year. An average of 500 
million Internet searches are performed annually on NLM's MEDLINE 
database, which provides access to the world's most up-to-date health 
care information. MEDLINEplus, NLM's extensive electronic information 
resource for the general public, is viewed approximately 200 million 
times a year. This activity dwarfs previous usage of NLM's 
bibliographic services, whether electronic or print. Moreover, 
researchers, scholars, librarians, physicians, healthcare providers 
from around the world, and the general public rely heavily on NLM and 
its National Network of Libraries of Medicine to deliver health care 
information everyday that is necessary to improve the quality of our 
nation's healthcare system.
    NLM also plays a critical role in maintaining the integrity of the 
world's largest collection of medical books and journals. Increasingly, 
this current and historical information is in digital form. This has 
fundamentally changed how the library operates--how and what it 
collects, how it preserves information, and how it disseminates 
biomedical knowledge. NLM, as a national library responsible for 
preserving the scholarly record of biomedicine, is developing a 
strategy for selecting, organizing, and ensuring permanent access to 
digital information. Regardless of the format in which the materials 
are received, ensuring their availability for future generations 
remains the highest priority of the Library.
    Mr. Chairman, simply stated, NLM is a national treasure. I can tell 
you that without NLM our nation's medical libraries would be unable to 
provide the quality information services that our nation's healthcare 
providers, educators, researchers and patients have come to expect.
    Recognizing the invaluable role that NLM plays in our health care 
delivery system, the Medical Library Association and the Association of 
Academic Health Sciences Libraries join with the Ad Hoc Group for 
Medical Research Funding in recommending a 6 percent increase for NLM 
and NIH overall in fiscal year 2006.

                         OUTREACH AND EDUCATION

    NLM's outreach programs are of particular interest to both MLA and 
AAHSL. These activities, designed to educate medical librarians, health 
care professionals and the general public about NLM's services, are an 
essential part of the Library's mission.
    The Library has taken a leadership role in promoting educational 
outreach aimed at public libraries, secondary schools, senior centers 
and other consumer-based settings. NLM's emphasis on outreach to 
underserved populations assists the effort to reduce health disparities 
among large sections of the American public. We were pleased that the 
Committee again last year recognized the need for NLM to coordinate its 
outreach activities with the medical library community.

PubMed Central
    The medical library community also applauds NLM for its leadership 
in establishing PubMed Central, an online repository for life science 
articles. Introduced in 2000, PubMed Central was created by NLM's 
National Center for Biotechnology Information and evolved from an 
electronic publishing concept proposed by former NIH Director Dr. 
Harold Varmus. The site houses articles from some 100 journals 
including the Proceedings of the National Academy of Sciences and 
Molecular Biology of the Cell.
    The medical library community believes that health sciences 
librarians should continue to play a key role in further development of 
PubMed Central and we are pleased that medical librarians are members 
of the NLM PubMed Central Advisory Committee. Because of the high level 
of expertise health information specialists have in the organization, 
collection and dissemination of medical literature, we believe our 
community can assist NLM with issues related to copyright, fair use, 
and information classification on the PubMed Central site. We look 
forward to continuing our collaboration with the Library as this 
exciting project continues to evolve this year.

MEDLINEplus
    NLM estimates that the public conducts 30 percent of all MEDLINE 
searching. MEDLINEplus [http://www.nlm.nih.gov/medlineplus/], a source 
of authoritative, full-text health information resources from the NIH 
institutes and a variety of non-Federal sources, has grown tremendously 
in its coverage of health and its usage by the public. In January 2003, 
two million unique users searched more than 600 ``health topics'' that 
contain detailed consumer-focused information on various diseases and 
health conditions. Recent additions to MEDLINEplus include illustrated 
interactive patient tutorials, a daily news feed from the public media 
on health-related topics, and the NIHSeniorHealth site [http://
nihseniorhealth.gov/], a collaborative project between NLM and the 
National Institute on Aging.

Clinical Trials
    Mr. Chairman, I also want to comment on another relatively new 
service offered by NLM--its clinical trials database [http://
www.clinicaltrials.gov]. This listing of more than 7,000 federal and 
privately funded trials for serious or life-threatening diseases was 
launched in February of 2000 and currently logs more than 2 million 
page hits per month. The clinical trials database is a free and 
invaluable resource to patients and families interested in 
participating in cutting edge treatments for serious illnesses. The 
medical library community congratulates NLM for its leadership in 
creating ClinicalTrials.gov and looks forward to assisting the Library 
in advancing this important initiative.
    Mr. Chairman, we applaud the success of NLM's outreach initiatives 
and look forward to continuing our work with the Library again in 
fiscal year 2006 on these important programs.

                  TELEMEDICINE AND MEDICAL INFORMATICS

    Mr. Chairman, telemedicine continues to hold great promise for 
dramatically increasing the delivery of health care to underserved 
communities across the country and throughout the world. NLM has 
sponsored over 50 innovative telemedicine related projects in recent 
years, including 21 multi-year projects in various rural and urban 
medically underserved communities. These sites serve as models for:
  --Evaluating the impact of telemedicine on cost, quality, and access 
        to health care;
  --Assessing various approaches to ensuring the confidentiality of 
        health data transmitted via electronic networks; and
  --Testing emerging health data standards.
    It is clear that telemedicine and medical informatics program such 
as the Visible Human Project [http://www.nlm.nih.gov/research/visible/
visible_human.html]--male and female data sets consisting of MRI, CT, 
and photographic cryosection images totaling 50 gigabytes and licenses 
to scientists at more than 1,700 institutions around the world--will 
play a major role in the delivery of health care and research in the 
21st Century.
    We are pleased that NLM has begun a new program to support 
informatics research that addresses information management problems 
relevant to disaster management. Medical librarians and health 
information specialists have an important role to play in supporting 
these cutting edge technologies, and we encourage Congress and NLM to 
continue their strong support of telemedicine and other medical 
informatics initiatives.

                          NLM'S FACILITY NEEDS

    Mr. Chairman, over the past two decades NLM has assumed several new 
responsibilities, particularly in the areas of biotechnology, health 
services research, high performance computing, and consumer health. As 
a result, the Library has had tremendous growth in its basic functions 
related to the acquisition, organization, and preservation of an ever-
expanding collection of biomedical literature.
    This increase in the volume of biomedical information as well as 
expansion of personnel (NLM currently houses over 1,100 people in a 
facility built to accommodate 650) has resulted in a serious shortage 
of space at the Library. In addition, NLM's National Center for 
Biotechnology Information [http://www.ncbi.nlm.nih.gov] builds 
sophisticated data management tools for processing and analyzing 
enormous amounts of genetic information critical to advancing the Human 
Genome Project.
    In order for NLM to continue its mission as the world's premier 
biomedical library, a new facility is urgently needed. The NLM Board of 
Regents has assigned the highest priority to supporting the acquisition 
of a new facility. The medical library community is pleased that 
Congress appropriated the necessary architectural and engineering funds 
for facility expansion at NLM in 2003.
    We encourage the subcommittee to continue to provide the resources 
necessary to acquire a new facility and to support the Library's health 
information programs.
    Mr. Chairman, thank you again for the opportunity to present the 
views of the medical library community.
                                 ______
                                 
 Prepared Statement of the National Association of Children's Hospitals

                                OVERVIEW

    The National Association of Children's Hospitals (N.A.C.H.) is 
pleased to have the opportunity to submit the following statement for 
the hearing record in support of the Children's Hospitals' Graduate 
Medical Education (CHGME) Payment Program in the Health Resources and 
Services Administration (HRSA).
    On behalf of the nation's 60 independent children's teaching 
hospitals, N.A.C.H. very much appreciates the Subcommittee's early and 
continuing commitment over several years to provide full, equitable GME 
funding for these hospitals, giving them a level of federal support for 
their teaching programs that seeks to be comparable to what all other 
teaching hospitals receive through Medicare.
    We also appreciate the Subcommittee's support for level funding of 
$303 million for fiscal year 2005--the amount requested by President 
Bush and recommended by N.A.C.H. Ultimately, this funding was reduced 
to $301 million, or less than level funding, by a 0.8 percent across 
the board reduction in non-defense, non-homeland security discretionary 
spending programs in the final conference report.
    For fiscal year 2006, we respectfully request an adjustment 
recognizing the cost of inflation for CHGME, which would result in 
total funding of $309 million, so that these institutions will have the 
resources necessary to train and educate the nation's pediatric 
workforce. Such an adjustment is important for a program with both 
wage-related and medical teaching costs associated with it. Given the 
challenges that the Subcommittee faces, we hope that at a minimum the 
program can at least be maintained at level funding and not lose 
further ground in fiscal year 2006.
    N.A.C.H. is a not-for-profit trade association, representing more 
than 125 children's hospitals across the country. Its members include 
independent acute care children's hospitals, acute care children's 
hospitals organized within larger medical centers, and independent 
children's specialty and rehabilitation hospitals. N.A.C.H. seeks to 
serve its member hospitals' ability to fulfill their four-fold missions 
of clinical care, education, research and advocacy devoted to the 
health and well being of all children in their communities.
    Children's hospitals are regional and national centers of 
excellence for children with serious and complex conditions. They are 
centers of biomedical and health services research for children, and 
they serve as the major training centers for future pediatric 
researchers, as well as a significant number of our children's doctors. 
These institutions are major safety net providers, serving a 
disproportionate share of children from low-income families, and they 
are also advocates for the public health of all children.
    Although they represent less than 5 percent of all hospitals in the 
country, the three major types of children's hospitals provide 41 
percent of the inpatient care for all children, 42 percent of the 
inpatient care for children assisted by Medicaid, and the vast majority 
of hospital care for children with serious conditions such as cancer or 
heart defects.

           BACKGROUND: THE NEED FOR CHILDREN'S HOSPITALS GME

    While they account for less than 1 percent of all hospitals, the 
independent children's teaching hospitals alone train nearly 30 percent 
of all pediatricians, half of all pediatric specialists and a majority 
of future pediatric researchers. They also provide required pediatric 
rotations for many other residents. They train about 4,000 residents 
annually, and the need for these training programs is even more 
heightened by the growing evidence of shortages in pediatric 
specialists around the country.
    Prior to initial funding of the CHGME program for fiscal year 2000, 
these hospitals were facing enormous challenges to their ability to 
maintain their training programs. The increasingly price competitive 
medical marketplace was resulting in more and more payers failing to 
cover the costs of care, including the costs associated with teaching.
    The independent children's hospitals were essentially left out of 
what had become the one major source of GME financing for other 
teaching hospitals, Medicare, because they see few if any Medicare 
patients. They received only 1/200th (or less than 0.5 percent) of the 
federal GME support that all other teaching hospitals received under 
Medicare.
    This lack of GME financing, combined with the financial challenges 
stemming from their other missions, was threatening their teaching 
programs, as well as other important services.
    Integral Safety Net Institutions.--In addition to their teaching 
missions, the independent children's hospitals are a significant part 
of the health care safety net for low-income children. In fiscal year 
2003, children assisted by Medicaid represented, on average, 47 percent 
of all discharges from free-standing acute care children's hospitals 
and accounted for about 50 percent of all inpatient days of care. Yet 
Medicaid, on average, reimbursed 80 percent of the cost of care 
provided. Without disproportionate share hospital payments, those 
reimbursements would only cover, on average, 73 percent of the cost of 
care. The shortfalls in Medicaid payments for outpatient and physician 
care are even greater. . The independent children's hospitals also are 
essential providers of care for seriously and chronically ill children. 
They devote more than 75 percent of their care to children with one or 
more chronic or congenital conditions. They provide the vast majority 
of inpatient care to children with many serious illnesses--from 
children with cancer or cerebral palsy, for example, to children 
needing heart surgery or organ transplants. In some regions, they are 
the only source of pediatric specialty care. The severity and 
complexity of illness and the services and resources that these 
institutions must maintain to assure access to this quality care for 
all children are also often inadequately reimbursed.
    Mounting Financial Pressures.--The CHGME program, and its 
relatively quick progress to full funding in fiscal year 2002, came at 
a critical time. In 1997, when Congress first considered establishing 
CHGME, a growing number of independent children's teaching hospitals 
had financial losses, and many more faced mounting financial pressures. 
More than 10 percent had negative total margins, more than 20 percent 
had negative operating margins, and nearly 60 percent had negative 
patient care margins. Some of the nation's most prominent children's 
hospitals were at financial risk. Thanks to the CHGME program, these 
hospitals have been able to maintain and strengthen their training 
programs.
    Continuing this critical CHGME funding is more important for these 
hospitals than ever in light of state budget shortfalls in many states 
and the resulting pressures for significant reductions in state 
Medicaid spending. Because children's hospitals devote such a 
substantial portion of their care to children from low-income families, 
they are especially affected by cutbacks in state Medicaid programs.
    Pediatric Workforce Development.--The important role the CHGME 
program plays in the continual development of our nation's pediatric 
workforce is not lost on the larger pediatric community, including the 
American Academy of Pediatrics and Association of Medical School 
Pediatric Department Chairs The pediatric community supports this 
program and recognizes that CHGME is critical not only to the future of 
the individual hospitals, but also to provision of children's health 
care and advancements in pediatric medicine overall.
    Lastly, many of the independent children's hospitals are a vital 
part of the emergency and critical care services in their communities 
and regions. They are part of the emergency response system that must 
be in place for public health emergencies. Expenses associated with 
preparedness add to their continuing costs in meeting children's needs.

                         CONGRESSIONAL RESPONSE

    In the absence of any movement toward broader GME financing reform, 
Congress in 1999 authorized the Children's Hospitals' GME discretionary 
grant program to address the existing inequity in GME financing for the 
independent children's hospitals. The legislation was reauthorized in 
2000 through fiscal year 2005 and provided $285 million through fiscal 
year 2001 and such sums as may be necessary in the years beyond.\1\ 
Congress passed the initial authorization as part of the ``Healthcare 
Research and Quality Act of 1999'' and the reauthorization as part of 
the ``Children's Health Act of 2000.''
---------------------------------------------------------------------------
    \1\ The Lewin Group, an independent health policy analysis firm 
calculated in 1998 that independent children's teaching hospitals 
should receive approximately $285 million in federal GME support for 
nearly 60 institutions to achieve parity with the financial 
compensation provided through Medicare for GME support to other 
teaching hospitals.
---------------------------------------------------------------------------
    With the support of this Subcommittee, Congress appropriated 
initial funding for the program in fiscal year 2000, before the 
enactment of its authorization. Following enactment, Congress moved 
substantially toward full funding for the program in fiscal year 2001 
and completed that goal, providing $285 million in fiscal year 2002, 
$290 million in fiscal year 2003, $303 million in fiscal year 2004 and 
$301 million in fiscal year 2005. (In the last 2 fiscal years, the 
funding levels are net of across-the-board reductions in all non-
defense, non-homeland security discretionary appropriations.) The 
annual CHGME appropriations represent an extraordinary achievement for 
the future of children's health care as well as for the nation's 
independent children's teaching hospitals.
    Health Resources and Services Administration.--The CHGME funding 
appropriated by Congress is distributed through HRSA to 60 children's 
hospitals according to a formula based on the number and type of full-
time equivalent (FTE) residents trained, in accordance with Medicare 
rules, as well as the complexity of care and intensity of teaching the 
hospitals provide. Consistent with the authorizing legislation, HRSA 
allocates the annual appropriation in bi-weekly periodic payments to 
eligible independent children's hospitals.
    ``Adequate'' Rating From Administration.--The Office of Management 
and Budget gave CHGME an ``adequate'' rating in 2003, using its Program 
Assessment Rating Tool (PART). The PART review said CHGME has a ``clear 
purpose,'' is ``effectively targeted,'' has specific ``long-term 
performance measures'' that focus on outcomes, and holds grantees 
``accountable for cost, schedule, and performance results.''

                        FISCAL YEAR 2006 REQUEST

    N.A.C.H. respectfully requests that the Subcommittee continue 
equitable GME funding for the independent children's hospitals by 
providing $309 million for the program in fiscal year 2006, which would 
provide an adjustment for inflation over current funding. We, of 
course, hope that such an adjustment could be provided, since it is 
particularly important for a program that includes both wage-related 
and medical teaching costs. Given the challenges that the Subcommittee 
faces, we hope that the program at least can be maintained at level 
funding and not lose further ground in fiscal year 2006.
    Adequate, equitable funding for CHGME is an ongoing need. 
Children's hospitals continue to train new pediatric residents and 
researchers every year. Children's hospitals have appreciated very much 
the congressional support they have received, including the attainment 
of the program's authorized full funding level in fiscal year 2002 and 
continuation of full funding with an inflation adjustment in fiscal 
year 2003 and fiscal year 2004. Now, N.A.C.H. asks Congress to maintain 
this progress by providing $309 million in fiscal year 2006.
    Support for a strong investment in GME at independent children's 
teaching hospitals is consistent with the repeated concern the 
Subcommittee has expressed for the health and well-being of our 
nation's children--through education, health and social welfare 
programs. It also is consistent with the Subcommittee's repeated 
emphasis on the importance of enhanced investment in the National 
Institutes of Health (NIH) overall, and in NIH support for pediatric 
research in particular, for which we are very grateful.
    The CHGME funding has been essential to the ability of the 
independent children's hospitals to sustain their GME programs. At the 
same time, it has enabled them to do so without sacrificing support for 
other critically important services that also rely on hospital subsidy, 
such as many specialty and critical care services, child abuse 
prevention and treatment services, poison control centers, services to 
low-income children with inadequate or no coverage, mental health and 
dental services, and community advocacy, such as immunization and motor 
vehicle safety campaigns.
    In conclusion, the Children's Hospitals GME Payment Program is an 
invaluable investment in children's health. The future of the pediatric 
workforce and children's access to quality pediatric care, including 
specialty and critical care services, could not be assured without it. 
Again, N.A.C.H. and the nation's independent children's teaching 
hospitals are deeply grateful to the Chairman and the Subcommittee for 
your continuing leadership on behalf of the teaching missions of 
children's hospitals.
    For further information, please contact Peters D. Willson, vice 
president for public policy, N.A.C.H., at 703/797-6006 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1666617f7a7a657978567877757e647f3879647138">[email&#160;protected]</a>
                                 ______
                                 
          Prepared Statement of the National AHEC Organization

              SUMMARY OF FISCAL YEAR 2006 RECOMMENDATIONS

    1. Increase funding for the health professions and nursing 
education programs under Title VII and Title VIII of the Public Health 
Service Act to at least $550 million for fiscal year 2006.
    2. Restore funding for Area Health Education Centers (AHECs) to 
fiscal year 2003 level of $33.1 million.
    3. Restore funding for Health Education Training Centers (HETCs) to 
fiscal year 2003 level of $4.3 million.
    Mr. Chairman, and members of the subcommittee, I am pleased to 
present testimony on behalf of the National AHEC Organization.
    I am Linda Kanzleiter, and I work for the Pennsylvania Statewide 
AHEC Program and am a member of the National AHEC Organization (NAO). 
NAO is the professional organization representing the Area Health 
Education Centers (AHECs) and Health Education Training Centers 
(HETCs). Together, we seek to enhance access to quality health care, 
particularly primary care and preventative care, by improving the 
supply and distribution of health care professionals through 
community--academic partnerships

                     PERSISTENT WORKFORCE SHORTAGES

    Mr. Chairman, contrary to what may be commonly understood, 
persistent and severe shortages exist in a number of health 
professions. Chronic shortages exist for all health professions in many 
of our nation's underserved communities, and substantial shortages 
exist in all communities for some professions such as nursing, 
pharmacy, and certain allied health fields. While the supply of 
physicians in the non-primary care specialties may well be adequate, 
supply and distribution problems for primary care physicians, nurses, 
and many allied health professionals are undermining access and quality 
in many of our nation's communities.
    Historically, the supply of and demand for health care 
professionals has waxed and waned in a manner that produced cycles of 
shortage and excess. However, it is reasonable to believe that the 
current shortages are of a different and more persistent nature. First, 
the breadth and depth of shortages are greater than at any time in the 
past. More disciplines are in short supply, more sites of care 
(hospitals, nursing homes, home care agencies, and clinics) are 
experiencing shortages, and the duration of vacancies is longer. 
Second, the demand for health care services is steadily and inexorably 
increasing due to the aging population and the advances in medical 
technology. Third, the health care provider population is aging itself. 
Fourth, the resources with which the health care industry might respond 
to shortages are inadequate to the challenges. Due to the squeeze of 
managed care, provider institutions are unable to increase salaries, 
and due to cuts in government funding, educational institutions are 
unable to expand class sizes. Finally, the career opportunities 
available to women, who dominate the health care professions, have 
expanded greatly.
    Health care workforce shortages are occurring in a context of an 
increasingly aged population with greater needs for health care 
services. In addition, health technology steadily produces advances 
that require a higher level of training and sophistication on the part 
of health care providers. These trends are occurring at time when the 
number and the level of academic preparedness of students entering the 
health professions are decreasing.
    In addition, minority and disadvantaged populations are egregiously 
under represented in the health professions. Given the demographic 
trends in the United States, minority populations constitute a major 
untapped source of future health care professionals.

                           THE ROLE OF AHECS

    Mr. Chairman, the AHEC/HETC network is the federal government's 
most flexible and efficient mechanism for addressing a wide and 
evolving variety of health care issues on a local level. Through AHECs 
and HETCs, national initiatives can be targeted to the areas of 
greatest need and molded to the particular issues confronting 
individual communities. Whether the issue is the nursing shortage, 
bioterrorism preparedness, access for the uninsured, or recruiting 
under-represented minority students into the health professions, AHECs 
and HETCs, where they exist, can assemble the appropriate local 
collaboration and apply federal, state, and local resources in a 
precise and cost-effective manner.
    Since our inception almost thirty years ago, AHECs have partnered 
with local, state, and federal initiatives and educational institutions 
in providing clinical training opportunities to health professions and 
nursing students in rural and underserved communities. We bring the 
resources of academic health centers to bear in addressing the health 
care needs of these communities. Currently, there are 48 AHEC programs 
and 180 centers located in 43 states and the District of Columbia. AHEC 
programs are based at schools of medicine, which are the federal AHEC 
grant recipients, and are implemented through the regional offices 
(centers), each of which serves a defined geographic area.

              AHEC PROGRAMS PERFORM FOUR BASIC FUNCTIONS:

    1. They develop and support the community based training of health 
professions students, particularly in underserved rural and urban 
areas. Exposing health professions students to underserved communities 
increases the likelihood that they will return to these communities to 
practice.
    When considering access, Pennsylvania faces some unique challenges. 
For example, The Pennsylvania Department of Health estimates that about 
1,259,441 people in our Commonwealth do not have health insurance of 
any kind. Of that number, 109,883 are persons within the five counties 
we serve. The National Association of Community Health Centers 
estimates that, in Pennsylvania, at least 1,479,087 people are 
``without a primary care provider''. This figure represents more than 
12 percent of Pennsylvania's total population (12,281,054). This number 
is likely higher because eight counties, including Carbon & Lehigh, 
were not included in their data.
    Pennsylvania AHECs have developed a network of over 972 health care 
training sites, 3,632 students and residents, and 1,045 on-site 
preceptors providing service to patients at these training centers.
    2. They provide continuing education and other services that 
improve the quality of community-based health care. Improving the 
quality of care also enhances the retention of providers in underserved 
communities, particularly community health centers.
    A crucial part of our mission in Pennsylvania involves linking 
fourth year medical students with Medical Preceptors, mentors and 
teachers in the community. Our goal is to help facilitate the process 
that allows the students to become familiar with the issues encountered 
in rural communities. The student can also begin to establish 
relationships, which will prove beneficial should they decide to 
practice in a rural area. In this way, Pennsylvania AHECs support the 
viability and, often, the continued, independent existence of small 
community hospitals.
    The Northeast Pennsylvania Area Health Education Center surveyed 
physicians in the rural counties it serves to clarify issues 
surrounding continuing education. The overwhelming response was that 
there was a desire for more information about bioterrorism, and that it 
should be accessible online. The Pennsylvania Department of Health 
subsequently created the Learning Management System (LMS), a web-based 
system for education and information-sharing regarding bioterrorism and 
other public health issues. The LMS delivers emergency preparedness 
training and access to up to date information to the hands of health 
professionals, day or night. The LMS serves as an information library, 
a forum for discussion groups, and means of surveying program content 
online.
    3. They recruit under-represented minority students into the health 
professions through a variety of programs targeted at elementary 
through high schools. Minority students are grossly under-represented 
in the health professions and are more likely to practice in 
underserved communities.
    The Northwest Pennsylvania AHEC has developed a program called the 
Great Hospital Adventure Puppet Presentation. The multi-media 
presentation includes a live puppet show, video movie, coloring book, 
classroom poster, and an interactive question and answer session. This 
program promotes health career awareness and encourages healthy 
behaviors for children aged four to nine. The classroom materials and 
activities emphasize non-traditional gender roles and multi-cultural 
images. The goal of the presentation is to attract children of all 
genders, backgrounds and cultures to health professions.
    The Northeast Pennsylvania AHEC established a summer camp called 
``Exploring Careers in Health'' for high school students who 
demonstrate a strong interest in medicine or health care. The camp is a 
weeklong program held on the campus of Keystone College. Students must 
apply for admission, and the camp provides an in-depth look at the 
health care field by participation in workshops with health 
professionals, hands-on activities, and field trips. Students are 
encouraged to explore numerous career choices as health professionals.
    Additionally, the Northeast Pennsylvania sponsors a program for 
area teachers and guidance counselors called ``Seeds for Success.'' The 
program offers an overview of health career opportunities at colleges, 
universities and post-secondary institutions in the surrounding area. 
The response to the program was overwhelmingly positive.
    4. They facilitate and support practitioners, facilities, and 
community based organizations in addressing critical local health 
issues in a timely and efficient manner.
    Only 13 percent of primary care physicians in Pennsylvania serve in 
rural communities. However, 42 of the state's 67 counties are 
predominantly rural and 7 counties are completely rural. These 
startling facts are the driving force behind the health care 
professions workforce development resolution.

                           THE ROLE OF HETCS

    The HETC programs were created to address the public health needs 
of severely underserved populations in border and non-border areas. 
Currently, HETC programs exist in 12 states and are supported by a 
combination of federal, state, and local funding, the majority of which 
comes from non-federal sources.
    Because the majority of preventable health problems are due to 
health behaviors and the environment, HETCs focus on community health 
education and health provider training programs in areas with severely 
underserved populations. HETCs target minority groups, disadvantaged 
communities, and communities with diverse culture and languages.

                         COLLABORATIVE EFFORTS

    Virtually all AHEC and HETC programs are collaborative in nature. 
They routinely partner with a wide variety of federal, state, and 
locally funded programs. Examples of these collaborations include 
health professions schools, primary care residency programs, community 
health centers, primary care associations, geriatric education centers, 
the National Health Service Corps, public health departments, health 
career opportunity programs, school districts, and foundations.
    Additionally, AHECs and HETCs often go beyond their core functions 
to undertake a wide variety of innovative programs, tailored to 
specific health issues affecting the communities they serve. Because 
health issues vary from community to community, the programs of each 
AHEC and HETC also vary considerably. AHECs and HETCs respond to 
changing health and health workforce needs in a flexible and timely 
manner. Examples of current issues for which we are directing our 
resources are:
    1. The nursing shortage.--Currently, AHECs and HETCs are working 
with schools of nursing, state nursing associations, and others to 
increase the number of qualified applicants to nursing schools, 
increase minority enrollment in nursing schools, expand the number of 
community-based nursing training sites, and re-train nurses who wish to 
re-enter the profession.
    The Northcentral Pennsylvania AHEC facilitated the Nursing Forum, 
titled Joining Healing Hands: Communication, Collaboration, and 
Teambuilding, to enhance regional nursing recruitment and retention 
efforts within their 10 county region on Friday, February 27, 2004 in 
Lewisburg, Union County. Participating nurses, nurse administrators, 
healthcare representatives, and nursing educators explored ways to 
strengthen communication, leadership skills, and teamwork to create a 
shared vision and commitment to quality healthcare. Skill sets 
encouraged at the forum promoted a shared commitment to quailty 
healthcare, fostered positive outcomes, encouraged inclusion of 
collaborative educational efforts, and supported the recruitment and 
retention of a diversified workforce.
    2. Bioterrorism education.--Currently, AHECs and HETCs are working 
with public health departments to educate health and public health 
professionals on surveillance, reporting, risk communication, 
treatment, and other responses to the threat of bioterrorism.
    3. The National Health Service Corps (NHSC).--AHECs and HETCs 
undertake a variety of programs related to the placement and support of 
NHSC scholars and loan repayment recipients.
    The Pennsylvania State University AHEC has actively supported the 
NHSC ``SEARCH'' program by interviewing prospective students, 
recommending community preceptors, and monitoring placements of 
students each summer in rural and underserved sites.
    4. Expansion of community health centers.--AHECs and HETCs are 
collaborating with health professions schools, primary care 
associations, and community health centers to increase the supply of 
providers willing and able to work in community health centers. In 
addition, AHECs/HETCs are working directly with CHC providers to 
improve the quality of care.

               JUSTIFICATION FOR FUNDING RECOMMENDATIONS

    Mr. Chairman, I respectfully ask the Subcommittee to support our 
recommendations to increase funding for the health professions and 
nursing education programs under Title VII and Title VIII of the Public 
Health Service Act to at least $550 million for fiscal year 2006. Our 
recommendations are consistent with those of the Health Professions and 
Nursing Education Coalition (HPNEC).
    The AHEC and HETC programs improve access to primary and 
preventative care through community partnerships, linking the resources 
of academic health centers with local communities. AHECs and HETCs have 
proven to be responsive and efficient models for addressing an ever-
changing variety of community health issues.
    However, AHECs and HETCs have not yet fully realized their 
potential to be a nationwide infrastructure for local training and 
information dissemination. In order to realize that potential 
additional federal investment is required. That is why we are 
requesting that in fiscal year 2006, you restore funding to fiscal year 
2003 levels of $33.4 million for AHECs and $4.3 million for HETCs.
                                 ______
                                 
   Prepared Statement of the State Educational Technology Directors 
                          Association (SETDA)

     NCLB TITLE II, PART D: ENHANCING EDUCATION THROUGH TECHNOLOGY

    On behalf of SETDA representing all fifty states, DC, and American 
Samoa, we encourage you to restore NCLB Title II, Part D--Enhancing 
Education through Technology (EETT) program to its fiscal year 2004 
funding level of $692 million. In fiscal year 2005, this program 
sustained a 28 percent cut, which has not yet been realized in schools 
across the country due to the grant award cycle. This testimony 
documents how states leverage EETT funding to ensure the ability of 
states, districts, and schools to implement all Titles within NCLB, 
specifically:
  --Enhancing data systems to ensure that educators can utilize real-
        time data to inform sound instructional decisions and ensure 
        that states are able to meet AYP.
  --Closing the achievement gap by providing access to software, online 
        resources, and virtual learning aligned to academic standards 
        for instruction and learning.
  --Supporting the development of highly qualified teachers by 
        providing online courses, communities of practice, and virtual 
        communication that ensure flexibility and access.
    The data and examples illustrate how forty-nine states and DC 
(representing 99 percent of federal education technology funding) 
utilize EETT funding. 81 percent of school districts in this country 
receive and use EETT funding. States maintain 5 percent for technical 
assistance and administration and disseminate the remaining 95 percent 
equally between two programs:
    1. The Formula Grant Program by which high need districts receive 
an allotment based upon poverty rates.
    2. The Competitive Grant Program through which states establish 
areas of focus for districts to compete for the grants. Each grantee 
must include at least one high need district.

                            THE MYTH OF EETT

    Some believe that EETT is utilized primarily to purchase computers 
or ``the boxes in the back of the classroom.'' The SETDA National 
Trends Report and examples provided demonstrate that this is not the 
case. The majority of this funding supports the purchase of curriculum, 
provides professional development to ensure teachers are highly 
qualified, and builds systems for assessment, data and accountability 
mechanisms. Some grantees may use small amounts of the funding to 
purchase hardware integral to the students' education, i.e. laptops 
that children in rural areas bring home to expand learning 
opportunities; however the overwhelming majority of the funding is 
utilized to support the successful implementation of NCLB that is 
highlighted below.
   meeting ayp and improving student achievement through data systems

Key Facts
    Data management and accountability requirements are steadily rising 
and states have a limited capacity for meeting these requirements. EETT 
funds are the only source of federal funding for most states to use in 
developing the data systems needed to report AYP results mandated 
through NCLB. These funds are being used toward data systems that 
impact both instructional and administrative aspects of education. On 
the instructional side, the National Trends Report cites many examples 
of EETT funds being used to train teachers in understanding how to use 
data effectively to individualize learning and to make real-time 
modifications to instruction in order to best meet the needs of every 
learner. The report also cites multiple examples of state and district-
wide data management systems that allow for increased accountability 
and reporting.
    While professional development and student achievement are still 
extremely important in EETT, the program has seen a tremendous increase 
in the number of states (78 percent) that are using these technology 
funds for three other key NCLB priorities--assessment, outreach to 
parents, and data-driven decision-making.

Examples
    The Philadelphia Instructional Management System (IMS) is part of 
the School District of Philadelphia's comprehensive reform effort that 
includes new resources, a standardized curriculum, after school 
programs, and professional development. IMS provides teachers and 
administrators with immediate data on student learning aligned to State 
and District standards. A benchmark assessment, given every five weeks, 
allows teachers to differentiate instruction, provide immediate 
remediation, and identify those students who need additional 
assistance. Teachers, coaches, and administrators have access to 
student performance data through an online system. This system also 
provides suggested resources and strategies teachers can use to meet 
unique student needs. In 2003, before these technology tools were 
provided to teachers, only 9 of the 40 initial participating schools 
had met AYP; and 15 were identified for Corrective Action. At the end 
of the 2004 school year, 25 schools met their AYP targets, and only 10 
remained in Corrective Action II.
    In Vermont, school districts are using EETT funds to develop local 
student data systems or to join the statewide Vermont Data Consortium 
which is working with the Department of Education to create a statewide 
Education Data Warehouse. These data efforts support teachers using 
data to inform instruction and facilitate reporting of AYP data.
    States are finding that as they make more and more data available, 
teachers need help in understanding and using this data to inform their 
teaching and to help individualize and improve student learning. A good 
example of this is in the Blackfoot School District in Idaho where EETT 
funds are used with particular attention to K-12 mathematics. Through 
this program, teachers use data to identify student needs and then use 
technology to meet these needs. They are also able to provide ongoing 
professional development for teachers that otherwise would have been 
impossible without the Title II D funds.
    Maryland is using EETT funds for curriculum management systems. If 
a child is not mastering certain standards, this provides them with 
lesson plans and remediation activities to help get them up to par.

                  HELPING TO CLOSE THE ACHIEVEMENT GAP

Key Facts
    The requirement for EETT funds to be targeted to high need 
districts ensures that students who are most at risk will benefit from 
additional opportunities. EETT funds are helping to close the 
achievement gap by providing students with access to software, web 
courses, and virtual learning opportunities that are aligned to state 
standards. This is particularly important in areas where teachers in 
certain disciplines are difficult to find, such as foreign language, 
Advanced Placement (AP), or higher level science and math courses. With 
access to online opportunities, students in rural or high need areas 
have opportunities similar to other students in the state.
    Many states have steered EETT funds to core-curricular areas, such 
as reading, math and science, by establishing content priorities in 
their competitive grant processes: 74 percent of states created funding 
priorities in reading or writing, while 38 percent focused on 
mathematics.

Examples
    The Missouri eMINTS program provides classrooms with advanced 
software, intense professional development and Internet access to 
support standards-based instruction. Three years of data from a quasi-
experimental evaluation of the eMINTS program showed a significant 
improvement in third and fourth grade achievement on the Missouri 
Assessment Program (MAP) test results for African Americans. The study 
also noted that the achievement gap was closed between those African 
American students who participated in the program and White students 
who did not. The success of the eMINTS program is now being replicated 
in the state of Utah.
    Researcher Dale Mann (ASBO, 2003) cited a direct correlation 
between pupil performance and technology in instruction through West 
Virginia's Basic Skills/Computer Education program. The study found 
that while per capita income had not changed between 1991 and 1998, the 
infusion of technology was the single factor that accounted for the 
state moving from 33rd among the states for student achievement to 
11th.
    In Virginia, EETT funds have been used to develop an online 
Advanced Placement school. This program provides benefits to Virginia's 
students who are most in need, primarily rural and urban students, who 
otherwise would not have access to AP teachers or courses. A similar 
West Virginia project provides foreign language opportunities using 
online technologies. Preliminary findings through a scientifically-
based research evaluation indicate that courses delivered online are as 
effective as courses delivered face to face--expanding the 
opportunities for closing the achievement gap between students in 
remote areas.
    In region 4 of New York City, EETT funds have allowed student 
access to Cyber English, Social Studies, Math and Science classes. High 
schools are no longer limited by time and space and learning has become 
a 24/7 activity. This model has improved school attendance, engaged 
previously uninterested students, allowed students from diverse 
neighborhoods to collaborate, and finally provided parents a vehicle 
for becoming involved in their teenager's education.
    In North Carolina, the cuts will result in a limitation on nine 
very successful Community Technology Learning Centers. These centers 
have offered after-school and weekend programs for needy students and 
their parents. Most of these centers will either close or drastically 
scale back their services without EETT funding.
    North Dakota has established a rural consortium to implement the 
``Unified Education Project (UEP), which focuses on creating 
individualized learning plans for each student based on his or her 
strengths and weaknesses. Using an electronic portfolio, the UEP helps 
teachers track needs and provide appropriate instruction and 
remediation, allows the students to view standards and expectations and 
assess their own work accordingly, and encourages parent communication. 
The UEP allows for individualized instruction to ensure that schools 
and districts can meet AYP.

         IMPROVING TEACHER TRAINING, RETENTION, AND RECRUITMENT

Key Facts
    EETT requires that at least 25 percent ($147,000,000) of all EETT 
funds be used for professional development purposes, although most 
states use considerably more. EETT funds help to increase the access by 
providing online options that give teachers anytime, anyplace access to 
quality professional development. This is critical to ensure that 
teachers have the opportunity to increase content knowledge, improve 
instruction, and become highly qualified teachers.
Examples
    Algebra I is often a predictor for success in high school and 
beyond. Louisiana implemented an on-line Algebra I course to provide 
additional opportunities for student achievement. Preliminary 
evaluations indicate that students in the on-line course, with similar 
pre-test scores are showing more significant achievement gains compared 
to the control group as indicated below:

------------------------------------------------------------------------
                                                              Post-test
                     Group                        Pre-test     (spring)
                                                (fall) mean      mean
------------------------------------------------------------------------
Algebra I Online Students.....................         13.3         17.2
Control Students..............................         13.4         15.6
------------------------------------------------------------------------

    In Nevada, a middle school science partnership is beginning to show 
evidence of closing the achievement gap in participating schools. The 
partnerships between the University of Nevada, Reno and five rural 
Nevada school districts provides professional development to teachers 
to make them better able to assess their students and use technology to 
increase student achievement in math. The ability of these teachers to 
have access to the rigorous university research and the professional 
development to effectively bring about increases in student achievement 
in science.
    The North Carolina IMPACT Model Schools Grant provides personnel, 
connectivity, hardware, software, and professional development to 
impact teaching and learning to improve student achievement in 
participating elementary or middle schools. One initial finding from 
this evaluation is that participating schools have dramatically 
improved their ability to attract and retain teachers. Teachers who are 
scheduled to retire often choose to stay in these IMPACT schools, 
others request transfers into them, and new teachers clamor to be 
hired. ``These teachers like the way technology is changing the way 
they teach, and the enthusiasm with which their students approach 
learning,'' says Frances Bryant Bradburn, Director of Instructional 
Technology for the North Carolina Department of Public Instruction.
    In the center of Wyoming, there are many small, rural school 
districts that do not have the capacity to create aggressive staff 
development plans. The local Board of Cooperative Education Services 
formed a partnership between six districts focused on helping teachers 
to improve instruction through learning environments. For the first 
time, classes are using smart boards, establishing wireless 
connections, conducting Internet research, and attending compressed 
video classes.
    In Massachusetts, reports from independent evaluators of the EETT 
grant projects and the year-end reports submitted by grant recipients 
show substantial improvement in teacher technology literacy. The use of 
the state's online interactive Technology Self-Assessment Tool (TSAT) 
helps in measuring the progress of teachers' technology skills in the 
different levels. For example, in a Gloucester Public Schools' project, 
there was an increase from 8.5 percent to 27 percent in the number of 
educators at the Proficient level and a decrease from 33.5 percent to 
20 percent in number at the Early Technology level (the lowest level).
    Iowa utilized EETT funds to implement comprehensive professional 
development programs for teachers targeted at core subject areas. 
Initial results from one consortium focusing on mathematics demonstrate 
an increase in student achievement among 4th grade students compared to 
the control group. Iowa is seeing similar results in reading throughout 
the state.

                         IMPACT OF CUTTING EETT

    Education technology is about more than technology--it's about 
education. The EETT program supports every tenet and goal of the No 
Child Left Behind Act. It would be impossible to effectively implement 
NCLB without the technical expertise and leadership the EETT program 
brings. As representatives of the states and districts who make the 
most critical use of educational technology, we urge you to restore the 
funding to $692 million, the funding level that was in place before the 
Omnibus appropriations in November 2004.
    Not only does EETT help improve student achievement through 
technology, it is an efficient use of federal funds. Dale Mann (ASBO, 
2003) notes that districts have two options when trying to increase 
reading scores by one month in grade-level gains: decreasing class size 
or utilizing technology. Class-size reduction would cost approximately 
$636 per student per year compared to $86 for instructional technology. 
EETT provides additional opportunities to help increase student 
achievement.
    The targeted funds for educational technology that are available 
through the EETT program are still very much needed as we work to 
ensure that all students are ready to compete in the global economy. It 
is unrealistic to assume that these technology funds and the leadership 
and innovation that accompany them would be effectively managed through 
other existing education title programs such as Title I and Title IIA. 
These Title programs have not received additional funds to pay for the 
mission critical technology components of their initiatives. Other 
Title programs, unlike EETT, support narrowly defined student 
populations and training purposes rather than the broader mission of 
supporting all students and all programs as EETT currently does. 
Finally, the leadership and expertise needed to implement successful 
data driven decision making, curriculum management systems, online 
professional development, and reporting processes for NCLB would be 
lost if there was an attempt to subsume educational technology planning 
and implementation under these already established programs.
About SETDA--http://www.setda.org
    The State Educational Technology Directors Association (SETDA) is 
the principal association representing the state directors for 
educational technology. SETDA's membership includes educational 
technology directors and staff from the state departments of education 
of all fifty states, the District of Columbia and American Samoa.
                                 ______
                                 
    Prepared Statement of the National Education Knowledge Industry 
                              Association

    NEKIA appreciates the opportunity to inform the Subcommittee of 
NEKIA's appropriations proposals for fiscal year 2006. The mission of 
our association is to advance the development and utilization of 
research-based knowledge for the improvement of the academic 
performance of all children. NEKIA's members are committed to finding 
new and better ways to support and expand high-quality education 
research, development, dissemination, technical assistance, and 
evaluation at the federal, regional, state, tribal, and local levels.
    Our appropriations proposals seek greater federal investments that 
will support the use of research-based knowledge in America's K-12 
classrooms and spur the implementation of the No Child Left Behind Act 
and the Education Sciences Reform Act. These two laws ushered in a new 
era of evidence-based education in which classroom teachers are 
required to use instructional practices based on scientifically based 
research. Our proposals for fiscal year 2006 are also designed to 
address both greater demand for evidence-based education and under-
funded supply.

          NEKIA'S PROPOSALS ARE BASED ON THREE CRITICAL POINTS

    1. Now is the time to enhance and expand the federal system of 
education research, development, dissemination, and technical 
assistance.--Federally supported programs--specifically the Regional 
Educational Labs, the R&D Centers, the Comprehensive Centers and 
Comprehensive School Reform--are playing a vital role in meeting the 
tremendous needs for research-based practices and technical assistance. 
Each of these programs fills a unique role in the spectrum of knowledge 
utilization--from basic research to applied research, from development 
and dissemination to technical assistance, and ultimately student 
achievement. Given that more than 20,000 U.S. public schools are not 
making adequate yearly progress and 10,000 schools are in need of 
improvement under the No Child Left Behind Act, we must become more 
aggressive in using research-based education solutions in the 
classroom.
    NEKIA's members are fully supporting the implementation of No Child 
Left Behind through applied research, development, dissemination, 
technical assistance, and evaluation programs. For example:
    2. Current federal support for education research, development, 
dissemination, and technical assistance lags far behind other federal 
research investments.--While the No Child Left Behind Act clearly 
requires educators to use instructional practices and innovations 
supported by research, the Department of Education spends less than one 
percent of its budget on research, development, and statistics. 
Education is a $745 billion industry representing an estimated 7.2 
percent of the gross domestic product. However, only 0.03 percent is 
spent on research and development. That is only three cents for every 
hundred dollars spent on education. In comparison, other agencies' R&D 
budgets as percentage of their discretionary spending: Defense, 17 
percent; NASA, 68 percent; Energy, 37 percent; HHS, 42 percent; NSF, 74 
percent; and Agriculture, 4.6 percent. In other words, the Department 
of Education's research budget has been and remains among the smallest 
of any federal agency.
    3. To address this capacity crisis we urge Congress to double its 
investments in education knowledge utilization over the next 3 years.--
Not only would increased investments help meet demand, they would also 
address a number of high priorities such as:
  --Improving teacher quality by providing research based information 
        on best practices to teacher training institutions as well as 
        information and technical assistance to schools districts 
        implementing professional development programs.
  --Helping special populations of students meet state adequate yearly 
        progress goals. These special populations include English 
        language learners, special needs children, and students in 
        rural areas.
  --Working with educators to interpret and manage a variety of data 
        about student performance and classroom instruction.
  --Scaling up school improvement efforts at the local level so that 
        reform efforts in single schools can expand to districtwide 
        initiatives.
    To adequately respond to the capacity crisis and meet these 
priorities, NEKIA proposes the following investments:
Priority Investment.--Fund the Regional Educational Laboratories at $70 
        million--an increase of $3 million over fiscal year 2005
    The Regional Educational Laboratories are the nation's key 
institutions for applied education research and development that 
respond to the needs of educators and policy makers. A 2000 Department 
of Education independent evaluation found that educators considered the 
labs among the most trusted institutions in the nation for research 
support and reported they were highly responsive to customers. They are 
also highly responsive to local and regional needs. Regional governing 
boards--representing educators, parents, and businesses from each state 
of each lab region--set research and development priorities for each 
lab. The ability to respond to customers in their regions helps keep 
the laboratories' work focused on real world needs and creating valid 
research, development, tools and assistance in the successful 
implementation of the No Child Left Behind Act. Without the Regional 
Labs, the chain is broken. Without the regional labs, the link between 
basic research and technical assistance would cease to exist.
    Unfortunately, the Regional Education Lab program is at risk. The 
President's budget for fiscal year 2005 proposes to eliminate funding 
for the program. Last year, the Administration proposed eliminating the 
labs. Fortunately, Congress acted in a bipartisan way to fund it. We 
hope Congress will do so again for fiscal year 2006.
Priority Investment.--Fund the Research and Development Centers 
        (included in the Research, Development, and Dissemination Line) 
        at $170 million--an increase of $5 million over fiscal year 
        2005
    The centers address enduring issues of national significance in 
education through sustained and focused research programs. They address 
specific topics such as early childhood development and learning, 
student learning and achievement, at-risk students, adult learning, and 
education policy. The research done by the R&D centers is used by 
regional labs to develop programs, strategies and assessment tools 
which in turn are adapted by technical assistance providers 
(Comprehensive Centers) for the training and tools to implement their 
own programs to assist districts and schools.
Priority Investment.--Fund the Comprehensive Regional Assistance 
        Centers at $60 million--an increase of $3 million over fiscal 
        year 2005
    The purpose of Title II of the Education Sciences Reform Act (ESRA) 
and specifically the newly reformed Comprehensive Centers program 
authorized within it, is to serve as part of a national technical 
assistance and dissemination system, which provides comprehensive 
technical assistance services to states, districts, tribes and schools 
in administering and implementing school reform efforts under No Child 
Left Behind. Their focus is to help schools and districts improve 
opportunities for all children to meet content and performance 
standards. Next year (fiscal year 2006), the 20 new centers will be 
fully operational. The new centers will include the scope of work of 
the current Comprehensive Regional Assistance Centers, the Eisenhower 
Regional Mathematics and Science Consortia, and the Regional Technology 
in Education Consortia.
Priority Investment.--Fund the Comprehensive School Reform program at 
        $233 million--an increase of $30 million over last year
    Comprehensive School Reform targets the neediest schools. Forty-
five percent of CSR schools have poverty rates of 75 percent or 
greater--almost double the rate of Title I schools. And, almost half 
(46 percent) of CSR schools are low performing at the time of funding. 
CSR schools have baseline achievement scores lower than Title I school 
wide programs (in reading and math) at the time of funding. Finally, 
CSR Schools address the whole school and are more likely to use 
research-based models and measurable goals for student performance. 
Unfortunately, the Comprehensive School Reform program is at risk. The 
President's budget for fiscal year 2005 proposes to eliminate funding 
for the program. We hope Congress will act in a bipartisan fashion to 
preserve it.
    NEKIA is very heartened by the continuing interest Congress shows 
in the work of our member organizations to provide the research-based 
tools our children and teachers need to succeed. If we are to ensure 
even greater success for all our children, we must increase the federal 
investment in knowledge utilization efforts.
    Thank you. We appreciate your consideration of our proposals.
                                 ______
                                 
    Prepared Statement of the Science, Technology, Engineering, and 
                 Mathematics (STEM) Education Coalition

    On behalf of the science, technology, engineering, mathematics, 
education and business groups listed here, we thank you for your 
efforts to secure $179 million for the fiscal year 2005 Math and 
Science Partnership program at the U.S. Department of Education (ED). 
The STEM (Science, Technology, Engineering, and Mathematics) Education 
Coalition greatly appreciates your continued support to improve STEM 
education at all levels.
    It is imperative that the work continues and additional funding be 
provided to the ED MSPs so we can ensure that all students receive a 
world-class education in science and math. We understand in these tight 
fiscal times, Congress is unable to provide the NCLB authorization of 
$450 million for the MSPs, but we do support substantial increases in 
order to prepare for the science assessments that will be required in 
2007. Therefore, we urge you to support the President's request of $269 
million for the fiscal year 2006 Math and Science Partnerships under 
Title II, Part B of NCLB.
    Additionally, we urge you to oppose the creation of a new 
initiative that would redirect $120 million of the funds away from the 
ED state-based MSP programs to create a new federal grant program. This 
would require a change to the NCLB statute, cut funds to the states, 
and greatly reduce state flexibility to meet their most critical needs.
    Funding for the ED MSPs goes directly to the states as formula 
block grants. States provide these funds through competitive grants to 
local partnerships of schools, higher education institutions and others 
for reform efforts to meet the NCLB math and science education 
obligations. Most grants go to high-need districts so they can 
strengthen teacher professional development and increase student 
performance in science, mathematics, and technology.
    In summary, we strongly urge Congress to fund the fiscal year 2006 
ED Math and Science Partnerships at $269 million and to oppose efforts 
to redirect $120 million of these funds away from the states.
    If we can provide any additional information or answer questions, 
please contact Patti Curtis at 202.785.7385.
                                 ______
                                 
                Prepared Statement of Teach For America

    Mr. Chairman, Senator Harkin and Members of the Subcommittee: Thank 
you for the opportunity to submit testimony regarding the President's 
fiscal year 2006 budget proposal, which includes $4 million for Teach 
For America under the Corporation for National and Community Service. 
Mr. Chairman and Senator Harkin, I applaud your commitment to national 
service and desire to help AmeriCorps realize its full potential.
    I would like to take this opportunity to discuss Teach For America 
and our current growth plans. I will also focus on the $4 million line 
item in the President's fiscal year 2006 budget under the Corporation 
for National and Community Service and explain why it is critical to 
Teach For America's ability to grow to scale.
    As you know, Teach For America is the national corps of outstanding 
recent college graduates of all academic majors who commit 2 years to 
teach in urban and rural public schools and become lifelong leaders in 
the effort to ensure that all children in our nation have an equal 
chance in life. We are a private, national non-profit organization, as 
well as one of the original AmeriCorps programs. Our teachers receive a 
salary from their local school district as well as education awards 
through AmeriCorps. These education awards can be used for graduate 
level education courses necessary to obtain teacher certification, to 
pay back qualified student loans, or for future education.
    Since 1990, when I founded Teach For America, our organization has 
grown from 500 corps members teaching in 5 regions to what will soon be 
3,200 corps members teaching in 22 regions during the 2005-2006 school 
year. Teach For America corps members are having an impact throughout 
our nation, from St. Louis to Philadelphia, and from New Mexico's 
Navajo Nation to the Rio Grande Valley in South Texas.

                 TEACH FOR AMERICA MEETS CRITICAL NEEDS

    Our mission is to build a movement to eliminate the educational 
inequality that exists in our country today. By the age of nine, 
children in low-income areas are already three grade levels behind in 
reading ability (Source: National Center of Education Statistics, 
2000). As these children progress in the educational system, this 
achievement gap only widens, to the point that a child who grows up in 
a low-income community is seven times less likely to graduate from 
college than a child growing up in a more privileged area (Source: 
Education Trust, 1998).
    Our corps members help close the achievement gap for the students 
they reach during their 2-year commitment. At the same time, they gain 
insight and added commitment that shapes them into an important 
leadership force, working from inside of education and from other 
sectors, for long-term change.

                              OUR PROGRAM

    We recruit the most highly sought-after college graduates of all 
academic majors, career interests, and backgrounds from leading 
colleges and universities. We then select corps members who demonstrate 
records of achievement and leadership, as well as a commitment to 
expanding opportunity for children in low-income areas.
    Admission to Teach For America is highly selective, with 
approximately 12 percent of our applicants gaining admission to the 
corps. Of our 2004 corps members, 93 percent held leadership positions 
on their campuses or in their communities. They earned average SAT 
scores of 1,310 and average GPAs of 3.5. In addition, 31 percent of 
corps members are people of color.
    This year, 17,319 young people applied for only 2,000 slots as 
first year teachers. At many top schools, Teach For America is 
considered one of the most prestigious post-graduate opportunities. 
This year, 12 percent of Spelman's senior class applied to the corps. 
And at top, larger universities, Teach For America attracted 
significant portions of the student body: 12 percent of Yale's seniors 
applied, as did 8 percent of seniors at Princeton and Harvard. All are 
competing for the opportunity to teach in America's neediest schools.
    Corps members are selected into Teach For America if they 
demonstrate strong leadership characteristics such as achievement 
orientation, critical thinking, personal responsibility for success, 
and the ability to influence and motivate others, as well as high 
expectations for students and families in low-income communities and 
the desire to work relentlessly toward this particular mission.
    Those selected attend a summer training institute where corps 
members teach in local public summer schools and participate in a full 
afternoon and evening schedule of professional development activities. 
We aim to ensure that corps members internalize the overarching 
approach utilized by the most successful teachers in urban and rural 
areas; and that they gain skills in instructional planning and 
delivery; building a strong classroom culture; literacy development; 
and teaching the specific content-area and grade-level they will be 
teaching.
    Following the institute, corps members assume teaching positions in 
school districts in 22 urban and rural areas. They are clustered in 
schools and receive extensive ongoing support and professional 
development through Teach For America and through local teacher 
education programs.
    Following their 2-year commitments, corps members can remain in 
teaching (and about 60 percent teach for at least a third year). We 
expect that they will ask themselves how they can have the greatest 
possible impact on the challenges they and their students experienced 
during their 2 years, and we provide a network of resources and support 
that they can tap into as they continue working in educational and 
social reform throughout their lives.

        IMMEDIATE IMPACT ON COMMUNITIES AND STUDENT ACHIEVEMENT

    Our success in recruiting and preparing exceptional classroom 
teachers has led education policy makers to highlight our impact on 
disadvantaged communities. Teach For America corps members impact the 
academic prospects of their students during their first 2 years in the 
classroom and continue to impact the quality of education in low-income 
communities beyond their initial commitments.
    A 2004 independent study by Mathematica Policy Research, Inc 
revealed Teach For America corps members in elementary grades affected 
greater gains than would typically be expected in a year. The study 
also showed corps members even outpaced fully certified and veteran 
teachers in their schools in moving their students ahead academically. 
To put corps members' value-added in context, Mathematica concludes the 
impact of having a Teach For America teacher compared to a non-Teach 
For America teacher (including veteran and certified teachers) is 65 
percent of the impact of reducing class size from 23 to 15 students 
(and is substantially less expensive). The impact of having a corps 
member versus another novice teacher is greater than the impact of 
reducing class size by eighty students. This study essentially 
replicated the results from an earlier study on Teach For America's 
impact by Stanford's Center for Research in Education Outcomes.
    Another way we evaluate corps member impact is through a bi-annual 
survey of principal satisfaction conducted by Kane, Parsons & 
Associates, Inc., an independent research firm. In a June 2004 survey 
by Kane, Parsons & Associates, principals credit Teach For America 
teachers as having positive effects on their schools and on student 
achievement. Nearly three out of four principals reported that corps 
members are more effective than their other beginning teachers. And 
principals rated corps members as good or excellent on multiple 
indicators of effective teaching, including:
  --90 percent--Instructional planning
  --95 percent--Motivation and dedication to teaching
  --96 percent--Achievement orientation and drive to succeed
  --93 percent--Working with other faculty and administrators
  --92 percent--Having high expectations for students; and
  --93 percent--Assuming responsibility for student achievement.

                            LONG-TERM IMPACT

    Teach For America is building a force of leaders and citizens with 
a lifelong commitment to addressing the issues they witness during 
their 2 years of service. Education Week, a leading national journal of 
K-12 education, profiled Teach For America's alumni in an article 
titled ``Most Likely To Succeed'' and called Teach For America a 
``leader-making machine.''
    According to a survey conducted in the fall of 2004, our alumni are 
deeply influenced by their Teach For America experience:
  --Nationally, 63 percent of our alumni are working full-time in 
        education, 39 percent as K-12 teachers and 28 percent as 
        administrators, 4 percent in higher education, and 9 percent in 
        education-related non-profits and other positions in the field 
        of education; and
  --Nearly 200 Teach For America alumni have founded a school or a non-
        profit organization.
    Even more striking is the extent to which Teach For America alumni 
have already assumed leadership in the broader effort to improve 
education--they are running many of the most highly acclaimed charter 
schools in the country; they are turning around major urban schools as 
principals; they are winning some of the highest accolades teachers can 
win (as state and city teachers of the year); they are serving on 
school boards and advising Governors and Members of Congress on 
education policy; and they are leading model education reform, public 
health and economic development initiatives.

       TEACH FOR AMERICA NEEDS INCREASED FUNDING TO GROW TO SCALE

    Teach For America is in the midst of a 5-year expansion plan to 
more than double the size of its teacher corps. Currently, Teach For 
America has over 3,000 teachers in 22 communities and a budget of under 
$39 million. In the 2006-2007 school year, Teach For America will have 
nearly 3,500 corps members and will need to raise a budget in excess of 
$50 million. At that scale, Teach For America teachers will reach more 
than 300,000 public school students every day in this country's lowest-
income neighborhoods.
    Seventy-five percent of our funding comes from private sources, 
much of it from the local communities where our teachers teach. We have 
a highly diversified base of more than 2,000 private donors from all 
over the country. Top donors include Don and Doris Fisher's Pisces 
Foundation; the Broad Foundation; New Profit; the Atlantic 
Philanthropies; and Wachovia Corporation.
    To raise our expanded budget, we must significantly increase our 
private funding base while growing our federal funding proportionately. 
With adequate federal funding, we can expand to reach more communities 
and engage more recent college graduates while continuing to provide 
highly qualified teachers for America's neediest classrooms. The 
Corporation for National and Community Service's $4 million fiscal year 
2006 budget line item would allow us to maintain our current ratio of 
federal to private funding and enable us to execute our growth plan.

                               CONCLUSION

    I hope you will agree that we have demonstrated all the 
characteristics of an exemplary AmeriCorps program: we recruit talented 
young people into competitive positions in critical areas of public 
need; we have a significant impact in the communities we serve; we 
influence the civic commitment and career path of our corps members; 
and we leverage our public support for significant private resources. 
As we continue our efforts to more than double in size and reach 
hundreds of thousands of children each year, we seek your support so 
that Teach For America can expand its scale and impact. Mr. Chairman 
and Members of the Subcommittee, we hope you will support the 
President's request for $4 million for Teach for America in the fiscal 
year 2006 budget.
                                 ______
                                 
       Prepared Statement of the United Tribes Technical College

                           SUMMARY OF REQUEST

    For 36 years United Tribes Technical College (UTTC) has been 
providing postsecondary vocational education, job training and family 
services to Indian students from throughout the nation. Our request for 
fiscal year 2006 funding for tribally controlled postsecondary 
vocational institutions as authorized under Section 117 of the Carl 
Perkins Vocational and Applied Technology Act is:
  --$8.5 million under Section 117 of the Perkins Act, which is $1.1 
        million over the fiscal year 2005 enacted level of $7,406,250. 
        This funding is essential to our survival, as we receive no 
        state-appropriated vocational education monies.
  --Ensure that the provision that has been included since fiscal year 
        2002 in the Labor-HHS Education Appropriations Acts that waived 
        the regulatory requirement that we utilize a restricted 
        indirect cost rate is continued.
  --Funding for renovation of our facilities, many of which are 
        original to the Fort Abraham Lincoln army installation. A 
        recent study commissioned by the Department of Education shows 
        a facility need for UTTC of $49 million.
  --We support the recommendations of the American Indian Higher 
        Education Consortium, including $32 million for the 
        Strengthening Developing Institutions Program for tribal 
        colleges (Section 316).

                     RESTRICTED INDIRECT COST ISSUE

    Beginning in fiscal year 2002 the Labor-HHS-Education 
Appropriations Act provided that notwithstanding any law or regulation, 
that Section 117 Perkins grantees are not required to utilize a 
restricted indirect cost rate. We thank you for taking this action, and 
ask that it be continued in the fiscal year 2006 Act. We also point out 
that the pending Perkins reauthorization bills, S.250 and H.R. 366, 
contain a provision that would exempt Section 117 grantees from the 
requirement to utilize a restricted indirect cost rate.
    In 2001, the Department of Education, for the first time, directed 
Indian grantees (both Section 116 and 117 grantees) to apply a 
``restricted indirect cost rate'' to their grants. This means each 
tribal grantee must obtain another indirect cost rate--exclusively for 
its Perkins Act grant--from its cognizant federal agency (which in most 
cases is the Inspector General for the Department of the Interior.)
    The Department gave two reasons for applying a restricted rate to 
these Perkins Act Indian programs: (1) The 1998 Amendments to the 
Perkins Act (Sec. 311(a)) prohibits the use of Perkins Act grant funds 
to supplant non-federal funds expended for vocational/technical 
programs. This ``supplement, not supplant'' limitation previously 
applied to State grants, only; and (2) A long-standing Department of 
Education regulation (promulgated years before the 1998 Perkins 
Amendments) automatically applies the restricted indirect cost rate 
requirement to any Department of Education grant program with a 
``supplement, not supplant'' provision.
    UTTC has no quarrel with the bases and objectives of the 
``supplement, not supplant'' rule and seeks no change to this statutory 
provision. The primary targets of this rule are States and possibly 
local government entities that run vocational education programs with 
State or local funds.
    By contrast, however, UTTC has little or no ability to violate this 
rule, as we have no source of non-federal funds to operate vocational 
education programs. Unlike States, we have no tax base and no source of 
non-federal funds to maintain a vocational education program. We depend 
on federal funding for our vocational/technical education program 
operations. Despite our inability to violate the supplanting 
prohibition, we are, nonetheless, being disadvantaged by a Department 
of Education regulation intended to enforce the prohibition against 
States who do have the ability to supplant.
  --Impact of new requirement on grantees.--Under DoEd regulations, a 
        ``restricted indirect cost rate'' makes unallowable certain 
        indirect costs that are considered allowable by other federal 
        programs. Primarily, these are costs that DoEd believes the 
        grantee would otherwise incur if it did not receive a Perkins 
        grant, such as the cost of the grantee's chief officer and 
        heads of departments who report to the CEO, as well as the 
        costs of maintaining offices for these personnel.
    Prohibiting the Perkins grant from contributing its appropriate 
share to the grantee's indirect cost pool will most likely mean that 
other federal programs operated by the grantee would be expected to 
pick up a great share of the indirect cost pool. This outcome may well 
result in objections from the other program agencies that do not want 
to bear costs properly attributable to the Perkins grant.
    We are caught between conflicting federal agency requirements and 
will find ourselves unable to recover the necessary share of indirect 
costs attributable to each of the federal programs we operate.

                      UTTC PERFORMANCE INDICATORS

    UTTC has:
  --An 85 percent retention rate
  --A placement rate of 95 percent (job placement and going on to 4-
        year institutions)
  --A projected return on federal investment of 11 to 1 (2003 study 
        comparing the projected earnings generated over a 29-year 
        period of UTTC Associate of Applied Science graduates with the 
        cost of educating them.)
  --The highest level of accreditation. The North Central Association 
        of Colleges and Schools has accredited UTTC again in 2001 for 
        the longest period of time allowable--10 years or until 2011--
        and with no stipulations. We are also the only tribal college 
        accredited to offer on-line associate degrees.
    The demand for our services is growing and we are serving more 
students.--For the 2003-2004 school year we enrolled 661 Indian 
students. For the 2004-2005 school year we enrolled 753 Indian 
students, for an increase of 13 percent over the prior year. The 753 
Indian students we enrolled are from 54 tribes and 22 states. The 
majority of our students are from the Great Plains states, an area 
that, according to the 2001 BIA Labor Force Report, has an Indian 
reservation jobless rate of 75 percent. UTTC is proud that we have an 
annual placement rate of 95 percent. We hope to enroll 2000 adult 
students by 2008.
    In addition, as of the 2004-2005 year, we have served 257 students 
in our Theodore Jamerson Elementary school, and 226 children in our 
infant-toddler and pre-school programs.
    The total population for whom we provided direct services to in the 
2004-2005 academic year is 1,236. This is an increase in our overall 
total population of 17 percent from the 2003-2004 school year.
    UTTC course offerings and partnerships with other educational 
institutions.--We offer 17 AAS degrees, 5 of which have been approved 
to be offered on-line, and 11 certificate degrees. We are accredited by 
the North Central Association of Colleges and Schools. Our course which 
has the highest number of students is the Licensed Practical Nursing 
program.
     We are very excited about the recent additions to our course 
offerings, and the particular relevance they hold for Indian 
communities. These programs are: (1) Injury Prevention, (2) On-Line 
Education, (3) Nutrition and Food Services, (4) Tribal Government 
Management, (5) Tourism, and (6) Tribal Environmental Science.
    Tribal Environmental Science.--Our newest course offering is Tribal 
Environmental. Science. It is being established through a National 
Science Foundation Tribal College and Universities Program grant. The 
5-year project will support UTTC in planning and implementing an 
innovative environmental science program. The program is slated to be 
developed by this summer, beginning with a three week intense student 
skill-building program. The course work will lead to a 2-year associate 
of applied science degree in Tribal Environmental Science.
    Injury Prevention.--Through our Injury Prevention Program we are 
addressing the injury death rate among Indians, which is 2.8 times that 
of the U.S. population. We received assistance through Indian Health 
Service to establish the only degree-granting Injury Prevention program 
in the nation. Injuries are the number one cause of mortality among 
Native people for ages 1-44 and the third for overall death rates.
    On-Line Education.--We are working to bridge the ``digital divide'' 
by providing web-based education and Interactive Video Network courses 
from our North Dakota campus to American Indians residing at other 
remote sites and as well as to students on our campus. This semester 
have 45 students, a number of whom are campus-based, taking on-line 
courses. We are accredited by the North Central Association of Colleges 
and Schools to provide on-line associate degrees. This approval is 
required in order for us to offer federal financial aid to students 
enrolled in these on-line courses.
    On-line courses provide the scheduling flexibility students need, 
especially those students with young children. Our on-line education is 
currently provided in the areas of Early Childhood Education, Injury 
Prevention, Health Information Technology, Nutrition and Food Service 
and Elementary Education. We are the only tribal college accredited to 
offer on-line associate degrees.
    Computer Technicians.--In the second year of implementation, the 
Computer Support Technician program is at maximum student capacity. In 
order to keep up with student demand, we will need more classrooms, 
equipment and instructors. Our program includes all of the Microsoft 
Systems certifications that translate into higher income earning 
potential for graduates.
    Nutrition and Food Services.--UTTC will meet the challenge of 
fighting diabetes in Indian Country through education. As this 
Subcommittee knows, the rate of diabetes is very high in Indian 
Country, with some tribal areas experiencing the highest incidence of 
diabetes in the world. About half of Indian adults have diabetes 
(Diabetes in American Indians and Alaska Natives, NIH Publication 99-
4567, October 1999).
    We offer a Nutrition and Food Services Associate of Applied Science 
degree in an effort to increase the number of Indians with expertise in 
nutrition and dietetics. Currently, there are only a handful of Indian 
professionals in the country with training in these areas. Future 
improvement plans include offering a Nutrition and Food Services degree 
with a strong emphasis on diabetes education and traditional food 
preparation.
    We also established the United Tribes Diabetes Education Center to 
assist local tribal communities and our students and staff in 
decreasing the prevalence of diabetes by providing diabetes educational 
programs, materials and training. We published and made available 
tribal food guides to our on-campus community and to tribes.
    Tribal Government Management/Tourism.--Another of our new programs 
is tribal government management designed to help tribal leaders be more 
effective administrators. We continue to refine our curricula for this 
program.
    A recently established education program is tribal tourism 
management. We developed the core curricula for the tourism program and 
are partnering with three other tribal colleges (Sitting Bull, Fort 
Berthold, and Turtle Mountain) in this offering. The development of the 
tribal tourism program was timed to coincide with the planned 
activities of the national Lewis and Clark Bicentennial in 2003.
    Job Training and Economic Development.--UTTC is a designated 
Minority Business Center serving Montana, South Dakota and North 
Dakota. We also administer a Workforce Investment Act program and an 
internship program with private employers.
    Economic Development Administration funding was made available to 
open a ``University Center.'' The Center is used to help create 
economic development opportunities in tribal communities. While most 
states have such centers, this center is the first-ever tribal center.
    Upcoming Endeavors.--We are seeking to develop a Memorandum of 
Understanding with the BIA's Police Academy in New Mexico that would 
allow our criminal justice program to be recognized for the purpose of 
BIA and Tribal police certification, so that Tribal members from the 
BIA regions in the Northern Plains, Northwest, Rocky Mountain, and 
Midwest areas would not have to travel so far from their families to 
receive training. Our criminal justice program is accredited and 
recognized as meeting the requirements of most police departments in 
our region.
    We are also interested in developing training programs that would 
assist the BIA in the area of provision of trust services. We have 
several technology disciplines and instructors that are capable of 
providing those kinds of services with minimum of additional training. 
We also provide training in health records technology that that fit 
within the training needs of the Indian Health Service.
    Department of Education Study Documents our Facility/Housing 
Needs.--The 1998 Vocational Education and Applied Technology Act 
required the Department of Education to study the facilities, housing 
and training needs of our institution. That report was published in 
November 2000 (``Assessment of Training and Housing Needs within 
Tribally Controlled Postsecondary Vocational Institutions, November 
2000, American Institute of Research''). The report identified the need 
for $17 million for the renovation of existing housing and 
instructional buildings and $30 million for the construction of housing 
and instructional facilities.
    We continue to identify housing as our greatest need. We have a 
current waiting list of 64 families. Some families must wait from 1 to 
3 years for admittance due to lack of available housing. In 2003-2004, 
we were forced to find housing off campus for 52 families. In 2004-2005 
we housed 105 families off campus, a 50 percent increase over the prior 
year. In order to accommodate the enrollment increase, UTTC partners 
with local renters and two county housing authorities (Burleigh, 
Morton).
    UTTC has a new 86-bed single-student dormitory on campus. It is 
already completely full as are all of our other dormitories and student 
housing. To build the dormitory, we formed an alliance with the U.S. 
Department of Education, the U.S. Department of Agriculture, the 
American Indian College Fund, the Shakopee-Mdewakanton Sioux Tribe and 
other sources for funding. Our new dormitory has at the same time 
created new challenges such as shortages in classroom, office and other 
support facility space. However, more housing must be built to 
accommodate those on the waiting list and to meet expected increased 
enrollment. We also have housing which needs renovation to meet safety 
codes.
    Thank you for your consideration of our request. We cannot survive 
without the basic vocational education funds that come through the 
Department of Education's Perkins funds. They are essential to the 
operation of our campus and essential to the welfare of Indian people 
throughout the Great Plains region and beyond.
                                 ______
                                 

                            RELATED AGENCIES

Prepared Statement of the National Federation of Community Broadcasters

    Thank you for the opportunity to submit testimony to this 
Subcommittee regarding the appropriation for the Corporation for Public 
Broadcasting (CPB). As the President and CEO of the National Federation 
of Community Broadcasters, I speak on behalf of nearly 257 community 
radio stations and related organizations across the country. Nearly 
half our members are rural stations and half are minority controlled 
stations. In addition, our members include many of the new Low Power FM 
stations that are putting new local voices on the airwaves. NFCB is the 
sole national organization representing this group of stations which 
provide service in the smallest communities of this country as well as 
the largest metropolitan areas.
    In summary, the points we wish to make to this Subcommittee are 
that NFCB:
  --Requests $430 million in funding for CPB for fiscal year 2008, a 
        $30 million increase over the fiscal year 2006 advance 
        appropriation;
  --Requests $45 million in fiscal year 2005 for conversion of public 
        radio and television to digital broadcasting. Also supports 
        funding for the Public TV interconnection system;
  --Requests that advance funding for CPB is maintained to preserve 
        journalistic integrity and facilitate planning and local 
        fundraising by public broadcasters;
  --Requests report language to ensure that CPB utilizes digital funds 
        it receives for radio as well as television needs;
  --Supports CPB activities in facilitating programming and services to 
        Native American and Latino radio stations;
  --Supports CPB's efforts to help public radio stations utilize new 
        distribution technologies and requests that the Subcommittee 
        ensure that these technologies are available to all public 
        radio services and not just the ones with the greatest 
        resources.
    Community Radio fully supports $430 million in federal funding for 
the Corporation for Public Broadcasting in fiscal year 2008.--Federal 
support distributed through CPB is an essential resource for rural 
stations and for those stations serving minority communities. These 
stations provide critical, life-saving information to their listeners 
and are often in communities with very small populations and limited 
economic bases, thus the community is unable to financially support the 
station without federal funds.
    In larger towns and cities, sustaining grants from CPB enable 
Community Radio stations to provide a reliable source of noncommercial 
programming about the communities themselves. Local programming is an 
increasingly rare commodity in a nation that is dominated by national 
program services and concentrated ownership of the media.
    For the past 29 years, CPB appropriations have been enacted 2 years 
in advance. This insulation has allowed pubic broadcasting to grow into 
a respected, independent, national resource that leverages its federal 
support with significant local funds. Knowing what funding will be 
available in advance has allowed local stations to plan for programming 
and community service and to explore additional non-governmental 
support to augment the federal funds. Most importantly, the insulation 
that advance funding provides ``go[es] a long way toward eliminating 
both the risk of and the appearance of undue interference with and 
control of public broadcasting.'' (House Report 94-245.)
    For the last few years, CPB has increased support to rural stations 
and committed resources to help public radio take advantage of new 
technologies such as the Internet, satellite radio and digital 
broadcasting. We commend these activities which we feel provide better 
service to the American people but want to be sure that the smaller 
stations with more limited resources are not left out of this 
technological transition. We ask that the Subcommittee include language 
in the appropriation that will ensure that funds are available to help 
the entire public radio system utilize the new technologies, 
particularly rural and minority stations.
    NFCB commends CPB for the leadership it has shown in supporting and 
fostering the programming services to Latino stations and to Native 
American stations. For example, Satelite Radio Bilingue provides 24 
hours of programming to stations across the United States and Puerto 
Rico addressing issues in Spanish of particular interest to the Latino 
population. At the same time, American Indian Radio on Satellite 
(AIROS) is distributing programming for the Native American stations, 
arguably the fastest growing group of stations. There are now over 30 
stations controlled by and serving Native Americans, primarily on 
Indian reservations.
    This year CPB funded the establishment of the Center for Native 
American Public Radio (CNAPR). Based on a comprehensive assessment of 
the Native American Radio System, CNAPR will develop new funding 
sources for stations and programming; provide direct services to the 
Native Radio System; encourage collaborations; and represent the Native 
Radio System. These stations are critical in serving local isolated 
communities (all but one are on Indian Reservations) and in preserving 
cultures that are in danger of being lost. CPB's assessment recognized 
that ``. . . Native Radio faces enormous challenges and operates in 
very difficult environments.'' CPB funding is critical to these rural, 
minority stations. CPB's funding of the Intertribal Native Radio Summit 
in 2001 helped to pull these isolated stations together into a system 
of stations that can support each other. The CPB assessment goes on to 
say ``Nevertheless, the Native Radio system is relatively new, fragile 
and still needs help building its capacity at this time in its 
development.'' The Center for Native American Public Radio promises to 
leverage additional, new funding to ensure that these stations can 
continue to provide essential services to their communities.
    CPB also funded a Summit for Latino Public Radio which took place 
in September 2002 in Rohnert Park, California, home of the first Latino 
Public Radio station. These Summits have expanded the circle of support 
for Native and Latino Public Radio and identified projects that will 
improve efficiency among the stations through collaborations and 
explore new ways of reaching the target audiences.
    CPB plays a very important role for the public and Community Radio 
system. They are the convener of discussions on critical issues facing 
us as a system. They support research so that we have a better 
understanding of how we are serving listeners. And they provide funding 
to programming, new ventures, expansion to new listeners, and projects 
that improve the efficiency of the system. This is particularly 
important at a time when there are so many changes in the radio and 
media environment with new distribution technologies and media 
consolidation. An example of this support is the grant that NFCB 
received to update and publish our Public Radio Legal Handbook online. 
This provides easy-to-read information to stations about complying with 
governmental regulations so that stations can function legally and use 
their precious resources for programming instead of legal fees.
    Finally, Community Radio supports $45 million in fiscal year 2006 
for conversion to digital broadcasting by public radio and 
television.--It is critical that this digital funding be in addition to 
the on-going operational support that CPB provides. The President's 
proposal that digital money should be taken from the fiscal year 2006 
CPB appropriation would effectively cut stations' grants by more than 
25 percent. This would have a devastating impact as stations trying to 
recover from hard economic times. And it would come at a time when the 
local voices of community and public radio are especially important to 
notify and support people during emergency situations and to help 
communities deal with the loss of loved ones--things that commercial 
radio is no longer able to do because of media consolidation.
    While public television's digital conversion needs are mandated by 
the FCC, public radio is converting to digital to provide more public 
service and to keep up with what commercial radio is doing. The Federal 
Communications Commission has approved a standard for digital radio 
transmission. CPB has provided funding for 301 transmitters in 42 
states to convert to digital, is supporting additional research on AM 
radio conversion, and is working with radio transmitter and receiver 
manufacturers to build in the capacity to provide a second channel of 
programming. Most exciting to public and community radio is the 
encouraging results of tests that National Public Radio has conducted, 
with funding from CPB, that indicate that stations can broadcast two 
high-quality signals, even while they continue to provide the analog 
signal. The development of second audio channels will potentially 
double the public service that public radio can provide, particularly 
in service to unserved and underserved communities. This initial 
funding still leaves more than 500 radio transmitters that will 
ultimately need to convert to digital or be left behind.
    Federal funds distributed by the CPB should be available to all 
public radio stations eligible for Federal equipment support through 
the Public Telecommunications Facilities Program (PTFP) of the National 
Telecommunications and Information Agency of the Department of 
Commerce. In previous years, Federal support for public radio has been 
distributed through the PTFP grant program. The PTFP criteria for 
funding are exacting, but allow for wider participation among public 
stations. Stations eligible for PTFP funding and not for CPB funding 
include small-budget, rural and minority controlled stations and the 
new Low Power FM service.
    Community Radio also supports funding for the public television 
interconnection system. Interconnection is vital to the delivery of the 
high quality programming that public broadcasting provides to the 
American people.
    We appreciate Congress' direction to CPB that it utilize its 
digital conversion fund for both radio and television and ask that you 
ensure that the funds are used for both media. Congress stated, with 
regard to fiscal year 2000 digital conversion funds:

    ``The required (digital) conversion will impose enormous costs on 
both individual stations and the public broadcasting system as a whole. 
Because television and radio infrastructures are closely linked, the 
conversion of television to digital will create immediate costs not 
only for television, but also for public radio stations (emphasis 
added). Therefore, the Committee has included $15,000,000 to assist 
radio stations and television stations in the conversion to 
digitalization . . . .'' (S. Rpt. 105-300)

    This is a period of tremendous change. Digital is transforming the 
way we do things; new distribution avenues like digital satellite 
broadcasting and the Internet are changing how we define the business 
we are in; the concentration of ownership in commercial radio makes 
public radio in general, and Community Radio in particular, more 
important as a local voice than we have ever been. New Low Power FM 
stations are providing new local voices in their communities. Community 
radio is providing essential local emergency information, programming 
about the local impact of the major global events taking place, 
culturally appropriate information and entertainment in the language of 
the native culture, as well as helping to preserve cultures that are 
dying out.
    During this time, the role of CPB as a convener of the system 
becomes even more important. The funding that it provides will allow 
the smaller stations to participate along with the larger stations 
which have more resources, as we move into a new era of communications.
    Thank you for your consideration of our testimony. If the 
Subcommittee has any questions or needs to follow-up on any of the 
points expressed above, please contact: Carol Pierson, President and 
CEO, National Federation of Community Broadcasters, Telephone: 510 451-
8200 Fax: 510-451-8208 E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b2d1d3c0dddef2dcd4d1d09cddc0d5">[email&#160;protected]</a>
    The NFCB is a 30-year-old grassroots organization which was 
established by, and continues to be supported by, our member stations. 
Large and small, rural and urban, the NFCB member stations are 
distinguished by their commitment to local programming, community 
participation and support. NFCB's 257 members come from across the 
United States, from Alaska to Florida, from every major market to the 
smallest Native American reservation. While the urban member stations 
provide alternative programming to communities that include New York, 
Minneapolis, San Francisco and other major markets, the rural members 
are often the sole source of local and national daily news and 
information in their communities. NFCB's membership reflects the true 
diversity of the American population: 41 percent of the members serve 
rural communities and 46 percent are minority radio services.
    On Community Radio stations' airwaves examples of localism abound: 
on KWSO in Warm Springs, Oregon, you will hear morning drive programs 
in their Native language; throughout the California farming areas in 
the central valley, Radio Bilingue programs five stations targeting 
low-income farm workers; in Chevak, Alaska, on KCUK you will hear the 
local weather reports and public service announcements in Cup'ik/Yup'ik 
Eskimo; in Dunmore, West Virginia, you will hear coverage of the local 
school board and county commission meetings; KABR in Alamo, New Mexico 
serves its small isolated Native American population with programming 
almost exclusively in Navajo; and on WWOZ you can hear the sounds and 
culture of New Orleans throughout the day and night.
    In 1949 the first Community Radio station went on the air. From 
that day forward, Community Radio stations have been reliant on their 
local community for support. Today, many stations are partially funded 
through the Corporation for Public Broadcasting grant programs. CPB 
funds represent under10 percent of the larger stations' budgets, but 
can represent up to 50 percent of the budget of the smallest rural 
stations.
                                 ______
                                 
    Prepared Statement of the National Minority Public Broadcasting 
                               Consortia

  --National Asian American Telecommunications Association
  --National Black Programming Consortium
  --Latino Public Broadcasting Project
  --Native American Public Telecommunications
  --Pacific Islanders in Communications
    The National Minority Public Broadcasting Consortia (Minority 
Consortia) submits this statement on the fiscal year 2008 appropriation 
for the Corporation for Public Broadcasting (CPB) and CPB's fiscal year 
2006 digital conversion funding. Our primary missions are to bring a 
significant amount of programming from our communities into the 
mainstream of PBS and public broadcasting. In summary, we ask the 
Committee to:
  --Encourage CPB to increase its efforts for diverse programming with 
        commensurate increases for minority programming and the 
        Minority Consortia;
  --Encourage CPB to continue its support for the Native radio system;
  --Reject the Administration's proposal to end advance funding for the 
        Corporation for Public Broadcasting;
  --Reject the Administration's proposal to divert $82 million of 
        already-appropriated fiscal year 2006 funds to digital 
        conversion and satellite interconnection and to rescind an 
        additional $10 million;
  --Recommend at least $430 million for CPB core funding for fiscal 
        year 2008, a $30 million increase over fiscal year 2007;
  --Support CPB's request of $45 million in fiscal year 2006 funds for 
        digital conversion, but require that some of it be made 
        available to independent producers. Also support CPB request of 
        $52 million for the interconnection system for public radio and 
        television.
    We are dismayed at the Administration's continued proposals 
regarding public broadcasting. The quality gap between network 
television and public television has never been wider, and it continues 
to grow with each new ``reality'' show. Administration proposals to end 
forward funding of CPB and to divert already appropriated funds would 
dramatically reduce the development of programming for public 
broadcasting.
    Advance Funding.--We strongly oppose the Administration's proposal 
that the advance funding for CPB be eliminated, a proposal that would 
stop CPB funding for two years. We appreciate that Congress has 
rejected this proposal each of the last four years. Reasons to continue 
advance funding for CPB include:
  --The production of programming for public broadcasting usually takes 
        several years and substantial lead time is needed for planning.
  --Public broadcasting programs are supported by multiple funding 
        sources, and two years advance knowledge of the amount of 
        federal funding allows CPB to better leverage its federal funds 
        to bring in other sources of revenue.
  --The Minority Consortia administers a significant amount of CPB 
        programming monies, and elimination of advance funding would 
        negatively affect our organizations' planning and fundraising 
        activities.
    Proposed Diversion of Fiscal Year 2006 CPB Funds.--We are extremely 
concerned about the Administration's proposal to rescind $10 million 
and divert an additional $82 million of already appropriated fiscal 
year 2006 CPB funds to digital conversion and satellite 
interconnection. Such a rescission/diversion of funds would wreck havoc 
on our organizations and the independent producers that we help support 
as well as many radio and television stations. We would be faced with a 
25 percent reduction of CPB funds should Congress approve this proposal 
by the Administration.
    CPB Fiscal Year 2008 Appropriation.--We support a fiscal year 2008 
federal appropriation for CPB of at least $430 million. This would be a 
reasonable, albeit modest, contribution toward our national treasure of 
public broadcasting. The debate of the past several years regarding 
public television and public radio has highlighted the great esteem in 
which they are held.
    Public broadcasting, including PBS and NPR, is particularly 
important for our nation's growing minority and ethnic communities. 
While there is a niche in the commercial broadcast and cable world for 
quality programming about our communities and our concerns, it is in 
the public broadcasting industry where minority communities and 
producers are more able to bring quality programming for national 
audiences. Additionally, public television and radio is universally 
available.
    Digital Conversion Assistance.--We support CPB's request for $45 
million in fiscal year 2006 funds for digital conversion funding for 
CPB.
    With stations able to broadcast on multiple channels, there will be 
a need for a tremendous amount of new, quality public broadcasting 
programming. There are costs involved in the conversion which go beyond 
the significant equipment and hardware needs of stations. It will also 
take additional money to produce programming for digital broadcast. All 
producers face these new, higher costs.
    Part of the equation in bringing more high quality diverse 
programming to public broadcasting is that independent producers be 
able to transition to digital production. Federal funding for digital 
conversion should include assistance for independent producers.
    About the National Minority Public Broadcasting Consortia.--With 
primary funding from the Corporation for Public Broadcasting, the 
Minority Consortia serves as an important component of American public 
television. By training and mentoring the next generation of minority 
producers and program managers we are able to ensure the future 
strength of public television and radio television programming from our 
communities. Individually, each Consortia organization is engaged in 
cultivating ongoing relationships with the independent producer 
community by providing technical assistance, program funding, 
programming support and distribution. We also provide numerous hours of 
programming to individual public television and radio stations.
    Through our outreach we help bring an awareness of the value of 
public media among communities which have historically been untapped by 
public television. Through innovative outreach campaigns, local 
screenings of works destined for public television, and promotion of 
web-based information and programming, communities of color are 
embraced rather than ignored. The Minority Consortia's work in 
educational distribution further increases the value of public 
television programming by sharing its works with thousands of students.
    While the Consortia organizations work on projects specific to 
their communities, the five organizations also work collaboratively. 
One example is our joint effort on the public television four-part 
series, Matters of Race that aired in the Fall of 2003. That series 
explored the complexity of our rapidly changing multiracial, 
multicultural society in America. The project resulted in more than 
television programming. The project was designed so that modules could 
be pulled out for classroom use. It was also formatted for radio 
broadcast and for the internet, and included extended interviews. This 
project provided a great opportunity for extensive and diverse 
community outreach and collaboration throughout its development, 
distribution, and use.
    We also worked with American Public Television on 6 one-hour 
programs (named Colorvision) featuring the work of Native American, 
Asian American, Pacific Islander, Latino and African American 
filmmakers and television producers. It is now in national distribution 
for all public television stations.
    The programming we, both as individual organizations and 
collaboratively, help bring to public television is beyond the 
production reach of most local television stations. We support the 
bill's proposal for increased funding for the production of local 
programming but believe there is also a great need for increased 
funding for major programming efforts such as those we and other 
independent producers undertake.
    From 1997 to 2002, the Minority Consortia delivered over 88.5 hours 
of quality public television programming. Collectively, we have also 
funded 250 projects and 440 producers/directors. These accomplishments 
have been recognized with over 123 prestigious national and regional 
awards, including numerous Emmys. While most of our work is focused on 
film, of note is that the Native American Public Telecommunications 
(NAPT) also works in the area of public radio. NAPT developed the 
Native American public radio satellite network (AIROS) that provides 
live radio streaming 24 hours a day to over 70 Native American and 
mainstream public radio stations in the United States (including 
Alaska).
    CPB Funds for the Minority Consortia.--The National Minority Public 
Broadcasting Consortia currently receives funds from two portions of 
the CPB budget, organization support funds from the Systems Support and 
programming funds from the Television Programming sections. CPB 
financial support is critical to the work of our organizations. We 
believe that we make a major contribution to public broadcasting with a 
very modest amount of funding, but there is so much more that should be 
done.
    The organizational support funds we receive from CPB are used not 
only for operations requirements but for also for a broad array of 
programming support activities and for outreach to our communities. We 
received $2 million in fiscal year 2005 CPB funds for organizational 
support ($400,000 for each organization). This represents 0.51 percent 
of the fiscal year 2005 CPB appropriation. We have received only very 
small increases in operations support funds in the past several years.
    The programming funds we receive from CPB are re-granted to 
producers, used for purchase of broadcast rights and other related 
programming activities. Each organization solicits applications from 
our communities for these programming funds. We received $3.1 million 
in fiscal year 2005 CPB funds for programming ($636,363 for each 
organization). This represents 0.81 percent of the fiscal year 2004 CPB 
appropriation. Our CPB programming funds have remained virtually flat 
over the past nine years, despite increases in CPB appropriations.
    The Minority Consortia works closely with CPB. We value our 
relationship with CPB and appreciate the financial and technical 
assistance provided to us by that organization. We do not doubt CPB's 
commitment to increasing the diversity of programming on public 
television and radio but also believe they can do more with the 
resources at hand. The oft-stated commitment of CPB and Congress for 
increased multicultural programming combined with seven years of 
funding increases should translate into significant progress. We ask 
this Committee to urge CPB to increase its support for the Minority 
Consortia as part of an effort to bring more quality multicultural 
programming to public television.
    Native Radio.--Native American Public Telecommunications--one of 
the five Minority Consortia organizations--works with both the radio 
and television sides of public broadcasting. NAPT operates American 
Indian Radio on Satellite (AIROS) which distributes programming to 
Native-owned and other radio stations. Koahnic Broadcasting 
Corporation, headquartered in Alaska, also produces and distributes 
Native American programming.
    Native-owned radio is the fastest growing area of community radio. 
There are currently 33 Native-owned stations, all but one of which is 
located in Indian country. We greatly appreciate CPB's central role in 
the establishment late last year of the Center for Native American 
Public Radio (CNAPR), an organization that will provide technical and 
other services to Native radio stations. CNAPR's mission also includes 
developing new sources of revenue for the Indian radio system and being 
an advocate for Native radio. CPB is providing $1.5 million over a 
three-year period for CNAPR.
    We ask that this Committee urge CPB to continue its support for 
Native radio.
    Thank you for your consideration of our recommendations. We see new 
opportunities to increase diversity in programming, production, 
audience, and employment in the new media environment, and thank you 
for your long time support of our work on behalf of our communities.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Academic Family Medicine Advocacy Alliance, prepared statement...   397
AIDS Action, prepared statement..................................   401
Alamo Navajo School Board, Inc., prepared statement..............   622
Alexander, Dr. Duane, Director, National Institute of Child 
  Health and Human Development, NIH, DHHS, prepared statement....   207
Alpha-1 Foundation, prepared statement...........................   497
Alving, Dr. Barbara, Acting Director, National Center for 
  Research Resources, prepared statement.........................   205
American:
    Academy of:
        Family Physicians, prepared statement....................   405
        Pediatrics, prepared statement...........................   407
        Physician Assistants, prepared statement.................   412
    Association:
        For Geriatric Psychiatry, prepared statement.............   500
        Of:
            Colleges of Nursing, prepared statement..............   625
            Nurse Anesthetists (AANA), prepared statement........   415
    Autoimmune Related Diseases Association, prepared statement..   505
    Brain Coalition, prepared statement..........................   506
    Chemical Society, prepared statement.........................   629
    College of:
        Cardiology, prepared statement...........................   508
        Obstetricians and Gynecologists, prepared statement......   418
        Rheumatology, prepared statement.........................   630
    Dental:
        Education Association, prepared statement................   632
        Hygienists' Association, prepared statement..............   509
    Diabetes Association, prepared statement.....................   512
    Geological Institute, prepared statement.....................   635
    Heart Association, prepared statement........................   421
    Indian Higher Education Consortium, prepared statement.......   636
    Lung Association, prepared statement.........................   514
    Nurses Association, prepared statement.......................   427
    Psychological:
        Association, prepared statement..........................   517
        Society, prepared statement..............................   520
    Public Health Association (APHA), prepared statement.........   430
    Society:
        For Microbiology, prepared statements..................528, 531
        Of Hematology, prepared statement........................   525
    Thoracic Society, prepared statement.........................   534
Americans:
    For Nursing Shortage Relief Alliance, prepared statement.....   425
    For the Arts, prepared statement.............................   362
Andrew von Eschenbach, M.D., Director, National Cancer Institute, 
  National Institutes of Health, Department of Health and Human 
  Services.......................................................   177
Association of:
    Academic Health Sciences Libraries, prepared statement.......   651
    Maternal and Child Health Programs, prepared statement.......   433
    Minority Health Professions Schools, prepared statement......   639
    University Centers on Disabilities, prepared statement.......   642
    Women's Health, Obstetric and Neonatal Nurses, prepared 
      statement..................................................   437

Battey, James F., Jr., M.D., Ph.D., Director, National Institute 
  on Deafness and Other Communication Disorders, National 
  Institutes of Health, Department of Health and Human Services..   177
Berg, Dr. Jeremy M., Director, National Institute of General 
  Medical Sciences, NIH, DHHS, prepared statement................   210
Blue Cross and Blue Shield Association, prepared statement.......   441
Boaz, David, Executive Vice President, Cato Institute............   334
    Prepared statement...........................................   335
Byrd, Senator Robert C., U.S. Senator from West Virginia, 
  question submitted by..........................................    71

Centers for Disease Control and Prevention (CDC) Coalition, 
  prepared statement.............................................   537
Chao, Elaine L., Secretary, Office of the Secretary, Department 
  of Labor.......................................................    73
    Prepared statement...........................................    75
    Summary statement............................................    75
Charcot-Marie-Tooth Association (CMTA), prepared statement.......   541
Charles R. Drew University of Medicine and Science, prepared 
  statement......................................................   644
Coalition:
    For:
        American Trauma Care, prepared statement.................   542
        Health Funding, prepared statement.......................   545
    Of Northeastern Governors, prepared statement................   443
Cochran, Senator Thad, U.S. Senator from Mississippi, opening 
  statements.................................................7, 74, 267
Collins, Dr. Francis S., Director, National Human Genome Research 
  Institute, NIH, DHHS, prepared statement.......................   212
Community Medical Centers, prepared statement....................   444
Council of State:
    Administrators of Vocational Rehabilitation (CSAVR), prepared 
      statement..................................................   646
    And Territorial Epidemiologists, prepared statement..........   445
Crohn's and Colitis Foundation of America, prepared statement....   549

Developmental Disabilities Research Centers Association, prepared 
  statement......................................................   550
DeWine, Senator Mike, U.S. Senator from Ohio:
    Questions submitted by.......................................    50
    Statement of.................................................   194
Dickman, Martin J., Inspector General, Railroad Retirement Board, 
  prepared statement.............................................   382
Digestive Disease National Coalition, prepared statement.........   554
Doris Day Animal League, prepared statement......................   557
Durbin, Senator Richard J., U.S. Senator from Illinois:
    Prepared statement...........................................   338
    Questions submitted by.....................................140, 314
    Statement of.................................................   199
Dystonia Medical Research Foundation, prepared statement.........   559

FacioScapuloHumeral Muscular Dystrophy Society, Incorporated (FSH 
  Society, Inc.), prepared statement.............................   562
Fauci, Anthony S., M.D., Director, National Institute of Allergy 
  and Infectious Diseases, National Institutes of Health, 
  Department of Health and Human Services........................   177
    Prepared statement...........................................   198
Federation of American Societies for Experimental Biology, 
  prepared statement.............................................   567
Florida Department of Education, prepared statement..............   648
Friends of the:
    Health Resources and Services Administration (HRSA), prepared 
      statement..................................................   449
    National Institute:
        Of Environmental Health Sciences (NIEHS), prepared 
          statement..............................................   570
        On Drug Abuse Coalition, prepared statement..............   571
Gallaudet University, prepared statement.........................   649
Grady, Dr. Patricia A., Director, National Institute of Nursing 
  Research, prepared statement...................................   215
Gregg, Senator Judd, U.S. Senator from New Hampshire, questions 
  submitted by...................................................   306

Harkin, Senator Tom, U.S. Senator from Iowa:
    Opening statements......................................20, 87, 178
    Questions submitted by.................................52, 107, 307
Harrison, Patricia, President and Chief Executive Officer, 
  Corporation for Public Broadcasting............................   320
    Prepared statement...........................................   321
Heart Rhythm Society, prepared statement.........................   575
Hemophilia Federation of America, prepared statement.............   576
Hepatitis Foundation International, prepared statement...........   578
Hodes, Dr. Richard J., Director, National Institute on Aging, 
  NIH, DHHS, prepared statement..................................   217
Hrynkow, Dr. Sharon H., Acting Director, Fogarty International 
  Center, NIH, DHHS, prepared statement..........................   220
Humane Society of the United States, prepared statement..........   490

Inouye, Senator Daniel K., U.S. Senator from Hawaii:
    Prepared statement...........................................   344
    Questions submitted by.................................56, 137, 308
    Statement of.................................................   342
Insel, Dr. Thomas R., Director, National Institute of Mental 
  Health, NIH, DHHS, prepared statement..........................   223
International Foundation for Functional Gastrointestinal 
  Disorders, prepared statement..................................   580
InterTribal Bison Cooperative, prepared statement................   452

Jones, C. Todd, Associate Deputy Secretary for Budget and 
  Strategic Accountability, Department of Education..............     1

Katz, Dr. Stephen I., Director, National Institute of Arthritis 
  and Musculoskeletal and Skin Diseases, NIH, DHHS, prepared 
  statement......................................................   225
Kohl, Senator Herb, U.S. Senator from Ohio, questions submitted 
  by............................................................312, 57

Landis, Dr. Story C., Director, National Institute of 
  Neurological Disorders and Stroke, NIH, DHHS, prepared 
  statement......................................................   232
Landrieu, Senator Mary L., U.S. Senator from Louisiana:
    Prepared statement...........................................    35
    Questions submitted by.......................................    67
Lawson, John M., President and Chief Executive Officer, 
  Association of Public Television Stations......................   329
    Prepared statement...........................................   331
Leavitt, Michael O., Secretary, Office of the Secretary, 
  Department of Health and Human Services........................   177
    Prepared statement...........................................   180
    Summary statement............................................   179
Li, Dr. Ting-Kai, Director, National Institute on Alcohol Abuse 
  and Alcoholism, NIH, DHHS, prepared statement..................   228
Lindberg, Dr. Donald A.B., Director, National Library of 
  Medicine, NIH, DHHS, prepared statement........................   234
Lummi Indian Nation, prepared statement..........................   454
Lymphoma Research Foundation, prepared statement.................   583

March of Dimes Birth Defects Foundation, prepared statement......   586
Medical Library Association, prepared statement..................   651
Mended Hearts, Inc., prepared statement..........................   585
Mitchell, Hon. Pat, President and Chief Executive Officer, Public 
  Broadcasting Service...........................................   325
    Prepared statement...........................................   326
Motivation, Education and Training, Inc., prepared statement.....   385
Murray, Senator Patty, U.S. Senator from Washington:
    Questions submitted by......................................59, 138
    Statement of.................................................   196

Nabel, Elizabeth G., M.D., Director, National Heart, Lung, and 
  Blood Institute, NIH, DHHS, prepared statement.................   238
National AHEC Organization, prepared statement...................   657
National:
    Association of:
        Children's Hospitals, prepared statement.................   654
        County and City Health Officials, prepared statement.....   457
        Foster Grandparent Program Directors, prepared statement.   459
        Home Builders, prepared statement........................   386
    Coalition for:
        Heart and Stroke Research, prepared statement............   590
        Homeless Veterans, prepared statement....................   388
    Education Knowledge Industry Association, prepared statement.   664
    Federation of Community Broadcasters, prepared statement.....   672
    Hemophilia Foundation, prepared statement....................   592
    Job Corps Association, Inc., prepared statement..............   392
    League for Nursing, prepared statement.......................   462
    Mental Health Association, prepared statement................   463
    Minority Public Broadcasting Consortia, prepared statement...   675
    Multiple Sclerosis Society, prepared statement...............   594
    Nursing Centers Consortium, prepared statement...............   467
    Organizations Responding to AIDS (NORA) Coalition, prepared 
      statement..................................................   468
    Prostate Cancer Coalition, prepared statement................   599
    Sleep Foundation, prepared statement.........................   601
NephCure Foundation, prepared statement..........................   597
North American Brain Tumor Coalition, prepared statement.........   473
NTM Info & Research, Inc., prepared statement....................   602

Olden, Dr. Kenneth, Director, National Institute of Environmental 
  Health Sciences, NIH, DHHS, prepared statement.................   240
Oncology Nursing Society, prepared statement.....................   474
Opportunities Industrialization Center of Washington, prepared 
  statement......................................................   390
Ovarian Cancer National Alliance, prepared statement.............   605

Patient Services Incorporated (PSI), prepared statement..........   484
Procter & Gamble Company, prepared statement.....................   477
Pulmonary Hypertension Association, prepared statement...........   607

Reid, Senator Harry, U.S. Senator from Nevada, questions 
  submitted by...................................................   311
Ruffin, Dr. John, Director, National Center on Minority Health 
  and Health Disparities, NIH, DHHS, prepared statement..........   243
Rural Opportunities, Inc., prepared statement....................   396

Schwartz, Michael S., Chairman, Railroad Retirement Board, 
  prepared statement.............................................   380
Science, Technology, Engineering, and Mathematics (STEM) 
  Education Coalition, prepared statement........................   665
Sieving, Dr. Paul, Director, National Eye Institute, NIH, DHHS, 
  prepared statement.............................................   246
Skelly, Thomas, Director, Budget Service, Department of Education     1
    Summary statement............................................    29
Society for:
    Animal Protective Legislation, prepared statement............   479
    Investigative Dermatology, prepared statement................   615
    Neuroscience, prepared statement.............................   488
    Nuclear Medicine, prepared statement.........................   610
Specter, Senator Arlen, U.S. Senator from Pennsylvania:
    Opening statements..................................1, 73, 177, 317
    Prepared statements.........................................74, 178
    Questions submitted by.............................37, 97, 288, 365
Spellings, Margaret, Secretary, Office of the Secretary, 
  Department of Education........................................     1
    Prepared Statement...........................................     5
    Summary statement............................................     2
Spiegel, Dr. Allen M., Director, National Institute of Diabetes 
  and Digestive and Kidney Diseases, NIH, DHHS, prepared 
  statement......................................................   248
Spina Bifida Association of America, prepared statement..........   612
State Educational Technology Directors Association (SETDA), 
  prepared statement.............................................   660
Stevens, Senator Ted, U.S. Senator from Alaska, statement of.....   341
Straus, Dr. Stephen E., Director, National Center for 
  Complementary and Alternative Medicine, NIH, DHHS, prepared 
  statement......................................................   250

Tabak, Dr. Lawrence A., Director, National Institute of Dental 
  and Craniofacial Research, NIH, DHHS, prepared statement.......   253
Teach For America, prepared statement............................   666
The National Alliance for Eye and Vision Research, prepared 
  statement......................................................   284
Tomlinson, Kenneth Y., Chairman, Board of Directors, Corporation 
  for Public Broadcasting........................................   317
    Prepared statement...........................................   318
    Summary statement............................................   318
Tri-Council for Nursing, prepared statement......................   482

United Tribes Technical College, prepared statement..............   669
Upper County Branch of the Montgomery County, Maryland Stroke 
  Club, prepared statement.......................................   621

Voices for National Service, prepared statement..................   492

Weems, Kerry, Acting Assistant Secretary for Budget, Technology, 
  and Finance, Department of Health and Human Services...........   177
Whitescarver, Dr. Jack, Director, Office of AIDS Research, NIH, 
  DHHS, prepared statement.......................................   255
Women's Health Research Coalition, prepared statement............   617

Young, Jennifer, Assistant Secretary for Legislation, Department 
  of Health and Human Services...................................   177

Zerhouni, Elias, M.D., Director, National Institutes of Health, 
  Department of Health and Human Services........................   177
    Prepared statement...........................................   190
    Summary statement............................................   179


                             SUBJECT INDEX

                              ----------                              

                  CORPORATION FOR PUBLIC BROADCASTING

                                                                   Page

Audience Demographics............................................   342
Bill Moyers......................................................   351
CPB:
    Advance Funding..............................................   332
    Digital......................................................   333
        Transition Funds.........................................   331
    Interconnection Request......................................   352
    Polling......................................................   354
    Use of Consultants....................................354, 355, 359
Digital Conversion...............................................   349
House:
    Action.......................................................   332
    Appropriation Bill...........................................   341
Importance of Federal Funding....................................   344
Journal Editorial Report.........................................   355
Next Generation Interconnection System.........................331, 333
``Now With Bill Moyers''.......................................355, 357
Patricia Harrison Background.....................................   358
Political Balance in Public Broadcasting.........................   345
Public Television Interconnection System.........................   348
Ready to Learn, Ready to Teach.................................331, 333
The Digital Age..................................................   332
Voice of America.................................................   356

                        DEPARTMENT OF EDUCATION

                        Office of the Secretary

Accountability Under High School Intervention Initiative.........    38
Adequacy of NCLB Funding--Studies Supporting.....................    52
Adjunct Teachers and Highly Qualified Teachers...................    41
Adult Education..................................................    42
    Research.....................................................    55
    State Grants.................................................    55
Advanced Placement...............................................    38
Arts in Education................................................    39
Assistive Technology State Grant Program.........................    53
Charter Schools..................................................    56
Civic Education..................................................    43
College:
    Affordability................................................     4
    Enrollment Gap--Federal Trio and Gear Up Programs............    48
Community College Access Grants..................................     4
Comprehensive Centers............................................    54
Continuing Priorities............................................  4, 6
Contracts With Public Relations Firms, Advertising Agencies, and 
  the Media in Fiscal Year 2006..................................    32
Core Components of Reading Instruction...........................    39
Cost of Assessments..............................................    37
D.C.:
    Voucher Program..............................................    59
        Evaluaton................................................    60
Disadvantaged High School Students...............................    61
E-Rate...........................................................    58
Education Programs Proposed for Budget Cuts......................    67
Educational Technology...........................................    40
Effects of Proposed High School Initiative.......................    61
Elementary and Secondary School Counseling Program...............    66
Elimination of Small Programs....................................    30
Enhanced Assessment Instruments Grants...........................    55
Even Start and Family Literacy...................................    41
Evidence on the Effectiveness of the Regional Labs...............    54
Expanding Options for Student and Parents........................     6
Federal Share of Education Funding...............................     8
Foreign Language Assistance Program..............................    20
Funding for:
    Community Colleges...........................................    26
    No Child Left Behind.........................................    57
Future of Vocational Education...................................    57
Grants for Enhanced:
    Assessment Instruments.......................................    32
    Assessments..................................................    34
High School:
    Assessments..................................................37, 53
    Initiative...................................................    22
    Intervention.................................................    62
        Initiative............................................... 3, 49
        Program and Striving Readers.............................    62
        Preparedness.............................................    60
    Reform.......................................................  2, 5
Highly Qualified Special Educators...............................    44
Immigrant:
    Education....................................................    71
    Literacy.....................................................    65
Impact:
    Of the Advanced Placement Program............................    38
    On Wisconsin Pell Grant Recipients of Revised Tax Tables.....    28
Improving Teacher Quality State Grants...........................    66
Information Collection and Reporting Requirements................    51
Leveraging Educational Assistance Partnerships...................    40
Loans for Short-Term Training....................................    47
Math and Science Partnerships Program............................    42
Native Hawaiian Education........................................    56
New Budget Resources.............................................    37
No Child Left Behind.............................................     6
    And Flexibility..............................................    48
    Requirements.................................................    22
Outreach and Communication on Federal Programs...................    32
Parental Information and Resource Centers........................    46
Pell Grant Eligibility and Tax Tables............................    27
Pell Grants......................................................27, 47
Per Pupil Education Costs in the United States...................    70
Perkins Vocational Education and Perkins Loan Programs...........    56
Presidential Math and Science Scholars...........................     4
Program:
    Reductions:..................................................
        And Departmental Staffing................................    29
        (Description)............................................    16
    Terminations (Descriptions)..................................    10
Programs Proposed for:
    Elimination..................................................     9
    Reduction in Fiscal Year 2006................................    16
Proposed:
    Elimination of Vocational Education Funds....................    25
    Program Eliminations.........................................     8
    Reduction:
        In Total Education Funding...............................    21
        To Education Programs....................................    15
        To Federal Education Budget..............................     8
Providing for More Challenging Curricula.........................     3
Public School Choice Requirement of the No Child Left Behind Act.    45
Publicizing the No Child Left Behind Act.........................    31
Raising Reading and Math and Teacher Incentives..................     3
Reading by Third Grade...........................................    71
    Reading First Program........................................    39
Reading First:
    Grants.......................................................    58
    State Grants.................................................     3
Reducing the Deficit and Improving Results.......................  2, 5
Regional Advisory Committee Assessments..........................    55
Rehabilitation Services Administration's Training Program........    63
Robert C. Byrd Scholarships......................................    71
Safe Drug-Free School Communities................................    50
    Uniform Management Information and Reporting System..........    50
School Counseling Services.......................................    67
Special Allowance on Loans Funded From Tax-Exempt Securities.....    62
Special Education:
    Full Funding.................................................    58
    Teacher Shortage.............................................    44
State:
    Programs of Under-Graduate Need-Based Student Grants.........    41
    Scholars Capacity Building...................................    45
Student:
    Aid Administration...........................................    41
    Loan Programs................................................    24
Teacher:
    Incentive Fund...............................................    47
        And Teacher Training.....................................    47
    Quality Enhancement Program..................................65, 66
    State Grants and Competitive Grants..........................    51
Title IV Information Collection and Reporting Requirements.......    50
Transition to Teaching Program...................................    66
TRIO Programs....................................................    31
U.S. Constitution Initiative.....................................    34
Upward Bound, Talent Search and Gear Up Program Assessments......    49
Use of Authorizing and Appropriations Processes..................    23
Vocational:
    Education Funds..............................................    27
    Technical Education--Postsecondary Students Attainment and 
      Completion Targets.........................................    64

                          DEPARTMENT OF LABOR

                        Office of the Secretary

Appalachian Council and the Working for America Institute........    85
Asbestos Violations..............................................    86
Association Health Plan Legislation..............................   105
Budget Request...................................................    74
Child Labor:
    Issue........................................................    96
    Violations...................................................    90
Civil Monetary Penalties for Violations of FLSA..................   105
Community College Grants.........................................    98
Faith Based:
    Community Initiatives........................................   103
    Initiative...................................................    86
Fewer Workers Trained............................................   143
Fiscal Year 2006 Priorities......................................    76
H-1B Skills Training Grants......................................   105
H-2A Enforcement.................................................   138
Halliburton......................................................    89
High Growth Job Training:
    Initiative...................................................   111
    Program......................................................    95
International Labor Affairs Bureau...............................    92
Job Corps........................................................   109
    Management Fee...............................................    98
    Program......................................................    83
Legislative Savings..............................................   100
Loan Guarantee...................................................    83
Medical Leave Program............................................    81
Migrant Farm Workers.............................................    88
MSHA Cost Dust Monitors..........................................   104
National:
    Agricultural Workers Study (NAWS)............................   107
    Emergency Grants.............................................   108
    Farmworker Jobs Program......................................   106
    Labor Market Information.....................................   109
Nursing Shortage in Rural Areas..................................   137
ODEP MOU With SBA................................................   107
One-Stop System Electronic Tools.................................    99
OSHA Resources Target Ergonomic Hazards..........................   103
Other Programs...................................................    80
Overhead.........................................................   106
Overtime Regulations.............................................   104
PBGC.............................................................   139
Personal Re-Employment Accounts.................................85, 140
Preparing Workers for New Opportunities..........................    78
President's Budget...............................................    75
Program Administration...........................................    98
Proposed Change to CES Survey....................................   141
Protecting:
    Veterans' Employment Rights..................................    78
    Workers......................................................    76
        Pay, Benefits, and Union Dues............................    76
Recent Accomplishments...........................................    76
Retirement.......................................................    95
Sanitary Facilities and Female Education.........................   108
Social Security..................................................    96
Substance Abuse Treatment Workforce..............................    97
Unemployed.......................................................    88
    Rate.........................................................    95
Veterans.........................................................    88
Worker Overtime Protection.......................................   140
Workforce Challenges.............................................    88
Youthful Offender Program........................................    82

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                     National Institutes of Health

A Vision for the Future of the NHLBI.............................   238
About NAEVR......................................................   284
Advanced Technology Initiatives..................................   203
Advances in Transplantation Research.............................   205
Age-Related Macular Degeneration.................................   314
Alzheimer's Disease..............................................   296
    And the Neuroscience of Aging................................   218
Animal Models Predisposed to Environmental Risk..................   241
Arthritis and Other Rheumatic Diseases...........................   227
At the Crossroads................................................   231
Autism...........................................................   242
Avian Influenza..................................................   280
Basic:
    Behavioral Research..........................................   298
    Research.....................................................   234
Behavioral Research..............................................   310
Biodefense:
    And Technology Resources.....................................   206
    Funding......................................................   291
    Research.....................................................   198
Bioengineering: Building a Tooth.................................   254
Biomarkers of Disease............................................   226
Bioterror Threats................................................   290
Blueprint for Neuroscience Research..............................   225
Bone and Musculoskeletal Diseases................................   227
Building Nursing Research Capacity...............................   217
Burden of Mental Illness.........................................   223
Cancer:
    And Ethnicity................................................   309
    Biomedical Informatics Grid..................................   292
    Council of the Pacific Islands...............................   308
    Prevention...................................................   294
    Survivorship.................................................   293
Caring for the Caregivers........................................   216
Cataract.........................................................   247
Challenges and Opportunities.....................................   204
Charting NCCAM'S Future..........................................   253
Chronic Fatigue Syndrome.........................................   311
Clinical:
    Research.....................................................   232
        And Academic Health Centers..............................   294
Community-Based Participatory Research and Outreach..............   245
Complementary and Alternative Medicines..........................   267
Compounds in Mothers' Milk Protect Against Diarrhea..............   208
Comprehensive AIDS Research Plan and Budget......................   257
Computers Model Complex Systems..................................   211
Corneal Diseases.................................................   246
Demography.......................................................   220
Determining the Effects of Acupuncture...........................   251
Developing Advanced Technologies.................................   291
Diversity Drives Discovery.......................................   212
Drug Research and Development....................................   314
Early Diagnosis to Prevent Dental Caries.........................   253
Effort to Improve Relevance of Animal Models.....................   241
Epilepsy Research................................................   312
Examples of Basic and Clinical Research Enhancements.............   250
Expanding the Horizon............................................   212
Explanation of Epigenetic and Genetic Changes....................   277
Exploring Mind-Body Medicine.....................................   251
Eye and Vision Research Responds to the Nation's Top Public 
  Health Challenges and Touches the Lives of all Americans.......   285
Federal:
    Funding for Stem Cell Research...............................   276
    Research Collaborations......................................   245
Fiscal Year 2006:
    Budget Summary...............................................   193
    Initiatives..................................................   222
    NIH AIDS Research By-Pass Budget Estimate....................   194
From:
    Carnivorous Snails to a Novel Pain Treatment.................   211
    The Laboratory Bench to the Patient's Bedside................   248
Funding:
    For Highest Priority Research................................   257
    The War on Cancer............................................   264
Genetic Differences in Susceptibility to Drugs and Environment...   241
Glaucoma and Optic Neuropathies..................................   246
Global Burdens of Ill Health.....................................   221
Guidelines on Ethics.............................................   272
Health:
    Communications and Promotion.................................   220
    Disparities..................................................   247
        In Rural Communities.....................................   216
HIV/AIDS Research................................................   200
Human Cancer Genome Project......................................   282
Impact of Fogarty Programs.......................................   221
In the Pipeline..................................................   229
Influenza........................................................   289
Informatics and Interdisciplinary Science........................   206
Information:
    For Scientists and Health Professionals......................   235
    Services for the Public......................................   236
Interagency Collaborations.......................................   204
International AIDS Research......................................   258
Investigating Dietary Supplements and Foods......................   251
Irritable Bowel Syndrome.........................................   313
K30 Grant Awards.................................................   313
Kids may say Otherwise, but Parents Matter.......................   209
Lab on a Chip: Salivary Diagnostics..............................   254
Loan Repayment and Scholarship Program...........................   192
Long-Term Goal...................................................   202
Lymphoma.........................................................   260
Making the Right Choices.........................................   189
Medication Development...........................................   229
Meeting the Diverse Needs of Selected Populations................   252
Mothers and Their Young Children With Asthma.....................   215
Muscle Diseases..................................................   227
Muscular Dystrophy...............................................   302
    Centers......................................................   301
NAEVR Requests Fiscal Year 2006:
    NEI Funding at $711 Million as Vision Health is a ``Top 
      Priority'' Among Many Priorities...........................   285
    NIH Funding at $30 Billion to Maintain the Momentum of 
      Discovery..................................................   284
Nanotechnology...................................................   243
National:
    Cancer Institute.............................................   264
    Institute for Biomedical Imaging and Bioengineering..........   268
    Institutes of Health Buildings and Facilities Program........   193
Nature of Success Rates..........................................   279
NCMHD Health Disparities Impact..................................   244
Neuroscience and Metabolism......................................   230
New Initiatives..................................................   214
NIH:
    Health Disparities Strategic Plan............................   243
    Neuroscience Blueprint.......................................   248
    Roadmap................................204, 206, 210, 225, 248, 255
        And Environmental Health Research........................   243
        For Medical Research.....................................   190
NINR and the NIH Roadmap.........................................   217
Obesity:
    And the Built Environment....................................   242
    Research.....................................................   288
    Studies Aided by Animal and Clinical Resources...............   205
Office of AIDS Research..........................................   194
    Budget Development Process...................................   195
    By-Pass Budget:
        Estimate.................................................   196
        Priorities...............................................   195
    Comprehensive Plan...........................................   194
Office of Portfolio Analysis and Strategic Initiatives...........   193
OMB Part.........................................................   194
Ongoing NHGRI Initiatives........................................   213
Oral Cancer: Early Detection is Key to Saving Lives..............   254
Other:
    Aging-Related Research.......................................   219
    Areas of Interest............................................   215
Pain: Translating Targets Into Treatments........................   255
Palliative and End-of-Life Care in Rural and Frontier areas......   217
Paradigm-Shifting Ideas and Their Application....................   210
Parkinson's Disease..............................................   242
Participating in Trans-NIH Initiatives...........................   253
Past NEI-Funded Research is Resulting in Treatments and Therapies 
  to Slow the Progression of Vision Loss and Restore Vision......   287
Peer Review on Muscular Dystrophy................................   305
Pending Conflict of Interest Rules...............................   270
Personalized Medicine............................................   292
Polycystic Kidney Disease......................................297, 307
Priority Setting.................................................   223
Proposal to Create the Office of Portfolio Analysis and Strategic 
  Initiatives....................................................   189
Public Access..................................................307, 315
Rehabilitation Networks Seek to Improve Quality of Life..........   209
Research:
    Enhances Learning............................................   208
    In Children..................................................   226
    Leads to Better Health for Women.............................   208
    On:
        Care at the End of Life..................................   216
        Other Emerging and Re-Emerging Infectious Diseases.......   200
        Research on Immune-Mediated Diseases.....................   202
    To Improve Information Products and Infrastructure...........   237
Results From Accelerating our Knowledge..........................   259
Retinal Diseases.................................................   246
Return on Investment.............................................   261
Revealing the Biological Basis of Mental Disorders...............   224
Roadmap for NIH Aids Research....................................   257
Role in the Research Mission.....................................   193
Sister Study of Breast Cancer....................................   242
Skin Diseases....................................................   228
Spinal Muscular Atrophy..........................................   300
Stem Cell Research...............................................   275
Stock Divestiture................................................   274
Strabismus, Amblyopia and Visual Processing......................   247
Strategic:
    Goals and Objectives.........................................   267
    Planning and Future Initiatives..............................   206
    Research Initiatives.........................................   203
Success Rates....................................................   261
The:
    Best Pharmaceuticals for Children Act........................   209
    Economic and Societal Costs of Vision Impairment and Eye 
      Disease are Significant; Funding NEI is a Cost-Effective 
      Investment.................................................   287
    Eye is a Unique Biological System Offering Exceptional 
      Experimental Advantages in Which to Conduct Genetic, 
      Neuroscience and Cellular Mechanism Research...............   286
    National Children's Study....................................   209
    NIH:
        Blueprint for Neuroscience Research......................   234
        Roadmap for Medical Research.............................   226
    Office of:
        AIDS Research............................................   190
        Behavioral and Social Sciences Research..................   191
        Disease Prevention.......................................   191
        Research on Women's Health...............................   191
        Science Education........................................   192
    Past, the Present, and the Future for NIH....................   179
    Road Ahead: Merging Scientific Vision and Technology 
      Development................................................   253
    Shapes of Things to Come.....................................   211
    U.S. Epidemic................................................   256
    War on Cancer................................................   260
Theme:
    Four: Communication..........................................   240
    One: Discovery...............................................   238
    Three: Interactions..........................................   239
    Two: Translation.............................................   239
Translational Research...........................................   233
Travel Risks Associated With Avian Influenza.....................   282
Treatments for Recovery..........................................   224
Umbilical Cord Blood Stem Cells..................................   306
Understanding:
    Disease Requires Understanding Normal Function...............   210
    Who Uses CAM and why.........................................   251
Various Sources of Funding.......................................   280
Vision Impairment and Eye Disease is a Major Public Health 
  Problem That Disproportionately Affects the Aging and Minority 
  Populations....................................................   286
Women and Minorities.............................................   258
Work With Publishers.............................................   299
Worldwide Pandemic...............................................   255
Youth:
    At Risk......................................................   230
    Initiative...................................................   231

                        Office of the Secretary

Abstinence.......................................................   202
Access to Health Insurance.......................................   201
Affordable Health Insurance......................................   200
Best Pharmaceuticals for Children Act (BPCA).....................   206
Community Alternative Funding Systems............................   194
Dietary Supplements..............................................   203
Disabled.........................................................   205
Enhancing Public Health and Protecting America...................   183
Flexibility in Medicaid..........................................   195
Flu Vaccine......................................................   192
Global AIDS Fight................................................   206
Head Start.....................................................197, 198
Health:
    IT...........................................................   201
    Savings Accounts.............................................   201
HIV/AIDS Drugs...................................................   195
Improving HHS Management.........................................   187
Iowa Army Ammunition Plant.......................................   189
Medicaid.......................................................179, 200
    And Medicare.................................................   199
    Funding......................................................   194
    Protection...................................................   187
    Reform.......................................................   200
Medicare Modernization--Part D...................................   191
Migrant Health Centers...........................................   197
Olmstead Act.....................................................   204
On-Patent Drugs..................................................   206
Pandemic Flu Vaccine.............................................   192
Providing Access to Quality Health Care..........................   181
Social Security..................................................   199
Supporting a Compassionate Society...............................   185
Title X..........................................................   201
Treatment of Children With HIV/AIDS..............................   195

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
